<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-798]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-798

       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2013 

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 5856

  AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF DEFENSE FOR THE 
     FISCAL YEAR ENDING SEPTEMBER 30, 2013, AND FOR OTHER PURPOSES

                               __________

                          Department of Defense
                       Nondepartmental Witnesses
                               __________

         Printed for the use of the Committee on Appropriations

   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

72-308 PDF                       WASHINGTON : 2013 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
PATTY MURRAY, Washington             LAMAR ALEXANDER, Tennessee
DIANNE FEINSTEIN, California         SUSAN COLLINS, Maine
RICHARD J. DURBIN, Illinois          LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            LINDSEY GRAHAM, South Carolina
MARY L. LANDRIEU, Louisiana          MARK KIRK, Illinois
JACK REED, Rhode Island              DANIEL COATS, Indiana
FRANK R. LAUTENBERG, New Jersey      ROY BLUNT, Missouri
BEN NELSON, Nebraska                 JERRY MORAN, Kansas
MARK PRYOR, Arkansas                 JOHN HOEVEN, North Dakota
JON TESTER, Montana                  RON JOHNSON, Wisconsin
SHERROD BROWN, Ohio

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

                        Subcommittee on Defense

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
RICHARD J. DURBIN, Illinois          RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         KAY BAILEY HUTCHISON, Texas
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
HERB KOHL, Wisconsin                 SUSAN COLLINS, Maine
PATTY MURRAY, Washington             LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            LINDSEY GRAHAM, South Carolina
JACK REED, Rhode Island              DANIEL COATS, Indiana

                           Professional Staff

                              Betsy Schmid
                             Colleen Gaydos
                               Katy Hagan
                              Kate Kaufer
                               Erik Raven
                           Jennifer S. Santos
                              Teri Spoutz
                          Andrew Vanlandingham
                       Stewart Holmes (Minority)
                       Alycia Farrell (Minority)
                         Brian Potts (Minority)
                     Rachelle Schroeder (Minority)

                         Administrative Support

                              Rachel Meyer
                             Maria Veklich



                            C O N T E N T S

                              ----------                              

                        Wednesday, March 7, 2012

                                                                   Page

Department of Defense: Department of the Navy: Office of the 
  Secretary......................................................     1

                       Wednesday, March 14, 2012

Department of Defense: Department of the Air Force: Office of the 
  Secretary......................................................    95

                       Wednesday, March 21, 2012

Department of Defense: Department of the Army: Office of the 
  Secretary......................................................   149

                       Wednesday, March 28, 2012

Department of Defense: Medical Health Programs...................   215

                       Wednesday, April 18, 2012

Department of Defense: Missile Defense Agency....................   325

                        Wednesday, May 23, 2012

Department of Defense:
    National Guard...............................................   345
    Reserves.....................................................   387

                        Wednesday, June 6, 2012

Nondepartmental Witnesses........................................   455

                        Wednesday, June 13, 2012

Department of Defense: Office of the Secretary of Defense........   565
 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2013 

                              ----------                              


                        WEDNESDAY, MARCH 7, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:35 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski presiding.
    Present: Senators Mikulski, Kohl, Reed, Cochran, Shelby, 
Collins, Murkowski, and Coats.

                         DEPARTMENT OF DEFENSE

                         Department of the Navy

                        Office of the Secretary

STATEMENT OF HON. RAY MABUS, SECRETARY OF THE NAVY


            opening statement of senator barbara a. mikulski


    Senator Mikulski. Good morning. Today, the subcommittee 
begins its hearings to review the fiscal year 2013 Department 
of the Navy budget. I want to announce that there has been no 
coup. To see me in the chair is, I am sure, a surprise to me as 
much as it is to you. Senator Inouye cannot be here this 
morning for an unexpected reason that arose. So he asked me to 
chair the subcommittee.
    In the spirit of bipartisanship, I think, as characteristic 
of this subcommittee, it will run very smoothly.
    Because we are expecting really active participation from 
members, we are going to stick to the 5-minute rule. Members 
will be recognized in the order of arrival but, of course, 
starting with Senator Cochran.
    What I will do is wait until the very end, ask my questions 
then, and if there are any Inouye questions, I will ask them.
    Secretary of the Navy, Mr. Mabus, it is so good to see you 
again. I have got some questions for you, as you could imagine.
    The Chief of Naval Operations (CNO), Admiral Jonathan W. 
Greenert is here, as well as the Commandant of the Marine 
Corps, General James F. Amos. General Amos, I understand you 
are recovering from surgery, and you and your wife have 
determined that you can appear today. But anything we need to 
do to accommodate your situation, Sir, we will be happy to do 
it.
    We want to thank you for being here. And I am going to just 
move right along. And Senator Cochran, why don't I turn to you 
for an opening statement, and then we can turn directly to 
Secretary Mabus and get on with the hearing. Does that sound 
like a good way to go?


                   statement of senator thad cochran


    Senator Cochran. Madam Chairman, thank you very much. It 
certainly does.
    I am delighted to join you in welcoming this distinguished 
panel of witnesses, former Governor of our State of 
Mississippi, Secretary of the Navy, Ray Mabus, who is doing an 
outstanding job in his new capacity. And Admiral Greenert and 
General Amos, who are leaders of our military forces, Navy and 
Marine Corps forces, we appreciate so much your cooperation 
with our subcommittee in responding to our request to be here 
to review the budget for the Department of the Navy and our 
forces in the fleet and in the Marine Corps. And we look 
forward to our opportunity to question you about the priorities 
that we face.
    Thank you, Madam Chairman.
    Senator Mikulski. Mr. Secretary, fire at will.


              summary statement of the honorable ray mabus


    Mr. Mabus. Senator Mikulski, Senator Cochran, Senator Reed, 
and Senator Coats, let me start by thanking you all for your 
support of the sailors, marines, and civilians in the 
Department of the Navy in ensuring that they get what they need 
to do their mission.
    I also want to say how happy I am to have my wing-man, 
General Amos, back after--yes, I think he is a ``winged man'' 
now, but after his surgery last week. And the fact that he is 
here today shows the level of dedication and resilience that 
the marines have, and the pride that he, I, the CNO, Admiral 
Greenert, take in leading the sailors, marines, and civilians 
of the Department of the Navy, who selflessly serve the United 
States, is exceeded only by the accomplishments of these brave 
people.
    Whatever is asked of them by the American people through 
their Commander in Chief, from Afghanistan to Libya, from 
assisting the stricken people of Japan to assuring open sea 
lanes around the world, from bringing Osama bin Laden to final 
justice to bringing hostages out of wherever they may be hidden 
by terrorists or pirates, they answer the call. They get the 
mission done.
    The CNO, the Commandant, and I are confident that the 
United States Navy and Marine Corps are well-prepared to meet 
the requirements of the new defense strategy, to maintain their 
status as the most formidable expeditionary fighting force the 
world has ever known. No one--no one--should ever doubt the 
ability, capability, or superiority of the Navy-Marine Corps 
team.
    As we reposition after two long ground wars, it was 
essential to review our basic strategic posture. The new 
guidance, developed under the leadership of the President and 
the Secretary of Defense, with the full involvement of every 
Service Secretary and Service Chief, responds to changes in 
global security. The budget presented to implement this 
strategy, which was also arrived at through full collaboration 
of all services, ensures the Navy and Marine Corps will be able 
to fully execute this strategy, while meeting the constraints 
imposed by the Budget Control Act of 2011.
    With this new strategy, which has an understandable focus 
on the Western Pacific and Arabian gulf region, maintains our 
worldwide partnerships and our global presence, using 
innovative, low-cost, light-footprint engagements, it requires 
a Navy-Marine Corps team that is built and ready for any 
eventuality on land, in the air, on and under the world's 
oceans, or in the vast cyber-seas, and operated forward to 
protect American interests, respond to crises, and to deter or, 
if necessary, win wars.
    The impact of two ground wars in the last decade on our 
Navy fleet and its force is unmistakable. A fleet that stood at 
316 ships and an end strength of more than 377,000 sailors on 
September 11, 2001, dropped to 283 ships and close to 49,000 
fewer sailors just 8 years later when I took office.
    This administration has made it a priority to rebuild our 
fleet. Despite the budget constraints imposed under the Budget 
Control Act of 2011, our plan assures that we will have no 
fewer ships at the end of the 5-year budget cycle than we have 
today, although the fleet of fiscal year 2017 will include more 
more-capable ships, equipped with state-of-the-art technology 
and manned, as always, by highly skilled people.
    Although we are presenting one 5-year budget plan, one 
Future Years Defense Plan (FYDP), this is certainly not a one-
FYDP issue. As the defense strategy states, we are building a 
force for 2020.
    In the years beyond the current FYDP, we have a plan to 
grow our fleet and ensure capability and capacity continue to 
match missions. In fact, our plan will have us again across the 
threshold of 300 ships by 2019. Overall, we will fully meet the 
requirements of the new status--of the new strategy and protect 
our industrial base.
    The Marine Corps will also return to its maritime roots and 
resume its traditional role as the Nation's expeditionary force 
in readiness. Our marines will retain the lessons of a decade 
of hard and effective fighting in Iraq and Afghanistan as they 
transition back to a middle-weight amphibious force, optimized 
for forward presence, engagement, and rapid crisis response. We 
will carefully manage the reduction in active duty end strength 
from 202,000 to 182,100 by the end of fiscal year 2016 in order 
to keep faith with our marines and their families to the 
maximum extent possible.
    This restructured Marine Corps, a plan that was arrived at 
after a year and a half of very careful study by the marines, 
will be smaller. But it will be fast; it will be agile; it will 
be lethal. The number of marines in certain critical jobs, like 
special forces and cyber, will be increased, and unit manning 
levels, and thus readiness, will go up.
    Both the Navy and Marine Corps will continue to decrease 
operational vulnerabilities in ways that are cost efficient. 
That means we will maintain our efforts to reduce our 
dependence on foreign oil and use energy more efficiently. 
These efforts have already made us better warfighters. By 
deploying to Afghanistan with solar blankets to charge radios 
and other electrical items, a marine patrol dropped 700 pounds 
in batteries from their packs and decreased the need for risky 
resupply missions.
    Using less fuel in theater can mean fewer fuel convoys, 
which will save lives. For every 50 convoys, we lose a marine, 
killed or wounded. That is too high of a price to pay.
    As much as we have focused on our fleet's assets of ships, 
aircraft, vehicles, and submarines, they don't sail, fly, 
drive, or dive without the men and women who wear the uniform 
and their families. They have taken care of us; they have kept 
the faith with us; and we owe them no less.
    The commitment to sailors, marines, and their families is 
whether they serve 4 or 40 years. It begins the moment they 
raise their hand and take the oath to defend our country. It 
continues through the training and education that spans their 
career. It reaches out to their loved ones because it is not 
just an individual who serves but the entire family.


                           prepared statement


    It supports our wounded warriors with recovery, 
rehabilitation, and reintegration. It continues with transition 
services for our veterans to locate new jobs and the GI bill 
for their continuing education or transfer for a family 
member's education. The list goes on and on and on, as it 
should. Our commitment to sailors and marines can never waver 
and can never end.
    For 236 years, from sail to steam to nuclear, from the USS 
Constitution to the USS Carl Vinson, from Tripoli to Tripoli, 
our maritime warriors have upheld a proud heritage, protected 
our Nation, projected our power, and provided freedom of the 
seas. In the coming years, this new strategy and our plans to 
execute the strategy will assure that our naval heritage not 
only perseveres, but that our Navy and Marine Corps continue to 
prevail.
    Thank you very much.
    [The statement follows:]
                  Prepared Statement of Hon. Ray Mabus
                              introduction
    Chairman Inouye and Senator Cochran, I have the privilege of 
appearing today on behalf of the sailors, marines, and civilians who 
make up the Department of the Navy. This is the fourth year that I have 
been honored to report on the readiness, posture, progress, and 
budgetary requests of the Department. The pride the Commandant of the 
Marine Corps, General James F. Amos; the Chief of Naval Operations 
(CNO), Admiral Jonathan W. Greenert; and I take in leading the 
dedicated men and women of the Department who selflessly serve the 
United States in the air, on land, and at sea is exceeded only by the 
accomplishments of these brave and selfless individuals.
    Whatever is asked of them by the American people through their 
commander in chief--from Afghanistan to Libya, from assisting the 
stricken people of Japan to assuring open sea lanes around the world, 
from bringing Osama bin Laden to final justice to bringing hostages out 
of wherever they may be hidden by terrorists or pirates--they answer 
the call and get the mission done.
    As we pivot away from a decade of war on two fronts in two separate 
nations, the Commandant, CNO, and I are confident that the U.S. Navy 
and the Marine Corps are well-prepared to meet the requirements of the 
new defense strategy and maintain their status as the most formidable 
expeditionary fighting force the world has ever known. No one should 
doubt the ability, capability, or superiority of the Navy-Marine Corps 
team.
    The administration's defense strategic guidance, with its 
understandable focus on the Western Pacific and Arabian gulf region; 
its requirement to maintain our worldwide partnerships; and its call 
for a global presence using innovative, low-cost, light footprint 
engagements requires a Navy-Marine Corps team that is built and ready 
for war--on land, in the air, on and under the world's oceans, or in 
the vast ``cyberspace''--and operated forward to protect American 
interests, respond to crises, and deter and prevent war.
    This new strategy, developed under the leadership of the President 
and the Secretary of Defense, with the full involvement of every 
service Secretary and service Chief, responds to the dynamic global 
security environment, while meeting the constraints imposed under the 
Budget Control Act of 2011 (BCA) passed by the Congress.
    Our ability to meet the demands of this new strategy depends on the 
improvements we have begun and objectives we have set regarding how we 
design, purchase, and build new platforms, combat systems, and 
equipment; increase the development and deployment of unmanned systems 
to provide increased presence and enhanced persistence at lower cost 
and less danger; and how we use, produce and procure energy. Most 
importantly, our efforts and this new strategic guidance, and the 
budget that guidance informs will assure that we continue to keep faith 
with those who serve our country so selflessly and heroically, our 
sailors and marines, civilians, and their families.
                   fiscal year 2013 budget submission
Fleet Size
    On September 11, 2001, the Navy's battle force stood at 316 ships 
and 377,000 sailors. Eight years later when I took office, the battle 
force had fallen by 49,000 sailors, and to 283 ships. Today, 3 years 
into the Obama administration, the fleet increased to 285 ships of all 
types.
    Many have noted that we have the lowest number of battle force 
ships since 1917. But today's ``Fleet'' is best thought of as a fully 
integrated battle network comprised of sensors, manned and unmanned 
platforms, modular payload bays, open architecture combat systems, and 
smart, tech-savvy people. Thus, making comparisons between today's 
``total force battle network'' with the battle force of 1917 is like 
comparing a smart phone to the telegraph. Still, even though the ships 
coming into service today are vastly more capable than their 1917 
predecessors, at some point quantity has a quality of its own. This is 
why building up the number of ships in our Fleet has been a priority 
for this administration from day-one.
    The topline reductions mandated by the BCA made holding to current 
Fleet numbers a difficult challenge. However, I am pleased to report to 
you that we have developed a plan that delivers a Fleet with the same 
number of ships by the end of the future year's defense plan (FYDP), as 
we have today--all while still meeting our fiscal obligation to support 
a responsible end to our ground combat mission in Afghanistan. The 
fiscal year 2013-2017 shipbuilding plan maintains a flexible, balanced 
naval battle force that will be able to prevail in any combat 
situation, including in the most stressing anti-access/area denial (A2/
AD) environments.
    While our ship count stabilizes in this FYDP, our shipbuilding 
plans aim to build a Fleet designed to support the new defense strategy 
and the joint force for 2020 and beyond. The specific requirements for 
this future Fleet will be determined by an ongoing force structure 
assessment, which should be concluded later this year. Regardless of 
the final battle force objective, however, you can expect to see the 
Fleet's ship count to begin to rise as the littoral combat ship (LCS) 
and joint high-speed vessels (JHSVs) built during the next 5 years 
begin to enter fleet service beyond this FYDP and as we sustain our 
major combatant and submarine building profiles. As a result, even 
under the fiscal constraints imposed by the BCA, the battle force is 
projected to reach 300 ships by 2019.
    While the final ship count will be determined by the FSA, the 
decisions made during the recent President's fiscal year 2013 budget 
(PB-13) deliberations will result in a battle force consisting of:
      Nuclear-Powered Aircraft Carriers and Air Wings.--With delivery 
        of USS Gerald R. Ford, the first of a new class of nuclear-
        powered aircraft carriers, in 2015, we will have 11 CVNs in 
        commission and will sustain that number at least through 2040. 
        Our future carriers will be even more powerful, with new combat 
        capabilities resident in the F-35C Lightning II Joint Strike 
        Fighter, F/A-18E/F Super Hornet, EA-18G Growler electronic 
        attack aircraft, E-2D Advanced Hawkeye airborne early warning 
        aircraft, and new unmanned air combat systems.
      Nuclear-Powered Attack Submarines.--SSNs are the key to 
        sustaining our dominant lead in undersea warfare. While the 
        procurement of one Virginia-class submarine was delayed from 
        2014 to 2018 to help free up budget resources in the FYDP, the 
        planned fiscal year 2014-2018 Multiyear Procurement of nine 
        submarines remains intact. To mitigate the loss of large 
        undersea strike capability when SSGNs retire in 2026-2028, we 
        invested research and development for the Virginia Payload 
        Module (VPM). VPM could provide future Virginia-class SSNs with 
        an additional four SSGN-like large diameter payload tubes, 
        increasing each SSN's Tomahawk cruise missile capability from 
        12 to 40. While we are committed to a long-term force goal of 
        48 SSNs, low submarine build rates during the 1990s will cause 
        us to fall below that number for some time starting in the late 
        2020s. We continue to explore ways to limit the submarine 
        shortfall by increasing the near-term submarine build rate, 
        improving affordability, and maintaining the health of this 
        critical industrial base.
      Guided Missile Cruisers and Destroyers.--The Arleigh Burke-class 
        DDGs remain in serial production, with funding in place for a 
        nine-ship fiscal year 2013-2017 MYP. The next flight of DDG 51s 
        will introduce a more powerful and capable Air and Missile 
        Defense Radar in fiscal year 2016. We project that the new 
        defense strategy will require slightly fewer large surface 
        combatants so we will retire seven Ticonderoga-class CGs in 
        this FYDP--all but one before a planned mid-life ballistic 
        missile defense upgrade, and that one had serious structural 
        issues--achieving considerable cost savings at relatively low 
        risk. The long-term inventory of guided missile cruisers and 
        destroyers is projected to come down as combatants built at the 
        rate of 3-5 per year during the cold war begin to retire in the 
        2020s. We are exploring a variety of ways to mitigate these 
        losses.
      Littoral Combat Ships.--With their flexible payload bays, open 
        combat systems, ability to control unmanned systems, and superb 
        aviation and boat handling capabilities, LCSs will be an 
        important part of a more agile future Fleet. New crew rotation 
        plans, built on a modified version of the highly successful 
        SSBN two-crew model, will allow for substantially more LCS 
        forward presence than the frigates, mine counter-measures 
        ships, and coastal patrol craft they will replace, and will 
        free our more capable multimission destroyers for more complex 
        missions. Although forced to shift two LCSs outside the current 
        FYDP to achieve cost savings, we remain fully committed to our 
        plan to ultimately purchase 55 of these warships.
      Amphibious Ships.--Thirty amphibious landing ships can support a 
        two-Marine Expeditionary Brigade (MEB) forcible entry operation 
        with some risk. To generate 30 operationally available ships, 
        the strategic review envisions an amphibious force consisting 
        of 32 total ships, or 5 ships more than we have in commission 
        today. The ultimate fleet will consist of 11 big deck 
        amphibious ships, amphibious transport dock LPD-17s, and 10 
        landing ship, dock ships. To support routine forward 
        deployments of Marine Expeditionary Units, the amphibious force 
        will be organized into nine, three-ship Amphibious Ready Groups 
        (ARGs) and one four-ship ARG in Japan, plus an additional big-
        deck amphibious ship available to support contingency 
        operations worldwide. We will place two LSDs into reduced 
        operations status, allowing us to reconstitute an eleventh ARG 
        in the future, or to build up the number of ships in the active 
        inventory, if necessary. Consistent with these changes, we have 
        deferred procurement of a new LSD, aligning it with LSD-42s 
        planned retirement. We also intend to disband the third 
        maritime prepositioning force squadron that we placed in 
        reserve last year due to fiscal restraints and reorganize the 
        two remaining active squadrons with more capable ships, making 
        them more effective.
      New Afloat Forward Staging Bases.--Navy is proposing to procure a 
        fourth Mobile Landing Platform (MLP) in fiscal year 2014, 
        configured to serve as an Afloat Forward Staging Base (AFSB). 
        This AFSB will fulfill an urgent combatant commander request 
        for sea-based support for mine warfare, Special Operations 
        Forces, intelligence, surveillance and reconnaissance (ISR), 
        and other operations. To speed this capability into the fleet 
        and to ultimately provide for continuous AFSB support anywhere 
        in the world, we also intend to request congressional approval 
        to convert the fiscal year 2012 MLP into the AFSB 
        configuration, resulting in a final force of two MLPs and two 
        AFSBs. This mix will alleviate the demands on an already 
        stressed surface combatant and amphibious fleet while reducing 
        our reliance on shore-based infrastructure.
    Most of the ship reductions in the President's fiscal year 2013 
budget submission--16 fewer than the comparable years' in the fiscal 
year 2012 budget--are combat logistics and Fleet support ships and 
reflect prudent adjustments to our new strategy and a lower defense 
topline. For example, 8 of the 16 ships cut from our 5-year plan were 
JHSVs. These cuts reflect the new 10-ship JHSV requirement developed 
during our strategy review.
    In addition, we simply delayed purchasing three new oilers, which 
were part of an early changeover from single-hulled to more 
environmentally safe and internationally accepted double-hulled ships. 
Our current Fleet of oilers will not start to retire until the 2020s, 
so there is no impact on the number of available oilers for Fleet 
operations. Finally, an ocean surveillance ship was added to the Navy's 
plan last year to provide greater operational depth to our current 
Fleet of five ships; however, after careful consideration, we concluded 
we could meet our operational needs with five ships and could cut the 
sixth ship with manageable risk.
    Ships are not the only platforms in our ``total force battle 
network''. Accordingly, the new defense strategic guidance also 
required us to review and evaluate the needs of our naval aviation 
community going forward into the 21st century. We plan to complete our 
purchases of both the F/A-18 Super Hornet and the EA-18 Growler within 
the next 2 years. The Department recently completed a review of our 
aviation requirements for the F-35 that validates our decision to 
purchase for the Navy and Marine Corps 680 F-35s over the life of the 
program. While we plan to slow procurement over the next 5 years to 
address program risks, especially concurrency, we remain committed to 
procuring 680 aircraft. The F-35B, the short-take-off-vertical-landing 
variant, completed successful at-sea trials onboard the USS Wasp and 
overall testing is proceeding very well. For the carrier version, the 
F-35C testing exceeded the plan by 30 percent last year. In light of 
this encouraging testing performance, we are even more confident that 
this multirole, cutting-edge platform will more than meet our tactical 
requirements in the future security environment.
    The Navy and the Marine Corps continue to carefully monitor strike 
fighter capacity requirements as well. Changes in the Marine's force 
structure, accelerated transition from the legacy Hornet aircraft to 
the Super Hornets, and a reduction in use resulted in an appropriately 
sized strike fighter aircraft inventory. Based on current assumptions 
and plans, our strike fighter aircraft shortfall is predicted to remain 
below a manageable 65 aircraft through 2028 with some risk.
    In the far term, the Navy will need to replace its F/A-18E/F Fleet. 
Pre-Milestone A activities are underway to define the follow-on F/A-XX 
aircraft. Options include additional F-35s, a variant of the Unmanned 
Carrier-Launched Airborne Surveillance and Strike (UCLASS) system, a 
new manned/unmanned platform, or some combination of these. While we 
remain committed to the first-generation UCLASS, which will provide a 
low-observable, long-range, unmanned ISR-strike capability that will 
enhance the carrier's future ability to project power in anticipated 
A2/AD threat environments, the target date for a limited operational 
capability has shifted by 2 years from 2018 to 2020 to reduce schedule 
and technical risk, as well as to meet the savings targets mandated by 
the BCA.
    The planned reduction in our cruiser inventory has decreased 
requirements for MH-60R Seahawk helicopters, allowing us to reduce 
procurement in this program by nine aircraft. Fiscal constraints have 
also led us to reduce E-2D Hawkeye and P-8 Neptune procurement over the 
FYDP. We still intend to procure all the aircraft originally planned 
but at a slower rate.
Future Force Structure Assessment and Re-Designation of Primary Mission 
        Platforms
    Given the broad refocus of the Department of Defense (DOD) program 
objectives reflected in the new defense strategy, the Navy has 
undertaken analysis of the existing force structure requirements and, 
in conjunction with ongoing internal DOD studies and planning efforts, 
is reworking an updated FSA against which future requirements will be 
measured. The new FSA will consider the types of ships included in the 
final ship count based on changes in mission, requirements, deployment 
status, or capabilities. For example, classes of ships previously not 
part of the battle force such as AFSBs developed to support SOF/
nontraditional missions, patrol combatant craft forward deployed to 
areas requiring that capability, and Comfort-class hospital ships 
deployed to provide humanitarian assistance, an expanded core Navy 
mission, may be counted as primary mission platforms. Any changes in 
ship counting rules will be reported and publicized. Any comments on 
total ship numbers in this statement are based on current counting 
rules.
    As noted earlier, in the years beyond the current FYDP, we have a 
plan that puts us back on track to increase our Fleet and ensure 
capacity matches the demands of the mission. However, with the Fleet 
and force we have today, we will meet the requirements of the new 
strategy, continue to protect our national interests, preserve our 
ability to deter or defeat aggressors, and maintain the industrial base 
needed.
Marine Corps
    After a decade of hard fighting in Iraq and Afghanistan, the Marine 
Corps will return to its maritime roots and resume its traditional role 
as the Nation's naval expeditionary force-in-readiness. We will 
carefully manage reduction in active duty end strength from 202,000 to 
182,100 by the end of fiscal year 2016. Drawing upon its long history 
of aligning its training and structure with areas of operations, the 
Marines will continue to provide tailored security force assistance and 
to build partnership capacity missions with allies and other regional 
partners. Along these same lines, the Marine Corps will continue to 
leverage the experience gained over the past decade of nontraditional 
warfare to strengthen its ties to the special operations community. The 
resulting middleweight force will be optimized for forward presence, 
engagement, and rapid crisis response through strategic positioning at 
forward bases in the Western Pacific and Indian Oceans, as well as 
renewed participation in traditional Amphibious Ready Group/Marine 
Expeditionary Unit (ARG/MEU) exercises. The Marine Corps shall maintain 
required readiness levels throughout the transition process. Most 
importantly, we will drawdown without breaking faith with Marines and 
their families.
    In summary, the Department's strategy calls for a world-class Navy-
Marine Corps team, and our plan delivers one that is fully ready to 
meet the current and emerging challenges. We will maintain a strong 
naval presence in the Western Pacific, Indian Ocean, and the Middle 
East. This will be accomplished by adjusting basing assignments for 
some units from the Atlantic to the Pacific, as well as by increasing 
the number of units operating from ports located in theaters of 
interest. We are still committed to strategic dispersal. The Department 
will, for example, operate four LCSs from Singapore. Similarly, we will 
continue to expand our usage of AFSB and coastal patrol boats around 
Africa and in the Arabian gulf to counter the growth of piracy and the 
growing threat of swarming small boats as well as to help partner 
nations build their own maritime capacity while upholding our national 
interests. We also received two high-speed ferries from the Maritime 
Administration, which will most likely operate in the Western Pacific 
supporting the peacetime transport of U.S. Marine Corps forces deployed 
to Okinawa and Australia.
Seapower and Naval Presence
    Since the end of the second World War, the Navy-Marine Corps team 
has acted as the guarantor of the global maritime commons, upholding a 
sophisticated set of international rules that rest upon two 
inextricably linked principles: free trade and freedom of navigation. 
These principles have supported an era of unprecedented economic 
stability and growth, not just for the United States but for the world 
at large.
    This period of growth has resulted in a truly ``globalized'' 
economy which owes much to the unique scalability and flexibility of 
our naval forces. We can reroute Navy ships and Marine Corps units to 
create appropriate responses as actions unfold. We can shift force 
concentrations from the Atlantic to the Pacific or from the southern 
oceans to northern seas with ease. From a single JHSV to a Carrier 
Strike Group and from a Marine Fleet Anti-terrorism Security Team to an 
Expeditionary Unit, combatant commanders can scale naval forces and 
their responses appropriately to emerging challenges across the 
spectrum of engagement. Our forces are flexible enough to shift from 
supporting combat air patrols over Afghanistan to providing 
humanitarian assistance and disaster relief in Japan at a moment's 
notice. Much of their flexibility derives from the use of the high seas 
as a vast, unencumbered maneuver space. This freedom of navigation 
allows our naval forces to gather information, perform surveillance and 
reconnaissance of seaborne and airborne threats, defend regional 
partners, interdict weapons of mass destruction, disrupt terrorist 
networks, deter, and, if necessary, defeat prospective adversaries.
                             law of the sea
    The traditional freedom of the seas for all nations developed over 
centuries, mostly by custom, have been encoded within the United 
Nations Convention on the Law of the Sea (UNCLOS). This important 
treaty continues to enjoy the strong support of DOD and the Department 
of the Navy. The UNCLOS treaty guarantees rights such as innocent 
passage through territorial seas; transit passage through, under and 
over international straits; and the laying and maintaining of submarine 
cables. The convention has been approved by nearly every maritime power 
and all the permanent members of the UN Security Council except the 
United States. Our notable absence as a signatory weakens our position 
with other nations, allowing the introduction of expansive definitions 
of sovereignty on the high seas that undermine our ability to defend 
our mineral rights along our own continental shelf and in the Arctic. 
The Department strongly supports the accession to UNCLOS, an action 
consistently recommended by my predecessors of both parties.
                        naval operations in 2011
    Naval presence serves as a deterrent against those who would 
threaten the national interests of the United States even as it assures 
allies and partners of our consistent commitment. Our enduring national 
security interests require our continued presence to provide the 
President and our Nation with credible response options to deter 
conflict and, if necessary, defend the United States' national security 
interests from the sea. From counterinsurgency and security force 
assistance operations in Afghanistan to ballistic missile defense and 
humanitarian assistance missions in Europe and the Western Pacific and 
naval engagement in South America and Africa, our sailors and marines 
are making a difference around the globe every day. On any given day, 
more than 72,000 sailors and marines are deployed and almost one-half 
of our 285 ships are underway, responding to tasking where needed by 
the combatant commanders.
    Visiting our forward-deployed forces and meeting with allies and 
partners, commanders and staffs, and our marines and sailors on the 
ground provides insights as to how we can better support all of their 
critical efforts. In June, September, and again in December, I 
travelled to Helmand province in Afghanistan on behalf of the 
Department and visited forward operating bases. These were my fifth, 
sixth, and seventh trips to theater in Afghanistan. In each area, 
Taliban offenses and infiltration had been forcefully rebuffed. 
Critical relations had been built with local Afghan leaders and 
significant progress has been made towards the goal of creating 
effective Afghan security forces that will be able to build on these 
efforts. I also visited Camp Leatherneck and, among other things, 
toured the Concussion Restoration Care Center where I met with wounded 
warriors. At all of my stops, I expressed the appreciation of the 
American people for the courage and sacrifices of our marines and 
sailors who serve alongside them on the field of battle.
    For more than 6 decades, our Navy-Marine Corps team has been the 
strongest naval force afloat and we are committed to maintaining this 
position of influence. Our strength, versatility, and efficacy derive 
from our unique capacity for global reach, our focus on warfighting 
excellence and our commitment to maintaining naval presence in regions 
vital to our national interests. We cannot predict the exact nature of 
the challenges facing the Department in the 21st century, but a glimpse 
back at operations in 2011 illustrate the increasing variability of 
events that required a flexible naval response.
    Special Operations.--United States Navy SEALs remain decisively 
engaged throughout the globe conducting the Nation's most sensitive and 
important counterterrorism operations. They served with great 
distinction in Iraq and continue to serve in Afghanistan with telling 
effect. From the killing or capturing of the most wanted terrorists to 
the rescue and recovery of captured American citizens abroad, we ask 
them to do the most daunting of missions.
    Operations in Iraq, Afghanistan, and Libya.--Having completed 
operations in Iraq, the Department has maintained more than 23,000 
marines and sailors in Afghanistan, largely associated with Regional 
Command-Southwest based in Helmand province. This force provides 
security and seeks to build the self-defense capacity of our Afghan 
partners. Currently, the Navy has deployed just more than 8,000 sailors 
on the ground, 2,920 of whom are reservists, across the Central Command 
supporting joint and coalition efforts. Another 10,000 sailors are in 
the Arabian gulf and the Indian Ocean supporting combat operations from 
destroyers, submarines, supply vessels, and aircraft carriers, which 
launch around 30 percent of the aircraft conducting combat air patrols 
over Afghanistan. On the first day during the opening moments of 
Operation Odyssey Dawn in Libya, the U.S. Navy launched 122 Tomahawk 
cruise missiles from two surface ships and three submarines, including 
the guided missile submarine USS Florida, the first time one of these 
converted ballistic missile submarines has fired ordnance in live 
operations. Ground-based Navy E/A-18G Growlers flying combat missions 
in Iraq were repositioned to support Odyssey Dawn, and within 44 hours, 
engaged hostile forces in Libya. When violence erupted across northern 
Africa and the Middle East, significant portions of the USS Kearsage 
ARG and 26th MEU, then off the coast of Pakistan, were directed to take 
station off the coast of Libya.
    Ballistic Missile Defense.--Another newly emergent mission centers 
on the ballistic missile defense (BMD) capable Ticonderoga-class 
cruisers and Arleigh Burke-class destroyers that provide homeland 
defense-in-depth as well as the protection of U.S. and allied forces in 
distant theaters. As ballistic missile capabilities have proliferated 
around the globe, the demand for BMD capable ships has increased 
dramatically. For example, over the past year, BMD ships like the USS 
Ramage, USS Monterey, and USS Stout took up station in the Eastern 
Mediterranean to provide BMD for both Europe and Israel. Elsewhere, 
elements of Destroyer Squadron Fifteen provided similar support in the 
waters surrounding Japan.
    Humanitarian Assistance and Disaster Relief.--Following the 
devastating earthquake and tsunami last year that resulted in the 
deaths of more than 15,000 Japanese citizens, the displacement of 
thousands, and the worst nuclear accident since Chernobyl, the Ronald 
Reagan Strike Group, en route to support combat operations missions in 
Afghanistan, was diverted to Japan to provide humanitarian assistance. 
Upon arrival, instead of combat, the crews were employed to shuttle 
tons of water, food, and blankets to displaced victims ashore, while 
the strike group's ships simultaneously served as landing and refueling 
stations for Japanese self-defense force (JSDF) rescue helicopters 
operating in the region. The Reagan Strike Group supplemented units of 
the USS Essex ARG with its embarked 31st MEU, which is forward deployed 
in Japan, in what became known as Operation Tomodachi--``Friendship'' 
in Japanese. Elements of the USS Essex ARG airlifted more than 300 JSDF 
personnel and 90 vehicles from Hokkaido to disaster areas while USNS 
Safeguard and Mobile Dive and Salvage Unit One transported relief 
supplies to Yokosuka for distribution throughout the affected areas. 
Additionally, the Navy transported the equipment and personnel of the 
Pearl Harbor Naval Shipyard's Radiological Control Team as well as the 
Marine Corps' Chemical Biological Incident Response Force to Japan to 
assist with nuclear monitoring efforts.
    Anti-Piracy.--Throughout the year the Navy performed the critical 
mission of combating piracy and supporting the anti-piracy efforts of 
our allies and partners in the region. Ships operated in conjunction 
with allies and partners in the vicinity of the Horn of Africa to 
prevent the disruption of the free flow of trade in the Gulf of Aden. 
More recently elements of the Stennis Strike Group freed Iranian 
citizens who were being held hostage by pirates in the Arabian Sea. 
Their actions directly resulted in the capture or killing of 21 pirates 
and the freeing of 38 hostages.
    Partnership Stations and Maritime Exercises.--The Navy remains 
committed to building our partner nations' capacities to provide for 
their own maritime security. This year we once again created 
``partnership stations'' in the Pacific Ocean and Caribbean Sea, off 
the coast of South America and around the continent of Africa to work 
with local navies to educate their leaders, train their sailors, 
strengthen their material infrastructure, increase their maritime 
domain awareness, and raise their response capacity. USS Cleveland, USS 
Oak Hill, USS Robert G. Bradley, the hospital ship USNS Comfort and 
high-speed vessel Swift were strategically deployed to work with the 
maximum number of partner navies to provide medical care and security 
training while building local naval capacity to plan and conduct 
operations in the maritime environment.
    Last, with an eye to the future of naval and maritime operations in 
an increasingly ice-free Arctic, the Virginia-class submarine USS New 
Hampshire and the Seawolf-class submarine USS Connecticut conducted Ice 
Exercise 2011 with Canadian and United Kingdom counterparts in the 
Arctic Ocean.
                             air-sea battle
    The Navy and Marine Corps are working with the Air Force to 
implement the Air-Sea Battle concept which seeks to improve integration 
of air, land, maritime, space, and cyberspace forces in order to 
provide combatant commanders the range of military capabilities 
necessary to maintain operational access and deter, and if necessary 
defeat, an adversary employing sophisticated A2/AD capabilities and 
strategies.
    The Air-Sea Battle concept leverages the military and technological 
capabilities as well as unprecedented Naval and Air Force 
collaboration, cooperation, integration, and resource investments 
within the services' purview to organize, train, and equip.
    The jointly manned Air-Sea Battle Office has defined a series of 
initiatives to achieve the capabilities and integration required in 
future naval and air forces so that combatant commanders have the tools 
necessary to ensure U.S. freedom of action in future years.
    As we work to implement and enhance the Air-Sea Battle concept, the 
Navy continues to invest in capabilities to counter advanced A2/AD 
challenges, including:
  --BMD enhancements both in the Aegis Combat System and the Standard 
        Missile, as well as myriad ``soft-kill'' initiatives;
  --integration of advanced air and cruise missile defense 
        capabilities;
  --harpoon missile replacement, which will increase the range (and 
        speed) at which we can engage enemy surface combatants armed 
        with advanced anti-ship cruise missiles;
  --Virginia-class submarines and the VPM, which has the potential to 
        mitigate the loss of the SSGN undersea strike capacity when 
        they retire in the mid-2020s;
  --improvements in Joint Force Command, Control, Communications, 
        Computers; and intelligence, surveillance, and reconnaissance 
        capabilities which will significantly increase our information 
        gathering and warfighting coverage in access-challenged areas, 
        as well as provide counters to adversary capabilities; and
  --cyberspace capabilities.
                        departmental priorities
    The Department must adhere to four key priorities with strategic, 
tactical, operational and management elements if we are to maintain our 
position as the world's most formidable expeditionary fighting force 
while continuously evolving our Navy and Marine Corps as a strategic 
asset that provides our Commander-in-Chief with the broadest range of 
options in a highly dynamic international security environment. These 
priorities remain:
  --taking care of our sailors, marines, civilians, and their families;
  --treating energy as a strategic national security issue;
  --promoting acquisition excellence and integrity; and
  --continuing development and deployment of unmanned systems.
    These principles guide the direction of the Department, from 
training our recruits at Great Lakes, Parris Island, and San Diego, to 
our ongoing operations in central Asia and the Western Pacific, to 
acquiring the Navy and Marine Corps of the future.
    In the end it all comes down to stewardship; the careful management 
of our people, platforms, infrastructure, and energy to guarantee that 
your Navy and Marine Corps are ready to defend our Nation's interests.
Taking Care of Sailors, Marines, Civilians, and Their Families
    As we move forward, the Department is committed to our most 
important asset--our sailors, marines, civilians, and their families. A 
large part of our commitment is the careful attention to pay and 
benefits. No one's pay will be cut; only the growth of pay is slowed in 
the later years of our 5-year plan. Specifically, we are proposing 
continued pay raises at 1.7 percent for military personnel in fiscal 
year 2013 and fiscal year 2014, in line with the private sector, 
recognizing the continued stress on our forces and their families, and 
providing time for families to adjust.
    We support asking the Congress to establish a commission with 
authority to conduct a comprehensive review of military retirement in 
the context of overall compensation. The Commission should seek ways to 
identify improvements in the military retirement system, ensuring any 
proposed change to military retirement supports required force profiles 
of DON in a cost-effective manner. We believe that the Commission 
should protect, through grandfathering, the retirement benefits of 
those currently serving.
    With so much of our defense strategy dependent upon our Navy and 
Marine Corps, we must ensure that our resources support the most combat 
effective and the most resilient force in our history. We must set high 
standards, but at the same time we must provide individuals with the 
services needed to meet those standards. The Department will soon 
announce the 21st century sailor and marine initiative, which is a set 
of objectives and policies across a spectrum of wellness that maximizes 
sailor and marine personal readiness. The program consists of five 
pillars:
  --readiness;
  --safety;
  --physical fitness;
  --inclusion; and
  --the continuum of service.
    Readiness will ensure sailors, marines, civilians, and their 
families are prepared to handle the mental and emotional rigors of 
military service. Both services are introducing campaigns this year to 
deglamorize, treat, and track alcohol use. We will also develop new 
means to reduce suicides and increase our family and personal 
preparedness programs. This includes zero tolerance for sexual assault. 
The DON Sexual Assault Prevention and Response Office was created and 
made part of the secretarial staff to keep the issue at the front of 
the discussion, to strengthen the lines of communication with the Navy 
Judge Advocate General (JAG) and Naval Criminal Investigative Service 
(NCIS), and to make sure the Secretariat received frequent updates 
about the incidents of sexual assault and our progress towards reducing 
the number of attacks. We are continually working to improve the 
reporting, investigation, and disposition of sexual assault cases 
ensuring commanders, investigators, and prosecutors receive sufficient 
training and appropriate resources. Last year, JAG finalized a complete 
revision of the advanced trial advocacy courses that train litigators 
involved in sexual assault cases as well as filled the Deputy Director 
of the Trial Counsel Assistance program position with a senior civilian 
sexual assault litigator. JAG and NCIS are working aggressively to 
educate lawyers and agents on the unique aspects of sexual assault 
cases. NCIS has hired personnel to provide assistance and support to 
NCIS special agents; this will enable special agents to focus on 
conducting investigative activities, trial preparation, and 
prosecutorial testimony relative to adult sexual assaults.
    Our efforts to ensure the safest and most secure force in the 
Department's history extend to encouraging the safe use of motor 
vehicles and motorcycles.
    Physical fitness is an important central pillar that resonates 
throughout the 21st century sailor and marine program. Personal fitness 
standards throughout the force will be emphasized. We will also improve 
nutrition standards at our dining facilities with the introduction of 
``Fueled to Fight''. Fueled to Fight ensures that healthy food items 
will be available and emphasized at every meal.
    The Department will be inclusive and consist of a force that 
reflects the Nation it defends in a manner consistent with military 
efficiency and effectiveness. The Department will also reduce 
restrictions to military assignments for personnel to the greatest 
extent possible, consistent with our mission and military requirements. 
We must ensure that all who want to serve have opportunities to succeed 
and barriers that deny success are removed. Nothing reflects our core 
values of honor, courage, and commitment better than having an 
organization characterized by fairness and dedication. Last year for 
the first time ever, 16 women were assigned to submarines. This will 
expand command-at-sea opportunities and eventually increase the chances 
for more women to be promoted to admiral. Additionally, we need an 
officer corps that is representative of the enlisted force it leads. 
Through increased minority applications from diverse markets, the 
United States Naval Academy and Naval Reserve Officers' Training Corps 
(NROTC) programs are achieving historical racial and ethnic diversity 
rates. The United States Naval Academy received nearly 7,000 minority 
applications for its class of 2014, nearly double that of the class of 
2010. Along with recent NROTC additions at Harvard, Yale, Columbia, and 
Arizona State University (with the largest undergraduate population in 
the country), next we are establishing an NROTC unit at Rutgers 
University. Not only is it one of the Nation's top engineering schools, 
but more than one-half of its class of 2014 identify themselves as 
minority.
    The final pillar, continuum of service, will provide the most 
robust transition support in the Department's history. Individuals 
choosing or selected for either separation or retirement will be 
afforded a myriad of assistance programs and benefits that are 
available to them as they transition to civilian life. These programs, 
which include education benefits, transition assistance, career 
management training, counseling, life-work balance programs, and 
morale, welfare, and recreation programs, have been recognized by human 
resource experts as some of the best corporate-level personnel support 
mechanisms in the Nation.
    Because the Navy and the Marine Corps were highly successful in 
meeting their recruiting goals, we have been able to be very selective, 
accepting only the very best candidates who are morally, mentally, and 
physically ready to serve. Historically high-retention rates have put 
us below our active duty manning ceiling of 322,700 sailors and 202,100 
marines. Our recruiting classes have gotten smaller, as have our ``A'' 
school classes, and promotion rates from E-4 to E-6 have fallen as 
well. More officers in the O-5 and O-6 pay grades are choosing to 
remain on active duty rather than retire, leading to smaller promotion 
selection groups and repeated adjustments to promotion zones.
    We have attempted to deal with this challenge within the enlisted 
ranks by instituting the ``Perform to Serve'' program that used a 
detailed algorithm to advise personnel specialists on who should be 
allowed to re-enlist, but this approach did not fully address either 
the systemic manning challenge confronting us or the unsustainable 
overmanning in certain enlisted ratings. This past year, given fiscal 
constraints and manpower draw-downs, we decided to confront the problem 
head on and convened special administrative enlisted retention boards, 
senior enlisted continuation boards, and officer selective early 
retirement boards to pare back overmanned enlisted ratings and officer 
ranks. It was a difficult decision to use these force management tools, 
but the future of the Department requires us to fix the problem now 
rather than further delaying a decision.
    Another vital support program that we remain committed to is the 
support we provide to our wounded warriors. Since 2001, more than 900 
sailors and nearly 13,000 marines have been wounded as a result of 
combat operations in Iraq and Afghanistan. This year we completed the 
alignment of the Army's Walter Reed Medical Center with our own 
National Naval Medical Center in Bethesda, and we continued to invest 
in the doctors, techniques, and technologies to care for the injuries 
that have become representative of modern warfare:
  --traumatic brain injury;
  --amputations;
  --burns; and
  --post-traumatic stress disorder.
    The requirements for the Purple Heart were updated to include the 
immediate and lasting damage associated with brain injuries.
    Part of our commitment centers around the families and caregivers 
that support our wounded warriors as they endure the challenges of 
recovery, rehabilitation, and reintegration. The 2010 National Defense 
Authorization Act provided a Special Compensation for Assistance with 
Activities in Daily Living to help offset income lost by those who 
provide nonmedical care and support to servicemembers who have incurred 
a permanent catastrophic injury or illness.
    Driven by the moral obligation to assist our injured heroes, the 
Department has set a goal of being able to offer every combat wounded 
sailor or marine an opportunity to continue their service as a civilian 
on the Navy/Marine Corps team. Our Wounded Warrior Hiring and Support 
Initiative aims to increase the number of veterans with a 30 percent 
and above service-connected disability into our workforce. Through this 
initiative, we have hired more than 1,000 veterans with 30 percent and 
above service-connected disability rating in fiscal year 2010 and 
fiscal year 2011. Our Naval Sea Systems Command alone hired 509 
service-disabled veterans for fiscal year 2011, exceeding its goal of 
hiring one veteran for each day of the fiscal year. We recently held 
our second annual Wounded Warrior Hiring and Support Conference to 
provide prospective employers and human resource professionals with the 
tools and resources to enable them to hire, train, and retain our 
wounded warriors in the civilian workplace.
    This past August the President announced his Veteran's Employment 
Initiative that extends tax credits to businesses that hire veterans. 
We work with the Departments of Veterans Affairs and Labor to establish 
programs that ease the transition of veterans into the civilian world. 
We are also heavily engaged through the Yellow Ribbon Program in 
supporting the reintegration efforts of our reserve forces.
    I want to address the defense budget proposals regarding healthcare 
costs. The DON and DOD on the whole continue to face rapidly rising 
costs in healthcare. In 2001, DOD healthcare costs were approximately 
$19 billion. By 2010 that amount had risen to $51 billion and as a 
percentage of our budget is approaching 10 percent. This rate of rise 
cannot be sustained. We continue to streamline our staffs and standard 
operating procedures in an ongoing effort to manage costs while 
retaining quality patient care and overall customer satisfaction. One 
area where we continue to be challenged is system accessibility for our 
retiree community, especially in areas where bases have been closed due 
to the base realignment and closure process, leaving behind a large 
retiree population with no local access to military treatment 
facilities. Increasing use of the affordable Mail Order Pharmacy 
program and implementing modest fee increases, where appropriate, would 
go far toward ensuring the long-term fiscal viability of the system 
while preserving equity in benefits for our retirees.
    I consider my obligations to the well-being of every sailor and 
marine, and every family member under their care to be sacrosanct. We 
worked carefully to develop these proposals, with all participants--the 
Government, the providers of healthcare, and the beneficiaries-sharing 
in the responsibility to better manage our healthcare costs. I have 
previously asserted that as a former Governor, I well know that the 
growth in healthcare costs is an issue for the country, not just the 
military. But, we all have to do our part. The TRICARE benefit remains 
one of the best benefits in the country. I hope you will support our 
proposed changes.
    Also this past year the Department, along with the other military 
departments, worked with the U.S. Chamber of Commerce and more than 70 
employers to launch a program targeted at expanding the career 
opportunities for military spouses. The Military Spouse Employment 
Partnership seeks to help the business community recognize the skills 
and talents that military spouses bring to the workforce but are unable 
to fully leverage due to frequent moves of the servicemember in the 
family. This partnership between the military and the business 
community promises to tap into the energy of one of the most hard-
working, highly skilled, educated, and yet under-utilized segments of 
our population.
    Overall, the fiscal year 2013 budget reflects a responsible request 
for the fiscal support and resources required to support our marines, 
sailors, their families, and our retirees in the face of increasing 
operational pressures and financial demands upon them. Thank you for 
your continuing support.
Energy Security and Sustained Leadership
    We must reform how the Navy and the Marine Corps use, produce, and 
procure energy, especially in this fiscally constrained environment. We 
must use energy more efficiently; however, the Department must also 
lead on alternative energy or we will leave a critical military 
vulnerability unaddressed, further straining the readiness of our 
sailors and marines to be able to respond wherever and whenever called 
to defend and protect America's interests.
    Fuel is a tactical and operational vulnerability in theater; 
guarding fuel convoys puts our sailors' and marines' lives at risk and 
takes them away from what we sent them there to do:
  --to fight;
  --to engage; and
  --to rebuild.
The Department is also exposed to price shocks in the global market 
because too much fuel comes from volatile regions, places that are 
vulnerable to instability and ruled by regimes that do not support our 
interests. Every time the cost of a barrel of oil goes up $1, it costs 
the Department $30 million in extra fuel costs. In fiscal year 2012 
alone, in large part due to political unrest in oil-producing regions, 
the price per barrel of oil is $38 more than was budgeted increasing 
the Navy's fuel bill by more than $1 billion. These price spikes must 
be paid for out of our operations funds. That means that our sailors 
and marines are forced to steam less, fly less, and train less. The 
threat of price spikes is increased by the vulnerability of choke 
points. Energy analyst have speculated that if Iran ever succeeded in 
closing the Strait of Hormuz, the price of oil could rise by 50 percent 
or more in global markets within days.
    We would never let the countries we buy oil from build our ships or 
our aircraft or our ground vehicles, but we give them a say on whether 
those ships sail, whether those aircraft fly, whether those ground 
vehicles operate because we buy their oil. As a Nation we use more than 
22 percent of the world's fuel, but only possess less than 2 percent of 
the world's oil reserves. Even if we tap every domestic resource we do 
not have enough to meet all of our needs over time, and as a minority 
producer of fuel we will never control the price.
    That is why in the fall of 2009, I established five goals for the 
Department, the broadest of which is that by no later than 2020, 50 
percent of the Department's energy will come from alternative sources. 
These goals drive the Navy and the Marine Corps to use energy more 
efficiently, to explore wider use of alternative energy, and to make 
energy a factor in the acquisition of our next ships, tactical 
vehicles, and aircraft.
    As one example of our success, the Marine Corps continues to 
aggressively pursue technologies that will help achieve greater energy 
efficiency while increasing combat effectiveness in the theater. The 
Third Battalion, Fifth Marines, deployed to the Helmand Province in 
Afghanistan with solar blankets to power radios, LED lights to 
illuminate tents, and solar generators to provide power. One 3-week 
patrol was able to reduce their carrying weight by 700 pounds, reducing 
the number of dangerous resupply missions needed. Even in a tough fight 
in Sangin, the marines managed to cut fuel use and logistical support 
requirements by 25 percent at main operating bases and up to 90 percent 
at combat outposts by relying on these alternative energy technologies. 
The Marine Corps is committed to finding more innovative solutions to 
decreasing dependence on convoys by conducting two experimental forward 
operating bases per year (one in Twentynine Palms and one in Camp 
Lejeune).
    Another initiative to increase alternative energy supply is using 
advanced, drop-in biofuel in aircraft and ships. Our criteria for this 
fuel are straightforward. It must be ``drop in'' fuel requiring no 
changes to our aircraft or our ship or our infrastructure; it must be 
derived from nonfood sources; and its production should not increase 
our carbon footprint as required by law. In 2011, the Department 
completed testing on 50/50 blends of drop in biofuel and jet fuel on 
all manned and unmanned aircraft, including an F/A-18 Hornet at MACH 
1.7 and all six Blue Angels during an air show. The Department has also 
tested an experimental Riverine Command Boat, a self-defense test ship, 
a ridged hull inflatable boat, and a Landing Craft Air Cushion that 
traveled at more than 50 knots.
    In March of this past year, the President directed the Departments 
of Agriculture, Energy, and the Navy to partner with the private sector 
to catalyze a domestic, geographically dispersed, advanced biofuel 
industry for the United States. In response to this directive, Energy 
Secretary Dr. Steven Chu, Agriculture Secretary Tom Vilsack, and I 
signed a memorandum of understanding (MOU) committing our departments 
to jointly partner with industry to construct or retrofit multiple 
domestic commercial or pre-commercial scale advanced drop-in biofuel 
refineries capable of producing cost competitive fuels. Under the MOU 
we issued a request for information in August, which drew more than 100 
responses in 30 days from companies ranging from major oil companies 
and large defense contractors to small businesses.
    In December, Defense Logistics Agency energy awarded a contract on 
our behalf to purchase 450,000 gallons of biofuel; the single largest 
purchase of biofuel in Government history. The Department will use fuel 
from this purchase--awarded to the most competitive bidder under full 
and open competition--to demonstrate the capability of a carrier Strike 
Group and its air wing to burn alternative fuels in a full operational 
environment including underway replenishments for destroyers and 
refueling of helos and jets on the deck of an aircraft carrier. The 
demonstration will take place as part of the Rim of the Pacific naval 
exercise.
    We are also pursuing efficiencies measures in our fleet. The USS 
Makin Island, the Navy's first hybrid electric-drive ship, saved $2 
million on its maiden voyage from Pascagoula, Mississippi to its 
homeport in San Diego, California. It is estimated to save 
approximately $250 million in fuel costs over the course of its 
lifetime--approximately 40 years--at current energy prices.
    A hybrid electric drive system will also be installed as a retrofit 
proof of concept on the USS Truxtun (DDG 103)--an existing Navy 
destroyer. We estimate that successful testing will result in fuel 
savings of up to 8,500 barrels per year. If these tests are successful 
we will continue to install hybrid electric drives as a retrofit on 
other DDGs in the fleet. The U.S. Navy has been installing stern flaps 
to reduce drag and energy on amphibious ships in an effort to make them 
more fuel-efficient, which could save up to $450,000 annually in fuel 
costs per ship.
    Whether it is the procurement of new ships and aircraft or the 
retrofit of existing platforms, we are making energy a consideration in 
the acquisition process. In addition to traditional performance 
parameters such as speed, range, and payload, the Department is 
institutionalizing energy initiatives that will save lives, money, and 
increase warfighting capability. Analyzing energy costs during the 
``analysis of alternatives'' phase of major defense acquisition 
programs will ensure warfighters get the speed, range, and power they 
require, as well as help the Department manage the life-cycle costs of 
its systems. The Marine Corps pioneered this approach last year by 
including system energy performance parameters in developing a new 
surveillance system and the Navy has included energy criteria as part 
of the procurement of the LSD-X.
    All across our shore installations, the Navy and the Marine Corps 
are also undertaking energy-efficiency initiatives and installing 
alternative energy wherever practical. As just one example, at China 
Lake Naval Air Weapons Station we are a net contributor to the local 
power grid, creating more than 270 megawatts (MW) of clean, affordable 
geothermal power in partnership with the private sector.
    And in January, we tapped the vast renewable energy resources 
available at China Lake again breaking ground on a 13.8MW solar array, 
offsetting 30 percent of the base's electric load. The contract is a 
20-year power purchase agreement (PPA) having no upfront costs to the 
Navy and saving the Navy $13 million during its term.
    To meet the energy goal of 50-percent alternative energy ashore, I 
have directed the Navy and the Marine Corps to produce or consume one 
gigawatt of new, renewable energy to power naval installations across 
the country using existing authorities such as PPAs, enhanced use 
leases, and joint ventures. One gigawatt of renewable energy could 
power 250,000 homes, or a city the size of Orlando. This will be a 
broad and dynamic project that, over the life of the contract, will not 
cost the taxpayer any additional money, and will create domestic 
private sector jobs. This will be our path to unlocking our Nation's 
clean-energy potential that leaves our military more secure, agile, 
flexible, and ready.
    To further facilitate our partnerships with industry, the 
Department is trying to make our contracting opportunities more 
accessible. Two years ago, we introduced a Web site called Green Biz 
Ops which aggregates our energy and efficiency opportunities for 
procurement. This site helps all companies interested in doing business 
with the Navy--and especially small businesses--find opportunities in 
one place. In partnership with the Small Business Administration last 
year our agencies launched a ``2.0'' version of Green Biz Ops called 
the Green Procurement Portal which expands the site to include more 
features as well as energy opportunities across DOD and the Federal 
Government.
    To prepare our leadership to achieve our energy goals, this fall 
the Naval Postgraduate School (NPS) began offering a dedicated energy 
graduate degree program, the first military educational institution to 
do so. Later this year, NPS will launch an Executive Energy Series to 
bring our senior leadership together to discuss specific energy 
challenges that confront the Navy and the Marine Corps. This energy-
focused masters degree program and the executive energy series will 
target both the current and future civilian and military leadership of 
the Navy and the Marine Corps.
    Further, promotion boards have been directed to specifically 
consider the background and experience in energy some of our men and 
women in uniform are gaining today. Energy is not just an issue for the 
future or just the young officers and policy experts that attend NPS. 
It is an issue for all of us.
    Those who question why the Navy should be leading on energy should 
study their history. The Navy has always led in new forms of energy: 
shifting from wind to coal-powered steam in the middle of the 19th 
century, from coal to oil in the early 20th century, and pioneering 
nuclear power in the middle of the 20th century.
Promoting Acquisition Excellence and Integrity
    Especially given the fiscal reality of our budget deficit, we are 
fully cognizant of our responsibility to the President, the Congress, 
and the American people to spend this money wisely. What history shows 
us is that when budgets are tight we should get smarter about the way 
we spend our money. As noted earlier, rebuilding our fleet has been and 
will continue to be a top priority of this administration. Achieving 
this lies at the heart of the acquisition excellence initiative that 
has been a priority for the Department for almost 2 years now, because 
if we do not get smarter about how we buy, in addition to what we buy, 
we are not going to be able to afford the Navy and the Marine Corps 
that the Nation needs in the future.
    Improving how we buy means that we have to take actions against 
fraud and shoddy contractors. The Department's General Counsel and the 
Assistant Secretary of the Navy for Research, Development, and 
Acquisition are authorized to take the swiftest and strongest action in 
any case where bribery or attempts to gain preferential contracting 
treatment are substantiated. When a violation occurs, RDA may terminate 
the contract and assess damages immediately, in addition to pursuing 
suspension and debarment. The Department's Acquisition Integrity 
Program was recently recognized by the Government Accountability Office 
as one of the more effective at using suspension and debarment 
practices.
    The Department's role in the President's new defense strategy is 
clear and will drive acquisition programs underway or in development. 
We will carefully define program requirements and then drive 
affordability through aggressive ``should cost'' oversight and 
competition where possible, such as the fixed-price contracts we 
negotiated for the LCS or the multiyear procurements that we negotiated 
for Virginia-class submarines. Innovative funding strategies and stable 
industrial base workload further allow for efficiencies that provide 
opportunities to acquire more ships more affordably.
    To keep our technological advantage, we plan to invest in science 
and technology and research and development to maintain the knowledge 
base and keep it moving forward. This is the lesson of the 1920s and 
1930s when so much of the technologies that became critical to our 
victory in World War II were kept alive in military, academic, and 
industrial laboratories. Times and technologies change, and we need to 
preserve the capability to change with them. Proper funding of our labs 
and research centers is key to incubating the next ``game-changing'' 
breakthroughs that will sustain the United States military advantage 
over time.
    The acquisition workforce was downsized over the past 15 years and, 
in truth, was stretched too thin. Accordingly, and with your strong 
support, we are increasing the number of acquisition professionals and 
restoring to the Government the core competencies inherent to their 
profession and to our responsibilities in the Department to organize, 
train, and equip the Navy and the Marine Corps. The Department has 
grown its acquisition workforce by 4,400 personnel since starting the 
effort 2 years ago, increasing its technical authority and business 
skill sets.
    Additionally, the Department is keeping program managers in place 
longer to build up their experience, expertise, and oversight on 
individual programs. We are also investing in education for our program 
managers. As an example, we send all of our program managers to an 
intensive short course at the graduate business school at the 
University of North Carolina, specifically targeting a better 
understanding of our defense contractors:
  --what motivates them;
  --what are their financial situations; and
  --how can we work with them to achieve a win-win contract award for 
        both the taxpayer and the stockholder.
    We are also changing the way in which we evaluate our program 
leaders to incentivize them to work with their industry counterparts to 
manage costs.
    Over the FYDP, affordability will continue to be a central concern 
of this Department. As resources are tight, cost has got to be one of 
the primary considerations of every program, and it ought to be driven 
by ``should cost, will cost'', methods. ``Should cost'' scrutinizes 
each contributing ingredient of program cost and seeks to justify it. 
The ``will cost'' method represents an effort to budget and plan 
weapons acquisition programs using realistic independent cost estimates 
rather than relying on those supplied by the manufacturer. Make no 
mistake, our focus will remain on the security of our primary customer, 
the American people, for whom we will build the best possible Fleet for 
the future.
            Shipbuilding/Industrial Base
    A healthy industrial base is critical to supporting the 
Department's top priorities. The dangerous downward trend in our ship 
inventory has been and must stay reversed. Even though we face 
increased fiscal constraints, we still plan, as we noted earlier, to 
grow the fleet to 300 ships by 2019. We want to increase the number of 
our highly capable large surface combatants to meet the President's 
directive that we confront the growing ballistic missile threat to the 
United States and its allies, while strengthening our small combatant 
inventory to provide the presence needed to maintain freedom of 
navigation. We have to make significant investments in support vessels 
while continuing our investment in our nuclear submarine force and 
maintaining the viability of our last yard capable of building nuclear-
powered aircraft carriers.
    What all this means is that we will need to closely monitor the 
shipbuilding industrial base as we move forward. Much as with energy, 
we need to ensure diversity in supply moving forward. We need to 
strengthen our relationship with traditional shipbuilders, but we need 
to reach beyond them to small- and mid-tier shipbuilders to develop 
innovative designs and new construction techniques to meet emerging 
threats.
Developing and Deploying Unmanned Systems
    When I took office in 2009, unmanned systems were already at work 
within the Department. To assist our troops on the ground in Iraq and 
in Afghanistan we had either purchased or contracted for thousands of 
unmanned aerial vehicles that flew hundreds of thousands of hours in 
support of our mission. Despite their demonstrated utility, there was 
no vision of where unmanned systems belonged in the Navy and the Marine 
Corps future force structure or coherent plan to achieve that vision. 
Over the past 2 years, the Services have worked hard to develop a plan 
and the presence and reach of our unmanned systems have expanded, 
including the first expeditionary deployment of a Fire Scout Vertical 
Takeoff and Landing unmanned aerial vehicle, and the first successful 
flight of the unmanned combat air system, which will begin carrier 
demonstrations later this year. In total, nearly 1,500 unmanned aerial 
systems deployed into theater.
    In the fleet, unmanned systems need to be integrated into 
established operational communities. The Marine Corps have been out in 
front on this effort, having established four unmanned aerial system 
squadrons over the past quarter century, and the Navy is working on 
these capabilities as well. This past year a detachment of Helicopter 
AntiSubmarine Squadron 42 deployed with a SH-60B Helicopter and a MQ-8B 
Firescout and supported combat operations in Libya and counter piracy 
operations in the Gulf of Aden. In both environments, they leveraged 
the operational flexibility and low-signature characteristics of 
unmanned systems to support local commanders while keeping sailors and 
marines safe from danger. Additionally, our Tactical Air Control 
Community took possession of their first small tactical unmanned aerial 
system this past year and began to integrate it into the Surface 
Warfare community's day-to-day operations. In the future, the Maritime 
Patrol and Reconnaissance Aviation community, soon to take delivery of 
the P-8A Poseidon, will add the MQ-4C Broad Area Maritime Surveillance 
unmanned aerial system to their squadrons and hangars, extending the 
reach and persistence of maritime reconnaissance capabilities.
    We will test and field mine hunting and then mine sweeping 
capability of the Mine Countermeasures Mission Module in LCS, employing 
airborne and remotely operated vehicles to reduce the risk to sailors 
and the cost. Current developmental testing of the Increment I Mine 
Warfare mission package is underway in USS Independence, demonstrating 
mine hunting capability with the AN/AQS 20A mine hunting sonar set, 
towed by the remote multimission vehicle. Future increments will 
incorporate autonomous mine sweeping and the ability to find buried 
mines using unmanned surface and underwater vehicles.
    The UCLASS system is changing the way we plan to deliver 
reconnaissance and strike capabilities from our venerable aircraft 
carrier platforms. Designed to operate in contested airspace and 
conduct ISR or strike missions over extended periods of time, the 
UCLASS at sea will differ fundamentally from the standard operating 
procedures of both manned carrier aircraft or land-based unmanned 
aircraft. Unlike with a manned carrier aircraft that is mostly used to 
maintain the qualifications of its pilot, a UCLASS airframe will be 
employed only for operational missions and pilots will maintain 
qualifications in the simulator, extending its useful life expectancy 
considerably. Its airborne mission time will not be limited by human 
physiology but rather will be determined by the availability of tankers 
to refuel it, ordnance expenditure, or the need to change the oil after 
many hours of flight time. This will allow us to launch from greater 
distances, effectively negating emergent A2/AD technologies. We have 
only just begun to understand the potential of this unmanned system and 
the capabilities that will spiral from it.
                               conclusion
    Our Constitution requires that the Congress ``maintain a Navy.'' We 
do so with the world's most advanced platforms, equipped with cutting-
edge weapons systems and manned by crews who receive the best training 
possible is a credit to our Nation. The Navy that fought and defeated a 
more advanced British Navy in the War of 1812 looked very different 
from the Navy of 2012. But our sailors and marines continue to live up 
to that legacy forged 200 years ago. Today, your Navy and Marine Corps 
are deployed across the spectrum of engagement from rendering 
humanitarian assistance to combat. They often seem to be everywhere 
except at home. They bring to these efforts skills, training, and 
dedication unmatched anywhere else in the world. The enduring support 
of this subcommittee for our key programs and our people enables us to 
fulfill the ancient charge of the founders that we should sail as the 
Shield of the Republic, and we thank you.
    The goals and programs discussed today will determine our future as 
a global force. At the direction of the President, we have worked to 
streamline our processes, to eliminate programs that no longer fit in 
the current strategic environment, and to construct new approaches to 
the challenges of the modern world while retaining the ability to deter 
regional conflict and respond rapidly and decisively to emerging 
crises. Our specific requests are reflected in the President's fiscal 
year 2013 budget submission.
    The process by which we arrived at these requests was both 
deliberate and determined. We are fully aware of the economic 
environment and the fiscal constraints that our Government faces today. 
We have attempted to balance these considerations with the President's 
requirement that we maintain a ready and agile force capable of 
conducting the full-range of military operations. We want to assure you 
that the Department has considered the risks and applied our available 
resources efficiently and carefully. This year's request aligns with 
the Defense Strategic Guidance and the priorities and missions 
contained within it while balancing trade-offs that you and the 
American taxpayer expect of us.
    For 236 years, from sail to steam to nuclear; from the USS 
Constitution to the USS Carl Vinson; from Tripoli to Tripoli; our 
maritime warriors have upheld a proud heritage, protected our Nation, 
projected our power, and provided freedom of the seas. In the coming 
years, this new strategy and our plans to execute that strategy will 
assure that our naval heritage not only perseveres, but that our Navy 
and Marine Corps continue to prevail.
    Thank you and Godspeed.

    Senator Mikulski. Thank you, Mr. Secretary.
    Admiral.
STATEMENT OF ADMIRAL JONATHAN W. GREENERT, CHIEF OF 
            NAVAL OPERATIONS, UNITED STATES NAVY
    Admiral Greenert. Thank you, Senator.
    Senator Mikulski, Vice Chairman Cochran, and distinguished 
members of the subcommittee, I am honored to appear before you 
for the first time to discuss the Navy's budget submission. 
Because of the dedication of our 625,000 active and reserve 
sailors and civilians, and their families, the Navy and our 
primary joint partner, the Marine Corps, remain a vital part of 
our national security. I am honored to serve and lead the Navy 
in these challenging times, and I thank the subcommittee for 
your continued support.
    This morning, I would like to address three points: the 
Navy's importance to the Nation's security; some enduring 
tenets and priorities that guided our decisions in this budget; 
and how these decisions shaped our budget submission.
    Today, our Navy is the world's pre-eminent maritime force. 
Our global fleet operates forward from U.S. bases and partner-
nation places around the world to deter aggression, respond to 
crisis, and, when needed and when called upon, win our Nation's 
wars.
    If you refer to the chartlet in front of you, you can see 
that on any given day we have about 50,000 sailors and 145 
ships underway, with about 100 of those ships deployed 
overseas. These ships and sailors allow us to influence events 
abroad because they ensure access to what I refer to as the 
maritime crossroads. These are areas where shipping lanes and 
our security interests intersect, and they are indicated on the 
chartlet by little orange bow-ties.
    We can remain forward in these areas because of the 
facilities and the support from nearby allies and partners. For 
example, in the Middle East, we have 30 ships and more than 
22,000 sailors at sea and ashore. They are combating piracy, 
supporting operations in Afghanistan, assuring our allies, and 
maintaining a presence in the region to deter or counter 
destabilizing activities. These forces rely on facilities in 
Bahrain, a U.S. partner for six decades.
    In the Asia-Pacific, we have about 50 ships supported by 
our base on Guam and facilities or places in Singapore, the 
Republic of Korea, and Japan. They will be joined next spring 
by our first littoral combat ship (LCS), USS Freedom, which 
will deploy to Singapore for several months to evaluate our 
operational concepts.
    In the Indian Ocean, we depend on Diego Garcia and the 
fleet tender and the airfield there for ship repair and 
logistics support.
    Around the Horn of Africa, we depend on the airfield and 
the port in Djibouti to support our forces conducting 
counterterrorism and counterpiracy operations.
    In Europe, we rely on places in Spain, Italy, and Greece to 
sustain our forces forward in support of our North Atlantic 
Treaty Organization (NATO) allies.
    And in our own hemisphere, our port and airfield at 
Guantanamo Bay will grow more important in the next several 
years as the Panama Canal is widened.
    When I assumed the watch as Chief of Naval Operations about 
6 months ago, I established three tenets, which I call 
``unambiguous direction'', for our Navy leadership. And they 
are warfighting first, operate forward, and be ready.
    Warfighting first. This means the Navy must be ready to 
fight and prevail today while building the ability to prevail 
tomorrow. This is our primary mission, and all our efforts must 
be grounded in this fundamental responsibility.
    Iran's recent provocative rhetoric highlights the need for 
us to have forward-deployed warfighting capability. In our 
fiscal year 2013 budget submission, we redirected funding 
toward weapons systems, sensors, and tactical training that can 
be more rapidly fielded to the fleet. This includes 
demonstrators and prototypes that could quickly improve our 
force's capability.
    Operate forward. This means we will provide the Nation an 
offshore option to deter, influence, and win in an era of 
uncertainty. Our fiscal year 2013 budget submission supports 
several initiatives to establish our forward posture at the 
maritime crossroads. These include placing forward deployed 
naval force destroyers in Rota, Spain, and forward stationing 
LCSs in Singapore, and patrol coastal ships in Bahrain. One 
ship that is operating from an overseas location can provide 
the same presence as about four ships rotationally deployed 
from the continental United States.
    We are also collaborating with the Marine Corps to 
determine the support and the lift needed for marines to 
effectively operate forward in Darwin, Australia, in the 
future.
    Be ready. That means we harness the teamwork, the talent, 
and the imagination of our diverse force to be ready to fight 
and to responsibly use our resources. This is more than 
completing required maintenance and ensuring parts and supplies 
are available. Being ready also means being proficient, 
confident, and understanding our weapons, our sensors, command-
and-control communications, and our engineering systems as 
well.
    Now, applying these tenets to meet the defense strategic 
guidance, we built our fiscal year 2013 budget submission to 
implement three main investment priorities.
    Number one, we will remain ready to meet our current 
challenges today. Consistent with the defense strategic 
guidance, we will continue to prioritize readiness over 
capacity and focus our warfighting presence in the Asia-Pacific 
and the Middle East. We will also sustain the Nation's most 
survivable strategic deterrent in our ballistic missile 
submarines (SSBNs).
    Priority two, we will build a relevant and capable future 
force. Our Navy will evolve to remain the world's pre-eminent 
maritime force, and our shipbuilding and aircraft construction 
investments will form the foundation of the future fleet.
    In developing our aircraft and ship procurement plans, we 
really focused on three approaches: one, to sustain the serial 
production of today's proven platforms, including Arleigh Burke 
destroyers, Virginia-class submarines, and our F/A-18 Super 
Hornets; number two, to promptly field new platforms in 
development, such as the LCS, the Joint Strike Fighter, the 
Ford-class carrier, the P-8A Poseidon aircraft, and the 
America-class amphibious assault ship; and three, we wanted to 
improve the capability of today's platforms through new 
weapons, sensors, and unmanned vehicles, including advanced 
missile defense radar, the Fire Scout, and its follow-on, the 
Fire-X. New payloads like these will help ensure we project 
power, despite threats to access, as described in the new 
defense strategic guidance. They will also enable our continued 
dominance in the undersea environment and support our goal to 
operate effectively in cyberspace and fully exploit the 
electromagnetic spectrum.
    In developing the future force, we will continue to 
emphasize jointness, as described in our Air-Sea Battle 
concept. And we will also emphasize affordability by 
controlling requirements creep and making cost an entering 
argument for new systems.
    And priority three, we will enable the support of our 
sailors, civilians, and their families. I am extremely proud of 
our people. We have a professional and a moral obligation to 
lead, to train, to equip, and to motivate them.
    Our personnel programs deliver a high return on investment 
in readiness. We fully funded our programs to address 
operational stress, to support our families, eliminate the use 
of synthetic drugs such as Spice, and to aggressively prevent 
suicides and sexual assaults.
    I support the compensation reforms included in the Defense 
Department's fiscal year 2013 budget submission, which I 
believe are appropriate changes to manage the costs of the All-
Volunteer Force.

                           PREPARED STATEMENT

    In closing, your Navy will continue to be critical to our 
Nation's security and prosperity by assuring access to the 
global commons and by being at the front line of our Nation's 
efforts in war and in peace. I assure the committee and the 
Congress and the American people that we will focus on 
warfighting first, we will operate forward, and we will be 
ready.
    I want to thank you, Senator Mikulski, and the subcommittee 
and your staff that are behind you and around this room for 
helping us in preparing our submission. And I thank you and the 
subcommittee for your support.
    Thank you.
    [The statement follows:]
           Prepared Statement of Admiral Jonathan W. Greenert
                              introduction
    Chairman Inouye, Vice Chairman Cochran, and distinguished members 
of the subcommittee, it is my honor and pleasure to appear before you 
to submit my first budget as Chief of Naval Operations (CNO). Thanks to 
our 625,000 active and reserve sailors and civilians and your continued 
support, the Navy-Marine Corps team remains vital to our national 
security and economic prosperity. Operating globally at the front line 
of our Nation's efforts in war and peace, our fleet protects the 
interconnected systems of trade, information, and security that 
underpin our own economy and those of our friends and allies. Our Navy 
and Marine Corps are the first responders to international crises 
through combat operations or humanitarian assistance. And after U.S. 
ground forces have drawn down in the Middle East, the naval services 
will remain on watch with offshore options to deter aggression and, 
when necessary, fight and win on, over, and under the sea. Despite the 
economic and military challenges facing our Nation, your Navy will 
evolve and adapt to fight and win our Nation's wars, remain forward, 
and be ready. I appreciate your continued support and look forward to 
working together in pursuing our national security objectives.
  the navy has been important to our nation's security and prosperity
    Today, our Navy is the world's pre-eminent maritime force but that 
has not always been the case. Leading up to the War of 1812, Britain's 
Royal Navy held that distinction. Our own fleet, lacking warfighting 
capability, forward posture, and readiness, was bottled up in port 
early in the war. It was unable to break the British blockade of the 
Atlantic coast or stop the Royal Navy from wreaking havoc along the 
mid-Atlantic seaboard and burning parts of Washington, DC in 1814. Our 
Nation's economy suffered as shipping costs soared and imports from 
Europe and the Caribbean grew scarce. Soon, however, the fleet 
developed a warfighting focus and engaged the British, winning 
victories on Lake Erie, at New Orleans, and in the Atlantic that, 
combined with concerns about France, brought Britain to the negotiating 
table. However, outside of a determined effort from privateers, the 
U.S. Navy still could not project power away from home, could not 
control the sea, and could not deter aggression against our interests. 
We needed these key capabilities--outlined in our Maritime Strategy--
then, just as much as now. The War of 1812 offered a number of hard 
lessons, and for the next century our Navy focused on preventing an 
aggressor from restricting our trade or isolating us from the sea as 
our Nation expanded across the North American continent.
    Our Navy operated farther forward as our Nation's economy grew and, 
by necessity, became more integrated with Eurasia. In the midst of the 
world's first wave of globalization, the Great White Fleet from 1907 to 
1909 demonstrated to the world America's emerging power and capability 
to project it globally. These episodes of ``operating forward'' became 
sustained during World War I as our Fleet convoyed supplies and forces 
to Europe and combated German submarines across the Atlantic Ocean. And 
in World War II, our Navy established dominance in the air, sea, and 
undersea domains, going forward around the world to protect sea lanes 
and project power to Europe and Africa, and take the fight across the 
Pacific to Asia. We sustained our maritime dominance and remained 
forward and global throughout the cold war to contain Soviet expansion 
and provide tangible support to allies and partners with whom we were 
highly interdependent diplomatically, economically, and militarily.
    Our Navy today remains global, operating forward from U.S. bases 
and international ``places'' around the world. From these ``places'' we 
continue to support and operate with allies and partners who face a 
range of challenges, from piracy and terrorism to aggressive neighbors 
and natural disasters. ``Places'', from Guantanamo Bay to Singapore, 
enable us to remain present or have access to the world's strategic 
maritime crossroads--areas where shipping lanes, energy resources, 
information networks, and security interests intersect. On any given 
day over the last year, more than 50,000 sailors were underway or 
deployed on 145 of the Navy's 285 ships and submarines, 100 of them 
deployed overseas (see Figure 1). They were joined by more than 125 
land-based patrol aircraft and helicopters, 1,000 information dominance 
personnel, and more than 4,000 Naval Expeditionary Combat Command 
sailors on the ground and in the littorals, building the ability of 
partners to protect their people, resources, and territory.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               Figure 1.

    The security and prosperity of our Nation, and that of our friends 
and allies, depend on the freedom of the seas, particularly at the 
strategic maritime crossroads. Twenty percent of the world's oil flows 
through the Strait of Hormuz, the center of a region where more than 
12,000 sailors on 30 ships combat piracy, smuggling, terrorism, deter 
Iranian aggression, and fly about 30 percent of the close air support 
missions in Operation Enduring Freedom. These sailors directly 
supported the special operations forces mission that resulted in the 
death of Osama Bin Laden, provided ballistic missile defense to our 
Arabian Gulf partners, and just last month rescued the crew of the 
Iranian dhow, Al Morai, from Somali pirates. Our forces there depend on 
facilities in Bahrain, a United States partner for more than 60 years, 
for supplies, communications, and repairs, while our maritime patrol 
and reconnaissance aircraft, patrol craft, and minesweepers in the 
region are based on the island. Our forces at sea are joined by another 
10,000 sailors on the ground, most supporting our combat forces in 
Afghanistan as we continue to transition that effort to the Afghan 
Government.
    In the Asia-Pacific, about 40 percent of the world's trade passes 
through the 1.7-mile wide Strait of Malacca, while the broader region 
is home to 5 of our 7 treaty alliances and many of the world's largest 
economies. About 50 United States ships are deployed in the Asia-
Pacific region every day, supported by facilities (or ``places'') in 
Singapore, the Republic of Korea, and Japan in addition to our bases on 
Guam. Our forward posture and ready-and-available capability proved 
invaluable to our allies in Japan following the Great East Japan 
earthquake and tsunami last March. Twenty-four ships, 140 aircraft and 
more than 15,000 sailors and marines delivered more than 280 tons of 
relief supplies to beleaguered survivors as part of Operation 
Tomodachi. Working from offshore and unhindered by road and rail 
damage, Navy efforts helped save lives and fostered a stronger 
alliance.
    Our combined readiness with our Pacific allies and partners is a 
result of the nearly 170 exercises and training events we conduct in 
the region each year. Our Talisman Sabre exercise with Australia last 
year brought together 18 ships and more than 22,500 sailors and marines 
to practice operations from maritime security to amphibious assault. 
Our Malabar series of exercises continues to expand our 
interoperability with India, a key partner in an important part of the 
world. From simple maneuvers and replenishment-at-sea in 2002, Malabar 
has gone on to include dual carrier flight operations, gunnery 
practice, anti-submarine warfare (ASW) training, and maritime 
interdiction exercises. And this year, the U.S. Navy will host Rim of 
the Pacific (RIMPAC), the world's largest maritime exercise, bringing 
together more than 20,000 sailors from 14 nations to practice the 
entire range of maritime missions from counterpiracy to missile defense 
and ASW.
    Africa is adjacent to several key strategic crossroads:
  --Bab El Mandeb on the southern end of the Red Sea;
  --the Suez Canal at its northern end; and
  --the Strait of Gibraltar at the western edge of the Mediterranean.
Events at each of these crossroads can significantly impact the global 
economy and regional security. Supported by our air and port facilities 
in Djibouti (Camp Lemonier), our ships form the backbone of 
multinational forces from more than 20 nations that combat pirates and 
terrorists around East Africa and the Arabian Peninsula. In the 
Mediterranean and Northern Africa our forward forces enabled a rapid 
response to the Libyan civil war. During North Atlantic Treaty 
Organization (NATO) Operations Odyssey Dawn and Unified Protector, our 
ships and submarines fired 221 Tomahawk land attack missiles and 
Growler electronic attack aircraft (EA-18G) redeployed from Iraq in 
less than 48 hours to suppress and destroy Libya's air defense network. 
The Navy-Marine Corps team aboard USS Kearsarge supported NATO forces 
with air strikes and personnel recovery, while on USS Mount Whitney, 
NATO leaders managed and coordinated the fight.
    We continue our commitment to our NATO allies in the Mediterranean 
and other waters around Europe. Supported by facilities in Rota, Spain; 
Souda Bay, Greece; and Naples, Italy, our destroyers and cruisers 
conducted, among other critical U.S. and NATO missions, continuous 
ballistic missile defense patrols in the Mediterranean to counter the 
growing Iranian ballistic missile threat. Europe also continues to be a 
source of security. Our fleet trains routinely with allied navies from 
the Mediterranean to the Baltic in security cooperation exercises such 
as Proud Manta, NATO's largest ASW exercise. Outside the continent, we 
operate with our European allies and partners to address our shared 
concerns around the world, such as maintaining freedom of navigation 
through the Strait of Hormuz, countering piracy around the Horn of 
Africa, supporting our African partners with training and assistance, 
and responding to crises such as the conflict in Libya.
    In Latin America, the ongoing expansion of the Panama Canal will 
increase the importance of that strategic maritime crossroad. Today, 
the waters around Central America already experience a high level of 
illegal trafficking, which could adversely affect the increasing volume 
of shipping through an expanded canal. Our first littoral combat ship 
(LCS), USS Freedom, made its first operational deployment to the region 
in 2011, preventing more than 3 tons of cocaine from entering the 
United States as part of Joint Interagency Task Force--South. We 
leveraged our port and airfield in Guantanamo Bay, Cuba, to continue 
supporting operations in the Gulf of Mexico and Caribbean. And as the 
capability of our Latin American partners has grown, so has the 
sophistication of our cooperation. In 2011, we conducted ASW training 
with Brazil, Peru, Colombia, and Chile, where their diesel submarines 
helped to train our surface and submarine crews and our crews, 
exchanged lessons learned on effective undersea operations.
                     establishing first principles
    These are challenging and dynamic times for the U.S. military 
services and the U.S. national security enterprise. We need to remain 
focused on our enduring principles and contributions that hold true 
regardless of funding, force structure size or day-to-day world events. 
Upon taking office as the CNO, I established these first principles for 
Navy leaders to follow in my ``Sailing Directions''.
    I believe historical and current events demonstrate that the Navy 
is most effective and best able to support our national security 
objectives when fleet leaders and sailors are focused on three tenets:
  --warfighting first;
  --operate forward; and
  --be ready.
    I incorporated these tenets into ``Sailing Directions''. Similar to 
their nautical counterpart, my directions describe in general terms 
where the Navy needs to go in the next 10-15 years, and the approach we 
will take to get there. We applied ``Sailing Directions'' to the final 
decisions we made in building our fiscal year 2013 budget submission, 
and I believe they are consistent with the Defense Strategic Guidance 
that emerged from our collaborative efforts with the Chairman of the 
Joint Chiefs of Staff, the Secretary of Defense, and the President. I 
am in the process of drafting a ``Navigation Plan'' to define our 
course and speed now that our defense strategy is established and our 
budget request submitted.
              my guidance for the navy and what we believe
    We use these three tenets--warfighting first, operate forward, and 
be ready--as ``lenses'' through which we view each decision as we 
organize, train, and equip the Navy.
    Warfighting First.--The Navy must be ready to fight and win today 
while building the ability to win tomorrow. This is our primary mission 
and all our efforts from the ``wardroom to the boardroom'' must be 
grounded in this fundamental responsibility. The recent posturing and 
rhetoric from Iran highlight the importance of our ability to deter 
aggression, promptly respond to crisis, and deny any aggressors' 
objectives. This requires getting relevant and effective warfighting 
capability to the fleet today, not waiting for perfect solutions on 
paper that may not arrive for 10 years. We can no longer afford, 
strategically or fiscally, to let the perfect be the enemy of the 
good--or the good enough--when it comes to critical warfighting 
capability. Our history and the contemporary cases of Iran, North 
Korea, violent extremists, and pirates show that conflict is unlikely 
to appear in the form of the scenarios for which we traditionally plan. 
Therefore, our ships, aircraft, and sailors that operate forward must 
be able to decisively act and defeat an adversary's actions in situ to 
deter continued aggression and preclude escalation. To that end, in our 
fiscal year 2013 budget submission we shifted procurement, research and 
development, and readiness funds toward weapons, systems, sensors, and 
tactical training that can be rapidly fielded to the fleet, including 
demonstrators and prototypes that can quickly improve our forces' 
capability. I request that you support those investments.
    Operate Forward.--The Navy-Marine Corps team provides the Nation 
offshore options to deter, influence, and win in an era of uncertainty. 
Our naval forces are at their best when they are forward, assuring 
allies and building partnerships, deterring aggression without 
escalation, defusing threats without fanfare, and containing conflict 
without regional disruption. We keep the fleet forward through a 
combination of rotational deployments from the United States, Forward 
Deployed Naval Forces (FDNF) in Japan, Guam, and Italy, and forward 
stationing ships in places such as Bahrain or Diego Garcia. Our ability 
to operate forward depends on our U.S. bases and strategic partnerships 
overseas that provide ``places'' where the Navy-Marine Corps team can 
rest, repair, refuel, and resupply.
    Our fiscal year 2013 budget submission supports several initiatives 
to establish our forward posture including placing FDNF destroyers in 
Rota, Spain, and forward stationing LCS in Singapore and patrol coastal 
(PC) ships in Bahrain. We are also now collaborating with Headquarters 
Marine Corps to determine the support and lift needed for marines to 
effectively operate forward in Darwin, Australia. In the FDNF 
construct, the ships, crews, and families all reside in the host 
nation. This is in contrast to forward stationing, where the ship's 
families reside in the United States and the crew rotates to the ship's 
overseas location for deployment. We will rely on both of these basing 
constructs and the ``places'' that support them to remain forward 
without increases to the fleet's size. I request your support funding 
for these initiatives so our Navy-Marine Corps team can continue 
delivering the rapid response our Nation requires of us. We will 
continue to pursue innovative concepts for operating forward such as 
rotational crewing and employing new classes of ships such as joint 
high speed vessels (JHSV), mobile landing platforms (MLP), and afloat 
forward staging bases (AFSB).
    Be Ready.--We will harness the teamwork, talent, and imagination of 
our diverse force to be ready to fight and responsibly use our 
resources. This is more than simply completing required maintenance and 
ensuring parts and supplies are available. Those things are essential, 
but ``being ready'' also means being proficient and confident in our 
ability to use our weapons, employ and rely on our sensors, and operate 
our command and control, communication, and engineering systems. This 
requires practice, so in our fiscal year 2013 budget submission we 
increased readiness and procurement funding for training deploying 
personnel and for exercise ordnance--funding that I request you 
support. Further, we are employing simulation and adjusting our Fleet 
Readiness and Training Plan (FRTP) to afford more time to train prior 
to deployment. Our fiscal year 2013 budget submission provides the 
opportunity to build on events such as this year's Bold Alligator, our 
largest amphibious assault exercise in more than a decade, which 
brought together more than 20,000 sailors and marines and 25 ships from 
five nations. Fundamentally, being ready depends on our ability to 
train, lead, and motivate our sailors and marines through events such 
as Bold Alligator. As we continue to move through challenging times 
strategically and fiscally, we will increasingly depend on their 
resolve and imagination.
president's budget for fiscal year 2013 shaped by three main priorities 
                    of the chief of naval operations
    The Budget Control Act of 2011 placed new constraints on our 
budget, which required hard choices and prioritization to address. I 
applied our tenets to my three main investment priorities as we built 
our fiscal year 2013 budget submission to support the new Defense 
Strategic Guidance.
Priority 1: Remain Ready To Meet Current Challenges, Today
    Readiness means operational capability where it needs to be to 
deter aggression, respond to crises, and win our Nation's wars. I will 
continue to prioritize readiness over capacity and focus our 
warfighting presence on the Asia Pacific and Middle East. Our fiscal 
year 2013 decision to decommission seven Ticonderoga-class guided 
missile cruisers (CG) and two dock landing ships (LSD) exemplify our 
resolve to provide a more ready and sustainable fleet within our budget 
constraints. The resources made available by these retirements will 
allow increased funding for training and maintenance. To ensure these 
investments improve readiness, we adjusted the FRTP to be more 
sustainable and provide units adequate time to train, maintain, and 
achieve the needed ``fit'' and ``fill'' in their manning between 
deployments. The FRTP is aligned to and supports the fiscal year 2013 
Global Force Management Allocation Plan (GFMAP), which is the 
authoritative, Secretary of Defense-approved plan for supporting 
combatant commander presence requirements.
    A ready fleet requires proper maintenance of our ships and 
aircraft, and our long-term force structure inventory plans require 
each of them to affordably reach expected service life. Our fiscal year 
2013 budget submission fully funds ship maintenance and midlife 
modernization periods. We are also continuing a series of actions to 
address surface ship material condition. We increased the number of 
sailors in select surface ships and established Integrated Material 
Assistance Teams to ensure adequate personnel for preventive 
maintenance and at-sea repairs. To improve maintenance planning and 
budgeting, the new surface ship life-cycle engineering and support 
organization develops comprehensive plans for maintenance and 
modernization of non-nuclear ships. These plans will allow us to refine 
our assessments of ship material condition, improve our ability to 
estimate maintenance costs, and identify actions needed to achieve 
expected service life. These initiatives, supported in this budget 
submission, have tangibly improved ship readiness and enable more 
efficient maintenance periods. Our fiscal year 2013 budget submission 
also funds aircraft depot maintenance requirements to 94 percent, 
meeting our goal for available airframes and engines.
    Readiness involves more than material condition. Our capabilities 
must also be ``whole'', meaning our weapons, combat systems, and 
sensors must be able to interface with one another, are available in 
adequate numbers, and our sailors are proficient and confident in their 
use. We emphasized training in our fiscal year 2013 budget submission--
allocating time, ordnance, and targets for increased live-fire training 
as well as funds to improve the fidelity, capacity, and 
interoperability of our fleet simulators. Our fiscal year 2013 budget 
submission also funds improved data links and radar reliability to 
enhance the interoperability and availability of weapons and sensors. 
In aviation, we fully funded the Flying Hour Program and invested in F/
A-18 A-F life-cycle sustainment and system capability upgrades to 
ensure these ``workhorses'' of the carrier air wing remain ready and 
relevant. F/A-18 A-F sustainment helps ensure our strike fighters reach 
their expected service lives and our strike fighter inventory remains 
sufficient to meet anticipated needs. Ashore, we fully funded air and 
port operations and nuclear weapons infrastructure and security. Our 
fiscal year 2013 budget submission accepts some risk in facilities 
sustainment and recapitalization, but we anticipate minimal impact on 
fleet readiness. We will continue to closely monitor our shore 
infrastructure to ensure it remains capable of supporting the needed 
level of fleet operations. Our fiscal year 2013 budget submission 
maintains funding for Homeport Ashore to provide quality housing for 
our single sailors and increases funding for family readiness programs 
such as child development centers.
    We must continue improving our fuel efficiency to sustain a ready 
and relevant fleet and our goal remains to reduce our tactical energy 
use 15 percent by 2020. We will combine modernization, research and 
development, acquisition, and efficient behavior by operators at sea 
and on the waterfront to achieve that goal. Our fiscal year 2013 budget 
submission continues to incorporate technological advances 
incrementally, but steadily. Our Lewis and Clark-class supply ships now 
employ all-electric propulsion, as will our new Zumwalt-class 
destroyers (DDG). Our new hybrid-electric powered amphibious assault 
ship USS Makin Island saved more than $2 million in fuel costs on its 
maiden voyage from the gulf coast to its San Diego homeport. The 
insights we gain from these efforts will be applied in developing 
requirements for future ships, where energy usage was established last 
year as a key performance parameter.
Priority 2: Build a Relevant and Capable Future Force
    Our Navy will evolve to remain the world's pre-eminent maritime 
force in the face of emerging threats and our shipbuilding and aircraft 
construction investments form the foundation of the future fleet. In 
developing our aircraft and ship procurement plans, we focused on three 
approaches:
  --sustaining serial production of today's proven platforms;
  --rapidly fielding new platforms in development; and
  --improving the capability of today's platforms through new payloads 
        of weapons, sensors, and unmanned vehicles.
    First, sustained production of today's platforms maintains the 
fleet's capacity, improves the affordability of ships and aircraft, and 
fosters the health of the industrial base. Examples of this serial 
investment in our fiscal year 2013 budget submission include Arleigh 
Burke DDG, MH-60R/S Seahawk helicopters, F/A-18 E/F Super Hornet and 
Virginia-class submarines (SSN). These proven ships and aircraft 
represent a known quantity to both the Government and contractor and 
provide opportunities for cost savings through multiyear procurement. 
Our fiscal year 2013 budget submission requests multiyear procurement 
of nine Arleigh Burke DDGs and nine Virginia SSNs. Your support for 
continued block purchases of DDGs and SSNs is essential to our fleet's 
capacity over the next decade when decommissionings and the procurement 
of the new ballistic missile submarine (SSBN) combine to reduce the 
number of these fleet workhorses. In addition to the capacity they 
bring, our experience with proven platforms also allows us to 
incrementally improve their capabilities with new weapons, sensors, and 
unmanned vehicles, such as we are doing with Arleigh Burke DDG by 
adding the Surface Electronic Warfare Improvement Program (SEWIP), SM-6 
missile, Advanced Missile Defense Radar (AMDR), and MQ-8 Firescout 
unmanned air vehicles.
    Second, we will rapidly field the classes of ships and aircraft in 
development which are needed to recapitalize the fleet and pace 
emerging threats. Each of these platforms are nearing completion or are 
in initial production and offer a significant return on our research 
and development investment over the past 2 decades. We will harvest 
this return and focus on capability improvement via new weapons, 
sensors, and unmanned systems before we begin our next generation of 
platforms. Our fiscal year 2013 budget submission prudently moves into 
sustained production of Freedom and Independence-class LCS, MQ-4C broad 
area maritime surveillance (BAMS) unmanned air system (UAS), Poseidon 
maritime patrol and reconnaissance aircraft (P-8A) and Lightning II 
strike fighter (F-35C). We slowed production of the F-35C to allow 
lessons from testing to be better incorporated into the aircraft, and 
it will be a key element of the future carrier air wing. The fiscal 
year 2013 budget submission continues funding for Gerald R. Ford 
aircraft carriers (CVN), although the delivery of CVN-79 was delayed to 
most cost effectively maintain our fleet of 11 CVNs by not delivering 
the ship ahead of need. Our budget submission continues funding for the 
Zumwalt-class DDG, which will provide an exceptional improvement in 
littoral and land-attack capability while also proving several new 
technologies to be incorporated into future ships. To sustain our 
capacity for amphibious operations, our fiscal year 2013 budget 
submission funds continued production of the America-class amphibious 
assault ships (LHA), the first of which (LHA-6) is nearing completion. 
Each of these new platforms is designed to be adaptable and allow 
future capability evolution through new payloads. The physical and 
electronic open architecture of LCS, for example, will allow it to 
change missions in a short refit, but will also allow it to be widely 
adaptable over its lifetime. The P-8A has a similar reserve capacity 
for adaptation, as well as an operating profile which will allow it to 
do a wide range of missions, depending on the weapons and sensors 
placed aboard.
    And third, we will evolve the force to maintain our warfighting 
edge by exploiting the ability of new payloads to dramatically change 
what our existing ships and aircraft can do. A focus on what our 
platforms carry will be increasingly important as anti-access/area-
denial (A2/AD) threats including new radars and more sophisticated 
surface-to-air and anti-ship missiles limit the ability of manned 
platforms to get close to an adversary in wartime. Our Air-Sea Battle 
concept, developed with the Marine Corps and the Air Force, describes 
our response to these growing A2/AD threats. This concept emphasizes 
the ability of new weapons, sensors, and unmanned systems to expand the 
reach, capability, and persistence of our current manned ships and 
aircraft. Our focus on payloads also allows more rapid evolution of our 
capabilities compared to changing the platform itself. This approach is 
exemplified by our fiscal year 2013 investment in LCS, which will carry 
an adaptable portfolio of unmanned vehicles, weapons, manned 
helicopters, and personnel. In aviation, new weapons such as the small 
diameter bomb, joint standoff weapon and Mark-54 torpedo will give our 
legacy aircraft the stand-off range, penetration, and lethality to 
defeat adversaries even if they employ advanced A2/AD capabilities.
    Our focus on payloads includes unmanned systems such as the 
Firescout UAS (MQ-8B), which already demonstrated in Libya and the 
Middle East how it can add significant capability to our legacy 
frigates (FFG) and amphibious transport dock (LPD) ships. Our fiscal 
year 2013 budget submission continues production of the MQ-8B and adds 
the longer-range, higher-payload MQ-8C. The submission also continues 
our investment in the unmanned combat air system (UCAS) demonstrator 
and the follow-on unmanned carrier launched air surveillance and strike 
(UCLASS) system, which will expand the reach and persistence of our 
current carrier-based air wings.
    Improved sensors and new unmanned systems are essential to our 
continued domination of the undersea environment. Our fiscal year 2013 
budget submission funds the development of Virginia SSN payload modules 
that will be able to carry a mix of missiles, sensors, and unmanned 
undersea vehicles (UUV) such as the new Large Displacement UUV. These 
undersea systems are joined by investments in the P-8A and Arleigh 
Burke DDG to improve cueing and close-in ASW operations. Our undersea 
superiority provides U.S. forces an asymmetric advantage in being able 
to project power or impose unacceptable costs on adversaries. Our 
fiscal year 2013 budget submission funds continued development of a new 
SSBN to begin replacing the Ohio-class late in the next decade and 
sustain the most survivable element of the Nation's nuclear triad. Our 
fiscal year 2013 budget submission also includes funding to study the 
possible use of Ohio-class guided missile submarine (SSGN) and 
Virginia-class SSN as platforms for a future conventional prompt strike 
capability.
    While we currently dominate the undersea domain, cyberspace, and 
the electromagnetic spectrum present a different set of challenges and 
a lower barrier to entry for our potential adversaries. Our fiscal year 
2013 budget submission furthers our goal to operate effectively in 
cyberspace and fully exploit the electromagnetic spectrum. Investments 
including SEWIP, EA-18G, Consolidated Afloat Network Enterprise System 
(CANES), Hawkeye (E-2D) early-warning aircraft, Next-Generation 
Enterprise Network and Mobile User Objective System (MUOS) support 
development of a common operational picture of cyberspace and the 
electromagnetic spectrum. They also support robust defense of our 
networks and improve our ability to use nonkinetic effects to defend 
our ships from attack, conduct offensive operations, and conduct 
superior command and control.
    It is imperative as we pursue these three approaches to the future 
force that we consider both affordability and ``jointness.'' Our fiscal 
situation makes affordability essential to sustaining the fleet's 
capacity and improving its capability. Working with the Secretary of 
the Navy's staff, we are ensuring cost is considered as an entering 
assumption in developing requirements for new systems, while 
controlling the ``requirements creep'' that impacts the cost of our 
programs already in development. Joint capabilities may also be a way 
to improve affordability, although we are primarily concerned with how 
they can improve our warfighting effectiveness. Our Air-Sea Battle 
concept describes how naval and air forces will develop and field 
capabilities in a more integrated manner to allow them to defeat 
improving A2/AD threats through tightly coordinated operations across 
warfighting domains. Using the Air-Sea Battle concept and Joint 
Operational Access Concept (JOAC) as the starting point, the Navy-
Marine Corps team will continue to expand our integration with the Air 
Force and Army in doctrine, systems, training, and exercises to sustain 
the ability of U.S. forces to project power.
Priority 3: Enable and Support our Sailors, Navy Civilians, and Their 
        Families
    Today's active and reserve sailors and Navy civilians are the most 
highly trained, motivated, and educated force we have ever employed. 
Our people are the source of our warfighting capability, and our fiscal 
year 2013 budget submission continues the investments needed to ably 
lead, equip, train, and motivate them.
    Our personnel programs deliver a high return on investment in the 
readiness of our sailors and civilians. We fully funded our programs to 
address operational stress, support families, prevent suicides, 
eliminate the use of synthetic drugs like Spice, and aggressively 
reduce the number of sexual assaults. I view each of these challenges 
as safety and readiness concerns that can be just as damaging to our 
warfighting capability as operational accidents and mishaps. To ensure 
sailors and their families have a quality environment in which to live, 
we sustained our support for quality housing, including Homeport Ashore 
for Sailors, and expanded our child development and youth programs.
    Our wounded warriors are a top priority. Our fiscal year 2013 
budget submission fully funds programs that support the mental, 
emotional, and financial well-being of our returning warriors and their 
families.
    The Navy continues to face a unique manpower challenge. Retention 
is high, attrition remains steady at a very low level, and highly 
qualified people continue to want to join the service. To continue 
bringing in new sailors with new and diverse backgrounds and ideas, we 
must have turnover in the force. To manage our end strength, sustain 
upward mobility, and address overmanning in some specialties, we 
selected 2,947 sailors for separation in 2012 by conducting an Enlisted 
Retention Board (ERB). These sailors served honorably and we are now 
focused on providing the best transition possible for them, including 
early retirement for sailors selected for ERB who will have completed 
at least 15 years of active service as of September 1, 2012. Thank you 
for providing this Temporary Early Retirement Authority in the fiscal 
year 2012 National Defense Authorization Act. We do not plan another 
ERB for fiscal year 2013. Nor do we plan to offer early retirement more 
broadly, but we will evaluate this option if overmanning in individual 
specialty ratings/warfare communities again becomes a concern.
    We will continue to use a range of force shaping tools to ensure we 
keep our best performers and align our people with needed skills and 
specialties. Perform-to-Serve (PTS), our centralized re-enlistment 
program, will remain the principal method to shape the force. While in 
some cases we will be unable to offer re-enlistment for sailors due to 
high retention and overmanning, PTS also offers sailors the opportunity 
to change specialties or enter the reserves when they come up for re-
enlistment if their current specialty is overmanned. We will continue 
to offer and regularly adjust selective re-enlistment bonuses and 
incentive pays for critical specialties to ensure we properly sustain 
the skills required in the force.
    By managing the size and composition of the force, we are able to 
bring in new sailors and civilians. Our fiscal year 2013 budget 
submission continues to invest in recruiting quality people, including 
diversity outreach and programs to develop science, technology, 
engineering, and mathematics candidates for the service. Our future 
depends on the innovation and creativity that people with diverse 
backgrounds, experience, and ideas can bring to the Navy.
department of defense and navy's turning point--and the need for a new 
                                strategy
    We built our fiscal year 2013 budget submission by applying the 
tenets of warfighting first, operate forward, and be ready to our three 
enduring priorities. This approach focused our resources on investments 
that are most important to the Navy's ability to be relevant to the 
challenges we face as a Nation. Today, three main trends place America 
and our Navy at a turning point. First, the Federal Government has to 
get its fiscal house in order by reducing deficits and putting the 
Federal budget on a path toward balance. Second, the security 
environment around the world is becoming more dynamic as exemplified by 
the ``Arab Awakening,'' ongoing piracy and terrorism, and the continued 
threat of aggression from countries including Iran and North Korea. 
Third, after a decade of war in the Middle East, we are completing 
ground operations and stabilization efforts in Iraq and Afghanistan.
    This confluence of factors was emerging when I wrote my sailing 
directions and, as they clarified, were the drivers behind the 
``Defense Strategic Guidance Sustaining U.S. Global Leadership: 
Priorities for 21st Century Defense'' issued by the President and 
Secretary of Defense. The Defense Strategic Guidance was developed in a 
collaborative and transparent process, and I believe it is aligned with 
sailing directions. The guidance calls for a more agile, lethal, and 
flexible force to address the challenges and opportunities facing our 
Nation and has clear implications for the Navy as a force provider, 
including:
Emphasize Readiness Over Capacity
    We will not let the force become ``hollow'' by having more force 
structure than we can afford to maintain, equip, and man. Our fiscal 
year 2013 budget submission inactivates seven Ticonderoga CGs and two 
LSDs. These ships were in need of significant maintenance investment 
and 6 of the 7 cruisers required further investment to install 
ballistic missile defense capability. Inactivating these ships allowed 
almost $2 billion in readiness funding to be shifted to other portions 
of the fleet. This reduction in capacity and our shift to a more 
sustainable deployment model will result in some reductions to the 
amount of presence we provide overseas in some select areas, or a 
change in the nature of that presence to favor innovative and lower-
cost approaches.
Invest in Current Warfighting Capability
    Our ability to deter aggression rests on our current warfighting 
capability. During the final stages of developing our fiscal year 2013 
budget submission, we worked closely with the Office of the Secretary 
of Defense to shift more than $700 million into procurement, operations 
and maintenance, and research and development to rapidly improve the 
readiness of warfighting capabilities being deployed to the Middle East 
and Asia-Pacific. These changes focused on countering A2/AD threats 
through mine warfare (MIW), integrated air and missile defense, 
antisurface warfare (ASuW) against fast attack craft and ASW. Our 
investments included training targets and ordnance, mine warfare 
maintenance and prototype systems, antisurface and ASW sensors and 
weapons, and kinetic and nonkinetic systems for self-defense against 
torpedoes, cruise missiles, and ballistic missiles.
Maintain Middle East Presence and Rebalance our Focus Toward Asia-
        Pacific
    The Asia-Pacific and Middle East are the most consequential regions 
for our future security and prosperity. Two factors drive the Navy's 
ability to provide presence: The size of the fleet and the amount of 
time ships can remain deployed. Our fiscal year 2013 budget submission 
reduces the size of the fleet in the next year by decommissioning some 
ships, but the fleet returns to its current size by 2017 and grows to 
about 300 ships by 2019. We will work with the Joint Staff and 
Secretary of Defense's office to focus our presence on the Middle East 
and Asia-Pacific as part of the GFMAP. The mix of ships in the fleet 
between now and 2020 will evolve to include more small combatants and 
support vessels that can provide innovative, low-cost platforms for 
security cooperation and partnership building activities in Latin 
America and Africa. This will enable our carriers, large surface 
combatants, submarines, and amphibious ships to focus on the Middle 
East, Asia-Pacific, and Europe.
    As described above, we are fostering a series of bases and 
``places'' with our allies and partners around the world to provide 
access and support forward operations at the strategic maritime 
crossroads. Some of these facilities will host FDNF or forward 
stationed ships and aircraft, while others will extend the range and 
duration of deployments by providing places to rest, repair, refuel, 
and resupply. Our fiscal year 2013 budget submission includes funding 
to support these facilities, while we are studying options for 
rotational crewing which may allow overseas ``places'' to host crew 
exchanges for additional classes of ships such as we plan to do for 
LCSs and currently conduct for PCs, SSGNs, and mine countermeasures 
ships (MCMs).
Develop Innovative, Low-Cost, and Small Footprint Approaches to 
        Partnerships
    The United States will continue to be the security partner of 
choice, and the Navy will tailor our partnership efforts to be both 
affordable and appropriate. The evolution of the Fleet's mix over the 
next 8 years will provide ships suited to cooperative operations such 
as maritime security; building partner capacity; countering terrorism, 
illegal trafficking and proliferation; and providing humanitarian 
assistance/disaster response (HA/DR). Ships including LCS (with ASuW 
mission packages), JHSV, MLP, AFSB, hospital ships (T-AH) and combat 
logistics force ships will provide platforms to conduct the low-cost, 
small footprint missions called for in the Defense Strategic Guidance. 
These ships will free up higher-end combatants for other missions and 
will employ innovative crewing concepts such as civilian mariners and 
rotational military crews that will provide more time forward per ship.
    our fiscal year 2013 investments support the department's most 
                           important missions
    Within the fiscal constraints of the Budget Control Act of 2011, we 
applied our priorities and tenets to develop our fiscal year 2013 
budget submission, which strongly supports the missions described the 
new Defense Strategic Guidance.
Counterterrorism and Irregular Warfare
    We will support the joint force in an active approach to countering 
terrorist and extremist threats. With the drawdown in Afghanistan and 
sensitivity to U.S. forces ashore, these efforts will increasingly be 
conducted from the sea. The Navy's fiscal year 2013 budget submission 
increases our ability to support these operations through investments 
including the sea-based MQ-8B and longer-range, higher-payload MQ-8C 
UAS, MLP, AFSB, LCS, BAMS, tailored language and culture training, and 
increases in SEAL manning. Places including Djibouti, Singapore, 
Bahrain, and Guantanamo Bay, Cuba will continue to support small-
footprint, long-duration operations to counter illegal activities--
including terrorism, piracy, and trafficking--from the Horn of Africa 
and Arabian Gulf to the South China Sea and the Caribbean.
Deter and Defeat Aggression
    The Navy-Marine Corps team is the Nation's front line to deny an 
aggressor's objectives or promptly impose costs on the aggressor. Naval 
forces bring two essential qualities to this mission: Presence or 
prompt access forward where conflict occurs, and credible warfighting 
capability to counter the aggressor. Our fiscal year 2013 budget 
submission supports forward operations at the places where conflict is 
most likely or consequential--the strategic maritime crossroads. In 
addition to the readiness and operations funding that allow our forces 
to operate forward, our fiscal year 2013 budget submission also invests 
in establishing FDNF DDGs in Rota, Spain, forward-stationed LCSs in 
Singapore, additional forward stationed PCs in Bahrain and a 
sustainable tempo of rotational deployments.
    Our fiscal year 2013 budget submission improves the warfighting 
capability of the forces we send forward. The centerpieces of naval 
capability remain the Carrier Strike Group and Amphibious Ready Group. 
Our fiscal year 2013 budget submission sustains funding for CVNs and 
the strike fighters (F-35C and F/A-18 E/F), E-2Ds, and EA-18Gs they 
deliver to the fight, as well as the unmanned NUCAS and UCLASS aircraft 
that will expand the reach and persistence of the future air wing. To 
complement our aviation capabilities, our fiscal year 2013 submission 
funds a ``big deck'' LHA in fiscal year 2017 to support power 
projection by Marine Air-Ground Task Forces. These ships, aircraft, 
sailors, and marines have deterred and defeated aggression since World 
War II and will continue to do so well into the future.
    Our fiscal year 2013 budget submission invests in capabilities to 
counter specific types of aggression, such as Iranian threats to deny 
access to the Strait of Hormuz through mine warfare. While we develop 
the LCS as the future host of MIW capabilities, our fiscal year 2013 
budget submission invests in sonar upgrades and maintenance for our 
current MCMs, new mine detection and neutralization UUVs, establishment 
of an AFSB in the Arabian Gulf to support air and surface MIW 
operations, and sea-based intelligence, surveillance, and 
reconnaissance. Our fiscal year 2013 budget submission also funds ASW 
improvements geared toward the Iranian threat such as air-launched 
Mark-54 torpedoes and torpedo defense systems, as well as ASuW weapons 
to counter fast attack craft such as Griffin and Spike missiles for PCs 
and rockets for helicopters.
Project Power Despite A2/AD Challenges
    Potential adversaries are mounting strategies to prevent U.S. 
forces from entering their theater (anti-access) or operating 
effectively once within the theater (area-denial). These adversaries 
intend to prevent U.S. forces from defeating their aggression or coming 
to the aid of allies and partners. Both state and nonstate actors are 
undertaking these strategies using capabilities including mines, 
submarines, anti-ship cruise and ballistic missiles, anti-satellite 
weapons, cyber attack, and communications jamming. The Navy fiscal year 
2013 budget submission addresses these threats through a wide range of 
investments that support the multiservice Air-Sea Battle concept and 
the Joint Operational Access Concept (JOAC). In addition to the MIW, 
ASuW and ASW investments identified above, our fiscal year 2013 budget 
submission funds upgrades in electronic warfare (EW), integrated fire 
control, cyber operations, networks, Virginia SSN and payload modules, 
and the F-35C.
    The Navy's ability to retain access to international waters and 
airspace as well as critical chokepoints throughout the world would be 
enhanced by accession to UNCLOS. As the world's pre-eminent maritime 
power, the United States has much to gain from the legal certainty and 
global order brought by UNCLOS. The United States should not rely on 
customs and traditions for the legal basis of our military and 
commercial activity when we can instead use a formal mechanism such as 
UNCLOS. As a party to UNCLOS, we will be in a better position to 
counter the efforts of coastal nations to restrict freedom of the seas.
Counter Weapons of Mass Destruction
    The Navy's primary contribution to countering weapons of mass 
destruction (WMD) is interdicting WMD and their precursors through the 
international Proliferation Security Initiative (PSI). Our fiscal year 
2013 budget submission funds the readiness and force structure 
necessary to maintain forces forward at the strategic maritime 
crossroads where these interdictions are most common, while continuing 
to enable PSI by sustaining the command and control and sensors needed 
to find and track WMD transporters.
Operate Effectively in Space and Cyberspace
    As a forward-deployed force, our fleet is highly dependent upon 
space-based systems, cyberspace, and the electromagnetic spectrum. 
Naval forces rely on long-haul communications for command and control, 
positioning, navigation and timing, and administration. Given the 
growing A2/AD threat from communications jamming and anti-satellite 
weapons, our fiscal year 2013 budget submission includes investment in 
the maritime portion of the Joint Airborne Layer Network, a UAV-based 
system to assure our ability to communicate and conduct command and 
control.
    Cyberspace and the electromagnetic spectrum are a key area of 
emphasis for our future force development. In the past 2 years, we made 
significant investments in personnel for Navy Cyber Command/Tenth Fleet 
as well as U.S. Cyber Command, which continue in our fiscal year 2013 
budget submission. These highly skilled operators are developing a 
``common operational picture'' (COP) of cyberspace and the tools to 
effectively defend our interests within it. Cyberspace and the 
electromagnetic spectrum are inextricably linked, and in our fiscal 
year 2013 budget submission, we fund a range of EW and electronic 
support systems including EA-18G, SEWIP, Next-Generation Jammer, 
shipboard prototype and demonstrator systems, Ship Signal Exploitation 
Equipment (SSEE), and the E-2D. These systems sustain our ability 
exploit the electromagnetic spectrum for sensing and communication, 
while denying our adversaries accurate or effective information. We are 
also developing the conceptual and doctrinal framework to fully exploit 
the electromagnetic spectrum as a warfighting domain.
Maintain a Safe, Secure, and Effective Nuclear Deterrent
    The Navy provides the most survivable leg of the U.S. nuclear triad 
with the SSBN and associated nuclear command and control, maintenance, 
and support infrastructure. Our fiscal year 2013 program continues to 
fund the recapitalization of our Ohio-class submarines and the safe 
handling of Trident D-5 missiles through investment in an additional 
explosive handling wharf at Naval Base Kitsap. Consistent with the 
Defense Strategic Guidance, we delayed the Ohio replacement program by 
2 years. This delay will result in an SSBN force of 10 ships in the 
2030s and will require a high state of readiness to meet the Nation's 
strategic deterrence needs. Our fiscal year 2013 budget submission 
fully funds the maintenance and support to today's Ohio-class SSBNs to 
help maximize their operational availability throughout their service 
lives.
Homeland Defense and Support to Civil Authorities
    We maintain approximately 45 ships underway around the United 
States and another 50 available within days to meet U.S. Northern 
Command's homeland defense requirements through our FRTP. The Navy's 
fiscal year 2013 budget submission also funds DDG modernization that 
can support homeland ballistic and cruise missile defense missions.
Provide a Stabilizing Presence; Conduct Counterinsurgency, Humanitarian 
        Assistance/Disaster Relief and Other Operations
    Although our warfighting capability will be focused on the Middle 
East and Asia-Pacific, other regions will retain naval presence. The 
nature of that presence, however, will change over the next several 
years. While today DDGs and amphibious ships conduct security 
cooperation operations with partners in Latin America and Africa, our 
fiscal year 2013 budget submission funds procurement of JHSV, AFSB, 
MLP, and LCS and sustainment of PCs and T-AHs to take on these missions 
in the future. To support an expanding range of partnership missions, 
they will increasingly carry tailored force packages of marines to 
conduct security cooperation activities with partner armies and 
marines.
    These same ships will support humanitarian assistance operations 
and rapid response by U.S. forces to crisis or disaster. They can 
embark a wide range of interagency and nongovernmental personnel, 
allowing them to support the whole range of development, defense and 
diplomacy activities, and contribute to nonmilitary efforts to counter 
insurgencies and conduct stabilization operations. As naval forces, 
they can be backed up by the robust multimission capability and 
transportation capacity of amphibious ships and embarked marines.
        evaluating impacts of the new defense strategic guidance
    The new Defense Strategic Guidance is not without risk. In 
particular, we will need to assess the impacts of capacity reductions 
on the force's ability to address highly likely or highly consequential 
security challenges. Senior defense leaders are conducting this 
assessment in a series of seminars over the next several months. Within 
the Navy, we are also re-evaluating our force structure requirements in 
light of the Defense Strategic Guidance. We are assessing the 
capabilities needed to implement the strategy, what force structure 
could deliver those capabilities, and the resulting inventory of ships 
and aircraft that will be required. The results of this assessment will 
indicate the risk in the ability of the Navy's investment plans to 
implement the Defense Strategic Guidance. The force structure 
assessment will also indicate what ships should be counted as part of 
the battle force, and the extent to which the Navy will need to 
implement innovative concepts such as rotational crewing to deliver the 
needed level of forward presence.
    We will also evaluate the impact of our investment plans on our 
industrial base, including ship and aircraft builders, depot 
maintenance facilities, equipment and weapons manufacturers, and 
science and technology researchers. Some of our suppliers, especially 
in specialized areas such as nuclear power, have the government as 
their only customer. Our fiscal year 2013 budget submission addresses 
the health of the industrial base, and we will work closely with our 
industry partners to manage the risk of any further budget reductions.
    Ship inactivations in the fiscal year 2013 budget submission, when 
combined with those of previous budgets, may cause an imbalance in the 
Fleet's overall distribution. We are assessing what will be affordable 
and appropriate in homeporting new ships or moving existing ships to 
ensure we efficiently employ our shore infrastructure, balance our port 
loading, and take advantage of collocating ships with common 
configurations and equipment.
    The healthcare proposals in the President's budget are consistent 
with our efforts over the last several years to pursue a multipronged 
strategy to control the rate of growth in defense health costs:
  --identifying more efficient processes internally;
  --incentivizing healthy behaviors and wellness; and
  --keeping our sailors and marines fit and ready to deploy.
    This budget maintains our commitment to those who serve and have 
served, and responsibly meets the demands dictated by Federal budget 
constraints. I hope you will agree, and support our efforts. I also 
support the establishment of a commission to study changes to the 
structure and benefits of our retirement program for those who have not 
yet entered the service. That assessment must include an evaluation of 
the combined impact to our future recruiting and retention of changes 
to retirement benefits, pay, and healthcare.
                               conclusion
    I believe the risks of the new Defense Strategic Guidance are 
manageable and can be mitigated with good management of the joint 
force. Our Navy will continue to be critical to our Nation's security 
and prosperity by assuring access to the global commons and being at 
the front line of our Nation's efforts in war and peace. I assure the 
Congress, the American people, and those who would seek to do our 
Nation harm, that we will be focused on warfighting, operating forward, 
and being ready.

    Senator Mikulski. Thank you.
    General Amos.
STATEMENT OF GENERAL JAMES F. AMOS, COMMANDANT, UNITED 
            STATES MARINE CORPS
    General Amos. Madam Chairman, Vice Chairman Cochran, and 
members of the subcommittee, I am pleased to speak today on 
behalf of your United States Marine Corps.
    As we sit today in this chamber, 30,000 marines are forward 
deployed around the world defending our Nation's liberty, 
shaping strategic environments, engaging our partners and 
allies, and ensuring freedom of the seas while they deter 
aggression.
    Over the past year alone, the forward presence and crisis 
response of America's marines, working in concert with our most 
important joint partner, the United States Navy, has created 
opportunities and provided decision space for our Nation's 
leaders.
    Your marines were first on the scene to provide 
humanitarian assistance and disaster relief in Japan in the 
aftermath of last year's monumental natural disasters and the 
first to fly air strikes over Libya. They evacuated 
noncombatants from Tunisia and reinforced our embassies in 
Egypt, Yemen, and Bahrain. While accomplishing all of that, 
your Corps continued to conduct sustained combat and 
counterinsurgency operations in Afghanistan.
    Having just returned a little more than 3 weeks ago from 
visiting many of the nearly 20,000 marines and sailors 
currently deployed there, I can tell you firsthand that their 
professionalism and morale remain notably strong. There is an 
indomitable spirit displayed in all that they do. Their best 
interests and the needs of all our joint forces in combat 
remain my number-one priority.
    History has shown that it is impossible to predict where, 
when, and how America's interests will be threatened. 
Regardless of the global economic strain placed on governments 
and their military forces today, crises requiring military 
intervention will undoubtedly continue tomorrow and in the 
years to come.
    As a maritime Nation dependent on the sea for the free 
exchange of ideas and trade, America requires security both at 
home and abroad. To maintain a strong economy, to access 
overseas markets, and to assure our allies, in an era of fiscal 
constraint, the United States Marine Corps is our Nation's risk 
mitigator, a certain force during uncertain times, one that 
will be the most ready when the Nation is the least ready.
    There is a cost to maintaining this capability, but it is 
nominal in the context of the total defense budget and provides 
true value to the American taxpayer. This fiscal year, I am 
asking the Congress for $30.8 billion, a combination of both 
base and overseas contingency operations (OCO) funding.
    Your continued support will fund ongoing operations around 
the world, provide quality resources for our marines, our 
sailors, and their families. It will reset the equipment that 
is worn out from more than 10 years at war, and lastly, it will 
posture our forces for the future.
    When the Nation pays the sticker price for its marines, it 
buys the ability to respond to crises anywhere in the world 
through forward deployed and forward engaged forces. This same 
force can be reinforced quickly to project power and contribute 
to joint assured access anywhere in the world in the event of a 
major contingency. No other force possesses the flexibility and 
organic sustainment to provide these capabilities.
    As our Nation begins to direct its attention to the 
challenges and opportunities of a post-Afghanistan world, a 
world where the Middle East and the Pacific take center stage, 
the United States Marine Corps will be ever mindful of the 
traditional friction points in other regions and prepared to 
respond accordingly as needed.
    The strategic guidance directs that we rebalance and reset 
for the future. We have a solid plan to do so, and we have 
begun execution already. As we execute a strategic pivot, I 
have made it a priority to keep faith with those who have 
served during the past 10 years of war.
    Through judicious choices and forward planning, ever 
mindful of the economy in which we live, we have built a 
quality force that meets the needs of our Nation. By the end of 
fiscal year 2016, your United States Marine Corps will be 
streamlined down to 182,100 marines. This active-duty force 
will be complemented by the diverse depth of our operational 
reserve component that will remain at 39,600 strong.
    Our emerging United States Marine Corps will be optimized 
for forward presence, engagement, and rapid crisis response. It 
will be enhanced by critical enablers, special operators, and 
cyber warfare marines, all necessary on the modern battlefield.
    To build down the United States Marine Corps from its 
current end strength of 202,000, I will need the assistance of 
the Congress for the fiscal resources necessary to execute the 
drawdown at a measured and responsible pace of approximately 
5,000 marines a year, a rate that guards against a precipitous 
reduction that would be harmful to our force.

                           PREPARED STATEMENT

    As we continue to work with our Nation's leadership and my 
fellow joint partners, you have my assurance that your United 
States Marine Corps will be ever faithful in meeting our 
Nation's need for an expeditionary force in readiness, a force 
that can respond to today's crises with today's force today.
    Thank you for the opportunity to appear before you today. 
Madam Chairwoman and fellow members, I look forward to your 
questions.
    [The statement follows:]
              Prepared Statement of General James F. Amos
               the indomitable spirit of the u.s. marine
Your Marines are Ready Today
    We remain a Nation at war. Currently, nearly 20,000 marines are 
conducting combat operations in Afghanistan. Operation Enduring Freedom 
(OEF) remains our top priority. Having recently returned from visiting 
marines and sailors currently deployed throughout Central Command, I am 
pleased to report their professionalism and morale remains notably 
strong. Whether patrolling in Afghanistan or planning at the Pentagon, 
serving on Navy amphibious warships or engaging our partners around the 
world, the indomitable spirit of our greatest asset, the individual 
marine, stands ready--ready to safeguard our Nation's liberty, to 
ensure freedom of the seas, and to protect our Nation's interests 
abroad. With your assistance, we will continue to resource this 
National Treasure . . . the U.S. marine.
2011 Operational Highlights
    During the past year, marines have conducted counterinsurgency 
operations in Afghanistan and have responded to a rapid succession of 
unpredicted political upheavals, natural disasters, social unrest, 
piracy, and emerging threats in various unstable areas of the world's 
littoral regions.
            Operation Enduring Freedom
    We are seeing measurable progress along all lines of operation in 
the Helmand Province:
  --security;
  --reintegration;
  --rule of law;
  --governance;
  --development;
  --education; and
  --health.
    Over the past year, violence and the level of collateral damage 
have decreased significantly. Throughout 2012, marines in Regional 
Command-Southwest (RC(SW)) will continue transitioning to partnership 
training missions as we transfer even greater security responsibility 
to the maturing Afghan national security forces; police and army forces 
in Helmand Province have progressed in training and capability. There 
is a strong sense of optimism among our forces in Helmand Province.
            Operation Tomodachi
    Following a devastating earthquake and tsunami in Japan last 
spring, 3,600 marines and sailors from our amphibious forces in the 
Pacific responded within 24-hour notice. They served as the lead 
element of the joint force, delivered humanitarian aid (i.e. 500 tons 
of food and supplies; 2,150,000 gallons of water; and 51,000 gallons of 
fuel), rescued those in danger, provided consequence management, and 
facilitated the evacuation of almost 8,000 American citizens. For weeks 
following this disaster, Marine aircrews flew through a radioactive 
environment to save lives, deliver aid, and assist the afflicted.
            Operation Unified Protector/Odyssey Dawn
    Amidst a wave of civil turmoil spreading across Northern Africa, 
two amphibious warships with embarked marines sped to the Mediterranean 
and took up station off the coast of Libya. The 26th Marine 
Expeditionary Unit (MEU), an air-ground-logistics task force, provided 
our Nation's leaders invaluable decision time that allowed the 
determination of a way ahead and later integration with the joint force 
with the North Atlantic Treaty Organization to enforce a no-fly zone. 
Marine aviation assets were an important component of the joint force. 
Short take-off and vertical landing (STOVL) Harriers, operating from 
USS Kearsarge, conducted the first precision airstrikes and provided 
airborne command and control. Our KC-130Js evacuated noncombatant 
foreign nationals repatriating them to their homeland, and our MV-22B 
Ospreys rescued a downed American aviator using unprecedented 
operational reach.\1\
---------------------------------------------------------------------------
    \1\ The MV-22B Osprey rescue of an American combat aviator on March 
22, 2011, was conducted within 95 minutes over a distance of 300 
nautical miles (from launch aboard amphibious shipping to recovery of 
pilot and then back to shipping).
---------------------------------------------------------------------------
            Security Cooperation
    In 2011, we supported all six geographic combatant commands with 
task-organized forces of marines who conducted hundreds of security 
cooperation (SC) activities with the Armed Forces of more than 75 
countries. Aligned with Defense Strategic Guidance to ``develop 
innovative, low-cost, and small-footprint approaches to achieve our 
security objectives, relying on exercises, rotational presence and 
advisory capabilities'', our SC missions focus on internal defense and 
participation in coalition operations.\2\
---------------------------------------------------------------------------
    \2\ Sustaining U.S. Global Leadership: Priorities for 21st Century 
Defense, January 2012, p. 3.
---------------------------------------------------------------------------
            Embassy Reinforcement
    We continue providing security for 154 U.S. Embassies and 
consulates in 137 countries around the world through the Marine Corps 
Embassy Security Group. To augment this mission, marines from our Fleet 
Anti-Terrorism Security Teams rapidly deployed to reinforce Embassies. 
This past year they deployed to protect American lives and property in 
Bahrain, Egypt, and Yemen as crisis events unfolded across the Middle 
East.
The New Strategic Guidance; How Your Marine Corps is Changing
    New strategic guidance issued by the President and the Secretary of 
Defense provides the framework by which the Marine Corps will balance 
the demands of the future security environment with the realities of 
our current budget. The guidance calls for a future force that will 
``remain capable across the spectrum of missions, fully prepared to 
deter and defeat aggression, and to defend the homeland and our allies 
in a complex security environment''.\3\
---------------------------------------------------------------------------
    \3\ Sustaining U.S. Global Leadership: Priorities for 21st Century 
Defense, Fact Sheet, January 5, 2012 p. 2.
---------------------------------------------------------------------------
    We have built a quality force that is fully capable of executing 
its assigned missions. Our strategic guidance rightfully focuses our 
attention on the Pacific and Central Command regions. Navy-Marine Corps 
forward basing, response capabilities, and plans are already positioned 
to support that strategy, yet we will remain vigilant and capable to 
respond on short notice in other areas of the world as the Nation 
requires. Marines continually stand ready to contribute decisively to a 
joint force, and can help provide access for that force wherever 
needed.
    Though the fiscal choices made over the past year were difficult, 
we are confident that we are managing risk by balancing capacity and 
capabilities across our forces while maintaining the high levels of 
readiness for which the Nation relies on its marines. The Corps of 
today and tomorrow will maintain its high standards of training, 
education, leadership and discipline, while contributing vital 
capabilities to the joint force across the spectrum of military 
operations. The emerging strategy revalidates our role as America's 
expeditionary force in readiness. Our partnership with the Navy enables 
a forward-deployed and engaged force that shapes, deters, responds, and 
projects power well into the future.
    During our force structure assessment, we cross-checked 
recommendations against approved Department of Defense (DOD) Operations 
and Contingency Plans, and incorporated lessons learned from 10 years 
of combat. The resulting force structure decisions to support the new 
strategy are:
  --reduced the end strength of the active component of the Marine 
        Corps from 202,100 beginning this fiscal year to 182,100 by the 
        end of fiscal year 2016;
  --designed a force with capabilities optimized for forward-presence, 
        engagement, and rapid crisis response;
  --funded readiness levels required for immediate deployment and 
        crisis response;
  --properly re-shaped organizations, capabilities, and capacities to 
        increase aggregate utility and flexibility across the range of 
        military operations; also enhancing support provided to U.S. 
        Special Operations and Cyber Commands;
  --properly balanced critical capabilities and enablers across our 
        air-ground-logistics task forces, ensuring that identified low-
        density/high-demand assets became right-density/high-demand 
        assets;
  --incorporated the lessons learned from 10 years of war--in 
        particular, the requirements to field a force that is manned, 
        trained, and equipped to conduct distributed operations;
  --created an operational reserve component capability without any 
        reductions in reserve force structure; and
  --designed the force for more closely integrated operations with our 
        Navy, special operations, and inter-agency partners.
    Throughout this period of adjustment, we will ``keep faith with our 
marines, sailors, and their families''. Our approach to caring for them 
is based on our recognition and appreciation for their unwavering 
loyalty and unfailing service through a decade of combat operations. 
This strong commitment will not change.
Maintaining a High State of Readiness
    The Navy and Marine Corps team is the Nation's resource for 
mitigating risk. Given likely future operations set forth in the 
Defense Strategic Guidance ranging from defeating rogue actors to 
responding to natural disasters, the Nation can afford and should 
invest in the small premium it pays for high-readiness levels within 
its naval amphibious forces. Because our Nation cannot afford to hold 
the entire joint force at such high rates of readiness, it has 
historically ensured that marines remain ready; and has used us often 
to plug gaps, buy time for decisionmakers, ensure access or respond 
when and where needed.
    In order for the Marine Corps to achieve institutional readiness 
for crisis and contingency response, we must maintain balance in the 
following five pillars:
      High-Quality People (Recruiting and Retaining High-Quality People 
        Plays a Key Role in Maintaining our High State of Readiness).--
        Recruiting quality youth ultimately translates into higher 
        performance, reduced attrition, increased retention, and 
        improved readiness for the operating forces. By retaining the 
        highest-quality people, the Marine Corps will continue to 
        achieve success in today's dynamic environment and meet the 
        challenges posed to our Nation. We will not lower our 
        standards.
      Unit Readiness (Maintaining Readiness of the Operating Forces, 
        Including Appropriate Operations and Maintenance Funding to 
        Train to Core Missions and Maintain Equipment).--The Marine 
        Corps deploys units at high levels of readiness for assigned 
        missions. We source our best-trained, most-ready forces to meet 
        Geographic Combatant Commander requirements. One hundred 
        percent of deployed units report the highest levels of 
        readiness for their assigned mission. We will be ready to 
        deploy on a moment's notice.
      Capacity Versus Requirements (Force-Sizing To Meet Geographic 
        Combatant Commander Requirements With the Right Mix of Capacity 
        and Capability).--The Marine Corps must maintain a force that 
        meets our ongoing operational requirements to include our 
        commitment to OEF, our rotational presence abroad, our many 
        security cooperation and engagement activities, along with 
        anticipated missions as we reorient to the Pacific.
      Infrastructure Sustainment (Investing in Real Property, 
        Maintenance, and Infrastructure).--We must adequately resource 
        the sustainment of our bases and stations to maintain our 
        physical infrastructure and the means to train and deploy our 
        forces. As resources become more constrained, we will become 
        even better stewards of our installations to maintain our 
        facilities for the next generation of marines.
      Equipment Modernization (Ensuring Ground and Aviation Equipment 
        Matches the Needs of the Emerging Security Environment).--As we 
        explore options to adjust to changing fiscal realities, there 
        is a clear imperative for our Corps to reset portions of our 
        legacy equipment used in OEF and Operation Iraqi Freedom while 
        we modernize what we must to guarantee our dominance and 
        relevance against future threats.
                   fiscal year 2013 budget highlights
The Frugal Force
    The Marine Corps is fully aware of the fiscal challenges facing our 
Nation and has critically examined and streamlined our force needs for 
the future. We continually strive to be good stewards of the public 
trust by maintaining the very best financial management practices. The 
Marine Corps has undergone an independent audit in fiscal year 2010, 
and our fiscal year 2011 audit is still ongoing. We plan to pursue an 
independent audit again for fiscal year 2012 and fully expect an audit 
opinion for fiscal year 2011 and fiscal year 2012. To date, we are the 
only service to undertake such independent scrutiny. By the end of 
2012, we will complete initial Service-wide implementation of our 
Enterprise Resource Planning System--Global Combat Support System--
Marine Corps (GCSS-MC). GCSS-MC will significantly improve our 
inventory accountability and contribute to clean audit requirements. We 
are proud of our reputation for frugality and remain one of the best 
values for the defense dollar.
    We have four major accounts governing our operations:
  --investment;
  --operations and maintenance;
  --military construction (MILCON) and family housing; and
  --manpower.
    These are our priorities:
            Investment
  --Enhancing programs vital to our ground combat elements.
    --Light armored vehicles (LAV), high-mobility artillery rocket 
            system (HIMARS), small tactical unmanned aerial system 
            (STUAS).
  --Maintaining the same investment levels in other enabling programs.
    --Ground/Aviation Task Oriented Radar (G/ATOR), Next Generation 
            Enterprise Network (NGEN), Command and Control Situational 
            Awareness (C2/SA).
  --Fully funding critical research and development efforts.
    --Joint light tactical vehicle (JLTV), amphibious combat vehicle 
            (ACV).
  --Sustaining other ground and tactical vehicles until their 
        replacements can be procured.
    --High-mobility multi-purpose wheeled vehicle (HMMWV) and 
            amphibious assault vehicle (AAV).
  --Procuring full programs of record critical to aviation 
        modernization.
    --F-35B, H-1 Upgrades, MV-22B, KC-130J, CH-53K.
            Operations and Maintenance
  --Fully funding our education, training, and readiness accounts.
  --Resourcing civilian work force at fiscal year 2010 end-of-year 
        levels.
  --Enhancing support of Marine Special Operations Command (MARSOC) and 
        Marine Forces Cyber Command (MARFORCYBER).
  --Providing continued support to family readiness and Wounded Warrior 
        programs.
  --Supporting transition from the Navy/Marine Corps Intranet (NMCI) to 
        NGEN.
  --Maintaining energy mandates.
            Military Construction and Family Housing
  --Maintaining facility sustainment at 90 percent of required funding.
  --Increasing facilities demolition funds.
  --Preserving essential MILCON funding.
      Aviation.--Joint Strike Fighter, MV-22B Osprey.
      Ground.--Marine Corps Security Forces, Marine Corps University.
  --Preserving environmental restoration funding, family housing 
        operations and construction.
            Manpower
  --Reducing end strength from 202,100 marines to 182,100 marines by 
        the end of fiscal year 2016 in a responsible and measured way 
        to keep faith with all who have served.
  --Realigning force structure across the entire Marine Corps.
  --Maintaining our reserve component at 39,600 marines.
    During these times of constrained resources, we remain committed to 
refining operations, identifying efficiencies, and reinvesting savings 
to conserve scarce public funds. We have met or exceeded all DOD 
efficiency measures to date. This fiscal year, we are seeking $30.8 
billion ($23.9 billion baseline + $6.9 billion in overseas contingency 
operations) to fund our operations, provide quality resources for our 
marines, sailors, and their families, conduct reset of equipment worn 
from more than 10 years at war and posture our forces for the future. 
Marines account for only 8.2 percent \4\ of the total DOD budget. With 
that, our Nation gains the ability to respond to unexpected crises, 
from humanitarian assistance and disaster relief efforts to 
noncombatant evacuation operations, to counterpiracy operations, to 
full-scale combat. When the Nation pays the ``sticker price'' for its 
marines, it buys the ability to remain forward deployed and forward 
engaged, to reinforce alliances and build partner capacity.
---------------------------------------------------------------------------
    \4\ This percentage is based on the enacted fiscal year 2012 DOD 
budget authorization and is slightly larger than the 7.8-percent sum 
cited in the past. This percentage includes $3 billion in fiscal year 
2012 funding for amphibious warship new construction as well as Navy 
funding for chaplains, medical personnel, amphibious warships 
(operations and maintenance), and Marine Corps aircraft.
---------------------------------------------------------------------------
         the role of marines in the future security environment
The Future Security Environment
    The rapidly evolving events of the past year alone indicate a new 
constant. Competition for resources; natural disasters; social unrest; 
hostile cyber activity, violent extremism (criminal, terrorist, and 
religious); regional conflict; proliferation of weapons of mass 
destruction; and advanced weaponry in the hands of the irresponsible 
are becoming all too common. Marine Corps intelligence estimates 
rightfully point out that ``more than half of the world's population 
lives in fragile states, vulnerable to ruinous economic, ideological, 
and environmental stresses. In these unstable regions, ever-present 
local instability and crises will erupt, prompting U.S. responses in 
the form of humanitarian assistance and disaster relief operations, 
actions to curtail piracy, stability operations, and the rescue and 
evacuation of U.S. citizens and diplomats''.\5\ These and other sources 
of stress are challenging industrialized nations just as they do 
emerging and failed ones. Further increased fragility of the global 
systems impacts both international markets and our Nation's economic 
stability. These challenges are harbingers of potential crisis around 
the world and more specifically for naval forces in the littoral 
regions.
---------------------------------------------------------------------------
    \5\ Five Year Forecast: 2012-2017 Assessment of International 
Challenges and Opportunities That May Affect Marine Expeditionary 
Forces, January 2012, p. 1.
---------------------------------------------------------------------------
    History has shown that crises usually come with little or no 
warning; stemming from the same conditions of uncertainty, complexity, 
and chaos we observe across the world today. Regardless of the 
financial pressures placed on governments and markets today, crises 
requiring military intervention undoubtedly will continue tomorrow. In 
this environment, physical presence and readiness matter significantly. 
Since the 1990s, America has been reducing its foreign basing and 
presence, bringing forces back home. This trend is not likely to change 
in the face of the strategic and budget realities we currently face. 
There remains an enduring requirement to balance presence with cost. In 
the past, the Nation has chosen to depend on the Navy and Marine Corps 
to provide a lean and economical force of an expeditionary nature, 
operating forward and in close proximity to potential trouble spots. 
Investing in naval forces that can respond to a wide-range of crisis 
situations, creates options and decision space for our Nation's 
leaders, and protects our citizens and interests is a prudent measure 
in today's world.
The Navy and Marine Corps Team
    Partnered with the United States Navy in a state of persistent 
forward presence aboard amphibious warships, your United States Navy 
and Marine Corps team remains the most economical, agile, and ready 
force immediately available to deter aggression and respond to crises. 
Such a flexible and multicapable force that maintains high-readiness 
levels can mitigate risk, satisfy the standing strategic need for 
crisis response, and when necessary, spearhead entry and access for the 
joint force. More than 60 years ago and arising out of the lessons 
learned from the Korean War, the 82nd Congress envisioned the need for 
a force that ``is highly mobile, always at a high state of combat 
readiness . . . in a position to hold a full-scale aggression at bay 
while the American Nation mobilizes its vast defense machinery''.\6\ 
This statement continues to describe your Navy and Marine Corps team 
today. It is these qualities that allow your Marine Corps to protect 
our Nation's interests, reassure our allies, and demonstrate America's 
resolve.
---------------------------------------------------------------------------
    \6\ Committee report accompanying S. 677 and H.R. 666 of June 30, 
1951.
---------------------------------------------------------------------------
Reorienting to the Pacific
    As our security strategy looks increasingly toward the Pacific, 
forward-deployed naval forces will become increasingly vital. The 
``geographic realities'' of the Pacific theater demand naval 
responsiveness. The genesis of the amphibious and power projection 
capabilities of the Navy and Marine Corps traces back more than 70 
years to operations in the Pacific--where today key terrain and 
strategic chokepoints are separated by large expanses of ocean. The 
Pacific theater is where 30 percent of the world's population and the 
same percentage of our primary trading partners reside; where five 
major defense treaties are focused; \7\ where 50 percent of the world's 
megacities are situated; and where natural disasters over the past 
decade have required the greatest attention from the international 
community.\8\ The geography of the Pacific has not changed, though our 
tactics and operations continually evolve with the changing character 
and lethality of modern warfare. Approximately 24,000 marines already 
in the Pacific conduct an ambitious, annual training cycle of more than 
80 exercises, engagements and initiatives, in addition to the crises we 
respond to such as Operation Tomodachi in Japan last year.
---------------------------------------------------------------------------
    \7\ Philippines-U.S. Mutual Defense Treaty (1951); Australia, New 
Zealand, U.S. (ANZUS) Treaty; U.S. Alliance with South Korea (1954); 
Thailand (Manila Pact of 1954); U.S. Japan Security Treaty (1960).
    \8\ According to the United Nations Economic and Social Commission 
for Asia and the Pacific, during the period 2001 to 2010 in the Asia-
Pacific region more than 200 million people per year were affected by 
natural disasters. This total amounts to 95 percent of the total people 
affected by natural disasters annually. Approximately 70,000 people per 
year were killed due to natural disasters (65 percent of the world's 
total that died of such causes). An average of $35 billion of economic 
damage occurred per year to the region due to natural disasters.
---------------------------------------------------------------------------
    Forward presence involves a combination of land- and sea-based 
naval forces. Our enduring bases and presence have served U.S. national 
security interests well for decades. Our rotational presence in 
locations such as Japan, Korea, Australia, the Philippines, Thailand, 
and Singapore reassures our allies and partners. Sea-basing, the act of 
using amphibious warships with support from maritime prepositioned 
ships with various types of connectors, is uniquely suited to provide 
the geographic combatant commander with the flexibility to deploy 
forces anywhere in the Pacific region without having to rely on 
multiple bases ashore or imposing our presence on a sovereign nation. 
Sea-basing enables forward deployed presence at an affordable cost. 
Forward-deployed naval forces serve as a deterrent and provide a 
flexible, agile response capability for crises or contingencies. 
Maritime prepositioning offers the ability to rapidly support and 
sustain Marine forces in the Pacific during training, exercises, or 
emerging crises, and delivers the full-range of logistical support 
those forces require.
A Middleweight Force From the Sea
    As a ``middleweight force'', Marines do not seek to supplant any 
service or ``own'' any domain. Rather, Marine forces operate in a 
``lane'' that passes through all domains--land, sea, air, space, and 
cyber--operating capably and freely throughout the spectrum of threats, 
whether they be conventional, hybrid, irregular, or the uncertain areas 
where they overlap. Whereas other forces are optimized for a particular 
mission and domain, the Marine Corps is optimized for rapid deployment, 
versatile employment, and self-sustainment via Marine Air-Ground Task 
Forces (MAGTF), which are balanced, combined-arms formations under a 
single commander. All MAGTFs consist of four core elements:
  --a command element;
  --ground combat element;
  --aviation combat element; and
  --logistics combat element.
    MAGTFs are scalable in size and capability.
    Bridging a seam in our Nation's defense between heavy conventional 
and special operations forces (SOF), the United States Marine Corps is 
light enough to arrive rapidly at the scene of a crisis, but heavy 
enough to carry the day and sustain itself upon arrival. The Marine 
Corps is not designed to be a second-land army. That said, throughout 
the history of our Nation, its Marines have been called to support 
sustained operations from time to time. We are proud of our ability to 
contribute to land campaigns when required by leveraging and rapidly 
aggregating our capabilities and capacities. Primarily though, the 
Corps is a critical portion of our integrated naval forces and designed 
to project power ashore from the sea. This capability does not 
currently reside in any other service; a capability that has been 
called upon time and again to deter aggression and to respond quickly 
to threatening situations with appropriate military action.
    Marine Corps and SOF roles are complementary, not redundant. 
Special forces contribute to the counterinsurgency and counterterrorism 
demands of the geographic combatant commanders in numerous and 
specialized ways, but they are not a substitute for conventional 
forces, and they do not have a broader range of capabilities and 
sustainability. SOF lack the organic logistic capability and capacity 
to execute a noncombatant operation, serve as a ``fire brigade'' in a 
crisis or conduct combined amphibious and airborne assaults against a 
competent enemy. Middleweight naval forces, trained in combined arms 
warfare and knowledgeable in the art of maneuver warfare from the sea, 
are ideally trained and prepared for these types of operations.
The Littorals
    The United States remains a maritime Nation that relies heavily on 
the oceans and waterways of the world for the free exchange of ideas 
and trade. The maritime commons are where 95 percent of the world's 
commerce flows, where more than 42,000 commercial ships are under way 
daily, where most of the world's digital information flows via undersea 
cables, and where one-half the world's oil travels through seven 
strategic chokepoints. To secure our way of life and ensure 
uninterrupted freedom of navigation, we must retain the ability to 
operate simultaneously and seamlessly while at sea, ashore, from the 
sea, in the air, and perhaps most importantly, where these domains 
converge--the littorals. These littoral areas exist not only in the 
Pacific but throughout the world. Operating in the littoral environment 
demands the close integration of air, sea, and land power. By using the 
sea as maneuver space, flexible naval forces can quickly respond to 
crises in the bordering environment of the littorals.
    In the context of the new strategy, the Navy and Marine Corps team 
is increasingly relevant in meeting the exigent military needs of our 
Nation. Together, we provide the capability for massing potent forces 
close to a foreign shore, while maintaining a diplomatically sensitive 
profile. Additionally, when necessary, we are able to project this 
power ashore across the range of military operations at a time of our 
Nation's choosing. Amphibious capabilities provide the means to conduct 
littoral maneuver--the ability to maneuver combat-ready forces from the 
sea to the shore and inland in order to achieve a positional advantage 
over the enemy. Working seamlessly as a single naval force, your Navy 
and Marine Corps team provides the essential elements of access and 
forcible entry capabilities that are necessary components of a joint 
campaign.
Engagement
    In order to keep large crises from breaking out or spilling over to 
destabilize an entire region, 21st century security challenges also 
require expansion of global engagement with partner and allied 
nations--facilitated through persistent forward naval presence--to 
promote collective approaches to common security concerns. Our 
engagement contributions in support of the geographic combatant 
commanders minimize conditions for conflict and enable host nation 
forces to effectively address instability on their own as it occurs. 
They promote regional stability and the growth of democracy while also 
deterring regional aggression. History has shown that it is often far 
cheaper to prevent a conflict than to respond to one. This thrust will 
necessitate amphibious forces that are not only fighters, but who can 
also serve as trainers, mentors, and advisers to host nation military 
forces.
Integration with the Joint Force
    In our new defense strategy, the Marine Corps will fill a unique 
lane in the capability range of America's Armed Forces. Whether first-
on-the scene, part of, or leading a joint force, marines instinctively 
understand the logic and synergy behind joint operations. Our ability 
to deploy rapidly and globally allows us to set the stage and enable 
the transition to follow-on joint forces in a timely manner. Our MAGTF 
structure--with organic logistics, aviation, intelligence, fires, and 
other assets--enables us to seamlessly team with others and provides 
options for the joint force commander to:
  --provide a visible deterrent to would-be threats without requiring a 
        vulnerable presence ashore at fixed bases or airfields;
  --swiftly respond to small-scale crises with a range of options 
        beyond precision strike, potentially containing crises before 
        they erupt into major contingencies;
  --partner with the Navy and United States Special Operations Command 
        (SOCOM) to shape the operational environment;
  --use the sea as maneuver space, avoiding enemy strengths, and 
        striking his weaknesses;
  --directly seize or obtain operational objectives from the sea, 
        without the requirement for large force build-ups or sustained 
        presence ashore;
  --extend the operational reach of the Joint Force hundreds of miles 
        inland to achieve effects from the sea through organic MAGTF 
        assets; and
  --overcome anti-access and area denial threats in a single-naval 
        battle approach through the use of landing forces aboard 
        amphibious warships integrated with other capabilities to 
        include mine countermeasures and naval surface fires.
Day-to-Day Crisis Response
    Engagement and crisis response are the most frequent reasons to 
employ our amphibious forces. The same capabilities and flexibility 
that allow an amphibious task force to deliver and support a landing 
force on a hostile shore enable it to support forward engagement and 
crisis response. The geographic combatant commanders have increased 
their demand for forward-postured amphibious forces capable of 
conducting security cooperation, regional deterrence, and crisis 
response.
    Marines have conducted amphibious operations and responded to 
crises throughout the world more than 100 times in the past two 
decades. The vast majority of our expeditionary service has involved 
crisis response and limited contingency operations, usually conducted 
in periods when the Nation has otherwise been at peace. Some of these 
were relatively short-term rescue or raid expeditions, while others 
evolved into contingencies that were limited in force size but not 
limited in duration, complexity and level of integration with the other 
elements of national power. We will contribute to the missions of our 
Nation's security strategy in the same way.\9\ On a day-to-day basis, 
marines will be forward-deployed and engaged, working closely with our 
joint and allied partners. When crises or contingencies arise, these 
same marines will respond--locally, regionally, or globally if 
necessary--to accomplish whatever mission the Nation requires.
---------------------------------------------------------------------------
    \9\ The Marine Corps is capable of performing 9 of the 10 stated 
missions in the Defense Strategic Guidance to include:
      -- Counterterrorism and irregular warfare;
      -- Deter and defeat aggression;
      -- Project power despite anti-access/area denial challenges;
      -- Counter weapons of mass destruction;
      -- Operate effectively in cyberspace and space;
      -- Defend the Homeland and provide support to civil authorities;
      -- Provide a stabilizing presence;
      -- Conduct stability and counterinsurgency operations; and
      -- Conduct humanitarian, disaster relief; and other operations.
---------------------------------------------------------------------------
America's Expeditionary Force in Readiness
    The new strategic guidance underscores the Marine Corps role as 
America's expeditionary force in readiness. Reliant on a strategically 
relevant and appropriately resourced Navy fleet of amphibious warships 
and maritime prepositioning force (MPF) vessels, we are forward 
deployed and forward engaged: shaping strategic environments; training 
partner nation and allied forces; deterring adversaries; and responding 
to all manner of crises contingencies.\10\ Alert and ready, we respond 
to today's crisis with today's force . . . today. Marines are ready to 
respond whenever the Nation calls and wherever and however the 
President may direct.
---------------------------------------------------------------------------
    \10\ As of January 2012, approximately 30,000 marines were forward 
deployed in operations supporting our Nation's defense. This number 
includes approximately 19,500 marines in Afghanistan including those 
serving in external billets (transition teams, joint/interagency 
support, etc.), approximately 5,000 marines at sea on Marine 
Expeditionary Units (MEU), and approximately 6,000 marines engaged in 
various other missions, operations, and exercises. The 30,000 marine 
statistic does not include more than 18,000 marines permanently 
assigned to garrison locations outside the continental United States 
such as in Europe, the Middle East, the Pacific, etc.
---------------------------------------------------------------------------
          we have worked diligently to prepare for the future
Force Structure Review
    In an effort to ensure the Marine Corps is organized for the 
challenges of the emerging security environment, we conducted a 
capabilities-based force structure review beginning in the fall of 2010 
to identify ways we could rebalance and posture for the future. The 
force structure review incorporated the lessons learned from 10 years 
of combat and addressed 21st century challenges confronting our Nation 
and its Marine Corps. The review sought to provide the ``best value'' 
in terms of capability, cost, and readiness relative to the operational 
requirements of our forward-engaged geographic combatant commanders. 
The results of that effort have been shared with the Congress over the 
past year. While affirming this strategy-driven effort, we have aligned 
our force based on the realities of constrained spending levels and 
strategic guidance.
End Strength
    During our comprehensive force structure review, we tailored a 
force structure to ensure a sufficient type and quantity of force 
available to meet the forward presence, engagement, and crisis response 
requirements of the geographic combatant commanders. The resulting 
force structure is intended to meet title 10 responsibilities, broaden 
capabilities, enhance speed and response options, and foster the 
partnerships necessary to execute the range of military operations 
while providing the ``best value'' to the Nation. This force structure 
also accounted for the addition of enabling assets (e.g. combat 
engineers, information operations specialists, civil affairs personnel, 
specialized intelligence marines, cyber operators, special operators, 
etc.) necessary to meet the demands of the battlefields of today and 
tomorrow.
    As directed, we will draw-down our force in a measured way 
beginning in fiscal year 2013. Our fiscal year 2013 programmed end 
strength is 197,300 marines. In accordance with Defense Strategic 
Guidance, we are resisting the ``temptation to sacrifice readiness in 
order to retain force structure''.\11\ Personnel costs account for 
about 60 cents of every marine $1; through our force structure efforts 
we balanced the requisite capabilities across a smaller force, in 
effect trading capacity for modernization and readiness.
---------------------------------------------------------------------------
    \11\ ``Sustaining U.S. Global Leadership: Priorities for 21st 
Century Defense'', January 2012, p. 7.
---------------------------------------------------------------------------
    The resulting 182,100 marine active-duty force, supported by our 
operational reserve component, retains the capacity and capability to 
support steady state and crisis response operations through rotational 
deployments, and to rapidly surge in support of major contingency 
operations. Although reshaping the Marine Corps from 202,100 marines to 
a force of approximately 182,100 marines entails some risk to our 
ability to simultaneously respond to multiple large-scale 
contingencies, it is manageable. We intend to leverage the diverse 
depth and range of assets within our reserve component both to mitigate 
risk and maximize opportunities where available.
    As we reduce end strength, we must manage the rate carefully so we 
reduce the force responsibly. We will draw-down our end strength by 
approximately 5,000 marines per year. The continued resourcing of this 
gradual ramp-down is vital to keeping faith with those who have already 
served in combat and for those with families who have experienced 
resulting extended separations. The pace of active component draw-down 
will account for completion of our mission in Afghanistan, ensuring 
proper resiliency in the force relative to dwell times. As our Nation 
continues to draw-down its Armed Forces, we must guard against the 
tendency to focus on pre-9/11 end strength levels that neither account 
for the lessons learned of 10 years at war nor address the irregular 
warfare needs of the modern battlefield. Our 182,100 Marine Corps 
represents fewer infantry battalions, artillery battalions, fixed-wing 
aviation squadrons, and general support combat logistics battalions 
than we had prior to 9/11. However, it adds cyber operations 
capability, Marine special operators, wartime enablers, and higher unit 
manning levels--all lessons gleaned from 10 years of combat operations; 
it is a very capable force.
    My promise to the Congress is that at the end of the day, I will 
build and maintain the best Marine Corps our Nation can afford with the 
resources it is willing to invest. We are also committed to keeping 
faith with marines, sailors, and their families who have sacrificed so 
much over the past decade at war. Personnel reductions that become 
precipitous are among the worst measures that can be employed to save 
money. Our All-Volunteer Force is built upon a reasonable opportunity 
for retention and advancement; unplanned and unexpected wholesale cuts 
undermine the faith and confidence in service leadership, and create 
long-term experience deficits with negative operational impacts. Such 
an approach would no doubt do significant long-term damage to our 
ability to recruit and maintain a quality force.
Civilian Marines
    Our civilian marines support the mission and daily functions of the 
Marine Corps and are an integral part of our total force. In 
recognition of the need to study and clearly define our civilian work 
force requirements to ensure we had the right workforce in the right 
location, at a cost that aligned with our budget, I directed a full 
review of the total force in late 2010. This measure necessitated a 
hiring freeze but resulted in prioritized requirements within 
affordable levels and the alignment of resources with capabilities. It 
also ensured the civilian labor force was shaped to support the mission 
of the Corps today and that projected for the future.
    During the fiscal year 2012 budget cycle, there was no growth in 
our fiscal year 2011 civilian work force levels due to necessary 
efficiency measures. Consequently, our civilian work force went from a 
planned level of 21,000 personnel in direct funded full-time equivalent 
(FTE) personnel to 17,501 personnel. This number of FTE personnel will 
remain constant in each year of the current future year's defense plan 
(FYDP)--there is no growth planned. The end result is a 17-percent 
reduction in planned growth between fiscal year 2011 and fiscal year 
2012 budget requests.
    Our fiscal year 2013 civilian personnel budget reflects efforts to 
restrain growth in direct funded personnel. By establishing budgetary 
targets consistent with current fiscal realities, we will be able to 
hold our civilian labor force at fiscal year 2010 end-of-year levels, 
except for limited growth in critical areas such as the acquisition 
workforce, the intelligence community, the information technology 
community (i.e. conversion from NMCI to NGEN), in-sourcing of security 
personnel (i.e. Marine Corps civilian law enforcement personnel), and 
personnel in our cyber community. Our civilian marine work force 
remains the leanest among DOD with only 1 civilian for every 10 
marines.
                             our priorities
Commandant's Four Priorities
    To best meet the demands of the future and the many types of 
missions marines will be expected to perform now and beyond the post-
OEF security environment, I established four enduring priorities in 
2010. To that end, we will:
  --provide the best trained and equipped marine units to Afghanistan. 
        This will not change and remains our top priority;
  --rebalance our Corps, posture it for the future and aggressively 
        experiment with and implement new capabilities and 
        organizations;
  --better educate and train our marines to succeed in distributed 
        operations and increasingly complex environments; and
  --keep faith with our marines, our sailors, and our families.
    We are making significant progress within each of these four 
critical areas; however, there are pressing issues facing our Corps 
today that require the special attention and assistance of the 
Congress. These include specific programs and initiatives within the 
command, ground, logistics, and aviation portfolios of the MAGTF.
Reset
    The Marine Corps is conducting a comprehensive review of its 
equipment inventory to validate reset strategies, future acquisition 
plans, and depot maintenance programming and modernization initiatives. 
As already stated, after 10 years of constant combat operations, the 
Marine Corps must reset the force coming out of Afghanistan. The reset 
of equipment retrograded to home station from Iraq (approximately 
64,000 principal items) is complete. However, the equipment density 
list currently supporting combat operations in Afghanistan totals 
approximately 95,000 principal items, of which approximately 42 percent 
was retransferred directly from Iraq to support the surge of 2009. The 
bulk of this transferred equipment included high-demand items such as 
communications equipment and vehicles to include the majority of our 
mine-resistant ambush-protected vehicles and 100 percent of our medium 
tactical vehicle fleet.
    Sustaining current combat operations has reduced the aggregate 
readiness of the nondeployed force. Nondeployed unit readiness is 
degraded and has been the ``bill payer'' for deployed unit readiness. 
We sacrificed readiness levels of our home station units to ensure 
marines in combat had the very best equipment. Through the support of 
the Congress over the past few years, we have received a good portion 
of the required funding for reset and have made significant progress at 
our depots in restoring and procuring required materiel. But there is 
more to do at our home stations. Thirty-three percent of nondeployed 
units report the highest-readiness levels for their designed mission, 
which leaves 67 percent of nondeployed units in a degraded state of 
readiness. The largest contributing factor to degraded readiness within 
nondeployed units is equipment supply. The nondeployed force provides 
the Nation depth in responsiveness and options when confronted with the 
unexpected. Our marines at home must be ``geared up'' and ready to be 
called at a moment's notice. Low levels of readiness within the 
nondeployed force increases risk in the timely and successful execution 
of a military response to crises or contingencies. Therefore, it is 
critical that the Marine Corps continues to receive congressional 
assistance on required funding to reset our equipment from the 
conflicts of the past decade.
    In January 2012, I signed the ``Marine Corps OEF Ground Equipment 
Reset Strategy'', rooted in the lessons learned from our successful 
redeployment and retrograde from Iraq. This strategy is helping to 
identify what equipment we will reset and what we will divest. It 
prioritizes investment and modernization decisions in accordance with 
the capabilities of our middleweight force construct, defining unit-
level mission essential tasks and equipment requirements to support the 
range of military operations, and equips to core capabilities for 
immediate crisis response deployment and building strategic depth. We 
have issued disposition instructions on 8,400 principal items 
associated with the initial draw-down of forces that will occur this 
fall. In Afghanistan, 35 percent of that equipment has entered the 
redeployment and retrograde pipeline. Initial shipments of equipment 
have arrived at home stations and depots, and are being entered into 
the maintenance cycle. We currently expect divestment of approximately 
21 percent of the total Afghanistan equipment density list as obsolete, 
combat loss, or otherwise beyond economical repair. These are combat 
capability items that must be replaced.
    The reset of our equipment after more than a decade of combat 
requires an unprecedented level of effort. Our Marine Corps depots will 
be asked to do more once again; they stand ready to do so. As our 
Nation looks to efficiencies in its Armed Forces, we must maintain a 
keen awareness of the role that depots play in keeping our country 
strong. The continued availability of our depot capacity both at 
Barstow, California and Albany, Georgia is essential to our ability to 
self-generate readiness and to respond when we must surge in response 
to wartime demand. Acknowledging fiscal realities, I directed, with the 
Secretary of the Navy's approval, the consolidation of the two Marine 
Corps depots under a single command with two operating plant locations. 
Consolidating our depots under a single commander is the right balance 
between fiscal efficiency and meeting the unique requirements of the 
Marine Corps. This consolidation will reduce costs, standardize 
processes between industrial plants, and increase efficiency.
Modernization
    In conjunction with our reset efforts, we are undertaking several 
initiatives to conduct only essential modernization of the Marine Corps 
Total Force. This will place us on a sustainable course to achieve 
institutional balance. We are doing so by judiciously developing and 
procuring the right equipment needed for success in the conflicts of 
tomorrow, especially in those areas that underpin our core 
competencies. As such, I ask for continued congressional support to 
modernize equipment and maintain a high state of readiness that will 
place us on solid footing in a post-Afghanistan security environment. 
While budgetary pressures will likely constrain modernization 
initiatives, we will mitigate pressure by continuing to prioritize and 
sequence both our modernization and sustainment programs to ensure that 
our equipment is always ready and that we are proceeding in a fiscally 
responsible manner. Modernization programs that require significant 
additional funding above current levels will be evaluated for continued 
operational requirement and capability/capacity modification.
    We recognize that our planned, force structure reduction following 
our commitment in Afghanistan will accommodate a level of decreased 
modernization investment due to a requirement for a smaller quantity of 
modernized equipment. However, any qualitative modernization reductions 
will impact our ability to respond to future adversaries and threats. 
The current baseline budget allows for equipment modernization on a 
reasonable timeline across the FYDP. Possible future reductions in the 
baseline budget will result in delays, modification or elimination of 
key modernization programs. Modernization in the following areas is 
critical to maintaining operational capabilities and readiness:
  --ground combat tactical vehicles;
  --aviation;
  --preparing for future battlefields;
  --amphibious and prepositioning ships;
  --expeditionary energy; and
  --intelligence, surveillance, and reconnaissance.
Ground Combat Tactical Vehicle Strategy
    The programmatic priority for our ground forces is the seamless 
maneuver of marines from the sea to conduct operations ashore whether 
for training, humanitarian assistance, or combat. Our ground combat 
tactical vehicle (GCTV) strategy is focused on achieving the right mix 
of assets, while balancing performance, payload, survivability, fuel 
efficiency, transportability, and cost. Vehicles comprising our GCTV 
strategy include our entire inventory of wheeled and tracked vehicles 
and planned future capabilities including the JLTV, amphibious combat 
vehicle (ACV) and the marine personnel carrier (MPC). Throughout 2011 
and informed by cost, we conducted a comprehensive systems engineering 
review of amphibious vehicle operational requirements. The review 
evaluated the requirements for water mobility, land mobility, 
lethality, and force protection of the future environment. The 
identification of essential requirements helped to drive down both the 
production and the sustainment costs for the amphibious vehicles of the 
future.
    We are conducting an analysis of alternatives on six ACV options, 
the results of which will help to inform the direction and scope of the 
ACV program. The MPC program is maturing as a wheeled armored personnel 
carrier and complements the ACV as a possible solution to the general 
support lift capacity requirements of Marine forces operating in the 
littorals.
    We are firmly partnered with the U.S. Army in fielding a JLTV to 
replace a portion of our legacy medium lift utility vehicles. Our long-
term participation in this program remains predicated on development of 
a cost-effective vehicle, whose payload integrates seamlessly with our 
expeditionary operations and likely amphibious and strategic lift 
profiles.\12\ The Joint Requirements Oversight Council has approved the 
JLTV Capability Development Document, and our combat development 
command in Quantico is leading the Army and Marine Corps effort to 
establish a program of record at Milestone B in the third quarter of 
fiscal year 2012. Our approach to JLTV is as an incremental 
acquisition, and our objective for Increment I currently stands at more 
than 5,000 vehicles. Factoring all the above considerations, the 
current pathway for our GCTV strategy includes the following actions:
---------------------------------------------------------------------------
    \12\ For two-axle combat vehicles, this equates to combat weights 
in the 18,000 to 19,000 lbs range, translating to empty vehicle weights 
in the range of 12,000 to 13,000 lbs.
---------------------------------------------------------------------------
  --develop a modern ACV;
  --develop and procure JLTV;
  --sustain HMMWVs through 2030 by utilizing an Inspect and Repair Only 
        As Necessary Depot Maintenance Program and a HMMWV Modification 
        Line; \13\
---------------------------------------------------------------------------
    \13\ HMMWV recapitalization does not meet Marine Corps requirements 
for those light vehicles with the most demanding missions. They cannot 
deliver reliability, payload, service life, mobility, the ability to 
fit on MPF shipping, and growth potential. The JLTV is the most cost-
effective program to meet capability gaps for those light combat 
vehicles with the most demanding missions.
---------------------------------------------------------------------------
  --initiate a legacy amphibious assault vehicle upgrade as a bridge to 
        ACV;
  --continue research and development in MPC through fiscal year 2014 
        to identify the most effective portfolio mix of vehicles; and
  --limit procurement of vehicles to reduced approved acquisition 
        objective estimates as identified.
Marine Corps Aviation
    Marine Corps Aviation is proud to celebrate its centennial of 
service to our Nation this year. Our priority for aviation is support 
of marines in Afghanistan and wherever marines are deployed. On 
average, more than 40 percent of our aviation force is deployed at any 
time with an additional 25 percent preparing to deploy. All told, this 
equates to two-thirds of Marine Aviation forces currently deployed or 
preparing to deploy. We are continuing a modernization effort that 
began more than a decade ago. Today, the Marine Corps is challenged to 
replace aging platforms that have reached the end of their service 
lives or suffered accelerated wear in harsh operating environments, 
thus reducing service life and resulting in the loss of critical war-
fighting capabilities. Our aviation plan is a phased multiyear approach 
to modernization that encompasses aircraft transitions, readiness, 
aircraft inventory shortfalls, manpower challenges, safety, and fiscal 
requirements.
    In an era of budgetary constraint and amidst calls for reductions 
in the collective aviation assets within DOD, it is important to 
understand that Marine air is not redundant with other services' 
capabilities. The U.S. Air Force is not designed to operate from the 
sea, nor are most of its aircraft suited for operations in the types of 
austere environments often associated with expeditionary missions. The 
Navy currently does not possess sufficient capability to operate their 
aircraft ashore once deployed forward on carriers--and yet history has 
shown that our Nation often needs an expeditionary aviation capability 
in support of both naval and land campaigns. The following programs 
form the backbone of our aviation modernization effort:
      F-35B.--As we modernize Marine fixed-wing aviation assets for the 
        future, the continued development and fielding of the short 
        take-off and vertical landing (STOVL) F-35B Joint Strike 
        Fighter remains the centerpiece of this effort. The capability 
        inherent in a STOVL jet allows the Marine Corps to operate in 
        harsh conditions and from remote locations where few airfields 
        are available for conventional aircraft. It is also 
        specifically designed to operate from amphibious ships--a 
        capability that no other tactical aircraft possesses. The 
        ability to employ a fifth-generation aircraft from amphibious 
        ships doubles the number of ``carriers''--11 CVN and 11 LHD/
        LHAs--from which the United States can employ fixed wing 
        aviation. Once fully fielded, the F-35B will replace three 
        legacy aircraft--F/A-18, EA-6B, and AV-8B--saving DOD 
        approximately $1 billion in legacy operations and maintenance 
        costs.
      The F-35B program has been a success story over the past year. 
        Due to the performance of F-35B prototypes in 2011, the program 
        was recently removed 12 months early from a fixed period of 
        scrutiny. The F-35B completed all planned test points, made a 
        total of 260 vertical landings (versus 10 total in 2010) and 
        successfully completed initial ship trials on USS Wasp. 
        Delivery is still on track; the first three F-35Bs arrived at 
        Eglin Air Force Base in January of this year. Continued funding 
        and support from the Congress for this program is of utmost 
        importance for the Marine Corps as we continue with a plan to 
        ``sundown'' three different legacy platforms.
      MV-22B.--The MV-22B Osprey has performed exceedingly well for the 
        Corps and the joint force. To date, this revolutionary 
        tiltrotor aircraft has changed the way Marines operate on the 
        battlefield, giving American and Coalition forces the maneuver 
        advantage and operational reach unmatched by any other tactical 
        aircraft. Since achieving initial operating capability (IOC) in 
        2008, the MV-22B has flown more than 18,000 hours in combat and 
        carried more than 129,000 personnel and 5.7 million pounds of 
        cargo. The MV-22B has made multiple combat deployments to Iraq, 
        four deployments with MEUs at sea, and it is currently on its 
        fifth deployment to Afghanistan. Our squadron fielding plan is 
        well under way as we continue to replace our 44-year-old, 
        Vietnam-era CH-46 helicopters. We must procure all required 
        quantities of the MV-22B in accordance with the program of 
        record. Continued calls for cancellation of this program are 
        ill-informed and rooted in anachronisms when measured against 
        the proven record of performance and safety this force 
        multiplier brings to today's battlefields in support of marines 
        and the joint force.
      CH-53K.--We are transitioning our rotary-wing assets for the 
        future. The CH-53K is a new build heavy-lift helicopter that 
        evolves the legacy CH-53E design to improve operational 
        capability, reliability, maintainability, survivability, and 
        cost. The CH-53K will be capable of transporting 27,000 pounds 
        of external cargo under high altitude/hot conditions out to 110 
        nautical miles, nearly three times the lift capacity of the 
        legacy CH-53E. It is the only marinized rotorcraft \14\ able to 
        lift 100 percent of Marine Corps air-transportable equipment 
        from amphibious shipping (MPF included). Our force structure 
        review validated the need for a CH-53K program of record of 
        nine CH-53K squadrons.
---------------------------------------------------------------------------
    \14\ The term ``marinized'' indicates that an aircraft meets naval 
aviation requirements for use and storage in a maritime environment. 
Aviation platforms used by the Navy and Marine Corps require special 
outfitting unique for use on and from naval vessels.
---------------------------------------------------------------------------
      UH-1/AH-1.--The H-1 program, comprised of the UH-1Y utility 
        helicopter and the AH-1Z attack helicopter, is a single 
        acquisition program that leverages 84-percent commonality of 
        major components, thereby enhancing deployability and 
        maintainability while reducing training requirements and 
        logistical footprints. Both aircraft are in full-rate 
        production. The H-1 procurement objective is 160 UH-1Ys and 189 
        AH-1Zs for a total of 349 aircraft. Currently, 131 H-1 aircraft 
        are on contract, with 51 UH-1Ys and 21 AH-1Zs delivered to 
        date. The UH-1Y has already deployed with the 13th MEU and has 
        supported sustained combat operations in OEF since November 
        2009. The AH-1Z achieved IOC in February 2011 and saw its first 
        deployment alongside the UH-1Y in November 2011 as part of the 
        11th MEU. The continued procurement and rapid transition to 
        these two platforms from legacy UH-1N and AH-1W assets in our 
        rotary-wing squadrons remains a priority.
      KC-130J.--The new KC-130J Hercules has been fielded throughout 
        our active component, bringing increased capability, 
        performance and survivability with lower operating and 
        sustainment costs to the Marine air ground task force. Using 
        the Harvest HAWK weapon mission kit, the KC-130J is providing 
        extended endurance close air support to our marines in harm's 
        way. Currently, we have procured 47 KC-130Js of the stated 
        program of record requirement totaling 79 aircraft. Continued 
        procurement of the program of record will allow us to fully 
        integrate our active and reserve force with this unique, 
        multimission assault support platform.
Preparing for Tomorrow's Fight
    The irregular battlefields of today, and those of tomorrow, dictate 
that operations be more distributed, command and control be 
decentralized, and forces be more dispersed. Using our force structure 
review as a guide, we are continuing to build the right capacity and 
capability to enable marines operate rapidly as befits the tempo of our 
role as a crisis response force. Several important areas to enable our 
operations are:
      Cyber.--The Defense Strategic Guidance rightly informs that 
        ``modern armed forces cannot conduct high-tempo, effective 
        operations without reliable information and communications 
        networks and assured access to cyberspace and space''.\15\ 
        Marines have been conducting cyber operations for more than a 
        decade, and we are in a multiyear effort to expand our capacity 
        via U.S. Marine Corps Forces Cyber Command as we increase our 
        cyber force by approximately 700 marines through fiscal year 
        2016. Given the fiscally constrained environment and complexity 
        of cyberspace, our approach is strategically focused on 
        ensuring efficiency in operations and quality of service. The 
        Marine Corps will aggressively operate and defend its networks 
        in order to enable critical command and control systems for 
        marines forward deployed around the world. Recent cyber 
        accreditations and readiness inspections validate our network 
        operations command and control processes and procedures. As we 
        transition to a Government-owned/operated network environment, 
        the Marine Corps will pursue efficiencies through automation, 
        consolidation, and standardization to ensure availability, 
        reliability, and security of cyber assets.
---------------------------------------------------------------------------
    \15\ Sustaining U.S. Global Leadership: Priorities for 21st Century 
Defense, January 2012, p. 5.
---------------------------------------------------------------------------
      Special Operation Forces.--As the Marine Corps contribution to 
        SOCOM, Marine Special Operations Command (MARSOC) maintains a 
        shared heritage and correspondingly strong bond with its parent 
        service as ``soldiers from the sea''. MARSOC will provide a 
        total of 32 employable Marine special operations teams in 
        fiscal year 2013 while establishing the staff of the Marine 
        special operations school, maintaining a targeted dwell ratio 
        and continuing creation of a robust language capability. Based 
        on our force structure review of last year and a programmed end 
        strength of 182,100 marines, I have authorized an increase of 
        821 marines in MARSOC.
      Command and Control.--Technology and network-based forces are an 
        essential part of modern operations. Our command and control 
        (C2) modernization efforts for the future build upon lessons 
        learned during combat operations in Afghanistan and Iraq. 
        Recent operations have shown that moving data to lower levels 
        (i.e. the digital divide) increases operational effectiveness. 
        We are mitigating the decision to cancel the ground mobile 
        radio by building on investments already made in tactical 
        communications modernization. We will continue efforts to 
        ensure C2 Situational Awareness convergence and 
        interoperability with the joint force.
      Advisers and Trainers.--In recognition that preventing conflict 
        may be easier than responding to it and that we can prevent it 
        through selective engagement and employment of advisers/
        trainers, we have invested in a new organization called Marine 
        Corps Security Cooperation Group that consolidates advisers 
        skills, training and assessment expertise focused on building 
        partnership capacity. We are investigating how we can 
        regionally focus the expertise of this organization.
Amphibious Warships and Maritime Prepositioning Shipping
    Our Service-level requirement to deploy globally, respond 
regionally, and train locally necessitates a combination of tactical 
airlift, high-speed vessels, amphibious warships, maritime 
prepositioning shipping, organic tactical aviation, and strategic 
airlift. Significant contributions to U.S. security are made by our 
rotational forces embarked aboard amphibious warships. These forces 
combine the advantages of an immediate, yet temporary presence, 
graduated visibility, and tailored, scalable force packages structured 
around the MAGTF. Rotational amphibious ready groups and Marine 
expeditionary units form together to provide forward-deployed naval 
forces in four geographic combatant command areas of responsibility. 
Not only do they provide the capability for crisis response, but they 
also present a means for day-to-day engagement with partner nations and 
a deterrent to conflict in key trouble spots.
    We maintain the requirement for an amphibious warship fleet for 
contingencies requiring our role in joint operational access. One 
Marine Expeditionary Brigade (MEB) assault echelon requires 17 
operationally available amphibious warships. The Nation's forcible 
entry requirement includes two simultaneously employed MEBs supported 
by one or more MPF-MEB to fight as a Marine expeditionary force from a 
sea base.
    Amphibious warships and the requisite number of ship-to-shore 
connectors provides the base-line needed for steady state operations 
and represents the minimum number of ships needed to provide the Nation 
with a sea-based power projection capability for full spectrum 
amphibious operations. As of January 2012, there were 29 ships in the 
Navy's amphibious fleet, with three scheduled for decommissioning and 
four new ships under construction in the yards. Within the coming FYDP, 
the inventory will decline in fiscal year 2014 before rising to an 
average of 30 amphibious warships over the next 30 years. The lack of 
amphibious warship lift capacity translates to risk for the Nation, 
particularly as it reorients to the Pacific.
    The continued procurement of scheduled amphibious warships and 
planning for MPF shipping is essential to ensure greater levels of risk 
are not incurred in coming years.
      San Antonio Class Amphibious Transport Dock.--The San Antonio 
        class landing platform/docks (LPDs) continue to gain stability 
        with overall warship performance improving. Through the 
        generosity of the Congress, the final two warships in this 
        program are fully funded, and we expect delivery of all 11 
        planned warships by fiscal year 2017.
      America Class Amphibious Assault Ship Replacement.--A growing 
        maritime threat coupled with aircraft/ground combat equipment 
        modernization dictates the need for continued optimization of 
        the America-class amphibious assault ship (LHA-6) hull form, 
        which is now 60-percent complete. As stated last year, delivery 
        of this amphibious assault warship is scheduled for fiscal year 
        2014. The earliest reasonable deployment after allowing time 
        for sea trials, crew training and other factors would be in 
        fiscal year 2017. Construction of LHA-7 is scheduled to 
        commence in early fiscal year 2013 but is not yet under 
        contract. The Marine Corps is grateful for and firmly supports 
        the Navy's plan to reintroduce a well deck in our large deck 
        amphibious assault ships, beginning with LHA-8 in fiscal year 
        2017 and fiscal year 2018 timeframe.
      2 x Maritime Prepositioned Squadrons.--Providing a significant 
        contribution to global coverage, forward presence and crisis 
        response, the MPF program exists to enable the rapid deployment 
        and engagement of a MAGTF anywhere in the world in support of 
        our National Military Strategy. This strategic capability 
        combines the capacity and endurance of sealift with the speed 
        of airlift. The current MPF program is comprised of 15 ships 
        divided into three Maritime Prepositioned Squadrons (MPSRONs) 
        located in the Mediterranean Sea, Indian Ocean (Diego Garcia) 
        and Pacific Ocean (Guam and Saipan). In fiscal year 2013, the 
        Department of the Navy (DON) plans to eliminate one of these 
        squadrons as an efficiency measure. We are currently reviewing 
        options to develop a balanced MPF posture and MPSRON 
        composition that supports geographic combatant commander 
        requirements, achieves approximately $125 million in savings 
        across the FYDP, attains a higher lift capacity of the MEB 
        requirement per MPSRON, and retains critical sea-basing 
        enabling capabilities. The continued support of the Congress 
        for the vital capabilities inherent in our MPF program is 
        essential to the overall warfighting readiness of the Corps.
Expeditionary Energy
    For marines, the term ``expeditionary'' is a mindset that 
determines how we man, train, and equip our force. We know that 
resource efficiency aids in combat effectiveness, and that our 
investments in reset and modernization will provide a force that 
operates lighter, faster, and at reduced risk. Likewise, our force will 
be more energy-efficient to support the type of operations expected of 
us in the future. To do this, we are changing the way we think about 
and use energy.
    Over the last 10 years of near continuous combat operations, our 
need for fuel and batteries on the battlefield has grown exponentially. 
Since 2001, we have increased the number of radios our infantry 
battalions use by 250 percent, and the number of computers/information 
technology equipment by 300 percent. The number of vehicles has risen 
by 200 percent with their associated weight increasing more than 75 
percent as a result of force protection requirements. In the end, our 
force today is more lethal, but we have become critically dependent on 
fuel and batteries, which has increased the risk to our logistics 
trains. Moreover, a 2010 study found that one marine is wounded for 
every 50 fuel and water convoys.
    To reduce our risk and increase our combat effectiveness, in March 
2011, I issued the ``Marine Corps Expeditionary Energy Strategy and 
Implementation Plan'' to change the way we think about and value 
energy. This is a ``bases-to-battlefield'' strategy, which means all 
marines will be trained to understand the relationship between resource 
efficiency and combat effectiveness. We will consider energy 
performance in all our requirements and acquisitions decisions. We are 
creating the tools to provide commanders the information necessary to 
understand their energy consumption in real-time.
    Over the FYDP, I have directed $350 million to ``Expeditionary 
Energy'' initiatives. Fifty-eight percent of this investment is 
directed toward procuring renewable and energy efficient equipment. 
Some of this gear has already demonstrated effectiveness on the 
battlefield in Helmand Province. Twenty-one percent of this investment 
is directed toward research and development of new capabilities, and 
the remaining investment is to support operations and maintenance. We 
expect this investment to improve the energy efficiency of our MEBs by 
9 percent. As such, we will enable ourselves to sustain longer and go 
further, incurring less risk. The MEB of 2017 will be able to operate 1 
month longer on the same amount of fuel that we plan to use today, and 
it will need 208 fewer fuel trucks, thereby saving 7 million gallons of 
fuel per year. This translates to a lighter, more agile, and more 
capable Marine Corps.
       providing capable bases, stations, and support facilities
Fiscal Year 2013 Military Construction
    The Marine Corps maintains a commitment to facilities and 
infrastructure supporting both operations and quality of life. Our 
military construction and family programs are important to sustain our 
force structure and maintaining readiness. This fiscal year we are 
proposing a $761 million MILCON program to support warfighting, family 
housing, and infrastructure improvements. The focus of our efforts this 
fiscal year is the construction of Joint Strike Fighter and MV-22B 
support facilities, infrastructure improvements, and training and 
education facility improvements. Additionally, this budget request 
includes replacement of inadequate and obsolete facilities at various 
locations.
    Through the support of the Congress, between fiscal year 2008-
fiscal year 2012 we programmed 70 bachelor enlisted quarters (BEQ) 
projects resulting in 149 barracks buildings primarily located at Camp 
Lejeune, North Carolina; Camp Pendleton and Twentynine Palms, 
California; and Marine Corps Base, Hawaii. These BEQ projects were 
typically completed in 2 years, with most at or below cost. These 
facilities, that incorporated energy efficiency measures, have 
significantly improved the quality of life of our single marines, who 
for many years, lived in substandard, World War II-era barracks. Our 
fiscal year 2013 MILCON program includes a $49 million request for 
barracks, a motor pool, and other facilities to support the 
consolidation of Marine Corps Security Force Regiment assets at Naval 
Weapons Station, Yorktown, Virginia. This project was not a part of our 
original BEQ initiative but is necessary as the current facilities used 
by the Regiment at Naval Station Norfolk have been condemned.
Infrastructure Sustainment
    As resources and MILCON funds become more constrained, the Marine 
Corps will continue to rely on the sound stewardship of existing 
facilities and infrastructure to support our needs. In fiscal year 
2013, the Marine Corps will again program facilities sustainment 
funding at 90 percent of the DOD Facilities Sustainment Model, 
resulting in a facilities sustainment budget of $653 million.
Installation Energy Initiatives
    The fiscal year 2013 budget provides $164 million in operations and 
maintenance funding to continue progress in achieving mandated energy 
goals by 2015. This funding will target energy efficiency goals 
established by the Energy Independence and Security Act of 2007 aimed 
at reducing energy intensity by 30 percent from a 2003 baseline. This 
progress will be made by replacing older heating, cooling, lighting, 
and other energy-consuming building components with more efficient 
technologies. We will use this funding to achieve renewable energy 
goals established by the National Defense Authorization Act of 2007. 
Overall, the planned investments are intended to increase energy 
security on our installations while reducing the cost of purchased 
utilities.
         investing in the education and training of our marines
Courses and Facilities
    A broadly-capable middleweight force will meet future requirements 
through the integration of newly acquired and traditional operational 
competencies. To remain America's expeditionary force in readiness, the 
Marine Corps requires balanced, high-quality training and education at 
all levels. As history has repeatedly shown, wars are won by the 
better-trained force, not necessarily the larger one. In the midst of 
ongoing combat operations, we are realigning our education and training 
efforts to enable our marines and sailors to succeed in conducting 
distributed operations in increasingly complex environments against any 
threat. Training and education, with an emphasis on experimentation and 
innovation, will help our Nation maintain global relevance by 
developing solutions that continue to outpace emerging threats. These 
efforts include continued emphasis on our core values of honor, courage 
and commitment, and on building principled warriors who understand the 
value of being an ethical warrior. Moreover, in the post-Afghanistan 
security environment of reduced defense dollars, we will need to offset 
reductions in end strength with better educated and more capable 
marines and marine units. The current and future fiscal environment 
requires a selective, strategic investment in training and education . 
. . put another way, ``When you're low on money, it's a good time to 
think''.
Training
    Our current training is focused on preparing marine units for 
combat, counterinsurgency and stability operations in support of OEF. 
If anything, the past 10 years of combat have demonstrated that there 
is a positive correlation between quality training and education and 
individual/unit readiness; both directly translate to operational 
success. Therefore, as we draw-down from Afghanistan, our training will 
rebalance to support the execution of a wider range of operational 
capabilities. We will achieve this balance by leveraging competencies 
in entry-level and skills progression training and by re-emphasizing 
core competencies in combined arms and amphibious operations to include 
MEB level core capabilities. Training will also feature significant 
attention to irregular warfare, humanitarian assistance, and inter-
agency coordination. All our training programs will provide 
standardized, mission-essential, task-based training that directly 
supports unit readiness in a cost-effective manner.
    Specifically, future training will center on the MAGTF training 
program. Through a standardized training approach, the MAGTF training 
program will develop the essential unit capabilities necessary to 
conduct integrated MAGTF operations. Building on lessons learned over 
the past 10 years, this approach includes focused battle staff training 
and a service assessment exercise modeled on the current exercise, 
Enhanced Mojave Viper. Additionally, we will continue conducting large-
scale exercises that integrate training and assessment of the MAGTF as 
a whole. The MAGTF Training Program facilitates the Marine Corps' 
ability to provide multicapable MAGTFs prepared for operations in 
complex, joint, and multinational environments against hybrid threats.
Education
    We are making steady progress in implementing the recommendations 
of the 2006 Officer Professional Military Education (PME) Study (The 
Wilhelm Report) to transform the Marine Corps University (MCU) into a 
``World Class Institution''. There are two primary resource components 
in doing so--funding for military construction and for faculty and 
staff. These two components are not mutually exclusive. New facilities 
coupled with increases in resident student through-put require 
additional faculty and staff. We will remain engaged with the Congress 
over the coming years on the approximately $330 million in necessary 
funding for facilities, faculty, and staff as we continue the 
transformation of the MCU. This is a high priority for me. This year, I 
committed $125 million to get this initiative moving.
    We are widening opportunities for resident professional education 
by doubling available school seats in courses such as the Marine Corps 
Command and Staff College beginning in the academic year 2014. We are 
making adjustments to triple through-put at the Expeditionary Warfare 
School for our company grade officers. We are increasing enlisted 
resident PME courses as well and are adding more distance education 
learning opportunities and requirements, especially at the junior 
enlisted and noncommissioned officer level.
    As we look to ``whole of government approaches'' and the goal of 
improved integration in joint and combined operations, we are adding 
fellowships to allow more marines the opportunity to benefit from 
nontraditional education outside DOD institutions. In the past year, we 
have increased our number of marines assigned to the Department of 
State and the United States Agency for International Development 
through fellowships and the State-Defense Exchange Memorandum of 
Understanding. Later this year, we are adding fellowships at the 
Departments of Justice, Homeland Security, and the Treasury, as well as 
at Yale University. We are expanding the scope of training at existing 
institutions like the Marine Corps Center for Advanced Operational 
Culture Learning and the Center for Irregular Warfare Integration 
Division that focus on readying marines for engagement, security 
cooperation and partner capacity building missions. Our goal is to 
develop a corps of marines that have the skills needed to operate and 
engage effectively in culturally complex environments.
    Our education and training programs benefit from our relationships 
with allies and partners in the international community. Each year, 
hundreds of international military students attend Marine Corps 
training and education venues ranging from Marine Corps Command and 
Staff College to military occupation specialty producing schools. The 
International Military Education and Training (IMET) program and 
similar security assistance opportunities promote regional stability, 
maintain U.S. defense partnerships, and promote civilian control of the 
military in student home countries. Many military leaders from around 
the world have benefited from the IMET program. To better support DOD's 
goal of providing PME to international military students, we have 
created a blended seminar program where foreign officers participate in 
Marine Corps PME through a mix of nonresident online courses and 
resident instruction in the United States.
Training Enablers
    In order to fully realize these training and education 
enhancements, we will keep investing in the resources, technologies, 
and innovations that enable them. This investment includes modernizing 
our training ranges, training devices, and infrastructure to ensure 
quality resources are available to support the training of marines, 
individual to MAGTF. We will also leverage advanced technologies and 
simulation systems to create realistic, fully immersive training 
environments.
        keeping faith with marines, sailors, and their families
Mission First, Marines Always
    We expect and require extraordinary loyalty from our marines and 
sailors--loyalty to country, family, and Corps. Our Nation has been at 
war more than a decade, placing unprecedented burdens on marines, 
sailors, families, wounded warriors, and the families of the fallen. 
They have all made tremendous sacrifices, many in the face of danger; 
we owe our complete loyalty back to them all.
    We will work to ensure the critical needs of our families are met 
during times of deployment and in garrison by providing the services, 
facilities, and programs to develop the strength and skills needed to 
thrive while facing the challenges of operational tempo. If wounded, 
injured or ill (WII), we will seek out every available resource to 
restore marines to health. We will enable the return to active duty for 
those seeking it. For those unable to do so, we will responsibly 
transition them to civilian life. We will support and protect the 
spouses and families of our wounded and those of our fallen marines. 
There are several areas and programs central to our tenet of ``keeping 
faith with marines, sailors and their families''.
Recruiting and Retention
    As first stated, the individual marine is our greatest asset; we 
will continue to recruit and retain the best and brightest of America's 
sons and daughters. Recruiting is the lifeblood of our Corps, and is 
our bedrock to ``Make Marines, Win Battles, and Return Quality 
Citizens''; citizens who, once transformed, will be marines for life. 
To operate and succeed in potentially volatile times, marines must be 
physically fit, morally strong, intelligent, and capable of operating 
advanced weapon systems using the latest technology. We will not 
compromise on these standards. Recruiting quality youth ultimately 
translates into higher performance, reduced attrition, increased 
retention, and improved readiness for the operating forces. We need 
your continued support in maintaining quality accessions.
    Our officer accessions mission has continued to decline over the 
past 2 years in light of a planned draw-down of forces. Our fiscal year 
2013 accession officer mission is 1,500 active duty and 125 reserve 
officers. For enlisted marines, the accession figures include 28,500 
regular (active component) and 5,700 reservists. We traditionally 
achieve 100-103 percent of our total accession goals, and expect to do 
so again in fiscal year 2013. We have continued to achieve 
unprecedented levels of enlisted and officer retention. This effort is 
critical to the proper grade shaping of the Marine Corps, regardless of 
force size. Combined officer, enlisted, and reserve retention efforts 
ensure the Marine Corps maintains essential operational experience and 
leadership. Although overall retention is excellent, shortages do exist 
in certain grades and skills within the officer and enlisted ranks, 
requiring careful management and innovative solutions. At a minimum, 
sustained congressional funding to incentivize retention is necessary 
to maintaining quality personnel in these critical skill sets.
Diversity
    Diversity, in both representation and assignment of marines, 
remains a strategic issue. The Marine Corps diversity effort is 
structured with the understanding that the objective of diversity is 
not merely to strive for a force that reflects a representational 
connectedness with the rich fabric of all the American people but to 
raise total capability through leveraging the strengths and talents of 
all marines. We are near completion of a new comprehensive campaign 
plan to focus our diversity effort in areas where improvement is most 
needed and anticipate release of this roadmap this year. The accession 
and retention of minority officers is an enduring challenge for our 
Corps. Mentoring and career development of all minority officers has 
become increasingly important in order to change officer profile 
projections. Since 2010, we have conducted leadership seminars, 
introducing diverse college undergraduates to Marine leadership traits 
and leadership opportunities in the Marine Corps, at various locations 
throughout our country, and are actively seeking out new communities 
within which to continue this effort. Overall, we seek to communicate 
the Marine Corps diversity mission through community outreach and 
recruit marketing; to ensure continued opportunities for merit-based 
development and advancement; and to optimize training and education to 
increase the understanding for all marines of the value that diversity 
brings to the total force.
Wounded Warrior Outreach Programs
    Through the wounded warrior regiment (WWR) and our ever-expanding 
outreach programs, the Marine Corps keeps faith with WII marines and 
their families. This enduring commitment includes full-spectrum care 
and support for WII marines from point of injury or illness through 
return to duty or reintegration to the civilian community. The WWR 
continues to enhance its capabilities to provide added care and support 
to WII marines. Whether WII marines are joined to the WWR or remain 
with their parent commands, they are provided nonmedical support 
through the recovery phases. Congressional funding for our WII marines 
allows us to provide robust, interconnected support in the following 
areas:
  --administrative support;
  --recovery care coordination;
  --transition assistance;
  --warrior athlete reconditioning programs;
  --integrated disability evaluation system support;
  --the Sergeant Merlin German Wounded Warrior 24/7 Call Center; and
  --our Hope and Care Centers.
    The challenging nature of the terrain in Afghanistan requires a 
greater level of dismounted operations than was the case in Iraq. This 
fact coupled with the prevalence of improvised explosive devices has 
caused a growing class of marines and soldiers to suffer catastrophic 
injuries--injuries involving multiple amputations that present 
significant quality-of-life challenges. Our Corps, the DON, DOD, the 
Department of Veterans Affairs (VA) and the Congress are concerned 
about this special group of wounded warriors must remain committed to 
supporting this special group of wounded warriors. To help the 
catastrophically injured (those who will likely transition to veteran 
status) and their families successfully meet these challenges, we must 
continue engaging in a high level of care coordination between our WWR 
advocates, the VA's Federal Recovery Coordinators, VA Liaisons for 
Healthcare stationed at DOD Military Treatment Facilities (MTFs), 
Operation Enduring Freedom/Operation Iraqi Freedom/Operation New Dawn 
Case Managers and medical providers to ensure all of our wounded 
marines' needs are met. This includes arranging for assistive 
technologies, adaptive housing, and all available healthcare and 
benefits (DOD and VA) they have earned. Additionally, WWR's Marine Corp 
Liaison assigned at the VA collaborates closely with VA Care Management 
team to resolve Marine Corp issues or care management needs.
Combat Health and Resiliency of the Force
    Marines, sailors, and their families have experienced significant 
stress from multiple deployment cycles, the rigors of combat, high 
operational tempos, the anxieties of separation, and countless other 
sources from a decade at war. We remain engaged in developing ways to 
reduce the traditional stigmas associated with seeking mental 
healthcare, but perhaps more importantly, we continue to add resources 
and access to care to meet the mental health needs of marines, sailors, 
and their families.
    Post-traumatic stress (PTS) will be a long-term issue for all DOD 
leadership, requiring close attention and early identification of those 
affected in every service. PTS is diagnosed as a disorder (PTSD) once 
the symptoms become distressful to a marine and his or her ability to 
function in the military environment is impacted.\16\ Although most 
marines with PTS symptoms will not develop PTSD, our leaders require 
the skills and training to identify and intervene earlier for those at 
the highest risk of developing PTSD, especially given that often there 
are long delays in the development of this condition. As such, we are 
empowering leaders to identify and intervene earlier through increased 
training and awareness using programs like our Marine Corps Combat 
Operational Stress Control program and embedded Operational Stress 
Control and Readiness teams in our ground units. We are employing 
better screening practices in our standard health assessments, 
establishing deployment health clinics (i.e., facilities not labeled as 
mental health clinics nor associated with a Military Treatment Facility 
in an overall effort to reduce stigma) and tracking those with 
significant injuries often leading to PTSD via our wounded warrior 
regiment.
---------------------------------------------------------------------------
    \16\ The current yearly rate of PTS diagnosis in active duty 
marines is less than 2 percent as compared to 3.5 percent in the 
civilian population. The percentage of marines who will be diagnosed 
over their lifetime with PTS is estimated to be 10-18 percent while the 
civilian population lifetime diagnosis is estimated to be 6.8 percent.
---------------------------------------------------------------------------
    We are engaged on multiple fronts to diagnose and treat those with 
a traumatic brain injury (TBI) including prevention, education, early 
identification, treatment, rehabilitation, and reintegration. We are 
actively implementing the requirements of DOD Directive Type Memorandum 
09-033 regarding mild TBI/concussion. Moreover, the Marine Corps, with 
Navy support, has established a Concussion and Musculoskeletal 
Restoration Care Center in-theater. This center provides front-line 
care to patients with mild TBI/concussion and has dramatically improved 
identification, diagnosis, treatment, outcomes, and return to duty 
rates. In concert with Navy Medicine, we are fielding a TBI module 
within the Medical Readiness Reporting System to track TBI exposures 
and diagnoses.
Suicide Prevention in the Force
    We continue to report a positive, steady decrease in the number of 
suicides within the Corps from high levels seen in 2009. While we 
cannot yet draw a conclusion between our prevention efforts and the 
reduced suicide rate, we are cautiously optimistic our programs are 
having a positive effect. However, reported suicide attempts have 
continued to increase. We suspect this increase in attempts may be due 
to improved surveillance--fellow marines recognizing the signs of 
suicide and intervening to stop attempts, and more marines reporting 
past attempts when coming forward for help.\17\ Regardless, we still 
need to do better because one suicide completed is one too many.
---------------------------------------------------------------------------
    \17\ There were 33 confirmed suicides and 175 attempts in the 
Marine Corps during calendar year 2011.
---------------------------------------------------------------------------
    Suicide is a preventable loss of life that diminishes readiness and 
deeply affects our Marine Corps family. We believe that suicide is 
preventable through engaged leadership, focused on efforts aimed at the 
total fitness of each marine to include physical, social, spiritual, 
and psychological dimensions. The marine corps is involved with five 
major studies to better understand suicide risk among servicemembers, 
contributing factors, and ways at prevention. This past year, we 
expanded our ``Never Leave a Marine Behind'' suicide prevention program 
for noncommissioned officers (NCO) and junior marines to the staff 
noncommissioned officer and commissioned officer ranks. Our DSTRESS 
hotline and Web site, implemented last year on the west coast as a 
pilot program, will be expanded to serve those across the Corps. We 
will remain engaged on multiple fronts to combat suicide in our ranks.
Sexual Assault Prevention and Response
    The key to preventing sexual assault is ensuring everyone 
understands his or her role and responsibilities in preventing it. A 
consistent, vigorous training and education element are crucial. 
Bystander intervention has been identified as a best practice for 
engaging marines in their role to prevent sexual assault and is being 
incorporated into our Sexual Assault Prevention and Response (SAPR) 
training. In January 2012, we launched the video-based NCO Bystander 
Intervention course, called ``Take A Stand''. This course was modeled 
after our successful, award-wining Suicide Prevention Program awareness 
campaign entitled ``Never Leave a Marine Behind''.
    We have initiated aggressive actions to elevate and highlight the 
importance of our SAPR program. Our victim-centric SAPR program focuses 
on:
  --preventing sexual assault;
  --improving a victim's access to services; and
  --increasing the frequency and quality of information provided to the 
        victim regarding all aspects of his or her case and expediting 
        the proper handling and resolution of a sexual assault case.
    We are credentialing our Sexual Assault Response Coordinators and 
Victim Advocates on victim advocacy. We have standardized training 
protocols for our 24/7 hotline, in use at all major bases and stations 
to provide information, resources, and advocacy of sexual assault. We 
have increased SAPR training at all levels for our judge advocates 
(JA). This year, mobile training teams from our Trial Counsel 
Assistance Program will continue to instruct Navy Criminal 
Investigative Service agents and JAs on sexual assault investigation 
and best practices at bases and stations in Japan, Hawaii, and on the 
east and west coasts.
Veteran Marines
    The concept of keeping faith also applies to our veteran marines. 
In 2011, the Marine Corps launched a comprehensive effort to anchor the 
legacy of our Montford Point Marines--20,000 African-American men who 
underwent segregated training from 1942-1949 and ultimately integrated 
the Corps--into our training and education curricula. The Montford 
Point Marine legacy will be used to educate and inspire all men and 
women who enter the Marine Corps today regardless of race, religion, or 
creed. We will teach the importance of varying perspectives, 
compassion, courage, perseverance, and self-sacrifice through the 
Montford Point Marine history. We are thankful to the Congress for 
recently conferring the Congressional Gold Medal on the Montford Point 
Marines, a fitting tribute to a pioneering group of marines who fought 
valiantly in some of the bloodiest battles of the Pacific and later 
went on to serve in Korea and Vietnam.
Family Readiness Programs
    As directed in my Planning Guidance issued to the Corps in October 
2010, we are in the final stages of a review of all family readiness 
programs to identify ways we can better assist and provide services to 
our families. Over the past year, Marine Corps Community Services 
conducted dozens of focus groups at bases and stations throughout the 
Marine Corps with active and reserve component marines, commanders, 
senior enlisted advisers and spouses. The focus groups, survey and 
prioritization results found that the top-rated programs conformed to 
the Commandant's Planning Guidance priorities or congressional 
mandates. These assessments revealed opportunities to increase program 
success in three areas:
  --defining future capabilities and sustainability standards that 
        correlate to the Commandant's Planning Guidance priorities, but 
        also recognized unique installation or command missions, 
        locations, or market conditions;
  --balancing available resources to support priorities and defined 
        capabilities; and
  --developing accountability and inspection processes to support 
        capability sustainment.
    Efforts are currently under way to apply these results and develop 
actionable program plans and supporting resource requirements to 
provide and maintain capabilities at the appropriate level for the 
right duration.
    With at least 50 percent of our Corps composed of unmarried men and 
women, this year we mandated that every battalion and squadron have a 
representative from the Single Marine Program serving on its unit 
family readiness command team. This will provide an advocate on behalf 
of single marines to ensure information, normally communicated solely 
from leadership to marine spouses and families, is shared with their 
parents and siblings.
Transition Assistance
    There are three things the Marine Corps does for our Nation:
  --make marines;
  --win our Nation's battles; and
  --return quality citizens.
    We are conducting a wholesale revision of our Transition Assistance 
Management Program (TAMP) to better meet the needs of our transitioning 
marines in support of returning quality citizens. We are integrating 
TAMP, as part of the Professional and Personal Development Program, 
into the lifecycle of a marine from recruitment, through separation or 
retirement, and through veteran marine status.
    We have transformed our Transition Readiness Seminar from a mass 
training event, in need of great improvement, into an individualized 
and practical learning experience with specific transition readiness 
standards that are effective and beneficial to marines. In January 
2012, we began holding a revised and improved Transition Readiness 
Seminar Pilot Program at four separate installations with full 
implementation scheduled for March 2012; early feedback on our pilot 
program has been very favorable. The revised 5-day Transition Readiness 
Seminar includes 2 days of mandatory standardized core curriculum with 
four well-defined military-civilian pathways:
  --university/college;
  --vocational/technical training;
  --employment; and
  --entrepreneurial endeavors.
    In this new system, a marine will choose the pathway that best 
meets his or her future goals and will have access to individual 
counseling services related to each pathway. The enhanced TAMP program 
will support improved reach-back and outreach support for those who may 
require more localized support in their hometowns with information, 
opportunities, or other specific needs. We are determined to make the 
Marine Corps TAMP program more value added for our departing marines.
Compensation
    The President's budget acknowledges the reality that military pay, 
allowances, and healthcare consume roughly one-third of the Defense 
budget. These costs cannot be ignored in a comprehensive effort to 
achieve savings. In my judgment, this budget achieves the appropriate 
balance in compensation, force structure, and modernization. It 
sustains the recruitment, retention, and readiness of the talented 
personnel that defend our Nation.
    The proposed compensation reforms are sensible. Basic pay raises in 
fiscal years 2013 and 2014 will match increases in the private sector. 
We propose more modest raises in later years--but no reductions, no 
freezes. TRICARE enrollment fees and deductibles increase for retirees, 
but they are tiered based on retired pay and remain significantly below 
market rates. Pharmacy co-pays will trend towards market rates for 
retail purchases but will be substantially lower for generic drugs and 
mail-order delivery.
    These changes are not intended to alter care services currently 
provided to our active-duty personnel and their families. Those who 
have been medically retired as a result of their service, particularly 
our wounded warriors, are also exempted. So are our Gold Star families. 
It is the right thing to do for those who have given so much.
    Finally, I endorse creating a commission to recommend reforms in 
retired pay. Any changes should grandfather benefits for those 
currently serving. We cannot break faith.
                                summary
    History has shown that it is impossible to predict where, when, and 
how America's interests will be threatened. What is known, however, is 
America cannot maintain a strong economy, cannot have a strong 
industrial base, cannot have access to overseas markets, and cannot 
assure its allies without security . . . at home and abroad. Looking 
ahead at the fiscal challenges we face as a Nation, our country will 
still need to respond to crisis and project power abroad, wherever and 
whenever needed. The optimum and most economical means to do so is 
through a multicapable force afloat that can also come ashore rapidly.
    The Navy and Marine Corps team is the Nation's risk mitigator for 
an unknown future and the crisis response force that will be ``the most 
ready when the nation is least ready''. There is a cost to maintaining 
this capability. But, with that cost, our Nation gains the ability to 
respond to unexpected crises, from humanitarian assistance and disaster 
relief efforts, to noncombatant evacuation operations, to the conduct 
of counterpiracy operations, raids, or strikes. This same force can be 
reinforced quickly to contribute to assured access anywhere in the 
world in the event of a major contingency. It can be ``dialed up or 
dialed down'' like a rheostat to be relevant across the range of 
military operations. No other force possesses the flexibility to 
provide these capabilities but yet can sustain itself logistically for 
significant periods of time, at a time and place of its choosing.
    Through the fidelity and support of the Congress, our marines and 
sailors in the fight have received everything necessary to ensure 
success over the past decade of near constant combat operations. Our 
combat forces' best interests and needs remain my number one focus 
until our national objectives in the long war have been achieved. 
However, as we rightfully begin to transition to the challenges and 
opportunities of the post-OEF world and reorient to the Pacific under 
our new Defense Strategic Guidance, the Marine Corps must begin to 
rebalance and modernize for the future.
    Through judicious choices, forward planning, and wise investments--
ever mindful of the economy in which we live--we have worked diligently 
to determine the right size our Corps needs to be and to identify the 
resources we will require to respond to crises around the world, 
regardless of clime or place. As we continue to work with the Congress, 
the Navy, and the DOD in maintaining the institutional pillars of our 
high state of readiness, you have my assurance that your Corps will be 
``ever faithful'' in meeting our Nation's need for military crisis 
response.

    Senator Mikulski. Thank you for your testimony and, of 
course, for your service.
    With Senator Inouye's absence, the way we are going to do 
this is we are going to turn to Senator Cochran first. I am 
going to call upon members in their order of arrival, and we 
are going to ask that we stick to the 5-minute rule because 
there are others, and we know there are multiple hearings going 
on.
    So, Senator Cochran, as the ranking member and a naval 
officer yourself, as I believe--weren't you a naval officer?
    Senator Cochran. I certainly was--one of the proudest 
periods of my life, on our heavy cruiser operating out of 
Boston, Massachusetts.
    Thank you. Let me join you, Madam Chairman, in welcoming 
this distinguished panel.
    We appreciate your service. We appreciate your leadership. 
We want to be sure that we understand the needs that are of 
highest priority to all of you as we endeavor to help assure 
that our Navy and Marine Corps are the strongest as any in the 
world, stronger than any in the world--and are fully prepared 
to protect our interests around the world and our safety and 
security here at home.

                           NAVAL FORCE NEEDS

    I know that one of the challenges that we face is keeping 
an up-to-date naval force with ships and equipment ready to be 
used in an emergency. And I wanted to ask Secretary Mabus, who 
is fully familiar with shipbuilding in our State of 
Mississippi, but in this new responsibility, all of the needs 
of the U.S. Navy, could you comment about how well we are or 
are not meeting the needs for an up-to-date, modern naval 
force?
    Mr. Mabus. Yes, Sir. And thank you, Senator Cochran. There 
is something about political figures from Mississippi serving 
on cruisers out of New England, since both Senator Cochran and 
I did that several years ago now.
    As I said in my opening statement, Senator, the Navy that 
was here in 2009 when I took office was 30 ships smaller, down 
from 316 ships on September 11, 2001, to 283 ships in 2009. We 
were down almost 47,000 sailors in that time. So, during one of 
the great military build-ups in America, the United States Navy 
actually got smaller.
    One of the primary focuses has been to rebuild the fleet 
and increase the size of the fleet. Today, we have 36 ships 
under contract to come into the naval fleet. And I do want to 
point out that they are all firm fixed-price contracts, that 
was one of the challenges that we faced was making sure we got 
the right price for our naval vessels.
    Going forward, we will--we have 285 ships in the battle 
fleet today. At the end of the FYDP, the end of the 5 years, we 
will again have at least 285 ships. And by 2019, we will again 
pass the 300-ship mark. We have done this by working with 
industry. We think that we owe industry certain things--a 
stable design, a mature technology, and some transparency into 
what ships we hope to build and when.
    In response, we think industry owes us some things--to 
invest in the infrastructure and the training that will be 
necessary; to have a learning curve so that every ship of a 
class, of the same type ship that the design does not change, 
that the number of man-hours and, thus, the cost goes down. And 
in all our shipyards today, in virtually all of our shipyards 
today, that this is the case.
    Your colleague sitting to your left, Senator Shelby, 
working with Austal in Mobile, we have a fixed-price contract 
for 10 LCSs from Austal, and the last one will be--the 10th 
ship will be significantly cheaper than the first ship.
    So I think that your fleet is positioned to do everything 
that the new defense strategy requires it to do. The CNO may 
want to comment because we are going to have to use our ships a 
little differently, forward deploy them so that one ship will 
do the job of many more that were--if they were kept in the 
United States. But the CNO, Commandant, and I have no doubt 
that this fleet that we have today and the one that we are 
taking forward will meet all the requirements of the new 
defense strategy and everything that we need to do to keep the 
United States safe and secure.
    Senator Cochran. Admiral Greenert.

                     NAVAL FORCE CAPABILITIES/NEEDS

    Admiral Greenert. Thank you. Thank you, Senator.
    What I would add, I am on the capabilities end of this, and 
I am very satisfied with the capabilities delivered.
    The Virginia-class submarine is the finest submarine in the 
world, and I have empirical data to attest to that. The DDG-51 
remains a multimission, very relevant ship. The LPD-17 class 
and the Makin Island are on deployment now, and they are doing 
fabulous. The LPD-17 is a quantum leap over its predecessor.
    As we bring in LCSs and the joint high speed vessels 
(JHSVs), these are relevant ships for a relevant future, and 
they resonate with the need out there. We will operate them 
forward, and I am very high on them getting the job done. 
Volume, speed, and modularity, that is the wave of the future.
    Thank you for the opportunity.
    Senator Cochran. Thank you very much.
    I will reserve my time and ask General Amos a question 
later, but yield to other members of the subcommittee.
    Senator Mikulski. Thank you.
    Senator Reed.

                     STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Madam Chairman.
    Senator Mikulski. Now, he is a West Point guy.
    Senator Reed. Senator Cochran, Secretary Mabus, and I have 
something in common. One of my predecessors at West Point was a 
Senator from Mississippi, Jefferson Davis. So it is a small, 
small world.
    Mr. Secretary, thank you, General Amos, thank you, Admiral 
Greenert, thank you for your service and your dedication to the 
sailors and the marines that you lead so well.
    I want to take off where you left off, Admiral, by saying 
that the Virginia-class submarine is the finest submarine in 
the world. I agree with that, and I am glad you do, too.
    I think it also has operational capabilities, particularly 
in the Pacific, where access is a critical issue. In regards to 
some of our surface systems, the submarine is far more capable 
of access and delivering fires and delivering personnel and 
getting intelligence, et cetera. And in that regard, your 
colleague, Admiral Willard, said essentially the same thing. 
And I just, for the record, I presume you agree with that. It 
has a special role in terms of access-denial situations.
    Admiral Greenert. Yes, Sir, I do.

                  VIRGINIA-CLASS SUBMARINE PROCUREMENT

    Senator Reed. For the Virginia-class submarine, we are 
doing two boats a year in fiscal year 2013. However, in fiscal 
year 2014, because of the budget constraints, a ship is being 
slipped back to fiscal year 2018.
    Given the capabilities, given the new mission in the 
Pacific particularly, with a big anti-access component, I think 
this is, as you said before, a budgetary decision, not a 
strategic or operational decision.
    Having said all that, and without getting into any specific 
negotiation, are you working on a plan with the contractor to 
see if there are ways that we can pull forward some 
construction so that the fleet does not lose a valuable asset 
for 6 years or so?
    Admiral Greenert. Yes, Sir, we are. We are looking for any 
fiscal means, if you will, acquisition means, and contractor 
performance incentives that we could. As you know, we have a 
block-buy of 9, and if we could get to a block-buy of 10 during 
those years 2014 through 2018, that would be terrific. And by 
all means, we will work by any means capable to do that.
    Senator Reed. And that would require, I presume, some help 
by this subcommittee in that regard?
    Admiral Greenert. Yes, Sir, it would.

                      OHIO-CLASS SUBMARINE PROGRAM

    Senator Reed. So I, for one, would be very happy to help 
because I think this is important for the Navy and for the 
Nation.
    There is another aspect of the submarine program, and that 
is the replacement of the Ohio class. And that has been slipped 
2 years in terms of proposed construction. Design work is going 
on. We have a partner with the British.
    And one of the issues that always comes to mind when we 
talk about the Ohio-class replacement in its ballistic missile 
role is that this is really, in my view, a DOD asset, not just 
a Navy asset.
    So, Mr. Secretary, have you had discussions with DOD in 
ways that they can help you ensure that this slippage is 
temporary, and not a sign of failure to fund the program?
    Mr. Mabus. Senator, I can assure you that the slippage is 2 
years, and that is it. We have also, as you pointed out, we 
have been in discussions with our British counterparts to make 
sure that the schedule meets up with their requirements as 
well. And as you know, we have committed a substantial amount 
of money now for the research, development, and engineering 
work that will be necessary to begin the build in 2021.
    I think that this most survivable leg of our triad, this 
strategic weapon that we have in the Ohio-class replacement, 
that a discussion needs to be had on exactly how we do pay for 
that. That discussion would not only include DOD but also the 
Congress in how that is best to be handled. Because the flip 
side of that is that our industrial base for the rest of 
shipbuilding during the time that the SSBN(X), the Ohio-class 
replacement, is being built could be seriously harmed, 
including our attack submarine industrial base during that 
time. And I don't know of anyone anywhere that would want to do 
that.
    Senator Reed. No, I hope not. Just a quick follow-on, and 
it is probably more of a comment than requiring a comment from 
you, is that as we go forward there is a larger issue, which is 
the nuclear triad--how it is going to be constituted; what 
elements might be bulked up; what elements might not. And that 
is in the context both of budget and strategic policy and 
nonproliferation policy.
    And my view is that the submarine has always seemed to be 
the most significant part of this in terms of its 
invulnerability, relatively speaking, its ability to deploy, 
its stealthiness, et cetera. And so, in those conversations 
about the future of the triad, I would hope that the submarine 
would be in the forefront.
    Thank you. Thank you all.
    Senator Mikulski. Senator Coats.

                   STATEMENT OF SENATOR DANIEL COATS

    Senator Coats. Thank you, Madam Chairman.
    Mr. Secretary, first I want to start by thanking you for 
visiting the Naval Surface Warfare Center at Crane, in Indiana. 
People say, ``What in the world is the Navy doing in Indiana, 
the center of Indiana?'' But as you have found out and it is 
expressed to me, that it is a little gem out there. Not so 
little, but it is a gem out there in terms of electronic 
warfare, special missions, a whole number of pretty cutting-
edge stuff that is important to not only the Navy, but the 
Marines, Army, and Air Force. So we thank you for that visit.
    And I would extend that to Admiral Greenert and General 
Amos because what happens there affects both of your services. 
And we will throw in an Indiana University basketball game if 
we can get our timing right. I would be happy to travel with 
you for that visit.
    But that really doesn't go to my question. My question is 
this. Shortly after the conclusion of Desert Storm I, I was 
flying back from Indianapolis with then-Secretary Cheney. And 
we spent the entire flight talking about how the history of the 
Congress's support and military readiness has gone through the 
ups and downs of postconflict drawdowns.
    And I asked him, and this was in response to a question I 
asked, it was, ``What is your biggest challenge now that we 
have had this success?'' And he said, ``Avoiding hollowing out 
or drawing down too fast, too far. That is the biggest 
challenge in front of me.''
    And you know, you go all the way back to World War I and 
the hollowing out afterward, and the cost that it was to our 
country to rebuild to be prepared to address World War II. And 
then, following that, we thought we had solved the world's 
problems, and Korea came along. And following that, Vietnam, 
Desert Storm, and so forth. And it just seems like, well, I 
guess I just really reacted, General Amos, when you said 
history has shown it is impossible to predict the how, when, 
and where of what might come next. Except history tells us it 
is coming somewhere and to be prepared.
    So my question is this. The military has stepped up to the 
plate relative to nearly $500 billion of cuts over a 10-year 
period of time. And you discussed some of that in terms of how 
we get there.
    My concern is the potential impact, given the kind of 
conflicts that we can potentially predict in the future. But 
there is always the unpredictable.

                          SEQUESTRATION IMPACT

    But my question to you is this. We have this sequester 
sitting there, about to add an additional $500 billion unless 
the Congress addresses this before the end of the year. That 
was presented as something that would never happen because it 
would force decisions relative to how we deal with our budget. 
But the ``never'' did happen.
    And so, my question to all three of you really is what is 
your reaction to this possibility? And what would it mean for 
the ability to be prepared and not to be so hollowed out that 
we are not prepared for that next how, when, and where?
    Mr. Mabus. I will quote the Secretary of Defense, who said, 
``It would be a disaster if sequestration happens, not only in 
terms of the amount of money that would be taken out of 
defense, but also in the way it would be taken out.''
    The $487 billion in cuts during the next 10 years, the DOD 
has worked very hard over the course of several months to make 
sure that this was done carefully, to make sure that we avoided 
hollowing out the force, in your term, to make sure that we had 
the training, to make sure we had the manning, to make sure 
that our force structure could be maintained, and that it was 
an effective and lethal force structure that we continued 
forward.
    Because of the very nature of sequestration, what you would 
have is automatic percentage cuts to everything, without regard 
to strategy, without regard to importance, without regard to 
any sort of setting priorities. And so, both those items would 
make sequestration, I think, a very difficult and, again in the 
words of Secretary Panetta, a disastrous occurrence.
    Senator Coats. Admiral Greenert, do you want to tell us how 
it would affect the Navy?
    Admiral Greenert. Sir, the way, as Secretary Mabus said, 
you know, this going into each and every account, we would have 
to prepare for such a thing, probably a few months ahead of 
time. And I am just talking about the mechanics of trying to 
figure out how to recoup pay, so we can pay our people, pay our 
civilians, then get contracts which would, I assume, we would 
be in breach because, all of a sudden, there is no funding for 
commitments that we have made--the Federal Government has made.
    And so, my point is we would have our people distracted for 
months, just to do the execution of such a thing to meet the 
requirements that the Federal Government is held to.
    And that bothers me a lot. I mean, we talked in the past 
about, you know, when we have had a threat of a Government 
shutdown, and we stopped everything for a few weeks to prepare 
for such a thing. This would be that to the nth degree.
    And so, I think that is just really not understood. As I 
sit down and think about just the mechanics of this, the 
amount, we need a totally new strategy for an amount of this 
kind. And we can never do what we are doing today under those 
kinds of funding. We would need a new strategy, as our bosses 
have testified.
    Thank you.
    Senator Coats. General Amos.
    General Amos. Senator, thank you for asking that question. 
That is a tough one and one we have talked about often within 
the DOD, as you are well aware.
    I would like the subcommittee to believe that where we sit 
today, and I can speak for my service, we have built a force, 
as we come down from 202,000, which is where we sit today, down 
to 182,100, we will do that by the end of 2016. That force will 
be very capable. It will be anything but a hollow force.
    That force will be--the readiness will be high. The manning 
will be high. The equipment readiness will be high. So that 
force that we have built with this Budget Control Act of 2011 
is anything but a hollow force. So I want to put--allay any 
fears there.
    To go beyond that into sequestration, it is my 
understanding that it could happen a couple of ways. One, it 
can come with either we are going to preserve manpower and not 
take any cuts out of the manpower account, in which case that 
leaves only two other areas that you can really--that the cuts 
will come from. They will come from procurement, things: ships, 
equipment. They will come from my reset of the equipment that I 
spoke about in my opening statement, after 10 years of combat. 
It will stunt, if not completely negate, my ability to reset 
the Marine Corps.
    So, if the manpower account is set aside, it is procurement 
of things, and then it is operations and maintenance. And what 
that means to the subcommittee is that is training. That is the 
ability to go to, in my case, Twentynine Palms, to go to the 
ranges in the Philippines to train with the Filipinos, to be 
able to train with the Australians, to be forward deployed and 
forward engaged, to buy fuel, to buy ammunition, to buy the 
kind of equipment that we need to train with.
    So training and readiness will become what I consider to be 
almost a recipe for a hollow force, if we end up in 
sequestration.
    If you leave manpower in it and you say we are going to 
just take a percentage cut across manpower, operations and 
maintenance, and the procurement of things, then you are going 
to end up with a force that is significantly less dense than 
the one we have today. And what that means is less capable. We 
will have to go back in, redo the strategy, because the 
strategy that we have developed for the last 6 months is a 
strategy based on the current budget.
    Senator Coats. Well, I thank all three of you.
    Madam Chairman, my time has expired, but I think it is a 
good reminder to all of us that we have got a pretty big 
challenge laying ahead here between now and the end of the 
year.
    Senator Mikulski. And that was an excellent question. I 
think all of the questions have been very good, but yours, I 
think, is the one that we all wanted to ask. So, thank you.
    Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you.
    Mr. Secretary, welcome.
    Mr. Secretary, you know all of this stuff, the JHSV, which 
is the Navy's vessel. I believe it is a valuable addition to 
the Navy's fleet. Just for the record, it has an expansive 
mission bay of some 20,000 square feet, which enables the ship 
to move 600 tons of cargo at more than 35 knots--that is 
moving--while carrying more than 300 combat-ready troops.

                  JOINT HIGH SPEED VESSEL PROCUREMENT

    The Navy's budget request for fiscal year 2013 stops 
production of the JHSV at 10 ships, rather than continuing to 
build toward the 21 ships that was projected. I know budgets 
are tight. We really know that. But it seems it is a pretty 
good price. And as you know, the more you build, the better 
price you have been able to get in this environment.
    What drove the Navy's decision to reduce the JHSV buy? And 
is that a decision that we could revisit as the ships enter 
service if you see the needs there?
    Mr. Mabus. A couple of things drove this decision, Senator. 
One was, as you said, finances. We had to find money, 
particularly out of procurement accounts, to meet the $487 
billion cut over 10 years.
    Second is that when you look at our war plans, you look at 
the requirements for these JHSVs; the 10 that we have under 
contract today will meet all those requirements.
    And third, as we were looking at ships to defer, we first 
looked at support ships like the JHSV, instead of combat ships 
like the LCS.
    And so, given that combination of factors, we thought that 
stopping the buy at 10 in this FYDP would make sense. The thing 
that we give up is engagement capability, using the JHSV to go 
around places like Africa or South America to do partnership 
training engagement and those sorts of things.
    The final thing that we looked at was the health of the 
industrial base. And since the JHSV is made in the same 
shipyard that the version 2 of the LCS is made, and since the 
gear-up of that workforce is going to require the hiring of at 
least 2,000 more people during the next couple of years, we 
thought that it was a very healthy industrial base, and that at 
least for this 5 years, that contract could be ended at 10 
without any harm there.
    Senator Shelby. You mentioned the LCS earlier. The Navy had 
to move two LCS ships out of the 5-year shipbuilding plan. I 
hope we can work together. I know the Navy has said good things 
about them.

             LITTORAL COMBAT SHIP MISSION MODULE READINESS

    I am concerned that issues relating to LCS mission modules 
have delayed sea trials for the vessel, and that is very 
important. How do you plan on dealing with the troubles 
affecting the module program?
    Mr. Mabus. Right now, Senator, the module program is on 
schedule, exactly where we thought it would be.
    Senator Shelby. Okay.
    Mr. Mabus. It has always been a spiral development. We are 
doing, in fact, testing today off Panama City on the unmanned 
underwater system for LCS. We are using the LCS 2 to do that 
testing. And we are absolutely confident that----
    Senator Shelby. You feel good about where you are.
    Mr. Mabus. I feel very good. Yes, Sir. And I think the CNO 
does, too.
    Senator Shelby. Admiral.
    Admiral Greenert. Yes, Sir. You know, we took Freedom, the 
mission modules weren't ready. The surface module was going to 
come out first. So we took Freedom, and we said, well, we will 
go on down to the Gulf of Mexico. And we needed to shake the 
ship down and figure out the concept of operations. So she got 
involved in drug operations and took part in two busts.
    Then we sent her over to Rim of the Pacific (RIMPAC), and 
we have had a lot of inquiries about this ship, this new ship 
that you brought. That has, I think, subsequently led to, 
although I cannot be completely sure it was because of RIMPAC, 
but the Singapore Government offered us, invited us to bring 
Freedom--in fact, encouraged us to bring Freedom to Singapore 
to operate there. And we are going to do that in about a year.
    And so, we are moving out with what we call ``sea frames'' 
because we have got a lot of work to do to get the concept 
down. At the same time, as Secretary Mabus said, the mission 
modules move apace, as we need them to be integrated.
    Senator Shelby. Good.
    Thank you, Madam Chairman.
    Senator Mikulski. Thank you.
    Senator Murkowski, and then Senator Kohl.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Madam Chairman.
    And gentlemen, welcome. And I, too, join with my colleagues 
in expressing my appreciation for your leadership to our 
country. Greatly, greatly appreciated.

                           ARCTIC OPERATIONS

    Secretary, I want to ask you some questions about the 
North. It is probably not going to be a surprise to you. But 
with the discussion about the shifting focus within the 
military toward Asia and the Pacific, when you look at Alaska, 
we are sitting right up there on top. We have got a larger 
interface with the Asia-Pacific theater than any other State 
out there.
    We have 5,580 miles of coastline that touch the Pacific and 
the Arctic Oceans. And as we all know, this coastline is 
becoming certainly more accessible. It presents great 
opportunities, but it clearly presents some real challenges as 
well.
    Can you inform me what the Navy has been doing over this 
past year to essentially get up to speed on the changing Arctic 
and what the near-term future holds for Navy involvement?
    Mr. Mabus. Senator, in 2009, the Navy laid out the road map 
for the Arctic, things that we plan to do. And we are following 
that road map.
    Last year, almost exactly at this time, I was at the Ice 
Exercise (ICEX) off the coast of Alaska, where we set up a 
camp, as you know, to do scientific work, but also bring last 
year two submarines up through the ice to do exercises in the 
Arctic.
    We also operate with our Canadian allies in Operation 
Nanook. We have at least three operations on an ongoing basis, 
on a routine basis, in the Arctic.
    The one area that we have said before that would be helpful 
to us is for the United States to become a signatory to the Law 
of the Sea Treaty because it would make dealings in the Arctic, 
it would give us easier--it would give us a seat at the table. 
It would allow us to state claims on the outer continental 
shelf that are certain under the Law of the Sea.
    And as we go forward, because the Arctic, as you pointed 
out, as the Arctic will become ice free, it appears, within the 
next quarter century, at least in the summer, there will be 
increased shipping. There will be increased tourism. There will 
be increased commerce of all types through there. The naval 
requirements in things as diverse as search-and-rescue, as well 
as purely military functions, will increase every year.
    And we are very focused on our responsibilities in the 
Arctic. And I will just repeat, one thing that would help us 
would be the Law of the Sea.
    Senator Murkowski. Well, I would certainly concur. We want 
to be able to work with you to try to advance it. I believe it 
is critically important.
    I am concerned, though, that while other Arctic nations are 
moving forward with policies that build out infrastructure, 
that provide assets, that we are not prioritizing it to the 
extent possible. But I appreciate your commitment.
    It is amazing to me to see the volume of shipping traffic, 
the cruise ships that are traveling through these northern 
waters. And we recognize that there is not a lot up there if 
there were an incident. So it is something that we need to 
remain vigilant.
    I wanted to ask, I have got a host of different questions, 
but I don't know whether we will have a chance to go to a 
second round.

                   SEXUAL ASSAULT PREVENTION PROGRAMS

    But I do want to ask about an article that was in 
yesterday's news. And this relates to a new Federal lawsuit 
where eight members of the military, seven of whom who served 
in the Navy and the Marine Corps, have made allegations of 
sexual assault. And the allegations contained in at least the 
report that I read are pretty serious--a high tolerance for 
sexual predators in the ranks, fostering a hostile environment 
that discourages victims of sexual assault from coming forward, 
and punishing them when they do.
    What are we doing, not only within the Navy, but what are 
we doing within the military to ensure that there is a level of 
safety? That if, in fact, one is a victim, that they are not 
further victimized by retribution when they come forward? Are 
we making any headway on this?
    Mr. Mabus. One of the things that I committed to when I 
took this job and one of the things that I have focused on the 
most intently is sexual assault in the Navy and Marine Corps. 
It is a crime. It is an attack. It is an attack on a shipmate.
    And we have a force that is willing to lay down its life 
for other shipmates. This should be no different. We have to 
make sure that the force understands the severity of this and 
is willing to intervene to stop this before it happens. I will 
give you some specific things that we have done.
    I set up a sexual assault prevention office that reports 
directly to me, and I get reports on a very routine basis. And 
that office has been going around the fleet, around the Marine 
Corps to, number one, find out exactly the size of the problem 
and what we can do about it.
    Some of the things that have come out of that is that now 
in boot camp--coming out of boot camp, we found that programs 
inside boot camp were not that effective because there are just 
too many things coming at people when they were at basic 
training, but that every sailor going to ``A'' School, and 
every sailor does go to ``A'' School, they will get three 90-
minute sessions on sexual assault, on how to prevent it, on how 
to intervene.
    Second, I announced Monday of this week that we are 
undertaking a major initiative called 21st century sailor and 
marine that has five different areas in it. And one of them is 
that people should feel safe.
    Some of the things we are doing there is doing everything 
we can to remove the stigma of reporting, including--and this 
is a DOD-wide effort--some Federal forms that you have to fill 
out now for things like security clearances, you would have to 
put down counseling that you received after an attack. We have 
got to end that requirement. Including, if the victim wants to 
go to another command immediately, that person can go to 
another command immediately to get away from any sexual 
predators that they may have come in contact with.
    And the one that got the most press was, we are instituting 
breathalyzer for alcohol on duty stations coming aboard our 
ships, coming to work at our surface locations. And the reason 
we are doing this is because alcohol has been shown to be the 
common factor in sexual assault, in domestic violence, in 
suicide, in fitness, in readiness.
    And we have run a pilot program with Pacific submarines 
(SUBPAC) in Washington State, and we have also run a pilot 
program at the U.S. Naval Academy using these breathalyzers. 
The incidence of sexual assault, the incidence of domestic 
violence, of everything across the board has gone down 
dramatically when we have done that.
    And I just thought if we have that opportunity and we know 
that sort of--we could get that sort of response in these pilot 
programs, that we had an obligation to put this in fleet-wide 
to guard against any not only sexual assault, but also the 
other risks that sailors and the marines face.
    Senator Murkowski. Well, I appreciate that, and the 
attention and the focus on the safety.
    I look forward to welcoming you to Anchorage this summer 
when the USS Anchorage is commissioned. We are looking forward 
to that visit.
    Thank you.
    Mr. Mabus. We were at least bright enough to do that in the 
summer.
    Senator Murkowski. Much better weather and good fishing.
    Thank you, Madam Chairman.
    Senator Mikulski. Thank you, Senator Murkowski.
    Before I turn to Senator Kohl, I just want to add and 
amplify the gentlelady's remarks and yours, Secretary Mabus.
    All of the women in the Senate--and we don't have a caucus, 
we just come together on where we can find common ground--are 
very concerned about women in the military, their ability to 
serve and to be promoted and utilized in every capacity.
    But this issue of alcohol is something that runs through 
all of the services. And for having the Naval Academy in 
Maryland, I am on the Board of Visitors, one of the things we 
find, because there is unwanted sexual--there is a continuum, 
the unwanted sexual contact, which would be very aggressive 
coming-on, but it is not assault, it is not harassment--to 
harassment, all the way up to a violent, violent situation like 
rape.
    In 90 percent of those situations at the Academy, again, it 
is alcohol, alcohol, alcohol. We would hope that the 
Secretaries of all the service academies would look at alcohol 
on their campuses the way the Naval Academy is looking at 
theirs, lessons learned from civilian universities.
    But I really want to encourage you to look at this. We are 
not prohibitionists. We understand human behavior, et cetera, 
that people are people, and human beings are human beings. 
There are two things that contribute to the kind of climate 
that Senator Murkowski raised. One, a cultural climate of 
hostility. And I think the military has dealt with that and has 
been dealing with that for more than 20 years and certainly 
this administration and, I believe, Secretary, President Bush 
did as well.
    But this alcohol thing is big. And it also impedes the 
ability to serve and to be fit for duty.
    So we just want to encourage you on that. I wanted to just 
congratulate the gentlelady for raising that question because 
it was going to be one of mine as well.
    So, having said that, I am going to turn to Senator Kohl 
from Wisconsin.

                     STATEMENT OF SENATOR HERB KOHL

    Senator Kohl. Thank you very much.
    Secretary Mabus, the Navy's budget fully funds the current 
plan to split the purchase of 20 LCSs evenly between the 
variants built in Wisconsin and Alabama. I support this 
approach and commend you for requesting the funding necessary 
to carry it out.

                LITTORAL COMBAT SHIP PROCUREMENT PROGRAM

    However, the Navy's 5-year budget window cuts two LCS ships 
after the 20-ship purchase plan is complete. In light of that 
proposed cut in future years, does the Navy still support long-
term plans to purchase 55 LCSs?
    Mr. Mabus. Absolutely, Senator. The two ships, and it goes 
from three to two each year, we lost one ship in 2016, one ship 
in 2017, but it was just slid to the right.
    We want to build out the 55 ships as quickly as we can. We 
still believe in that number and that need for our fleet.
    Senator Kohl. Good.
    Just to push it to a final comment from you, if the 
Congress were to delay the Navy's plans to bring these ships 
into the fleet, the Navy's effectiveness would be hurt. I hope 
you would agree with that. We understand that the LCS is going 
to replace an aging fleet of frigates and minesweepers and that 
Navy readiness would suffer without them.
    Is that true? And what will happen if the LCS is delayed?
    Mr. Mabus. Yes, Sir, the LCS is one of our--one of the 
backbones of our fleet today and for the future. As the CNO 
mentioned a little bit earlier, Singapore has invited us not 
only to bring the first LCS there next year, but also to 
forward deploy LCSs in Singapore in the future. And that is 
something that we are certainly planning to do and certainly is 
going to be one of the prime capabilities that we have in the 
Pacific.
    Senator Kohl. All the hopes that you had for LCS are on 
plan and following, moving along as you guys had discussed?
    Mr. Mabus. Yes, Sir. We are--it is an amazingly capable 
ship, shallow draft, very fast. But also I think it is one of 
the ships of the future because of its modularity.
    Because every time the technology improves, every time we 
get a different weapons system, we don't have to build a new 
ship. We simply pull out the weapons system or the whatever 
system off the ship, put in a new one, a different one, and go 
back to sea.
    And I think that capability, the first three systems, as 
you know, are anti-surface, anti-sub, anti-mine, and if you 
look at some of the things that we are facing in the world 
today, that we are relying, as you pointed out, on patrol boats 
and minesweepers, or mine-countermeasure ships to do, we need 
this capability very badly.
    Senator Kohl. And you are pleased that you are building two 
variants on that LCS?
    Mr. Mabus. Yes, Sir, I am. I think that they give us a 
wider range of options for our operators. As you know, and 
thanks to this subcommittee and the Congress, we were able to 
buy both variants at a greatly reduced rate.
    Both variants are on firm fixed-price contracts. The price 
is going down for each successive ship. And we are very pleased 
with the shipyards that are building them. We are very pleased 
with the product that is coming out.
    Senator Kohl. Thank you very much, Mr. Secretary.
    Senator Mikulski. Senator Collins.

                   STATEMENT OF SENATOR SUSAN COLLINS

    Senator Collins. Thank you very much, Madam Chairman.
    I apologize for being late. The Armed Services Committee is 
having a hearing with Secretary Panetta on Syria, even as we 
are meeting today. And I clearly need a clone, but I have yet 
to figure that out.
    Senator Mikulski. We will support that.
    Senator Collins. Mr. Secretary, first of all, it is good to 
see you again.

                            DDG-1000 PROGRAM

    As you know, Bath Iron Works is building the first two 
Zumwalt-class destroyers and will commence construction of the 
third DDG-1000 later this year. The first ship was 60-percent 
complete when the keel was laid. The construction rework rate 
is less than 1 percent, which is astonishing for the first ship 
of a new class. And the Navy retired a significant portion of 
the program's cost risk during the last year.
    I think it would be helpful for the record, in light of the 
department's commitment to maintaining combat capability in 
anti-access/area denial environments, if you would comment on 
the combat capabilities that you expect these three DDG-1000 
ships to bring to the fleet.
    Mr. Mabus. I will be happy to, Senator. And I would also 
like to ask the CNO to follow along after I do.
    These ships, with their new stealth technology, with the 
fire support for ground troops that they bring, with their 
anti-air, anti-surface, anti-submarine capabilities certainly 
fit very precisely into the anti-access/area denial areas that 
we have planned to use these ships in.
    As you know, because of the truncation from 10 ships to 3, 
a Nunn-McCurdy breach occurred, but it was solely because the 
number of ships went down. At that time, the program was 
recertified as crucial to national security, and the building, 
the fabrication, at Bath has gone along very well. And I am 
happy that we now have the further two, 1001 and 1002, now 
under contract so that we can move forward with them to join 
the fleet.
    Senator Collins. Thank you.
    Admiral, is another advantage the smaller crew size that 
can be used on these ships, given the high cost of personnel?
    Admiral Greenert. Yes, Senator. We are talking 100 less on 
a ship of a comparable capability, 150 versus 250, for example, 
the DDG-1000 being 150.
    We don't talk a lot about its undersea capability. It has a 
dual-frequency sonar capability, which means it can be 
searching for long-range underwater vehicles, submarines, but 
at the same time tracking something closer. Eighty-cruise 
missile capability, not a lot of people talk about that. That 
is extraordinary.
    So it has a good land attack mode, the long-range gun, 
which we are really excited about, what it will bring--two of 
them, advanced long-range projectiles--and it also maintains 
three drones. We are going unmanned. It is very important. So 
it can employ three unmanned systems, vertical take-off and 
landing tactical unmanned air vehicle (VTUAV) Fire Scout or 
Fire-X, as well as a helicopter. So it is quite capable. And on 
radar, it looks like a fishing boat.

                             DDG-51 PROGRAM

    Senator Collins. Mr. Secretary, your strategy to introduce 
competition into the restart of the DDG-51 program earlier than 
planned reaps some significant savings for the taxpayer, and I 
applaud you for that effort. In addition, it is my 
understanding that the Navy estimates that it could save up to 
$1.5 billion by exercising multiyear procurement authority for 
the DDG-51 program during the next 5 years.
    I understand that Senator Reed mentioned some possible uses 
for those savings. So I would be remiss if I did not also 
follow that line of questioning.
    That amount, as luck would have it, would be sufficient to 
procure one additional DDG-51 in the 5-year budget window. And 
currently, the Navy intends to procure nine ships during the 5 
years. But the Navy's own requirements, plus the fragility of 
the industrial base, call for an absolute minimum procurement 
rate of two large surface combatants per year.
    So, Mr. Secretary, if the Navy does reap the savings 
expected from the multiyear procurement authority and the 
increased competition and you have the opportunity to reinvest 
that funding, would adding an additional destroyer in the 5-
year budget window also be one of your priorities?
    Mr. Mabus. Senator, we will certainly be requesting 
multiyear authority for the DDG-51. I think it is exactly the 
type program, and your numbers are accurate in terms of the 
savings that we forecast.
    What we have done, however, is we have already used those 
savings to get the nine ships. Without a multiyear, we would 
only be able to procure eight. And so, we have taken the 
savings that we anticipate from the multiyear to procure the 
ninth ship.
    Senator Collins. I am concerned particularly, and I realize 
my time has expired, but particularly with the focus on the 
Asian Pacific, that we are not going to have enough ships to 
really do the job. And I hope that is something that we can 
focus on as we set priorities.
    Also for the record, I will be, with the chairwoman's 
permission, submitting some additional questions involving 
investment in our public shipyards. There is a long, long 
backlog, which the Government Accountability Office (GAO) has 
documented.
    And unfortunately, there, I believe, is only one new 
military construction project identified in this year's budget 
request, for Norfolk. And the needs are great at the Portsmouth 
Naval Shipyard and elsewhere. So that is something we need to 
look at as well.
    Mr. Mabus. Madam Chairman, if I could.
    Senator Mikulski. Sure.

                     NAVY FLEET SIZE AND CAPABILITY

    Mr. Mabus. Just in terms of numbers of ships, you and I 
share the concern, even though the fleet we have today is far 
more capable than any fleet we have had before. But one of the 
things that I think is important to note is that at the end of 
this 5 years, this FYDP, we will have the same size fleet, in 
spite of some early retirements of ships, in spite of the 
requirements of the Budget Control Act of 2011, in spite of 
having to defer the building of some ships, and that by 2019 we 
will be back at 300 ships. We will build the fleet to 300 ships 
because at some point, as we have discussed, quantity becomes a 
quality all its own.
    So, thank you, Senator.
    Senator Collins. Thank you. Thank you very much.
    Senator Mikulski. Senator Collins, and also to other 
Senators, I know their staffs are here, the record will remain 
open for subsequent questions of members, and also Senator 
Inouye will be submitting his questions for the record.
    I have some questions of my own. I really wanted to be at 
this hearing because we in Maryland, we are a Navy State. We 
are not just a Navy State. We love our Army presence, whether 
it is the National Security Agency at Fort Meade or Aberdeen or 
its bases. We love the Air Force because of being there at 
Andrews.
    But we are crazy about the Navy. We have the Naval Academy, 
Naval Bethesda.
    Mr. Mabus. Your ardor is returned, Senator.
    Senator Mikulski. Well, we will get to that--Naval 
Bethesda, Pax River, the Office of Naval Intelligence.

                        USNS COMFORT RELOCATION

    And we think we offer a fantastic set of home ports. We are 
the home port to the Constellation. We are the home port to the 
10th fleet, the dynamic, cyber 10th fleet that has no aircraft 
carrier, submarines, or whatever, but is defending the fleet. 
And we are also the home to the Comfort.
    Now, we feel real bad that we are going to lose the 
Comfort. And in fact, we feel so bad in Maryland that it has 
the same magnitude, if you were in Baltimore when we heard the 
Comfort was going to leave us, we have had the same feeling as 
when the Colts left us.
    And I am not joking. We love the Comfort, the hospital ship 
that we have watched since 1987 steam down the bay for really 
significant missions, serving the Nation, whether it has been 
to respond to Desert Storm, and we were there along with the 
hospital ship Mercy, whether it was responding to 9/11 off the 
coast of New York, where Senator Collins and I stood side-by-
side looking at the wreckage and the debris, and so on.
    So I want to know how we can keep the Comfort in Baltimore?
    Mr. Mabus. Senator, the decision to move Comfort was a 
purely financial one. The pier in Baltimore is a private pier 
that we pay a little more than $2 million a year to keep the 
Comfort berthed there. The pier that it will be moving to is a 
Navy pier. So we will save in excess of $2 million a year to 
move the Comfort.
    Two other things went into the decision. One was the 
facilities at the new pier for the ship and its permanent crew, 
the 57 permanent crew members. And the other was that, as 
Comfort is manned by medical professionals----
    Senator Mikulski. You have two mannings. You have those who 
keep the ship afloat and operational, and then you have this 
extraordinary medical team that is just amazing.
    Mr. Mabus. Me, too. And that manning has changed over the 
years so that most of those health professionals now--doctors 
and nurses--come out of Portsmouth, Virginia, the hospital 
there, instead of the way they used to, out of Bethesda.
    And so, those were the things that went into the decision. 
But it was primarily financial.
    Senator Mikulski. Well, I have a couple of questions about 
that.
    First of all, let us go to the pier part of it. And I 
understand we are in a frugal environment. That has been the 
point of the testimony and many of your comments as you support 
the Secretary of Defense and the President's initiative to have 
a more frugal but still muscular defense. We understand cost.
    But tell me about this pier. Don't you have to build a new 
pier for the Comfort?
    Mr. Mabus. No, ma'am. We upgraded the pier----
    Senator Mikulski. And how much did that cost?
    Mr. Mabus [continuing]. To provide for the Comfort. Three 
and a half million dollars.
    Senator Mikulski. So it cost $3.5 million to upgrade it?
    Mr. Mabus. Yes.
    Senator Mikulski. Now, let us go to the mission. And I 
understand the fact that the manpower used to be at Naval 
Bethesda. So I don't dispute that.
    But have you looked at the hurricane impact? Let me be 
specific so this isn't a trick question.
    The Comfort, since the Comfort has deployed since 1987, I 
think, 9 or 10 times, two-thirds of that has been during 
hurricane season. Literally, when it went down the bay, it has 
been hurricane season. What Norfolk has to do when hurricanes 
come is they have to go to sea.
    Okay. So the President says send the Comfort to wherever. 
It has been to Haiti, you know, and God knows what lies ahead, 
given the turmoil in the world.
    So, have you looked at the hurricane impact statement, that 
while it is berthed at Norfolk, you are in a hurricane, the 
Comfort is out at sea riding it out, but you have to get ready 
to deploy? Have you looked at the hurricane impact?
    Admiral Greenert. I can't tell you that we have, Senator. 
What we would do is we would sortie the ship, like we do with 
the others. And I think that is your question, the cost to 
sortie----
    Senator Mikulski. I don't know the military lingo. I just 
know----
    Admiral Greenert. We would get underway. The ship gets 
underway----
    Senator Mikulski. Because while we are looking at Norfolk 
during the hurricane, we are up the coast at Ocean City, and so 
on.
    Admiral Greenert. Right.
    Senator Mikulski. So we are all kind of in it together. So, 
go ahead.
    Admiral Greenert. I have to take it for the record, so that 
I--because I would want to make sure I understand your 
question.
    I believe this ship will have to get underway like the 
other ships in Norfolk do when there is a hurricane in the 
region. And so, have we accommodated that factor, as opposed to 
remaining in Baltimore, the number of times ships sortie 
because of weather in Norfolk versus weather in Baltimore? I 
think that is your question, Senator.
    Senator Mikulski. Yes.
    Admiral Greenert. I have to get back to you on that and see 
what that would be.
    Senator Mikulski. Well, Admiral, I would really appreciate 
this.
    Admiral Greenert. Sure.
    [The information follows:]

    After revising our cost estimates to account for hurricanes, the 
case for moving USNS Comfort to Norfolk remains cost effective. The 
Navy will still save approximately $2 million annually. Details are as 
follows:
    USNS Comfort has not conducted a weather sortie from her berth in 
Baltimore in the past 10 years, while Navy ships homeported in Norfolk 
have conducted two weather sorties during this period. If USNS Comfort 
was berthed in Norfolk, each weather sortie would incur operational 
costs of $0.5 million (assumes a 5-day sortie at a cost of $100,000/
day). Over a 10-year period, two sorties would thus cost $1 million (2 
 $0.5 million) or an average of $0.1 million/year.
    Despite the potential operational cost for USNS Comfort to conduct 
weather sorties, the decision to berth her in Norfolk remains cost 
effective. Our report to the Congress on the Cost Benefit of Relocation 
of USNS Comfort estimated a $2.1 million/year savings. Factoring in the 
contingency of weather sorties reduces this estimate by $0.1 million to 
$2 million/year in savings. Also, the location in Norfolk would reduce 
the transit time to open ocean by 12 hours compared to a Baltimore 
berth.

    Senator Mikulski. You know, it is my job to fight to keep 
the Comfort----
    Admiral Greenert. I understand.
    Senator Mikulski [continuing]. Both for economic reasons 
and jobs, and yet we have developed just an affectionate 
relationship. And I think the crew of the Comfort feels the 
same, that we are a welcoming home port.
    So, Mr. Secretary, with the cooperation of the Admiral, I 
would like you to look at that impact and see if it affects 
your judgment so we get to keep the Comfort.
    If we cannot, if we cannot--and facts must speak for 
themselves--would you also take the opportunity to look and see 
if there are other home port opportunities for us? Because we 
have a 50-foot channel, we now have port capacity that is going 
to welcome the new ships coming through the Panama Canal. And 
if we can welcome these new ships from the canal, we sure would 
like to welcome a vessel from the United States Navy.
    We have the Constellation, the older ship. We would welcome 
a new ship, and we would love to keep the Comfort.
    Would you take a look at----
    Mr. Mabus. We would be happy to look at both of those. Yes, 
Ma'am.
    Senator Mikulski. Senator Cochran.
    Senator Cochran. Madam Chairman, thank you.
    General Amos, there is one question that I omitted asking 
for the record to you, and it relates to our amphibious warship 
fleet lift capacity.

                      AMPHIBIOUS SHIP REQUIREMENTS

    What I would like to have for the record is what is the 
current inventory of amphibious ships in the fleet? And what is 
the maximum lift requirement? And are there operational 
readiness concerns? And are you aware of any unmet combatant 
commander demands for amphibious ships?
    General Amos. Senator, I can answer, I think, all of those 
or at least get a head start on those things, and we will come 
in on the record for the rest of it.
    But I believe the current inventory--and John, Admiral 
Greenert can just keep me honest here--I think our current 
inventory is at 29 today, amphibious ships.
    We have a few decommissions coming underway. We have some, 
as you know, new construction. I made a comment about 2 weeks 
ago that the agony that the CNO and the Commandant and the 
Secretary of the Navy went through in this FYDP cycle to cut 
Solomon's baby, to try to determine, what ships, you know, 
where are we going to spend our money was, I think, very 
responsible.
    And I think, from my perspective, I mean, I would like to 
add 55 amphibious ships, but we can't afford it. My sense right 
now is that I am very satisfied with what we have done inside 
this FYDP.
    There is going to be an effort underway over the next 
little bit to take a look at what is our real requirement? We 
know how much it takes to put a marine expeditionary brigade on 
a ship. That takes 17 amphibious ships. So if you just say, 
okay, let's put one of these brigades onboard, what is it going 
to take? It is 17.
    Well, our Nation has an agreed-upon requirement for two of 
these in a forcible entry operation. Well, that is a lot of 
ships, and we can't afford that.
    [The information follows:]

    Question. What is the current inventory of amphibious ships in the 
fleet?
    Answer. There are currently 28 amphibious warships in the fleet.
    Question. What is the maximum lift requirement?
    Answer. The Department of the Navy has identified a requirement of 
38 amphibious warships to lift two Marine Expeditionary Brigade assault 
echelons. Compelled by fiscal realities, we have accepted risk down to 
33 ships. Thirty operationally available ships is the baseline number 
to support day-to-day operations.
    Question. Are there operational readiness concerns?
    Answer. We currently have 27 operationally available amphibious 
warships in the inventory. With the commissioning of the USS San Diego 
(LPD 22) during May 2012, the number of operationally available 
amphibious ships will rise to 28. The current inventory does not 
support operational plan (OPLAN) lift requirements and defers critical 
warfighting capability to follow-on-shipping, and increases closure 
time. Additionally, it does not fully support single-ship deployer 
requirements requested by combatant commanders to meet their theater 
engagement plans. Last, there is little flexibility in the amphibious 
warship inventory, limiting the Navy's ability to provide a ``reserve'' 
in the case of a catastrophic casualty to a ship or class of ship.
    Question. Are you aware of any unmet combatant commander demands 
for amphibious ships?
    Answer. Specific demand signals are classified and can be provided 
in a separate venue; however, the overall delta between global 
combatant command demand of Amphibious Ready Group/Marine Expeditionary 
Units and what has actually been sourced for fiscal year 2012 is 53 
percent. For independent amphibious warship deployers, less than 10 
percent of global combatant command demand is sourced.

    General Amos. So we are working right now, you know, what 
is it we can't afford? What are the elements of risk, as you 
come off of the number? And then how do you mitigate that risk? 
Because there are ways that you can mitigate risk.
    But as the Secretary said, quantity has a quality all its 
own. It does reach a point, there is a knee in the curve where 
we want to make sure that we have the ability to be able to put 
these, deploy this forcible entry force. Hard to imagine that 
it could ever happen. It is almost out of the realm of our 
imagination. But let me give you a sense for magnitude.
    When we surrounded the town of Fallujah in the fall of 
2003--excuse me, 2004, we put 5 marine infantry battalions 
around there, 3 Army battalions, and 2 Iraqi battalions--10 
infantry battalions. What we are talking about here for this 
forcible entry capability for the entire United States of 
America are basically six battalions, or two brigades worth of 
marines coming ashore.
    So when you think of relativity, it is a pretty nominal 
capability for a nation that is a global power, that somewhere 
down the road may have to exercise its forcible entry 
capability.
    Does that answer your question, Sir?
    Senator Cochran. It does. Thank you very much.
    Senator Mikulski. Mr. Secretary, General Amos, and Admiral 
Greenert, first of all, I think the subcommittee really wants 
to thank you for your service and for your leadership. In 
thanking you, we want to thank all the men and women who serve 
in the Navy and the Marine Corps.
    So, for those who are active duty, Reserves, and part of 
our civilian workforce that supports the Navy, we really just 
want to say thank you in every way and every day.

                    FORCE SIZE AND DEPLOYMENT IMPACT

    I want to ask a question really that then goes to 
deployment and our families. One of things we know that the 
health and vitality of our military personally--the individual 
soldier, sailor, airman, and marine--often depends on the 
frequency of the deployment.
    With the drawdown of personnel and the fact that we are 
still in combat, my question to you is, given this current 
manpower that is being recommended in the appropriations, how 
do you see this affecting the deployments? Will they deploy 
more frequently? Will they deploy less? What is your view on 
that?
    Admiral, can we start with you, and then go to General 
Amos?
    Admiral Greenert. Yes, Senator.
    The demand signal which defines our deployment is called 
the global force management allocation plan. It is the 
distribution, the allocation of forces around the world. And 
one of the in-going foundations, if you will, or givens, for 
our budget as submitted and that we signed up to was what we 
call--my process is called the fleet response plan. And I 
respond to the global force management allocation plan.
    We established what that is, and I am comfortable that we 
can--and it will be less deployments than today, subject to the 
world voting and things changing.
    The thing, the key in this is the combatant commanders' 
having a request for forces. This is a supplemental to the 
plan, if you will. Today, we are living with a fairly extensive 
number of requests for forces. These are deployments over and 
above what the budget is laid out to give. And due to the 
generosity, if you will, the support of this subcommittee and 
the Congress through the overseas contingency operations (OCO) 
appropriation, we are able to reconcile that.
    So what I am telling you, Senator, is with the plan, the 
global force management plan that is laid out there, I am 
comfortable. If we are unable to, if you will, sustain that 
appetite for additional forces, then there is going to be a 
stress on that, and we are going to be deploying more than what 
is assumed in this budget. And that will be difficult.
    Senator Mikulski. General.
    General Amos. Senator, several years ago, I remember 
answering your question about what would be the ideal what we 
call deployment-to-dwell ratio. And that is----
    Senator Mikulski. That is exactly what I am trying to also 
get at.
    General Amos. Right. And it is deployment-to-dwell. And 
that was at the height of when the Marine Corps, my service, 
was essentially almost on a 1-to-1. So you are gone 7 months, 
and you are home 7 months. And while you are home at 7 months, 
you are training and you are doing all these things. So it is 
not like you are home in your house for 7 months. But that 
becomes a 1-to-1.
    We are sitting today in our infantry battalions, which is 
the standard unit of measure in the Marine Corps--everything 
else is built around an infantry battalion--at about 1 
deployment to 1.5, which means you are gone for 7 months and 
you are home for 10, 11.
    Now, I will tell you that is going to change dramatically 
this year. As the Marine forces come down, as that surge force 
comes down in Afghanistan that we have talked about, our 
deployment-to-dwell ratio will increase. In other words, we 
will have more time at home.
    So, as I look at a post-Afghanistan world, and I think 
about now being forward deployed and forward engaged in the 
Pacific, and being in Okinawa and being in Guam and being down 
in Australia, and doing all the things that marines do, my 
sense is that even at a 182,000 force--in other words, that 
force that we are going to go down to--that we will, when it is 
all said and done, we will settle down to something more than a 
1-to-2 deployment-to-dwell.
    So it will probably be--we will have some units that are 1-
to-3. In other words, you are gone, we will get out of the 7-
month deployments. We will get back to 6. You are gone 6 
months, then you are home 18 months. And marines get bored. And 
quite honestly, they like to deploy, and they like to be out at 
the cutting edge. So that is the 1-to-3 that we would probably, 
as a Nation, like our services to all kind of be at.
    Are we going to ever see that again? I don't know. Will I 
be happy if I see 1-to-1.2, as a Commandant? Yes. Will the 
marines be happy? I think so. I think we are going--that is 
where we are headed. So I think if we are just patient for 
about another year, we will get this recocked and reset back to 
I believe where you would like to see it, Senator.
    Senator Mikulski. Well, what I would like to see is that I 
know that our Marines and our Navy like to fight. That is why 
they join the military. I mean, like to be ready to protect and 
defend, and we love them for it. We really do.
    And part of that love for them is to protect them while 
they are protecting us. Our job is to protect them. And 
deployment and the rate of deployment, the ratio of deploy-to-
dwell has a dramatic, demonstrable effect now. We know this 
from our experiences on their physical and mental health.
    So I am for them. And I know you are. God knows, I know you 
are. And so, I want to be sure that, as we look at the forces 
that we are going to have, we protect them as they protect us.
    And Mr. Secretary, and I would hope the Service Secretaries 
and the Secretary of Defense also speak out at hearings, that 
if we are going to reduce the number of our military, we need 
to be careful with our rhetoric about where we want to just 
send them. So just know that. I think all of us want to work 
with you on it.

                   SERVICEMEMBER TRANSITION PROGRAMS

    And then that goes to my last question. After they serve 
and they are ready to be discharged, I worry that they have 
jobs. I just worry about that. And I know many of the Members 
do. The women have talked about this. So, often when they are 
discharged, is there an actual plan that helps them sort out 
where they can work?
    And also, it was something, I think, Mr. Secretary, you in 
your old hat as a Governor said, sometimes they had these 
fantastic skills in the military and serve us so well and 
bravely, but it doesn't count toward licensing in their home 
State. So we have heard about just wonderful people that have 
done incredible Medical Corps service in the most grim and 
violent of circumstances, where their performance has been 
amazing to prevent mortality and morbidity, and then it didn't 
count for anything when they came home to get a job, where we 
have a civilian workforce shortage--EMTs, nursing, et cetera.
    Could I ask you, Mr. Secretary, and so I know I am going 
over my time, really, first of all, I think their service ought 
to count, and I think it ought to count in every State in the 
United States of America. Are you looking at that? And then, 
also, can you tell me about the discharge planning that goes on 
so that we help them be able to find their way in the civilian 
workforce?
    Mr. Mabus. I would very much like to talk about that.
    In terms of credentialing, whether it is for things like 
nurses or other things, two things spring to mind. One is the 
First Lady's initiative to make sure that every State in the 
Union signs up to accept credentials from particularly military 
spouses. Because we ask our military to move a lot. Military 
spouses who are nurses or realtors or anything else that 
requires a certificate or a license sometimes have to wait 6 
months or a year when they get there.
    Second, for the members of the service, we have a thing 
called Navy COOL, which is Credentialing Opportunities On-Line.
    Senator Mikulski. ``Cool,'' like ``You are a cool guy?''
    Mr. Mabus. You are a cool guy.
    Senator Mikulski. Okay. Is it C-O-O-L----
    Mr. Mabus. I think that is why they picked it. No, it is C-
O-O-L, Navy COOL. And what it will----
    Senator Mikulski. I notice it is not ``CNO.''
    Mr. Mabus. Well, he is a pretty cool guy, too.
    Senator Mikulski. Yes. You all are.
    Mr. Mabus. Navy COOL allows sailors to go online, get the 
certificate that they need to match the job they are doing in 
the military with a civilian credential. And we have this lined 
up with every naval job, what is a comparable civilian job and 
if you need a credential. And if you are leaving the Navy, we 
will pay for the things that you need to do to get that.
    Senator Mikulski. Get that credential.
    Mr. Mabus. Get a credential.

                  SERVICEMEMBER TRANSITION ASSISTANCE

    The other things I want to talk about, and CNO and 
Commandant may want to give some more detail, too, as people 
separate from either the Navy or the Marine Corps, we are 
taking that transition very seriously. We are giving one-on-one 
counseling. We are doing things like, if you want to go to a 
job fair anywhere in the United States, we will pay for you to 
go there.
    If you are overseas when you are being separated, we 
guarantee you 60 days back in the United States before that 
separation. The marines have a four-door process of ``Tell us 
where you want to aim for.'' Do you want to aim for more 
education? Do you want to aim for apprenticeship? Do you want 
to aim for a certificate? Or do you want to aim to go right 
into the job market? And we will send you through the 
preparation to do that.
    And the last thing I would like to say is that the Navy 
itself has taken it very seriously. Last year, we hired in the 
Navy almost 13,000 former sailors and marines to come in as 
civilians once their service was finished because they have a 
lot of the skills that we need. So far this year we have hired 
almost 3,000.
    And we feel a special obligation to our wounded warriors. 
We have had two hiring conferences with private employers for 
wounded warriors, both of which all three of us have spoken at.
    The second thing, though, is that the Department of the 
Navy, through Naval Sea Systems Command, NAVSEA, had a goal 
last year of hiring at least one wounded warrior per day for 
the entire year, and we exceeded that. We hired more than 400 
wounded warriors into NAVSEA.
    Senator Mikulski. Mr. Secretary, I am going to ask you not 
only for the record, but for me personally, if I could have 
whatever your policy papers are on this, because I want to talk 
to my colleagues about how we can promote the First Lady's 
initiative not only in the budget. And I know both the Admiral 
and General could elaborate, but the hearing is getting longer.
    [The information follows:]

    Prior to 2009, the Department of the Navy (DON) had several 
initiatives and programs for hiring wounded warriors, but these efforts 
were consolidated under Executive Order 13518, ``Employment of Veterans 
in the Federal Government'' which DON now follows as its guiding 
policy. DON utilizes the Defense Outplacement Referral System (DORS) to 
help wounded warriors find employment opportunities within the 
Department of Defense (DOD). Wounded warriors who register in DORS have 
the opportunity to upload their resumes which are then available to 
hiring managers across DOD. DON is committed to recruiting and 
employing veterans, and our HR Wounded Warrior Coordinators help 
qualifying veterans register in DORS; 976 wounded warriors have been 
hired in fiscal year 2012.
    In compliance with Executive Order 13518, DON provides the required 
veterans' employment training via human resources reference guides, 
online education tools, and in-person seminars. DON also recently 
published a wounded warrior reference guide for the use of employers, 
managers, and supervisors which provides information on how to 
successfully support veterans who have transitioned to the civilian 
workplace.

    Senator Mikulski. And then I think there will be some of us 
who will want to take this on ourselves. You know, when World 
War II ended, we had a tremendous demand for workers and so on. 
And again, as part of it, if you are going to get out there and 
protect and defend us and be in the front line, we don't want 
them on the unemployment line.

                     ADDITIONAL COMMITTEE QUESTIONS

    And so, we would like to work with you to really, really 
ensure that. I would like to have the policy papers and do 
that.
    So, Mr. Secretary, Admiral Greenert and General Amos, we 
want to thank you for your testimony and for your service. 
Senator Inouye also said to please commend his regards to you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                 Questions Submitted to Hon. Ray Mabus
            Questions Submitted by Chairman Daniel K. Inouye
                        end-strength reductions
    Question. Secretary Mabus, as part of the fiscal year 2013 budget 
proposal, the Department of Defense (DOD) has put forward a plan to 
reduce the size of the active duty Navy by 6,200 sailors and Marine 
Corps by 20,000 marines over 5 years. What is the plan for reducing the 
force beginning in fiscal year 2013, and what are the risks associated 
with this downsizing?
    Answer. Navy and Marine Corps end-strength reductions are a result 
of DOD Strategic Guidance released January 2012. This guidance 
emphasizes a smaller, leaner force structure that is agile, flexible, 
ready, innovative, and technologically advanced. This quality force is 
fully capable of executing its assigned missions, and is a force with 
capabilities optimized for forward-presence, engagement, and rapid 
crisis response. It also balances capacity and capabilities across our 
forces while maintaining the high levels of readiness on which the 
Nation relies.
    Navy end-strength reductions are primarily the result of changes in 
force structure, such as ship decommissionings. To manage these 
reductions, the Navy will primarily rely on voluntary measures and 
attrition, before resorting to involuntary actions. The challenge is to 
shape and balance the force to achieve a mix of officers and enlisted 
personnel that ensures the right person, with the right skills is in 
the right job at the right time.
    Marine Corps end-strength reduction result from right-sizing the 
Marine Corps to meet the anticipated security environment and needs of 
the Nation after the drawdown in Afghanistan, and the impacts of the 
Budget Control Act of 2011 on DOD budgets. This force adjustment 
follows the Marine Corps growth of 27,000 marines in 2006 and 2007. The 
force funded in the fiscal year 2013 President's budget request is 
fully capable of executing all assigned missions in the new strategic 
guidance, and is a force with capabilities optimized for forward-
presence, engagement and rapid crisis response. It balances capacity 
and capabilities across our forces while maintaining the high levels of 
readiness for which the Nation relies on the Marine Corps.
    The Commandant of the Marine Corps (CMC) has approved the use of 
several force shaping tools as we reduce Marine Corps end strength by 
approximately 5,000 marines per year beginning in fiscal year 2013. The 
Marine Corps will accomplish the drawdown by maximizing the use of 
voluntary measures such as attrition and early separation/retirement 
authorities. This reduced level of end strength creates some additional 
risk in capacity as the operating force manning levels will go from 99 
percent for both officer and enlisted ranks to 95 percent for officers 
and 97 percent for enlisted; however, it is a manageable and affordable 
solution that maintains a ready, capable, and more senior force in 
support of the new strategic guidance.
    This enduring strength level and force structure ensures that the 
Marine Corps retains the necessary level of noncommissioned officer and 
field grade officer experience and war-fighting enablers to support the 
future security environment. The Marine Corps drawdown plan ensures the 
Marine Corps remains the Nation's expeditionary force in readiness 
while simultaneously keeping faith with our marines and their families 
who have excelled during the last 10 years of combat operations.
                                biofuels
    Question. Secretary Mabus, I am encouraged by the administration's 
proposal on biofuels and your leadership in DOD on alternate energy and 
biofuels in particular. I have heard concerns raised questioning the 
rationale for DOD's participation in this initiative. Can you comment 
on the national security justification for DOD's involvement in the 
biofuels project? Furthermore, does the administration still support 
this tri-Agency initiative?
    Answer. By continuing to rely on petroleum fuels, DOD is subject to 
price volatility in the global petroleum market and bears potential 
exposure to foreign supply disruptions. Last year after the Libyan 
crisis occurred, the price per barrel charged by the Defense Logistics 
Agency (DLA) energy increased $38 to $165 per barrel. With this 
increase in the price of a barrel of oil, the Department of the Navy 
(DON) realized a $1.1 billion increase in our fuel bill. These midyear 
increases equate to less flying hours, less steaming hours, and less 
training, ultimately impacting readiness. Additionally, national 
security is threatened by the potential to be physically cut off from 
foreign sources of petroleum.
    Because of the imperative for energy and national security, DON 
believes the United States must reduce its dependence on petroleum but 
especially foreign oil. DON is making investments in the American 
biofuels industry because this is vital to our operations. This effort 
can help to dampen price volatility while also developing an assured 
domestic source for tactical fuels. Currently, the Navy uses about 50 
percent of its tactical fuels stateside, and 50-percent deployed 
overseas. The stateside portion is where most of our crucial training 
and readiness events take place. When petroleum prices exceed budget 
forecasts or supplies constrained, the amount of training can get 
reduced. To ensure the Navy is ready to serve national interests, this 
training must not be subject to the vagaries of the petroleum market. 
Domestically sourced and produced advanced alternative fuels could 
provide energy security for training and readiness and more budgetary 
certainty as alternative fuel prices will not move directly with the 
petroleum prices. The need to find cost competitive alternative fuels 
has never been greater. Unrest in Libya, Iran, and elsewhere in the 
Middle East drove up the price of a barrel of oil by $38, which 
increases Navy's fuel bill by more than $1 billion. Because every $1 
rise in a barrel of oil is effectively a $30 million unbudgeted bill to 
the Navy, in fiscal year 2012 the Navy is facing a $1 billion 
additional fuel cost because the price has risen faster than that 
estimated when the budget was passed.
    The administration is 100 percent behind this ``tri-Agency 
initiative''. Currently, the three agencies participating (U.S. 
Department of Agriculture, Department of Energy, and DON) expect to 
contribute $170 million each to the effort for a total of $510 million. 
There is a minimum requirement that industry provides a 1-to-1 cost 
share, resulting in a total investment of at least $1 billion.
    With the total investment, DON anticipates that multiple integrated 
biorefineries could be constructed through new builds and retrofits. 
This investment, combined with a strong demand signal for alternative 
fuels from the military and commercial sector, will be the impetus 
necessary to sustain the overall alternative fuels industry sector. 
Creating a strong, domestic fuel market that insulates the United 
States from foreign oil and price volatility has been, and continues to 
be, a goal of the current administration.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
             broad area maritime surveillance--global hawk
    Question. Secretary Mabus, as you know, the Air Force has decided 
to cancel the Global Hawk Block 30 program and announced it does not 
intend to procure the last three assets appropriated in the fiscal year 
2012 National Defense Authorization Act (NDAA). It is expected this 
will have a negative effect on the supplier base and will more than 
likely increase the unit price given the reduction of units procured.
    Given the Navy's Broad Area Maritime Surveillance (BAMS) program is 
based upon the Global Hawk airframe, do you think the unit cost will 
increase now that the Air Force has decided to cancel the Global Hawk 
Block 30 and has decided not to procure the last three assets 
appropriated in the fiscal year 2012?
    Answer. The cancellation of the Global Hawk Block 30 adds risk of 
some cost increases to the BAMS program. The unit cost impact will 
primarily affect the System Demonstration Test Articles (SDTA) and Low 
Rate Initial Production Lot 1 since these procurements are below the 
minimum sustaining production rate of four aircraft per year.
    Question. Do you anticipate a break in the production line?
    Answer. There is risk of a production line break if North Atlantic 
Treaty Organization Alliance Ground Surveillance does not procure an 
aircraft in at least 1 of the slots planned for Global Hawk lot 11.
    Question. How will a break in production affect the Navy's BAMS 
program?
    Answer. Exact cost impacts to BAMS Unmanned Aircraft Systems (UAS) 
are being discussed with the prime contractor. If a production line 
break is avoided and only a delay occurs, costs are estimated to 
increase by at least $40 million for the SDTA lot with additional 
potential cost for low rate initial production (LRIP) 1 lot. However, 
if a production line break occurs then the costs are estimated to be 
closer to $220 million, $140 million immediate impact plus $80 million 
across total production for lost learning. The most significant impacts 
are felt if a supplier business fails; work to identify impacts at this 
subtier supplier level is ongoing.
    Question. If you anticipate an increase in unit cost, will the Navy 
still be able to procure the 68 aircraft you intend to buy?
    Answer. The Navy does not anticipate the BAMS UAS unit cost to 
increase above the current Acquisition Program Baseline estimate 
developed at Milestone B. Therefore, it is anticipated that the Navy 
will continue with plans to procure all 68 aircraft.
                          joint strike fighter
    Question. This past January 20, Defense Secretary Leon E. Panetta 
announced ``there had been enough progress in fixing technical problems 
on the Marine variant that he could reverse the decision by his 
predecessor, Secretary Robert M. Gates, to put the plane on a 
probationary testing status. However, the President's fiscal year 2013 
budget slowed the acquisition of the Joint Strike Fighter by 69 
previously planned aircraft to outside the Future Years Defense Program 
(FYDP) to save $15.1 billion in savings. Lockheed-Martin has stated 
they have fixed their production and suppliers issues and are ready to 
accelerate their production line. It is a well-known fact that in order 
to achieve economies of scale you need to maximize your production 
capacity and supplier base to get the best price and yet that is 
exactly opposite of what we are doing here.
    Mr. Secretary, in your opinion based on the testing data known to 
date, is the Joint Strike Fighter mechanically sound given its current 
design?
    Answer. Yes. The three F-35 variants are encountering the types of 
development problems historically encountered on highly sophisticated 
state-of-the-art high performance aircraft development programs at this 
stage of maturity. While risks do remain in the balance of the 
development and flight test program, there are no known design issues 
that cannot be overcome by effective engineering. The program's 
management over the past year has put in-place the right fundamentals 
and realistic plans using sound systems engineering processes, and we 
are monitoring and tracking performance using detailed metrics. 
Additionally, the Acting Under Secretary of Defense for Acquisition, 
Technology and Logistics (USD(AT&L)) commissioned an internal/
independent quick look review (QLR) of the F-35 program during 2011. 
This USD(AT&L) review also found that while risks remain in the program 
the overall F-35 design is sound.
    Question. If it is--what is the projected cost comparison of buying 
the 69 aircraft within the FYDP and retrofitting the necessary changes 
as compared to delaying the 69 and potential increased unit cost?
    Answer. The cost to retrofit 69 aircraft within the FYDP is 
approximately $10 million each (fiscal year 2013-fiscal year 2017). The 
cost of delaying the aircraft procurement increases the average 
aircraft unit recurring flyaway (URF) cost over the total buy profile 
by $4-$6 million depending upon the variant.
    Question. What is the new projected unit cost if the 69 aircraft 
are delayed?
    Answer.

                           PRESIDENT'S BUDGET FOR FISCAL YEAR 2013 (SAR 11 REPORT) URF
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                    Buy year                         2013         2014         2015         2016         2017
----------------------------------------------------------------------------------------------------------------
Conventional take-off and landing (CTOL).......        127.3        118.0        104.4         94.5         90.6
Carrier-variant (CV)...........................        148.4        138.2        118.4        108.0        104.2
Short take-off and vertical landing (STOVL)....        163.9        149.9        137.1        125.1        118.8
----------------------------------------------------------------------------------------------------------------

    Question. Will Lockheed-Martin request contract consideration for 
reducing the number of aircraft procured, if yes how much?
    Answer. No. The impact of the fiscal year 2013 President's budget 
will be incorporated into the respective negotiated and awarded LRIP 
contracts at the outset. Therefore, Lockheed-Martin will not have a 
basis to request ``consideration'' against any negotiated contract.
    Question. Will this unit cost increase induce another Nunn-McCurdy 
Breach?
    Answer. No. The Nunn-McCurdy calculation is heavily influenced by 
the total aircraft buy. There has been no reduction to the total 
planned Department of Defense aircraft procurement.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
                              usns comfort
    Question. The Congress authorized the Navy $10 million in fiscal 
year 2011 military construction funding (P862) to modify Norfolk Naval 
Station Pier 1 to serve as a permanent berth for USNS Comfort (T-AH 
20). USNS Comfort has been homeported in Baltimore since 1987 and is a 
crucial tool of America's ``smart power'' strategy and its ability to 
achieve its missions must not be impacted for relatively small savings. 
Since 1987, the USNS Comfort has deployed nine times, six of those have 
occurred during hurricane season (National Oceanic and Atmospheric 
Administration defines hurricane season as June 1 to November 30).
    Did the Navy consider the increased risk of berthing the USNS 
Comfort in Norfolk during the hurricane season?
    Answer. The risk associated with both locations was carefully 
considered. During hurricane season, potential storms are tracked 
throughout their lives. U.S. Navy ships at storm-hardened piers or 
ships that are unable to meet underway timelines remain at the pier and 
weather the storm. On the east coast, there is normally plenty of 
advance warning to a hurricane making landfall in order to prepare 
ships for sea. If the fleet were to sortie from Hampton Roads, 
depending on the pier hardening for USNS Comfort's pier, she may not be 
required to sortie. For example, Military Sealift Command's (MSC) 
prepositioning ships berthed at Newport News CSX at storm-hardened 
piers do not necessarily sortie when the Atlantic Fleet sorties.
    We recognize that each hurricane situation will be different. We 
understand that hurricane tracks are notoriously unpredictable. Should 
a storm track take an unexpected turn, the ability for USNS Comfort to 
quickly sortie into open ocean from a Norfolk berth was considered in 
our risk assessment. The Atlantic Fleet has sortied twice in the last 5 
years. If USNS Comfort were required to crew and sortie every year, 
there would still be significant cost savings by departing from Norfolk 
vice her commercial berth in Baltimore. If a hurricane were to threaten 
Norfolk, USNS Comfort could get underway within 72-hours notice for 
hurricane evasion when required and be able to quickly steam to safer 
open waters offshore away from the storm. In summation, we consider 
USNS Comfort being berthed in Norfolk to significantly decrease risk to 
her and her ability to carry out her mission during hurricane seasons.
    Question. How can the USNS Comfort respond to posthurricane 
disaster relief mission if it has to sortie to avoid an impending 
hurricane?
    Answer. The ideal situation is to load medical equipment and 
personnel onboard USNS Comfort prior to sortie. Otherwise, USNS Comfort 
would sortie to a modified load out port and then proceed to the relief 
mission. In the case of a scenario like Hurricane Irene heading up the 
east coast last year, USNS Comfort would sortie out to sea and then 
return to a load-out port unaffected by the storm before responding to 
the disaster area. (Normally, official notification to deploy for a 
disaster relief mission is not provided until several days after a 
hurricane occurs and a Presidential Declaration is given or until a 
formal request for assistance is requested from a foreign nation).
    Question. Would having to first sortie from Norfolk to avoid the 
hurricane storm significantly delay the USNS Comfort's response time in 
providing disaster relief and humanitarian assistance?
    Answer. No. While USNS Comfort sorties, the required provisions, 
supplies, and manning could be directed to a selected load out port. 
From the time of the order to sortie, USNS Comfort would be in open 
waters much more quickly, ready to respond to further orders if she was 
berthed in Norfolk. Steaming the ship to the selected load-out port 
while simultaneously preparing the load-out cargo at that port would 
allow the most flexible and efficient response. This is the normal 
process for responding to combat mission taskings as well, and was 
utilized for USNS Comfort's response to Hurricane Katrina.
    Question. What would have been the impact on the USNS Comfort 
mission to New York City in September 2001 if the ship had been 
stationed in Norfolk and the base was responding in a defensive, 
heightened security posture?
    Answer. The response would have improved. The civil service mariner 
(CIVMAR) manning of the USNS Comfort crew would be sourced from the 
manpower pool onboard the naval base, and cargo and supplies for onload 
would be facilitated by the cargo handling equipment and facilities 
resident on the Norfolk Naval Base. Personnel responding from the 
Portsmouth Naval Hospital would have less direct travel time to the 
ship if she was berthed in Norfolk, Virginia.
    Question. Did the Navy undertake a cost-benefit analysis based on 
the cost to sortie the USNS Comfort while also attempting to prepare 
and provide disaster and humanitarian relief assistance?
    Answer. Hurricane sortie risk was taken into consideration. 
Avoiding the 12-hour Chesapeake Bay transit time offers a cost savings 
when comparing Baltimore to a coastal port.
                  united states marine corps drawdown
    Question. The Marine Corps has requested a reduction of 20,000 
marines by fiscal year 2017. For many servicemembers, returning home 
and transitioning into civilian life will be challenging. The 
percentage of veterans in poverty increased significantly in recent 
years, rising from 5.4 percent in 2007 to nearly 7 percent in 2010. 
Across periods of service, those veterans who have served since 
September 2001, have the highest poverty rate. In 2010, 12.4 percent of 
post-9/11 veterans lived in poverty, compared with 7.9 percent of Gulf 
War I veterans and 7.1 percent of Vietnam era veterans.
    As the Marine Corps prepares to drawdown troop levels, what is the 
Department of the Navy (DON) doing to ensure soon-to-be veterans do not 
end up in poverty?
    Answer. The Marine Corps provides support to veterans throughout 
the Nation. Our Marine For Life program will support improved reach-
back and outreach support for those veteran marines who require 
localized support in their hometowns with information, opportunities or 
other specific needs. We are enhancing our Marine for Life program and 
its nationwide network of Hometown Links, both of which are integral 
parts of our ``cradle-to-grave'' approach of Transition Assistance. 
These assets help veterans develop and maintain local networks of 
marine-friendly individuals, employers, and organizations and present a 
proactive approach to help marines before problems arise.
    Question. How does this budget address the unacceptably high-
unemployment rate for veterans?
    Answer. The Marine Corps does three things for our Nation:
  --it makes marines;
  --it wins our Nation's battles; and
  --it returns quality citizens.
    We are improving our transition assistance program in order to 
better meet the needs of our transitioning marines and return quality 
citizens. Our program will be integrated and mapped into the lifecycle 
of a marine from recruitment, through separation or retirement, and 
beyond as veteran marines. There will be several ``touch points'' that 
are mapped into a marine's career. Because 75 percent of our marines 
will transition from active service after their first enlistment, these 
contact points are focused on the first term of a marine.
    Our initial step in this planned process to improve transition 
assistance is our revised Transition Readiness Seminar (TRS). The 
revised week-long TRS includes a mandatory core curriculum with four 
well-defined military-civilian pathways:
  --university/college education;
  --vocational/technical training;
  --employment; or
  --entrepreneurship.
    A marine will choose the pathway that best meets his or her future 
goals and will have access to individual counseling services within 
each pathway. Additionally, pre-work requirements will be expected from 
each attendee to maximize the efficiency and effectiveness of the 
seminar. This tailored approach to the TRS will greatly reduce 
information overload and target the individual circumstances and needs 
of the marine.
    Question. Many marines find it difficult to translate what they 
have done in their military occupations to civilian workforce, what is 
DON doing to ensure the skills our troops have developed while in the 
Marine Corps can be applied to civilian workforce?
    Answer. The Verification of Military Experience and Training 
(VMET), DD form 2586, document is an overview of a marine's military 
career. The military experience and training listed on the VMET is 
verified as official. The purpose of the VMET document is to help 
marines create a resume and complete job applications. In addition, 
they can elect to show the VMET document to potential employers, 
employment/government agencies or to educational institutions. In some 
cases, it can be used to support the awarding of training or academic 
credit. Along with VMET document, marines can use DD Form 214s, 
performance and evaluation reports, training certificates, military and 
civilian transcripts, diplomas, certification, and other available 
documentation to achieve the best results in these endeavors. Military 
Occupation Specialty (MOS) Crosswalk is an activity that is conducted 
in our revised Transition Readiness Seminars (TRS).
    The marine will be trained to use their VMET document to do a gap 
analysis between their work experience, education, available jobs and 
Labor Market Information in order to help marines choose the 
appropriate pathway:
  --university/college education;
  --vocational/technical training;
  --employment; or
  --entrepreneurship.
    We teach these online tools in our TRS:
  --O*NET Online (Department of Labor):
    --Find occupations;
    --Apprenticeship programs; and
    --MOS Crosswalk.
  --My Next Move for Vets (Department of Labor):
    --Military Skills translator;
    --Bright outlook jobs (high growth jobs over the next 5 years);
    --Green jobs; and
    --Department of Labor-registered apprenticeship programs.
  --Hire 2 Hero (Department of Defense):
    --Job search, military occupational codes military skills 
            translator; and
    --Can submit resumes online to employers.
  --VetSuccess (Department of Veterans Affairs):
    --Military skills translators; and
    --Can view and apply for jobs by geographic locations.
  --Career One Stop (Department of Labor):
    --Explore careers;
    --Job searches;
    --Resumes and interviews; and
    --Salary and benefits.
    Question. Is the Marine Corps partnering with the private sector to 
assist in the transition to civilian life?
    Answer. The purpose of the Marine for Life program is to develop 
and maintain a network of marine-friendly employers, organizations, and 
individuals in order to provide all marines with a reach back 
capability and ongoing support in finding employment, pursuing 
educational opportunities and realizing life goals. These partnerships 
currently encompass more than 1,300 employers nationwide with a 
demonstrated interest in employing marines as they leave active duty. 
In addition, Marine for Life works closely with national level, 
nonprofit organizations including the Marine Corps League, the Marine 
Corps Executive Association, and the American Legion in leveraging 
their members to assist transitioning marines with employment, 
educational goals, and relocation.
                        f-35 test and evaluation
    Question. A Pentagon study on the F-35 recently reported that the 
aircraft had completed only a small percent of its developmental test 
and evaluation program. The report listed problems with the program 
including the inability to land on an aircraft carrier. The Congress, 
in the Weapons Systems Acquisition Reform Act in 2009, established in 
title 10, a stronger developmental test and evaluation office inside 
the Office of the Secretary of Defense (OSD) to provide better 
oversight to correct deficiencies on new systems before they enter 
operational test and evaluation.
    Does OSD provide DON with the proper levels of resources and 
authority to be effective in its mission to correct deficiencies on new 
systems before they enter operational test and evaluation?
    Answer. In general, DON has adequate resources and authority to 
ensure known deficiencies are identified and corrected prior to a 
system entering operational test and evaluation.
    With regard to F-35, since the 2010 Nunn-McCurdy breach (and the 
resulting Technical Baseline Review), the program has undergone 
significant reorganization and has been appropriately resourced to 
address future deficiencies. As part of the program reorganization, 
test, and evaluation (T&E) processes have now been better integrated 
with operational test (OT) involvement. Resource requirements are being 
further refined to support updated requirements that will be defined in 
a new F-35 Test and Evaluation Master Plan (TEMP/Rev. 4). This TEMP 
revision is currently being drafted and due to be signed in early 
fiscal year 2013. Additionally, a Joint Operational Test Team (JOTT) 
has been established and is actively involved with identifying 
deficiencies of the F-35 weapon system on an on-going basis. The JOTT 
does this through the conduct of Operational Assessments, as well as 
via an integrated test process now in place, to provide continuous 
feedback to the Program Executive Officer for the Joint Strike Fighter 
(PEO(JSF)) and the warfighter/acquisition communities. PEO(JSF) is 
directly involved in Ready-to-Test processes which culminates in an 
Operational Test Readiness Review prior to test. All deficiencies and 
the maturity of corrective action will be assessed as key criteria for 
OT readiness to enter test. As the F-35 program further matures, and OT 
begins to receive aircraft, it is expected that all of these processes 
will continue to improve resulting in even a better understanding of 
the F-35 Weapon System and insights to the PEO and the Department's 
test community oversight activities.
    Question. How can OSD provide better oversight and guidance as DON 
develops new weapon systems?
    Answer. Current OSD oversight and guidance is adequate for DON to 
develop new weapon systems. On-going OSD efforts to gain efficiencies 
in application of existing guidance should be continued.
    With regard to F-35, OSD has been directly involved at all phases 
of T&E planning. Specifically, Defense Operational Test and Evaluation 
(DOT&E) leadership and action officers (or their designated 
representatives) are present at all meetings and actively 
participating. In the recent years there has been an increased presence 
of design, development, test, and evaluation (DDT&E) representatives at 
all key test and evaluation meetings as well.
    Question. Do you believe prime contractors have assumed too much 
responsibility for the execution of developmental test and evaluation 
on large weapons systems?
    Answer. The responsibility for developmental test is assigned, not 
assumed, and the level of developmental test conducted by the prime 
contractor is determined by the program manager and the Component 
Acquisition Executive as the developmental test strategy is formulated 
to ensure the system under development is adequately engineered and 
tested to meet the requirements set out by DON. This strategy is vetted 
with appropriate stakeholders and overseen by the Deputy Assistant 
Secretary of Defense for Development Test and Evaluation (DASD(DT&E)).
    In the case of the F-35 program, the prime contractor was assigned 
responsibility for the execution of DT&E. Due to the misapplication of 
Total System Performance Responsibility (TSPR) authority, there was 
inadequate communication from the prime contractor about interim 
capabilities and interim performance of the overall air-system--which 
led to systems engineering solutions that differed from the intended 
requirements and sometimes falling short of the Services original 
desires. For DON, Aviation Developmental Test (DT) is robust and has a 
well established community of interest. A more tightly integrated 
testing strategy with Government DT and Operational Test Authority 
(OTA) involvement earlier in the program might have better served in 
sustaining the original service requirements. These processes are now 
in-place today and PEO(JSF) and the Prime Contractor (Lockheed-Martin) 
are actively responding to government OTA inputs and guidance.
    Question. How does the fiscal year 2013 DON budget provide for the 
right balance between Government oversight on testing and contractor 
execution of acquisition programs?
    Answer. The fiscal year 2013 DON budget provides a balanced mix 
between contractor and Government in the T&E workforce. We utilize 
Government personnel to conduct inherently governmental oversight 
functions and contractor personnel in technical support and surge 
roles. The fiscal year 2013 budget includes all the necessary funding, 
both contractor and Government, for the approved test strategies that 
have been developed by program managers and approved by leadership for 
their respective programs.
    For F-35, there is an integrated test force of Government and 
contractor personnel and operational test is adequately resourced to 
support all planned T&E program activities. As the U.S. Air Force 
Operational Test and Evaluation Command (AFOTEC) is the lead test 
organization, DON is using AFOTEC processes to conduct OT. Future F-35 
resources requirements are subject to formal review and approval by DON 
leadership and are currently being refined to ensure OT's active 
participation through the entire F-35 Initial Operational Test and 
Evaluation program. Operational test personnel are also funded to 
participate in DT activities to provide insights and understanding of 
accomplishments during developmental test and to allow them to 
leverage, rather than repeat, DT tests.
                  ultra high frequency satellite fleet
    Question. The existing satellite fleet providing ultra high 
frequency (UHF) capacity for U.S. Government agencies is nearing the 
end of its lifespan. The Mobile User Objective System (MUOS) satellite 
program will ultimately replace the existing satellite fleet by 2015. 
However, the initial MUOS satellite orbits are not projected to cover 
North and Latin America which creates a capability gap, especially if 
one the aging satellites fail. Furthermore, apparently an existing UHF 
capacity exists today, industry experts claim that only 10 percent to 
20 percent of requests are filled.
    What is the status of the MUOS-1 advance waveform terminal program; 
to include:
  --when the terminals will be available for global deployment;
  --how long the U.S. military will need to rely on legacy UHF 
        satellite services; and
  --what are the intentions of our allies and partners regarding 
        adopting the advanced waveform or is there a security issue 
        associated with their use of this new platform?
    Answer. The Joint Tactical Radio System Network Enterprise Domain 
(JTRS NED) program office is projecting Formal Qualification Testing 
(FQT) of the MUOS Waveform v3.1 (a.k.a. Red/Black Waveform) in August 
2012, which would enable it to be ported to the JTRS Handheld, Manpack, 
Small Form Fit (HMS) Manpack radio by February 2013. This would mean 
that an operationally representative user terminal would be available 
in time for the MUOS Developmental Testing (DT)/Operational Testing 
(OT) period in early fiscal year 2014.
    Navy intends to buy 202 JTRS HMS Manpack radios across the FYDP, 
including 50 radios in fiscal year 2013 to support MUOS testing, as 
part of an inventory objective of approximately 450.
    Statistical reliability analysis conducted by the Navy has shown 
that the MUOS satellite launch schedule anticipated by the Navy (actual 
launch dates will be set by the Air Force Current Launch Schedule 
Review Board) will meet or exceed the legacy UHF satellite 
communications (SATCOM) requirements set by the Joint Requirements 
Oversight Council (JROC) through 2018. The new MUOS Wideband Code 
Division Multiple Access (WCDMA) capability will be operationalized 
with the launch and completion of on-orbit testing of the MUOS-2 
satellite, projected in the late calendar year 2013, and will reach 
full operational capability by the end of 2016, at which time the JROC 
mandated requirement for legacy UHF SATCOM is retired. Legacy 
capability will continue to be maintained beyond 2018, although at 
lower capacity levels, to allow time for remaining users to transition 
to the new WCDMA capability.
    The National Security Agency (NSA) currently restricts the MUOS 
WCDMA waveform from being released outside of the United States 
Government.
    Question. What is the status of the Navy's UHF satellite fleet; 
include data on how many, in percentage terms, are within 12 months of 
their nominal design life?
    Answer. Seventy-five percent of the eight UHF follow-on (UFO) 
satellites currently on orbit are at or beyond their 14-year design 
life. The remaining two have been on orbit for 12.3 and 8.3 years, 
respectively. The Navy's UHF satellite fleet (eight UFO satellites and 
two fleet satellites), with the help of actions taken by the Navy to 
mitigate unplanned losses of UHF communications satellites, the launch 
of the MUOS-1 legacy payload, and the projected launches of MUOS-2 
through MUOS-5, are projected to meet the Legacy UHF SATCOM requirement 
through 2018. Legacy capability will be maintained beyond 2018 to 
continue to facilitate the shift of remaining users to the WCDMA 
capability and support coalition operations but not at the currently 
required capacity.
    Question. Even with the launch of MUOS-1, what is the risk that 
current UHF satellites will fail? What would be the training and 
mission impact if UHF satellites fail?
    Answer. As noted above, statistical reliability analysis conducted 
by the Navy has shown that the launch schedule anticipated by the Navy 
for MUOS satellites (actual dates will be set by the Air Force Current 
Launch Schedule Review Board) will maintain the legacy UHF SATCOM 
requirements set by the JROC through 2018.
    In an effort to reduce the risk of an unplanned loss of a UHF 
satellite to acceptable levels, the Navy has aggressively implemented 
several mitigation activities to extend the service life of the 
existing constellation and increase on-orbit capacity. As a result, the 
current legacy UHF SATCOM capacity provides the warfighter with 
approximately 459 more accesses (111 more channels) worldwide than 
required by the stated Chairman of the Joint Chiefs of Staff (CJCS) 
capacity requirement. This additional capacity is equivalent to three 
UFO satellites, provides a buffer against unplanned losses in the 
future, and minimizes the training and mission impact to a manageable 
level.
    Question. The U.S. Government made the decision in 2010 to partner 
with the Australians on a commercially provided, UHF hosted payload in 
the Indian Ocean region. Now that the private sector intends to launch 
an identical payload into the Atlantic Ocean region, what are the 
United States and Allied plans to take advantage of this capability?
    Answer. DOD partnered with the Australian Minister of Defense (not 
the commercial provider) for access to 250 kHz of UHF Narrowband SATCOM 
on a commercial satellite payload that Australia is leasing over the 
Indian Ocean Region from 2012 to 2027. In exchange, the United States 
will provide the Australians access to 200 kHz of spectrum over the 
Pacific and 50kHz of spectrum globally from 2018-2033. DOD has 
additional commercial UHF SATCOM capacity through leases the Navy has 
procured on Leased Satellite (LEASAT) 5 and Skynet 5C and an agreement 
with the Italian Government for access to a UHF SATCOM channel on 
Sistema Italiano per Comunicazioni Riservate ed Allarmi (SICRAL) 1B.
    As noted in preceding questions, the Navy is maximizing technical 
and fiduciary efficiencies through a combination of the implemented gap 
mitigation actions, commercial leases, international partnerships, and 
the MUOS legacy payloads, to ensure the warfighter has access to legacy 
UHF SATCOM capacity that meets the CJCS requirements and provides a 
buffer against unplanned losses. Since all DOD requirements for UHF 
SATCOM capacity are currently projected to be met over the Atlantic 
Ocean region through 2018, DOD is not planning to take advantage of 
this commercially provided UHF hosted payload in the Atlantic Ocean 
region or any additional commercial UHF SATCOM capacity at this time.
    The Navy will continue to monitor the health of the current UHF 
SATCOM constellation for any signs that it is degrading more rapidly 
than currently projected. If it appears the level of legacy UHF SATCOM 
service will fall below CJCS requirements, the Navy will revisit all 
options, including commercial leases and hosted payloads, to maintain 
the current level of legacy service to the warfighter until the 
transition to the MUOS WCDMA capability is complete.
    Additional details are available in the Report to the Senate Armed 
Services Committee on ``Ultra High Frequency (UHF) Satellite 
Communications (SATCOM) Requirements and Options for Additional 
Capacity'' signed on March 19, 2012, by the Assistant Secretary of the 
Navy for Research, Development, and Acquisition in response to the 
fiscal year 2012 Senate Armed Service Committee Report 112-26.
    Question. How does the fiscal year 2013 DON budget provide for 
increased demand for UHF SATCOM both in the field and during training? 
Does the Navy have a multitiered approach towards ensuring the U.S. 
military has adequate UHF satellite access? If so, what is that 
approach?
    Answer. Current and future DOD Narrowband SATCOM requirements will 
be met by the MUOS program through 2026. CJCS sets requirements for 
Narrowband MILSATCOM for all DOD users based on warfighter needs and 
the Navy fills those as the DOD Acquisition Agent for Narrowband 
SATCOM. The current CJCS requirements are captured in the MUOS 
Capabilities Production Document dated January 15, 2008, and the MUOS 
program is on track to meet all key performance parameters given in 
that document. Increased capacity requirements, combined with inherent 
limitations of the military UHF SATCOM spectrum, drive the need to move 
beyond legacy UHF waveforms found in current military and commercial 
UHF SATCOM systems to the new WCDMA capability found in MUOS. Finally, 
instead of a multitiered approach, MUOS reliability and availability 
requirements are met by launching a fifth MUOS satellite as an on-orbit 
spare.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                     lha 8 amphibious assault ship
    Question. Secretary Mabus, Senate Report 112-77 which accompanied 
the Senate's version of the Defense appropriations bill for fiscal year 
2012 included language about building the LHA 8 Amphibious Assault Ship 
in the most cost-effective manner. Specifically, the subcommittee 
directed the Navy ``to fully fund advance planning and design of LHA 8 
and work with industry to identify affordability and producibility 
strategies that will lead to more efficient construction of a large 
deck amphibious assault ship to best meet combatant commander needs''. 
Can you please provide the subcommittee details on efforts being 
undertaken by the Department of the Navy (DON) to comply with this 
direction?
    Answer. The Navy intends to engage industry via two Early Industry 
Involvement contracts that are focused on affordability and 
producibility. The goal is to have these contracts in place by the end 
of the calendar year. The contracts will utilize technical instructions 
(tasks) to focus industry involvement on areas that have the potential 
to reduce acquisition and life-cycle costs. These tasks will range from 
assessing select technologies for their potential to be integrated into 
the ship, such as Flexible Compartment Infrastructure, to more 
production-friendly design requirements and arrangements, to evaluating 
alternative C5I acquisition strategies. An Industry Day will be held 
prior to the release of the Early Industry Involvement contracts to 
ensure potential industry partners completely understand our 
expectations for their assistance in reducing the cost of LHA(R) Flight 
1 ships.
                                 ______
                                 
              Question Submitted by Senator Susan Collins
                                 ddg-51
    Question. Last year, your strategy to introduce competition into 
the DDG-51 program earlier than planned reaped significant savings for 
the taxpayer, and I applaud you for that effort. In addition, the Navy 
estimates that it could save up to $1.5 billion by exercising multiyear 
procurement authority for the DDG-51 program during the next 5 years 
for a nine ship buy over that period. I appreciated your description 
during the hearing of how the multiyear procurement authority pending 
before the Congress would result in savings for the DDG-51 program 
during the next 5 years.
    As I have stated in the past--based upon the Navy's own 
requirements and the fragility of the industrial base--we need to 
sustain an absolute minimum procurement rate of two large surface 
combatants per year. However, you did not comment specifically on the 
Navy's interest in procuring an additional DDG-51 in the multiyear 
procurement if the Navy was provided authority to reinvest unexpected 
savings from previous DDG-51 competitions or future competitions. I 
would like to provide you an opportunity to clarify your view regarding 
this matter. If the Navy were to take advantage of savings from 
previous DDG competitions and to realize savings above those projected 
for the upcoming multiyear procurement, would adding an additional 
destroyer as part of the multiyear procurement be at or near the top of 
your priority list?
    Answer. Thank you for your strong support of our Navy and 
especially our shipbuilding industry. As we build the future fleet, we 
continually strive to maximize competition which will result in savings 
that can be applied to purchasing additional ships.
    In evaluating the merits of a multiyear contract for the fiscal 
year 2013 through fiscal year 2017 DDG-51s, the Navy projected $1.5 
billion in savings for nine ships across that time period. The 
President's budget request has leveraged these savings in the 
procurement of the nine ships. As you pointed out in your letter, the 
Navy has achieved significant savings in previous competitions on the 
DDG-51 program. There are savings in the DDG-51 budget line in prior 
years. These savings alone are not adequate to procure an additional 
DDG-51 as part of the multiyear.
    However, if the Navy had the authority to reinvest savings from 
previous destroyer competitions and were to achieve savings beyond what 
was projected on this upcoming competition, the Navy would certainly 
like to take advantage of the opportunity to procure an additional ship 
in the fiscal year 2013 through fiscal year 2017 DDG-51 Multiyear 
Procurement Program. In order to provide maximum flexibility, the Navy 
intends to request pricing for nine or ten ships in the solicitation. 
The Navy believes that this is the most affordable path to meet our 
surface combatant requirements while also addressing industrial base 
concerns.
    The Navy looks forward to working with the Congress to maximize the 
numbers of ships that we buy under these competitive multiyear 
contracts. Again, thank you for your continued support for Navy 
shipbuilding.
                                 ______
                                 
              Question Submitted by Senator Lisa Murkowski
                           energy initiatives
    Question. Each of our armed services is a significant consumer of 
energy and each is leading in its own way in addressing the challenges 
of diminished fossil fuel supplies and increased costs. How is the Navy 
leading in its efforts to diversify its fuel sources?
    Answer. Because of the imperative for energy and national security, 
the Department of the Navy (DON) believes the United States must reduce 
its dependence on foreign oil. DON is making investments in the 
American biofuels industry because this is vital to our operations and, 
therefore, the security of the Nation. Currently, the Department of 
Agriculture, Department of Energy, and DON have entered into a 
Memorandum of Understanding for this Alternative Fuels Initiative that 
will be using the Defense Production Act title III authority. The three 
agencies are expecting to contribute $170 million each to the effort--
$510 million total. There is a minimum requirement that industry 
provides a 1-to-1 cost share, resulting in a total investment of no 
less than $1 billion.
    With the total investment, DON anticipates that 3-5 integrated 
biorefineries could be constructed through new builds and retrofits. 
This investment, combined with a strong demand signal for alternative 
fuels from the military and commercial aviation, will be the impetus 
necessary to sustain the overall alternative fuels industry sector.
    The Navy has nearly completed the test and certification process 
for hydrotreated renewable (HR) fuels and is moving on to evaluate 
drop-in alternative fuel products from additional production pathways, 
such as alcohol-to-jet and pyrolysis. Navy plans to have HR fuel in the 
fuel specification by the end of fiscal year 2012.
    In July 2012, the U.S. Navy will be demonstrating its Green Strike 
Group, which is a carrier strike group comprised of a carrier, two 
destroyers, and a cruiser, all operating on alternative fuels. The 
destroyers, cruiser, and the airwing on the carrier will be using a 50/
50 blend of fossil fuel and biofuel. This demonstration will be a part 
of the Rim of the Pacific exercise off the coast of Hawaii. In 2016, we 
plan to deploy this Great Green Fleet overseas. These aggressive 
efforts are a major part of the Secretary of the Navy's broader energy 
goals.
                                 ______
                                 
              Question Submitted by Senator Lindsey Graham
                   next generation enterprise network
    Question. Mr. Secretary, I understand that the Navy is weeks if not 
days away from issuing the request for proposal (RFP) for its Next 
Generation Enterprise Network (NGEN)--a highly complex information 
technology (IT) program that involves transitioning the Navy's largest 
and most secure network to a new contract. The Navy's acquisition 
strategy for NGEN has been much maligned. In addition to frequent 
criticism of the pass/fail technical requirements/lowest price 
selection from acquisition authorities, the U.S. Government 
Accountability Office (GAO) issued its 2012 annual report on 
``Opportunities to Reduce Duplication, Overlap and Fragmentation, 
Achieve Savings, and Enhance Revenue'' strongly suggest that NGEN 
should receive further scrutiny.
    How can you convince us that the current course on NGEN will be the 
best approach for the Navy and for the taxpayer? Is there value in 
considering a more straightforward recompete of your current services 
contract cost/performance trade-off since it apparently meets your 
needs, and should be well understood by those who will be evaluating 
proposals? If this lower-risk alternative is not being considered, why?
    Answer. NGEN is a continuation of the Navy Marine Corps Intranet 
(NMCI) 2010 under the Continuity of Services Contract (CoSC). The 
current strategy is to competitively select either one or two vendors 
for the two main segments of the network (Transport and Enterprise 
Services) using a lowest price technically acceptable (LPTA) source 
selection; a best value determination in accordance with Federal 
Acquisition Regulation (FAR) Part 15.101-2. This approach for NGEN has 
been endorsed as appropriate at the Office of the Secretary of Defense 
(OSD) level via a robust oversight process that included multiple 
Overarching Integrated Product Team (OIPT), OSD Peer and Milestone 
Decision Authority (MDA) reviews. LPTA is considered appropriate when 
the requirement is well-defined, price control is paramount, and the 
risk of nonperformance is low. The performance requirement for NGEN is 
NMCI as it performed on September 30, 2010. It is well understood. As 
the network operates today, there is no development under NGEN. The 
major changes in requirements are for increased Government Command and 
Control (C2), enhanced Information Assurance (IA) and Government 
ownership of the network infrastructure; there are no significant 
changes in the technology required or how the contractor executes the 
contract. Furthermore, the technologies integral to NGEN are widely 
used Commercial-Off-the-Shelf (COTS) technologies. Finally, the 
Department of the Navy (DON) has determined that there are no clear 
discriminators for which the Government would be willing to pay more, 
and, given that there are several companies that are capable of 
delivering this service in accordance with the DON's requirements, 
price was determined to be the overriding factor.
    While a straight-forward recompete would continue to provide the 
required level of service, it would not give the DON the needed insight 
into the elements that make up an enterprise network. Under NGEN, the 
38 services to be delivered are individually priced and available to be 
recompeted separately or collectively as part of a FAR Part 15 
contract; different from CoSC which was a FAR Part 12 contract that did 
not give insight into pricing or allow for severability of services or 
segments. This construct enables evolutions like the Joint Information 
Environment, enterprise email, Data Center Consolidation and other 
Department of Defense-level efficiencies without the burden of 
recompeting the entire enterprise contract. Increased competition will 
drive future innovation and price reduction without sacrificing 
performance or security of the DON's network.
                                 ______
                                 
          Questions Submitted to Admiral Jonathan W. Greenert
           Questions Submitted by Senator Barbara A. Mikulski
               electromagnetic aircraft launching system
    Question. Among the revolutionary changes in the USS Gerald R. 
Ford-class aircraft carrier is a new electromagnetic aircraft launching 
system (EMALS). The Navy continues to test a variety of aircraft on the 
system, including the F-35 Joint Strike Fighter. The question is 
whether that technology will be ready in time, in order to avoid either 
costly delays to the program--or an even more costly redesign of the 
first ship of class.
    What is the status of EMALS development and testing?
    Answer. EMALS continues to meet its development and test 
objectives. To date, the system has successfully completed 134 aircraft 
launches (including F/A-18E clean and with stores, C-2A, T-45C, E-2D, 
and F-35C) and more than 1,800 operationally representative deadload 
launches. Concurrent environmental qualification testing, including 
extensive aircraft, weapons, and personnel electromagnetic 
compatibility testing at the component and system level, have 
demonstrated EMALS suitability for use.
    All deliveries to date of CVN 78 shipboard EMALS hardware have met 
ship construction need dates. All future EMALS component deliveries are 
likewise projected to meet shipyard need dates.
    Question. Considering the criticality of this new technology, is 
the Navy considering building a second test facility at Naval Air 
Station Patuxent River to ensure the Navy has built in redundancy so 
that the USS Gerald R. Ford-class aircraft carrier delivers on 
schedule?
    Answer. The Navy has no plans to build a second test facility at 
the Naval Air Station Patuxent River in support of the Ford-class 
aircraft carrier program.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                     shipbuilding production rates
    Question. Admiral Greenert, the new Strategic Guidance for the 
Department of Defense highlights the importance of Nation's maritime 
presence and calls for increasing our posture in the Pacific. However, 
when compared to the last budget submission, this request reduces ship 
procurement from 57 to 41 ships. Admiral, if the Navy had additional 
resources in fiscal year 2013 or 2014, what ships would the Navy 
procure?
    Answer. If appropriate fiscal resources were available in fiscal 
year 2013 and/or 2014 the Navy would likely allocate more funding to 
shipbuilding. The first priority would be restoring the attack 
submarine (SSN) removed from fiscal year 2014 in our budget submission. 
There will be a significant shortfall in ``SSN-years'' in the 2020s 
that can be best addressed by sustained submarine procurement. Our 
second priority would be restoring a destroyer (DDG) removed from 
fiscal year 2014 in our budget submission. A shortfall of DDGs will 
develop late in the 2020s that can be best addressed by sustained DDG 
procurement. Both of these actions would require advance procurement 
(AP) funding in fiscal year 2013; further, these changes would also 
contribute immensely to a more stable industrial base.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                   joint pacific alaska range complex
    Question. One of the contributions to our national security that 
Alaska is proudest of is the Joint Pacific Alaska Range Complex 
(JPARC). Alaskan Command reminds me that it is a unique national asset 
because it is in every respect a joint range. The Navy participates in 
exercises on the JPARC from platforms in the Gulf of Alaska (GOA). How 
does the Navy's participation in exercises utilizing the JPARC add 
value from a national security standpoint?
    Answer. Since the 1990s, the Navy has participated in major joint 
exercises in the GOA involving each of the services in the Department 
of Defense and the Coast Guard. Participants report to a unified or 
joint commander who coordinates the activities of the forces. Services 
are able to demonstrate and be evaluated on their ability to 
participate in a joint force in simulated conflict and carryout plans 
in response to a national security threat.
    Given the unique training environment provided by the JPARC, the 
range contributes to Navy readiness by:
  --Supporting U.S. Pacific Command training requirements.
  --Supporting Joint Task Force Commander training requirements.
  --Providing realistic, expansive areas to replicate actual 
        operations.
                                biofuels
    Question. I wonder if you might address the Navy's interest in 
biofuels. Has the Navy determined that the benefits of biofuels 
(potential decreased price volatility, diversified suppliers) 
outweighed the costs (research and development investment, uncertain 
future price of biofuels)?
    Answer. Our alternative fuel initiative is an important investment 
for the Navy. It addresses a core concern of our national strategic and 
military operational need for energy security and energy independence. 
Investing in sustainable future technologies is critical to Navy's 
ability to remain the world's premier maritime force.
    Navy is pursuing multiple paths to achieve a future less dependent 
on petroleum and the fiscal effects of rising energy costs. The current 
price volatility of oil increases the complexity of adequately funding 
our global operations. Already in this fiscal year, unanticipated fuel 
price increases have caused our operations accounts to become 
underfunded by approximately $900 million. To technologically hedge 
these execution year risks, the Navy will spend nearly $16 million on 
laboratory capabilities to examine, test, and certify alternative 
fuels. This expenditure positions us to validate the safe use of a wide 
variety of drop-in replacement fuels in the future. Although the Navy 
must pay a premium price to obtain biofuel for research and 
development, as well as for test and certification purposes, the Navy 
cannot and will not purchase alternative fuels for operations unless 
the price is competitive with conventional fossil fuels.
    Question. How has this comparison been done between biofuels and 
the traditional fossil fuels?
    Answer. There are a number of studies that state the case that 
biofuels will be cost competitive as early as the 2018-2025 timeframe 
without Government investment. A large majority of alternative energy 
firms also believe that the infusion of capital (from Defense 
Production Act title III or other investment sources) will measurably 
speed up the timeline.
    Question. How can a robust biofuel industry domestically change 
that balance?
    Answer. With a strong demand signal from the military and 
commercial aviation, there could be enough pull to entice more 
companies to enter this market. From the supply side, there are many 
feedstocks, numerous pathways, and multiple processes being identified 
for use in the alternative fuel industry. No single solution alone will 
reduce our reliance on foreign sources of liquid fuel. With many 
domestic biofuel companies in the market taking advantage of continued 
research, the costs for biofuels will eventually be competitive with 
conventional sources of petroleum.
    Question. I understand that the Navy is quite interested in hybrid 
power and other fuel conservation efforts. Can you elaborate some on 
these efforts?
    Answer. Navy is very interested in energy-efficiency efforts both 
afloat and ashore. It is the ``first fuel'' because what we don't 
consume or use directly enhances Navy's combat capability by extending 
the range and on-station time, in the air, on the water, or over land. 
The logistics tether of resupply has been exploited by the likes of al 
Qaeda in both Iraq and Afghanistan, but it is also a vulnerability at 
sea. By reducing fuel consumption for ships and aircraft, Navy reduces 
its reliance on a vulnerable logistics chain and improves its agility 
to meet the mission.
    Initiatives range from simple lighting changes that are more energy 
efficient and last much longer than fluorescent bulbs to more efficient 
engines and a hybrid electric drive (HED) that drastically reduces fuel 
consumption for DDG-51. Below are some examples of energy initiatives 
that Navy is implementing in fiscal year 2013.
  --A HED is in development for use in the DDG-51. The proof of concept 
        is scheduled to be installed in fiscal year 2013.
  --The Navy replaced the steam boilers on USS Makin Island (LHD 8) 
        with gas turbines and an Auxiliary Propulsion System or HED. 
        This propulsion system saved approximately $2 million in fuel 
        cost during her transit from Pascagoula, Mississippi to San 
        Diego, California. Over the ship's lifetime the Navy expects to 
        save more than $250 million. This system will be installed on 
        the LHA 6 class ships.
  --Installation of ship-wide, energy consumption monitoring systems 
        that compute the power usage and operating conditions of 
        energy-consuming systems on the ship and display this 
        information for leadership. Estimated efficiency gain is 2,179 
        Bbls/ship/yr.
  --Replacement of fluorescent and incandescent lamps aboard DDG-51, 
        CG-47, LSD 41/49, and LHD 1 class ships with more efficient 
        solid-state lighting. Estimated efficiency gain is 100-500 
        Bbls/ship/yr.
  --Development and installation of stern flaps on LHD 1 and LSD 41/49 
        class ships for improved hydrodynamics as demonstrated on USS 
        Kearsage (LHD 3). The USS Kearsage will have an annual fuel 
        reduction of 6,241 Bbls/yr. Overall estimated efficiency gain 
        is 4,000-5,000 Bbls/ship/yr through the LHD 1 and LSD 41/49 
        classes.
  --Replacement of obsolete fuel-air mixture monitors for main 
        propulsion boilers on LHA 1 and LHD 1 class ships with a new 
        automated system to control the fuel air mixture to increase 
        efficiency. Estimated efficiency gain of >3,000 Bbls/ship/yr.
    Intelligent Heating Ventilation Air Conditioning and Refrigerating 
(HVAC&R): HVAC&R plants on Military Sealift Command T-AKE ships consume 
approximately 36 percent of the total ship's power generated and lack 
the ability to be optimized to variable demands. Modifications to 
improve efficiency will increase HVAC&R systems efficiency by 30-40 
percent which translates into more than 4,000 Bbls/ship/yr.
                                 ______
                                 
              Questions Submitted to General James F. Amos
             Question Submitted by Senator Daniel K. Inouye
                       amphibious combat vehicle
    Question. General Amos, the amphibious combat vehicle (ACV) is a 
part of the Marine Corps integrated and complementary portfolio of 
combat vehicles critical to the future expeditionary Marine Air Ground 
Task Force Operation. Last year, the Marine Corps terminated the 
expeditionary fighting vehicle because it was too expensive. Since then 
you have stated the need to deliver the ACV within 4 years as well as 
be more affordable and sustainable. What measures are being taken to 
ensure this vehicle meets the cost and schedule goals set forth?
    Answer. The Marine Corps acquisition and requirements communities 
are working side-by-side to ensure that capabilities and requirements 
for the ACV are developed with an understanding of the costs associated 
with each. We have conducted upfront systems trade studies to drive 
technically feasible and affordable requirements decisions. We have 
conducted an extensive Systems Engineering Operational Planning Team 
that evaluated various system concepts to better define capability 
versus affordability trade space. As part of the ongoing analysis of 
alternatives we will conduct an affordability analysis to ensure the 
selected system meets life-cycle affordability targets. All of these 
efforts will ensure that cost goals are met, and if feasible and 
affordable, will deliver a prototype capability in 4 years.
                                 ______
                                 
              Question Submitted by Senator Lisa Murkowski
                   marine corps cold weather training
    Question. The Army takes great pride in the fact that Alaska's 
training grounds produce ``Arctic tough'' soldiers. In fact the Web 
site of the Army's Northern Warfare Training Center at Fort Wainwright 
displays this inspirational message, ``A Soldier trained in winter is 
also a good summer fighter; trained only in summer he is helpless in 
the winter!'' This is something we've not discussed with the Corps 
before. I'm wondering how the Marine Corps trains to operate in cold 
climates and whether Alaska's ranges and training grounds might offer 
some value to the Corps.
    Answer. The Marine Corps trains to operate in cold weather and 
alpine environments in medium to high-altitude aboard the Marine Corps 
Mountain Warfare Training Center (MCMWTC) in Bridgeport, California.
                                mission
    MCMWTC conducts unit and individual training courses to prepare 
Marine Corps, Joint, and Allied Forces for operations in mountainous, 
high-altitude and cold weather environments; and the development of 
warfighting doctrine and specialized equipment for use in mountain and 
cold weather operations.
                         history and background
    MCMWTC is one of the Corps' most remote and isolated posts. The 
Center was established in 1951 with the mission of providing cold 
weather training for replacement personnel bound for Korea. After the 
Korean conflict the name was changed to the Marine Corps Cold Weather 
Training Center. As a result of its expanded role it was renamed the 
Marine Corps Mountain Warfare Training Center in 1963.
    The Center occupies 52,000 acres in the summer and 62,000 acres in 
the winter of Toiyabe National Forest under management of the U.S. 
Forest Service (USFS). A letter of agreement between USFS and the 
Marine Corps permits the use of the area to train marines in mountain 
and cold weather operations.
    The Center is sited at 6,762 feet, with elevations in the training 
areas ranging to just under 12,000 feet. During the winter season 
(October-April) snow accumulation can reach 6 to 8 feet. Of note, 
severe storms can deposit as much as 4 feet in a 12-hour period. Annual 
temperatures range from -20 degrees to +90 degrees Fahrenheit.
    Marines at the Center are also involved in testing cold weather 
equipment and clothing, and developing doctrine and concepts to enhance 
our Corp's ability to fight and win in mountain and cold weather 
environments.
                             unit training
    The premier training evolution aboard MCMWTC is a 35-day exercise 
called Mountain Exercise (MTNEX). The Center trains an infantry 
battalion and its attachments and enablers from across the Department 
of Defense (DOD). MCMWTC averages six MTNEXs per year with two being 
conducted in the winter and four conducted in the summer. A MTNEX 
trains elements of the Marine Air Ground Task Force (MAGTF) across the 
warfighting functions for operations in complex, compartmentalized, and 
mountainous terrain utilizing military mountaineering skills in order 
to enhance a unit's ability to shoot, move, communicate, sustain, and 
survive in mountainous regions of the world.
    The winter MTNEX focuses on over the snow mobility by way of 
instructing a battalion on survival ski techniques, snowshoe 
application, short- to long-range movements via both methods, survival/
field skills, and sustained operations in a cold weather environment. 
The winter and summer training conducted at the MCMWTC is designed to 
provide individuals and units the requisite technical skills to gain a 
tactical advantage. Survival in extreme cold temperatures, maneuvering 
long distances in snowshoes or skis to defeat an enemy force, and using 
rope systems and climbing techniques, all of which allow a maneuver 
commander to achieve surprise through unsuspected routes and to 
maintain the initiative in complex, compartmentalized, mountainous 
terrain.
                          individual training
Winter Mountain Leaders Course
    The Winter Mountain Leaders course is designed to train marines to 
become subject-matter experts to a high degree in cold weather 
operations on ice and snow covered terrain. The mountain operations 
cold weather skills will enable enhanced movement, control of fires, 
intelligence gathering, sustainment, and force protection in complex 
snow and ice-covered terrain that is inaccessible to untrained marines.
    Students are taught avalanche awareness, over the snow mobility to 
Military Skier level, survivability, bivouac routine, mountain patrol 
techniques, tactical considerations, weapons employment, fire support 
considerations, the necessary skills to plan, organize, and lead 
mountain/cold weather operations; to act as Scout Skier element leaders 
on ridgeline flank security, picketing and recon patrols; to train 
their units for mountain/cold weather operations; and advise MAGTF or 
MAGTF element commanders and staffs.
Mountain Scout Sniper Course
    The purpose of this course is to train Scout Snipers to be 
tactically and technically proficient in a mountainous environment. 
This course includes instruction in advanced marksmanship at high 
angles with the M40A3 sniper rifle, M82A3 Special Application Scoped 
Rifle (SASR), M16A2 service rifle, and combat marksmanship with the M9 
service pistol. Instruction in high angle marksmanship includes range 
estimation, determining slope angle and flat line distance, effects of 
vertical and angular distortion, effects of elevation, and effects of 
extreme weather. Instruction in field craft includes stalking and 
concealment techniques in a mountain environment, man tracking, 
counter-tracking, over snow mobility, mountain communications, and 
mountain survival. Tactical instruction includes employment 
considerations for scout snipers in a mountainous environment, detailed 
mission planning, preparation and conduct of patrolling, and collecting 
and reporting information.
Cold Weather Medicine
    The purpose of this course is to give operating forces medical 
personnel the knowledge needed to support their units in a cold 
weather, mountainous environment. This course of instruction is 
designed to bring the students to a high standard of tactical and 
medical proficiency peculiar to a cold weather environment. The course 
subjects cover movement, survival, bivouac routine, leadership, 
diagnosing, treating, and preventing high altitude, cold-weather-
related illness and injuries, and techniques of transporting casualties 
in a snow covered mountainous environment.
Mountain Command, Control, Communications Course
    This course is designed to train communicators in the employment of 
communications assets in a cold weather/mountainous environment. It 
also covers communications planning for command posts and disaggregated 
units in highly complex, compartmentalized terrain. Additionally, 
graduates can be used by their parent units to train more marines in 
basic principles of mountain communications. Instruction is provided in 
wave theory and propagation, field expedient antennas, and re-
transmission operations, advantages/disadvantages of varied radio 
equipment, planning for coverage through the use of all communication 
assets available and speed.
Mountain Operations Staff Planners Course
    This course is designed to provide staff officers and staff 
noncommissioned officers academic instruction and field application in 
planning, conducting, and supporting combat operations in complex, 
compartmentalized, mountainous terrain. MWTC staff sections provide 
additional in-depth instruction relating to all aspects of operations 
and support functions in mountain warfare. Historical case studies and 
guest speakers play a key role in highlighting numerous lessons 
learned. Students then conduct operations in the local training area to 
familiarize them with operating in mountainous terrain. The course 
builds towards an intensive staff planning exercise and a follow on 
field combat operations center operations and tactical exercise without 
troops. This course is conducted once a year with an abbreviated 
version conducted during MTNEX for the training battalion.
                                 alaska
    Alaska provides ample opportunities for cold weather training 
however there are limiting factors that restrict the Marine Corps from 
conducting training in Alaska. The elevation at the Black Rapids 
Training Site starts at 440 feet above sea level and the terrain is not 
true complex, compartmentalized terrain that marines will operate in. 
Additionally the opportunity for the Marine Corps to train in Alaska is 
cost prohibitive due to military air for movement of units by Naval Air 
Logistics Operations being extremely limited, lack of an equipment 
allowance pool for a marine unit to fall in on, and the training area 
being 365 miles from the nearest port. Transportation of things and 
transportation of personnel to include civilian labor costs to run the 
ammunition supply point are additional cost factors.
                                summary
    As it has since being established in 1951, the Marine Corps 
Mountain Warfare Training Center provides the individual and collective 
training opportunities necessary to ensure the Marine Corps is prepared 
to operate in cold weather and mountain environments.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. The Department of Defense subcommittee 
will reconvene on Wednesday, March 14 at 10:30 a.m., and we are 
going to hear from the Department of the Air Force.
    This subcommittee stands in recess.
    [Whereupon, at 12:18 p.m., Wednesday, March 7, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, March 14.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                       WEDNESDAY, MARCH 14, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Feinstein, Johnson, Cochran, 
Hutchison, Alexander, Murkowski, and Coats.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

STATEMENT OF HON. MICHAEL B. DONLEY, SECRETARY

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. The subcommittee meets this morning to 
receive testimony on the fiscal year 2013 budget request for 
the United States Air Force. I am pleased to welcome the 
Secretary of the Air Force, Michael B. Donley, and the Chief of 
Staff of the Air Force, Norton Schwartz. Gentlemen, thank you 
for being here with us to today and for sharing your 
perspectives.
    The Air Force's fiscal year 2013 base budget request is 
$110 billion, about $5 billion less than last year's enacted 
base budget. The Air Force is also requesting $12 billion for 
overseas contingency operations, which is a decrease of $2 
billion from last year's enacted amount.
    To aid in the Governmentwide deficit reduction efforts, the 
Air Force laid in significant fiscal reductions and realigned 
resources to correspond with newly developed strategic 
guidance. Obviously taking risk in certain mission areas was 
unavoidable, so in the fiscal year 2013 budget the Air Force 
requests divestiture of aircraft, decreases in end-strength, 
and delays to some modernization efforts.
    In fiscal year 2013 alone, the Air Force plans to retire 
227 aircraft by reducing fighter squadrons, less capable 
mobility aircraft, and older tanker refueling aircraft. 
Additionally, the Air Force proposes to retire some of its 
intelligence, surveillance, and reconnaissance aircraft to 
include the Global Hawk Block 30 unmanned aircraft and an 
economically unrepairable Joint Surveillance Target Attack 
Radar System aircraft. I know there is great consternation 
across the Senate regarding loss of mission assets and, in 
particular, changes to the Guard and Reserve forces. I hope to 
hear from you on how you plan to mitigate these losses with new 
mission assets to ensure our Guard and Reserve forces maintain 
high-readiness levels.
    In line with these aircraft reductions are decreases in 
manpower. The Air Force will reduce to the smallest force since 
its establishment in 1947. By the end of fiscal year 2013, the 
Air Force will reduce military forces to 501,000. I look 
forward to hearing how you plan to achieve this end-strength 
reduction without causing undue hardship on those airmen who 
have served our country so dutifully.
    In the fiscal year 2013 request, the Air Force protects 
high-priority modernization programs such as the KC-46 
refueling tanker, the Joint Strike Fighter, the Long Range 
Bomber, and critical space assets. Unfortunately, there are 
many other modernization programs that you propose to terminate 
or restructure. I hope you will explain how you determined the 
appropriate risk levels for these programs.
    Gentlemen, there is no doubt that we are entering another 
period of decreased defense spending similar to what we 
experienced at the end of previous wars. I look to your 
expertise and vision to ensure our Air Force remains the most 
effective Air Force in the world. I believe this is the fourth 
time the two of you have testified together in front of this 
subcommittee. I sincerely thank you for your service to our 
Nation and for your continued unity and professionalism during 
this difficult fiscal environment. We are also deeply grateful 
for the dedication and sacrifices made daily by the men and 
women in our Air Force. I look forward to working with you to 
ensure that the fiscal year 2013 appropriations bill reflects 
the most optimal balance between resources and risk to best 
meet the needs of the United States Air Force.
    Your full statements will be included in the record. I now 
turn to the Vice Chairman, Senator Cochran, for his opening 
statement.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, I join you with pleasure in 
welcoming the Secretary and the Chairman to the hearing and all 
of you who are attending this very important review of the 
budget request for the Department of the Air Force for the next 
fiscal year.
    We thank you for your service to the country and your 
dedication to your role in helping protect the security 
interests of our great country.
    Thank you.
    Chairman Inouye. Thank you very much. And may I now call 
upon the Secretary, Michael Donley.
    Mr. Donley. Mr. Chairman, Vice Chairman Cochran, members of 
the subcommittee, it is a pleasure to be here today 
representing more than 690,000 Active Duty, Reserve, Guard, and 
civilian airmen. I'm also honored to be here today with my 
teammate, who is now the dean of the Joint Chiefs of Staff and 
certainly one of America's finest public servants, General 
Norty Schwartz.
    General Schwartz and I are joined today by Lieutenant 
General Charlie Stenner, the Chief of the Air Force Reserve, 
and Lieutenant General Bud Wyatt, who is the Director of the 
Air National Guard.
    For fiscal year 2013, the U.S. Air Force is requesting 
$110.1 billion in our baseline budget and $11.5 billion in the 
overseas contingency operations supplemental appropriation to 
support our work. This budget request represents the 
culmination of many hard decisions taken to align our fiscal 
year 2013 budget submission with the new strategic guidance and 
with the cuts required by the Budget Control Act over the next 
10 years.
    Finding the proper balance between force structure 
readiness and modernization is our guiding principle. In short, 
we determined that the Air Force's best course of action is to 
trade size for quality. We will become smaller in order to 
protect a high-quality and ready force, one that will continue 
to modernize and grow more capable in the future.
    The capabilities resident in the Air Force missions set are 
fundamental to the priorities outlined in the new strategic 
guidance. And in assessing how to adjust Air Force programs and 
budgets in the future, we've taken care to protect the 
distinctive capabilities we bring to the table--control of air, 
space, and cyberspace; global intelligence, surveillance, and 
reconnaissance (ISR); rapid global mobility; and global 
strike--all enabled by effective command and control.
    The Air Force and our joint interagency and coalition 
teammates and partners rely on these capabilities, and though 
we will be smaller, we intend to be a superb force at any size, 
maintaining the agility and flexibility that is inherent in our 
air power capabilities, and ready to engage a full range of 
contingencies and threats.
    This budget protects the Air Force's top priorities. We 
protect the size of the bomber force. We are ramping up our 
remotely piloted aircraft force to a total of 65 combat air 
patrols with the ability to surge to 85. We protect our special 
operations forces' capabilities, largely protect our space 
programs, and protect our cyber capabilities.
    But, as we get smaller, it is not possible to protect 
everything. Our proposed force structure changes include the 
reduction of 286 aircraft over the future year's defense plan 
(FYDP), including 123 fighters, 133 mobility aircraft, and 30 
ISR platforms.
    Many of these changes correspond to adjustments in the 
overall size of the Armed Forces, especially the Army and 
Marine Corps ground forces, which is the case for the proposed 
reduction in A-10s.
    Our smaller force structure has also led us to favor 
divesting smaller niche fleets, such as the C-27J, and 
emphasizing multirole capabilities that will provide 
operational flexibility across the spectrum of conflict 
demonstrated by our C-130s and by our choices in fighter force 
structure, which include a smaller A-10 fleet and plans for the 
F-16 service life extension.
    We also emphasize common configurations, which can be seen 
in adjustments to the C-5 fleet and C-17 fleet and in ongoing 
efforts to seek common configuration within the F-22 and F-15C 
fleets.
    Because force structure changes have a ripple effect on 
manpower needs, our budget proposal calls for a reduction of 
9,900 Air Force military personnel. By component, this amounts 
to reductions of 3,900 in Active Duty, 5,100 in Air National 
Guard, and 900 Air Force Reserve personnel.
    Fighter mobility and other force structure changes have 
been strategy driven, based on change requirements, and 
consistent with that strategy, especially where Air National 
Guard units are affected. We've proposed to re-mission units 
where feasible. We've carefully balanced our Active and Reserve 
component changes to make sure that we can meet the demanding 
operational tempos, including both surge and rotational 
requirements that are part of the current and projected 
strategic environment.
    As our force gets smaller, all of our components get 
smaller together and will become even more closely integrated. 
We remain fully committed to our total force capability and 
have proposed several initiatives to strengthen integration of 
effort, including increasing the number of active Reserve 
component associations from 100 to 115 units.
    Our intention is to protect readiness at any level, because 
if we're going to be smaller, we have to be prepared. To that 
end, we put funds in critical areas such as flying hours and 
weapon systems sustainment. We also support the Air National 
Guard readiness reset, which balances manpower across the 
States from lower-demand units to new high-demand ISR missions 
and increases readiness in 39 units. We're committed to 
ensuring that our military forces do not go hollow, and 
readiness bears close watching as we move forward.
    Modernization, Mr. Chairman, is our most significant 
concern, especially as our fleets age and new technologies 
drive new investment needs. In this year's budget proposal, we 
slow modernization as we protect programs that are critical to 
future capabilities. We also restructure or terminate some 
major programs to protect key priorities.
    Protected modernization priorities include the long-range 
strike bomber, the new KC-46 refueling tanker, and key space 
programs, such as the space-based infrared and extremely high-
frequency satellites, follow-on global positioning system 
capabilities, and advanced ISR.
    We remain fully committed to the F-35 Joint Strike Fighter, 
which is the future of the fighter force, but we reduce the 
rate of procurement for a few years, because in our judgment, 
Lockheed Martin is not ready to ramp up to full-rate 
production. Due to recent delays in the F-35 program, we also 
proceed with an F-16 service life extension program.
    Among the programs slated for termination are the Global 
Hawk RQ-4 Block 30 aircraft, because, among other reasons, we 
couldn't justify the cost to improve the Block 30 sensors to 
achieve capability that already exists in the U-2, and the 
Defense Weather Satellite System, a termination initiated by 
the Congress, but one we can accept for now, because that 
program is early to need.
    As noted earlier, we decided to divest the C-27J, but we 
have a good alternative to this aircraft, with the multirole 
capable C-130, which has demonstrated its ability to provide 
the direct support mission in Iraq and Afghanistan. We remain 
committed to providing this support to the Army.
    In other cases, we eliminated programs that were judged to 
be nonessential in the current budget environment, such as the 
light mobility aircraft and the light attack and armed 
reconnaissance aircraft. Through more disciplined use of 
resources, the Air Force continues to ring savings out of 
overhead, squeeze discretionary spending, and find more 
efficient ways of doing business.
    In fiscal year 2012, we committed to $33.3 billion in 
efficiencies across the FYDP. In this year's budget, we 
identified about $3.4 billion in efficiencies and another $3.2 
billion in programmatic adjustments to add on top of that 
original $33.3 billion.
    In keeping with our enduring obligation to take care of our 
people, we will keep faith with airmen and their families. 
Doing right by our servicemembers is key to our ability to 
recruit and to retain a high-quality force. Nevertheless, the 
impact of increasing personnel costs continues to be a serious 
concern. Therefore, we support the military compensation 
program reforms in the President's budget, which include a 
modest pay raise, proposals to control healthcare cost growth, 
and calls for a commission to recommend reforms in retired pay. 
We must continue to seek and develop reforms to ensure the 
long-term sustainability of the benefits our men and women in 
uniform have earned.
    Mr. Chairman, identifying $487 billion in Defense cuts to 
comply with the current requirements of the Budget Control Act 
has been difficult. Our Air Force will get smaller, but we are 
confident we can build and sustain a quality force that is 
ready for the contingencies ahead and will improve in 
capability over time.
    However, further cuts, through sequestration or other 
means, will put at risk our ability to execute the new 
strategy. To get this far, we made tough decisions to align, 
structure, and balance our forces in a way that can meet the 
new strategic guidance. If substantially more reductions are 
imposed on Department of Defense (DOD), we will have to revisit 
the new strategy. We cannot afford the risk of a hollow force.

                           PREPARED STATEMENT

    General Schwartz and I feel deeply that our leadership team 
has inherited the finest Air Force in the world. It is our 
obligation to keep it that way, so that our Joint and coalition 
partners know they can count on the United States Air Force to 
deliver the capabilities that we need to meet the security 
challenges ahead, and so that our future airmen remain 
confident, as we are today, that they are serving in the 
world's finest Air Force. Mr. Chairman, that is our obligation 
going forward, and we are going to meet that obligation.
    We certainly remain grateful for the continued support and 
service of this subcommittee, and we look forward to discussing 
our proposed budget.
    [The statement follows:]
         Prepared Statement of the Honorable Michael B. Donley
                              introduction
    Since the first clash of battle, warriors have relied on breaking 
through the lines to achieve victory. However, once the airplane was 
used over the battlefields of World War I, the battle itself was 
forever revolutionized. In the 65 years since the establishment of the 
United States Air Force as a separate service, its technological, 
strategic, and tactical innovations have been elemental in shaping the 
way the United States engages in war, deters aggression, and maintains 
peace. Because America's airmen characteristically view defense 
challenges differently, our Air Force has pioneered advancements that 
have been essential in ensuring our Nation's security while reducing 
the overall casualty counts inflicted by war. As the Department of 
Defense (DOD) faces fiscal pressures and an evolving strategic 
environment, America will continue to depend on the Air Force to 
contribute innovative strategies and systems to conduct our most 
important military missions.
    During the past decade, the United States has engaged in a 
prolonged war aimed at disrupting, dismantling, and defeating al Qaeda 
and its network. A major part of this effort involved long-term and 
large-scale presence on the ground. The withdrawal of combat forces 
from Iraq and the drawdown in Afghanistan signal the beginning of a new 
chapter for America in which we will rely more heavily on airpower to 
complement innovative, lower-cost, lighter footprint approaches around 
the world. As the Nation sustains its global presence with a renewed 
emphasis on the Asia-Pacific region, in addition to continued focus on 
the Middle East, we must maintain the best military in the world--a 
force capable of deterring conflict, a force capable of projecting 
power, and a force capable of winning wars. We will preserve the 
capability and expertise in irregular warfare that we developed over 
the past decade, and we will invest in fielding appropriate amounts of 
new and existing military capabilities in order to meet the national 
security challenges of today and the future.
    Despite new challenges and fiscal stress, America is and will 
unquestionably remain the global leader. The strategic choices embodied 
in the proposed fiscal year 2013 budget reflect 21st century defense 
priorities and will enable your Air Force to play a critical role in 
sustaining that leadership. As the DOD's recently released strategic 
guidance articulates, the Joint Force of the future must be smaller and 
leaner but agile, flexible, ready, and technologically advanced. The 
Air Force will leverage the innovative ability and technological acumen 
of its airmen as we conduct the military missions that protect our core 
national interests:
  --defeating al Qaeda and its affiliates and succeeding in current 
        conflicts;
  --deterring and defeating aggression, including those seeking to deny 
        our power projection;
  --countering weapons of mass destruction;
  --operating effectively in cyberspace and across all domains;
  --maintaining a safe and effective nuclear deterrent; and
  --protecting the homeland.
    Air Force contributions to Total Joint Force effectiveness make us 
indispensable in carrying out these missions and overcoming existing 
and emerging threats in this strategic environment.
                         strategic environment
    After 10 years of sustained large-scale overseas operations, major 
changes in the strategic environment required a reshaping of defense 
strategy and priorities. Over the last several months, the Air Force, 
together with our joint partners, has reassessed our future military 
strategy and posture to determine how the Air Force will best 
contribute to achieving U.S. security objectives, including freedom of 
action in the global commons.
    The major factors and trends of the strategic environment 
identified in the 2010 Quadrennial Defense Review (QDR) continue to 
affect the security environment and inform its trajectory. The rise of 
new powers, the growing influence of nonstate actors, the proliferation 
of weapons of mass destruction (WMD), the proliferation of conventional 
arms, and the transfer of other destructive enabling technologies are 
all trends that still require focused attention when considering how 
the Air Force will execute America's national security strategy.
    Since the release of the QDR, however, we have witnessed events 
that further inform our strategy. The Arab Awakening in the Middle East 
and North Africa has brought about regime changes in some nations in 
the region and challenged the stability and security of others. The 
global economic crisis has made some nations reluctant to support 
international cooperative military efforts as they have shifted their 
focus towards domestic issues. The economic crisis continues to 
contribute to the economic and political shift toward the Asia-Pacific 
region, although we will continue to place a premium on U.S. and allied 
military presence in--and support for--partner nations in and around 
the Middle East. The demise of Osama bin Laden and other senior al 
Qaeda leaders has led to deterioration in the organization's leadership 
and impaired its strategic coherence, although the threat of extremism 
remains. We are also transitioning out of the post-cold war world where 
our military could easily gain access to the battlefield and operate 
major systems unimpeded. Today, adversaries are developing ways to 
prevent our access to the battlefield and deny our freedom of action 
once there.
    As a result of these factors, DOD undertook a comprehensive 
strategic review and recently released new strategic guidance, 
``Sustaining U.S. Global Leadership: Priorities for 21st Century 
Defense''. The new guidance notes the importance of recalibrating Joint 
Force capabilities and investments to succeed in the following key 
military missions:
  --counterterrorism and irregular warfare;
  --deter and defeat aggression;
  --project power despite anti-access/area denial (A2/AD) challenges;
  --counter weapons of mass destruction;
  --operate effectively in cyberspace and space;
  --maintain a secure and effective nuclear deterrent;
  --defend the homeland and provide support to civil authorities;
  --provide a stabilizing presence;
  --conduct stability and counterinsurgency operations; and
  --conduct humanitarian, disaster relief, and other operations.
    In determining development of the force required to meet these 
missions, the Secretary of Defense has directed that we maintain a 
broad portfolio of capabilities that, in the aggregate, offer 
versatility across this range of missions. Other factors that are 
important to the implementation of the new strategy include 
understanding which investments must be made now and those that can be 
deferred, maintaining a ready and capable force, reducing ``the cost of 
doing business'', examining how the strategy will influence existing 
campaign and contingency plans so that more limited resources are 
better tuned to their requirements, determining the proper Active and 
Reserve component mix, retaining and building on key advances in 
networked warfare on which the Joint Force has become truly 
interdependent, and maintaining the industrial base and investment in 
promising science and technology.
    Airpower--the ability to project military power or influence 
through the control and exploitation of air, space, and cyberspace to 
achieve strategic, operational, or tactical objectives--has been a 
necessary component of successful U.S. military operations for many 
decades, and a reasonable assessment of the strategic environment 
suggests an even greater role for those capabilities. Since the end of 
the cold war, the Air Force's contributions to national security have 
evolved with the times. We have become not only more effective, but 
also increasingly intertwined with the successful operation of the 
Joint Force. We have now reached a point where no other service 
operates independently of the Air Force; we are a necessary catalyst 
for effective U.S. and Coalition military operations. As we realign our 
resources to support the new strategic guidance, the capabilities that 
underpin these contributions on which the Joint Force depends will be 
protected.
           realignment to the new defense strategic guidance
    The Air Force has made the hard choices to closely align with the 
new strategic guidance by trading size for quality. We will be a 
smaller, but superb, force that maintains the agility, flexibility, and 
readiness to engage a full range of contingencies and threats.
New Concepts
    One way in which the Air Force is posturing itself for the future 
in light of the strategic guidance is through our pursuit of the Air-
Sea Battle (ASB) concept in partnership with our sister services. The 
rise of near peer capabilities--such as fifth-generation fighters, air 
defense systems, and ballistic missiles--evince emerging A2/AD threats. 
The ASB concept will guide the services as they work together to 
maintain a continued U.S. advantage against the global proliferation of 
advanced military technologies and A2/AD capabilities. ASB will 
leverage military and technological capabilities and is guiding us to 
develop a more permanent and better-institutionalized relationship 
between the Military Departments that will ultimately shape our service 
organizations, inform our operational concepts, and guide our materiel 
acquisitions.
Enduring Air Force Contributions
    The Air Force will also continue to bring four enduring and 
distinctive contributions to the Nation's military portfolio to support 
the new strategic guidance:
  --air and space control;
  --global intelligence, surveillance, and reconnaissance (ISR);
  --global mobility; and
  --global strike.
    These four core contributions--plus our ability to command and 
control air, space, and cyberspace systems--will sustain our Nation's 
military advantage as the Joint Force becomes smaller and as we face 
emerging A2/AD threats.
            Air and Space Control
    From the World War II Pacific island-hopping campaign to the 
success of liberation forces in Libya, control of the air has been and 
remains an essential precondition for successful land and maritime 
operations. Today, control of the air and space, along with assured 
access to cyberspace, allows U.S. and Coalition forces to take 
advantage of unique capabilities in mobility, strike, and ISR and 
permits surface forces freedom of action without the threat of 
adversarial attack from above. Whether friendly naval forces are 
helping to secure vital lines of communication and transit, marines are 
conducting amphibious operations, special operations forces are 
executing counterterrorism missions, or ground forces are engaged in 
combined-arms maneuvers, these operations all fundamentally depend on 
the Air Force to provide mission-essential control of air and space. In 
the coming decade, our ability to assert control in all domains will be 
increasingly at risk as sophisticated military technology proliferates. 
The new strategic guidance demands that we forge ahead and maintain the 
air and space power advantages that will enable our entire Joint Force 
to deter and defeat aggression, operate effectively in space and 
cyberspace, defend the homeland, and conduct stability operations.
            Global ISR
    Combat experience over the last decade has shown how important ISR 
capabilities are to the counterterrorism and irregular warfare missions 
and has also made it increasingly clear that these capabilities will be 
required in contested environments in future conflicts and as we take 
an active approach to countering extremist threats. Through a mix of 
aircraft and satellite sensors and corresponding architecture for 
exploitation and dissemination, Air Force ISR affords U.S. leaders an 
unparalleled decisionmaking advantage on which commanders rely--from 
supporting national strategic decisionmaking to successful outcomes in 
life-and-death tactical situations. Moreover, airmen provide expert 
processing and exploitation of staggering volumes of raw data and 
timely dissemination of usable intelligence. In the past 10 years, Air 
Force ISR contributions have been ascendant, particularly from our 
space-enabled remotely piloted systems. But power projection in the 
future strategic environment will require extending today's ISR 
capability into contested battle spaces. This demands significant and 
sustained attention to modernization of our ISR capabilities.
            Global Mobility
    The capability to get friendly forces to the fight and to extend 
the range of airborne strike platforms is a unique Air Force 
contribution that not only enhances joint effectiveness, but also 
embodies the Nation's global reach and power. The military's ability to 
deter and defeat aggression, project power, provide a stabilizing 
presence, conduct stability operations, and conduct humanitarian and 
other relief operations depends on the airlift and in-flight aerial 
refueling that the Air Force provides. We ensure that joint and 
coalition assets get to the fight and remain in the fight, posing a 
potent threat to adversaries and a persuasive presence to allies. Our 
airlift fleet transports massive amounts of humanitarian-relief 
supplies and wartime materiel to distant locations around the world in 
impressively short-time periods. Furthermore, in-flight aerial 
refueling is the linchpin to power projection at intercontinental 
distances. Global mobility also provides for persistent pressure and 
over-watch once we arrive, as demonstrated last year in the skies over 
Libya.
            Global Strike
    Finally, the Air Force's ability to conduct global strike--to hold 
any target on the globe at risk--will be of growing importance in the 
coming decade. Our conventional precision strike forces compose a 
significant portion of the Nation's deterrent capability, providing 
national leaders with a range of crisis response and escalation control 
options. Our nuclear deterrent forces provide two-thirds of the 
Nation's nuclear triad, competently forming the foundation of global 
stability and underwriting our national security and that of our 
allies. However, increasingly sophisticated air defenses and long-range 
missile threats require a focused modernization effort exemplified by 
the long-range strike family of systems. A key element of this effort 
is the long-range strike bomber (LRS-B) which will strengthen both 
conventional and nuclear deterrence well into the future.
    Collectively, these capabilities, and the Air Force's ability to 
command and control the air, space, and cyber systems, provide the 
Nation with the global vigilance, global reach, and global power 
necessary to implement the new strategic guidance.
                   adapting to constrained resources
    Although the contributions that the Air Force provides to the Joint 
Force have increased in relevance over time, there has not been a 
corresponding proportional increase in resources. The Air Force has 
entered this era of fiscal austerity with significantly fewer uniformed 
personnel, with older equipment, and with a smaller budget share than 
any military Department in one-half a century. The Air Force has been 
continuously engaged in combat for more than two decades and has taken 
on a range of new missions. Yet over that same time period, our 
aircraft inventory and end strength declined. Since 2001, we have 
reduced our inventory by more than 500 aircraft and have added new 
missions, while end strength has come down by thousands of airmen, 
leaving us next year with the smallest force since our inception in 
1947. Meanwhile, the average age of Air Force aircraft has risen 
dramatically:
  --fighters stand at 22 years;
  --bombers, 35 years; and
  --tankers, 47 years.
    Reduced manpower, full-scale operations, and reduced training 
opportunities have pushed our readiness to the edge. The budget 
increases that have occurred in the last decade were primarily consumed 
by operational expenses, not procurement. There is a compelling need to 
invest in next-generation, high-impact systems so that the Air Force 
can continue to provide the capabilities on which our Nation relies. 
The failure to make the proper investments now will imperil the 
effectiveness of the future force and our ability to execute the new 
strategic guidance for decades to come.
    We are mindful, however, of the current fiscal situation and 
recognize that we must contribute to Governmentwide deficit reduction 
as a national security imperative. Our ability to make proper 
investments to modernize and sustain the capabilities of the Air Force 
is directly tied to the economic health of the United States. In 
addition, as respectful stewards of the American taxpayer's dollars, 
the Air Force is committed to achieving audit readiness and meeting 
Secretary Panetta's accelerated goal to achieve auditability of the 
Statement of Budgetary Resources by 2014. Over the last year, the Air 
Force has made real progress, receiving clean audit opinions on two 
important components of our budget and accounting processes from 
independent public accounting firms. In the coming year, the Air Force 
expects to have independent auditors examine the audit readiness of our 
military equipment inventories, our base-level funds distribution 
process, and our civilian pay process.
    The Air Force fiscal year 2013 budget request reflects aggressive 
prioritization of limited resources, heavily informed by the new 
strategic guidance, with regard to both capability and capacity of our 
forces--that is, both what capabilities we should buy and how much of 
them. The budget brings together strategic guidance with fiscal 
constraint. Its guiding principle was balance. To retain critical core 
Air Force capabilities and the ability to rapidly respond to mission 
demands, the Air Force balanced risk across all mission areas.
    Although we will be smaller and leaner, we will not sacrifice 
readiness. Selected reductions in force structure and modernization 
programs were based on careful assessments reflecting the requirements 
to address potential future conflict scenarios and to emphasize the 
Middle East and Asia-Pacific regions. Force and program development 
choices were also influenced by the need to protect our ability to 
regenerate capabilities to meet future, unforeseen demands. Our budget 
request seeks to leverage strong relationships with allies and 
partners, including the development of new partners. Finally, the 
fiscal year 2013 budget request honors and protects the high-quality 
and battle-tested professionals of the All-Volunteer Force.
Force Structure
    The fiscal reality and strategic direction mean that the Air Force 
will continue the long-term trend of accepting a smaller force to 
ensure high quality. In planning for a smaller force, our decisions 
favored retention of multirole platforms over those with more narrowly 
focused capabilities--for example, F-16s over A-10s and F-15Cs, and C-
130s over C-27s. Where feasible, we sought to divest smaller fleets 
with niche capabilities and stressed common configurations for key 
platforms in order to maximize operational flexibility and minimize 
sustainment costs.
            Aircraft
    In meeting the force sizing requirements of the new strategic 
guidance and to remain within the constraints of the Budget Control 
Act, the Air Force made the difficult choice of divesting 227 aircraft 
from our combat and combat support aircraft fleets in the fiscal year 
2013 budget request. Total divestitures rise to more than 280 aircraft 
over the fiscal year 2013-2017 future years defense plan (FYDP) period. 
These divestitures will result in $8.7 billion in savings across the 
Active and Reserve components.
    In order to balance current and future requirements in the Combat 
Air Forces (CAF), we are reducing the total number of combat-coded 
fighter squadrons from 60 to 54 (31 Active squadrons and 23 Reserve 
component squadrons). As part of a broader strategy to reshape the Air 
Force into a smaller, yet capable force, we divested 21 F-16 Block 30 
aircraft in the Reserve component and 102 A-10s (20 Active and 82 
Reserve component) from the total aircraft inventory. In making these 
difficult choices, we considered several factors:
  --the relative operational value of weapon systems to counter capable 
        adversaries in denied environments;
  --fleet management principles, such as retiring older aircraft first 
        and prioritizing multi-role aircraft; and
  --operational flexibility, forward-basing, and host-nation 
        commitments.
    The allocation of reductions between the Active and Reserve 
components took into consideration the Air Force's surge requirements 
as directed by the new strategic guidance, the expected future 
deployment tempo, the need to increase means to accumulate fighter 
pilot experience, and the imperative to ensure that the Reserve 
component remains relevant and engaged in both enduring and evolving 
missions.
    In the Mobility Air Forces (MAF), we sized the fleet to a total of 
275 strategic airlifters--52 C-5Ms and 223 C-17s.
    We will seek legislative approval to retire 27 C-5As across fiscal 
year 2013-2016, going below the fiscal year 2012 National Defense 
Authorization Act (NDAA) strategic airlift floor of 301 aircraft. This 
will avert higher sustainment costs for aircraft with substantially 
less reliability than the C-17 or C-5M. For our intra-theater airlift, 
the fleet was sized to meet the airlift requirements of the new 
strategy, including our direct support requirements of ground forces. 
We will retire 65 C-130Hs across fiscal year 2013-2017 and are 
divesting the C-27J fleet. After these retirements, we will maintain a 
fleet of 318 C-130s (134 C-130Js and 184 C-130Hs). Our air refueling 
fleet is being reduced to 453 tankers after retiring 20 KC-135s. The 
development and procurement of the KC-46A is on-track for initial 
delivery in fiscal year 2016 with the strategic basing process 
underway.
    In our ISR aircraft fleet, we plan to divest all 18 RQ-4 Global 
Hawk Block 30 aircraft and retain the U-2S Dragon Lady program. Due to 
the reduction in high altitude ISR combat air patrol (CAP) 
requirements, the need for RQ-4 upgrades to meet current U-2 sensor 
operational performance levels, and the high-operational costs of the 
RQ-4, continued investment into the U-2 is both the fiscally and 
operationally responsible choice. Transferring the MC-12W Liberty from 
the Active component to the Air National Guard (ANG) reflects the 
assessment that the ANG is the appropriate place for long-term, 
scalable support of medium-altitude ISR. The Active component will 
retain association with the ANG units. The MC-12W will also perform the 
mission of the divested RC-26 fleet. Finally, we will retire one E-8C 
Joint Surveillance Target Attack Radar System (JSTARS) aircraft that is 
damaged beyond economical repair.
    Air Force leaders recognize that proposals to retire aircraft are 
often contentious and that the Congress has at times written 
legislation blocking or delaying proposed retirements. We are committed 
to faithfully executing the law; however, we urge the congressional 
defense committees and the Congress as a whole to be especially 
cautious about proposals to block or delay aircraft retirements that do 
not provide the additional human and financial resources needed to 
operate and maintain those airframes. Retaining large numbers of under-
resourced aircraft in the fleet in today's fiscally constrained 
environment will significantly increase the risk of a hollow force. 
After the intense efforts to find efficiencies over the past few years, 
the Air Force has only a limited ability to reallocate resources and 
personnel to uncovered operations without creating major disruption in 
other critical activities.
            End Strength
    In correlation to the reductions in our aircraft force structure, 
we are also adjusting our end strength numbers. Since 2004, our Active, 
Guard, and Reserve end strength has decreased by more than 48,000 
personnel. By the end of fiscal year 2013, end strength will be reduced 
a further 9,900 from 510,900 to 501,000. This will result in a 
reduction in Active Duty military end strength from 332,800 to 328,900, 
Reserve military end strength will decrease by 900 to 70,500, and ANG 
military end strength will decrease by 5,100 to 101,600. Although the 
reductions in aircraft and personnel carry risk, we are committed to 
managing that risk and ensuring successful execution of the new 
strategic guidance.
            Reserve Component
    The Air Force has enjoyed great success in leveraging our Total 
Force Enterprise to present our enduring core capabilities to the Joint 
warfighter. The ANG and Air Force Reserve are integrated into all major 
Air Force mission areas, train to the same high standards as the Active 
component, and are invaluable partners in helping us meet our many and 
varied commitments. This will not change--we will rely on our Air 
Reserve Component (ARC) as both a strategic and operational reserve. A 
strategic reserve can be employed to mobilize significant numbers of 
airmen in the event of a significant national crisis while an 
operational reserve will still be used to augment day-to-day 
operations.
    Maintaining the appropriate mix of forces between the Active and 
Reserve components is critical to sustaining Air Force capabilities for 
forward presence, rapid response, and high-rate rotational demands 
within a smaller overall force. Over the years, we have adjusted the 
mix between Active and Reserve components to ensure we maintained a 
ready and sustainable force and could meet our surge and rotational 
requirements. The Air Force has successfully met the demand of 
increased operations tempo through a combination of volunteerism, 
selective mobilization, and the establishment of Classic, Active, and 
ARC associations to better manage high-activity rates. However, two 
decades of military end strength and force structure reductions in our 
Active component have shifted the ratio of Active to Reserve component 
forces. In 1990, the Reserve component represented 25 percent of total 
force end strength; today that percentage is at 35 percent. Reserve 
component aircraft ownership also increased from approximately 23 
percent to 28 percent over the same period.
    The total Air Force leadership carefully considered the ratio 
between the Active and Reserve components for the proposed force 
structure reductions in the 2013 budget request. The expected 
deployment tempo, and the need to increase pilot seasoning drove the 
allocation of reductions between components. The proper ratio between 
components must be achieved to maintain acceptable operations tempo 
levels within each component and to preserve the ability of a smaller 
Air Force to meet continued overseas presence demands, and the rapid 
deployment and rotational force requirements of the strategic guidance.
    While the Air Force Reserve and ANG are significantly affected by 
the proposed 2013 Air Force budget request, they remain essential 
elements of our total force. Due to the magnitude of the budget 
decline, our programmed reductions are wide-ranging, directly impacting 
more than 60 installations. Thirty-three States will be directly 
impacted, but all 54 States and territories will be affected in some 
way by the proposed aircraft and manpower reductions. Although some 
squadrons will actually grow larger, it is unlikely that there will be 
a 100-percent backfill of personnel or alternative mission for every 
location. Without the total force re-missioning actions we are 
proposing, these reductions would have significantly affected 24 units 
and left eight installations without an Air Force presence.
    In close coordination with our ANG and Air Force Reserve leaders, 
we have developed a detailed plan that will mitigate the impact by 
realigning missions to restore 14 of the 24 units. Nine of the 
remaining ten units have existing missions, or the mission will 
transfer from the ANG to the Air Force Reserve. Our plan also maintains 
an Air Force presence on seven of the eight affected installations. 
This plan will allow us to preserve an appropriate Active to Reserve 
component force mix ratio and minimizes the possibility of uncovered 
missions. The aircraft force structure changes also presented an 
opportunity for the ANG to realign manpower to ensure proper mission 
resourcing while simultaneously bolstering ANG readiness. The fiscal 
year 2013 adjustments in strategy, force structure, and resources 
allowed us to realign manpower within the ANG to properly source its 
growing MC-12W and MQ-1/9 missions.
    After the proposed force reductions and mitigations, Reserve 
component end strength will make up 33 percent of total force military 
personnel, a reduction of 2 percent from the fiscal year 2012 numbers. 
Within the CAF, the Reserve component will have 38 percent of total 
aircraft which is 4 percent lower than fiscal year 2012. For the MAF, 
the Reserve component shares shifts from 51 percent to 46 percent. In 
order to maintain capability, the Air Force intends to grow the number 
of total force Integration associations from 100 to 115. This will 
enable the seasoning of our Active Duty personnel while improving the 
combat capacity of our Reserve component.
Readiness
    Readiness is comprised of complementary components, such as flying 
hours, weapon system sustainment, and facilities and installations. A 
good readiness posture depends on health in all of these key areas. In 
spite of aircraft divestments and reduction in personnel, we are 
committed to executing the Defense strategy and will ensure America's 
Air Force remains ready to perform its mission every day. High 
operations tempo has had some detrimental effects on our overall 
readiness, particularly in the context of aging weapons systems and 
stress on our personnel.
    Since September 11, 2001, the Air Force has flown more than 455,000 
sorties in support of Operations Iraqi Freedom and New Dawn and more 
than 350,000 sorties in support of Operation Enduring Freedom. In 2011, 
our airmen averaged approximately 400 sorties every day, with December 
17, 2011, marking the first day in 20 years that the Air Force did not 
fly an air tasking sortie in Iraq. Maintaining our ability to be ready 
across the full spectrum of operations has been challenging in recent 
years, especially for the CAF and certain limited-supply/high-demand 
units. We will continue to revise our readiness tracking systems to 
provide increasingly accurate assessments and mitigate readiness 
shortfalls. Preserving readiness and avoiding a hollow force was a non-
negotiable priority for the Air Force and DOD in developing the fiscal 
year 2013 budget.
            Weapons System Sustainment
    During previous budget cycles, the overall Air Force weapons system 
sustainment (WSS) requirement increased each year due to sustainment 
strategy, the complexity of new aircraft, operations tempo, force 
structure changes, and growth in depot work packages for legacy 
aircraft. In fiscal year 2013, although the Air Force is retiring some 
combat, mobility, and ISR force structure, our overall weapon system 
sustainment requirements continue to increase. These cost increases, 
along with a reduction in the Service's overseas contingency operations 
(OCO) request, resulted in a slight decrease in the percentage of 
weapons systems sustainment requirements funded from fiscal year 2012 
to fiscal year 2013.
    Including the OCO request, WSS is funded at 79 percent of 
requirement in the fiscal year 2013 budget.
    We maintained our readiness capability in the portfolio areas most 
directly affecting readiness such as aircraft, engines, and missiles, 
while taking some risk in areas that are less readiness related in the 
short term such as technical orders, sustaining engineering, and 
software. Additionally, the Air Force continues to conduct requirements 
reviews and streamline organizations and processes to reduce 
maintenance and material costs, develop depot efficiencies, and manage 
weapon system requirements growth. The goal of these efforts is to 
sustain fiscal year 2012 weapon system sustainment performance levels 
for fiscal year 2013.
            Facility Sustainment, Restoration, and Modernization
    The sustainment portion of facilities sustainment, restoration, and 
modernization (FSRM) was funded more than 80 percent of the Office of 
the Secretary of Defense (OSD) facility sustainment model. Due to 
current fiscal realities the revised strategic guidance, the Air Force 
is also taking a deliberate pause in its military construction (MILCON) 
program, resulting in a nearly $900 million reduction from fiscal year 
2012 enacted levels. To manage the risk associated with these actions 
we continue civil engineering transformation to employ an enterprise-
wide, centralized, asset management approach to installation resourcing 
which maximizes each facility dollar.
            Flying Hour Program
    The emphasis on readiness in the new strategic guidance reinforced 
Air Force focus on the importance of maintaining our flying hour 
program (FHP). The fiscal year 2013 budget removes flying hours where 
associated with the retirement of some of our oldest aircraft and 
divestiture of single-role mission weapon systems. In the remainder of 
the FHP, however, levels are consistent with fiscal year 2012 levels to 
prevent further erosion of readiness. The fiscal year 2013 baseline FHP 
remains optimized as we continue to fly a significant portion of our 
hours in the Central Command (CENTCOM) area of responsibility (AOR), 
but still poses a measured risk to our full-spectrum training and 
readiness levels, especially with our tactical fighters. As operations 
in the CENTCOM AOR decrease, these OCO hours will migrate back to our 
baseline program to ensure peacetime FHP requirements are met. We are 
also committed to a long-term effort to increase our live, virtual, and 
constructive operational training (LVC-OT) capability and capacity by 
funding improvements in our LVC-OT devices (e.g., simulators and 
virtual trainers) and networks.
    Although the Air Force has no single rollup metric to measure FHP 
requirements, we are working toward a set of metrics that clearly 
articulate the training requirements needed to support desired 
readiness levels. Our challenge is that the diversity of our missions 
does not lend itself to yardsticks like ``hours per crewmember per 
month''. The Air Force operates a wide variety of aircraft--including 
multirole aircraft--that require differing training requirements in 
amount and type for each aircrew member. In addition, we have critical 
space and cyber units that involve no aircraft at all. As we develop 
FHP metrics, we will dovetail our efforts with the work being done at 
the Cost Assessment and Program Evaluation (CAPE) office at the OSD to 
study the relationship between Defense funding and military readiness 
and mature necessary metrics and assessment tools.
    Even though the Air Force will be smaller in capacity, we will 
remain highly capable and lethal, as well as ready, agile, and 
deployable.
Modernization
    Looking ahead, the Air Force faces two primary strategic 
challenges. In the face of declining budgets, we must still provide the 
essential force structure and capabilities on which the Joint Force 
depends. Historical and projected uses of U.S. military forces and our 
inability to accurately predict the future, make the complete 
divestment of the capability to conduct any 1 of the 12 Air Force Core 
Functions imprudent. Yet, the new strategic guidance also requires 
continuing modernization of our aging force to address the 
proliferation of modern threats. Finding the right balance requires a 
long-range plan that begins with a strategic vision. Implementing 
across the board cuts will not produce the envisioned Joint Force of 
2020.
    Accordingly, we carefully scrutinized all our weapons systems and 
capabilities to determine which require investment today and those that 
can be deferred. We then made the tough choices to maximize our 
military effectiveness in a constrained resource environment. Combat 
and combat support aircraft force structure reductions, coupled with 
reduced development and procurement of preferred munitions and other 
key modernization programs, were essential to achieving the Air Force 
fiscal year 2013 budget targets.
    In fiscal year 2013, we have programmed $35.8 billion for 
modernization, approximately 33 percent of the Air Force total 
obligation authority. We are slowing the pace and scope of 
modernization while protecting programs critical to future warfighter 
needs. Focused investment in high-priority programs such as the F-35 
Joint Strike Fighter, LRS-B, KC-46A refueling tanker, service-life 
extension of the F-16, space-based infrared and advanced extremely 
high-frequency satellites, space situational awareness capabilities, 
and our space launch capability is critical to the Department's overall 
strategy. Access and continued freedom of maneuver within cyberspace is 
an essential requirement for our networked force, therefore the 
development of offensive and defensive cyber capabilities remains a top 
Air Force priority. Additionally, in coordination with the Navy, the 
Air Force will fund modern radars, precision munitions, and other 
priorities to support the ASB concept and ensure worldwide power 
projection despite increasing A2/AD challenges.
    To continue funding these high-priority investments, we made the 
hard choices to terminate or restructure programs with unaffordable 
cost growth or technical challenges such as the RQ-4 Block 30, B-2 
extremely high-frequency radio improvements, and the Family of Advanced 
Beyond Line of Sight Terminals (FAB-7). We eliminated expensive 
programs, such as the C-130 Avionics Modernization Program, the C-27J 
program, and Defense Weather Satellite System, which have more 
affordable alternatives that still accomplish the mission. Likewise, we 
discontinued or deferred programs that are simply beyond our reach in 
the current fiscal environment, such as the common vertical lift 
support platform, light mobility aircraft, and light attack and armed 
reconnaissance aircraft. The fiscal year 2013 budget also accepts 
significant near-term risk in MILCON for current mission facilities, 
limiting ourselves to projects required to support new aircraft bed 
downs and emerging missions.
    Underpinning the Air Force's ability to leverage and field these 
crucial technologies is America's aerospace research and development 
infrastructure--a national asset that must be protected to ensure 
future U.S. advantages in technology and civil aerospace. Therefore, 
the Air Force's budget protects science and technology funding as a 
share of our total resources.
More Disciplined Use of Defense Dollars
    In June 2010, the Secretary of Defense challenged the Services to 
increase funding for mission activities by identifying efficiencies in 
overhead, support, and other less mission-essential areas in an effort 
to identify $100 billion in DOD savings for reinvestment. Our fiscal 
year 2013 budget continues to depend on successfully managing and 
delivering the $33.3 billion in Air Force efficiencies from fiscal year 
2012 to fiscal year 2016 associated with the fiscal year 2012 
President's budget submission. We are actively managing and reporting 
on these, as well as the Air Force portion of DOD-wide efficiencies. In 
light of the current budget constraints, the Air Force continues to 
seek out opportunities for additional efficiencies.
    The fiscal year 2013 budget request includes additional savings of 
$6.6 billion over the next 5 years from our more disciplined use of DOD 
dollars. This represents $3.4 billion in new efficiency efforts as well 
as $3.2 billion in programmatic adjustments. These reductions continue 
to focus on overhead cost reductions and spending constraints 
consistent with Executive Order 13589, ``Promoting Efficient 
Spending'', and an Office of Management and Budget (OMB) memorandum, 
dated November 7, 2011, to reduce contract spending for management 
support services. Areas in which we are seeking major efficiencies and 
spending reductions in this budget submission include information 
technology, service contracts, travel, and inventory.
    We are identifying and eliminating duplicate information technology 
applications across our business and mission system areas. Policies and 
better spending controls will be placed within modernization and legacy 
systems sustainment areas. We have committed to save $100 million in 
fiscal year 2013 and $1.1 billion across the future years defense plan 
(FYDP) in this area. We continue to put downward pressure on service 
support contract spending and are committing to an additional $200 
million reduction in fiscal year 2013 and $1 billion across the FYDP. 
These efforts are consistent with Secretary of Defense-directed 
efficiencies across the DOD and OMB guidance to reduce contract 
spending by 15 percent by the end of fiscal year 2012 from a fiscal 
year 2010 baseline. Executive Order 13589 also directs reductions in 
travel across Departments. The Air Force budget for travel has steadily 
declined from actual spending of $984 million in fiscal year 2010 to a 
budgeted-level of $810 million in fiscal year 2012. Between Air Force 
budget reductions and DOD-directed travel reductions, the fiscal year 
2013 President's budget reflects an additional $116 million travel 
savings in fiscal year 2013 and $583 million across the FYDP. Finally, 
a bottom-up review of base-level inventory is planned, with the intent 
of identifying consumable and repairable items that are excess, 
including Government Purchase Card-procured excess inventory. We 
estimate $45 million savings in fiscal year 2013 and $225 million 
across the FYDP.
Taking Care of Our People
    Regardless of any strategy realignment or future mission 
commitment, the hallmark of our success as an Air Force has always 
been, and will remain, our people. Our mission effectiveness depends 
first and foremost on the readiness and dedication of our airmen. 
Nearly two decades of sustained combat, humanitarian, and stability 
operations have imposed extraordinary demands on our force. As we look 
to the future of reduced funding and fewer manpower positions, we are 
working hard to continue meeting the needs of a 21st century force. The 
Nation owes a debt of gratitude for the sacrifices made by our airmen 
and their families.
    Despite the difficult budgetary environment, we are committed to 
our Air Force community. Therefore, quality-of-service programs must 
continue as one of our highest priorities. We are sustaining cost-
effective services and programs to maintain balanced, healthy, and 
resilient airmen and families so that they are equipped to meet the 
demands of high operations tempo and persistent conflict. As our force 
changes, we must adapt our programs and services to ensure we meet the 
needs of today's airmen and their families. Developing our airmen will 
be a key focus as we continue efforts to reduce the ``cost of doing 
business'' and develop lighter-footprint approaches to achieving 
security objectives. We will do this by developing expertise in foreign 
language, regional, and cultural skills while also ensuring our 
educational programs focus on current and anticipated mission 
requirements.
    Even as Air Force end strength continues to be reduced, 
requirements for some career fields--like special operations, ISR, and 
cyber--continue to grow. We will continue to size and shape the force 
through a series of voluntary and involuntary programs designed to 
retain the highest-quality airmen with the right skills and 
capabilities. As we take steps to reduce our end strength, we will 
offer support programs to help separating airmen translate their 
military skills to the civilian workforce and facilitate the transition 
in a way that capitalizes on the tremendous experience in technical 
fields and leadership that they accrue while serving.
    Although retention is at a record high, we must sustain accessions 
for the long term and utilize a series of recruiting and retention 
bonuses to ensure the right balance of skills exist across the spectrum 
of the force. Enlistment bonuses are the most effective, responsive, 
and measurable tool for meeting requirements growth in emerging 
missions, while retention bonuses encourage airmen to remain in, or 
retrain into, career fields with high-operational demands.
    We recognize the unique demands of military service and want to 
ensure that our airmen are compensated in a way that honors that 
service. Accordingly, the President has announced a 1.7-percent 
increase in basic military pay for fiscal year 2013. The costs of 
military pay, allowances, and healthcare have risen significantly in 
the last decade. These costs have nearly doubled DOD-wide since fiscal 
year 2001 while the number of full-time military personnel, including 
activated Reserves, has increased only 8 percent. As budgets decrease, 
we must find ways to achieve savings in this area to prevent overly 
large cuts in forces, readiness, and modernization. As part of a DOD-
wide effort, we are looking at a gamut of proposals, including 
healthcare initiatives and retirement system changes, to meet deficit 
reduction targets and slow cost growth. Proposed healthcare changes 
will focus on working-age retirees and the retirement commission will 
address potential future changes, with the current force grandfathered 
into the current system. The Defense budget includes a number of 
proposals to control healthcare cost growth in fiscal year 2013 and for 
the longer term. The recommendations included in the budget reflect the 
proper balance and the right priorities.
    We must go forward with balanced set of reductions in the military 
budget that not only implements the strategic guidance but also does 
our part to alleviate the Nation's economic difficulties. Any solutions 
to this problem will be deliberate, will recognize that the All-
Volunteer Force is the core of our military, and will not break faith 
with the airmen and families who serve our Nation.
    With this as a backdrop, the Air Force has approached its 
investment strategy in a way that seeks to apply our resources to the 
people, programs, and systems that will best contribute to the new DOD 
strategic guidance.
                        air force core functions
    The Air Force core functions provide a framework for balancing 
investments across Air Force capabilities and our enduring 
contributions as we align our resources to the new defense strategic 
guidance. However, none of these core functions should be viewed in 
isolation. There is inherent interdependence among these capabilities 
within the Air Force, the Joint Force, and in some cases, throughout 
the United States Government. The Air Force's budget request of $110.1 
billion reflects the difficult choices that had to be made as a result 
of Air Force fiscal limitations, while still providing an appropriate 
balance of investment across our core functions in a way that best 
supports key DOD military missions. Additional detailed information 
about each core function, including specific investment figures, can be 
found in the Budget Overview Book and in the detailed budget 
justification documents provided to the Congress.
Air Superiority
    U.S. forces must be able to deter and defeat adversaries in 
multiple conflicts and across all domains. In particular, even when 
U.S. forces are committed to a large-scale operation in one region, 
they must also be capable of denying the objectives of--or imposing 
unacceptable costs on--an opportunistic aggressor in a second region. 
Securing the high ground is a critical prerequisite for any military 
operation to ensure freedom of action for the Joint Force and the 
Nation. In making operational plans, American ground forces assume they 
will be able to operate with minimal threat of attack from enemy 
aircraft or missile systems. For nearly six decades, Air Force 
investments, expertise, and sacrifice in achieving air superiority have 
ensured that condition. The last time any American ground forces were 
killed by an enemy air strike was April 15, 1953.
    But while the United States has enjoyed this control of the air for 
the last 60 years, there is no guarantee of air superiority in the 
future. Airspace control remains vitally important in all operating 
environments to ensure the advantages of rapid global mobility, ISR, 
and precision strike are broadly available to the combatant commander. 
Fast-growing, near-peer capabilities are beginning to erode the legacy 
fighter fleet's ability to control the air. Likewise, emerging 
adversaries are developing significant air threats by both leveraging 
inexpensive technology to modify existing airframes with improved 
radars, sensors, jammers and weapons, and pursuing fifth-generation 
aircraft. Simultaneously, current operations are pressing our legacy 
systems into new roles. As a result, the legacy fighter fleet is 
accumulating flying hours both faster and differently than anticipated 
when they were purchased decades ago.
    Given these realities, the Air Force's fiscal year 2013 budget 
request includes $8.3 billion for initiatives to address current and 
future air superiority needs. We continue incremental modernization of 
the F-22 fleet, including Increment 3.2A, a software-only upgrade 
adding new electronic protection (EP) and combat identification 
techniques. The fiscal year 2013 budget request includes approximately 
$140.1 million for Increment 3.2B, which includes the integration of 
AIM-120D and AIM-9X capabilities, data link improvements, and faster, 
more accurate target mapping. We are continuing the F-15 active 
electronically scanned array (AESA) radar modernization program, 
funding the F-15 Advanced Display Core Processor (ADCP), and funding 
the development and procurement of an Eagle Passive/Active Warning and 
Survivability System (EPAWSS). We are also investing in fourth-
generation radar upgrades to ensure their continued viability, 
sustaining the development and procurement of preferred air-to-air 
munitions and select electronic warfare enhancements, and resourcing 
critical readiness enablers, including training capabilities and 
modernized range equipment.
    As part of our Airspace Control Alert mission, the Air Force, 
working closely with U.S. Northern Command, reduced full-time ANG 
requirements at two sites while maintaining overall surveillance and 
intercept coverage.
Global Precision Attack
    A critical component of the broader mission to deter and defeat 
aggression is the Air Force's ability to hold any target at risk across 
the air, land, and sea domains through global precision attack. Global 
precision attack forces perform traditional strike and customized ISR 
roles to support Joint and coalition ground forces every day. However, 
as A2/AD capabilities proliferate, our fourth-generation fighter and 
legacy bomber capability to penetrate contested airspace is 
increasingly challenged.
    The A2/AD threat environment prescribes the type of assets that can 
employ and survive in-theater. While the Air Force provides the 
majority of these assets, success in this hazardous environment will 
require a combined approach across a broad range of assets and 
employment tools. Even then, these will only provide localized and 
temporary air dominance to achieve desired effects. Simultaneously, 
ongoing contingency operations in a permissive, irregular warfare 
environment at the lower end of the combat spectrum require adapted 
capabilities, including longer aircraft dwell times and increasing use 
of our platforms in unique intelligence gathering roles. Our fiscal 
year 2013 budget request of $15.5 billion applies resources that will 
help the Air Force best meet threats in evolving A2/AD environments.
    To enhance our global strike ability, we are prioritizing 
investment in fifth-generation aircraft while sustaining legacy 
platforms as a bridge to the F-35 Joint Strike Fighter, the centerpiece 
of our future precision attack capability. In addition to complementing 
the F-22's world-class air superiority capabilities, the F-35A is 
designed to penetrate air defenses and deliver a wide range of 
precision munitions. This modern, fifth-generation aircraft brings the 
added benefit of increased allied interoperability and cost-sharing 
between services and partner nations. The fiscal year 2013 budget 
includes approximately $5 billion for continued development and the 
procurement of 19 F-35A conventional take-off and landing (CTOL) 
aircraft, spares, and support equipment. In fiscal year 2013, we 
deferred 98 CTOLs from the F-35A program.
    As we move toward fifth-generation recapitalization, we are funding 
fourth-generation fighter modernization to ensure a capable global 
attack fleet. Reserve component recapitalization will begin based on F-
35 production rates, basing decisions, the F-16 Service Life Extension 
Program (SLEP), and Combat Avionics Programmed Extension Suite (CAPES). 
The Air Force will continue to plan and program for approximately 350 
F-16 service life extensions and capability upgrades over the FYDP to 
ensure a viable F-16 combat capability across the total force and to 
mitigate the effects of F-35 procurement rate adjustments on the total 
fighter force capacity during completion of system development and low 
rate initial production.
    In our fiscal year 2013 submission, we accepted risk by retiring 
102 A-10s and 21 F-16s. Although the A-10 remains essential for 
combined arms and stability operations, we chose to retire more A-10s 
because other multirole platforms provide more utility across the range 
of the potential missions. We are retaining enough A-10s to meet the 
direction of the new strategic guidance to maintain readiness and 
capability while avoiding a hollow force.
    We are modernizing conventional bombers to sustain capability while 
investing in the Long-Range Strike Family of Systems. The bomber fleet 
was retained at its current size because we recognized the importance 
of long-range strike in the current and future security environments. 
The Air Force is enhancing long-range strike capabilities by upgrading 
the B-2 fleet with an improved Defensive Management System (DMS) and a 
new survivable communication system, and is increasing conventional 
precision guided weapon capacity within the B-52 fleet. We are 
investing $191.4 million in modernizing the B-1 to prevent obsolescence 
and diminishing manufacturing sources issues and to help sustain the B-
1 to its approximate 2040 service life. In addition to aircraft 
modernization, we are upgrading our B-1 training and simulator systems 
to match aircraft configuration and ensure continued sustainability.
    Procuring a new penetrating bomber is critical to maintaining our 
long-range strike capability in the face of evolving A2/AD 
environments. The new long-range, penetrating, and nuclear-capable 
bomber (LRS-B), which will be capable of both manned and unmanned 
operations, will be designed and built using proven technologies, and 
will leverage existing systems to provide sufficient capability. It 
will also permit growth to improve the system as technology matures and 
threats evolve. We must ensure that the new bomber is operationally 
capable before the current aging B-52 and B-1 bomber fleets are 
retired. LRS-B is fully funded at $291.7 million in the fiscal year 
2013 budget.
Global Integrated ISR
    Global integrated ISR includes conducting and synchronizing 
surveillance and reconnaissance across all domains--air, space, and 
cyber. These ISR capabilities produce essential intelligence to achieve 
decision superiority through planning, collecting, processing, 
analyzing, and rapidly disseminating critical information to national- 
and theater-level decisionmakers across the spectrum of worldwide 
military operations. Air Force ISR growth and improvement over the last 
decade has been unprecedented. Because of the dynamic nature of the 
operating environment, the Air Force conducted an extensive review of 
the entire Air Force ISR enterprise in 2011 to inform future planning 
and programming decisions. Even as the United States plans to reduce 
our military presence in CENTCOM AOR, combatant commands will continue 
to use our ISR capabilities to combat global terrorism, provide global 
and localized situational awareness, and support future contingencies.
    Recognizing the need for continued and improved ISR capabilities, 
and based on the 2011 ISR review, the Air Force is investing $7.1 
billion in this core function in fiscal year 2013. We are continuously 
improving the current suite of capabilities and will field the MQ-9 
Reaper to meet delivery of 65 remotely piloted aircraft (RPA) combat 
air patrols (CAPs) by May 2014. We are actively managing our 
procurement rate of MQ-9s to efficiently increase RPA fleet size while 
allowing for necessary aircrew training. We are extending operations 
for the U-2 Dragon Lady manned aircraft, in lieu of investing more 
heavily in the RQ-4 Block 30 Global Hawk fleet. Despite early 
predictions, the savings anticipated by the use of Global Hawks have 
not come to fruition, and we will not invest in new technology at any 
cost. Divesting the RQ-4 Block 30 fleet and extending the U-2 will save 
the Air Force $815 million in fiscal year 2013 and $2.5 billion across 
the FYDP. Sustaining the U-2 fleet will ensure affordable and sustained 
high-altitude ISR for the combatant commanders and joint warfighters.
    We will maintain investment in the MC-12 Liberty as we transfer it 
to the ANG, but we will establish active unit associations to meet 
combat air patrol and surge requirements. The MC-12 will also perform 
the mission carried out by the RC-26 as we divest 11 of those aircraft 
from the ANG. In the ANG, six RPA units have been or are currently 
being established, and an additional five units will stand-up in fiscal 
year 2013. An ANG ISR group with two squadrons will be established to 
conduct ISR in cyberspace and to conduct digital network intelligence 
and cyber target development.
    We are developing a more balanced and survivable mix of airborne 
platforms to enable continued operations in permissive environments and 
to enable operations in A2/AD environments. We are exploring innovative 
ways to leverage space and cyberspace capabilities as part of the 
overall mix of ISR capabilities and partner with joint, coalition, and 
interagency partners, including the use of Air-Sea Battle as a 
framework to develop required capabilities for the joint fight. We are 
investing $163 million in fiscal year 2013 in our ground processing 
enterprise, the Distributed Common Ground System, and will continue 
migration to a service-oriented architecture to handle the increasing 
quantities of ISR data that is integrated and delivered from emerging 
sensors and platforms operating in all domains. We will also improve 
our ability to move information securely and reliably over information 
pathways. Finally, we are improving analyst capability through improved 
training, automation and visualization tools while we deliberately plan 
for future operations using a refined capability planning and analysis 
framework.
Cyberspace Superiority
    Access and continued freedom of maneuver within cyberspace is an 
essential requirement for our networked force. Today's modern forces 
require access to reliable communications and information networks to 
operate effectively at a high operations tempo. Air Force and DOD 
networks face a continuous barrage of assaults from individual hackers, 
organized insurgents, State-sponsored actors, and all level of threats 
in between. Our adversaries are also realizing gains from 
electronically linking their combat capabilities. This is creating new 
warfighting challenges that the Joint Force must be prepared to 
address. As we work to ensure our freedom of movement in cyberspace, we 
will also work with service, joint, and interagency partners on 
additional and further-reaching cyberspace initiatives.
    We are using a cyber strategy which not only improves the Air 
Force's ability to operate in cyberspace, but also mitigates constantly 
increasing infrastructure costs. This approach focuses on near-term 
FYDP investments to automate network defense and operations which 
increase both combat capacity and effectiveness. This effort, led by 
24th Air Force, under Air Force Space Command, includes continued 
development of the Single Integrated Network Environment which provides 
a seamless information flow among air, space, and terrestrial network 
environments, and most importantly, mission assurance to the 
warfighter.
    Our fiscal year 2013 budget request for cyberspace superiority is 
$4 billion. With these funds, we are expanding our ability to rapidly 
acquire network defense tools, such as Host Based Security System, a 
flexible, commercial-off-the-shelf (COTS)-based application to monitor, 
detect, and counter cyber-threats to the Air Force Enterprise. We are 
also investing in advanced technologies to monitor and secure both 
classified and unclassified networks. We have made considerable 
progress in our efforts to meet the emerging challenges and threats in 
cyberspace by fielding a total force of more than 45,000 trained and 
certified professionals equipped to ensure continuity of operations in 
cyberspace. The establishment of an additional ANG network warfare 
squadron (NWS) will enhance the Maryland ANG 175th NWS as they actively 
conduct cyber defense to protect networks and systems. The Air Force 
Reserve will also stand up an Active Association Network Warfare 
Squadron with the 33rd Network Warfare Squadron at Lackland AFB, Texas.
    To keep with the rapid pace of technology, the Air Force is 
developing Joint standardization and acquisition strategies to enable 
quick delivery of cyber capabilities to address constantly evolving and 
more technologically advanced cyber threats and to improve intelligence 
capabilities in cyberspace. The Air Force is spending $27.3 million on 
the Air Force Wideband Enterprise Terminal, leveraging Army procurement 
efforts for significant quantity savings, joint standardization, 
interoperability, and enabling wideband global satellite communication 
(SATCOM) Ka-band utilization, resulting in greater bandwidth for 
deployed warfighters. The Air Force continues efforts toward the Single 
Air Force Network, which increases Air Force network situational 
awareness and improves information sharing and transport capabilities. 
For future budget requests, the Air Force is working with DOD to define 
near- and long-term solutions to deliver warfighting communication 
capabilities, such as Family of Advanced Beyond Line of Sight Terminals 
(FAB-T) and upgrading the Air Force's wideband enterprise terminals to 
provide joint standardization and greater bandwidth.
Space Superiority
    America's ability to operate effectively across the spectrum of 
conflict also rests heavily on Air Force space capabilities. Airmen 
provide critical space capabilities that enhance the DOD's ability to 
navigate accurately, see clearly, communicate confidently, strike 
precisely, and operate assuredly. General purpose forces, the 
intelligence community, and special operations forces depend on these 
space capabilities to perform their missions every day, on every 
continent, in the air, on the land, and at sea. In addition, space 
operations help ensure access and use of the global commons, enabling a 
multitude of civil and commercial activities such as cellular 
communications, commercial and civil aviation, financial transactions, 
agriculture and infrastructure management, law enforcement, emergency 
response, and many more. Like air superiority, space-based missions can 
easily be taken for granted.
    The Air Force has maintained its record of successful space 
launches, began on-orbit testing of the first advanced extremely high-
frequency military communications satellite, and launched the first 
Space Based Infrared System geosynchronous satellite. Our ability to 
deliver space capabilities is currently without equal. As we become a 
smaller, leaner force in accordance with the new defense strategic 
guidance, the leveraging and multiplying effects that space provides 
will become increasingly important. Improving space situational 
awareness will be key to protecting the unique advantage space 
provides.
    Rapid technology advancements and the long-lead time for 
integrating and fielding new space technology results in an ongoing 
need to plan, design, and implement space advancements. We must procure 
our space systems at the lowest-cost possible while providing assured 
access to space. Our innovative acquisition strategy for the Efficient 
Space Procurement (ESP) \1\ of complex space systems is designed to 
identify efficiencies and use those resources to provide enduring 
capability and help provide stability to the space industrial base. We 
are again requesting advance appropriations to fully fund the 
satellites being procured under ESP. While we are modernizing and 
sustaining many of our satellite constellations, funding constraints 
have slowed our ability to field some space capabilities as rapidly as 
is prudent. Therefore, as we continue to sustain our current level of 
support to the warfighter, the current fiscal environment demands that 
we explore alternate paths to provide resilient solutions. As we 
incorporate the tenets of the new National Space Policy and National 
Security Space Strategy, we are actively developing architectures that 
take into consideration the advantages of leveraging international 
partnerships and commercial space capabilities. One example being 
tested is a commercially hosted infrared payload (CHIRP) launched from 
Guiana Space Center, Kourou, French Guiana, which begins to explore the 
utility of a dedicated payload for missile warning hosted on a 
commercial communications satellite.
---------------------------------------------------------------------------
    \1\ Previously known as Evolutionary Acquisition for Space 
Efficiency (EASE).
---------------------------------------------------------------------------
    With the $9.6 billion in funds for space programs in the fiscal 
year 2013 budget request, the Air Force is recapitalizing many space 
capabilities, fielding new satellite communications systems, replacing 
legacy early missile warning systems, improving space control 
capabilities, and upgrading position, navigation and timing 
capabilities with the launch of Global Positioning System (GPS) IIF 
satellites and the acquisition of GPS III satellites. Consistent with 
the 2012 National Defense Authorization Act (NDAA) and Department of 
Defense Appropriations Act, the Air Force is canceling the Defense 
Weather Satellite System, saving $518.8 million in fiscal year 2013 and 
$2.38 billion more than the FYDP. The Defense Meteorological Satellite 
Program (DMSP) will continue to fulfill this critical requirement as 
the Air Force determines the most prudent way forward.
Nuclear Deterrence Operations
    Credible nuclear capabilities are required to deter potential 
adversaries from attacking our vital interests and to assure our allies 
of our commitments. Although the threat of global nuclear war has 
become remote since the end of the cold war, the prospect of nuclear 
terrorism has increased. Proliferation of nuclear weapons, especially 
among regional power aspirants, is on the rise. Advanced air defenses 
increasingly threaten the survivability of current bombers. Area denial 
and ballistic missile threats reduce our basing options and challenge 
the responsiveness and survivability of long-range strike. As a result, 
the United States must shape its deterrent forces to maintain stability 
among existing nuclear powers, to strengthen regional deterrence, and 
to reassure U.S. allies and partners.
    The Air Force is responsible for 2 of the 3 legs of the nuclear 
triad and continuing to strengthen the Air Force nuclear enterprise 
remains a top Air Force priority. Air Force investment in our bombers 
and intercontinental ballistic missile (ICBM) systems reflects our 
commitment to the nuclear deterrence mission well into the future. Our 
request of $5.1 billion for this core function in fiscal year 2013 
increases sustainment for the Minuteman III ICBM through 2030 with fuze 
component replenishment and replacement programs, as well as new 
transporter erectors. We are also enhancing long-range strike 
capabilities by upgrading the B-2s with an improved Defensive 
Management System (DMS) and a new survivable communication system. 
These investments will ensure the Air Force maintains the capability to 
operate and sustain safe, secure, and effective nuclear forces to deter 
adversaries, hold any target at risk, and respond appropriately if 
deterrence fails. In particular, the responsiveness of the ICBM leg and 
the flexibility of the bomber leg are valued attributes of the nuclear 
force. We are committed to a future force that will have the 
flexibility and resiliency to adapt to changes in the geopolitical 
environment or cope with potential problems in the nuclear stockpile.
    The New Strategic Arms Reduction Treaty requires the United States 
to reduce warheads and delivery capacity by 2018. Our fiscal year 2013 
budget request includes $20.1 million to fund treaty preparatory 
actions that began in fiscal year 2012 and additional actions necessary 
to accomplish the treaty-required reductions by 2018. While final force 
structure decisions have not yet been made, we are continuing to 
develop detailed plans, working with the Department of Defense and U.S. 
Strategic Command, for executing force reduction decisions which retain 
the attributes of the Triad needed for 21st century deterrence.
Rapid Global Mobility
    The Air Force provides unparalleled in-flight refueling and cargo 
carrying capacity in support of worldwide operations. Mobility forces 
provide vital deployment and sustainment capability for Joint and 
coalition forces by delivering essential equipment, personnel, and 
materiel for missions ranging from major combat operations to 
humanitarian relief operations. Achieving unprecedented survival rates, 
our highly skilled aeromedical transport teams swiftly evacuate combat 
casualties, ensuring our wounded warriors receive the best possible 
medical care. A unique Air Force contribution, rapid global mobility 
must be maintained on a scale to support DOD force structure and 
national strategic objectives.
    On any given day, the Air Force fleet of C-17s and C-5s deliver 
critical personnel and cargo, provide airdrop of time-critical 
supplies, food, and ammunition, and enable rapid movement of personnel 
and equipment. Air Force air refueling aircraft will continue to play a 
vital, daily role in extending the range and persistence of almost all 
other Joint Force aircraft. The Air Force remains committed to fully 
funding the acquisition of the new KC-46A tanker with $1.8 billion in 
research, development, testing, and evaluation (RDT&E) in fiscal year 
2013, while also resourcing critical modernization programs for the KC-
10 and KC-135 fleets. This will ensure our Nation retains a tanker 
fleet able to provide crucial air refueling capacity for decades to 
come. The retirement of 20 KC-135s is consistent with our analysis of 
warfighting scenarios based on the strategic guidance and will results 
in savings of $22.5 million in fiscal year 2013. As part of our energy 
efficiency initiatives, we plan to begin upgrading 93 KC-135 engines in 
fiscal year 2013 and 100 more each year through the FYDP. We anticipate 
overall savings in fuel and maintenance of $1.5 billion from this $278 
million investment.
    In addition, with our fiscal year 2013 budget request of $15.9 
billion in rapid global mobility funds, the Air Force will continue to 
modernize its inter-theater airlift fleet of C-17s and C-5s. To move 
toward a common fleet configuration, the Air Force is investing $138.2 
million in fiscal year 2013 for the Global Reach Improvement Program 
(GRIP). The GRIP brings the multiple variants of C-17 to a standard 
configuration, designated the C-17A, that will provide efficiencies in 
operations and weapon system sustainment. We also plan to transfer 
eight C-17s from the Active component to the ANG in fiscal year 2013, 
and an additional eight in fiscal year 2015. We are modernizing the 
most capable C-5 airframes while retiring the final 27 of the oldest 
model, the C-5A. On the remaining 52 C-5s, the Air Force is investing 
$1.3 billion in modernization in fiscal year 2013 to improve capability 
and reliability, including $1.23 billion on the Reliability Enhancement 
and Re-engining Program. We currently have seven operational C-5Ms. The 
retirement of the last C-5A by fiscal year 2016 is timed to match the 
completion of the last C-5M upgrade.
    Because the strategic guidance reduced the overall requirement for 
intra-theater airlift, we are retiring C-130H aircraft (39 in fiscal 
year 2013 and a total of 65 more than the FYDP). These older aircraft 
would require costly modification or modernization to remain viable. We 
will maintain the necessary intra-theater airlift capability and 
capacity by completing the recapitalization of older C-130E/H aircraft 
with the C-130J. The remaining legacy C-130H aircraft are being 
modernized to reduce sustainment costs and ensure global airspace 
access.
    Finally, after rigorous mission analysis, we determined the mission 
performed by the C-27J fleet could be performed by the C-130 fleet 
which is fully capable of meeting direct ground support and homeland 
defense requirements.\2\ The fiscal constraints that demand we become a 
smaller Air Force also support the decision to retain aircraft that 
have multiple role capabilities, like the C-130. Therefore, all 21 C-
27Js in the current fleet will be retired, and we are canceling 
procurement of 17 additional aircraft. Without question, the Air 
Force's commitment to support time-sensitive, mission-critical direct 
airlift support to the Army is unaltered by the divestment of the C-
27J.
---------------------------------------------------------------------------
    \2\ Six of the seven ANG units that are affected by the divestment 
of the C-27J fleet are being backfilled with MC-12W Liberty, ISR/cyber, 
MQ-9, or C-130 units.
---------------------------------------------------------------------------
Command and Control
    Command and control (C2) of our forces has never been more vital or 
more difficult than in the highly complex 21st century military 
operations that depend on close Joint and coalition coordination. C2 is 
the key operational function that ties all the others together to 
achieve our military objectives, enabling commanders to integrate 
operations in multiple theaters at multiple levels through planning, 
coordinating, tasking, executing, monitoring and assessing air, space, 
and cyberspace operations across the range of military operations. No 
longer in a cold war technological environment, the Air Force is 
transforming its C2 to an Internet protocol-based net-centric war 
fighting capability. To do so, the Air Force must sustain, modify, and 
enhance current C2 systems, and develop deployable, scalable, and 
modular systems that are interoperable with joint, interagency, and 
coalition partners.
    The Air Force is focusing its attention to modernization efforts to 
operate in A2/AD environments with our fourth- and fifth-generation 
weapon systems. In doing so, the Air Force will continue to use a 
balanced approach across the C2 portfolio by investing in sustaining 
legacy platforms while modernizing our C2 aircraft fleet and ground 
operating nodes only as needed to sustain our capability. Our fiscal 
year 2013 budget request of $5.8 billion for C2 includes $200 million 
to support secure and reliable strategic level communications through 
the E-4 National Airborne Operations Center (NAOC). We are also 
spending $22.7 million to begin fielding a cockpit modernization 
development program to sustain the capability of the existing Airborne 
Warning and Control System (AWACS) platform and we will continue to 
modernize and sustain the Theater Air Control System Command and 
Control Centers (CRC). The modernization of the Air Operations Center 
(AOC) will move this weapon system to an enterprise system which can 
accept rapid application upgrades and enable future warfighting 
concepts.
    To reduce unnecessary cost, the Air Force will retire one JSTARS 
aircraft that is beyond economical repair, saving the Air Force $13 
million in fiscal year 2013 and $91 million more than the FYDP. The 
JSTARS re-engining system development and demonstration (SDD) flight 
test program completed in January 2012; however, because the fiscal 
year 2012 NDAA reduced re-engining funding, full completion of the re-
engining SDD is under review. The JSTARS re-engining program is not 
funded in fiscal year 2013. We also terminated our portion of the Army-
managed Joint Tactical Radio System (JTRS) small airborne radio program 
that was over cost and behind schedule and will instead leverage 
industry-developed hardware, while continuing the development of the 
required radio waveforms. The termination of this program and the 
associated nonrecurring engineering will save $294 million in fiscal 
year 2013 and $3.2 billion more than the FYDP.
Special Operations
    Success in counterterrorism and irregular warfare missions requires 
the ability to conduct operations in hostile, denied, or politically 
sensitive environments, using other than conventional forces. Air Force 
special operations capabilities continue to play a vital role in 
supporting U.S. Special Operations Command and geographic combatant 
commanders. U.S. special operations forces (SOF) depend on a balanced 
force of air, sea, and land capabilities; Air Commandos bring 
specialized expertise for infiltration and exfiltration and the kinetic 
and nonkinetic application of airpower that are essential to joint 
special operations capabilities.
    Our investments in SOF must strike a balance between winning 
today's fight and building the Joint SOF of the future, including the 
ability to act unilaterally when necessary. Despite the challenging 
fiscal environment, with our budget request of $1.2 billion, the Air 
Force was able to sustain nearly all of the SOF aviation improvements 
realized over the past several years. The programmed buy of 50 CV-22 
Ospreys will complete in fiscal year 2014, and the procurement of MC-
130Js for the recapitalization of 37 MC-130E/Ps will also complete in 
fiscal year 2014. MC-130H/W recapitalization will begin in fiscal year 
2015, a year earlier than scheduled in the fiscal year 2012 President's 
budget, which ensures a continued, more capable SOF mobility fleet. The 
Air Force is modernizing our SOF precision strike capability by 
procuring AC-130Js, on a one-for-one basis, to recapitalize our legacy 
AC-130Hs. We are also ensuring our battlefield airmen continue to 
receive first-class equipment and training by adding funds to 
operations and maintenance accounts.
Personnel Recovery
    The Air Force remains committed to modernizing crucial combat 
search and rescue (CSAR) capabilities. The additional use of personnel 
recovery (PR) forces for medical and casualty evacuation, humanitarian 
assistance, disaster response, and civil search and rescue operations 
has steadily risen since the early 1990s. This increase in usage has 
taken its toll on the aircraft and significantly affected availability. 
Currently, Air Force PR forces are fully engaged in the CENTCOM and 
Africa Command AORs, accomplishing lifesaving medical and casualty 
evacuation missions. They are also supporting domestic civil land and 
maritime search and rescue, humanitarian assistance/disaster relief, 
and mass casualty evacuation missions. The dynamic geopolitical 
environment suggests that the continued need for PR forces to conduct 
nonpermissive CSAR in contingency operations and permissive 
humanitarian assistance, disaster response, and civil search and rescue 
operations will remain.
    To ensure the Air Force is able to provide this vital core function 
in the future, we are recapitalizing our fixed wing aircraft, 
replenishing our rotary wing aircraft through the Operational Loss 
Replacement (OLR) program, and replacing aging rotary wing aircraft 
through the Combat Rescue Helicopter (CRH) program. The $1.4 billion 
fiscal year 2013 budget request for PR includes $152.2 million for the 
HC-130J and $183.8 million for the OLR and CRH programs. The fiscal 
year 2013 RDT&E funding for the CRH was reprogrammed to support the 
acquisition of two test aircraft. The program remains on track to 
produce a replacement for the HH-60G through a full and open 
competition, with initial operational capability planned for fiscal 
year 2018. The Air Force also continues to fund the HH-60G and HC-130 
sustainment programs while continuing to invest in the Guardian Angel 
program that provides first-class equipment and training for the rescue 
force.
Building Partnerships
    Building the capacity of partner governments and their security 
forces is a key element in our national security strategy. The 
establishment of strong, foundational aviation enterprises in our 
partner nations enables successful, sustainable security within their 
own borders while contributing to regional stability. Successful 
partnerships ensure interoperability, integration and interdependence 
between air forces, allowing for effective combined and coalition 
operational employment. These partnerships also provide partner nations 
with the capability and capacity to resolve their own national security 
challenges, thereby reducing the potential demand for a large U.S. 
response or support.
    The necessity for partnering is evident every day in Afghanistan 
where United States and coalition air forces provide flexible and 
efficient airpower support to International Security Assistance Force 
operations. In both Iraq and Afghanistan, airmen are building the 
capabilities and capacities of the Iraqi and Afghanistan air forces so 
that they can successfully employ airpower in their own right. In 
addition, the success of the Libya operations last year can be partly 
attributed to years of engagement that led to improved interoperability 
and highly capable and equipped partner nations.
    These international engagements require airmen to perform their 
duties effectively and achieve influence in culturally complex 
environments around the globe. Fielding the Joint Strike Fighter and 
other platforms will help further our partnerships with more 
established allies. The U.S. role in the 12-nation Strategic Airlift 
Consortium enables a unique fully operational force of three C-17s to 
meet the airlift requirements of our European allies. The fiscal year 
2013 budget request of approximately $300 million in this core function 
continues to fully resource the Strategic Airlift Consortium effort at 
Papa AB, Hungary. The Air Force also committed to field a new aviation 
detachment in Poland.
    Due to fiscal constraints, the Air Force terminated the Light 
Attack Armed Reconnaissance and the Light Mobility Aircraft programs; 
however, the Air Force believes this requirement can be substantially 
met with innovative application of ANG State Partnership Programs and 
Mobility Support Advisory Squadrons. We are working with partner 
nations to build and sustain ISR capacity and help them effectively 
counter threats within their borders. We are also pursuing 
international agreements to increase partner satellite communication, 
space situational awareness, and global positioning, navigation, and 
timing capabilities.
    The Air Force also recognizes that it cannot build effective 
international partnerships without effective U.S. Government 
interagency partnerships. To that end, we are a strong supporter of 
State-Defense exchanges and other programs that provide interagency 
familiarity and training.
Agile Combat Support
    Underpinning our capacity to perform the missions in these core 
functions is the ability to create, protect, and sustain air and space 
forces across the full-spectrum of military operations--from the 
training, education, and development of our airmen to excellence in 
acquisition. The fiscal year 2013 budget request includes $31 billion 
for agile combat support.
    We will continue to support our airmen and their families through 
quality of life and support services such as child care and youth 
programs and initiatives, medical services and rehabilitation for 
wounded warriors, improvements to dining facilities, food delivery, 
fitness centers, and lodging. We are partnering with local communities, 
where feasible, to provide the highest-quality support, and we are 
changing the way that we provide services so that airmen and their 
families are more able to easily access and receive the support they 
need. To ensure we continuously focus on and improve readiness and 
build a more agile and capable force, we have strengthened technical 
and professional development by enhancing technical training, 
professional military education, and language and culture programs.
    The Air Force is committed to sustaining excellence with a smaller 
force. We remain attentive to force management efforts and continue to 
size and shape the force to meet congressionally mandated military end 
strength. A series of voluntary and involuntary force management 
efforts have been successful in reducing Active Duty end strength. 
Force management programs in fiscal year 2012 include voluntary and 
involuntary programs which lessen the need for involuntary actions in 
fiscal year 2013. We are posturing accessions for the long term and 
ensuring the right balance of skills exists to meet operational 
requirements. The Air Force will meet its OSD-directed civilian end 
strength target for fiscal year 2012. The Force Management Program is 
not a quick fix, but a tailored, multiyear effort to manage the force 
along the 30-year continuum of service.
    We are improving acquisition processes, recently completing 
implementation of the Acquisition Improvement Plan (AIP). We have also 
institutionalized the ``Better Buying Power'' (BBP) initiatives 
promulgated by the Under Secretary of Defense for Acquisition, 
Technology and Logistics and are expanding those improvements through 
our Acquisition Continuous Process Improvement 2.0 (CPI 2.0) effort. 
The major elements of the CPI 2.0 Initiative--process simplification, 
requirements, realizing the value proposition, and workforce 
improvement--will build upon the BBP initiatives and continue our 
momentum in improving our acquisition workforce skills.
    We are ensuring the Air Force continues to have war-winning 
technology through the careful and proactive management of our science, 
technology, engineering, and mathematics (STEM) workforce and improving 
our means to attract and recruit future innovators for the Air Force. 
Properly funding our science and technology laboratories enables them 
to continue discovering, developing, and demonstrating high-payoff 
innovations to address the changing strategic environment and sustain 
air, space, and cyberspace superiority. Therefore, the Air Force's 
budget protects science and technology funding as a share of our total 
resources.
    Science and technology investments are also a key toward enhancing 
our energy security and meeting our energy goals. The Air Force is 
requesting more than $530 million for aviation, infrastructure, and 
RDT&E energy initiatives in fiscal year 2013 to reduce energy demand, 
improve energy efficiency, diversify supply, and increase mission 
effectiveness. A focus of these initiatives is to improve our energy 
security by diversifying our drop-in and renewable sources of energy 
and increasing our access to reliable and uninterrupted energy 
supplies. We are investing more than $300 million in energy RDT&E, 
which includes $214 million for the fiscal year 2013 Adaptive Engine 
Technology Development (AETD) Initiative. This initiative will build 
upon the Adaptive Versatile Engine Technology (ADVENT) effort to reduce 
energy consumption and improve efficiency and reliability of future and 
legacy aircraft.
    We are continuing to support an important aspect of our readiness 
posture through weapons system sustainment, the requirements for which 
have grown due to the complexity of new aircraft, operations tempo 
increases, force structure changes, and growth in depot work packages 
for legacy aircraft. We are mitigating overall WSS growth through 
efficiency efforts and requirements reviews. WSS funding through 
overseas contingency operations (OCO) requests remains critical while 
we continue to be engaged in these global operations. For fiscal year 
2013, we are seeking $11.6 billion in WSS (including OCO). We are 
committed to retaining three strong organic depots. In fiscal year 
2012, we are investing approximately $290 million in new technologies 
and infrastructure in all of our depots. Although we may have a short-
term challenge to meet the title 10, section 2466 Depot 50/50 Rule 
requirements due to force structure changes, we have a robust plan in 
place to perform organic repair for future weapon systems like the KC-
46A.
    As noted earlier, Air Force continues to emphasize the importance 
of maintaining readiness in support of our FHP. The Air Force's $44.3 
billion fiscal year 2013 operations and maintenance request supports 
1.17 million flying hours for new pilot production, pilot development, 
maintenance of basic flying skills, as well as training of crews to 
support combatant commander priorities.
    Facility sustainment, restoration and modernization, and MILCON are 
essential tools for providing mission capability to our warfighters. 
The $441 million in MILCON funding, a $900 million decrease from fiscal 
year 2012 enacted levels, represents a conscious decision to take a 
deliberate pause in MILCON investment. During this pause, we will 
maintain funding levels for facility sustainment at $1.4 billion and 
restoration and modernization at $718.1 million. We will continue to 
fund the most critical construction priorities of our combatant 
commanders and the Air Force, including projects aligned with weapon 
system deliveries--supporting beddowns for the F-22, F-35, HC-130J/C-
130H, and MQ-9. In addition, our investment funds some much-needed 
support to our airmen, with $42 million in dormitory recapitalization.
                               conclusion
    Given the continuing complexity and uncertainty in the strategic 
environment, and a more constrained fiscal environment, DOD and Air 
Force resources are appropriately targeted to promote agile, flexible, 
and cost-effective forces, and to mitigate strategic risks. The fiscal 
year 2013 Air Force budget request reflects the extremely difficult 
choices that had to be made that will allow the Air Force to provide 
the necessary capability, capacity, and versatility required to prevail 
in today's and tomorrow's wars, prevent and deter conflict, and prepare 
to defeat adversaries and succeed across the range of potential 
military operations--all the while preserving and enhancing the All-
Volunteer Force. Additional reductions would put at risk our capability 
to execute the new strategic guidance.
    We are confident in our airmen and their families. They are the 
best in the world, and we rely on them to meet any challenge, overcome 
any obstacle, and defeat any enemy--as long as they are given adequate 
resources. As they have time and again, our airmen innovators will find 
new and better ways to approach future military challenges across the 
spectrum of domains and against nascent threats. We are committed to 
excellence and we will deliver with your help. We ask that you support 
the Air Force budget request of $110.1 billion for fiscal year 2013.

    Chairman Inouye. Thank you very much.
    General Schwartz.
STATEMENT OF GENERAL NORTON A. SCHWARTZ, CHIEF OF STAFF
    General Schwartz. Mr. Chairman, thank you. Vice Chairman, 
members of the subcommittee, just a brief addendum to the 
Secretary's comments, if you would allow me, on military 
compensation.
    I would appeal to the subcommittee, Sir, to carefully 
consider those initiatives in our budget proposal that begin to 
tackle escalating personnel costs: compensation, healthcare, 
and retirement. Among all the other challenges facing us, the 
reality of fewer members of the Armed Forces costing 
increasingly more to recruit, train, and retain for promising 
careers, I think, is the monumental Defense issue of our time.
    Our inability to address this issue properly will place 
other areas of the budget, including force structure and 
modernization, under yet more pressure, forcing out needed 
military capability, at a time when we already are right sized 
for the likely missions ahead.
    Sir, we look forward to your questions.
    Chairman Inouye. Thank you very much. If I may, Secretary 
Donley, your budget request proposes to terminate or 
restructure a significant number of programs and force 
structure which were funded in the fiscal year 2012. Now, can 
you provide this subcommittee some assurance that the Air Force 
is not ramping down its activities until we act on the fiscal 
year 2013 Defense bills?
    Mr. Donley. Yes, Sir, I can. Our guiding principle is that 
we will not take any irreversible actions before the Congress 
has had a chance to review and approve, or adjust, the 
proposals made in the President's budget. There is a different 
situation with respect to each program. We have some programs, 
such as the Global Hawk, for example, Block 30 capability, that 
has already been fielded. Some aircraft are in procurement, and 
then there were dollars appropriated for additional procurement 
beyond that.
    So, at appropriate points in contracts, we are taking 
pauses to slow down but are taking no irreversible decisions. 
The one exception to that that I mentioned in my statement is 
the Defense Weather Satellite System, which the Congress 
actually terminated in fiscal year 2012. So, we have taken 
steps to terminate that program.
    Chairman Inouye. In your fiscal year 2013 budget request, 
you're cutting down the size of the Air Force personnel by 
9,900. Now, it will take place in this fiscal year 2013. What 
force-shaping tools are you using to make these reductions?
    Mr. Donley. Sir, we appreciate the support of the Congress 
in the last year to provide additional force-shaping tools for 
the Air Force and for the rest of the uniform services to 
adjust, as required, the size of our forces. We have been very 
aggressive in the last couple of years to get down the size of 
the Air Force. Our Active Duty has been over strength, at one 
point, by up to 5,000 or 6,000 personnel. So, we've taken 
aggressive action in the last 2 years to get down to authorized 
levels.
    We will await the outcome of the congressional 
deliberations, but at this point we are hopeful that we can 
avoid potentially adverse force-shaping methods going into 
fiscal years 2013 and 2014. We're still not sure, but I think 
we're well-positioned, given the actions we've taken in the 
last couple of years.
    Chairman Inouye. General Schwartz, do you have anything to 
add?
    General Schwartz. Sir, I would just reiterate that at the 
moment it appears we will not have to use involuntary measures, 
that the voluntary incentives that are available, including 
those recently approved, will serve the purpose.
    Chairman Inouye. Mr. Secretary, General Schwartz, I have 
several other questions, but because of the legislative 
schedule, I'd like to submit them for your consideration. May I 
now recognize the Vice Chairman.
    Senator Cochran. Mr. Chairman, my question is a follow-on 
to your first question. It seems that the Air Force may be 
getting ahead of the Congress here on making decisions to shut 
down operations of one kind or another, in anticipation of cuts 
that will be approved in the budget, but which have not yet 
been debated or reviewed carefully so that it will be ready to 
make any announcements.
    Are any of these decisions that you've been making to shut 
down operations, like at Meridian, Mississippi, and other 
places, final decisions, or when do you consider that to become 
a final decision?
    Mr. Donley. Well, certainly, we need congressional action 
on the fiscal year 2013 to confirm a way forward in these force 
structure adjustments. At the same time, we'll be frank with 
the subcommittee that many of our force structure adjustments 
are frontloaded to fiscal year 2013. So, we do need to continue 
the planning that would allow us to implement our proposals, 
should you approve them. So, we will need to go forward with 
planning, but, again, the Congress has the final say on next 
steps.
    Senator Cochran. So, I understand from that that operations 
are not going to be affected in the foreseeable future, or 
during this next fiscal year, necessarily, unless the Congress 
approves it. Is that what I understand you to say now?
    Mr. Donley. That's correct. The operation of the Global 
Hawk Block 30, the operation of the C-27s that have been 
delivered, those, for example, continue.
    Senator Cochran. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Alexander.

                  STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. Thank you, Mr. Chairman. Mr. Secretary 
and General Schwartz, thank you for being here.
    General Schwartz, we met a couple of years ago, and we 
talked about the C-17s, and how to get them to Memphis and 
replace the aging C-5As. You're now on a path to do that, 
according to your proposal. As I understand it, the C-17s will 
be relocated in fiscal year 2013. What's the exact timeline for 
getting the C-17s to Memphis?
    General Schwartz. I would like to get you the exact 
timeline for the record, if I may, but I think that is a 
reflection of a larger effort that's under way to reshape the 
airlift force by retiring, in terms of the big aircraft, the 27 
remaining C-5As and repopulating with C-17s and/or the re-
engined C-5s across the fleet.
    [The information follows:]

    When the fiscal year 2013 President's budget was being developed, 
the Air Force determined that the Tennessee Air National Guard's 164th 
Airlift Wing at Memphis would convert from C-5As to C-17As, completing 
an action initiated during the fiscal year 2012 President's budget 
request. Memphis receives the first four C-17A aircraft in fiscal year 
2013, with the remaining four aircraft arriving in fiscal year 2014. 
The schedule was planned around the transition between missions, 
accounting for C-5As retirements to make room for C-17As, as well as 
allowing for the retraining of aircrew and maintenance personnel. C-5As 
are planned to complete retirements from Memphis by the end of fiscal 
year 2014.
    Air Mobility Command will work closely with the Air National Guard 
to ensure the most effective plan is implemented, adjusting the arrival 
plan accordingly based on the specific details of the C-5A retirement 
schedule and progress of C-17A training for Memphis personnel.

    Senator Alexander. Well, you have come to a conclusion that 
I certainly support, in recognition of the unusually good 
facilities you have in Memphis, and the same kind of conditions 
that the FedEx super hub, and the world runway, and others 
have. It makes a lot of sense to do that. And I'd be interested 
in any further detail about the timeline for that action.
    Let me ask you a couple of questions, and then I'll stop, 
so other Senators can have their time. I want to ask you about 
the Arnold Engineering Development Center in Tullahoma, 
Tennessee. You've announced a restructuring of the Air Force 
Materiel Command. You're going to reduce the number of them. 
You're going to save some money doing that, eliminate civilian 
positions, and the Arnold Center, as a part of that 
restructuring, will be renamed. It will be reported to the Air 
Force Test Center at Edwards Air Force Base in California. All 
of which seems to me, again, to make a lot of sense, in terms 
of the demands that you have to reduce the size of what you're 
doing.
    I wanted to express my support for your decision. Even 
though I know it's a difficult one, it ought to help the 
testing mission, and I believe it makes good sense. So, I know 
that sometimes as you go through these restructurings, you get 
expressions of lack of support. I want to give you one of 
support. And I want to ask you what you can tell me about the 
timeline for implementing the Air Force Materiel Command 
realignment plan. In other words, when do you expect Arnold to 
start reporting to Edwards Air Force Base in California?
    General Schwartz. Sir, that is a fiscal year 2013 
initiative, and so it would happen during the fiscal year, and 
we've got phased approaches. As you know, we're taking 10 
direct reports to the Air Force Materiel Command Commander down 
to 5, and that will be done in a phased basis, and it will also 
include the transitions of supervision, in some cases, from, 
for example, two stars to one star to address the reduction in 
general officer manning that we've been mandated to undertake.
    So, once again, Sir, with your permission, we'll give you 
the exact timeline with respect to the test center 
specifically, but it's a fiscal year 2013 undertaking.
    [The information follows:]

    The timeline for implementing the Air Force Materiel Command 
realignment comprises a transition period from early June 2012 through 
September 30, 2012. During this transition period the command will 
begin to shift to a new framework and refine processes necessary to 
operate in the new construct. This transition period is necessary to 
work through the many required changes in order to successfully meet 
the initial operating capability objectives. Initial operating 
capability includes completion of organizational alignment, new 
processes established, and personnel in place to support the new 
structure. Full implementation execution will commence on October 1, 
2012 (fiscal year 2013) with completion of stand-up activities of the 
new Air Force Materiel Command five center organization. The re-
designation of the Arnold Engineering Development Center to the Arnold 
Engineering Development Complex is planned to occur coincident with 
leadership change in the July timeframe. Full alignment to the Air 
Force Test Center (re-designated from Air Force Flight Test Center) 
will be complete by October 1, 2012.

    Senator Alexander. Thank you. Thank you, gentlemen. One 
last question. I was talking with Colonel Brewer, who's the 
base commander at Arnold. Looking way down the road, he 
reminded me that the facilities of the base are 50 years old. 
And I know at a time of less money and restructuring that it's 
tempting not to spend money on long-term planning for 
maintenance and modernizing, but we all know, as I'm sure you 
do, that there has to be a long-term plan to ensure that 
critical testing facilities such as that are at a very high 
level with cutting-edge technologies.
    What plans have you undertaken to make sure that the 
testing facility there remains capable of its mission over the 
long-term.
    General Schwartz. Sir, as you know, there's a number of 
unique facilities at Tullahoma.
    Senator Alexander. Yes.
    General Schwartz. Including the high-speed test tunnels, 
and so on, and so forth. And among other things, we have 
invested in energy initiatives at Tullahoma in order to reduce 
the costs of operation there and to have a more efficient 
footprint.
    As you are aware, many of these test facilities are very 
energy intensive, and one of those major efforts under way is 
not only to make them modern in terms of their test capacity, 
but importantly, how we manage the energy consumption at that 
installation.
    Senator Alexander. Thank you, Mr. Chairman, and thank you, 
General.
    Chairman Inouye. Thank you, Senator Alexander.
    Senator Coats.

                   STATEMENT OF SENATOR DANIEL COATS

    Senator Coats. Thank you, Mr. Chairman, and Mr. Secretary 
and General, thank you for your testimony.
    As I understand it, the downsizing of certain assets is the 
consequence of the Office of the Secretary of Defense (OSD) 
decision to basically scale back to be able to engage in one 
full-time combat operation with a sort of a hold on a second 
rather than the two full-effort strategy that we've been under. 
And that has had an effect, I believe, on your decision, 
relative to the A-10s, apparently.
    But setting that strategy aside for another day, I want to 
ask a question about the A-10s. As you know, the 122nd Fighter 
Wing in Fort Wayne, is home to those A-10s. And under the plan, 
that would be switched to an ISR platform in the future.
    I know that the Guard has submitted a counterproposal, 
which meets your goals. They even said, look, we understand 
these cutbacks are necessary, reductions are necessary, and so 
forth, but that counterproposal provided, I think it was based 
on the premise that when those A-10s are not in combat, they 
have to be deployed not overseas, but to some base, whether 
it's Active, or Reserve, or Guard. And in so doing, when 
they're not deployed, there's significant cost savings for 
that, and I think the 122nd has demonstrated that pretty 
effectively; less than one-third of the cost, if it's based on 
an active base.
    My question is: Have you been able to review that proposal? 
Have you come to a conclusion on it? If so, what is that 
conclusion, and what's the justification for it?
    Mr. Donley. So, as you alluded to, Senator, the Council of 
Governors approached the Secretary of Defense and asked if he 
would be open to suggestions for how to adjust the fiscal year 
2013 President's budget. The Secretary indicated he would 
entertain suggestions. The Council of Governors did table a 
proposal almost 2 weeks ago, and that has been under review.
    We've met three times with the empowered adjutant generals 
that the Council of the Governors have directed to work with 
us, General Wyatt, and also the Chief of the National Guard 
Bureau, General McKinley. The Chief and I have met now, as I 
said, three times. This work is ongoing, and we've not yet 
reached a conclusion, but we recognize the need to do so in 
time to meet the appropriate congressional markups that are in 
front of us in the next couple of months.
    Senator Coats. Well, I very much appreciate it when you do 
reach a conclusion that we be informed about that. Obviously, 
it affects what has been, I think, rated over, and over, and 
over a very cost-effective unit, the 122nd at Fort Wayne. 
Again, we're not chaining ourself to the fence here and saying 
you can't touch this for any reason, whatsoever. We understand 
the need to make these reductions, but if there is a means by 
which makes sense, help you meet your goals, and save the 
funds, we certainly would like to have you give that very, very 
serious consideration.
    General, anything you might want to add to that?
    General Schwartz. Sir, we are doing just exactly that, and 
we'll be bringing the conclusions of our work to the attention 
of the more senior people in the department within days.
    Senator Coats. Good. Well, I've always tried to be 
supportive, whether it's base closings or anything else, in 
terms of the most cost-effective efficient military, and would 
be happy to work with you on that. And I thank you very much 
for your response.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you, Senator Coats.
    Senator Johnson.

                    STATEMENT OF SENATOR TIM JOHNSON

    Senator Johnson. Secretary Donley, General Schwartz, thank 
you, and welcome, for being here today.
    Secretary, the Air National Guard is a cost-effective force 
of experienced airmen. Given our difficult fiscal situation, 
why does the budget request propose disproportionate cuts in 
aircraft and manpower for the Air National Guard?
    Mr. Donley. Sir, the adjustments in our manpower were 
driven by adjustments in the force structure itself, and the 
fighter force structure, and in the mobility force structure. 
Those changes were prompted by the adjustments and strategic 
guidance that we received that asked us to reorient 
geographically toward, certainly, the sustaining missions in 
the Middle East, but also look more carefully at Pacific 
priorities, going forward, and recognizing that the overall 
size of the ground forces are going down.
    So, the force structure adjustments that we proposed were 
connected to those strategic judgments and the direction from 
the department that we could take additional risk in the 
fighter force structure. And as we looked at the fighter force 
structure and the mobility force structure as well, the key 
issues for us were how to develop on a total force basis the 
right balance between Active and Reserve component 
capabilities. Not just to husband reserve capabilities, as a 
strategic reserve back in the United States, but on a total 
force basis, how to integrate the Reserve components and the 
Active forces with the ongoing commitments of the United States 
Air Force 24/7, 365, and also to be able to meet surge and 
sustaining requirements. And this is what brought a closer 
attention to the Active and Reserve balance.
    The size of our Air Force now is so small, as a result of 
the proposals that we're making here, we will be the size of 
the Air Force in 1947, when this Air Force was first created, 
on the Active-Duty side. So, as we go forward together, our 
Reserve and Active components have to be more closely 
integrated, and we can't get either side of this out of balance 
going forward.
    I'd ask the Chief to add to this.
    General Schwartz. The only thing I would add to the 
Secretary's comments is one of the principle considerations was 
what will the activity level be for deployment requirements 
that's both rotational and potential surge contingency 
requirements. And with a smaller force, you have to assure that 
you can spread that activity level properly across the entire 
inventory, and that suggested that we needed to get the balance 
so that the Active Duty would not be more busy than what we 
call a deploy-to-dwell ratio of 1 to 2. In other words, 6 
months deployed, 1 year home, and for the Reserves, not less 
than 1 to 4, ideally 1 to 5. And the reason is, if we overuse 
any of these components, especially when the economy turns up, 
we will end up in a situation where Active Duty will not stay 
with us, and on the Guard and Reserve side, perhaps employers, 
and family members, and so on will see the activity level on 
the Guard side as too active-duty like. And so, this was trying 
to get the mix right, so that we could maintain the anticipated 
activity level without overusing either of the components, Sir.
    Senator Johnson. General Schwartz, we look forward to 
hosting you at Ellsworth Air Force Base in May to celebrate the 
70th anniversary of the base. Ellsworth has a proud history and 
will continue to play an important role for the Air Force.
    Looking to the future, is the Air Force close to issuing 
the record of decision on the Powder River Training Complex?
    General Schwartz. Yes, Sir, we are. We got numerous 
comments from all interested parties on the environmental 
impact statement, some of which were not favorable. So, we took 
a brief pause to digest those comments and make sure that the 
requirements that we had were appropriate and justified. We 
have concluded that work, so the record of decision is 
imminent, and we will publish that in the appropriate fashion, 
Sir.
    Senator Johnson. Thank you.

                       C-130 MOVE FROM FORT WORTH

    Chairman Inouye. Thank you very much.
    Senator Hutchison.

               STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Thank you, Mr. Chairman, and thank you, 
Mr. Secretary and General Schwartz.
    Many of us were stunned about the plan that you have to 
remove eight of the C-130s from the Fort Worth Joint Base, from 
the 136th Airlift Wing, and to move those to Great Falls, 
Montana. That 136th has been crucial for the evacuation of 
victims of hurricanes and storms. In fact, all five Governors 
of States on the gulf coast sent a letter to the President, 
strongly asking that this relocation not occur. They said, 
``Losing the C-130s takes away a powerful airlift asset for 
saving the lives of Gulf Coast State citizens.''
    Now, these are Governors who have relied heavily on the 
136th Airlift Wing in response to Hurricanes Gustav and Ike, in 
2008, Dean in 2007, and Hurricanes Katrina, Rita, and Wilma in 
2005. In fact, the 136th has flown 423 sorties in response to 
storms, have safely evacuated more than 3,000 victims, and 
delivered 939 tons of emergency aid. So, there will be no Guard 
C-130s on the entire gulf coast, which we know is one of the 
key places where hurricanes certainly hit, but we also have 
tornado alley in that area.
    In addition to that, General Schwartz, the Air Force has 
requested a $3 million earmark in fiscal year 2013 for 
operations and maintenance to fund a temporary shelter for 
these C-130s in Montana. The Air Force has also requested $20 
million in military construction funding for fiscal year 2014 
for conversion of facilities from F-15 to C-130s. The DOD said 
in the request that the C-130s cannot fit inside the current 
hangar and perform maintenance, thus negatively impacting the 
C-130 mission.
    Until this proposed project is completed, the lack of a 
fuel cell control facility will also cause maintenance delays, 
forcing fuel cell work to be done on the ramp in harsh winter 
conditions. You responded, General Schwartz, to Congresswoman 
Kay Granger in a March 6 hearing that the Air Force has not yet 
completed all the work on this.
    I'm hoping you're going to say today that it is still being 
assessed and possibly for a rethinking of this kind of a 
transfer, when these have been so vital to an area that is, 
really, the area of the country that has the most disasters and 
emergency needs, and this 136th is specifically trained to be 
the immediate response for these Governors that use the Wing.
    So, my question is: Are you reconsidering, and if not, why 
not?
    General Schwartz. The short answer is yes, we are. In fact, 
part of the Council of Governors' proposal was an adjustment to 
our original recommendations. So, as the Secretary indicated, 
it certainly is under consideration.
    I would only offer this context, though. While it is true 
that there are no Air National Guard C-130s in the gulf 
region----
    Senator Hutchison. There are Reserves.
    General Schwartz [continuing]. There are numerous other C-
130s.
    Senator Hutchison. Yes.
    General Schwartz. Both Active Duty and Reserve. And that 
the fiscal year 2012 National Defense Authorization Act enables 
the Active Duty now to provide support to civil authority much 
like the interstate compacts that exist, you know, between the 
States for title 32 application of the Air National Guard.
    Nonetheless, the short answer to your question is yes, it 
certainly is under consideration, and for some of the reasons 
you mentioned, and others as well.
    Senator Hutchison. Did you have a comment, Mr. Secretary?
    Mr. Donley. I just wanted to reinforce that yes, we are 
looking at this in the context of the Council of Governors' 
proposal, but to reiterate, as we go forward, and the military 
becomes stronger, we need to think about the most efficient use 
of our Armed Forces across components. And we know this has 
been an issue for the Guard. But in the gulf region, we have 
Active, Guard, and Reserve airlift. We have about 100 either C-
130-like or helicopter-like capabilities that are available. 
And we have done the analysis on support to hurricanes and 
tropical storms on the gulf coast. And the numbers show that 
the Active Duty actually ends up flying in support of the 
States, and the Federal disaster support planes have flown 
fully one-half or more of those kinds of missions. So, we are, 
as a total Air Force, available to support the Governors' 
needs, when there is a natural disaster.
    Senator Hutchison. Well, let me just say that I do think 
that the guard is the immediate call, that is, all of the 
training with the Governors is guard, and they have been very 
successful, and immediate. They give the immediate response.
    And second, as the former chairman and ranking member, with 
my colleague, Senator Feinstein, of the Military Construction 
Committee, I know that when you have facilities, and then you 
talk about moving, and constructing all new facilities, really, 
because they're not prepared for it, and then you have the 
operations and maintenance increase, I just would hope you'd 
look at the efficiencies there, where you've got the support at 
the joint base, also a part of the policies of the DOD to have 
joint bases that are more efficient. It's a Navy lead base, but 
Air Force has both fighter wings, as you know, a fighter wing, 
as well as the C-130.
    So, I'm just saying it's hard for me to see an efficiency 
argument here, when if it ain't broke, don't fix it sort of 
attitude. So I'm hoping you will reconsider, for whatever 
reasons that are the right reasons, and keep this very vital 
asset where it's performed so well. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Feinstein.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you very much, Mr. Chairman. If I 
may, gentlemen, I'd like to follow-up on Senator Hutchison's 
question, because it also affects Fresno, California, and the 
144th. It's my understanding that F-16s are being replaced with 
F-15s. Is that transfer on course, General?
    General Schwartz. It is, Ma'am.
    Senator Feinstein. And will the 144th remain?
    General Schwartz. It will, with the new F-15 equipage.
    Senator Feinstein. So, in terms of Fresno, which is a 
community that is very upset about it, it will be a 
substitution, and as far as the community is concerned, there 
will be a continuation.

                   F-16 TO F-15 CONVERSION AT FRESNO

    General Schwartz. The Air Sovereignty Mission, which the 
wing has performed from Fresno, will continue, except with F-
15s vice F-16s, which, frankly, are a better fit for that 
particular mission.
    Senator Feinstein. Well, that is your department, and if 
you say so, I'm certainly not one to contest that. As long as 
that feature remains in place, that's excellent.
    Secretary Donley, I wanted to ask you, on page 19, in your 
written testimony, and I'm sorry, I missed your oral testimony, 
you make this statement, ``The Air Force must procure our space 
systems at the lowest cost possible, while providing assured 
access to space.'' That's a direct quote. I'm very concerned 
that this is not the case, that with the United Launch Alliance 
(ULA) contract, details of which are apparently not put out, 
that there is no competitive bidding, and that there is a 
company, a California company, that could competitively bid, 
come 2014, and reduce the per-unit cost per ULA booster core 
from $420 million to $60 million, over a contract term; 
therefore, saving literally billions of dollars.
    The rockets are all produced in this country, rather than 
one-half of the rockets being produced outside the country, 
from the joint venture between the two big aerospace companies.
    I have felt this way in the Energy and Water Development 
Subcommittee. I chair that subcommittee, and we've had this 
problem with small nuclear reactors being limited, just the two 
big ones for licensing help. I see the same thing happening 
here. Instead of being able to open the process for 
competition, the big companies are chosen, and it's a long 
contract. And I understand they tell you, well, if we don't 
have the long lead, the price will go up. But then you have a 
company, relatively new, have done a lot of testing, has other 
contracts, would like to participate, and cannot.
    Could you respond to that?

             EVOLVED EXPENDABLE LAUNCH VEHICLE COMPETITION

    Mr. Donley. Absolutely, Senator. I think we have a good 
site picture here for space launch. We have been concerned 
about the cost of the Evolved Expendable Launch Vehicle (EELV) 
program and ULA's performance. We believe we've been paying 
more than we need to for space launch.
    The flipside is that we've had a string of successful 
launches, and we have repaired some of the previous problems 
and issues we had with assured access to space, and lost 
payloads a few years back. So, this has been a long, very 
focused effort to develop assured access, and to increase the 
reliability and sustain the reliability of space launch.
    Now, we're at a point where we've achieved that with the 
EELV, but we'd like to get a better price for that work. So, 
we've had a should-cost study completed and other studies under 
way for some period of time, to better understand the cost 
basis of the EELV contract, and to renegotiate that contract 
going forward. And we are in the process of doing that. We will 
have an acquisition strategy ready later this spring that 
provides more flexibility for the government, and we think 
better savings for the taxpayer.
    [The information follows:]

    The Air Force plans to release a request for proposal that will 
help properly inform the Government decision on the quantity and length 
of the first phase; and then award a contract based on analysis of the 
most advantageous approach to the Government. The Air Force has not 
determined a final quantity or duration for the contract starting in 
fiscal year 2013. The Air Force believes it is essential to have more 
fidelity in the Evolved Expendable Launch Vehicle (EELV) pricing 
strategy before making a long-term contractual agreement. In order to 
validate the most advantageous production rate and commitment period, 
and to use maximum leverage in negotiations, the government will 
require the contractor to propose a range of fixed prices for various 
rate and commitment options. The decision on the specific contractual 
commitment will be balanced among price, operational requirements, 
budget realities (including all fiscal law constraints), and potential 
for competition. Requirements above the contract commitment will be met 
through a full-and-open competition among all certified providers. 
While United Launch Alliance is currently the only responsible source 
certified to launch EELV class payloads, research indicates there are 
potential new entrants; however, the earliest timeframe to meet all 
EELV-class launch requirements appears to be fiscal year 2016-2017.
    In order to facilitate the certification of potential New Entrants, 
the Air Force has identified two opportunities that providers may bid 
on--the Deep Space Climate Observatory mission (currently scheduled for 
late fiscal year 2014) and the Space Test Program-2 mission (currently 
scheduled for late fiscal year 2015), which were funded by the Congress 
in fiscal year 2012. These EELV-class missions have a higher risk 
tolerance and will provide an opportunity for potential New Entrants to 
prove their capability for certification.
    When the phase I block buy expires, assuming new entrants are 
certified, we will have a full and open competition for launch services 
for the second Phase.

    Mr. Donley. At the same time we're working on the EELV side 
we've been working with National Aeronautics and Space 
Administration (NASA) and the National Reconnaissance Office 
(NRO) to develop a joint process through which new entrants 
into the space launch business gets certified by having 
opportunities to fly DOD payloads or other Government payloads 
of perhaps lower risk or lesser value, in order to prove out 
the reliability of their systems.
    And so, we agreed at the end of last year on new entrant 
certification criteria. We have a process for doing that. In 
fiscal year 2012, we will go out on contract for two payloads 
that are being set aside for the new entrants, and so that work 
will continue through this spring. But, our objective is to get 
the cost of EELV down, and to bring in new competitors into 
space launch that will help to continue to provide more 
competition in this area.
    Senator Feinstein. Well, I thank you for that answer. I 
just need time to analyze exactly what it means. Let me just go 
to basics. You know what I'm talking about. Will SpaceX be able 
to compete?
    Mr. Donley. I believe we've addressed the issues raised by 
the new entrants, including SpaceX, in the work that we've done 
over the last year. So, I think there is an open path, and I 
believe SpaceX and the other new entrants understand the 
opportunities available, and what they will need to do to be 
certified for EELV class launches in the future, so we can 
bring competition into this work.
    Senator Feinstein. And when would that competition begin? 
When would the first year be when a new company can compete?
    Mr. Donley. Well, the initial work this year is to identify 
less-risk, lower-value payloads for these new entrants to 
demonstrate their launch capabilities. And that will happen 
this year. Those launches, I believe, are scheduled for 2014 
and 2015. So, this has to play out over a few years.
    Senator Feinstein. Okay.
    Mr. Donley. That work is under way.
    Senator Feinstein. Let me ask you specifically. In 2014 and 
2015, will there be an open competition?
    Mr. Donley. Let me get back to you on the record for that, 
because we do not have a predictable path for exactly when the 
new entrants will be certified. And we have not yet completed 
the acquisition strategy for EELV, going forward. Although, 
it's our intent to build into that acquisition strategy the 
flexibility for the Government to determine at what point 
competition comes in.
    Senator Feinstein. Right.
    Mr. Donley. So, there's some unknowns here.
    Senator Feinstein. Well, I really appreciate that, Mr. 
Secretary. And what I'm told is, and this may be wrong, that 
they're under the impression they cannot compete for the rest 
of the decade. That's tragic, because it could be, I'm not 
saying it would be, but it could be a savings of many billion 
dollars, if they're competitive.
    Mr. Donley. So we'll continue to look.
    Senator Feinstein. All right. I appreciate that. General, 
would you like to make a comment?
    General Schwartz. Just quickly, Ma'am. And the Secretary is 
the real expert here, but two important points. There are two 
payloads that the new entrants will have an opportunity to fly. 
That's the Discover mission and the Space Test Program II 
payload.
    The bottom line here, from my point-of-view, is I don't 
want to put a $1.5 or $2 billion satellite atop a rocket for 
the first flight. I think it's important for us to manage risk. 
We would do the same thing on the air-breathing side. So, this 
needs to be done in a deliberate way, where the new entrants 
demonstrate the reliability of their platform so we can get 
that $2 billion satellite into orbit.
    Senator Feinstein. I think I understand. I'm trying to 
understand. Again, my interest is a competition, where 
everybody can compete, and the Government can hopefully save 
some money. So, Mr. Secretary, I appreciate your comments, and 
I trust we can stay in communication, and you'll let me know.
    Mr. Donley. Absolutely.
    Senator Feinstein. Thank you very much. Thank you, Mr. 
Chairman.

                         EIELSON AIR FORCE BASE

    Chairman Inouye. Thank you.
    Senator Murkowski.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Secretary, General, thank you for being with us. Your 
leadership greatly appreciated. And General, I thank you for 
your recent visit to the interior of Alaska. As we discussed 
with community leaders, the proposal to move the F-16 aggressor 
squadron from Eielson Air Force Base (AFB), we know that we've 
kind of seen this movie before, that this was suggested back in 
the 2005 base realignment and closure (BRAC), a great deal of 
discussion, ultimately, that the decision was made not to move 
that aggressor squadron. Now, the proposal is before us again.
    I know that you have seen the chart there that demonstrates 
Alaska's geographic position in the world. In fact, I think you 
probably had that in your office when you were in Alaska, so I 
don't need to speak to that. But, I still have a very difficult 
time understanding a proposal that would somehow possibly 
decrease our presence in Alaska, when the administration says 
that we're going to focus our attention on the Asia and the 
Pacific.
    And I continue to press for the answer from the Air Force 
as to its intentions with Eielson AFB to continue that 
installation as a fully functioning base that allows the 168th 
Air Refueling Wing to fully conduct its critical refueling 
mission as part of the administration's Asia-Pacific focus. I 
guess I would like to hear that assurance that Eielson AFB will 
continue in that very, very significant role, and would ask a 
series of questions then, in terms of what we might anticipate 
with the site survey, going forward.
    General Schwartz, I have sent a letter asking that with 
this site survey that will be conducted, I understand now in 
April that the team include a general officer and also a 
provision to consult with the Alaska National Guard, since the 
plans there at Eielson AFB will significantly impact this 24-
hour, 365-day-a-year refueling mission with the Guard.
    So, I'm wondering where we are on that request with the 
site survey coming forward, and again, a reaffirmation of that 
very critical role that Eielson AFB has historically played for 
the Air Force.
    General Schwartz. Yes, Ma'am. Clearly, the intent is to 
support in its entirety the 168th mission and not just the 
168th. But there are other activities at Eielson AFB, the 
Arctic Training School, and so on, and so forth, that will 
continue, and will not be diminished by the relocation of the 
F-16s or the associated reduction of base operating support 
that's tied to that relocation.
    I can't commit today to a flag officer for the survey, but 
clearly, the interaction will include the Guard and all other 
stakeholders that have an interest, obviously, in Eielson AFB.
    And, Ma'am, as you know, not only is Eielson AFB the home 
for the 168th, it is the access point for the range area just 
to the west, and so on. And that will continue to be the case. 
And 23 million gallons of jet aviation fuel stored there is a 
significant asset that clearly is in the back of our mind 
continuously, especially with the new emphasis and the strategy 
on the Asia-Pacific.
    Senator Murkowski. Well, let me ask you about the cost 
savings. And again, I remind all that we've looked at this once 
and determined that the cost savings were simply not going to 
be there.
    The proposal to move the squadron from Eielson AFB down to 
Elmendorf Air Force Base is one that I think is somewhat 
problematic. We've got, currently, at Joint Base Elmendorf-
Richardson (JBER), about 400 soldiers that are already in 
temporary barracks. So, by relocating significant number of 
airmen and their families down into that area, I want to know 
whether or not we have determined what the cost to house these 
new airmen at JBER would be, how and when we would fund that, 
because as you indicated when you were in Alaska, this proposal 
would move forward next summer.
    What level of analysis has been conducted to date with 
regards to the accommodations at JBER? Not only with the 
housing, but the additional infrastructure that may be 
required.
    General Schwartz. As you know, Ma'am, we did not do a site 
survey, and that's the purpose of the undertaking that will go 
off, I think it starts the 6th of April, specifically. But the 
key thing here is that, as you're well aware, there used to be 
three flying squadrons at Elmendorf AFB, and there are two now. 
And in looking at the tabletop level, at the facilities on 
Elmendorf AFB, the conclusion was that both for maintenance and 
ops, and base support, that it was possible to reabsorb a third 
squadron and to do that efficiently. With regard to military 
family housing and/or dormitory space, that is a specific 
output from the survey team on the ground, and clearly, they 
will give us very precise insights in that regard.

              JOINT BASE ELMENDORF ENVIRONMENTAL ANALYSIS

    Senator Murkowski. Would moving the F-16s from Eielson AFB 
to JBER require either an environmental analysis or an 
environmental impact statement (EIS)? And if so, do we have any 
handle on what that cost might be? And then, again, how we deal 
with the funding and the timing again of all of this, if the 
Air Force is to move forward with the proposal as it is on the 
table now.
    General Schwartz. Given that the most current environmental 
impact for Elmendorf AFB was addressed at the three-squadron 
level, the presumption was that it would not require a follow-
on study. That, again, is another output from the survey team 
to confirm that that is, in fact, the case. And so, again, this 
2-week effort coming up next month is important in lots of 
dimensions.
    Senator Murkowski. Well, I would certainly concur with 
that. And again, I would repeat my request, that you consider 
sending a general officer as part of that site survey. I think 
we recognize that it's not just looking at the ledger, the 
balance sheet there, from a cost analysis, it is incorporating 
so many of those intangibles that I think is important. The 
strategic asset that we have up north, sometimes that doesn't 
necessarily fit into those neat boxes, as you do a cost benefit 
analysis. And having that level of oversight, I think, would 
allow for greater comfort with the process, and, hopefully, a 
greater transparency with that. So, I would hope that you would 
consider this. We're looking at it, again, with a great deal of 
anxiety for the interior, but we need to know that we can work 
with you on that.
    Thank you, Mr. Chairman. I know that my time is expired, 
and we've got a vote, I understand. So, thank you. And thank 
you, gentlemen.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. Thank you very much. Mr. Secretary and 
General Schwartz, on behalf of the subcommittee, I thank you 
very much for your service to our Nation and for your 
testimony, and we look forward to working with you in the 
coming months.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
        Questions Submitted to Secretary Michael B. Donley and 
                       General Norton A. Schwartz
               Questions Submitted by Senator Tom Harkin
    Question. What cost-benefit analysis was done by the Air Force to 
determine the savings achieved by closing or reassigning Air National 
Guard and Air Force Reserve units versus Active-Duty Air Force units? I 
understand that different types of units have different fixed costs, so 
if this question needs to be narrowed down, what is the difference in 
cost, over the course of a 5-year cycle, of different types of F-16 
wings?
    Answer. While cost savings are part of the decisionmaking process, 
the most important factor is the Air Force's ability to provide the 
capabilities required by the new Defense Strategic Guidance, 
``Sustaining U.S. Global Leadership: Priorities for 21st Century 
Defense''. This new strategy directs the services to build a leaner, 
more flexible, and technologically advanced force. As a result, the Air 
Force is rebalancing our Total Force to match the capability and 
capacity requirements of the new guidance. The proposed Reserve 
component force structure reductions were determined using a deliberate 
and collaborative process which leveraged careful analytical review of 
warfighting scenarios consistent with the new strategic guidance. Two 
decades of military end strength and force structure reductions in our 
Active-Duty component have changed the Active and Reserve component 
mix, and achieving the appropriate Active and Reserve component mix is 
critical to sustaining Air Force capabilities for forward presence and 
rapid response, as well as meeting high-rate rotational demands with a 
smaller force. Therefore, the Air Force did not believe a cost-benefit 
analysis between the Active and Reserve components for the different 
types of F-16 wings is warranted.
    However, the component mix had to be determined based on the 
``availability rate'' of the two components. As I had recently stated 
to the Air Force Reserve Senior Leaders Conference, ``We place an 
enormous value on the experience provided by the Reserve component, but 
we don't want to shift the warfighting burden to a part-time force. 
This isn't what [the Reserve component] signed up for . . . as we plan 
our Total Force mix, we keep the components' contributions and 
commitments in mind and look to size our Active, Guard, and Reserve 
forces so they can meet their respective roles. If our Active component 
is too small to meet its demands, then we put our Guard and Reserve 
forces in the position of breaking other commitments to employers, 
communities, and families. Alternatively, if our Active component is 
too large, then we would not be taking advantage of the benefits that 
our Guard and Reserve forces have to offer.''
    Question. When conducting a cost-benefit analysis of the costs of 
an Active-Duty Air Force wing versus an Air National Guard or Air 
Reserve wing, do you consider costs that may not be reflected in 
personnel or operations and maintenance costs? For instance, are the 
costs of maintaining on-base housing for Active-Duty units included in 
this analysis? Are the costs of maintaining Department of Defense 
schools for children of airmen to attend included? Are the long-term 
costs of retirement and TRICARE-for-life benefits included?
    Answer. When determining the costs of operating a wing, regardless 
of component, the Air Force accounts for costs outside of personnel and 
operations and maintenance. For instance, the costs of facility 
sustainment, restoration, and modernization are included in any 
analysis. Base operations support costs are also considered. These 
costs include communications infrastructure support and maintenance, 
ground fuels and transportation shipping, contract services, and 
utilities. With regard to housing, the Air Force evaluates the cost of 
operating and maintaining on-base units and Basic Allowance for Housing 
for members not using on-base units. Medical and retirement costs are 
part of our personnel costs.
    Question. What is the annual cost to man, operate and maintain of 
each United States Air Forces in Europe (USAFE) installation? Can you 
compare that to a comparable number of Air Combat Command (ACC) and Air 
National Guard (ANG) installations?
    Answer. The Air Force compared three bases from ACC (Seymour 
Johnson, North Carolina; Shaw, South Carolina; and Moody, Georgia), 
USAFE (Aviano, Italy; Lakenheath, United Kingdom; and Mildenhall, 
United Kingdom) and the ANG (Burlington, Vermont; Jacksonville, 
Florida; and Birmingham, Alabama) and used annual operation and 
maintenance obligations from fiscal year 2011, excluding overseas 
contingency operations funding. Military personnel data has also been 
included for fiscal year 2011. Using this methodology, the below table 
is provided:

                          [Dollars in millions]
------------------------------------------------------------------------
                                                Fiscal year    Aircraft
           Command                   Base           2011         PAA
------------------------------------------------------------------------
USAFE........................  Lakenheath.....        439.6           70
ACC..........................  Moody..........        427.0           64
ACC..........................  Seymour Johnson        414.0           87
ACC..........................  Shaw...........        371.4           72
USAFE........................  Aviano.........        366.5           42
USAFE........................  Mildenhall.....        245.0           15
ANG..........................  Jacksonville...         89.3           19
ANG..........................  Birmingham.....         73.8            8
ANG..........................  Burlington.....         72.6           18
------------------------------------------------------------------------

    The Air Force cautions this kind of comparison does not include the 
differences in missions, location, population, mix of officers, 
enlisted, and civilians, host-nation support, and other variables that 
make such a comparison misleading as to the value of each installation 
to the fight. Additionally, it is important to note that costs for 
USAFE's geographically separated units and smaller units are 
consolidated into the financial reporting of their owning main 
operating bases.
    The permanent, forward basing of aircraft in Europe represents a 
key element of our Nation's defense strategic guidance. It avoids the 
costs and disruption of units by implementing a constant rotation of 
aircraft and personnel from the continental United States.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                              global hawk
    Question. Last June, the then Under Secretary of Defense for 
Acquisition, Technology and Logistics, Ashton Carter certified to the 
Congress that the Global Hawk was ``essential to the National 
security''; and ``that there are no alternatives to the program which 
will provide acceptable capability to meet the joint military 
requirement at less cost''. And yet in February of this year, the Air 
Force decided to cancel the program and retire the existing aircraft 
despite an investment of $4 billion. Additionally, my staff was 
informed through Mr. Randall Walden, Director for Information Dominance 
Programs (Office of the Assistant Secretary of the Air Force for 
Acquisition) that you would like to invest another $1.1 billion to 
upgrade U-2 aircraft to keep them flying through 2040.
    Secretary Donley and General Schwartz, how do you explain what has 
changed to cancel this program?
    Answer. Following the Nunn-McCurdy certification in June 2011, a 
reduced requirement where the U-2 is sufficient and a reduced budget 
where the Department could no longer afford to keep investing in RQ-4 
Global Hawk Block 30 drove the divestiture decision resulting in a 
savings of $3.8 billion.
    In September 2011, the Department of Defense (DOD) Joint 
Requirements Oversight Council reviewed recent adjustments in military 
strategy and determined that conventional high-altitude intelligence, 
surveillance, and reconnaissance (ISR) requirements could be reduced. 
The Air Force further determined the U-2, which remains viable until at 
least 2040, was sufficient to meet the reduced requirements. Continued 
increased investment in RQ-4 would be required to field a comparable 
capability to U-2 and was determined to be unaffordable.
    Continued, increased investment in RQ-4 was not warranted given a 
significant reduction in the Department's budget and an alternative 
system, the U-2, is still operationally viable at considerably lower 
total cost over the Future Years Defense Plan (FYDP). Although $3.8 
billion was saved with the decision to divest Global Hawk Block 30, 
$1.3 billion (vice $1.1 billion) was needed to continue to operate and 
sustain the U-2 throughout the FYDP. The net savings to the taxpayer is 
$2.5 billion.
    When the U-2 is employed at its normal operational distance, U-2 
operating costs are comparable to RQ-4 costs. The latest actual costs 
per flying hour data shows that both platforms are operating at $32,000 
per hour.
    Question. The Global Hawk is a multi-imagery aircraft that carries 
Electro Optical/Infra-red (EO/IR), and radar system at all times. 
However, the U-2 is a single imagery aircraft that cannot carry both 
EO/IR and radar sensors at the same time. This seems in conflict with 
your statement regarding the Air Force decision to favor retention of 
multirole platforms over those with more narrowly focused capabilities.
    Do you think the specialized U-2 is the answer to meet our 
Intelligence, Surveillance, and Reconnaissance requirements for the 
next 3\1/2\ decades?
    If you do, how much additional money is required to upgrade and 
sustain these aircraft? How much confidence do you have that an 
aircraft first introduced in 1955 and previously scheduled for 
retirement in 2015 will be able to outperform the Global Hawk?
    Answer. Although an imagery intelligence (IMINT) and signals 
intelligence (SIGINT) sensor cannot be carried simultaneously on a 
single aircraft, the U-2 system is able to perform both missions and is 
considered multirole. In fact, the U-2 is able to currently outperform 
the Block 30 Enhanced Integrated Sensor Suite in image quality at 
range.
    It is true that the U-2 was first introduced in 1955, but the 
``newest'' U-2s were brought into service in 1989 and $1.7 billion of 
investments have been made to modernize the system. The U-2 fleet in 
its current state has been certified to 75,000 flight hours (2040 and 
beyond at current utilization rates). In addition to the new engines in 
1994-1998, the entire fleet has completed new power distribution 
(wiring), 21st century glass cockpit, and modern avionics processor 
upgrades. The U-2s are currently on a 4,000-hour programmed depot 
maintenance cycle included in the budgeted operating costs.
    The divesture of Global Hawk Block 30 saved $3.8 billion across the 
FYDP. Of that savings, $1.3 billion was put back into the U-2 program 
to enable continuation of operations throughout the FYDP. The net 
savings to the taxpayer is $2.5 billion from the divesture of Global 
Hawk Block 30 and addition of sustainment costs for the U-2.
    Question. Given the Air Force is recommending terminating the 
Global Hawk program what confidence do you have that the Block 40 will 
not be canceled next?
    Answer. There is no plan to cancel the Block 40 program. The fiscal 
year 2013 President's budget request funds the Block 40/MP-RTIP program 
($161.9 million research, development, testing, and evaluation (RDT&E) 
and $20.9 million Procurement). The Air Force purchased a total of 11 
Block 40 aircraft through fiscal year 2011 with delivery of the last 
two aircraft in fiscal year 2014.
    Question. The Congress appropriated $322 million for three Block 30 
Global Hawks in fiscal year 2012. What are your intentions with this 
funding? When the fiscal year 2012 Department of Defense appropriations 
bill was signed into law, did you anticipate you would not need these 
aircraft?
    Answer. Pending congressional direction for fiscal year 2013, the 
Air Force does not plan to spend the fiscal year 2012 funding for three 
additional Block 30 aircraft. The Air Force will continue to work 
closely with the committees to determine the best way forward and will 
take no presumptive actions until given direction. When the 
Consolidated Appropriations Act for 2012 (to include the Department of 
Defense) was signed into law on December 23, 2011, the decision on 
whether the fiscal year 2012 funded aircraft were required was being 
reconsidered at lower management levels, but a final decision had not 
been reached.
    Question. What is your assessment of the performance of the Global 
Hawk in combat operations in Libya, Afghanistan, and Iraq and 
humanitarian missions in Japan and Haiti?
    Answer. In Libya, the Global Hawk provided EO/IR and synthetic 
aperture radar and was used in an ISR role with dynamic responsiveness 
due to its enhanced duration/dwell time and the ability to fill gaps 
between other ISR collects. Overall, the Global Hawk was successful in 
Operation Odyssey Dawn. Assessment details can be made available at a 
higher security classification.
    In the U.S. Central Command theater, the Global Hawk continues to 
support the combatant command with both theater and tactical ISR. To 
date, RQ-4 has flown more than 50,000 combat hours, in support of U.S. 
Central Command operations.
    In humanitarian/disaster relief missions, the Global Hawk leveraged 
its range and endurance as an ISR first-responder. Following the Haiti 
earthquake, the Global Hawk executed a response mission in 12 hours, 
effectively providing initial situational awareness, highlighting 
earthquake damage, status of critical infrastructure, and food/aid drop 
zones and indicators of mass population migrations. Eight missions were 
flown, satisfying 2,621 targets.
    In Japan, the Global Hawk capitalized on its range and endurance to 
be overhead in 21 hours. Imagery products were provided to the 
Secretary of State within 40 minutes of request. In addition to 
infrastructure damage assessment, supply route analysis, and real-time 
monitoring of evacuation support, the Global Hawk collection focused on 
the Fukushima nuclear power plant. Because it is a remotely piloted 
aircraft, Japan allowed U.S. Pacific Command to use the Global Hawk 
within the 20 kilometer nuclear engagement zone. Infrared imagery taken 
directly over the top of the reactors allowed engineers to frequently 
monitor core temperature levels. In 21 missions and 300 on-station 
hours, the Global Hawk collected more than 3,000 images.
    Question. Secretary Donley and General Schwartz, in your testimony 
you state that ``There is a compelling need to invest in next-
generation, high-impact systems so that the Air Force can continue to 
provide the capabilities on which our Nation relies. The failure to 
make the proper investments now will imperil the effectiveness of the 
future force and our ability to execute the new strategic guidance for 
decades to come''.
    Secretary Donley, can you tell me how many times you forward 
deployed the U-2 in the past 6 years? How much effort was involved?
    Answer. The U-2 has been forward deployed in support of operations 
in Southwest Asia for the past 22 years, and in the Pacific theater for 
more than 40 years. With the exception of a brief deployment in support 
of disaster relief operations in Haiti, there have been no additional 
forward deployments within the past 6 years. The mechanics of 
establishing our forward deployed location in Southwest Asia proved 
routine as it was similar to other forward deployed operations around 
the world prior to our involvement in that theater, though the initial 
scale of operations dwarfed that of any previous U-2 deployment.
    Question. If the U-2 is to be continued in lieu of the Global Hawk 
Block 30, how will the U-2, locked down on the Korean Peninsula, 
contribute to future operations?
    Answer. The U-2 is not locked down on the Korean Peninsula. We are 
developing a plan to move the U-2 to an alternate location which would 
allow the same collection for U.S. Forces Korea and pick up additional 
missions in the area of responsibility.
    The Air Force retains the ability to deploy U-2 detachments to 
crisis areas as it has done since the aircraft's inception.
    Question. Secretary Donley, given the new defense strategy doesn't 
it seem prudent that we work with STRATCOM, and the Joint Functional 
Component Command for ISR (JFCC-ISR) to develop an ISR architecture to 
determine the appropriate ISR force sizing as it pertains to that 
specific mission set (primarily anti-access/area denial) before we 
start making decisions on where to invest our ISR capabilities or 
investing in extending the life of the U-2?
    Answer. The Joint Requirements Oversight Counsel decision to reduce 
the high-altitude ISR Global Hawk-equivalent orbit requirement was 
informed by Joint Staff analysis in the context of the entire ISR 
portfolio and the emerging Defense Strategic Guidance. Internal Air 
Force deliberations included reviews of JFCC-ISR assessments of U-2 and 
Global Hawk employment in anti-access/anti-denial scenarios, and 
ongoing analysis efforts have validated the course of action taken. In 
sum, multiple independent analytical efforts at various levels within 
the Department of Defense have examined the ISR force structure from a 
broad portfolio view in light of emerging strategic guidance and 
ultimately supported the divestiture decision.
                                 mc-12
    Question. Last year, Senator Barbara Boxer and I wrote letters to 
Secretary Leon E. Panetta and the Chair and Ranking Members of the 
Senate and House Armed Services Committee opposing a provision in the 
Senate Fiscal Year 2012 Defense Authorization bill which would have 
transferred the MC-12 Liberty reconnaissance aircraft from the Air 
Force to the Army. This past December, Senator Boxer and I received a 
response from the Under Secretary of Defense for Intelligence Michael 
Vickers that stated that after a thorough review of current and future 
ISR requirements and recent discussions with the Secretaries of the Air 
Force and Army, Secretary Panetta concluded that the Air Force would 
retain the MC-12 Liberty aircraft. However, only 3 months later, in its 
fiscal year 2013 budget request, the Air Force announced it plans to 
move the MC-12 aircraft to the Air National Guard (ANG) and disperse 
them to four different bases.
    What is the justification for moving these aircraft to the ANG? 
When was this decision made? Was it made after the letter from Under 
Secretary Vickers?
    Answer. The President's and Department of Defense's (DOD) 2012 
Strategic Guidance states the military will defend U.S. territory from 
direct attack by state and non-state actors and come to the assistance 
of domestic civil authorities in the event such defense fails or in 
case of natural disasters, in addition to title 10 overseas military 
operations. This guidance provided the framework the Air Force used to 
conduct an extensive review of the manned medium-altitude ISR 
requirements, to include defense support to civil authorities. Due to 
investment costs to upgrade the RC-26 fleet (11 aircraft), originally 
fielded in the ANG for domestic operations and then adapted for use in 
title 10 operations, the ANG and Air Force collectively determined to 
divest the RC-26 fleet and transfer the MC-12W Liberty to the ANG to 
maintain flexibility across the range of manned, medium-altitude ISR 
requirements.
    The decision to transition the MC-12W to the ANG was captured in 
the fiscal year 2013-2017 Alternate Program Objective Memorandum signed 
by Secretary Donley and General Schwartz and released to the Secretary 
of Defense on August 3, 2011. We are not aware of any specific letter 
from Under Secretary Vickers in regard to the MC-12W. However, Deputy 
Secretary of Defense Carter released a letter to the Chairman and 
Ranking Members of the Armed Services and Appropriation Committees on 
November 21, 2011, and references a discussion Under Secretary Vickers 
and Admiral James A. Winnefeld had with Senate Armed Services Committee 
(SASC) staffers. These officials told the SASC staffers that the 
Secretaries of the Air Force and Army believed that the Air Force was 
the right place for the MC-12Ws to reside.
    Question. Given we have already established the aircraft, support 
equipment, and personnel at Beale this past year would you agree that 
it is fiscally more responsible to retain this capability at Beale and 
not incur the additional costs associated with relocating these 
aircraft and equipment to other various bases?
    Answer. Once the MC-12W transitions, the aircraft returning from 
overseas will be reassigned to four ANG units, but the current MC-12W 
training unit will remain at Beale AFB, California. Since the ANG is 
the DOD's primary provider of domestic operations capabilities, 
retaining all of the MC-12W aircraft at Beale would not provide the ANG 
the ability to quickly respond to civil authorities' requests 
throughout the continental United States.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl
    Question. What is the definition used by the Air Force for a 
``retired member'' as it appears in title 10 of the United States Code?
    Answer. To our knowledge, the term ``retired member'' is not per se 
defined in title 10, United States Code or any Air Force instruction. 
The term has specific meaning depending on the context within which it 
is used. Generally speaking, when the Air Force refers to a ``retired 
member,'' it is referring to either a regular commissioned officer or 
enlisted member who is retired for years of service (10 U.S.C. 8911, 
8914) or mandatory age (example: 10 U.S.C. 1251), or to a member in one 
of the categories that make up the Air Force Retired Reserve. Air Force 
Instruction 36-3209 defines members whose transfer to the Retired 
Reserve is automatic as:
  --Reserve officers who are retired for service under 10 U.S.C. 8911, 
        20 years or more: Regular or Reserve commissioned officers;
  --Members retired for disability under title 10, chapter 61, 
        Retirement or Separation for Disability; and
  --Reserve enlisted members who are retired for service under 10 
        U.S.C. 8914, 20 to 30 years: enlisted members.
    Other members who will be transferred to the Retired Reserve upon 
completion of an AF Form 131 (Application for Transfer to the Retired 
Reserve) include:
  --Reserve members who meet eligibility requirements of 10 U.S.C. 
        12731 except for attainment of age 60;
  --Reserve members who have completed a total of 20 years of honorable 
        service in the Armed Forces;
  --Reserve members who have completed 10 or more years of active 
        Federal commissioned service in the Armed Forces;
  --Reserve members on Extended Active Duty (EAD) who have been found 
        physically disqualified and placed on the Temporary Disability 
        Retirement List (TDRL) or Permanent Disability Retired List 
        (PDRL) as a result of a service connected disability; and
  --Reserve members not on EAD who have been found physically 
        disqualified are discharged, retained or transferred to the 
        Retired Reserve if they apply and meet the requirements 
        outlined in 10 U.S.C. 12731.
    Question. How many members of the Air Force Retired Reserve have 
been recalled by the Air Force to Active Duty under 10 U.S.C. 688a?
    Answer. Eighty-two Retired Reserve officers were recalled and 
voluntarily returned to Active Duty under 10 U.S.C. 688a via the 
Retired Rated Officer Recall Program. Sixty-two of these officers are 
still on active duty serving out their recall contract as of March 29, 
2012. Twenty have completed their contracts and returned to retired 
status.
    Question. Of those recalled to Active Duty under 10 U.S.C. 688a, 
how many are currently on the Inactive Status List established by 10 
U.S.C. 12735?
    Answer. There are currently three members who have completed their 
Active-Duty tours under 688a and are now assigned to the Retired 
Reserve awaiting pay at age 60 under 10 U.S.C. 12735. Additionally, two 
other members recalled to active duty are in the process of 
transferring back to the Retired Reserve. Once those two members have 
been processed, it will bring the total to five.
    Question. Does the Air Force have a policy to activate members of 
the Air Force Retired Reserve in a manner that allows the member to be 
eligible for early retirement credit authorized by section 647 of 
Public Law 110-181?
    Answer. The Air Force has a policy to activate members of an Air 
Force Reserve component, with the consent of the member, in a manner 
that allows the member to be eligible for early retirement credit 
authorized by section 647 of Public Law 110-181. The Voluntary Limited 
Period Call to Extended Active Duty activates members of the Reserve 
components for extended active duty under title 10, U.S.C., section 
12301(d) which is qualifying active-duty service authorized by section 
647 of Public Law 110-181.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson
    Question. Secretary Donley, several years ago the Air Force created 
the Alternative Fuels Certification Office (AFCO) to certify 
alternative fuels for use in military aircraft. To date, that office 
has tested and certified fuels that convert coal, natural gas, or 
biomass into jet fuel. AFCO followed up that work by testing and 
certifying hydrotreated renewable jet fuel, which is derived from bio-
oils and fats. These tests confirmed that these alternative fuels had 
performance characteristics virtually identical to JP-8 petroleum fuel 
and these fuels were certified across all your aircraft platforms.
    The third variety of fuels AFCO has begun to investigate is 
alcohol-to-jet (ATJ) fuels. ATJ fuels hold tremendous promise. They can 
promote our national and energy security, be produced in Rural America, 
and they are almost always cleaner than traditional fuels. The Air 
Force should develop its capability to use these fuels to the fullest 
extent possible, and I urge you to continue this work and fully test 
these promising ATJ fuels. What are the Air Force's intentions to 
complete ATJ fuels testing?
    Answer. The Air Force is focused on increasing and diversifying its 
energy supplies to improve our energy security. Part of this includes 
the testing and certification of alternative aviation fuels, such as a 
50/50 blend of traditional JP-8 and ATJ fuel. The Air Force established 
a two-phase approach for ATJ evaluation. During the first phase, which 
is currently underway, the Air Force purchased test quantities of ATJ 
fuel, and conducted feasibility demonstrations and initial evaluations. 
Phase 2 is fleet-wide certification to fly unrestricted operations 
using an ATJ fuel blend. Based on the results of phase 1, as well as 
funding availability, the Air Force will determine whether to move 
forward with phase 2.
    Question. I'm pleased that this year's budget request maintains the 
current B-1 fleet. Having recently completed its 10,000th combat 
mission, there's no question that this is a valuable aircraft and 
essential to the Air Force's mission. Can you discuss the Air Force's 
plans across the future years defense plan (FYDP) and beyond to keep 
the B-1 fleet relevant and strong even in a time of tighter budgets?
    Answer. There are currently five ongoing efforts to address 
obsolescence and diminishing manufacturing sources (DMS) issues for the 
B-1. The Radar Reliability and Maintainability Improvement Program 
(RMIP) replaces two high-failure rate line replaceable units within the 
B-1 radar subsystem and is expected to yield a 60-percent improvement 
in system reliability. The Inertial Navigation System Replacement 
(INSR) upgrades the B-1's primary navigation system to improve 
maintainability, supportability, and navigation performance. The Gyro 
Stabilization System Replacement (GSSR) replaces high-maintenance, 
high-cost, and high-failure rate components within the B-1's secondary 
navigation system for improved reliability and maintainability. The 
Vertical Situation Display Upgrade (VSDU) is a safety-critical 
modification that addresses DMS issues by replacing obsolete primary 
flight instruments with multifunction displays and adds a second 
display at each pilot station for enhanced situational awareness. 
Central Integrated Test System (CITS) upgrades the current on-board 
fault diagnostic and isolation system through increased memory and 
improved user interface to address maintainability and capacity 
limitations.
    Additionally, one major capability program is ongoing to ensure 
that the B-1 remains relevant into the future. The Fully Integrated 
Data Link (FIDL) provides both Link 16 line-of-sight and Joint Range 
Extension beyond-line-of-sight data link capability to improve combat 
situation awareness and command and control connectivity, replaces rear 
cockpit legacy displays with multi-function displays, and provides the 
Ethernet backbone necessary to integrate FIDL, VSDU, and CITS 
throughout the cockpit. FIDL, VSDU, and CITS are all part of an 
Integrated Battle Station production contract enabling concurrent 
procurement and installation of all three upgrades to reduce 
installation costs, aircraft downtime, and keep fielded aircraft 
configurations to a minimum for aircrew training, maintenance, and 
operational deployment efficiencies.
    In addition to the aforementioned ongoing modernization efforts, 
the fiscal year 2013 President's budget request includes funding for 
two additional efforts that address further aircraft and simulator 
obsolescence concerns. The Self Contained Standby Attitude Indicator 
will replace the current standby attitude indicator, which is 
experiencing a significant spike in maintenance actions and reduced 
mean time between failures, with the new standby instrument providing 
attitude, airspeed, and altitude indications. The Simulator Digital 
Control Loading will replace the current analog control loading system 
responsible for matching simulator stick forces to the aircraft with a 
digital system, improving sustainability and keeping B-1 aircrew 
training devices operational.
    B-1 modernization funding includes $47.4 million for research, 
development, testing, and evaluation (RDT&E) and $704.4 million for 
procurement across the FYDP. The Air Force estimates an additional 
$256.6 million is required to fully fund the current programs of record 
beyond fiscal year 2017 to completion. It is premature at this time to 
speculate on further B-1 modernization beyond the previously described 
upgrades, all of which continue through the fielding of the 60th 
Integrated Battle Station aircraft in 2020. However, the Air Force will 
consider additional B-1 program investments, beyond those already 
programmed within the FYDP, as part of the complete Air Force 
portfolio, within total obligation authority limits, to ensure that the 
B-1 fleet remains viable to support combatant commander requirements 
into the future.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                    light attack support procurement
    Question. Secretary Donley, please provide the subcommittee with an 
update on the Light Attack Support (LAS) procurement. What specific 
issues have you found? When will a final report be available?
    Answer. The LAS contract was originally awarded on December 22, 
2011, to Sierra Nevada Corporation (SNC), but was terminated by the Air 
Force on March 2, 2012, as part of the Air Force's corrective action in 
response to the suit filed by Hawker Beechcraft Defense Corporation 
(HBDC) in the U.S. Court of Federal Claims. The Air Force Service 
Acquisition Executive was not satisfied with the documentation 
supporting the original LAS source selection, prompting termination of 
the contract with the SNC. Additionally, the Commander of Air Force 
Materiel Command ordered a Commander-Directed Investigation (CDI) into 
the LAS contract process on February 27, 2012. Part 1 of the CDI is 
complete focusing solely on the execution of the source selection 
processes and procedures in the original LAS contract. However, release 
of the CDI report would compromise the integrity of the ongoing source 
selection process due to the source selection sensitive information 
contained in the report.
    After studying the circumstances prompting the corrective action 
and facts from the subsequent CDI, the Air Force decided to issue an 
amendment to the LAS request for proposal (RFP) to both offerors. Air 
Force officials met with both original offerors, SNC and HBDC, 
individually, to review the amended RFP changes line-by-line on April 
17, 2012. Both were provided the opportunity to submit comments on the 
draft RFP amendment, after which the Air Force released the final 
amended RFP on May 4, 2012. While the decision process will be event-
driven, the Air Force targets a source selection decision in early 
calendar year 2013. This would allow first aircraft delivery to 
Afghanistan in the third quarter of 2014.
    Question. Secretary Donley, is it Air Force's intention that LAS 
aircraft comply with U.S. weapons, communications, and anthropometric 
standards in order for U.S. Military Personnel and partners to work 
seamlessly?
    Answer. The LAS program is funded by Afghan Security Forces funds 
and provides a light attack capability for Afghanistan. This program is 
specifically for Afghanistan and no plan currently exists to extend the 
platform beyond Afghanistan. There is a requirement within the Afghan 
LAS program for U.S. forces to partner with the Afghan Air Force to 
train and advise them on the system. Although there are advantages to 
U.S. forces being familiar with the LAS platform, this is not an 
absolute requirement. The Air Force will leverage experienced Air Force 
instructor pilots, maintainers and logisticians capable of quickly 
learning the LAS system and then training and advising their Afghan 
counterparts.
    Question. Secretary Donley, can you please describe what 
interaction, if any, has occurred between the U.S. Air Force and the 
U.S. State Department on the LAS procurement? While I understand you 
can only speak on behalf of the Air Force, can you please assure this 
subcommittee that the LAS procurement and the Brazilian FX-2 fighter 
competition are being handled as completely separate matters?
    Answer. The Air Force has maintained the appropriate level of 
coordination with Department of State on this matter. The Air Force 
Foreign Policy Advisor's office has responded to all DOS inquiries and 
provided coordination with the DOS Political-Military Bureau. 
Additionally, following termination of the LAS contract, the Air Force 
Public Affairs (PA) office coordinated with the DOS PA office to assist 
in answering questions from the Government of Brazil.
    As for the Brazilian FX-2 fighter competition, there is no 
connection between the U.S. Government's advocacy for the F/A-18 sale 
and the LAS contract. The programs are not associated in any manner.
                  c-27j versus c-130 operational costs
    Question. General Schwartz, the Air Force plans to terminate the C-
27 program and put already purchased aircraft in storage or find 
another home for them. As an alternative, the Air Force plans to use C-
130 cargo aircraft to provide direct support to Army units. It's my 
understanding the C-27 is already operating cargo missions for our 
ground forces in Afghanistan and that these missions reduce stress on 
Chinook helicopters which are much more expensive to operate per hour 
than either a C-27 or C-130. In addition, these C-27 missions may 
reduce the need for ground convoys which are not only dangerous but 
costly. Considering the flying hour cost of operating a C-130 can be 
more than double the cost of a C-27, what is the total cost of the Air 
Force's proposal and what assurances can you give us that the 
Department has conducted the proper business case analysis that takes 
these costs and risks into account?
    Answer. The Air Force's decision to terminate the C-27J program and 
divest the current fleet of 21 aircraft is based on a number of 
factors--not simply the cost to operate one platform versus another. 
The predominant consideration in our analysis was the reduction in 
overall intra-theater airlift demand and resulting force structure 
requirements attendant to the Department's January 2012 revised 
strategic planning guidance. While our analysis did include a life-
cycle cost comparison between the C-27J and various C-130 variants, the 
operating costs of these platforms were not dominant elements in our 
decision calculus. We elected to divest the C-27J fleet in favor of 
keeping more operationally capable C-130 aircraft that can support the 
full realm of intra-theater airlift requirements, including Army time 
sensitive/mission critical direct support, rather than keeping a 
relatively small fleet of ``niche'' C-27J aircraft that are suited for 
the Army direct support role, and not the full spectrum of conflict.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander
    Question. The greatest threat facing the Arnold Engineering 
Development Center is that the facilities at the base are 50 years old 
and they are reaching the breaking point.
    Although facilities are funded through Military Construction, which 
is not this subcommittee's jurisdiction, the fiscal year 2013 budget 
request for Air Force military construction is only $388 million, down 
from more than $1.2 billion in fiscal year 2012. The Air Force must 
develop a long-term plan to ensure critical testing facilities, like 
Arnold Engineering Development Center in Tennessee, can continue to 
operate. The fiscal year 2013 budget request is inadequate to meet 
infrastructure needs at many facilities, including Arnold.
    Secretary Donley, what specific plan does the Air Force have to 
ensure that Arnold can continue to provide the Air Force with testing 
facilities capable of developing new cutting-edge technologies to 
support future missions without adequate funding?
    Answer. Each year, the Air Force prioritizes their most urgent 
military construction requirements for inclusion in the Air Force's 
military construction portion of the President's Budget. With budget 
constraints, we can only fund the most urgent projects; however, the 
Air Force is committed to sustaining, maintaining, and modernizing our 
physical plants to include facilities at Arnold Engineering Development 
Center. The Air Force did include two military construction projects 
for $26.8 million at Arnold Engineering Development Center in the 
Future Years Defense Program with the fiscal year 2013 President's 
budget submission. Although the Air Force did reduce our military 
construction budget request for fiscal year 2013, our goal is to return 
to historical military construction program funding levels in fiscal 
year 2014 to support the National Military Strategy.

                          [Dollars in millions]
------------------------------------------------------------------------
                           Title                                 Cost
------------------------------------------------------------------------
Power distribution modernization...........................         13.2
ADAL test cell delivery bay................................         13.6
                                                            ------------
      Total................................................         26.8
------------------------------------------------------------------------

    The two projects noted in the table above are in the fiscal year 
2013 President's budget FYDP.
    In addition, we have provided fiscal year 2012 funds for the 
following projects:
  --AEDC Propulsion Wind Tunnel #1 Transformer--$2.1 million;
  --AEDC (National Full-Scale Aerodynamics Complex) 40X Crane 
        Refurbishment--$875,000;
  --AEDC Cooling Tower--$400,000; and
  --AEDC Critical Steam System Supplies--$466,000.
    Question. The USAF has stated publicly that given the downsizing of 
its fleet, it will be required more than ever to utilize technology to 
maintain fleet readiness. Fuel leaks on aircraft are known to severely 
impact the mission capability of aircraft operations. When an aircraft 
does go out of service for fuel leaks, the downtime is an unknown, 
until it is finally successfully repaired (days, weeks, sometimes 
months). The USAF has investigated, evaluated, and approved 
technologies and systems that will reduce the cost and downtime of 
aircraft fuel leak repairs.
    Given these thorough evaluations, does the Air Force have a plan 
for implementing such systems across the Air Force maintenance 
enterprise? And, if not, can you please describe what impediments you 
face for leveraging such a cost saving approach?
    Answer. Our program offices address sustainment challenges in many 
ways. A significant effort required for supporting each weapon system 
is the life-cycle management plan (LCMP). The LCMP fulfills the Federal 
Acquisition Regulation (FAR), Defense FAR Supplement, and Air Force FAR 
Supplement requirements of the acquisition plan and Department of 
Defense Instruction 5000.02 requirements for the acquisition strategy. 
The plans address long-range capability and sustainment efforts. 
Sustainment efforts often consider pacing ``not mission capable'' 
maintenance and ``not mission capable'' supply issues. Recently 
recurring fuel leaks in KC-135 aircraft drove root cause analysis that 
identified the existing aircraft fuel bladders had outlived the repair 
processes. New bladders were ordered and the fuel leaks were reduced.
    Weapon systems are reviewed at recurring intervals during which 
operators, depot managers, and program managers identify and analyze 
system indicators affecting aircraft availability. High maintenance and 
supply drivers are identified and plans are developed to correct or 
prevent recurrence. Often new technology solutions provide the best and 
fastest resolution. Our prime vendors identify numerous new product and 
tooling solutions, but our repair centers, program offices, and flying 
units often discover new technology through vendor demonstration. Of 
course, we follow strict acquisition governance, contracting law, and 
technical validation to ensure the safety of our systems. This is 
especially critical for technology that may apply to multiple weapons 
systems.
    Additionally, the Air Force Research Laboratory is involved with 
new technology identification and validation. Successful programs and 
products are shared across our major commands to improve repair 
capabilities.
    Question. C-17s provide the most advanced strategic airlift 
capability, and it makes sense to locate these aircraft in Memphis 
which has the best cargo facilities and aviation infrastructure in the 
world.
    General Schwartz, the Air Force announced plans to relocate C-17s 
to Memphis. Since Memphis already has all of the facilities in place to 
support the C-17 mission, what is the exact timeline for getting C-17s 
to Memphis?
    Answer. During the development of the fiscal year 2013 President's 
budget submission, the Air Force determined the Tennessee Air National 
Guard's 164th Airlift Wing at Memphis would convert from C-5As to C-
17As, completing an action initiated in fiscal year 2012. Under the 
current plan, Memphis would receive the first four C-17A aircraft in 
fiscal year 2013, with the remaining four aircraft arriving in fiscal 
year 2014. The schedule was planned around the transition between 
missions, accounting for C-5A retirements to make room for the C-17As, 
as well as allow for retraining of aircrew and maintenance personnel. 
Memphis C-5A retirement is planned to complete by the end of fiscal 
year 2014.
    Air Mobility Command will work closely with the Air National Guard 
to ensure the most effective plan is implemented, adjusting the arrival 
plan accordingly based on the specific details of the C-5A retirement 
schedule and progress of C-17A training for Memphis personnel.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
    Question. General Schwartz, you have repeatedly told me that the 
relocation of the 18th Aggressor Squadron to Joint Base Elmendorf-
Richardson (JBER) should not be interpreted as the first step in a 
process that will lead to closure of the base. Would you state for the 
record:
  --whether this remains the case; and
  --what the Air Force's intentions are for the future of Eielson Air 
        Force Base (AFB)?
    Answer. Relocating the 18th Aggressor Squadron to JBER is not a 
precursor to closing Eielson AFB. Eielson remains a valuable strategic 
asset for both homeland defense as well as for power projection into 
the Pacific theater. As such, it will remain the 168th Air Refueling 
Wing's Air National Guard (ANG) home in Alaska and the Red Flag-Alaska 
exercises will remain at Eielson AFB, Alaska. If the Congress 
authorizes the requested base realignment and closure (BRAC) rounds in 
2013 and 2015, the Air Force's proposed force structure changes do not 
pre-suppose what will happen to a particular installation during the 
BRAC analysis. The Department of Defense (DOD) will consider all 
installations equally with military value as the primary consideration.
    Question. Secretary Donley and General Schwartz, would you state 
for the record how you expect that Eielson AFB will contribute to Air 
Force operational objectives and U.S. national security in the coming 
years, with particular emphasis on how the continued operation of 
Eielson AFB supports the United States presence in the Asia/Pacific 
region?
    Answer. Eielson AFB will continue to support key national and Air 
Force priorities in the years ahead, to include Operation Noble Eagle, 
North American Aerospace Defense Command contingency plans, support to 
U.S. Pacific Command, and exercise support in the Joint Pacific Alaska 
Range Complex. The new strategic guidance puts increased emphasis on 
the Pacific Command area of responsibility, including our training and 
exercise efforts.
    Question. It is counterintuitive to believe that the Air Force will 
achieve cost savings or efficiencies by maintaining Eielson AFB in a 
warm status given the relatively high cost of maintaining a warm base 
in a cold place, as was demonstrated to the 2005 BRAC Commission. 
Intuitively it would seem to make more sense to spread the fixed costs 
of operating Eielson AFB among a higher level of year-round activities. 
Is there a flaw in this logic? Has the Air Force considered the 
alternative of achieving efficiencies by relocating activities 
presently conducted in the lower 48 or abroad to Eielson AFB?
    Answer. During the development of the fiscal year 2013 Air Force 
budget request, we were required to make a number of difficult 
decisions to adjust to both our new strategic priorities and to fiscal 
realities. The transfer of the 18th Aggressor Squadron from Eielson AFB 
to JBER in fiscal year 2013 garners manpower and efficiency savings by 
consolidating operations/maintenance supervision overhead and base 
support functions.
    To assign new units to an installation in the future, we will 
utilize the Air Force Strategic Basing process, which uses criteria-
based analysis, and the application of military judgment, linking 
mission, and combatant commander requirements to installation 
attributes to identify locations that are best suited to support any 
given mission. The results of this analysis will be used to inform the 
basing decisions made by the Secretary and Chief of Staff of the Air 
Force. Eielson AFB will be considered in future basing actions as 
defined by the respective basing criteria.
    Question. The Air Force has a plan to relocate the 18th Aggressor 
Squadron in 2013 and reduce the scale of year-round operations at 
Eielson AFB in subsequent years while maintaining year-round operations 
of the 168th Refueling Squadron and other tenants, including the Joint 
Mobility Center. Would you estimate with specificity how much money the 
Air Force intends to save if this plan is implemented and how these 
savings will be achieved, e.g., how much would be saved by reduction of 
personnel, reduction of utility costs, closure and/or demolition of 
base facilities, deferred maintenance, et cetera?

  WHAT ARE THE ESTIMATED COST SAVINGS IN FISCAL YEARS 2013, 2014, 2015,
                             2016, AND 2017?
                          [Dollars in millions]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
Fiscal year:
    2013...................................................          3.5
    2014...................................................          6.9
    2015...................................................         34.3
    2016...................................................         61.8
    2017...................................................         63
------------------------------------------------------------------------

    The chart above was provided to Senator Mark Begich and shared with 
his colleagues on the Alaska congressional delegation and depicts the 
savings that the Air Force expects to realize through implementation of 
its plan for Eielson AFB. It does not, however, explain specifically 
how these numbers will be achieved or what data sources the Air Force 
relied upon in making this prediction.
    Answer. The transfer of the 18th Aggressor Squadron from Eielson 
AFB to JBER in fiscal year 2013 garners manpower and efficiency savings 
by consolidating operations/maintenance supervision overhead and base 
support functions. Estimated cost savings are $3.5 million for fiscal 
year 2013 and $169.5 million across the future years defense program. 
The estimates are based primarily on eliminating manpower 
authorizations the U.S. Pacific Air Forces Command analysis determined 
were no longer needed at Eielson AFB once the 18th Aggressor Squadron 
relocates. However, sufficient capability will remain in-place at 
Eielson AFB to support the 168th Air Refueling Wing, exercises, and our 
Joint partners at Fort Wainwright. Headquarters U.S. Pacific Air Forces 
Command's Eielson/Joint Base Elmendorf-Richardson Site Activation Task 
Force will determine other savings from the proposed relocation. The 
Air Staff is currently validating the results from the Site Activation 
Task Force Report dated May 31, 2012.
    Question. As you know the 2005 BRAC Commission evaluated a scenario 
under which all aircraft other than the KC-135 tankers assigned to the 
168th Refueling Squadron would be removed from Eielson AFB and 
questioned the Air Force's conclusion that significant cost savings and 
efficiencies will be achieved from attempting to maintain a warm base 
in a cold place. Have you satisfied yourself that the 2005 BRAC 
Commission's economic analysis was wrong? Have you taken steps to 
independently ensure that the Air Force staff assumptions are valid and 
have not been biased by a desire to refight and win a battle that was 
lost before the 2005 BRAC Commission?
    Answer. The Air Force stands by its original BRAC recommendation to 
move the Aggressors, but agrees with the Commission's recommendation to 
ensure access to adequate range space. Our current proposal recognizes 
the value of retaining an Aggressor training capability in Alaska to 
support F-22 Raptor training, Red Flag-Alaska, and to leverage the 
Joint Pacific Alaska Range Complex. In addition, the F-16 Aggressor 
move to JBER will co-locate them with the F-22 Raptors, one of the 
Aggressors' training partners and capitalizes on the benefit of 3rd 
Wing facilities that once supported F-15 Eagles.
    Overall, BRAC 2005 fell short of the Air Force's goal to reduce 
overhead and operational costs by reducing excess installation 
capacity. Today, 7 years later and 500 aircraft fewer, the Air Force 
continues to maintain large amounts of excess infrastructure. These are 
dollars we need in other areas.
    We are aware there are other savings opportunities and we will rely 
on the Site Activation Task Force to determine those additional 
savings. We have taken steps to ensure independent review of our 
assumptions underlying the Air Force's proposed force structure changes 
by having the Office of Secretary of Defense's Directorate of Cost 
Assessment and Program Evaluation review and vet our plan.
    Question. Please describe in detail the process by which the 
recommendations pertaining to Eielson AFB were formulated, including 
timeframes and participants, and the key recommendation and decision 
documents through which these recommendations were performed and 
approved. In answering this question, please describe in detail how the 
``tabletop'' exercise was carried out. Did the tabletop participants 
rely to any extent on the data that the Air Force utilized to justify 
its decision to place Eielson AFB on the 2005 BRAC list? What other 
data was considered and how recently was it compiled?
    Answer. The Air Force has taken a deliberate approach to 
streamlining operations at Eielson AFB. From approximately September 
2010 to February 2011, Headquarters Pacific Air Forces studied the 
feasibility of the proposal to move the 18th Aggressors Squadron to 
JBER, Alaska.
    In early 2012, Headquarters Air Force conducted an analysis of 
potential courses of action to determine if a reduction in personnel at 
Eielson AFB was a feasible method of achieving efficiencies in a 
resource-constrained environment while preserving valuable missions. 
Although the majority of facilities will remain open and functional to 
provide rapid operational capability to operational plans and tenant 
units, the analysis demonstrated the Air Force can reduce manpower 
substantially while maintaining support to tenant units and future 
exercises.
    Once the Secretary of the Air Force and Chief of Staff of the Air 
Force approved the relocation of the 18th Aggressor Squadron to JBER as 
part of the fiscal year 2013 President's budget request, Pacific Air 
Forces formed survey teams that are aggressively moving forward to 
finalize all manpower and facility needs to maintain support to the 
168th Air Refueling Wing and other operational requirements.
    The Air Force believes it fully complied with the BRAC statutes 
(title 10, section 2687) for realigning the 18th Aggressor Squadron to 
JBER. Actions occurring at Eielson AFB, are force structure changes and 
do not portend base closure.
    Question. Would the Air Force have any objection to opening its 
files pertaining to the future of Eielson AFB so that the Alaska 
congressional delegation and experts engaged by the State of Alaska and 
the Fairbanks North Star Borough could fully understand and analyze the 
Air Force's analysis and assumptions? If the Air Force is prohibited by 
law from doing so, please state which laws so provide. If the Air Force 
believes that it is imprudent to do so in order to protect its 
deliberative processes or other considerations please explain why 
transparency considerations should not override these concerns.
    Answer. The Air Force is not precluded by law from sharing its 
analysis or assumptions associated with force structure changes at 
Eielson AFB. We shared our plans, including our analysis and 
assumptions, for Eielson AFB in our April 25, 2012, briefing to the 
Alaska delegation. We would like to reiterate that our action does not 
close Eielson AFB and the Air Force remains committed to supporting the 
base with DOD's strategic shift to the U.S. Pacific Command (PACOM). We 
intend to maintain Eielson AFB for its strategic importance as an 
enroute/staging base for PACOM requirements.
    As mission demands evolve and resource constraints emerge, the Air 
Force will continue to stay engaged with our congressional partners to 
provide the most effective and efficient air, space, and cyberspace 
power for the Nation. We look forward to working with you during this 
challenging fiscal environment.
    Question. I remain unclear about whether the Air Force has any 
justification to relocate the 18th Aggressor Squadron to JBER separate 
and apart from its long-term plans to reduce the level of year-round 
operations at Eielson AFB.
    What is the justification for relocating the 18th Aggressor 
Squadron in fiscal year 2013, as opposed to fiscal year 2014 or fiscal 
year 2015?
    Answer. As we looked out at the entire Air Force, it was clear that 
we needed to take an enterprise-wide approach to cut back on overhead 
expenses. Eielson AFB hosts the only wing that has a single operational 
squadron in the active-duty Air Force. Maintaining an entire wing 
overhead structure over a single active-duty squadron was an 
inefficient use of very tight resources. In addition, having the 18th 
Aggressor Squadron collocate with its primary customer, the 3rd Wing's 
F-22s stationed at JBER, is the most efficient operational laydown.
    With this background, the Air Force plans to move the 18th 
Aggressor Squadron, relocating its aircraft and 542 military personnel 
to JBER in fiscal year 2013. This will save the personnel costs 
associated with the 81 Military positions in wing overhead and improve 
its operational interactions with its customers. The fiscal year 2013 
President's budget request also adds 43 Base Operations Support (BOS) 
military positions required to support the aggressors at JBER. With the 
lone active-duty flying operation removed, the Air Force plans to right 
size active-duty personnel for the enduring missions at Eielson AFB, 
significantly reducing manpower costs over the future years defense 
plan (FYDP). In order to ensure sufficient timing for planning, the Air 
Force plans to hold off right-sizing the manpower footprint until 
fiscal year 2015. We project manpower savings alone, starting in fiscal 
year 2013, building to approximately $62 million per year beyond fiscal 
year 2016 for a total savings of $169.5 million over the FYDP. We 
expect further savings to be detailed as we refine the BOS portion of 
the plan.
    To finalize the exact detailed planning associated with moving the 
18th Aggressor Squadron, the Air Force is currently conducting a 
focused Site Activation Task Force (SATAF). This SATAF will 
specifically detail actions needed to move the Aggressors in fiscal 
year 2013. They will complete all necessary detailed planning and 
capture any incidental costs associated with bedding down the 
Aggressors at JBER. They will also determine the JBER unit assignment 
and timeline for the additional BOS personnel associated with moving 
the Aggressors to JBER. Although detailed direct and indirect costs and 
savings with relocating the 18th Aggressors to JBER across the FYDP are 
not available at this time, we believe that the personnel costs savings 
of the entire program will exceed other costs. If we project that 
savings will not be realized, or result in affordability, feasibility 
and executability issues, the Air Force is committed to re-evaluate the 
proposal. Assessing the local economic impact of the movement of the 
18th Aggressor Squadron is outside the purview of the SATAF. The SATAF 
plans for public release of report for moving the 18th Aggressor 
Squadron on or about May 31, 2012.
    The Air Force plan to remove active-duty BOS personnel at Eielson 
AFB in fiscal year 2015 does not affect the BOS for the ANG facilities 
or the remaining active-duty activities at Eielson AFB. In spring 2014, 
the Air Force will conduct an additional SATAF to get the precise 
detail associated with the reduction of Eielson BOS personnel. The Air 
Force will ensure adequate BOS manning for both exercise and ANG's 
168th Air Refueling Wing requirements. The Air Force has planned 
sufficient Air Traffic Control Tower manning at Eielson AFB to provide 
flexible support throughout the week to meet operational mission 
requirements. Base maintenance and support will be accomplished through 
a combination of contract (local hire) and in-house military workforce. 
The 354th Logistic Readiness Squadron will continue to operate and 
maintain the Joint Mobility Center. Eielson AFB will also maintain an 
increment of War Reserve Material to support PACOM's operational plans. 
This SATAF will help determine how best to beddown the remaining 
personnel on Eielson in the most efficient manner, utilizing common use 
infrastructure, dormitories, and Red Flag facilities.
    Question. The Air Force has provided a powerpoint presentation 
detailing the role of the ``site survey'' or ``Site Activation Task 
Force'' team. The powerpoint would lead me to conclude that the role of 
the SATAF team is to determine how to carry out the relocation of the 
18th Aggressor Squadron and other decisions that have already been made 
about Eielson AFB rather than determine whether the assumptions made 
about Eielson AFB in the tabletop exercise are valid. I was led to 
believe in Air Force briefings that the Site Survey team would generate 
information that might address the question of ``whether'' given the 
limitations of the tabletop exercise not just the question of ``how.'' 
Which is the case? Is it within the realm of possibility that the Air 
Force will reconsider its plans for Eielson AFB following submission 
the Site Survey team's report? Does the Air Force intend to brief the 
Alaska congressional delegation on the outcome of the Site Survey and 
provide copies of the team's report for review? If not, why not? Who 
has or will the site survey team consult with in Alaska and within 
other services and DOD? Please detail specifically how the Air Force 
has coordinated with NORTHCOM in recommending these moves, given 
Eielson's role in homeland defense and homeland security.
    Answer. The SATAF is focusing on finalizing the movement of the 
18th Aggressor Squadron to JBER. The SATAF team will out brief the 
Pacific Air Forces' Commander who can provide an out brief to other 
parties, as required.
    Combatant commanders (COCOM) are afforded the opportunity to review 
the Services' Program Objective Memorandums (POM) after the Services 
submit their POM positions to the Office of the Secretary of Defense. 
The 18th Aggressor Squadron's aircraft are training-coded and 
doctrinally, it is the responsibility of the Air Force to align its 
forces in the best possible manner to ensure adequately trained forces 
to fulfill COCOM requirements. During the Fall Program Budget Review, 
U.S. Northern Command reviewed the Air Force's POM position and did not 
express any concerns with the Air Force's Eielson AFB position for 
these training-coded aircraft.
    The proposal to retain the 168th Air Refueling Wing at Eielson AFB 
and maintain the base and runway operating capability while moving the 
training-coded F-16s to JBER is directly tied to the strategic 
importance of this base and this location. The robust training 
capability for Red Flag-Alaska exercises will remain at Eielson AFB and 
is a testament to the quality and capacity for world-class training and 
readiness emphasis which is of particular importance to the Pacific 
theater. While the training-coded Aggressor F-16s are slated to 
relocate to JBER, they will still participate in, and support, these 
large force, Joint and combined exercises the same way the combat-coded 
units at Elmendorf AFB have done for years. The current training and 
readiness focus of effort will remain under the current proposal.
    Question. It has been suggested for some time that the 168th Air 
Refueling Wing would be able to meet a greater percentage of mission 
requirements if additional tankers were assigned and an active 
association were created. Is the Air Force considering this proposal 
and what are the prospects for its approval?
    Answer. Pacific Air Force and the ANG have conducted several 
meetings on the stand-up of a classic association at Eielson AFB. The 
results determined that there was insufficient tanker aircraft and 
manpower to stand-up an association, but more importantly, the commands 
determined that there was sufficient resources in-place to meet 
combatant commander operational and training requirements. However, 
associations are a valuable Total Force tool the Air Force uses to meet 
national security needs. Proposals for new Total Force Integration 
(TFI) associations can be submitted by the National Guard Bureau and 
all the Air Force Major Commands. Once submitted, each proposal 
undergoes a set of reviews before being presented for decision. Each 
proposal is reviewed for legal sufficiency, strength of business case 
and resourcing/funding availability before being presented for final 
Air Force decision. Additionally, this TFI review process is integrated 
with the Air Force Strategic Basing process to ensure all location-
related aspects are consistent with that process. Throughout both the 
TFI and Strategic Basing processes, there is full Active component and 
Reserve component engagement.
    Question. Given JBER's role in the Pacific I was surprised to learn 
that its C-130 lift capacity would be reduced. What is the 
justification for reducing the C-130 lift at JBER and how does this 
relate to the strategic emphasis on Asia and the Pacific? Was this 
reduction coordinated with Alaska's Adjutant General?
    Answer. Defense Strategic Guidance reduced the overall requirement 
for intra-theater airlift. Using scenarios consistent with the revised 
Defense Strategic Guidance, Air Force analysis determined that excess 
capacity exists in the Air Force intra-theater airlift fleet. The Air 
Force's C-130 retirements allow taxpayers to avoid an additional $533 
million in aircraft sustainment bills while still being able to meet 
Pacific Theater requirements.
    The Air Force retains a fleet of 318 C-130 aircraft (134 C-130J, 
184 C-130H) to meet the new strategy within fiscal constraints, and the 
service is maintaining an 8 Primary Aircraft Assigned (PAA) unit at 
JBER to meet worldwide requirements including Asia and the Pacific. The 
Air Force decision to reduce Elmendorf by 4 PAA standardizes the unit's 
aircraft numbers with most other ANG C-130 locations across the 
country, which affords a higher level of uniformity/predictability in 
training, manpower needs, and mission execution.
    The National Guard Bureau represents ANG/State/adjutant general 
interests during Air Force budget deliberations, and they participated 
throughout the development of the fiscal year 2013 President's budget 
request. Although ANG aircraft are being divested, the Alaska ANG is 
not losing any manpower due to this reduction in C-130 aircraft.
    Question. How will the Air Force ensure Eielson AFB remains a fully 
functioning base that allows the 168th Air Refueling Wing to fully 
conduct its 24-hour-per-day, 7-day-per-week, 365-day-per-year, no-fail 
refueling mission in support of the administration's Asia-Pacific 
focus?
    Answer. Headquarters Pacific Air Forces (PACAF) addressed the 168th 
Air Refueling Wing continuous operations requirement by developing a 
manpower baseline for base support that included the 168th Air 
Refueling Wing operations, Red Flag support, Distant Frontier and 
Northern Edge exercises, and potential diverts off the range into 
Eielson AFB. This manpower baseline provides Eielson AFB the 
flexibility to meet requirements beyond 8 a.m.-5 p.m. local as needed. 
PACAF's preliminary plan is for Eielson AFB base support units, 
including base operations and air traffic control, to be a detachment 
of JBER which relies on them for support as needed.
    Question. The movement of the Aggressor Squadron would include the 
relocation of a significant number of airmen and their families, but 
about 400 soldiers at JBER are already in temporary barracks. You have 
indicated the Air Force's plan for housing new airmen at JBER, its 
cost, and when it would be funded is not yet known. You've similarly 
indicated that whether JBER has the infrastructure necessary to house 
and maintain the F-16s and support functions, its cost and when it 
would be funded is not yet known. Please provide me with this 
information as soon as it is available.
    Answer. Because of the Air Force's Force Structure realignment, 
U.S. Pacific Air Forces Command conducted a SATAF at Eielson AFB from 
April 11th to April 13th and at JBER from April 16th to April 18th. 
This SATAF will determine the requirements, such as dormitories and F-
16 support functions, to adequately bed down the relocated Aggressor 
Squadron. Once the housing and infrastructure requirements are refined 
as a part of the SATAF process, and the costs determined, we will 
forward that information to you, along with a timeline.
    Question. You have said the assumption is that neither an 
Environmental Impact Statement (EIS) nor an Environmental Assessment 
(EA) will be needed to move the F-16s to JBER. Since the move would 
involve more planes at a base that already flies multiple types of 
aircraft in a crowded more personnel being stationed at JBER, please 
provide me with the Air Force's final opinion on this matter as soon as 
it is available, as well as an estimate on how much any EA or EIS would 
cost and the timeline for such a review.
    Answer. The most recent National Environmental Policy Act (NEPA) 
document prepared for JBER does not cover adding an additional fighter 
squadron from Eielson AFB. A new NEPA analysis will be required to 
support Air Force proposal to add an additional fighter squadron to 
Eielson AFB and any related alternatives culminating in final decision.
    Headquarters PACAF is working to define the scope of work, 
schedule, and rough cost estimate for an environmental analysis. PACAF 
will also conduct a SATAF survey in April 2012. No aircraft movements 
will take place until the SATAF findings are properly documented, all 
NEPA requirements are completed, and the Congress completes action on 
the fiscal year 2013 President's budget. The Air Force goal is to 
complete environmental assessments within 6 months of study initiation 
and environmental impact statements within 12 months of initiation.
    Question. Hundreds of military personnel from around the globe 
visit Alaska every summer for training. Those troops are housed at 
Eielson AFB, JBER, university campuses, and even in Kodiak. Where would 
they be housed if Eielson AFB became an 8-5 base? What will foreign 
militaries that train in Alaska do if the Aggressor Squadron is moved 
and Eielson AFB becomes an 8-5 base? Please also detail the Air Force's 
plans to support Clear Air Force Station if Eielson AFB becomes an 8/5, 
Monday through Friday base.
    Answer. The Air Force addressed continuous operation at Eielson AFB 
by developing a manpower baseline for base support that includes 168th 
Air Refueling Wing operations, Red Flag support, and Distant Frontier 
and Northern Edge exercises. This manpower baseline provides Eielson 
AFB the flexibility to meet requirements necessary to support the full 
range of assigned missions. The housing of participants for various 
exercises continues as in the past utilizing Eielson AFB, JBER and 
surrounding areas to accommodate the participants. The Aggressor 
squadron is moving from Eielson AFB to JBER to gain efficiencies and 
cost savings, but the Aggressors will still support exercises at Joint 
Pacific Alaska Range Complex.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
    Question. Secretary Donley, as you know, the Common Vertical Lift 
Support Platform (CVLSP) program was terminated in the President's 
fiscal year 2013 budget. This platform was to be the replacement for 
the Air Force UH-1N ``Hueys'' that suffer from shortfalls in lift 
capability, speed survivability, maintainability, night/adverse weather 
capability, and avionics/human factors. The Air Force has stated 
repeatedly that an urgent operational need has existed since 1996 and 
that, as late as last year, was considering invoking the Economy Act of 
1932 to justify a sole source buy to replace the Hueys. Please explain 
to me the rationale and justification for terminating the CVLSP. 
Further, please explain what it's going to cost the taxpayer to 
continue to fly and maintain 40-year-old helicopters that no longer 
satisfy the current operational requirements for this mission.
    Without the acquisition resources available to satisfy this 
``urgent and compelling'' need, has the Air Force considered any more 
affordable alternatives such as leasing aircraft to accomplish this 
mission?
    Answer. The Air Force is taking an acquisition pause to explore 
more cost effective strategies to meet the nuclear security and 
continuity of government missions. We are considering all alternatives 
to address these mission requirements, and no decisions have been made 
at this time.
    Question. Does the Air Force still believe that it needs the same 
size and similarly equipped aircraft to do such dissimilar missions as 
nuclear weapon convoy escort and intercontinental ballistic missiles 
(ICBM) emergency security response in adverse weather conditions and 
the much more benign mission of passenger transport in the National 
Capital Region provided by the 1st Helicopter Squadron at Andrews Air 
Force Base, Maryland?
    Answer. Yes. The Air Force still believes one common helicopter to 
support the nuclear security and National Capital Region missions is 
the best option. Though the missions are different, the resultant 
payload, survivability, situational requirements, and capabilities 
required to accomplish those missions are very similar and allow us to 
use a common platform. In addition, a common helicopter between the two 
missions results in long-term savings and flexibility from an 
operational and sustainment perspective.
    Question. The fiscal year 2012 Department of Defense (DOD) budget 
included $52.8 million in funding for CVLSP, and no money in fiscal 
year 2013. We now understand CVLSP will not go forward, and the USAF 
has instead decided to take used United States Marine Corps (USMC) UH-
1N's destined for the boneyard and use the CVLSP funding to recondition 
these aircraft which are just as unable to meet the requirements as the 
current United States Air Force (USAF) UN-1N's. Isn't that strategy 
throwing good money after bad, and wouldn't it be a better use of the 
$52.8 million CVLSP funding to introduce an aircraft that CAN meet the 
requirements of the mission, even if it is in limited quantities for 
now?
    Answer. The Air Force and DOD have not finalized any plans for 
using the $52.8 million of fiscal year 2012 CVLSP aircraft procurement 
funding. There are no plans to use any of the fiscal year 2012 CVLSP 
funding to recondition the Marine Corps UH-1Ns. Regardless of what the 
Air Force and DOD decide, the Congress would have to approve the 
reprogramming of funds.
    The Air Force still has a requirement to address mission capability 
gaps and replace the UH-1N fleet. We are looking at more cost-effective 
strategies to meet the nuclear security and continuity of government 
missions. In the near term, taking ownership of up to 22 Marine Corps 
UH-1Ns aircraft is a low-cost option to mitigate some mission 
capability gaps, and provide attrition reserve aircraft and spares for 
our current UH-1N fleet. Air Force Global Strike Command and Air Force 
Materiel Command are developing a UH-1N roadmap to determine the best 
options for the use of these aircraft. Any expenses required to ready 
the aircraft for Air Force use will be addressed in future budgets.
    Question. General Schwartz, the Air Force announced plans to cut 86 
active-duty airmen from the McEntire Joint National Guard Base in South 
Carolina. At the same time, the Air Force is creating two associations 
by adding 164 active-duty airmen each to two Air Force Reserve F-16 
wings, one in Texas and the other in Florida. My understanding, 
however, is that these Reserve units are less tasked than McEntire 
(e.g., neither maintain an air alert commitment). Further, the McEntire 
active association has proven highly efficient, cost effective, and is 
about to deploy 18 F-16s to Afghanistan. Why would the Air Force weaken 
the McEntire active association but at the same time spend additional 
active-duty resources for less capability at reserve air wings? Does 
this move make fiscal sense at a time when the Air Force's budget, like 
that of the other services, is shrinking?
    Answer. Active duty manpower movements at McIntire Air National 
Guard Base, as well as at Air Force Reserve Command locations in 
Florida and Texas, were part of a larger reallocation of Active Duty F-
16 operation and maintenance manpower across the Total Force. This 
reallocation was initiated at the request of the Air National Guard 
(ANG) resulting in the addition of four new F-16 Guard locations with 
an increase of 37 assigned active-duty billets. Because resources are 
reallocated within existing active-duty end strength, no additional 
cost is incurred. In addition, this action also enables the Air Force 
to convert backup aircraft inventory aircraft at six ANG locations into 
primary aircraft inventory, with the net result being an increase of 18 
primary aircraft inventory at ANG locations. Finally, the reallocation 
of F-16 active associations increases the number of locations at which 
inexperienced Active Duty F-16 pilots and maintainers can be seasoned 
while working with more experienced ANG counterparts. From a Total 
Force perspective, this reallocation of Active Duty F-16 manpower 
improves overall capabilities at no additional cost.
    Question. On March 5, 2012, Defense News reported that the Air 
Force plans to reduce the number of F-35 bases from 40 to the low 30s. 
Since 1991, the ANG has proven its efficiency in utilizing F-16s and F-
15s for Air Expeditionary Forces in Iraq and Afghanistan. The ANG 
currently fulfills 100 percent of the CONUS Air Sovereignty Alert 
mission at substantially lesser costs than the Active component. I 
believe the same would hold true were the ANG equipped with F-35s. The 
Air Force's projected cuts to the ANG in fiscal year 2013 concern me, 
and I remain equally as concerned that the planned reductions in F-35 
bases will disproportionately impact the ANG. What assurances can you 
give me that the reduction in F-35 bases will not disproportionately 
impact ANG units?
    Answer. The Air Force uses an iterative, continually informed 
process for fielding weapon systems intended to optimize mission sets 
and requirements of the total force to meet combatant commander 
requirements. The Air Force is committed to fielding the F-35A 
Lightning II aircraft in the Reserve component, as evidenced by the 
designation of Burlington Air Guard Station, Vermont as the preferred 
alternative for the first operational unit in the Reserve component, 
and fully supports further Reserve component fielding in the future. 
The combination of a collaborative and fully operational total force 
enterprise process, an open and transparent strategic basing process, 
and effective linkages with the planning, programming, budgeting, and 
execution process will provide avenues to balance the Active component 
and Reserve component while prioritizing combatant commander 
requirements. The Air Force is dedicated to using these processes, with 
full Reserve component participation, to refine concepts of concurrent 
and proportional, or balanced, fielding and to ensure fielding of the 
F-35A in the most effective and efficient manner.
    Question. What criteria do you plan to use to determine which bases 
will lose F-35s?
    Answer. There are currently no plans to remove F-35s from any 
existing beddown locations. The Air Force will use its strategic basing 
process to identify which bases receive the F-35A aircraft. Currently, 
the Air Force has only identified the preferred and reasonable 
alternatives for the Formal Training Unit, one Active component 
operational unit, and one Reserve component operational unit. Criteria 
used to determine which bases will receive F-35A aircraft included 
mission, capacity, environmental, and cost categories. Mission included 
weather and airspace components; capacity included facilities, runway, 
and ramp components; environmental considered air quality and 
encroachment; and cost included the area construction cost factor.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
    Question. General Schwartz, I am concerned about the Air Force's 
failure to fulfill its obligation to acquire the F117 Engine technical 
data, and the impact this will have as the Air Force pursues Supply 
Chain Management services.
    What is the Air Force justification for not acquiring the technical 
data rights to the F117 engine, particularly when it is paying an 
approximately 50-percent premium to the commercial variant, which 
includes tech data? Does the Air Force have a plan to acquire such data 
rights?
    Answer. Yes, the Air Force is currently working on acquiring 
technical data rights to the F117 engine. Under the procurement or 
sustainment contracts, the Air Force has never purchased data rights 
for the F117 engine because:
  --under the C-17 contract, Boeing acquired the engines from Pratt & 
        Whitney (P&W) as a commercial item; and
  --under the Air Force contract to acquire engines, the Air Force used 
        a commercial contract.
    P&W paid for the development of these engines. Also, the C-17 
sustainment program included Contractor Logistics Support for life; 
therefore, there was no need to acquire data rights. Since then, the 
Air Force has decided to break out the engine technical overhaul, 
supply chain management and systems engineering from the C-17 support. 
As a result, the Air Force is currently working two separate contract 
actions to acquire licensed use of P&W's technical manual, and to 
acquire the data rights for the System Engineering and Supply Chain 
Management processes for the F117 engine. In December 2011, P&W agreed 
to a General Terms Agreement release of their technical manual for 
basic F117 repairs, and the Air Force will further pursue Government 
Purpose Rights for historical supply chain management and systems 
engineering to enhance future competition.
    Question. General Schwartz, options exist to lower aircraft 
sustainment costs. For example, the commercial industry has embraced 
FAA-approved Parts Manufacturing Approval (PMA) parts and Designated 
Engineering Representative (DER) repairs, but the military has been 
slow to follow.
    Why doesn't the Air Force embrace such commercial best practices? 
Is the Air Force considering using these practices as it contracts for 
Supply Chain Management services for the C-17s F117 engines?
    Answer. The Air Force has embraced commercial best practices. The 
Air Force has recently increased the ability of commercial and 
competitive practices to reduce future F117 engine costs for supply 
chain management (SCM) services. Through discussions with P&W (the 
original equipment manufacturer (OEM) for the F117), in December 2011 
the Air Force secured access to the OEM repair manuals via license 
agreement. This repair manual license agreement can be used for SCM 
competition and for non OEM parts approval.
    The OEM does not have to approve repaired parts; any approved 
repair facility with access to the OEM's repair manuals can overhaul 
and repair F117 engines without subsequent approval through the OEM. 
This will continue to increase competition and decrease the reliance on 
OEM parts which can be used on the F117. This aligns with the 
commercial industry repair practices.
    The Air Force has released a draft performance work statement for a 
new competitive contract that takes advantage of commercial repairs and 
non OEM parts approvals. The Air Force's goal is to leverage Federal 
Aviation Administration's (FAA) PMA and DER approval results as much 
possible. This may accelerate the approval of non-OEM parts. However, 
FAA PMA approval is not sufficient for the F117 due to the F117's 
unique military mission. The FAA approves parts and repairs for only 
commercial application; therefore, the military must retain 
configuration control of the F117 engine.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The Defense Subcommittee will reconvene on 
Wednesday, March 21, 2012, at 10:30 a.m., to hear from the 
United States Army.
    The subcommittee stands in recess.
    [Whereupon, at 11:33 a.m., Wednesday, March 14, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, March 21.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                       WEDNESDAY, MARCH 21, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:32 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Murray, Cochran, Shelby, 
Hutchison, Murkowski, Graham, and Coats.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

                        Office of the Secretary

STATEMENT OF HON. JOHN M. McHUGH, SECRETARY

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning, the subcommittee convenes to 
review the Department of the Army's fiscal year 2013 budget 
request. And so we welcome the Honorable John M. McHugh, 
Secretary of the Army. We also welcome for the first time 
before this subcommittee, General Raymond T. Odierno, the Army 
Chief of Staff. Thank you for being with us today.
    The Department of the Army's fiscal year 2013 base budget 
request is $135 billion, the same level as last year's enacted 
base budget. The Army is also requesting $50 billion for 
overseas contingency operations (OCO) for fiscal year 2013, 
which is a decrease of $18 billion from last year's enacted 
amount.
    Due to the country's fiscal restraints, the Army's response 
to budget reductions was based on the determination of the 
right balance between three areas: personnel, modernization, 
and readiness.
    Over the next 5 years, the Army is planning to reduce the 
size of the Active Army by 490,000 soldiers and will remove at 
least eight brigade combat teams (BCTs) from its existing 
structure. The subcommittee hopes to learn more from you on 
these reductions and your plans to achieve them without 
sacrificing the lessons we have learned after a decade of war. 
As far as modernization is concerned, the fiscal year 2013 
request prioritizes the Army network and infantry-fighting 
vehicle that can accommodate the entire infantry squad and the 
joint light tactical vehicle (JLTV).
    Finally, the Army must ensure its forces are maintained, 
trained, and equipped at the highest levels of readiness in 
order to meet its operational demands and to fulfill its 
obligation in the Middle East and the Pacific in order to meet 
the new defense strategy.

                           PREPARED STATEMENT

    The subcommittee sincerely appreciates your service to our 
Nation and the dedication of the sacrifices made daily by the 
men and women in our Army. We could not be more grateful for 
what those who wear our Nation's uniform do for our country 
each and every day. And so I look forward to working with you 
to make certain that the fiscal year 2013 appropriations bill 
reflects the current and future needs of the U.S. Army.
    [The statement follows:]
            prepared statement of chairman daniel k. inouye
    Today, the subcommittee convenes to review the fiscal year 2013 
Department of Defense budget request. We welcome the Honorable John 
McHugh, Secretary of the Army. And beside him we welcome for the first 
time before the subcommittee, General Raymond T. Odierno, the Army 
Chief of Staff. Gentlemen, thank you for being here with us today.
    The Department of the Army's fiscal year 2013 base budget request 
is $135 billion, the same level as last year's enacted base budget. The 
Army is also requesting $50 billion for overseas contingency operations 
for fiscal year 2013, which is a decrease of $18 billion from last 
year's enacted amount.
     Due to the country's fiscal restraints, the Army's response to 
budget reductions was based on determining the right balance between 
three areas: personnel, modernization, and readiness.
    Over the next 5 years, the Army is planning to reduce the size of 
the Active Army to 490,000 soldiers and will remove at least eight 
brigade combat teams from its existing structure. I hope to learn more 
from you on these reductions and your plans to achieve them without 
sacrificing the lessons learned after a decade of war.
    As far as modernization, the fiscal year 2013 request prioritizes 
the Army Network, an infantry fighting vehicle that can accommodate an 
entire infantry squad and the joint light tactical vehicle.
    Finally, the Army must ensure its forces are maintained, trained, 
and equipped at the highest levels of readiness in order to meet its 
operational demands and to fulfill its obligations in the Middle East 
and the Pacific to meet the new defense strategy.
    We sincerely appreciate your service to our Nation and the 
dedication and sacrifices made daily by the men and women in our Army. 
We could not be more grateful for what those who wear our Nation's 
uniform do for our country each and every day. I look forward to 
working with you to ensure that the fiscal year 2013 appropriations 
bill reflects the current and future needs of the United States Army.

    Chairman Inouye. As you gentlemen are aware, there is a 
vote scheduled for 10:40 this morning. So, the Vice Chairman 
and I will alternate voting to continue the hearing as planned. 
And may I assure you that your full statement will be made part 
of the record. And now I call upon the Vice Chairman.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much for 
scheduling this hearing and inviting witnesses to appear and 
discuss the budget request for the next fiscal year for the 
United States Army, our soldiers, and others who are working to 
help protect the security interests of our great country. It's 
a dangerous mission these days. Men and women are deployed 
around the world to help protect our security interests and 
help maintain the access to the freedoms and liberties we enjoy 
as Americans.
    The testimony comes at an important time. We face a lot of 
challenges, and we appreciate your cooperation with our 
subcommittee in identifying the priorities to be sure we get it 
right and that we serve the best interests of our country and 
peace in the world.
    Thank you.
    Chairman Inouye. Thank you very much, Mr. Vice Chairman. 
May I call upon Senator Graham.
    Senator Graham. Thanks for having me.
    Chairman Inouye. Well, it is now my pleasure to call upon 
the Secretary, Mr. McHugh.

                SUMMARY STATEMENT OF HON. JOHN M. MCHUGH

    Mr. McHugh. Mr. Chairman, distinguished Vice Chairman, 
Senator Cochran, and Senator Graham, I don't know as I can 
equal Senator Graham's brevity. But, given the time 
constraints, I will try to be somewhat brief.
    Mr. Chairman, let me first of all join you in expressing my 
gratitude, and frankly, as the Secretary, relief to have this 
great leader on my left, the 38th Chief of Staff of the Army, 
Ray Odierno. And I want to thank this subcommittee and this 
Senate for acting swiftly to nominate him. As you know, 
gentlemen, this is a great leader who in a relatively short 
time has really made his mark as the current Chief, and also 
former leader. And I feel very honored and blessed to have him 
as my partner in these very challenging times.
    I also want to take a brief opportunity to thank this 
subcommittee for the great support that all of you have 
provided our 1.1 million soldiers, our 270,000 civilians, and 
our families. Collectively, as you know, they make up this 
great Army, and they, too, deeply appreciate all that you do 
for them.
    Today, more than ever, I would argue today's demanding 
fiscal environment requires that we maintain an even stronger 
partnership with you and this great Congress, this great house, 
to ensure that we have the sufficient resources to defeat our 
enemies, support our allies, and protect our homeland 
responsively, decisively, and yes, affordably.
    Our budget supports these goals, we believe, by laying the 
foundation for a gradual reduction of our military and civilian 
end-strength, while at the same time supporting, as you noted, 
Mr. Chairman, the vital modernization, training, soldier, and 
family programs that are so necessary to sustain this Army and 
ensure that while smaller, it remains the strongest and most 
capable land force in the world.
    As we implement what I think can be fairly described as a 
bold new security strategy, I want to be very clear. The Army's 
combat experience, adaptability, and strategic reach will be 
more vital to our Nation than ever before. Over the last year, 
I think that's been demonstrated. The Army has continued to be 
the decisive hand of American foreign policy and the helping 
hand of Americans facing the devastation of natural disasters.
    With soldiers deployed on 6 of the 7 continents, and in 
more than 150 nations around the world, your Army has become 
the face of American concern and the fist of American military 
might.
    In the Pacific, we continued our long-term presence in the 
region with some 75,000 military and civilian personnel 
participating in more than 160 exercises, engagements, and 
operations in support of our allies in that vital region.
    In Korea, our soldiers provided a strong deterrent to North 
Korean aggression. In Japan and the Philippines, we maintained 
our decades-old security relationships, training, and 
supporting with those great allies. In Europe, our soldiers 
fulfilled vital training stability and peacekeeping roles in 
Bosnia and Kosovo. While in Africa, your Army supported 
counterterrorism operations throughout the Horn and beyond.
    But foreign threats and operations were not all this Army 
faced. In 2011, this Nation experienced some of the worse 
natural disasters in our history. From responding to wildfires 
and floods to hurricanes and tornadoes, our soldiers and 
civilians from all components were there to help, protect, 
rescue, or rebuild. To put it very simply, our soldiers, 
civilians, and their families have once again proven why the 
United States Army is the most capable, versatile, and 
successful land force on Earth. And it is this ability to adapt 
to a myriad of unpredictable threats, both at home and abroad, 
that we will maintain as we move forward in this new security 
and fiscal environment.
    This year's budget, we believe, portrays an army fully 
embracing change by making the hard decisions now to lay the 
right foundations for the future.
    First, we are implementing a sweeping new defense strategy, 
which emphasizes even greater engagement in the Asia-Pacific 
region in the development of smaller, more agile land forces. 
Under this new framework, which was developed collaboratively 
with top military and civilian officials in our department, the 
Army clearly remains the decisive arm of U.S. combat power.
    Second, we are implementing this new paradigm under the 
significant cuts directed by the Budget Control Act of 2011. In 
so doing, we made some very tough decisions, but we are always 
guided by the following key principles. First, we'll fully 
support the current fight by providing operational commanders 
in Afghanistan and other theaters with the best trained and 
ready land forces in the world. That is and it will remain our 
top priority.
    Third, we will not sacrifice readiness for force structure. 
We must responsibly reduce our end-strength in a manner that 
fully supports the new strategy but also provides sufficient 
time to properly balance our training, equipment, 
infrastructure, and soldier and family support programs with 
our mission requirements.
    Fourth, we will be able to build force structure and 
capabilities to handle unforeseen changes to global security. 
The Army must be able to hedge risk through an efficient and 
effective force generation process and access to a strong 
operationalized Reserve component.
    Fifth, we will maintain and enhance the Army's extensive 
commitments in the Pacific.
    And last, we will not let the Budget Control Act be taken 
on the backs of our soldiers or their families. Although, we 
have, and we will continue to examine and, where appropriate, 
realign our programs, we will fully fund and support those 
systems that work, with special emphasis on wounded warrior, 
suicide prevention, behavioral health, and sexual assault 
programs.
    Based on these principles, our budget minimizes end-
strength reductions in the near years to support the current 
fight, emphasizes continued investments in vital modernization 
programs, such as the network, the ground combat vehicle (GCV), 
and the joint light tactical vehicle (JLTV), and delays or 
implements programs which, in our judgment, no longer meet 
urgent needs in support of our new strategy or transforming 
force, and we deferred certain military construction programs.
    The Army, at its core, is not programs and systems. It's 
people. And each time I have the honor of appearing before you, 
I come not only as the Secretary but humbly as the 
representatives of our soldiers, civilians, and their families. 
As this subcommittee knows so well, these brave men and women 
who have endured so much over the past decade depend upon a 
variety of programs, policies, and facilities to cope with the 
stress, the injuries, and family separations caused by war.
    Sadly, our suicide and substance abuse rates remain 
unacceptably high, and we are aggressively pursuing multiple 
avenues to provide our personnel with the best medical and 
behavioral support that is available. We must never forget that 
our success in both Iraq and Afghanistan has come at a heavy 
price for our Army family. Providing the means and resources 
for whatever challenges they now face is, in my opinion, the 
very least, the very most, and what we must do.

                           PREPARED STATEMENT

    As a final note regarding our Army family, I would again be 
remiss if I didn't thank you so much for the great support this 
subcommittee, and ultimately, the Committee as a whole has 
provided to those soldiers and families. They appreciate it. We 
all are so grateful for your leadership, and we look forward to 
working with you in the future.
    Thank you, Mr. Chairman.
    [The statement follows:]
        Prepared Statement of the Honorable John M. McHugh and 
                       General Raymond T. Odierno
                         the strategic context
    Our Nation has weathered difficult circumstances since the attacks 
on 9/11, yet we have met every challenge. The mission in Iraq has ended 
responsibly, continued progress in Afghanistan is enabling a transition 
to Afghan security responsibility, and targeted counterterrorism 
efforts have significantly weakened al Qaeda and degraded its 
leadership. In all these endeavors, the Army has played a leading role.
    As President Barack Obama stated in introducing his new national 
defense priorities, the country is at a turning point after a decade of 
war and considerable increases in defense spending. Even as large-scale 
military campaigns recede, the Nation will still face a growing array 
of security challenges. These new priorities focus on the continuing 
threat of violent extremism, the proliferation of lethal weapons and 
materials, the destabilizing behavior of Iran and North Korea, the rise 
of new powers across Asia, and an era of uncertainty in the Middle 
East.
    On top of that, our Nation confronts a serious deficit and debt 
problem (in itself a national security risk) that will squeeze future 
Army budgets. However, declining defense budgets do not nullify our 
obligation to provide enough capacity and maintain a highly ready force 
that is sufficiently modernized to provide a leaner, adaptive, 
flexible, and integrated force that offers the President a significant 
number of options along the spectrum of conflict.
    Today, the U.S. Army is the best-trained, best-equipped, and best-
led combat-tested force in the world. Today's soldiers have achieved a 
level of professionalism, combat experience, and civil and military 
expertise that is an invaluable national asset. Our warriors have 
accomplished every assigned task they have been given. But all we have 
accomplished in building this magnificent force can be squandered if we 
are not careful. We are an Army in transition, and we look to the 
Congress to assist us in the difficult work to build the Army of 2020.
         america's army--the nation's force of decisive action
    Every day, America's Army is making a positive difference in the 
world during one of the most challenging times in our history. Although 
stressed and stretched, the United States Army remains the most agile, 
adaptable, and capable force in the world. Ours is an army that 
reflects America's diversity and represents the time-honored values 
that built our Nation:
  --hard work;
  --duty;
  --selflessness;
  --determination;
  --honor; and
  --compassion.
    Today, less than one-half of 1 percent of Americans serve in the 
Army. As members of one of our Nation's oldest and most enduring 
institutions, these volunteers play an indispensable role in guarding 
U.S. national interests at home and abroad. Young men and women who 
want to make a difference in this world want to be part of our Army, 
which is why even after a decade of conflict, we continue to fill our 
ranks with the best the Nation has to offer. They have earned the 
gratitude, trust, and admiration of an appreciative people for their 
extraordinary accomplishments.
                      2011--the army in transition
    Over the past year, the Army has concluded its mission in Iraq and 
commenced the drawdown of surge forces in Afghanistan while 
transferring responsibility to Afghan forces. We are beginning 
reductions in end-strength to face budgetary realities. We are also 
undertaking efforts to rebalance force structure and make investment 
decisions that will shape the Army of 2020--all during a time of war. 
These transformational efforts are both significant and unprecedented. 
As the President's new national defense priorities are implemented, the 
Army will continue its transition to a smaller yet capable force fully 
prepared to conduct the full range of operations worldwide.
Operation Enduring Freedom
    A decade into the war in Afghanistan, the Army continues to play a 
leading role in defending our national security interests in this vital 
theater. At the start of the war, following the attacks on 9/11, 
elements of Army Special Operations Forces led efforts on the ground to 
bring al Qaeda members to justice and remove the Taliban from power, 
thereby denying a safe haven to terrorists. With more than 70,000 
soldiers in Afghanistan at peak strength in 2011, the Army's brigade 
combat teams conducted operations ranging from stability to 
counterinsurgency.
    Today, more than 63,000 Army soldiers in both general purpose and 
special operations units continue to conduct a wide range of missions 
across Afghanistan country to help Afghan citizens lay the foundation 
for lasting security. Simultaneously, the Army provided essential 
logistics capabilities to sustain the land-locked Afghan theater. In 
fact, only America's Army could provide the necessary theater 
logistics, transportation, medical, and communications infrastructure 
capable of supporting joint and combined forces for an operation of 
this size and complexity.
    Since the beginning of combat operations in Afghanistan, soldiers 
have earned 5,437 valor awards, including 241 Silver Stars and 8 
Distinguished Service Crosses. Four soldiers have been awarded the 
Medal of Honor for their heroic actions:
  --SFC Jared C. Monti;
  --SSG Salvatore A. Giunta;
  --SSG Robert J. Miller; and
  --SSG Leroy A. Petry.
    They exemplify the courage, commitment, and sacrifice of all the 
men and women who have served in this conflict.
Operation New Dawn
    In December 2011, the Army concluded more than 8 years of combat 
and stability operations in Iraq. Initially, powerful and agile forces 
liberated Iraq and then adapted to the new demand of suppressing the 
postinvasion insurgencies. Indeed, when the Nation needed a sustained 
effort to achieve its strategic objectives, the Army answered the call, 
adjusting its deployment tours from 12 to 15 months to enable a 
decisive surge in forces. Army units trained and equipped Iraq security 
forces, and when the mission changed, the Army executed the extremely 
difficult tasks of redeploying people and retrograding equipment to 
ensure future readiness.
    More than 1 million soldiers and Department of the Army civilians 
served courageously in Iraq. They were essential to freeing more than 
25 million Iraqi people from the tyranny of a brutal dictator, putting 
Iraq's future in the hands of its people, and removing a national 
security threat to the United States.
    Success came at a great cost in blood and treasure. But even during 
the most dire times, our soldiers never wavered. Their heroic actions 
earned 8,238 awards for valor, including 408 Silver Stars and 16 
Distinguished Service Crosses. Two Medals of Honor were awarded 
posthumously to SFC Paul R. Smith and PFC Ross A. McGinnis.
Other Global Commitments
    In addition to the Army's unprecedented contributions in 
Afghanistan and Iraq, we have continued to conduct operations across 
the globe to prevent conflict, shape the environment, and win 
decisively. Nearly 20,000 soldiers remain stationed on the Korean 
peninsula, providing a credible deterrent and investing in our 
partnership with the Republic of Korea army. Simultaneously, Army 
special operations soldiers in the Pacific region continue to provide 
advice and support to the Philippine Armed Forces, enhancing our robust 
alliance. Both are examples of strategic investments in a region that 
is home to 7 of the world's 10 largest armies. (In fact, in most 
countries around the world, the army is the dominant defense force.) 
And United States soldiers continue to serve in places such as the 
Sinai, Guantanamo Bay, Bosnia, Kosovo, and the Horn of Africa, 
developing and maintaining relationships on 6 of the world's 7 
continents.
Defense Support of Civil Authorities
    Over the past year, the Army has continued to provide instrumental 
support to civil authorities. The Army's Reserve component proved to be 
one of our great strengths for these missions, giving the force depth 
and flexibility. The National Guard provides a distinctive capability 
for the Nation. When floods, wildfires, and tornados struck from the 
Midwest to the South over the span of a few days in the spring of 2011, 
more than 900 National Guard soldiers supplied a coordinated response 
to address citizens' needs across the affected region. Similarly, when 
Hurricane Irene knocked out power and flooded towns across the 
Northeast in the summer of 2011, nearly 10,000 National Guard soldiers 
and airmen across 13 States delivered critical services to sustain the 
region through the crisis.
    In addition to ongoing counterdrug operations, approximately 1,200 
National Guard soldiers and airmen supported the Department of Homeland 
Security in four States along the Southwest border by providing entry 
identification and analysis to disrupt criminal networks and 
activities.
Army Special Operations Forces
    To conduct unified land operations, the U.S. Army fields a suite of 
special operations capabilities that range from the world's finest 
precision strike and special warfare forces to the world's most lethal 
combined arms maneuver formations. The Army draws from across its broad 
set of capabilities to provide the joint commander the blend of Army 
assets required to ensure mission accomplishment. True in Afghanistan 
today, Army Special Operations Forces are also providing assistance in 
the Philippines, Yemen, the Arabian gulf, Lebanon, Colombia, the 
African Trans-Sahel, and across the Caribbean and Central America. As 
Army regular forces become available, they will increasingly integrate 
with Army Special Operations Forces to promote trust and 
interoperability with allies and build partner nation capacity where 
mutual interests are at risk from internal or external enemies.
                           fiscal environment
Challenges of Reduced Budget
    Today's global fiscal environment is driving defense budgets down 
for our partners and allies, as well as our Nation. Historically, 
defense spending has been cyclic with significant reductions following 
the end of major conflicts. The Army understands it cannot be immune to 
these fiscal realities and must be part of the solution. Our focus 
areas for the fiscal year 2013 budget demonstrate our concerted effort 
to establish clear priorities that give the Nation a ready and capable 
Army while being good stewards of all our resources.
Challenges of Continuing Resolutions
    Timely and predictable funding enables the Army to plan, resource, 
and manage the programs that produce a trained and ready force. The 
Army very much appreciates that the Congress approved the fiscal year 
2012 budget earlier than had been the case in recent years when we were 
forced to operate for long stretches under continuing resolutions. 
Long-term continuing resolutions force the Army to slow its spending, 
freeze production rates, and delay the start of new programs. Such 
delays pose a risk to the Army's operational readiness and investment 
strategy. We stand ready to help the Congress once again pass defense 
bills in a timely manner.
                          security environment
    A series of powerful global trends continue to shape the current 
and future strategic environment:
  --increased demand for dwindling resources;
  --persistent regional conflict;
  --empowered non-state actors;
  --the continuing proliferation of weapons of mass destruction; and
  --failed states.
    We anticipate a myriad of hybrid threats that incorporate regular 
and irregular warfare, terrorism, and criminality. We also face cyber-
threats to an increasingly critical and vulnerable information 
technology infrastructure and the destabilizing effect of global 
economic downturns. Together, these trends create a complex and 
unpredictable environment in all of the Army's operational domains:
  --land;
  --sea;
  --air;
  --space; and
  --cyberspace.
                    implications for america's army
Role of the Army: Prevent, Shape, Win
    In the uncertain environment our country faces, the Army remains 
central to our Nation's defense as part of the joint force. No major 
conflict has been won without boots on the ground. Listed below are the 
three essential roles the Army must play.
    First, our Army must prevent conflict just as we did during the 
cold war. Prevention is most effective when adversaries are convinced 
that conflict with your force would be imprudent. The Army's ability to 
win any fight across the full range of operations as part of a joint 
force must never be open to challenge. It must be clear that we will 
fight and win, which requires a force with sufficient capacity, 
readiness, and modernization. That means quality soldiers; agile, 
adaptive leaders; versatile units; realistic training; and modern 
equipment. Prevention is achieved through credible readiness, sometimes 
requiring decisive action. Our Army must continue to be a credible 
force around the globe to prevent miscalculations by those who would 
test us.
    Second, our Army must help shape the international environment to 
enable our combatant commanders to assure our friends and contain our 
enemies. We do that by engaging with our partners, fostering mutual 
understanding through military-to-military contacts, and helping them 
build the capacity to defend themselves. These actions are an 
investment in the future that the Nation cannot afford to forego. We 
must cultivate positive relationships before they are needed and be a 
reliable, consistent, and respectful partner to others.
    Finally, the Army must be ready to win decisively and dominantly. 
Nothing else approaches what is achieved by winning, and the 
consequences of losing at war are usually catastrophic. With so much at 
stake, the American people will expect what they have always expected 
of us--decisive victory. The Army must never enter into a terrible 
endeavor such as war unprepared. Although we may still win, it will be 
more expensive, cost more lives, and require more time.
    In addition to being trained, sized, and equipped to win decisively 
in the more traditional operational domains, the Army also will require 
robust capability in cyberspace. As the past decade of conflict has 
demonstrated, the information environment has changed the way we fight. 
Military and cyberspace operations have converged, and protecting 
information in cyberspace is more essential than ever to how our Army 
fights. The advantage will go to those able to maintain the freedom to 
operate and able to gain, protect, and exploit information in the 
contested cyberspace domain. The Army must be dominant in both the land 
and cyberspace domains.
Smaller But Reversible
    As our new national defense priorities drive us to a smaller Army, 
we must avoid the historical pattern of drawing down too fast or risk 
losing leadership and capabilities, making it much harder to expand 
again when needed. It is critical that the Army be able to rapidly 
expand to meet large unexpected contingencies, and four components are 
key to that ability. First, the Army must maintain a strong cadre of 
noncommissioned and mid-grade officers to form the core of new 
formations when needed. Second, we will make significant investments in 
Army Special Operations Forces to increase their capabilities and 
provide the President with more options. Third, it will require ready 
and accessible Army National Guard (ARNG) and Army Reserve forces. The 
Army's Reserve component has proven essential in contingency operations 
around the world. From Kosovo, the Sinai and Horn of Africa to 
Afghanistan and Iraq, homeland defense along America's Southwest 
border, humanitarian assistance and disaster relief at home and abroad, 
the ARNG and Army Reserve have evolved into indispensable parts of our 
operational force and we will continue to rely on them to provide depth 
and versatility to meet the complex demands of the future. The fourth 
critical component of the Army's ability to expand is the Nation's 
industrial base. We rely on the industrial base to perform research and 
development and to design, produce, and maintain our weapons systems, 
components, and parts. It must be capable of rapidly expanding to meet 
a large demand. Reversibility is the sine qua non to ensuring that the 
Army can rapidly grow when our Nation calls.
                         the army's focus areas
Support to Operations in Afghanistan
    Our immediate focus remains on providing the best-trained and most-
ready land forces in the world to win the current fight while 
maintaining responsiveness for unforeseen contingencies. The support of 
the American people is paramount to our success. We must fulfill our 
responsibilities to them without draining their goodwill and treasure.
    Despite continued challenges and tough conditions, our forces are 
making measureable progress against an adaptive enemy. Army security 
force assistance teams continue to train both Afghan National Army 
Forces (now almost 180,000 strong) and Afghan national police forces 
(made up of nearly 144,000 men and women in uniform). The increased 
capability of Afghan security forces is allowing security of the region 
to be turned back over to the Government of Afghanistan district by 
district. During the coming year we must continue to provide trained 
and ready forces equipped to support operations. We remain focused on 
doing everything we can to ensure that we meet our national objectives 
and provide what our brave men and women in the field need to succeed.
    In Afghanistan, the commitment and performance of our soldiers and 
civilians continues to be nothing short of extraordinary. Not only have 
they taken the fight to our enemies, but they have proven equally 
effective as emissaries. Our investment in leader development prepared 
them to operate in this demanding environment.
    In the coming year we will continue to increase the Afghan lead of 
security responsibilities, target key insurgent leaders, retain and 
expand secure areas, and help Afghan National Security Forces earn the 
support of the people through improved security capacity and 
capability. Because of its geography, distance, infrastructure, and 
harsh environment, the difficulty and complexity of the drawdown in 
Afghanistan will exceed that in Iraq. The United States Army is the 
only organization in the world with the capability to plan and execute 
a logistical operation this complex and difficult.
    The Army places great emphasis on properly maintaining its 
equipment to restore readiness to the force and ensure it is prepared 
to meet combatant commander requirements. The Army reset program 
reverses the effects of combat stress and restores equipment to a high 
level of combat capability to conduct future operations. Reset is a 
lengthy process, and even after the drawdown from Afghanistan is 
complete, the Army will require funding for 2 to 3 years to reset our 
equipment from the harsh demands of war.
                        responsible stewardship
Institutional Army Transformation
    The drive to reform the Institutional Army is about doing things 
better, smarter, and faster while taking advantage of available 
technology, knowledge, and experience. Our Institutional Army--the part 
of the Army that trains, educates, and supports Army forces worldwide--
will become more flexible by improving our ability to quickly adapt to 
changing environments, missions, and priorities. The Institutional Army 
is also working to rapidly address the demands placed on the 
organization by the current and future operational environments. It 
performed magnificently to produce trained and ready forces, even while 
seeking to adapt institutional business processes.
    Further, the Army is working to provide ``readiness at best value'' 
to help us live within the constraints imposed by the national and 
global economic situation. In short, the need to reform the Army's 
institutional management processes and develop an integrated management 
system has never been more urgent. To enhance organizational adaptive 
capacity while shepherding our resources, the Army initiated a number 
of efforts, such as the Army financial improvement plan, which will 
enable the Army to achieve full auditability by fiscal year 2017.
Acquisition Reform
    As a result of uncertain funding, insufficient contract oversight 
and an ineffective requirement determination process, the Army has 
initiated a significant reform of the way we develop and acquire our 
products and weapons. As part of this initiative, we have taken steps 
toward improvement through a series of capability portfolio reviews. 
These platforms serve to revalidate, modify, or terminate programs 
based on the Army's need and the affordability of the program. We have 
also started to fix an inefficient procurement system that too often 
wastes precious resources and fails to provide needed systems in a 
timely manner. For example, the Army commissioned a comprehensive 
review of our acquisition system that, based on the findings and 
recommendations, produced a blueprint for acquisition reform. These 
changes fall into four broad areas:
  --realignment of acquisition requirements combined with a sharper 
        focus on the needed competencies of acquisition professionals;
  --expansion of stakeholder (acquisition professional and soldier end-
        user) participation in developing requirements, planning, and 
        acquisition solicitation;
  --reappraisal and streamlining of acquisition strategies and the 
        attendant risk in such streamlining; and
  --improvement in the selection, development, and accountability of 
        the people involved in the acquisition process.
    We are implementing these recommendations as part of our broader 
effort to reform the Institutional Army.
Army Energy Security
    Supplying energy to our Army around the world is increasingly 
challenging, expensive, and dangerous. The Army must consider energy in 
all activities to reduce demand, increase efficiency, obtain 
alternative sources, and create a culture of energy accountability. 
Energy security is an imperative that can be described in two 
categories--operational and garrison.
    Operational energy is the energy and associated systems, 
information and processes required to train, move, and sustain forces, 
and systems for military operations. The Army is developing new 
doctrine, policies, plans, and technologies that will improve the 
management and use of operational energy to better support soldiers' 
needs. Less energy-efficient systems in an operational environment 
require more fuel, increasing the number of fuel convoys and thus 
risking more lives and limiting our flexibility.
    Garrison energy is the energy required to power Army bases and 
conduct soldier training. Dependence on fossil fuels and a vulnerable 
electric power grid jeopardize the security of Army operating bases and 
mission capabilities. The impact of increasing energy prices is a 
decrease in the quantity and quality of training the Army can conduct.
    Initiatives such as cool roofs, solar power, stormwater management, 
and water efficiency are positive steps toward addressing the 
challenges of energy security in the operational and garrison 
environments. Innovative and adaptive leaders, seeking ways to increase 
energy efficiency and implement renewable and alternate sources of 
energy, are key to saving lives and increasing the Army's flexibility 
by reducing costs.
                             a leaner army
    The Army is committed to providing combatant commanders with the 
capabilities, capacity, and diversity needed to be successful across a 
wide range of operations. With a leaner Army, we have to prioritize and 
also remain capable of meeting a wide range of security requirements. 
We will reduce in a manner that preserves our readiness and avoids any 
hollowing of the force. To satisfy this enduring requirement, we have 
three rheostats that must be continuously assessed and adjusted:
  --end strength/force structure;
  --readiness; and
  --modernization.
    We will balance these three foundational imperatives throughout the 
next several years to provide combatant commanders trained and ready 
forces in support of Joint Force 2020.
Force Structure and Force Design
    The Army will maintain a versatile mix of tailorable and networked 
organizations, operating on a rotational cycle, to continue providing a 
sustained flow of trained and ready forces for the full range of 
military operations. This will give combatant commanders a hedge 
against unexpected contingencies and enable a sustainable tempo for our 
All-Volunteer Force. Over the next 5 years, the Army will decrease its 
end-strength from a peak authorized strength of about 570,000 to 
490,000 Active Army, 358,000 to 353,500 ARNG, and 206,000 to 205,000 
Army Reserve soldiers as directed. Reducing our end-strength over a 
deliberate ramp through the end of fiscal year 2017 allows the Army to 
take care of soldiers, families, and civilians; to continue meeting our 
commitments in Afghanistan; and to facilitate reversibility in an 
uncertain strategic environment.
    An unpredictable and dynamic global security environment requires 
the Army, as a force in transition, to adjust and reduce its size while 
remaining flexible, capable, and ready to meet the Nation's 
requirements and maintaining an ability to reverse course to readily 
expand if necessary. In accordance with the new defense priorities, the 
Army of 2020 must have a versatile mix of capabilities, formations, and 
equipment that is lethal, agile, adaptable, and responsive. As the Army 
transitions from the current force to a leaner force, it will do so 
while remaining engaged in the current conflicts. The Army will 
prioritize force structure and committed assets in the Pacific region 
and the Middle East, and will shape the future force to support the 
Army's requirements as part of the joint force to fulfill the Nation's 
strategic and operational commitments. The Army will optimize force 
structure to maintain reversibility, and achieve maximum operational 
strategic flexibility. Today we plan on reducing at least eight Active 
component brigade combat teams (BCT); however, we continue to assess 
the design and mix of these modular formations based upon the lessons 
from the last 10 years of combat. This analysis may lead to a decision 
to reorganize BCTs into more capable and robust formations, requiring 
further BCT reductions in order to increase overall versatility and 
agility for tomorrow's security challenges.
    As the Army's Active component reduces in size, the composition of 
combat support and combat service support enablers in the Active and 
Reserve components will be adjusted to give the Army the ability to 
conduct sustained operations and to mitigate risk. The Army will 
continue to rely on the Reserve components to provide key enablers and 
operational depth. An operational Reserve comprised of a discrete set 
of capabilities with an enhanced level of readiness will be essential. 
This force will consist of three elements:
  --select combat formations prepared to respond to crisis;
  --combat support and combat service support enablers employed early 
        in support of operational plans; and
  --forces aligned to support steady-state combatant commander 
        requirements.
    Ensured access to the Reserve component is essential to providing 
the operational depth and flexibility combatant commanders require. 
During the transition, we must manage our people carefully to neither 
compromise readiness nor break faith with those who have served the 
Nation so well.
Readiness
    Army unit readiness is measured by the level of its manning, 
training, and equipping. The current Army Force Generation (ARFORGEN) 
model has served us well in meeting the requirements for Iraq and 
Afghanistan; however, we will adapt it to ensure we meet future 
combatant commander requirements in the uncertain, complex strategic 
environment. We envision a progressive readiness model for most Active 
and Reserve component early deploying units which will align forces for 
combatant commanders. Because of their unique capabilities, our low-
density, high-demand units do not lend themselves to a rotational pool 
like ARFORGEN. These units must be sustained in a constant readiness 
model.
The Strength of Our Army is Our Soldiers
    Soldiers and families form the foundation of unit readiness. People 
are the Army, and our enduring priority is to preserve the high-
quality, All-Volunteer Force--the essential element of our strength. 
The Army has gained the trust of the American public more than at any 
other time in recent history while developing a force that is very 
different from what it was a few short years ago. Our Army must 
maintain the public's trust while our Nation fulfills its 
responsibilities toward soldiers and their families. The United States 
Army is unique from other professions because our core attributes are 
derived from American values, the Constitution, and law. Today's Army 
is building on a successful foundation with the trust, respect, and 
support of the American people. This foundation, and our enduring 
commitment to strengthening our Army profession, will improve our force 
as it adapts to meet the Nation's evolving needs.
    The Army is the Nation's pre-eminent leadership experience. The 
All-Volunteer Force is our greatest strategic asset, providing depth, 
versatility, and unmatched experience to the joint force. We must 
continue to train, develop, and retain adaptive leaders and maintain 
this combat-seasoned, All-Volunteer Force of professionals. We will 
continue to adjust in order to prepare our leaders for more dynamic and 
complex future environments. Our leader development model is an 
adaptive, continuous, and progressive process grounded in Army values. 
We grow soldiers and Army civilians into competent and confident 
leaders capable of decisive action. We must give our leaders broadening 
opportunities to better prepare them for the myriad challenges they 
will encounter. In addition, we must reinvigorate unit training, 
training management skills, and leader development to build versatile 
units. By providing our leaders with the professional challenges they 
expect, we will retain them and nurture their adaptive spirit.
    Our challenge in the coming years is not just about attracting and 
selecting the best available candidates to be Army professionals. We 
must also engage and develop our quality, combat-experienced leaders so 
that we keep them, and they, in turn, train the next generation of Army 
professionals. During the last decade of war, we have given our young 
leaders unprecedented flexibility and authority to operate effectively 
on the battlefield. We will prepare for tomorrow by building on that 
investment and ensuring that opportunities for creativity, leadership, 
and advancement exist throughout the Army.
    We must draw down wisely to avoid stifling the health of the force 
or breaking faith with our soldiers, civilians, and families. Excessive 
cuts would create high risk in our ability to sustain readiness. We 
must avoid our historical pattern of drawing down too much or too fast 
and risk losing the leadership, technical skills, and combat experience 
that cannot be easily reclaimed. We must identify and safeguard key 
programs in education, leader development, healthcare, quality of life, 
and retirement--programs critical to retaining our soldiers.
The Strength of Our Soldiers is Our Families
    In order to ensure a relevant and ready All-Volunteer Force, the 
Army will continue to invest heavily in our soldier and family 
programs. The Army Family Covenant expresses the Army's commitment to 
care for soldiers and their families by providing a strong, supportive 
environment that enhances their strength and resilience and helps them 
to thrive. The Covenant focuses on programs, services, and initiatives 
essential to preserving an All-Volunteer Force and institutionalizes 
the Army's commitment to provide soldiers and their families a quality-
of-life commensurate with their service to the Nation. Through the 
Covenant, the Army is improving the delivery of soldier and family 
programs and services, sustaining accessibility to quality healthcare, 
and promoting education and employment opportunities for family 
members. We are sustaining high-quality housing; ensuring excellence in 
school support, youth services, and child care; and maintaining quality 
recreation services for soldiers and family members as they serve on 
the Nation's behalf around the world. We will not walk away from our 
commitment to our families; however, a different fiscal reality 
requires us to review our investments and eliminate redundant and poor-
performing programs while sustaining those that are high-performing and 
most beneficial to our families.
Honoring Service
    We must fulfill our moral obligation to the health, welfare, and 
care of our soldiers, civilians, and families. The effects of more than 
10 years of war and inadequate dwell-time at home has resulted in a 
cumulative stress on soldiers, families, and communities that has 
significant implications for the Army and our Nation. We have 
implemented an unprecedented number of personnel-focused programs, 
including comprehensive soldier fitness; wounded warrior program; and 
health promotion, risk reduction, and suicide prevention, to ensure the 
continued care, support, and services that sustain the high quality of 
our force.
    Sexual harassment and sexual assault are inconsistent with the 
Army's values and our profession. It is imperative that we foster a 
climate where such misconduct is not tolerated and the dignity of our 
soldiers, civilians, and family members is respected and protected. 
Army leaders are focused on the urgency of this issue and the level of 
commitment required to affect cultural change and combat this crime. We 
are aggressively implementing and expanding the Army's comprehensive 
Sexual Harassment/Assault Response and Prevention (SHARP) program. The 
SHARP program is aimed at command prevention efforts at all levels, 
educating all members of our Army family, training our first responder 
professionals, and supporting victims while reducing the stigma of 
reporting. One incident of this type of unwarranted and abusive 
behavior is one too many. The Army is committed to ensuring leadership 
at all levels is engaged in preventing sexual assault and harassment 
and appropriately holding offenders accountable.
    The Army continues to invest heavily in better understanding 
traumatic brain injury and post-traumatic stress, the invisible 
signature wounds of our recent wars. We have developed and implemented 
new prevention and treatment protocols, and we are in the third year of 
our 5-year partnership with the National Institute of Mental Health to 
identify the factors that help protect a soldier's mental health and 
those that put it at risk.
    We have also started to reduce the length of deployments to 9 
months for many of our units at the division level and below, which we 
believe will alleviate significant pressure on our soldiers and their 
families. We are doubling our efforts to ensure that each of our more 
than 18,000 soldiers currently enrolled in the Integrated Disability 
Evaluation System (IDES) is carefully examined to determine whether he 
or she should return to civilian life or continue military service. A 
recent initiative between the Department of Defense (DOD) and 
Department of Veterans Affairs, the IDES integrates formerly separate 
programs resulting in a streamlined, more efficient process for 
servicemembers, which will reduce the backlog of soldiers awaiting 
benefits.
    As we draw down the Army, we must honor our veterans with the very 
best support, care, and services they deserve as they make the 
transition from military service to civilian life. We are committed to 
our soldiers and their families, who are the strength of the Army. At 
the same time, the Army is focused on wisely managing our resources in 
the healthcare arena. The Army supports DOD proposals to further reduce 
the rate of growth in healthcare costs--proposals that are aligned with 
our priorities. TRICARE is a superb health benefit, one of the best in 
the country and appropriately so. Just as in all areas of the Defense 
budget, we need to make decisions that preserve a strong benefit yet 
reflect the fiscal realities of the times. The proposals take care to 
exempt populations who have made the greatest sacrifices--those who are 
medically retired and those families who have lost their loved one 
while serving on Active Duty. The changes proposed are also adjusted to 
reflect lower adjustments for those retirees with lower retirement pay. 
And, most importantly, the Department continues to provide resources 
that improve the overall health system for our soldiers and their 
families.
    The Army is using the health promotion and risk reduction fiscal 
year 2011 Campaign Plan to holistically promote health and reduce risk. 
The Campaign Plan incorporates findings and recommendations from DOD 
and Army reports regarding health promotion, risk reduction, and 
suicide prevention. Health promotion and risk reduction activities are 
essential to sustain the force under the current operational tempo and 
reset our Army.
Modernization
    The Army has global responsibilities requiring large technological 
advantages to prevail decisively in combat. Just as pilots and sailors 
seek supremacy in the air and on the seas, soldiers must dominate their 
enemies on land. Modernizing, especially as end-strength is reduced, is 
the key to ensuring that our dominance continues.
    The Army is setting priorities and making prudent choices to 
provide the best possible force for the Nation within the resources 
available. We are developing and fielding a versatile and affordable 
mix of equipment to enable us to succeed in the full range of missions 
and maintain a decisive advantage over our enemies. To meet the 
challenges of an evolving strategic and fiscal environment, our 
strategy is based on three tenets:
  --integrated capability portfolios;
  --incremental modernization; and
  --leveraging the ARFORGEN cycle;
    --integrated capability portfolios (align stakeholders to identify 
            capability gaps and eliminate unnecessary redundancies);
    --incremental modernization (enables us to deliver new and improved 
            capabilities by leveraging mature technologies, shortening 
            development times, planning growth potential, and acquiring 
            in quantities that give us the greatest advantage while 
            hedging against uncertainty); and
    --ARFORGEN (processes synchronize the distribution of equipment to 
            units providing increased readiness over time and 
            delivering a steady and predictable supply of trained and 
            ready modular forces. The Army has consolidated its 
            materiel management process under a single command and 
            designated U.S. Army Materiel Command as the Army's Lead 
            Materiel Integrator. Additionally, we consolidated all of 
            our materiel data into a single authoritative repository 
            called the Logistics Information Warehouse).
    These emerging systems and processes represent a powerful new 
approach for implementing the Army's equipping priorities, policies, 
and programs to the meet new security demands of the 21st century. The 
equipment requested in the President's fiscal year 2013 budget strikes 
a balance between current and future needs, provides the basis for an 
affordable equipping strategy over time, and takes into account Army 
requirements and priorities. In developing this request, the Army made 
difficult decisions to shift funds previously programmed for future 
capabilities to current needs. The decisions came at the expense of 
promising and needed technologies with capabilities that did not fit 
within resource limitations. The Army's top four modernization 
priorities are the Network, ground combat vehicle (GCV), joint light 
tactical vehicle (JLTV), and soldier systems.
Network
    Also known as LandWarNet, the network remains the Army's top 
investment priority. With expectations of tighter budgets and a still 
very active threat environment, the Army will have to produce a force 
that is smaller yet more capable. The Network is the core of that 
smaller, capable Army.
    The Army is conducting a series of semiannual field exercises known 
as the Network Integration Evaluation to evaluate, integrate, and 
mature the Army's tactical network. The exercises will assess network 
and non-network capabilities to determine implications across doctrine, 
organization, training, materiel, leadership and education, personnel, 
and facilities. The process aligns several key Army network programs 
and advances the fusion of radio waveforms to form an integrated 
network baseline to which industry can build.
    The foundation of the modernized network is a joint, secure, and 
common architecture that will provide information from the cloud to 
enable leaders, units, and the Institutional Army to function more 
effectively. The Army will extend this critical capability to its 
installations around the world. This capability will increase force 
effectiveness, facilitate transition for units, and individuals from 
one phase of the ARFORGEN cycle to another and greatly improve network 
security.
    The major programs that form the backbone of the tactical network 
are:
  --the Warfighter Information Network-Tactical, which provides a real-
        time common operating picture down to the company level by 
        extending satellite and line-of-sight communications, including 
        telephone, data, and video;
  --the Joint Tactical Radio System, an advanced software-defined 
        family of radios that will carry data and voice for dismounted 
        troops and airborne and maritime platforms;
  --the Distributed Common Ground System-Army, which provides 
        intelligence, surveillance, and reconnaissance data, as well as 
        access to the entire Defense Intelligence Information 
        Enterprise, to commanders from the company to Army service 
        component command level;
  --the Joint Battle Command Platform, which provides situational 
        awareness data enhancing mission command to Army and Marine 
        Corps tactical operations centers and combat vehicles; and
  --Nett Warrior, which gives dismounted leaders integrated situational 
        awareness and information sharing, helping them to avoid 
        fratricide and increase combat effectiveness.
    The Army network must be dynamic to give soldiers, civilians, and 
partners information and services when and where needed. Investment 
must be steady and wisely applied, while maintaining a strong 
partnership with industry.
Ground Combat Vehicle
    The infantry fighting vehicle is reaching the limit of its capacity 
to receive technology upgrades proven critical for soldiers in combat 
operations. GCV is the Army's replacement program for the infantry 
fighting vehicle and the centerpiece of the Army's overall combat 
vehicle investment strategy. It will be designed to deliver a full 
nine-man squad with improved survivability, mobility, and network 
integration, considered crucial to our ability to conduct fire and 
maneuver in close quarters fighting in complex terrain. The vehicle 
will also provide the growth potential necessary to accommodate 
advances in protection, networking and space, weight, power, and 
cooling technologies while reducing sustainment demands. No current 
vehicle can sufficiently meet all these requirements.
    GCV acquisition strategy implements affordability measures designed 
to ensure the long-term success of the program as the Army faces 
constrained resources in the future. To develop this acquisition 
strategy, the Army and the Office of the Secretary of Defense conducted 
a comprehensive review to make sure the program is both achievable and 
affordable within a 7-year timeframe. The model adopted for the GCV 
program incentivizes industry to use the best of mature technologies 
that are both affordable and support the 7-year timeframe. The Army has 
also paid close attention to risk reduction within the program by 
requiring industry to identify potential cost schedule and performance 
tradeoffs; provide cost targets throughout the GCV's lifecycle; and 
maximize competition to support innovation, cost containment, and 
schedule requirements.
Joint Light Tactical Vehicle
    As a Joint Service program between the Army and Marine Corps, the 
JLTV will replace approximately one-third of the Army's oldest 
unarmored high mobility multipurpose wheeled vehicles (HMMWV). The JLTV 
incorporates the strengths of the mine-resistant, ambush-protected 
(MRAP) vehicles that the HMMWV family of vehicles does not provide. The 
HMMWV was not designed to be used as an armored combat vehicle, but it 
was often employed as one during the wars in Afghanistan and Iraq. In 
contrast, the JLTV will be designed for this role from the outset. It 
will be capable of operating across the range of military operations 
and physical environments providing improved mobility and protection 
for soldiers. The JLTV balances protection, payload, performance, and 
improved fuel efficiency in one affordable and sustainable vehicle. It 
will also be fully integrated into the Network to enhance the 
effectiveness of ground forces.
Soldier Systems
    The squad is the foundation of the decisive force; it is the 
cornerstone of all units. To ensure the success of combat operations in 
the future, the Army will invest in systems that consider the squad as 
a team rather than a collection of individuals. This approach will 
guarantee that the squad will not be in a fair fight but will have 
overmatch. The Army will continue to invest in soldier systems that 
enable the lethality, protection, situational awareness, and mobility 
of the individual soldier in his or her squad. These systems include 
small arms, night vision, soldier sensors, body armor, and individual 
clothing and equipment.
                         summary and conclusion
    The Army has been, and will continue to be, a critical part of the 
joint force because land power remains the politically decisive form of 
warfare and is essential to America's national security strategy. No 
major conflict has ever been won without ``boots on the ground.'' By 
being tasked to seize, occupy, and defend land areas, as well as to 
defeat enemy land forces, the Army is unique because it must not only 
deploy and defeat an adversary but must be prepared to remain in the 
region until the Nation's long-term strategic objectives are secured. 
Indeed, the insertion of ground troops is the most tangible and durable 
measure of America's commitment to defend our interests, protect our 
friends, and defeat our enemies.
    With global trends pointing to further instability, our Army 
remains a key guardian of our national security. In the wake of the 
cold war, it was said that we had reached the ``end of history,'' and 
that liberal democracy had won the ideological competition. However, 
events since then make it clear that potential adversaries with 
competing ideologies still exist and are extremely dangerous.
    As a result, we find ourselves in an increasingly uncertain world, 
with threats ranging from terrorist and cyberattacks to regional 
instability to the proliferation of weapons of mass destruction. For 
our Army that means we will likely have to deal with near peer 
competitors in niche areas and hybrid threats that mix regular, 
irregular, and criminal activity--all while still facing the 
possibility of a conventional force-on-force conflict.
    The danger extends from the homeland to the theater where combat 
operations might occur. Conflict is the norm; a stable peace the 
exception. In such a world, our adversaries will adapt to gain 
advantage, especially in the land domain. And it is on land that our 
challenges will be the most complex because of dynamic human 
relationships and terrain variables.
    While the Army's new end-strength numbers allow it to support 
current defense priorities, it is imperative that the Army draw down 
end-strength levels in a smart and responsible manner. We believe that 
our new end-strength provides us with the flexibility to retain the 
hard-won expertise it has gained over the last decade. To be sure, the 
Army has faced similar challenges before. After every major conflict 
since the Revolutionary War, the Army has faced pressure to decrease 
its end-strength. As recently as 2001 (pre-9/11), many believed a 
strategic shift was needed and that the future of modern warfare would 
be about missile defense, satellites, and high-tech weaponry because no 
adversary would dare challenge America's conventional forces. But 
whenever we have rushed to radically diminish the position of the Army, 
the result has always been the same: an excessive decline in 
effectiveness at a cost of blood and treasure.
    Decreases after World War I directly contributed to failures at 
Kasserine Pass. Decreases after World War II led to Task Force Smith's 
failure in Korea. More recently, the end of the cold war demonstrated 
our Nation's need for agile, adaptable, and decisive ground forces to 
conduct a wide range of operations. These numerous missions include 
Operation Provide Comfort in Iraq, Joint Task Force Andrew in Florida, 
Operation Restore Hope in Somalia, Operation Uphold Democracy in Haiti, 
Operation Joint Endeavor in Bosnia-Herzegovina, and Operation Joint 
Guardian in Kosovo. What they have in common is that they were 
unforeseen, thus emphasizing our need to avoid the historical pattern 
of drawing down too fast.
    America's leaders face difficult choices as they chart the way 
ahead for our Nation. Familiar external threats persist and complex new 
challenges will emerge. Concurrently, fiscal limitations create 
internal challenges for our leaders. America's Army is prepared to 
fulfill its role in keeping the Nation secure. The Army will prevent 
conflict by remaining a credible force with sufficient capacity to 
dissuade adversaries from challenging American interests. The Army will 
shape the environment, building positive relationships and capabilities 
that enable nations to effectively protect and govern their citizenry. 
Finally, when called, the Army will fight for the Nation and win 
decisively. We understand these responsibilities and resolve not to 
reduce the size of the Army in a manner that does not permit us to 
reverse the process should demand for forces increase dramatically.
    As we look ahead, the Army is focusing on three areas. Our first 
priority remains supporting operations in Afghanistan. We will guard 
against becoming distracted by the future at the risk of our men and 
women who remain in harm's way.
    Second, we will be the very best stewards we can because America's 
resources are too precious to waste. Transforming the Institutional 
Army, reforming our acquisition process and ensuring energy security 
are essential for us to protect the resources provided by the Congress 
and the American people.
    Third, we will fight to incorporate principles and processes that 
preserve readiness and capability while reducing the size of the Army. 
We are adjusting our formations to build the right number of units with 
the right capability to meet the needs of the Joint Force. The past 10 
years have taught us that an operational reserve force is essential to 
accomplish our missions and expand rapidly when required. We will 
invest deliberately and wisely in our soldiers, civilians, and families 
to make sure they are prepared and supported. We will treat those who 
have served in our ranks with respect and honor. Our wounded soldiers 
will receive the very best care the Nation can provide, and our 
soldiers who return to civilian life will be well-prepared to do so.
    Future threats will demand enhanced capabilities for our soldiers, 
so we will modernize our equipment. The Army has identified four 
programs to highlight. The Network gives sight, sound, and awareness to 
our soldiers, civilians, and leaders to defeat our adversaries. The GCV 
and JLTV will incorporate hard-won lessons in Iraq and Afghanistan to 
provide the mobility and protection our soldiers require. Investments 
in soldier systems improve our soldiers' ability to move, fight, and 
survive on the battlefield.
    The Army has chosen its focus areas carefully and deliberately 
because they will enable us to provide what Nation needs. We owe it to 
America and to the American soldier, the Nation's servant and warrior--
the strength of the Nation.
                                 ______
                                 
     2012 Reserve Component Addendum to the Army Posture Statement
    Sections 517 and 519 of the National Defense Authorization Act of 
1994 (NDAA) require the information in this addendum. Section 517 
requires a report relating to implementation of the pilot program for 
Active component support of the Reserves under section 414 of the NDAA 
of 1992 and 1993. Section 519 requires a detailed presentation 
concerning the Army National Guard (ARNG), including information 
relating to implementation of the ARNG Combat Readiness Reform Act 
(ANGCRRA) of 1992 (title XI of Public Law 102-484, referred to in this 
addendum as ANGCRRA). Section 704 of the NDAA amended section 519 
reporting. Included is the U.S. Army Reserve information using section 
519 reporting criteria. The data included in the report is information 
that was available September 30, 2011.
Section 517(b)(2)(A)
    The promotion rate for officers considered for promotion from 
within the promotion zone who are serving as Active component advisors 
to units of the Selected Reserve of the Ready Reserve (in accordance 
with that program) compared with the promotion rate for other officers 
considered for promotion from within the promotion zone in the same pay 
grade and the same competitive category, shown for all officers of the 
Army.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                            Fiscal year 2010                                         Fiscal year 2011
                                       -----------------------------------------------------------------------------------------------------------------
                                          Active component in                     Army average     Active component in                     Army average
                                           Reserve  component    Percentage \1\  percentage \2\     Reserve  component    Percentage \1\  percentage \2\
--------------------------------------------------------------------------------------------------------------------------------------------------------
Major.................................  57 of 67...............           85.1            92.1   73 of 86...............           84.9            93.3
Lieutenant Colonel....................  10 of 12...............           83.3            88.7   6 of 11................           54.5            86.8
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Active component officers serving in Reserve component assignments at time of consideration.
\2\ Active component officers not serving in Reserve component assignments at the time of consideration.

Section 517(b)(2)(B)
    The promotion rate for officers considered for promotion from below 
the promotion zone who are serving as Active component advisors to 
units of the Selected Reserve of the Ready Reserve (in accordance with 
that program) compared in the same manner as specified in subparagraph 
(A) (the paragraph above).

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                            Fiscal year 2010                                         Fiscal year 2011
                                       -----------------------------------------------------------------------------------------------------------------
                                          Active component in                     Army average     Active component in                     Army average
                                           Reserve  component    Percentage \1\  percentage \2\     Reserve  component    Percentage \1\  percentage \2\
--------------------------------------------------------------------------------------------------------------------------------------------------------
Major.................................  6 of 123...............            4.9             5.7   3 of 57................            5.3             8.7
Lieutenant Colonel....................  0 of 7.................  ..............           10.7   0 of 10................  ..............            3.5
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Below-the-zone Active component officers serving in Reserve component assignments at time of consideration.
\2\ Below-the-zone Active component officers not serving in Reserve component assignments at time of consideration.

Section 519(b)
    1. The number and percentage of officers with at least 2 years of 
Active Duty before becoming a member of the ARNG or the U.S. Army 
Reserve Selected Reserve units.
      Army National Guard Officers.--21,425 or 49.2 percent of which 
        1,429 were fiscal year 2011 accessions.
      Army Reserve Officers.--9,888 or 33 percent of which 389 were 
        fiscal year 2011 accessions.
    2. The number and percentage of enlisted personnel with at least 2 
years of Active Duty before becoming a member of the ARNG or the U.S. 
Army Reserve Selected Reserve units.
      Army National Guard Enlisted.--95,375 or 30 percent of which 
        7,243 were fiscal year 2011 accessions.
      Army Reserve Enlisted.--35,796 or 21 percent of which 3,524 were 
        fiscal year 2011 accessions.
    3. The number of officers who are graduates of one of the service 
academies and were released from Active Duty before the completion of 
their Active-Duty service obligation and, of those officers:
    a. The number who are serving the remaining period of their Active-
Duty service obligation as a member of the Selected Reserve pursuant to 
section 1112(a)(1) of ANGCRRA:
      In fiscal year 2011, there was one Service Academy graduate 
        released from Active Duty before completing their obligation to 
        serve in the Army Reserve.
    b. The number for whom waivers were granted by the Secretary of the 
Army under section 1112(a)(2) of ANGCRRA, together with the reason for 
each waiver:
      In fiscal year 2011, under section 1112(a)(2) of ANGCRRA the 
        Secretary of the Army granted no waivers to the Army National 
        Guard.
      In fiscal year 2011, under section 1112(a)(2) of ANGCRRA the 
        Secretary of the Army granted one waiver to the Army Reserve. 
        The waiver provided the soldier an opportunity to play a 
        professional sport and complete service obligation.
    4. The number of officers who were commissioned as distinguished 
Reserve Officers' Training Corps (ROTC) graduates and were released 
from active duty before the completion of their Active-Duty service 
obligation and, of those officers:
    a. The number who are serving the remaining period of their Active-
Duty service obligation as a member of the Selected Reserve pursuant to 
section 1112(a)(1) of ANGCRRA:
      In fiscal year 2011, there were no distinguished ROTC graduates 
        serving the remaining period of their Active-Duty service 
        obligation as a member of the Selected Reserve.
    b. The number for whom waivers were granted by the Secretary of the 
Army under section 1112(a)(2) of ANGCRRA, together with the reason for 
each waiver:
      In fiscal year 2011, the Secretary of the Army granted no 
        waivers.
    5. The number of officers who are graduates of the ROTC program and 
who are performing their minimum period of obligated service in 
accordance with section 1112(b) of ANGCRRA by a combination of 2 years 
of Active Duty and such additional period of service as is necessary to 
complete the remainder of such obligation served in the National Guard 
and, of those officers, the number for whom permission to perform their 
minimum period of obligated service in accordance with that section was 
granted during the preceding fiscal year:
      In fiscal year 2011, there were no graduates released early from 
        an Active-Duty obligation.
    6. The number of officers for whom recommendations were made during 
the preceding fiscal year for a unit vacancy promotion to a grade above 
First Lieutenant, and of those recommendations, the number and 
percentage that were concurred in by an Active-Duty officer under 
section 1113(a) of ANGCRRA, shown separately for each of the three 
categories of officers set forth in section 1113(b) of ANGCRRA (with 
Army Reserve data also reported).
      There are no longer Active and Reserve component associations 
        affiliated with ARNG vacancy promotion due to operational 
        mission requirements and deployment tempo. Active component 
        officers no longer concur or nonconcur with unit vacancy 
        promotion recommendations for officers in associated units 
        according to section 1113(a). However, unit vacancy promotion 
        boards have Active component representation.
      In fiscal year 2011, the ARNG recommended 4,286 officers for a 
        position-vacancy promotion and promoted 2,318.
      In fiscal year 2011, the Army Reserve recommended 85 officers for 
        a position-vacancy promotion and promoted 85.
    7. The number of waivers during the preceding fiscal year under 
section 1114(a) of ANGCRRA of any standard prescribed by the Secretary 
establishing a military education requirement for noncommissioned 
officers and the reason for each such waiver.
      In fiscal year 2011, the ARNG had a total of 44 soldiers that 
        received a military education waiver. The waivers were granted 
        based on noncompletion of the Warrior Leader Course (WLC) due 
        to assignment to a Warrior Transition Unit (WTU) (``medical 
        hold'' or ``medical hold-over'' units); and noncompletion of 
        the Advanced Leader Course (ALC) or Senior Leader Course (SLC) 
        due to deployment or training schedule constraints.
      In fiscal year 2011, the Army Reserve had a total of 257 soldiers 
        who received a military education waiver. Of these, 89 were 
        sergeants (SGTs) in need of a waiver for WLC as a result of 
        being deployed or assigned to WTUs (medical hold or medical 
        hold-over units) because of a medical condition incurred in 
        direct support of Contingency Operations while otherwise 
        eligible for promotion, if recommended. Furthermore, 155 
        waivers for ALC and 13 waivers for SLC were granted to soldiers 
        otherwise eligible for consideration but lacking the 
        prerequisite level of Noncommissioned Officer Education System 
        (NCOES) schooling as a direct result of operational deployment 
        conflicts or inability of the Army to schedule the course.
      The Secretary of the Army has delegated the authority for the 
        waivers referred to in section 114(a) of ANGCRRA to the 
        Director, ARNG and to the Commander, U.S. Army Reserve Command 
        (USARC). The National Guard Bureau (NGB), and the USARC 
        maintain details for each waiver.
    8. The number and distribution by grade, shown for each State, of 
personnel in the initial entry training and nondeployability personnel 
accounting category established under section 1115 of ANGCRRA for 
members of the ARNG who have not completed the minimum training 
required for deployment or who are otherwise not available for 
deployment. (Included is a narrative summary of information pertaining 
to the Army Reserve.)
      In fiscal year 2011, the ARNG had 49,454 soldiers considered 
        nondeployable for reasons outlined in Army Regulation (AR) 220-
        1, Unit Status Reporting (e.g., initial entry training; medical 
        issues; medical nonavailability; pending administrative or 
        legal discharge; separation; officer transition; 
        nonparticipation or restrictions on the use or possession of 
        weapons and ammunition under the Lautenberg amendment). NGB 
        maintains the detailed information.
      In fiscal year 2011, the Army Reserve had 34,180 soldiers 
        considered nondeployable for reasons outlined in AR 220-1, Unit 
        Status Reporting (e.g., initial entry training; medical issues; 
        medical nonavailability; pending administrative or legal 
        discharge; separation; officer transition; nonparticipation or 
        restrictions on the use or possession of weapons and ammunition 
        under the Lautenberg amendment). USARC maintains the detailed 
        information.
    9. The number of members of the ARNG, shown for each State, that 
were discharged during the previous fiscal year pursuant to section 
1115(c)(1) of ANGCRRA for not completing the minimum training required 
for deployment within 24 months after entering the National Guard. 
(Army Reserve data also reported.)
      A total of 445 ARNG soldiers, with at least 24-months time in 
        ARNG, were losses in fiscal year 2011 due to lack of minimum 
        required military education. The breakdown is 265 enlisted and 
        180 officers.
      The number of Army Reserve soldiers discharged during fiscal year 
        2011 for not completing the minimum training required for 
        deployment within 24 months after entering the Army Reserve is 
        24 officers and 5 enlisted soldiers. Under AR 135-175, 
        Separation of Officers, separation actions are necessary for 
        officers who have not completed a basic branch course within 36 
        months after commissioning. Under AR 135-178, Separation of 
        Enlisted Personnel, separation actions are necessary for 
        soldiers who have not completed the required initial-entry 
        training within the first 24 months.
    10. The number of waivers, shown for each State, that were granted 
by the Secretary of the Army during the previous fiscal year under 
section 1115(c)(2) of ANGCRRA of the requirement in section 1115(c)(1) 
of ANGCRRA described in paragraph (9), together with the reason for 
each waiver.
      In fiscal year 2011, there were no waivers granted Secretary of 
        the Army to the ARNG under section 1115(c)(2) of ANGCRRA of the 
        requirement in section 1115(c)(1) of ANGCRRA described in 
        paragraph (9).
      In fiscal year 2011, there were 210 waivers granted by the Chief, 
        Army Reserve. The Army Reserve was delegated the authority to 
        grant waivers for personnel who did not complete the minimum 
        training required for deployment within 24 months after 
        entering the Army Reserve. The reasons for waivers were 
        categorized as Hardship, Medical, or Administrative (i.e. 
        failed height/weight standards, failed to obtain driver 
        license, accepted ROTC scholarship, temporary disqualified, and 
        failed to complete high school).
    11. The number of ARNG members, shown for each State, (and the 
number of Army Reserve members), who were screened during the preceding 
fiscal year to determine whether they meet minimum physical profile 
standards required for deployment and, of those members:
    --the number and percentage who did not meet minimum physical 
profile standards for deployment; and
    --the number and percentage who were transferred pursuant to 
section 1116 of ANGCRRA to the personnel accounting category described 
in paragraph (8).
    a. The number and percentage who did not meet minimum physical 
profile standards required for deployment:
      In fiscal year 2011, 256,696 ARNG soldiers underwent a Periodic 
        Health Assessment (PHA). There were 14,305 (3.9 percent of the 
        soldiers who underwent PHA) personnel identified for review due 
        to a profile-limiting condition or failure to meet retention 
        standards.
      In fiscal year 2011, 124,785 Army Reserve soldiers underwent a 
        PHA. There were 14,948 (12 percent of the soldiers who 
        underwent PHA) personnel identified for review due to a profile 
        limiting condition or failure to meet retention standards.
    b. The number and percentage that transferred pursuant to section 
1116 of ANGCRRA to the personnel accounting category described in 
paragraph (8).
      In fiscal year 2011, the ARNG transferred all 14,305 soldiers to 
        a medically nondeployable status who were identified for a 
        review due to a profile limiting condition or failure to meet 
        retention standards.
      In fiscal year 2011, the Army Reserve transferred 15,826 soldiers 
        to a medically nondeployable status who were identified for a 
        review due to a profile limiting condition or failure to meet 
        retention standards.
      On August 23, 2010, Department of the Army implemented medical 
        readiness categories (MRC) per AR 40-501 which replaced fully 
        medically ready (FMR) as the metric for measuring individual 
        medical readiness (IMR) in the Army. This new way of measuring 
        medical readiness by classifying soldiers into MRC reduced the 
        number of soldiers considered medically not ready in the ARNG 
        in fiscal year 2011. Soldiers previously listed as not ``fully 
        medically ready'' because they didn't have current 
        immunizations, medical warning tags, DNA, and a current HIV 
        test on file are now considered ``medically ready'' and 
        identified as MRC 2 (which is correctable within 72 hours). The 
        data is generated from MEDPROS, the medical readiness database 
        of record for the Army.
    12. The number of members and the percentage total membership of 
the ARNG shown for each State who underwent a medical screening during 
the previous fiscal year as provided in section 1117 of ANGCRRA.
      Public Law 104-106 (NDAA 1996), division A, title VII, section 
        704(b), February 10, 1996, repealed section 1117 of ANGCRRA.
    13. The number of members and the percentage of the total 
membership of the ARNG shown for each State who underwent a dental 
screening during the previous fiscal year as provided in section 1117 
of ANGCRRA.
      Public Law 104-106 (NDAA 1996), division A, title VII, section 
        704(b), February 10, 1996, repealed section 1117 of ANGCRRA.
    14. The number of members and the percentage of the total 
membership of the ARNG shown for each State, older than the age of 40 
who underwent a full physical examination during the previous fiscal 
year for purposes of section 1117 of ANGCRRA.
      Public Law 104-106 (NDAA 1996), division A, title VII, section 
        704(b), February 10, 1996, repealed section 1117 of ANGCRRA.
    15. The number of units of the ARNG that are scheduled for early 
deployment in the event of a mobilization, and of those units, the 
number that are dentally ready for deployment in accordance with 
section 1118 of ANGCRRA.
      Public Law 104-106 (NDAA 1996), division A, title VII, section 
        704(b), February 10, 1996, repealed section 1118 of ANGCRRA.
    16. The estimated postmobilization training time for each ARNG 
combat unit (and Army Reserve unit), and a description, displayed in 
broad categories and by State of what training would need to be 
accomplished for ARNG combat units (and Army Reserve units) in a 
postmobilization period for purposes of section 1119 of ANGCRRA.
      The January 19, 2007 Secretary of Defense Memorandum, 
        ``Utilization of the Total Force,'' limited Reserve component 
        unit mobilizations to 400-day periods, including 30-days 
        postmobilization leave, and 5 days out-processing. The most 
        significant impact of this policy change to the ARNG is the 
        inclusion of postmobilization training time during the 400-day 
        mobilization period.
      Timely alert for mobilizations--at least 1 year prior--is crucial 
        to the ARNG's mission success. Under the ARFORGEN model, many 
        training tasks previously conducted during the postmobilization 
        phase now occur in local training areas before mobilization. 
        First Army (1A), in the continental United States (CONUS), 
        manages and directs postmobilization training for Reserve 
        component conventional forces. 1A, in theater, conducts the 
        theater-specified training required and confirms the readiness 
        of mobilized units waiting to deploy.
      ARNG training and Army Reserve training complies with the 
        ARFORGEN model of progressive training over multiyear cycles 
        and reflects the Army Training Strategy. Units move through the 
        ARFORGEN cycle in three force pools (reset, train/ready, and 
        available). Training progresses through these force pools with 
        the initial focus on individual and leader training, migrating 
        to low-level unit and battle staff, and finally culminating in 
        multi-echelon, combined-arms exercises in the ready year.
      All ARNG units are ``Combat Units.'' Forces Command Pre-
        Deployment Training, in support of combatant commands' 
        guidance, identifies four categories of deploying units:
        --Category (CAT) 1 includes units that would rarely, if ever, 
            travel off a Contingency Operating Base/Forward Operating 
            Base (COB/FOB);
        --CAT 2 includes units that will, or potentially will, travel 
            off a COB/FOB for short durations;
        --CAT 3 includes units that travel and conduct the majority of 
            their missions off a COB/FOB; and
        --CAT 4 consists of maneuver units with an area of operations 
            (such as brigade combat teams).
      The premobilization tasks increase by category, up to CAT 4. A 
        unit's postmobilization training time depends on the number of 
        the premobilization tasks completed during premobilization. 
        Army goals for postmobilization training for Reserve component 
        headquarters and combat support/combat service support units 
        range from 15 to 45 days, depending on the type and category of 
        the unit (Note: This time does not include administrative and 
        travel days). Any premobilization tasks not completed during 
        the premobilization phase must be completed at a mobilization 
        station. ARNG typically sends units to a mobilization station 
        with a premobilization task completion rate of 90-95 percent. 
        Smaller ARNG units typically arrive at mobilization station 
        100-percent complete.
      Postmobilization training conducted by First Army (1A) typically 
        consists of:
        --theater orientation;
        --rules of engagement and escalation-of-force training;
        --counterinsurgency operations;
        --counter-improvised-explosive-device training;
        --convoy live-fire exercises; and
        --completion of any theater-specified training not completed 
            during the premobilization period.
      Postmobilization training days for a CAT 4 unit range from 50-65 
        days training at mobilization station. This training supports a 
        Combat Training Center culminating training event during 
        postmobilization that a CAT 4 unit is required to perform in 
        order to be validated and deployed (National Training Center or 
        Joint Readiness Training Center; 30-day training exercises).
      Below is an outline depicting postmobilization training day goals 
        for various units.

           FIRST ARMY-APPROVED POSTMOBILIZATION TRAINING PLANS
------------------------------------------------------------------------
                                       Postmobilization training days
                                  --------------------------------------
                                     Current        Goal        Delta
------------------------------------------------------------------------
 I/H/S Brigade Combat Team.......           63           45          +18
Combat Aviation Brigade..........           33           60          -27
Military Police (Internment/                27           40          -13
 resettlement)...................
Engineer Battalion (Route                   37           40           -3
 clearance)......................
Military Police Company..........           30           40          -10
Quartermaster Company............           23           15           +8
Engineer Company (Construction)..           29           40          -11
Transportation Company (Heavy               37           40           -3
 equipment transportation).......
------------------------------------------------------------------------

      The Army Reserve (AR) Command in conjunction with 1A, Forces 
        Command (FORSCOM) and Headquarters Department of the Army 
        (HQDA) are in the process of transitioning the business rules 
        for pre- and postmobilization training for Army Reserve 
        formations deploying in support of overseas contingency 
        operations (OCO). This is motivated in order to meet the intent 
        behind FRAGO 4 to HQDA EXORD 150-08 (RC Deployment 
        Expeditionary Force (DEF) Pre and Postmobilization Training 
        Strategy), the January 19, 2007 SECDEF Memorandum, 
        ``Utilization of the Total Force'' and the August 4, 2011 
        Secretary of the Army Memorandum, ``Army Deployment Period 
        Policy.''
      Both the current and projected models are listed below, but both 
        exclude all individual skills training, to include PME, MOSQ 
        and functional training. The bulk of individual skills training 
        will remain a premobilization requirement and would consist of 
        24 days of Inactive Duty Training, 15-29 days of Annual 
        Training for Collective Training, and, under the current model, 
        21 additional days of Active Duty Training individual training 
        (Army Warrior Tasks (AWTs), Theater Specific Required Training 
        (TSRT)). Under the projected model, the 21 additional days 
        would be eliminated. Some formations, under the current model, 
        used up to 74 days premobilization to obtain a T2 rating prior 
        to mobilization and up to 60 days postmobilization to achieve a 
        T1 rating. Below is an average of current pre- and 
        postmobilization training models which will expire September 
        30, 2012. To reduce the demand on soldiers in a premobilization 
        status, 1A will assume the training responsibility for many of 
        the AWTs and TSRT on October 1, 2012. AR units will mobilize at 
        no less than a T3 rating. The shift in training strategy is for 
        DEF units only and will increase current postmobilization days 
        by a projected 10 days.

----------------------------------------------------------------------------------------------------------------
                                                                        Average
             Category \1\                      Average              postmobilization          Average  total
                                           premobilization              training             postmobilization
----------------------------------------------------------------------------------------------------------------
Current model:
    1................................                  65 days                  17 days                  30 days
    2................................                  60 days                  22 days                  34 days
    3................................                  56 days                  33 days                  46 days
Projected model:
    1................................                    39-45                  27 days              40 days \2\
    2................................                    39-45                  32 days              44 days \2\
    3................................                    39-45                  43 days              56 days \2\
----------------------------------------------------------------------------------------------------------------
\1\ No CAT 4 formations in the AR.
\2\ Some formations may require up to 70 days post-MOB to achieve T1 and satisfy COCOM requirements.

    17. A description of the measures taken during the preceding fiscal 
year to comply with the requirement in section 1120 of ANGCRRA to 
expand the use of simulations, simulators, and advanced training 
devices and technologies for members and units of ARNG (and the Army 
Reserve).
      During fiscal year 2011, the ARNG continued to synchronize the 
        use of existing and ongoing live, virtual, and constructive 
        training aids, devices, simulations, and simulators (TADSS) 
        programs with the training requirements of the ARFORGEN 
        training model. By synchronizing the use of TADSS with 
        ARFORGEN, ARNG continues to improve unit training proficiency 
        prior to mobilization.
      To support the training requirements of M1A1 Abrams and M2A2 
        Bradley equipped brigade combat teams (BCTs) the ARNG is 
        continuing to field and train using the Conduct of Fire 
        Trainer-Situation Awareness (COFT-SA) and the Mobile-Conduct of 
        Fire Trainer Situation Awareness (M-COFT-SA). Due to the 
        geographical dispersion of units, ARNG has developed the M-
        COFT-SA trainer as a mobile solution to fulfill training gaps. 
        ARNG continued fielding Tabletop Full-Fidelity Trainers and is 
        fielding the Bradley Advanced Training System (BATS) for the 
        M2A2 units. When fully fielded, these devices, in addition to 
        the Conduct of Fire Trainer Advanced Gunnery Trainer System 
        (CAGTS) will be the primary simulation trainers to meet the 
        virtual gunnery requirements of M1A1 and M2A2/A3 crews.
      In order to train all ARNG units on the tactics, techniques, and 
        procedures (TTPs) of convoy operations and meet unstabilized 
        gunnery requirements, ARNG has fielded the Virtual Convoy 
        Operations Trainer (VCOT). The VCOT, through the use of 
        software databases, provides commanders with a unique and 
        critical mission rehearsal tool. In addition, ARNG has added an 
        Individual Gunnery Trainer (IGT) to train individual and crew 
        drills for .50 caliber and MK19 unstabilized gunnery tasks 
        listed in the HBCT gunnery manual. Currently, all 54 States and 
        territories have received the VCOT capability. The IGT is an 
        initiative that is currently being fielded; to date 140 IGT 
        systems have been fielded to ARNG units.
      ARNG is currently fielding the Operation Driver Simulator that 
        trains transportation tasks in a family of vehicles, at both 
        the unit and institutional levels.
      ARNG has just completed the Army Training Support Command 
        directed upgrades to the Call For Fire Trainer II (CFFT II). 
        The CFFT II trains Artillery Soldiers and observers of indirect 
        fires on critical skills prior to live fire requirements.
      To meet basic and advanced rifle marksmanship requirements, ARNG 
        is continuing to field the Engagement Skills Trainer (EST 
        2000). This system is the Army's approved marksmanship training 
        device. ARNG is also continuing the use of its previously 
        procured Fire Arms Training System (FATS) until EST 2000 
        fielding is completed. EST 2000 and FATS also provides static 
        unit collective gunnery and tactical training, and shoot/don't 
        shoot training. The Army is currently rewriting the strategy 
        for the EST 2000 to include ARNG initiative of the mobile EST 
        to accommodate the geographical troop dispersion of ARNG. These 
        systems also support units conducting vital homeland defense 
        missions.
      ARNG supplements its marksmanship-training strategy with the 
        Laser Marksmanship Training System (LMTS). The use of LMTS 
        helps to develop and maintain basic marksmanship skills, 
        diagnose and correct problems, and assess basic and advanced 
        skills. ARNG has more than 900 systems fielded down to the 
        company level. LMTS is a laser-based training device that 
        replicates the firing of the soldier's weapon without live 
        ammunition.
      The Improvised Explosive Device Effects Simulator (IEDES) 
        supports the training requirements for the detection, reaction, 
        classification, prevention, and reporting of Improvised 
        Explosive Devices. The IEDES kits consist of pyrotechnic and/or 
        nonpyrotechnic training devices to achieve scalable signature 
        effects. ARNG is currently fielded 258 total IEDES kits, of 
        which, 194 are nonpyrotechnic kits (A-kits) and 64 are 
        pyrotechnic kits (B-kits). This distribution includes 53 ARNG 
        training sites across 39 States and territories. They have 
        received fielding, New Equipment Training (NET) and life-cycle 
        sustainment as of third-quarter fiscal year 2012. ARNG-TRS is 
        continuing the effort to identify and fill requirements based 
        on the recently completed (first quarter, 2012) TADSS Mission 
        Essential Requirements (MER) review. The latest IEDES 
        innovation is the fielding of the IEDES Transit Cases to 
        support less than company size training scenarios.
      ARNG continues to develop its battle command training capability 
        through the Mission Command Training Support Program (MCTSP). 
        This program provides live, virtual, constructive, and gaming 
        (LVC&G) training support at unit home stations via mobile 
        training teams. Units can also train at Mission Training 
        Complexes (MTC). The MCTSP consists of three MTCs at Camp 
        Dodge, Iowa; Fort Indiantown Gap, Pennsylvania; and Fort 
        Leavenworth, Kansas, and a regional Distributed Mission Support 
        Team (DMST). The Army Campaign Plan 2011 requires the ARNG to 
        train 172 units (Brigade equivalents and above). The MCTSP 
        synchronizes ARNG mission command training capabilities to help 
        units plan, prepare, and execute battle staff training. The 
        objective is to develop proficient battle command staffs and 
        trained operators during premobilization training.
      In order to provide the critical culminating training event for 
        the U.S. Army Forces Command (FORSCOM) ARFORGEN cycle, the ARNG 
        has implemented the Exportable Combat Training Capability 
        (XCTC) Program. The ARNG XCTC program provides Battalion Battle 
        Staff training to the level organized, coupled with a theater 
        immersed, mission-focused training event to certify company 
        level proficiency prior to entering the ARFORGEN Available 
        Force Pool defined as Certified Company Proficiency with 
        demonstrated Battalion Battle Staff proficiency, competent 
        leaders, and trained soldiers prepared for success on the 
        battlefield.
      The Army Reserve continues to develop its ability to integrate 
        live, virtual, constructive and gaming training aids, devices, 
        simulations, and simulators (TADSS) programs with the Army 
        Reserve Training Strategy in order to meet established aim 
        points in our ARFORGEN training model. TADSS play an essential 
        role in our collective training exercises on our installations 
        which help support our transition from a strategic to an 
        operational Army Reserve and meet our ARFORGEN aim point of 
        providing units at T2 readiness in the available year. Just as 
        critical, TADSS also support our individual soldier training at 
        home station, local training areas, and institutions. By 
        synchronizing the use of TADSS with ARFORGEN, the Army Reserve 
        continues to improve unit training proficiency and ensures we 
        meet our requirement to provide the combatant commanders with 
        trained units and proficient battle staffs.
      The Warrior and Combat Support Training Exercises are the Army 
        Reserve's major collective training exercises conducted on Army 
        Reserve installations. These exercises integrate live and 
        constructive environments to train senior battle staffs while 
        lower echelon units conduct company and platoon lanes. The Army 
        Reserve has made sizable investments in improving the facility 
        infrastructure at Fort Hunter Liggett and Fort McCoy to support 
        the use of TADSS in these and future exercises. The 75th 
        Mission Command Training Division is utilizing the Entity-level 
        Resolution Federation to provide a high-resolution (e.g., 
        individual soldier-level fidelity aggregated to unit 
        resolutions) joint constructive battle staff training 
        simulation.
      The Army Reserve also utilizes TADSS to assist individual 
        soldiers in maintaining their technical and tactical 
        proficiency. These TADSS assist soldiers in training on 
        individual pieces of equipment and in sharpening their 
        battlefield skills.
      Low-density simulators continue to be employed to reduce 
        expensive ``live'' time for unique combat service support 
        equipment. For example, Army Reserve watercraft units train on 
        the Maritime Integrated Training System (MITS), a bridge 
        simulator that not only trains vessel captains but the entire 
        crew of Army watercraft. Other simulators include locomotive 
        simulators used by Army Reserve railroad units and a barge 
        derrick simulator for transportation terminal units.
      Use of the Laser Marksmanship Training System (LMTS) and 
        Engagement Skills Trainer 2000 (EST 2000) remain essential 
        elements of the Army Reserve marksmanship training strategy. 
        During fiscal year 2011, the Army Reserve fielded more than 529 
        LMTS to 396 Army Reserve facilities to support home station 
        basic marksmanship training for individual and crew served 
        weapons. The system allows the soldier to use their assigned 
        weapon, as well as crew served weapons, in a simulation/
        training mode. In fiscal year 2011, the Army Reserve also 
        fielded the EST 2000 to 21 Army Reserve facilities. The EST 
        2000 provides initial and sustainment marksmanship training, 
        static unit collective gunnery and tactical training, and 
        shoot/don't shoot training.
    18. Summary tables of unit readiness, shown for each State, (and 
for the Army Reserve), and drawn from the unit readiness rating system 
as required by section 1121 of ANGCRRA, including the personnel 
readiness rating information and the equipment readiness assessment 
information required by that section, together with:
    a. Explanations of the information:
      Readiness tables are classified and can be provided upon request. 
        The Department of the Army, G-3, maintains this information. 
        The States do not capture this data. The information is 
        maintained in the Defense Readiness Reporting System--Army.
    b. Based on the information shown in the tables, the Secretary's 
overall assessment of the deployability of units of ARNG (and Army 
Reserve), including a discussion of personnel deficiencies and 
equipment shortfalls in accordance with section 1121:
      Summary tables and overall assessments are classified and can be 
        provided upon request. The Department of the Army, G-3, 
        maintains this information. The information is maintained in 
        the Defense Readiness Reporting System--Army.
    19. Summary tables, shown for each State (and Army Reserve), of the 
results of inspections of units of ARNG (and Army Reserve) by 
Inspectors General or other commissioned officers of the regular Army 
under the provisions of section 105 of title 32, together with 
explanations of the information shown in the tables, and including 
display of:
    a. The number of such inspections;
    b. Identification of the entity conducting each inspection;
    c. The number of units inspected; and
    d. The overall results of such inspections, including the 
inspector's determination for each inspected unit of whether the unit 
met deployability standards and, for those units not meeting 
deployability standards, the reasons for such failure and the status of 
corrective actions.
      During fiscal year 2011, Inspectors General and other 
        commissioned officers of the regular Army conducted 1,219 
        inspections of the ARNG. Regular Army officers assigned to the 
        respective States and territories as Inspectors General 
        executed the bulk of these inspections (959). Of the remaining 
        126 inspections, the U.S. Army Forces Command (FORSCOM), 
        Communications-Electronics Command (CECOM), and other external 
        inspection agencies conducted 104. Because the inspections 
        conducted by Inspectors General focused on findings and 
        recommendations, the units involved in these inspections were 
        not provided with a pass/fail rating. Results of these 
        inspections may be requested for release through the Inspector 
        General of the Army.
      The Army Reserve Office of the Inspector General conducted two 
        assessments within the last 12 months. The first was entitled 
        Property Accountability within the Army Reserve (Directed by 
        the Chief, Army Reserve (CAR)) on January 25, 2011 and final 
        report approved on August 11, 2011). The second assessment 
        entitled Special Assessment of Personnel Transition within the 
        Army Reserve was directed by the CAR on August 11, 2011 and is 
        ongoing (expected final report approval in March 2012). The 
        Army Reserve Office of the Inspector General conducted both 
        assessments. The Army Reserve Inspection General assessed 30 
        units for Property Accountability. As of December 13, 2011, 33 
        units have been assessed as part of the Personnel Transitions 
        Assessment. The overall goal of both assessments was not to 
        evaluate the unit's deployability status. However, out of the 
        total 66 units assessed nothing was found that would cause a 
        unit to be listed as nondeployable. Results of these 
        inspections may be requested for release through the Inspector 
        General of the Army.
    20. A listing, for each ARNG combat unit (and U.S. Army Reserve FSP 
units) of the Active-Duty combat units (and other units) associated 
with that ARNG (and U.S. Army Reserve) unit in accordance with section 
1131(a) of ANGCRRA, shown by state, for each such ARNG unit (and for 
the U.S. Army Reserve) by:
  --the assessment of the commander of that associated Active-Duty unit 
        of the manpower, equipment, and training resource requirements 
        of that National Guard (and Army Reserve) unit in accordance 
        with section 1131(b)(3) of the ANGCRRA; and
  --the results of the validation by the commander of that associated 
        Active-Duty unit of the compatibility of that National Guard 
        (or U.S. Army Reserve) unit with Active Duty Forces in 
        accordance with section 1131(b)(4) of ANGCRRA.
      While the methods employed by the Army to manage the Active 
        component (AC) support to Reserve component (RC) readiness have 
        changed during the last 10 years of persistent conflict, we 
        have met the intent of the Congress as outlined in title XI of 
        the National Defense Authorization Act of 1993, as amended. 
        Every RC unit that deployed during fiscal year 2011 was 
        properly manned, equipped, trained, and certified to meet 
        combatant commander (CCDR) requirements prior to employment 
        overseas and CONUS by supporting processes associated with the 
        ARFORGEN process.
      The Army began its transformation from large, fixed organizations 
        (divisions and corps) to a modular, brigade-centric 
        organization in 2004. At the same time, and while engaged in 
        persistent conflict, it began transforming the way it executes 
        the training and readiness of modular units--both AC and RC--to 
        meet CCDR requirements. As such, modular force transformation 
        and the implementation of the ARFORGEN process precludes a 
        response in the format directed by title 10, U.S.C. 10542.
      The formal training relationships previously established by the 
        AC/RC Association Program outlined in U.S. Army Forces Command 
        (FORSCOM) Regulation 350-4, ``Active Component/Reserve 
        Component Partnerships,'' were modified as the requirements of 
        ongoing OCO kept AC units in frequent deployments and RC units 
        in frequent mobilization. The deployment tempo problem was 
        solved within the Army's Training Support XXI program by using 
        designated, fully functional, AC-led multicomponent 
        organizations to provide the necessary contact with mobilizing 
        RC units. Since FORSCOM Regulation 350-4 no longer reflected 
        the way the AC partnered with RC units, FORSCOM discontinued 
        its use on July 21, 2010. The legislated roles and 
        responsibilities formerly given to the commanders of associated 
        AC units listed in appendices B and C of that regulation are 
        now executed by the commanders of 1A (FORSCOM's executive agent 
        for Active Army support for the training, readiness, and 
        mobilization of conventional RC units in the continental United 
        States); the 196th Infantry Brigade (U.S. Army Pacific's 
        executive agent for the training and readiness of conventional 
        RC units located in the Pacific Command's area of 
        responsibility); and the U.S. Army Europe (USAREUR) for the 
        training and readiness of conventional RC units located in the 
        European Command's area of responsibility.
      In 2011, the Army published Army Regulation (AR) 525-29, 
        ARFORGEN, which institutes the structured progression of unit 
        readiness over time to produce trained, ready, and cohesive 
        units prepared for operational deployment in support of CCDR 
        and other Army requirements. This regulation was a 
        collaborative effort between FORSCOM, U.S. Army Training and 
        Doctrine Command, the ARNG, and the U.S. Army Reserve Command 
        to meet the progressive readiness demands of an Army engaged in 
        persistent conflict. Within ARFORGEN, all rotational Active 
        Army, ARNG, and Army Reserve units cycle through three ARFORGEN 
        force pools--Reset, Train/Ready, and Available--and are 
        designated either for deployment to a validated CCDR 
        operational requirement as a Deployment Expeditionary Force 
        (DEF) or for the execution of a contingency mission, 
        operational plan, or other validated Army requirement as a 
        Contingency Expeditionary Force (CEF).
      For the RC, this pertains to all modular division headquarters, 
        brigade combat teams, multifunctional and functional support 
        brigades (headquarters only), as well as modular units at the 
        battalion to detachment level that comprise the critical 
        enablers for operational missions. Assessments of the manpower, 
        equipment, and training resource requirements of these RC units 
        and validation of their compatibility with AC forces (as 
        required by sections 1131(b)(3) and 1131(b)(4) of the ARNGCRRA 
        of 1992) are executed and maintained by 1A, the 196th Infantry 
        Brigade, and USAREUR as the RC unit progresses through the 
        ARFORGEN process into the deployment window.
      Fiscal year 2011 also found the Army at an inflection point in 
        which strategic conditions have signaled a future change in 
        demand across the range of military operations (DEF to CEF). RC 
        will figure prominently in the Army's response to these 
        changes. ARFORGEN is the process that will produce trained and 
        ready RC units that are organized, manned, trained, and 
        equipped, as integral members of the total force, compatible 
        with their AC counterparts, to provide predictable, recurring 
        and sustainable capabilities for the Nation's security 
        requirements. The Army does not foresee a return to the legacy 
        construct of associated units.
    21. A specification of the Active-Duty personnel assigned to units 
of the Selected Reserve pursuant to section 414(c) of the National 
Defense Authorization Act for fiscal years 1992 and 1993 (10 U.S.C. 261 
note), shown by State for the ARNG (and for the U.S. Army Reserve); by 
rank of officers, warrant officers, and enlisted members assigned; and 
by unit or other organizational entity of assignment.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                      Title XI (fiscal year 2011) authorizations             Title XI (fiscal year 2011) assigned
                                                 -------------------------------------------------------------------------------------------------------
                                                                              Warrant                                             Warrant
                                                    Officers     Enlisted     officers      Total       Officers     Enlisted     officers      Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
U.S. Army Reserve...............................           97          110            8          215           12           18  ...........           30
TRADOC..........................................           50            3  ...........           53           36            3  ...........           39
FORSCOM.........................................        1,033        2,165          101        3,299          696        1,925          102        2,723
USARPAC.........................................           30           49            1           80           30           41            9           80
                                                 -------------------------------------------------------------------------------------------------------
      Total.....................................        1,210        2,327          110        3,647          774        1,987          111        2,872
--------------------------------------------------------------------------------------------------------------------------------------------------------

      As of September 30, 2011, the Army had 2,872 Active component 
        soldiers assigned to title XI positions. In fiscal year 2006, 
        the Army began reducing authorizations in accordance with the 
        National Defense Authorization Act of 2005 (Public Laws 108-
        767, section 515). Army G-1 and U.S. Army Human Resources 
        Command carefully manages the authorizations and fill of title 
        XI positions. The data is not managed or captured by state--the 
        previous table above provides the best representation of how 
        title XI positions are dispersed and utilized.

    Chairman Inouye. Mr. Secretary, thank you very much for 
your very generous remarks. May I now call upon General 
Odierno?
STATEMENT OF GENERAL RAYMOND T. ODIERNO, CHIEF OF STAFF
    General Odierno. Thank you, Chairman, Vice Chairman 
Cochran, and the rest of the members of the subcommittee. Thank 
you very much for allowing me to be here.
    I want to start out by also thanking you for your steadfast 
support of our soldiers and their families, especially during 
these last 10 years, as we've been involved in a significant 
amount of combat operation. Without your support, we would not 
be able to do the things we're doing, and we would not be able 
to take care of our soldiers and families. So, thank you so 
much for your support.
    I also appreciate the vote of confidence from Secretary 
McHugh. I believe in the Army we have a great civilian-military 
team, led by Secretary McHugh. His experience and wisdom has 
helped me as I've come onboard as the Chief of Staff of the 
Army, and I know together we will walk forward to work many of 
these issues that face the Army in the future. And I am 
confident that in the end, the Army will remain the best land 
force in the world, and I look forward to continue to work with 
him as we move forward.
    It's an honor to sit here today representing our 1.1 
million soldiers, our nearly 300,000 Army civilians, as well as 
the 1.4 million family members. I'm extremely proud of their 
commitment, their professionalism, and resiliency of our 
soldiers and their sacrifice and accomplishments.
    Today, we remain in more than 150 countries around the 
world. We are truly a globally engaged army, with 95,000 
soldiers deployed, and another 96,000 soldiers forward station, 
conducting a broad range of missions around the world.

                          ARMY GLOBAL STRATEGY

    But our Army's primary mission is steadfast and resolute to 
fight and win our Nation's wars. And as the Army continues to 
transition, we will ensure the President's 2012 defense 
strategic priorities are implemented, by first meeting our 
current commitments in Afghanistan and elsewhere by ensuring a 
highly trained, properly equipped, and well-manned force. Now 
that operations in Iraq are complete, and we continue surge 
recovery in Afghanistan, we will help shape the regional 
environs in support of the combatant commanders, as well as the 
strategic environment.
    In the Asia-Pacific, which is home of 7 of the 10 largest 
land armies in the world, we are provided an array of tools 
through rotational forces, multilateral exercises, and other 
innovative engagements with our allies and new partners. We 
currently have some 66,000 soldiers and almost 10,000 civilians 
in this region today.
    During a time of great uncertainty in the Middle East, we 
remain committed and prepared to ensuring security and 
stability across the spectrum of conflict through our 
rotational presence and all available means necessary. And in 
Europe, as we inactivate two brigade combat teams (BCTs), one 
in 2013 and one in 2014, we will compensate through a series of 
engagement tools to build and sustain relationships with our 
European and North Atlantic Treaty Organization (NATO) allies 
and partners. I believe this will serve as a model how I see us 
doing things in the future, a combination of forward station 
and rotational forces, using a tailorable approach by 
regionally aligned forces and prepositioned stocks.

                            ARMY FOCUS AREAS

    As we move forward, we will build on the competency and 
experience that has been gained during the past 10 years by our 
National Guard and Army Reserves in Iraq and Afghanistan, 
through the resourcing of a progressive readiness model in the 
future.
    As we look forward, and the Secretary already touched on 
this a bit, there will be several focus areas that will help 
guide us for the way ahead. Foremost, we'll remain committed to 
our 67,000 war fighters currently in Afghanistan. They continue 
to provide trained, equipped, and ready soldiers to win the 
current fight.
    Next, as the Army becomes leaner, we must continue to build 
on the key characteristics of the future force: Adaptability, 
innovation, flexibility, agility, versatility, and lethality. 
We have to prioritize our efforts as we integrate and 
synchronize our activities as part of the larger joint 
interagency and multinational effort of the future.
    By the end of fiscal year 2017, we will decrease our end-
strength from 570,000 to 490,000 in the Active Army, from 
358,000 to 353,500 in the National Guard, and from 206,000 to 
205,000 in the Army Reserves. It is imperative for us to 
sustain a gradual ramp during these next 5 years that allow us 
to take care of our soldiers, continue to provide forces for 
Afghanistan, and facilitate reversibility over the next couple 
years, if necessary.
    End-strength above 490,000 is funded strictly through 
overseas contingency operations (OCO) during the next 5 years, 
and must be sustained to help mitigate risk as we continue 
current operations in Afghanistan and simultaneously reset our 
Army for the future.
    We will also reduce our end-strength by a minimum of eight 
BCTs. We are also conducting additional assessments to look at 
reorganizing our brigades to make most efficient use out of our 
combat structure. And we will come back to the subcommittee 
after we can finish our research and our analysis, both the 
Secretary and I will come back and have further conversations 
on this.
    Finally, we will be responsible government stewards through 
energy-cost savings and institutional and acquisition reform. 
We are now taking a fundamentally different approach to how we 
do business with our acquisition reform. I credit Secretary 
McHugh for his diligent efforts with this. We have really made 
some tremendous progress here, in my view.
    For a new affordable and incremental equipping strategy, we 
are making better business deals and better contracts, 
emphasizing competition, and saving even more money as 
government stewards. Our expansion of multiyear contracts, 
firm-fixed-price contracts, and cost-plus-incentive-fee 
contracts have proven substantive cost savings already.
    By more closely linking the development of requirements 
with the acquisition cycle, we are building the flexibility to 
integrate new technologies incrementally. Additionally, we are 
looking to develop more efficient testing and evaluating 
strategies by eliminating redundancies. We will continue our 
equipment reset program to restore unit equipment to a level of 
capability that is commensurate with their future missions. 
There have been more than 1.8 million pieces of equipment reset 
to date, which equates to approximately 31 brigade equivalents 
annually.

                             MODERNIZATION

    Much of what the Army needs to do and much of what we hope 
to be able to do will be reliant upon sustained OCO funding for 
our withdrawal in Afghanistan and for 2 to 3 years afterwards. 
As we continue to transform our modernization practices through 
a holistic bottom-up approach, we have several priorities.
    First is the Network. It is critical to our ability to 
manage information and command our forces at all levels both 
home and abroad, in a multinational and joint context. We made 
significant progress on this critical program through the 
series of network integration evaluation exercises that field 
tested equipment, which are integrated in a system, using our 
soldiers as the testers.
    Second, the ground combat vehicle (GCV), a replacement for 
our infantry fighting vehicle that can accommodate an infantry 
squad, balance mobility and survivability, and provide 
unmatched lethality on the battlefield against current and 
future threats. We've paid close attention to risk reduction in 
this development program by maximizing competition to stimulate 
innovation, support cost containment, and schedule 
requirements, ensuring industry identifies potential pricing 
schedule versus performance tradeoffs, and requiring industry 
to provide cost targets throughout the GCV's lifecycle.
    Our third modernization priority is the more mobile 
survivable network-integrated joint light tactical vehicle 
(JLTV). With both myself and General Amos, we agree it's 
necessary, given the last 10 years of fighting and what future 
operations may entail. We carefully revised our acquisition 
strategy, reduced the schedule for the next developmental phase 
from 48 to 33 months, while reducing the projected cost of the 
program by $400 million.
    Next is lightening the soldier's load, with a focus on the 
squad. There must be continued efforts to give our squads 
superiority on the battlefield, with advanced soldier systems, 
and weapons communications, and protection. There has been 
tremendous progress in the advancement to help lighten the load 
of our individual soldiers. So now we must turn to look at how 
the squad can carry the load smarter. We will continue to look 
at decreasing the weight of our body armor, while increasing 
protection, but we can make more progress by studying how to 
better distribute the load across the squad.
    The budget request for aviation modernization will continue 
to ensure our lift-and-close combat capabilities remain 
effective. These aircraft provide critical support to our joint 
ground forces, special operations community, and our 
international partners.
    Finally, I'd like to point out that in order to achieve 
these priorities within our modernization strategy we'll need 
the help of this subcommittee to ensure timely appropriations 
to reduce production and scheduling delays. The Secretary and I 
will continue to assess and make adjustments to our strategy, 
while addressing any potential risk incurred, as we adjust our 
future force posture.
    I'd like to leave you with one last thought. Sequestration 
is not in the best interest of our national security. The 
Army's share of the cut could be almost $134 billion through 
2017. The impact to the Army could cause up to 100,000 
additional cuts to our end-strength, on top of the 86,000 we 
currently plan to reduce. This would result in severe 
reductions in the National Guard, our Army Reserves, in 
addition to continued reductions in the Active component. It 
will significantly decrease what the Army can do for the joint 
force. In my estimation, sequestration will require us to 
fundamentally relook how we provide national security for our 
Nation.
    Mr. Chairman, members of the subcommittee, thank you again 
for the opportunity to speak here today. This subcommittee 
enables our All-Volunteer Army to be the most decisive land 
force in the world, and we could not do without the support 
that you give us. It's an honor to serve this great Nation and 
stand beside the dedicated professionals of our Army. The 
strength of our Nation is our Army. The strength of our Army is 
our soldiers. And the strength of our soldiers is our families, 
and that's what makes this Army strong.
    Thank you very much, and I look forward to your questions, 
Senator.
    Chairman Inouye. All right. Thank you very much, gentlemen. 
Before we proceed, I'd like to announce that there's a vote 
pending at this moment.
    Senator Hutchison. Mr. Chairman, I'm going to go vote. I 
know Senator Cochran's coming back, and then you'll go vote. I 
do want to have a chance to ask questions, so I'm going to come 
back, but I am going to leave now, so that we can vote and get 
back. We'll be doing a little round-robin here.
    Chairman Inouye. I can assure you that.
    Last January, the Secretary of Defense announced the budget 
plan and said that the Active Army will be reduced by 72,000 in 
the next 5 years. Many of us have privately expressed concerns, 
primarily on the risks that may be involved.
    Can you share with us your thoughts on this matter?

                 END-STRENGTH REDUCTION RISK MITIGATION

    General Odierno. I think one way to mitigate the risk is 
that fact we're going to do this over a 5-year period, and I 
think that helps us to mitigate some of the risks that we have. 
My concerns are, first, we want to be able to take care of our 
soldiers and families. Doing it over a 5-year period helps us 
to reduce the risk to our soldiers and their families, first 
off, because we will be able to do a majority of the reductions 
through national attrition, although, there will be some 
requirements above that.
    Second, it will help us, if we do this over a 5-year 
period, to ensure that we have the forces necessary to continue 
to rotate in Afghanistan, as we continue that commitment.
    And third, if we have to, if we get it wrong, and we have 
to reverse, we can do that easily during the next 2 to 4 years, 
as we execute this strategy.
    The assumptions in the strategy are that we will no longer 
be engaged in large-scale, long-term operations that would be 
over a 5- to 10-year period. That's the risk to this reduction. 
We increased the size of the Army in the 2000s in order to meet 
the requirements of both Iraq and Afghanistan, and because of 
the high operational tempo (OPTEMPO) it was putting on our 
soldiers and our families. Now that we are reducing the size of 
the Army, as long as we are not involved in large-scale 
contingencies over a long period of time, I think we can 
mitigate that risk.
    I do believe we have the capability to conduct two 
simultaneous operations at 490,000, as long as they are not 
over a long duration time period, and that's where the risk 
comes in, Senator.
    Mr. McHugh. Mr. Chairman, may I add a few on that?
    Chairman Inouye. Please do.
    Mr. McHugh. As the Chief noted, the primary consideration 
was that we had sufficient end-strength to meet the new 
security strategy and its expected requirements. And as you 
heard him say, I think we all agree we do.
    But the other thing really goes back to your opening 
comment. You know, the Army is people. And currently, we spend 
about 48 cents of every $1 on our people. And so when we're 
mandated to find, as we went through the Budget Control Act for 
the department, $487 billion over 10 years, we have to find 
reductions in our personnel costs. There's just no other way to 
do it.
    And what we wanted to ensure is that we didn't have 
artificially high end-strength, that our budget was resourcing 
modernization and proper equipping, and the other things that 
are so important, family, medical programs, so that we didn't 
take that path to becoming hollow that we've had so much 
discussion about over the years, and other postconflict 
periods.
    So, we think we're balanced in a way that resist the 
temptation to pump up end-strength at a very high cost of not 
giving the soldiers what they need to complete their mission.
    Thank you, Mr. Chairman.
    Chairman Inouye. Gentlemen, I will have to leave to vote, 
but in the meantime, I'll call upon the Vice Chairman to 
continue the hearing. I'll be back.
    Senator Cochran [presiding]. Thank you, Mr. Chairman. Let 
me ask you a question about the C-27 Joint Cargo Aircraft 
program. There's indication in our briefing paper here that the 
Air Force is suggesting that even though the C-27 was developed 
to provide a unique capability to support Army needs, that that 
could have been managed by the use of C-130 aircraft. I don't 
know whether this is a consensus, or what your reaction to it 
is, but is there a difference of opinion between the Army and 
the Air Force on the C-27 and C-130? We don't need to overdo 
things and buy things we don't need in this time of fiscal 
constraint and pressure on the budget. So, I was just curious 
to know what your reaction to that would be.

                           INTRA-THEATER LIFT

    General Odierno. Thank you, Senator. The Army has a stated 
requirement for intra-theater lift, which we need in places 
like Iraq, Afghanistan, and we've discussed this over time. The 
Army has a C-23 Sherpa program, which, frankly, is getting old 
and, frankly, will no longer be capable of doing the mission we 
need it to in the future. So, we've defined this requirement.
    The Air Force has come back and said we can meet all of 
your intra-theater lift requirements with the C-130. So, we 
have worked with them to develop concepts that will put C-130s 
in direct support of Army units in order to meet these 
requirements.
    So, I would just answer your question by saying we've 
identified the requirement for intra-theater lift. C-27 was one 
solution. The Air Force has come back and said we can solve 
this problem using the C-130. So, we are working with them to 
come up with the procedures in order for us to solve this 
problem using the C-130.
    Senator Cochran. One issue that always is of interest to me 
as we begin this annual review of the budget request for the 
different services is how well we're doing with recruiting and 
retention of the quality of person and candidate for service in 
the U.S. Army. Do we need to consider going back to compulsory 
military service or is the all-volunteer concept alive and well 
and working to suit our national defense needs?

                           ALL-VOLUNTEER ARMY

    Mr. McHugh. Very important question, Senator. I think the 
easy answer to your last point is that the last 10 years pretty 
well proved that the Volunteer Army, in our case, Voluntary 
Military, for this Nation, can meet just about any challenge 
over any duration of time you may put them up against. Having 
said that, we're always concerned about what tomorrow may look 
like, and we track our recruiting, our retention numbers, and 
track the caliber of our recruits as well.
    On the retention side, our problem is, frankly, too many 
people want to stay, and we're going to have to manage that as 
we draw down our end-strength in ways that ensure that we keep 
the very best of the best. And that will be a challenge, 
because we will have to request, as the Chief alluded to, some 
soldiers who meet our minimum standards and requirements, and 
who, in many cases, I'm sure, will have served honorably, but 
ask them to take on new challenges in their lives.
    Our recruiting numbers are better than the nearly 20 years 
I've been in this town. Our numbers of waivers are at historic 
lows. We don't provide major felony waivers any more, contrary 
to the times in the not-so-distant past, when they were not 
normal, but they weren't unheard of. Our high school graduation 
rates are more than 90 percent, higher than the average that is 
maintained here amongst the civilian population. And as they 
have proven time and time again, even our youngest soldiers are 
up to the greatest challenges.
    So, we're always concerned about what a brightening economy 
will mean on our ability to compete with the private sector, 
but to this point, I think things are going very, very well.
    Chief.
    General Odierno. If I could add, Senator, to include our 
ability to recruit officers as well. The numbers at West Point 
are way up. Applicants are way up. The competition is way up. 
The competition at Officer Candidate School (OCS) is at its 
highest level I've ever seen it. Our Reserve Officers Training 
Corps (ROTC) programs are, although we are doing some 
consolidation, are doing very well. So, right now we are in 
good shape. But it's something that we have to constantly 
manage. And as we all know, some of this could be based on some 
of the economic issues and unemployment rates. We have to watch 
this very carefully. There is a lot of interest in serving. So, 
we feel we are doing very, very well in those areas.
    In terms of retention, there will be some people who want 
to stay who probably will not be allowed to stay, as the 
Secretary just talked about, during the next 3 or 4 years. But 
we want to set up programs that allow the best to stay. We want 
to keep the best talent that we have, and we're trying to 
decentralize that decisionmaking process down to the commanders 
in the field, so they can make the decisions on who are the 
best, most qualified to continue to stay and lead our Army into 
the future as we face many of these complex challenges that 
you've outlined.
    Senator Cochran. That is very welcome news and good to 
hear, and also, a reason to compliment the leadership of our 
United States Army and other forces who are providing the 
example and serving in capacities of a very important 
responsibility for our country. I'm sure the soldiers are 
looking up to those they are serving with, or they wouldn't be 
interested in re-enlisting or staying in for a career, as many 
of them are now voluntarily doing. I think it's a tribute to 
our leadership of our military. So, I congratulate you on those 
successes that we've had.
    It was a pleasure for me to serve on the Board of Visitors 
at West Point for a time, and as a matter of fact, I think it 
was one of the best collateral duties I've ever had in the 
Congress, serving on both the Board of Visitors at West Point 
and the board out in Colorado for the Air Force, and the Naval 
Academy board. I really got a great opportunity to meet and get 
to know those who were in charge of our training academies, and 
who were the professors and instructors getting the job done, 
training, and educating the officers of tomorrow, and the 
leaders of tomorrow, the next Secretary of the Army and the 
Joint Chief chairman, and so we appreciate the success we've 
had. And we know that it doesn't just happen by itself, but 
there are a lot of dedicated men and women throughout the Army 
who are helping make this a very important success story.

     UNITED STATES MILITARY ACADEMY AT WEST POINT BOARD OF VISITORS

    General Odierno. Senator, I would just add that last night 
the Cadet Andrew Rodriguez, from West Point, was awarded the 
Sullivan Award, which is given each year to the top leadership 
student athlete in the country for all sports. It's only the 
sixth time that a football player has received it. And 3 out of 
those 6 were from West Point that have received that award over 
time. And I think he's representative of the type of 
individuals that we now have, that are interested in serving 
our country. And we're very proud of these young men and women 
who continue to want to serve. And I think that's just another 
indication of the quality of individuals that we continue to 
get in the Army and West Point.
    Mr. McHugh. I would note, Senator Cochran, that I had the 
honor of serving on that--I guess I still do, but as a Member 
of Congress for 15 years. And you're right. It's a special 
opportunity, and one of those things that few Members of 
Congress get to experience, and it was a great opportunity for 
me.
    I would also note, just for the record, that the gentleman 
on my left is also a West Point grad, and given the football 
team, and Army, Navy, I wish he were back there wearing a 
helmet, but we'll talk about that later.
    Senator Cochran. Do you need time for rebuttal, General?
    General Odierno. I want to be on the record, we're going to 
beat Navy this year.
    Senator Cochran. We're joined again by other members of the 
subcommittee, and I'll yield to the distinguished Senator from 
South Carolina.
    Senator Graham. Thank you. When you said that, John, I 
thought that you were talking about his left, and that would 
have been me.
    I would have been the first guy to get in West Point with 
800 SAT on both parts. The Army's got enough problems without 
having to go down there. Not bad. That's right.
    So to both of you, thanks for being leaders in a time when 
we need leaders. Ten years into this thing, I know people are 
war weary and we're trying to balance a $15 trillion budget 
that's out of whack, and everything's on the table. So, to my 
friends out there who want to argue about what we should do 
with the entitlements, that we should reform them just like 
we're trying to reform the Pentagon, bottom line is, the 
sequestration is just a really bad idea. Both of you already 
said that. Do you agree with that?

                             SEQUESTRATION

    Mr. McHugh. It certainly would have an incredibly 
devastating effect upon our national military.
    Senator Graham. It would really be silly and stupid, right?
    Mr. McHugh. I agree.
    Senator Graham. Yes. Go ahead, John. You can say that.
    Mr. McHugh. I agree with you always, Senator.
    Senator Graham. Okay. Good. Thank you.
    So, we'll find somehow to avoid it. We're not going to put 
that burden on you.
    But the sum total of what we're doing, $470-billion-
something during the next 10 years is no small lift, is it, 
General?
    General Odierno. It is not.
    Senator Graham. Okay. We're going to put 87,000 people out 
of work, I guess. So, just please understand what the military 
is having to do on the Army side. Eighty-seven thousand people 
are going to be put out of work over the next 5 or 6 years, who 
have dedicated themselves to defending the Nation, who are well 
trained, and, you know, make up the 1 percent who serve. So, 
when I hear other agencies and other parts of the Federal 
Government saying that's too much, that's too far, the Defense 
Department is more than paying its fair share, in my view, and 
I'll have to look long and hard if I think 87,000 makes sense.
    Where do you see the potential for future land engagements, 
General, that could have 100,000 troops required? Are there any 
scenarios in mind?
    General Odierno. Well, obviously, we have agreements with 
South Korea, in reference with potential problems with North 
Korea. You know, we have issues across the Middle East, a 
significant amount of instability.
    Senator Graham. The Horn of Africa really went bad. You may 
have to enter these troops. Maybe not 100,000.
    General Odierno. Maybe not 100,000.
    Senator Graham. Let's talk about a scenario where you had 
to commit major land forces after we cut the $487 billion. What 
percentage of a, say, 100,000-person force, in the future, 5, 6 
years from now, would have to come from the Reserves?
    General Odierno. It would depend on the specific situation.
    Senator Graham. Let's say it's an Iraq situation.
    General Odierno. Well, in the beginning phases of a war, 
about 80 percent would be out of the Active, and about 20 
percent out of the Reserves. But as that went on over time, the 
amount of use of the Reserves would increase. So, in the second 
or third year, you would see more Reserve component.
    Senator Graham. So, the truth of the matter is that we 
need, as a nation, to understand that if we go down by 87,000, 
if there are any major land engagements sustained over a period 
of time, the Guard and Reserves are going to be asked to do 
more, not less.
    General Odierno. That is correct.
    Senator Graham. That's just the math, right?
    General Odierno. That is correct, Sir.
    Senator Graham. Okay. Mr. Secretary, stress on the force. 
One, to the soldier who is going to be charged with the murder 
of 16 Afghan civilians, you're highly confident in our military 
justice system.

                          STRESS ON THE FORCE

    Mr. McHugh. I have no doubt about our ability to handle it.
    Senator Graham. And that soldier will be provided whatever 
resources his defense team needs, within reason, to defend him, 
right?
    Mr. McHugh. That is our requirement, and that is our, we 
feel, duty.
    Senator Graham. Now, people talk about stress on the force. 
Do you agree with me that most people in Afghanistan, of any 
senior rank, have had multiple deployments?
    Mr. McHugh. We have in the military at large more than 
50,000 folks in uniform who have had at least four deployments.
    Senator Graham. And this is a severe aberration and does 
not reflect who our men and women are, in terms of their 
behavior under stress. Do you agree with that?
    Mr. McHugh. The fact that this is receiving, 
understandably, so much attention, I think, underscores that 
very fact. Yes, Sir.
    Senator Graham. General, do you agree with that?
    General Odierno. I do agree, Senator.
    Senator Graham. Okay. So now let's talk about where we go, 
in terms of the Congress's role in helping you craft this 
budget. Do you have enough flexibility to make adjustments? 
Let's talk about mental health for our troops, those coming 
back from the theater. If we execute this budget reduction and 
you have 10 years of fighting, and you may have some latent 
stress problems show up down the road, do we have the adequate 
infrastructure in this budget reduction environment to take 
care of issues that may arise down the road from the last 10 
years of fighting?
    Mr. McHugh. From what we can see, there is always, of 
course, as you know, Senator, it's what you don't expect that 
you have to be most troubled by. We have both the facilities, 
the flexibility, and funding to provide for them. The biggest 
challenge on behavioral health we've had are bringing into the 
Army Force structure the behavior health specialists. We've 
been chasing the requirement for a number of years now.
    Senator Graham. I don't want to take too much time, but 
recruiting trained mental health specialists who are subject to 
being deployed is a very big challenge. So, I hope we'll look, 
going within the force and cross-training people. That's one 
way to get more folks. But, if you wanted to serve your country 
as a civilian or a military person, if you're in the mental 
health arena, there's a real demand for your services.
    And the last comment I'd like to make is about stress on 
the force. We've been deployed a lot. It's been a very tough 
time for families. What kind of stress on the force can we 
anticipate from a major reduction in personnel, limited assets? 
And I would just end with this proposition. I think the world 
is getting more dangerous by the day, and the potential 
conflicts that we face are growing, not lessening.
    General, Mr. Secretary, can you describe to me what we can 
expect from a force that's going to be reduced by 87,000? The 
mission possibilities are growing, not lessening. What kind of 
stress does that have on the Force?
    General Odierno. First off, it is, as we have learned, the 
issue becomes the stress of multiple deployments. So, as you 
reduce the force, if we get into a sustained land combat, it 
will, once again, increase the stress on the force. And that's 
a bit of a risk, as we go down, as you mentioned, 87,000. So, 
we have to mitigate that. We've tried to mitigate that by going 
down the 87,000 over a 5-year period, which slows it down, 
which enables us to take care of those soldiers and families as 
we ask them to leave the service, in some cases. And we'll 
hopefully be able to do most of it by attrition, but it won't 
be all by attrition. There will be some people who are, in 
fact, asked to leave over time. So, we're trying to figure out 
the best ways to mitigate that.
    Mr. McHugh. As you know, Senator, rotations, deployments 
are probably the leading cause and the leading stressor. We're 
operating under the assumption, the fact we're out of Iraq and 
a planned phase-down through 2014 in Afghanistan. If that 
should change, obviously, we're going to have to do some re-
evaluation. And then one of the advantages of going through 
this exercise of assigning budget numbers every year is that 
we're provided the opportunity to second guess ourselves, if 
it's required.
    The Chairman has noted that this is really the first 
budget, not just the only budget, of what we view as a 5-year, 
and ultimately a march to 2020, to a time when we're hopefully 
fully modernized as a force.
    Senator Graham. Thank you for your service.
    Senator Inouye [presiding]. Senator Hutchison.
    Senator Hutchison. Well, thank you. First, I want to say to 
General Odierno how much I appreciate everything that you've 
done. Talk about deployments to the tough spots. You've been 
there. I appreciate meeting with you in Iraq twice, and seeing 
what you could do there. And I think that experience has 
certainly given you the base and the background to handle so 
many of these issues and problems. I just can't tell you how 
much I appreciate all that you've done and your service.
    Secretary McHugh, I'm glad to see you. And in about a half 
hour, I'm going to go to the West Point Board of Visitors' 
meeting, and I know I'll see you there, where we serve 
together. And I'm so happy to still be on the board and able to 
help your alma mater, General Odierno.
    I'd like to ask both of you, really, but it's on the issue 
of drawing down the troops, and especially from Europe. And I 
know that you are planning to do some rotational deployments in 
Europe to save money. We're going to bring back the two 
brigades. And I just wonder if you are also looking at further 
reductions in Europe. Obviously, we have to have a presence 
there, when we have our hospitals there, but we know the 
training is limited. We know both the Government Accountability 
Office (GAO) and Congressional Budget Office (CBO) have said 
it's more cost effective to maintain forces in America rather 
than overseas.
    I'm, of course, interested, from the military construction 
standpoint and the operations on overseas bases, and have 
always felt like we were doing more than our fair share in 
NATO. I want to ask you where you are, either of you, or both, 
on conserving our dollars by having more troops based in 
America, making sure that we're not over building with our NATO 
military construction beyond what is our requirement. But 
sometimes we're getting into regional centers, where European 
countries want equality, and that's not our responsibility.
    So, can you walk me through that, and maybe something we 
haven't seen in the future that would help me understand that 
we are being efficient with our military construction and 
operations overseas, and favoring our U.S. bases, where we have 
the training capabilities and certainly the more efficient 
operations?

                            FORCE STRUCTURE

    General Odierno. I think, Senator, first is that I think as 
we look to the future, our strategy is going to be that we are 
going to rely more and more on rotational forces. We think 
that's important.
    Now, it does not mean we will completely reduce our 
overseas presence. It's got to be the right balance and mix, so 
we're going to constantly review what that right balance and 
mix is between rotational forces and forward station forces. We 
will continue to do that.
    We have been consistently coming down in Europe over the 
last 3 years. We're going to go down to 90 bases, 50 of those 
which are really Army sole bases. The other 40 are joint. 
There's some Army, Air Force, and some other places. From more 
than 300 bases that were there just 3 or 4 years ago. So, we 
are slowly coming down.
    The Secretary and I have a team over in Europe right now 
looking at the structure, the infrastructure, to continue to 
conduct assessments, as we inactivate the two brigades, as we 
bring down Fifth Corps headquarters, as they come out of 
Afghanistan, what is the exact infrastructure that would be 
needed. Are there refinements to that that we will have to 
make? And we will constantly assess this, as we move forward 
with our final posture.
    And I think so far, actually, we've gotten great 
cooperation from our partners on this. They realize this. They 
understand what we're trying to do, and the fact that we'll 
rotate forces to continue to train with some of our NATO 
forces, I think, is actually good for us and for them, because 
it will allow more units to have the experience of working with 
our NATO partners over time.
    So, I think we will continue to assess this. I think you'll 
see us reassess it again next year and the year after, and 
constantly look at this, as we try to get right our posture, as 
compared to what's in the United States and what's in Europe.
    Senator Hutchison. Let me ask you, on the V Corps 
headquarters, I believe you said that it's not going to return 
to Europe after the deployment in Afghanistan. Is that going to 
be eliminated, or will it be moved to an installation in the 
United States?
    General Odierno. The plan is to eliminate it, Senator.
    Senator Hutchison. Thank you. Thank you very much, both of 
you. I so appreciate working with you, and if there are any 
things that we need to be doing at West Point, please let me 
know. Thank you.
    Chairman Inouye. Thank you very much.
    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman. Mr. Secretary, 
General, you've been welcomed, but probably not by all of us 
yet. Thank you very much for your service.
    General, title 10, section 2464 of the U.S. Code requires 
the Defense Department to provide all the depots with a 
baseline core workload, the minimum amount of man-hours 
necessary to sustain a given depot's unique technical skills.
    For the Anniston Army Depot, that core workload 
requirement, I understand, is 3.2 million man-hours. Anniston 
was fortunate enough to exceed its core for nearly 9 years, but 
subsequent to the drawdown in Iraq hundreds of temporary 
workers have been let go. It's my understanding earlier this 
year the Army only projected 2.4 million man-hours of work for 
Anniston in 2013, a level far below its legally mandated core 
workload. Such an unprecedented drop-off could require Anniston 
to let go some of its permanent technical workforce, which we 
try to keep together, precisely those essential workers the 
core requirement was meant, as I understand it, to protect.
    What is the Army doing to make sure that this does not 
happen, and where are we there? Could you speak to that?

                                 DEPOTS

    General Odierno. I can, Sir.
    Senator Shelby. And how important is it?
    General Odierno. Thank you. Well, first, our depots are 
incredibly important for maintaining our capabilities. And what 
we've done is we've established core competencies in each one 
of our depots, in order to sustain that. So, for example, for 
Anniston, it's combat vehicle, assault bridging, artillery, 
small caliber weapons. And that will remain the core function 
of Anniston, as we go forward.
    In terms of reductions, what we're seeing is, as we 
continue to reduce the amount of reset and recap that we're 
doing, based on our work in Iraq and Afghanistan, we're 
starting to see the workload drop. But we've established these 
core capabilities in each one of our depots. We will continue 
to do that.
    Now, I will say, and the Secretary can add to this, is that 
we're going to continue to look at each one of our depots as we 
move forward to make sure that we sustain enough capability to 
grow, if necessary, but also to gain efficiencies. But Anniston 
has been such a key piece of everything we've done and will 
continue to remain one of our depots that have some core 
competencies that we need.
    Senator Shelby. Anniston and the other depots, without 
speaking of Anniston, they're very important for the readiness 
of the Army, is that correct?
    General Odierno. They are. They are very important.
    Senator Shelby. Mr. Secretary.
    Mr. McHugh. Senator, you have struck upon something that 
concerns us greatly, and not just because it says it in law, 
though, obviously, we're mindful of our title 10 and statutory 
requirements, but also, as you just noted, these depots are 
absolutely critical to the Army's ability to go out and do 
whatever missions they're assigned.
    As the Chief noted, our primary response to that are the 
establishment of centers of excellence, of which Anniston, of 
course, is one. We're working now with the Department of 
Defense to go through sector-by-sector, tier-by-tier (S2T2) 
analysis of our depots, of our core industrial base. And as we 
come down out of war, sustaining those minimum requirements 
that you cited, particularly for the high-end workers, is going 
to be a challenge, but we're looking at every possible avenue, 
including foreign military sales, in the case of some Bradleys 
for Anniston, and others, to try to yes, meet that statutory 
requirement, but more importantly, keep those facilities 
viable.
    Senator Shelby. Thank you.
    General, moving over to the area of the Army Ballistic 
Missile Defense, in May 2011, the Army and the Missile Defense 
Agency (MDA) signed a memorandum of understanding regarding a 
proposed transfer of Army ballistic missile defense assets 
(BMDA). This subcommittee felt that the proposal was not backed 
by sufficient analysis and the report of the fiscal year 2012 
defense appropriations bill contained language opposing any 
such transfer.
    Does the fiscal year 2013 budget move any Army programs or 
personnel to MDA or request funds to enact such transfers in 
the future, or where are we?

                            MISSILE DEFENSE

    General Odierno. I'll have to go take a look at that, 
Senator, and get back with you, and I don't know if the 
Secretary knows, but I believe that we are clearly still 
looking at that, at transferring some of the capabilities to 
MDA.
    Mr. McHugh. What I would note is we still believe the 
transfer makes sense, from the Army perspective. It is intended 
to simply provide through MDA, or provide the Army through MDA, 
greater buying power. Other service missile programs are 
similarly administered through that organization. And beyond 
the ground, the air-breathing threats would continue to be 
under our operational command. So, it's about a 65-percent, I 
believe, transfer, but most of it is in procurement and 
technological development.
    Senator Shelby. Will you furnish this to the subcommittee, 
since we were concerned about analysis of this memorandum of 
understanding?
    Mr. McHugh. I haven't read the fiscal year 2012 bill 
recently, but my understanding is we owe you an analysis and a 
report, and I can't imagine we wouldn't supply that.
    Senator Shelby. Okay.
    Secretary McHugh, in the area of Army aviation 
modernization, prior to its release, the fiscal year 2013 
budget, I understand, was described as delaying Army aviation 
modernization by 3 to 5 years. Could you provide us with some 
more detail, if you have any yet, of which programs are being 
delayed, and why, and would the delays impact primarily 
procurement, or research and development (R&D), or both?

                         AVIATION MODERNIZATION

    Mr. McHugh. I'd have to defer to the Chief on some of the 
specifics of that question. It's absolutely true. We had to 
slip some of the, particularly the procurement programs to the 
right. We feel it's an acceptable level of risk, given the 
status of most of our rotary wing fleet, as long as we have the 
sufficient reset money coming out of Afghanistan, as the Chief 
noted, for 2 to 3 years. But I think he can provide you some of 
the platform details.
    Senator Shelby. General.
    General Odierno. I can, Senator. What we've done is, we've 
delayed, we've not eliminated. But let me give you, for 
example, for the Apache, for example, we've gone down to the 
minimum requirements, which is 48 per year. It delays the 
program 3 to 5 years, to 2030.
    For example, out of this Program Objective Memorandum 
(POM), we've delayed the procurement of 23 new-build Apaches 
and 42 remanufactured Apaches. It will still be built, but it's 
been moved out of the POM.
    For the CH-47, we've reduced some performance upgrades, 
like the rotors. We've made that adjustment on the CH-47. We 
continue to do full-rate production under the current multiyear 
that ends this year. We're looking for another multiyear, from 
2013 to 2017, to complete the National Guard Reserve component 
modernization.
    In the UH-60, we're delaying modernization of all 
components by about 2 to 3 years. What I mean by components is 
Active, Reserve, and National Guard. And we'll delay 
procurement of 72 UH-60 Mikes to outside of the POM. But we 
will continue to modernize and update the UH-60s, as we move 
forward. So, as I've just said to you, it's more of a delay.
    Now, we have funded the upgrade of the Kiowa, but that's 
based on a decision, as we do the analysis of alternatives, as 
we look at the new potential armed aerial scout helicopter. 
That decision will be made later this year. And then based on 
that, we'll decide whether we go with the armed aerial scout, 
or do we continue to invest in improvements in the Kiowa 
Warrior. That will be determined sometime later. But we have 
funded the improvement program in this POM for the Kiowa 
Warrior at the tune of about $740 million. And we will continue 
to use Kiowas at least through fiscal year 2025.
    Senator Shelby. Quickly, the advanced hypersonic weapon, 
which we had a very successful test last year, this capacity, 
as I understand it, for a conventional prompt global strike has 
been sought for years by the military. Can you talk a little 
about that, and where we are in there? What will it mean for 
our combat commanders?

                       ADVANCED HYPERSONIC WEAPON

    General Odierno. Well, I don't think that's our program, 
but I would tell you that on the ground, the ability for us, 
it's about precision. And whenever we can increase our ability 
to provide precision munitions and capabilities, that makes a 
significant difference on the ground for us. And I think that's 
what we gain by this capability.
    Senator Shelby. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman. 
Secretary McHugh, as you and I have discussed, Joint Base 
Lewis-McChord (JBLM), in my home State of Washington, is facing 
some very real questions on the way they have diagnosed post-
traumatic stress disorder (PTSD) and the invisible wounds of 
war. Today, unfortunately, we are seeing more information on 
the extent of those problems. This is actually a copy of 
today's ``Seattle Times'' and in it is an article that is based 
on the most recent review of the forensic psychiatry department 
at JBLM, which, as you know, is under investigation for taking 
the cost of mental healthcare into account in their decisions. 
And what this article shows is that since that unit was stood 
up in 2007, more than 40 percent of those servicemembers who 
walked in the door with the PTSD diagnosis had their diagnosis 
changed to something else, or overturned altogether.
    What it says is that more than 4 in 10 of our 
servicemembers, many who are already being treated for PTSD, 
and were due the benefits and care that came with that 
diagnosis, had it taken away by that unit, and then they were 
sent back into the force or into their community.
    Now, in light of all the tragedies that we have seen stem 
from the untreated invisible wounds of war today, I'm sure that 
you would agree that this is very concerning. And not only is 
it damaging for our soldiers, but it also really furthers the 
stigma for others, whether they're deciding to seek help or not 
today.
    So, in light of all the issues, you and I have had a chance 
to talk to this generally, but I wanted to ask you specifically 
today why was this highly controversial unit set up originally 
at JBLM, and who's decision was it to do that?
    Mr. McHugh. Do you mean the forensic department?
    Senator Murray. Correct.

                    BEHAVIORAL HEALTH RE-EVALUATION

    Mr. McHugh. Well, for every base where you demobilize 
soldiers, it is practice to have that capacity. The concern, as 
you noted, Senator, is that, at least statistically, and the 
numbers are changing every moment, they've changed since that 
newspaper went to print.
    Senator Murray. Do you have the most recent numbers?
    Mr. McHugh. I don't have them exactly.
    Senator Murray. But it is more than 40 percent?
    Mr. McHugh. The number of cases for re-evaluation is 
somewhat more than 300 now.
    Senator Murray. But it is more than 40 percent?
    Mr. McHugh. I haven't done the exact math, but I think 
that's a pretty accurate figure. So, the question for us is, 
why in this one unit were those kinds of re-evaluations and 
change in diagnosis achieved? It's not totally unheard of that 
a psychiatric or a mental health condition will change. So, I 
don't want to say all of those diagnoses and changes were 
inappropriate, but clearly, when you have those kinds of data, 
we want to make sure that everything is appropriate. And as you 
and I have discussed, to the Army Surgeon General's credit, 
General Patty Horoho, she has immediately stepped forward, has 
asked, and has had that particular unit step down, and has 
conducted a wholesale re-examination that has begun with 14 
soldiers, and will methodically go through all of them to make 
sure that the changes were not, in fact, inappropriate.
    Senator Murray. Do you know who made the original decision 
to step up that unit?
    Mr. McHugh. To actually form it?
    Senator Murray. Yes.
    Mr. McHugh. I couldn't tell you the officer's name.
    Senator Murray. And can you tell me, is this an isolated 
incident, or are there other Army medical centers that are 
changing the PTSD diagnosis at this rate?
    Mr. McHugh. That's what we have to be sure of. The Surgeon 
General has asked the Inspector General of the Army to go and 
examine all of similar facilities and locations. To this point, 
we don't see any evidence of this being systemic, but as, 
again, you and I have discussed, we want to make sure that 
where this was inappropriate, it was an isolated case, and if 
it were not, to make sure we address it as holistically as 
we're trying to address it at that.
    Senator Murray. Have you examined similar statistics for 
all the other installations?
    Mr. McHugh. All re-evaluations are being looked at and 
evaluated.
    Senator Murray. Okay. So that is being done. Can you 
provide us with that information?
    Mr. McHugh. We'll certainly keep you up-to-date on that. 
Yes.
    Senator Murray. All right. Well, as you know, the review by 
that forensic psychiatry at Madigan was a change from the 
standard disability evaluation process used across the 
military. The integrity of the disability evaluation system 
depends on each and every servicemember being subject to the 
same process. Across the Army, what will be done to improve the 
oversight of the disability evaluation system to make sure that 
the same process is being applied system-wide?
    Mr. McHugh. Well, as I said, the Inspector General, along 
with the Surgeon General, are re-examining the application of 
all diagnostic procedures. You noted correctly, we have a very 
standardized system. It's a system that is utilized similarly 
in the Department of Veteran Affairs (VA) evaluations, 
similarly in civilian evaluations, and we are restating to all 
of our providers that that is a diagnostic protocol that they 
will follow, and equally important, that fiscal considerations 
are not in any way a part of the evaluation. It's simply 
unacceptable.
    Senator Murray. And you're making that clear system-wide?
    Mr. McHugh. We're doing everything we can to make that 
clear system-wide. Yes, Senator.
    Senator Murray. Okay.
    General Odierno. Senator, if I could just add to that one 
point. For us it's about, we should be patient advocates. And 
that's the mindset we're going to work on changing, to make 
sure everybody understands that. We are patient advocates. We 
are trying to get the best for what is right for our soldiers.
    Senator Murray. General, I really appreciate that. And I 
have to say, I've been here for 10 years, since the beginning 
of this war, at many, many hearings, hearing that from the top, 
and I agree that that is what everyone is saying, but it's 
really disconcerting, after 10 years, to find now that that has 
not been the case. So, that's, you know, why I think it's 
really important that we really focus on this, not just at 
Madigan, and what happened there, but system-wide, to make 
clear that this is, you know, it isn't the cost of PTSD, or any 
mental health evaluation that is of concern to the Army or to 
the military at all, it is making sure that those men and women 
get the care that they receive. So, you know, it is very 
troubling to be here 10 years, after many, many hearings, and 
many, many questions, to find out this has been occurring.
    And really, one of the most troubling aspects of these 
recent events at Madigan is that servicemembers were diagnosed 
with PTSD and other mental health disorders during their 
military service. They received treatment for those conditions, 
but then when they entered the Medical Evaluation Board (MEB) 
process, they had that diagnosis changed. So, that is very 
troubling to every one of us that has been watching this for a 
very long time.
    And I did want to ask you what changes you are seeking, 
Army-wide, to make sure that behavioral healthcare diagnosis 
are more consistent between those who are providing care and 
those conducting the disability evaluations.
    Mr. McHugh. Well, as I said, Senator, the basic answer to 
that is the processes and the protocols of diagnosis are the 
same. You're always going to have individual practitioners who 
take a somewhat different view as to what they're observing in 
a particular patient, but that is what training is about, 
trying to eliminate to the greatest extent possible, those 
vagaries, but in terms of the standards of evaluation, whether 
it's an MEB or whether it is a postdeployment mental health 
evaluation, those diagnostic touch points are all the same and 
standardized. The Surgeon General and certainly the Inspector 
General, as he does his analysis across this system, are making 
that very, very clear, and we'll continue to press that as 
well.
    Senator Murray. Okay. Well, as I said, this is an extremely 
disconcerting situation. I want to know if it's system-wide, 
because these men and women, the stigma of mental healthcare is 
something that's very real. The challenges of PTSD and mental 
healthcare are real. And no one, no one should be denying any 
servicemember care purely because of a question of cost. That 
is something that the taxpayers of this country bear the burden 
of providing. We will provide it. But we want to make sure that 
the Army is not dismissing this in any way, shape, or form.
    So, we will continue to follow this and continue to stay in 
touch with you, as these different questions are answered, but 
I want to make sure that we are really looking not just at 
Madigan, obviously, that's clearly where the focus is right 
now, but system-wide, to make sure that we are evaluating all 
of these on the same system, and that there is no discretionary 
concern about cost or anything else, that we get these men and 
women the care that they have earned and they deserve, and this 
country expects them to have.
    Mr. McHugh. As I've said, Senator, we appreciate truly your 
leadership on that, and we are in full agreement of your 
perspective. Fiscal considerations should be nonexistent, and 
we're going to do everything we can to make sure they are.
    Senator Murray. Thank you very much. And thank you, Mr. 
Chairman.
    Senator Inouye. Thank you.
    Senator Coats.
    Senator Coats. Thank you, Mr. Chairman. I apologize if this 
question has already been asked. I'm Ranking Member on another 
appropriations subcommittee this morning, and so I had to 
divide my time here. But this is a question I asked the Air 
Force when they were here, and the Navy and Marines, when they 
were here. And that is the nearly half of $1 trillion reduction 
in spending on national security assets that you are working 
through now, which results in a considerable drawdown of Army 
personnel, and perhaps, procurement and other central areas, is 
tough enough, but the prospect of an additional nearly $1 
trillion under the Budget Control Act sequester, which has not 
yet been addressed for any kind of change, I just want, for a 
record, to get your assessment of what the impact of that would 
be.
    And I go back a little ways. I remember shortly after 
Desert Storm I, being with then Defense Secretary Cheney, 
saying, you know, if you go back through history, at the end of 
a major deployment or conflict, we've always drawn down too 
far, and going back up always puts us in a very difficult 
situation. And I couldn't help but write down the quote that 
General John F. Amos, Marine Corps Commandant, said. He said, 
``History has shown that it's impossible to predict where, 
when, and how our military forces will need to be called 
upon.''
    And so, I'd just like, for the record, to get your take on 
this particular budget-driven drawdown. And we all want 
efficiencies and effectiveness in saving funds, given our debt 
situation but also the potential impact of this sequester, if 
it's not adjusted.

                             SEQUESTRATION

    Mr. McHugh. Thank you, Senator. If I could, I'll start, and 
then turn it over to the Chief.
    With respect to this budget, these were tough decisions and 
tough numbers to make. We had to, I think, come down in a place 
that puts us on the edge, but, nevertheless, on balance, I 
think all of us feel, across both the combatant commands, as 
well as the Service Chiefs and Service Secretaries, that this 
is a reasonable fiscal plan, and most importantly, it does 
reflect the requirements under the new national military 
strategy.
    We're very concerned about any changes to that, because it 
is a delicate balance that the chair and I had a brief 
discussion about how our end-strength numbers are very finely 
tuned against our other budget lines, to make sure that we have 
the readiness and modernization, training, family programs that 
are necessary not to keep us on the path to going hollow, as 
you mentioned, that happened in other postconflict periods.
    As to sequestration, I think the Chief and I both agree it 
would be devastating. For the Army, I'll let the Chief talk 
about the actual numbers to our current end-strengths, but it 
will cost us another $134 billion, roughly. I can't count for 
you the number of acquisition programs that would be placed in 
a Nunn-McCurdy breach, simply because while the fiscal impact 
is hard enough, we have no opportunity under the budget law to 
manage it. It is simply an across-the-board cut against all 
appropriation lines, requiring us to buy one-half of a mine-
resistant, ambush-protected (MRAP) vehicle, if you will, or 
requiring us to ban all kinds of acquisition programs that I 
think would be chaotic, not just for the military but would be 
chaotic for our industrial partners, who obviously have 
stockholders and have employees, and would have to lay off, I 
don't venture an exact figure, but I suspect thousands, if not 
tens of thousands of employees. So, unlimited negative impact, 
should that happen.
    Senator Coats. Chief, do you want to add to that?
    General Odierno. Senator, if I could, I'll just say I want 
to make sure that people understand that this first $487 
billion cut is not an easy cut. And, in fact, I talk about the 
razor's edge, and the razor's edge is the fact that we have to 
balance end-strength with our modernization program and our 
readiness. It's a very, very careful balance. And my guess is 
we'll have to continue to refine and adjust this as we move 
forward.
    If we get another additional $500 billion cut, as the 
Secretary said, it, frankly, will change how the joint force 
looks. And so we're going to have to re-evaluate and take a 
look at what do we want our joint force to do. How do we want 
to accomplish our national security objectives?
    Specifically to the Army, it translates into approximately 
100,000 additional end-strength cut, a combination of Active, 
National Guard, and Reserves, but more importantly is it would 
require us to cut more steeply in 2013 and 2014, which in my 
mind puts at risk the force responding in Afghanistan, and to 
the current commitments we have, and puts at risk how many of 
our leaders that we would have to lose that have the experience 
and capabilities that we will need in the future.
    So, it's not only the size of the cut, it's the fact that 
they would require it to happen more quickly. They would 
require it to happen without any thought. It's an even cut 
across all management decision packages (MDEPs) within our 
budget. So, the risk is extremely high, in my estimation, 
extremely high. It would be devastating to us.
    Senator Coats. Thank you. Second question I have, 
assuming--do I have any time left, Mr. Chairman?
    Just help me get a little bit of understanding on where 
we're going with the vehicle fleet in the future. I know that 
the decision has been made to recapitalize high-mobility 
multipurpose wheeled vehicles (HMMWVs) to a significant extent, 
and I think there's money in the budget for that, but the 
decision between the modernized expanded capacity vehicle 
(MECV) and the joint light tactical vehicle (JLTV), can you 
just give me your thinking behind where you are now, and some 
of the thinking behind that. And I raise that partly because, 
and correct me if I'm wrong, the JLTV is a much lighter, more 
mobile vehicle than the MECV. Am I correct in that?

                        LIGHT TACTICAL VEHICLES

    General Odierno. The JLTV is really there to replace the 
HMMWV.
    Senator Coats. Yes.
    General Odierno. It's a HMMWV replacement.
    Senator Coats. But the MECV is being terminated, or at 
least in the budget, terminated.
    General Odierno. Right. Right.
    Senator Coats. Now, get to the rationale behind that.
    General Odierno. Well, I would say that we're looking at a 
combination of our whole wheel fleet, as you just kind of 
brought up. And what we've got, the JLTV, we will purchase 
about one-third of the amount of HMMWVs we have now. We're 
still going to depend a little bit on HMMWVs. Through our recap 
and reset program, we will continue to do that.
    We had to look at what we thought we needed across the 
force, as we move forward. You know, we've purchased a 
significant amount of MRAPs. We're trying to integrate what's 
the number of MRAPs we want to keep in the force, how many new 
JLTVs we need. And the reason the JLTVs is so important for us, 
it gives better protection than the HMMWVs, it's lighter, and 
it's network integrated. So in my mind, it's a significant 
upgrade to the HMMWV.
    So, I think it's a combination of all those things, a 
mixture of, you know, the MECV, the MRAPs, the HMMWVs, the 
JLTV, and we're trying to get the right mix. And with the 
budget constraints that we have, we believe the right mix was a 
combination of JLTV, HMMWVs and then using some of our MRAP 
capability to feel the need in that category of our truck 
fleet.
    We're also doing an analysis of our truck fleet, and we're 
probably going to reduce the number of trucks we have in the 
total fleet, as we reduce the force structure, and as we relook 
how we developed our requirements for the truck fleet. And 
we're taking a look at that as well, as we move forward. And 
we'll continue to refine and assess this, and provide you 
updates as we move forward with this during the next couple 
years.
    Senator Coats. My concern dates back to, again, early in 
the 1990s, when we thought the light tactical vehicle was the 
cat's meow, I mean, to get around in urban situations and so 
forth. This is before improvised explosive devices (IEDs) came, 
such a challenge for us, and so then there was a lot of 
clamoring that went on, and so forth. And you know all the 
history of that, and so forth. So, I guess my concern is, is 
that we end up back in a situation where we're under armored.
    General Odierno. Sure.
    Senator Coats. And our troops are more vulnerable. And 
that's really the heart of my question.
    General Odierno. Senator, it's a great question. And the 
challenge that we have, whether it be in our light vehicles, or 
even in our infantry fighting, any vehicles we develop now, 
it's this dynamic of mobility versus survivability. And what 
we're trying to do is, what I'd like to have is a system that 
enables us to adjust survivability, based on the environment, 
so we have a choice on how mobile we can be and how survival we 
can be.
    An example I always use is the Stryker vehicle. Our Stryker 
vehicle was built to provide us more mobility. What's happened 
is we've had to put so much weight back on the Stryker we've 
lost the mobility that we first wanted on the Stryker. And so, 
it's okay in an operation like Afghanistan or Iraq, because of 
the counter-insurgence, you know, we use it, but in other 
environments, we're going to have problems with it now, because 
it's so heavy, and its ability to get off-road is a problem.
    So, what we're looking for is the right balance, and that's 
what we're trying to get with the JLTV, that's what we're 
trying to get with the ground combat vehicle (GCV), is that 
right balance of mobility and survivability. And we're working 
very closely with all of our partners to try to achieve this.
    Senator Coats. And then just one last question. Do we have 
any problems with the industrial base, in terms of all this 
remixing of priorities?
    General Odierno. We watch it very carefully, and we have to 
make sure that we're able to sustain the industrial base, as we 
move forward. Certainly, we're very cognizant of that as we 
move forward.
    Senator Coats. That's a component of the decision in 
process.
    General Odierno. It is. It is.
    Mr. McHugh. As we discussed earlier, it's a big concern 
across all of our industrial base, both organic, but as well as 
our private industry partners. And we're working with the 
Department of Defense to try to ensure that we can do 
everything we can, whether it's for military sales, public-
private partnerships, in assessing and locating our personal 
buys, our individual service buys in a way that sustains that 
minimum rate to the greatest extent possible.
    Senator Coats. Good. Thank you. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. And gentlemen, 
thank you for your testimony, for your leadership. I listened 
with great interest to the exchange that you had with Senator 
Murray. As important as it is, when we talk about our military 
equipment and the infrastructure needs, I think we recognize 
that it always come back to the individual, to the human being, 
and we need to make sure that we are focusing equal attention 
on the need to reset that individual, reset the mind, the body, 
and ensure that there is no cost that is spared in doing so. 
So, I appreciate a great deal the attention that is being 
focused, not only, again, on the situation that Senator Murray 
has indicated at Madigan there, in Washington but, really, 
system-wide in better understanding that.
    General, I missed your visit when you came to Alaska in 
January. We appreciate that we don't get a lot of visitors 
coming to Alaska in January, and that was noted and greatly 
appreciated, particularly since you were coming from Hawaii. 
So, you got to really experience the contrast there. But I 
think it was important.
    We recognize that we're at some pretty historic levels, in 
terms of the U.S. Army Alaska forces, and the contribution that 
they are currently making in Afghanistan now. Well over 10 
percent of the Army forces deployed in Afghanistan are coming 
from U.S. Army Alaska, and I think that that is significant. 
So, I appreciate that you have gone there yourself, and would 
be curious in your impression, in terms of the quality of what 
we're doing in Alaska, in terms of the training.
    My more specific question, though, and what I would like 
you to address is, on that trip, you mentioned, in Hawaii, that 
the number of soldiers that are assigned to the Pacific would 
generally be about the same as it is today. Can you comment on 
the role of U.S. forces that are based in Alaska to achieve 
these military objectives in the Pacific? Is it fair to 
conclude that the number of soldiers that are assigned to U.S. 
Army Alaska will generally be the same as it is today?

                          U.S. ARMY IN ALASKA

    General Odierno. I think as we look at the plans, I think, 
as you know, U.S. Army Alaska is, in fact, part of the Pacific 
Command.
    Senator Murkowski. Right.
    General Odierno. And we're looking at, for the most part, 
it will be very close to what it is today. Now, we'll continue 
to look at that, but our plan is not to do much changes to the 
forces that are in the Pacific. So, I would say, in general 
terms, it will be pretty close to what it is today.
    Senator Murkowski. Appreciate that. I know that the folks 
in Alaska recognize, again, not only the strategic advantage 
that is gained there, but some of the training opportunities 
that we have. I'm assuming that your impression was favorable 
of what we are providing, in terms of the quality of troops 
we're seeing coming out of the North.
    General Odierno. Yes. First, the training facilities are 
incredible. What they're able to do and how they're able to 
prepare, no matter what mission they go on, it gives them a 
great advantage. And I would just also point out is that the 
families are taken care of very well up in Alaska. They love 
living there. It's a great base for us, because of its location 
and its ability to respond to the Pacific and other areas as 
well, if needed. So, it's a key component of our Army of the 
future.
    Mr. McHugh. May I just----
    Senator Murkowski. Yes. It's okay.
    Mr. McHugh. Somewhat of a prejudiced view on my part, I 
guess, but my 17 years in the House, I represented the Fort 
Drum region, which is close to the Canadian border, and I was 
very fond of saying, and it applies to Alaska as well, not 
everywhere we fight has palm trees. I mean it's nice to be able 
to train to sometimes less conducive climates than other places 
might provide. And that's important to weather acclimate our 
soldiers.
    Senator Murkowski. Yes. I recall flying over parts of 
Afghanistan and looking down at this very remote area, very 
mountainous, very tough country, and thinking, ``It looks just 
like home.'' So, it is a great place to train.
    I wanted to ask, also, a couple questions about the 
retirement of the C-23s, the Sherpas, here. Last fall, the 
subcommittee was briefed on the plan to divest the C-23s by 
fiscal year 2015. And in the briefing materials, it indicated 
that there would be a possibility that the Army would 
reconsider that divestment decision, if the Air Force makes the 
determination to retire the C-27.
    Well, now that the Air Force has proposed that retirement, 
I am hopeful and would certainly encourage the Army to revisit 
its decision to retire the C-23. Can you tell me whether or not 
the Army does intend to relook at that?

                           INTRA-THEATER LIFT

    General Odierno. I would just say we have not made any 
permanent decision. However, I would say we have some issues 
because the C-23, as you're aware, is an old aircraft.
    Senator Murkowski. Right.
    General Odierno. It's very expensive to sustain. It doesn't 
really quite meet the requirements that we have. I said 
earlier, we've identified a requirement that we need intra-
theater with, which is kind of the role the C-23 plays. And 
that requirement has not changed.
    Now, as we began to develop the C-27, the program was 
turned over to the Air Force. The Air Force has told us that 
they can provide C-130s to accomplish that mission. So, we are 
in agreement. We are working with them now to use the C-130, 
which would be direct support to Army units that would allow us 
to do that intra-theater lift. So, that's the solution we're 
headed--that's the road we're headed down right now, as that 
will be our solution.
    We'll continue to assess the C-23 program, as we move 
forward. But, frankly, especially with the current budget 
constraints, it's going to be very difficult for us, in my 
opinion, to sustain the C-23 program. But I'll turn it over to 
the Secretary.
    Mr. McHugh. Just the budgetary fiscal realities are simply 
to modernize these aircraft, which we would have to do, given 
their age. But modernization and longer-term sustain, that is 
between $800,000 and $1 million per aircraft. So, it really is 
a tough budgetary decision that we're going to make, what we'll 
have to make. But, as the Chief said, particularly as our 
intra-theater lift situation has evolved with the Air Force, 
you know, we're always willing to re-evaluate and change a 
decision where necessary. But that program has some real 
dollars attached to it.
    Senator Murkowski. Well, let me ask a follow-on. This is 
coming from a number of the Adjutant Generals, who think that 
extending the life of the C-23s is a bargain, at about $90 
million. They've asked me to inquire whether or not the 
National Guard's cargo lift needs can be filled at a lower-
price point, given that the C-27s will not be available to the 
Guard.
    General Odierno. Well, I think this is something that has 
to be decided at the Department of Defense level, as we look at 
this, and whether we believe the C-130s can fill that Guard 
need as well.
    Senator Murkowski. But that is being factored in.
    General Odierno. It needs to be. It absolutely has to be 
factored into this, as we look at this, because if we divest of 
the C-235, there is need in the Guard.
    Senator Murkowski. Right.
    General Odierno. There's no doubt about it. We recognize 
that, and I think that as we divest the C-23, that has to be 
picked up, and I think part of our discussion is that the C-
130s will have to help us do that, as a lift capability that 
would be needed for us to support National Guard missions, 
simply for the Adjustment Generals.
    Mr. McHugh. And I believe, according to the 2012 National 
Defense Authorization Act (NDAA), that should we divest the 
23s, we have to at least offer to the States' executives the 
opportunity to take those aircraft. So, that's part of the 
consideration as well.
    Senator Murkowski. Okay. Gentlemen, thank you. Mr. 
Chairman, thank you.
    Chairman Inouye. Thank you very much. I had a few questions 
that I wanted to ask before I left. Every member of this 
subcommittee has been concerned about the increase in suicide 
rates, in alcohol abuse rates, and divorce rates. In fact, the 
civilian suicide rate, if I recall, is 18 per 100,000. The Army 
is 24 per 100,000. I note that you have instituted an education 
program for suicide prevention. I know that it's too early to 
tell, but what do you think will be the future now?

                                SUICIDE

    Mr. McHugh. Of the many things that trouble us all, Mr. 
Chairman, the areas you just spoke about, and particularly 
suicide, are amongst the most troubling. I sign a letter of 
condolence to every survivor, and I usually do that on the 
weekends, and I'm just struck by how many letters are 
associated with a soldier taking his or her life. It's 
breathtakingly sad.
    And as you noted as well, we tried to take a multilevel 
approach. Our capstone program is the ask, care, and assist 
program, the Ask, Care, Escort (ACE) program, to try to bring 
suicide awareness to virtually every member of the United 
States Army, to tell them what they should be looking for in a 
troubled buddy, but also that it's their military 
responsibility to care about that, and to act and intervene, 
and assist that person to go get the help that's necessary.
    We have funded this to what we believe is the necessary 
requirement, but that's not enough. We're trading what we call 
gatekeepers in the Applied Science Intervention Skills Training 
(ASIST) program, the suicide ASIST program, so that they can 
have a higher level of expertise, people like chaplains, and 
others in positions of responsibility, where they come in 
contact with a lot of soldiers who are specially trained to 
recognize when a soldier is having challenges, and there, 
again, to provide them a path by which they can get some help.
    None of that will work, and it really goes back to Senator 
Murray's, I think, very appropriate comments about if a soldier 
is afraid to reach out, if they feel that their professional 
military career will be hurt, we're trying to do everything we 
can to destigmatize that, to ensure that a soldier in need will 
not feel inhibited in reaching out for behavioral healthcare.
    We've made some progress over the last 5 years, I believe, 
the data point is. We've had 100,000 more soldiers self-refer 
for behavioral health problems. But that's simply enough.
    Last, we, in the Army, have engaged with the National 
Institute of Mental Health in a 5-year longitudinal study that 
has made virtually every member of the United States Army part 
of a causal look at suicide, to try to understand where there 
may exist signs and commonalities, whether it's deployment, 
whether it's young soldiers, whatever it may be, so that we can 
be proactive, get out in front of it, not just writing letters 
of condolences but to recognize when a soldier is likely to 
have problems, and to step in. But, as the statistics show, I 
believe it was 134 suicides last year, the numbers continue to 
frustrate us.
    Chairman Inouye. General, do you have anything to add?
    General Odierno. Senator, if I could, I would just say, you 
know, I get notified of whenever a suicide happens, and 
unfortunately, it's alarming how many times I'm notified about 
a suicide. That's been one of the things that's been eye 
opening for me as I have become the Chief of Staff of the Army 
during the last 6 months.
    Suicides have leveled off, but that's not success, because 
it's still, as you mentioned, at the highest levels we've had 
in a very long time. So, what we're doing, it's a combination 
program, as you know, and I think we've talked about it before, 
you know, where it's health promotion. It's about trying to 
decrease risky behavior. And it's also about improving suicide 
prevention capability. So, it's a combination of all three of 
those, as we work through this program.
    It's about resiliency. It's about trying to understand 
resiliency. It's about having programs not only for our 
soldiers, but our family members as well, as they face some of 
these challenges. We are trying address this bigger than 
suicides.
    I don't like to use ``we were so busy'' as an excuse, and I 
will never use that as an excuse. We have to get our leaders 
back involved with more individual soldier activities, and 
counseling, and understanding what they're doing. We have to 
decrease the movement of our soldiers between commands. We have 
to reduce the amount of changes they have in their leadership 
within their units, because I think this all causes them not to 
sometimes report when they're having problems.
    When they've built a long-term relationship with a 
noncommissioned officer and he leaves, and/or commander, and so 
we're looking at all of those areas, as we can fix that, to 
provide more stability and predictability that I think will add 
to us helping to identify and solve some of these issues that 
we continue to have. It's going to be something that's going to 
continue to take time.
    I absolutely believe that our leaders are dedicated to 
doing this. We are dedicated to providing them the tools. The 
funding for this program is funded at the requested level. We 
have not taken any reduction in the funding of any of our 
programs that has to do with behavioral health, that has to do 
with suicide prevention, because it's an important program to 
us. And we will continue to emphasize this, and we will 
continue to work with outside agencies who can help us to 
identify the risky behaviors, and the indicators that we see of 
potential individuals who are risky to suicidal ideation or, 
you know, the commitment of suicide, and we'll continue to work 
that very hard, Senator.
    Chairman Inouye. I have one final question, and I'd like to 
submit the rest.
    This past January, the Secretary of Defense unveiled the 
new national security strategy for the Asia-Pacific area, and 
it was rather obvious that the Navy and Air Force did well. 
Forces were increased as well as equipment and resources. But, 
in the case of the Army, with the exception of Korea, it seemed 
to have come down. I find this rather strange. Do you have any 
thoughts on this?

                     ARMY ROLE FOR NATIONAL DEFENSE

    General Odierno. I would say, Senator, as we went through 
this process, first, we were involved in the process. I was 
involved in the process from the beginning. I was able to 
express my opinions. I was able to talk about the risk to the 
Army, and what we thought we needed for the Army of the future.
    But it came down to really one issue, and that is, do we 
believe we need the size of the Army that will cause us to 
continue to rotate large amount of forces for long periods of 
time to support long-term operations, whether it be a 
counterinsurgency operation, whether it be a stability 
operation. And the determination was that we can take some risk 
in the fact that we will not have to conduct long-term 
stability operations, and that we can mitigate that risk 
through reversibility and the use of our Reserve component, if 
it does occur, which would buy us time to rebuild the army.
    And I think as we were faced with the budget reductions, I 
think we agreed that a 490,000-man Active component Army that 
is equipped properly, that has the money to sustain its 
readiness, although has risk to it, will enable us to 
accomplish the missions of the new strategy, and that we will 
be able to support the strategy in the Asia-Pacific but also to 
continue to provide support in the Middle East as well.
    So, although there's some risk, as we've talked about 
already, we believe that this is not a competition between the 
Army, the Navy, and the Air Force, it's about having the right 
joint force to accomplish the mission. And I believe that we 
now have the right joint force to move forward.
    My concerns are that in the future, if we continue to look 
at reducing the Army more, then we have some real issues, and 
that's when my concern will grow significantly, Senator.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. My one concern is the question marks. We 
are reducing our forces, but yet there's a big question mark 
over Iran and a big question mark over Syria. There's also a 
question mark over Egypt. Are the risks too great? I don't 
know.
    I'd like to thank you, Mr. Secretary and General, for your 
service to our Nation. And this subcommittee looks forward to 
working with you.
    [The following questions were not asked at the hearing but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to Secretary John M. McHugh
           Questions Submitted by Senator Barbara A. Mikulski
              movement tracking system/blue force tracking
    Question. The Army has two mobile tracking systems: Movement 
Tracking System (MTS) and Blue Force Tracking (BFT-1) which utilizes 
satellite communications to track transportation and armored vehicles. 
More than 120,000 BFT and MTS systems have been fielded to date, of 
which approximately 11,000 unique users are active in Afghanistan over 
any given month. These systems generate nearly the entire common 
operating picture of mobile ground force situational awareness in 
Afghanistan and are often the only means of communication for soldiers 
whose missions take them out of range of terrestrial means of 
communication. What is the status of developing the follow on BFT-2 and 
BFT-3 X band?
    Answer. The development of the BFT-2 satellite transceiver is 
complete. The final production acceptance testing for ground systems 
has been completed and the Army is currently receiving deliveries. 
Aviation testing is approximately 75 percent complete. The Army is 
fielding the BFT-2 network to units in Korea and will begin fielding to 
the United States Army Forces Command units in May. The United States 
Government owns and operates the network equipment, and the software is 
in place to support required test events and fielding operations. There 
are currently no development efforts funded for a BFT-3 capability.
    Question. Is the BFT-2 development over budget and behind schedule? 
What are the projected costs associated with continuing to develop BFT-
2?
    Answer. The BFT-2 development was completed in 2010. The current 
BFT-2 production contract is a Firm Fixed Price contract and production 
remains within the planned budget. There are no additional costs 
associated with the development of the BFT-2 capability.
    Question. What are the potential cost savings if the Army bypassed 
BFT-2 development and focused on BFT-3 X band?
    Answer. The BFT-2 development is complete; therefore, there would 
be no cost savings associated with bypassing the BFT-2 development.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl
              high-mobility multipurpose wheeled vehicles
    Question. Documentation for a May 2011 reprogramming action states 
that ``the Army has procured sufficient High-Mobility Multipurpose 
Wheeled Vehicles (HMMWVs) to meet the Army's Acquisition Objective 
(AAO).'' While this reprogramming rescinded $182,000,000 from this 
account, according to the document there is still a balance of 
$422,356,000. How much of the funding in the Army HMMWV procurement 
account is currently unobligated?
    Answer. The amount of unobligated funds in HMMWV fiscal year 2010 
new production procurement account is $19.548 million. These funds have 
been committed and will be obligated by June 2012.
    Question. Funding has been appropriated in prior years for both 
survivability and mobility enhancements for the existing HMMWV fleet 
and for the Army's HMMWV Competitive Recapitalization Program. What are 
the current unobligated balances in these two accounts?
    Answer. The Fiscal Year 2012 Project/PE was authorized $70 million. 
The Army has not obligated any of these funds due to an uncertain 
future for the modernized expanded capacity vehicle (MECV) effort. 
Decisions by Army leadership within the last month have determined that 
$20 million will be used for the survivability improvements as 
requested and appropriated. We will then be asking that the Congress 
allow us to use the remainder for automotive improvements to our 
existing fleet and higher-priority requirements. This funding is 
projected to be obligated in 4th quarter 2012 and 1st quarter 2013.
    Question. The President's budget for fiscal year 2013 recommends 
terminating the Army's HMMWV Competitive Recapitalization Program. How 
does the Army propose to spend the unobligated balance in this account?
    Answer. The Army will no longer pursue the HMMWV Competitive 
Recapitalization Program (also known as the MECV). The Army is 
currently looking at the options available for the execution of the 
funds.
                   tactical wheeled vehicle strategy
    Question. The Army 2010 Tactical Wheeled Vehicle Strategy outlines 
a plan to ``replace all M939-series trucks with FMTV FoVs no later than 
FY22.'' The strategy states that, ``Divesting these vehicles will 
ensure dramatically lower sustainment costs for the Army as many are 
well past their EUL.''
    Will the cuts in family of medium tactical vehicle (FMTV) 
purchasing in fiscal year 2013 and proposed termination of FMTV 
procurement after fiscal year 2014 delay the divestiture of the M939-
series trucks?
    Answer. The Army is currently reviewing all of its fleet 
requirements. In the aggregate, the Army's current plans for FMTV 
procurements through fiscal year 2014 and fleet reductions should 
divest the M939-series by fiscal year 2016, with the possible exception 
of some specialty variants, provided there are no additional cuts in 
funding.
    Question. Compared to the original plan outlined in the Army 2010 
Tactical Wheeled Vehicle Strategy, how much higher will the Army's 
maintenance costs be over the 10-year budget window due to increased 
use of the M939-series trucks?
    Answer. The Army does not anticipate an increase in use of the 
M900-series vehicles over the 10-year budget window and, as a result, 
these vehicles will not incur higher maintenance costs. The Army is 
currently revising its medium tactical wheeled vehicle acquisition 
objective and expects to meet the reduced acquisition objective at the 
end of the current family of medium tactical vehicles production 
contract in fiscal year 2014. This will enable the Army to divest the 
remaining M900-series medium tactical vehicles without an increase in 
their use.
                                 ______
                                 
               Question Submitted by Senator Patty Murray
                       electronic medical records
    Question. I want to thank you yesterday for sitting down and 
discussing the issues of Department of Veterans Affairs (VA)/Department 
of Defense (DOD) collaboration.
    As you said one of the major issues is the inability for the two 
agencies to share electronic medical records.
    To this end, you said you were going to start a pilot that may get 
off the ground in 3 years to try and make progress.
    Mr. Secretary, the Congress has been pushing you to move forward 
for years on this effort, we passed legislation that you voted for as a 
House member many years ago, and yet after 10 years of war you are 
still talking about a pilot program and an inability to get this effort 
off the ground.
    What can you tell this subcommittee, and millions of soldiers who 
need this effort taken seriously, and me about how you will make shared 
medical records a reality so we are not sitting here 3 years from now 
and hear from you about some pilot program you are intending to create 
in the future?
    Answer. Since 2006, DOD/VA shares data through the Bidirectional 
Health Information Exchange through which DOD and VA clinicians access 
each other's health data via a secure real-time interface. The 
Bidirectional Health Information Exchange shares data between DOD/VA 
only, whereas another initiative, the Virtual Lifetime Electronic 
Record (VLER) shares information with private partners through the 
Nationwide Health Information Exchange. The VLER is currently a pilot 
program with DOD participating at four sites including, San Diego, 
California; Tidewater areas of Virginia; Spokane, Washington; and Puget 
Sound, Washington. Through the VLER, providers have the ability to 
query the Nationwide Health Information Exchange to view information 
other healthcare organizations made available on their patient. A 
decision regarding the deployability of the VLER across the enterprise 
should be made in the summer of 2012.
    The Interagency Program Office (IPO) has been re-chartered as the 
single point of accountability for the integrated Electronic Health 
Record (iEHR). All three services are involved at various levels of the 
governance process to ensure the project stays on schedule and within 
budget. The IPO reports to the Health Executive Council with 
representation from Health Affairs and the VA. DOD and VA are committed 
to the iEHR effort. The iEHR will enable DOD and VA to align resources 
and investments with business needs and programs. The iEHR will 
leverage open source solution development to foster innovation and 
expedite delivery of a viable and effective solution.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
       post-traumatic stress disorder and traumatic brain injury
    Question. Are there any further legislative steps that the Congress 
could take to improve the screening and delivery of care to military 
personnel with post-traumatic stress disorder (PTSD) and traumatic 
brain injury (TBI)?
    Answer. Continued congressional support of the Army's TBI and PTSD 
clinical and research efforts will ensure improved screening and 
delivery of care.
      replacement of ireland army community hospital at fort knox
    Question. In response to a question for the record, I submitted in 
2011, the Army stated that ``The Army intends to replace Ireland Army 
Community Hospital (IACH). The current Defense Health Program Future 
Year Defense Program includes a phased funded replacement project for 
IACH beginning in fiscal year 2013.'' However, the President's fiscal 
year 2013 budget did not include a funding request for the replacement 
of IACH at Fort Knox. When does the Army intend to build a replacement 
and when will the Army plan on requesting funding for the project?
    Answer. The Fort Knox Hospital Replacement Project is 35 percent 
designed. This project is being programmed in two phases: Phase 1 
Inpatient at a cost of $308.5 million and Phase 2 Outpatient at a cost 
of $257.5 million. The U.S. Army MEDCOM is reviewing the project 
documentation and updating the Healthcare Requirements Analysis in 
preparation for resubmission to the fiscal year 2014 budget estimate 
submission for phase 1. The Department of Defense position on the Fort 
Knox Hospital Replacement is to revalidate the project scope in light 
of ongoing military health systemwide inpatient analysis by Office of 
the Assistant Secretary of Defense for Health Affairs (OASD (HA)). The 
Army Medical Department must scope this facility based on efficient and 
effective healthcare operations, but must also incorporate current and 
future installation and military treatment facilities missions.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchinson
          inactivation of the 172nd heavy brigade combat team
    Question. Secretary McHugh, while I am encouraged to see that the 
Army is eliminating two permanently based brigade combat teams from 
Germany, I do have a question as to the timing for this proposed move. 
As you are aware, the Army will inactivate the 170th Heavy Brigade 
Combat Team (BCT) in fiscal year 2013 but is waiting until fiscal year 
2014 to inactivate the 172nd Heavy Brigade Combat Team. Why is the Army 
waiting until fiscal year 2014 to cut the second brigade and how much 
will it cost the United States taxpayers to sustain this brigade in 
Germany an additional year?
    Answer. The 172nd Brigade deployed in support of Operation Enduring 
Freedom and was not available to inactivate in fiscal year 2013. When 
the unit returns from combat, it will conduct 6 months of soldier and 
family re-integration and begin incremental battalion level draw-downs 
and ultimately leave the force in early fiscal year 2014. Therefore, 
savings cannot be significantly accelerated and no additional resources 
can be saved.
          multiyear contract for the ch-47 chinook helicopter
    Question. Secretary McHugh, as part of this year's budget, you have 
submitted a request for approval to enter into a second multiyear 
contract for the CH-47 Chinook helicopter. This multiyear contract 
would last for 5 years and produce 155 aircraft, 12 of which would be 
for the Texas National Guard. You've already had experience with a 5-
year multiyear contract for Chinooks; the first one expires this year. 
Given this experience, what have you seen as the biggest benefits for 
both the Army and the taxpayer that led you to request authority for a 
second multiyear contract?
    Answer. The biggest benefit to the taxpayer is the savings; $449 
million on the base contract for 181 CH-47F aircraft. The current 
Chinook multiyear contract is a firm fixed-price contract for fiscal 
year 2008-2012. The contract has executed on cost and delivered on 
schedule. In addition to the base contract savings, the program office 
procured 34 option aircraft for an additional $86 million in savings. 
The second requested multiyear contract is projected to yield 10-
percent savings or $373 million.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                   medium expanded capability vehicle
    Question. Last year, this subcommittee added $20 million to fund 
the design competition for the medium expanded capability vehicle 
(MECV). The President's budget for this year, however, seeks to cancel 
this program, even though the air assault requirements for 5,700 
survivable trucks capable of being transported by a Chinook helicopter 
remain unchanged. I am uncomfortable with the decision to cancel the 
MECV design competition because it will increase the risk to our air 
assault soldiers. The tactical wheeled vehicle budget was reduced by 57 
percent compared to last year's budget request, and the decision to 
cancel the MECV appears to be the result of insufficient procurement 
funding in the near-term budget window to move forward with both the 
MECV and joint light tactical vehicle (JLTV) programs. Was the decision 
to cancel the MECV program based solely on the fiscal constraints the 
Army faced?
    Answer. The decision not to begin the MECV was due to Defense-wide 
funding constraints; not just fiscal constraints faced by the Army. The 
Army and Marine Corps' made the decision to proceed with JLTV to fill 
the capability gaps for light tactical vehicles. MECV was deemed a 
lower-priority program.
    Question. The funding necessary to conduct the MECV design 
competition has already been authorized and appropriated for this 
purpose in last year's National Defense Authorization Act (NDAA) and 
Department of Defense (DOD) Appropriations Act. Proceeding with the 
MECV design competition would provide you with the necessary 
performance and life-cycle cost data to make an informed decision 
regarding the most survivable and cost-effective way to fulfill the 
capability gap to lift a survivable tactical wheeled vehicle for our 
air assault and airborne units at high, hot conditions. Does the air 
assault requirement for a survivable tactical wheeled vehicle that can 
be lifted by a CH-47 Chinook in high-altitude and/or high-temperature 
conditions still exist?
    Answer. Yes, the requirement for the air assault mission to lift a 
survivable light tactical vehicle with the CH-47 Chinook in high/hot 
conditions (4,000 feet/95 F) still exists. The original requirement 
was addressed in the high-mobility multipurpose wheeled vehicle (HMMWV) 
Operational Requirements Document in September 2004.
            suicide--hiring of behavioral health specialists
    Question. Many of us on this panel have a great deal of respect for 
the former Vice Chief of Staff, General Pete Chiarelli, who authored 
the Army's Gold Book in response to concerns about suicides and the 
health of the force. Before he retired, he came over to the Hill to 
discuss the Army's efforts to reduce the incidence of suicide in the 
force and the ongoing efforts to treat the underlying problems that 
lead far too many of our Nations' best men and women to contemplate or 
perform suicide. General Chiarelli identified access to behavioral 
healthcare as one way to reduce the rate of suicide. There have been 
several efforts by the Congress to expand access to providers, 
including a provision in last year's NDAA to utilize telehealth 
initiatives, and I want to applaud the Army for submitting a 
legislative proposal this year to expand the number and types of 
providers that may conduct evaluations during preseparation screening. 
I fully intend on supporting this proposal, but the problem will not be 
solved by this measure alone.
    Secretary McHugh, are there any other requests you would make to 
allow for rapid hiring of additional behavioral health specialists, 
even if on a temporary basis, to address both the rate of suicides and 
alleviate pressure on your existing behavioral health force?
    Answer. The permanent extension of 10 U.S.C. 1599c, which provides 
for expedited hiring authority for certain healthcare professionals, 
including behavioral health specialists, would provide the long-term 
critical ability to hire behavior healthcare providers more rapidly.
                   medical and disability evaluations
    Question. During the past year the length of time that wounded 
warriors and recently discharged veterans have been waiting for 
disability evaluations has continued to suffer. For Active-Duty members 
the average evaluation completion time increased by 88 days from March 
2010 to January 2012. It takes more than a year right now.
    In addition, medical evaluation boards still take twice as long as 
the 35-day target. Several senior officers, including the former Vice 
Chief, have identified the Integrated Disability Evaluation System and 
the dual adjudication process as impediments to rapid evaluations and 
outcomes for our veterans.
    What administrative actions are being taken or what legislative 
proposals could be implemented to improve the time it takes to conduct 
the medical and disability evaluations for our wounded soldiers?
    Answer. The Army is aggressively working to improve performance of 
the Disability Evaluation System (DES). We are currently implementing a 
number of initiatives designed to improve the performance, including:
  --adding more than 1,100 in staffing;
  --publishing guidance to standardize the process across the Army;
  --improving our training; and
  --establishing procedures that will enhance the sharing of 
        information with the Department of Veterans Affairs (VA).
    The Army is looking at several different options to improve the 
DES--one of which would be a process in which DOD determines a disabled 
servicemember's fitness for duty, and if found unfit, provide a 
lifetime annuity based on the member's rank and years of service. VA 
would then establish compensation for service-connected injuries, 
disease, or wounds. We believe this type of system would achieve an 
average disability process outcome in less than 90 days:
  --improved readiness;
  --reduced complexity;
  --decreased impact on limited medical resources; and
  --be less adversarial.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
                    overseas contingency operations
    Question. Regarding the funding provided by this subcommittee for 
Overseas Contingency Operations, does the Army have the flexibility it 
needs to transfer funds between accounts to ensure funding is used 
wisely and does not expire?
    Answer. Operation and Maintenance, Army (OMA) overseas contingency 
operations (OCO) funding for operational requirements was previously 
distributed in subactivity group (SAG) 135. To comply with House Report 
112-331, the Conference Report that accompanied Public Law 112-74, 
Consolidated Appropriations Act, 2012, specifically pages 759-761, Army 
distributed OCO funding into SAGs previously used exclusively for base 
resources (114, 115, 116, 121, 122, and 131). Issuing OCO funding in 
base SAGs, some with reprogramming restrictions (for example, SAG 131), 
limits Army's execution in those SAGs to requirements consistent with 
the SAG description. To realign resources across SAGs to meet emerging 
requirements requires a reprogramming action. These reprogramming 
actions are time consuming and are sometimes limited to relatively low 
thresholds (for example no more than $15 million may be moved out of 
SAG 131 without congressional prior approval). Army executed resources 
responsibly and with greater flexibility when there were fewer OCO 
SAGs. The drawdown of deployed forces may also further complicate 
administering Army OCO accounts as evolving priorities and requirements 
may shift faster than fiscal rules accommodate.
    Question. Since its inception, has any funding provided for the 
Afghanistan Security Forces Fund (ASFF) expired?
    Answer. Yes, we have had ASFF funds expire. Since fiscal year 2005, 
we have had an obligation rate greater than 99.5 percent per year 
resulting in a cumulative total of $46 million unobligated over 6 
years, of $27.9 billion available.
    Question. What mechanisms does the Army utilize to ensure funding 
is not allowed to expire at the end of each fiscal year?
    Answer. The Army has several mechanisms in place to ensure funding 
is not allowed to expire each fiscal year. Senior leaders review Army 
obligations on a weekly basis. Our operations and maintenance 
appropriation spend plan is reviewed monthly to ensure we are in 
accordance with the mandate of no more than 20 percent of the 
appropriation shall be obligated during the last 2 months of the fiscal 
year; thus putting the Army on a glide path for 100-percent execution 
of its appropriation. In addition, each year the Army conducts Mid Year 
Review (MYR)--a senior leader comprehensive look at command execution 
through end-of-month March. Resources are realigned to optimize their 
use for Army requirements. The MYR is also provided to the Office of 
the Secretary of Defense and any resources excess to Army needs would 
be used for Department of Defense requirements.
                                 ______
                                 
           Questions Submitted to General Raymond T. Odierno
                Questions Submitted by Senator Herb Kohl
          post-deployment/mobilization respite absence program
    Question. Due to Government errors at demobilization sites, many 
soldiers did not receive the full amount of administrative leave that 
they were allowed under the Post-Deployment/Mobilization Respite 
Absence Program (PDMRA). How many soldiers have been credited with 
extra days of PDMRA administrative leave by the Army Board for 
Correction of Military Records (ABCMR) to correct this mistake?
    Answer. The ABCMR granted 466 soldiers authority to use PDMRA days 
they had earned but were not afforded the opportunity to use. Their 
records were corrected to show that they are authorized to use these 
days of PDMRA upon the next qualifying deployment/mobilization. 
Authority to use these PDMRA days will expire upon the soldier's 
transfer from an authorized Reserve component status.
    Question. For those soldiers credited with extra days of PDMRA 
administrative leave by the ABCMR, what is the average number of 
additional days each soldier has received through the ABCMR process?
    Answer. The average PDMRA days granted by ABCMR was 26 days.
    Question. Of the soldiers who have been credited with extra days of 
PDMRA leave by the ABCMR, how many have already used the leave, are 
currently on a deployment which will make them eligible to use the 
leave, or are scheduled for such a deployment in the future?
    Answer. The Army is unable to provide specific numbers to this 
question since the Reserve components, Army National Guard (ARNG) and 
the Office of the Chief of Army Reserve (OCAR), were never required to 
track PDMRA to this level of detail. However, ABCMR reviewed 
applications from 604 soldiers who sought monetary reimbursement or 
credit for PDMRA days which were earned but not used. Future deployment 
numbers are unknown as this is a function of demand. Current Reserve 
component soldiers on mobilization orders are approximately 46,650.
    Question. Some soldiers who have been credited with extra days of 
PDMRA leave by the ABCMR will never be eligible to use this leave since 
they will not deploy again. How do you propose that the Government's 
mistakes be remedied in the cases of these soldiers?
    Answer. The Army no longer has authority under section 604 of 
Public Law 111-84 (the Fiscal Year 2010 National Defense Authorization 
Act) to provide monetary compensation to soldiers or former soldiers 
for PDMRA leave. As such, we have no remedy for former soldiers. For 
current soldiers, the only available remedy to address the extra PDMRA 
leave they may have been credited with is for those soldiers to 
participate in subsequent deployments.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
       preparing soldiers for the transition out of the military
    Question. General Odierno, I recently attended a number of 
veterans' roundtables back in my home State of Washington. Time and 
time again, I hear similar stories of struggle. Veterans do not put 
their military service on their resumes because they feel that 
employers will find them less desirable. Also, employers are often 
unable to understand all of the skills veterans bring to a workplace.
    I am concerned as the Army begins to downsize by 80,000 soldiers 
over the next 5 years, how these soldiers will transition in a 
difficult economy and how that will impact the Army's bottom line with 
the increasing tab for unemployment compensation.
    The Army Career and Alumni Program (ACAP) provides critical 
services for our soldiers transitioning to a postmilitary career. I am 
concerned that with the reduction in temporary end-strength that the 
Army will not have enough counselors on hand to assist--especially as 
ACAP changes and requires more intensive preparation beginning 15 to 18 
months prior to separation.
    Have you adequately budgeted to reflect an increase in ACAP 
counselors to address this surge in separations?
    Answer. The Army is currently conducting a detailed analysis of the 
additional counselors and staff that will be required to address the 
additional throughput of soldiers. Resources are being identified to 
reallocate to our transition program to ensure all transition 
requirements by all soldiers are met.
    ACAP delivers a world-class transition program for America's Army 
that ensures all eligible transitioners have the knowledge, skills, and 
self-confidence necessary to be competitive and successful in the 
global workforce. ACAP helps transitioning soldiers make informed 
career decisions through benefits counseling and employment assistance. 
ACAP is responsible for delivering both transition assistance and 
employment assistance services.
    Some examples of programs available through ACAP are:
  --Transition Assistance Program (TAP) Employment Workshops;
  --Employment Assistance to include resume writing and ``Dress for 
        Success'';
  --Health Benefits Transition Brief;
  --Survivor Benefits Plan Brief; and
  --Veterans Affairs Disability Brief.
    The Army is also utilizing the Hero 2 Hired (H2H) as its interim 
employment application/tool (www.H2H.jobs) to provide one primary 
location where soldiers of all components, veterans, and family members 
can connect with private industry employment opportunities. This 
application is Web-based and able to translate military occupational 
skills (MOS), provide career path exploration, upload resumes, allow 
customized job searches, enable employers to also search for veterans, 
and provide performance metrics. H2H will eventually be included on 
eBenefits, the single portal for transition benefits selected by the 
Department of Defense (DOD)/Department of Veterans Affairs (VA) 
Veterans Employment Initiative Task Force (www.eBenefits.va.gov).
    Question. I understand ACAP does a lot to prepare soldiers for the 
transition out of the military through career and transition 
counseling. But the military spends hundreds of millions of dollars on 
unemployment insurance for those who were unable to find civilian 
employment. As you know, my Veterans Opportunity to Work (VOW) to Hire 
Heroes legislation makes a range of improvements designed to help get 
servicemembers and veterans into good civilian jobs. Part of that 
legislation dealt with helping servicemembers transition skills that 
have a direct correlation to civilian licensure or certification. What 
are you doing so far to implement this legislation?
    Answer. Army Continuing Education System (ACES) has a program 
currently in place to support in-service and transitioning soldiers in 
obtaining certifications and licensure. The Credentialing Opportunities 
On-Line (COOL) program (www.cool.army.mil) provides soldiers with 
information on civilian licensures and certifications relevant to their 
Army Military Occupational Specialties (MOS). The COOL program provides 
each solider an MOS crosswalk to civilian skills. Also, Certification 
and Licensure for each MOS is listed in COOL along with the estimated 
availability of a first-term solider to obtain a credential and the 
resources (GI bill, Army e-Learning, ACE credit) to obtain each 
certification.
    The Army Transition Implementation Plan outlines how the Army will 
operatively incorporate the transition requirements mandated by the VOW 
to Hire Heroes Act of 2011, and the Presidential Veterans Employment 
Initiative Task Force (VEI TF) recommendations. The Army Transition 
Implementation Plan was developed at the Army Transition Plan Working 
Group comprised of representatives from the U.S. Army Deputy Chief of 
Staff, G1, U.S. Army Installation Management Command (IMCOM), U.S. Army 
Human Resources Command (HRC), U.S. Army Reserves (USAR), and the Army 
National Guard (ARNG). The working group focused on integrating the 
requirements established by the VOW Act and VEI TF, in coordination 
with the Veterans Administration (VA), Department of Labor (DOL), and 
Small Business Administration (SBA). The working group will evolve the 
transition landscape from that of an end of service program, to one 
that provides a blended transition-training and services delivery 
model, integrating transition education as part of a soldier's military 
life-cycle. As transition is introduced into the military lifecycle, 
soldiers, leaders, and transition service providers, will maintain 
transition awareness that best prepares soldiers for life after the 
Army.
    The Army Transition Implementation Plan was approved in April 2012. 
Concurrently, Army transition service providers and interagency 
partners, are in development of revised transition curricula, for 
piloting in July 2012. The Army will pilot the VOW Act and VEI TF 
requirements at select Active component installations and Reserve 
Component locations. The Army has identified an official employment 
portal, https://H2H.JOBS, ``Hero to Hired,'' where soldiers can search 
for jobs and employers can post job openings.
    Army-wide implementation for VOW Act and VEI TF requirements will 
take place no later than November 21, 2012. The Army Transition 
Implementation plan accomplishes:
      Veterans Opportunity to Work Act Requirements.--Pre-separation 
        Counseling, VA Benefits Briefing, DOL Employment Workshop--
        implementation for all Army components no later than November 
        21, 2012.
      Veterans Employment Initiative Task Force Requirements for a Core 
        Curriculum.--Military Occupational Specialties (MOS) Crosswalk, 
        VA Applications, Financial Planning, Individual Transition Plan 
        (ITP) Preparation--implementation no later than November 21, 
        2012.
      Veterans Employment Initiative Task Force Requirements for a 
        ``Goals, Plans, Success'' Curriculum.--Goals, Plans, Success 
        (GPS) provides the opportunity for soldiers to attend 
        additional training sessions on continuing higher education, 
        pursuing technical education/certification, or venturing 
        towards entrepreneurship. GPS curriculum is divided into an 
        Education Track, Technical Training Track, and Entrepreneurship 
        Track, with implementation in October 2013.
      Veterans Employment Initiative Task Force Requirements for an End 
        of Career, Transition CAPSTONE Event, To Mitigate Any Risks for 
        Possible Negative Transition Outcomes After Separation and 
        Connect Jobs to Soldiers (H2H.JOBS).--CAPSTONE will identify 
        soldiers confidence and preparedness for transition, with the 
        ability to ``re-train'' as appropriate. CAPSTONE implementation 
        will be October 2013.
      Military Life Cycle for Transition.--Military Life Cycle for 
        Transition will parallel transition readiness with military 
        career progression, as transition education will be integrated 
        in a soldiers military education throughout their career. 
        Military Life Cycle (MLC) will be implemented October 2014.
      Pre-Apprenticeship.--We have begun initial staff analysis and 
        planning to develop and implement a pre-apprenticeship program 
        authorized by subsection 225 of your HHA. This training program 
        is intended for transitioning Active-Duty soldiers, offered 
        through an industry partner and seeks to capitalize on an 
        opportunity to address local labor needs with soldiers by 
        reducing training cost to employers. It allows transitioning 
        servicemembers, who have been vetted through appropriate 
        channels, and meet prerequisites, to participate in a 
        preapprenticeship program that provides credit toward a program 
        registered under the National Apprenticeship Act. Wounded 
        Warriors--Education and Employment Initiative (E2I) is an 
        existing DOD program focused on warrior care; the goal of E2I 
        is to ensure consistent offerings to all recovering service 
        members by synchronizing, integrating and expanding the 
        education and employment opportunities for them and their 
        families. E2I will ensure the service member is engaged early 
        in their recovery process to identify skills and develop a 
        career plan that leverages those skills. Through the execution 
        of their career plan, servicemembers will ultimately be matched 
        with education and career opportunities that increase their 
        career readiness and better prepare them for a successful 
        transition from their service.
      Apprenticeship.--Training and Doctrine Command has mapped Army 
        MOS's to assist in developing an Army program similar to the 
        United States Military Apprenticeship Program (USMAP), managed 
        by Naval Education and Training Command. A formal military 
        training program that provides Active-Duty Coast Guard, Marine 
        Corps, and Navy service members the opportunity to improve 
        their job skills and to complete their civilian apprenticeship 
        requirements while they are on active duty. Our goal is to 
        implement this program in concert with Military Life Cycle 
        implementation timelines.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
               mq-8b fire scout unmanned aerial vehicles
    Question. General Odierno, I've been informed that the Army's 37th 
Infantry Brigade Combat Team (IBCT) in Afghanistan is being supported 
by an Intelligence, Surveillance and Reconnaissance (ISR) Task Force 
led land-based deployment of MQ-8B Fire Scout unmanned aerial vehicles. 
I understand the MQ-8B is providing the 37th IBCT with full-motion 
video for route clearance and tactical ISR in an austere operating 
environment near Kunduz. Would you please provide the subcommittee 
information on who's operating the MQ-8B's in Afghanistan and more 
details on the types of missions and performance of the MQ-8B in 
Afghanistan?
    Answer. In May 2011, the U.S. Navy deployed three MQ-8B Aircraft to 
Operation Enduring Freedom (OEF). These aircraft are operated by 
Northup Grumman which is contracted to provide 300 hours of Electro 
Optical/Infrared Full Motion Video per month. While the aircraft are 
owned by the Navy, the deployment of this contractor flown system was 
funded by the ISR Task Force.
                     armed aerial scout helicopter
    Question. General Odierno, the Congress approved fiscal year 2012 
funding for the Army to conduct a flight demonstration of Armed Scout 
helicopter capabilities. When do you expect to conduct this 
demonstration; what do you expect to glean from it; and do you plan to 
use the results of this demonstration to inform the Department's fiscal 
year 2014 budgeting process and the way ahead for this needed 
capability?
    Answer. The Army has requested authority to release a Request for 
Information (RFI) and conduct the voluntary flight demonstration. Once 
authorized to release the RFI, the Army expects to receive responses 
within approximately 60 days. The demonstrations will begin 
approximately 120 days after RFI release.
    The purpose of the RFI and voluntary flight demonstration is to 
assess the current state of technology within industry. Results will be 
captured according to each individual respondent's level of 
participation. Our path forward with the Armed Aerial Scout (AAS) will 
enable us to make an informed capabilities decision and, subsequently, 
a materiel solution option recommendation, to the Defense Acquisition 
Executive based on the current state of technology in the market place. 
The AAS RFI, industry discussions, and the voluntary flight 
demonstration will inform a future materiel solution option 
recommendation that represents a medium-risk program with achievable 
and affordable requirements within the current and future fiscal 
environment.
    The results of the RFI and voluntary flight demonstration is 
intended to inform the Department's fiscal year 2014 budgeting process 
and the way ahead for this needed capability.
                         tactical fuel systems
    Question. General Odierno, I am aware the Army Combined Arms 
Support Command identified an operational gap for its tactical fuel 
system. I have been informed that there is a need for collapsible fuel 
tank storage systems to support a much longer use life than what is 
being used by the Army. The subcommittee is aware of field reports 
which indicate premature degradation and outright failure within the 
first year of use for current systems. Have you evaluated the 10-year 
service-life capabilities of Nitrile rubber collapsible storage tanks 
currently used by the United States Marine Corps? What is the life-
cycle cost differential between the Army systems and the Nitrile rubber 
systems being used by the Marines?
    Answer. The Army Tank Automotive Research, Development and 
Engineering Center (TARDEC) has not performed a 10-year service-life 
capabilities analysis for the Nitrile collapsible tank; however, they 
did perform a limited performance comparison between the Nitrile tank 
and the polyurethane tanks.
    TARDEC purchased Nitrile and polyurethane tanks that conformed to 
the TRI- Services specifications for fuel tanks. The TRI-Services group 
is a Defense Logistics Agency (DLA) led entity that, among other 
responsibilities, sets the specifications for fuel tanks.
    TARDEC provided the following information from their comparison 
between the Nitrile and polyurethane tanks:
  --Nitrile tanks were 11 percent more expensive to produce on a unit 
        cost basis. This difference can be attributed to:
    --Nitrile is a more expensive raw material than polyurethane.
    --The fabrication of a nitrile fuel tank is more labor intensive.
  --Maintenance and repair costs are equivalent.
  --Costs of technical manuals and logistics data are equivalent.
  --Fielding and training costs are equivalent.
  --Disposal costs are equivalent.
    The TARDEC comparison did not address the difference in service 
life between the two collapsible bags; however, Defense Logistics 
Agency-Energy will conduct separate research and development tests on 
both Nitrile and polyurethane-coated tanks. The projected completion of 
those tests is estimated to be October 2013 and April 2014, 
respectively.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
                elimination of army brigade combat teams
    Question. In your testimony, you mentioned the Army's plans to 
eliminate at least eight brigade combat teams (BCTs). What are the 
criteria that the Army will use in deciding which BCTs will stay and 
which will go?
    Answer. The Army will consider a broad array of criteria for 
inactivation of the eight BCTs to make strategically sound, resource 
informed decisions. Criteria will be based on strategic considerations, 
operational effectiveness, geographic distribution, cost and the 
ability to meet statutory requirements.
      Strategic Considerations.--Aligns Army Force Structure to the new 
        Defense Strategy and forthcoming Defense Planning Guidance with 
        a priority on the Pacific region.
      Operational Considerations.--Seeks to maximize training 
        facilities, deployment infrastructure, and facilities to 
        support the well-being of soldiers and their families. Aligns 
        appropriate oversight/leadership by senior Army headquarters 
        for better command and control.
      Geographic Distribution.--Seeks to distribute units in the United 
        States to preserve a broad base of support and linkage to the 
        American people.
      Cost.--Considers the impacts of military personnel, equipment, 
        military construction, and transportation costs.
      Statutory Requirements.--Complies with the provisions of the 
        National Environmental Policy Act (NEPA) as appropriate, 
        including an environmental and socio-economic analysis.
    Question. Will the Congress be consulted ahead of time on the 
proposed BCT decisions? If not, why not?
    Answer. The Army is considering a number of potential options, but 
no final decisions have been made as to which U.S.-based BCTs will be 
drawn down. An announcement on specific force structure actions is 
expected sometime before, or in conjunction with, submission of the 
fiscal year 2014 President's budget in early February 2013. The Army 
will develop a plan that will provide detailed information regarding 
the draw down and address notification of affected Army installations 
and appropriate Congressional Committees as required by section 2864 of 
the Fiscal Year 2012 National Defense Authorization Act prior to the 
decision going into effect.
                                 ______
                                 
          Question Submitted by Senator Kay Bailey Hutchinson
                         suicide vest detection
    Question. General Odierno, Department of Defense (DOD) and the 
services have spent approximately $50 million developing and deploying 
technology that automatically identifies people potentially wearing 
suicide vests at stand-off ranges. However, this technology is still 
not currently available to many bases in Afghanistan as well as in the 
United States. What is the Army doing today in Afghanistan to screen 
personnel at stand-off ranges that are seeking access to our bases 
where this technology is not available?
    Answer. The Army and the Joint Improvised Explosive Device Defeat 
Organization (JIEDDO) have resourced more than $500 million for Entry 
Control Point (ECP) solutions alone. The Army has employed several 
solutions in Afghanistan to screen personnel at stand-off distances 
including:
  --Counter Bomber 3 (CB-3);
  --Standoff Suicide Bomber Detection System (SSBDS);
  --Subtle madness;
  --Light guard;
  --Rapid scan;
  --Backscatter vans;
  --walkthrough metal detectors;
  --Biometrics, random anti-terrorism measures (RAM); and
  --the capabilities associated with ECP solutions to counter and 
        mitigate Person-Borne Improvised Explosive Devices (PBIED).
    These systems allow the Army in Theatre to provide a layered, 
stand-off defense at most locations.
    In addition to PBIED systems, Army units deploy a layered defense 
at all locations in Afghanistan by continuously screening personnel and 
scanning surrounding areas of each Forward Operating Base (FOB). 
Soldiers occupy guard towers and entry control points with night 
vision, thermal, and long-range optics, and man entry control points. 
Each FOB has a Base Defensive Operations Center that controls the Base 
Expeditionary Targeting and Surveillance Systems-Combined (BETSS-C) 
camera system, Raid and Cerberus Towers, and video feeds from 
aerostats. Beyond the FOB, units routinely conduct mounted patrols 
around the FOBs, Tactical Checkpoints (TCPs), and regional Tactics, 
Techniques, and Procedures (TTPs) to provide additional surveillance 
outside the reach of the guard towers.
    United States Forces Afghanistan (USFOR-A) determines the 
distribution of PBIED equipment to operating bases in theater. USFOR-A 
determines the needs of installations based upon analysis of the local 
threat and logistics capabilities of the operating bases. Currently 
there are no requirements for additional PBIED systems.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                    high-demand soldiers dwell time
    Question. Army leaders have repeatedly said that we owe our Active-
Duty soldiers a minimum of 2 years home for every 1 year deployed. 
While we are meeting that goal for some soldiers, I'm less confident 
that this budget does the same for soldiers serving in the combat arms 
and low-density, high-demand units such as aviation and special forces. 
These are the very category of soldiers that need the required dwell 
time the most. They are also the forces that are most likely to deploy 
even if we are not in large-scale engagements like Iraq and 
Afghanistan.
    General Odierno, in light of the proposed force reductions, did the 
Army ensure that this budget provides an average dwell time for combat 
arms and high-demand soldiers that equals 2 years home for every year 
deployed?
    Answer. The Army will accomplish force reductions in a responsible 
and controlled manner, and the proposed force structure will allow the 
Army to meet our Boots-on-the-Ground (BOG):Dwell goal. As always, the 
Army's intent has been to improve dwell time for soldiers and families 
where possible, and the goal is to achieve a 1:2 for Active units and 
1:4 for Reserve units by 2015. However, end-strength reductions beyond 
490,000 will challenge the Army's ability to meet timelines for current 
identified requirements and to maintain necessary dwell for units and 
soldiers.
    In the second quarter of fiscal year 2012, with the help of the 
temporary end-strength increase and the decrease in demand for deployed 
forces, the Active component of the Army achieved its individual 
BOG:Dwell goal with a median ratio of 1:2.01. However, several grades 
and specialties are still below the 1:2 goals but have been improving. 
Among these are enlisted soldiers in grades sergeant and below, and 
aviation soldiers in general. Army Special Operations Forces are 
programmed to grow 3,677 military manpower authorizations from fiscal 
years 2013 to 2017. Growth includes adding an MH-47G helicopter company 
in fiscal year 2014 (176 personnel), two extended range/multipurpose 
Unmanned Aerial Systems (UAS) companies in fiscal year 2014 and fiscal 
year 2015 (330 personnel), and an increase in combat support and combat 
service support in each Special Forces Group in fiscal year 2013 and 
fiscal year 2014 (1,445 personnel). Additionally, 334 Military 
Intelligence (MI) billets will be added in fiscal year 2014 to the 
Active Special Forces Groups and the Ranger Regiment to increase MI 
capability. The Army remains committed to activate a Combat Aviation 
Brigade (CAB) at Fort Carson in fiscal year 2013 as planned.
                common remotely operated weapons station
    Question. One of the weapon systems in the Army's arsenal that has 
been most demanded by soldiers in Iraq and Afghanistan is the Common 
Remotely Operated Weapons Station (CROWS). I am proud that many 
components of this system are manufactured and assembled in my home 
State of Maine. I was please to see that funding for the CROWS has 
moved from the overseas contingency operations (OCO) budget to the base 
budget.
    However, it is unclear to me how the Army arrived at the long-term 
acquisition objective for the quantity of CROWS to be procured. From my 
review of the budgetary documents and solicitations, it appears the 
Army intends to procure a total of between 14,000 and 18,000 CROWS to 
outfit a fleet of combat and tactical vehicles that consists of several 
hundred thousand vehicles.
    General Odierno, how did the Army arrive at the requirement and 
total acquisition objective for the CROWS system?
    Answer. The Army has produced the CROWS for the last 6 years to 
respond to Operational Need Statements from the commanders in the field 
and to provide CROWS to various Program Managers to mount on their 
vehicles such as up-armored high-mobility multipurpose wheeled vehicles 
(HMMWV), mine-resistant ambush-protected (MRAP) vehicles, Route 
Clearance Vehicles, and Abrams Tanks. As Training and Doctrine Command 
(TRADOC) has developed their fielding plan for the various branches, 
the Basis of Issue Plan (BOIP) submitted and approved through the 
Organization Requirements Document Approval Brief (ORDAB) on May 9, 
2011, was for a total of 11,269. This quantity reflects 1,556 for Heavy 
Brigade Combat Teams, 1,119 for Special Operations Forces, 4,090 for 
Stryker Brigade Combat Teams, 576 for Explosive Ordnance Disposal, 9 
for Ordnance Center and Schools, 2,143 for Sustainment Center of 
Excellence, and 1,776 for Maneuver Center of Excellence. This number 
may change slightly as TRADOC continues to update and analyze their 
requirements.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. We stand in recess, and will reconvene on 
Wednesday, March 28, at 10 a.m., to learn about Defense Health 
Programs.
    Mr. McHugh. Thank you, Mr. Chairman.
    General Odierno. Thank you, Mr. Chairman.
    [Whereupon, at 12:13 p.m., Wednesday, March 21, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
March 28.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                       WEDNESDAY, MARCH 28, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Mikulski, Murray, Cochran, and 
Murkowski.

                         DEPARTMENT OF DEFENSE

                        Medical Health Programs

STATEMENT OF LIEUTENANT GENERAL CHARLES B. GREEN, 
            SURGEON GENERAL, DEPARTMENT OF THE AIR 
            FORCE

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. I'd like to welcome all of you, as we 
review the Department of Defense (DOD) medical programs this 
morning. There will be two panels. First, we'll hear from the 
Service Surgeons General, and then from the Chiefs of the Nurse 
Corps. Although she has appeared before the subcommittee in her 
previous assignment as Chief of the Army Nurse Corps, I'd like 
to welcome back Lieutenant General Patricia Horoho for her 
first testimony before this subcommittee as a Surgeon General 
of the Army, and commend her for becoming the first female as 
well as first Nurse Corps officer to serve in this capacity.
    And I'd like to also welcome Vice Admiral Matthew Nathan 
and Lieutenant General Charles Green. General Green, I 
understand you're retiring later this year, and I thank you for 
your many years of service to the Air Force, and I look forward 
to working with all of you to ensure that the medical programs 
and personnel under your command are in good shape.
    Every year, the subcommittee holds this hearing to discuss 
the critically important issues related to the care and well-
being of our servicemembers and their families, as healthcare 
is one of the most basic benefits we can provide to the men and 
women of our Nation. The advancements military medicine has 
made over the last several decades have not only dramatically 
improved medical care on the battlefield, but it also enhanced 
the healthcare delivery and scientific advancements throughout 
the medical field. The results benefit millions of Americans 
who likely are unaware that these improvements were developed 
by the military.
    There is still much more to be done. Despite the great 
progress the military medical community has achieved, more and 
more of our troops are suffering from medical conditions that 
are much harder to identify and treat, such as traumatic brain 
injury (TBI), post-traumatic stress, and depression. We must 
continue our efforts to heal these unseen wounds of the 
military that have been at war for more than 10 years.
    In addition, DOD has recommended changes to Military Health 
System (MHS) governance and proposed TRICARE fee increases. And 
I hope to address some of these issues today, and I look 
forward to your testimony and note that your full statements 
will be made part of the record.
    And now I'd like to call upon our Vice Chairman, Senator 
Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, I'm pleased to join you in 
welcoming our panel of witnesses today. We appreciate the 
leadership you are providing in the various services--the Air 
Force, Army, and Navy. Our men and women in uniform deserve 
opportunities for high-quality medical care, and I think your 
leadership is proving that we do have the best in the world for 
our military men and women, and we appreciate that service, and 
that leadership, and your success. We want to find out if there 
are things that can be done through the Congress's efforts to 
help shore up weak spots or identify things that need to be 
changed, funding levels that may not be appropriate, because of 
changing circumstances. And that's what this hearing is 
designed to do. Thank you for helping us do our job, and we 
hope we help you do your job better.
    Thank you.
    Chairman Inouye. Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Well, thank you very much, Mr. Chairman. 
We, in Maryland, feel so proud of military medicine, because we 
are the home to the new Naval Bethesda Walter Reed. That's a 
new facility. It's the old-fashioned values of taking care of 
those who fought for us. And we're very proud of that. We're 
very proud of the fact that Uniformed Services University of 
the Health Sciences (USUHS) is in Maryland, and also the 
fantastic TRICARE network, where our men and women on Active 
Duty, Reserves have access to the great academic medical 
institutions of Maryland and Hopkins, particularly if they need 
specialized care.
    So, if you have a little child with pediatric neurological 
problems, you have access to Dr. Ben Carson. If you have a 
neonatal child, you have access to Maryland and to Hopkins. If 
you have, like one of the men I met at Walter Reed, who had 
dystonia, a very rare and unusual disease, again, access to 
Maryland there through this.
    So, we're very proud of you, and we look forward to working 
with you, hearing from you, and how we can not only respond to 
the acute care needs, but really go to the new innovative ways 
of delivery of healthcare that manage chronic illness, prevent 
chronic illness, and deal with the stresses of battle, whether 
you're endured it in the battlefield or at home, supporting the 
warrior at the front. And today's a big day for healthcare, 
Senator Harkins having a hearing on National Institutes of 
Health (NIH), so after I finish my questions, I'm going to be 
dashing over there, your neighbor across the street.
    If I could, Mr. Chairman, one point of personal Maryland 
privilege. One of the worst traffic jams in American history is 
at the convergence of Walter Reed Naval Bethesda. It's across 
the street from NIH. On the corner is the Institute of 
Medicine. It is the largest convergence of intellectual 
brainpower to serve the healthcare needs, and they're all at 
the same traffic light, at the same time. And if you want to 
see geniuses throwing Petri dishes at people, just come to 
that.
    So, we want to thank you for your help in cracking that 
transportation bottleneck. Am I right? Yes.
    Chairman Inouye. That's right.
    Senator Mikulski. That's got the biggest applause going 
yet.

        SUMMARY STATEMENT OF LIEUTENANT GENERAL CHARLES B. GREEN

    Chairman Inouye. General Green, if I may begin with you, 
Sir. Would you care to make a statement before we proceed?
    General Green. Yes, Sir. Thank you. Good morning.
    Chairman Inouye, Vice Chairman Cochran, distinguished 
members of the subcommittee, thank you for inviting me here 
today. The Air Force Medical Service cannot achieve our goals 
of readiness, better health, better care, and best value 
without your support. We thank you for this.
    To meet these goals, the Air Force Medical Service is 
transforming deployable capability, building patient-centered 
care, and investing in education training and research to 
sustain worldwide and world-class healthcare. This year, we 
established 10 new expeditionary medical support health 
response teams. These 10-bed deployable hospitals enable us to 
provide emergency care within 30 minutes of arriving on scene, 
and do surgery within 5 hours. And this will happen in any 
contingency. Light and lean, it's transportable in a single C-
17, with full-base operating support requiring only one 
additional aircraft.
    The health response team was successfully used in Trinidad 
for a humanitarian mission last May, and is our new standard 
package for rapid battlefield care and humanitarian assistance.
    Critical care air transport teams and air evacuation 
continue to be a dominant factor in our unprecedented high-
survival rates. To close the gap in en route critical care 
continuum, we applied the Critical Care Air Transportation Team 
(CCATT) concept to tactical patient movement and delivered the 
same level of care during inter-theater transport on rotary 
platforms this year.
    The tactical critical care evacuation team was fielded in 
2011. We've trained five teams. Two teams are currently 
deployed to Afghanistan. Each team has an emergency physician 
and two nurse anesthetists, and we're now able to move critical 
patients between level two and level three facilities much more 
safely.
    At home, we enrolled 941,705 beneficiaries in the team-
based patient-centered care at all of our Air Force medical 
facilities worldwide. This care model is reducing emergency 
room visits, improving health indicators, and it has achieved 
an unprecedented continuity of care for our military 
beneficiaries. The Air Force remains vigilant in safeguarding 
the well-being and mental health of our people. Postappointment 
health reassessment completion rates are consistently above 80 
percent for our Active Duty, Guard, and Reserve personnel.
    The new deployment transition center at Ramstein Air Base, 
Germany, provides effective reintegration programs for 
deploying troops. More than 3,000 have been through to date, 
and a study of these airmen who attended showed significantly 
fewer symptoms of post-traumatic stress and lower levels of 
both alcohol use and conflict with family or coworkers upon 
return home.
    By this summer, behavioral health providers will be 
embedded in every primary care clinic in the Air Force. We 
reach Guard and Reserve members through tele-mental health and 
embedded psychological health directors, and are furthering 
increasing mental health provider manning over the next 5 
years.
    New training to support air evacuation and expeditionary 
medical capability is now in place. Our training curriculums 
are continuously updated to capture lessons from 10 years of 
war. Our partnerships with civilian trauma institutions prove 
so successful in maintaining wartime skills that we've expanded 
training sites to establish new programs with the University of 
Nevada--Las Vegas, and Tampa General Hospital. We also shifted 
our initial nursing training for new Air Force nurses to three 
civilian medical centers. The nurse transition program is now 
at the University of Cincinnati, Scottsdale, and Tampa Medical 
Centers, has broadened our resuscitative skills, and the 
experience that they receive early in their careers.
    Air Force graduate medical education programs continue to 
be the bedrock for recruiting top physicians. Our graduate 
programs are affiliated with Uniform Services University and 
civilian universities. These partnerships build credibility in 
the United States and in the international medical communities.
    One of our most significant partners is the Department of 
Veterans Affairs (VA), and we are very proud of our 6 joint 
ventures, 59 sharing agreements, and 63 joint incentive fund 
projects, which are improving services to all of our 
beneficiaries. We've also made significant progress to the 
integrated electronic health record to be shared by DOD and the 
VA.
    In the coming year, we will work shoulder-to-shoulder with 
our Army, Navy, and DOD counterparts to be ready to provide 
even better health, better care, and best value to America's 
heroes. Together, we'll implement the right governance of our 
MHS, we'll find efficiencies, and provide even higher quality 
care with the resources we are given.

                           PREPARED STATEMENT

    I thank this subcommittee for your tremendous support to 
military medics. Our success both at home and on the 
battlefield would not be possible without your persistence and 
generous support.
    On a personal note, I thank you for your tolerance and for 
having me here, now the third time, to talk to you about Air 
Force medicine. I look forward to answering your questions.
    [The statement follows:]
    Prepared Statement of Lieutenant General (Dr.) Charles B. Green
                              introduction
    Mr. Chairman, Vice Chairman, and distinguished members of the 
subcommittee: Thank you for inviting me to appear before you today. The 
men and women of the Air Force Medical Service (AFMS) have answered our 
Nation's call and maintained a standard of excellence second to none 
for more than a decade of sustained combat operations. We provide 
servicemembers, retirees, and families the best care America has to 
offer. We take tremendous pride in providing ``Trusted Care Anywhere'' 
for the Nation.
    We support the President's budget request and the proposed changes 
to the military health benefit. I am confident that the recommendations 
included in the budget reflect the proper balance and the right 
priorities necessary to sustain the benefit over the long term. 
National healthcare costs continue to rise at rates above general 
inflation, and the Department of Defense (DOD) is not insulated from 
this growth as we purchase more than 60 percent of our care from 
private sector. DOD beneficiaries' out-of-pocket costs with the 
proposed changes remain far below the cost-sharing percentage they 
experienced in 1995. We understand we cannot ask our beneficiaries to 
share more of the cost for healthcare without seeking significant 
internal efficiencies. We are increasing efficiency by reducing 
administrative costs, improving access, recapturing care, and 
introducing cutting-edge technology to better connect our providers and 
patients.
    Ready, better health, better care, and best value are the 
components of the quadruple aim for the Military Health Services. To 
meet these goals, the AFMS set priorities to transform deployable 
capability, build patient-centered care, and invest in education, 
training, and research to sustain world-class healthcare. We have made 
significant inroads in each of these areas over the past year.
                    transform deployable capability
    In times of war there are always significant advances in the field 
of medicine. Today we are applying these lessons to shape future 
readiness and care. We have found new ways to manage blood loss and 
improve blood replacement. Significant improvements in the blood 
program improved transfusion capability and changed the way we use 
fluids to resuscitate patients. Air Force trauma surgeons in deployed 
hospitals better control hemorrhage and treat vascular injury by 
designing and using new arterial shunts that have been adopted by 
civilian trauma surgeons. These innovations contribute to a very low-
case fatality rate and allow earlier transport of casualties.
    Through innovative training and quick thinking, Air Force, Army, 
and Navy medics continue to perform miracles in field hospitals. Last 
spring in Balad, Iraq, our Critical Care Air Transport Teams (CCATT) 
saved the life of a soldier who had suffered blunt force trauma to his 
chest, causing his heart to stop. After an unknown period without a 
pulse, there was significant risk of brain injury. Using coolers of 
ice, the team undertook a rare therapeutic hypothermia procedure to 
lower body temperature, decreasing tissue swelling, and damage to the 
brain. The soldier was transported to Landstuhl Medical Center in 
Germany where his temperature was slowly raised, bringing him back to 
consciousness. Within 4 days of injury, the soldier arrived at Brooke 
Army Medical Center, San Antonio, Texas, and walked out of the hospital 
with thankful family members. Incredible ingenuity, dedication, and 
teamwork continue to save lives every day.
    We have an impressive legacy of building highly capable deployable 
hospitals over the past decade. This year we have established 10 new 
Expeditionary Medical Support (EMEDS) Health Response Teams (HRT). 
These newly tested and proven 10-bed packages enable us to arrive in a 
chaotic situation, provide emergency care within 30 minutes, and 
perform surgery within 5 hours of arrival. The entire package is 
transportable in a single C-17, and full-base operating support for the 
hospital requires only one additional C-17. The HRT was used 
successfully in a Trinidad humanitarian mission in April and will be 
our standard package to provide rapid battlefield medicine and 
humanitarian assistance. This year we will establish intensive training 
with the HRT and will expand its capability with additional modular 
sets to respond to specialized missions such as obstetrics, pediatrics, 
or geriatrics required for humanitarian response.
    We are also pursuing initiatives to improve air evacuation 
capability. New advances in ventilators allow us to move patients 
sooner and over longer distances with less oxygen. We pursued new 
capabilities for heart-lung bypass support by reducing the size of 
extracorporeal membrane oxygenation (ECMO) equipment. ECMO has been in 
use for many years transporting neonatal patients, and we now have 
critical care teams using this advanced technology for adult patient 
transportation. We moved the first patient on full heart-lung bypass 
out of Afghanistan in 2011. We are working to miniaturize and 
standardize ECMO equipment so it can be operated by less specialized 
teams. David Grant Medical Center at Travis Air Force Base (AFB), 
California, recently became the first DOD recipient of the smallest 
ECMO device. Known as CARDIOHELP, the device is light enough to be 
carried by one person and compact enough for transport in a helicopter 
or ambulance. Researchers will utilize CARDIOHELP to evaluate the 
effects of tactical, high-altitude, and long-haul flights on patients 
who require the most advanced life support. We continue to advance the 
science of patient transport moving the sickest of the sick, as we 
decrease the amount of time from point-of-injury to definitive care in 
the United States.
    The insertion and integration of CCATTs into the air evacuation 
(AE) system continues to be a dominant factor in our unprecedented 
high-survival rates. These teams speed up the patient movement process, 
bring advanced care closer to the point-of-injury, free up hospital 
beds for new causalities, allow us to use smaller hospitals in-theater, 
and move patients to definitive care sooner. We have improved CCATT 
equipment with more wireless capability aboard aircraft to simplify 
connection of medical equipment to critical care patients. We are 
continuously finding better technologies for more accurate patient 
assessment in flight and working to standardize equipment and supplies 
used by coalition teams.
    We developed and fielded the Tactical Critical Care Evacuation Team 
(TCCET) in 2011. This team was built to deliver the same level of care 
during intra-theater transport on non-AE platforms as that provided by 
our CCATT teams. Our first deployed team safely transported 130 
critical patients on rotary aircraft. The team is composed of an 
emergency physician and two nurse anesthetists that separate and fly 
individually with a pararescue airman to move the sickest patients. We 
are now able to move critical patients between Level II and Level III 
facilities in theater even more expeditiously, using either rotary or 
fixed wing aircraft.
    The Theater Medical Information Program Air Force (TMIP-AF) 
continues to make tremendous progress supporting the war-fighting 
community both on the ground and in the air. We leveraged existing 
information management and technology services to integrate with Line 
of the Air Force communication groups at all deployed Air Force ground-
based units. This decreased end user devices, numbers of personnel at 
risk, and contractor-support requirements in theater. This integration 
allowed us to remotely support deployed units from State-side locations 
for the first time and with improved timeliness. Today, AFMS units are 
documenting all theater-based patient care electronically, including 
health records within the AE system, and securely moving information 
throughout the DOD healthcare system.
                      build patient-centered care
    At home, we continue to advance patient-centered medical home 
(PCMH) to improve delivery of peacetime healthcare. The foundation of 
patient-centered care is trust, and we have enrolled 920,000 
beneficiaries into team-based, patient-centered care. Continuity of 
care has more than doubled with patients now seeing their assigned 
physician 80 percent of the time and allowing patients to become more 
active participants in their healthcare. PCMH will be in place at all 
Air Force medical treatment facilities (MTFs) by June of this year. The 
implementation of PCMH is decreasing emergency room visits and 
improving health indicators.
    We have also implemented pediatric PCMH, focused on improving well 
child care, immunizations, reducing childhood obesity, and better 
serving special needs patients. A recent American Academy of Pediatrics 
study analyzed the impact of medical home on children. Their report 
concluded, ``Medical home is associated with improved healthcare 
utilization patterns, better parental assessment of child health, and 
increased adherence with health-promoting behavior.'' We anticipate 
completing Air Force pediatric PCMH implementation this summer through 
simple realignment of existing resources.
    Our PCMH teams are being certified by the National Committee for 
Quality Assurance (NCQA). NCQA recognition of PCMH is considered the 
current gold standard in the medical community, with recognition levels 
ranging from 1-3, 3 being the highest. To date, all MTFs who completed 
evaluation were officially recognized by NCQA as a PCMH, with 10 sites 
recognized as a level 3. This level of excellence far exceeds that seen 
in the Nation overall. An additional 15 Air Force sites will 
participate in the NCQA survey in 2012.
    We are enabling our family healthcare teams to care for more 
complex patients through Project Extension for Community Healthcare 
Outcomes (ECHO). This program started at the University of New Mexico 
to centralize designated specialists for consultation by local primary 
care providers. ECHO allows us to keep patients in the direct care 
system by having primary care providers ``reach back'' to designated 
specialists for consultation. For example, rather than send a diabetic 
patient downtown on a referral to a TRICARE network endocrinologist, 
the primary care team can refer the case to our diabetes expert at the 
59th Medical Wing, Lackland AFB, Texas, without the patient ever 
departing the clinic. ECHO now includes multiple specialties, and has 
been so successful, the concept has been adopted by the Mayo Clinic, 
Johns Hopkins, Harvard, DOD, and the Veterans Administration (VA).
    Our personalized medicine project, patient-centered precision care 
(PC2), which builds on technological and evidence-based genomic 
association, received final Institutional Review Board approval. We 
enrolled the first 80 patients this year with a goal of enrolling 2,000 
patients in this research. PC2 will allow us to deliver state-of-the-
art, evidence-based, personalized healthcare incorporating all 
available patient information. A significant aspect of PC2 is genomic 
medicine research, the advancement of genome-informed personalized 
medicine. With a patient's permission, we analyze DNA to identify 
health risks and then ensure follow up with the healthcare team. De-
identified databases will allow us to advance research efforts. 
Research groups can determine associations or a specific area where 
they think there may be merit in terms of how we can change clinical 
practice. This research will likely change the way we view disease and 
lead to much earlier integration of new treatment options.
    MiCare is currently deployed to our family practice training 
programs and will be available at 26 facilities before the end of 2012. 
This secure messaging technology allows our patients to communicate 
securely with their providers via email. It also allows our patients to 
access their personal health record. Access to a personal health record 
will provide the ability to view lab test results at home, renew 
medications, and seek advice about nonurgent symptoms. Healthcare teams 
will be able to reach patients via MiCare to provide appointment 
reminders, follow up on a condition without requiring the patient to 
come to the MTF, provide medical test and referral results, and forward 
notifications on various issues of interest to the patient. We 
anticipate full implementation by the end of 2013.
    We are also testing incorporation of smart-phones into our clinics 
to link case managers directly to patients. Linking wireless and 
medical devices into smart phones allows the patient to transmit 
weight, blood pressure, or glucometer readings that are in high-risk 
parameters directly to their health team for advice and consultation. 
Patients with diabetes or congestive heart failure can see significant 
reductions in hospitalizations when interventions with the healthcare 
team are easily accessible on a regular basis. This improves quality of 
life for the diabetic or cardiology patient, reduces healthcare costs, 
and increases access for other patients. We have a pilot effort 
underway with George Washington University Hospital to use this tool in 
diabetes management.
    Safeguarding the well-being and mental health of our people while 
improving resilience is a critical Air Force priority. We remain 
vigilant with our mental health assessments and consistently have 
postdeployment health reassessment (PDHRA) completion rates at 80 
percent or higher for Active Duty, Guard, and Reserve personnel. In 
January 2011, we implemented section 708 of the 2010 National Defense 
Authorization Act (NDAA) for Active-Duty airmen, and in April 2011, for 
the Reserve component. The two-phased approach requires members to 
complete an automated questionnaire, followed by a person-to-person 
dialogue with a trained privileged provider. Whenever possible, these 
are combined with other health assessments to maximize access and 
minimize inconvenience for deployers. Each deployer is screened for 
post-traumatic stress disorder (PTSD) four times per deployment 
including a person-to-person meeting with a provider.
    Although Air Force PTSD rates are rising, the current rate remains 
low at 0.8 percent across the Air Force. Our highest risk group is 
explosive ordnance disposal (EOD) at about 7 percent, with medical 
personnel, security forces, and transportation at less risk, but higher 
than the Air Force baseline. Our mental health providers, including 
those in internships and residencies, are trained in evidence-based 
PTSD treatments to include prolonged exposure, cognitive processing 
therapy, and cognitive behavioral couples therapy for PTSD. Virtual 
Iraq/Afghanistan uses computer-based virtual reality to supplement 
prolonged exposure therapy at 10 Air Force sites. Diagnosis is still 
done through an interview, supported by screening tools such as the 
PTSD checklist (PCL) and other psychological testing as clinically 
indicated.
    We are working closely with Air Force leadership to inculcate 
healthy behaviors. Comprehensive airmen fitness focuses on building 
strength across physical, mental, and social domains. Airman resiliency 
training (ART) provides a standardized approach to pre-exposure 
preparation training for redeploying airmen, including tiered training 
that recognizes different risk groups. Traumatic stress response teams 
at each base foster resiliency through preparatory education and 
psychological first-aid for those exposed to potentially traumatic 
events.
    The Deployment Transition Center (DTC) at Ramstein Air Base, 
Germany, soon to be 2 years old, provides an effective reintegration 
program for our redeploying troops. More than 3,000 deployers have now 
processed through the DTC. A study of the first 800 airmen to go 
through the DTC, compared with 13,000 airmen matched to demographics, 
mission set, and level of combat exposure, demonstrated clear benefit 
from the DTC. Analyzing their PDHRA, airmen who attended the DTC showed 
positive results--significantly fewer symptoms of post-traumatic 
stress, lower levels of alcohol use, and lower levels of conflict with 
family/coworkers. This study provided solid evidence that the DTC helps 
airmen with reintegration back to their home environment. We are now 
partnering with the RAND Corporation in two other studies, looking at 
the overall Air Force resilience program and studying the effectiveness 
of the current ART program.
    While we experienced a drop in the Active-Duty suicide rate in 
2011, we remain concerned. Guard and Reserve suicide levels have 
remained steady and low. The major risk factors continue to be 
relationship, financial, and legal problems, and no deployment or 
history of deployment associations have been found. We strive to find 
new and better ways to improve suicide prevention efforts across the 
total force. By summer of this year, we will embed behavioral health 
providers in primary care clinics at every MTF. The Behavioral Health 
Optimization program (BHOP) reduces stigma by providing limited 
behavioral health interventions outside the context of the mental 
health clinic, offering a first stop for those who may need counseling 
or treatment. The Air Reserve Components instituted on-line training 
tools and products that support Ask, Care, Escort (ACE), our peer-to-
peer suicide prevention training. The Air Force Reserve Command also 
added a new requirement for four deployment resilience assessments 
beginning last April.
    We are increasing our mental health provider manning over the next 
5 years with more psychiatrists, psychologists, social workers, 
psychiatric nurse practitioners, and technicians. We increased Health 
Professions Scholarship Program (HPSP) scholarships for psychologists, 
as well as psychiatry residency training billets and the psychology 
Active-Duty Ph.D. program and internship billets. To enhance social 
worker skills, we placed social workers in four internship programs and 
dedicated HPSP scholarships and Health Professions Loan Repayment 
Program slots for fully qualified accessions. Accession bonuses for 
fully qualified social workers were approved for fiscal year 2012 for 
3- and 4-year obligations. These actions will help us to meet mental 
health manning requirements for both joint deployment requirements and 
at home station in compliance with section 714 in the 2010 National 
Defense Authorization Act. Air Force tele-mental health is now in place 
at 40 sites across the Air Force, and is planned for a total of 84 
sites.
    Like our sister Services, the Air Force continues to be concerned 
about, and focused on, the consequences of traumatic brain injury 
(TBI). We fully implemented TBI testing across the Air Force, and 
collected more than 90,000 Automated Neurological Assessment Metric 
(ANAM) assessments in the data repository. The Air Force accounts for 
10-15 percent of total TBI in the military with approximately 4 percent 
of deployment-associated TBI. Most Air Force cases, more than 80 
percent, are mild in severity. Of all our completed postdeployment 
health assessments and reassessments, less than 1 percent screened 
positive for TBI with persistent symptoms.
    Despite our relatively lower incidence, the Air Force continues to 
work with DOD partners to better understand and mitigate the effects of 
TBI. In collaboration with Defense and Veterans Brain Injury Center, 
Air Force, and Army radiologists at the San Antonio Military Medical 
Center are working jointly to study promising neuroimaging techniques 
including volumetric magnetic resonance imaging (MRI) using the Federal 
Drug Administration-approved software NeuroQuant, functional MRI, 
spectroscopy, and diffusion tensor imaging to identify structural 
changes that may result from TBI. Ongoing studies will find more 
definitive answers to this complex diagnostic and treatment problem.
    As co-chairman of the Recovering Warrior Task Force, I have come to 
understand all Services Wounded Warrior Programs. I have been on site 
visits with our committee as we seek to discern best practices to help 
our wounded, ill, and injured members recover. The joint efforts of DOD 
and the Department of Veterans Affairs to streamline the integrated 
delivery evaluation system (IDES) are paying dividends. In the Air 
Force, we are augmenting pre-Medical Evaluation Board (MEB) screening 
personnel to streamline IDES processing. Our electronic profile system 
gives us full visibility of those in the process and close coordination 
with the VA is reducing the time to complete the IDES processing.
              invest in education, training, and research
    Providing ``Trusted Care Anywhere'' requires our people to have the 
best education and training available to succeed in our mission. We 
strive to find new and better ways to ensure our Airmen not only 
survive but thrive.
    This is the goal of the Medical Education and Training Campus 
(METC), and it truly is a joint success story. METC has already 
matriculated 10,000 graduates from the Army, Navy, and Air Force, and 
now has numerous international students enrolled. The majority of the 
services' education and training programs have transferred to METC, and 
the remainder will transfer during the course of this year. The 
Institute for Credentialing Excellence (ICE) awarded METC the ICE 
Presidential Commendation for the pharmacy technician program and 
praised it as being the best program in the United States.
    Air Force graduate medical education (GME) programs continue to be 
the bedrock for recruiting top-notch medics. Since the 1970s, many of 
our GME programs have been affiliated with renowned civilian 
universities. These partnerships are critical to broad-based training 
and build credibility in the U.S. and international medical 
communities. GME residencies in Air Force medical centers develop 
graduates who are trained in humanitarian assistance, disaster 
management, and deployment medicine. National recognition for top 
quality Air Force GME programs improves our ability to recruit and 
retain the best. First-time pass rates on specialty board exams 
exceeded national rates in 26 of 31 specialty areas, and stand at 92 
percent overall for the past 4 years.
    Over the next few years, we will transform training to support new 
assets in air evacuation and expeditionary medical support. Flight 
nurse and technician training and AE contingency operations training 
curriculums have been entirely rewritten to capture lessons from 10 
years of war. The Centers for Sustainment of Trauma and Readiness 
Skills (C-STARS) in Baltimore, St. Louis, and Cincinnati, have been 
extraordinarily successful in maintaining wartime skills. We have 
expanded training sites to establish sustainment of traumas skills--
Sustainment of Trauma and Resuscitation Skills Programs (STARS-P)--to 
University of California Davis, Scottsdale, University of Nevada-Las 
Vegas, and Tampa General Hospitals. This will include greater use of 
simulation at C-STARS, STARS-P, and other Air Force medical sites. We 
have many testimonials from deployed graduates who credit their 
competence and confidence in theater to C-STARS and STARS-P training. 
We will continue efforts to expand this training so we will have full-
up trauma teams and CCATT that are always ready to go to war.
    One of our most significant partners in GME and resource-sharing is 
the Department of Veterans Affairs. We are proud of our 6 joint 
ventures, 59 sharing agreements, and 63 Joint Incentive Fund (JIF) 
projects, all win-wins for the military member, veteran, and American 
taxpayer. All four Air Force JIF proposals submitted for fiscal year 
2012 were selected. These include a new CT Scan at Tyndall AFB, 
Florida, that will also benefit the Gulf Coast VA Health Care System 
(HCS); establishment of an orthopedic surgery service for Mountain Home 
AFB, Idaho, and the Boise VAMC; funding for an additional cardiologist 
at Joint Base Elmendorf-Richardson and the Alaska VA HCS--critical to 
reducing the number of patients leaving our system of care; and an 
ophthalmology clinic at Charleston with the Naval Health Clinic 
Charleston and the Charleston VA Medical Center. The JIF program is 
extremely helpful in supporting efficiencies that make sense in the 
Federal Government, while improving access to care for our 
beneficiaries.
    Collaboration with the VA in the Hearing Center of Excellence (HCE) 
continues as we pursue our goals of outreach, prevention, enhanced 
care, information management, and research to preserve and restore 
hearing. Compounding hearing loss related to noise, the effect of 
improvised explosive devices (IEDs) that military personnel experience 
in Iraq and Afghanistan expands the threat and damage to the 
audiovestibular system. Traumatic brain injury may damage the hearing 
senses and the ability to process sound efficiently and effectively. 
Dizziness is common, and almost one-half of servicemembers with TBI 
complain of vertigo following blast exposure.
    We are coordinating and integrating efforts with the other 
congressionally mandated centers of excellence to ensure the clinical 
care and rehabilitation of the Nation's wounded, ill, and injured have 
the highest priority. Partnering with the Defense and Veterans Eye 
Injury Registry has resulted in the Joint Theater Trauma Registry 
adding ocular and auditory injury modules to look at the effect and 
relation eye and ear injury has on TBI and psychological health 
rehabilitation. And the Vision Center of Excellence under Navy lead and 
HCE have contributed to the planning, patient management, and clinical 
guidelines with the National Intrepid Center of Excellence, the Center 
for the Intrepid, and within the Institute of Surgical Research.
    We have expanded our research with the opening of the new School of 
Aerospace Medicine at Wright Patterson and our collaborative efforts 
with the Army in the San Antonio Military Medical Center. The 59th 
Medical Wing at Lackland AFB, Texas, is using laser treatment to 
improve range of motion and aesthetics in patients with burn scars. In 
the 10 subjects enrolled to date in the research, the laser treatments 
have resulted in an immediate reduction in scar bulk, smoothing of 
irregularities, and the production of scar collagen. The scars have 
also shown improved pliability, softness, and pigmentation. This is 
encouraging for our wounded warriors and servicemembers who have 
received thermal or chemical burns.
    Another promising laser initiative is the Tricorder Program, a 
collaboration effort with the University of Illinois, Chicago, designed 
to detect/characterize laser exposure in ``real time,'' assisting in 
the development of force health protection measures, such as laser eye 
protection. Air Force and Navy testers evaluated the prototype laser 
sensors in simulated air and ground field environments. An upcoming 
exercise with the FBI Operational Technology Division will assess the 
laser sensor for forensic capability in a domestic aircraft 
illumination scenario.
    Another collaborative effort, with the Department of Homeland 
Security, is the development of an environmental/medical sensor 
integration platform that provides real-time data collection and 
decision support capability for medical operators and commanders, 
integrating environmental and medical sensor data from the field into a 
hand-held platform. The sensor integration platform was demonstrated 
successfully several times, including its deployment for environmental 
monitoring capability with the Hawaii National Guard, where the 
platform quadrupled Hawaii's radiation monitoring capability after the 
tsunami in Japan. It is now the backbone of Hawaii's State civil 
defense system real-time environmental monitoring capability.
    The U.S. Air Force School of Aerospace Medicine (USAFSAM), Wright-
Patterson AFB, Ohio, developed the cone contrast test (CCT) for 
detection of color vision deficiency. The CCT was selected as a winner 
of the 2012 Award for Excellence in Technology Transfer, presented 
annually by the Federal Laboratory Consortium to recognize laboratory 
employees who accomplished outstanding work in the process of 
transferring a technology developed by a Federal laboratory to the 
commercial marketplace. The technology was developed by vision 
scientists in USAFSAM's Aerospace Medicine Department and uses computer 
technology to replace the colored dot Ishihara Plates developed in the 
early 1900s. The CCT indicates vision deficiency type and severity, and 
can distinguish hereditary color vision loss from that caused by 
disease, trauma, medications, and environmental conditions--ensuring 
pilot safety while facilitating the detection and monitoring of 
disease.
                             the way ahead
    I look back 10 years to 9/11 and marvel at how far we have come in 
a decade. While sustaining the best battlefield survival rate in the 
history of war, we have simultaneously completed complex base 
realignment and closure projects, and enhanced our peacetime care 
worldwide. We changed wartime medicine by moving the sickest of the 
sick home to the United States within 3 days, while shifting 1 million 
enrolled patients into team based, patient-centered care that improved 
continuity of care 100 percent. One thing has not changed . . . the 
talent, courage, and dedication of Air Force medics still inspires me 
every day. As I retire later this year, I know that I leave our Air 
Force family in exceptional hands. Air Force medics will always deliver 
``Trusted Care, Anywhere'' for this great Nation.
    The AFMS will work shoulder-to-shoulder with our Army, Navy, and 
DOD counterparts to be ready, and provide better health, better care, 
and best value to America's heroes. Together we will implement the 
right governance of our Military Health System. We will find 
efficiencies and provide even higher quality care with the resources we 
are given. I thank this subcommittee for your tremendous support to 
military medics. Our success, both at home and on the battlefield, 
would not be possible without your persistent and generous support. 
Thank you.

    Chairman Inouye. Thank you, Sir.
    Admiral Nathan.
STATEMENT OF VICE ADMIRAL MATTHEW L. NATHAN, SURGEON 
            GENERAL, DEPARTMENT OF THE NAVY
    Admiral Nathan. Good morning, Chairman Inouye, Vice 
Chairman Cochran, and Senator Mikulski, distinguished members 
of the subcommittee. Thank you for the opportunity to provide 
this update on Navy Medicine, including some of our strategic 
priorities, accomplishments, and opportunities.
    I report to you that Navy Medicine remains strong, capable, 
and mission-ready to deliver world-class care anywhere, 
anytime, as is our motto. We're meeting our operational wartime 
commitments, including humanitarian assistance and disaster 
response, and concurrently delivering outstanding patient- and 
family-centered care to our beneficiaries.
    Force health protection is what we do, and is at the very 
foundation of our continuum of care in support of the 
warfighter, and optimizes our ability to promote, protect, and 
restore their health. One of my top priorities since becoming 
the Navy Surgeon General in November has been to ensure that 
Navy Medicine is strategically aligned with the imperatives and 
priorities of the Secretary of the Navy, the Chief of Naval 
Operations, and the Commandant of the Marine Corps--all of my 
bosses.
    Each day, we are fully focused on executing the operational 
missions and core capabilities of the Navy and Marine Corps, 
and we do this by maintaining warfighter health readiness, 
delivering the continuum of care from the battlefield, to the 
bedside, from the bedside, to the unit, to the family, or to 
transition.
    Earlier this month, Secretary Mabus launched the 21st 
Century Sailor and Marine program, a new initiative focused on 
maximizing each sailor's and marine's personal readiness. This 
program includes comprehensive efforts in areas that are key, 
such as reducing suicides, and suicide attempts, curbing 
alcohol abuse, and reinforcing zero tolerance on the use of 
designer drugs or the newly arising synthetic chemical 
compounds. It also recognizes the vital role of safety and 
physical fitness in sustaining force readiness. Navy Medicine 
is synchronized with these priorities and stands ready to move 
forward at this pivotal time in our service's history. We 
appreciate the subcommittee's strong support of our resource 
requirements.
    The President's budget for fiscal year 2013 adequately 
funds Navy Medicine to meet its medical mission for the Navy 
and the Marine Corps. We recognize the significant investments 
made in supporting military medicine, and providing a strong, 
equitable, and affordable healthcare benefit for our 
beneficiaries. Moving forward, we must operate more jointly, we 
must position our direct care system to recapture private 
sector care, and deliver best value to our patients.
    A few specific areas of our attention. Combat casualty 
care, Navy Medicine, along with our Army and Air Force 
colleagues, are delivering outstanding combat casualty care. 
There is occasionally discussion about what constitutes world-
class care, and I can assure you that the remarkable skills and 
capabilities in a place like the Role 3 facility, at the 
multinational medical unit in Kandahar, Afghanistan, is 
delivering truly world-class trauma care.
    Traumatic brain injury (TBI), post-traumatic stress, and 
post-traumatic stress disorder (PTSD): Caring for our sailors 
and marines suffering with TBI and PTSD remains a top priority. 
We must continue active and expansive partnerships with other 
services, our Centers of Excellence, the VA, and leading 
academic medical and research centers to make the best care 
available to our warriors afflicted with TBI. I have been 
encouraged by our progress, but I'm not yet satisfied.
    Warrior recovery: Our wounded, ill, and injured 
servicemembers need to heal in mind, body, as well as spirit, 
and they deserve a seamless and comprehensive approach to their 
recovery. We must continue to connect our heroes to a proved 
emerging and advanced diagnostic and therapeutic options, but 
within our medical treatment facilities and outside of military 
medicine, through the collaborations with major medical centers 
of reconstructive and regenerative medicine. This commitment 
can never waiver.
    And finally, Medical Home Port: We've completed our initial 
deployment of Medical Home Port, which is basically patient-
centered medical homes, as utilized in some of the larger 
organizations in the civilian sector, and the preliminary 
reports from the first sites of Navy Medicine show better 
health, better value, and less cost utilization of those 
enrolled.
    Our innovative research and outstanding medical education 
are truly force multipliers. Our critical overseas laboratories 
provide not only world-class research but invaluable engagement 
with host and surrounding nations to strengthen the theater 
security cooperation in longstanding research facilities that 
reside in places like Egypt, South America, Southeast Asia.
    We continue to welcome and leverage our joint relationships 
with the Army, the Air Force, the VA, as well as other Federal 
and civilian partners in these important areas. I believe this 
interoperability helps us create system-wide synergies and 
allows us to invest wisely in education and training, research, 
and information technology.
    None of these things would be possible without our 
professional and dedicated workforce. More than 60,000 men and 
women, Active Duty, Reserve personnel, civilians and 
contractors, all working the world to provide outstanding 
healthcare and support services to our beneficiaries.

                           PREPARED STATEMENT

    In closing, let me briefly address the MHS governance. The 
Deputy Secretary of Defense has submitted his report to the 
Congress, required by section 716 of fiscal year 2012 National 
Defense Authorization Act (NDAA). It addresses the Department's 
plans, subject to review, and concurrence by the Government 
Accountability Office (GAO), to move forward with governance 
changes. Throughout my remarks this morning, and in my 
statement for the record, I have referred to our commitment to 
jointness in theater, in our classrooms, in our training, in 
our laboratories, and in our common pursuit of solutions like 
challenges like TBI. We all recognize the need for 
interoperability and cost-effective joint solutions, in terms 
of overall governance. We must, however, proceed in a 
deliberate and measured manner to ensure that our readiness to 
support our services missions and core war fighting 
capabilities will be maintained, and our excellence in 
healthcare delivery will be sustained.
    On behalf of the men and women in Navy Medicine, I want to 
thank this subcommittee for your tremendous support, your 
confidence, and your leadership, and I look forward to your 
questions.
    Thank you.
    [The statement follows:]
          Prepared Statement of Vice Admiral Matthew L. Nathan
                              introduction
    Chairman Inouye, Vice Chairman Cochran, and distinguished members 
of the subcommittee: I am pleased to be with you today to provide an 
update on Navy Medicine, including some of our collective strategic 
priorities, accomplishments, and opportunities. I want to thank the 
subcommittee members for the tremendous confidence and support of Navy 
Medicine.
    I can report to you that Navy Medicine remains strong, capable, and 
mission-ready to deliver world-class care, anytime, anywhere. We are 
operating forward and globally engaged, no matter what the environment 
and regardless of the challenge. The men and women of Navy Medicine 
remain flexible, agile, and resilient in order to effectively meet 
their operational and wartime commitments, including humanitarian 
assistance; and concurrently, delivering outstanding patient and 
family-centered care to our beneficiaries. It is a challenge, but one 
that we are privileged to undertake.
    One of my top priorities since becoming the Navy Surgeon General in 
November 2011 is to ensure that Navy Medicine is strategically aligned 
with the imperatives and priorities of the Secretary of the Navy, Chief 
of Naval Operations, and Commandant of the Marine Corps. We are fully 
engaged in executing the operational missions and core capabilities of 
the Navy and Marine Corps--and we do this by maintaining warfighter 
health readiness, delivering the continuum of care from the battlefield 
to the bedside and protecting the health of all those entrusted to our 
care. Our focus remains in alignment with our Navy and Marine Corps 
leadership as we support the defense strategic guidance, ``Sustaining 
U.S. Global Leadership: Priorities for the 21st Century'' issued by the 
President and Secretary of Defense earlier this year. The Chief of 
Naval Operations in his ``Sailing Directions'' has articulated the 
Navy's core responsibilities and Navy Medicine stands ready as we move 
forward at this pivotal time in our history.
    Navy Medicine appreciates the subcommittee's strong support of our 
resource requirements. The President's budget for fiscal year 2013 
adequately funds Navy Medicine to meet its medical mission for the Navy 
and Marine Corps. We recognize the significant investments made in 
supporting military medicine and remain committed to providing 
outstanding care to all our beneficiaries. Moving forward, we must 
innovate, position our direct care system to recapture private sector 
care, and deliver best value to our patients. Driving these changes is 
critical and necessary but not sufficient. The Secretary of Defense has 
articulated that the current upward trajectory of healthcare spending 
within the Department is not sustainable. Accordingly, the President's 
budget includes important healthcare proposals designed to address this 
situation, including adjustments in TRICARE fees. The Department of 
Navy supports these proposals and believes they are important for 
ensuring a sustainable and equitable benefit for all our beneficiaries. 
We deliver one of the most comprehensive health benefits available and 
these changes will help us better manage costs, provide quality, 
accessible care, and keep faith with our beneficiaries. As the Navy 
Surgeon General, I appreciate the tremendous commitment of our senior 
leaders in this critical area and share the imperative of controlling 
costs and maintaining an affordable and sustainable benefit.
    Value--a key analytic in our decisionmaking--must inherently 
address cost and quality as we implement efficiencies and streamline 
operations. All of us in the Military Health System (MHS) recognize the 
challenges ahead are significant, including rising healthcare costs, 
increased number of beneficiaries, and maintaining long-term care 
responsibilities for our medically retired warriors.
    Additionally, we are very focused on improving internal controls 
and financial procedures in response to congressional priorities to 
obtain a clean financial audit. We have mandated the use of standard 
operating procedures at all our activities for those business processes 
which impact financial transactions. I have also emphasized the 
responsibility of every commanding officer in setting and maintaining 
appropriate internal controls. We are regularly evaluating our progress 
through financial transactions and process reviews which help us 
identify if any changes need to be made. We are making progress and our 
leadership is fully engaged and leaning forward to ensure the best 
possible stewardship of our resources.
    Alignment is also critical as we focus on more joint solutions 
within the MHS and in conjunction with the Army and Air Force. We see 
tremendous progress in joint medical operations, from battlefield 
medicine to education and training to research and development. As we 
continue to synchronize our collective efforts through deliberative 
planning and rigorous analyses, I believe we will have more 
opportunities to create synergies, reduce redundancies, and enhance 
value across the MHS.
    Our continuing joint efforts in the integration of the Quadruple 
Aim initiative is helping to develop better outcomes and implement 
balanced incentives across the MHS. The Quadruple Aim applies the 
framework from the Institute for Healthcare Improvement (IHI) and 
customizes it for the unique demands of military medicine. It targets 
the MHS and services' efforts on integral outcomes in the areas of 
readiness, population health and quality, patient experience, and cost. 
Our planning process within Navy Medicine is complementary to these 
efforts and targets goals that measure our progress and drive change 
through constructive self-assessment. I have challenged Navy Medicine 
leaders at headquarters, operational and regional commands, and 
treatment facilities to maintain strategic focus on these key metrics.
                 our mission is force health protection
    Force Health Protection is at the epicenter of everything we do. It 
is an expression of our Core Values of Honor, Courage, and Commitment 
and the imperative for our worldwide engagement in support of 
expeditionary medical operations and combat casualty care. It is at the 
very foundation of our continuum of care in support of the warfighter 
and optimizes our ability to promote, protect, and restore their 
health. It is both an honor and obligation.
    Our Force Health Protection mission is clearly evident in our 
continued combat casualty care mission in Operation Enduring Freedom 
(OEF). Navy Medicine personnel are providing direct medical support to 
the operating forces throughout the area of responsibility (AOR). We 
continue to see remarkable advances in all aspects of life-saving 
trauma care. These changes have been dramatic over the last decade and 
enabled us to save lives at an unprecedented rate. We are continuously 
implementing lessons learned and best clinical practices, ensuring our 
providers have the most effective equipment available, and focusing on 
providing realistic and meaningful training. Mission readiness means 
providing better, faster combat casualty care to our warfighters.
    The North Atlantic Treaty Organization (NATO) Role 3 Multinational 
Medical Unit (MMU), operating at Kandahar Airfield, Afghanistan is a 
world-class combat trauma hospital that serves a unique population of 
United States and coalition forces, as well as Afghan National Army, 
National Police, and civilians wounded in Afghanistan. Led by Navy 
Medicine, the Role 3 MMU is an impressive 70,000 square foot state-of-
the-art facility that is the primary trauma receiving and referral 
center for all combat casualties in Southern Afghanistan. It has 12 
trauma bays, 4 operating rooms, 12 intensive care beds, and 35 
intermediate care beds. The approximately 250 staff of Active component 
(AC) and Reserve component (RC) personnel includes 30 physicians with 
multiple surgical specialties as well as anesthesia, emergency 
medicine, and internal medicine. RC personnel currently make up 27 
percent of overall manning and provide us unique and invaluable skill 
sets. With trauma admissions averaging 175 patients per month, the unit 
achieved unprecedented survival rates in 2011. In addition, MMU has two 
forward surgical teams deployed in the region to provide frontline 
surgical trauma care demonstrating agility to meet changing operational 
requirements.
    Training is critical for our personnel deploying to the MMU Role 3. 
This year, we established a targeted training program at the Naval 
Expeditionary Medical Training Institute (NEMTI) onboard Marine Corps 
Base Camp Pendleton for our personnel deploying to the MMU. The 
training is part of an effort designed to foster teamwork, and build 
medical skills specific to what personnel require while on a 6-month 
deployment. Navy Medicine and U.S. Fleet Forces Command (FFC) 
recognized the need to integrate medical training scenarios to expand 
upon the knowledge and skills required to fill positions at the 
Kandahar Role 3 facility. In January, I had the opportunity to see this 
impressive training in action during the course's final exercise and 
saw our personnel implement the clinical skills they honed during the 
2-week course. They participated in a scenario-driven series of 
exercises, including staffing a fully equipped hospital receiving 
patients with traumatic injuries, simulated air strike, and a mass 
casualty drill. This training, as well as the program at the Navy 
Trauma Training Center (NTTC) at Los Angeles County/University of 
Southern California Medical Center where our personnel train as teams 
in a busy civilian trauma center, help ensure our deployers have the 
skills and confidence to succeed in their combat casualty care mission.
    Recognizing the importance of ensuring our deployed clinicians have 
access to state-of-the-art capabilities, Navy Medicine, in conjunction 
with the Army, Air Force, and our contracted partners worked 
successfully to deliver the first ever magnetic resonance imaging (MRI) 
technology in a combat theatre to aid the comprehensive diagnosis and 
treatment of concussive injuries. Efforts included the planning, 
design, and execution of this new capability as well as ensuring that 
clinical, logistical, transportation, environmental, and sustainment 
considerations for the MRIs were fully addressed prior to the 
deployment of the units to the battlefield. The fact that we were able 
to design, acquire, and deliver this new capability to the battlefield 
in approximately 6 months from contract award is a testament to the 
commitment of the joint medical and logistics teams. MRIs are now in 
place Role 3 MMU in Kandahar, Role 3 Trauma Hospital in Camp Bastion 
and the Joint Theatre Hospital located on Bagram Airfield.
    Navy Medicine also supports stability operations through multiple 
types of engagements including enduring, ship-centric humanitarian 
assistance (HA) missions such as Pacific Partnership and Continuing 
Promise, which foster relationships with partner countries. During 2011 
Pacific Partnership 2011, 86 Navy Medicine personnel augmented with 
nongovernmental organization, interagency, and other Service personnel 
conducted activities in Tonga, Vanuatu, Papua New Guinea, Timor Leste, 
and the Federated States of Micronesia. Engagements included 
engineering projects, veterinary services, preventive medicine/public 
health, and biomedical equipment repair. Continuing Promise 2011 
involved 480 Navy Medicine personnel conducting activities in Jamaica, 
Peru, Ecuador, Colombia, Nicaragua, Guatemala, El Salvador, Costa Rica, 
and Haiti. More than 67,000 patients were treated and 1,130 surgeries 
were performed during this important mission. In addition to our 
efforts at sea, Navy Medicine also supports land-based HA engagements 
including Marine Corps exercises such as Africa Partnership Station and 
Southern Partnership Station as well as multiple Joint exercises such 
as Balikatan in the Philippines.
          medical home port: patient- and family-centered care
    We completed our initial deployment of Medical Home Port (MHP) 
throughout the Navy Medicine enterprise. MHP is Navy Medicine's 
adaptation of the successful civilian patient-centered medical home 
(PCMH) concept of care which transforms the delivery of primary care to 
an integrated and comprehensive suite of services. MHP is founded in 
ensuring that patients see their assigned provider as often as 
possible, and that they can access primary care easily rather than 
seeking primary care in the emergency room. Strategically, MHP is a 
commitment to total health and, operationally, it is foundational to 
revitalizing our primary care system and achieving high-quality, 
accessible, cost-efficient healthcare for our beneficiaries.
    We are also working with the Marine Corps to implement the Marine-
centered medical home (MCMH) as a complementary analogue to the MHP. 
Likewise, we are working with U.S. Fleet Forces Command to establish a 
fleet-based model of the PCMH using the same principles. The first 
prototype carrier-based PCMH concept will be developed for USS Abraham 
Lincoln (CVN-72).
    Initial results are encouraging. MHP performance pilots at the 
Walter Reed National Military Medical Center (WRNMMC) and Naval 
Hospital Pensacola have shown improvement in key healthcare outcomes 
such as:
  --increased patient satisfaction;
  --improved access to care; and
  --improved quality of care associated with decreased use of the 
        emergency room (an important cost driver).
    Data show similar results enterprise-wide through October 2011, and 
also indicate improved continuity with assigned provider, decreased 
emergency room utilization, and better cost containment when compared 
with fiscal year 2010.
                   healing in body, mind, and spirit
    Health is not simply the absence of infirmity or disease--it is the 
complete state of physical, mental, spiritual, and social well-being. 
As our wounded warriors return from combat and begin the healing 
process, they deserve a seamless and comprehensive approach to their 
recovery. Our focus is integrative, complementary, and 
multidisciplinary-based care, bringing together clinical specialists, 
behavioral health providers, case managers, and chaplains. There are 
approximately 170 medical case managers who work closely with their 
line counterparts in the Marine Corps' Wounded Warrior Regiment and the 
Navy's Safe Harbor program to support the full-spectrum recovery 
process for sailors, marines, and their families.
    We have made remarkable progress in ensuring our wounded 
servicemembers get the care they need--from medical evacuation through 
inpatient care, outpatient rehabilitation to eventual return to duty or 
transition from the military. With our historically unprecedented 
battlefield survival rate, we witness our heroes returning with the 
life-altering wounds of war which require recovery and long-term care. 
We must continue to adapt our capabilities to best treat these 
conditions and leverage our systems to best support recovery.
    To that end, we are committed to connecting our wounded warriors to 
approved emerging and advanced diagnostic and therapeutic options 
within our military treatment facilities (MTFs) and outside of military 
medicine. We do this through collaborations with major centers of 
reconstructive and regenerative medicine while ensuring full compliance 
with applicable patient safety policies and practices. The Naval 
Medical Research and Development Center in Frederick, Maryland, is 
aggressively engaged in furthering support for cooperative medical 
research between multiple centers of regenerative and reconstructive 
medicine. Their collaborative efforts, in conjunction with the Armed 
Forces Institute of Regenerative Medicine (AFIRM), are essential in 
developing new regenerative and transplant capabilities, both at the 
civilian and the military institutions with ultimate sharing of 
knowledge, expertise, and technical skills in support of restoration of 
our wounded warriors.
    Navy Medicine continues a robust translation research program in 
wound healing and wound care, moving technologies developed at the 
bench to deployment in the clinic to enhance the care of the wounded 
warfighter. Concurrently, we are focused on improving the capability 
and capacity to provide comprehensive and interdisciplinary pain 
management from the operational setting to the MTF to home. This 
priority includes pain management education and training to providers, 
patients, and families to prevent over-prescribing, misuse of 
medications, and promoting alternative therapies.
    Preserving the psychological health of servicemembers and their 
families is one of the greatest challenges we face today. The Navy 
continues to foster a culture of support for psychological health as an 
essential component to total force fitness and readiness. Navy and 
Marine Corps combat operational stress control (COSC) programs provide 
sailors, marines, leaders, and families the skills and resources to 
build resiliency. We also continue to address stigma by encouraging 
prevention, early intervention, and help-seeking behaviors. Training is 
designed to build teams of leaders, marines, sailors, medical, and 
religious ministry personnel to act as sensors for leadership by 
noticing small changes in behavior and taking action early. These 
efforts support in fostering unit strength, resilience, and readiness.
    Navy Medicine has continued to adapt psychological health support 
across traditional and nontraditional healthcare systems. Access to 
psychological health services have increased in venues designed to 
reduce the effects associated with mental health stigma. These efforts 
are also focused on suicide prevention and are designed to improve 
education, outreach, and intervention. In 2011, more than 1,000 health 
providers received targeted training in assessing and managing suicide 
risk. We are also integrating behavioral health providers in our MHP 
program to help address the needs of our patients in the primary care 
setting.
    Post-traumatic stress disorder (PTSD) is one of many psychological 
health conditions that adversely impacts operational readiness and 
quality of life. Navy Medicine has an umbrella of psychological health 
programs that target multiple, often co-occurring, mental health 
conditions including PTSD. These programs support prevention, 
diagnosis, mitigation, treatment, and rehabilitation of PTSD. Our 
efforts are also focused on appropriate staffing, meeting access 
standards, implementing recommended and standardized evidence-based 
practices, as well as reducing stigma and barriers to care.
    We recently deployed our fifth Navy Mobile Mental Health Care Team 
(MCT) in Afghanistan. Consisting of two mental health clinicians, a 
research psychologist and an enlisted behavioral health technician, 
their primary mission is to administer the Behavioral Health Needs 
Assessment Survey (BHNAS). The results give an overall assessment and 
actionable intelligence of real-time mental health and well-being data 
for our deployed forces. It can also identify potential areas or 
subgroups of concern for leaders on the ground and those back in 
garrison. The survey assesses mental health outcomes, as well as the 
risk and protective factors for those outcomes such as combat 
exposures, deployment-related stressors, positive effects of 
deployment, leadership perceptions, and morale and unit cohesion. The 
MCT also has a preventive mental health and psycho-education role and 
provides training in COSC and combat and operational stress first aid 
(COSFA) to sailors in groups and individually to give them a framework 
to mitigate acute stressors and promote resilience in one another.
    Data from previous MCT deployments and BHNAS analyses indicate 
continued need for implementation of COSC doctrine and command support 
in OEF. In addition, the Joint Mental Health Assessment Team (J-MHAT 7) 
surveillance efforts conducted in Afghanistan during 2010 indicate an 
increase in the rate of marines screening at-risk for PTSD relative to 
similar surveys conducted in marine samples serving in Iraq during 2006 
and 2007. This assessment also shows increases in training 
effectiveness regarding managing combat deployment stress, as well as a 
significant reduction in stigma associated with seeking behavioral 
health treatment.
    In collaboration with the Marine Corps, the operational stress 
control and readiness (OSCAR) program represents an approach to mental 
healthcare in the operational setting by taking mental health providers 
out of the clinic and embedding them with operational forces to 
emphasize prevention, early detection, and brief intervention. OSCAR-
trained primary care providers recognize and treat psychological health 
issues at points where interventions are often most effective. In 
addition, OSCAR includes chaplains and religious personnel (OSCAR 
Extenders) who are trained to recognize stress illness and injuries and 
make appropriate referral. More than 3,000 marine leaders and 
individual marines have been trained in prevention, early detection, 
and intervention in combat stress through OSCAR Team Training and will 
operate in OSCAR teams within individual units.
    Through the caregiver occupational stress control (CgOSC) program, 
Navy Medicine is also working to enhance the resilience of caregivers 
to the psychological demands of exposure to trauma, wear and tear, 
loss, and inner conflict associated with providing clinical care and 
counseling. The core objectives include:
  --early recognition of distress;
  --breaking the code of silence related to stress reactions and 
        injuries; and
  --engaging caregivers in early help as needed to maintain both 
        mission and personal readiness.
    Our emphasis remains ensuring that we have the proper size and mix 
of mental health providers to care for the growing need of 
servicemembers and their families who need care. Within Navy Medicine, 
mental health professional recruiting and retention remains a top 
priority. Although shortfalls remain, we have made progress recruiting 
military, civilian, and contractor providers, including psychiatrists, 
clinical psychologists, social workers, and mental health nurse 
practitioners. We have increased the size of the mental health 
workforce in these specialties from 505 in fiscal year 2006 to 829 in 
fiscal year 2012. Notwithstanding the military is not immune to the 
nationwide shortage of qualified mental health professionals. 
Throughout the country, the demand for behavioral health services 
remains significant and continues to grow.
    Caring for our sailors and marines suffering with traumatic brain 
injury (TBI) remains a top priority. While we are making progress, we 
have much work ahead of us as we determine both the acute and long-term 
impact of TBI on our servicemembers. Our strategy must be both 
collaborative and inclusive by actively partnering with the other 
Services, our Centers of Excellence, the Department of Veterans Affairs 
(VA), and leading academic medical and research centers to make the 
best care available to our warriors afflicted with TBI.
    Navy Medicine is committed to ensuring thorough screening for all 
sailors and marines prior to deployment, while in theatre, and upon 
return from deployment. Pre-deployment neurocognitive testing is 
mandated using the Automated Neuropsychological Assessment Metrics 
(ANAM). The ANAM provides a measure of cognitive performance, that when 
used with a patient with confirmed concussion, can help a provider 
determine functional level as compared to the servicemember's baseline. 
In-theatre screening, using clinical algorithms and the Military Acute 
Concussion Evaluation (MACE), occurs for those who have been exposed to 
a potentially concussive event, as specified by the event driven 
protocols of the TBI Directive-type Memorandum (DTM) 09-033 released in 
June 2010.
    DTM-09-033 has changed the way we treat TBI in theatre. It requires 
pre-deployment on point-of-injury care, improved documentation, and 
tracking of concussion by line and medical leaders, as well as a move 
toward standardization of system-wide care.
    In-theatre, the Concussion Restoration Care Center (CRCC) at Camp 
Leatherneck Afghanistan, became operational in August 2010. CRCC 
represents a ground-breaking, interdisciplinary approach to 
comprehensive musculoskeletal and concussion care in the deployed 
setting. As of December 1, 2011, the CRCC has seen more than 2,500 
patients (more than 750 with concussion) with a greater than 95 percent 
return to duty rate. I am encouraged by the impact the CRCC is having 
in theatre by providing treatment to our servicemembers close to the 
point-of-injury and returning them to duty upon recovery. We will 
continue to focus our attention on positioning our personnel and 
resources where they are most needed.
    Postdeployment surveillance is accomplished through the 
postdeployment health assessment (PDHA) and postdeployment health 
reassessment (PDHRA), required for returning deployers. Navy Medicine 
has conducted additional postdeployment TBI surveillance on high-risk 
units and those marines with confirmed concussions in theatre, with a 
goal of improving patient outcomes and better informing leaders.
    Access and quality of care for treating TBIs are being addressed 
through standardization of Navy Medicine's current six clinical TBI 
specialty programs at Naval Medical Center Portsmouth, Naval Medical 
Center San Diego, Naval Hospital Camp Lejeune, Naval Hospital Camp 
Pendleton, Naval Health Clinic New England--Branch Health Clinics 
Groton and Portsmouth. Additionally, we have an inpatient program at 
WRNMMC which focuses on moderate and severe TBI while also conducting 
screening for TBI on all polytrauma patients within the medical center.
    The National Intrepid Center of Excellence (NICoE) is dedicated to 
providing cutting-edge evaluation, treatment planning, research, and 
education for servicemembers and their families dealing with the 
complex interactions of mild TBI and psychological health conditions. 
Their approach is interdisciplinary, holistic, patient-, and family-
centered. The NICoE's primary patient population is comprised of Active 
Duty servicemembers with TBI and PH conditions who are not responding 
to current therapy. The NICoE has spearheaded partnerships with many 
military, Federal, academic, and private industry partners in research 
and education initiatives to further the science and understanding of 
these invisible wounds of war. The Department of Defense (DOD) has 
recently accepted an offer from the Intrepid Fallen Heroes Fund to 
construct several NICoE Satellite centers to treat our military 
personnel suffering from PTSD or TBI locally. The first installations 
to receive these centers will be Fort Belvoir, Camp Lejeune, and Fort 
Campbell. The Services are actively working together to determine the 
details regarding project timelines, building sizes, staffing, funding, 
and sustainability.
    We need to continue to leverage the work being done by the Defense 
Centers of Excellence for Psychological Health and Traumatic Brain 
Injury, including the Defense and Veterans Brain Injury Center, given 
their key roles in the expanding our knowledge of PH and TBI within the 
MHS, the VA and research institutions. This collaboration is also 
evident in the work being conducted by the Vision Center of Excellence 
(VCE), established by the National Defense Authorization Act of 2008. 
VCE, for which Navy Medicine currently provides operational support, 
exemplifies this important symmetry with military medicine, the VA and 
research partners. They are developing a distributed and integrated 
organization with regional locations that link together a network of 
clinical, research, and teaching centers around the world. The VCE 
encompasses an array of national and international strategic partners, 
including institutions of higher learning, and public and private 
entities.
    Family readiness supports force readiness so we must have programs 
of support in place for our families. We continue to see solid results 
from FOCUS (Families Over Coming Under Stress), our evidence-based, 
family-centered resilience training program that enhances understanding 
of combat and operational stress, psychological health and 
developmental outcomes for highly stressed children and families. 
Services are offered at 23 CONUS/OCONUS locations. As of December 2011, 
270,000 families, servicemembers, and community support members have 
been trained on FOCUS. Based on the program's annual report released in 
July 2011, we can see there has been a statistically significant 
decrease in issues such as depression and anxiety in servicemembers, 
spouses, and children who have completed the program as well as a 
statistically significant increase in positive family functioning for 
families.
    For our Marine Corps and Navy Reserve populations, we have 
developed the Reserve Psychological Health Outreach Program (PHOP). 
PHOP provides psychological health outreach, education/training, and 
resources a 24/7 information line for unit leaders or reservists and 
their families to obtain information about local resources for issues 
related to employment, finances, psychological health, family support, 
and child care. PHOP now includes 55 licensed mental health providers 
dispersed throughout the country serving on 11 teams located centrally 
to Navy and Marine Force Reserve commands.
    Returning warrior workshops (RWWs) began with the Navy Reserve more 
than 5 years ago and are conducted quarterly in each Navy Reserve 
Region across the country. As of September 2011, more than 10,000 
servicemembers and their families have participated in RWWs. RWWs 
assist demobilized servicemembers and their loved ones in identifying 
immediate and potential issues that often arise during postdeployment 
reintegration.
    Navy Medicine maintains a steadfast commitment to our substance 
abuse rehabilitation programs (SARPs). SARPs offer a broad range of 
services to include alcohol education, outpatient and intensive 
outpatient treatment, residential treatment, and medically managed care 
for withdrawal and/or other medical complications. We have expanded our 
existing care continuum to include cutting-edge residential and 
intensive outpatient programs that address both substance abuse and 
other co-occurring mental disorders directed at the complex needs of 
returning warriors who may suffer from substance abuse disorders and 
depression or PTSD. In addition, Navy Medicine has developed a new 
program known as My Online Recovery Experience (MORE). In conjunction 
with Hazelden, a civilian leader in substance abuse treatment and 
education, MORE is a ground-breaking Web-based recovery management 
program available to servicemembers 24/7 from anywhere in the world. 
Navy Medicine has also invested in important training opportunities on 
short-term interventions and dual diagnosis treatment for providers and 
drug and alcohol counselors, markedly improving quality and access to 
care.
    Our Naval Center for Combat & Operational Stress Control (NCCOSC)--
now in its fourth year--continues to improve the psychological health 
of marines and sailors through comprehensive programs that educate 
servicemembers, build psychological resilience and promote best 
practices in the treatment of stress injuries. The overarching goal is 
to show sailors and marines how to recognize signs of stress before 
anyone is in crisis and to get help when it is needed. NCCOSC continues 
to make progress in advancing research for the prevention, diagnosis, 
and treatment of combat and operational stress injuries, including 
PTSD. They have 50 on-going scientific projects and have doubled the 
number of enrolled participants from a year ago to more than 7,100. 
Similarly, they have expanded the enrollment in their psychological 
health pathways (PHP) pilot project to 2,248 patients--a 38-percent 
increase over last year.
   force multipliers: research and development and graduate medical 
                               education
    Innovative research and development and vibrant medical education 
help ensure that we have the capabilities to deliver world-class care 
now and in the future. They are sound investments in sustaining our 
excellence to Navy Medicine to our mission of Force Health Protection.
    The continuing mission of our Medical Research and Development 
program is to conduct health and medical research in the full spectrum 
of development, testing, clinical evaluation (RDT&E), and health threat 
detection in support of the operational readiness and performance of 
DOD personnel worldwide. In parallel with this primary operational 
research activity, our clinical investigation program (CIP) continues 
to expand at our teaching MTFs with direct funding being provided to 
support the enrichment of knowledge and capability of our trainees. 
Where consistent with this goal, these programs are participating in 
the translation of knowledge and tangible products from our RDT&E 
activity into proof of concept and cutting edge interventions that are 
directly applied in benefit of our wounded warriors and our 
beneficiaries.
    Navy Medicine's five strategic research priorities are set to meet 
the war-fighting requirements of the Chief of Naval Operations and the 
Commandant of the Marine Corps. These pursuits continue with 
appropriate review and the application of best practices in meeting our 
goals. These five areas of priority include:
  --TBI and psychological health treatment and fitness;
  --medical systems support for maritime and expeditionary operations;
  --wound management throughout the continuum of care;
  --hearing restoration and protection for operational maritime surface 
        and air support personnel; and
  --undersea medicine, diving, and submarine medicine.
    We continue to strengthen our medical partnerships in Southeast 
Asia, Africa, and South America through the cooperation and support 
provided by our Naval Medical Research Units and medical research 
operations in those geographical regions. We find that the application 
of medical and healthcare diplomacy is a firm cornerstone of successful 
pursuit of overarching bilateral relations between allies. These 
engagements are mutually beneficial--not only for the relationships 
with Armed Forces of engaged countries but for generalization of 
healthcare advances to the benefit of peoples around the globe.
    Graduate Medical Education (GME) is vital to the Navy's ability to 
train board-certified physicians and meet the requirement to maintain a 
tactically proficient, combat-credible medical force. Robust, 
innovative GME programs continue to be the hallmark of Navy Medicine. 
We are pleased to report that despite the challenges presented by 10 
years of war, GME remains strong.
    Our institutions and training programs continue to perform well on 
periodic site visits by the Accreditation Council for Graduate Medical 
Education (ACGME) and most are at or near the maximum accreditation 
cycle length. The performance of our three major teaching hospitals, in 
particular, has been outstanding with all three earning the maximum 5-
year accreditation cycle length. Board certification is another 
hallmark of strong GME. The overall pass rate for Navy trainees in 2011 
was 96 percent, well-above the national average in most specialties. 
Our Navy-trained physicians continue to prove themselves exceptionally 
well-prepared to provide care to all members of the military family, 
and in all operational settings ranging from the field hospitals of the 
battlefield to the platforms that support disaster and humanitarian 
relief missions.
    Overall, I am pleased with the progress we are making with our 
joint enlisted training efforts at the Medical Education and Training 
Campus (METC) in San Antonio, Texas. I had an opportunity to visit the 
training center earlier this year and meet with the leadership and 
students. We have a tremendous opportunity to train our sailors with 
their Army and Air Force counterparts in a joint environment, and I am 
working with my fellow Surgeons General to ensure we optimize our 
efforts, improve interoperability and create synergies.
             interoperability and collaborative engagement
    Navy Medicine continues to leverage its unique relationships with 
the Army, Air Force, the VA, as well as other Federal and civilian 
partners. This interoperability helps create system-wide synergies and 
foster best practices in care, education and training, research and 
technology.
    Our sharing and collaboration efforts with the VA continue 
throughout our enterprise and Navy Medicine's most recent joint venture 
is a unique partnership between the Naval Health Clinic Charleston, 
Ralph H. Johnson Veterans Affairs Medical Center, Naval Hospital 
Beaufort and the Air Force's 628th Medical Group. This partnership will 
manage joint healthcare services and explore local joint opportunities 
for collaboration. In addition, our new replacement facility at Naval 
Hospital Guam, currently under construction, will continue to provide 
ancillary and specialty service to VA beneficiaries.
    Operations continue at the Captain James A. Lovell Federal Health 
Care Center (FHCC) in Great Lakes, Illinois--a first-of-its-kind fully 
integrated partnership that links Naval Health Clinic Great Lakes and 
the North Chicago VA Medical Center into one healthcare system. This 
joint facility, activated in October 2010, is a 5-year demonstration 
project as mandated by the National Defense Authorization Act of Fiscal 
Year 2010. During its first year, FHCC successfully completed the 
Civilian Personnel Transfer of Function which realigned staff from 
1,500 to more than 3,000. The USS Red Rover Recruit Clinic processed 
more than 38,000 U.S. Navy recruits and delivered more than 178,000 
immunizations to the Navy recruits. We continue to work with DOD and 
the VA to leverage the full suites of information technology 
capabilities to support the mission and patient population.
    In addition, our collaborative efforts are critical in continuing 
to streamline the integrated disability evaluation system (IDES) in 
support of our transitioning wounded, ill, and injured servicemembers. 
Within the Department of Navy (DON), we have completed IDES expansion 
to all 21 CONUS MTFs and we are working to implement improvements and 
best practices in order to streamline the IDES process to allow for 
timely and thorough evaluation and disposition. Further collaboration 
between DOD, the Services, and the VA regarding information technology 
improvements, ability for field-level reports for case management and 
capability for electronic case file transfer is ongoing.
    In support of DOD and VA interagency efforts, we are leveraging our 
information technology capabilities and building on joint priorities to 
support a seamless transition of medical information for our 
servicemembers and veterans. This ongoing work includes the development 
of an integrated electronic health record and the virtual lifetime 
electronic record (VLER), including the Naval Medical Centers San Diego 
and Portsmouth participation in VLER pilot projects.
    We completed the requirements associated with the base realignment 
and closure (BRAC) in the National Capital Region (NCR) with the 
opening of the Walter Reed National Military Medical Center and Fort 
Belvoir Community Hospital. The scope of this realignment was 
significant, and we are continuing to devote attention to ensuring that 
our integration efforts reduce overhead, maintain mission readiness, 
and establish efficient systems for those providing care to our 
patients. We have outstanding staff members comprised of Navy, Army, 
Air Force and civilians, who are executing their mission with skill, 
compassion, and professionalism. The opening of these impressive 
facilities represented several years of hard work by the men and women 
of military medicine, as well as generous support from Members of 
Congress. I am proud of what we accomplished and, moving forward, 
encouraged about the opportunities for developing a sustainable, 
efficient integrated healthcare delivery model in the NCR. I, along 
with my fellow Surgeons General, am committed to this goal and 
recognize the hard work ahead of us.
                    people--our most important asset
    The hallmark of Navy Medicine is our professional and dedicated 
workforce. Our team consists of more than 63,000 Active component (AC) 
and Reserve component (RC) personnel, government civilians as well as 
contract personnel--all working around the world to provide outstanding 
healthcare and support services to our beneficiaries. I am continually 
inspired by their selfless service and sharp focus on protecting the 
health of sailors, marines, and their families.
    Healthcare accessions and recruiting remain a top priority, and, 
overall, Navy Medicine continues to see solid results from these 
efforts. Attainment of our recruiting and retention goals has allowed 
Navy Medicine to meet all operational missions despite some critical 
wartime specialty shortages. In fiscal year 2011, Navy Recruiting 
attained 101 percent of Active Medical Department officer goals, and 85 
percent of Reserve Medical Department officer goals. In a collaborative 
effort with the Chief of Navy Reserve and Commander, Navy Recruiting 
Command, we are working to overcome challenges in the RC medical 
recruiting missions. We recently held a recruiting medical stakeholders 
conference during which we discussed the challenges and courses of 
action to address them. Using a variety of initiatives such as the 
Health Professions Scholarship Program (HPSP), special incentive pays 
and selective re-enlistment bonuses, Navy Medicine is able to support 
and sustain accessions and retention across the Corps. We are grateful 
to the Congress for the authorities provided to us in support of these 
programs.
    As a whole, AC Medical Corps manning at the end of fiscal year 2011 
was 100 percent of requirements; however, some specialty shortfalls 
persist including general surgery, family medicine, and psychiatry. 
Aggressive plans to improve specialty shortfalls include continuation 
of retention incentives via special pays, and an increase in psychiatry 
training billets. Overall AC Dental Corps manning was at 96 percent of 
requirements, despite oral and maxillofacial surgeons manning at 77 
percent. A recent increase in incentive special pays was approved to 
address this shortfall. General dentist incentive pay and retention 
bonuses have helped increase general dentist manning to 99 percent, up 
from 88 percent manning a year ago. At the end of fiscal year 2011, AC 
Medical Service Corps manning was 94 percent of requirements. A 
staffing shortage does exist for the social work specialty, manned at 
45 percent. This shortage is due to increased requirements and billet 
growth during the past 3 years. We anticipate that this specialty will 
be fully manned by the end fiscal year 2014 through increased 
accessions and incentive programs. Our AC Nurse Corps manning at the 
end of fiscal year 2011 was 94 percent of requirements. Undermanned 
low-density/high-demand specialties including peri-operative nurses, 
certified registered nurse anesthetists and critical care nurses are 
being addressed via incentive special pays.
    Our AC Hospital Corps remains strong with manning at 96 percent. 
Critical manning shortfalls exist in several skill sets such as 
behavioral health technicians, surface force independent duty corpsmen, 
dive independent duty corpsmen, submarine independent duty corpsmen, 
and reconnaissance corpsmen. Program accession and retention issues are 
being addressed through increased special duty assignment pay, 
selective re-enlistment bonuses and new force shaping policies.
    Reserve component Medical Corps recruiting continues to be our 
greatest challenge. Higher AC retention rates have resulted in a 
smaller pool of medical professionals leaving Active Duty, and 
consequently, greater reliance on highly competitive Direct Commission 
Officer (DCO) market. RC Medical Corps manning at the end of fiscal 
year 2011 manning was at 71 percent of requirements while our Nurse 
Corps RC manning was 88 percent. To help mitigate this situation, there 
is an affiliation bonus of $10,000 or special pay of up to $25,000 per 
year based on specialty, and activated reserves are also authorized 
annual special incentive pays as applicable. Due to robust recruiting 
efforts and initiatives, the Reserve component Nurse Corps exceeded 
recruiting goals for the second consecutive year. Dental Corps and 
Medical Service Corps RC manning is 100 and 99 percent, respectively.
    Overall RC Hospital Corps manning is at 99 percent; however, we do 
have some shortfalls in surgical, xray, and biomedical repair 
technicians. Affiliation bonuses are specifically targeted toward those 
undermanned specialties.
    We are encouraged by our improving overall recruiting and retention 
rates. Improvements in special pays have mitigated manning shortfalls; 
however, it will take several years until Navy Medicine is fully manned 
in several critical areas. To ensure the future success of accession 
and retention for Medical Department officers continued funding is 
needed for our programs and special incentive pays. We are grateful for 
your support in this key area.
    For our Federal civilian personnel within Navy Medicine, we have 
successfully transitioned out of the National Security Personnel System 
(NSPS) and, in conjunction with the Assistant Secretary of Defense for 
Health Affairs and the other Services, we have begun a phased 
transition to introduce pay flexibilities in 32 healthcare occupations 
to ensure pay parity among healthcare providers in Federal service. The 
initial phase occurred in fiscal year 2011 when more than 400 Federal 
civilian physicians and dentists were converted to the new Defense 
Physician and Dentist Pay Plan. Modeled on the current VA pay system, 
the Defense Physician and Dentist Pay Plan provides us with the 
flexibility to respond to local conditions in the healthcare markets. 
We continue to successfully hire required civilians to support our 
sailors and marines and their families--many of whom directly support 
our wounded warriors. Our success is largely attributed to the hiring 
and compensation flexibilities granted by the Congress to the DOD's 
civilian healthcare community over the past several years.
    The Navy Medicine Reintegrate, Educate and Advance Combatants in 
Healthcare (REACH) program is an initiative that provides wounded 
warriors with career and educational guidance from career coaches, as 
well as hands-on training and mentoring from our hospital staff. To 
date, Navy Medicine has launched the REACH program at WRNMMC, Naval 
Medical Centers Portsmouth and San Diego, as well as Naval Hospital 
Camp LeJeune. The ultimate goal of the REACH program is to provide a 
career development and succession pipeline of trained disabled veterans 
for Federal Civil Service positions in Navy Medicine.
    I am committed to building and sustaining diversity within the Navy 
Medicine workforce. Our focus remains creating an environment where our 
diversity reflects that of our patients and our Nation and where our 
members see themselves represented in all levels of leadership. We 
embrace what we learn from our unique differences with the goal of a 
work-life in balance with mind, body, and spirit. I believe we are more 
mission-ready, stronger, and better shipmates because of our diversity. 
Navy Medicine will continue to harness the teamwork, talent, and 
innovation of our diverse force as we move forward into our future.
                               conclusion
    In summary, Navy Medicine is an agile and vibrant healthcare team. 
I am grateful to those came before us for their vision and foresight; I 
am inspired by those who serve with us now for commitment and bravery; 
and I am confident in those who will follow us because they will surely 
build on the strength and tradition of Navy Medicine. I have never been 
more proud of the men and women of Navy Medicine.
    On behalf of the men and women of Navy Medicine, I want to thank 
the subcommittee for your tremendous support, confidence, and 
leadership. It has been my pleasure to testify before you today and I 
look forward to your questions.

    Chairman Inouye. Thank you very much, Admiral.
    General Horoho.
STATEMENT OF LIEUTENANT GENERAL PATRICIA HOROHO, 
            SURGEON GENERAL, DEPARTMENT OF THE ARMY
    General Horoho. Good morning, Chairman Inouye, Ranking 
Member Cochran, and distinguished members of the subcommittee. 
Thank you for providing me with this opportunity to share with 
you today my thoughts on the future of Army Medicine and 
highlight some of the incredible work that is being performed 
by the dedicated men and women with whom I'm honored to serve 
alongside.
    We are America's most trusted premiere medical team, and 
our successful mission accomplishment over these past 10 years 
is testimony to the phenomenal resilience, dedication, and 
innovative spirit of the soldier medics, civilians, and family 
members throughout the world. Since 1775, Army Medicine has 
been there. In every conflict, the United States has fought 
with the Army, Army Medicine has stood shoulder-to-shoulder 
with our fighting forces in the deployed environment, and 
receive them here at home when they returned.
    It cannot be overstated that the best trauma care in the 
world resides with the United States military in Afghanistan, 
prosecuted by a joint healthcare team. Yet, we cannot have gone 
through 10 years of war for the length of time and not been 
aware of these experiences and how they've changed us as 
individuals, as an organization, and as a Nation.
    The Army, at its core, is its people, not equipment or 
weapon systems. I'd like to thank the subcommittee for ensuring 
these brave men and women, who have endured so much over the 
past decade, have received a variety of programs, policies, and 
facilities to cope with the cumulative stress, the injuries, 
and the family separations caused by 10 years of war.
    The warfighter does not stand alone. We must never forget 
that our success in Iraq and Afghanistan comes at a heavy price 
for our Army family. In supporting a nation in persistent 
conflict, with the stressors resulting from 10 years of war, 
Army Medicine has a responsibility to all those who serve, to 
include family members, our retirees, who have already answered 
the call to our Nation.
    We hold sacred the enduring mission of providing support to 
the wounded warriors and their families. I would like to take a 
moment to acknowledge the warm embrace from communities across 
America, as our veterans transition back to civilian life.
    While proudly acknowledging our many healthcare 
accomplishments at home and in theater, I want to turn to the 
future. The scope of Army Medicine extends beyond the 
outstanding in-theater combat care, and our mission is larger 
than the wartime medicine. We are an organization that has 
endured and excelled in global healthcare delivery, medical 
research and training programs, and collaborative partnerships. 
We are at our best when we operate as part of the joint team, 
and we need to proactively develop synergy with our partners as 
military medicine moves towards a joint operating environment. 
Continuity of care, continuity of information, and unity of 
effort are key not only to the current delivery of care as a 
DOD and VA team but also as we move forward in military 
medicine.
    The current conflicts have shown the Nation and the world 
the incredible care that is provided by the joint team, and 
this unity of effort will continue to be key in facing future 
challenges. For example, we have partnered with the VA, the 
Defense and Veterans Brain Injury Center, and the Defense 
Center of Excellence for TBI and psychological health and 
academia, as well as the National Football League, to improve 
our ability to diagnose, treat, and care for those that are 
affected by TBI.

                             NEW CHALLENGES

    Army Medicine has a history of changing to meet new 
challenges. We are looking at our culture and practices that 
focus on systems of care and transforming our enterprise from a 
healthcare system to a system for health. This transformation 
requires that we expand our focus beyond the treatment of 
illness and injury, and emphasize the importance of health, 
wellness, and prevention. In order for us to influence the 
health and wellness of our military members and families, we 
must engage with those entrusted to our care, so that we can 
influence their behaviors and impact their life space, where 
the daily decisions are made that ultimately have the greatest 
effect on health and wellness.
    The Army Medicine team is committed to ensuring the right 
capabilities are available to promote health and wellness, 
support and sustain a medically ready force, and leverage 
innovation in order to remain a premiere healthcare 
organization. We are focused on decreasing variance, while 
increasing standards and furthering standardization across our 
organization.
    The comprehensive behavioral health system is restoring the 
resiliency, resetting the formation, and re-establishing family 
and community bonds. We are strengthening our soldiers and 
family's behavior health and emotional resiliency through 
multiple touch points across a spectrum of time, from pre-
deployment to redeployment, and into garrison life. We are 
committed to providing the continuity and standardized approach 
across the care continuum.
    It is truly an honor to care for our military members and 
their families. We are advocates for those that are entrusted 
to our care, and Army Medicine team proudly serves our Nation's 
heroes with the respect and dignity that they have earned. In 
an increasingly uncertain world, we can state with certainty 
that Army Medicine is committed to providing the patient and 
family centric care. Every warfighter has a unique story, and 
we are dedicated to caring for each patient with compassion, 
respect, and dignity. This approach to medicine enhances the 
care, and we believe our patients deserve a care experience 
that embraces their desire to heal and have an optimal life.
    I would like to close today by discussing the Army Medicine 
promise. The promise, a written covenant that will be in the 
hands of everyone entrusted to our care over the next year, 
tells those that we care for, the Army Medicine team believe 
they deserve from us. It articulates what we believe about the 
respect and dignity surrounding the patient care experience. 
The promise speaks to what we believe about the value of care 
we deliver, about the compassion contained in the care we 
deliver, and how we want to morally and ethically provide care 
for those that we serve.
    I'll share two items with you of the promise. ``We believe 
our patients deserve a voice in how Army Medicine cares for 
them, and all those entrusted to our care''. Our patients want 
to harness innovation to improve and change their health, and 
we are empowering their efforts via the wellness centers. At 
our premiere wellness clinics, we collaborate with patients to 
not only give them the tools that they need to change their 
health but also a life-space partner to help them change their 
life.
    Our wellness clinics are new and still evolving, but I'm 
committed to increasing their numbers and expanding their 
capabilities in order to dramatically impact those more than 
500,000 minutes out of the year when our patients are living 
life outside the walls of our hospitals. The wellness clinics 
allow us to reach out to those we care for rather than having 
them reach in.
    ``We believe our patients deserve an enhanced care 
experience that includes our belief and their desire to heal, 
be well, and have an optimal life''. We are committed to 
ensuring that we in Army Medicine live up to this promise.

                           PREPARED STATEMENT

    In conclusion, I'm incredibly honored and proud to serve as 
the 43rd Surgeon General of the Army and Commander of the U.S. 
Medical Command. There are miracles happening every day in 
military medicine because of the dedicated soldiers and 
civilians that make up the Army Medical Department.
    With the continued support of the Congress, we will lead 
the Nation in healthcare, and our men and women in uniform will 
be ready when the Nation calls them to action. Army Medicine 
stands ready to accomplish any task in support of our 
warfighters and military families. Army Medicine is serving to 
heal and truly honored to serve.
    Thank you. And I look forward to entertaining your 
questions.
    [The statement follows:]
      Prepared Statement of Lieutenant General Patricia D. Horoho
                              introduction
    Chairman Inouye, Vice Chairman Cochran, and distinguished members 
of the subcommittee: Thank you for providing me this opportunity to 
share with you today my thoughts on the future of the U.S. Army Medical 
Department (AMEDD) and highlight some of the incredible work being 
performed by the dedicated men and women with whom I am honored to 
serve alongside. We are America's most trusted premier medical team, 
and our successful mission accomplishment over these past 10 years is 
testimony to the phenomenal resilience, dedication, and innovative 
spirit of soldier medics, civilians, and military families throughout 
the world.
    Since 1775, Army Medicine has been there. In every conflict the 
U.S. Army has fought, Army Medicine stood shoulder-to-shoulder with our 
fighting forces in the deployed environment and received them here at 
home when they returned. The past 10 years have presented the AMEDD 
with a myriad of challenges, encompassing support of a two-front war 
while simultaneously delivering healthcare to beneficiaries across the 
continuum. Our experiences in Iraq and Afghanistan have strengthened 
our capacity and our resolve as a healthcare organization. Army 
Medicine, both deployed and at home, civilian, and military, has worked 
countless hours to ensure the wellness of our fighting force and its 
families. Army Medicine continues to support in an era of persistent 
conflicts, and it is our top priority to provide comprehensive 
healthcare to support war-fighters and their families. The soldier is 
America's most sacred determinant of the Nation's force projection and 
the Army's most important resource; it is our duty to provide full-
spectrum healthcare for our Nation's best. Committed to the health, 
wellness, and resilience of our force and its families, we will stand 
alongside and inspire confidence in our warriors when our Nation calls. 
Through the development of adaptive, innovative, and decisive leaders, 
we stand poised to support the foundation of our Nation's strength.
    Over the past decade, Army Medicine has led the joint healthcare 
effort in the most austere environments. As part of the most decisive 
and capable land force in the world, we stand ready to adapt to the 
Army's reframing effort. Ten years of contingency operations have 
provided numerous lessons learned. We will use these as the foundations 
from which we deliver the Army's vision. The following focus areas are 
the pillars upon which we deliver on that effort.
                           support the force
    I was privileged to serve as the International Security Assistance 
Force Joint Command (COMIJC) Special Assistant for Health Affairs (SA-
HA) from July-October 2011. My multidisciplinary team of 14 military 
health professionals conducted an extensive evaluation of theater 
health services support (HSS) to critically assess how well we were 
providing healthcare from point of injury to evacuation from theater. 
It cannot be overstated that the best trauma care in the world resides 
with the U.S. military in Afghanistan and Iraq. From the most forward 
combat outposts to the modern Role 3 facilities on the mature forward 
operating bases, the performance and effectiveness of the U.S. military 
health system (MHS) is remarkable. The medical community holds the 
trust of the American servicemember sacred. The fact that 
servicemembers are willing to go out day-to-day and place themselves in 
harm's way in support of our freedom is strongly dependent on the 
notion that, if they become injured, we will be there providing the 
best medical care in the world. This has been proven time and time 
again with MEDEVAC remaining an enduring marker of excellence in the 
CJOA-A. The average mission time of 44 minutes is substantially below 
the 60-minute mission standard established by the Secretary of Defense 
in 2009. The survival rate for the conflict in Afghanistan is 90.1 
percent. This ability to rapidly transport our wounded servicemembers 
coupled with the world-class trauma care delivered on the battlefield 
has resulted in achievement of the highest survival rate of all 
previous conflicts. The survival rate in World War II (WWII) was about 
70 percent; in Korea and Vietnam, it rose to slightly more than 75 
percent. In WWII, only 7 of 10 wounded troops survived; today more than 
9 out of 10 do. Not only do 9 in 10 survive, but most are able to 
continue serving in the Army.
    Enhanced combat medic training has without question, contributed to 
the increased survival rates on the battlefield by putting the best 
possible care far forward. The need for aerial evacuation of critical, 
often postsurgical patients, presented itself in Afghanistan based on 
the terrain, wide area dispersement of groundbased forces, as well as 
increased use of forward surgical teams. En route management of these 
patients required critical care experience not found organic to 
MEDEVAC. In response to these needs, our flight medic program (AD, NG, 
AR) is raising the standard to the EMT-Paramedic level to include 
critical care nursing once paramedic certified for all components. This 
will enhance our capabilities to match the civilian sector and make our 
flight medics even more combat ready for emergencies while on mission. 
We've just begun the first course that will pave the way with 28 flight 
medics coming from all components. By 2017, we will have all flight 
medics paramedic certified. In the area of standardization of enlisted 
medical competencies, we are ensuring that our medics are being 
utilized as force multipliers to ensure world-class healthcare in our 
facilities. We are working with our sister services to ensure that all 
medics, corpsmen, and medical technicians are working side-by-side in 
our joint facilities and training to the highest joint standard.
    We have an enduring responsibility, alongside our sister services 
and the Department of Veterans Affairs (VA), to provide care and 
rehabilitation of wounded, ill, and injured servicemembers for many 
years to come. We will stand alongside the soldier from point of injury 
through rehabilitation and recovery, fostering a spirit of resiliency. 
The Warrior Care and Transition Program is the Army's enduring 
commitment to providing all wounded, ill, and injured soldiers and 
their families a patient-centered approach to care. Its goal is to 
empower them with dignity, respect, and the self-determination to 
successfully reintegrate either back into the force or into the 
community. Since the inception of warrior transition units in June 
2007, more than 51,000 wounded, ill, or injured soldiers and their 
families have either progressed through or are being cared for by these 
dedicated caregivers and support personnel. Twenty-one thousand of 
these soldiers, the equivalent of two divisions, have been returned to 
the force, while another 20,000 have received the support, planning, 
and preparation necessary to successfully and confidently transition to 
civilian status. Today, we have 29 warrior transition units (WTUs) and 
9 community-based warrior transition units (CBWTU). More than 9,600 
soldiers are currently recovering in WTUs and CBWTU with more than 
4,300 professional cadre supporting them. Standing behind these 
soldiers each stage of their recovery and transition is the triad of 
care (primary care manager, nurse case manager, and squad leader) and 
the interdisciplinary team of medical and nonmedical professionals who 
work with soldiers and their families to ensure that they receive the 
support they deserve.
    The Army remains committed to supporting wounded, ill, or injured 
soldiers in their efforts to either return to the force or transition 
to Veteran status. To help soldiers set their personal goals for the 
future, the Army created a systematic approach called the Comprehensive 
Transition Plan, a multidisciplinary and automated process which 
enables every warrior-in-transition to develop an individualized plan, 
which will enable them to reach their personal goals. These end goals 
shape the warrior-in-transition's day-to-day work plan while healing.
    For those soldiers who decide to transition to veteran status the 
Warrior Transition Command's (WTC) mission is to assist them to 
successfully reintegrate back into the community with dignity, respect, 
and self-determination. One example of how the WTC is working to better 
assist this group of soldiers is the WTC-sponsored, joint service 
Wounded Warrior Employment Conference (WWEC) held in February. This is 
the second year the WWEC has brought together key stakeholders in the 
Federal Government and private industry. The goal is improved alliance 
and collaboration between military, civilian, Federal entities, and 
employers to encourage them to cooperatively support employment related 
objectives and share best practices in hiring, retaining, and promoting 
wounded warriors, recently separated disabled veterans, their spouses, 
and caregivers.
                            care experience
    The warfighter does not stand alone. Army Medicine has a 
responsibility to all those who serve, to include family members and 
our retirees who have already answered the call to our Nation. We 
continue to fully engage our patients in all aspects of their 
healthcare experience. At each touch point, starting with the initial 
contact, each team member plays an important role in enhancing patient 
care. We will make the right care available at the right time, while 
demonstrating compassion to those we serve and value to our 
stakeholders. Beneficiaries will choose hospitals who give them not 
only outstanding outcomes but the best-possible experience. And we aim 
to elevate the patient care experience across the enterprise to make 
the direct care system the preferred location to receive care. I am 
proud to share today that our patient satisfaction rate is currently 
above 92 percent, and we are in the top 10 percent of health plans in 
the United States according to Healthcare Effectiveness and Data 
Information Set (HEDIS), a tool used by more than 90 percent of 
America's health plans to measure performance on important dimensions 
of care. This said, my challenge--and my personal belief is that we can 
get better--we must be better. I'd like to outline a few areas where we 
continue to better ourselves in order to better the care experience for 
our patients.
    Army Medicine is committed to accountable care--where our clinical 
processes facilitate best practice patterns and support our healthcare 
team in delivering competent, compassionate care. In everything we do, 
there is a need for accountability--to our patients, our team members, 
and ourselves. Accountability is not just providing competent delivery 
of healthcare; our warfighters deserve more than that. Accountability 
is about taking ownership of the product we create and how it is 
delivered, considering it a reflection of ourselves and the 
organization. At the end of the workday, accountability is not measured 
by relative value units, but by impact on patients. It is not about the 
final outcome, but about the process and upholding our commitment to 
soldiers and their families. Soldier well-being and health are 
absolutely our top priorities. The Army Medicine team will continue 
advocating for patients and their well-being. As an Army at war for 
more than a decade, we stand shoulder-to-shoulder with the warfighter, 
both on the battlefield and at home. This means never losing sight of 
the importance of caring for our Nation's heroes and their families. 
Realizing that this Army Medicine team is working around the clock and 
around the world to ensure soldiers and their families are cared for 
with compassion and dignity, I have asked our leaders to focus on 
caring for those who are giving care. The Army Medicine team is not 
immune to the stress of deployments, workload demands, and challenging 
circumstances. We provide the best care for our patients when we take 
care of each other. By doing that, we give our best to all those 
entrusted to our care.
    Army Medicine has consciously committed to building a ``culture of 
trust''. Trust in patient care, trust within Army Medicine and the Army 
family. In healthcare, trust plays a critical and important role. This 
strategic initiative is focused on an organizational culture change 
within Army Medicine and creating a lifestyle of trust. A culture of 
trust in Army Medicine is a shared set of relationship skills, beliefs, 
and behaviors that distinguish our commitment to our beneficiaries to 
provide the highest quality and access to health services. Every 
initiative aimed at reducing variance and standardizing and improving 
patients' healthcare experiences, outcomes, and readiness will be 
founded on a culture of trust. Last fall the culture of trust task 
force began piloting the initial culture of trust training. This 
foundational training provides information on trust behaviors, tenets, 
and fundamentals creating a baseline upon which we will grow and 
expand.
    We constantly seek to establish stronger, more positive 
relationships with all that we serve in Army Medicine, to produce the 
very best-possible individual care experience. To that end, Army 
Medicine has implemented a training program titled, ``Begin with the 
Basics''. The central theme of this training is individual personalized 
engagement practiced by each and every member of Army Medicine. Through 
these relationships we increase understanding and in understanding our 
patients better, we are able to provide better solutions. The goal is 
full deployment of the basics of this model across Army Medicine in the 
next 18 months. We are using this model for care and service training 
as we deploy our medical home care model across Army Medicine.
    In February 2011, Army Nursing began implementing a patient-
centered outcomes focused care delivery system encompassing all care 
delivery environments; inpatient, outpatient, and deployed. The Patient 
Caring Touch System (PCTS) was designed to reduce clinical quality 
variance by adopting a set of internally and externally validated best 
practices. PCTS swept across Army Medicine, and the last facility 
completed implementation in January 2012. PCTS is a key enabler of Army 
Medicine's Culture of Trust and nests in all of Army Medicine's 
initiatives. PCTS is enhancing the quality of care delivery for 
America's sons and daughters. PCTS has improved communication and 
multidisciplinary collaboration and has created an increased demand and 
expanded use of multidisciplinary rounds. Several facilities have 
reported that bedside report, hourly rounding, and multidisciplinary 
rounding are so much a part of the routine that they cannot recall a 
time when it was not part of their communication process.
    The collective healthcare experience is driven by a team of 
professionals, partnering with the patient, focused on health 
promotion, and disease prevention to enhance wellness. Essential to 
integrated healthcare delivery is a high-performing primary care 
provider/team that can effectively manage the delivery of seamless, 
well-coordinated care and serve as the patient's medical home. Much of 
the future of military medicine will be practiced at the patient-
centered medical home (PCMH). We have made PCMHs and community-based 
medical homes a priority. The Army's 2011 investment in patient-
centered care is $50 million. PCMH is a primary care model that is 
being adopted throughout the MHS and in many civilian practices 
throughout the Nation. Army PCMH is the foundation for the Army's 
transition from a ``healthcare system to a system for health'' that 
improves soldier readiness, family wellness and overall patient 
satisfaction through a collaborative team-based system of comprehensive 
care that is ultimately more efficient and cost effective. The PCMH 
will strengthen the provider-patient relationship by replacing episodic 
care with readily available care with one's personal clinician and care 
team emphasizing the continuous relationship while providing proactive, 
fully integrated and coordinated care focusing on the patient, his or 
her family, and their long-term health needs. The Army is transforming 
all of its 157 primary care practices to PCMH practices. A key 
component of transformation to the Army PCMH requires each practice to 
meet the rigorous standards established by the National Committee for 
Quality Assurance (NCQA). In December 2011, 17 Army practices received 
NCQA recognition as PCMHs, and I anticipate we will have 50 additional 
practices that will obtain NCQA recognition by the end of this calendar 
year. It is expected that all Army primary care clinics will be 
transformed to Army Medical Homes by fiscal year 2015. Transformation 
to the PCMH model should result in an increased capacity within Army 
military treatment facilities (MTFs) of more than 200,000 beneficiaries 
by fiscal year 2016. The Army has established Community Based Medical 
Homes to bring Army Medicine closer to our patients. These Army-
operated clinics in leased facilities are in off-post communities 
closer to our beneficiaries and aim to improve access to healthcare 
services, including behavioral health, for Active-Duty family members 
by expanding capacity and extending the MTF services off post. 
Currently we are approved to open 21 clinics and are actively enrolling 
beneficiaries at 13 facilities.
                            unity of effort
    The ability to form mixed organizations at home and on the 
battlefield with all service and coalition partners contributing to a 
single mission of preserving life is proof of the flexibility and 
adaptability of America's medical warfighters. It is our collective 
effort--Army, Air Force, and Navy--that saves lives on the battlefield. 
It is an Army MEDEVAC crew who moves a wounded servicemember from the 
point-of-injury to a jointly staffed Role III field hospital. It's the 
Air Force provided aeromedical evacuation to Landstuhl Regional Medical 
Center where a triservice medical care team provides further definitive 
care. And then finally it's a joint team's capabilities at locations 
such as Walter Reed National Military Medical Center and the San 
Antonio Military Medical Center that provide the critical care and 
rehabilitative medicine for this servicemember, regardless if they are 
a soldier, sailor, airman, or marine. The AMEDD is focused on building 
upon these successes on the battlefield as we perform our mission at 
home and is further cementing our commitment to working as a combined 
team, anywhere, anytime.
    We are at our best when we operate as part of a Joint Team, and we 
need to proactively develop synergy with our partners as military 
medicine moves toward a joint operating environment. The wars in 
Afghanistan and Iraq have led to increased collaboration and 
interoperability with allied medical services, and have highlighted 
differences and gaps in our respective combat health service support 
systems. While the combatant commands have a responsibility to harvest 
and publicize lessons learned and implement new best practices 
operationally, the MHS has the opportunity to address and apply, at the 
strategic, operational and tactical levels, the lessons learned 
regarding combat casualty care and medical coalition operations.
    MHS governance changes will change the way we currently operate for 
everyone. These recommended changes will strengthen our system. In the 
delivery of military medicine, the military departments have more 
activities in common than not--together we will drive toward greater 
common approaches in all areas, except where legitimate uniqueness 
requires a service-specific approach. Our commitment is to achieve 
greater unity of effort, improve service to our members and 
beneficiaries, and achieve greater efficiency through a more rapid 
implementation of common services and joint purchasing, as well as 
other opportunities for more streamlined service delivery.
    Our MHS is not simply a health plan for the military; it is a 
military health system. A system that has proven itself in war and 
peace time. Our focus continues to be on supporting soldiers, other 
warriors and their families--past, present, and future--and on the most 
effective and efficient health improvement and healthcare organization 
to add value in the defense of the Nation. The best way to do that is 
through a unified and collaborative approach to care, both on the 
battlefield and in garrison. We must have outcome and economic metrics 
to measure and accountability assigned. And we must develop standard 
and unified performance measures across a wide-range of health and care 
indicators e.g., population health, clinical outcomes, access, 
continuity, administrative efficiency, agile operational support, 
warrior care, and transition programs, patient satisfaction, cost, and 
others, to ensure we are effective, efficient, and timely.
           innovate army medicine and health service support
    Many innovations in healthcare have their origins on the 
battlefield. Army Medicine's medical innovations borne from lessons 
learned in combat have become the world-class standard of care for 
soldiers on the battlefield and civilians around the world. As our 
presence in the current war begins to change, we must remain vigilant 
in developing and assessing strategies to protect, enhance, and 
optimize soldier wellness, prevention, and collective health. Through 
leverage of information technology and militarily relevant research 
strategies, we will continue to develop new doctrine and education 
programs to reflect best practice healthcare on and off the 
battlefield, while ensuring that Army Medicine remains responsive and 
ready. Our speed of execution, combined with the ability to leverage 
knowledge and actionable ideas quickly, is paramount to optimize the 
constancy of improvement. Our biggest competitive edge is our knowledge 
and our people.
    In 2004, the Assistant Secretary of Defense for Health Affairs 
directed to the formation of the Joint Theater Trauma System (JTTS) and 
the Joint Theater Trauma Registry (JTTR). The JTTS coordinates trauma 
care for our wounded warriors. Since that time the services, working 
together, have created a systematic and integrated approach to 
battlefield care which has minimized morbidity and mortality and 
optimized the ability to provide essential care required for the battle 
injuries our soldiers are facing. The vision of the JTTS is for every 
soldier, marine, sailor, or airman wounded or injured in the theater of 
operations to have the optimal chance for survival and maximal 
potential for functional recovery and they are. Our 8,000-mile 
operating room stretches from Kandahar to Landstuhl to Walter Reed 
National Military Medical Center at Bethesda, to San Antonio Military 
Medical Center to the Veteran's Administration and other facilities 
throughout the United States. It's collaborative, it's integrated, and 
it knows no boundaries. JTTS changed how the world infuses blood 
products for trauma patients. In fact we just had a patient receive 400 
units of blood. He coded three times on the battle field. And today he 
is recovering in Walter Reed National Medical Center at Bethesda. The 
JTTS also led to materiel changes in helmets, body armor, and vehicle 
design. This is not a success of technology or policy. This is a 
success of a trauma community that expects and values active 
collaboration across its 8,000-mile operating room.
    The JTTR, is the largest combat injury data repository and is an 
integral and integrated part of the JTTS. It provides the information 
necessary to advance the improvement of battlefield and military trauma 
care and drive joint doctrine and policy, while enabling process 
improvement and quality assurance. Additionally, it enables more 
efficient and effective medical research in a resource-constrained 
environment. The improvements in trauma care driven by both the JTTS 
and JTTR are increasing the survival rate on today's battlefield and 
saving lives in our Nation's civilian trauma centers through shared 
lessons learned. We must maintain this critical capability to ensure 
that we continue to drive innovation and are able to respond to our 
next threat.
    An area in which the Army and our sister services have innovated to 
address a growing problem is in concussion care. The establishment of a 
mild traumatic brain injury (mTBI)/concussive system of care and 
implementation of treatment protocols has transformed our management of 
all battlefield head trauma. Traumatic brain injury (TBI) is one of the 
invisible injuries resulting from not only the signature weapons of 
this war, improvised explosive devices, and rocket propelled grenades 
but also from blows to the head during training activities or contact 
sports. Since 2000, 220,430 servicemembers have been diagnosed with TBI 
worldwide (Armed Forces Health Surveillance Center, 2011). In 2010, 
military medicine implemented a new mTBI management strategy to 
disseminate information that our healthcare workers needed and outlined 
the unit's responsibilities, creating a partnership between the medical 
community and the line units. This policy directed that any soldier who 
sustained a mandatory reportable event must undergo a medical 
evaluation including a mandatory 24-hour down time followed by medical 
clearance before returning to duty. The mandatory events are a command-
directed evaluation for any soldier who sustains a direct blow to the 
head or is in a vehicle or building associated with a blast event, 
collision, or rollover, or is within 50 meters of a blast. Since the 
Department of Defense (DOD) implemented Policy Guidance for Management 
of Concussion/mTBI in the Deployed Setting in June 2010, deployed 
Commanders screened more than 10,000 servicemembers for concussion/
mTBI, temporarily removed them from the battlefield to facilitate 
recovery, and ensured that each of them received a mandatory medical 
evaluation. Codification of this concussive care system into AMEDD 
doctrine is ongoing. To further support the TBI care strategy over the 
past 21 months the services have stood up 11 facilities devoted to 
concussive care far forward on the battlefield, staffed with concussion 
care physicians and other medical providers, in order to care for those 
with TBI at the point-of-injury. The Army has medical staff at nine of 
these facilities. These centers provide around-the-clock medical 
oversight, foster concussion recovery, and administer appropriate 
testing to ensure a safe return to duty. The current return to duty 
rate for soldiers who have received care at theater concussion centers 
is more than 90 percent.
    To further the science of brain injury recovery, the Army relies on 
the U.S. Army Medical Research and Materiel Command's (MRMC) TBI 
Research Program. The overwhelming generosity of the Congress and the 
DOD's commitment to brain injury research has significantly improved 
our knowledge of TBI in a rigorous scientific fashion. Currently, there 
are almost 350 studies funded by DOD to look at all aspects of TBI. The 
purpose of this program is to coordinate and manage relevant DOD 
research efforts and programs for the prevention, detection, 
mitigation, and treatment of TBI. In the absence of objective 
diagnostic tools, MRMC is expediting research on diagnostic biomarkers 
and other definitive assessment tools that will advance both military 
and civilian TBI care. By identifying and managing these injuries on 
the battlefield, we have eliminated many unnecessary medical evacuation 
flights and facilitated unprecedented return to duty rates. The Army 
realizes that there is much to gain from collaboration with external 
partners and key organizations. We have partnered with the Department 
of Veterans Affairs, the Defense and Veterans Brain Injury Center, the 
Defense Centers of Excellence for Psychological Health and Traumatic 
Brain Injury, academia, civilian hospitals, and the National Football 
League, to improve our ability to diagnose, treat, and care for those 
affected by TBI.
    There are significant health related consequences of more than 10 
years of war, including behavioral health needs, post-traumatic stress, 
burn or disfiguring injuries, chronic pain, or loss of limb. Our 
soldiers and their families need to trust we will be there to partner 
with them in their healing journey, a journey focused on ability vice 
disability.
    A decade of war in Afghanistan and Iraq has led to tremendous 
advances in the knowledge and care of combat-related physical and 
psychological problems. Ongoing research has guided health policy, and 
multiple programs have been implemented in theater and postdeployment 
to enhance resiliency, address combat operational stress reactions, and 
behavioral health concerns. Similar to our approach to concussive 
injuries, Army Medicine harvested the lessons of almost a decade of war 
and has approached the strengthening of our soldiers and families' 
behavioral health and emotional resiliency through a campaign plan to 
align the various behavioral health programs with the human dimension 
of the Army Force Generation (ARFORGEN) cycle, a process we call the 
Comprehensive Behavioral Health System of Care (CBHSOC). This program 
is based on outcome studies that demonstrate the profound value of 
using the system of multiple touch points in assessing and coordinating 
health and behavioral health for a soldier and family. The CBHSOC 
creates an integrated, coordinated, and synchronized behavioral health 
service delivery system that will support the total force through all 
ARFORGEN phases by providing full-spectrum behavioral healthcare. We 
leveraged experiences and outcome studies on deploying, caring for 
soldiers in combat, and redeploying these soldiers in large unit 
movements to build the CBHSOC. The CBHSOC is a system of systems built 
around the need to support an Army engaged in repeated deployments--
often into intense combat--which then returns to home station to 
restore, reset the formation, and re-establish family and community 
bonds. The intent is to optimize care and maximize limited behavioral 
health resources to ensure the highest quality of care to soldiers and 
families, through a multiyear campaign plan.
    The CBHSOC campaign plan has five lines of effort:
  --Standardize Behavioral Health Support Requirements;
  --Synchronize Behavioral Health Programs;
  --Standardize & Resource AMEDD Behavioral Health Support;
  --Access the Effectiveness of the CBHSOC; and
  --Strategic Communications.
    The CBHSOC campaign plan was published in September 2010, marking 
the official beginning of incremental expansion across Army 
installations and the Medical Command. Expansion will be phased, based 
on the redeployment of Army units, evaluation of programs, and 
determining the most appropriate programs for our soldiers and their 
families.
    Near-term goals of the CBHSOC are implementation of routine 
behavioral health screening points across ARFORGEN and standardization 
of screening instruments. Goals also include increased coordination 
with both internal Army programs like Comprehensive Soldier Fitness, 
Army Substance Abuse Program, and Military Family Life Consultants. 
External resources include VA, local, and State agencies, and the 
Defense Centers of Excellence for Psychological Health.
    Long-term goals of the CBHSOC are the protection and restoration of 
the psychological health of our soldiers and families and the 
prevention of adverse psychological and social outcomes like family 
violence, driving under intoxication violations, drug and alcohol 
addiction, and suicide. This is through the development of a common 
behavioral health data system; development and implementation of 
surveillance and data tracking capabilities to coordinate behavioral 
health clinical efforts; full synchronization of tele-behavioral health 
activities; complete integration of the Reserve components; and the 
inclusion of other Army Medicine efforts including TBI, patient-
centered medical home, and pain management. We are leveraging 
predictive modeling tools to improve our insight into data, research 
advances, and electronic medical record systems in order to provide 
``genius case management'' for our patients with behavioral health 
disease, that is, care that is tailored for each patient, and a care 
plan aimed at better understanding the patient, and not just their 
disease. Integral to the success of the CBHSOC is the continuous 
evaluation of programs, to be conducted by the Public Health Command 
(PHC).
    For those who do suffer from PTSD, Army Medicine has made 
significant gains in the treatment and management of PTSD as well. The 
DOD and VA jointly developed the three evidenced-based Clinical 
Practice Guidelines for the treatment of PTSD, on which nearly 2,000 
behavioral health providers have received training. This training is 
synchronized with the re-deployment cycles of U.S. Army brigade combat 
teams, ensuring that providers operating from MTFs that support the 
brigade combat teams are trained and certified to deliver quality 
behavioral healthcare to soldiers exposed to the most intense combat 
levels. In addition, the U.S. Army Medical Department Center and School 
collaborates closely with civilian experts in PTSD treatment to 
validate the content of these training products to ensure the 
information incorporates emerging scientific discoveries about PTSD and 
the most effective treatments.
    Work by the AMEDD and the MHS over the past 8 years has taught us 
to link information gathering and care coordination for any one soldier 
or family across the continuum of this cycle. Our behavioral health 
specialists tell us that the best predictor of future behavior is past 
behavior, and through the CBHSOC we strive to link the management of 
issues which soldiers carry into their deployment with care providers 
and a plan down-range and the same in reverse. We have embedded 
behavioral health personnel within operational units circulate across 
the battlefield to facilitate this ongoing assessment.
    The management of combat trauma pain with medications and the 
introduction of battlefield anesthesia was a tremendous medical 
breakthrough for military medicine. The first American use of 
battlefield anesthesia is thought to have been in 1847 during the 
Mexican-American War, and the use of opioid medication during the Civil 
War was not uncommon. Military medicine has worked very hard to manage 
our servicemembers' pain from the point-of-injury through the 
evacuation process and continuum of care. The management of pain--both 
acute and chronic or longstanding pain--remains a major challenge for 
military healthcare providers and for the Nation at large. We have 
launched a major initiative through a multidisciplinary, multiservice 
and DOD-VA pain management task force to improve our care of pain. The 
use of medications is appropriate, if required, and often an effective 
way to treat pain. However, the possible overreliance on medication-
only pain treatment has other unintended consequences, such as 
prescription medication use. The goal is to achieve a comprehensive 
pain management strategy that is holistic, multidisciplinary, and 
multimodal in its approach, uses state-of-the-art modalities and 
technologies, and provides optimal quality of life for soldiers and 
other patients with acute and chronic pain. The military is developing 
regional pain consortiums that combine the pain expertise from DOD with 
local Veterans Health Administration (VHA) and civilian academic 
medical centers. The first of many of these relationships has been 
established in Washington State between Madigan Army Medical Center, VA 
Puget Sound Health Care System, and University of Washington Center for 
Pain Relief. Some of the largest research projects dealing with 
wounded-warrior pain have been facilitated through partnerships with 
VHA research leaders. Collaborations of this type will ensure the 
latest, evidence-based pain-care techniques and protocols are available 
to patients. Pain research in direct support of military requirements 
will also be facilitated by these Federal and civilian partnerships. 
Other partnerships include working with organizations such as the 
Bravewell Collaborative and the Samuelli Institute, both of whom 
provide DOD with expertise in building mature integrative medicine 
capabilities to compliment and improve our existing pain medicine 
resources.
    Another concerning area of emphasis for military medicine that has 
emerged from the current wars is ``dismounted complex blast injury'' 
(DCBI), an explosion-induced battle injury (BI) sustained by a 
warfighter on foot patrol that produces a specific pattern of wounds. 
In particular, it involves traumatic amputation of at least one leg, a 
minimum of severe injury to another extremity, and pelvic, abdominal, 
or urogenital wounding. The incidence of dismounted complex blast 
injuries has increased during the last 15 months of combat in the 
Afghanistan theater of operations (ATO). The number of servicemembers 
with triple limb amputation has nearly doubled this past year from the 
sum of all those seen over the last 8 years of combat. The number of 
genital injuries increased significantly from previous Operation Iraqi 
Freedom (OIF) rates. The severity of these injuries presents new 
challenges to the medical and military communities to prevent, protect, 
mitigate, and treat. Army Medicine has spearheaded a task force 
comprised of clinical and operational medical experts from DOD and VA 
and solicited input from subject-matter experts in both Federal and 
civilian sectors to determine the way forward for healing these complex 
injuries.
    Evidence-based science makes strong soldiers and for this we rely 
heavily on the MRMC. MRMC manages and executes a robust, ongoing 
medical research program for the MEDCOM to support the development of 
new healthcare strategies. I would like to highlight a few research 
programs that are impacting health and care of our soldiers today.
    The Combat Casualty Care Research Program (CCCRP) reduces the 
mortality and morbidity resulting from injuries on the battlefield 
through the development of new life-saving strategies, new surgical 
techniques, biological and mechanical products, and the timely use of 
remote physiological monitoring. The CCCRP focuses on leveraging 
cutting-edge research and knowledge from Government and civilian 
research programs to fill existing and emerging gaps in combat casualty 
care. This focus provides requirements-driven combat casualty care 
medical solutions and products for injured soldiers from self-aid 
through definitive care, across the full spectrum of military 
operations.
    The mission of the Military Operational Medicine Research Program 
(MOMRP) is to develop effective countermeasures against stressors and 
to maximize health, performance, and fitness, protecting the soldier at 
home and on the battlefield. MOMRP research helps prevent physical 
injuries through development of injury prediction models, equipment 
design specifications and guidelines, health hazard assessment 
criteria, and strategies to reduce musculoskeletal injuries.
    MOMRP researchers develop strategies and advise policy makers to 
enhance and sustain mental fitness throughout a servicemember's career. 
Psychological health problems are the second leading cause of 
evacuation during prolonged or repeated deployments. MOMRP 
psychological health and resilience research focuses on prevention, 
treatment, and recovery of soldiers and families behavioral health 
problems, which are critical to force health and readiness. Current 
psychological health research topic areas include behavioral health, 
resiliency building, substance use and related problems, and risk-
taking behaviors.
    The Clinical and Rehabilitative Medicine Research Program (CRMRP) 
focuses on definitive and rehabilitative care innovations required to 
reset our wounded warriors, both in terms of duty performance and 
quality of life. The Armed Forces Institute of Regenerative Medicine 
(AFIRM) is an integral part of this program. The AFIRM was designed to 
speed the delivery of regenerative medicine therapies to treat the most 
severely injured United States servicemembers from around the world but 
in particular those coming from the theaters of operation in Iraq and 
Afghanistan. The AFIRM is expected to make major advances in the 
ability to understand and control cellular responses in wound repair 
and organ/tissue regeneration and has major research programs in limb 
repair and salvage, craniofacial reconstruction, burn repair, scarless 
wound healing, and compartment syndrome.
    The AFIRM's success to date is at least in part the result of the 
program's emphasis on establishing partnerships and collaborations. The 
AFIRM is a partnership among the U.S. Army, Navy, and Air Force, DOD, 
VA, and the National Institutes of Health. The AFIRM is composed of two 
independent research consortia working with the U.S. Army Institute of 
Surgical Research. One consortium is led by the Wake Forest Institute 
for Regenerative Medicine and the McGowan Institute for Regenerative 
Medicine in Pittsburgh while the other is led by Rutgers--the State 
University of New Jersey and the Cleveland Clinic. Each consortium 
contains approximately 15 member organizations, which are mostly 
academic institutions.
    The health of the total Army is essential for readiness, and 
prevention is the best way to health. Protecting soldiers, retirees, 
family members and Department of the Army civilians from conditions 
that threaten their health is operationally sound, cost effective, and 
better for individual well-being. Though primary care of our sick and 
injured will always be necessary, the demands will be reduced. 
Prevention--the early identification and mitigation of health risks 
through surveillance, education, training, and standardization of best 
public health practices--is crucial to military success. Army Medicine 
is on the pathway to realizing this proactive, preventive vision.
    The newest addition to the Army Medicine team is the PHC, having 
reached initial operational capability in October 2010 with full-
operational capability is targeted for October 2011. As part of the 
overall U.S. Army Medical Command reorganization initiative, all major 
public health functions within the Army, especially those of the former 
Veterinary Command and the Center for Health Promotion and Preventive 
Medicine have been combined into a new PHC, located at Aberdeen Proving 
Ground in Maryland. The consolidation has already resulted in an 
increased focus on health promotion and has created a single 
accountable agent for public health and veterinary issues that is 
proactive and focused on prevention, health promotion, and wellness. 
Army public health protects and improves the health of Army communities 
through education, promotion of healthy lifestyles, and disease and 
injury prevention. Public health efforts include controlling infectious 
diseases, reducing injury rates, identifying risk factors and 
interventions for behavioral health issues, and ensuring safe food and 
drinking water on Army installations and in deployed environments. The 
long-term value of public health efforts cannot be overstated:
  --public health advances in the past century have been largely 
        responsible for increasing human life spans by 25 years; and
  --the PHC will play a central role in the health of our soldiers, 
        deployed or at home.
    A significant initiative driven by the PHC which will be 
instrumental to achieving public health is our partnering with Army 
installations to standardize existing Army Wellness Centers to preserve 
or improve health in our beneficiary population. The centers focus on 
health assessment, physical fitness, healthy nutrition, stress 
management, general wellness education, and tobacco education. They 
partner with providers in our MTFs through a referral system. I hold 
each MTF Commander responsible for the health of the extended military 
community as the installation Director of Health Services (DHS).
    Army Medicine has put a closer lens on women's health through a 
recently established Women's Health Task Force to evaluate issues faced 
by female soldiers both, in Theater and CONUS. Women make up 
approximately 14 percent of the Army Active Duty fighting force. As of 
August 2011, almost 275,000 women have deployed in support of OIF/OND/
OEF. The health of female soldiers plays a vital role in overall Army 
readiness. Army Medicine recognizes the magnitude and impact of women's 
health and appreciates the unique challenges of being a woman in the 
Army. In order for women to be fully integrated and effective members 
of the team, we must ensure their unique health needs are being 
considered and met. The Task Force combines talent from different 
disciplines:
  --civilian and military;
  --officer and enlisted; and
  --collaborates with our private industry partners.
    We will assess the unique health needs and concerns of female 
soldiers, conducting a thorough review of the care currently provided, 
identifies best practices and gaps, and revises, adapts, and initiates 
practices so that we may continue to provide first class care to our 
female warriors. The Women's Health Campaign Plan will focus on 
standardized education and training on women's health, logistical 
support for women's health items, emphasis on the fit and functionality 
of the Army uniform and protective gear for females; and research and 
development into the psychosocial effects of combat on women. While 
sexual assault is not a gender specific issue, the Women's Health Task 
Force is working with Headquarters, Department of the Army (HQDA) G-1 
to evaluate theater policy with regards to distribution of sexual 
assault forensic examiners and professionalizing the role of the victim 
advocate. The task force is collaborating with tri-service experts to 
investigate the integration of service policies and make 
recommendations.
    While proudly acknowledging our many healthcare accomplishments at 
home and in theater, I want to turn to the future. It is time we 
further posture Army Medicine in the best possible manner that aligns 
with the MHS strategic vision that moves us from healthcare to health. 
We must ask, where does ``health'' happen, and I have charged Army 
Medicine leadership to spearhead the conversion to health and to fully 
integrate the concept into readiness and the overall strategy of health 
in the force. Improved readiness, better health, better care, and 
responsibly managed costs are the pillars on which the MHS Quadruple 
Aim stands, but between those pillars, or in that ``White Space'', is 
where we can create our successful outcomes. Sir William Osler, 
considered to be the Father of Modern Medicine, said ``One of the first 
duties of the physician is to educate the masses not to take 
medicine.'' A snapshot of the average year with the average patient 
shows that healthcare provider spend approximately 100 minutes with 
their patient during that year. How much health happens in those 100 
minutes? There are approximately 525,600 minutes in that year, yet we 
focus so much of our time, effort, and spending on those 100 minutes; 
the small fraction of a spot on the page. But what happens in the 
remaining 525,600 minutes of that year? What happens in the ``White 
Space?'' I will tell you what I think happens--that is where health is 
built, that is where people live. The ``White Space'' is when our 
soldiers are doing physical fitness training, choosing whether to take 
a cigarette break, or deciding whether they will have the cheeseburger 
or the salad for lunch. It's when family members are grocery shopping 
or cooking a meal. The ``White Space'' is when soldiers spend time with 
their family, or get a restful night of sleep, or search the Internet 
to self-diagnose their symptoms to avoid adding to those 100 minutes in 
the clinician's office. We want to lead the conversation with Army 
leadership to influence the other 525,600 minutes of the year with our 
soldiers . . . the ``White Space''. In order for us to get to health, 
we must empower patients, move beyond the 100 minutes, and influence 
behaviors in the white space. The way ahead is connected, 
collaborative, and patient-centered.
    I have discussed but a few of the important medical issues and 
programs that are relevant to the current wars and vital to the future 
of Military Medicine require solutions and funding that will go years 
beyond the end of the current wars. Our Nation, our Army, and Army 
Medicine have a duty and responsibility to our soldiers, families, and 
retirees. There will be considerable ongoing healthcare costs for many 
years to support for our wounded, ill, or injured soldiers. The 
programs we have established to care for our soldiers and families 
cannot falter as our deployed footprint diminishes. The level of care 
required does not end when the deployed soldier returns home.
                           optimize resources
    One of Army Medicine's greatest challenges over the next 3-5 years 
is managing the escalating cost of providing world-class healthcare in 
a fiscally constrained environment. People are our most valuable 
resource. We will employ everyone to their greatest capacity and ensure 
we are good stewards of our Nation's resources. To capitalize on the 
overall cost savings of procurement and training, we will standardize 
equipment, supplies, and procedures. And we will leverage our 
information technology solutions to optimize efficiencies.
    Despite the cost containment challenges we face, we must accomplish 
our mission with an eye on reducing variance, focusing on quality, and 
expecting and adapting to change. These are our imperatives. Army 
Medicine will focus on collaborative international, interagency, and 
joint partnerships and collective health, including prevention and 
wellness, to ensure the enduring capabilities required to support the 
current contemporary operating environment and those of the future are 
retained.
    We will be methodical and thoughtful in our preparation for budget 
restraints to ensure that the high-quality care our warriors and 
military family demand is sustained. With the anticipated downsizing of 
forces, there will be a need to critically look at where medical 
services could be consolidated. However, we will use this as an 
opportunity to evaluate workloads to maximize efficiencies while 
maintaining effectiveness and focus on what services are best for our 
beneficiary population and dedicate resources to those.
    The rising cost of healthcare combined with the increasingly 
constrained Defense budget poses a challenge to all within the MHS. DOD 
offers the most comprehensive health benefit, at lower cost, to those 
it serves than the vast majority of other health plans in the Nation--
and deservedly so. The proposed changes in TRICARE fees do not change 
this fact--the TRICARE benefit remains one of the best values for 
medical benefits in the United States with lower out-of-pocket costs 
compared to other healthcare plans. Adjustment to existing fees, and 
introduction of new fees are proposed. Importantly, these benefit 
changes exempt soldiers, and their families, who are medically retired 
from Active service, and families of soldiers who died on Active Duty 
from any changes in cost-sharing. I support these modest fee changes 
when coupled by the MHS's shift in focus from healthcare to health, 
maintaining health and wellness, identifying internal efficiencies to 
capitalize on, and instituting provider payment reform.
    A major initiative within Army Medicine to optimize talent 
management and move towards a culture of trust, discussed earlier in 
this testimony, is the Human Systems Transformation, led by a newly 
established Human Systems Transformation Directorate. Army Medicine's 
ability to efficiently transform our culture requires a roadmap for 
achieving planned systemic change. The plan focuses on enhanced 
investment in four human system tiers (lines of effort) to:
  --improve senior leader development (new command teams/designated key 
        staff positions);
  --increase investment in the development of Army Medicine workforce 
        members;
  --establish a cadre of internal organizational development 
        professionals;
  --leverage partnering; and
  --collaboration opportunities with internal and external 
        stakeholders.
    In order to change the culture of our organization, we must invest 
in our people.
                            develop leaders
    At the core of our medical readiness posture is our people. The 
Army calls each of us to be a leader, and Army Medicine requires no 
less. We will capitalize on our leadership experiences in full-spectrum 
operations while continuing to invest in relevant training and 
education to build confident and competent leaders. Within this focus 
area, we will examine our leader development strategy to ensure that we 
have clearly identified the knowledge, skills, and talent required for 
leaders of Army Medicine. We will continue to develop adaptive, 
innovative, and decisive leaders who ensure delivery of highly 
reliable, quality care that is both patient-centered and inherently 
trustworthy. Being good stewards of our Nation's most treasured 
resources, through agile, decisive, and accountable leadership, we will 
continue to build on the successes of those who have gone before us. 
Our recruitment, development, and retention of medical professionals--
physicians, dentists, nurses, ancillary professionals, and 
administrators--remains high. With the support of the Congress, through 
the use of flexible bonuses and special salary rates, we have been able 
to meet most of our recruiting goals. Yet we recognize that competition 
for medical professionals will grow in the coming years, amidst a 
growing shortage of primary care providers and nurses.
                      support the army profession
    Army Medicine has a rich history of sustaining the fighting force, 
and we need to tell our story of unprecedented successes across the 
continuum of care--from the heroic efforts of our medics at the point-
of-injury to the comprehensive rehabilitation of our wounded warriors 
in overcoming exceptional challenges. After more than 10 years of 
persistent conflict, it is time to renew our collective commitment to 
the Army, its ideals, traditions, and ethos. As we have stood alongside 
our warfighters on the battlefield we have earned the trust of our 
combat-tested warfighters, and it is critical that we continue to 
demonstrate integrity and excellence in all that we do.
                          worldwide influence
    Army Medicine reaches around the world; from those supporting two 
theaters of war and humanitarian relief efforts to those conducting 
militarily relevant research and providing care to our military 
families overseas, AMEDD soldiers and civilians answer our Nation's 
call. The time that two oceans protected our freedom-loving Nation is 
long gone, and replaced with ever-present risks to our way of life. The 
Nation relies on its Army to prepare for and conduct full-spectrum 
operations from humanitarian and civil support to counterinsurgency and 
general war throughout the world. Army Medicine stands committed to 
sustain the warfighter and accomplish the mission, supporting the 
world's most decisive land force and the strength of the Nation.
    In the MHS, one of our biggest challenges lies in integrating the 
shared electronic health record (EHR) information available in our 
systems with the information that is provided through our civilian 
network providers and VA partners. Without that seamless integration of 
data, healthcare cannot be coordinated properly for the patients across 
all providers and settings. To support DOD and VA collaboration on 
treating PTSD, pain, and other healthcare issues, the EHR should 
seamlessly transfer patient data between and among partners to improve 
efficiencies and continuity of care. The DOD and the VA share a 
significant amount of health information today and no two health 
organizations in the Nation share more nonbillable health information 
than the DOD and VA. The Departments continue to standardize sharing 
activities and are delivering information technology solutions that 
significantly improve the secure sharing of appropriate electronic 
health information. We need to include electronic health information 
exchange with our civilian partners as well--a health information 
systems which brings together three intersecting domains--DOD, VA, 
civilian--for optimal sharing of beneficiary health information and to 
provide a common operating picture of healthcare delivery. These 
initiatives enhance healthcare delivery to beneficiaries and improve 
the continuity of care for those who have served our country. 
Previously, the burden was on servicemembers to facilitate information 
sharing; today, we are making the transition between DOD and VA easier 
for our servicemembers. The AMEDD is committed to working 
collaboratively with our partners across the MHS to seek solutions that 
will deliverable a fully integrated EHR that will enhance healthcare 
delivery to beneficiaries and improve the continuity of care for those 
who have served our country.
    At the core of our Army is the warfighter. A focus on wellness and 
prevention will ensure that our warriors are ready to heed the Nation's 
call. Yet in the Army today we have more than a division of Army 
soldiers who are medically not ready (MNR). This represents a readiness 
problem. We created a Soldier Medical Readiness Campaign to ensure we 
maintain a health and resilient force. The deployment of healthy, 
resilient, and fit soldiers and increasing the medical readiness of the 
Army is the desire end state of this campaign. The campaign's key tasks 
are to:
  --provide Commanders the tools to manage their soldiers' medical 
        requirements;
  --coordinate, synchronize and integrate wellness, injury prevention, 
        and human performance optimization programs across the Army;
  --identify the MNR population;
  --implement medical management programs to reduce the MNR population;
  --assess the performance of the campaign; and
  --educate the force.
    Those soldiers who no longer meet retention standards must navigate 
the physical disability evaluation system (PDES). The present 
disability system dates back to the Career Compensation Act of 1949. 
Since its creation problems have been identified include long delays, 
duplication in DOD and VA processes, confusion among servicemembers, 
and distrust of systems regarded as overly complex and adversarial. In 
response to these concerns, DOD and VA jointly designed a new 
disability evaluation system to streamline DOD processes, with the goal 
of also expediting the delivery of VA benefits to servicemembers 
following discharge from service. The Army began pilot testing the 
disability evaluation system (DES) in November 2007 at Walter Reed Army 
Medical Center and has since expanded the program, now known as the 
IDES, to 16 MTFs. DOD has replaced the military's legacy disability 
evaluation system with the IDES.
    The key features of the IDES are a single physical disability 
examination conducted according to VA examination protocols, a single 
disability rating evaluation prepared by the VA for use by both 
Departments for their respective decisions, and delivery of 
compensation and benefits upon transition to veteran status for members 
of the Armed Forces being separated for medical reasons. The DOD and VA 
continue to move towards reform of this process by identifying steps 
that can be reduced or eliminated, ensuring the servicemembers receive 
all benefits and entitlements throughout the process. Within the Army, 
I recently appointed a task force focused on examining the Integrated 
Disability Evaluation Process in parallel with ongoing MHS efforts. The 
AMEDD is committed to working collaboratively with our partners across 
the MHS to seek solutions that will best serve those who have 
selflessly served our country.
    I would like to close today by discussing the Army Medicine 
Promise. The Promise, a written covenant that will be in the hands of 
everyone entrusted to our care over the next year, tells those we care 
for what we, the Army Medicine team, believe they deserve from us. It 
articulates what we believe about the respect and dignity surrounding 
the patient care experience. The Promise speaks to what we believe 
about the value of the care we deliver, about the compassion contained 
in the care we deliver and how we want to morally and ethically provide 
care for those we serve. I'll share two items from the Promise with 
you.

    ``We believe our patients deserve a voice in how army medicine 
cares for them and all those entrusted to our care.''

    Our patients want to harness innovation to improve or change their 
health and we are empowering their efforts via our wellness centers. At 
our premier wellness clinics, we collaborate with patients to not only 
give them the tools they need to change their health but also a 
lifespace partner to help them change their life. Our wellness clinics 
are new and still evolving, but I am committed to increasing their 
numbers and expanding their capabilities in order to dramatically 
impact those more than 500,000 minutes out of the year when our 
patients are living life outside the walls of our hospitals. The 
wellness clinics allow us to reach out to those we care for rather than 
them having to reach in.

    ``We believe our patients deserve an enhanced care experience that 
includes our belief in their desire to heal, be well, and have an 
optimal life.''

    The warrior transition care comprehensive transition plan supports 
this promise by providing countless wounded warriors with a dynamic 
plan for living that focuses on the soldier's future across six domains 
of strength--career, physical, emotional, social, family, and spiritual 
strength. The plan empowers soldiers to take control of their lives.
    In conclusion, the AMEDD has served side-by-side with our sister 
services in Iraq and Afghanistan, and at home we will continue to 
strengthen those collaborative partnerships to provide responsive, 
reliable, and relevant healthcare that ensures a healthy fighting force 
and healthy families. To succeed, we must remain ready and relevant in 
both our medical proficiencies as well as our soldier skills. We will 
continue to serve as a collaborative partner with community resources, 
seek innovative treatments, and conduct militarily relevant research to 
protect, enhance, and optimize soldier and military family well-being. 
Soldiers, airmen, sailors, marines, their families, and our retirees 
will know they are receiving care from highly competent and 
compassionate professionals.
    I am incredibly honored and proud to serve as the 43rd Surgeon 
General of the Army and Commander, U.S. Army Medical Command. There are 
miracles happening at our command outposts, forward operating bases, 
posts, camps, and stations every day because of the dedicated soldiers 
and civilians that made up the AMEDD. With continued support of the 
Congress we will lead the Nation in healthcare, and our men and women 
in uniform will be ready when the Nation calls them to action. Army 
Medicine stands ready to accomplish any task in support of our 
warfighters and military family.

    Chairman Inouye. Thank you very much, General.
    I have a question I'd like to ask the whole panel. In 2003, 
the Nurse Chiefs of all the services had an increase in their 
rank to two stars. Last month, the Congress received a 
directive from the DOD. In this directive, they suggested, or, 
in fact, mandated that this promotion be repealed and nurses 
will become one star again.
    In 1945, when I was in my last hospital stage, the chief of 
the Nurse Corps in the Army was a colonel. The senior nurse in 
my hospital was a captain. And throughout my care, I saw the 
physician once a week. I saw the nurse 7 days a week, every 
day, every hour. And I felt, as most of the men in that ward, 
that something was drastically wrong. And so I was happy when 
the announcement was made to increase it to two stars, but now 
there's one star. I want you to know that I'm against this, and 
I think this is not the right thing to do at this moment in our 
medical history.
    So, I'd like to ask you, what effect will this have on the 
services? Will it have a negative effect? Will it affect the 
morale? Will it affect the service?
    May I start with the Admiral?
    Admiral Nathan. Thank you for the question, Mr. Chairman. 
And may I echo your sentiment about military nursing and the 
role it plays, especially these days, as we compartmentalize 
house staff and physician training, and limit the hours. The 
military nurse is often the most steadfast provider, from a 
continuity perspective, of the patient.

                         CHIEF NURSE CORPS RANK

    That said, I believe that some of the changes they have in 
mind don't prohibit a Navy Nurse Corps officer from obtaining 
the rank of two stars. While it just would not be automatically 
conveyed, they would compete among other one-star admirals and 
generals for the senior healthcare executive rank of two stars.
    I think one of the things that, and, again, you may want to 
get this specifically from your chiefs of the Nurse Corps, but 
one of the benefits that it may bring with it is automatic 
promotion to two stars then does limit, at least in the Navy, 
the number of officers we can promote from captain to one star 
in the Nurse Corps. And so, it may limit the actual numbers who 
are flag officers.
    But there will be--in the Navy, there will always be Nurse 
Corps admirals, and they will, as they have in years past, be 
able to compete for two stars, and many of them do. We have 
Nurse Corps officers who are in charge of many of our major 
medical facilities. They have, in the past, been in charge of 
our major medical centers. They run the major headquarters of 
the Bureau of Medicine and surgery. For those who compete 
successfully for the second star in different arenas, they can 
then relinquish chief of the Nurse Corps, and we're then at 
liberty to pick another one-star admiral to be the chief of the 
Nurse Corps.
    Thank you, Sir.
    Chairman Inouye. Thank you. General Horoho.
    General Horoho. Thank you, Senator. First, I'd like to 
thank you very much, because you've been extremely supportive 
in the rank structure that we've had across our military.
    This has really been a maturation process within Army 
Medicine. Over the last--I'd probably say the last 6 years, we 
have a leader development program that has allowed Army nurses 
to be very competitive for command, which is our stepping stone 
for general officer. And so we have nurses that are extremely 
competitive for a level one and level two command, and now very 
competitive for our branch and material one stars.
    So, since DOD has supported the direction of reducing from 
two stars to one star, I believe we have a leadership 
development program that will allow our nurses to actually 
compete across the board for all of the one stars and then be 
competitive for two stars in the future.
    Chairman Inouye. General Green.
    General Green. Sir, I would expand upon what Admiral Nathan 
said, in terms of not only are our nurses vital to the in-
patient arena but in the patient-centered medical homes, and 
the things that we're doing with--they have much more contact 
with the out-patient as well, because of their roles as case 
managers and disease managers. And so, they do, certainly, I 
agree with you, is what I'm saying, have an extremely vital 
role.
    In terms of general officers, because of the economy and 
the Department's decision to take efficiencies, the Air Force 
concurs. Actually, we're the smallest of the medical services. 
We will lose 1 net general officer, going from 12 to 11. If the 
decision is made to not go directly to two star, we will still 
have a one-star nurse, who will have the same responsibilities 
in terms of oversight of nursing and other important programs.
    We also, like the Army, have a very strong leadership 
development program, and I believe our nurses will compete very 
well, because there's nothing in the proposal that's come to 
you that would restrict them from competition for two star, it 
just doesn't make that particular corps position an automatic 
two star.
    Thank you, Sir.
    Chairman Inouye. Well, I thank you very much, but I can 
assure you that I will be voting and speaking against it.

                              TRICARE FEES

    I'd like to ask this question of the Admiral. In the fiscal 
year 2013 budget, it is assumed that $423 million in savings 
will be based upon new TRICARE enrollment fees and increases in 
co-pay for prescription drugs. The House has just announced 
that this will not pass muster in the House. It will not see 
the light of day. What is your thought?
    Admiral Nathan. Thank you, Sir. This is clearly an issue 
that's front and center among many organizations, both in our 
Nation's leadership, the military leadership, and our 
beneficiary populations.
    We recognize that the cost of healthcare has escalated 
dramatically. In 2001, the Department of Defense (DOD) spent 
approximately $19 billion on its Defense Health Program (DHP). 
And this year, it's approximately $51 billion, and expected to 
reach the $60 billion point in the next few years.
    So, the onus is on us to look for ways to sustain the 
healthcare benefit, to continue to fund it, to keep faith with 
our beneficiaries, to keep faith with those men and women who 
paid with years of service, and often with sacrifice of their 
lives and their families to earn this benefit.
    Given the resource constraints and trying to get a handle 
on healthcare costs, we are looking at organizational changes, 
governance changes, trying to find efficiencies through 
transparency increased efficiency, reducing redundancy among 
the services, and finding more joint solutions. The other was 
to determine if the healthcare cost to the beneficiary has kept 
up over the last 15 years with the total benefit package that 
beneficiaries receive.
    Neither I nor my colleagues here were involved in the 
actual number crunching or the decisions of tiering or levels 
of tiering to the various beneficiaries, but we do understand 
that the cost of the healthcare beneficiary has remained 
unchanged, and actually decreased in relative dollars over the 
last 10 to 15 years. The TRICARE enrollment fees have remained 
static at about $400 to $500 per year, since the 1990s. The 
drug co-pays have changed very little. And, in fact, there have 
been additional programs implemented including TRICARE For 
Life, and others, which have greatly increased the cost to the 
Government for beneficiary healthcare.
    So, the bottom line, Sir, I believe this is an effort to 
try to find a fair increase in the participation of the 
beneficiaries that is commensurate or not above the benefits 
actually received over the last several years.
    And I'll just close by saying, I recognize the emotion 
here. I'm an internal medicine doctor. I take care of a large 
population of patients for whom these changes may affect. We 
always worry about whether or not we're keeping or breaking 
faith with the commitment they made and the benefits they 
should receive. I'm vitally interested in making sure that we 
can have a sustainable program that would allow retirees and 
their family members to continue to get this benefit, and I 
believe this is part and parcel of this effort.
    Thank you, Sir.
    Chairman Inouye. Thank you, Admiral.
    Generals Green and Horoho, do you have any comments to 
make? I'm just curious. The military leadership, in general, 
seems to be supportive, but I'd like to know what the thoughts 
of families and troops may be, because they're not here to 
testify. Have you heard from them?
    General Green. Sir, we're hearing from the coalition the 
same as I'm sure you are now, in terms of their representatives 
to this process, because the proposed fee increases would 
affect the Active Duty and their family members very minimally, 
in terms of some of the co-pays with pharmacy, and if they 
happen to be in TRICARE Prime, the change to the catastrophic 
cap could affect those. We're not hearing too many things from 
our Active Duty population.
    The retirees, who bear the brunt of some of the cost 
increases, I think they're being very vocal, and we're hearing 
from all of the different agencies and representative groups 
telling us that they're not supporting the activities that are 
being proposed.
    The Air Force supports the Department's position. On a 
personal level, obviously, I am going to be someone who is 
joining the ranks of retirees, and will be paying these fees.
    General Green. And I would tell you that there is a 
mismatch right now, over the years, based on the inflation that 
is in the healthcare indexes that goes into the cost-of-living 
increases that's not been brought back to the beneficiaries.
    And so, in other words, we've been giving cost-of-living 
increases to the retirement, but we haven't been increasing any 
of the out-of-pocket costs. And so, although you're getting 
money that's respective of the healthcare inflation, you're not 
actually paying any of the healthcare costs that have come up.
    And so, I believe that the out-of-pocket costs need to 
increase, and on a person that would be willing to pay the fees 
that are proposed. I do think that, you know, there may be 
other ways that we could reach a similar endpoint, but the 
Department has put considerable work and had taskforce that is 
basically brought this forward, which is why the Air Force 
supports the Department's position at this time.
    Chairman Inouye. General Horoho.
    General Horoho. Sir, in addition to what my colleagues have 
said, I think where we've heard back is more from the 
coalitions that are out there. Senior leaders that are retired 
have been very supportive of this, of wanting to ensure that 
our military benefit continues. And so, their feedback has been 
in support of the fee increases.
    And in addition to DOD, or with the fee increases, I think 
really what's at stake is the need for all of us to be 
critically looking at our programs and our processes, and 
figure out where we have redundancies, so that we can look at 
saving dollars in other areas to offset some of the rising 
costs in healthcare for the future.
    Chairman Inouye. Thank you very much.
    Vice Chairman.
    Senator Cochran. I'm pleased to join you in welcoming our 
distinguished panel in thanking you for the responsibilities 
you've assumed under the jobs that you now have, and the work 
you are doing for our Armed Forces. We think it's very 
important that we provide a standard of hospital and nursing 
care, and medical assistance to our men and women in uniform, 
and we know that you're responsible in your services for seeing 
that that becomes a reality, and it is ministered in a way 
that's sensitive to the needs of our military men and women in 
service, and also sensitive to the retirees as they become more 
concerned about costs, and cost-of-living adjustments, and 
availability of services. And we share those concerns, and we 
know that you'll do your best to help meet the challenges that 
your official duties require.
    So, that's a long way of saying thank you for doing what 
you do. We want to be sure that we provide the resources that 
are necessary to ensure a sensitive and professional standard 
of care that is commensurate with the sacrifice and service, 
and the importance of that to our Nation.
    In your assessment, let me just start here, General Horoho, 
thank you for your comments that you've already made in your 
statement and in your answers to Senator Inouye's questions. 
What, if anything, do you think we could do in terms of 
targeting funding or making changes in the support that we 
provide as the Congress to the Army's medical needs and 
generally speaking to those who are responsible for managing 
these funds? Is the level of funding adequate to carry out our 
responsibilities to the men and women in the Armed Forces?
    General Horoho. Thank you, Vice Chairman, for that 
question.
    Right up front, the funding this year is absolutely 
adequate for us to be able to meet our mission. The area that I 
think will be critical to ensure that we continue with funding 
will be the funding for our scholarship programs that allows us 
to bring in the right talent, so our physicians, our dentists, 
and our nurses, and our social workers, I think, that's very, 
very critical, so that we sustain the right talent to be able 
to care for our warriors in the future.
    The other area that I think is critical to make sure that 
we have the right funding for is the care for our warriors with 
our warrior transition units. As we draw down as an army, we 
will continue to have a large number of patients that we will 
need to care for for their psychological wounds, as well as 
physical injuries that have occurred over the last 10 years. 
And so, those are probably the two most important areas that I 
think we need to ensure that funding remains available.
    Senator Cochran. Thank you.
    General Horoho. Thank you.
    Senator Cochran. Admiral Nathan, what's your response to 
the same question?

                    MILITARY MEDICAL PROGRAM FUNDING

    Admiral Nathan. Thank you, Sir.
    Again, we certainly believe that the funding is adequate to 
meet our mission from the President's budget for fiscal year 
2013. The areas that we remain concerned about, as we see 
looming budget pressures, are, in many ways, in concert with 
what General Horoho said. We want to make sure that our wounded 
warrior programs, especially those that facilitate transition, 
remain intact. We want to continue to partner with not only our 
military but our private sector and academic partners, and 
finding best practices, and to engage them in programs, so that 
we can create a unified approach to some of the more vexing 
challenges from 10 years of war, including post-traumatic 
stress and TBI.
    We're also committed to military medical engagement via 
humanitarian assistance disaster relief in our overseas 
facilities. We believe they are great ambassadors of the 
American passion, the American ethos, and show an American 
military that brings light and help as much as it can bring 
heat. So we're also hoping to make sure that those remain 
robust, and an everlasting presence of what we do in the 
military, as well as our support of the kinetic operations.
    Thank you.
    Senator Cochran. Thank you.
    General Green.
    General Green. And Sir, our budget is also adequate. I mean 
it meets all of our needs this year. All of our programs are 
fully funded.
    I would add one thing to the scholarship request of General 
Horoho, and that is that I would tell you that I think we also 
need to be certain to fund our Uniform Services University, 
because they give us a highly professional officer that stays 
with us much longer than some of the folks who are just with 
the scholarships, and coming from our outside medical schools.
    In addition to that, I would ask that you watch very 
carefully to ensure that we still have funding for research, 
and TBI, and PTSD. I think that we're learning a great deal, 
and we need to learn more because of this burgeoning problem, 
as we bring people home from the wars.
    And finally, one thing that's kind of outside of your 
question, but I would tell you that to make certain that we are 
actually doing the best job possible with the money, I would 
tell you that we need to move towards a single financial 
accounting system for DHP dollars. Whichever one is chosen 
would be fine, but I think to avoid redundancy and to make 
certain that we're delivering the most efficient healthcare, we 
need a single system that actually gives us visibility of all 
programs within the DHP.
    Thank you, Sir.
    Senator Cochran. Thank you.
    For those of us who don't hear the terms used by the 
military every day, TBI means ``traumatic brain injury,'' 
doesn't it?
    General Green. Yes, Sir.
    Senator Cochran. Okay.
    General Green. Yes, Sir. And post-traumatic stress. And 
then the DHP is ``Defense Health Program.''
    Senator Cochran. Good. Thank you.
    Chairman Inouye. Thank you very much.
    Senator Mikulski.
    Senator Mikulski. Mr. Chairman, after I conclude these 
questions, I have to go to the NIH hearing, so I just want to 
say to the second panel of nurses, we really salute you for 
your service, and echo the comments made by the chairman. And I 
just want to say to you and to the people who are also part of 
our military Nurse Corps service, you are stars. You are stars. 
We just want to make sure you have the chance to wear them on 
your shoulders. So, we want to thank you for that.
    And also, Mr. Chairman, I hope, as we look at this, we 
continue, as we listen to our Nurse Corps, focus on workforce 
needs, both doctors and nurses, and then other areas of allied 
health, to make sure we have all that we need to do to backup.
    Now, let me go right to my question. First of all, I think 
we want to say to all of those serving in military medicine, 
what stunning results we've achieved in acute battlefield 
medicine. I think you're breaking history books in terms of 
lives saved, and it's an unparalleled seamless network, 
General, from response on the battlefield, to the transport 
through the Air Force, to Germany, back home here. So, we 
really want to thank you for that, and General Green, for you, 
and all of those who serve in the Air Force.
    But, let me get to my question, because it goes to, we have 
two challenges. War is war. So, there are those who suffer the 
injuries, because of the weapons of war. This is a whole genre 
that we're focusing on. But then there's the consequences of 
war, and the consequences of the military, so it's those who 
are Active in duty, and then their families.
    Much has been said now about resiliency. Resiliency. So 
that no matter what happens to you, even going in that white 
space, General Horoho, that you talked about is there.
    So, here is my question, and you refer to it in many of 
your testimony: The medical home. You talk about your new 
partnerships with Samueli Institute, headed by a former Walter 
Reed doc, the Bravewell collaborative. Could you share with me 
what this whole issue of resiliency and the use of 
complementary and integrative techniques, and tell me where we 
are, when the momentum that was created by Admiral Mullen, 
General Schoomaker, and other of our surgeon generals, on this 
whole idea of resiliency wellness that facilitated being ready 
for combat, support that the family embraced, and then, quite 
frankly, in their recovery.
    Did they have a good idea? So, could you tell me what 
you're doing, and does it have efficacy?
    General Horoho. Thank you, Senator, for the question.
    We are continuing to build upon the prior efforts of 
Admiral Mullen, General Casey, as well as General Schoomaker, 
and really looking at how do we ensure that we focus on the 
mind, body, spirit, and soul of our warriors and their family 
members. And we've learned over this 10-year conflict that we 
can't just treat our warriors, that we absolutely have to treat 
the family, because it impacts on both.
    So, we've started with the platform of having patient-
centered medical homes, really focusing on continuity of care, 
and wellness, and managing their care. We've also stood up 
community-based clinics, and so, we have pushed healthcare out 
into the communities where the patients live, with one standard 
of care of being very much focused on embedding behavior health 
in our primary care, as well as our community-based clinics.
    We've stood up a pain management taskforce that is now on 
its second year, and last year it was nationally recognized for 
the work that was done. Those recommendations from the pain 
management taskforce are now going to be implemented this year. 
We'll have nine across each one of our major medical centers, 
and the complimentary and integrative medicine that occurs with 
that, so we're incorporating yoga, acupressure, acupuncture, 
mindfulness, sleep management, and really trying to get to more 
of the prevention when we look at healthcare and wellness. 
We've taken these concepts and integrated some of these on the 
battlefield.
    When I was deployed in Afghanistan, we had many areas where 
we actually coordinated care with behavior health and 
concussive care, and incorporated some of the mindfulness 
training there, and sleep management.
    Senator Mikulski. Has that had efficacy? I mean, you know, 
we make much of evidence-based medicine, and I think we're all 
there. We can't afford to waste time or dollars. So, could you 
talk about the efficacy of those efforts? Were Mullen and all 
of them on the right track?
    General Horoho. I do believe we're on the right track. We 
have seen a decrease in the reliance of poly-pharmacy.
    Senator Mikulski. Does that mean drugs?
    General Horoho. Yes, Ma'am. Multiple drugs. We've had many 
of our warriors that have used yoga, and acupressure, and 
acupuncture vice narcotic pain medicine. So, we are seeing help 
in that area.
    We also have a patient caring touch system that has been 
rolled out that's one standard of care across all of Army 
Medicine. And with that, we have seen a decrease in medication 
errors. We've seen an increase in documentation of pain 
management. We've seen a decrease in left without being seen in 
our emergency rooms. So, increase in continuity of care. So, we 
are seeing critical lab values that are equating to better 
patient outcomes. And we've got a ways to go, as we look at how 
do you measure wellness. What are the metrics that we should be 
looking at that really measures wellness and improved mental 
and spiritual health? So, we've got tremendous work to do in 
that area, but I do believe we're moving in the right 
direction.
    Senator Mikulski. Well, and I think it goes to the recovery 
from them, also, because that deals with many of the 
consequences of frequent deployments, the stresses, et cetera.
    Admiral Nathan, did you want to comment on that, because 
you also, in your testimony, talked about body, mind, spirit 
medicine, which is the whole warrior, and the support of the 
warrior.
    Admiral Nathan. Yes, Ma'am.
    Senator Mikulski. The family support.
    Admiral Nathan. Thank you, Senator. You made two great 
points in your question. One is, how do we support the warrior 
and the family while they're deployed in operations, undergoing 
warfare, and then, how do we support them as a unit when they 
return home as a family unit, seeking care in a garrison 
environment?

              WOUNDED WARRIOR AND FAMILY SUPPORT PROGRAMS

    Some of these things have been touched on. We have 
unprecedented surveys now and assessments of our personnel on 
deployments. We have the behavioral needs assessment study, 
which is done of all our individual augmentees in the Navy. The 
Marines have a similar program, where they are all surveyed. 
We've actually seen, because of this interaction, a decrease in 
the stigma of seeking help. We've seen a decrease in the rate 
of psychotropic drugs, basically antidepressants being used on 
the battlefield, in our populations.
    Senator Mikulski. That's pretty big, isn't it?
    Admiral Nathan. I think so. And I think we can attribute it 
to the engagement that the services now have in training not 
only the medical professionals who are deployed but the line 
officers and the operators who are deployed along with our 
servicemembers.
    In the Navy and Marine Corps, we have the combat and 
operational stress control (COSC) training and the operational 
stress control and readiness (OSCAR) training. These are 
embedded teams, with mental health professionals, and corpsmen 
and medics, who have been trained to engage and embed with the 
war-fighting forces.
    In the Marine Corps, we've trained more than 5,000 marines 
who are battalion commanders, garrison commanders, squadron 
commanders on the signs and symptoms of stress, of depression, 
of looking for those first tips of somebody who's starting to 
bend before they break. I think that has helped us both in 
getting people referred earlier and in destigmatizing the 
scenario where somebody raises their hand and says, ``I'm not 
doing well.''
    In the family units, we have now 23 Families Overcoming 
Under Stress (FOCUS) locations, which are centered on taking 
care of children, families, the warrior themselves. It has a 
variety of outreach programs to take care of kids who are 
either failing in school or suffering from the parent being 
deployed. These can be reached both by walking in, making 
appointments, and virtually by telephone.
    For the Reserve community, we have the Psychological Health 
Outreach Program, which both can be reached by telephone or 
remotely walking in. We also have the Returning Warrior 
Workshops. The returning warrior from Reserves and spouse 
attend one of these, and they're held on the weekends. They're 
an intensive 72-hour program, where all the facilities and 
programs are made available to them.
    Senator Mikulski. Admiral Nathan, I think in the time for 
the subcommittee members----
    Admiral Nathan. Yes, Ma'am.
    Senator Mikulski. And the Chairman's being generous, if we 
could have kind of a white paper or something from you on this, 
because I think all of us want to certainly help our warriors 
who have endured injury from the weapons of war, and I want to 
be sure that we have the right resources for you to be able to 
do the right things, with the consequences of war. And you seem 
to have an excellent program. It has momentum. It has 
demonstrable efficacy. I'd like to have a description of it in 
more detail, and whether, again, you have the resources to do 
it.
    Admiral Nathan. Happy to do that.
    [The information follows:]

    Navy Medicine continues to foster a culture of support for 
psychological health as an essential component to total force fitness 
and readiness. Operational Stress Control programs provide sailors, 
marines, leaders, and families the skills and resources to build 
resiliency. We also address stigma by encouraging prevention, early 
intervention, and help-seeking behaviors.
    We have made remarkable progress in ensuring our wounded 
servicemembers get the care they need--from medical evacuation through 
inpatient care, outpatient rehabilitation to eventual return to duty or 
transition from the military. Our programs of support, which are 
adequately resourced, continue to mature and show progress. Our 
emphasis remains ensuring that we have the proper size and mix of 
mental health providers to care for the growing need of servicemembers 
and their families who need care. Within Navy Medicine, mental health 
professional recruiting and retention remains a top priority.
    Our focus continues to be embedding psychological health providers 
in Navy and Marine Corps units, ensuring primary and secondary 
prevention efforts, and appropriate mental healthcare are readily 
accessible for sailors and marines. The U.S. Marine Corps (USMC) Combat 
and Operational Stress Control program uses Operational Stress Control 
and Readiness (OSCAR) as an approach to mental healthcare in the 
operational setting by taking mental health providers out of the clinic 
and embedding them with operational forces to emphasize prevention, 
early detection, and brief intervention. More than 5,000 marine leaders 
and individual marines have already been trained in prevention, early 
detection, and intervention in combat stress through OSCAR Team 
Training and will operate in OSCAR teams within individual units.
    We are also embedding psychological health providers in the primary 
care setting where most servicemembers and their families first seek 
assistance for mental health issues. This practice enhances integrated 
treatment, early recognition, and access to the appropriate level of 
psychological healthcare. The Behavioral Health Integration Program in 
the Medical Home Port is a new program that is actively being 
implemented across 69 Navy and Marine Corps sites.
    Traumatic brain injury (TBI) care on the battlefield has improved 
significantly since the beginning of Operations Enduring Freedom and 
Iraqi Freedom. Most improvements have targeted early screening and 
diagnosis followed by definitive treatment. In 2010, the Department of 
Defense (DOD) issued the Directive-type Memorandum 09-033, which has 
resulted in improved diagnosis and treatment of battlefield concussion. 
For the Navy and Marine Corps, the primary treatment site for concussed 
servicemembers has been the Concussion Care Restoration Center (CRCC) 
at Camp Leatherneck in Afghanistan. Since its opening in 2010, CRCC 
staff have treated more than 930 servicemembers with concussions, 
resulting in a greater than 98-percent return-to-duty (RTD) rate and an 
average of 10.1 days of duty lost from point-of-injury to symptom-free 
RTD. There is also a Concussion Specialty Care Center (CSCC) at the 
NATO Role III Hospital in Kandahar, with a neurologist on staff.
    Upon return from deployment, enhanced screening methods for TBI and 
mental health conditions are being piloted at several Navy and Marine 
Corps sites. These efforts include additional screening and follow-up 
for any servicemember who was noted to have sustained a concussion in 
theater. Efforts are underway to increase the use of the National 
Intrepid Center of Excellence (NICoE) across DOD and Navy, and the 
development of NICoE satellite sites, to provide state-of-the-art 
evaluation and treatment for those patients who do not improve with 
routine clinical care.
    Additional examples of support programs throughout Navy Medicine 
include:
      Overcoming Adversity and Stress Injury Support.--Overcoming 
        Adversity and Stress Injury Support (OASIS) is a residential 
        post-traumatic stress disorder treatment program at the Naval 
        Medical Center San Diego. It opened in August 2010, onboard the 
        Naval Base Point Loma and is providing intensive mental 
        healthcare for servicemembers with combat-related mental health 
        symptoms from post-traumatic stress disorder, as well as major 
        depressive disorders, anxiety disorders, and substance abuse 
        problems. Care is provided 7 days a week for 1,012 weeks, and 
        servicemembers reside within the facility while they receive 
        treatment.
      Families Over Coming Under Stress.--Families Over Coming Under 
        Stress (FOCUS) is a family psychological health and resiliency 
        building program that addresses military family functioning in 
        the context of the impact of combat deployments, multiple 
        deployments, and high-operational tempo. The application of a 
        three-tiered approach to care: community education, psycho 
        education for families, and brief treatment intervention for 
        families has shown statistically significant outcomes in 
        increasing family functioning and decreasing negative outcomes 
        such as anxiety and depression in both parents and children. 
        The program serves Active Duty and Reserve families. Families 
        can access the program through a direct self-referral, 
        referrals by military treatment facility providers, community 
        providers such as Fleet and Family Service Centers, chaplains, 
        and schools. There are currently 23 FOCUS locations operating 
        at 18 installations.
      Reserve Psychological Health Outreach Program.--Reserve 
        Psychological Health Outreach Program (PHOP) was developed for 
        our Navy and Marine Corps Reserve populations. The program 
        provides psychological health outreach, education/training, and 
        resources a 24/7 information line for unit leaders or 
        reservists and their families to obtain information about local 
        resources for issues related to employment, finances, 
        psychological health, family support, and child care. PHOP now 
        includes 55 licensed mental health providers dispersed 
        throughout the country serving on 11 teams located centrally to 
        Navy and Marine Force Reserve commands.
      Returning Warrior Workshop.--The Returning Warrior Workshop (RWW) 
        is a dedicated weekend designed to facilitate reintegration of 
        sailors and marines returning from combat zones with their 
        spouses, significant others. RWWs are available to all 
        individual augmentees, both Active Duty and Reserve, and are 
        considered the Navy's ``signature event'' within the Yellow 
        Ribbon Reintegration Program. The RWW employs trained 
        facilitators, including the PHOP teams and chaplains, to lead 
        warriors and their significant others through a series of 
        presentations and tailored break-out group discussions to 
        address post-combat stress and the challenges of transitioning 
        back to civilian life. RWWs assist demobilized servicemembers 
        and their loved ones in identifying and finding appropriate 
        resources for immediate and potential issues that often arise 
        during post-deployment reintegration. As of September 2011, 
        more than 10,000 servicemembers and their families have 
        participated in RWWs. RWWs assist demobilized servicemembers 
        and their loved ones in identifying immediate and potential 
        issues that often arise during post-deployment reintegration.
      Substance Abuse Rehabilitation Programs.--Navy Medicine maintains 
        a steadfast commitment to our Substance Abuse Rehabilitation 
        Programs (SARPs). SARPs offer a broad range of services to 
        include alcohol education, outpatient and intensive outpatient 
        treatment, residential treatment, and medically managed care 
        for withdrawal and/or other medical complications. We have 
        expanded our existing care continuum to include cutting-edge 
        residential and intensive outpatient programs that address both 
        substance abuse and other co-occurring mental disorders 
        directed at the complex needs of returning warriors who may 
        suffer from substance abuse disorders and depression or post-
        traumatic stress disorder (PTSD). In addition, Navy Medicine 
        has developed a new program known as My Online Recovery 
        Experience (MORE). In conjunction with Hazelden, a civilian 
        leader in substance abuse treatment and education, MORE is a 
        ground-breaking Web-based recovery management program available 
        to servicemembers 24/7 from anywhere in the world.
    Navy Medicine is committed to connecting our wounded warriors to 
approved emerging and advanced diagnostic and therapeutic options 
within our medical treatment facilities and outside of military 
medicine. We do this through collaborations with major centers of 
reconstructive and regenerative medicine while ensuring full compliance 
with applicable patient safety policies and practices. We will continue 
our active and expansive partnerships with the other Services, our 
Centers of Excellence, the VA, and leading academic medical and 
research centers to make the best care available to our warriors.

    Senator Mikulski. Thank you very much. And thank you, 
everybody, for what you're doing.
    Chairman Inouye. Thank you.
    Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you very much, Mr. Chairman.
    General Horoho, you and I have had a number of discussions 
about the invisible wounds of war and the challenges soldiers 
are facing, seeking behavioral healthcare. And as you well 
know, Madigan Army Medical Center, in my home State of 
Washington, is dealing now with how to handle these wounds and 
provide our soldiers quality consistent care, especially for 
our soldiers who are going through the Integrated Disability 
Evaluation System (IDES).
    Now, I think some of the issues that have been raised at 
Madigan are unique to that facility, but I do continue to have 
a number of concerns, not only about the situation at Madigan 
today but the implication for our soldiers, really, across the 
Army who may have also struggled to get a proper diagnosis, 
adequate care, and an honest evaluation during the integrated 
disability system process.
    I wanted to ask you today, prior to 2007, Madigan did not 
use the forensic psychiatry to evaluate soldiers in the medical 
evaluation board process, and wanted to ask you before the 
subcommittee today, why was that system changed in 2007?
    General Horoho. Thank you, Senator, for the question.
    The first thing that I'd like is just pick up on the word, 
when you said ``invisible wounds.'' I know it has been said 
during this war that the signature wound is an invisible wound. 
I would submit that it's not invisible to the family, nor is it 
invisible to the soldier that is undergoing those challenges, 
behavioral challenges.
    The reason, and I'm guessing on this, Ma'am, because I 
wasn't there, you know, prior to, but prior to 2007, we were a 
Nation that entered into war in about 2001, when we were 
attacked, and 2002 timeframe. And we had a very old system. 
That was the Medical Hold (MEDHOLD) and the Medical Holdover 
(MEDHOLDOVER) system, which was two separate systems on how we 
managed those servicemembers, Active and Reserve component. And 
that was the system that has been in place for many, many 
years.
    And what we found with the large number of deployments and 
servicemembers that were exposed to physical wounds, as well as 
behavioral health wounds is that we found that the Army system 
was overwhelmed, and that really is what was found in the 2007 
timeframe, is that we didn't have the administrative capability 
as well as the logistical support that needed to be there. And 
that's why we stood up our warrior transition units.
    So, we had a large volume going through the disability 
process that was an old antiquated process, and we had an 
overwhelming demand on our Army that we needed to restructure 
to be able to support and sustain.
    Senator Murray. But prior to 2007, there wasn't a forensic 
psychiatry that added an additional level of scrutiny. Is that 
correct?
    General Horoho. I honestly will need to take that for the 
record, because I don't know in 2006 if they had forensics or 
not. So, I can't answer that question for you. I would like to 
give you a correct answer.
    Senator Murray. Okay.
    General Horoho. So, if I could take that one for the 
record.
    [The information follows:]

    While forensic psychiatry has been in the Army inventory for many 
years, there was no separate forensic psychiatry department at Madigan 
Army Medical Center (MAMC) prior to 2007, and they did not provide 
forensic evaluations in routine disability assessments unless it was 
determined that a forensic evaluation was specifically required. 
Forensic psychiatry evaluations are appropriate in civil and criminal 
legal proceedings and other administrative hearings, as well as 
independent determinations of specialized fitness for duty issues where 
the basis of the diagnosis in not clearly determined.

    Senator Murray. I would appreciate that. And as I 
mentioned, I am really concerned that soldiers Army-wide have 
been improperly diagnosed and treated by the Army. What have 
you found, under your investigation, of soldiers getting 
incorrect Medical Evaluation Board (MEB)/Physical Evaluation 
Board (PEB) evaluations at other facilities?
    General Horoho. Ma'am, if I could just, when soldiers are 
getting diagnosed with post-traumatic stress (PTS) or post-
traumatic stress disorder (PTSD), we use the same diagnostic 
tool within the Army, Navy, and the Air Force, which is the 
same tool that is used in the civilian sector. So, it is one 
standard diagnostic tool that is very well-delineated on the 
types of symptoms that you need to have in order to get a 
diagnosis of PTS or PTSD.
    So, we are using that standard across the board, and we 
have been using that standard across the board.
    Senator Murray. Well, we do know now at Madigan there were 
soldiers that were incorrectly diagnosed. And we're going back 
through, there's several investigations going on to re-
evaluate. And my question is, there's been a lot of focus at 
Madigan. I'm concerned about that system-wide. And you're doing 
an investigation system-wide to see if other soldiers have been 
incorrectly diagnosed. Correct?
    General Horoho. Yes, Ma'am. So, if I can just lay things 
out and reiterate some of our past conversations. We have one 
investigation that is ongoing. Actually, it's completed. And 
it's with the lawyers. That's being reviewed. The Deputy 
Surgeon General, General Stone, initiated that investigation. 
And that was to look into----
    Senator Murray. System-wide?
    General Horoho. No, Ma'am. That's the one at Madigan that's 
looking at the forensics.
    Then, there's another investigation that was launched by 
the Western Region Medical Command to look into the command 
climate at Madigan Army Medical Center. And then what I 
initiated was an Inspector General (IG) assessment, not an 
investigation, but an assessment that looked at every single 
one of our military treatment facilities and the provision of 
care to see whether or not we had this practice of using 
forensic psychiatry or psychology in the medical evaluation 
process.
    Senator Murray. Okay. Well, my question was whether you had 
found at other facilities, incorrect diagnosis. And I want you 
to know that I have asked my Veterans Affairs Committee staff 
to begin reviewing cases from throughout the country of 
servicemembers involved in this process, and we are just 
beginning our review right now. But, we have already 
encountered cases in which a servicemember was treated for PTSD 
during their military service, entered the disability 
evaluation process, and the military determined that the 
servicemember's PTSD was not an unfitting condition.
    So, my concern is the significant discrepancy now between 
the Army's determination and the VA's finding that the soldier 
had a much more severe case of PTSD. Now, our review on my 
subcommittee is ongoing, but besides bringing individual cases 
to your attention, I wanted to ask you what specific measures 
do you look at to evaluate whether soldiers are receiving the 
proper diagnosis, and care, and honest evaluation.
    General Horoho. Within the Army, our role as the physicians 
is to evaluate the patients, not to determine a disability. So, 
they evaluate and identify a diagnoses and a treatment plan. 
And then once that is done, during the treatment, and if they 
are determined where they need to go into the disability 
system, then once they're in the disability system, now, 
because of Integrated Delivery Evaluation System (IDES), that 
occurred in 2010, they now have that evaluation done by the VA, 
the compensation exam. That's the compensation and pension 
(C&P) exam that's done by the VA.
    And then they are brought back into the disability system. 
So, the PEB is actually where the determination for disability 
is made. That is not a medical. That's an administrative action 
that falls under our G-1. And so I just want to make sure we 
don't mix what we do within the medical community in treating 
and evaluating and what gets done in the disability process 
that's an administrative process, that is reviewing the 
evaluation from the VA, and then the evaluation from the 
medical to determine disability.
    Senator Murray. My concern is that every single soldier who 
has mental health disability, PTSD, gets the care that they 
need, and that they get the support that they need, and they're 
adequately cared for, whether they leave the service or are 
sent back overseas, or whatever. So, we're going to continue to 
look at the system-wide, and as you know, the problems at 
Madigan were allowed to go on for years, and I'm really 
concerned that that lack of oversight over the disability 
evaluation system is much more broad, and really, you're going 
to be following to see what steps you take to ensure that this 
process is maintained. Not just at Madigan, where there's a 
severe focus right now, but nationwide.
    General Horoho. And Ma'am, what we've done so far, since I 
took over as Surgeon General on the 5th of December, what I've 
done so far is we're pulling behavior health up to the 
headquarters level, and making that a service line, so that we 
have one standard of care across all of Army Medicine, and 
we're able then to shift that capability where the demand is.
    I've got a team that has developed clinical practice 
guidelines for the use of forensics, as well as clinical 
practice guidelines for implementation of behavior health 
capability across Army Medicine.
    Senator Murray. When will that be implemented?
    General Horoho. Those are, right now, being evaluated by 
the experts. So, we've had them written up, and now they're 
being evaluated, and then we'll get that rolled out probably 
within the next several weeks.
    Senator Murray. Okay. So, we have two issues. We need to go 
back and find every soldier that may have not gotten the proper 
diagnosis and evaluation, and we need to move forward quickly 
to make sure there is the same diagnostic tool moving 
nationwide.
    General Horoho. Ma'am, right now, we are using the same 
diagnostic tool as my Air Force, and Navy, and the civilian 
sector for evaluating PTSD.
    Senator Murray. Do you believe we're using the right 
diagnostic tools?
    General Horoho. It's the one standard that's out in the 
civilian sector as well as the military. It is the best 
standard that's out there for diagnosing.
    Senator Murray. Okay. And finally, I just wanted to ask 
you, in your testimony you said that you've created a taskforce 
within the Army to examine the IDES process in conjunction with 
the ongoing MHS efforts. What specific aspects of the IDES 
process are you reviewing?
    General Horoho. Yes, Ma'am. We did this first, from an Army 
perspective. So, prior to General Crowley leaving, we set up a 
taskforce that Brigadier General Lyon, who is a medical corps 
physician, Army, he led that, and that was with U.S. Army 
Forces Command (FORSCOM), the G-1, and as well as Army 
Medicine. So we had a collaborative process looking at every 
aspect within the IDES to ensure that we had metrics, and as 
well as standards across implementation throughout the IDES 
process.
    After that was done, we then stood up an Army Medicine 
taskforce to be able to look at it then, Deepdive, from the 
medical piece that we're responsible for. Brigadier General 
Williams led that taskforce. It was multifunctional in 
capability. Individuals with multiple capabilities sat on that. 
And what we want to do is to be able to launch our standards 
across, so that we have no variance in every place that we have 
soldiers that are going through the IDES process.
    Army is getting ready to put out an all Army activities 
(ALARACT) message Army-wide with the standard. That will be 
going out, I think, in the April timeframe. And then ours, 
we're ready now. As soon as the Army launches that, we'll be 
able to put our standards in that impacts our medical care.
    Senator Murray. When will this be complete?
    General Horoho. Ma'am, right now, we're looking at starting 
that in the April timeframe, and the rollout of those standards 
across. And so I can get back with you on how long that would 
take.
    [The information follows:]

    The Army issued DA EXORD 080-12 on February 17, 2012 which provides 
guidance for standardization of Integrated Disability Evaluation System 
(IDES) across the Army. The U.S. Army Medical Command subsequently 
issued MEDCOM OPORD 12-33 which operationalizes three main efforts to:
  --standardize the process;
  --build capacity; and
  --establish Soldier-Commander responsibilities.
    From 2007 to 2011, the Army deployed IDES across the force to 32 
sites and continue efforts to implement new IDES guidance.

    Senator Murray. Okay. I'd really appreciate that.
    General Horoho. I can tell you that my full focus is 
ensuring that we do have a system, and I believe that everyone 
is focused on caring for our warriors. We're very committed to 
that. And we're looking at everywhere where we have variance, 
so that we can decrease that variance, and be able to ensure 
that we have one standard across Army Medicine.
    Senator Murray. Well, thank you very much. Thank you to 
your attention to this.
    Mr. Chairman, this is a serious issue. I've sat and talked 
with numerous soldiers and families who were diagnosed with 
PTSD, were getting care, and then as they went through the MEB 
process, were told they didn't have PTSD. They're now out in 
the community, and it is tragic that they're not getting the 
care that they need, and certainly, for the families, this has 
been extremely stressful, and my major attention on this, and 
my Veterans Affairs Committee is looking at this system-wide, 
and we'll continue to work with you on this.
    Chairman Inouye. I'm certain the troops and the veterans 
are very grateful to you. Thank you very much.
    Admiral Nathan, General Green, and General Horoho, thank 
you very much for your testimony, and more importantly, thank 
you for your service to our Nation.
    General Horoho. Thank you, Sir.
    Chairman Inouye. Thank you very much.
    General Horoho. Thank you very much. Thank you.
    Admiral Nathan. Thank you, Sir.
    General Green. Thank you.
    Chairman Inouye. I'd like to call the next panel, the panel 
of nurses. I'd like to welcome Major General Kimberly 
Siniscalchi, the Assistant Air Force Surgeon General for 
Nursing Services; Rear Admiral Elizabeth Niemyer, Director of 
the Navy Nurse Corps; and Major General Jimmie Keenan, Chief of 
the Army Nurse Corps.
    Needless to say, I've had a great love for nurses 
throughout my life. They have a very special spark. And so I 
look forward to your testimony, sharing with us the 
accomplishments of your corps, also the vision for the future, 
and problems, if any.
    So, may we begin with General Siniscalchi?
STATEMENT OF MAJOR GENERAL KIMBERLY A. SINISCALCHI, 
            ASSISTANT SURGEON GENERAL FOR NURSING 
            SERVICES, DEPARTMENT OF THE AIR FORCE
    General Siniscalchi. Chairman Inouye, thank you for your 
continued support of military nursing and for the opportunity 
to once again represent more than 18,000 men and women of our 
total nursing force. Sir, I am honored to report on this year's 
outstanding achievements and future initiatives.
    This past year, more than 1,100 nursing personnel deployed 
in support of global contingency operations, comprising 47 
percent of all Air Force medical service deployers. The 
transition from Operation Iraqi Freedom to Operation New Dawn 
brought many of our troops home. Joint Base Balad Theater 
Hospital closed as part of this transition, marking the end of 
an era.
    A team of our deployed medics had the honor of retiring the 
historic American flag that covered Balad's Heroes Highway, the 
entry that welcomed more than 19,000 wounded warriors into our 
care. As this flag, which offered hope to our wounded, was 
taken down, the medics stood in awe as they discovered the 
stars from the flag were forever imprinted on the roof of the 
tent covering Heroes Highway.
    Our mission continues in support of Operation Enduring 
Freedom. This year, we introduced the tactical critical care 
evacuation team concept and piloted the first team for inter-
theater transport. Consisting of an emergency room physician 
and two of our nurse anesthetists, this team moved 122 critical 
patients, providing advanced interventions early in the patient 
care continuum, and we now have five teams trained.
    This past year, critical care air transport and air medical 
evacuation teams safely moved 17,800 patients globally. Our 
efforts to advance research and evidence-based practice led to 
new initiatives improving safe patient handoff and pain 
management. To continue building the next information bridge, 
we field tested a new electronic health record during air 
medical transport missions. All documented en route care can 
now be downloaded into the same clinical database used by our 
medical facilities, and can be readily visible to medical teams 
around the globe.
    Based on lessons learned over the past 10 years, we 
completely transformed our air medical evacuation training into 
a more efficient modular format, with increased proficiency 
levels, based on the latest evidence-based clinical protocols. 
This new curriculum reduced overall training time by 130 days.
    As we face current challenges, our total nursing force is 
well-prepared. We've established amazing partnerships with 
Federal and healthcare facilities whose in-patient areas and 
acuity levels provide the optimal environment for initial 
clinical training and skill sustainment. This year, we 
processed 39 training affiliation agreements in nursing. We 
also established three new 12-month fellowships: Patient 
safety, in partnership with the Tampa James Haley VA Patient 
Safety Center; magnet recognition, in partnership with 
Scottsdale Healthcare system; and Informatics, at our Air Force 
Medical Operations Agency.
    This year, we launched our new Air Force residency program, 
aligning with the National Council of State Boards of Nursing. 
Our newly assessed novice nurses complete the nurse transition 
program, and upon arrival at their first duty station enter the 
nurse residency program, where they receive clinical mentoring 
and professional development through their first year of 
practice.
    Whether on the battlefield or at home, our nurses and 
technicians are well-prepared to provide world-class care to 
all beneficiaries. The Federal Nursing Service chiefs have 
partnered in building collaborative plans to better prepare 
nursing teams for their integral roles in providing better 
health, better care, best value.
    Patient-centered care is our highest priority, and high 
touch, high care remains our true north. As we continue the 
journey from healthcare to health, we are committed to improve 
continuity of care, enhanced resiliency, and promote safe 
healthy lifestyles.
    With support from the Tri-Service Nursing Research Program 
(TSNRP), our nurse scientists completed research in the areas 
of patient safety, post-traumatic stress, pain management, and 
women's health. These research initiatives demonstrate our 
commitment to advanced nursing practice by fostering a culture 
of inquiry.
    However, an ongoing challenge is retaining our clinical 
experts. In an effort to explore factors affecting retention, 
the Uniform Services University, of the Health Sciences, 
conducted a study and found the number one reason influencing a 
nurse's decision to remain on Active Duty was promotion. The 
survey findings support our continued efforts to balance the 
Nurse Corps grade structure. Although our nursing retention 
rates have improved with incentive special pay program, and 
we've had continued success in meeting our recruiting goals, we 
must continue every effort to increase fill-grade 
authorizations in order to promote and retain our experienced 
nurses.

                           PREPARED STATEMENT

    Mr. Chairman, Mr. Vice Chairman, we genuinely appreciate 
your support as we continue to deliver world-class healthcare 
anytime, anywhere. We strive to ensure that those who wear our 
Nation's uniform and their families receive safe, expert, and 
above all, compassionate care.
    Again, I thank you, and I welcome your questions.
    [The statement follows:]
      Prepared Statement of Major General Kimberly A. Siniscalchi
    Mr. Chairman and esteemed members, it is indeed an honor to report 
to the subcommittee on this year's outstanding achievements and the 
future initiatives of the more than 18,500 members of our Total Nursing 
Force (TNF). I am proud to introduce a new team this year--Brigadier 
General Gretchen Dunkelberger, Air National Guard (ANG) Advisor; 
Colonel Lisa Naftzger-Kang, United States Air Force Reserve (USAFR) 
Advisor; and Chief Master Sergeant Cleveland Wiltz, Aerospace Medical 
Service Career Field Manager.
    I extend, on their behalf and mine, our sincere gratitude for your 
steadfast support, which has enabled our TNF to provide world-class 
healthcare to more than 2 million eligible beneficiaries around the 
globe. Throughout the past year, Air Force nursing personnel have 
advanced the transition from healthcare to health through patient 
education, research, and evidence-based practice. Our TNF priorities 
are:
  --Global Operations;
  --Force Development;
  --Force Management; and
  --Patient-Centered Care.
    Woven through each of these areas are new initiatives in education, 
research, and strategic communication. Today, my testimony will 
highlight the accomplishments and challenges we face as we pursue our 
strategic priorities.
                           global operations
    Operation Iraqi Freedom has now drawn to a close, and yet our 
medics remain fully engaged in wartime, contingency, humanitarian 
peace-keeping, and nation-building missions. In 2011, we deployed more 
than 1,100 nurses and technicians in support of these global missions. 
Our TNF made up approximately 47 percent of all Air Force Medical 
Service (AFMS) deployed personnel.
    The transition from Operation Iraqi Freedom to Operation New Dawn 
brought many of our troops home to friends and family. Joint Base Balad 
Theater Hospital closed in November 2011 as a part of this transition. 
During its tenure, more than 7,500 Air Force medical personnel deployed 
to Balad, approximately 50 percent of whom were nursing personnel. This 
premier trauma hospital supported more than 19,000 admissions, 36,000 
emergency patient visits, and 20,000 operating room hours while 
sustaining a 95 percent in-theater survival rate, the highest in 
military medical history. Serving as the last Deputy Group Commander, 
Chief Nurse, and Medical Operations Commander, during the final 
rotation at Balad, was my USAFR Advisor, Colonel Naftzger-Kang. She and 
her team successfully executed end-of-mission planning and the 
transition of $335,000 in equipment and more than 90 personnel with 
facility on-time closure.
    Balad's closure marked the end of an era and was bittersweet for 
all those who had journeyed through the hospital doors. The final 
rotation had the honor of retiring the American flag that covered 
Heroes Highway, the entry that welcomed our wounded warriors into our 
care. As the flag was taken down, our nurses and medics stood in awe as 
they discovered that the stars from the flag were imprinted on the roof 
of the Heroes Highway tent. This flag, which offered hope to thousands 
of wounded soldiers, sailors, marines, and airmen, will be proudly 
displayed at the new Defense Health Headquarters, Falls Church, 
Virginia.
    No matter the setting, high-touch, high-care remains the True North 
of the TNF. When a soldier, who was severely injured by an improvised 
explosive device (IED) blast first awoke in the intensive care unit 
(ICU), at Craig Joint Theater Hospital, Bagram, his first concern was 
not for himself but for his military working dog, also injured in the 
blast. The soldier was being prepared for evacuation to Germany; he 
knew his dog would be distraught if separated from him. Recognizing the 
importance of this soldier's relationship with his dog, Captain Anne 
Nesbit, an Air Force Critical Care Nurse, went above and beyond to 
reunite them. She spearheaded efforts to bring the dog to his bedside. 
The dog entered the ICU and immediately jumped on to the soldier's bed 
and curled up next to his master. Those who witnessed this reunion were 
brought to tears. Even in the midst of war, the nurse's compassion is 
never lost.
    Our medical technicians continue to deploy with our Army partners 
to Afghanistan as convoy medics to provide world-class healthcare at 
forward operating locations. One example, is Senior Airman Jasmine 
Russell, a medical technician assigned to a Joint Expeditionary Tasking 
as a logistics convoy medic with the Army. She traveled with her 
battalion more than 80,000 miles throughout 40 districts and completed 
more than 450 convoys in the Regional Command Southwest, Afghanistan. 
On January 7, 2011, while north of the Helmand Province, her convoy 
encountered 17 IEDs, 3 small arms fire attacks, and 2 missile attacks, 
killing a local national, and injuring coalition forces assigned to the 
convoy. Despite being injured, this junior enlisted member acted far 
beyond her years of experience as she began immediate triage and care, 
preparing the wounded for evacuation. Senior Airman Russell stated, ``I 
wasn't even concerned about myself; my peers were my number one 
priority.''
    While initial stabilization and surgery occurs at forward locations 
close to the point of injury, casualties must be aeromedically 
evacuated for further care. In wartime, contingency, peacetime, and 
nation-building, our aeromedical evacuation (AE) crews and Critical 
Care Air Transport Teams (CCATT) continue to provide world-class care 
and champion advancements in enroute nursing practice. This past year, 
AE moved 17,800 patients globally, with 11,000 from within United 
States Central Command alone. Since the start of Operations Enduring 
and Iraqi Freedom more than 93,000 patients have been safely moved.
    In 2011, we introduced the Tactical Critical Care Evacuation Team 
(TCCET) concept and piloted the first team in Afghanistan. Lieutenant 
Colonel Virginia Johnson, a certified registered nurse anesthetist 
(CRNA), stationed at Langley Air Force Base (AFB), Virginia, led the 
way in closing the gap in enroute care from initial surgical 
intervention to the next level of hospital care. Lieutenant Colonel 
Johnson and Captain Alejandro Davila, also a CRNA, took to the sky in a 
UH-60 Helicopter. This Air Force team of two CRNAs, and an emergency 
room physician moved 122 critical patients, and provided state-of-the-
art enroute care. In May 2012, the Air Force will deploy two more 
TCCETs into Afghanistan.
    This past year, the Air Force field-tested a new electronic health 
record (EHR) during AE missions. Our AE crews carried laptop computers, 
which facilitated documentation and downloading of enroute care into 
the same clinical database used by our medical facilities, and allowed 
all care provided to be readily visible to medical teams around the 
globe. This capability is fully operational for AE missions between 
Bagram and Ramstein Air Base (AB), Germany. Our teams continue to build 
the next information bridge by adding this capability to AE missions 
departing Ramstein AB enroute to Andrews AFB, Maryland and Lackland 
AFB, Texas.
    Air Force nursing leaders are also filling critical strategic roles 
in the joint operational environment. Colonel Julie Stola, the Command 
Surgeon for U.S. Forces-Afghanistan, was instrumental in the 
implementation of the Central Command's mild traumatic brain injury 
(TBI) training and tracking procedures for the Combined Information 
Data Network Exchange Database. As the theater subject-matter expert on 
the use of EHR for servicemembers involved in blast exposures, her 
exceptional leadership and guidance to users resulted in an increase of 
blast exposures documentation from 35 to 90 percent in 2011.
    An Air Force nursing priority for 2011 was to further advance 
research and evidence-based practice initiatives to improve patient 
safety and pain management during AE transport. Lieutenant Colonel 
Susan Dukes at Wright Patterson AFB, Ohio and Major Jennifer Hatzfeld 
at Travis AFB, California, are working closely with medical teams at 
Air Mobility Command and leading efforts to evaluate the effectiveness 
of these safety initiatives and enroute pain management strategies. A 
team of our nurse scientists recently completed a project entitled 
``Enhancing Patient Safety in Enroute Care Through Improved Patient 
Hand-Offs.'' Major Karey Dufour, is member of this team, she will also 
be our first graduate from the Flight and Disaster Nursing Master's 
program at Wright State University, Ohio. She used this study as her 
Capstone project. One aspect of this research project was the 
development of a standardized checklist to facilitate communication 
during the preparation of patients for AE transport and at each patient 
hand-off. Pilot testing of this checklist demonstrated an improvement 
in the safety and quality of care throughout the AE system. 
Implementation of the checklist is ongoing across the AE community.
    In our effort to optimize pain management of patients transitioning 
between ground and air, an in-depth review of care standards and safety 
was performed. As a result, all AE crews were trained in caring for 
patients receiving epidural analgesia. This advanced intervention 
ensures optimal pain management as patients move through the continuum 
of care. Major Hatzfeld, Lieutenant Colonel Dukes, and Colonel 
Elizabeth Bridges, USAFR, are currently evaluating patient outcomes 
from those who have received pain management through epidural analgesia 
and peripheral nerve blocks within the AE environment.
    Our global AE force remains dynamic; 16 additional crews were added 
to the Active Duty inventory to support global requirements. The AFMS 
responded by actively recruiting new AE members. More than 75 
exceptional medics stood up to the challenge and joined the AE team. 
Aeromedical Evacuation Squadron (AES) manning levels are at the highest 
rate since the beginning of the war, with flight nurses at 89 percent 
and AE technicians at 85 percent.
    Another accomplishment this year was a major transformation of our 
AE training. The goal was to incorporate lessons learned from AE 
missions and the latest clinical protocols. We increased focus on 
evidence-based care, patient outcomes, safe patient hand-off, pain 
management, enroute documentation, and raised overall training 
proficiency levels. Currently, the Line of the Air Force Operations 
community is building a formal training unit (FTU) to be co-located 
with the United States School of Aerospace Medicine at Wright-Patterson 
AFB, Ohio. This FTU will focus on enhancing the knowledge and 
performance required to operate in our AE aircraft. The new modularized 
curriculum and the relocation of the FTU will reduce overall training 
time by 130 days, provide flexibility in completing the training 
requirements, eliminate redundancies, and save thousands of dollars in 
travel costs. More importantly, this initiative will standardize 
training across the TNF, better preparing our AE community for any 
operational mission.
    In 2011, our strategic AE mission from Ramstein AB, Germany 
expanded as San Antonio, Texas was added as an additional destination 
for our returning wounded warriors. This new aeromedical staging 
facility (ASF) capitalizes on the available capacity and specialty care 
provided at the San Antonio Military Medical Center. It also allows 
wounded warriors from that region to be closer to their unit, friends, 
and family as they recover. The ASF staff of 57 airmen is a seamless 
team of Active Duty, Reserve, and Guard personnel.
    While we are learning, we are also sharing the knowledge of AE 
execution with our global partners. Our International Health 
Specialists are key to building global partnerships and growing medical 
response capabilities. As subject-matter experts, they are part of a 
team that directs training and education to improve healthcare 
infrastructure and disaster response. Staff Sergeant Amber Weaver, an 
Aeromedical Evacuation Technician with the 187th, AES, Wyoming, ANG, 
expressed her enthusiasm as a member of a team that provided AE 
training for the Democratic Republic of the Congo (DRC) Air Force. Her 
hope is that the Congolese military medical personnel will apply the 
training she provided to help their wounded. Lieutenant Jodi Smith, a 
flight nurse with the same unit, stated, ``The goal was to teach the 
DRC's quick response force how to safely aeromedically evacuate their 
patients.'' The Congolese training staff noted that this effort 
definitely strengthened the partnership and cooperation between the 
United States and the Congolese.
    Continuing around the globe, our Joint and coalition partnerships 
were never more evident than on March 11, 2011, when a 9.0 earthquake 
and tsunami caused catastrophic damage along the eastern coast of 
Japan. This event also posed a potential radiological threat from 
extensive nuclear plant damage. In support of Operation Tomodachi, Air 
Force medics assisted air crews with six passenger transport missions, 
resulting in the safe movement of 26 late term pregnant females and 
their 40 family members to the U.S. Naval Hospital, Okinawa, Japan.
    Another example of our international involvement took place in 
Nicaragua where this year 50 Air Force Reserve medics from the 916th 
Aerospace Medicine Squadron, Seymour Johnson AFB, North Carolina, 
provided medical care to more than 10,000 local citizens during their 
Medical Readiness Training Exercise (MEDRETE). Each day began at 4 
a.m., with hundreds of patients lining the roadway to the medical site, 
waiting to be seen by this team. Some patients traveled for hours on 
horseback, while others had walked countless miles in the August heat 
with their families in tow. Lieutenant Colonel Dawn Moore, commander of 
the MEDRETE mission stated, ``We are proud to collaborate with other 
countries and provide excellent medical care, as well as build 
international capacity.''
    Air Force nursing continues to be vital in their role as 
educational and training instructors for the Defense Institute for 
Military Operations (DIMO) in their efforts to build global 
partnerships and capacity. An example of educational impact was from an 
Iraqi Air Force Flight Nurse who reported that 78 lives were saved by 
Iraqi Air Force AE teams, just months after completing the Basic 
Aeromedical Principles Course. In another example, 10 soldiers were 
badly injured during an insurgent conflict west of Nepal. The follow-on 
forces that came to their relief the next morning were astonished when 
they found the badly wounded soldiers alive as a result of applying the 
self-aid and buddy-care techniques they learned in the DIMO First 
Responders Course. The DIMO medical training missions are making a 
profound difference in patient outcomes.
    These critical partnerships grow not only through formal training 
and joint exercises but also through international professional forums. 
In 2011, we partnered with our nursing colleagues from Thailand and co-
hosted the 5th Annual Asia-Pacific Military Nursing Symposium. The 
theme, ``Asia-Pacific Military Nursing Preparedness in Global Change,'' 
reinforced partnerships to enhance nursing response to pandemics and 
humanitarian crises, and to advance evidence-based nursing practice. 
Twelve countries participated, more than 20 international colleagues 
briefed, and more than 30 presented research posters. During this 
conference, the focus on joint training initiatives in disaster 
response and aeromedical evacuation proved to be critical when Thailand 
experienced severe flooding, which impacted more than 13 million people 
and resulted in 815 deaths. The very concepts discussed during the 
symposium were later applied during the rapid deployment and 
establishment of an Emergency Operations Center and successful 
aeromedical evacuation of patients. We look forward to continuing to 
build our international Asia-Pacific nursing partnerships as we prepare 
to co-host the 6th annual conference in 2012.
                           force development
    It is imperative our TNF possess the appropriate clinical and 
leadership skills for successful execution of our mission. We are 
excited to announce three new fellowships:
  --Magnet Recognition;
  --Informatics; and
  --Patient Safety.
    The Magnet Fellowship provides the AFMS with a rare opportunity to 
gain first hand, up-to-date insights into the Magnet Culture; an 
environment that promotes nursing excellence and strategies to improve 
patient outcomes. Our Magnet Fellow will spend 1 year at Scottsdale 
Healthcare System, Arizona, a nationally recognized Magnet healthcare 
facility and one of our current Nurse Transition Program (NTP) Centers 
of Excellence (CoE). The Magnet Fellow will assume a consultant role to 
integrate Magnet concepts across the AFMS.
    The Informatics Fellowship is critical to prepare nurses to 
participate in the development and fielding of computer-based clinical 
information systems, such as the EHR. Nursing is a major end-user of 
these electronic information systems and should be actively involved in 
the development of requirements to enhance patient safety, 
communication, seamless patient handoff, and ease of documentation.
    The Patient Safety Fellowship is a new partnership with the 
Veterans Administration (VA) at the James A. Haley VA Patient Safety 
Center of Inquiry in Tampa, Florida. The Fellow will learn how to 
design and test safety defenses related to the patient, healthcare 
personnel, technology, and organization, to export evidence into 
practice, and facilitate patient safety and reduce adverse events. This 
fellowship is designed to prepare nurses to lead interdisciplinary 
patient safety initiatives.
    In last year's testimony, we previewed our plan to consolidate the 
NTP training sites in order to provide a more robust clinical 
experience. We established four CoE:
  --Scottsdale, Arizona;
  --Tampa, Florida;
  --Cincinnati, Ohio; and
  --San Antonio, Texas.
    Our data shows NTP CoE offer many opportunities to practice a 
variety of clinical skills in an environment with a large volume of 
high-acuity patients, which allows us to confidently decrease our 
program length from 77 to 63 days. Additionally, the resulting 19 
percent improvement in training efficiency allowed us to reduce NTP 
course instructors by 40 percent thus returning experienced nurses to 
the bedside.
    In response to the National Council of State Board of Nursing 
Transition to Practice (TTP) Initiative and the Institute of Medicine 
Future of Nursing recommendations, we have initiated a residency 
program to develop our novice nurses. Beginning in September 2011, all 
novice nurses entering Active Duty were enrolled in the new Air Force 
Nurse Residency Program (AFNRP). In the AFNRP, carefully selected 
senior nurses mentor novice nurses through their transition from nurse 
graduate to fully qualified registered nurse. We were pleased to 
discover that 80 percent of the TTP recommended content was already 
incorporated into the nurses' orientation during the first year of 
military service, allowing us to focus our efforts on weaving the 
remaining content such as evidence-based practice, quality, and 
informatics, into the AFNRP.
    One of the desired outcomes of the NTP and AFNRP is enhanced 
critical thinking skills. Using a validated assessment tool in a pilot 
study, we found a significant increase in the critical thinking skills 
of nurses who completed the NTP. We expanded this assessment to 
systematically evaluate the effectiveness of the NTP and AFNRP. We 
gathered representatives from these CoE to reflect on successes of 
these military and civilian partnerships and to discuss the way ahead.
    Another area where we are working to further develop our nurses is 
through our Critical Care Fellowship. We identified opportunities to 
enhance efficiencies of this training program. After extensive research 
on civilian and military programs, we recommended reduction from three 
training locations to two and initiated a review of curriculum to 
standardize the didactic and clinical experiences. Additionally, we are 
exploring civilian training partnerships which may give our students 
the opportunity to work with a greater volume of high-acuity patients.
    Our new mental health course is an example of our success in 
advancing our practice through education and training. Based on the 
changing needs of the mental health community, and in response to the 
National Defense Authorization Act, we are incorporating outpatient 
mental health case management training for our mental health nurses.
    Advanced Practice Nurses are central to the success of a clinical 
career path that promotes optimal patient outcomes through critical 
analysis, problem solving and evidenced based decisionmaking. Building 
on last year's initiatives, we continue to work with our Sister 
Services and the Uniformed Services University of the Health Sciences 
(USUHS) Graduate School of Nursing (GSN) to launch a Doctorate of 
Nursing Practice (DNP) program. This year, the Air Force has selected 
five Psychiatric Mental Health Nurse Practitioner (PMHNP) DNP students 
and three Doctor of Philosophy students for enrollment in the USUHS 
GSN. In addition, we also have developed a transition plan to meet the 
advanced practice doctoral level requirements for our Family Nurse 
Practitioner and Certified Registered Nurse Anesthetist by 2015.
    In 2011, we moved forward with efforts to clearly define the roles 
of the Clinical Nurse Specialist (CNS), Master Clinician, and Master 
Nurse Scientist. As part of this endeavor, we discovered significant 
variance in the definition and expected educational preparation of the 
CNS. Standardization of qualifications for the title ``Clinical Nurse 
Specialist'' were determined to be paramount for us to match qualified 
nurses with designated positions. As a result, the Air Force Nurse 
Corps Board of Directors (BOD) approved a standard definition for CNS 
and standard qualifications in seven areas of practice. A special 
experience identifier (SEI), for the CNS, was approved by the Air Force 
Personnel Center (AFPC). This SEI allows us to clearly identify our 
CNSs and streamline the assignment process to fill these critical CNS 
requirements. Additionally, the BOD approved standard definitions and 
qualifications for the Master Clinician and Master Nurse Scientist.
    A new AFMS regulation governing anesthesia delivery by Air Force 
CRNAs was published this year, recognizing their full scope of 
practice. This change reflects the recommendations from the 2010 
Institute of Medicine report, ``The Future of Nursing: Leading the 
Change, Advancing Health'', stating that nurses should practice to the 
full extent of their education and training. The president of American 
Association of Nurse Anesthetists, Dr. Debra Malina, CRNA, DNSc 
commended the Air Force for making this change.
    One of our ongoing challenges is to optimize clinical training. It 
is imperative that our nurses and medical technicians maintain 
proficiency in their clinical skills not only for contingency 
operations but also for peacetime operations. We continue to advance 
our partnerships with other Federal and civilian medical facilities 
whose inpatient platforms and acuity levels provide the optimal 
environment for initial specialty development and skill sustainment. We 
have partnered with several civilian medical centers, as well as 
universities. In these partnerships, both civilian institutions and 
military facilities host each other's students and optimize educational 
opportunities available in each setting. This year, the AFMS processed 
180 training affiliate agreements. Of these agreements, 39 were in 
nursing. These partnerships are vital to our training platforms and 
promote professional interaction.
    As we strive to obtain efficiencies in Joint training, we are 
reviewing our electronic and virtual distant learning systems for ways 
to reduce redundancies within the Military Health System. This year, 
the Joint Health Education Council (HEC) facilitated shared access of 
232 training programs between the DOD and the VA. In 2011, more than 
113,000 DOD and VA personnel accessed these sites representing more 
than 800,000 episodes of training. We continue to be an active 
participant on the HEC. Our involvement in this council is crucial, as 
a significant number of training programs are nursing related.
    In last year's testimony, I spoke of the opening of the Medical 
Education and Training Campus (METC). I can now share a few of METC's 
successes in 2011. METC reached full operational capability on 
September 15, 2011, and was recognized nationally for it's 
accreditation process which earns METC graduates transferable college 
credits. Our additional ability to support the medical enlisted 
educational mission will foster international partnerships, and 
contribute to educational research and innovation.
    We are constantly seeking ways to develop our enlisted medics. In 
2011, we selected two airmen to attend the Air Force Institute of 
Technology for graduate education in Information Resource Management 
and Development Management. The most recent graduate of the Development 
Management program, Master Sergeant Carissa Parker, lauded this program 
and stated, ``This is by far, one of the most exciting and unexpected 
opportunities I've had in my Air Force career. This advanced academic 
degree allows me to apply the unique knowledge and skill set to best 
serve my Air Force.'' In order to align candidates for success in these 
programs, we continue to actively force develop our enlisted personnel.
    Deliberate development of our civilian nursing personnel is 
ongoing. This year, we established a career path from novice to expert, 
which offers balanced and responsive career opportunities for our 
civilian nurses. We finalized two new tools, a civilian career path and 
a mentoring guide, to aid supervisors, both have been distributed Air 
Force wide. In January 2012, we conducted our second Civilian 
Developmental Board at AFPC, where civilian Master Clinician positions 
were laid in to allow for career progression and much-needed continuity 
in our military treatment facilities. Our next step is a call for 
candidates to outline the criteria and assist our civilian nurses in 
applying for these targeted positions, which will ultimately enhance 
patient care and job satisfaction.
                            force management
    The Air Force continues to be successful with recruiting. In 2011, 
we met our recruiting goal as we accessed 113 fully qualified nurses 
and 46 new nursing graduates. This brought our overall end strength to 
95 percent. Our flagship programs for recruiting, the Nurse Accession 
Bonus and the Health Professions Loan Repayment Program, remain the 
primary vehicles for recruiting the majority of our entry-level nurses. 
This year we executed 35 accession and 89 loan repayment bonuses. Other 
accession pipelines include the Reserve Officer Training Corps 
scholarship program, the Nurse Enlisted Commissioning Program, and the 
Health Professions Scholarship Program.
    Nurse Corps retention rates have improved with the implementation 
of the Incentive Special Pay Program, allowing the AFMS to retain high-
quality skilled nurses in targeted clinical specialties. Overall, 
retention has risen 13 percent since 2008 and now stands at 80 percent 
at the 4-year point. Historically, we found retention drops 
precipitously, by at least 44 percent, at the 10-year point.
    In an effort to explore factors affecting retention, USUHS 
conducted a triservice nursing study. The total sample size was 2,574 
with an overall response rate of 30 percent. The results were released 
in January 2012. Significant factors found to influence a nurse's 
decision to remain on Active Duty were promotion, followed by family 
relocation. Overall, deployments were not a significant decision factor 
in determining intent to remain in the service. Most nurses were happy 
to deploy and saw this as part of their patriotic duty. Noteworthy 
comments from the study were, ``the promotion rates in the Nurse Corps 
are behind the rest of the Service'' and ``the reason for my 
consideration for leaving military is due to lack of promotion.'' Other 
findings, specifically related to promotion opportunity, confirmed our 
understanding of the grade imbalance within the Air Force Nurse Corps 
structure.
    Over the past few years, the Air Force Nurse Corps has worked with 
the Office of the Deputy Chief of Staff, Manpower, Personnel, and 
Services, to provide consistent career opportunities for Nurse Corps 
Officers as intended by the Defense Officer Personnel Management Act 
(DOPMA). DOPMA grade tables are applied to the entire Service, not to a 
specific competitive category, so the challenge for the Air Force Nurse 
Corps is a lack of sufficient field grade authorizations for the 
clinical and scientific experience needed. The addition of the CNS and 
Master Clinician at the bedside, both of whom are educated to the 
masters or doctoral level has been crucial in providing the education 
and experience needed in the patient care arena. There is a positive 
correlation between advanced nursing education and experience as it 
relates to clinical outcomes and safety.
    In a continued partnership with the Office of the Undersecretary of 
Defense, Personnel and Readiness, and the Assistant Secretary of the 
Air Force, Manpower and Reserve Affairs, we continue to pursue ways to 
alleviate deficits in field grade authorizations. Our goal is to 
improve retention of the uniquely trained experienced military nurse 
and increase return on investment for advanced education.
    During 2011, we made significant strides in strategic 
communication. We launched the official Air Force Nurse Corps Web site 
and social network page. Our social network page has received more than 
250,000 visits since inception. These Web pages are excellent 
recruiting and retention tools, and serve as a means to reach out to 
our retirees as well as the military and civilian community. In 
addition to the public domain, we have a targeted intra-net capability. 
The Knowledge Exchange (Kx) is a phenomenal information resource for 
all Air Force military members and Government employees to assist them 
with professional development at any level in their career. We launched 
a Kx subscriber campaign this year, highlighting the large amount of 
information available on this site. The number of subscribers increased 
500 percent. The Kx is a venue where our nurses and medical technicians 
can share best practices, innovative suggestions, personal stories, 
accomplishments, and stay connected.
                         patient-centered care
    Patient-centered care is at the core of all we do; it is our 
highest priority. Care for our patients crosses into both inpatient and 
outpatient arenas, and has been redefined with a more focused emphasis 
on providing healthcare to promoting health.
    An important contribution of nursing to healthcare is exemplified 
by the integral role of Disease and Case Managers in our Family Health 
Initiative. For example, at Moody AFB, Georgia, the nurses initiated 
disease management interviews with their diabetic patients. The nurses 
used motivational interviews, a face-to-face approach, enabling them to 
provide education, support, and individual goal setting. This 
innovative strategy increased accountability for the patient and 
medical team, and resulted in marked improvement in adherence to the 
treatment plan and control of the patient's disease process.
    Overall, care case manager (CCM) interventions have been found to 
mitigate risk. Major Don Smith, Health Care Integrator, and Director of 
Medical Management, Keesler AFB, Mississippi, implemented a process 
improvement for the identification of wounded warriors as they entered 
the healthcare system and enrollment of these individuals with a CCM. 
This initiative increased the communication and person-to-person 
transfer of care between facility case managers at Keesler, the VA, and 
Gulfport Naval Station. Additionally, Major Smith orchestrated CCM 
services for vulnerable populations to include military retirees, 
Medicare, and Medicaid patients who are eligible for care on a limited 
basis at Keesler, but who are at risk for fragmented care as they 
transition across the healthcare system. Finally, he designed a 
``Medical Management Database'' consisting of a comprehensive set of 
CCM documentation tools and tracking methods for patient volume and 
acuity. The database captures workload, quantitative, and qualitative 
outcomes. The use of this database improved CCM metrics and decreased 
documentation workload by 200 percent. Specific outcomes such as 
avoidance of emergency room visits, hospital admissions, or clinic 
visits were assigned a corresponding and substantiated dollar amount. 
The return on this investment exceeded savings of $1.1 million in 2011. 
This database tool is currently being implemented Air Force wide.
    The TBI clinic at Joint Base Elmendorf-Richardson, Alaska is 
advancing care for wounded warriors. This only Air Force led TBI 
clinic, offers wounded warriors comprehensive care, including 
specialized neurological assessment and testing, mental health 
services, pain management, and the creation of a tailored treatment 
plan.
    Our partnership with the VA through our Joint Ventures has yielded 
improvements with staffing, efficiencies, and patient outcomes. One of 
the most recent Joint initiatives was the formation of a peripherally 
inserted central catheter (PICC) team from the 81st Medical Group, 
Keesler AFB. In the past, VA patients needing central line intravenous 
access were transported to Keesler for the procedure. The PICC team now 
travels to the VA to perform this procedure; resulting in significant 
cost savings associated with patient care. More importantly, patients 
who are too unstable for safe transport can now receive the best care 
in a timely manner at their bedside. Also, at the 81st Medical Group, a 
team of VA and military staff assisted with more than 1,500 cardiac 
catheterizations in 2011.
    The Joint Venture working group at Elmendorf determined there was a 
lack of continuity of care and sharing of medical information with the 
VA clinic for follow-up when VA patients were discharged from the ICU. 
This working group developed a process by which the ICU discharging 
nurse contacts the VA CCM to provide an up-to-date medical history to 
include medication reconciliation and discharge summary. This endeavor 
has assured that the Primary Care Provider has the most current medical 
information available at the follow-up appointment. In addition, a 
template was developed for primary care staff to track all the required 
medical documentation for patients being discharged from the Joint 
Venture ICU. This process was replicated at the Medical Specialty Unit.
    Embedded in our patient-centered care is an emphasis on resilience. 
The Air Force is committed to strengthening the physical, emotional, 
and mental health of our airmen and their families. We continuously 
reinforce the need for our airmen to bolster their ability to withstand 
the pressures of military life. Our Air Force understands that we can 
only be successful when the entire Air Force Community promotes the 
importance of resilience and early help-seeking by all airmen in 
distress. We continue efforts to diminish the negative connotation 
associated with seeking help. All airmen need to perceive seeking help 
as a sign of strength, not a sign of failure.
    We have persevered in our campaign spearheaded by leaders, who 
themselves have suffered post-traumatic stress, and have come forward 
to openly discuss their experiences and encourage others to get the 
care they need from the many support services available. These leaders 
emphasize that their decision to seek care did not adversely affect 
their Air Force career; rather receiving care, made it possible for 
them to continue to be successful. During our nursing leadership 
symposium this year, one of our senior nurses presented her own 
personal, traumatic experiences to the audience and described what 
brought her to the point where she recognized the need to seek mental 
healthcare. Mental Health professionals were in attendance and 
conducted on-site discussion groups for medics with similar 
experiences. Feedback from those who attended the groups was 
overwhelmingly positive.
    Air Force Nurse Scientists are conducting research to enhance the 
resilience of our servicemembers and their families. For example, 
Colonel Karen Weis, Director of Nursing Research, Lackland AFB, Texas 
with support from the TriService Nursing Research Program, is studying 
an innovative strategy using maternal mentors to build family 
resilience. Lieutenant Colonel Brenda Morgan, a recent USUHS graduate, 
identified psychological exercises that can be integrated into a daily 
routine to enhance resilience. We continue to seek avenues that build a 
resilient force, identifying at-risk airmen and treating those in need 
of help.
                     advancing a culture of inquiry
    Air Force nurses are advancing healthcare and improving patient 
outcomes through a culture of inquiry. The ongoing process of 
questioning and evaluating practice, providing evidence-based care, 
creating practice changes through research, and evaluating the outcomes 
of our care reflects our culture of inquiry. In support of this 
culture, the Air Force Nurse Corps sponsored a competition that 
highlighted research and evidence-based projects currently being 
implemented to improve patient care. Some of this work will be 
presented at this year's nursing leadership symposium, demonstrating 
the advancement of evidence-based care not only by our Nurse 
Researchers but, more importantly, by the nurses who provide direct 
patient care.
    An excellent example of this initiative is the nursing staff of the 
Neonatal Intensive Care Unit (NICU), Kadena AB, Okinawa, Japan, who 
have taken patient safety to the next level. In 2011, 185 infants were 
admitted to the NICU. Often, these seriously ill neonates require the 
placement of a central intravenous catheter for administering life 
sustaining medications and fluids. Unfortunately, these central lines 
can be a source of infection, which can lead to life-threatening blood 
stream infections and even death. Although the unit's central line 
infection rate of 3.9 percent was well below the national average of 10 
percent, the staff strived for a zero percent infection rate, due to 
the increased risk of mortality for these vulnerable patients. In 
fiscal year 2011, the nursing staff implemented a new procedure used 
during the care and management of central lines. Following the 
implementation of this innovative solution they achieved their goal: 
zero infections from 69 central lines (representing 393 line days).
    Research initiatives completed this year demonstrate the strategic 
leadership role played by our nurse scientists. In January 2012, 
Lieutenant Colonel Susan Perry, Assistant Professor in the CRNA program 
at USUHS, completed her Ph.D. Her ground-breaking research identified a 
genetic abnormality that may predispose an individual to malignant 
hyperthermia, an inherited muscle disorder triggered by certain types 
of anesthesia. Lieutenant Colonel Perry's research advances our 
understanding of this potentially fatal disease and provides insight 
into strategies to decrease the risk for malignant hyperthermia. Her 
research highlights the unique opportunities given to our students who 
study at the USUHS, as she was able to work in one of the only 
laboratories in the world dedicated to malignant hyperthermia. 
Similarly, current Ph.D. students at the USUHS School of Nursing have 
their introduction to research at the renowned National Institutes of 
Health.
    Lieutenant Colonel Karen O'Connell, who completed her doctoral 
studies at USUHS, identified factors associated with increased 
mortality in combat casualties with severe head injury. According to 
her research, some of these factors are modifiable, which suggests 
areas of care that can be targeted to improve outcomes for these 
patients. Colonel Marla DeJong, Dean of the School of Aerospace 
Medicine, served as chairperson of the Scientific Review Committee for 
brain injury and mechanisms of action of hyperbaric oxygen therapy for 
persistent postconcussive symptoms after mild TBI. She also spearheaded 
the creation of baseline datasets that will be used in a study to 
evaluate the effect of hyperbaric oxygen therapy in casualties with 
post-concussive symptoms after mild TBI.
    The research conducted by our nurse scientists is of the highest 
quality. In 2011, Colonel Bridges, with assistance from the Joint 
Combat Casualty Research Team (JC2RT), completed a study using 
noninvasive methods to monitor critically injured casualties during 
resuscitation. This research described the minute-by-minute changes in 
the combat casualty's vital signs and hemoglobin using a noninvasive 
probe placed on their finger. The results demonstrated the potential 
for earlier identification of clinical deterioration and the tailoring 
of resuscitation. This study received the 2011 Research Poster Award at 
the AFMS Research Conference. Colonel Sean Collins, Commander, 104th 
Medical Group, Westfield, Massachusetts, ANG and a nurse scientist, was 
the first guardsman to serve on the JC2RT. During his deployment at 
Camp Dwyer, Afghanistan, Colonel Collins played a vital role in 
advancing operational research and in articulating the importance of 
nursing research in the care of our warriors. Colonel Collins completed 
a landmark analysis of the relationship between physical symptoms 
reported during deployment and emotional health. Analysis is ongoing to 
further identify those at highest risk for poor health outcomes to 
allow for targeted interventions.
    Research and evidence-based initiatives also focused on readiness. 
Colonel Bridges completed a list of operational nursing competencies, 
which were validated by deployed nurses. These competencies will aid in 
the standardization of training for nurses across all Services. The 
results of this study further validated the content of the TriService 
Nursing Research Program Battlefield and Disaster Nursing Pocket Guide. 
This pocket guide was updated in 2011, and 7,000 copies of the updated 
guide were distributed to Army, Navy, and Air Force nursing personnel. 
The evidence-based recommendations summarized are now the standards for 
Air Force nursing readiness training.
    Along with research and evidence-based practice, we are also 
leveraging our existing collegial partnerships. One such endeavor is 
our participation in the Federal Nurses Service Council. This council 
includes the Service Chief Nurses, Directors of Nursing, Public Health, 
Veterans Affairs, USUHS, the American Red Cross, and Reserve 
counterparts of the Army, Navy, Air Force. This year, the group 
developed a strategic plan that focuses on blending our efforts as a 
single professional voice on three strategic Federal Nursing 
priorities: Role Clarification, Culture of Inquiry, Influence, and 
Collaboration. As a united force, we can tackle tomorrow's healthcare 
challenges today.
                               way ahead
    The Air Force Nurse Corps is committed to achieving excellence in 
both the art and science of nursing. As a TNF, we will continue to 
invest in nursing research and foster a culture of inquiry to further 
advance quality patient outcomes. We will continue to advocate for and 
invest in academic preparation to retain the Master Clinician at the 
bedside. We will continue to optimize training opportunities and 
efficiencies within the Air Force, jointly, and with our civilian 
nursing colleagues. Above all, we will continue to invest in our nurses 
and technicians by focusing our efforts on enhancing resiliency, 
promotion opportunities, and education in order to retain those 
individuals whose experience makes military nursing the best in the 
world.
    In closing, as Colonel Mary Carlisle, Commander Surgical Services, 
Misawa, AB, Japan stated, ``You will know you're a military nurse when 
you visit the National Mall in Washington DC, and Vietnam Veterans 
visiting The Wall, tell you their stories of how nurses saved their 
lives, and then they thank you for serving. Then you swallow the lump 
in your throat and blink back the tears in your eyes and continue doing 
what you were doing without missing a beat. You can't find the right 
words to explain to anyone what you've just been through. You will know 
you're a military nurse when at the end of the day, at the end of the 
tour, or the career, you say, I'd do it all over again.''
    Mr. Chairman and distinguished members of the subcommittee, it is 
an honor to represent a committed, accomplished Total Nursing Force. 
Our Nation's heroes and their families depend on our nurses and 
technicians to deliver superior, safe, and compassionate care. Grounded 
in high-touch, high-care, our Air Force nurses and technicians proudly 
serve and will continue to deliver world-class healthcare anytime, 
anywhere.
STATEMENT OF REAR ADMIRAL ELIZABETH S. NIEMYER, 
            DIRECTOR, NAVY NURSE CORPS, DEPARTMENT OF 
            THE NAVY
    Chairman Inouye. Thank you very much, General Siniscalchi. 
May I now recognize Admiral Niemyer?
    Admiral Niemyer. Good morning, Chairman Inouye, Vice 
Chairman Cochran, and distinguished members of the 
subcommittee. I'm extremely pleased to be here and thank you 
for the opportunity to speak on behalf of the Navy Nurse Corps. 
Support of the operational forces continues as the top 
priority. In addition, I've remained focused on five key 
strategic areas: Workforce, nursing knowledge, research, 
strategic partnerships, and communication. My written statement 
has been submitted for the record, and today I will share some 
of Navy nurses' remarkable accomplishments in these vital 
areas.
    The Navy Nurse Corps is comprised of 5,842 Active, Reserve, 
and Federal civilian registered nurses, delivering outstanding 
patient- and family-centered care. At the end of fiscal year 
2011, our Active component was 94-percent manned, and our 
Reserve component was 88-percent manned. We are projecting 
another successful year in attaining our fiscal year 2012 
recruiting goals.
    People are our most vital asset, and I remain committed to 
recruiting and retaining nurses ready to meet the challenges of 
Naval service. The Nurse Accession Bonus and Nurse Candidate 
Programs are top recruiting programs for our Active component, 
while accession and affiliation bonuses, and loan repayment 
programs are most successful with our Reserve component.
    For the past 2 years, the Navy Nurse Corps has sustained 
improvements and retention. The registered nurse incentive 
special pay, Health Profession Loan Repayment Program, and Duty 
Under Instruction for graduate education are key to this 
forward progress. Mr. Chairman, I thank you for your continued 
support of these crucial programs.
    This past year, 342 Active and Reserve Navy nurses served 
throughout the Central Command area of responsibility as 
members of Shock Trauma Platoons, Forward Resuscitative 
Surgical Systems, and other forward-operating medical units. 
They were also vital to medical stability operations, serving 
as members of embedded training and provincial reconstruction 
teams.
    Infants and children comprise approximately 25 percent of 
the trauma patients treated at the Kandahar Role 3 
Multinational Medical Unit. Navy nurses with advanced expertise 
in maternal infant, neonatal intensive care, and pediatric 
nursing played a pivotal role in providing outstanding trauma 
care, staff development, and patient and family education for 
this precious population.
    Integral to the Navy's mission is a ``Global Force for 
Good.'' Navy nurses also supported humanitarian assistance 
missions. In 2011, Active and Reserve Navy nurses, together 
with nurses from nongovernmental organizations and partner 
nations supported the longstanding humanitarian and civic 
assistance operations, continuing promise and Pacific 
Partnership. Their actions further strengthened regional 
cooperation, interoperability, and relationships with partner 
nations.
    Our clinical and leadership roles with the Marine Corps 
continue to expand. For the first time, a Navy Nurse Corps 
officer serves as the First Marine Expeditionary Force 
Headquarters Group Surgeon at Camp Leatherneck, Afghanistan. 
Navy nurses with battlefield injury expertise are also serving 
as clinical advisers at Headquarters Marine Corps, Marine Corps 
Combat Development Command, and the Marine Corps Warfighting 
Lab, assisting Marine Corps Dismounted Complex Injury Teams to 
prevent and treat these devastating injuries.
    Here at home, Navy nurses are recognized clinical experts 
and educators for the care of wounded warriors, with 
psychological health issues and TBI. Nurses are central to the 
new in-patient units, offering convenient, private, holistic, 
and coordinated care for our wounded warriors and their 
families.
    Psychiatric Mental Health Nurse Practitioners can continue 
to enhance the resiliency and mission readiness of our sailors, 
marines, and their families. We responded to the increased 
demand for mental healthcare, and grew our Psychiatric Mental 
Health Nurse Practitioner community from 8 to 23 billets. I'm 
pleased to share that following the graduation of seven 
students this year, this vital community will be 100-percent 
manned.
    The Navy Nurse Corps is committed to doctoral education, 
with 21 nurses in doctoral study, and another 12 selected this 
year for programs taking them directly from bachelor to 
doctoral degrees in advance practice specialties and Ph.D.'s in 
nursing research. I remain committed to increasing and 
diversifying our footprint in nursing research.
    In 2011, the positions of executive Director of the Tri-
Service Nursing Research Program (TSNRP) and Deputy Director of 
the Joint Combat Casualty Research Team overseeing research 
activities in Iraq, Afghanistan, and Kuwait were held by Navy 
nurses. Additionally, Navy nurses were granted $1.5 million in 
TSNRP funds as principal investigators for new and diverse 
projects. Mr. Chairman, I'm extremely grateful, and would like 
to thank you again for your ongoing support of nursing 
research.
    Joint and integrated work environments are the new order of 
business. As such, Navy nurses promote, build, and strengthen 
strategic partnerships, work with our sister services, the 
Department of Veterans Affairs, and other Federal and 
nongovernmental agencies. They also serve as individual 
augmentees and teach at the Uniformed Services University 
Graduate School of Nursing.

                           PREPARED STATEMENT

    Navy nurses are pivotal to the success of every mission 
involving Navy Medicine. We remain focused on improving the 
health of those entrusted to us by providing a care experience 
that is patient- and family-centered.
    Senator Inouye, Vice Chairman Cochran, and distinguished 
members of the subcommittee, thank you for your unwavering 
support of military nursing and the profession of nursing.
    Thank you.
    [The statement follows:]
        Prepared Statement of Rear Admiral Elizabeth S. Niemyer
                              introduction
    Good morning. Chairman Inouye, Vice Chairman Cochran, and 
distinguished members of the subcommittee, I am extremely pleased to be 
here again and thank you for the opportunity to speak on behalf of the 
Navy Nurse Corps.
    The Navy Nurse Corps is comprised of 4,059 Active and Reserve 
component and 1,783 Federal civilian registered nurses. Together, they 
are a unified and highly respected team of healthcare professionals 
known for their unwavering focus on delivering outstanding patient- and 
family-centered care for our Active Duty forces, their families, and 
our retired community. The clinical expertise and leadership of Navy 
nurses ensures a fit and ready fighting force vital to the success of 
Navy and Marine Corps operational missions at sea and on the ground. 
Navy nurses also play a key role in medical stability operations, 
deployment of hospital ships and large-deck amphibious vessels and 
humanitarian assistance/disaster relief (HA/DR) efforts around the 
globe. Nurses are central to the provision of outstanding care and 
optimal patient outcomes for beneficiaries and wounded warriors here at 
home serving in various clinical and leadership roles within our 
military treatment facilities (MTFs) and ambulatory care clinics.
    I would like to share some of the remarkable accomplishments of 
Navy nurses over this past year, as well as discuss opportunities and 
challenges before us in 2012. First, I will talk about the 
contributions of Navy nurses serving in unique roles and environments 
supporting operational, humanitarian, and disaster relief missions. 
Second, I will highlight the significant work and resulting successes 
our Corps has achieved in the past year in my five key strategic focus 
areas of:
  --Workforce;
  --Nursing knowledge/Clinical excellence;
  --Research;
  --Strategic partnerships; and
  --Information management/Communication.
    Last, I will discuss our future challenges and opportunities as we 
remain steadfast in our commitment to ensure the provision of the 
highest quality of care to those entrusted to us.
         operational, humanitarian, and disaster relief support
    Our commitment to operational forces remains a top priority. Over 
the past year, Navy nurses continued to be an invaluable presence with 
223 Active and 119 Reserve component nurses actively engaged in 
military operations throughout the Central Command area of 
responsibility for Operation Enduring Freedom (OEF). Navy nurses are 
ready to deploy anytime, anywhere, and they continue to set the 
standard for excellence as clinicians, patient advocates, mentors, and 
leaders providing compassionate and holistic care even in the most 
austere conditions.
    Navy nurses are an integral part of diverse units and teams 
throughout the Helmand and Nimroz Provinces in Afghanistan. They are 
key members of shock trauma platoons (STPs) and forward resuscitative 
surgical systems (FRSSs) assigned to Marine Corps medical battalions, 
expeditionary forces, and logistics groups supporting the immediate 
pre- intra- and post-operative phases of care for traumatically injured 
patients. They are also trained and qualified to provide en-route care 
and medical support in rotary wing airframes during the transport of 
injured U.S. servicemembers, Coalition Forces, Afghan military and 
civilian security personnel, and local nationals to higher levels of 
care.
    A Nurse Corps officer assigned to the Alpha Surgical Shock Trauma 
Platoon at a Role 2 Emergency Medical Care unit located on a remote 
forward operating base (FOB) in Afghanistan served as the senior 
critical care nurse. Her expertise in critical care nursing was crucial 
to ensuring the 100-percent survival rate of personnel receiving 
immediate after injury care in this unit. Additionally, she provided 
exceptional leadership and was an experienced clinical resource for 22 
nurses across six FOBs in the Helmand and Nimroz Provinces.
    Following initial life-saving stabilization at the point of injury 
on the battlefield, critically injured patients are transported to 
comprehensive medical facilities such as the Role 3 Multinational 
Medical Units in Kandahar and Bastion, Afghanistan. In Kandahar's Role 
3 facility, Navy nurses provide unparalleled clinical leadership and 
world-class care to critically injured NATO, coalition, and Afghan 
combat casualties. Focused on providing the best-possible care for 
combat wounded, they developed a comprehensive cross-training program 
for nurses and corpsmen serving in clinical areas outside the 
emergency/trauma specialty. This training gave them the clinical 
expertise and technical skills to competently work as members of the 
multidisciplinary trauma teams vital to this operational emergency/
trauma environment. The ready availability of additional personnel 
trained in emergency/trauma significantly increased the Role 3's 
capability to effectively respond and provide life-saving trauma care 
for several casualties simultaneously. This innovation was put to the 
test and proved invaluable during a real mass casualty situation when 
Role 3 personnel were able to immediately establish seven highly 
functional trauma teams to successfully treat eight severely injured 
servicemembers transported directly from the battlefield. This training 
has also been credited with providing adequate numbers of trained 
personnel to establish additional forward surgical capability while 
still meeting the Role 3 mission.
    A unique challenge at the Kandahar Role 3 Multinational Medical 
Unit is that about 25 percent of the complex trauma cases are infants 
and children. This necessitates a unique clinical knowledge base in 
which Navy nurses have shown their exceptional adaptability and 
flexibility. In addition to nurses with surgical, emergency/trauma, 
critical care, and medical-surgical backgrounds--specialties considered 
to be wartime critical--nurses with experience in maternal-infant, 
neonatal intensive care, and pediatrics are now playing a pivotal role 
in ensuring the provision of outstanding hands-on care, staff 
development, and patient and family education for this precious 
population. These nurses are also volunteering off-duty time serving as 
health educators at the Kandahar Regional Military Hospital, providing 
health promotion and disease education to Afghan soldiers, women, and 
children.
    Although our mission supporting the British Role 3 Multinational 
Medical Unit in Bastion, Afghanistan was completed near the end of 
2011, Navy nurses from all clinical backgrounds demonstrated a 
remarkable ability to integrate into the British medical team. They not 
only gained the advanced clinical skills needed to treat critical and 
complex polytrauma casualties, but they also provided this advanced 
care utilizing British trauma and treatment protocols. Among this 
stellar group are emergency/trauma nurses who rapidly progressed in 
mastering the advanced knowledge and skill required to serve as Trauma 
Nursing Team Leaders in the British hospital. In this role, they 
demonstrated exceptional leadership and nursing skills in the 
management of the most severely injured trauma patients. In accordance 
with nationally recognized trauma scales, patients treated at the Role 
3 in Bastion typically have injury severities scoring twice as high as 
the average patient seen in a Level 1 trauma center in the United 
States. There is no doubt nurses are making a tremendous contribution 
to the unprecedented 95 percent and 98 percent survival rate of 
casualties treated at the British Role 3 in Bastion and Kandahar Role 3 
Multinational Medical Unit, respectively.
    In addition to providing cutting edge care to the wounded, Navy 
nurses are uniquely trained and qualified in illness prevention and 
health promotion. A Navy nurse assigned as a medical/surgical nurse put 
her graduate education in public health to use as the Infection Control 
Officer for the Kandahar Role 3. In her off-duty time, she also served 
as the Role 3 liaison to the Army Preventive Medicine personnel at the 
Kandahar Air Field. In this capacity, she developed infection control 
policies and collaborated in the development of a clinical 
investigation on multiple drug-resistant organisms (MDROs) infecting 
the wounds of our injured servicemembers. This clinical investigation 
is being continued by replacement personnel and will provide meaningful 
data to identify, treat, and alleviate this serious health threat 
facing our troops.
    Throughout Afghanistan, Navy nurses are primary members of medical 
stability operations serving with North Atlantic Treaty Organization 
(NATO) forces and teams led by the other Services as members of 
Embedded Training and Provincial Reconstruction Teams. They provide 
medical support and serve as healthcare system consultants for NATO 
forces, nonmedical United States and Afghan forces, tribal leaders, and 
local nationals to assist in the establishment of a healthcare 
infrastructure in Afghanistan. They also serve as mentors and teachers 
for Afghan military and civilian medical personnel in the Afghanistan 
National Army Hospital. Their contributions in exchange of knowledge 
will enhance the quality of medical care for Afghan military and police 
forces and the people of Afghanistan for generations to come.
    Last year, I spoke of Navy nurses serving as teachers and mentors 
for members of the Afghan National Army Nurse Corps through a Health 
Service Engagement Program project called ``Shana baShana'' (Shoulder-
to-Shoulder) at the Kandahar Regional Military Hospital. Their efforts 
were to support Afghan nurses' professional development and produce 
long-term improvements in nursing practice in the Afghan healthcare 
system. Mr. Chairman, I am extremely proud to report that this 
partnership has significantly increased the clinical knowledge and 
skill level of the Afghan Army nurses. The Kandahar Regional Medical 
Hospital is now receiving and providing medical care and treatment to 
nearly all Afghan Security Forces battlefield injuries with the 
exception of severe head and/or eye injuries, as well as conducting a 
weekly outpatient clinic for Afghanistan civilians.
    Navy nurses also play a key role in civil-military operations and 
health-related activities such as those conducted by the Combined Joint 
Task Force Team--Horn of Africa (CJTF-HOA) whose members are involved 
in the local communities building and renovating clinics and hospitals 
and providing medical care to local populations. In support of the 
personnel conducting this operation in Africa, a Navy nurse assigned to 
the Expeditionary Medical Facility (EMF) in Camp Lemonier, Djibouti, 
Africa, led junior nurses in the provision of care for medical/
surgical, critical care, and primary care patients. As the sole 
experienced perioperative nurse on the medical team, he managed 
clinical operations and provided perioperative care for all surgical 
procedures performed at the only U.S. operating suite within theater. 
His outstanding efforts ensured the delivery of the highest-quality 
care and force health protection for return to duty or transfer to 
higher levels of care for critical, mission essential U.S. Africa 
Command (AFRICOM) personnel.
    In ``A Cooperative Strategy for 21st Century Seapower,'' the U.S. 
lists HA/DR as one of the core components of our maritime power and an 
activity that helps prevent war and build partnerships. Integral to the 
Navy's expanding maritime strategy as a ``Global Force for Good'' are 
Navy nurses who serve in a very different role than on the battlefield 
but an equally important and vital role in the Navy's HA/DR mission. In 
this role, Navy nurses provide outstanding care and education that 
ensures long-term improvements in the health and quality of life by 
enhancing the partner nation's capacity to provide care after the Navy 
departs. The trusting and collaborative relationships they forge with 
our host nation partners strengthens U.S. maritime security and 
facilitates the on-going training for disaster relief scenarios, 
ultimately improving capability to work together with partner nations 
in the event of a disaster in the future.
    From April to September 2011, 93 Active and Reserve component Nurse 
Corps officers, as well as nurses from nongovernmental organizations 
and partner nations embarked aboard the USNS Comfort (T-AH 20) for 
Continuing Promise providing humanitarian civic assistance to nine 
countries in Central and South America and the Caribbean. Navy nurses 
were also key members of the healthcare teams aboard the USS Cleveland 
(LPD 7) for Pacific Partnership 2011 supporting humanitarian efforts in 
Tonga, Vanuatu, Papua New Guinea, East Timor, and Micronesia. Nurses 
served in a variety of roles as direct patient care providers, case 
managers, discharge planners, Medical Civic Action Program (MEDCAP) 
site leaders, patient educators, trainers for partner nation healthcare 
providers, and mentors.
    On March 11, 2011, mainland Japan experienced a 9.1 magnitude 
earthquake. In its aftermath, a catastrophic tsunami and subsequent 
Fukushima nuclear meltdown devastated the Pacific coastline of Japan's 
northern islands. Navy nurses were once again at the ready providing 
reassurance, advocacy, education, and compassionate care for local 
nationals, Active Duty and retirees and their family members during 
Operation Tomodachi. In theater, nurses at sea aboard the USS Ronald 
Reagan (CVN 76), one of the first ships to arrive on station following 
the tsunami, and nurses assigned to Fleet Surgical Team SEVEN aboard 
the USS Blueridge (LCC 19) rapidly prepared for the possibility of a 
mass influx of casualties and provided care for the sailors conducting 
air search and rescue/recovery operations.
    Navy nurses were also actively supporting our military personnel 
and families on the ground. A Navy Certified Nurse Midwife at U.S. 
Naval Hospital, Yokosuka, Japan, led the early identification and 
recall of expectant mothers providing timely and appropriate outreach 
assessment and education for this high-risk, vulnerable patient 
population and coordinated the medical evacuation of 19 families 
transferred to Okinawa, Japan. When low levels of radiation were 
detected, a Navy Family Nurse Practitioner led one of the five 
potassium iodide distribution sites with fellow nurses providing 
educational counseling for the remaining 200 expectant mothers and more 
than 2,800 parents with children under the age of 5. Labor and delivery 
nurses were medical attendants for expectant mothers and family members 
during their transport flight to Okinawa, Japan and provided assistance 
to U.S. Naval Hospital, Okinawa during this influx of obstetric 
patients.
    Nurses stationed at U.S. Naval Hospital, Okinawa provided medical 
and emotional support for 27 expectant mothers medically unable to 
return to the United States and family members arriving from Yokosuka, 
Iwakuni, Misawa, and Camp Zama. The first birth occurred just 2 days 
after arriving on Okinawa with the rest of the births following over 
the course of the next 4 weeks. Nursing support of these families did 
not stop following delivery and discharge from the hospital. Over the 
course of their 3-month stay, the nurses ensured the delivery and 
coordination of the highest-quality care until their safe return home.
    Fleet nurses continue to be a significant part of Navy Medicine's 
medical support and training to our sailors and marines at sea. On 
aircraft carriers, well-rounded nurses, specialized in critical care, 
emergency/trauma, and anesthesia provide care and safeguard the health 
and well-being of 4,000-5,000 crew members and embarked personnel, as 
well as train and prepare the ship's crew to effectively manage a 
disastrous event resulting in mass casualties. Their actions 
significantly contribute to overall mission success by ensuring total 
force readiness while underway.
    Extremely versatile, Navy nurses also provide tremendous support to 
the amphibious fleet as members of Fleet Surgical Teams (FSTs) bringing 
medical and surgical support, inpatient care and training capability to 
Navy vessels for a variety of missions. For example, a FST nurse 
anesthetist worked alongside medical officers of the Royal Singapore 
Navy providing clinical training and leadership during the 3-day 
medical training portion of ``Cooperation Afloat Readiness and Training 
(CARAT),'' an annual exercise between the U.S. Navy, its sister 
services, and the maritime forces of eight Southeast Asian countries. 
His sharing of medical knowledge strengthened regional cooperation, 
interoperability and relationships between partner nations increasing 
regional maritime security and stability.
    FST nurses aboard the USS Wasp (LDH 1) provided the around-the-
clock medical and surgical support required to conduct flight deck 
operations during the 18 days of initial sea trials of the F35B 
Lightening II Joint Strike Fighter. They supported the 22nd Marine 
Expeditionary Unit aboard the USS Bataan (LDH 5) during Joint Task 
Force Odyssey Dawn, a limited military action to protect Libyan 
citizens during a period of unrest. FST nurses aboard the USS Essex 
(LDH 2) were integral members of the medical contingency supporting 
President Obama's attendance at the 19th Association of Southeast Asian 
Nations (ASEAN) Summit in Bali, Indonesia, providing a readily 
available medical platform in the event of an unforeseen crisis.
    Navy nurses continue to serve side-by-side with the marines in 
vital clinical and leadership roles providing invaluable medical 
support and training. For the first time, a Family Nurse Practitioner 
is filling the role as the First Marine Expeditionary Force 
Headquarters Group Surgeon at Camp Leatherneck, Afghanistan. Nurses are 
now also serving in unique roles as clinical advisors at Headquarters 
Marine Corps (HQMC), Marine Corps Combat Development Command and the 
Marine Corps Warfighting Lab giving clinical input and recommendations 
to the Marine Corps dismounted complex blast injury (DCBI) team to 
prevent and treat blast injuries. Their clinical expertise, battlefield 
experience and knowledge of recent theater requirements contributed 
invaluable input for improvements in the equipment carried by marines 
and sailors and implementation of tactical combat casualty care (TCCC) 
recommendations for pre-hospital care that markedly increased the 
chance of survival for casualties. These nurses also collaborated with 
Coalition Forces through American, British, Canadian, and Australian/
New Zealand Armies to implement TCCC and DCBI guidelines throughout the 
pre-hospital phase standardizing care across the nations.
    The recently released National Defense Strategy ``Sustaining Global 
Leadership: Priorities for the 21st Century'' states, ``We will of 
necessity rebalance toward the Asia-Pacific region'' and we will 
``emphasize our existing alliances, which provide a vital foundation 
for Asia-Pacific security.'' Navy nurses assigned to the 3D Medical 
Battalion, 3D Logistics Group are essential leaders and subject matter 
experts in Pacific Medical Stability Operations. These nurses trained 
the corpsmen responding to Operation Tomodachi and provided direct 
medical support and training to FRSS, STP, and en-route care nurses. 
They also trained coalition medics and lay health providers embedded 
with the military medical assets involved in joint training exercises 
for international nation building in the Philippines, Thailand, Korea, 
and Cambodia. Overall, these nurses function as key leaders and 
planners in the development and execution of operational field training 
exercises that encompass Mission Essential Task List requirements for 
global operational readiness. The care, healthcare education, medical 
training, and leadership they provide while serving side by side with 
our marines is unparalleled.
    Through these diverse examples, it is clear that Navy nurses 
personify the Navy's slogan, ``Whatever it takes. Wherever it takes 
us.'' Navy nurses are central to the delivery of safe, comprehensive, 
and high-quality care often in the most demanding, challenging, and 
austere missions supported by Navy Medicine. Our Corps continues to 
make a significant impact on the long-term health and quality of life 
of our sailors and marines, as well as citizens of our international 
partner nations. Mr. Chairman, the remainder of my testimony will 
highlight Navy nursing's achievements in my five strategic focus areas:
  --Workforce;
  --Nursing knowledge/Clinical expertise;
  --Research;
  --Strategic partnerships; and
  --Information management/Communication.
                             our workforce
    The Navy Nurse Corps recognizes its people as our most vital asset, 
and we are committed to maintaining a force of highly skilled and 
adaptable nurses ready to meet the diverse challenges of Naval service. 
The Navy Nurse Corps Active component (AC) was 94-percent manned at the 
end of fiscal year 2011. The Navy Nurse Corps remains an employer of 
choice as evidenced by our projected successful attainment of our 
fiscal year 2012 AC recruiting goal. Although more challenging, our 
Reserve component (RC) is working very hard to attain similar 
recruiting success and was 88-percent manned at the end of fiscal year 
2011. These recruiting achievements are attributed to continued funding 
support for our accession and incentive programs, recruiting activities 
of local Navy Recruiters, active participation of Navy nurses in local 
recruiting efforts, and the public's positive perception of service to 
our country.
    The Nurse Accession Bonus and the Nurse Candidate Program remain 
our two most successful recruiting programs for Active-Duty nurses 
entering the Navy through direct accessions. For our Reserve component, 
officer accession, and affiliation bonuses for critical shortage or 
high-demand specialties such as Certified Registered Nurse Anesthetist, 
Psychiatric/Mental Health Nurse Practitioners, critical care, medical-
surgical, perioperative, and psychiatric nursing, and loan repayment 
programs for Certified Registered Nurse Anesthetist and Psychiatric/
Mental Health Nurse Practitioners remain the most successful recruiting 
tools.
    Last year, the Navy Nurse Corps experienced a significant decrease 
in our loss rates. I am happy to report the 2011 loss rates remained 
consistent with the improvements seen the prior year, particularly in 
our mid-level officers. We will make every effort to sustain these 
gains through long-term retention of these highly trained and qualified 
nurses. The Registered Nurse Incentive Special Pay (RN-ISP) and Health 
Professions Loan Repayment Program (HPLRP) remain central to our 
retention success. Full-time duty under instruction (DUINS) offering 
graduate education leading to advanced nursing degrees remains a major 
program for attracting new nurses as well as retaining those 
experienced Nurse Corps officers who desire advanced nursing education. 
I would like to thank you, Mr. Chairman, Vice Chairman Cochran, and all 
subcommittee members, for your continued support of these vital 
recruiting and retention programs.
    Although we have experienced great success in nurse recruitment and 
retention over the past several years, our efforts to attract and keep 
the best and brightest nurses is still a top priority. Navy nurses 
throughout the United States and abroad are actively involved in nurse 
recruitment and retention efforts to ensure the sustainment of a Corps 
with the most talented nurses. We are currently in the middle of our 
second successful tour with a Nurse Corps Fellow assigned to the Nurse 
Corps Office to monitor recruitment and retention efforts. Her presence 
at professional nursing conferences and job fairs speaking with new 
graduates and nurses across the United States provides an invaluable 
opportunity for us to gain real time information for prioritizing, 
planning, and implementing our recruitment and retention goals.
    Last year, I spoke of our focused efforts to build our psychiatric/
mental health nurse practitioner (PMHNP) community in response to an 
ever-growing healthcare need. PMHNPs continue to have a significant 
impact on building resiliency and enhancing the mission readiness of 
our sailors, marines, and families serving in diverse roles with the 
1st, 2d, and 3d Marine Divisions, in stateside and overseas MTFs and 
clinics, and a myriad of deployments in support of our fighting forces. 
I am pleased to say over the past 5 years, we have increased our PMHNP 
billets from 8 to 23. There are currently 17 nurses practicing in this 
specialty. With the anticipated graduation of seven PMHNPs in May of 
this year, this vital community will be 100-percent manned with several 
remaining in and selected for the training pipeline to maintain maximum 
manning levels in this critical specialty.
                 nursing knowledge/clinical excellence
    Clinical excellence in the provision of holistic and compassionate 
patient- and family-centered care is the cornerstone of Navy nursing 
and remains one of my top strategic priorities. Navy nurses are 
respected healthcare professionals actively involved in all levels of 
professional nursing organizations, the advancement of nursing 
practice, and sustainment of clinical excellence. The National 
Conference of the American Academy of Nurse Practitioners inducted two 
Navy nurses into the prestigious Fellows of the American Academy of 
Nurse Practitioners and another was honored as the recipient of the 
Pacific U.S. Territories State Award for Excellence.
    The Navy Nurse Corps remains committed to our nurse practitioners 
and nurse anesthetists attaining doctoral education through our full-
time DUINS program. We currently have 21 nurses in the training 
pipeline in programs that will take them directly from Bachelor's 
education to doctoral study, in specialties that include Certified 
Registered Nurse Anesthetist, Psychiatric/Mental Health Nurse 
Practitioner, Family Nurse Practitioner, Pediatric Nurse Practitioner 
as well as Nursing Research. This year, we selected 12 more nurses for 
doctoral education.
    Nurses new to the Navy face many unique challenges from learning 
the intricacies of patient care and becoming competent in the 
application of newly acquired knowledge, skills, and abilities (KSAs), 
to integrating into the Navy culture as a commissioned officer. 
Developing clinical expertise begins immediately upon the Nurse Corps 
officer's arrival at their first-duty assignment. To ensure novice 
nurses a smooth transition into this challenging clinical role and 
environment, we developed a standardized Nurse Residency Program based 
on the Commission on Collegiate Nursing Education's ``Standards for 
Accreditation of Post-BSN Nurse Residency Programs'' and implemented it 
across Navy Medicine. This program provides an avenue for new nurses to 
gain competence, confidence, and comfort through didactic learning. It 
integrates evidence-based practice concepts, a designated preceptor in 
each clinical rotation site and a list of expected knowledge, skills, 
and abilities to be achieved for competency-based learning. Although 
implemented at all facilities receiving novice nurses, the largest 
impact of the Nurse Residency Program can be felt at our medical 
centers. Recognized for the diverse and complex clinical training these 
large tertiary care facilities provide, they receive the largest 
numbers of novice nurses with more than 200 nurses completing the 
residency program at large MTFs annually.
    Over the past few years, the Nurse Corps has identified nursing 
specialties vital to routine and operational missions, developed 
standardized core competencies for these specialties, and ensured the 
development and sustainment of clinical proficiency for nurses 
throughout the enterprise. This year, significant work was done to 
update the core competencies based on current specialty practice 
standards. Formal policy was also developed to provide guidance for 
nursing leaders to sustain the utilization of these core clinical 
competencies and clinical proficiency in the identified critical 
specialties. This work will ensure nurses sustain the necessary 
clinical knowledge and skills within their clinical specialties to 
continually meet and succeed in any mission they are asked to fulfill.
    Earlier in this testimony, I gave examples of advanced nursing 
knowledge and clinical excellence of Navy nurses who are providing 
heroic care to our Armed Forces in theater at the point of injury for 
initial stabilization, during transport to higher levels of care and 
upon receipt to Role 3 facilities. This nursing knowledge and clinical 
excellence is also pivotal in every facet of care we provide our 
wounded warriors from the time they return stateside through their 
return to Active Duty or medical separation from Active service. Navy 
nurses are essential to creating and implementing innovative approaches 
to convenient and comprehensive treatment that enhances the care 
experience for our wounded warriors.
    Navy nurses serving at Walter Reed National Military Medical Center 
(WRNMMC) continue to do phenomenal inpatient work on the Traumatic 
Brain Injury/Post Traumatic Stress Disorder Unit. They are recognized 
subject matter experts and educators on the topic of nursing care for 
patients with psychological health-traumatic brain injury (PH-TBI). 
They serve as instructors at the Uniformed Services University of the 
Health Sciences (USUHS) on evidence-based nursing interventions so 
nurses new to this specialty have knowledge of current practice trends 
for PH-TBI. This past year, they also taught at Andrews Air Force Base 
instructing members of the Air Force Explosive Ordinance Disposal Team 
about the signs and symptoms of TBI to facilitate earlier 
identification and initiation of treatment for servicemembers.
    Inpatient nurses at the Naval Medical Centers San Diego and 
Portsmouth led the establishment of new inpatient units focused on the 
care of our returning wounded warriors. These units facilitate a smooth 
transition to the stateside MTF and provide comprehensive, convenient 
care in one centralized location. The ``one-stop-shop'' care concepts 
include direct admission to the unit providing a quiet, comfortable, 
and private environment for initial medical evaluations and often the 
first-time reunions with their families. Services brought to the 
patient include physical and occupational therapy, Project C.A.R.E. 
(Comprehensive Aesthetic Restorative Effort), education, and support 
groups for amputees and those experiencing combat operational stress, 
radiography, casting, evaluation by the acute pain service, and complex 
wound care. The care provided on these patient- and family-centered 
units has a tremendous impact on the recovery of our wounded warriors 
and their families.
    Navy nurses continually research best nursing practices and align 
with national healthcare initiatives in an effort to advance the 
outstanding care they provide to our beneficiaries. Nurses were 
instrumental to Naval Hospital Jacksonville's becoming 1 of only 119 
hospitals throughout the United States to have earned the ``Baby 
Friendly'' designation by ``Baby Friendly USA,'' a global initiative 
sponsored by the World Health Organization (WHO) and United Nations 
Children's Fund. To achieve this designation, staff educational and 
facility design requirements must be met as well as passing a rigorous 
on-site survey. To maintain this designation, the staff must provide 10 
clinical practices that include initiating breastfeeding within the 
first hour of life, keeping mothers and babies in the same room, and 
providing support groups for women who breast feed.
    Nurses at Okinawa, Japan introduced evidence-based practice 
initiatives endorsed by the Institute of Healthcare Improvement (IHI) 
and the Robert Wood Johnson Foundation's program Transforming Care at 
the Bedside (TCAB), a national effort to improve the quality and safety 
of care on medical surgical units and improve the effectiveness of the 
entire care team. They led the implementation of multidisciplinary 
patient rounds and change of shift nursing report at the patient's 
bedside. These changes provide an opportunity for the patient and 
family members to be fully engaged in their plan of care with all 
members of the healthcare team. They also started the practice of 
having patient safety huddles throughout the shift to communicate 
changes in patient status or plan of care so all members of the 
healthcare team are aware prior to the care hand-off at the change of 
shift. These nurse-led practices improved the effectiveness of the 
healthcare team's communication with the patient and with each other, 
increased the quality and efficiency of patient care hand-offs, and 
significantly reduced medication errors. These improvements have also 
been major contributors to the unit's overall 93 percent patient 
satisfaction score, the highest of any department in the hospital.
                            nursing research
    Advancing the science of nursing practice through research and 
evidence-based practice to improve the health of our patients is a 
vital strategic focus for the Navy Nurse Corps. Navy nurses authored 
more than 30 nursing publications and provided more than 50 formal 
presentations at various professional forums. We remain committed to 
increasing and diversifying our footprint in the field of research. 
This year, a team of outstanding nurses completed significant work to 
create a culture of scientific inquiry and revitalize nurses' interest 
in research, as well as increase the number of submissions and 
selections for projects funded by the Tri-Service Nursing Research 
Program (TSNRP).
    Fundamental to the growth and development of nurse researchers is 
the availability of experienced mentors to guide and teach research 
novices throughout the process. To address this need, a nurse 
researcher position was developed and filled by experienced researchers 
at Navy Medical Center San Diego, Naval Medical Center Portsmouth, and 
WRNMMC. Additionally, a nursing research network data base listing 
personnel with experience in research along with a list of research 
educational offerings was developed and placed on Navy Knowledge Online 
(NKO) providing a centralized location with easy accessibility for 
nurses throughout Navy Medicine. Last, a Nurse Corps recognition 
program was established to recognize and promote excellence in 
implementing evidence-based nursing practice.
    Mr. Chairman, we are extremely grateful for your continued support 
of the TSNRP, and I am proud to say that Navy nurses in both the Active 
and Reserve component are actively involved in leading and conducting 
Navy and joint research and evidence-based practice projects. In 2011, 
a Navy nurse took the helm as Executive Director of TSNRP and for the 
first time in Navy Medicine's history, a Navy nurse was selected to 
serve as the Deputy Director of the Joint Combat Casualty Research Team 
(JCCRT) overseeing medical and operational research activities in Iraq, 
Afghanistan, and Kuwait. Navy nurses completed research projects funded 
through TSNRP that have provided meaningful information to improve the 
care of our beneficiaries. One such study entitled, ``Stress Gym for 
Combat Casualties'' explored the lived experiences of combat casualties 
and the military nurses who cared for them. That information was used 
to develop and implement a Web-based intervention called Stress Gym, 
which provides an anonymous and private avenue for combat wounded to 
learn about the effects of and methods to manage stress, anxiety, 
anger, post-traumatic stress disorder (PTSD), and symptoms of 
depression. Stress Gym is extremely valuable in assisting nurses to 
address the psychosocial needs of returning warriors.
    Another study entitled ``Psychometric Evaluation of the Triage 
Decision Making Inventory'' resulted in findings that will assist us in 
preparing our nurses for deployment. This study validated the ``Triage 
Decision Making Inventory'' as a reliable tool for assessing nurses' 
clinical competence. Nurses working in any clinical specialty can now 
utilize this tool to evaluate their knowledge and target additional 
clinical experience and training as necessary to ensure optimal 
clinical readiness for operational deployments.
    A recently completed Tri-service study entitled, ``Factors 
Associated with Retention of Army, Navy and Air Force Nurses'' provided 
invaluable insight into why nurses stay in the military. Among the most 
important findings revealed in this study was that deployments, 
originally thought to be a significant factor in determining nurses' 
job satisfaction and retention, were actually not a significant factor. 
Most servicemembers are happy to deploy and saw this as their patriotic 
duty. Other factors influencing job satisfaction and retention in the 
military are based on opportunity for promotion, relocation frequency, 
professional leadership/autonomy, and ongoing opportunity to work in 
their clinical specialty. These findings are vital to the development 
of policy and leadership practices that facilitate continued job 
satisfaction and retention of our highly educated, skilled, and 
dedicated nurses.
    Numerous funded projects are currently in progress, and in 2011, 
Navy nurses were granted $1.5 million in TSNRP funds as Principal 
Investigators (PI) for new projects proposing to study cognitive 
recovery from mild traumatic brain injury, new treatments for 
hemorrhagic shock, elective surgery outcomes for veterans with PTSD, 
and the role of nurses working in Patient-Centered Medical Homes in the 
management of patients and/or populations with high rates of 
utilization of healthcare services. Mr. Chairman and distinguished 
members of the subcommittee, I would like to thank you again for you 
ongoing support of nursing research and I look forward to sharing the 
results of these studies in the future.
                         strategic partnerships
    Collaboration is absolutely essential in today's environment of 
continued rising healthcare costs and limited financial resources. 
Joint and integrated work environments are now the ``new order'' of 
business. As leaders in Navy Medicine and the Military Healthcare 
System, Navy nurses possess the necessary skills and experience to 
promote, build, and strengthen strategic partnerships with our 
military, Federal, and civilian counterparts to improve the healthcare 
of our beneficiaries.
    Currently, Navy nurses work with the Army, Air Force, the 
Department of Veterans Affairs (VA) and other Federal and 
nongovernmental agencies. They serve as individual augmentees (IAs), 
work in Federal facilities and joint commands, conduct joint research 
and teach at the Uniformed Services University Graduate School of 
Nursing. This past year, a nursing team was chartered to focus on 
exploring methods to further expand collaborative partnerships across 
Federal and civilian healthcare systems. Their diligent efforts 
resulted in the development of a standardized Memorandum of 
Understanding (MOU), approved by the Bureau of Medicine and Surgery 
(BUMED), to assist MTFs and clinics to more easily establish strategic 
partnerships with civilian medical and teaching institutions. These 
partnerships are necessary to increase collaboration and provide 
additional clinical experience and training opportunities for nurses to 
remain deployment ready.
    A unique partnership has been established between Naval Health 
Clinic New England in Newport, Rhode Island, the Naval Branch Health 
Clinic in Groton, Connecticut and the Veterans Affairs Medical Center 
(VAMC) in Providence, Rhode Island. Navy nurses from these clinics work 
two shifts each month in the VAMC emergency room or intensive care 
unit. This partnership benefits both organizations as it provides an 
opportunity for Active-Duty nurses to sustain their critical wartime 
specialty skills while assigned in an ambulatory setting and gives the 
VAMC additional nurses to support the provision of outstanding care to 
our veterans. Nurses involved in this collaboration who have returned 
from deployment, believed their VAMC clinical experience enhanced their 
training and preparation for deployment and instilled the confidence 
necessary to effectively perform in their role while deployed.
    Navy nurses serving at the Captain James A. Lovell Federal Health 
Care Center, the only VA and DOD integrated facility, work side-by-side 
with VA civilian nurse colleagues to provide high-quality care to 
Active-Duty military and their family members, military retirees, and 
veterans. Through this partnership, Navy nurses have increased their 
clinical knowledge and skills in the care of medical-surgical patients 
with more complex and chronic conditions seen in geriatric populations.
                  information management/communication
    Strategic Communication is paramount to the successful achievement 
of the Navy Nurse Corps' mission. In 2008, the DOD's ``The Principles 
of Strategic Communication'' describes Strategic Communication as ``the 
orchestration and/or synchronization of actions, images, and words to 
achieve a desired effect''. One of the nine key principles listed in 
this document is that it must be leadership-driven and ``to ensure 
integration of communication efforts, leaders should place 
communication at the core of everything they do''. I am committed to 
continually improving communication in the Nurse Corps to further 
strengthen our effectiveness.
    Today's global scope and varying degrees of technology venues are 
recognized variables in effective communication. This past year, I 
chartered a team of Nurse Corps officers to promote communication 
across the Nurse Corps by developing methods to sustain, advance, and 
evaluate current communication processes. This team conducted an 
environmental scan to gather data regarding the most preferred and most 
effective communication venues and analyzed the responses from more 
than 1,000 participants. Results obtained from the environmental scan 
survey have been operationalized into a Strategic Communication 
Playbook explaining the types of communication venues available, where 
these venues are located, and when the information is disseminated 
across the enterprise. Additionally, they completed the framework for a 
formalized Navy Nurse Corps Strategic Communication Plan. Our work in 
Strategic Communication will continue in the upcoming year, and I look 
forward to sharing our progress.
                               conclusion
    Navy nurses continually embody the highest caliber of naval 
officers and healthcare professionals. They remain at the forefront of 
clinical and military leadership, pivotal to the success of every 
mission involving Navy Medicine. Their commitment to clinical 
excellence, advanced education, scientific inquiry, operational 
medicine, and global health is unsurpassed. In every mission at home 
and abroad, our efforts remain focused on improving the health of those 
entrusted to our care by providing a care experience that is patient- 
and family-centered, compassionate, convenient, equitable, safe, and 
always of the highest quality.
    Senator Inouye, Vice Chairman Cochran, and distinguished members of 
the subcommittee, thank you again for this opportunity to share the 
remarkable accomplishments of Navy nurses and your unwavering support 
of the nursing profession. I am honored to be here representing the men 
and women of the Navy Nurse Corps and look forward to my continued 
service as the 23d Director of the Navy Nurse Corps.
STATEMENT OF MAJOR GENERAL JIMMIE O. KEENAN, CHIEF, 
            ARMY NURSE CORPS, DEPARTMENT OF THE ARMY
    Chairman Inouye. Thank you very much, Admiral.
    Now, may I call on General Keenan.
    General Keenan. Chairman Inouye, Vice Chairman Cochran, it 
is our honor to speak before you today on behalf of the nearly 
40,000 Active, Reserve, and National Guard officers, 
noncommissioned officers, enlisted, and civilians that 
represent Army nursing.
    Nurses have a proud history of more than 236 years of 
standing shoulder-to-shoulder with and caring for this Nation's 
warriors. We've done this in every conflict, from the dawning 
days of the American Revolution, to our current operations in 
Afghanistan. The Army Nurse Corps remains dedicated to 
America's sons and daughters who selflessly place themselves in 
harms way to defend this Nation.
    I'd like to share with you today a story from Captain 
Bujak. She's one of our Army intensive care unit (ICU) nurses. 
She was deployed to Iraq in 2009. Captain Bujak describes her 
experience with the patient she cared for in theater and later 
met back in the United States.
    ``During my deployment to Iraq, I took care of numerous 
patients, from servicemembers, to contractors, to local 
nationals. Two months into my deployment, our ICU received a 
critically injured soldier from a rocket-propelled grenade 
(RPG) attack. From the moment he arrived, nurses, physicians, 
medics on duty came together and worked as a team. He was 
fighting for his life, and we were fighting with him. He was 
stabilized and was later evacuated back to United States.
    ``Fast forward 2\1/2\ years. After the U.S. Army Medical 
Command (MEDCOM) change of command ceremony, I saw a familiar 
face, a face I've never forgotten. It was our soldier from 
Baghdad, wearing ACUs, and walking up the stairs on his 
prosthetics. I was honored to be able to introduce myself and 
speak with him about those 2 days in Baghdad.
    ``Speaking with the man whom I had remembered fighting for 
his life, and now was preparing to leave other soldiers 
assigned to the warrior transition command is an amazing 
experience. I don't have to wonder any more about that soldier 
from 2\1/2\ years ago. Now, I know I completed my mission.''

                          IMPROVE PATIENT CARE

    We're a globally ready medical force. Within the last year, 
483 of our nurses have deployed worldwide. We go with soldiers, 
airmen, sailors, and marines to save lives, support healing, 
and provide comfort. This is demonstrated by our medical 
management of the movement of critically injured patients in 
theater. The en route critical care nurse program is a joint 
Army, Navy, and Air Force endeavor, providing critical care 
transport capabilities on fixed- and rotary-wing evacuation 
platforms. This en route care program is a direct result of 10 
years of caring for wounded warriors.
    In addition to meeting demands, we continue to work to 
integrate our major initiatives to improve patient care. In 
February 2011, Army nursing began implementing a patient-
centered outcomes focus care delivery system encompassing all 
delivery environments: In-patient, out-patient, and deployed. 
The patient caring touch system was designed to reduce clinical 
quality variance by adopting a set of internally and externally 
validated best practices. The patient caring touch system is a 
true enabler of our major healthcare initiative, patient-
centered medical home. It enhances the quality of care 
delivered for America's sons and daughters.
    Nurses are taking a leading role in the implementation of 
and partnership with the delivery of services that focus on 
wellness outside the treatment facility. We serve in Army 
wellness centers and provide lifestyle coaching, health 
education that focuses on the behaviors that lead to 
preventable diseases, empowering our beneficiaries to lead 
healthier lives.
    As members of Army Medicine, we address the white space to 
impact the life space. Nurses are there at the many touch 
points of the comprehensive behavioral health system. We are 
integral in providing continuity and a standardized approach 
for our soldiers and families.
    I envision the Army Nurse Corps' journey toward nursing 
excellence will continue. We in the Army Nurse Corps are 
dedicated to the compassionate and trusted healthcare that we 
provide to America's sons and daughters.
    Chairman Inouye, Vice Chairman Cochran, we appreciate this 
opportunity to speak to you about Army nursing, and we also 
appreciate all of your support to Army nursing. I am very 
humbled and honored to represent the more than 40,000 men and 
women that comprise Army nursing, and also to serve as the 24th 
Chief of the Army Nurse Corps.
    Thank you.
    [The statement follows:]
          Prepared Statement of Major General Jimmie O. Keenan
                              introduction
    Chairman Inouye, Vice Chairman Cochran, and distinguished members 
of the subcommittee: It is an honor and a great privilege to speak 
before you today on behalf of the nearly 40,000 Active component, 
Reserve component, and National Guard officers, noncommissioned 
officers, enlisted, and civilians that represent Army nursing. It has 
been your continued tremendous support that has enabled Army nursing, 
in support of Army Medicine, to provide exceptional care to those who 
bravely defend and protect our Nation.
    Nurses have a proud history of more than 236 years of standing 
shoulder-to-shoulder with, and caring for this Nation's warriors. We 
have done so in every conflict from the dawning days of the American 
Revolution to our current operations in Afghanistan.
              globally ready nursing supporting the force
    The Army Nurse Corps (ANC) remains dedicated to America's sons and 
daughters who selflessly place themselves in harm's way to defend this 
Nation. They remain our priority, and Army nurses are an invaluable 
presence, with 483 Active Duty and Reserve component nurses engaged in 
military operations in support of Operation Enduring Freedom (OEF) and 
other missions worldwide in 2011.
    I would like to share a story from Captain (CPT) Bujak, one of our 
nurses who deployed to Iraq, on a patient she cared for in theater and 
later met back in the United States.

    ``During my deployment to Iraq, I have taken care of numerous 
patients, from our servicemembers, contractors to local nationals. Each 
patient was unique and my fellow nurses, medics and I provided them 
with the best care we could deliver. Two months into my deployment, our 
intensive care unit (ICU) received a critically injured soldier from an 
rocket-propelled grenade (RPG) attack. Upon arrival to the emergency 
room (ER), he was quickly taken to the operating room and after couple 
hours of surgery, he was transferred to the ICU for recovery and 
stabilization. From the moment he arrived in the ICU, all of the 
nurses, physicians and medics on duty came together and worked as a 
team. Everyone was calm and focused, yet you could sense the concern, 
whether we can make a difference and get this soldier home. He was 
fighting for his life, and we were fighting with him. [The patient was 
stabilized and evacuated back to the United States].
    ``For the next couple of months, we would get updates from Walter 
Reed Army Medical Center on the status of `our soldier', but once I 
redeployed back, I lost the ability to follow up. From time to time, I 
would reflect on that day, my teammates, the hard work and of course 
`our soldier'. Two-and-a-half years later, after the Army Medical 
Command (MEDCOM) Change of Command ceremony, I saw a familiar face; a 
face I have never forgotten. It was `our soldier' from Baghdad, wearing 
Army combat uniforms (ACUs) and walking up the stairs on his 
prosthetics. He looked as healthy and strong as any other soldier in 
the room. I was overcome with peace and joy. I was honored to be able 
to introduce myself to him and speak with him about those 2 days in 
Baghdad. Speaking with a man whom I remember fighting for his life and 
was now preparing to lead other soldiers assigned to the Warrior 
Transition Command is an amazing experience. I wanted to call the rest 
of my deployment ICU team and let them know `We did make a difference'. 
I don't have to wonder anymore about that soldier from 2 years ago. Now 
I know, I completed my mission.''

    The ANC is dedicated to the care of our warriors and continues to 
incorporate lessons learned from supporting over a decade of war. We 
are structuring our capabilities and skill sets to meet the latest 
strategic imperatives of Army Medicine. Let me share with you several 
examples of how we are meeting the needs of the Army.
    As a globally ready medical force, we go with the soldier, airman, 
sailor, and marine to save lives, support healing, and provide comfort. 
This is demonstrated by our medical management of the movement of 
critically injured patients in theater. The Enroute Critical Care Nurse 
Program (ECCN) is the direct result of 10 years of caring for wounded 
warriors. Its legacy is in the over-70-years of aero-medical 
evacuation. Enroute Care is the transport of critical patients via 
helicopter in theater. It is based on a research identified 
capabilities gap for the safe transportation of critically injured 
patients from point-of-injury (POI) to forward surgical resuscitation 
(Level II); from post-operative care Level II facilities to more 
definitive care at our Combat Support Hospitals (Level III); and from 
Level III facilities to the Strategic Evacuation platforms for 
transport to more definitive care in Europe and continental United 
States (CONUS). It encompasses strategically placed critical care 
nursing transport assets across the Combined Joint Operational Area--
Afghanistan (CJOA-A).
    The Army nurses providing this battlefield capability face many 
challenges. They must first meet the rigorous physical challenges 
required for the training and mission support. They must hold the 66H 
(8A) critical care nursing career field identifier and complete flight 
nurse training at the Joint En-route Care Course (JECC). The challenges 
to be overcome in training are minimal to the practice adaptations that 
must be made to provide in-flight care to critically wounded patient on 
life-support in the confined cabin of a rotary wing aircraft at 
altitude in hostile airspace, connected to an aircraft communication 
systems at night. Yet these nurses overcome these challenges, provide 
quality care under sub-optimal conditions and execute precision patient 
hand-offs between levels of care on the battlefield.
    The ECCN program is a joint Army, Navy, and Air Force endeavor 
providing critical care transport capabilities on both fixed and rotary 
wing evacuation platforms. The Army ECCN personnel requirements are 
mission dependent. However, there are currently nine Army nurses and an 
Air Force Team of one Physician and two Certified Registered Nurse 
Anesthetists (CRNA) assigned to the mission. They are attached to 
aviations assets across the CJOA-A supporting the movement of 
critically ill and injured across the battle space. In the last 
calendar year, these flight nurses transported 1,192 patients between 
levels of care within the Afghan theater. Two hundred eighty-two (27.5 
percent) of these transfers were United States service personnel; 303 
(29.5 percent) were Afghan Security Forces; 41 (4.1 percent) were 
coalition partners; 336 (32.7 percent) were Afghan civilians; and 37 
(3.1 percent) were detained personnel.
    ECCN personnel do more than transport the critically ill or injured 
while in theater; they also ensure that they remain relevant and ready 
not only for themselves but insure their team is ready as well. Captain 
(CPT) Ritter and First Lieutenant (1LT) Bester are shining examples of 
this within their aviation companies, as they ensure sustained 
competence of the enlisted flight medics. They are truly integrated 
members of the MEDEVAC team with a vested interest in the team's 
collective mission success.
    We have continued to develop full-spectrum capability to manage 
critical trauma patients in all environments responding to the Army's 
needs, broadening our scope across the battlefield, and consistently 
meeting unprecedented challenges while providing care to America's 
injured and ill sons and daughters. The first Trauma Nurse Course 
(Pilot course) was completed in February 2012, and 15 students 
completed an 18-week program at San Antonio Military Medical Center 
(SAMMC). The Trauma Nurse is a multifunctional Army Nurse with critical 
care theory, knowledge, and highly developed nursing expertise capable 
of optimizing patient outcomes. This nurse will have the foundation to 
care for patients across the continuum of care both in the emergency 
and intensive settings, and during patient movement regardless of the 
environment. This pilot is critical to determine the skill sets 
required to continue to be an agile and flexible medical force for our 
warriors.
    In addition to the trauma skill set, the ANC is developing other 
clinical skills to meet the Army's current and future needs. One of our 
new initiatives is the development and utilization of Psychiatric Nurse 
Practitioners which will be adopted as an area of concentration (AOC) 
for the Army. The Army Psychiatric Nurse Practitioner provides the 
assessment and diagnosis of mental illness and any medical problem that 
may account for or exacerbate a mental illness. They treat mental 
illness through medication management and psychotherapy. Treatment also 
includes the appropriate ordering of diagnostic tests and medical 
consultation/referral when indicated.
    Army Psychiatric Nurse Practitioners serve in as direct provider in 
the outpatient and inpatient behavioral health arena. Additional roles 
in a fixed facility include officer-in-charge of outpatient behavioral 
health clinics or the Chief of Department of Behavioral Health at a 
medical activity (MEDDAC) or medical center (MEDCEN). The senior Army 
Psychiatric Nurse Practitioner currently serves as the Psychiatric 
Nurse Practitioner Consultant to the Surgeon General (TSG). This senior 
Psychiatric Nurse Practitioner works with the other Behavioral Health 
Consultants to address behavioral health policy and procedures.
    Army Psychiatric Nurse Practitioners have deployed since the 
beginning of the Global War on Terrorism primarily to combat 
operational stress control (COSC) units, but also to Combat Support 
Hospital (CSH) in support of detainee care missions. Psychiatric Nurse 
Practitioners provided care to detainees and the soldiers, sailors, 
airman, and marines assigned to this mission. Army Psychiatric Nurse 
Practitioners have served as commander(s) of COSC unit(s) in Iraq and 
Afghanistan.
    One provider, Colonel (COL) Yarber, served as the Chief of 
Behavioral Health for a detainee care mission in Iraq for more than 
20,000 detainees and military/civilian support. Upon redeployment, he 
provided full-time direct outpatient care and served as the officer-in-
charge (OIC) for a 3-week intensive outpatient post-traumatic stress 
disorder (PTSD) treatment program (Fort Hood). Consequently, he was 
selected to serve as the OIC for the Outpatient Behavioral Health 
Clinic at Fort Hood while serving as the Behavioral Health Care manager 
for more than 1,000 soldiers and civilians identified as ``high risk'' 
after the November 5, 2009 SRP shooting incident at Fort Hood. He 
managed the ongoing assessment and coordinated care as required for 
both soldiers and civilians. Later he was selected to serve as the 
Chief, Department of Behavioral Health and subsequently deployed in 
support of OEF. COL Yarber is the Consultant to the Surgeon General for 
Psychiatric Nurse Practitioners, and is a shining example of our 
specialty addressing behavioral health needs of our warriors.
    Despite our efforts in theater, working with our coalition 
partners, the journey of our wounded warriors does not end in theater. 
Army Nurse case managers have been engaged in warrior care efforts 
since June 2003, when as a result of the wars in Iraq and Afghanistan, 
the demand for support and assistance for wounded, ill, and injured 
servicemembers began increasing exponentially. The Warrior Care and 
Transition Program has continued to make improvements to warrior care 
and nurse case managers have been at the forefront of those 
improvements. In December 2011, the Warrior Transition Command 
published the Comprehensive Transition Plan Policy and Execution 
Guidance. The comprehensive transition plan provides a tool that 
supports a soldier's goals to heal and successfully transition back to 
the force or to separate from the Army as a Veteran.
    The primary role of the nurse case manager is to assist each 
wounded, ill, or injured soldier in the development of personal goals, 
and then to oversee the coordination of his clinical care to ensure 
achievement of these goals. Nurse case managers are at the forefront of 
care managed by Triad of Care teams (which are comprised of a nurse 
case manager, primary care manager, and a squad leader or platoon 
sergeant), planned with the input of an interdisciplinary team, and 
outcomes focused on return to duty and the creation of informed and 
prepared Veterans who are armed and confident as they begin a new life 
out of uniform. Today, the Army has more than 500 nurse case managers 
assisting a warrior transition unit population of nearly 10,000 
wounded, ill, and injured soldiers. Case management efforts have 
facilitated the transition of 51 percent of this population back to the 
force.
    While our warrior transition units focus on our most severely 
wounded, ill, and injured soldiers, the number of soldiers requiring 
care for conditions that result in a medically nondeployable condition 
continues to grow. We recognized that there is a value add to provide 
this group of soldiers with nurse case managers in order to maintain a 
force that is ready to fight. The result has been the development of 
Medical Management Centers to facilitate a rapid return to the force of 
these soldiers. We have aligned Nurse Case Managers with our combat 
units in garrison to work with teams of Licensed Practical Nurse (LPN) 
Care Coordinators to quickly identify and coordinate care for our 
``medically not ready'' soldiers. These are soldiers who have temporary 
profiles for ongoing medical conditions that will take 30 days or 
greater to resolve. The Nurse Case Managers and LPN Care Coordinators 
partner with the soldier, the soldier's unit and the patient-centered 
medical home (PCMH) team to develop and execute a soldier-centered plan 
of care. This plan of care focuses treatment to return the soldier to 
full medical readiness as soon as the soldier is able. When a full 
return to duty is not possible, the nurse case manager facilitates the 
soldier's care and transition through the Integrated Disability 
Evaluation System (IDES).
    Our effort toward ensuring a globally ready medical force was 
further realized with the assignment of a senior nurse at U.S. Army 
Africa. As the first Chief Nurse for U.S. Army Africa, COL Armstrong is 
responsible for establishing nursing's role in support of the DOD's 
newest command. This includes researching the ``State of Nursing'' in 
55 African nations, ascertaining the medical activities of 
governmental/nongovernmental agencies to eliminate any overlap of Army 
programs, and serving as a medical ``strategist'' to identify 
opportunities for future engagements. Other activities include serving 
as a clinical expert and facilitator for military to military medical 
exchanges, surveying host nation medical facilities, and ensuring that 
personnel have the appropriate credentials for all Army-led medical 
missions on the continent.
    COL Armstrong also served as the Surgeon for Joint Task Force (JTF) 
Odyssey Guard in support of Libya during its ``Arab Spring'' uprising. 
As the senior medical advisor to the JTF Commander, COL Armstrong and 
her staff played a key role in the joint planning and oversight of 
ground, sea, and air medical assets, coordinated the medical evacuation 
of 26 Libyan war wounded to facilities in the United States and Europe, 
and supported the re-establishment of the United States Embassy in 
Tripoli.
                     enhancing the care experience
    In February 2011, Army nursing began implementing a patient-
centered, outcomes focused care delivery system encompassing all care 
delivery environments; inpatient, outpatient, and deployed. The Patient 
Caring Touch System (PCTS) was designed to reduce clinical quality 
variance by adopting a set of internally and externally validated best 
practices. PCTS swept across Army Medicine, and the last facility 
completed implementation in January 2012. PCTS is a key enabler of Army 
Medicine's Culture of Trust and nests in all of Army Medicine's 
initiatives. PCTS is enhancing the quality-of-care delivery for 
America's sons and daughters.
    PCTS has improved communication and multidisciplinary collaboration 
and has created an increased demand and expanded use of 
multidisciplinary rounds (Patient Advocacy--Care Teams). In one large 
Medical Department Activity (MEDDAC), a provider was concerned with 
gaps that he saw in the discharge planning process that he had on a one 
of his wards. He said ``I think that all would agree that the PCTS has 
been a huge success in improving physician/nurse communication. 
Personally, I love being able to round with the nurse taking care of my 
patients and have already seen improvements with accountability and 
performance . . .  Mr. F. approached me this morning with a fantastic 
way to extend this same system of communication to discharge 
planning.'' This provider facilitated the necessary changes, partnering 
with nurses to ensure that the patient remained the focus of the 
change. Several facilities have reported that bedside report, hourly 
rounding, and multidisciplinary rounding are so much a part of the 
routine that they cannot recall a time when it was not part of their 
communication process. During one facility site visit, when the team 
walked into the patient room, the patient was overheard to say, ``Hello 
Care Team! It is so good to see your familiar faces--time to update my 
white board and for me to tell you what kind of day I had and what my 
priorities are tonight!''
    For the first time in the history of Army nursing, we have outcome 
data obtained through the systematic tracking and reporting of 10 
priority metrics, benchmarked against national standards. (Evidence-
Based Practices--Optimized Performance). This has served to increase 
individual and collective accountability, and the use of evidence-based 
practices. In three of our largest military treatment facilities (MTFs) 
we were having challenges in pain reassessment--we knew that it was 
being done, but it was not being documented. Pain reassessment (in the 
inpatient) and pain assessment (in the outpatient) environment is 1 of 
the 10 priority metrics of PCTS. It is also a focus area for the Pain 
Management Task Force, the Joint Commission, etc. We found that just by 
tracking this metric, there has been a significant improvement (on 
average 50-90 percent compliance within the first 60 days) to 98-
percent compliance within 90 days. Staff in these facilities were very 
excited, and instituted simple, cost neutral interventions such as 
using a medication administration buddy system, door signs in the shape 
of a clock, use of hourly rounds, and pager systems to support pain 
reassessment processes. In the outpatient areas, visual cues regarding 
the ``fifth vital sign,'' referring to perceived pain, were created, 
and a modified buddy system was used to support pain assessment 
processes. These interventions have supported pain reassessment rates 
and assessment rates of 98-100 percent which have a positive outcome 
impact for patients. We are seeing decreased rates of falls with 
injury, medication errors and medication errors with injury since 
implementation of PCTS, and are continuing to monitor these data 
monthly.
    PCTS increases the continuity of care by decreasing staff 
absenteeism and reducing staff churn. We have been tracking facility 
absentee rates monthly since PCTS was implemented, and have noted a 
decrease in many facilities. As part of PCTS, we conduct Practice 
Environment Scale of the Nursing Work Index (PES-NWI) surveys, 
completing one in January 2011 and one in July 2011. When we compared 
the data for intent to leave, there saw improvements in the data 
postimplementation. These data are very promising and warrant close 
evaluation. We will continue to monitor absentee rates, and we will 
conduct the survey again in April 2012. We expect this trend continue 
and to be able to link these data to PCTS.
    PCTS increases nurse engagement which positively impacts patient 
outcomes. (Healthy Work Environments--Shared Accountability) At a 
recent site visit to a MTF a registered nurse when asked why she was 
actively engaged in PCTS said, `` . . . for the first time in a long 
time I feel that what I have to say matters, and that nurses are seen 
as an equal part of the healthcare team--that feels good.'' One nurse 
said, ``PCTS has given the practice of nursing back to nurses--others 
used to tell us what we could and could not do and we let them--we have 
to know what our scope of practice is and PCTS has made us have to be 
much smarter about it.''
    Facilities across Army Medicine have implemented shared 
accountability in the development of unit practice councils and 
facility nurse practice councils. This has allowed each to create real 
time examination of practice, to ensure that it is standards based, 
innovative and current, and aligns with the ANA Standards of Practice 
and Professional Performance and Code of Ethics. Several of the 
products from these councils are being prepared for review by the Army 
Nurse Corps Practice Council (ANPC) for consideration as an ANC-wide 
best practice. The ANPC has fielded two Army nursing-wide clinical 
practice guidelines since PCTS implementation; patient falls prevention 
and nursing hourly rounding. Both directly support one of the 10 
priority outcome based metrics and illustrate another first for Army 
nursing.
    PCTS supports licensed personnel to perform at their fullest scope 
of their licensure, and for nonlicensed personnel to perform at their 
fullest scope of competence. In a recent site visit, a 68D 
Noncommissioned Officer shared that he is the Core Component Leader for 
Shared Accountability, and is the leader for the Unit Practice 
Councils. He said that before PCTS, he would never have been able to 
have this role. He now has a better understanding of licensed practice, 
and the scope of competence of unlicensed personnel. He believes that 
this has increased the understanding of exactly what the 68D (operating 
room technician) can do and what the 68W (medic can do). This has 
really helped all across the facility--medics are doing more than just 
taking vital signs. This makes the medics feel valued in their role in 
the clinics.
    PCTS ensures that our patients know that their best interests drive 
all of our care decisions, and that they are part of those decisions. 
As PCTS moves into sustainment, we expect that we will continue to have 
positive impacts in each of the 10 priority metrics and that these 
results will enable similar changes in Army Medicine.
    Another healthcare initiative is the patient-centered medical home 
(PCMH). Nursing engagement and commitment to in the PCMH transformation 
process have been impressive. The PCMH transformation process has been 
a grassroots and top driven endeavor from the regional medical command 
level down to each individual MTF to provide comprehensive and 
continuous healthcare to our beneficiaries.
    Nurses have been on the forefront of PCMH transformation and while 
many had unique PCMH nursing stories the following were ones that are 
the most memorable. Major (MAJ) Gray, Officer-In-Charge Military 
Readiness Clinic and Family Nurse Practitioner (FNP) states that the 
continuity of care that PCMH provides has allowed her, as an FNP, to 
put patients back into the center of care and allowed patients to trust 
that the system works. One story she shared was how a wounded warrior 
was able to decrease his pain meds from four to one over the past 6 to 
9 months. She stated that continuity of care between herself and the 
patient allowed the patient to trust that ``you will take care of me''. 
For the nurses that work in her clinic, ``the spark has been reignited 
. . . you can see it in their eyes'' and in the nursing care that they 
deliver. Often the nurses remark that, ``This is why I got into 
nursing--this is why I went to nursing school. PCMH helps me to make a 
difference and helps me to improve my patient's lives.'' One of MAJ 
Gray's nurse's, Ms. Ingram, a licensed vocational nurse (LVN), states 
that PCMH allows her to be considered a nursing professional. She 
didn't feel as if others regarded her as a professional because she was 
a LVN. She stated, ``Now my patients know me and the team. We have a 
personal relationship. They feel like we care, and we do. When we ask 
them how they are doing, they tell us. They trust the system. Even when 
I am not at work, like the other day I was at Wal-Mart after work, my 
patient call out to me, `Hey! You are my nurse!' PCMH is not about 
numbers but about our relationship with our patients.''
    Nurse Case Managers play a large role in the coordination of all 
phases of patient care in this system. Nurse case managers are having a 
direct impact on savings within our PCMHs. The case manager's early 
identification and care coordination of high-risk patients reduces 
hospitalizations and emergency room visits, improves medication 
adherence and closes care gaps that trigger or exacerbate health 
conditions. The return on investment of embedding Nurse Case Managers 
into the Primary Care Clinics and the Medical Management Centers 
directly supports the MEDCOM's initiatives.
    We recognized a need to educate Army Nurse Case Managers in all 
practice settings. In November 2011, we launched a new nurse case 
management qualification course directed toward the novice case manager 
but open to any case manager joining the Army Medical Department 
(AMEDD) team. Military graduates are awarded the M9 identifier. 
Additionally, graduates should have the core skills to sit and pass a 
national certification exam once they have obtained the clinical 
practice hours to be eligible to take either the certified case manager 
(CCM) or American Nurses Credentialing Center (ANCC) exam.
    During the week of February 6, 44 nurse case management students 
assigned to warrior transition units, community-based warrior 
transition units, and PCMH practice settings worked alongside warrior 
transition unit squad leaders and platoon sergeants at the resident 
course in San Antonio, Texas to practice skills in communication and 
collaboration. The case managers watched a movie outlining the journey 
of four Operation Iraqi Freedom soldiers and their families from 
deployment through recovery. They formed teams and developed care plans 
using the Comprehensive Transition Plan process for one of the four 
soldiers and presented it to the group. That same week, a group of 28 
nurses participated in guided discussions on effective documentation 
and the integrated disability evaluation system from around the 
country. They used Defense Connect Online technology to facilitate 
their discussion, share ideas and continue to develop a standard skills 
set as case managers.
    The Army also recognized a need for ongoing professional 
development of our nursing case managers. To facilitate the education 
of Supervisor Nurse Case Managers, the Warrior Transition Command 
developed a 4.5 day Clinical Leader Orientation Program. This program 
focuses on key leader competencies and provides attendees with 13 hours 
of continuing education. In August of this year, MAJ Steimle will begin 
a course of study to obtain a Master of Science in Nursing Case 
Management. She is our first ANC officer to receive funded graduate 
education support for a Masters in case management. Beginning in fiscal 
year 2013, we have programmed funds to send two nurses to graduate case 
management programs annually.
    Under the direction of Ms. Roberts, the Womack Army Medical Center 
Medical Management team developed a process to examine the essential 
components of appropriately sized caseloads for case managers in MTFs. 
The team developed a model that not only takes into account patient/
family acuity and nurse case manager abilities but also provides for 
capture of quality metrics, return on investment data, utilization 
management data, and peer review.
    The result was the development of the Nurse Case Manager Workload 
and Acuity Tool. This process improvement initiative has had a 
statistically significant and measurable impact on the role of case 
management in patient care, individual and department goal-setting, the 
supervisory process, and performance expectation. The MEDCOM has 
recognized this initiative as a best practice model in caseload 
calculation and the resulting quality implications. As a result the 
tool is being tested Army-wide.
    As we expand the utilization of Nurse Case Managers, so, too, do 
savings generated by their efforts. The case manager's early 
identification and care coordination of high-risk patients reduces 
hospitalizations and emergency room visits of the chronically ill, 
improves medication adherence, return's soldiers to Full Medical 
Readiness and closes care gaps that trigger or exacerbate health 
conditions.
     unity of effort through joint teams and coalition partnerships
    As they have selflessly served in the past, Army nurses stand today 
on freedom's frontiers in Afghanistan supporting the International 
Security Assistance Forces (ISAF), our partners in the North Atlantic 
Treaty Organization (NATO), and as members of United States Forces--
Afghanistan. One hundred thirty-six Army nurses from all three Army 
components make up the Army Nursing Care Team--Afghanistan. Ninety-nine 
represent the Active component, 30 represent the U.S. Army Reserves, 
and two represent the Army National Guard. These nurses are delivering 
world class care to our warriors, our NATO partners, Afghan Security 
Forces, and the people of Afghanistan. They provide care in 39 
different facility-based locations, at the four distinct roles in the 
spectrum of battlefield care, at the five theater regional command 
levels, and along the entire continuum of combat care--from point-of-
injury to evacuation from the theater of operation. This care includes 
reception of Afghan casualties, treatment, and responsible discharge 
planning to the Afghan National Care System.
    Multinational partnerships are part of the shared vision for a 
stable, independent, sovereign Afghanistan. This includes the 
coordinated application of all of the available instruments of power to 
aid in stabilizing and legitimizing the Afghan system. Partner 
countries engage in activities to win the hearts and minds of the 
Afghans and a peaceful end to war and enhance efforts toward national 
stability. This includes helping the Afghan people meet their basic 
need for clean food and water, health and security; while 
simultaneously ensuring the health and welfare of the International 
Security Assistance Forces. In September 2011, 87 members of the 10th 
Combat Support Hospital from Fort Carson Colorado joined forces with 
the 208th Field Hospital and a Danish Forward Surgical Teams to provide 
comprehensive Role 3 combat health service support at Camp Bastion in 
Helmand Province, Afghanistan.
    This first ever joint U.S. Army and UK Army health service delivery 
partnership has been an innovation in the responsiveness, flexibility, 
adaptability, and battlefield capabilities supporting coalition forces, 
Afghan Security Forces, and providing much needed trauma support for 
severely injured Afghan civilians. While the partnership is largely 
about the enhanced healthcare capabilities and building reliance on the 
Afghan system of care, it has also transformed how we train, deploy, 
and sustain medical forces in a combat zone.
    The 87 members of the 10th Combat Support Hospital, including 43 
Army Nurses, began their road to war by joining 143 British 
counterparts from the 208th Field Hospital to take part in a 2-week 
Mission Support Validation (MSV) Hospital Exercise (HOSPEX) in 
Strensall, England. The assembled team was specifically formed to 
provide enhanced polytrauma surgical capabilities to care for the 
emerging complexities of blast injuries from improvised explosives 
devices (IEDs) encountered by coalition forces during dismounted 
patrols in south and southwest Afghanistan. This first ever US/UK joint 
training exercise conducted in Strensall, England was a model for 
mission specific team training for deployed operation. During this 
HOSPEX, the newly established team was collectively exposed to the 
mission expectations and facilities at Camp Bastion, including every 
aspect of care from casualty reception to evacuation. Forming teams 
with their specific practice areas the primary focus was on team 
development, familiarizing the team with the equipment and processes of 
care. This collaborative environment provided the healthcare teams with 
the opportunity to share evidence based clinical practice guidelines, 
train on procedures, and rehearse trauma procedures prior to deploying 
to ensure that everybody on the team knew, understood, and was 
validated with every protocol under combat like conditions prior to 
deploying.
    The joint US/UK support mission at Bastion/Camp Leatherneck is a 
critical one and the 43 Army nurses assigned there play an essential 
role in the combat health service support to the more than 54,650 
coalition soldiers at risk within Regional Commands South-West and 
West. They provide compassionate nursing care in the 6-bed emergency/
trauma suite, the operating theater, the 16-bed intensive care unit, 
and the 50-bed intermediate care ward. And while they do so they are 
innovating nursing practice, streamlining the discharge planning 
process, and supporting the Afghan healthcare system.
                         health service support
    The ANC is fully engaged in joint operations with our sister 
services. One example of the synergy we have created with dedicated 
effort of the Navy and the Air Force is the Joint Theater Trauma System 
(JTTS). The ANC has been providing officers to function as trauma nurse 
coordinators in the JTTS since 2004. These critical care nurses serve 
jointly with Navy, Air Force, and Canadian nurses to collect trauma 
data in-theater and conduct performance improvement at the three U.S.-
staffed military hospitals. In the past year, six Army nurses have 
filled this role in southern and eastern Afghanistan, working closely 
with British forces and the air medical evacuation units in those 
regions. In 2011, these nurses entered more than 2,000 records in the 
military trauma registry, documenting the medical care given to all 
casualties, military and host nation, cared for by Coalition forces 
from point-of-injury to hospital discharge.
    In addition to deployed personnel, the ANC has recently positioned 
two field grade officers at the Joint Trauma System in San Antonio. 
These officers were assigned following postgraduate fellowships at the 
RAND Corporation. Using the analytic skills learned in their training, 
they have completed system-wide performance improvement and evaluation 
projects on a variety of urgent trauma issues, including pre-hospital 
medical evacuation, blood product utilization, en route critical care, 
clinical practice guidelines, and surgical complications. Whether it's 
optimizing care at the bedside in-theater, ensuring the best care at 
each stop on a wounded warrior's journey home, or at the enterprise 
level monitoring delivery of the most current evidence-based care, 
nurses continue to be integral parts of the trauma system of care.
    Another successful example of joint operations is the Walter Reed 
National Military Medical Center (WRNMMC) Inpatient Traumatic Brain 
Initiative/Post-Traumatic Stress Disorder Unit (TBI/PTSD). The TBI/PTSD 
unit, (7 East) is a 6-bed acute care unit with medical/surgical and 
behavioral health capability. Conceptually, it is a short stay unit (2-
3 weeks) where functional deficits are evaluated among wounded and 
injured servicemembers, while simultaneously engaging in early 
interventions for TBI complications. This multidisciplinary approach is 
a major collaborative effort among nurses, therapists, physicians, 
patients, and family members, and it continues to be one of the 
essential pillars that navigate and shape care provided to this complex 
population.
    One of the success stories from this venture was patient J.B. who 
initially came to 7 East with increasing behavioral issues that 
prevented his ability to live unassisted in the community after 
sustaining injuries from an IED blast and a subsequent automobile 
accident. After multiple failed hospitalizations, the family turned to 
WRNMMC for help. The patient's recovery improved with highly 
specialized collaborative treatment interventions including medication 
adjustments and behavioral therapy. A full article was published on 
this patient's case in the September 2011 Washingtonian Magazine.
    We are following the Institute of Medicine's (IOM) recommendation 
to prepare and enable nurses to lead change and advance health through 
the assignment of Army nurses to warrior transition units and our focus 
on public health and behavioral health. I believe that my assignment as 
Commander of USA Public Health Command shows that the Army recognizes 
the importance of nursing in advancing health from a healthcare system 
to a system of health.
    In America, we in DOD spend an average of a 100 minutes each year 
with our healthcare team. The other 525,500 minutes of the year our 
patients are not with us--the same amount of time our environment 
influences the behaviors that determine our health occur. Nurses are 
taking a leading role in the implementation of and partnership with the 
delivery of services that focus on wellness outside the treatment 
facility. They serve in Army Wellness Centers and provide lifestyle 
coaching and health education that focus on the behaviors that lead to 
the manifestation of diseases (e.g., hypertension, diabetes, 
cholesterol) thus reducing dependency on treatment and empowering them 
to lead healthier lives.
    Another initiative to support America's sons and daughters wellness 
outside the treatment facility is the Army healthy weight campaign--a 
comprehensive framework to increase physical activity, redesign how we 
eat and the environments that support both. It is a plan to achieve a 
unified vision of an Army family leading the Nation in achieving and 
maintaining a healthy weight through surveillance, clinical prevention, 
and community prevention. This campaign supports two strategic 
priorities of the National Prevention Strategy, signed by President 
Obama on June 16, 2011. Public health executive nurse leaders were 
instrumental in the development of this National Prevention Strategy, 
and continue to serve as national leaders in the implementation of this 
roadmap for our Nation's health.
    When prevention is insufficient to protect our warriors from health 
threats across the globe, the USA Public Health Command created the 
structure for enhanced public health nursing capability that provides 
centralized oversight with decentralized health protection and wellness 
services world-wide. This public health nursing capability exceeded all 
expectations when tested in September as part of the Rabies Response 
Team efforts when more than 9,000 warriors, DOD civilians and 
contractors across the globe received medical screening and treatment 
services--the majority within 72 hours of notification. Initially, Army 
Public Health nurses reached out to these warriors during the Labor Day 
holiday to provide the human touch that allayed their fears and 
synchronized follow-on care regardless of their remoteness to military 
healthcare facilities.
    The ANC is also engaged with the latest initiatives in the AMEDD. 
Recognizing the magnitude and impact of women's health, the Surgeon 
General identified the need for a Women's Health Task Force (WHTF) to 
evaluate issues faced by female soldiers both in theater and garrison. 
We have several Army nurses assigned to the task force, the Executive 
Officer MAJ Perata is an obstetrics/gynecology nurse. The Task Force is 
currently working on a number of initiatives for Women Health, to 
include research and development on the fit and functionality of 
uniform and protective gear for female body proportions, research of 
the psychosocial affects of combat on women, and to investigate the 
integration of Service policies on sexual assault prevention and 
response programs in theater. Given the large percentage of women in 
our Army, we fully support the TSG initiatives in women's health.
                     development of nursing leaders
    The Nurse Corps is dedicated to the support of lifelong learning by 
providing numerous continuing education opportunities. We created the 
Nursing Leaders' Academy to provide the developmental leadership skills 
within our nursing officers to mold them into future healthcare 
leaders. We send Nurse Corps officers for advanced degrees in clinical, 
research, and administrative degree programs to build our profession. 
We also support contact hours for lectures, conferences, and seminars 
to maintain our officer's licensure.
    We believe that providing a residency program to our novice nurses 
is essential to the training of new graduates. We implemented a 
Clinical Nurse Transition Program which last 6 months and prepares our 
novice nurses for clinical practice. This program, in its third year, 
has resulted in an increase in our novice nurses intent to stay in the 
ANC beyond their initial obligation as well as favorable comments from 
patient surveys. We also have developed a Clinical Nurse Leader pilot 
program and support clinical residency programs for a number of our 
graduate education programs and clinical specialty programs.
    The ANC is also following IOM's recommendation to increase the 
number of nurses with a doctorate. Our advanced practice nurses will 
possess a Doctor of Nursing Practice (DNP) as the standard degree in 
our training and education programs by 2015. We currently fund five 
nurses a year through our robust Long-Term Health Education and 
Training Program for Ph.D. studies.
    An example of one of our recent Ph.D. students is MAJ Yost who 
earned her Ph.D. degree in nursing from the University of Virginia. Her 
dissertation was titled, ``Qigong as a Novel Intervention for Service 
Members With Mild Traumatic Brain Injury''. The purpose of the study 
was to determine the level of interest in and perceived benefit of a 
program of qigong, a Chinese health system that has been practiced for 
thousands of years. In addition to perceived improvements in quality of 
life and pain management, the active meditative movements of qigong 
allowed servicemembers to enjoy benefits of meditation without 
experiencing troublesome flashbacks commonly seen in those with mild 
traumatic brain injury (mTBI) and comorbid PTSD.
    The ANC also values the contributions of our Department of the Army 
civilian nurse leaders. Our consultant for Nursing Research, Dr. Loan, 
is one of our many valued civilian members. Dr. Loan, Ph.D., RNC, just 
completed her second year as the Consultant to the Surgeon General for 
Nursing Research. Her recent contributions include: AMSUS November 2011 
Speaker: Army Nursing Research Evidence-Based Priorities Breakout 
Session; Nursing Research Advisory Board Meeting November 2011 to 
establish 2012 EBP/Research priorities. She recently was published in 
the AMEDD Journal related to the transformation from Nursing Research 
Service to Centers for Nursing Science and Clinical Inquiry October-
December 2011. Dr. Loan was inducted into the Fellows of the American 
Academy of Nursing (FAAN) in October 2011.
    The total civilian nurse (registered nurse (RN), licensed practical 
nurse (LPN), and certified nursing assistant (CNA)) inventory 
constitutes 23 percent of the MEDCOM civilian workforce and 34 percent 
of the civilian medical occupations in Career Program 53--Medical. 
Civilian nurses work in all nursing care settings to promote readiness, 
health, and wellness of soldiers, their family members, retirees, and 
other eligible beneficiaries across the lifespan. It is the dedicated 
civilian nurse workforce that enables and complements the ANC to meet 
full mission requirements by serving as the fibers in the network of 
continuity at fixed facilities. Civilian Nurse Career development has 
been on the forefront of the Nurse Corps agenda for the past decade in 
support of integrated Talent Management and Leader Development. This 
integration fosters development of adaptive leaders and further 
building of highly trained, educated, and confident leaders and 
followers to construct required high-performing integrated teams.
    The ANC has diligently worked to establish sustainable career life-
cycle management strategies such as Student Loan Repayment Program, 
Accelerated Training and Promotion Program, standardized nurse titling, 
nurse competencies, and nursing position descriptions (some dating back 
to the 1970s), and Career Maps which have either been implemented or 
are in progress. For example, the student loan repayment program has 
supported 955 individuals with 299 of them supported for multiple 
years. This has resulted in 85-percent retention rate of these for 
retention purposes and improved educational status of the workforce. 
The Accelerated Training Program allows for new RN placement and 
accelerated promotion of two grades within 1 year with successful 
completion of each phase of training. Fifty-three personnel have 
successfully completed this program which has resulted in advancing 
academic accomplishments and career entry for nursing personnel. The 
DOD Civilian Healthcare Occupations Sustainment Project (CHOSP) has 
been a multiphased initiative that has resulted in updated 
qualification standards for civilian RN and LPN nursing positions and 
the creation of an advanced practice registered nurse (APRN) standard 
to support a relevant and dynamic workforce. These, along with 
standardized titling and competencies, promote value by reducing 
unnecessary variance leveraging the full capabilities of a trained 
workforce, and enhancing unity of effort. The feasibility and 
functionality of Professional Standards Boards (PSBs) continue to be 
explored as a culmination of the nurse career development and 
progression.
    I envision the ANC will continue compassionate care and innovative 
practice in healthcare. Through the PCTS and the PCMH we will 
consistently and reliability meet the needs of our patients and their 
families. We will continue to grow and develop our nurses to fill the 
gaps in our health system while anticipating future needs. The ANC is 
positioned for the changes in our Army and in Military Medicine. We 
will continue to embrace our proud past, engage the present challenges, 
and envision a future of seamless improvement in quality care. We in 
Army nursing are truly honored to care for America's sons and 
daughters. Senator Inouye, Vice Chairman Cochran, and distinguished 
members of the subcommittee, thanks again for the opportunity to 
highlight Army nursing. I am humbled and honored to represent the more 
than 40,000 men and women who comprise Army nursing and serve as the 
24th Chief of the Army Nurse Corps.

    Chairman Inouye. Thank you very much, General Keenan. 
Before I proceed, I'd like to assure all of you that your full 
statements are part of the record, and then we will be 
submitting our more technical questions for your responses in 
writing.

                         CHIEF NURSE CORPS RANK

    I have one question with two parts: Any comments you'd like 
to make on the reduction of rank from 08 to 07, as Chief of new 
nurses? Do you do have any problems with recruiting and 
retention?
    May I start with the Admiral?
    Admiral Niemyer. Thank you, Senator. On the first question, 
first and foremost, we are very grateful for your continued 
support of leadership opportunities for nurses in both the 
profession of nursing as well as military nursing.
    I have had the unique experience among my peers to serve as 
a one star. When I was selected as a one star, it gave me the 
opportunity to have a position that I believe was extremely 
competitive in a leadership role, overseeing the TRICARE 
contract for the western region, a $17 billion contract. I 
believe that opportunities like that, at the one-star level, 
could, in fact, make our nurses continue to be competitive in a 
selection process for a second star.

                    NURSE RECRUITMENT AND RETENTION

    I do not disagree with the efficiencies that have been 
directed by the Department. I would like to say that having an 
important leadership path and competitive support for nurses 
getting exposure to various assignments that will, in fact, 
make them competitive both at the rank of selection for one 
star as well as two is extremely important. And I think as we 
see a group of nurses coming forth, who have the same battle-
tested expertise, fleet assignments and assignments with the 
Marine Corps, we will continue to grow a very competitive group 
of nurses who can compete in any environment.
    In the second question, recruitment and retention, we are 
doing extremely well in both of those areas in the Navy Nurse 
Corps. We have met our recruiting goals in the Active component 
for the last 6 years, and I believe that we have the right 
incentives with special pays and accession bonuses that you've 
been quite instrumental in helping us to attain. That has been 
extremely useful for us in our retention as well, with special 
pays for registered nurses and our advanced practice nurses. 
So, we are doing quite well.
    We do recognize that there is a time where we may not have 
the same kind of economy, where we may see people leaving the 
military, and we look continually for programs and 
opportunities to continue that exposure to the military and 
develop our staff along the way, so that the choice will be 
retention and not movement to the civilian sector.
    Thank you.
    Chairman Inouye. General Keenan.
    General Keenan. Yes, Sir. On the first question, I will 
tell you that I do agree with Lieutenant General Horoho. We 
have developed a very robust leadership development track in 
Army Medicine that truly allows our nurses to compete at any 
level or command. And with that, we want to thank you for your 
continued support to expand fair opportunities for us in 
military medicine to have those abilities to compete for those 
types of inmaterial command.
    But, we do believe that with the leadership opportunities 
that we do have available in military medicine to compete for 
combat commands, in combat support hospitals, we've had several 
nurses who have led combat support hospitals in Iraq and 
Afghanistan. We have Army nurses who have led at the level-two 
medical center level, and then we have the opportunities to 
command other branch and material areas. We believe there is a 
system in place that would support our progression.
    Chairman Inouye. Thank you very much.
    General Siniscalchi.
    General Siniscalchi. Sir, first, I would like to thank you 
for your continued advocacy for nursing. Words just can't 
express how much we appreciate the value that you have placed 
on our profession. And regarding the two-star billets, you 
know, I have just been honored and blessed to serve at this 
rank, and it has served our Air Force Medical Service very 
well.
    However, recognizing the need for efficiencies, the Air 
Force does support the Department's decision. However, until 
the legislation is changed, the Air Force will continue to fill 
this position of responsibility with the two-star.
    And, Sir, in regards to your question on recruiting and 
retention, like my sister services, we also are doing very well 
in recruiting. However, the majority of our recruits are new 
nurses. They're new graduates. Novice nurses. We have great 
opportunities for them to advance professionally and to 
transition into their new profession and into military nursing.
    The incentive special pay has helped a tremendous amount in 
our retention, and we do have professional opportunities for 
advanced academic education and for fellowships. Also like my 
partners, we are very excited about the opportunity to offer 
our nurses the new Director of Nursing Practice (DNP) program. 
We have the new graduate program at the Uniform Services 
University for mental health nurse practitioners. And so that 
is serving as an incentive for our nurses to stay. However, we 
do experience problems with retaining our clinical experts at 
the bedside, tableside and litter side, because of our 
constrained promotion opportunity.
    But, I am very pleased to say that we have received 
tremendous support from the Air Force, and our sister services 
are supporting us in this endeavor. And so we continue to work 
with the Assistant Secretary of the Air Force for Manpower and 
Readiness, as well as the Office of the Secretary of Defense 
for Personnel and Readiness in exploring various policy options 
to help us correct the great constraints that we currently 
have.
    So, we are very hopeful that we will be able to open the 
aperture for promotion and have the grade that we need at the 
field-grade rank, so that we can retain the clinical experts 
that we need in order to grow and mentor our novice nurses 
coming up through the ranks.
    Chairman Inouye. Thank you very much.
    General Siniscalchi. Thank you, Mr. Chairman.
    Chairman Inouye. I asked that question, because as you're 
aware, in the civilian sector, nursing shortage is a major 
problem, and we're trying our best to resolve that, but it's 
very expensive. Thank you very much.
    The Vice Chairman.
    Senator Cochran. Mr. Chairman, thank you.
    I may ask this question of all of our witnesses. We have 
information about a new system called ``Care Case Manager 
System'' that was implemented in my State at Keesler Air Force 
Base Hospital, and it involves supporting patients with a 
communication case manager at both Keesler and the VA Hospital 
in Biloxi. I'm told that this has really helped define needs in 
a unique way, that the Care Case Manager System that was 
implemented at Keesler is innovative and is a big success.
    I wonder if you've heard about this, or if this is 
something that is being replicated at other treatment centers 
or hospitals around the country.
    I'll ask each of you.
    General Keenan. Yes, Sir. We do have nurse case management 
in the Army, and actually, we've had case management. 
Historically, it was in disease management. So, if you looked 
at asthma or high-risk disease processes. In 2007, when we 
stood up the warrior transition units, one of the key 
components that we found was missing in the care of our 
wounded, ill, and injured soldiers was case management, because 
they really provided that holistic support to the soldier and 
their family to coordinate their care.
    From our lessons learned with case management, and also 
with our patient caring touch system, and how we have now 
focused on our major platform of our patient-centered medical 
home, we have implemented not only case management in our 
warrior transition units, but we've also implemented it in our 
patient-centered medical homes, also in our embedded behavioral 
health teams that support our brigade combat teams, as well as 
in our medical management centers for our soldiers, and we 
truly believe, as you do, Sir, that this really empowers our 
patients. It ensures they're getting quality safe care, and it 
coordinates their care, and it gives them a safety net, someone 
that they can go to, they can help them understand what is 
going on in the care process.
    We really envision in Army nursing the next step is in our 
Army wellness centers when we talk about the white space, the 
525,500 minutes that people are not directly in our purview, 
our care, and our Movement Tracking System (MTS), that this is 
really going to give us the ability to affect diet, exercise, 
well-being for their mental and spiritual health. So, we 
totally embrace the concept of our nurse case managers and 
truly see it as an enabler for all we do, not only in Army 
nursing but also in Army Medicine.
    Senator Cochran. Thank you.
    Admiral Niemyer.
    Admiral Niemyer. Thank you, Senator.
    Nurse case management is the very fabric of communication 
and integration for across the enterprise for our wounded 
warriors, for our family members, from pediatrics, to 
geriatrics, to our wounded warriors in between. And it is the 
weaving together of a multidisciplinary effort to take a 
holistic approach with a patient, including that transition, 
perhaps, out of our system, as you recognized, into the VA. The 
Federal recovery coordinators for the VA are in our system, are 
in our MTS, to assist with that warm handoff, so we don't lose 
a patient in that transition.

                         NURSE CASE MANAGEMENT

    Nurse case management, as well as nonmedical case 
management, is so important to helping our patients guide 
through the multitude of administrative systems they have as 
wounded warriors. So we're equally as engaged and partnered in 
ensuring that all of our facilities have robust case management 
programs across the enterprise.
    Senator Cochran. Thank you. General Siniscalchi.
    General Siniscalchi. Yes, Sir. Keesler Air Force Base is a 
great example. So, I'd like to thank you for sharing that.
    Actually, once they initiated the program with case 
management, they were able to notice a difference within the 
first 6 months. And we've seen significant impact as we've 
moved forward the Air Force's pathway to patient-centered 
medical home has been the family health initiative. And within 
that staffing model, we laid in case managers as well as 
disease managers, but we found the impact of the role of the 
case manager has been phenomenal with this process. We've seen 
decreased emergency room and urgent care visits. We've seen 
increased provider as well as patient satisfaction. Better 
communication amongst the team, the family health team, as well 
as increased communication with the nurse, the technicians, and 
the patient. And, you know, in essence, the case manager has 
really been able to step in and navigate, help the patient 
navigate through the healthcare continuum.
    So, if I may share just a few data points, as we've been 
trying to actually monitor and track the success of our family 
health initiative and the role of the case manager in that. The 
case managers have coordinated care for more than 66,000 
patients in fiscal year 2011. And this actually was an increase 
from fiscal year 2010 of more than 6,000. And we have seen 
their coordinated care with our wounded warriors. Their care 
has touched more than 3,200 since fiscal year 2011. So, they're 
having a very significant impact and a strategic reach across 
the healthcare continuum.
    So, as we've tracked several data points, we found that in 
healthcare costs that the impact they're making has actually 
resulted in $2.6 million in savings. So, we've been very 
pleased with the initiative of putting the case management 
model and that role in our patient-centered medical home.
    Thank you.
    Senator Cochran. It's a very impressive report and we 
congratulate you on the initiative and also the leadership in 
all of our healthcare centers throughout the armed services.
    Your leadership, all of you, is really remarkable. It sets 
the United States apart from every other country in the success 
that we've had in managing the care, delivering healthcare 
services to our men and women who have served, and have been 
injured, or become ill in the military service of our country. 
Thank you all.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. On behalf of the subcommittee, I thank the 
Surgeons General, and the Chief of the Nurses Corps, and we 
look forward to working with you in the coming months.
    [The following questions were not asked at the hearing but 
were submitted to the Department of response subsequent to the 
hearing:]
            Questions Submitted to General Charles B. Green
            Questions Submitted by Chairman Daniel K. Inouye
    Question. General Green, since 2003 the Nurse Corps Chief position 
for each of the Services has been authorized as a two-star billet. The 
Department recently sent over a legislative proposal that would reduce 
the Corps Chief position to the one-star level. What would be the 
negative effects on the Nurse Corps if the Chief positions were 
converted back to one-star billets?
    Answer. A two-star billet, as the Nurse Corps Chief, has served the 
Air Force Medical Service well. Recognizing the need for efficiencies, 
the Air Force supports the Department of Defense's decision. Nurse 
Corps officers receiving in-depth professional development will 
complete well for two-star positions available in the Air Force Medical 
Service without the congressional mandate for the Corps Chief to be a 
two star. Until the legislation is changed, the Air Force will continue 
to fill this position of responsibility with a two star.
    Question. The Department's fiscal year 2013 budget assumes $452 
million in savings based on new TRICARE enrollment fees and increases 
in co-pays for prescription drugs. General Green, I understand that 
military leadership supports these changes, but what are you hearing 
from troops and their families? Do you believe this will impact 
recruiting?
    Answer. Our retiree population actively shapes perceptions of the 
value of military service. Any action that discourages our retiree 
population can adversely impact recruiting activities. Healthcare 
benefits for Active Duty military personnel are minimally impacted 
under the current proposal. TRICARE standard caps will affect the small 
number of Active Duty family members not enrolled in Prime. Pharmacy 
co-pay increases only affect those who do not get their prescription 
filled at a military treatment facility. Although increases in 
healthcare fees may be perceived as a loss of benefit to our 
beneficiaries, the increases are not expected to negatively influence 
retention of Active Duty military personnel.
    Question. General Green, I understand the Air Force has begun using 
vending machine-like kiosks on bases to help alleviate pharmacy wait 
times. What other initiatives are under way?
    Answer. The most significant initiative underway to improve 
pharmacy operations and reduce wait times is the development and 
implementation of the pharmacy staffing model. The model helps us 
balance pharmacy manpower across the Air Force Medical Service (AFMS) 
based on workload. Changes in the long-term program using this model 
begin taking effect in fiscal year 2013, but we are also using it now 
to address the most egregious staffing imbalances with current year 
funding. The Air Force Manpower Agency has also recently begun 
conducting a formal manpower study to more precisely quantify pharmacy 
manpower requirements utilizing management engineering techniques. This 
study will result in a new official manpower standard for Air Force 
Pharmacy.
    We are engaged in a continuing effort of sharing and implementing 
lessons learned from Air Force Smart Operations for the 21st Century 
(AFSO21) events (and other best practices) from site visits and regular 
communications with pharmacy leadership to optimize workflow and 
facility design. We are currently reviewing the results to ensure we 
are taking advantage of what we have learned already and targeting 
future efforts at expanding our knowledge base of best practices for 
application across Air Force pharmacies.
    An additional system-wide initiative is the upgrade of pharmacy 
automation and patient queuing technology. We are working towards a 
full technology refresh Air Force Medical Service wide within the next 
3 years. The new automation equipment will include telepharmacy 
capability, which allows remote review of prescriptions to assist 
pharmacies, particularly smaller ones, during their busiest times or 
when Active Duty pharmacists are deployed. Recent efforts to improve 
wait times have included adding manpower, shifting manpower as needed 
to problem areas (e.g., from in-patient to out-patient pharmacies), 
workflow process improvements, and the addition of or upgrading of 
current patient queuing systems and pharmacy automation equipment. 
Facility expansion and improvements are also underway at several Air 
Force pharmacies.
    Question. General Green, part of the challenge of recruiting 
medical professionals is the divide between private sector and military 
compensation for health specialties. Given the increasing fiscal 
constraints the Department is facing in the coming years, how will you 
manage your resources to sustain the medical professionals required to 
care for servicemembers and their families?
    Answer. AFMS continually reviews current and projected healthcare 
needs and directs appropriate changes within the allocated force 
structure in order to meet our ever-evolving missions. With total 
personnel inventory slightly below our total funded authorizations, the 
AFMS meets the Nation's critical mission needs by apportioning the 
current inventory to meet requirements in the near-term and relying on 
the purchased care system from our TRICARE partners for the noncritical 
mission needs of the Air Force. The AFMS is utilizing Federal service 
employees and contractors within our Medical Treatment Facilities in 
addition to our TRICARE partners to supplement shortfalls of our 
uniformed staff as we provide quality healthcare to our entire 
beneficiary population.
    Even as Air Force retention in general is high, recruiting and 
retention of highly-skilled health professionals is improving with our 
long-term program strategies, albeit tenuously, through a three-prong 
approach. The Air Force continues to fund all available authorities to 
stabilize ailing health professions career fields by:
  --fully utilizing scholarship and educational programs for our long-
        term shortages;
  --effectively targeting accession bonuses and other special and 
        incentive pay programs for our immediate needs; and
  --providing emphasis and support for other nonmonetary programs to 
        retain our quality staff.
    Question. General Green, the Services continue to transition 
patients to a medical home model. This concept organizes health 
professionals into teams to provide a more comprehensive primary 
approach. Each patient's personal physician leads the team and serves 
as a continuous point of contact for care. Has the Air Force seen 
improvements in patient satisfaction or cost control with this 
initiative?
    Answer. Over the course of the past year, we have completed the 
enrollment into Patient-Centered Medical Home (PCMH) for our Air Force 
Family Health and Pediatric clinics. Now more than 945,000 patients are 
currently being cared for under this model. We have seen a steady 
improvement in the satisfaction of our patients seen in a PCMH with the 
percent rating satisfied or completely satisfied with their care rising 
from 91.9 percent in May 2011 to 93 percent in December 2011. Likewise, 
we have seen substantial cost avoidance with notable decline in our 
patients' utilization of Emergency Room/Urgent Care Clinic (ER/UCC) 
care. Over the similar May-December 2011 time period, ER/UCC 
utilization from patients enrolled to a PCMH in the Air Force has 
decreased from 6.87 visits per 100 enrollees per month to 5.59 visits 
per 100 enrollees per month.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                               mefloquine
    Question. In 2009, the Department of Defense (DOD) published 
research that showed that approximately 1 in 7 servicemembers with 
mental health contraindications had been prescribed mefloquine contrary 
to the instructions in the package insert guidance, including to 
servicemembers taking antidepressants and with serious mental health 
conditions such as post-traumatic stress disorder. This research went 
on to highlight that such use may have significantly increased the risk 
of serious harm among those who had been misprescribed the drug.
    What research has the Air Force undertaken to determine whether 
this trend has been reversed, and what efforts has the Air Force 
undertaken to identify and follow-up on those who were misprescribed 
the drug, to determine whether they may be suffering from the adverse 
effects of its use? Can the Air Force assure us that this group has not 
experienced more significant problems associated with this 
misprescribing?
    Answer. The Air Force began enforcing the Food and Drug 
Administration's warnings and precautions regarding mefloquine in 2005, 
several years before the Assistant Secretary of Defense for Health 
Affairs memorandum was issued in 2009. Air Force utilization of 
mefloquine declined considerably between 2005 and 2009. In 2009, the 
Health Affairs memorandum about mefloquine was sent to every Air Force 
medical treatment facility, and subsequently the Air Force mefloquine 
utilization declined an additional 90 percent from 2009 to 2011. Only 
458 prescriptions for mefloquine were issued in 2011.
    Mefloquine is one of the medications that have annual drug 
utilization review requirements from each Air Force medical treatment 
facility, as directed in the 2005 Air Force memorandum. Reviews cover, 
at a minimum, the following:
  --not prescribing mefloquine to those on flying status or with 
        contraindications;
  --correct dosing and directions within prescriptions;
  --patient counseling and documentation;
  --completing the DD 2766; and
  --providing the printed Food and Drug Administration's MedGuide at 
        the pharmacy.
    The reviews from the last quarter of 2011 demonstrated that no 
mefloquine was prescribed to flyers or patients with contraindicating 
conditions, and that the pharmacy provided the patient medical guide 
100 percent of the time.
    Question. What epidemiological research is currently underway to 
investigate the short- and long-term effects of exposure to mefloquine? 
Can you tell me what is the total amount of funding devoted to these 
projects?
    Answer. The Air Force does not currently have any active 
epidemiologic research on the short- and long-term effects of exposure 
to mefloquine. However, the Department of Veterans Affairs Medical 
Follow-up Agency maintains the records and approves research using the 
clinical and laboratory specimens for one of the longest cohort studies 
of servicemembers, the Air Force Health Study. The participants in the 
study may have included members who had received mefloquine for malaria 
prophylaxis. Additionally, the Army and Navy have ongoing research into 
antimalarials through the Walter Reed Army Institute of Research, the 
Naval Medical Research Center, and the overseas laboratories. The 
Department of Veterans Affairs Medical Follow-up Agency, the Army, and 
the Navy can provide figures for the total amount of funding devoted to 
these projects.
    Question. The Department of Defense has specialized centers to 
address traumatic brain injury (TBI) and post-traumatic stress disorder 
(PTSD), including the National Intrepid Center of Excellence and other 
centers within the Centers of Excellence for Traumatic Brain Injury and 
Psychological Health. The Centers for Disease Control and Prevention 
has recently noted that the side effects of mefloquine may ``confound 
the diagnosis and management of posttraumatic stress disorder and 
traumatic brain injury''. Given that the adverse effects of mefloquine 
may often mimic those of TBI and PTSD, has the Air Force provided 
training to those who work within the National Intrepid Center of 
Excellence and Defense Centers of Excellence to include the diagnosis, 
management, and research of mefloquine toxicity?
    Answer. All providers sent by the Air Force to any Center of 
Excellence are fully qualified and expected to practice in accordance 
with current clinical standards such as the Department of Veterans 
Affairs/Department of Defense practice guidelines for TBI and PTSD. The 
symptoms of TBI are nonspecific, thus any evaluation of symptoms 
associated with TBI includes consideration of other causative or 
contributing factors including medications. Likewise, a diagnosis of 
Acute Stress Disorder or Post Traumatic Stress Disorder requires that 
the treating provider reach the conclusion that the observed 
``disturbance is not due to the direct physiological effects of a 
substance (e.g., a drug of abuse, a medication)'' among other factors. 
Therefore, consideration of the effects of any medications the patient 
is currently taking, or has taken recently, are integral to the 
screening and diagnostic processes at the National Intrepid Center of 
Excellence, Defense Centers of Excellence and Air Force medical 
treatment facilities worldwide. When Air Force nonphysician mental 
health providers such as social workers, psychologists, and psychiatric 
nurse practitioners have questions regarding the potential effects of 
any medication, they are encouraged to seek consultation and 
collaboration with psychiatrists or other physicians.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                       hyperbaric oxygen therapy
    Question. General Green, I understand that $8.6 million is included 
to fund a clinical trial using hyperbaric oxygen therapy to diagnose 
and treat brain injury. What is your experience with this therapy? Do 
you think it has merit in treating traumatic brain injury?
    Answer. Anecdotal case reports and open-label studies suggest 
benefit of hyperbaric oxygen (HBO<INF>2</INF>) for treating chronic 
symptoms associated with traumatic brain injury (TBI). However, 
anecdotes and open-label studies cannot discriminate between the 
effects of the HBO<INF>2</INF> and the indirect, or placebo, effects of 
study participation. Further, TBI is not endorsed by the Undersea and 
Hyperbaric Medical Society or approved by the U.S. Food and Drug 
Administration as a medical indication for HBO<INF>2</INF>. The 
Department of Defense and the Air Force are committed to an evidence-
based approach to developing policy on HBO<INF>2</INF> use to ensure it 
is safe, effective, and comparable or superior to standard care for 
symptoms associated with TBI. Several recent studies, including the Air 
Force study in San Antonio suggest that HBO<INF>2</INF> is safe in 
servicemembers with chronic symptoms associated with TBI. The Air Force 
study found no statistical difference between the treatment group and 
the sham group. Improvements in some test measures, however, were seen 
in both groups. Additional data analysis is underway to determine if 
there are similar demographics in subgroups that showed improvement. We 
continue to support a robust research effort on hyperbaric oxygen for 
chronic symptoms associated with TBI, and data from those studies will 
be frequently re-assessed for evidence of safety and efficacy.
                                 ______
                                 
           Questions Submitted to Vice Admiral Matthew Nathan
            Questions Submitted by Chairman Daniel K. Inouye
                         nurse corps chief rank
    Question. Admiral Nathan, since 2003 the Nurse Corps Chief position 
for each of the Services has been authorized as a two-star billet. The 
Department recently sent over a legislative proposal that would reduce 
the Corps Chief position to the one-star level. What affect would a 
reduction in rank have on the Navy Nurse Corps?
    Answer. We support the decision to standardize the rank of the 
Director of the Navy Nurse Corps to the grade of 07, and believe this 
change will have no adverse impact on the Nurse Corps. Navy Medicine 
places a priority on our leader development programs, and our Navy 
Nurses continue to demonstrate they have the experience, skill and 
motivation to succeed positions of great responsibility and trust. We 
have Nurse Corps officers in command of our medical treatment 
facilities, serving in senior operational medicine assignments with the 
Fleet and Marine Forces, and managing vital headquarters-level 
responsibilities. The Director of the Navy Nurse Corps will have the 
skills, experience, and opportunity to succeed as a one-star flag 
officer; and correspondingly, be highly competitive for selection to 
two-star. If Director is selected for promotion to two-star, this would 
allow an another flag officer opportunity for the Nurse Corps as an 
officer would then be selected to serve as a one-star flag officer and 
the Director.
                              tricare fees
    Question. Admiral Nathan, the Department's fiscal year 2013 budget 
assumes $452 million in savings based on new TRICARE enrollment fees 
and increases in co-pays for prescription drugs. Will these increased 
fees affect care for servicemembers and their families? How are 
servicemembers and retirees reacting to these proposals?
    Answer. The Department of Navy supports these proposals and 
believes they are important for ensuring a sustainable and equitable 
benefit for all our beneficiaries. The TRICARE fee proposals do not 
affect our Active Duty servicemembers, and specifically exempt 
medically retired servicemembers and their families, as well as 
survivors of military members who died on Active Duty. While the 
proposed increases will primarily impact our retired beneficiaries, 
military medicine provides one of the most comprehensive health 
benefits available. These changes will help us better manage costs, 
provide quality, accessible care, and keep faith with our 
beneficiaries.
                         pharmacy waiting time
    Question. Admiral Nathan, the structure of the proposed TRICARE 
pharmacy co-pays strongly incentivizes members to fill their 
prescriptions at pharmacies within military treatment facilities. Yet, 
we continue to hear concerns about the current wait times at numerous 
pharmacies. How is the Navy addressing the problem of lengthy pharmacy 
wait times?
    Answer. Our Navy Medical Treatment Facilities (MTFs) strive to 
efficiently balance the staffing of the pharmacy (and other clinical 
areas) with expected demand, while expanding the service and/or hours 
of access provided. Understanding that increases in demand are expected 
in the future and improvements in access could be realized, Navy 
Medicine has engaged in a relook of the outpatient pharmacy workflow 
process as part of the acquisition to replace our existing pharmacy 
automation, which is close to 10 years old.
    Through a review of the existing workflow at our larger sites by 
pharmacy workflow experts (i.e., industrial engineers, operations 
research specialists, and pharmacists), we have developed pharmacy 
workflow and automation requirements. These requirements will support 
up to a doubling of the existing workload while striving for a 90th 
percentile wait time of 30 minutes or less. This goal reflects an 
approximate 50-percent decrease in our current 90th percentile waiting 
time. Moving forward, we will continue to invest in pharmacy automation 
which allows us to address any expected increase in demand at our MTF 
pharmacies and maintain outstanding customer services.
                           suicide prevention
    Question. Admiral Nathan, the Services are seeking to provide early 
identification and treatment of psychological health through a number 
of initiatives; yet, suicides throughout the military continue to rise. 
In 2011, Active Duty, Guard, and Reserve soldiers took their lives at a 
record high rate. How are the Services working together to learn from 
one another and combat the continued rise in suicides?
    Answer. The Services work together closely in the area of suicide 
prevention by sharing lessons learned, research, and promising 
practices in formal and informal mechanisms of suicide prevention. The 
Navy continues to integrate efforts related to personal and family 
readiness programs, not only across the Navy enterprise but in 
collaboration with the other Services, DOD, the VA, and various Federal 
agencies, with the shared goal of reducing the number of suicides. Some 
specific ways the Services have worked together include:
Suicide Prevention and Risk Reduction Committee
    The DOD Suicide Prevention and Risk Reduction Committee (SPARRC) 
with representation from all Services (including Coast Guard) and DOD, 
has now expanded to include VA and Substance Abuse and Mental Health 
Services Administration (SAMSHA) participants. Over the years the 
SPARRC has worked to standardize the process for determining suicide 
numbers and rates, developed a common data collection mechanism (the 
DOD Suicide Event Report), conducted an annual conference, and provided 
a forum for the sharing of observations, promising practices, and 
lessons learned regarding the prevention of military suicides. The 
SPARRC chairmanship moved from its original home in DOD Health Affairs 
to the Defense Center of Excellence, and at the end of 2011, to the new 
OSD Suicide Prevention Office under the Undersecretary of Defense for 
Readiness.
Department of Defense/Department of Veterans Affairs Suicide Prevention 
        Conference
    The Department of Defense (DOD)/Department of Veterans Affairs (VA) 
Annual Conference has grown into the largest meeting of its kind in the 
world. This weeklong conference has multiple tracks that include 
clinical, research, and practical tools for suicide prevention. It 
brings together many of the Nation's leading suicidology theorists and 
researchers, along with military leaders, care providers, and 
policymakers.
Task Force
    The congressionally mandated (Fiscal Year 2009 National Defense 
Authorization Act) Task Force on the Prevention of Suicides Among 
Members of the Armed Forces published its report in the fall of 2010. 
The Services are continuing to implement many of these recommendations 
and one key outcome has been the establishment of an office within OSD.
                           physician staffing
    Question. Admiral Nathan, some medical specialties are severely 
understaffed, particularly in the Reserve component. How is the Navy 
ensuring that it has the number of Reserve physicians it needs?
    Answer. Reserve physician recruiting remains one of our greatest 
challenges; our manning at the end of March 2012 was at 55 percent of 
requirements. High Active component physician retention rates are a 
positive for the Navy; however, the second order affect is a decreased 
pool of medical professionals eligible for Reserve affiliation. 
Consequently, there is a greater reliance on attracting civilian 
physicians in a highly competitive Direct Commission Officer (DCO) 
market.
    We have developed strong partnerships with our key Navy 
stakeholders and are exploring a plethora of action items in our 
efforts to recruit and retain the right physician skill sets in our 
Reserve physician inventory. Examples include a Medical Leads 
Assistance Program; affiliation, specialty, and incentive pay 
initiatives; and a change in paygrade billet requirements under an 
Officer Sustainability Initiative. We are optimistic that these 
initiatives as well as a continued reduction in Reserve Individual 
Augmentee assignments will incentivize potential Reserve physician 
recruits.
    Navy Medicine has representation on the Tri-Service Medical Working 
Group that has reviewed the results of the Joint Advertising, Market 
Research and Studies (JAMRS) Physician Recruit Study (Recruiter Guide) 
released in September 2011 and work continues to augment incentive 
capabilities to address the challenges all Services are experiencing in 
recruiting Reserve physicians.
                    military health system structure
    Question. Admiral Nathan, earlier this month the Department 
released its final decision on the structure of the Military Health 
System. The Department decided on a proposal to combine the 
administration and management of the Military Health System into a 
Defense Health Agency. Can you please share with the subcommittee any 
concerns you may have about the final recommendations?
    Answer. Navy Medicine fully supports a joint solution that will 
enhance interoperability of medical care across the MHS both 
operationally and within Services' medical treatment facilities. We 
must, first and foremost, not break a highly functioning patient care 
continuum that can bring a warrior from the point-of-injury to 
definitive care at a level four MTF in 48-72 hours. A thorough 
outcomes-based analysis of any major changes in governance that impacts 
meeting Service operational commitments must first be completed and 
then presented to the Service Chiefs. Although the belief may be that 
consolidation of services or support will be cost effective, an in-
depth effects-based analysis for each shared service prior to 
consolidation must be completed to set a baseline cost to assess the 
need for change or to evaluate future return on investment of system 
changes. The bottom line is that the MHS must proceed in a deliberate 
and measured manner to ensure that our readiness to support our 
Services' missions and core warfighting capabilities will be maintained 
and our excellence in healthcare delivery will be sustained.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                               mefloquine
    Question. In 2009, the Department of Defense (DOD) published 
research that showed that approximately 1 in 7 servicemembers with 
mental health contraindications had been prescribed mefloquine contrary 
to the instructions in the package insert guidance, including to 
servicemembers taking anti-depressants and with serious mental health 
conditions such as post-traumatic stress disorder (PTSD). This research 
went on to highlight that such use may have significantly increased the 
risk of serious harm among those who had been misprescribed the drug.
    What published research has the Navy undertaken to determine 
whether this trend has been reversed, and what efforts has the Navy 
undertaken to identify and follow-up on those who were misprescribed 
the drug, to determine whether they may be suffering from the adverse 
effects of its use? Can the Navy assure us that this group has not 
experienced more significant problems associated with this 
misprescribing?
    Answer. In 2006, medical researchers at the Naval Health Research 
Center in San Diego published a peer-reviewed paper describing a 
retrospective study of health histories of 8,858 Active Duty 
servicemembers who had been prescribed mefloquine between 2002 and 
2004. The health history outcomes of these members were compared 
against a full analysis of the health histories of 388,584 
servicemembers not prescribed mefloquine during the same period. The 
results of that study showed a significantly decreased proportion of 
mefloquine prescribed individuals hospitalized for mood disorders when 
compared to servicemembers assigned to Europe or Japan and no 
difference in mood disorders or mental disorders compared to 
servicemembers in deployed status. These data demonstrated no 
association between mefloquine prescriptions and severe health effects 
as measured by hospitalizations across a wide range of disorders, 
including mental health outcomes.
    Navy Medicine is aware of two articles published in 2008 and 2009 
describing analysis of military medical records of a cohort of 11,725 
servicemembers progressively deployed to Afghanistan over a 6-month 
period in early 2007 of which 38.4 percent had been prescribed 
prophylactic use of mefloquine. Of those so prescribed, 13.8 percent 
had recorded medical history which would pose a relative 
contraindication to its use.
    Navy Medicine has not performed a follow-up on the data or subjects 
described in the 2008 and 2009 articles as this analysis did not 
provide information as to adverse outcome, nor did it break out 
information from the analysis of records that included servicemembers 
from all services which would have identified what proportion of the 
cohort records analyzed pertained to Navy or Marine Corps personnel. 
Navy Medicine stands by the medical outcome data described in the Naval 
Health Research Center study of 2006.
    Question. What epidemiological research is currently underway to 
investigate the short- and long-term effects of exposure to mefloquine? 
Can you tell me what is the total amount of funding devoted to these 
projects?
    Answer. At this time, there is no epidemiological research 
currently underway which would add to or test the findings of the 2006 
published study of prescription of mefloquine to 8,858 Active Duty 
servicemembers which demonstrated a decreased proportion of mefloquine 
prescribed individuals hospitalized for mood disorders when compared to 
servicemembers assigned to Europe or Japan and no difference in 
hospitalizations across a wide range of disorders, including mental 
health outcomes in combined data from individuals assigned to Europe, 
Japan, or otherwise deployed.
    Question. DOD has specialized centers to address traumatic brain 
injury (TBI) and PTSD, including the National Intrepid Center of 
Excellence and other centers within the Centers of Excellence for 
Traumatic Brain Injury and Psychological Health. The Centers for 
Disease Control and Prevention has recently noted that the side effects 
of mefloquine may ``cofound the diagnosis and management of 
posttraumatic stress disorder and traumatic brain injury''. Given that 
the adverse effects of mefloquine may often mimic those of TBI and 
PTSD, has the Navy provided training to those who work within the 
National Intrepid Center of Excellence and Defense Centers of 
Excellence to include the diagnosis, management, and research of 
mefloquine toxicity?
    Answer. Navy Medicine has not specifically provided training on the 
diagnosis, management, and research of mefloquine toxicity to the 
professional staff at the Defense Centers of Excellence (DCoE). 
However, the DCoE staff has reviewed reports, guidance, and DOD policy 
related to the use of mefloquine. Additionally, their staff has 
actively completed reviews of the current science on the use of 
mefloquine for malaria chemoprophylaxis and neuropsychiatric adverse 
reactions, as well as reviews of mefloquine, TBI, and psychological 
health conditions. As reported to Navy Medicine, DCoE staff continues 
to monitor emerging science as it relates to mefloquine, TBI, and 
psychiatric conditions and will work to revise clinical guidance and 
provide input to DOD policy should emerging science indicate clear 
detrimental effects.
    With respect to mefloquine confounding the diagnosis of mild TBI 
and/or PTSD, staff members from the National Intrepid Center of 
Excellence (NICoE) have also not undergone specific training. However, 
personnel who comprise the White Team--the triage team which screen all 
prospective NICoE candidates--include two experienced medical officers 
with extensive combat/deployment experience who understand the 
potential neuropsychiatric contraindications and have utilized 
mefloquine appropriately in the deployed environment. The White Team is 
also backed up by a neurologist and neuropsychologist who, similarly, 
have comprehensive knowledge of compounds, drugs, and exposures which 
may impact the nervous system. Additionally, all members presented to 
NICoE go through an exhaustive medication review, supported by a Doctor 
of Pharmacy (Pharm D).
    Finally, Navy Medicine is currently developing a mefloquine 
training module to serve as a refresher on FDA requirements and DOD 
policy for all providers and pharmacists. This training is expected to 
be implemented by June 2012.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
                         nonmedical caregivers
    Question. Military family members already make incredible 
sacrifices to support both the soldier deployed and the wounded warrior 
at home. Since 2001, nearly 2 million troops have deployed in support 
of Operation Enduring Freedom and/or Operation Iraqi Freedom; of those, 
nearly 800,000 have deployed more than once. There are nearly 48,000 
wounded warriors from the 10 years of war. For many wounded warriors, 
their spouses and extended families become the front line of care for 
their rehabilitation and recovery. These nonmedical caregivers have to 
choose between their critically injured relative and their careers, 
children, and financial well-being.
    What has the Navy done to enhance care for family members of 
wounded marines and sailors?
    Answer. The Navy's Project FOCUS (Families Over Coming Under 
Stress) is a family psychological health and resiliency building 
program that addresses family functioning in the context of the impact 
of combat deployments, multiple deployments, and high-operational 
tempo. The application of a three-tiered approach to care via community 
education, psychoeducation for families, and brief-treatment 
intervention for families, has shown statistically significant outcomes 
in increasing family functioning and decreasing negative outcomes such 
as anxiety and depression in both parents and children. The program 
takes a de-stigmatized approach to care and is integrated within the 
community context.
    Additionally, the Marine Corps realizes that family members are 
essential to the successful recovery of our wounded, ill, and injured 
(WII) marines. Accordingly, we work to ensure our WII marines' families 
are part of the recovery process, to include supplying them with 
support programs and services. Since the Wounded Warrior Regiment (WWR) 
stood up more than 5 years ago, we have continually enhanced our 
services to ensure that the unique needs of our families are addressed. 
Examples include:
  --Family readiness and support staff at all locations;
  --Recovery Care Coordinators to help WII Marines and their family 
        members map out and attain their recovery goals;
  --The Wounded Warrior Call Center, a 24/7 outreach and reach-back 
        resource and referral capability;
  --District Injured Support Coordinators (DISCs) who help 
        transitioning marines and families in remote locations away 
        from military or Federal resources;
  --Our Medical Cell, a cell that provides medical subject matter 
        expertise, advocacy, and liaison to the medical community; and
  --Enhanced communication efforts to ensure family members receive the 
        right information when they need it through easy-to-understand 
        fact sheets, a Marine Corps-customized ``Keeping It All 
        Together'' Handbook, and a new mobile WWR App.
    Question. What training does the nonmedical caregiver receive to 
ensure continuity of care for their wounded warrior once that marine or 
sailor makes a transition to home?
    Answer. The WWR is working with the Office of Wounded Warrior Care 
and Transition Policy to ensure all caregivers of Marines who are 
receiving Special Compensation for Assistance with Activities of Daily 
Living receive caregiver training materials developed by the Easter 
Seals Foundation (also used by the Department of Veterans Affairs for 
their Caregiver Stipend Program). WWR also provides ``Care for the 
Caregiver'' Workshops as well as FOCUS, the resiliency training program 
referred to above. FOCUS is designed to assist and promote strong 
Marine Corps families to better equip them to contend with the stress 
associated with multiple deployments, combat stress, and physical 
injuries. Additionally, the WWR's DISC Program collaborates with Navy-
Marine Corps Relief Society visiting nurses to make home visits to our 
WII marines and families in need. These nurses can provide a myriad of 
services, to include evaluate of home safety and adaptability, 
emotional support to families, and advocacy for the patient and family 
as they adjust to the enormous life changes resulting from their 
injuries.
    Question. What support do they receive to ensure they can maintain 
their own psychological health and well-being through this process?
    Answer. The WWR's capabilities mentioned above provide reach-back 
resource and referral capabilities for family members to maintain their 
psychological health and well-being. More specifically, the WWR Medical 
Cell is skilled at providing family referrals to the appropriate 
psychological health service, depending upon their needs and 
requirements.
    Question. What has the Navy done to leverage the help the private 
sector can provide?
    Answer. Many individuals and organizations routinely offer gifts to 
the Department of Defense, units, military personnel, and their 
families. The WWR's Charitable Giving Office works within the confines 
of Federal law and policy to ensure WII marines and families benefit 
from private sector help when and where it is appropriate. Support 
includes, but is not limited to, respite opportunities, child care, 
travel assistance, lodging/housing, and social activities.
                        medical pain management
    Question. Reliance on prescription cocktails to handle mental and 
pain management is having serious negative consequences amongst our 
military servicemembers. Recent studies have found that veterans with 
PTSD were most likely to be prescribed opioids as compared with vets 
with no mental health disorder--33.5 percent compared with 6.5 percent. 
Accidental drug deaths have doubled from 2001-2009, while prescriptions 
for painkillers are up 438 percent since 2001. The ``Defense Survey of 
Health-Related Behaviors'' found ``dangerous levels'' of alcohol abuse 
and the illicit use of drugs such as pain killers by 12 percent of 
military personnel.
    Should the military medical community examine its reliance on 
narcotics to control pain among wounded warriors?
    Answer. The Services are aware and concerned about alarming 
national trends in increased use of opioids and secondary 
complications, including misuse, dependence, higher care cost, and 
adverse outcome (including death). The Fiscal Year 2010 National 
Defense Authorization Act (section 711) directed the Secretary of 
Defense to develop and implement a comprehensive policy on pain 
management. In August 2009, the Army Surgeon General chartered the Army 
Pain Management Task Force to make recommendations for a comprehensive 
pain management strategy that was holistic, multidisciplinary, and 
multimodal in its approach. Task Force membership included 
representatives from the Navy, Air Force, TRICARE Management Activity, 
and the Veterans Administration. The Task Force developed 109 
recommendations. The Office of the Secretary of Defense (Health 
Affairs) released a Policy for Comprehensive Pain Management in March 
2011.
    Navy Medicine has designed the Navy Comprehensive Pain Management 
Program (NCPMP) to improve and expand pain management resources for all 
servicemembers. Key specific NCPMP objectives are to meet NDAA 
requirements and Joint Commission (JC) standards, by providing 
standardized and optimized care in accordance with recently published 
clinical practice guidelines. The current state-of-the-art for 
management of chronic and complex pain is based on the biopsychosocial 
model, which promotes a paradigm of comprehensive, multidisciplinary, 
and multimodal care. In that capacity, an important focus of the NCPMP 
is the expansion of access to health psychologists, physical 
therapists, exercise physiologists, and integrative medicine physicians 
to ensure the effective fusion of mainstream treatments like cognitive 
behavior therapy with Complementary and Alternative Medicine (CAM) 
approaches, including the use of acupuncture. The specific stated 
mission of the NCPMP is ``To aid in the restoration of function and 
relief of pain by broadening access to state-of-the-art, standardized, 
multimodal, and interdisciplinary pain care across Navy Medicine, 
ensuring treatment efficacy through practice guidelines, education, and 
analysis of treatment outcomes.''
    To diminish reliance on narcotics to control pain, Navy Medicine is 
focusing on three general paradigms. First, decrease development of 
pain via prevention of injury (e.g., ergonomics, occupational safety) 
and disease precursors. Second, educate members and healthcare 
providers about risks of opioids and best practices when they are 
prescribed. Two videos are to be released shortly for required training 
of all Navy and USMC personnel (The War Back at Home) and providers (Do 
No Harm). Interim guidance and a subsequent Pain Instruction are to be 
released by BUMED as well, educating providers about up-to-date best 
practices for opioid use (e.g., routine screening for appropriateness, 
sole provider agreements, informed consent, and a multimodal approach). 
Third, provide capability for healthcare providers to utilize a 
multimodal biopsychosocial approach by employing alternative 
capabilities and assets. To that end, the NCPMP will utilize provider 
assets in pain medicine, integrative medicine, CAM, mental health and 
addiction medicine, case management, exercise physiology, physical 
therapy, and athletic training. These pain care assets, functionally 
integrated into Medical Home and SMART Clinics, will enable and promote 
comprehensive management of complex acute and chronic pain throughout 
Navy Medicine. A key component of NCPMP's Concept of Operations is 
tiered rollout of system wide acupuncture capability based on 
systematic and consistent training, certification, and credentialing 
throughout the healthcare enterprise.
    Question. What alternative options of pain management does the Navy 
have in place to give doctors a choice to lessen the use of 
prescription pain killers?
    Answer. Please see answer above. The following is a listing of key 
pain management modalities available to Navy doctors:
  --Disease-specific measures:
    --Tighter glucose control in diabetes;
    --Disease-modifying agents in MS and other inflammatory disorders;
    --Surgery, chemotherapy, radiation therapy for nerve compression;
    --Infection control (HIV, herpes zoster, lyme disease); and
    --Ergonomics and occupational safety.
  --Local and regional treatments:
    --Regional Anesthetics (Pain Specialists): sympathetic, epidural, 
            intrathecal, and selective nerve root blocks; epidural and 
            intrathecal pumps;
    --Stimulation-Based: TENS, spinal cord stimulation, acupuncture 
            (licensed, medical);
    --Complementary and Alternative Medicine (CAM): acupuncture, 
            Osteopathic Manipulation, therapeutic massage;
    --Physical Rehabilitation: PT/OT, splinting, manipulation, 
            assistive devices, range-of-motion exercises, ergonomics; 
            and
    --Ablative Procedures: phenol/alcohol nerve ablation, cordotomy/
            rhizotomy, radiofrequency nerve root ablation.
  --Systemic treatments:
    --Pharmacological: Tricyclic antidepressants, SNRIs, clonazepam, 
            atypical antipsychotic medications, gapapentin, pregabalin, 
            anticonvulsants, NSAIDs, corticosteroids, opioids, mu-
            opioids (e.g., tramadol), muscle relaxants/antispasmodics, 
            and benzodiazepine receptor antagonists (e.g., zolpidem); 
            and
    --Behavioral: Addiction Medicine counseling, Psychologic counseling 
            (cognitive behavioral therapy, biofeedback, guided imagery, 
            other relaxation techniques).
    Question. Does the Navy track rates of addiction to prescription 
pain killers among wounded warriors--how would you know if you had a 
problem?
    Answer. The EpiData Center at the Navy and Marine Corps Public 
Health Center (NMCPHC) in Portsmouth, Virginia, currently provides a 
monthly prescription burden report for Marine specialty groups, and 
provides this report for the Navy and Marine Corps on a semiannual 
basis. The report includes an assessment of chronic prescription pain 
medication use. The report does not define addiction to prescription 
pain medications, but rather is used by local units to determine at 
their level if further action is needed.
    The Navy Health Research Center (NHRC) in San Diego, California, is 
also able to look at trends in diagnoses for opioid addiction and may 
be able to cross-reference this with prescription reissuance patterns 
as that capability continues to build through NHRC's new pharmaceutical 
use project.
    Question. Peer-reviewed studies demonstrate that servicemembers who 
incorporate complementary medicine for pain management rely less on 
prescriptions for pain management. Do you see promise for a more 
widespread application of this program?
    Answer. As noted, Navy Medicine is committed to expansion of 
Complementary and Alternative Medicine (CAM) to enable and promote a 
comprehensive biopsychosocial approach to management of pain by Navy 
healthcare providers. Please see above answers for details.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                       hyperbaric oxygen therapy
    Question. Admiral Nathan, I understand that $8.6 million is 
included to fund a clinical trial using hyperbaric oxygen therapy to 
diagnose and treat brain injury. What is your experience with this 
therapy? Do you think it has merit in treating traumatic brain injury?
    Answer. The study for which this referenced funding will provide 
support is being administered and managed by the U.S. Army Medical 
Research and Material Command. Naval facilities at Camp Pendleton and 
at Camp Lejeune are participating in this study as centers where 
enrolled volunteers will be evaluated. To date, there is no outcome 
data available from this study.
    Naval facilities at Camp Lejeune, as well as at Pensacola and 
Panama City, Florida, are also participating in a DARPA-funded dose 
ranging study, conducted by the Naval Operational Medical Institute 
(NOMI), the McGuire VA Medical Center in Richmond, and the Virginia 
Commonwealth University. The study has recruited 60 percent of its 
volunteers, essentially all from Marine Corps Base Camp Lejeune. The 
target completion date is October 2012.
    As of March 28, 2012, there are no data to report from either of 
these two studies. There is, therefore, still no outcome information 
from well-designed, adequately controlled medical research which would 
support the safety and efficacy of use of hyperbaric oxygen for 
traumatic brain injury.
                                 ______
                                 
       Questions Submitted to Lieutenant General Patricia Horoho
            Questions Submitted by Chairman Daniel K. Inouye
               corps chief position legislative proposal
    Question. Since 2003, the Nurse Corps Chief position for each of 
the Services has been authorized as a two-star billet. The Department 
recently sent over a legislative proposal that would reduce the Corps 
Chief position to the one-star level. General Horoho, how has the 
increase in rank benefited the Army Nurse Corps?
    Answer. The rank of Major General afforded the Corps Chief the 
greater impact to sponsor great strides in the advancement of our 
mission in serving America's sons and daughters. A change in the Corps 
Chief's rank will not change the mission nor the importance of Army 
Nursing and our commitment of excellence in nursing care to our 
servicemembers and families will remain steadfast. There are many 
opportunities within the U.S. Army Medical Department (AMEDD) for 
nurses to cultivate leadership experience. The Army has a strong 
developmental path for its leaders, regardless of area of 
concentration.
                                tricare
    Question. The Department's fiscal year 2013 budget assumes $452 
million in savings based on new TRICARE enrollment fees and increases 
in co-pays for prescription drugs. General Horoho, did the Department 
consider more modest fee increases for enrollment and prescription 
drugs than the significant fees proposed in the budget? Realizing the 
current difficult fiscal environment, is it fair to levy these 
prescription drug fees on our uniformed men and women who have been at 
war for more than 10 years?
    Answer. I must defer to the Department of Defense (DOD) to comment 
on any alternative strategies they may have used to develop this 
proposal.
    The proposal to raise pharmacy retail and mail order co-pays does 
not affect the Active Duty servicemember. The co-pays apply only to 
retirees and family members in order to encourage the use of mail order 
and generic drugs. Understanding the concern for the rising cost of 
medications to beneficiaries and realizing that a continual rise in 
medication costs to DOD jeopardizes the benefit for all, Army Medicine 
is developing a plan to promote beneficiaries' return to the military 
treatment facility for prescription fills for no or low medication 
costs. Increasing formularies, improving access to pharmacies, and 
providing pharmacists for medication counseling are a few steps towards 
accomplishing this goal.
    Question. General Horoho, the structure of the proposed TRICARE 
pharmacy co-pays strongly incentivizes members to fill their 
prescriptions at pharmacies within military treatment facilities. Yet 
we continue to hear concerns about the current wait times at numerous 
pharmacies. What steps are being taken to alleviate wait times, and 
will current facilities be able to process an increase in 
prescriptions?
    Answer. Initiatives currently underway that ease military treatment 
facility wait times include workflow process changes, permitting 
patients to drop off prescriptions and return at later times, and 
physician-faxed prescriptions. These are a few ways that allow the 
pharmacies to increase workload without affecting wait times. Plans are 
in place to expand pharmacy staffing as workload increases. Expansion 
of Community Based Medical Homes (CBMH) will shift workload from the 
main pharmacies providing the opportunity to recapture prescriptions at 
the current facilities. The pharmacies in CBMH can also provide support 
to beneficiaries in their community, offering another avenue for 
filling prescriptions.
                              suicide rate
    Question. General Horoho, the Services are seeking to provide early 
identification and treatment of psychological health through a number 
of initiatives; yet suicides throughout the military, and especially in 
the Army, continue to rise. In 2011, Active Duty, Guard, and Reserve 
soldiers took their lives at a record high rate. What more can we be 
doing for our servicemembers to ensure they are receiving the necessary 
behavioral and mental healthcare in order to reverse this disturbing 
trend?
    Answer. The Army's Behavioral Health System of Care continues to 
explore ways to improve behavioral health services. The BHSOC currently 
has an extensive array of behavioral health services and wellness 
resources available to address the strain on servicemembers and their 
families throughout the Army Force Generation Cycle. Soldiers and 
family members have additional counseling options and other avenues to 
deal with stress through Army Chaplain services, Military One Source, 
in-theater combat and operational stress programs, psychological school 
programs, Army Community Service programs, and the Comprehensive 
Soldier Fitness program. Included in the BHSOC is the roll out of new 
and innovative evidenced based programs such as Embedded Behavioral 
Health in Brigade Combat Teams, Patient Centered Medical Homes and 
School Behavioral Health that will significantly change how we provide 
support to our soldiers and families.
           recruitment and retention of medical professionals
    Question. General Horoho, part of the challenge of recruiting 
medical professionals is the divide between private sector and military 
compensation for health specialties. Given the increasing fiscal 
constraints the Department is facing in the coming years, how will you 
manage your resources to sustain the medical professionals required to 
care for servicemembers and their families? Beyond the compensation 
gap, what other challenges do you face in recruiting and retaining a 
sufficient number of both military and civilian healthcare personnel?
    Answer. Entry into the future fiscally constrained environment will 
present challenges to any increase in the scope or dollar amounts of 
special pays. However, by targeting accession and retention bonuses, in 
coordination with sister services, the Army anticipates success in the 
recruitment of health professionals. DOD has recently delegated the 
authority to use an expedited hiring authority for 38 medical 
occupations. We are working to implement this new appointment 
authority.
    Nationwide shortages of highly trained health professionals remain 
a top challenge to the U.S. Army Recruiting Command (USAREC) in the 
recruitment of physicians, dentists and behavioral health 
professionals. Our student programs continue to be the lifeblood of our 
accession pipeline and accessions into these programs are doing well. 
We continue to partner with USAREC to insure all avenues are addressed 
with regard to recruitment of the necessary personnel to sustain the 
force.
                         military health system
    Question. General Horoho, earlier this month the Department 
released its final decision on the structure of the Military Health 
System. The Department decided on a proposal to combine the 
administration and management of the Military Health System into a 
Defense Health Agency. What advantages and challenges do you see to the 
jointness among the Services proposed in the new governance strategy?
    Answer. This recommendation represents an opportunity to achieve 
cost savings through reduction of duplication and variation, while 
accelerating the implementation of shared services, identify and 
proliferate common clinical and business practices, and develop 
entirely new approaches to delivering shared activities. I am 
encouraged by the potential benefits achieved by this plan and support 
the DOD's plan to move iteratively towards increased jointness.
                              medical home
    Question. General Horoho, the Services continue to transition 
patients to a medical home model. This concept organizes health 
professionals into teams to provide a more comprehensive primary 
approach. Each patient's personal physician leads the team and serves 
as a continuous point of contact for care. The Army's new community-
based medical homes are located off-post in communities in order to 
provide increased capacity for primary care. What are the Army's plans 
to expand this program, and when will it be available service-wide?
    Answer. The Army currently has 17 medical home practices in 
operation in our military treatment facilities (MTF) and 13 community-
based medical homes open in the communities where our Army families 
live. By the end of this calendar year, 49 additional MTF-based medical 
home practices and 5 more community-based medical homes will open. The 
Army will ultimately transform 100 percent of its primary care to the 
medical home model by the end of calendar year 2014. We are also 
implementing this capability in our TO&E facilities.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                               mefloquine
    Question. In 2009, the Department of Defense (DOD) published 
research that showed that approximately 1 in 7 servicemembers with 
mental health contraindications had been prescribed mefloquine contrary 
to the instructions in the package insert guidance, including to 
servicemembers taking anti-depressants and with serious mental health 
conditions such as post-traumatic stress disorder. This research went 
on to highlight that such use may have significantly increased the risk 
of serious harm among those who had been misprescribed the drug.
    What research has the Army undertaken to determine whether this 
trend has been reversed, and what efforts has the Army undertaken to 
identify and follow-up on those who were misprescribed the drug, to 
determine whether they may be suffering from the adverse effects of its 
use? Can the Army assure us that this group has not experienced more 
significant problems associated with this misprescribing?
    Answer. The U.S. Army Pharmacovigilance Center (USAPC) conducts 
continual review of data for:
  --the potential mis-prescribing of mefloquine with psychiatric 
        medications;
  --the potential mis-prescribing in those servicemembers with a 
        diagnosis of psychiatric illness; and
  --the acceptable use of mefloquine in those patients with a recent 
        (within 1 year) history of psychiatric medication use.
    The USAPC will evaluate the risk of mefloquine use and subsequent 
psychiatric medication prescription or a psychiatric diagnosis.
    Question. What epidemiological research is currently underway to 
investigate the short- and long-term effects of exposure to mefloquine? 
Can you tell me what is the total amount of funding devoted to these 
projects?
    Answer. There is no funded epidemiology research at this time by 
the U.S. Army Medical Research Material Command to investigate the 
short- and long-term effects of exposure to mefloquine. The Army 
Medical Department has not provided training on mefloquine to Defense 
Center of Excellence or National Intrepid Center of Excellence.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
                   support for nonmedical caregivers
    Question. Military family members already make incredible 
sacrifices to support both the solider deployed and the wounded warrior 
at home. Since 2001, nearly 2 million troops have deployed in support 
of Operation Enduring Freedom and/or Operation Iraqi Freedom; of those, 
nearly 800,000 have deployed more than once. There are nearly 48,000 
wounded warriors from the 10 years of war. For many wounded warriors, 
their spouses and extended families become the front line of care for 
their rehabilitation and recovery. These nonmedical caregivers have to 
choose between their critically injured relative and their careers, 
children, and financial well-being.
    What has the Army done to enhance care for family members of 
wounded soldiers?
    Answer. Caregivers are authorized medical care in a military 
treatment facility (MTF) while in nonmedical attendant (NMA) status. 
The Army recognizes the difficulties our wounded warrior primary 
caregivers face on a daily basis. If NMA is a dependent of the wounded 
warrior, they are entitled to the full range of behavioral health 
services the Army has to offer to support their needs. Additionally, 
the spouse, son, daughter, parent, or next of kin of the covered 
servicemember are entitled to take up to 26 workweeks of leave during a 
``single 12-month period'' to care for a seriously injured or ill 
covered servicemember under new military family leave provisions.
    Additionally, on August 31, 2011, the Department of Defense 
authorized the Special Compensation for Assistance with Activities of 
Daily Living (SCAADL). The Army issued its SCAADL implementing guidance 
on November 21, 2011. The program is applicable to all soldiers--
Active, National Guard, and Army Reserve. The SCAADL stipend provides a 
monthly payment to the soldier to support the caregiver. The basis for 
the level of payment is the severity of the soldier's wound, injury, or 
ailment, the amount of caregiver support required, and the geographic 
location of the soldier. Since implementing the SCAADL stipend, the 
Army has made payments to 347 families. As of May 4, 2012, 310 soldiers 
are currently receiving the SCAADL stipend, with an average payment of 
$1,473 per month.
    Question. What training does the nonmedical caregiver receive to 
ensure continuity of care for their wounded warrior once that soldier 
makes a transition to home?
    Answer. In early April 2012, the Office of the Secretary of Defense 
Wounded Warrior Care and Transition Policy drafted a memorandum of 
understanding between the Under Secretary of Defense for Personnel and 
Readiness and the Under Secretary of Veterans Affairs, Veterans Health 
Administration (VHA) for the purpose of having VHA, through their 
contract provider (Easter Seals), provide training for the caregivers 
assisting eligible catastrophic servicemembers in the SCAADL program.
    Also in early April 2012, the Easter Seals mailed training 
workbooks and CDs to each Army Warrior Transition Unit for distribution 
to the caregivers of soldiers in the process of transition from the 
Army to the VA. Before the VA will certify a caregiver, the caregiver 
must pass a test and the VA will conduct an in-home visit of the 
location where the soldier and caregiver will reside.
    The training workbooks have six modules:
  --caregiver self-care;
  --home safety;
  --caregiver skills;
  --veteran/servicemember personal care;
  --managing changing behaviors; and
  --resources.
    Question. What support do they receive to ensure they can maintain 
their own psychological health and well-being through this process?
    Answer. The Army recognizes the difficulty of wounded warrior 
primary caregivers. If a nonmedical attendant is a dependent of the 
wounded warrior, they are entitled to the full range of behavioral 
health services the Army has to offer to support their needs. 
Additionally, the spouse, son, daughter, parent, or next of kin of the 
covered servicemember are entitled to take up to 26 workweeks of leave 
during a ``single 12-month period'' to care for a seriously injured or 
ill covered Servicemember under new military family leave provisions.
    Many family members who serve as nonmedical caregivers are eligible 
for care in the military health system. These family members have 
access to direct and purchased care providers to address their personal 
psychological health and well-being. Members of the soldier's extended 
family who would not normally be eligible for care in the direct care 
system and who do not have private healthcare coverage may apply for 
access to care through the Secretary of Defense.
    Licensed Clinical Social Workers and Nurse Case Managers are 
required to assess potential family issues with each wounded warrior 
encounter as part of their standard of practice. Both Licensed Clinical 
Social Workers and Nurse Case Managers encourage family/caregiver 
participation in the rehabilitation and recovery process which enhances 
the ability to assess the needs of the nonmedical caregiver.
    Every Warrior Transition Unit has a Family Readiness Support 
Assistant. This individual is charged with reaching out to nonmedical 
caregivers to assess their needs and provide resiliency and support 
activities for spouses and extended families.
    We acknowledge that additional emphasis must be placed on the care 
of the caregiver. In November 2011, Army Family Action Plan Conference 
participants raised caregiver support as a formal issue for the Army to 
address. The Army Family Action Plan recommendation was to implement 
formal standardized, face-to-face training for designated caregivers of 
wounded warriors on self-care, stress reduction, burnout, and 
prevention of abuse/neglect. In June 2012, all Army Nurse Case Managers 
will begin receiving training in Caregiver Support. Nurse Case Managers 
will be educated on how to assess and train caregivers using the same 
training required by VA prior to receiving caregiver compensation in 
order to enhance lifelong learning and further reduce the training 
burden on caregivers. Following the training, Nurse Case Managers 
caring for wounded warriors will be required to invite caregivers in 
for an individual assessment, education using the Easter Seals training 
workbook, and potential referral to the Licensed Clinical Social Worker 
and/or other appropriate resources.
    Question. What has the Army done to leverage the help the private 
sector can provide?
    Answer. The Army recognizes the difficulty of wounded warrior 
primary caregivers. Dependents of wounded warriors are entitled to the 
full range of services the Army has to offer to support their needs. 
These services include those services available to Army beneficiaries 
in the private sector. Additionally, the spouse, son, daughter, parent, 
or next of kin of the covered servicemember are entitled to take up to 
26 workweeks of leave during a ``single 12-month period'' to care for a 
seriously injured or ill covered servicemember under new military 
family leave provisions.
                    mental health care provider gap
    Question. Former Vice Chief of Army, General Chiarelli has recently 
talked about a shortage in behavioral/mental healthcare providers. A 
2011 report by American Psychological Association found a 22-percent 
decrease in uniformed clinical psychologists and further characterized 
the approach to helping soldiers and families as a ``patchwork.'' There 
are not enough behavioral health specialists and those who are serving 
are completely overwhelmed by the level of work they have. Furthermore, 
the Guard and Reserve forces have been hit particularly hard by mental 
health issues. A 2011 study found nearly 20 percent of returning 
reservists had mental health problems serious enough for follow-up. 
Guard and Reservists are 55 percent more likely than Active Duty 
members to have mental health problems. Compounding the problem, 
Reservists lack access to the system or networks that experts say are 
needed to assess and treat their injuries.
    Do you have the workforce you need; whether it's mental healthcare 
providers or integrative medicine practitioners--such as 
acupuncturists?
    Answer. Behavioral health remains one of the Army's hardest to fill 
specialties. Specific shortage areas include psychiatrists, social 
workers, and technicians. Emerging capability needs related to 
integrative medicine, the Integrated Disability Evaluation System, 
Patient Centered Medical Homes, and brigade combat team embedded 
behavioral health will require additional providers.
    Question. Does the military health budget address the behavioral 
health providers?
    Answer. Yes, the Defense Health Program provides funding for 
Behavioral Health (BH) providers. The Army Medical Command has an 
historic base budget of more than $125 million for civilian BH 
providers. The fiscal year 2013 President's budget sustains an 
additional $184 million in funding for psychological health 
requirements that includes BH providers (among other BH operating 
costs, including facilities). Further, there is an additional $20.8 
million for BH providers as part of our Patient Centered Medical Home 
initiative; $24 million for our Embedded Behavioral Health initiative; 
and another $21 million for BH providers supporting the Integrated 
Disability Evaluation System.
    Question. What are you doing to attract and retain more mental 
healthcare providers?
    Answer. There are numerous programs to attract mental health 
providers to the Active military force. The Critical Wartime Skills 
Accession Bonus allows us to offer a psychiatrist an accession bonus of 
$272,000 for a 4-year commitment. There are accession and retention 
bonus programs for Clinical Psychiatrists and the Accession Bonus 
Program for Social Work officers. We have expanded our training 
programs to attract more recent graduates into service to accomplish 
the years of supervision required to become independent practitioners. 
Certified Psychiatric Nurse Practitioners are eligible for Incentive 
Special Pays.
    The MEDCOM has been successful in civilian recruiting and retention 
efforts by focusing on recruiting and retention incentives, an 
aggressive outreach recruitment program, and the addition of civilian 
students in the Fayetteville State Masters of Social Work Program. The 
MEDCOM has centralized the recruitment process for mission critical 
specialties, and that effort has reduced the fill time for hiring.
                       addiction to prescriptions
    Question. Reliance on prescription cocktails to handle mental and 
pain management is having serious negative consequences amongst our 
military servicemembers. Recent studies have found that veterans with 
PTSD were most likely to be prescribed opioids as compared with vets 
with no mental health disorder--33.5 percent compared with 6.5 percent. 
Accidental drug deaths have doubled from 2001-2009, while prescriptions 
for painkillers are up 438 percent since 2001. Furthermore, nearly 30 
percent of Army suicides between 2005 and 2010 included drug and/or 
alcohol use.
    Should the military medical community examine its reliance on 
narcotics to control pain among wounded warriors?
    Answer. The 2010 Army Pain Management Task Force examined not only 
military medicine's but U.S. medicine's overreliance on medication-only 
treatment for pain. The Pain Management Task Force Report made more 
than 100 recommendations to provide a comprehensive pain management 
strategy that was holistic, multidisciplinary, and multimodal. The Army 
has been implementing these recommendations through the Army 
Comprehensive Pain Management Campaign Plan which includes efforts to 
ensure proper use/monitoring of medication use and significant 
expansion of nonmedication pain treatment modalities.
    In June 2011, the Institute of Medicine released the report 
entitled, ``Relieving Pain in America: A Blueprint for Transforming 
Prevention, Care, Education, and Research''. The IOM report confirmed 
that overreliance on medication-only management of pain was an issue 
plaguing medicine in the U.S. and certainly not unique to the military. 
In addition to referencing the Army Pain Management Task Force, the IOM 
report's findings and recommendations largely paralleled those 
contained in the Army Pain Management Task Force Report.
    Question. What alternative options of pain management does the Army 
have in place to give doctors a choice to lessen the use of 
prescription pain killers?
    Answer. The Army's Comprehensive Pain Management Campaign Plan is 
operationalizing the Army Pain Management Task Force recommendations to 
move toward a more holistic, multidisciplinary, and multimodal 
treatment of pain. This includes standardizing availability and 
utilization of traditional treatment modalities such as medications, 
interventional procedures (injections, nerve blocks, and surgeries) and 
several nontraditional complementary modalities (acupuncture, movement 
therapy (Yoga), Biofeedback, and medical massage therapy).
    Army Medicine is developing capability and experience in providing 
multidisciplinary and multimodal pain management at eight 
interdisciplinary pain management centers and their subordinate pain 
augmentation teams.
    Question. Does the Army track rates of addiction to prescription 
pain killers among wounded warriors--how would you know if you had a 
problem?
    Answer. The Army tracks rates of positive urine drug screens among 
soldiers that represent abuse of illicit and prescription medications. 
The Army also tracks the number of soldiers enrolled for treatment of 
substance use disorders. In addition, the Army has put into place 
policies and practices to provide closer monitoring and support of our 
wounded warriors who require treatment for their multiple medical and 
behavioral health conditions, which often includes medications such as 
painkillers and anti-anxiety medications that have abuse potential. 
Because these policies and practices are in place, we have a better 
chance of detecting prescription drug abuse and identifying soldiers in 
need of intervention and treatment.
    Question. Peer-reviewed studies demonstrate that servicemembers who 
incorporate complementary medicine for pain management rely less on 
prescriptions for pain management. Do you see promise for a more 
widespread application of this program?
    Answer. Yes, the Army is developing capability and experience in 
providing multidisciplinary and multimodal pain management at eight 
interdisciplinary pain management centers (IPMC) and their subordinate 
pain augmentation teams. The Army's Comprehensive Pain Management 
Campaign Plan (CPMCP) is operationalizing the Army Pain Management Task 
Force recommendations to move toward a more holistic, 
multidisciplinary, and multimodal approach to the treatment of pain. 
This includes standardizing availability and utilization of traditional 
treatment modalities such as medications, interventional procedures 
(injections, nerve blocks, and surgeries), and several nontraditional 
complementary modalities (acupuncture, movement therapy (Yoga), 
Biofeedback, and medical massage therapy).
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                       hyperbaric oxygen therapy
    Question. General Horoho, I understand that $8.6 million is 
included to fund a clinical trial using hyperbaric oxygen therapy to 
diagnose and treat brain injury. What is your experience with this 
therapy? Do you think it has merit in treating traumatic brain injury?
    Answer. Case reports have suggested symptomatic improvement and 
more modest cognitive improvement in some individuals, but properly 
designed clinical trials results are still lacking. Departments of 
Defense (DOD), Veterans Affairs (VA) leaders, and medical professional 
societies such as the Undersea and Hyperbaric Medical Association and 
recently the American Psychiatric Association have cautioned that the 
results of randomized, controlled trials are needed before merit in 
treating mild traumatic brain injury (mTBI) can be established. In 
order to evaluate the merit of this potential therapy, the DOD is 
continuing to fund and execute a series of clinical trials to evaluate 
hyperbaric oxygen in the rehabilitation of mTBI.
                                 ______
                                 
       Questions Submitted to Major General Kimberly Siniscalchi
            Questions Submitted by Chairman Daniel K. Inouye
                          joint nursing issues
    Question. General Siniscalchi, how are lessons-learned from joint 
experiences being leveraged to improve the military health system and 
ultimately improving health outcomes?
    Answer. Lessons learned from Joint experiences have enabled us to 
focus our efforts on improving the Military Health System and health 
outcomes by enhancing interoperability through continued partnering 
with our Sister Services, Veterans Administration, Civilian Healthcare 
facilities, and other Federal agencies. The Federal Nursing Chiefs are 
meeting on a regular basis to address common nursing challenges and 
have developed a strategic plan to advance nursing practice and improve 
health outcomes, acting as a single voice with a common mission. We 
continuously strive to decrease variance in patient care delivery as we 
focus on efficiencies to reduce redundancies to advance the Quadruple 
Aim: Ready, Better Health, Better Care, and Best Value.
    Lessons learned from these experiences also refocused our attention 
on clinical currency, competency, and sustainment. We built enhanced 
partnerships with Federal and civilian healthcare facilities to ensure 
our nurses have robust clinical sustainment training platforms. In 
2011, we established 180 training affiliation agreements, 39 of which 
were specifically for nursing. We are working to enhance clinical 
sustainment training at our Sustainment of Trauma and Resuscitation 
Skills Program sites. Training on burn care and pediatric critical care 
was added to our Center for Sustainment of Trauma and Readiness Skills 
Centers. To further improve health outcomes based on lessons learned, 
we changed our clinical skill mix by increasing critical care, 
emergency/trauma, mental health, and aeromedical evacuation capability. 
Our 1-year critical care and emergency/trauma fellowships are 
undergoing major transformations and will be ready to implement in 
2013. Our overall number of mental health nurses and mental health 
nurse practitioners were increased and new roles developed in both the 
inpatient and outpatient settings. The new mental health course was 
established at Travis Air Force Base and the mental health nurse 
practitioner program was established at Uniformed Services University 
of the Health Sciences.
    Our most significant changes, based on lessons learned, were in the 
area of aeromedical evacuation. Overall requirements for flight nurses 
and aeromedical technicians were increased. The aeromedical evacuation 
training platform was redesigned into a modularized, efficient training 
pipeline with increased proficiency levels and overall reduction in 
training by 130 days. New clinical protocols for the use of epidural 
pain management in aeromedical evacuation were established and fielded. 
New research projects in collaboration with Wright State University, 
Dayton, Ohio, Air Mobility Command, and the USAF School of Aerospace 
Medicine were started to improve safe patient hand-offs.
                        nursing research issues
    Question. General Siniscalchi, the TriService Nursing Research 
Program (TSNRP) has supported innovations in nursing care through 
competitive grant programs such as the Military Clinician-Initiated 
Research Award and the Graduate Evidence-Based Practice Award. What are 
some of the military unique topics that have benefited from these grant 
programs?
    Answer. The TSNRP is the only program with the primary mission of 
funding military unique and military relevant nursing research studies. 
Since its beginning in 1992, the TSNRP has funded more than 315 nursing 
research and evidenced-based practice projects. Under Air Force Colonel 
Marla De Jong's leadership, the TSNRP established the Military 
Clinician-Initiated Research Award and the Graduate Evidence-Based 
Practice Award. The Military Clinician-Initiated Research Award is 
targeted to nurse clinicians who are well-positioned to identify 
clinically important research questions and conduct research to answer 
these questions under the guidance of a mentor. The Graduate Evidence-
Based Practice Award is intended for Doctor of Nursing Practice 
students who will implement the principles of evidence-based practice 
and translate research evidence into clinical practice, policy, and/or 
military doctrine. It is critical that the award recipients disseminate 
the results of their studies so that leaders, educators, and clinicians 
can apply findings to practice, policy, education, and military 
doctrine as appropriate. The goal of this grant is to enhance the 
dissemination and uptake of evidence.
    Some of the areas in which research was conducted this year 
include:
  --pain management;
  --patient safety;
  --post-traumatic stress; and
  --women's health.
    Research initiatives in patient safety and pain management 
demonstrated improvement in the safety, quality of care, and management 
of pain as patients move through aeromedical evacuation continuum. 
TSNRP is invaluable to these research initiatives that display our 
commitment to advance nursing practice by fostering a culture of 
inquiry.
                     patient-centered medical home
    Question. General Siniscalchi, how are nonadvanced practice nurses 
being utilized in advancing the Air Force Family Health Initiative to 
realize the DOD focus on Patient-Centered Medical Home (PCMH) as a 
strategy aimed at improving health outcomes while improving 
efficiencies in care delivery within military treatment facilities?
    Answer. The focus of PCMH is to create a partnership between the 
patient and their healthcare team while empowering the patient with 
increased responsibility for self-care and monitoring to achieve their 
goals for health. Our nonadvanced team nurses are integral to the care 
management and the coordination of patients and focus on prevention and 
improved health outcomes. The team nurse ensures a smooth care 
transition as patients pass through the continuum of care. 
Additionally, they vector high-risk patients to be followed by disease 
or case managers. The expanded team nurses' roles include disease or 
case managers; who manage and coordinate care for a target population, 
or the more complex patients, to improve quality and health outcomes 
for these defined populations while advocating and incentivizing 
healthy behaviors. Implementation of PCMH has resulted in decreased 
emergent and urgent care visits; increased provider, patient, and staff 
satisfaction; increased provider continuity associated with better 
health outcomes; and an uncomplicated early transition from a focus on 
healthcare to health.
                        transition from wartime
    Question. General Siniscalchi, what specific retention strategies 
are being developed to entice the best junior and mid-level nurses to 
continue their nursing careers in uniform?
    Answer. We offer many programs to inspire our junior and mid-level 
nurses to remain on Active Duty. The Incentive Specialty Pay program 
continues to have a positive impact on retention. We have a robust 
developmental program for our nurses as they transition from novice to 
expert. The nurse residency program develops our nurse graduates into 
fully qualified registered nurses and prepares them for success in 
their new profession and military nursing. The Nurse Transition Program 
for new graduates is conducted at one of four Centers of Excellence, 
two of which are Magnet hospitals. Our developmental career path offers 
three tracks--clinical, command, and academia--giving nurses the 
ability to focus in any one of these three areas, while still allowing 
them to weave in and out at the junior and mid-level points in their 
career.
    Additional force development opportunities include fellowship 
programs such as critical care, trauma, patient safety, magnet 
recognitions, leadership, education and training, administration, 
strategic planning, resourcing, informatics, research, and aeromedical 
evacuation. We offer advanced academic degree programs such as clinical 
nurse specialist (CNS), nurse practitioner, and nurse scientist. We 
partnered with Wright State University, Ohio, in developing a Master's 
program for a Flight and Disaster Nursing CNS. Our first student 
graduates in May 2012. Nurses now have the opportunity to pursue a 
Doctorate of Nursing Practice in the of areas Mental Health, Family 
Nurse Practitioner and Certified Registered Nurse Anesthetist, in 
partnership with the Uniformed Services of the Health Sciences. 
Deployment opportunities provide unique experiences, which were cited 
as ``the most rewarding experience'' in the 2010 Tri-Service Nursing 
Retention Survey. We continue to pursue training affiliations with our 
Federal partners, civilian institutions, and international partners in 
order to advance interoperability and skill sustainment.
                                 ______
                                 
        Questions Submitted to Rear Admiral Elizabeth S. Niemyer
            Questions Submitted by Chairman Daniel K. Inouye
                          joint nursing issues
    Question. Admiral Niemyer, in recent years we have witnessed the 
unprecedented alignment of efforts among service medical departments, 
between Department of Defense (DOD) and Department of Veterans Affairs 
(VA) medical departments, and between governmental and nongovernmental 
nurses to deliver care across the spectrum of military treatment 
facilities, during humanitarian assistance/disaster relief efforts, and 
wartime missions. What is being done to ensure lessons learned from 
these opportunities are embedded in future training evolutions?
    Answer. Joint and integrated work environments are now the ``new 
order'' of business. Navy Medicine enjoys strong collaborative 
relationships with the Army and Air Force, as well as VA and civilian 
counterparts. As leaders in Navy Medicine and the Military Healthcare 
System, Navy nurses possess the necessary skills and experience to 
promote, build and strengthen strategic partnerships with our military, 
Federal, and civilian counterparts to improve the healthcare of our 
beneficiaries.
    Within the military treatment facilities (MTFs), lessons learned 
are shared and implemented into various training evolutions. Nurse 
Residency Programs for newly accessioned nurses and command orientation 
programs are integrated and nurses new to military medicine and/or a 
joint facility are introduced into a joint culture from day one. The 
Directors for Nursing Services assigned to our joint facilities have 
provided video teleconferences throughout Navy MTFs to share lessons 
learned throughout the enterprise and respond to questions from the 
field which has also proven to be a vital educational format as we 
continue to refine a unified culture focused on clinical excellence and 
professionalism.
    A decade of war has resulted in numerous advancements in military 
medicine from lessons learned by all of the Services. These 
advancements are incorporated into clinical and operational training 
evolutions. Examples are the use of tourniquets and procedures for 
resuscitating casualties such as earlier use of blood products, 
medications such as QuikClot and Combat Gauze. The Tactical Combat 
Casualty Care Course has curriculum committee involvement for all 
Services, as well as civilian experts. Improvements in critical care 
transport and rapid Medical Evacuation (MEDEVAC) to definitive care has 
also been incorporated into training. Implementing lessons learned from 
the Air Force's Critical Care Air Transport Team (CCATT), the Navy is 
also training and using critical care physicians and nurses in theater 
to provide critical care transport.
                        nursing research issues
    Question. Admiral Niemyer, in last year's testimony you provided an 
overview of the Navy Nurse Corps' efforts to regionalize nursing 
research efforts and implement research training to junior officers. 
How have these efforts impacted current research activities?
    Answer. Fundamental to the growth and development of future nurse 
researchers is the availability of experienced mentors to guide and 
teach our junior nurses throughout the research process. To this end, 
we aligned our senior nurse researchers regionally to serve in this 
role. We have continued our efforts to ``invigorate nursing research'' 
at all levels of the organization; however, we have focused additional 
efforts to promote a culture of clinical inquiry in our junior nurses.
    A team is completing the development of a 2-3 day course on 
implementing evidence-based practice which we plan to present in all 
three regions by July of this year. This course will educate junior 
nurses on the process of evaluating the existing body of nursing 
knowledge and apply this knowledge to improve their nursing practice 
and advance their skills in the care of patients at the bedside 
ultimately enhancing patient outcomes. Following this course 
completion, our regional researchers will mentor the course 
participants in the initiation of three multisite, regional evidence-
based practice projects. The first annual Navy Nurse Corps recognition 
program to promote and acknowledge excellence in implementing evidence-
based practice was launched in February of this year.
    As a result of these on-going efforts, we are seeing an increased 
level of interest in evidence-based practice and increased level of 
participation in nursing research projects among our junior nurses. 
Throughout our organization, there continues to be an overwhelming 
number of nurses participating in the Tri-Service Nursing Research 
Program Research (TSNRP) Development Course. Navy nurses authored more 
than 30 publications and provided more than 50 formal presentations at 
various professional forums and were awarded $1.5 million in TSNRP 
funds as principal investigators for numerous projects.
                     patient-centered medical home
    Question. Admiral Niemyer, how are advanced practice nurses being 
utilized to forward the Navy Medical Homeport to realize the DOD focus 
on Patient-Centered Medical Home to improve health outcomes while 
improving care delivery within military treatment facilities?
    Answer. Transformation to the Navy Medical Homeport (MHP) has 
changed how patients, team members and providers interact with one 
another. It uses an integrated healthcare team to deliver the right 
care, at the right time, by the right person leveraging the skills of 
all team members to deliver timely, easily accessible quality care.
    Advanced practice nurses are at the forefront of MHP implementation 
across our enterprise. As experienced Primary Care Managers within Navy 
Medicine, advanced practice nurses are expertly prepared to deliver the 
highest quality care with the tenets of wellness and preventive care at 
the center of every encounter. Many are serving as MHP Team Leaders and 
command champions. In these roles, they are leading the efforts towards 
achieving National Center for Quality Assurance (NCQA) recognition, the 
gold standard for recognition of medical home practices in the United 
States.
    Advanced practice nurses have always practiced patient- and family-
centered care and will continue to be recognized leaders in this cost-
effective, high-quality healthcare delivery model.
                        transition from wartime
    Question. Admiral Niemyer, Navy Medicine has been involved in 
several humanitarian assistance/disaster relief (HA/DR) operations 
utilizing hospital ships, combatant ships, and land forces over the 
past year. How has the Navy Nurse Corps applied wartime experiences to 
these noncombat missions?
    Answer. Navy nurses are integral members of diverse medical units 
throughout the Helmand and Nimroz Provinces in Afghanistan. They serve 
in medical units at forward operating bases, Shock Trauma Platoons 
(STPs), Forward Resuscitative Surgical Systems (FRSS), and the 
Multinational Medical Units in Bastion and Kandahar supporting the 
immediate pre-, intra-, and post-operative phases of care for injured 
combat casualties.
    In accordance with nationally recognized trauma scales, patients 
treated at the Role 3 in Bastion typically had injuries scoring twice 
as high as those seen in a Level 1 trauma center in the United States. 
The advanced clinical expertise and technical skills of nurses gained 
through their wartime experience have significantly contributed to the 
unprecedented survival rates of greater than 95 percent. The expertise 
from wartime experience of our emergency/trauma, critical care, 
medical/surgical, pediatrics, neonatal intensive care, nurse 
anesthesia, and nurse practitioner specialties is also vital to the 
provision of outstanding patient care during HA/DR missions.
    Navy nurses are also trained and supported the theater's enroute 
care mission providing medical support in rotary wing airframes during 
the transport of casualties to higher levels of care. This skill set is 
also necessary for the critical care transport and rapid medical 
evacuation necessary in HA/DR missions.
    Navy nurses are primary members of medical stability operations on 
Embedded Training and Provincial Reconstruction Teams and served as 
mentors and teachers for Afghan military and civilian medical 
personnel. They gained experience in working with NATO members and 
other services, as well as Afghanistan civilians forging collaborative 
and trusting relationships to improve healthcare delivery systems. This 
is also a crucial skill set gained through wartime experience 
invaluable during HA/DR missions to build relationships with our host 
nation partners and strengthen U.S. maritime security and ultimately 
improving capability to work together with partner nations in the event 
of a future disaster.
                                 ______
                                 
         Questions Submitted to Major General Jimmie O. Keenan
            Questions Submitted by Chairman Daniel K. Inouye
                       patient care touch system
    Question. General Keenan, the Army Nurse Corps launched the Patient 
Care Touch System in February 2011. How has this approach to nursing 
practice been integrated with the Army Patient-Centered Medical Home 
(PCMH) delivery model?
    Answer. Patient Caring Touch System and PCMH are complimentary 
systems. Facilities that are implementing PCMH report that they 
integrate well and report that the similarities of the team concept 
facilitate transition of other members of the team, and nursing becomes 
an important advocate of change. Shared accountability and the unit 
practice councils help the PCMH team to develop policies and practices 
and processes that are common to both systems and enables improvements 
in communication and multidisciplinary collaboration.
                       training army nurse corps
    Question. General Keenan, how has the Army Nurse Corps been changed 
by 10 years of war and what steps are being taken to ensure the best of 
the experiences are capitalized upon in training tomorrow's Army Nurse 
Corps?
    Answer. Based upon lessons learned and data in theater, Army Nurses 
are prepared for deployment by completing individual clinical training. 
We have developed new nursing skill sets and capabilities such as 
revision of our critical care nurse training to improve trauma care as 
well as training our nurses to provide MEDEVAC transport. To ensure 
capability gaps are addressed in future operations, Army nurses have 
developed a comprehensive set of policies that address training, 
equipping, sustainment and practice protocols. The Army Nurse Corps 
assigns a senior nurse to the Medical Task Force, who is responsible 
for collaborating with nurses to ensure standards of nursing care are 
in compliance in a deployed environment.
    The Army Nurse Corps has transformed Army Nursing Leader Training 
through the design and implementation of a career-long iterative group 
of courses, guided by nationally accepted nurse leader competencies and 
the Patient Caring Touch System, and gauged by the Leader Capability 
Map.
                      nurses: service integration
    Question. General Keenan, focusing specifically on the treatment 
facilities impacted by base realignment and closure (BRAC), how are 
nurses from the different services being integrated to deliver seamless 
care to beneficiaries?
    Answer. The joint facilities created by BRAC offer the opportunity 
for the services to collaborate in improving patient care just as we 
have in 10 years of war together. Many of our officers served in a 
joint environment overseas and can leverage that experience working at 
our joint treatment facilities in the continental United States.
    Nurses are integrated at all levels of the organization and are 
delivering seamless care to beneficiaries. Army, Navy, and Air Force 
nurses work side-by-side in clinical environments at Fort Belvoir 
Community Hospital and Walter Reed National Military Medical Center. 
From orientation programs, ongoing training, committee work, and 
process improvement teams to middle and executive level leadership, 
nurses from all services collaborate in a very deliberate and 
integrated environment to provide the best quality care.
    Question. General Keenan, over the course of history nurses have 
risen to the challenges of war providing invaluable contributions that 
have had long-lasting impacts on healthcare. As our Nation has been at 
war for the past 10 years, what are some of the significant research 
findings military nurses have contributed to the body of professional 
knowledge with applications away from the battlefield?
    Answer. The Army Nurse Corps is fully engaged in military research 
related to war. We have nurses assigned to the U.S. Army Institute of 
Surgical Research (USAISR) which is working to develop lessons learned 
from the data they have collected from 10 years of war. At USAISR, 
there is a cell dedicated to Combat Casualty Care Nursing Research.
    We also have nurses deployed with the Joint Theatre Trauma System 
team and the Deployed Combat Casualty Research Team. LTC Elizabeth 
Mann, of the USAISR, recently co-authored a study on mortality 
associated with sepsis in burn and trauma patients, which is one of 
many studies she has been involved with dealing with the challenges 
with the critically ill patients we have seen return from theatre. The 
Army Nurse Corps is proactively changing and improving our nursing 
practice based on the lessons learned.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The subcommittee will reconvene on 
Wednesday, April 18, at 10:30 a.m. to receive testimony from 
the Missile Defense Agency. Until then, we stand in recess.
    [Whereupon, at 11:44 a.m., Wednesday, March 28, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, April 18.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                       WEDNESDAY, APRIL 18, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:32 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Cochran, Shelby, and Alexander.

                         DEPARTMENT OF DEFENSE

                         Missile Defense Agency

STATEMENT OF LIEUTENANT GENERAL PATRICK J. O'REILLY, 
            DIRECTOR, U.S. ARMY

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. Good morning. Today, we are pleased to 
welcome Lieutenant General Patrick O'Reilly, Director of the 
Missile Defense Agency (MDA) to discuss the administration's 
fiscal year 2013 budget request.
    While we scheduled this year's hearing several months ago, 
it could not be more timely given the events that transpired 
last week. The attempted North Korean rocket launch serves as a 
stark reminder of potential threats to our homeland. I know the 
operational demands the Nation places on you.
    In fiscal year 2013, MDA is requesting $7.75 billion, a 
reduction of more than $650 million from amounts appropriated 
in the last fiscal year. This request supports a viable 
homeland defense, enhances European regional defenses, 
continues testing the current system, and develops new 
capabilities to address new threats.
    Like all of our defense and other Federal Government 
agencies, we're asking you to continue to perform your vital 
mission in a fiscally constrained environment. Your agency has 
several significant programs underway that I'm certain you will 
address this morning.
    In particular, I look forward to hearing an update on 
progress you have made after two successive test failures of 
the Ground-based Midcourse Defense (GMD) system. As you well 
know, the threat to our Nation is not static, and this 
subcommittee will continue to fully support your efforts to 
return to flight successfully.
    In addition to the regional defense of our deployed troops 
and allies, MDA has begun implementation of a phased adaptive 
approach (PAA) by placing a forward-based radar in Turkey and 
deploying an Aegis ballistic missile defense ship in the 
Mediterranean.
    You have also made progress in the next phases of the PAA 
by negotiating important postnation agreements and by 
continuing to upgrade our Aegis ships.
    Therefore, we are concerned to hear about the Navy's 
proposed plans to prematurely retire some of its ships that 
were slated to be upgraded to a ballistic missile defense (BMD) 
capability. This will result in six fewer BMD capable ships 
than what you had projected just 1 year ago. I believe this is 
alarming given the evolving threat, and we would like to hear 
your thoughts on that proposal.
    The year 2012 marks the 10-year anniversary of MDA, and 
over this time, you have made technical progress to secure our 
homeland and our allies. As we look forward to future 
challenges coupled with limited resources, our Nation will 
continue to rely on your foresight and technical expertise.
    Before I proceed, I would like to recognize the Vice 
Chairman, Senator Cochran, for his remarks.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you, and thank you, 
General O'Reilly, for being here with us today to review the 
President's budget request with respect to the next fiscal year 
for the Department of Defense (DOD).
    We, of course, are interested in trying to do our part to 
hold back on wasteful Government spending. That's kind of the 
word of the day, and constrains us, as we review the request 
being submitted to the Congress this year for DOD.
    But we know we have no more important undertaking than to 
safeguard the security of the citizens of the United States and 
to help protect our interests around the world.
    We do need to practice fiscal discipline, but our 
adversaries continue to develop medium- and long-range 
ballistic missiles that threaten our security, as well as the 
security of our deployed forces around the world. And our 
friends and allies are threatened as well.
    So we hope to explore with our witnesses before the 
subcommittee at our hearing the technological and fiscal 
challenges we face and undertake to do what is thoughtful and 
necessary to help continue to provide a multi-tiered, missile 
defense system to help protect these security interests.
    Thank you for being here today, and we look forward to our 
discussion about the MDA and what we can do to help support 
your best efforts.
    Chairman Inouye. Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Mr. Chairman, I ask that my opening 
statement be made part of the record. I look forward to hearing 
from General O'Reilly. We had a nice meeting yesterday. Thank 
you for calling this hearing.
    Chairman Inouye. Senator Alexander.

                  STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. Thanks, Mr. Chairman. I'm here to hear 
the General, and I have no opening statement.
    Chairman Inouye. Thank you, Sir.
    General.

      SUMMARY STATEMENT OF LIEUTENANT GENERAL PATRICK J. O'REILLY

    General O'Reilly. Good morning.
    Chairman Inouye, Vice Chairman Cochran, and other 
distinguished members of this subcommittee. Thank you for the 
opportunity to testify today on the MDA's $7.75 billion fiscal 
year 2013 President's budget request to further develop our 
missile defenses against the increasing ballistic missile 
threat to our homeland, armed forces, allies, and international 
partners.
    This request balances our policies as documented in the 
2010 Ballistic Missile Defense Review, U.S. Strategic Command's 
Integrated Air and Missile Defense priorities, the MDA's 
technical feasibility assessments, affordability constraints 
and current intelligence community estimates of the ballistic 
missile threat.
    I describe our past year's accomplishments and detailed 
justification of this year's budget request in my written 
statement submitted to this subcommittee. However, I would like 
to highlight now that last year our homeland defense 
improvements included activating a new missile field and an 
additional fire control node at Fort Greely, Alaska, activating 
a newly upgraded early warning radar in Thule, Greenland, and 
upgrading the reliability of three ground-based interceptors 
(GBIs).
    This year, we continue to aggressively pursue the agency's 
highest priority, to conduct a missile intercept with the 
newest version of the GBI's exo-atmospheric kill vehicle (EKV) 
after two previous flight test failures.
    We conducted a failure review board comprised of Government 
and industry experts, redesigned critical GBI EKV components, 
and established more stringent manufacturing and component 
requirements.
    These requirements had previously not been encountered 
anywhere in the aerospace industry. As a result of these 
stringent manufacturing requirements, we have encountered 
delays in preparing for our next flight test.
    MDA is fully committed to test the GMD system as soon and 
as often as possible. But we will not approve the execution of 
a flight test until our engineers and independent experts are 
convinced that we have resolved all issues discovered in 
previous testing.
    We will fly a nonintercept test by the end of this year to 
verify we have resolved all issues, and then we will conduct 
our next intercept flight test early next year to reactivate 
the GMD production line.
    We will also activate our hardened power plant at Fort 
Greely, Alaska, this year, and we will increase the firepower 
of the fielded GBI's by continuing to test and upgrade the 
reliability of GBI components.
    Finally, we will continue to increase the capability of the 
Sea-Based X-band Radar (SBX). But we have cost effectively 
limited its operation to flight testing and operational 
contingency support under the control of the U.S. Navy Pacific 
Fleet.
    Our regional defense highlights over the past year include 
the on-time deployment of the first phase of the European 
phased adaptive approach (EPAA) consisting of a command and 
control node in Germany, a forward-based radar in Turkey, and 
an Aegis missile defense ship on station in the Mediterranean 
Sea.
    During the past year, we demonstrated the first Aegis 
intercept of a 3,700 kilometer target using a remote forward-
based radar and we demonstrated the simultaneous intercept of 
two missiles by the Terminal High Altitude Area Defense (THAAD) 
system.
    This year, the first two THAAD batteries will be available 
for deployment, increasing the number of Aegis capable ships to 
29 and conduct of three Standard Missile 3 (SM-3) Block 1B 
flight tests to demonstrate the resolution of last year's 
flight test failure.
    And we will conduct the largest missile defense test in 
history involving the first simultaneous intercepts of multiple 
short- and medium-range ballistic missiles and cruise missiles 
by Patriot Advanced Capability 3, THAAD and Aegis BMD systems 
integrated with a forward-based radar.
    Finally, we continue to work with more than 20 countries 
including our Cooperative Development Programs with Israel and 
Japan, and our first foreign military sale of THAAD to the 
United Arab Emirates. And we continue to support technical 
discussions with the Russians on missile defense.
    While Phases 2 and 3 of the EPAA to missile defense are on 
track to meet the 2015 and 2018 deployment dates, the 
Government Accounting Office (GAO) has criticized concurrent 
production of prefabricated buildings to house the Aegis Ashore 
System for Romania prior to the completion of flight testing 
with the Aegis Ashore at the Pacific Missile Range in Hawaii.
    While I concur with the GAO that programs of high 
concurrency between testing, production and fielding such as 
the initial fielding of the GMD system have associated risks, I 
deem the risk of proceeding with the production of 
prefabricated buildings for the Aegis Ashore System, while 
flight testing, is a low risk, since all the functions of the 
Aegis Ashore System are identical to the functions of the Aegis 
System that have been thoroughly tested at sea.
    However, the cost of suspending Aegis Ashore production 
until all flight testing is completed will greatly increase the 
production costs, needlessly delay the deployment of the second 
phase of the EPAA production protection of Europe, and 
negatively impact the industrial base supporting the Aegis 
program.
    Finally, I'm concerned about delivering the critically 
needed and cost-effective missile defense sensor capability of 
the Precision Tracking Space System (PTSS) and the need to 
develop a second independent layer of homeland defense with the 
SM-3 IIB Interceptor due to past congressional funding 
reductions to both programs.

                           PREPARED STATEMENT

    I request your support for these programs so that our 
homeland benefits from the same layered missile defense 
approach that we successfully employ in our regional defenses.
    Three industry teams are developing the SM-3 IIB 
Interceptor concepts that expand the forward edge of our 
homeland defense battle space and provide our war fighters a 
highly effective Shoot-Assess-Shoot anti-intercontinental 
ballistic missiles (ICBM) capability as endorsed by the recent 
Defense Science Board Study.
    Thank you, and I look forward to the subcommittee's 
questions.
    [The statement follows:]
      Prepared Statement of Lieutenant General Patrick J. O'Reilly
    Good morning, Chairman Inouye, Vice Chairman Cochran, other 
distinguished members of the subcommittee. I appreciate the opportunity 
to testify before you today on the Missile Defense Agency's (MDA) $7.75 
billion fiscal year 2013 budget request to develop protection for our 
Nation, our Armed Forces, allies, and partners against the 
proliferation of increasingly capable ballistic missiles. The 
Department developed the fiscal year 2013 President's budget request in 
accordance with the February 2010 Ballistic Missile Defense Review, 
which balanced war fighter needs as expressed in the U.S. Strategic 
Command (STRATCOM) Integrated Air and Missile Defense (IAMD) 
Prioritized Capability List (PCL) with technical feasibility and 
affordability constraints and intelligence community updates. We 
continue to demonstrate and improve the integration of sensor, fire 
control, battle management, and interceptor systems that transforms 
individual missile defense projects into a Ballistic Missile Defense 
System (BMDS) capable of defeating large raids of a growing variety of 
ballistic missiles over the next decade. For homeland defense, last 
year we completed the construction of the Ground-based Midcourse 
Defense (GMD) infrastructure for protection of the U.S. homeland 
against future limited intercontinental ballistic missile (ICBM) 
threats from current regional threats including the activation of our 
newest hardened missile field at Fort Greely, Alaska (FGA). This year, 
we will continue to aggressively pursue the MDA's highest priority--
successful return to flight and intercept tests of the Capability 
Enhancement II (CE II) version of the ground-based interceptor (GBI). 
We will prepare for the next GMD nonintercept flight test by the end of 
this year and our next intercept early in the following year, activate 
the hardened power plant at FGA, prepare to restart the GBI production 
line, and aggressively conduct component testing and refurbish 
currently deployed missiles to test and improve their reliability. For 
regional defenses, last year we deployed phase 1 of the European phased 
adaptive approach (EPAA) consisting of a command and control, battle 
management system in Germany, forward-based radar in Turkey, and an 
Aegis ballistic missile defense (BMD) ship in the Eastern Mediterranean 
Sea. This year, we will have two operational Terminal High-Altitude 
Area Defense (THAAD) batteries, convert 5 Aegis ships and upgrade 1 for 
a total of 29 ships with BMD capability installed, and increase the 
number of associated Standard Missile 3 (SM-3) interceptors. In our 
test program, we will conduct three flight tests of the SM-3 Block IB 
to demonstrate resolution of last year's flight test failure and its 
ability to intercept complex short-range ballistic missile (SRBM) (up 
to 1,000 km) targets. Finally, this year we will demonstrate the 
maturity of our layered regional defense with the first simultaneous 
intercepts of three short- and medium-range ballistic missiles and two 
cruise missiles by an integrated architecture of PATRIOT Advanced 
Capability 3 (PAC-3), THAAD, and Aegis BMD systems assisted by a remote 
Army/Navy Transportable Radar Surveillance 2 (AN/TPY-2) forward-based 
radar--the largest, most complex, live fire missile defense test in 
history.
                       enhancing homeland defense
    MDA's highest priority is the successful GMD intercept flight test 
of the newest GBI exo-atmospheric kill vehicle (EKV)--the CE II EKV. 
Last year, we concluded the Failure Review Board (FRB) evaluation for 
the December 2010 FTG-06a flight test by identifying the most probable 
cause of the failure and revising the CE II EKV design to correct the 
problem. As a result of that FRB, we have redesigned critical GBI EKV 
components and established more stringent manufacturing and component 
test standards--standards previously not used anywhere in the U.S. 
aerospace industry. As a result of these stringent manufacturing 
standards, we have encountered several delays in preparing for our next 
nonintercept and intercept flight tests. MDA is fully committed to test 
the GMD system as soon and often as possible, but we will not approve 
executing a flight test until our engineers, and independent government 
and industry experts, have been convinced that we have resolved all 
issues discovered in previous testing and will be successful in our 
next test. Flight testing as often as possible is our goal, but we risk 
further failure if we conduct GMD testing prior to verification that we 
resolved problems discovered in previous flight tests. Also, conducting 
flight tests at a pace greater than once a year prohibits thorough 
analysis of premission and postmission flight test data and causes 
greater risk of further failure and setbacks to developing our homeland 
defense capability as rapidly as possible. If our CE II nonintercept 
(controlled test vehicle (CTV) flight) is not successful later this 
year, we will be prepared to conduct the next test of the previous 
version of the EKV (the CE I EKV) GBI test while we continue to resolve 
any CE II issues in order to continue to test other improvements in our 
homeland defense. Other improvements to homeland defense include:
  --the upgrades and integration of the Thule Early Warning Radar into 
        the BMDS to view and track threats originating in the Middle 
        East;
  --upgrade of three emplaced FGA GBIs as part of our on-going GMD 
        fleet refurbishment and reliability enhancement program;
  --fielding improved GMD fire control software to allow testing or 
        exercises to be conducted while simultaneously controlling the 
        operational system; and
  --upgrading the FGA communications system.
    We activated Missile Field 2 earlier this year, thus increasing the 
number of total GBI operational silos to 38 (34 at FGA and 4 at 
Vandenberg Air Force Base (VAFB) in California). This past December, we 
awarded the GMD Development and Sustainment contract, one of MDA's 
largest and most complex competitive acquisitions, with a price of 
almost $1 billion less than the independent government cost estimate. 
For the next 7 years, this $3.5 billion contract will provide for 
sustainment and operations as well as improvements and enhancements of 
the current capability, provide for a robust and vigorous testing 
program, and deliver new and upgraded interceptors. A key part of the 
scope of this new contract is comprehensive verification and 
reliability testing, and upgrades as needed, of every component of our 
GBIs. These component reliability improvements and tests will require 3 
years to complete and will provide the U.S. Northern Command (NORTHCOM) 
commander convincing GBI reliability data resulting in a greater number 
of ICBMs that can be engaged with a higher probability of protection of 
our homeland.
    We are requesting $903.2 million in fiscal year 2013 in research, 
development, testing, and evaluation (RDT&E) funding for the GMD 
program. We plan to continue to upgrade our fleet of 30 operational 
GBIs and acquire 5 additional GBIs for enhanced testing, stockpile 
reliability, and spares, for a total of 57 GBIs. We will continue GBI 
component vendor requalifications for the future GBI avionics upgrade 
and obsolescence program.
    Today, 30 operational GBIs protect the United States against a 
limited ICBM raid size launched from current regional threats. If, at 
some point in the future, this capability is determined to be 
insufficient against a growing ICBM threat, it is possible that we can 
increase the operational GBIs' fire power by utilizing all 38 
operational silos, refurbishing our 6-silo prototype missile field, and 
accelerating the delivery of new sensor and interceptor capabilities. 
Additionally, our GBI reliability improvement program will enable more 
successful intercepts with fewer GBIs with the same probability of 
successful intercept. In fiscal year 2013, we will begin construction 
of the GBI In-Flight Interceptor Communication System Data Terminal 
(IDT) at Fort Drum, New York, with a completion date by 2015. The East 
Coast IDT will enable communication with GBIs launched from FGA and 
VAFB over longer distances, thus improving the defense of the Eastern 
United States. We will also continue to develop and assess the 2-stage 
GBI to preserve future deployment options, including an intercept 
flight test in fiscal year 2014.
    Because the defense of our homeland is our highest priority, we are 
pursuing a layered defense concept--similar to that in regional missile 
defense--to achieve high-protection effectiveness by deploying more 
than one independently developed missile defense interceptor system; 
therefore, we will continue development of the SM-3 Block IIB to 
protect our homeland in the future by creating a new first layer of 
intercept opportunities, expanding the forward edge of our homeland 
defense battle space, and providing our war fighters highly feasible 
``Shoot-Assess-Shoot'' firing doctrine. The recent Defense Science 
Board (DSB) agreed with our assessment that the SM-3 IIB will be 
challenged to destroy ICBMs before their earliest possible deployment 
of countermeasures. The DSB also supports MDA's development of the SM-3 
IIB to significantly expand the forward edge of our ICBM battle space 
and enable SAS to obtain very high levels of ICBM protection of our 
homeland. The fiscal year 2012 congressional reduction of the SM-3 IIB 
funding has increased the challenge of fielding this improvement in 
homeland defense against ICBMs in the 2020 timeframe. My additional 
concern is the impact of reducing funding for the SM-3 IIB will 
eliminate the only new interceptor design and development opportunity 
for our Nation's missile defense industrial base for the foreseeable 
future. The three SM-3 IIB industry teams lead by Lockheed Martin, 
Boeing, and Raytheon have shown rapid progress in developing very 
effective and feasible SM-3 IIB interceptor design concepts. To 
terminate, or slow down, the SM-3 IIB development effort will have a 
significant negative impact on missile defense aerospace industrial 
base at this time and risk our ability to cost-effectively respond to 
emerging regional ICBM threats to our homeland for decades in the 
future.
    This year, we will begin upgrading the clear early warning radar in 
Alaska for full missile defense capability by 2016. We will also 
continue operations of the Sea-Based X-band (SBX) radar and development 
of algorithms to improve its discrimination capability. We are 
requesting $347 million in fiscal year 2013 for BMDS Sensors 
development for homeland defense, including support of the Cobra Dane 
radar, the upgraded early warning radars at Beale AFB (California), 
Fylingdales (United Kingdom), and Thule (Greenland). We are requesting 
$192.1 million to operate and sustain these radars and $227.4 million 
to procure additional radars and radar spares. In fiscal year 2013, we 
will also place the SBX in a limited test operations status for 
affordability reasons, but we will be prepared to activate the SBX if 
indications and warnings of an advanced threat from Northeast Asia 
become evident. We will also continue to upgrade the GMD system 
software to address new and evolving threats, including enhancing EKV 
discrimination algorithms by 2015, improving GBI avionics, and 
increasing GBI interoperability with the command and control, battle 
management and communications (C\2\BMC) system.
                       enhancing regional defense
    This year, we will demonstrate integrated, layered regional missile 
defense in the largest, most complex missile defense test ever 
attempted. We will simultaneously engage up to five air and ballistic 
missile targets with an Aegis, THAAD, PATRIOT and Forward Based Mode 
AN/TPY-2 radar integrated C\2\BMC system operated by soldiers, sailors, 
and airmen from multiple Combatant Commands. This live-fire test will 
allow our war fighters to refine operational doctrine and tactics while 
providing confidence in the execution of their integrated air and 
missile defense plans.
    Last year, in addition to deploying EPAA phase 1, we successfully 
supported negotiations for host nation agreements to deploy Aegis 
Ashore batteries to Romania (Phase 2) and Poland (Phase 3); we 
successfully tested the North Atlantic Treaty Organization (NATO) 
Active Layered Theater Ballistic Missile Defense (ALTBMD) Interim 
Capability with European Command (EUCOM) C\2\BMC to enhance NATO 
situational awareness and planning; we installed the Aegis BMD 3.6.1 
weapon system on three Aegis ships and upgraded one Aegis BMD ship to 
Aegis BMD 4.0.1 (increasing the Aegis BMD fleet to 22 operationally 
configured BMD ships); and we delivered 19 SM-3 Block IA interceptors 
and the first SM-3 Block IB interceptor. We continued SM-3 Block IIA 
system and component Preliminary Design Reviews. We delivered 11 
interceptors for THAAD Batteries 1 and 2 and flight test, and started 
production of Batteries 3 and 4. We also delivered the latest C\2\BMC 
upgrades to NORTHCOM, STRATCOM, Pacific Command, and Central Command. 
These software builds will improve situational awareness, sensor 
management, and planner functions.
    We also demonstrated critical BMDS regional capabilities in key 
tests over the past year. In April 2011, we conducted an Aegis BMD 
flight test (FTM-15) using the SM-3 Block IA interceptor launched using 
track data from the AN/TPY-2 radar passed through the C\2\BMC system to 
intercept an intermediate-range ballistic missile (IRBM) target (3,000 
km to 5,500 km) to demonstrate the EPAA phase 1 capability. This 
mission also was the first Launch-on-Remote Aegis engagement and 
intercept of an IRBM with the SM-3 Block IA. In October 2011, the BMDS 
Operational Test Agency, with the oversight of the Director, 
Operational Test & Evaluation, conducted a successful Initial 
Operational Test & Evaluation test (FTT-12) of THAAD's ability to 
detect, track, and engage SRBM and middle-range ballistic missile 
(MRBM) targets simultaneously.
    Enhanced Middle-Range Ballistic Missile Defense in Europe by 2015 
(European Phased Adaptive Approach Phase 2).--Our goal in this phase is 
to provide a robust capability against SRBMs and MRBMs by deploying 
several interceptors to engage each threat missile multiple times in 
its flight. The architecture includes the deployment of the Aegis BMD 
5.0 weapon systems with SM-3 Block IB interceptors at sea and at an 
Aegis Ashore site in Romania. When compared to the current SM-3 Block 
IA, the IB will be more producible, have an improved two-color seeker 
for greater on-board discrimination, and have improvements to enhance 
reliability of the SM-3 Block IB's divert and attitude control system. 
These improvements also provide an enhanced capability to 
simultaneously engage larger sized raids of threat missiles.
    We are requesting $992.4 million in fiscal year 2013 for sea-based 
Aegis BMD to continue development and testing of the SM-3 Block IB, 
continue outfitting of ships with the BMD 4.0.1 system as well as 
spiral upgrades to Aegis 5.0 to support the operation of the SM-3 Block 
IB and IIA interceptors and associated flight tests. We are requesting 
$389.6 million in fiscal year 2013 for the procurement of 29 SM-3 Block 
IB interceptors and $12.2 million to operate and maintain already 
deployed SM-3 Block IA interceptors. In fiscal year 2013, we are also 
requesting $276.3 million to develop and build the Aegis Ashore Test 
Facility at the Pacific Missile Range Facility in Hawaii and $157.9 
million to construct the first Aegis Ashore Missile Defense System 
battery in Romania by fiscal year 2015. We request $366.5 million in 
fiscal year 2013 to operate and sustain C\2\BMC at fielded sites and 
continue C\2\BMC program spiral development of software and engineering 
to incorporate enhanced C\2\BMC capability into the battle management 
architecture and promote further interoperability among the BMDS 
elements, incorporate boost phase tracking, and improve system-level 
correlation and tracking. We will also continue communications support 
for the AN/TPY-2 radars and PAA-related C\2\BMC upgrades.
    In September 2011, we conducted FTM-16 to demonstrate Aegis BMD 
4.0.1 fire control and the first flight test of the SM-3 Block IB 
interceptor. While we did not achieve the intercept of the SRBM 
separating payload, we demonstrated critical system functions, 
including the exceptional performance of the kinetic warhead divert 
system, which allowed the Navy's partial certification of the Aegis BMD 
4.0.1 computer program. In the third quarter of fiscal year 2012, we 
will conduct FTM-16 (Event 2a) to demonstrate the resolution of the 
previous flight test issue and the SM-3 Block IB's Kill Warhead's 
capability. We will also demonstrate the ability of the SM-3 Block IB 
to intercept more complex SRBM targets in FTM-18 and FTM-19 later this 
summer. In the third quarter fiscal year 2013, we will conduct the 
first operational flight test led by the BMDS Operational Test Agency 
team involving a coordinated and simultaneous engagement involving 
Aegis BMD, THAAD and PAC-3 systems against three targets and two cruise 
missiles. Our fiscal year 2013 testing program continues to demonstrate 
the SM-3 Block IB and Aegis BMD 4.0.1 (FTM-21 and FTM-22), including a 
salvo engagement involving two interceptors against an SRBM.
    Enhanced Intermediate-Range Ballistic Missile Defenses in Europe by 
2018 (European Phased Adaptive Approach Phase 3).--The SM-3 Block IIA 
interceptor, being co-developed with the Japanese Government, is on 
schedule for deployment at Aegis Ashore sites in Romania and Poland, 
and at sea, in 2018 to provide enhanced protection for European NATO 
countries from all ballistic missile threats from the Middle East. This 
year we completed the SM-3 Block IIA preliminary design review, and 
continue shock and vibration testing of the SM-3 Block IIA interceptor 
canister, and development of Aegis BMD 5.1 fire control system. We also 
reduced the execution risk of the SM-3 Block IIA program by increasing 
the time between flight tests while maintaining the original initial 
capability date of 2018. The fiscal year 2013 request for SM-3 Block 
IIA co-development is $420.6 million.
    Expanded Interceptor Battle Space by 2020 (European Phased Adaptive 
Approach Phase 4).--The SM-3 Block IIB will provide a pre-apogee 
intercept capability against IRBMs and an additional layer for a more 
enhanced homeland defense against potential nonadvanced ICBMs launched 
from today's regional threats. This program is in the technology 
development phase, and its 7-year development timeline is consistent 
with typical interceptor development timelines according to Government 
Accountability Office data. Last year we awarded risk reduction 
contracts for missile subsystem components, including advanced 
propulsion, seeker, and lightweight material technologies. We also 
awarded concept design contracts for the SM-3 Block IIB interceptor to 
three aerospace industry teams. In fiscal year 2013, we are requesting 
$224.1 million to develop the Request For Proposal and begin source 
selection for the SM-3 Block IIB Product Development Phase, which we 
propose to begin in early 2014. The SM-3 Block IIB is leveraging 
advanced tracking and discrimination technologies planned for 
deployment during EPAA phase 4, as well as the entire sensor network, 
with PTSS and C\2\BMC upgrades to maximize homeland defense.
                additional missile defense capabilities
    This year, we are procuring 42 THAAD interceptors for Batteries 1 
and 2, six launchers, and two THAAD Tactical Station Groups. We are 
requesting $316.9 million in RDT&E funding in fiscal year 2013 to 
enhance communications and debris mitigation, which will allow THAAD to 
be more interoperable with PAC-3 and Aegis BMD and connected to the 
BMDS, and $55.7 million for THAAD operations and maintenance. We also 
request $460.7 million to procure 36 THAAD interceptors. THAAD will 
complete delivery of the first 50 interceptors in June 2012, 
demonstrating the capacity of the contractor supply chain and the main 
assembly factory in Troy, Alabama to deliver interceptors. The next 
production lots are under contract, with delivery beginning this 
summer. We will maintain a production rate of four THAAD missiles per 
month through June 2012 due to components on hand and enhance the 
supply chain's production capacity to sustain a three missile per month 
production rate beginning in spring 2013. In late fiscal year 2012, we 
will demonstrate THAAD's ability to intercept an MRBM as part of an 
integrated operational test with PAC-3 and Aegis BMD.
    Additional BMDS improvements include expanded coordination of 
missile defense fire control systems and improvements in radar 
discrimination. We are requesting $51.3 million for the Space Tracking 
and Surveillance System (STSS) in fiscal year 2013. We continue to 
operate the two STSS demonstration satellites to conduct cooperative 
tests with other BMDS elements and demonstrate the capability of STSS 
satellites against targets of opportunity. These tests demonstrate the 
ability of a space sensor to provide high precision, real-time tracking 
of missiles and midcourse objects that enable closing the fire control 
loops with BMDS interceptors. In fiscal year 2013, we plan the first 
live intercept of a threat missile by the Aegis BMD system using only 
STSS data to form the fire control solution for the SM-3 IB 
interceptor. Additionally, lessons learned from the two STSS 
demonstration satellites inform Precision Tracking Space System (PTSS) 
design development decisions.
                      developing new capabilities
    We are requesting $80 million in fiscal year 2013 to continue 
development of fiscally sustainable advanced BMD technologies that can 
be integrated into the BMDS to adapt as threats change. Intercepts 
early in the battle space will provide additional opportunities to kill 
threat missiles, enlarge protection areas, and improve the overall 
performance of the BMDS.
    Last year, we accelerated our test campaign with the Airborne Laser 
Test Bed (ALTB) to collect data on tracking and atmospheric 
compensation, system jitter, and boundary layer effects on propagation 
for future directed energy applications. This year, in accordance with 
the funding reduction enacted by the Congress, we grounded the ALTB 
aircraft and are examining the technical feasibility of high-
efficiency-directed energy technology for the next decade. In fiscal 
year 2013, we are requesting $46.9 million to pursue Diode Pumped 
Alkaline-gas Laser System and coherent fiber combining laser 
technologies, which promise to provide high-efficiency, electrically 
driven, compact, and lightweight high-energy lasers for a wide variety 
of missions of interest to MDA and the Department of Defense (DOD) and 
support concept development for the next generation of airborne missile 
defense directed energy systems.
    We request $58.7 million in fiscal year 2013 to continue support 
for research and development of advanced remote sensing technologies, 
demonstrate acquisition, tracking and discrimination of multi-color 
infrared sensors, and investigate techniques to improve the system's 
data fusion capability to further strengthen the Nation's missile 
defense sensor network. We have integrated our international and 
domestic university research programs into the same structure, allowing 
MDA to capitalize on the creativity and innovation within our small 
business and academic communities to enhance our science and technology 
programs.
    The greatest future enhancement for both homeland and regional 
defense in the next 10 years is the development of the Precision 
Tracking Space System (PTSS) satellites, which will provide fire 
control quality track data of raids of hostile ballistic missiles over 
their entire flight trajectories and greatly expand the forward edge of 
the our interceptors' battle space for persistent coverage of more than 
70 percent of the Earth's landmass. The need for persistent, full 
trajectory, tracking of ballistic missiles is one of the war fighter's 
highest development priorities as stated in the 2012 STRATCOM PCL. PTSS 
will enhance the performance of all missile defense interceptors at an 
operational cost significantly less (and with much greater ability to 
track large raid sizes of threat missiles) than forward based AN/TPY-2 
radars, based on MDA's experience with STSS program costs. The emerging 
concept design of the PTSS spacecraft is much simpler than STSS because 
it relies on the mature Air Force Space Based Infra-Red (SBIR) 
satellite system to acquire threat ballistic missiles, leverages PTSS's 
ability to provide precision tracks of the remainder of threat 
missiles' trajectories, and uses only satellite components with high 
technology readiness levels. Due to the intrinsic simplicity and 
component maturity of the PTSS design, the integration of concurrent 
developments is considered to be a low acquisition risk. Key to our 
acquisition strategy is MDA partnering Air Force Space Command and the 
Naval Research Laboratory with Johns Hopkins University Applied Physics 
Laboratory (APL), with participation of six aerospace corporations, to 
develop a fully Government-owned preliminary design and technical data 
package to enable full competitions by our aerospace industry for the 
production for the first and subsequent PTSS satellite constellations. 
MDA is requesting $297.4 million for PTSS in fiscal year 2013 to 
continue development of preliminary design requirements to create these 
multi-mission satellites (e.g., missile defense, space situation 
awareness, DOD and intelligence community support). APL has a 
noteworthy track record, dating back to 1979, for meeting planned 
development cost and schedule projections involving 17 significant 
spacecraft missions. We will complete final design and engineering 
models for the PTSS bus, optical payload, and communications payload in 
fiscal year 2013. PTSS project scope includes delivery of PTSS ground 
segments and launch of the first two PTSS spacecraft in fiscal year 
2017. We are fully cooperating in an Independent Cost Estimate (ICE) of 
the development and 20-year life-cycle cost of the PTSS constellation 
by the Office of the Secretary of Defense of Capability Assessment and 
Program Evaluation (CAPE) to achieve a high confidence cost estimate of 
the development and 20-year life of the PTSS constellation. Of note, 
this ICE will provide great insight into the validity of the recent 
National Academy of Science (NAS) Boost Phase Intercept study cost 
estimate for the PTSS constellation that we believe is considerably 
higher than our estimates. Although the NAS study was critical of 
PTSS's ability to discriminate a re-entry vehicle (RV) from other 
objects accompanying a missile, the NAS did not benefit from an 
understanding of our sensor discrimination architecture concept nor our 
classified programs developing PTSS's future RV discrimination 
capability. However, the NAS study did benefit from understanding our 
disciplined systems engineering process that scrutinizes capability 
trades to achieve urgent, cost-effective, satisfaction of the war 
fighters BMD needs as documented in STRATCOM's PCL.
                       international cooperation
    As stated in the 2010 Ballistic Missile Defense Review, developing 
international missile defense capacity is a key aspect of our strategy 
to counter ballistic missile proliferation. A significant 
accomplishment of international cooperation in 2011 was the signing of 
the first Foreign Military Sale case for the THAAD system to the United 
Arab Emirates, valued at nearly $3.5 billion. In Europe, we 
successfully completed interoperability testing of our C\2\BMC system 
with the ALTBMD Interim Capability, demonstrating U.S. and NATO's 
ability to share situational awareness of missile defense execution and 
status and planning data. NATO plans to invest more than 600 million 
Euros for the ALTBMD capability. Moreover, we are working with our NATO 
allies on developing requirements for territorial NATO missile defense. 
We continue to pursue potential missile defense contributions of NATO 
countries such as the Netherlands' announcement that they are upgrading 
their maritime radars with missile defense surveillance and tracking 
capability. In East Asia, we are supporting the BMDR-based objective in 
leading expanded international efforts for missile defense through 
bilateral projects and efforts with Japan, the Republic of Korea, and 
Australia. And in the Middle East, we continue to work with long-term 
partners, such as Israel, and are pursuing strengthened cooperation 
with various Gulf Cooperation Council countries that have expressed 
interest in missile defense. MDA is currently engaged in missile 
defense projects, studies and analyses with more than 20 countries, 
including Australia, the Czech Republic, Denmark, France, Germany, 
Israel, Japan, Poland, Romania, Saudi Arabia the United Arab Emirates, 
the United Kingdom, and NATO.
    MDA continues its close partnership with Japan on the SM-3 IIA 
interceptor (Japan is leading the development efforts on the SM-3 Block 
IIA second- and third-stage rocket motors and the nosecone), studying 
future missile defense architectures for defense of Japan, and 
supporting that nation's SM-3 Block IA flight test program, to include 
the successful intercept flight test in October 2010 involving a 
Japanese SM-3 Block IA. This test completed the first foreign military 
sale of Aegis BMD to a key maritime partner. Japan now has four Aegis 
destroyers equipped with Aegis BMD systems and a complement of SM-3 
Block IA interceptors.
    We also continue collaboration with Israel on the development and 
employment of several missile defense capabilities that are 
interoperable with the U.S. BMDS. Last year, at a U.S. test range off 
the coast of California, the Arrow Weapon System successfully 
intercepted a target representative of potential ballistic missile 
threats facing Israel today. This year, we plan to conduct several 
first time demonstrations of significant David's Sling, Arrow-2 block 
4, and Arrow-3 system capabilities. We are requesting $99.8 million for 
Israeli Cooperative Programs (including Arrow System Improvement and 
the David's Sling Weapon System) in fiscal year 2013 to continue our 
cooperative development of Israeli and United States missile defense 
technology and capability. MDA will conduct a David's Sling flight test 
to demonstrate end game and midcourse algorithms and initiate David's 
Sling and Arrow-3 Low Rate Initial Production.
                               conclusion
    Our fiscal year 2013 budget funds the continued development and 
deployment of SRBM, MRBM, IRBM, and ICBM defenses while meeting the war 
fighters' near-term and future missile defense development priorities. 
We are dedicated to returning to successful GMD flight testing as soon 
as possible as well as developing an additional layer of homeland 
defense with the SM-3 IIB to ensure we have a robust and responsive 
ICBM defense for our Nation, during this decade and for many decades in 
the future. Additionally, we are committed to develop a persistent, 
space based, PTSS constellation to ensure always available, early 
tracking of large size raids of missiles to enable cost-effective 
homeland and regional missile defense. We are also dedicated to 
creating an international and enhanced network of integrated BMD 
capabilities that is flexible, survivable, affordable, and tolerant of 
uncertainties of estimates of both nation-state and extremist ballistic 
missile threats.
    Thank you, Mr. Chairman. I look forward to answering the 
subcommittee's questions.

    Chairman Inouye. Thank you very much, General.
    As I indicated in my opening remarks, we have been advised 
that including the ballistic missile defense (BMD) capability 
on Aegis ships is a critical element of the phased adoptive 
approach (PAA).
    Now, the Navy has, as I indicated, the possibility of 
decommissioning six of the cruisers. What impact would it have 
on the PAA?
    General O'Reilly. Sir, we support the Navy's technical 
assessments. They make the final decision, of course. I know of 
some factors that played into that consideration. Some of it 
was the stationing of ships in Rota, Spain, which has been 
agreed to, to reduce the transit time and increase the multi-
mission ship presence in the Mediterranean.
    That was part of their considerations. Additionally, we 
continue to work with the Navy to perform functions in other 
ways than just using a ship for BMD. For example, for sensors.
    Can we deploy some of our sensors in locations and relieve 
the need for Aegis ships to be doing the surveillance mission 
which some of those ships are doing today.
    So, Sir, I defer the final answer to your question because 
that is a Navy decision, but we work very closely to ensure our 
technical programs are synchronized with their programs, and at 
the same time, they benefit from our technical analysis.
    Chairman Inouye. So the decommissioning is not finalized?
    General O'Reilly. Sir, I'm not in a position to answer that 
question. That's one where we have been supporting the Navy.
    Chairman Inouye. Can you tell us about Aegis Ashore?
    General O'Reilly. Sir, the Aegis Ashore System is a very 
cost-effective approach to take the proven capability we've 
seen at sea and move it effectively to the land. It is then a 
focused mission on missile defense. Instead of the more than 
270 sailors, for example, needed on a Navy ship, an Aegis 
Ashore System can operate the system with less than 35 sailors, 
and that includes multiple shifts.
    So it's a very cost-effective way of having Aegis BMD 
capability. Aegis BMD capability has the longest range of our 
regional systems. So it adds a layer of missile defense to the 
land that otherwise would be solely relying on THAAD.
    And, so, with Aegis Ashore and THAAD and Patriot and other 
international systems, we are able to achieve that multilayered 
effect with the dedicated and persistent presence of the Aegis 
Ashore system.
    Chairman Inouye. We've been told that these systems will be 
in Poland and Romania. When will this happen?
    General O'Reilly. Sir, we have selected the sites with 
their countries and the European Command, both locations, in 
Romania and in Poland. We have signed agreements with their 
countries for that.
    Romania will be fully operational in 2015, and Poland will 
be fully operational in 2018.
    Chairman Inouye. Thank you very much. Senator Cochran.
    Senator Cochran. General O'Reilly, the request before us 
proposes a reduction in the number of Aegis ships that are 
planned to be equipped with ballistic missile capability. The 
ships are going to be reduced under this budget request from 43 
to 36.
    How do these changes affect our missile defense mission, 
and are we putting at risk any important U.S. military assets 
by adopting this plan?
    General O'Reilly. Sir, that decision is made ultimately by 
the Chief of Naval Operations and the Joint Chiefs. As I said 
before, I provide technical support and things we can do to 
increase the capability of missile defense capable ships out 
there.
    An example of the type of capability I'm referring to is 
even though it still looks like the same Aegis ship of a year 
ago, several of our ships have now been upgraded with the 
capability to launch three times as many interceptors at once.
    We can use off board sensors. As I said last year, our 
system was designed to intercept missiles of about 1,000 
kilometers, and with the assistance of off board sensors (like 
AN/TPY-2 radar) we intercepted a missile of more than 3,000 
kilometers.
    So there are enhancements which MDA is developing for the 
Navy so that each ship can handle many more missiles at once, 
and also at much greater ranges.
    And that is the extent, that is the technical support I'm 
providing the Navy to make their final judgment on what's the 
right size of the fleet and how it's deployed.
    Senator Cochran. How would you describe the success of our 
testing program up to this point in our effort to deploy a GMD 
system? Could you explain what contingency plans we may be 
developing to provide homeland defense if there are test 
failures?
    General O'Reilly. Sir, the problems we've had in flight 
testing, and we've had two failures, were with the latest 
version of the front-end of the missile, the EKV.
    The older EKV is deployed today. It's been successful in 
five tests (three intercept tests and two other flight tests). 
We have never seen any indication of a problem on the ground 
with the older EKV. And we have a lot of confidence in that 
system today to protect the United States as they're fielded at 
Vandenberg Air Force Base and in Fort Greely, Alaska.
    However, we had obsolescence problems with continuing the 
older EKV design. We upgraded the design 4 years ago, and we've 
had two subsequent test failures. We have worked closely, and I 
firmly believe, with the best experts in the country, both 
government and industry, identifying where the problems were.
    We've addressed the problems. The first one was a quality 
control issue in the production plant. It has been validated 
that we have addressed that issue with the second test.
    And then the second problem, we literally found in space. 
We couldn't have identified it on the ground, and working with 
the best experts, including National Aeronautics and Space 
Administration and others, we believe we've addressed and 
resolved that issue. And we're out to prove it this year in our 
next flight test.
    Senator Cochran. You mentioned that you're going to 
increase the number of operational interceptors and accelerate 
the delivery of interceptor capabilities.
    Could you describe for us how this is going to be done, or 
what the timetable will be for accelerating the delivery of new 
sensors?
    General O'Reilly. Sir, from a point of view for the GMD 
system, we currently have production on hold until we prove 
we've resolved the production issues.
    But what I've done is use the work force and the supply 
chain to prepare for that production go ahead. So once we have 
a successful test, we can immediately go into refurbishing the 
missiles at Fort Greely and at Vandenberg, the ones that need 
it. Not all of them do.
    We have also enhanced the manufacturing capability at the 
site, the ability to upgrade missiles, so we can accelerate 
their upgrade without shipping them away from the missile 
fields.
    From the point of view of the delivery of our sensor 
systems, we have several of them that are ready today for 
operational deployment, and combatant commanders, we're in 
coordination with them. And we stand ready to support them and 
those in the Army and the Air Force who are associated with 
those deployments and the decisions made by the Joint Chiefs.
    Senator Cochran. Thank you.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    General, I have a number of questions. We appreciate your 
service to the country and what you are doing as Director of 
the MDA.
    General O'Reilly, the State Department official, Ellen 
Tauscher, recently told a Russian newspaper that the 
administration was ``prepared to provide the Russian Government 
with written political guarantees regarding the U.S. and NATO 
Missile Defense Systems in Europe.''
    Have you been consulted regarding the form and substance of 
these guarantees, and, if so, what can you tell us about them?
    If not, do you think it would be advisable for the 
administration to consult with you and the Congress about any 
potential restrictions on the systems you're responsible for 
developing?
    Are you aware of this statement?
    General O'Reilly. Sir, we have been providing technical 
consultation to Secretary Tauscher and to the State Department. 
I am unaware of specific proposals.
    I will tell you that the nature of our work has typically 
been to address the Russian Government claims that we are 
building capability to upset the strategic balance.
    We've been able to analyze that and provide them data that 
show we are not, and the errors in their estimates, such as 
interceptor missiles flying faster than anyone's ever built, 
and so forth.
    So I am unaware, first of all, of what those specific 
proposals are, but also, I have never been given any 
instructions to consider limiting the development of our 
system.
    Senator Shelby. In other words, written guarantees that 
would limit our system?
    General O'Reilly. No, Sir. I'm not aware of any nor have I 
ever been given guidance to consider any ways of limiting our 
system.
    Senator Shelby. Do they have, to your knowledge, any--any 
is a big word I guess here--any technical capabilities that if 
shared through a cooperative arrangement could help you defend 
our homeland or our allies, or is that off the table?
    General O'Reilly. Sir, there are capabilities that we could 
benefit from. Primarily their sensors, their large sensors, 
that they have for their homeland defense or their protection 
in Russia.
    The location of Russia itself, looking through from Europe, 
all the way across through Asia, including Northeast Asia, 
would give us the opportunity to view threats very early in 
their flight.
    And, their ability to observe flight testing done by other 
countries would in fact provide us beneficial information.
    Senator Shelby. But you don't know of any information or 
promises that have been made to Russia that would compromise 
our ability to defend our interests in any way, do you?
    General O'Reilly. No, none whatsoever.
    Senator Shelby. Okay.
    In the GMD area, I know you face some challenges there. 
Does the MDA fiscal year 2013 budget request provide adequate 
funding to restore your confidence in all of the elements of 
the GMD system?
    In other words, under this budget, will the GMD industrial 
base remain robust enough to respond to unanticipated 
developments in the ICBM programs of our adversaries or 
potential adversaries?
    General O'Reilly. Sir, in our budget, we've requested the 
procurement of five additional GBIs, and one of the reasons is 
to ensure that our industrial base stays viable, and to leave 
open those options in the future if necessary.
    Also, our newest missile field has eight additional spare 
silos in it, so we are postured in a way, if we're supported in 
our budget request, to maintain our capability, our industrial 
base, and continue testing in order to validate our missile 
defense capability with GBIs.
    Senator Shelby. In the area of what we call the kill 
vehicle development, you referenced in your testimony some of 
the problems that we've experienced with this kill vehicle, EKV 
on the GMD system.
    I understand that you're working out some of those 
challenges, the problems most recently identified, and I hope 
that will be successful.
    But I'm sure this won't be the last problem, because this 
is something that's being developed. It's my understanding that 
EKV was never meant to be the permanent kill vehicle for the 
GMD, and that the current system is heavier, less capable, and 
less reliable than I think it can or should be.
    But with the cancellation in 2009 of the Multiple Kill 
Vehicle Program, we're locked into the current system for the 
foreseeable future; do you agree with that, or disagree?
    General O'Reilly. Sir, I do believe we can continue to 
improve the GMD EKV and make it a very viable, reliable system 
that we can rely on for decades.
    On the other hand, I also believe, as technologies have 
moved on, we haven't taken advantage of those technologies. I 
can----
    Senator Shelby. Could you talk more about the SM-3 IIB 
Program?
    General O'Reilly. Yes, Sir. The SM-3 IIB Program gives us 
the opportunity to continue supporting our aerospace industry 
to apply our latest technologies which, Sir, equates to smaller 
KVs and more capable KVs.
    Senator Shelby. It could possibly give you more than a 
single interceptor there, could it not?
    General O'Reilly. Sir, depending on the size of the 
booster, yes, it could, if you had a large booster and these 
small interceptors.
    Senator Shelby. In the area of THAAD--I know I'm touching 
on a number of subjects, but they're all in your domain----
    General O'Reilly. Yes, Sir.
    Senator Shelby. The administration's fiscal year 2013 
request included funding for production of 36 THAAD missiles 
annually. That rate is considerably below what the MDA had 
proposed in fiscal year 2012.
    Does that production rate, General, allow MDA to outfit 
THAAD batteries as they become available, or, on the other 
hand, will there be a lag time between when batteries are 
completed, and when the missiles to outfit them come off the 
assembly line?
    Will there be a gap there, or you're working to make sure 
there's not?
    General O'Reilly. Sir, at this time, we have realigned when 
the batteries will be available as well as the production of 
missiles for those batteries. And, no, there will not be a gap 
at this point in time.
    We have also increased the number of missiles in each THAAD 
battery. So, even with those higher numbers of missiles in each 
unit, we'll be able to make our delivery needs, and our foreign 
military sale also increases production capacity of THAAD.
    Senator Shelby. Can I get into the ship modifications of 
the Navy a little bit.
    Now, you believe that fielding the SM-3 IIB, it's a 
mouthful, SM-3 IIB, will require modifying the vertical launch 
system onboard the Aegis cruisers and destroyers?
    And, if so, is there currently a funded plan, since we're 
here in the Appropriations Defense Subcommittee, is there a 
funding plan in place to make the necessary conversions, you 
know, if we have to do that?
    And will those preparations be complete for the arrival of 
the production of missiles? Same thing. Will there be a gap 
there? Will you have the money, and what do you need?
    General O'Reilly. Sir, for the SM-3 IIB is in concept 
development. The amount of progress that's been made by 
industry in the last year on that program indicates that they 
have a lot of engineering capability that they have now bring 
to bear.
    And we've seen many different proposals. There are 
proposals that would require a modification, but there are 
also, as with every contractor, proposals that do not require a 
modification to a ship's vertical launch system.
    So, they're at the point where they have not finalized what 
they're going to propose to us, but we've seen both options.
    Senator Shelby. How big an improvement is this new system, 
the SM-3 IIB?
    General O'Reilly. Sir, it would fly at a tremendously 
higher velocity than the current SM-3.
    Senator Shelby. That's a quantum breakthrough, isn't it?
    General O'Reilly. Yes, Sir, and the fact that it's mobile, 
that, as a long-range threat missile is launched, it's like 
playing hockey. You can get into the position where you can 
intercept with a smaller missile and still have the same 
effect.
    Senator Shelby. But, basically, does it make us--you're in 
charge of it--make us more agile?
    General O'Reilly. Tremendously more agile, and we can surge 
a lot of missiles into a region like we do our other military 
capabilities if the need arise.
    Senator Shelby. What's your thought regarding Korea? You 
know, they've been in the news lately, about they had a failed 
launch. Of course, at some time, they might work those problems 
out.
    They'll have to do it themselves. We'll all watch that with 
interest. I know the Chairman, coming from the State of Hawaii, 
had to be more than watchful of that, but we all are interested 
in that, as they build a more robust missile with longer legs, 
and a danger to Hawaii, Alaska, and perhaps others.
    General O'Reilly. Yes, Sir. At the point I can say here in 
this hearing----
    Senator Shelby. Yes.
    General O'Reilly [continuing]. They obviously failed early 
to demonstrate their capability in their flight, once again. 
Our experience has been you need a lot of ground testing and 
flight testing in order to validate and have reliance in a 
capability.
    They do not. And it's been evident every time they test. 
And their progress has not been made apparent in this latest 
flight test.
    Senator Shelby. Thank you. Thank you, General, and thank 
you for your service to the country.
    Chairman Inouye. Thank you very much.
    I have one more question. And, if I may, I would like to 
submit the rest for your careful consideration.
    Recently, there were rocket attacks from Gaza on Israel. 
And the Iron Dome performed remarkably well. In fact, we've 
been advised that the success rate exceeded 90 percent.
    My question, number one is, what is the current status of 
Iron Dome? And, second, in light of this recent attack, are we 
prepared to provide more Iron Domes?
    General O'Reilly. Sir, I do not develop them. I am not part 
of the development of the Iron Dome system like I am 
responsible for the development, co-development, with other 
Israeli programs.
    But I do oversee our funding of the manufacturing of the 
Iron Dome system for the Israelis. Our assessment is, it's a 
very effective system, and they are also adding improvements to 
it in the near term to make it even more effective.
    I know the Department is considering right now several 
options on how to enhance our support to the availability of 
Iron Dome to the Israeli Government.
    Chairman Inouye. Senator Cochran.
    Senator Cochran. Mr. Chairman, I have another question.
    I would like to know, General O'Reilly, what your 
assessment is of the testing of the Arrow 3 Interceptor? I know 
there are plans to have additional tests. I wonder if you could 
give the subcommittee some idea of what the status of this 
effort is and what capability this system will provide?
    General O'Reilly. The Arrow 3 Program will provide a 
significant increase over the current Arrow Program. In other 
words, it will be able to fly farther, faster, intercept 
earlier in the flight of a threat missile, and effectively add 
another layer of defense to Israel.
    We work very closely with the Israelis to set up this 
program so that we have very identifiable milestones to show 
their progress.
    While we felt their original schedule was optimistic, and 
although it is turning out to be optimistic--they're not on the 
original track that they set up--they have made significant 
progress. They are achieving those milestones.

                     ADDITIONAL COMMITTEE QUESTIONS

    This year, we look forward to their first flight of their 
missile system. And so, we're very pleased with the progress 
they're making, and it's more along the lines of what we expect 
with our own programs.
    Senator Cochran. Good. Thank you very much, Mr. Chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]
            Questions Submitted by Chairman Daniel K. Inouye
                     pacific missile range facility
    Question. General O'Reilly, can you provide the subcommittee a 
schedule of Terminal High-Altitude Area Defense (THAAD) tests that will 
be conducted at the Pacific Missile Range Facility (PMRF) over the next 
5 years?
    Answer. Now that THAAD is in production, the operation and 
development of test communities agree (as documented in Integrated 
Master Test Plan [IMTP] 12.1) that flight testing is limited to 
development capability increments (which there are two in the next 5 
years) and operational testing integrated with Aegis and PATRIOT. Thus, 
the developmental flight tests over the next 5 years are FTT-11a in the 
fourth quarter of fiscal year 2014 (4QFY14) and FTT-15 in the second 
quarter of fiscal year 2017 (2QFY17) at PMRF.
    THAAD will also be extensively tested using models and simulations 
(hardware in the loop and distributed testing using actual THAAD 
batteries), which have been accredited based on the THAAD's highly 
successful flight test program.
    Question. What is the current schedule for Aegis Ashore testing at 
PMRF, and how has it changed from last year?
    Answer. The previous (IMTP 11.1) and current (IMTP 12.1) Aegis 
Ashore Flight Test Schedules are contained in the below table. The only 
change from last year is the acceleration of AAFTM-02 by two quarters 
(from the second quarter of fiscal year 2015 (2QFY15) to 4QFY14).

                    AEGIS ASHORE FLIGHT TEST SCHEDULE
------------------------------------------------------------------------
                                         Date  (IMTP       Date  (IMTP
Flight Test        Description         11.1)  Approved   12.1)  Approved
  (FY12-17)                                5/31/11           3/1/12
------------------------------------------------------------------------
AACTV-01 E1 Aegis Ashore will                2QFY14            2QFY14
             engage a simulated
             Dynamic Test Target
             and launch an SM-3
             Controlled Test
             Vehicle (CTV) to
             check out the
             installation of the
             land-based Aegis
             Weapon System and VLS
             Launcher.
------------------------------------------------------------------------
   AAFTM-01 Aegis BMD Ashore will            4QFY14            4QFY14
             detect, track and
             engage an air-
             launched MRBM target
             with an SM-3 Blk IB
             missile and track
             data provided by an
             up-range Aegis BMD
             ship.
------------------------------------------------------------------------
   AAFTM-02 Aegis BMD Ashore will            2QFY15            4QFY14
             detect, track and
             engage an air-
             launched MRBM target
             with an SM-3 Blk IB
             missile and track
             data provided by an
             up-range Aegis BMD
             ship.
------------------------------------------------------------------------
     FTO-02 This operational                 4QFY15            4QFY15
             flight test event
             will be executed
             across two test
             ranges in two
             multiple simultaneous
             engagements against
             an SRBM and three
             MRBMs. Aegis Ashore
             will detect, track
             and engage an MRBM
             target with a SM-3
             Blk IB missile. Aegis
             BMD 5.0 ship will
             detect, track and
             engage an MRBM with a
             SM-3 Blk IB missile.
             THAAD will engage an
             MRBM. Patriot will
             engage the SRBM.
------------------------------------------------------------------------
            Integrated Master Test Plan (IMTP)
            Medium Range Ballistic Missile (MRBM)
            Short Range Ballistic Missile (SRBM)
            Terminal High Altitude Area Defense (THAAD)

    Question. I understand that within a few seconds of an SM-3 missile 
launch from the test Aegis Ashore facility on PMRF, it must be 
determined that the missile is moving in the intended direction, and, 
if not, the missile must be quickly destroyed. For safety 
considerations, PMRF is likely to require an exceptionally fast 
capability that can accurately determine missile condition and location 
during the first few seconds of launch, something that radar alone may 
not be able to address. This is a critical requirement for PMRF and for 
safety considerations in any European country where the Aegis Ashore is 
deployed, since it will be in proximity to populated areas. Please 
provide an update on how the Navy and MDA will address this safety 
concern.
    Answer. The Pacific Fleet Command has agreed to allow test firings 
from the Aegis Ashore Missile Defense Test Complex at PMRF only upon 
successful development, integration, and certification of the range 
flight safety upgrades. These upgrades provide PMRF with the 
independent capability to take a flight termination action as early as 
2.5 seconds after launch (confining hazards well within PMRF's launch 
hazard area).
    The flight safety upgrades include:
    --Modification to the SM-3 Block IB missile's flight termination 
            system that allows a termination command to be received 
            within one second after launch;
    --Procurement, integration and certification of two Early Launch 
            Tracking Radars (ELTRs) that will provide missile position 
            and velocity no later than one second after launch; and
    --Development, integration, and certification of a Safety 
            Augmentation System that will use missile position data 
            from the ELTRs and predetermined safety boundary conditions 
            based on test mission scenarios to make a decision on 
            missile heading and send a flight termination command if 
            the missile is headed outside the predetermined safety 
            boundaries.
    Status.--Acquisition contracts are in place, development plans are 
defined, designs have been approved, and certification test plans are 
in development for all flight safety upgrades. The ELTRs will be 
developed and delivered to White Sands Missile Range for initial 
testing and integration with targets of opportunity commencing in the 
second quarter of fiscal year 2013 (2QFY13). The radars will then be 
transported to PMRF for final range certification during 4QFY13, in 
time to support the first Aegis Ashore flight test (AA-CTV-01) in 
2QFY14.
    Fiscal year 2012 funds initiated the development of these safety 
upgrades. Fiscal year 2013 funding, necessary to complete these safety 
upgrades, was requested in the President's fiscal year 2013 budget.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. All right. Thank you very much.
    On behalf of the subcommittee, I thank you for your 
testimony and for your exemplary service. We will be looking at 
your request very carefully, and we look forward to working 
with you, Sir.
    The Defense Subcommittee will reconvene at 10:30 a.m. on 
April 25 for a classified hearing on the national and military 
intelligence programs. We stand in recess.
    [Whereupon, at 11:08 a.m., Wednesday, April 18, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                        WEDNESDAY, MAY 23, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Harkin, Durbin, Feinstein, 
Mikulski, Kohl, Murray, Johnson, Reed, Cochran, McConnell, 
Shelby, Hutchison, Alexander, Collins, Murkowski, Graham, and 
Coats.

                         DEPARTMENT OF DEFENSE

                             National Guard

STATEMENT OF GENERAL CRAIG R. McKINLEY, CHIEF, NATIONAL 
            GUARD BUREAU

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning, the subcommittee meets to 
receive testimony on fiscal year 2013 budget of the National 
Guard and the Reserve components.
    From the National Guard, I'd like to welcome Chief of the 
National Guard Bureau, General Craig R. McKinley; the Director 
of the Army National Guard, General William Ingram; and the 
Director of the Air National Guard, Lieutenant General Harry M. 
Wyatt, III.
    Our witnesses from the Reserve include the Chief of the 
Army Reserve, General Stultz; the Chief of the Navy Reserve, 
Admiral Dirk Debbink; the Commander of the Marine Corps 
Reserve, General Steven Hummer; and the Chief of the Air Force 
Reserve, General Charles Stenner.
    And I would like to thank all of you for joining us today 
as the subcommittee reviews the fiscal year 2013 budget for the 
Reserve components.
    This year's budget proposes significant force structure 
changes for the Air National Guard, reducing end-strength by 
5,100 billets and aircraft inventory of 134 aircraft.
    This proposal has come under intense scrutiny from the 
Members of Congress, the Council of Governors, and many 
adjutant generals.
    And I would like to hear from you on how involved you were 
in the deliberative process that preceded the force structure 
announcement and what input you were asked to give.
    In addition, over the last several years, the Guard and 
Reserve have made important changes as they transition from a 
Strategic to an Operational Reserve. This shift requires you to 
have deployment ready units available at all times.
    As we draw down our military forces in Afghanistan, the 
Department will need to figure out how to best utilize this new 
Operational Reserve. Many challenges remain for the Guard and 
Reserve. Reserves and their families lack the support network 
provided for Active-Duty installations, so it is important that 
our Reserve families get the support they need during the 
deployments, and as reservists transition back to civilian 
life.
    The Guard and Reserves still face significant equipment 
shortfalls. The Congress has provided additional equipment 
funding for the Guard and Reserve in each of the last 32 years 
because year after year, the President's budget fails to 
sufficiently fund Reserve components.
    I'm certain that the witnesses here this morning agree that 
without this additional funding, our Reserve components would 
be woefully underequipped.
    It is our duty to our men and women of the Guard and 
Reserves who are called on to deploy in harm's way, just like 
their Active-Duty counterparts, to make certain they are 
adequately trained and equipped.
    So, gentlemen, I look forward to hearing your perspective 
on these issues and working with you this year in support of 
our guardsmen and reservists.
    And I would like to thank all of you for this testimony 
this morning. Your full statements will be made part of the 
record.
    We will begin our hearing with the National Guard panel. 
But first, I would like to call upon Mr. Alexander because our 
Vice Chairman has been slightly delayed. He has just called to 
say he'll be coming in shortly.

                  STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. Thank you, Mr. Chairman. And I will 
condense my remarks.
    Welcome, gentlemen. We look forward to your comments.
    Re-equipping the Guard is one of the biggest challenges 
facing the Department of Defense. I think our Chairman has 
outlined that very adequately. And the President's proposed 
budget doesn't adequately support the Guard and Reserve.
    Each of us in our States are very proud of the role that 
our men and women have played. Our Army Guard, 278th Armored 
Calvary Regiment, about which I'll be asking some questions, 
has been deployed twice.
    Many are serving in Afghanistan and Iraq, flying C-5 
missions, running airfield operations, installing fiber-optic 
communications, and getting wounded out of harm's way. So we're 
grateful to them and we're grateful for the efforts that have 
been made to modernize the Guard.
    And we've seen great changes in what men and women who join 
the Guard expect to do over the last 10, 15 years. And we need 
to be responsive to the changed conditions and the changed 
expectations of Guard members.
    So I'll be listening closely to the testimony, and I 
appreciate very much your service and your being here today. 
Thank you, Mr. Chairman.
    Chairman Inouye. May I now call upon the Vice Chairman, 
Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much for 
convening the hearing. I'm pleased to join you and other 
Senators in welcoming our panel of distinguished witnesses this 
morning.
    We thank you for your service to our Nation, helping 
protect the safety and security of our citizens and our 
interests around the world.
    Thank you.
    Chairman Inouye. May I recognize General McKinley.

             SUMMARY STATEMENT OF GENERAL CRAIG R. MCKINLEY

    General McKinley. Chairman Inouye, Ranking Member Cochran, 
and distinguished members of the subcommittee. Thank you.
    It's an honor and a privilege to be here today with my two 
directors, Bud Wyatt on my right and Bill Ingram on my left, as 
well as the other Reserve Chiefs.
    We have a very close affiliation with each other, and it's 
a pleasure and an honor again to testify before you.
    I wanted to take this opportunity, as I always do, to thank 
you all for your dedication to the soldiers and airmen that we 
represent.
    Bud and Bill will make some brief statements after I do. 
Both of them, distinguished former Adjutants General, Bud Wyatt 
from Oklahoma and Bill Ingram from North Carolina.
    So, they have unique perspectives on the issues and 
concerns of our soldiers in the State Active-Duty status and in 
title 32 status.
    And we find ourselves, obviously, in the midst of 
constraint budgets and tough decisions. No doubt we must all 
curb spending but should not at the expense of our security. 
That is why I must tell you that sequestration would hollow the 
force substantially and devastate our national security.
    It would result in further, severe reductions to the 
National Guard, Reserve, and the Active component. The National 
Guard is already facing difficult budget cuts, as you've 
alluded to, cuts that impact equipment and personnel.
    Further reductions would significantly limit the Guard's 
ability to function as an operational force, decrease the Total 
Forces' overall capability, and reduce the departments' 
capacity to protect the homeland and respond to emergencies.
    The National Guard is a more ready, more capable, and more 
rapidly deployable force than ever in our Nation's history, as 
all of you know so well from your visits back home.
    We have, and will continue to answer the call for 
mobilizations and volunteer support of our combatant 
commanders. Today, more than 50 percent of our guardsmen have 
combat experience.
    As a part-time force, the National Guard is a proven, 
affordable defense option for America. During a time of 
constrained budgets, we should continue to be used as an 
operational force to ensure the Nation is getting the most 
defense capability at the lowest cost.
    As an operational force, the National Guard is ideally 
suited to meet the new strategic guidance, to meet steady State 
demands, and act as a strategic hedge for unforeseen world 
events. At any time, the National Guard can and will augment 
the Active Duty, both the Army and the Air Force, to surge and 
regenerate forces.
    The Nation also counts on the National Guard to protect the 
homeland, your home States, commonwealths, territories, and the 
District of Columbia. The National Guard is the best and 
primary military force to respond to complex catastrophes and 
contributes to our security by protecting our air space and 
borders.
    While representing only a small portion of the Guard's 
response capability, last year Federal and State authorities 
called on one of our 57 Civil Support Teams to use their unique 
weapons of mass destruction assessment skills almost twice a 
day, every day in our hometowns.
    The National Guard is crucial to our Governors. Over the 
past 3 years, guardsmen and women responded to an unprecedented 
string of disasters. We are poised and ready to provide that 
support again.
    According to the Federal Emergency Management Agency (FEMA) 
Administrator Craig Fugate, speed is critical to domestic 
response. He has stated recently at the National Governors' 
Association Conference that aviation assets need to be organic 
to the National Guard. Other options, he added, may not provide 
the same speed and capacity.
    We're obviously located in more than 3,000 communities 
across the country, and the National Guard is positioned to 
respond quickly and efficiently and work very close with our 
civilian first responders to any domestic emergency.
    Our dual role requires that we continue to improve the 
quality and quantity of our equipment. The National Guard 
Reserve Equipment Account (NGREA) has been, and will continue 
to be, crucial to that endeavor.
    The NGREA is vital to the Guard as I'm sure it is to the 
other Reserve Chiefs, as it provides the ability to meet 
requirements including homeland defense needs and modernization 
of legacy equipment.
    After 11 years of war, we continue to work closely with the 
United States Army, and the United States Air Force, to re-set 
our force to ensure our equipment levels meet the defense 
strategy.
    As citizen soldiers and airmen, guardsmen are able to blend 
their unique combination of military training, civilian 
acquired skills, to provide innovative approaches to support 
our Nation's security strategy.
    The State partnership program is a cornerstone of the new 
strategic guidance and demonstrates the Guard's versatility. 
Our partnership with more than 60 foreign countries has 
strengthened their military capacity and competence as well as 
our alliance, most recently demonstrated in Chicago with our 
National Atlantic Treaty Organization (NATO) Summit.
    National Guard partner nations have reduced the demand on 
U.S. forces, 22 partner nations have provided 11,000 troops to 
Afghanistan, and 40 partner nations have provided more than 
31,000 personnel in support of United Nations peacekeeping 
operations.
    This year we will celebrate 20 years of the State 
partnership program, and we look forward to continuing to work 
with the Adjutants General, the Governors of our States, 
territories, commonwealths, and the District of Columbia to 
continue this innovative, low-cost, small footprint approach to 
security cooperation for the future.
    Each year, we continue to adapt our skills to better serve 
the Nation's strategy, and that is why this year we are 
instituting a threat-based resourcing model for our counterdrug 
activities. This will direct funding to States facing the most 
pressing narcotics threats to our communities. The breadth of 
our skills allows the Guard to take on new and emerging 
missions.
    I also would like to address our most important asset, as 
you have so aptly stated, our soldiers and airmen are the 
reason the National Guard has been so successful over the last 
decade. Indeed, for the last 375 years.
    Today, your National Guard is the most capable and 
competent in history, and that is because we are recruiting the 
highest quality soldiers and airmen.
    Our noteworthy enlistment and retention numbers since 
September 11, 2001, are proof that they join because they want 
to be used and expect to be used. This dedication would not be 
possible without the support of our families, communities, and 
the employers.

                           PREPARED STATEMENT

    That's why I'm dedicated to working closely with the Army 
and the Air Force to provide our servicemembers, their 
families, and employers with the best and most effective 
support available.
    Thanks for the opportunity, Mr. Chairman, to appear before 
you today. I'd like to ask my wingman, Bud Wyatt, to speak, 
followed by Bill Ingram.
    [The statement follows:]
            Prepared Statement of General Craig R. McKinley
                            opening remarks
    Chairman Inouye, Ranking Member Cochran, and distinguished members 
of the subcommittee: I am honored to appear before you today, 
representing more than 460,000 citizen-soldiers and airmen in the Army 
and Air National Guard, an organization that is historically part of 
the foundation of our great democracy. America's National Guard remains 
ready, reliable, and accessible. As members of an operational force 
that's a critical piece of our Nation's military response both overseas 
and here at home, the soldiers and airmen of the National Guard 
contribute daily to our Nation's overseas and domestic security 
objectives.
            the national guard: security america can afford
    For 375 years, the National Guard has played a significant role in 
maintaining peace and security for our States, territories, the 
District of Columbia, and the Nation. I am very proud of our rich 
heritage and our present-day resolve as we continue our role preserving 
the ideals upon which our country was established.
    Today, we are faced with a historic opportunity as we stand at the 
confluence of a new fiscal environment, the transition from combat to 
stability operations and a new military strategy. This convergence is 
leading to new defense-wide budgetary realities and challenging our 
decisionmakers as they formulate difficult spending choices that are 
sustainable and keep America safe and secure.
    Today's global security environment is characterized as having 
asymmetric threats which pose danger to the United States. In light of 
this, we must remain vigilant and capable. The United States faces 
greater security challenges today than at the end of the cold war, the 
last time the military was significantly downsized. Therefore, we must 
look beyond simple cost accounting methods calling for across the board 
spending reductions. This method was used in the past, and it did not 
serve us well. The result was widely characterized as a hollow force. 
Our new military strategy ensures we will not risk a hollow National 
Guard in the future.
        an operational force for domestic and overseas missions
    The National Guard is well-suited to provide support to our new 
military strategy. The past 10 years brought vast improvements in the 
overall training, equipping, and readiness of our force. This reality, 
combined with significant combat experience, has created a ``dividend'' 
in the National Guard. We have the most proficient, capable, 
accessible, and battle-tested National Guard in the history of the 
United States. Failure to continue the reliance on, and modernization 
of, the National Guard would squander a decade's worth of progress and 
result in an enormous loss of experience and capability.
    As a ready and rapidly deployable force, the National Guard has 
proven its value over the past decade. Both the Army and Air National 
Guard have contributed thousands of soldiers and airmen to Iraq, 
Afghanistan, the Balkans, Guantanamo Bay, Djibouti, the Sinai, and 
other locations across the globe. In 2011, more than 29,000 National 
Guardsmen were mobilized for operations around the world. An example of 
our ability to rapidly project United States power occurred on March 
17, 2011. As the United Nations Security Council debated the Libyan no-
fly zone resolution, Air National Guard aircraft and air crews were 
already en route to forward operating bases to await orders. The 
National Guard offers America not only affordable defense but also a 
``reversibility'' option--a strategic hedge for unforeseen world events 
which could dictate a change of course for our Nation's military 
strategy. At any time, the National Guard can augment the Active Duty 
to surge and regenerate forces.
    The National Guard is also a crucial component of the Department of 
Defense (DOD) primary mission to provide support to civil authorities 
and defend the homeland. Each year, the National Guard responds to a 
myriad of domestic emergencies. Last year alone, the Army National 
Guard performed more than 900,000 duty days (459,724 in State status 
and 447,461 in title 32 status) in response to wildfires, tornadoes, 
floods, Hurricane Irene, and other alerts and emergencies. Air National 
Guardsmen also fully participate in these missions including protecting 
American skies through the Aerospace Control Alert mission, critical 
infrastructure protection, and assisting their local communities with 
disaster recovery.
    The National Guard also brings innovative response capabilities to 
respond to major disasters including weapons of mass destruction 
incidents. The National Guard is home to 70 percent of the department's 
capability to respond to weapons of mass destruction. By the end of the 
2012, the National Guard will fully establish 10 Homeland Response 
Forces. These forces are part of an escalating capability that 
complements the National Guard's 17 Chemical, Biological, Radiological, 
Nuclear Enhanced Response Force Packages and 57 Weapons of Mass 
Destruction Civil Support Teams. Most importantly, time and distance 
equal lives saved. The National Guard is fully integrated into more 
than 3,000 communities across the country and the innovative response 
task forces are within 250 miles of 80 percent of the U.S. population.
    The National Guard Counter Drug Program (CDP) is leading the effort 
to engage in funding based on measurable metrics and threats. The 
implementation of the Threat Based Resource Model budget will 
strengthen the National Guard's national security capability by 
allocating resources to all States and territories based on the 
severity of the narcotics threat faced by each State. In an era of 
ever-changing global challenges, the CDP provides critical support to 
law enforcement agencies (LEAs) and combatant commanders with full-
spectrum capabilities that helps our Nation detect, interdict, and 
disrupt transnational criminal organizations. CDP personnel helped LEAs 
seize almost $18.5 billion in drugs, property, weapons, and cash in 
fiscal year 2011. The CDP also operates five Counterdrug Training 
Centers located in Florida, Iowa, Mississippi, Pennsylvania, and 
Washington; these centers trained 5,836 military personnel, 56,093 law 
enforcement officers, and 9,792 interagency partners in 2011.
           the national guard's value and unique capabilities
    The National Guard provides a cost-effective, proven solution to 
our country's budgetary crisis while helping to ensure our security. 
The National Guard allows the Nation to maintain a robust military 
capability at the least possible cost to the taxpayer and is a viable 
resource for reducing the Department's cost of doing business. In the 
Army National Guard, more than 50 percent of our soldiers are now 
seasoned combat veterans. The Air National Guard is similarly filled 
with combat veterans. To ensure reversibility, the experience these 
soldiers and airmen have gained over the past decade of conflict cannot 
be lost.
    As the Nation looks for innovative, low-cost, and small-footprint 
approaches to achieving our security objectives, the National Guard is 
providing a blueprint of success. Celebrating nearly 20 years of 
enduring relationships with 63 countries, the National Guard's State 
Partnership Program (SPP) provides unique military-to-military 
activities with partner countries using National Guard expertise. 
Participation in SPP events is designed to enhance partner 
capabilities, advance defense reform efforts, and achieve greater 
military interoperability to support U.S. security cooperation efforts.
    Among other benefits, SPP alignments have resulted in joint 
National Guard and partner country deployments in support of 
multinational operations in Afghanistan. These critical partner-country 
deployments reduce pressure on U.S. forces worldwide and hedge against 
the need for more direct and costly U.S. military involvement in future 
contingencies.
    DOD is also currently refining its framework to thwart cyber 
attacks in the future while defending our critical military networks 
today. The National Guard has access to a wealth of information 
technology talent within its ranks, including guardsmen working in 
numerous information technology companies. These soldiers and airmen 
have a unique blend of civilian and military skills across the 
information technology spectrum, making the National Guard a ready 
defense asset in the national cybersecurity mission.
                 support soldiers, airmen, and families
    Our soldiers and airmen are our greatest asset, and that is why we 
are committed to effectively responding to the needs of National 
Guardsmen and their families. The Army Guard currently has more than 
3,100 wounded warriors in Warrior Transition Units (WTUs) that are 
focused on healing each injured soldier as he or she either transitions 
back to military duty or leaves the military to assume a productive, 
responsible role in society. WTUs provide nonclinical support, complex 
case management, and transition assistance for soldiers of all 
components at medical treatment facilities on Active Army 
installations. The Air Guard's Wounded Warrior program provided 
awareness, identification, and information/referral to more than 160 
wounded airmen. The program's mission is to provide the best possible 
nonmedical care and professional support from the point of injury to 
life after separation or retirement.
    The National Guard has made suicide prevention a top priority by 
promoting resilience and risk reduction programs that will enhance 
coping skills in our soldiers, airmen, families, and civilians through 
leadership awareness, training, and intervention programs. As the 
foundation of each soldier's support network, Army Guard families and 
employers are being trained to assist in identifying high-risk 
individuals. States have capitalized on community-based resources and 
solutions to provide services outside of military installations.
    One of the many challenges that we face today is unemployment for 
our returning guardsmen. Based on the DOD Civilian Employment 
Information database, we estimate that 20 percent of returning National 
Guard soldiers and airmen are unemployed. The rate of unemployed gulf 
war era II veterans remains much higher than the national nonveteran 
rate. Gulf war era II veterans who have left military service in the 
past have an unemployment rate in January 2012 of 9.1 percent.
    The National Guard Bureau has been and remains deeply concerned 
with the employment status of our soldiers and airmen. They are our 
most important asset and their well-being and retention are essential 
for the National Guard as an operational force. As early as 2004, the 
National Guard Bureau funded a unique resource, titled ``Program 
Support Specialist,'' at each of the 54 State Joint Force Headquarters. 
This individual serves as the subject-matter expert for the Adjutant 
General regarding local issues with employers of Air and Army National 
Guard members.
    While initially focused on specific employer support issues and 
complaint resolution, the duties of the Program Support Specialist 
expanded to include employment facilitation. In addition to 
coordinating employment opportunity events and linking unemployed 
guardsmen with available resources, Program Support Specialists are 
serving as case managers for unemployed guardsmen by connecting them 
with local resources, the Department of Veterans Affairs, and the 
Department of Labor. Last year, Program Support Specialists 
participated in more than 1,000 ``Yellow Ribbon Reintegration'' events 
nationwide--supporting units throughout the country returning from 
deployment by identifying employment opportunities and providing other 
requested assistance. We continue to develop metrics to measure the 
effectiveness of our program.
    The Program Support Specialists also work closely with our 
Transition Assistance Advisors in the State Joint Force Headquarters to 
ensure our Guard members are registered with Veterans' Affairs (VA) and 
can access their VA benefits, to include vocational and job training. 
Both of these programs are essential when developing and establishing 
community-based program networks in support of veterans, 
servicemembers, and families.
    The Army National Guard Directorate offers several national 
programs to assist the States with their local employment programs. The 
``Job Connection Education Program'' (JCEP) is a Web-based program that 
interfaces with Facebook and provides the ability for guardsmen and 
their families to research, obtain, and retain civilian employment. The 
``Guard Apprentice Program Initiative,'' in partnership with the 
Department of Labor and the Department of Veterans' Affairs, continues 
to build relationships with employers and colleges to facilitate 
civilian apprenticeship and employment opportunities for National Guard 
and other Reserve component members. ``Drive the Guard'' is a 
collaborative effort with the Commercial Driver Training Foundation, 
Inc. which links guardsmen with training and certification programs in 
their communities. Once completed, the guardsman has the potential to 
begin a career in the truck driving industry.
                            closing remarks
    Thank you for the opportunity to be here today, I look forward to 
your questions.

    Chairman Inouye. Thank you very much.
    General Wyatt.
STATEMENT OF LIEUTENANT GENERAL HARRY M. WYATT, III, 
            DIRECTOR, AIR NATIONAL GUARD
    General Wyatt. Chairman Inouye and Senator Cochran, thank 
you and the subcommittee very much for your support for the 
extraordinary men and women of the Air National Guard's, some 
106,700 strong.
    I'd like to open with a brief review of the events of 2011 
before looking to the future of the Air National Guard. Your 
Guard airmen continue to make significant contributions to our 
Nation's defense, both here at home and around the globe.
    Last year, Guard airmen filled approximately 54,000 
requests for manpower; 91 percent of these requests were filled 
by volunteers. Air National Guard's responsiveness and 
adaptability was clearly demonstrated a year ago when on March 
17, 2011, as the U.N. Security Council passed Resolution 1973 
authorizing a no-fly zone over Libya, Air National Guard KC-
135s, from the 134th Aerial Refueling Wing, Tennessee, and the 
168th Aerial Refueling Wing, Alaska, were diverted enroute to 
forward operating bases.
    These Guard airmen began flying operational missions in 
support of Operation Odyssey Dawn 48 hours later, clearly 
demonstrating that the Air National Guard is both accessible 
and ready to serve.
    Last year, National Guard airmen spent more than 500,000 
man-days performing domestic, civil support missions, one-third 
of it on State Active Duty.
    This included assisting local authorities with explosive 
ordinance disposal, helping with security at special events, 
such as the Arkansas Governor's inauguration, and the Boston 
Marathon, done at State expense, not Federal expense, and 
helping victims of floods and other natural disasters and 
helping to save lives by assisting in search and rescue 
efforts.
    In addition to supporting civil authorities, Guard airmen 
spent an additional 1 million man-days in homeland defense. 
This included helping to defend U.S. air space and aerospace 
control alert missions, assisting U.S. Customs and Border 
Protection on our Southwest border and supporting America's 
counterdrug program.
    Your National Guard airmen and soldiers have spent 
countless volunteer hours in their local communities, aiding 
their fellow airmen, soldiers, sailors, and marines through 
Yellow Ribbon and Wounded Warrior projects and volunteering for 
public service projects such as Youth Challenge and Habitat for 
Humanity.
    Congressional funding through the National Guard and 
Reserve Equipment Account (NGREA) has been essential to the Air 
National Guard fulfilling both its Federal and State missions.
    Air National Guard F-16 and A-10 Squadrons deployed to 
Afghanistan with Litening Generation 4 Targeting Pods for the 
first time as a direct result of NGREA funding.
    Fiscal year 2011 NGREA funds were also used to procure and 
install equipment for a cyber critical infrastructure range 
allowing Air National Guard cyber units to train and develop 
tactics, techniques, and procedures for cyber warfare without 
disrupting networks used to accomplish day-to-day missions.
    While the fiscal year 2013 budget has challenges for the 
Air National Guard, it also has opportunities, and we adjusted 
our priorities to take full advantage of those opportunities.

                           PREPARED STATEMENT

    The Air National Guard's priorities in preparing this 
budget were, number one, posture the Air National Guard by 
aligning for size and composition to be flexible, agile, and 
ready with special attention to new missions such as the MC-12 
and remotely piloted aircraft.
    Number two, maintaining a combat ready force able to 
quickly surge and integrate seamlessly into joint operations. 
And, number three, repairing units broken by the previous base 
closure and realignment process and recent programming changes.
    In conclusion, Mr. Chairman, thank you. I'm grateful to be 
here, and I look forward to answering any questions that you 
and the subcommittee may have for me.
    Thank you very much, Sir.
    [The statement follows:]
      Prepared Statement of Lieutenant General Harry M. Wyatt, III
    Chairman Inouye, Ranking Member Cochran, and members of the 
subcommittee: I am honored to appear before you today, representing the 
nearly 106,000 men and women of our Nation's Air National Guard.
    Every year at this time, I look back on the accomplishments of our 
Air National Guard and every year I am humbled by professionalism, 
dedication, patriotism, and hard work of the men and women who make up 
the Air National Guard family, including the Guard airmen, their 
families, and their civilian employers. This past year was no 
exception, as our Guard airmen--supported by their families and 
employers--have continued to defend and protect our Nation and its 
citizens both at home and abroad.
        an operational force for domestic and overseas missions
    The men and women of the Air National Guard continue to work as 
both an operational force, augmenting the Active Duty Air Force on 
operational missions, and a Reserve Force, providing combat-ready surge 
capabilities to respond to increased demands. The Air National Guard 
also continues to fulfill its dual-role as both a Reserve component to 
the U.S. Air Force (Federal mission) and Air component to the National 
Guard (State mission).
Federal Mission
    The men and women of the Air National Guard continued to serve 
their Nation in record numbers--primarily as volunteers. Last year the 
Air National Guard filled 54,000 requests for Active service in support 
of the Air National Guard's Federal mission. Of those Guard airmen 
filling the requests, 91 percent volunteered to service on Active Duty. 
This makes a total of 510,408 filled mobilization requests since 9/11.
    Air National Guard responsiveness and adaptability was clearly 
demonstrated a year ago. On March 17, 2011, as the United Nations 
Security Council passed Resolution 1973 authorizing a no-fly-zone over 
Libya, Air National Guard KC-135s from the 134th Aerial Refueling Wing 
(Tennessee) and 168th Aerial Refueling Wing (Alaska) were diverted en 
route to forward operating bases and began flying operational missions 
in support of Operation Odyssey Dawn 48 hours later.
    In addition to those serving in support of overseas contingency 
operations, Guard airmen continue to serve the Nation on nearly every 
continent around the globe including Antarctica.
Homeland Defense and Support to Civil Authorities
    Last year, National Guard airmen spent more than one-half million 
man-days performing domestic civil support missions, one-third of it on 
State Active Duty. This included assisting local authorities with 
explosive ordinance disposal, helping with security at special events 
such as the Arkansas Governor's Inauguration and the Boston Marathon, 
helping victims of floods and other natural disasters, and helping to 
save lives by assisting in search and rescue efforts. Air National 
Guard C-130s equipped with Aerial Modular Fire Fighting Systems dropped 
more than 675,000 gallons of fire suppressant assisting the U.S. 
Forestry Service in fighting wild fires across the country. Whether it 
is something small such as four Guard airmen helping local officials 
responding to a major car accident in remote Wyoming or 30,000 man-days 
assisting flood victims last April, the men and women of the Air 
National Guard prove their value to America every day.
    In addition to supporting civil authorities, Guard airmen spent an 
additional million man-days in Homeland Defense. This includes helping 
to defend U.S. airspace in aerospace control alert, assisting U.S. 
Customs and Border Protection on our Southwest border, and supporting 
America's counterdrug program.
    The Air National Guard's accomplishment of its Homeland Defense and 
Support of Civil Authorities missions continue to be accomplished 
primarily on the ``dual-use'' assumption, i.e., using equipment and 
training for its Federal mission, thus avoiding additional costs for 
the States or Air Force. However, this also means that changes in 
equipment or manpower for the Air National Guard's Federal mission may 
affect the Air Guard's homeland defense and civil support capabilities.
National Guard and Reserve Equipment Account
    The Air Guard has used National Guard and Reserve Equipment Account 
(NGREA) funding to fulfill its Federal and State missions. Air National 
Guard F-16 and A-10 squadrons deployed to Afghanistan with LITERNING 
Gen4 targeting pods for the first time as a direct result of NGREA 
funding. Fiscal year 2011 NGREA funds were also used to procure and 
install equipment for a Cyber Critical Infrastructure Range allowing 
Air National Guard cyber units to train and develop tactics, 
techniques, and procedures for cyber warfare without disrupting 
networks used to accomplish day-to-day missions.
    In response to congressional concerns about management of the 
NGREA, the Air National Guard developed process improvements to enable 
longer-term, higher-confidence planning by Program Management Offices 
(PMOs), thus helping the Air Guard meet the Office of the Secretary of 
Defense (OSD) obligation rate standards for procurement funds. Each 
fall, 3-year investment plans are developed using ranges of potential 
funding levels, based on NGREA appropriations in recent years. 
Prioritizing procurement requirements in funding bands (highest 
likelihood of funding, significant likelihood of funding, and potential 
likelihood of funding) will enable program management offices to 
accomplish advanced planning to incorporate NGREA into planned 
contracts and separate NGREA-funded equipment purchases. Specifically, 
procurements with the longest contractual lead times will be 
prioritized in the band with the highest likelihood of funding. In this 
way, PMOs will plan for NGREA as if it was budgeted, and they can have 
confidence that resources invested in advance planning and preparation 
will not be wasted
                    support for airmen and families
    The men and women of the Air National Guard serve with pride and 
distinction, but 20 years of combat have taken a toll on our airmen and 
their families. In 2011, the Air National Guard had 17 members die by 
suicide. While a lower rate than in 2010, the overall rate has been 
slightly upward since 1992. The Air National Guard launched its 
Psychological Health Program last year by placing licensed mental 
health professionals in each wing, a peer-to-peer ``Wingman Project,'' 
and other suicide awareness and prevention initiatives. The goal of the 
Wingman Project is multifaceted. First, the Air National Guard will 
ensure our airmen and their families are prepared psychologically for 
the traumas and stress of combat deployments. Following their 
deployments, we need to ensure our Guard airmen are welcomed home as 
the heroes they are and received the appropriate recognition for a job 
well done. Finally, we must make sure that the member and their 
families are aware of the potential after affects and the resources 
available to help them cope.
                  the future of the air national guard
    I have seen two major post-war draw-downs in my career. The first 
occurred in the 1970s as the Vietnam War was drawing to a close. The 
second was in the 1990s at the end of the cold war. In 1970, Secretary 
of Defense Melvin B. Laird put his faith in the Reserve components and 
created the Total Force that served the Nation through the end of the 
cold war.
    In 1990, our Air Force faced challenges not unlike those of today. 
And, the threats to national security and interest had not gone away 
with the fall of the Berlin Wall, in fact, the future looked just as 
unknown and ominous as it does today. First, there was a new strategy 
shifting focus from the Soviet Union to major regional conflicts. There 
was growing concern about the security implications of a possible 
breakup of the Soviet Union; economic, political, and geographic 
expansion of China; and new challenges in the Middle East. The United 
States was trying to get the budget deficit under control--at that time 
it was sequestration under the Gramm-Rudman-Hollings Balanced Budget 
and Emergency Deficit Control Act of 1985. Faced with significant 
budget cuts and amorphous but growing threats abroad, Secretary of the 
Air Force Donald Rice decided to follow Secretary Laird's lead from the 
1970s. As Secretary Rice wrote in his 1990 Report to Congress:

    ``The Air Force Total Force policy, formalized in 1973, has evolved 
to the current policy for a mix of Active and Reserve component forces, 
using all available assets, to ensure that maximum military capability 
is achieved at minimum cost. We intend to allow as much force structure 
growth in the Air Reserve Component (ARC) as possible while maintaining 
a realistic balance between the ability of the Guard and Reserve to 
absorb that growth and the ability of the Active Force to meet 
peacetime and contingency tasking.'' \1\
---------------------------------------------------------------------------
    \1\ The United States Air Force Report to the 101st Congress of the 
United States, fiscal year 1991.

    It was the Air Force that Secretary Rice built that maintained 
Northern and Southern Watch after Operation Desert Storm. This Air 
Force, built upon heavy reliance on the Air Force Reserve and Air 
National Guard, also responded to the crisis in Bosnia and Kosovo, 
fought Operation Enduring Freedom and Operation Iraqi Freedom. Air 
Guard KC-135s were the first on the scene for Operation Odyssey Dawn 
protecting Libyan civilians. Secretary Rice's Total Air Force also 
responded to numerous humanitarian crises around the world including 
Pakistan, Japan, Haiti, and here at home.
    The Air National Guard's priorities in preparing the fiscal year 
2013 budget were:
  --Funding readiness accounts to include flying hours and Depot 
        Purchased Equipment Maintenance;
  --Mission conversions included in the fiscal year 2013 President's 
        budget; and
  --Modernization.
                            closing remarks
    I believe that working together we can emerge from these times a 
stronger, more capable Total Air Force. Thank you for the opportunity 
to be here today, I look forward to your questions.

    Chairman Inouye. Thank you very much, General.
    General Ingram.
STATEMENT OF LIEUTENANT GENERAL WILLIAM E. INGRAM, JR., 
            DIRECTOR, ARMY NATIONAL GUARD
    General Ingram. Chairman Inouye, Ranking Member Cochran, 
and members of the subcommittee. It's an honor to be with you 
today representing the 358,000 citizen soldiers of the Army 
National Guard.
    The patriotism and sacrifice of these soldiers, their 
families, and their employers is a source of great pride for 
all Americans. We're now the best-manned, best-led, best-
trained, best-equipped, and most-experienced force in our 375-
year history.
    And it's congressional support for the Army National Guard 
that has contributed to our transformation and enhanced our 
readiness. As a result, the Army National Guard is a ready and 
reliable force, fully accessible for contingencies both at home 
and abroad.
    We provide equipped, trained soldiers, giving the President 
and the Governors maximum flexibility in times of crisis. We're 
an operational force and a full partner with the Active Army.
    Since September 11, 2011, the Army National Guard has 
completed more than 500,000 soldier mobilizations in support of 
domestic operations and overseas missions. We currently have 
29,000 Army National Guard soldiers mobilized.
    Last year, in fiscal year 2011, 45,000 Army Guardsmen were 
deployed in support of ongoing missions around the world. As an 
operational force, the Army National Guard provides a cost-
effective solution to meet the new strategic guidance.
    For 12.3 percent of the Army's base budget, the Army 
National Guard provides 39 percent of the Army's operating 
forces. Our soldiers represent nearly every ZIP Code in the 
Nation. They play a vital role as the Department of Defense 
(DOD) first responder for natural disasters and terrorist 
attacks on our soil.
    Today's Army National Guard soldiers continue the proud 
tradition of service to their States and to our Nation. In 2011 
alone, it was the citizen soldiers who provided 900,000 duty 
days of support to communities across our Nation. That's the 
second largest domestic response since 9/11, since Hurricane 
Katrina.
    We are attracting skilled soldiers and future leaders. With 
the Nation at war as a backdrop, our year-to-date enlistment 
rate for fiscal year 2012 is in excess of 95 percent, but our 
retention rate exceeds 130 percent. So we are meeting our 
authorized end-strength of 358,000.
    The Army National Guard is equipping to meet 21st century 
challenges through your support of the necessary resourcing for 
modernization. Our 28 brigade combat teams that include 1 
Stryker brigade, our 8 combat aviation brigades, and our 2 
special forces groups are well-equipped.
    We understand our readiness level, however, is dependent on 
the level of resourcing that we receive. The overall Army 
National Guard equipment on hand for our deployable units is 
currently at 88 percent, an increase of more than 2 years ago 
when we were at 85 percent.
    Our critical dual-use equipment on hand is at 92 percent, 
an increase from 86 percent 2 years ago, and a significant 
increase from the 65 percent it was during Hurricane Katrina.
    From December 2011 through June 2013, the Army National 
Guard is programmed to receive more than 120,000 pieces of 
equipment from Army procurement funding.
    Army National Guard armories are actually the foundation of 
our readiness. We have facilities in 2,899 communities across 
the 50 States, the territories, and the District. Providing 
quality facilities, however, is an ongoing challenge.
    More than 46 percent of our armories are more than 50 years 
old. Many are unable to meet the needs of the 21st century 
operational force while failing to meet modern building 
standards and especially in terms of energy efficiency.
    The Army National Guard continues to make suicide 
prevention a top priority. Our soldiers are our most precious 
resource. We are addressing high-risk behaviors and suicidal 
tendencies through preventive measures, comprehensive training, 
and a range of intervention programs.
    In addition, we are addressing sexual harassment, and 
assault response and prevention through an aggressive training 
program executed at the State level. It's crucial that these 
behavioral health programs receive funding in our base budget.

                           PREPARED STATEMENT

    In closing, I acknowledge the continued support that you've 
demonstrated through the budget process in program planning for 
an operational National Guard through 2015.
    I want to express the Army National Guard's sincere 
appreciation of the critical role your subcommittee plays in 
resourcing and sustaining the most capable National Guard that 
our Nation has ever had.
    I appreciate the privilege of being here and invite your 
questions.
    [The statement follows:]
      Prepared Statement of Lieutenant General William Ingram, Jr.
                            opening remarks
    Chairman Inouye, Ranking Member Cochran, and members of the 
subcommittee: I am honored to appear before you today, representing the 
nearly 360,000 citizen soldiers in the Army National Guard (ARNG). For 
375 years, ARNG has been central to how the Nation defends itself at 
home and abroad. Through resolve and readiness, our citizen soldiers 
deliver essential value to our Nation and its communities and 
contribute immeasurably to our national security. Since September 11, 
2001, through the end of fiscal year 2011, ARNG has completed more than 
495,000 soldier mobilizations in support of domestic operations and 
overseas missions.
    The Army National Guard of 2012 is the best-manned, best-trained, 
best-equipped, and most-experienced force in our history. We are an 
operational force and a full partner with the Active component. More 
than 50 percent of our soldiers are seasoned combat veterans. That 
statistic speaks to our overseas credentials. But we have been given a 
dual mission. Domestically, our soldiers represent every ZIP Code where 
they play a vital role and have earned the respect of hometown America.
        an operational force for domestic and overseas missions
    Our Nation has endured a decade at war relying upon an All-
Volunteer Force. Despite the challenges this has presented, our young 
people still want to join the ARNG. Our recruitment rate for 2012 is 
93.7 percent of goal (as of January 31, 2012).
    Along with this positive trend is an impressive retention rate 
among those who are already serving. ARNG retention rate stands at 
131.2 percent of goal as of January 31, 2012. Today's Army Guard 
soldiers continue the proud tradition of meeting the needs of our local 
communities and our Nation at home and around the world. In 2011 alone, 
citizen soldiers responded to floods, wildfires, tornadoes, and 
hurricanes as well as providing key security forces along our Nation's 
Southwest border. Concurrent with these critical missions, ARNG 
continues to deploy overseas in support of peacekeeping, humanitarian 
disasters, and combat operations.
    For years, ARNG was viewed as a ``Strategic'' Reserve. The events 
of September 11, 2001, and the subsequent hostilities in Iraq and 
Afghanistan challenged all previous troop strength and deployment 
assumptions.
    The Army had to consider--and utilize--our citizen soldiers as an 
operational force. Now, when the Department of Defense (DOD) formulates 
war plans, ARNG is integral to the overall design and operations tempo 
(OPTEMPO). We realize this inclusion makes ARNG responsible for 
maintaining units trained to the highest standard of readiness. Funding 
is required to maintain this level of readiness. The result is that for 
the first time in 2013 the operational force is partially funded in the 
base budget request which supports additional duty days and OPTEMPO to 
facilitate rapid deployment of functional and multifunctional units 
required to deploy on a compressed timeline.
      ready and reliable deployments: the accessibility advantage
    In fiscal year 2011, ARNG soldiers were deployed for a total of 
58,903 tours in support of a multitude of ongoing missions around the 
world.
    The breakdown, by tour, includes the following:
  --32,752 tours in support of Operation Enduring Freedom;
  --24,552 tours in support of Operation Iraqi Freedom/New Dawn;
  --877 tours in support of Operation Joint Guardian in Kosovo;
  --45 tours in support of Operation Noble Eagle;
  --2 tours in support of Operation Joint Endeavor in Bosnia; and
  --675 tours as part of Deployment Support Cell (DSC) operations.
    ARNG has continuously proven to be a ready and reliable force for 
both domestic and overseas missions. A determining factor in ARNG 
global deployments has been the change to title 10, U.S.C. section 
12304, which may have a direct impact on increasing the accessibility 
and rotational possibilities for the ARNG. ARNG has developed into a 
responsive, operational force, contributing to ``boots-on-the-ground'' 
requirement for deployments. A change in the law (National Defense 
Authorization Act of 2011) has made ARNG more accessible for 
predictable, operational missions. With the implementation of the Army 
Force Generation (ARFORGEN) cycle as well as the new law, our leaders 
now have greater flexibility, predictability, and choice in how they 
deploy forces. Our soldiers and their families will now have the same 
type of predictability with more dwell time between deployments and 
additional time for training.
    Closer to home, ARNG provided more than 907,185 duty-days of 
support to communities across the Nation in 2011. This figure 
represents our commitment to the Nation in response to natural 
disasters and fulfills our enduring pledge to sustain local, State, and 
Federal law enforcement agencies. Notably, that number of duty-days 
nearly doubles that of 2010--and is three times greater than 2009. The 
Southwest border security mission along with an active year of flood, 
tornado, wildfire, and hurricane response operations accounts for the 
majority of this increase. However, I want to emphasize that the nearly 
1 million duty-days performed last year clearly exemplifies the unique 
capability of ARNG forces and the dedication of citizen soldiers who 
serve in our ranks.
          equipping an operational force for the 21st century
    In 2012, ARNG is better equipped than ever. We understand our 
readiness level is entirely dependent on our level of resourcing. So 
the challenge, as always, is to do everything efficiently.
    ARNG equipment on-hand (EOH) posture is evaluated and published 
twice a year. This important review process informs senior leaders and 
policymakers of ARNG fill levels for equipment supporting every 
mission. Modification table of organization and equipment (MTOE) 
authorizations and on-hand inventory are used to determine EOH for both 
contingency operations and domestic missions. In collaboration with 
Headquarters, Department of the Army (HQDA), the ARNG identifies 
specific equipment on MTOE documents as critical to domestic response 
missions. This equipment is identified as critical dual use (CDU). The 
Department of the Army considers CDU items when prioritizing equipment 
procurement.
    The overall ARNG equipment on-hand (EOH) for MTOE units is 
currently at 88 percent, an increase from 85 percent 2 years ago. 
Overall CDU EOH is 92 percent, an increase from 86 percent 2 years ago 
and a significant increase from 65 percent during Army National Guard 
operations supporting the Hurricane Katrina response. From December 
2011 through June 2013 ARNG is programmed to receive more than 120,000 
pieces of equipment from Army procurement funding.
    Equipment modernization remains an area of concern. Despite 
significant progress improving EOH levels, ARNG continues to have 
critical shortfalls in UH-60 A-A-L modernization, CH-47F, HMMWV 
Recapitalization, and General Engineering Equipment.
    We are working closely with the Army to minimize any shortages with 
priority going to deploying units. ARNG continues to pursue equipment 
modernization, greater efficiencies and economies-of-scale through 
Department of the Army procurement and National Guard and Reserve 
Equipment Appropriation (NGREA) funding.
    Sustaining ARNG as an Operational Force depends upon having the 
same equipment as the Active component, including rotary wing aircraft. 
ARNG currently has 1,277 rotary wing aircraft against an authorized 
fleet of 1,394 aircraft; 85 percent of ARNG aircraft authorizations are 
filled with the same modern and capable aircraft as the Active Army 
fleet. The inventory includes a mix of the most modern capabilities 
(AH-64D Block II Longbow Apaches, CH-47F Chinooks, UH/HH-60M Black 
Hawks and UH-72A Lakotas), older but capable airframes (AH-46D Block I 
Apaches, CH-47D Chinooks, UH-60A/L Black Hawks, and OH-58D Kiowa 
Warriors) and 98 legacy aircraft (OH-58A/C Kiowas and AH-64A Apaches).
    Programmed Army procurements will ensure ARNG fleets are modernized 
on pace with the other components, except in the case of the Black Hawk 
fleet. Even in 2020, only 25 percent of the ARNG Black Hawk fleet will 
be equipped with the new UH/HH-60M. Rotary wing aircraft remain a 
critical dual-use asset whether mobilizing for the warfight or 
responding to domestic emergencies.
                          domestic operations
    In 2011, citizen soldiers' support of the Southwest border mission 
spanned the 1,933-mile border of California, Arizona, New Mexico, and 
Texas. This critical mission called upon three ARNG capabilities. 
First, observation and reporting of border activities to U.S. Customs 
and Border Protection. The second capability is our analytical 
expertise which augments Immigrations and Customs Enforcement agents. 
Finally, the command and control of personnel within the ARNG of each 
Southwest border State ensures cohesive action and coordinated 
operations.
    In February 2012, the Southwest border mission transitioned from a 
ground-based force to an air-based force. The Southwest border 
transition reduced manpower requirements from 1,200 to no more than 
300. The continued Southwest border mission for calendar year 2012 will 
cost $60 million. The current Southwest border support focuses on 
criminal analysis and aerial detection and monitoring.
    During 2011, ARNG also provided support to law enforcement and 
special events. The law enforcement support required 60,636 duty-days 
of assistance and special events required another 2,685 duty-days of 
assistance.
    ARNG actively supported several environmental requests during 2011. 
Our winter storm response included 24 events in 18 States. The full 
scope of these actions required 11,152 duty-days of support. 
Firefighting support required 10,920 duty-days of support. Our flood 
response during 2011 totaled 201,866 duty-days of support. Hurricane 
and tropical storms demanded 67,795 duty-days of support. When twisters 
made their way across our Nation in 2011 ARNG responded with 14,775 
duty-days of support to devastated communities.
                 aviation's role in domestic operations
    ARNG Aviation flew more than 3,000 hours in response to domestic 
disasters in 2011. Domestic operations (DOMOPS) missions included 
response to hurricanes, wildfires, tornados, and floods; civil search 
and rescue (SAR) missions; and counterdrug support. Our Hurricane Irene 
response in August was a major domestic operation that included 37 
aircraft from seven States. These aircraft flew 540 hours in support of 
SAR, evacuation, commodity distributions, and support to local law 
enforcement agencies.
           the national guard's value and unique capabilities
    ARNG, with its unique range of skills, expertise, and experience 
level has structured itself for the future. As an operational force, 
our citizen soldiers are the most cost-effective means of calibrating 
capabilities in response to ever-changing demand from conventional and 
unconventional threats.
    The National Guard has the only DOD network that reaches all 54 
States and territories. GuardNet is a Nationwide information systems 
and mission command network that spans 10 time zones, 54 States, 3 
territories, and the District of Columbia, serving the Adjutants 
General of the States and the national capital region. GuardNet is the 
functional channel of communications for the National Guard Bureau 
(NGB) and is the mission command capability for the Adjutants General 
of the several States for non-federalized units in generating force and 
defense support for civil authorities. GuardNet reaches all of ARNG 
readiness centers in all of the States and territories and is a model 
of information technology efficiency and services.
    ARNG possesses the largest military intelligence force structure of 
any of the Reserve components of any of the services. This force 
includes all of the intelligence disciplines and more than 3,000 
linguists and cultural experts, provides the Nation with a robust, 
agile, and cost-effective responsive capability.
     army national guard installations--the foundation of readiness
    ARNG transformed from a Strategic Reserve to an Operational Force 
during a decade of deployments. This significant organizational shift 
has changed facility requirements. ARNG has facilities in more than 
3,000 communities; however, providing quality facilities across 54 
States and territories is an on-going challenge. Currently, more than 
46 percent of our readiness centers are more than 50 years old. Many 
fail to meet the needs of a 21st century operational force and the 
standards for modern buildings to include energy efficiency. Facilities 
are critical to readiness and support unit administration, training, 
equipment maintenance, and storage. They serve as platforms for 
mobilization during times of war and as command centers and often as 
shelters during domestic emergencies.
    This wide array of use makes military construction (MILCON) and 
sustainment, restoration, and modernization (SRM) funding a critical 
issue directly impacting unit readiness and morale, continuity of 
operations and interagency partnership, community awareness, and family 
and employer involvement.
       innovative programs leverage our range of civilian skills
    Our State mission, combined with grass-roots community-based 
support of today's ARNG, position us to play a significant role in 
global security cooperation (SC). We are partner to creating an 
enduring stability presence in scores of countries. ARNG soldiers 
possess a wide variety of civilian, professional, and education 
experiences that are helpful when the soldiers are engaged in security 
cooperation activities.
    In 2011, the ARNG provided approximately 18,575 soldiers to support 
69 military exercises in 104 partner countries. The ARNG global 
presence for security cooperation expanded in the 1980s through 
overseas duty training opportunities.
    ARNG Security Cooperation programs are unique because of Guard 
soldiers' ability to forge these enduring relationships with key 
individuals over long periods of time. In some cases, the crucial bonds 
with foreign countries have been cultivated and maintained for more 
than two decades.
    ARNG partnership capacity-building activities serve to deepen and 
strengthen a foreign country or region's positive perception of the 
United States as a valued partner, which can serve to prevent future 
conflicts; one of our key objectives in the 2010 Quadrennial Defense 
Review (QDR).
    In 2011, 4,200 ARNG soldiers participated in the State Partnership 
Program that included 63 partnerships and 2 bilateral agreements with 
63 partner countries. This program promotes security cooperation 
activities such as emergency management, disaster response, border and 
port security, medical, and peacekeeping operations.
    Citizen soldiers exercise soft power. Each possesses a range of 
valuable professional skills and expertise acquired as civilians. 
Within the ranks of ARNG are 5,798 first responders (firefighters, law 
enforcement, emergency medical technicians, analysts); 3,655 medical 
professionals; 778 legal professionals; 2,655 engineers; 1,119 
agricultural specialists; 5,186 educators; 2,296 mechanics; 511 
plumbers; and 34,309 students (in a wide array of disciplines). That 
explains why guardsmen are frequently called upon to conduct soft power 
across the range of conflict. A prime example is the innovative 
Agribusiness Development Teams (ADTs) in Afghanistan.
    ADTs provide training and advice aimed at supplementing current 
Afghan farming practices by introducing advanced techniques and new, 
profitable crops. These teams are making significant contributions to 
Afghanistan's economy and achieving sustainable, yearly growth of the 
Nation's economic output.
    One of our most relevant National Guard missions is to impart 
knowledge and transplant economic recovery to the Afghan people. The 
Agribusiness Development Team combines 58 soldiers and airmen with 
backgrounds and expertise in various sectors of the agribusiness field. 
ADTs ensure that improvements are sustainable with local assets and 
within the context of the Ministry of Agriculture, Irrigation, and 
Livestock (MAIL) abilities. ADTs conduct stability operations by 
building agricultural capacity, establishing a safe and secure 
environment, enhancing the rule of law, sustaining economic 
development, developing sustained governance, and fostering social 
well-being.
    Nine ADTs are deployed to Regional Command East and Regional 
Command South in Afghanistan. Deployed teams hail from Texas, Missouri, 
Kentucky, Kansas, Indiana, Oklahoma, Nevada, Iowa, and Arkansas. To 
date 28 teams operated in 15 provinces and contributed to more than 578 
agriculture projects generating more than $31 million in economic 
impacts for the people of Afghanistan. ADT soldiers bring their 
military capabilities and their civilian skills and education to work 
directly with the farmers of Afghanistan. These citizen soldiers 
leverage the assets and expertise of land-grant universities and 
cooperative services within their home States.
                 support of soldiers and their families
    ARNG continues to make suicide prevention a top priority. 
Mitigating high-risk behaviors and reducing suicidal urges ensures a 
ready and resilient force. Increased resilience and risk reduction 
leadership awareness, training, and intervention programs continue to 
enhance coping skills in our soldiers, families, and DA civilians. Due 
to limited comprehensive soldier fitness training seat allocations, and 
to better support the needs of Guard soldiers and families, ARNG 
established a Master Resilience Trainer Course (MRT-C) in Fort McCoy, 
Wisconsin in July 2011. By doing so, the number of Army National Guard 
Master Resilience Trainers are expected to exceed 1,000 by the in early 
fiscal year 2012. The Army National Guard also trained 334 Applied 
Suicide Intervention Skills Training (ASIST) program trainers in fiscal 
year 2011. An additional 150 ASIST trainers are being trained in fiscal 
year 2012. These trainers will train approximately 35,000 gatekeepers 
in advanced intervention skills.
    ARNG recently teamed with the Office of the Secretary of Defense of 
Reserve Affairs, as well as the Air National Guard, to launch a highly 
successful peer-support line, Vets4Warriors. The peer-support line is 
designed to serve all ARNG and Reserve component members nationwide. As 
the foundation of each soldier's support network, ARNG families and 
employers are being trained to assist in identifying high-risk 
individuals. States have capitalized on community-based resources and 
solutions to provide services outside of military installations.
    The ARNG has been, and remains, deeply concerned with the 
employment status of our soldiers. They are our most important asset 
and their well-being is essential for the ARNG as an operational force. 
Furthermore, the ARNG's employment challenges extend beyond returning 
mobilized soldiers and we continue to work diligently to find solutions 
to assist our geographically dispersed population.
    New legislation was recently enacted to assist unemployed veterans. 
The Veterans Opportunity to Work (VOW) Act of 2011, to Hire Our Heroes, 
mandates the Transition Assistance Program (TAP) for all soldiers 
separating from a title 10 Active Duty tour of more than 180 days. The 
ARNG is working closely with the Department of the Army and OSD to 
implement the transition mandates set forth in the legislation. The 
ARNG seeks to utilize these expanded transition services as a platform 
to enhance and increase participation in the myriad of employment 
assistance programs currently managed by the ARNG.
    The ARNG Directorate offers several national programs to assist the 
States with their local employment programs. The Job Connection 
Education Program (JCEP) is a high-touch employment approach assisting 
our soldiers and their family members in researching, obtaining, and 
retaining civilian employment.
    The Job Connection Education Program, a pilot program in Texas, 
provides support services such as job skills training, workshops, and 
job search assistance which expose soldiers and family members to jobs 
offered by more than 480 established business partners. To date, more 
than 720 soldiers and family members have connected to employment 
opportunities, earning an average hourly wage of $16.57.
    The Guard Apprentice Program Initiative (GAPI), in partnership with 
the Department of Labor and the Department of Veterans' Affairs, 
continues to build relationships with employers and colleges to 
facilitate civilian apprenticeship and employment opportunities for the 
ARNG and other Reserve components. As a pilot State, Maryland has six 
ARNG soldiers hired in the Independent Electrical Contractors 
Chesapeake (IECC) Apprenticeship Program. The IECC has progressive 
wages starting at $18 per hour with medical benefits. By the end of the 
5-year program commitment, participants will earn $23 per hour with 
benefits along with receiving a national certification as journeymen 
electricians. Drive the Guard (DTG) is a collaborative effort with the 
Commercial Driver Training Foundation, Inc. which links Army National 
Guard soldiers with training and certification programs in their 
communities. Once completed, the soldier has the potential to begin a 
career in the truck driving industry. Applicants seeking their 
Commercial Driver's License (CDL) are assisted through our DTG program. 
Upon completion, the soldier can begin a career in the trucking 
industry, with a salary varying between $35,000 and $45,000 annually. 
This is above the national starting salary of most college graduates 
with a bachelor degree.
                            closing remarks
    As the Nation enters an era of budgetary pressure, the ARNG has 
already structured itself for success in the future. We are an 
operational force; highly trained, experienced, and professional. We 
represent a scalable Army component that is far less expensive to 
engage and deploy than a full-time force. We are flexible and adaptable 
so we are ready to meet the wide array of 21st century security 
challenges.
    With committed citizen soldiers, our State and national leaders 
have the advantage of complete access to our forces and facilities. 
When employed judiciously, the Army National Guard presents cost-
effective value to American communities where guardsmen live, work, and 
serve. This makes the Army National Guard not only trained, equipped, 
and ready defenders of our freedoms but also good stewards of taxpayer 
dollars.
    We stand ready, as always, to take on any mission. After all, 
America's minutemen have been successfully completing missions for 375 
years.
    Thank you for the opportunity to be here today. I welcome your 
questions.

    Chairman Inouye. Thank you very much, General Ingram.

                            AIR FORCE BUDGET

    General McKinley and General Wyatt, as I indicated in my 
opening remarks, this past March the Air Force announced four 
structure changes and end-strength reductions. The greatest 
reductions were in the Air Guard, 5,100 billets lost. My 
question is, were you involved in reaching this final decision? 
Were you consulted? What was your involvement?
    General McKinley. Senator, I think I'll let Bud talk to the 
tactical process by which the Air Force works its corporate 
process. And, traditionally, in the National Guard, the two 
directors have been totally involved with their services in how 
the budgets are built and how they're briefed.
    I will tell you that, as Chief, I was involved in the final 
deliberations, discussions, in the December timeframe, at which 
time I expressed, certainly, our corporate view on behalf of 
the Adjutants General, on the outcome that the Air Force was 
pursuing.
    And then following the holidays, a number of meetings with 
both Secretary Panetta, Chairman Dempsey, General Schwartz, and 
Secretary Donley, to continue to work out the end-game 
strategies.
    I think you've had General Schwartz and Secretary Donley 
here to talk about their overall views of the size of the Air 
Force, that it's the smallest Air Force in history. 
Recapitalization is a major issue for our Air Force.
    And, as General Wyatt will tell you, and I'm sure General 
Stenner will tell you, that our Air Force and its strength 
cascades to its Reserve component, both the Air National Guard 
and the Air Force Reserve.
    So I'll let General Wyatt cover the corporate process that 
you're alluding to with your question, and then take any follow 
up questions you may have about our involvement.
    Bud.
    Chairman Inouye. General Wyatt.
    General Wyatt. Mr. Chairman, the Air Force decisionmaking 
process, as we put together budgets, is commonly referred to as 
the Air Force corporate process. And has several different 
steps along the way, beginning at the action officer, going up 
through the one-star, two-star level, which is the board level.
    The Council level is a three star, and then recommendations 
are presented to the Chief and the Secretary at the four-star 
level.
    I was able to participate. My staff was able to participate 
all along the way. We were encouraged to make our inputs, and 
we did so. In fact, we exercised that encouragement rather 
vociferously inside the Air Force corporate process.
    We did present alternatives to the Air Force, alternatives 
to the fiscal year 2013 President's budget (PB-13) as it 
officially came out. I think General Schwartz has accurately 
described the process when he said that there were very 
difficult decisions for the Air Force to make.
    He encouraged open debate. I engaged openly in that debate 
and made my inputs, but in the end, the final decision is left 
to the Chief and the Secretary. And many of the recommendations 
and alternatives that we proposed were not adopted.
    But we respect the difficult decisions that the Chief and 
the Secretary had to make. And once those decisions are made, 
as title 10 officers, we need to recognize that fact and salute 
and proceed forward.
    Chairman Inouye. But you were able to make an input?
    General Wyatt. We made several inputs, Sir, several 
alternatives, different ways of meeting the budget, and the 
operational demands of the Air Force, some of which were 
accepted, a lot of which were not.

                                SUICIDE

    Chairman Inouye. Thank you very much.
    General Ingram, during calendar year 2011, we were told 
that 98 guardsmen took their own lives. Can you tell us what's 
happening?
    General Ingram. Chairman, any soldier, or any person that 
takes their own life is a tragic experience.
    In the case of the Army National Guard, we're citizen 
soldiers. And I don't have the exact statistics of how many of 
the soldiers in the Army National Guard that committed suicide 
had never deployed, but there were quite a few.
    I'm not sure whether the citizen or the soldier committed 
suicide. In some cases, and we do a very thorough after-action 
look at each case, and in those cases, we take steps to prevent 
that from happening again.
    We use that in our training, and we've increased the level 
of training in suicide prevention. But it's an American problem 
as well as an Army problem, as well as an Army National Guard 
problem.
    And we're going to great lengths to prevent our soldiers, 
either having suicidal tendencies or actually committing the 
act.

                      RESERVE COMPONENT EQUIPMENT

    Chairman Inouye. Thank you very much. May I call upon 
Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    General McKinley, the Air Force's restructure plan suggests 
that reductions in personnel and aircraft ought to be 
undertaken.
    You describe in your testimony the enhanced use of Guard 
forces that would provide capability in overseas missions. 
Looking at our recent experience in Libya, there were Air Force 
personnel and aircraft involved in the no-fly zone strategy.
    Tell us what your impressions were of those who were 
engaged in that operation. What changes, if any, need to be 
made in terms of support for funding of different activities or 
equipment, acquisition, in light of those experiences?
    General McKinley. You rightfully point out, Senator 
Cochran, that the Air Force is uniquely positioned to utilize 
its Reserve component effectively and efficiently.
    For the entire period of time that I've been in the 
National Guard, there's always been a close personal 
relationship between our Active Force and its Guard and its 
Reserve.
    That led to the capability that General Wyatt may want to 
discuss a little more intimately involved in the tanker mission 
and the mission that supported the no-fly zone in Libya.
    To rapidly get volunteers in our communities who are 
associated with the requirement, out of their civilian jobs, to 
their units, in a voluntary status so we didn't need to 
mobilize, and we got them overseas in record time. And they 
participated in the full unified protector mission as you 
allude to.
    And that's been a tradition. It's been a core competency of 
our Air Force, its relationship with its Guard and Reserve, for 
the last four decades. So I'm very proud of that.
    I don't think our Air Force can survive without the close 
cooperation and collaboration of its Reserve component. I've 
heard both Secretary Donley and General Schwartz make those 
statements in public.
    I'll let General Wyatt talk about the numbers, types of 
equipment that actually deployed, how quickly they deployed, 
and how effectively they were used by the North Atlantic Treaty 
Organization (NATO) command in the successful prosecution of 
the Libyan operation.
    Bud.
    Senator Cochran. General Wyatt.
    General Wyatt. Senator Cochran, I mentioned a little bit 
about the timeframe of the response early on. I will tell you, 
especially in the refueling portion of Odyssey Dawn, it was a 
joint effort with the Active component, the Guard and the 
Reserve.
    The Guard and Reserve actually had more than 50 percent of 
the refueling capability in theater. The expeditionary wing was 
commanded by an Air Guardsman out of Pennsylvania. The 
integration of the three components in the Air Force, I think 
is a model, primarily because we're trained to the same 
standards.
    We use the same equipment. That's the way we fight. That's 
the way we train and fight. As we go forward in the future, I 
think the key for the Air Force to maintain the capacity and 
capability and continue reliance upon the Reserve component, 
Guard, and Reserve, is a couple of things.
    Number one is, the Guard and Reserve have to be fielded the 
new equipment, at the same time, concurrently with the Active 
component and in representative numbers, so that we can 
continue to be an operational force that can be called upon on 
a moment's notice.
    I would remind everyone that there was no mobilization 
authority available for Odyssey Dawn for the Libya no-fly zone. 
One hundred percent of the guardsmen and reservists that showed 
up for that engagement were volunteers.
    The key, besides new equipment, fielded concurrently and in 
a balanced fashion, a proportional fashion across the Reserve 
components, the other key is in the baseline budget of the Air 
Force, there has to be sufficient military personnel 
appropriation (MPA) days to allow the operational use of the 
Guard and the Reserve.
    As an organize, train, and equip organization, I think 
General Stenner would back me up on this, the Air Force 
adequately funds us to organize, train, and equip. But to be 
able to use us in operational missions around the world, the 
Air Force needs to baseline budget sufficient MPA days so that 
we can continue to be the operational force that's available on 
a moment's call.

                             FUNDING LEVELS

    Senator Cochran. Does the dollar amount requested for this 
subcommittee's approval meet those requirements?
    General Wyatt. Yes, Sir, I think it does in PB-13 for the 
title 10 fight. I'm a little bit concerned when I take a look 
at some of the domestic requirements for the Air National 
Guard.
    There is, you know, some pressures. Obviously, as the Air 
Force tries to do its part in reducing the deficit, I think the 
key is that as we go forward and we look at the number of 
required MPA days, that would allow the Air Guard and the 
Reserve to continue functioning, that we take a ``no kidding'' 
look at what are the requirements, what are the demands that 
the combatant commands (COCOMs) are telling us would be 
forward, and then adequately budget for that, rather than just 
pick an arbitrary number and try to cut.
    Senator Cochran. General Ingram, Camp Shelby, Mississippi, 
Hattiesburg has been a site for Army Guardsmen, Reservists, 
others to mobilize and be deployed to areas of need.
    What is your impression of the funding requests for that 
facility, if there is money in there for any activities and 
programs there? And what needs exist that should be brought to 
our attention if they're not requested?
    General Ingram. Senator Cochran, Camp Shelby has been a 
very viable force projection platform for most of the war 
fight. There's been some improvements that have been made 
there. The Army funds those improvements out of the base 
budget.
    And as we continue down the road, I think the appropriate 
needs will be met by the Army budget for Camp Shelby and 
several other predominately Army National Guard post camps and 
stations that are used as power projection platforms.
    Senator Cochran. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Alexander.

                              C-5 AND C-17

    Senator Alexander. Thanks, Mr. Chairman. Thank you for 
being here.
    I want to ask about the announcement in February about 
replacing C-5As with C-17s, which was part of the comprehensive 
reorganization of Air Force resources.
    The House Defense Authorization bill includes a provision 
that would put that restructuring plan on hold for a year, so I 
understand.
    And I want to try to understand from you, General Wyatt, if 
I can, what the consequences of that are?
    Specifically, I mean, the idea as you went through these 
difficult budget decisions, was to replace the C-5As, which are 
expensive to maintain and which are not, which aren't mission 
ready much of the time, with C-17s.
    The idea would be that would save a lot of money and 
produce a more efficient operation. Now, what does this 1-year 
delay do?
    What does it do in terms of the cost of maintenance, for 
example, of these C-5As that you know you're going to get rid 
of?
    What does it do to the schedule for retraining personnel? 
What does it do to the Guards' mission readiness?
    General Wyatt. Sir, those are great questions that what 
we're wrestling with right now.
    The transition at Memphis out of C-5s into C-17s was 
actually a fiscal year 2012 action, that is supposed to begin, 
but it continues into fiscal year 2013 as we retire C-5As out 
of Memphis, the C-17s come in. That requires training dollars 
to be spent to make the conversion.
    And you're correct. The reason, and I applaud that move on 
behalf of the Air Force, because it does bring the Air National 
Guard more into the relevant aircraft of the future. It's 
something we've been pushing for quite a long time in the Air 
National Guard.
    Senator Alexander. Well, we know, don't we, we're going to 
get rid of the C-5As, right?
    General Wyatt. Yes, Sir. We are.
    Senator Alexander. So why would we delay it a year?
    General Wyatt. I hope we don't.
    But that particular movement is one of the things in PB-13 
that I think is in the best interests of the country, and 
certainly, the Air Force and the Air National Guard, that we 
continue with that part of it.
    If the prohibition is to spend any fiscal year 2013 funds 
on fiscal year 2012 actions that need to be completed in 2013, 
then the dilemma is exactly as you have expressed. It would 
cause us to go back and take a look at what is the cost of 
maintaining the C-5As?
    Is there appropriations in the 2013 continuing resolution 
(CR) to do so, if that's where we're going? And it does cause 
us some uncertainty as we go forward, Sir.
    Senator Alexander. So at a time when dollars are short, and 
tight, and many of your recommendations weren't able to be 
accepted, you're saluting them.
    Maybe, say to Senator Coats, maybe we need a title 10 
salute in the United States Senate, we might get things done a 
little more quickly, if we did.
    But, so you're going to have to be spending money 
maintaining planes that you know you're going to get rid of, 
when you could be spending it on retraining Guard personnel. 
You could be spending it on other aspects of mission readiness. 
Is that not correct?

                       AIR FORCE FORCE STRUCTURE

    General Wyatt. Yes, Sir.
    The situation at Memphis is exactly as you have described 
it. That's one of the inputs in the Air Force corporate process 
that the Air National Guard made that was accepted by the 
United States Air Force.
    And I applauded that because it made a whole lot of sense. 
It still does make a whole lot of sense.
    But the dilemma that we're in right now, is how do you make 
that transition that we start this year, in fiscal year 2012, 
with the prohibitions on spending monies in 2013 to complete 
those actions.
    Senator Alexander. Well, I hope as we move through the 
process, and we're trying to respect your stewardship of scarce 
dollars, that we see what that delay would do is really waste 
money, or take money for planes that we know we're going to get 
rid of, to maintain them, and money that could be used in other 
places.
    In the same light, in Nashville, the Guard's preparing for 
a new unmanned aerial vehicle mission, which I understand the 
Air Force needs for that facility to assume.
    Now, how will this 1-year delay affect our military 
capabilities in the timeline for moving unmanned aerial 
vehicles (UAVs) into Nashville?
    General Wyatt. A very similar situation.
    Again, this was a fiscal year 2012 action that is 
beginning. Part of it involves the movement of C-130s from 
Nashville to the Puerto Rico Air National Guard which is losing 
C-130Es. So there's kind of a ripple effect that we're facing.
    I have to applaud General Haston, the Adjutant General for 
Tennessee, very forward looking, volunteered early on to 
transition into the remotely piloted aircraft (RPA) mission 
which we see as a sunrise mission in the Air National Guard, 
the one that will be around and keep the Tennessee Air Guard 
relevant well into the future.
    But we face the same challenges there as we need to 
continue on down that path toward transition. Delays do make 
the transition a little bit smoother, I mean, a little bit more 
difficult, and costly.
    Senator Alexander. And costly.
    General Wyatt. And costly.
    You know, the cost of maintaining those aircraft would move 
to Puerto Rico. But, if we're required to hold the Puerto Rico 
divestiture of C-130s, the E models, then we could have that 
expense that we would not normally have.
    Senator Alexander. I don't have much time left, but if I 
could ask, General Ingram.
    Toward the end of President Bush's administration, our 
National Guardsmen were deployed along the border to assist 
with immigration issues. You made a slight reference to that I 
believe.
    And I wonder if you could tell me how successful that was, 
whether some of that is still going on or not in terms of our 
border control activities. I think it was in support of those 
whose job it is to secure the border.

                   SOUTHWEST BORDER AND A-10 AIRCRAFT

    General Ingram. Senator, you are correct. It's in support 
of the Customs and Border Patrol. That mission has changed 
slightly.
    This year, that mission changed from 1,200 people to 300 
people. And it moved from a ground mission to an aerial mission 
where we're using 300 soldiers flying 19 helicopters and one 
fixed-wing aircraft along with analysts on the ground that help 
interpret the data for the Border Patrol from the information 
that's gained from those aircraft.
    Senator Alexander. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Coats.
    Senator Coats. Mr. Chairman, thank you.
    I just want to followup on Senator Alexander's question 
relative to the A-10. I mean, it's really a similar situation 
here where a decision has been made to retire a certain model 
of aircraft, and replace it with others.
    And I know there have been negotiations going on between 
the Guard and the Air Force, and then referencing the action 
that the House recently took to delay all this for a year.
    If you could apply that now back down to the A-10 
situation, what is the status of those negotiations? Is this a 
done deal? Has a final decision been made? Is there more 
consideration to be undertaken, General Wyatt?
    General Wyatt. A very similar situation to Tennessee, as 
with all the States, but a little bit different, well, 
significantly different input, from the Air National Guard.
    Our input in the corporate process was to suggest 
alternative ways to meet the emerging strategy with A-10s, 
which as you know, play a crucial role in close air support in 
Iraq and Afghanistan. In fact, we have Air Guard A-10s in 
theater right now as we speak.
    But some of those suggestions were not accepted by the Air 
Force as we went forward. Alternative missions were proposed 
for the unit at Fort Wayne, Indiana, and those are included in 
PB-13.
    The status of the negotiations between the Council of 
Governors and Secretary Panetta, I think have concluded, 
although at any point in time, obviously, the Secretary has a 
prerogative with the Council of Governors, a dialog, to re-
engage.
    But I think that a counterproposal was made. It did not 
include anything related to the Indiana Air Guard or the A-10s. 
And my understanding is that the Council of Governors have 
respectfully declined the offer of Secretary Panetta to reach a 
compromise.
    So we're waiting to see what happens with PB-13, but, in 
the meantime, as I indicated, we need to start moving toward at 
least taking a look at implementing the PB as it has been 
proposed, unless we're told something different by the 
Congress.
    Senator Coats. Well, again, to follow on Senator 
Alexander's question. If what the House passed becomes law, 
what do you anticipate the status of current A-10 fleets being?
    I mean, are they going to be hangar queens and just sit 
there, and they have cost of maintenance, but no mission for 
them, just waiting out the year? Or, will they, what's your 
take on what will happen?
    General Wyatt. My take is that if that happens, we would 
hope there would be sufficient funds to continue operating 
because that's a great unit in Fort Wayne. They're already 
trained.
    As I've said, they've rendered great support to the 
operations in Iraq and Afghanistan. And our intention would be 
to continue with continuation training, keeping that unit 
operational for as long as possible.
    We may have to dial back or dial down the level of 
continuation training which would be very difficult to do and 
maintain our combat status, ready to go.
    So it would be a difficult thing to do, but we would give 
it our best shot depending upon the level of funding that came 
along with the House proposal.

             INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE

    Senator Coats. But again, that's something that's going to 
have to be decided by the Secretary and the Chief of the Air 
Force.
    So I guess there's a possibility that they wouldn't be 
operational during that 1-year holding period. That would be my 
concern.
    General Wyatt. That is a possibility, Sir.
    Senator Coats. And then I wonder what effect that might 
have on the planned follow on for the intelligence, 
surveillance, and reconnaissance (ISR) aircraft.
    General Wyatt. It would be, obviously, delayed.
    The part that I'm concerned about is the people, because as 
I go out and visit units, the thing that I'm hearing is concern 
about an indefinite future, about what, you know, what is the 
future of my unit?
    What is the future of my job? Is it going to be the same? 
Is it going to be different? Is it going to be here at all?
    And, you know, I mentioned a little bit about the 
volunteerism that we have in the Air National Guard. Our 
recruiting and retention continues to be strong even in spite 
of PB-13 and the operations tempo (OPTEMPO).
    But where I'm starting to see some stress on my folks is at 
our retention numbers. You know, we have great volunteerism, 
and our people stick with us a long time. But our retention 
numbers are beginning to drop. And I attribute that to the Air 
Force's PB-13.
    It has had a more detrimental effect on our retention 
numbers than 20 years of high operational combat has had. So I 
think that uncertainty is beginning to take a toll on our 
people wondering about their futures and, you know, do we have 
time to invest in a unit that may not be here next year or 
maybe changing to a mission that we don't know what that might 
be.

               HIGH-MOBILITY MULTIPURPOSE WHEELED VEHICLE

    Senator Coats. Thank you.
    If I could shift to a ground vehicle. The humvee was 
mentioned, General McKinley, I think in your opening statement, 
60 percent, 20 years old or more.
    What is the take on what you need? I think you mentioned 
modernization. Some have mentioned upgrading existing fleet. 
Others say the cost, it's more cost effective to just go to the 
more modernized vehicle.
    I'm not sure if General Ingram, you, or General McKinley is 
the best one to answer this. But what's the story on this?
    General McKinley. Well, first of all, thanks for the 
question, Senator.
    I'm in receipt of letters from 17 Adjutants General in 
support of purchasing new humvees. I am the channel of 
communication between the States and the Department, so we have 
forwarded those letters of support.
    General Ingram can talk about the percentages. I would say, 
strategically, across both Air and Army Guard, this generation 
of soldier and airmen have joined our services and joined the 
Guard specifically to be used, to operate first-line equipment, 
to be part of the team that goes forward, either here at home 
for domestic emergencies, or to support our Army and our Air 
Force.
    And so recapitalization across our fleet to include ground 
vehicles, has got to be factored in, and we've got to fight 
hard with our services to make sure that the balance and the 
proportions are right.
    Or, some of these young men and women who've joined us 
since September 11, 2001, they're just not going to be as 
excited about their role in the National Guard.
    But I'll let Bill comment specifically on your question.
    General Ingram. Senator, on the humvee fleet. We have some 
of the oldest humvees in the inventory for the Army.
    And I guess the question at this moment is, do we 
recapitalize the ones that we have, or do we, as the Army buys 
the joint light tactical vehicle (JLTV), the next generation, 
we should get a proportional share of those vehicles?
    So the question is, do we keep a number of humvees 
unrecapitalized to trade in, or to turn in, as we gain the 
JLTV?
    And it's a balance. Obviously, we'd like to upgrade the 
fleet, but we want to be frugal with our resources and do the 
right thing.
    So, at the moment, there's a bit of a tradeoff there. The 
longer we wait, the older the vehicles become, and the more 
need there is for new vehicles or for recap.

                           SPORTS SPONSORSHIP

    Senator Coats. Just one last quick question, Mr. Chairman, 
if I could.
    My preference has always been that we direct money for 
recruiting to you, and you decide how best to utilize that 
money. There have been some efforts, I know you're sponsoring 
Indy cars and NASCARs and so forth.
    You see, you know, you tune in, you see the Air National 
Guard or Air Guard or Army Guard on the side of the car. And 
you do that in areas I think where the potential for recruiting 
is very high and a lot of attention to that sport.
    I don't like to micromanage and tell you, you should spend 
this here and that there. But, is this still of a value to you 
in terms of recruiting and whatever other gains that you might 
get from it, or is this something that its time has come and 
gone?
    General Ingram. Senator, it's really a matter of branding 
and being associated with a national brand. We do get recruits 
and we do run recruiting booths at sporting events, both motor 
sports and other sports.
    People don't necessarily buy Tide laundry detergent because 
of the race car that sports the Tide hood, but they do 
associate that product at a national level. And the Army 
National Guard, because of the target audience that we're 
looking at for our band of recruits, that is an interest to 
those people.
    And they see, when they watch sports on television, and 
they see Army National Guard, it's a national branding 
opportunity that is of great value.
    And the fact that the teams that the Army National Guard 
sponsors do some very, very good things for the Nation, and 
they are held in high esteem by that group of people, it does 
lead to recruits for the Army National Guard.
    Senator Coats. Well, Mr. Chairman, I would hope that we 
wouldn't micro-manage that process. Let the Guard decide how 
best to utilize whatever we give them for the branding, for the 
recruiting and so forth.
    But I think attempts to say, do this, or put on that 
commercial and not this commercial, or put it on this car and 
not on that car, ought to be left up to the people who are 
involved in the process and not those of us who have a 
preference.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    And now I'd like to recognize the chairman of the Senate 
National Guard Caucus, Senator Leahy.

                            AEROSPACE ALERT

    Senator Leahy. Thank you.
    General Wyatt, we saw on the news where a plane diverted, a 
commercial jet had to land in Bangor, it was on its way to 
Charlotte.
    It said fighter jets were deployed. Were those Guard jets?
    General Wyatt. Yes, Senator, they were.
    Senator Leahy. Well, that sort of leads into a question I 
have. There's a couple of lesser-known cuts, not lesser cuts, 
but lesser-known cuts, that were proposed for the Air National 
Guard, an issue that concerned me deeply.
    Specifically, cuts to air controller alert locations and 
Air National Guard explosive ordinance. The air controller, I 
think it's safe to say from everything we've learned without 
going into anything in the classified briefings we get, it's 
safe to say that commercial airlines are still a target of 
terrorists. Is that not a fair statement?
    General Wyatt. That's correct, Senator.
    Senator Leahy. And, it would be one thing if we could say 
that our strategy for dealing with threats to the United States 
had changed, and thus would drive reductions. But I'm worried 
that we're just seeing a budget trail.
    I don't see the threat going down. I think we should have 
our air control alert locations, and the Air National Guard 
explosive ordinance disposal, I don't know if that falls into 
your purview, it looks to me like what they did was just hand 
you a bill to pay.
    And then you had to make State and local cuts, including 
bomb squad cuts, to meet those targets. Do you think the Air 
Force considered the State and local impact of getting rid of 
our Air Guard bomb squads which I know Governors all over the 
country use when they need bomb squads.
    I've certainly seen that in my own State of Vermont. Do you 
think that they thought that it impacts the States pretty 
badly?
    General Wyatt. I'll try to address the aerospace control 
alert (ACA) question first.
    Senator, you're correct. That threat is still there, and I 
think that probably the discussion was, you know, according to 
studies that you've referenced that are classified, you know, 
could the Nation assume a little additional risk by cutting two 
of the ACA units?
    That's a discussion I'd like to have with you in a 
classified----
    Senator Leahy. Well, what I worry about, General, is that 
the discussion is driven more by budgetary issues and not by 
reality.
    General Wyatt. Certainly, the budget does come into play.
    I mean, we have to talk about what we can afford to provide 
and, you know, are there opportunities or places where we could 
take additional risk. And whether this additional risk is worth 
the money, is a debate.

                              BOMB SQUADS

    Senator Leahy. And I think you're going to find that on the 
question of bomb squads.
    General Wyatt. Yes, Sir.
    The bomb squads, what we did there is, we looked at the 
situation in Iraq and Afghanistan, recognizing that we would be 
coming home from those wars.
    We did have some budget bogeys to meet. We tried to take a 
look at those mission sets and capabilities that the United 
States needed, that could be supplied by the Air National 
Guard, and certainly, that's one of those capabilities that is 
a dual use.
    It has a function in title 10, but also for the Governors. 
I think the issue that has been highlighted with the Council of 
Governors involvement under the new process is that we have 
inside the Department of Defense (DOD), highlights the fact 
that we need to do a better job of communicating with the 
Adjutants Generals and the Governors to get the effect of title 
10 decisions on the Governors ability to respond to things like 
explosive ordinance disposal.

                     ROLE OF GOVERNORS AND ANALYSIS

    Senator Leahy. We also have the Air Force, considering cuts 
into the Guard and Reserves far more than the Army or the Navy. 
I worry that they're not listening to some of the concerns of 
the Governors.
    Certainly, I get that from Governors of both parties. 
Senator Graham, Lindsey Graham, does too. It makes me wonder, 
have you seen any analysis that persuades you that relying more 
on the Active component is going to save money, or provide the 
Air Force with more capability?
    General Wyatt. No, Sir, I'm not seeing that analysis.
    Senator Leahy. Have you asked to see that sort of analysis?
    General Wyatt. Yes, Sir, I have.
    Senator Leahy. Well, that kind of bothers me.
    You're the Air Guard Director. I think you should have been 
allowed to see analysis during budget preparation before the 
Air Force presented the budget proposal that substantially cuts 
your force based on the claims that they have, and they haven't 
shown you.
    General Wyatt. I agree, Sir.
    And, you know, as we've kind of gone through this process, 
the thing that I've, I guess, come to the conclusion is, that 
the analysis that I have been able to see, the answer is 
sometimes, I guess the answer is important, or the conclusion 
is important.
    But as important as the answer and the conclusion, are the 
initial going-in assumptions, and the methodology used in 
reaching that answer, and the metrics or what it is that you're 
trying to measure.
    And I don't think that just an answer is sufficient. I 
think you need to go back and you need to take a look at the 
processes, the methodology, the assumptions. And that's the 
thing that concerns me, not only is not seeing all the 
analysis, but how we got to some of that analysis.

                      FUTURE OF THE NATIONAL GUARD

    Senator Leahy. I agree with you.
    I don't think that these cuts in the Air Guard and the 
Reserves are going to save us money. I think, in the long run, 
it's going to cost us a lot more.
    We saw how important they were to us during Iraq and 
Afghanistan. That's not a capability you can turn on and off 
like a switch. And that's without even going into the 
continental U.S. aspect required by that protection.
    And I share the concern of a lot of the Governors. They 
weren't listened to. But, we'll talk about that more, and I 
should note, you've always been very available to me and my 
staff when we have had questions.
    And, General McKinley, I thank you for your distinguished 
service as Chief of the National Guard Bureau. I think this is 
going to be our last hearing of this nature before your 
retirement.
    You and I have been good friends. We've visited both in 
Vermont and here. You're going to be the first Chief to wear 
four stars. A Chief who fought to get your folks a voice on the 
Joint Chiefs of Staff.
    And I know Senator Graham and I and the very large 
bipartisan coalition of Senators take pleasure in that, along 
with General Blum who made history by transforming the Guard 
into an operational force.
    I have the sense that since you're leaving, you can say 
whatever you want to say. And General Ingram is kind of 
smiling. I think he probably knows what my question is going to 
be.
    Do you think the Guard would be in a very good position if 
we in the Congress didn't keep the pressure on the way we do?
    You don't have to answer that, General Ingram, but I see 
the grin. Go ahead.
    General McKinley. Most of us in this room prefer not to 
build our own gallows. So, in order not to do that, I will 
reserve some of my comments for my meeting with you before I 
leave, Senator.
    But thanks to you and Senator Graham for steadfastly 
supporting the National Guard through the Senate Guard Caucus.
    Quite frankly, 375 years of history have seen the 
effectiveness of the National Guard ebb and flow. And I can 
only say to you, Senator, because you know it so well by 
visiting your members of the National Guard, as you all do, how 
capable and competent these folks are.
    And how well led they are by their Governors in State 
status, their Adjutants General. And quite frankly, the support 
we've had over decades from our two services, the Air Force and 
the Army.
    What I worry about most, to get to your specific question 
is, will the title 10 world find a way as it has not over past 
involvement in contingencies to include World War II, find a 
way to maintain a balance to keep the National Guard.
    And I would add probably the Reserve component in this, but 
they'll speak for themselves. How do we keep this magnificent 
capability, this low-cost, high-impact force of citizen 
soldiers and airmen, in our case, in the game?
    To keep their head in the game. To keep us viable. To keep 
the investment in our competency at a level that the Nation may 
need and sustain as a hedge for future operations.
    We have to find a way, all of us do, to convince our 
services and the Department that this investment has been a 
wise investment.
    And that this Nation, with less than 1 percent of its 
citizens serving its United States military, deserve to have a 
National Guard that's trained, equipped and well-led, because 
there will be significant challenges to our Nation in the 
future.
    But, Senator, to you and your colleagues, I can't thank you 
enough for what you've done to make us who we are today and 
we're very proud to serve the Nation. Thank you.
    Senator Leahy. Well, I can assure you, as long as I'm the 
co-chair of the National Guard Caucus, you're not going to be 
ignored, none of you will. And I applaud all three of you for 
the service you've given the country.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Senator Murkowski.

                    ALASKA AIR NATIONAL GUARD UNITS

    Senator Murkowski. Thank you, Mr. Chairman.
    And, Generals, I join the rest of my colleagues in thanking 
you for your leadership on so many different issues in 
different areas.
    General Wyatt, I want to ask you about the recent Air Force 
proposal which would move the 18th Aggressor Squadron from 
Eielson down to Joint Base Elmendorf-Richardson.
    Right now, this proposal looks like it will have an impact 
on the 168th Air Refueling Wing to the extent that an operation 
that is currently a 24-hour-a-day operation, 365-days-a-year, 
that with this proposal, it may result in operations being 
diminished to effectively a 12-hour day, 5-days-a-week.
    Not necessarily banker's hours, but certainly not the kind 
of hours that will be required, that are required, for this 
pretty incredible, intensive refueling wing up there at 
Eielson.
    General Schwartz keeps reminding me of the significance of 
Eielson and the fact that we got 23 million gallons of gas up 
there. It's pretty important to the overall mission.
    My question to you is, how would this proposal, which would 
effectively reduce the operations there at Eielson, how will 
this impact the Guard's mission there?
    General Wyatt. Senator, I've asked that same question.
    You know, when you stop and think about the importance of 
that air refueling wing, its strategic location, when you think 
about some of the other activity that's happening over the 
Arctic, and as we look westward from Alaska, you can very 
quickly recognize the strategic importance of the 168th, and 
the role that it plays in the air control alert mission for 
Pacific Air Forces (PACAF) and that theater.
    That's one of the first questions I asked was, if the F-16s 
are moved, and the level of support at the airbase goes down, 
will there be sufficient capability at that airbase for the Air 
National Guard to continue functioning at the level that it is 
now?
    Because a lot of the dollar bills that are controlled for 
some of the base support that is required for my Air National 
Guard unit there, are not in my budget. So I don't get to make 
that call. They're in the Air Force budget.
    I have been assured that there will remain sufficient funds 
and sufficient services to keep the 168th playing the vital 
role that it does.
    The decision to, whether to go from a 24-hour alert, which 
they're currently on, to something less than that, is a call 
that is left to General North PACAF in consultation with NORAD 
and NORTHCOM.
    So I can't really get into the operational decisions. But 
my concern would be that we have in the future as competent and 
capable a wing as we do right now.
    And so I watch very closely any attempts that would 
diminish their ability to perform their mission. I wish I had a 
better answer for you than that.
    Senator Murkowski. Let me perhaps rephrase it.
    If, in fact, you did have to go to a reduced-hours 
operation, 12 hours, could you do the mission that you believe 
you have to do, or that you're required to do there in the 
Arctic, in the North Pacific?
    General Wyatt. Again, the mission requirements are set by 
the warfighters. If they were to make that conclusion that the 
12-hour alert would be sufficient for mission accomplishments, 
we could do that.
    But that's a judgment call again that will need to be made 
by the combatant commander that obviously would take into 
consideration the additional risk that not having that unit on 
alert for 12 hours out of a day might pose to the ACA mission.
    Senator Murkowski. Let me ask you another, then.
    Because the 168th I think is, we recognize, is operating at 
its capacity. They've reported having to decline certain 
missions even within the 24-hour-a-day period that they're 
operating now.
    The 168th has asked for additional aircraft and an active 
association. They've been doing so for several years now, so 
that it can effectively do more for the mission.
    Can you give me the status of any of these requests?
    General Wyatt. Ma'am, part of the recent KC-46A basing 
criteria that was released to the Congress, evolved from what 
we call the Force Composition Analysis (FCA), for the entire 
refueling enterprise, not just KC-46s, but KC-135s and KC-10s.
    And one of the recommendations that came out of that study 
was that, as we go forward in the refueling enterprise, that 
all of the units, at some point in time, transition to either 
active associations, in the case of the 168th, or classic 
associations, where the Guard or Reserve would play the 
supporting role.
    So I think the future looks good for an active association 
there. The question will be the timing, and how robust that 
association would be.
    Would it bring additional airplanes as part of the active 
association, or would it bring additional Active Duty pilots, 
maintainers, to help robust the capabilities of the wing with 
the existing eight airplanes?
    Those are questions yet to be answered.
    Senator Murkowski. And no timeline within which to, that we 
might expect those answers?
    General Wyatt. No timeline that I'm aware of other than a 
push to go to active associations and classic associations 
across the air mobility fleet and PACAF.

                                  C-23

    Senator Murkowski. Let me ask you, General Ingram, about 
the C-23s, or Sherpas.
    Last year, the Army proposed the elimination of the Sherpas 
with the belief that the C-27Js would replace that capability.
    Those C-27Js are now proposed to go away. Are we 
reconsidering the future of the C-23s?
    General Ingram. The Army has taken the funding away for the 
OPTEMPO, for the C-23 and the intent is to divest those 
airplanes by the end of fiscal year 2014.
    And, to my knowledge, there's no reconsideration of that.
    Senator Murkowski. What I'm told is that there's a wide 
number of Adjutant Generals that feel that the C-23 is 
important to the domestic missions. Air Force is looking at the 
C-130s to fill that mission.
    Are you satisfied that, in fact, that mission can be served 
with the C-130? Basically, is this the right thing to be doing?
    General Ingram. I feel that domestic airlift is a concern 
that should be addressed. I'm not sure that it's been 
adequately addressed for the domestic mission.
    For the away game mission, I know that the Army has taken 
the Air Force's position that the Air Force will support inter-
theater airlift, which is the mission that the C-23 and the C-
27 airframes were designed to do.
    Senator Murkowski. Any ideas or suggestions as to how we 
can address the domestic airlift?
    General Ingram. NORTHCOM is, in a recent discussion with 
General Jacoby, the commander of U.S. Northern Command, he 
views looking at the homeland as a theater of operations.
    And I think his perspective will be very important in 
determining requirements for all homeland defense, or homeland 
operations, inter-theater airlift in the homeland being one of 
those parameters.
    Senator Murkowski. Mr. Chairman, thank you.
    Chairman Inouye. Thank you very much.
    Gentlemen, I thank you for your testimony this morning, and 
I thank you for your service to our Nation. Do you have further 
questions?

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. No, Mr. Chairman, I have no further 
questions. I do want to congratulate our panel for the 
leadership you're providing for our Armed Forces.
    Thank you very much.
    Chairman Inouye. I will be submitting some questions and 
ask for your response.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to General Craig R. McKinley
            Questions Submitted by Chairman Daniel K. Inouye
              national guard and reserve equipment account
    Question. General McKinley, this subcommittee recognizes the 
importance of providing the Guard funding for necessary new equipment 
and modernization of aging equipment and have consistently done so 
through the National Guard and Reserve Equipment Account (NGREA). How 
have these increases improved readiness, and what additional equipment 
challenges remain?
    Answer. NGREA is the life-blood of the National Guard and is 
critical to maintaining the operational force. NGREA is used to 
purchase dual-use equipment for both the Army and Air National Guard. 
According to the Fiscal Year 2012 National Guard and Reserve Equipment 
Report, Army National Guard (ARNG) Equipment On Hand (EOH) for 
Modification table of organization and equipment (MTOE) units is 
currently at 88 percent, an increase from 85 percent 2 years ago. ARNG 
Critical Dual Use EOH for MTOE units is currently at 92 percent, an 
increase from 86 percent 2 years ago. Currently 71 percent of ARNG EOH 
is considered modern. Similarly, the Air National Guard (ANG) has 92 
percent (595,324 pieces) of all authorized dual-use items on-hand 
within the Essential 10 categories. The 92-percent equipment 
availability rate is comparable to the overall Air Force availability 
rate.
    NGREA funding has performed, and will continue to perform, a 
critical role in improving the ARNG's interoperability, modernization, 
and overall equipment posture in support of domestic and contingency 
operations. The ARNG's tactical wheeled vehicle and helicopter fleets 
will continue to require a long-term investment of funding over the 
next 10 years to adequately address shortfalls and modernization 
requirements. The ANG also relies heavily on NGREA. Because the Air 
Force's emphasis is on long-term recapitalization NGREA is to vital 
increases modernizing legacy Air Guard aircraft.
    Question. General McKinley, what remaining equipment shortfalls are 
you most concerned about?
    Answer. Through the unprecedented efforts of the Congress and the 
Department of the Army, ARNG is equipped and modernized at levels 
commensurate with the Army's Active component. Interoperability and the 
continued modernization of ARNG equipment are essential to successfully 
provide both domestic support at home and maintain an operational force 
for Federal missions abroad.
    Despite the improvements to equipment-on-hand levels for the ARNG, 
equipment modernization levels for several key systems remain an area 
of concern. The ARNG continues to have critical shortfalls in our 
rotary wing aircraft fleet, high-mobility multipurpose wheeled vehicle 
(HMMWV) recapitalization and general engineering equipment. While the 
Army has made significant improvements to the ARNG rotary wing fleet, 
the ARNG would like to see further improvements made in the 
modernization of the AH-64 and the UH-60 fleets. The ARNG continues to 
pursue equipment modernization through Department of the Army 
procurement and NGREA funding.
    With regards to ANG, other than concerns about reductions in 
overall force structure, the ANG top ten equipment shortfalls are:
  --Large Aircraft Infrared Countermeasures (LAIRCM) for C-130H/J, EC-
        130J, KC-135;
  --A-10 Situational Awareness Data Link Upgrade;
  --C-130/KC-135 Real Time Information in the Cockpit (RTIC) data link 
        and comm;
  --F-16 Situational Awareness Data Link Upgrade;
  --F-15 Radar and Warning Receiver (RWR);
  --HC-130 Navigation and Sensor Upgrade;
  --HH-60 Situational Awareness Data Link Upgrade;
  --Battlefield Airman Combat Equipment;
  --Domestic Disaster Response Equipment; and
  --Advanced Simulators for F-16, C-130, and KC-135.
    Additionally, the ANG is short of aviation support equipment; 
command and control capabilities, including communications; civil 
engineering; logistics and maintenance; medical; security equipment and 
vehicles. These shortages are covered in the Fiscal Year 2012 National 
Guard and Reserve Equipment Report (NGRER).
             army and air guard--reserve component costing
    Question. General McKinley, in its April 2012 report, Avoiding Past 
Drawdown Mistakes to Enhance Future Total Force Capabilities, the 
Reserve Forces Policy Board recommended that the Department determine 
the full costs of an Active and Reserve component member in order to 
maximize deployment ratios to achieve the most cost-effective mix. Is 
the Department working on any such costing framework?
    Answer. The Fiscal Year 2012 National Defense Authorization Act 
(Public Law 112-81) section 1080A required a report on the comparative 
costs of the Active and Reserve components. This report is due back to 
the Congress by the end of the year.
    Question. General McKinley, what metrics should be used to 
recognize the full costs of an Active and Reserve component member?
    Answer. There are many different methods to calculate the full 
costs of an Active and Reserve component member, one of which is to 
identify the peace time burdened cost and the life-cycle cost.
    The peace time burdened cost at the individual level may include 
the costs to man, train, and equip, and provide military members with 
benefits (example: commissaries, family support activities, and 
healthcare costs). Life-cycle costs include costs that span the career 
of a military member from initial entry to the end of survivor 
benefits. This methodology includes the burdened cost and cost elements 
covered by other agencies, including Veterans Affairs' benefits or 
expenses incurred after the completion of military service. Future year 
costs for medical and retirement benefits vary by member, and affect 
the overall costing. For example, ``gray area'' Traditional Drill 
Status Guard members who retire before age 60, also known as ``gray 
area'' retirees, are not eligible for retirement pay or TRICARE 
benefits until they reach age 60.
    Looking at a specific year of execution, one needs to consider the 
member's rank, years of service, duty status, dependent status, and 
career specialty to determine specific pay and entitlements. Certain 
career specialties--such as healthcare, pilots, and others--are 
entitled to special pays and bonuses.
    In addition, for National Guard members, duty status is important, 
as costs vary widely if a member is a Dual Status Military Technician, 
an Active-Guard Reservist, or a pure Drill Status Guardsman. The type 
of duty (Unit Training Assemblies, Annual Training, or Active Duty), 
and the length of time covered by orders directly impacts the costs of 
a Drill Status Guardsman.
    Finally, many Guard members serve on bases that do not have support 
functions regularly provided to Active Duty members, such as child care 
facilities, commissaries, exchanges, housing, and Morale Welfare 
Recreational facilities.
    For programming purposes, the National Guard uses cost models based 
on end strength, participation rates, and several of the factors 
mentioned above to develop future year budgets.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                   national guard civil support teams
    Question. General McKinley, can you tell the subcommittee what the 
cost savings are associated with the proposed reduction of two National 
Guard Weapons of Mass Destruction/Civil Support Teams (WMD-CSTs)? Is 
there any concern with the reduced response capability left available 
to the heavy populated areas of Florida and New York?
    Answer. The estimated savings to Department of Defense (DOD) by 
reducing the number of WMD-CSTs from 57 to 55 is $24 million over the 
Future Year Defense Program (FYDP).
    Regarding concerns about reduced response capability, some initial 
impacts will have to be addressed at the State and local level. 
Possible State concerns include longer in-state response times to 
support an immediate response mission, and a potential reduction in the 
number of State Special Security Events Stand-by missions that a single 
WMD-CST can conduct. The remaining WMD-CST will also have to 
reestablish liaison with local first responders, and habitual 
relationships developed overtime through various liaisons, training 
events, and actual operations will have to be re-established by the 
remaining WMD-CST. Some State-to-State interoperability and mission 
support issues will also have to be addressed, something which has not 
been a concern with two State WMD-CSTs. Also, once National Guard 
Bureau (NGB) implements the unit stand down process, the two designated 
WMD-CSTs will no longer be qualified to conduct operations and all 
equipment will be returned to the Consequence Management Support 
Center.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison
    Question. What organization has directed the National Guard 
Bureau--Counter Drug Program (NG-CDP) to come up with a Threat Based 
Resource Model (TBRM)?
    Answer. NG-CDP established the TBRM in response to these 
recommendations and formal guidance from the Deputy Assistant Secretary 
of Defense for Counter Narcotics and Global Threats (DASD/CN&GT) in the 
Fiscal Year 2012 NG State Drug Interdiction and Counterdrug Activities 
Plan. Specifically the DASD/CN&GT directed that ``. . . the NGB shall 
provide to this office by March 1, 2011, a threat based resourcing 
model for approval to be implemented in fiscal year 2012. This model 
should balance OSD and national priorities, funding and existing 
threats in its recommendations for distributing counterdrug 
resources.''
    Question. Does this organization have a Threat Based Resource Model 
that it uses to justify its activities, as well?
    Answer. The Deputy Assistant Secretary of Defense for Counter 
Narcotics and Global Threats aligns resources based on combatant 
commander requirements which are based on threats. In the same way, the 
TBRM identifies threats then distributes funds accordingly.
    Question. How much of the DOD-Counter Narcotic budget cut did the 
NGB-CD bear?
    Answer. The National Guard Counter Drug Program bore 10.5 percent 
of the overall reductions to the Deputy Assistant Secretary of Defense 
for Counter Narcotics and Global Threats Central Transfer Account in 
fiscal year 2013.
    Question. What is the impact of the Threat Based Resource Model 
(TBRM) on the States that have the historically highest seizure 
amounts, such as the Southwest border States, Florida, and Puerto Rico?
    Answer. Deputy Assistant Secretary of Defense (DASD) guidance 
mandated a plus-up to the ``Big 6'' States from 2002-2010. These six, 
California, Arizona, New Mexico, Texas, Florida, and Puerto Rico, 
collectively received 39 percent of the annual Counterdrug budget, and 
an annual, OSD mandated, 2.8 percent cost-of-living increase, also 
resourced by the Counterdrug budget. Each of the remaining States in 
the Counterdrug program received less than 2 percent of the annual 
budget with no annual cost-of-living increase. In 2011, the DASD 
removed the mandatory plus-up to the Big 6 and instructed the National 
Guard Count Drug Program to implement a threat-based approach to 
funding.
    TBRM maintains 26 percent of funding in support of four States 
(California, Texas, Arizona, and New Mexico). Southwest border States 
garner 25 percent of the TBRM threat (California--10.8 percent, Texas--
8 percent, Arizona--4.95 percent, and New Mexico--1.71 percent). Adding 
the remaining Big 6 States (Florida at 7.75 percent and Puerto Rico at 
0.94 percent) brings the Big 6 total to 34 percent, just 5 percent less 
than the historical average. The Big 6 States' rank overall are 
California #1, Texas #2, Arizona #6, Florida #3, New Mexico #18, and 
Puerto Rico #33.
    Question. If more Counter Drug funding is directed to the NGB, will 
this restore these States to their manning levels of fiscal year 2012? 
Why, why not?
    Answer. Manning levels are dependent on the amount of additional 
funding received. The TBRM will continue to allocate funding to the 
greatest national threats. The NG-CDP must continue to allocate 
increasingly limited resources where they will best contribute to our 
national strategies. The foundation of TBRM funding is to identify 
threats, which drive requirements that are met with resources. The 
techniques, tactics and procedures of transnational criminal 
organizations have transformed since NG-CDP was founded in the 1990s. 
The TBRM process identifies emerging threats then assigns resources as 
necessary.
    Question. Is the original intent of the Joint Counter Drug Task 
Force's mission still being accomplished?
    Answer. Yes. The NG-CDP continues to provide unique military 
resources to Federal, State, and local law enforcement agencies that 
submit valid requests. The TBRM was developed with significant input 
from law enforcement agency partners to ensure NG-CDP support adapts to 
law enforcement requirements.
                                 ______
                                 
     Questions Submitted to Lieutenant General Harry M. Wyatt, III
            Questions Submitted by Chairman Daniel K. Inouye
                   air guard--force structure changes
    Question. General Wyatt, in March, the Air Force announced force 
structure changes and end-strength reductions. The greatest reductions 
were proposed for the Air Guard with a net loss of 5,100 billets in 
fiscal year 2013. Were you consulted during the deliberations over 
these force structure changes, and what input were you asked to 
provide?
    Answer. The National Guard Bureau (NGB) level of participation in 
the selection of force structure changes was to offer advice and 
options to Air Force leadership. Throughout process the Air Force 
generally provided direction to the NGB on how many, which type of 
aircraft and/or unit to offset. The NGB offered recommendations and 
options within the parameters of the decision required.
    In developing options for Air Force consideration during the 
Corporate Process, the NGB followed a set of capstone principles agreed 
to by the Adjutants General. The capstone principles included specific 
boundaries the Adjutants General requested the NGB observe as it 
advocated on behalf of the Air National Guard (ANG). At the conclusion 
of the Corporate Process deliberations, the Secretary and Chief of 
Staff of the Air Force made the final decisions on the size, shape, and 
content of the ANG.
    Question. Where do the negotiations between the Air Force and the 
Council of Governors stand?
    Answer. NGB was tasked to support the Council of Governors with 
programmatic data (Manpower authorizations, flying hour costs/
requirements, and Primary Assigned Aircraft inventories). NGB 
involvement with the Council of Governors was limited to providing 
factual data only, and current status of negotiations between the Air 
Force and the Council of Governors is not known beyond open-source 
reporting.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                   national guard civil support teams
    Question. General Wyatt, could you describe for the subcommittee 
what capability is provided by the Weapons of Mass Destruction/Civil 
Support Teams (WMD-CSTs)? Does the reduction in manpower in the Air 
Guard impact the ability to support these missions?
    Answer. The proposed Air Guard manpower reduction will not impact 
the WMD-CST program. The National Guard WMD-CSTs provide high-priority, 
rapid response, full-time (title 32) National Guard units to civil 
authorities and local incident commanders. Our WMD-CSTs respond to 
actual--or suspected--terrorist WMD event/incidents, intentional, or 
unintentional releases of Chemical, Biological, Radiological, and 
Nuclear (CBRN) materials, or natural or manmade disasters in the United 
States. The WMD-CST enhances Local Incident Commanders emergency 
responder capabilities; do not replace the Incident Command System or 
functions normally performed by the civilian emergency first responder 
community.
    Currently, the National Guard has 57 WMD-CSTs, one in every State, 
one each in the territories of Guam, the Virgin Islands, Puerto Rico, 
one in the District of Columbia, and two each in California, Florida, 
and New York. Every National Guard WMD-CST is certified by the 
Secretary of Defense as ``operationally ready'' for their designated 
mission:
  --support civil authorities at domestic Chemical, Biological, 
        Radiological, Nuclear, and High Yield Explosive (CBRNE) 
        incident sites;
  --identify CBRNE agents/substances, assess current and projected 
        consequences, advise response measures; and
  --assist with State requests for additional support resources.
    Each WMD-CST is equipped with detection and identification 
equipment; a mobile analytical laboratory which can provide the 
complete characterization of chemical, biological, or radiological 
materials, as well as the ability to provide information to the 
Laboratory Response Network and the Centers for Disease Control. In 
addition, a sophisticated communications suite provides the WMD-CST 
with a broad spectrum of secure capabilities, allowing information 
integration between local, State, tribal, and Federal agencies.
    In fiscal year 2011, the Army National Guard (ARNG) WMD-CST units 
conducted 632 immediate response and stand-by missions to include 
response to the American Samoa Tsunami, stand-by operations during the 
Super Bowl in Texas, and operations to protect the homeland following 
the recent Tsunami in Japan. Through the first 8 months of fiscal year 
2012, WMD-CSTs conducted 433 immediate response and stand-by missions: 
numerous white powder and unknown substance missions, support to 
National and State political events, large sporting events, National 
Special Security Events, Special Event Assessment Rating activities, 
the 2011 Asia-Pacific Economic Cooperation meeting in Hawaii, the 2012 
State of the Union Address, and the 2012 NATO Summit.
                         air force restructure
    Question. General Wyatt, the use of assets in title 10 status 
during hurricane relief in the homeland is well documented, but what 
about Air National Guard (ANG) efforts in a title 32 status? Can you 
tell us a little more about the Air Guard's aviation hurricane response 
which was in a title 32 status as compared to the response in a title 
10 status? Would the Air Guard be able to support title 32 missions in 
response to hurricane relief in the Gulf Region with the currently 
proposed Air Force budget submission?
    Answer. ANG has an inherent responsibility to support States and 
territories in their relief efforts during Homeland Defense and Defense 
Support to Civil Authorities (HD/DSCA) events; hurricane support being 
a historically significant piece of these efforts. ANG responses to 
hurricanes can happen under title 10, title 32, or State Active Duty 
(SAD) authorities. Often times, during a major catastrophic event, a 
state of Federal emergency is declared and once that occurs, Combatant 
Commands and Strategic Commands become heavily tasked. Reasons such as 
Active Duty capability gaps, Active Duty task saturation or closer 
proximity and quicker response times of ANG forces to the operating 
area deem it necessary for these commands to task ANG wings, units, or 
squadrons under title 10 authority. This usually occurs while ANG 
assets are already employed and responding to the affected states under 
title 32 and SAD. Regardless of the authority, it is important to 
realize that they are ANG assets being utilized to fill gaps, meet 
requirements and support demands.
    Air National Guard C-130s alone flew more than 2,500 domestic 
missions for hurricane relief during a span of 7 years that included 
Hurricanes Katrina, Rita, Wilma, Ike, and Gustav. The 136th Airlift 
Wing, a Wing in Texas and slated to move to Montana under the fiscal 
year 2013 budget submission, flew 400 of those missions. The Air 
National Guard has and will continue to provide support during 
hurricanes regardless of the situation. Through the development of the 
Emergency Management Assistance Compact (EMAC), States impacted by 
hurricanes can quickly and efficiently call upon Air National Guard 
resources from their neighboring States and across the country. While 
EMAC guarantees the Air National Guard will always be there, speed is 
critical to domestic response. Federal Emergency Management Agency 
Director Fugate emphasized this during a speech to the National 
Governors Association. It is his opinion that aviation assets must be 
organic to the National Guard, and that other options may not provide 
the same speed and capacity.
                         air operations groups
    Question. General Wyatt, seven additional Air Operations Groups 
were activated post-Base Realignment and Closure (BRAC) 2005 when the 
Chief of Staff of the Air Force Total Force Integration Phase IV memo 
recognized a need for additional augmentation units. Is there no longer 
a need for these units? If not, what has changed?
    Answer. The Air National Guard (ANG) is a force provider whose 
mission is to provide the best trained and equipped forces possible to 
cover Air Force directed mission requirements. Any specifics on Air 
Operation Center (AOC) augmentation requirements need to be directed to 
Headquarters Air Force (HAF).
    Although the ANG will retain fewer AOC augmentation units, the ANG 
has retained the necessary capacity to ensure that the Air Guard can 
fulfill surge requirements, and sustain and/or augment essential 
command and control structures. Manpower reductions will drive changes 
to the way our forces are trained and postured. The luxury to align 
individual AOC units to specific Geographic Air Operation Centers will 
no longer be viable. The ANG envisions a scenario in the near future 
where our AOC augmentation units will be primarily aligned to one AOC, 
while being secondarily aligned to an additional AOC. While this will 
drive significant training challenges, the ANG stands ready to face 
future requirements and provide the best trained command and control 
forces in the Air Force.
                      601st air operations center
    Question. General Wyatt, how does the Air Force specifically plan 
to augment the 601st Air Operations Center and others without degrading 
the mission following proposed unit closures?
    Answer. ANG is a force provider whose mission is to provide the 
best trained and equipped forces possible to cover Air Force directed 
mission requirements. Any specifics on AOC augmentation requirements 
need to be directed to HAF.
    Critical missions exist throughout the Air Force and on-going 
missions, such as the one accomplished by the 601st, are always at the 
forefront of manning and augmentation decisions. During recent crises, 
a wide variety of talented individuals have augmented the 601st 
missions, and these individuals are drawn from across the spectrum of 
the Air Guard's Air Operation Groups (AOG). During the crisis in the 
Gulf of Mexico following the Deep Water Horizon oil rig explosion, the 
601st had volunteers from several different Guard Units, to include the 
152nd, 183rd, and 157th AOGs, manning critical positions. Specifically, 
the 101st AOG is the title 32 unit of the 601st and stands ready to 
address any crisis; no manpower reductions were proposed to the 101st 
AOG. Additionally, the ANG will have six fully qualified AOC 
augmentation units that are fully capable of augmenting the 601st AOC 
and any other geographic AOC.
    Although the ANG will retain fewer AOC augmentation units, the ANG 
has retained the necessary capacity to ensure that the Air Guard can 
fulfill surge requirements, and sustain and/or augment essential 
command and control structures. Manpower reductions will drive changes 
to the way our forces are trained and postured. The luxury to align 
individual AOC units to specific Geographic Air Operation Centers will 
no longer be viable. The ANG envisions a scenario in the near future 
where our AOC augmentation units will be primarily aligned to one AOC, 
while being secondarily aligned to an additional AOC. While this will 
drive significant training challenges, the ANG stands ready to face 
future requirements and provide the best trained command and control 
forces in the Air Force.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison
    Question. I understand there are certain platforms that must be 
retired, aside from those exceptions, is the House language putting a 
1-year hold on the United States Air Force (USAF) plans for the Air 
National Guard (ANG) helpful?
    Answer. Delaying the USAF's fiscal year 2013 budget plans for the 
ANG would potentially afford all parties additional time to conduct 
further analysis, consider Council of Governors proposals, and review 
recent feedback from the Congress in greater detail. Without question, 
it is imperative that the USAF and ANG continue working together to 
ensure we make the most effective use of every U.S. tax dollar spent, 
especially given the Department of Defense's current fiscal 
environment.
    However, freezing any pre-fiscal year 2013 budget actions that 
require fiscal year 2013 funds to complete would have a negative impact 
to the USAF and ANG missions. The C-5 to C-17 conversion in Memphis, 
Tennessee and the F-15 transfer from Great Falls, Montana to Fresno, 
California are a few examples of such actions. If the Congress were to 
put a 1-year hold on the USAF's fiscal year 2013 budget plans for the 
ANG, the appropriation of fiscal year 2013 funds for previously 
approved pre-fiscal year 2013 actions would be essential to the ANG's 
combat readiness.
    Question. There was a C-130 Hurricane Season Exercise in Corpus 
Christi, Texas. Because hurricane season begins next month and Texas' 
C-130s are an integral part of the Gulf States' hurricane response, the 
Texas Guard is training to evacuate citizens to safety if need be. As 
you know those aircraft in the Texas Air Guard is so vital to the gulf 
coast region during natural disasters. If those Texas aircraft are not 
replaced, could title X aircraft have the same effect? In other words, 
could gulf coast regional governors call upon title X aircraft prior to 
a disaster at anytime and what is the criteria for those aircraft to be 
called up?
    Answer. The ANG is a sourcing option/solution to any title 10 
operation through United States Transportation Command (USTRANSCOM). 
For title 10 aircraft to be utilized, a Presidential Emergency Disaster 
must be declared. Without this declaration, title 10 status will not be 
granted and no military airlift will be used. If a State or regional 
request for Federal emergency assistance prior to or after a disaster 
is granted, USTRANSCOM would source title 10 status airlift through 
Active, Reserve, and Guard channels.
                                 ______
                                 
    Questions Submitted to Lieutenant General William E. Ingram, Jr.
            Questions Submitted by Chairman Daniel K. Inouye
                        army guard suicide rates
    Question. General Ingram, 98 Army National Guard (ARNG) soldiers 
took their own lives in 2011. How is the Army Guard responding to this 
disturbing trend and addressing the mental health of soldiers beginning 
with recruitment and continuing throughout their entire service in the 
Guard?
    Answer. Suicide prevention, regardless of component, is a daunting 
challenge for leadership. For geographically dispersed ARNG forces, 
this is even more challenging. Unlike our Active component 
counterparts, traditional, part-time Guard unit leaders do not get the 
chance to interact with their soldiers on a daily basis. In calendar 
year 2011, the ARNG experienced 99 suicides. That number translates to 
14 fewer ARNG suicides than reported in calendar year 2010. 
Statistically, 47 percent of the ARNG suicide victims had never 
deployed, while 27 percent had deployed and committed suicide at least 
1 year after their deployment. In order to stem this disturbing trend 
and address the mental health of our soldiers throughout their entire 
service in the ARNG has a number of training and prevention programs.
    Suicide prevention is achieved by building resilient soldiers and 
families with well developed coping skills, providing a strong support 
network and accessible resources, supporting a process for post-
traumatic growth, and providing support through other times of crisis. 
The foundation of the ARNG suicide prevention program is the ARNG 
Resilience, Risk Reduction and Suicide Prevention (R3SP) Task Force and 
the State Councils. The R3SP Campaign Plan redefines suicide prevention 
as an integrated part of a broader based resilience and risk-reduction 
framework, and guides State efforts to promote resilience, develop and 
enhance leader abilities to recognize and mitigate high stress and at-
risk factors, and facilitate the long-term reduction in ARNG at-risk 
behaviors and suicidal actions.
    In support of the Chief of Staff of the Army's goal to have a 
Master Resilience Trainer (MRT) trained NCO in each line battalion, and 
an NCO and officer on each Brigade Combat Team staff, the ARNG 
established an MRT Training Center at Fort McCoy, Wisconsin in 2011. 
There, MRTs are taught proven resilience skills that they in turn 
provide to the Soldiers in their teams, squads, and platoons. These 
skills enhance both the individual and collective performance of a 
unit, and support increased resiliency. To date, the ARNG has trained 
1,372 MRTs.
    In addition, each State and Territory has a Director of 
Psychological Health to provide behavioral health support for Soldiers 
in crisis, develop the ARNG Leader's Guide on Soldier Resilience, and 
promote peer-to-peer programs in each State.
    The ARNG Recruit Sustainment Program (RSP) provides new soldiers 
with the skills required to successfully complete Basic Combat Training 
and return to their units fit, trained, and ready to deploy. The ARNG 
RSP resilience initiative compliments the current RSP curriculum and 
fosters a balanced, healthy, mentally tough, and self-confident soldier 
ready to succeed during initial entry training. Introducing resilience 
skills early in their training exposes new soldiers to the philosophy 
of how to ``bend, not break'' for the rest of their military careers.
    In fiscal year 2011, the ARNG also trained 387 trainers in the 
Applied Suicide Intervention Skills Training (ASIST) program and funded 
an additional 150 for fiscal year 2012. These trainers will train 
approximately 35,000 gatekeepers in advanced intervention skills. Other 
mitigation programs include Senior Review Group video teleconferences 
with State Adjutants General, sessions that allow the ARNG to work 
hand-in-hand with the States to develop best practices and participates 
in a review of each suicide and the lessons learned.
    Question. General Ingram, is the Army Guard properly training 
recruiters to evaluate not only the physical but also the mental 
fitness of new recruits?
    Answer. The Army National Guard Recruiting and Retention Non-
Commissioned Officers receive training to identify triggers or 
potential issues for both physical and medical conditions. Recruiters 
rely on answers to moral and security suitability questions as a 
required part of the application process; however, ARNG Recruiters are 
not licensed to evaluate the mental fitness of a potential applicant. 
Only licensed, Department of Defense-approved medical professionals 
evaluate physical and mental fitness, as part of the overall enlistment 
physical conducted prior to accession at a local Military Entrance 
Processing Stations.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl
    Question. The Army Board for Correction of Military Records has 
since corrected the soldiers' records to include the Post-Deployment/
Mobilization Respite Absence (PDMRA) leave. The problem is that these 
soldiers are only allowed to use this leave after another deployment. 
If a soldier does not deploy again, they cannot access the paid leave 
that they have already earned.
    General Ingram, are you aware of this problem?
    Answer. Yes, I am aware of this problem.
    Question. Do you believe that soldiers who earn paid leave through 
the PDMRA program should be allowed to use this benefit?
    Answer. Yes. The Army National Guard wants every soldier to receive 
all the benefits to which they are legally entitled.
    Question. The House and Senate recently passed legislation (H.R. 
4045) authorizing payments of $200 for each day of PDMRA that 
servicemembers were not allowed to use because the rules were changed 
during their deployment. Previously, the Congress authorized similar 
payments for soldiers who came home from deployments after the PDMRA 
program had been announced, but before it was actually up and running, 
in section 604 of the National Defense Authorization Act for fiscal 
year 2010.
    Do you believe those payments that have already been authorized by 
the Congress were an appropriate way to handle cases where a soldier 
was unable to use the paid leave they earned through the PDMRA program?
    Answer. Yes. PDMRA program applies to all Army soldiers. Reserve 
component soldiers were most impacted by changes in the program, as 
individuals not on Active Duty are prevented from taking the extra 
leave days granted. Therefore, the cash payout provision was the only 
way to compensate this population. The Army National Guard published 
implementing guidance for all States and Territories to execute cash 
payments to soldiers denied PDMRA benefits due to the delay of 
implementing guidance for the program. As part of the coordinated plan 
to execute restitution under PDMRA, States/Territories developed an 
Action Plan.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
                   national guard civil support teams
    Question. General Ingram, could you describe for the subcommittee 
what capability is provided by the Weapons of Mass Destruction/Civil 
Support Teams (WMD-CSTs)? Does the reduction in manpower in the Air 
Guard impact the ability to support these missions?
    Answer. The proposed Air Guard manpower reduction will not impact 
the WMD-CST program. The National Guard Weapons of Mass Destruction/
Civil Support Teams provide high-priority, rapid response, full-time 
(title 32) National Guard units to civil authorities and local incident 
commanders. Our WMD-CSTs respond to actual--or suspected--terrorist WMD 
event/incidents, intentional or unintentional releases of Chemical, 
Biological, Radiological, and Nuclear (CBRN) materials, or natural or 
manmade disasters in the United States. The WMD-CST enhances Local 
Incident Commanders emergency responder capabilities; do not replace 
the Incident Command System or functions normally performed by the 
civilian emergency first responder community.
    Currently, the National Guard has 57 WMD-CSTs, one in every State, 
one each in the Territories of Guam, the Virgin Islands, Puerto Rico, 
one in the District of Columbia, and two each in California, Florida, 
and New York. Every National Guard WMD-CST is certified by the 
Secretary of Defense as ``operationally ready'' for their designated 
mission:
  --support civil authorities at domestic Chemical, Biological, 
        Radiological, Nuclear, and High Yield Explosive (CBRNE) 
        incident sites;
  --identify CBRNE agents/substances;
  --assess current and projected consequences;
  --advise response measures; and
  --assist with State requests for additional support resources.
    Each WMD-CST is equipped with detection and identification 
equipment; a mobile analytical laboratory which can provide the 
complete characterization of chemical, biological, or radiological 
materials, as well as the ability to provide information to the 
Laboratory Response Network and the Centers for Disease Control and 
Prevention. In addition, a sophisticated communications suite provides 
the WMD-CST with a broad spectrum of secure capabilities, allowing 
information integration between local, State, tribal, and Federal 
agencies.
    In fiscal year 2011, ARNG WMD-CST units conducted 632 immediate 
response and stand-by missions to include response to the American 
Samoa Tsunami, stand-by operations during the Super Bowl in Texas, and 
operations to protect the homeland following the recent tsunami in 
Japan. Through the first 8 months of fiscal year 2012, WMD-CSTs 
conducted 433 immediate response and stand-by missions: numerous white 
powder and unknown substance missions, support to National and State 
political events, large sporting events, National Special Security 
Events, Special Event Assessment Rating activities, the 2011 Asia-
Pacific Economic Cooperation meeting in Hawaii, the 2012 State of the 
Union Address, and the 2012 NATO Summit.
                                 ______
                                 
           Question Submitted by Senator Kay Bailey Hutchison
    Question. As part of this year's budget, the Army has submitted a 
request for approval to enter into a second multiyear procurement 
contract for the CH-47 Chinook helicopter. This multiyear contract 
would last for 5 years and produce 155 aircraft. Many of these would be 
assigned to the Army Guard, including 12 aircraft to be located at 
Grand Prairie, Texas. We've already had experience with a 5-year, 
multiyear contract for Chinooks; the first one expires this year. Given 
this experience, what do you see as the biggest benefits for the Army, 
the taxpayer, and especially the Army Guard, that would come from a 
second multiyear contract?
    Answer. Multiyear contracts (MYCs) provide cost savings because 
they stabilize contractors and subcontractors over a longer period of 
time. The cost savings from the CH-47 MYC is expected to be about 10 
percent or $373 million. This cost savings means more aircraft will be 
produced and made available to the Army and Army National Guard if 
funding is constant. Additionally, MYCs ensure consistent production. 
Thus, the Army and Army National Guard will receive aircraft faster 
because there are fewer production breaks due to time spent negotiating 
new contracts. All these factors help solidify fielding plans for the 5 
years associated with the CH-47 MYC.

                                Reserves

    Chairman Inouye. And, now, the subcommittee asks General 
Stultz, Admiral Debbink, General Hummer, and General Stenner to 
come forward and present their testimony.
    Gentlemen, I thank you for joining us this morning. And may 
I advise you that your full statements will be made part of the 
record. And so, we shall start with Admiral Debbink.
STATEMENT OF VICE ADMIRAL DIRK J. DEBBINK, CHIEF, NAVY 
            RESERVE, UNITED STATES NAVY
    Admiral Debbink. Chairman Inouye, Vice Chairman Cochran, 
thank you for the privilege to speak with you again this 
morning about the capabilities, the capacities and the 
readiness of our now 63,988 dedicated men and women who are 
serving in our Navy Reserve today.
    In the decade since 9/11, the Navy Reserve has performed 
nearly 64,000 year-long mobilizations to Active Duty, truly on 
the front lines of freedom. The Navy Reserve sailors exemplify 
our Navy core values of honor, courage, and commitment.
    As our motto and our sailors both proudly claim, we are 
ready now, anytime, anywhere.
    In his Sailing Directions, the Chief of Naval Operations 
(CNO) Admiral Greenert, established three tenets for the Navy: 
Warfighting First, Operate Forward, and Be Ready.
    Today's Navy Reserve is fully aligned with the CNO's 
Sailing Directions, and our sailors are eager to do their part 
to ensure the Navy remains the world's premier maritime 
service.
    Reserve sailors provide both full- and part-time 
operational capabilities and, importantly, also provide 
strategic depth for maritime missions to ensure the Navy is 
always ready to respond globally to crisis situations while 
maintaining fiscal efficiency across our whole spectrum of 
operations.
    Thanks to the work of this Congress in the National Defense 
Authorization Act for fiscal year 2012, Service Secretaries now 
have assured access to Reserve component units. This will allow 
the Navy to confidently assign missions to the Navy Reserve 
from peace to war.
    While we'll first have the opportunity to budget for such 
use of assured access in fiscal year 2014, I wanted you all to 
know how important your efforts were to our future force while 
I had the opportunity to do so.
    I'm also appreciative of your support for the purchase of 
our 14th C-40A this year for our Navy Unique Fleet Essential 
Airlift (NUFEA). Congressional support for our Navy Reserve C-
40A program is enabling our critical intra-theater lift 
capability today to be more cost effective and flexible and 
thus more operationally relevant well into the future.
    Our fiscal year 2013 budget request will enable the Navy 
Reserve to continue supporting current operations while 
maximizing the strategic value of the Navy Reserve, a force 
valued for its readiness, innovation, agility, and 
accessibility.
    The true prize for our sailors and the Navy alike will be 
the real and meaningful work as part of America's Navy: A 
Global Force for Good.
    And, as an example of this work, the Navy Reserve has once 
again assumed 100 percent of the Navy's Individual Augmentee 
commitment to the overseas contingency operations (OCO) for 
fiscal year 2013 and beyond.
    I believe the Reserve components, all of us in the National 
Guard, must be asked and even required to do those missions we 
are able to do so that the Active component can focus on the 
missions that they must do for our national security.

                           PREPARED STATEMENT

    As you know, this is my fourth and final year appearing 
before your subcommittee. I'm proud of the accomplishments of 
our sailors and the Navy Reserve and the Navy, and I'm truly 
thankful for the support of this Congress in providing our 
quest to become a true, Total Force.
    On behalf of our sailors and their families and civilians 
of our Navy Reserve, thank you for your continued support and 
your commitment to our Navy Reserve.
    [The statement follows:]
           Prepared Statement of Vice Admiral Dirk J. Debbink
                              introduction
    Chairman Inouye, Senator Cochran, and distinguished members of the 
Defense Subcommittee of the Senate Appropriations Committee: thank you 
for the opportunity to speak with you today about the capabilities, 
capacity, and readiness of the 63,988 dedicated men and women who serve 
in our Navy's Reserve component (RC). I offer my heartfelt thanks for 
all of the support you have provided these great sailors.
    The U.S. Navy is globally deployed, persistently forward, and 
actively engaged. America's Navy, year after year, in peace and war, 
carries out the core capabilities of forward presence, deterrence, sea 
control, power projection, maritime security, and humanitarian 
assistance and disaster response. Defense strategy establishes naval 
power as an enduring concept, and Navy leadership recognizes the Force 
must constantly evolve and innovate to face emerging and future 
challenges. These two concepts inform our efforts as we review where we 
have been and consider our future.
    The Navy is critical to our national security and this Nation's 
economic prosperity. With a global economy and global responsibilities, 
the United States of America is and must remain a maritime Nation. Some 
facts will not change:
  --70 percent of the globe is covered by water;
  --80 percent of the world's population lives on or near the coast; 
        and
  --90 percent of our commerce travels via the oceans.
    The Navy will continue protecting the interconnected systems of 
trade, information, and security that underpin American prosperity and 
global stability. We will continue to be at the front line of our 
Nation's efforts in war and peace with a proud heritage of success in 
battle on, above, and below the sea.
    This Nation's Navy derives its strength from the Active and Reserve 
sailors and Navy civilians who comprise our Total Force. We operate as 
America's Navy, a Global Force for Good, one Navy force with an Active 
component (AC) and Reserve component seamlessly integrated in pursuit 
of the most effective and efficient way to deliver naval capabilities 
to deter foreign aggression and, if deterrence fails, win our Nation's 
wars.
    A capable Navy Reserve is an operational and warfighting necessity. 
As stated in the 2010 Quadrennial Defense Review (QDR) Report, 
``prevailing in today's wars requires a Reserve component that can 
serve in an operational capacity--available, trained, and equipped for 
predictable routine deployment. Preventing and deterring conflict will 
likely necessitate the continued use of some elements of the RC--
especially those that possess high-demand skill sets--in an operational 
capacity well into the future.'' The Navy--Active and Reserve--will 
work together to ensure the right capabilities are available to the 
Nation at the best value to the taxpayer.
                            first principles
    In his CNO's Sailing Directions, the new CNO, Admiral Jonathan 
Greenert, established these first principles for the Navy:
    Warfighting First.--Be ready to fight and win today, while building 
    the ability to win tomorrow.
    Operate Forward.--Provide offshore options to deter, influence, and 
    win in an era of uncertainty.
    Be Ready.--Harness the teamwork, talent, and imagination of our 
    diverse force to be ready to fight and responsibly employ our 
    resources.
    Today's Navy Reserve is fully aligned with the CNO's Sailing 
Directions, and we are ready to accept new missions as necessary. The 
Navy is organized, trained, and equipped to deter, fight, and 
decisively win wars; the Navy Reserve is eager to do our duty to ensure 
our Navy remains the world's preeminent maritime force.
    Navy missions are executed by the AC, the RC, or a combination of 
both. As the CNO stated, ``capabilities and missions can be assigned to 
the Navy Reserve with confidence because the Navy Reserve is ready, 
innovative, and agile and is fully aligned with Navy mission 
requirements.'' Depending on the mission, the Navy RC can mirror or 
complement the AC. We mirror the AC and provide additional rotational 
forces for those missions where it makes operational and fiscal sense. 
We complement the AC by providing unique capabilities in other areas, 
such as in the Intra-Theater Fleet Logistics Support, Naval Cooperation 
and Guidance for Shipping, and Navy Special Warfare Helicopter Support 
missions. The correct AC/RC force allocation varies with each of Navy's 
wide variety of missions and required capabilities. As new missions 
emerge and current missions evolve, AC/RC mix solutions are carefully 
and continually examined. RC sailors provide full- and part-time 
operational capabilities, and strategic depth, for maritime missions to 
ensure the Navy is always ready to respond globally to crisis 
situations while maintaining fiscal efficiency across the spectrum of 
operations. These broad missions are not mutually exclusive; the Navy 
Reserve can operate anywhere across the full spectrum of operations. 
Thanks to the work of this Congress in the National Defense 
Authorization Act for fiscal year 2012, Service Secretaries have 
assured access to RC units which allow the Navy to confidently assign 
missions to the Navy Reserve anytime from peace to war.
    While Reserve support for ongoing operations is vital to the Navy's 
success, about two-thirds of the Reserve Force performs an equally 
important role--building and maintaining our capacity through its part-
time service. Capacity held in the RC provides our Nation a wide range 
of options at an affordable cost. Risk is no longer an all-or-nothing 
proposition. Rather than completely abandoning a capability, the part-
time service of our sailors preserves capabilities at a lower cost in 
exchange for a calculated level of risk. The value of these sailors is 
a function of readiness, accessibility, and capacity. It is not enough 
for our sailors to be trained; we must be able to deliver the right 
amount of required naval warfighting capabilities when and where needed 
by the combatant commanders, including the option to restore or revert 
them to full-time status if and when needed. This ``reversibility''--
the ability to regenerate capabilities that might be needed to meet 
future demands (maintaining intellectual capital and rank structure 
that could be called upon to expand elements of the force)--is a key 
part of Department of Defense (DOD) decision calculus.
    The Navy Reserve is, as our motto states, ``Ready Now, Anytime, 
Anywhere.'' We have made great strides in improving the planning and 
notification process for sailors selected to mobilize in support of 
Navy or Joint requirements. Every year, our Ready Mobilization Pool 
(RMP) is published to identify sailors and units with the potential to 
mobilize. This allows commanders to focus our resources on the 
readiness levels of the right sailors and units. Those RC sailors not 
on the list can be fairly confident that they will not mobilize in the 
next 12-18 months. Our Volunteer Portal helps identify those sailors 
who desire to be mobilized, and to match qualified volunteers with 
validated mobilization requirements. Feedback from the Force has been 
very positive regarding both the RMP and the Volunteer Portal.
    Longer notification time directly translates into readiness. Our 
Navy families can plan for impending mobilizations, and our sailors can 
prepare themselves medically, physically, and administratively. It also 
allows employers more time to prepare for the absence of mobilized 
employees and eases tension in the workplace.
    Through improvements to our procedures, policies, and systems, we 
have reduced the time it takes for a RC sailor to transition to Active 
Duty from weeks to days. Longer lead time plus shorter processing time 
results in ready sailors, ready families, supportive employers, and 
capability quickly delivered.
                                sailors
    The mission of the Navy Reserve is to provide strategic depth and 
deliver operational capabilities to our Navy and Marine Corps team and 
Joint forces, from peace to war. Our Navy Reserve is relevant and 
capable today because we have invested in our people and our equipment, 
we have assigned them real and meaningful work, and we have honored the 
support of our families and our employers.
    The success of the Navy Reserve Force is due first and foremost to 
the professionalism of the sailors who volunteer to serve in a wide 
array of environments. The Navy Reserve is a healthy force, manned with 
sailors of diverse backgrounds that are dedicated to providing for the 
defense of the Nation's citizens and the global good. As a workforce, 
we are becoming leaner and more versatile, utilizing new technologies 
adapted to the Defense environment. The success of the Force is due to 
the dedication, sacrifices, and service of our sailors, and the support 
they receive from their families and employers, and I believe Navy 
policies reflect that same level of commitment from Department 
leadership to our sailors.
    Navy Reserve leadership continually reviews policies and laws, 
ensuring our sailors are afforded the greatest opportunity to 
participate in Navy's Total Force while also ensuring each sailor's 
family and employer are appropriately recognized for their sacrifices 
on behalf of the servicemember. The fiscal year 2013 budget request of 
$1.938 billion (including overseas contingency operations (OCO) 
funding) for Reserve personnel, Navy will continue to support the 
manpower needs and policies of the Navy Reserve. I thank you for your 
support of our many programs, several of which will be described in 
this testimony.
    In the decade since 9/11, the Navy Reserve has performed nearly 
64,000 mobilizations to Active Duty. Today, more than 3,000 Reserve 
sailors are forward, combating terrorism around the globe--truly on the 
front lines of freedom. Mobilized Navy Reserve Hospital Corpsmen are 
embedded with ground units in Afghanistan with their Marine platoons. 
Reserve Seabees are building critical infrastructure to stabilize 
Afghanistan's fragile but determined democracy, as well as 
participating in Southern Partnership Station activities in South 
America. And many sailors are Individual Augmentees (IAs) bringing 
their expertise to Army, Joint, and Combined commands. These IAs are 
performing intelligence, information technology, logistics, and other 
specialized missions.
    Our mobilized sailors are not only talented, they are motivated. 
When I visit our deployed and returning sailors, they state that while 
the work is hard and separation from family is challenging, they are 
proud to serve and the capabilities they bring are essential. We cannot 
thank them enough for their honorable and faithful service.
    I am particularly humbled by the fact that every Navy Reserve 
sailor serving today has enlisted, reenlisted, or reaffirmed their oath 
of office in the decade since 9/11. They make this commitment knowing 
mobilization is not only possible but probable. Our Navy Reserve 
sailors exemplify our Navy core values of Honor, Courage, and 
Commitment.
    One of the Navy Reserve's strategic focus areas is to enable the 
Continuum of Service (CoS). CoS is not a program but a concept that 
will enable us to increase the return on investment in our people, and 
give our sailors more opportunities for a lifetime of Service. CoS is a 
transformational approach to personnel management that provides 
opportunities for seamless transition across service status categories 
to meet mission requirements and encourage a lifetime of service. 
Enabling the CoS philosophy by fully incorporating opportunities unique 
to the Reserve, we recruit sailors once and retain them for life 
through variable and flexible service options that provide a career 
continuum of meaningful and valued work.
    There were many important accomplishments associated with our CoS 
efforts in fiscal year 2011. Our Continuum of Service Working Group 
(CoSWG) is fully engaged, with representation by all key stakeholders 
of Navy uniformed personnel. The purpose of the CoSWG is to provide 
policy, managerial, and technical advice to the Chief of Navy Personnel 
(CNP) and the Chief of Navy Reserve (CNR) on all matters related to the 
development and implementation of a true Continuum of Service for the 
Navy. The CoSWG Charter was signed by CNP and CNR in February 2011. The 
CoSWG meets via teleconference every 2 weeks to facilitate the exchange 
and leveraging of information, ideas, expertise, and capabilities; 
share technological solutions and jointly participate in CoS planning 
efforts. The CoSWG engages DOD and the other Services to socialize 
initiatives and to achieve support and leverage for programs needing 
joint concurrence and legislative changes in order to implement.
    The Career Transition Office (CTO) in the Navy Personnel Command 
continues to be one of the most exciting developments for CoS. The goal 
of the CTO is to counsel sailors before they leave Active Duty and help 
them to take advantage of the opportunities in the Navy Reserve. By 
engaging with our fully qualified, world-wide assignable personnel 
before leaving Active Duty, this becomes a retention transaction that 
complements Navy recruiting efforts. In September 2011, the CTO 
completed Spiral 3, a pilot program that developed and tested 
Indefinite Recall processes and procedures for sailors to transition 
from RC to AC. The CTO transitioned five sailors from RC to AC during 
the pilot, thoroughly validating the process.
    To transition sailors from RC to AC, we have developed policy that 
will allow temporary Active Duty recalls for enlisted Reserve sailors, 
increasing their opportunities to serve and allowing AC greater access 
to RC capabilities and resources. An effective enlisted recall policy 
will increase Navy Reserve operational mission support and enhance 
overall manpower utilization. It will also provide our Reserve sailors 
with meaningful work as they take on challenging operational AC 
assignments in support of the Navy Total Force.
    To provide our Reserve sailors with more efficient workforce 
support tools, Navy Reserve became the first of all the Reserve and 
Guard components to integrate the Defense Travel System (DTS) with the 
Reserve Order Writing System. This system integration shortens time to 
book and modify travel when Reserve sailors request orders to perform 
Active Duty. The integration accelerates processing and payment of 
travel claims (5-6 days vs. 30-45 days), reduces the number of orders 
and claims manually processed by Personnel Support Detachments and 
NOSCs by up to 120,000 annually (thereby eliminating backlogs), 
improves Government Travel Credit Card repayment rates reducing bad 
debt and the need for related disciplinary action.
    The new Variable Participation Unit (VPU) allows sailors in key 
specialties to perform fewer drills than traditional Reserve sailors 
while remaining engaged with the Navy and available for duty. This 
gives the Navy access to individuals whose circumstances wouldn't allow 
them to serve otherwise.
    Building on our CoS efforts is one of our enduring priorities. We 
are currently engaged in a project to develop and introduce Fleet 
Rating Identification Engine (Fleet RIDE), a Web-based program that 
electronically pairs a sailor's career interests and qualifications 
with the needs and requirements of the Navy, into the Selected Reserve 
(SELRES) to support the CoS for the Navy by providing RC sailors with 
the same career counseling capability that is available to their AC 
shipmates. Fleet RIDE will provide SELRES sailors with comprehensive 
rating information as well as both RC and AC career opportunities based 
on the Navy demand signal balanced with the sailors interest and 
aptitude. This integrated information will help sailors make better 
informed career decisions regarding rating conversions and RC to AC 
lane change options. Fleet RIDE will optimize Force Fit by improving 
rating manning and will enhance individual sailors' career progression 
by streamlining RC to RC rating conversion processes and facilitating 
timely RC to AC transition requests and approvals.
    The Navy Reserve has strengthened all phases of the deployment 
cycle to take the best possible care of sailors and their families. 
Deployment Readiness Training, Command Individual Augmentee Coordinator 
Program, Returning Warrior Workshops, the Psychological Health Outreach 
Program, and the Navy's Family Readiness programs, all minimize risk to 
Navy missions assigned to Navy Reserve sailors. These programs reassure 
servicemembers that their families will be cared for while they are 
away. Through advance preparation they also allow servicemembers to 
focus on the mission while deployed, and then assist with reintegration 
after deployment.
    The Navy Reserve is committed to providing world-class care for our 
sailors; especially, for those wounded in support of OCO. We continue 
to provide exceptional service to sailors assigned to Navy's Medical 
Hold (MEDHOLD) units. These units provide necessary medical case 
management and administrative support to Navy's RC wounded, ill, and 
injured (WII) population. Also in support of WII sailors, the Navy Safe 
Harbor program is Navy's lead organization for coordinating nonmedical 
care for seriously WII sailors and Coast Guardsmen and their families. 
Safe Harbor provides individually tailored assistance designed to 
optimize the successful recovery, rehabilitation, and reintegration of 
our shipmates.
    All sailors returning from overseas mobilizations are encouraged to 
attend a Returning Warrior Workshop (RWW), Navy's ``signature event'' 
within the DOD's Yellow Ribbon Reintegration Program (YRRP), supported 
by the Bureau of Navy Medicine and Surgery (BUMED) as part of 
psychological health services for RC sailors. The RWW is a dedicated 
weekend designed to facilitate reintegration of sailors returning from 
combat zones with their designated representatives. Staged at a high-
quality location at no cost to the participants, the RWW employs 
trained facilitators to lead Warriors and their families/guests through 
a series of presentations and tailored break-out group discussions to 
address postcombat stress and the challenges of transitioning back to 
civilian life. Defining resilience as more than just simply returning 
to former levels of functioning, these events help servicemembers 
recognize what is called ``post-traumatic growth''--positive changes 
made as a result of going through the deployment experience. A total of 
87 RWWs have been held to date, attended by 5,937 military personnel 
(including members of other Services) and 4,758 guests, with 12 
additional events scheduled in fiscal year 2012. Pioneered by the Navy 
Reserve, these workshops are available for all Navy Individual 
Augmentees, AC and RC. RWWs are a true success story in honoring our 
sailors and their families. It is important to ensure this program 
continues to have both the full support of Navy leadership and the 
widest possible participation by all returning sailors.
    RWWs serve as a key venue for utilization of the BUMED Navy Reserve 
Psychological Health Outreach Program (PHOP). The PHOP employs 
dedicated teams of mental health professionals to provide psychological 
health assessments, outreach, and education, including Operational 
Stress Control and Suicide Prevention training for the Navy and Marine 
Corps Reserve Communities. Regularly scheduled encounters are held at 
Deployment Readiness Training (DRT) events to screen servicemembers 
prior to and after deployment. The program is designed to identify 
potential stress disorders, facilitate early intervention, and provide 
access to psychological health support resources. The availability, 
quality, and effectiveness of psychological services utilized by Navy/
Marine Corps Reserve sailors and marines and their families are closely 
monitored. In fiscal year 2011, the Navy Reserve deployed a user-
friendly Webpage providing both sailors and their family members an 
easy-to-access database of PHOP points of contact.
    During fiscal year 2011, 714 RC sailors were referred for PHOP 
services; 668 of these sailors became ongoing clients. The PHOP teams 
also attempted calling 3,815 recently demobilized Reserve sailors. Of 
these 2,173 were successfully contacted and given the support they 
needed. PHOP team members also made 193 visits to NOSCs and 129 visits 
to NMPS sites in Norfolk, Virginia and San Diego, California, where 
they received referrals and conducted mental health screenings. They 
also provided briefings to 30,246 Navy Reserve sailors, unit staff/
leadership and family members during DRT events.
    PHOP continually reviews the delivery mechanism for their audience 
to increase exposure to the program. The Northwest Region PHOP team is 
participating in a pilot project supporting case management for our 
wounded warriors. If effective, the project will expand to all Navy 
Regions.
    Navy continues sexual assault prevention programs while providing 
compassionate support for victims. A cornerstone of this program is the 
clear and consistent message from leadership at all levels that sexual 
assault will not be tolerated in the United States Navy--and I thank 
you for your emphasis on sexual assault prevention programs in the 
fiscal year 2012 National Defense Authorization Act that help amplify 
this message.
    Navy has a comprehensive strategy to combat suicide, incorporating 
four pillars--education and awareness; operational stress control; 
intervention; and postintervention support. Navy's Suicide prevention 
approach builds combined sailor, family, and command resilience with a 
goal of changing behavior through personal resilience; peer to peer 
support; leadership intervention throughout the chain of command; 
enhancing family support; and fostering a command climate where help-
seeking behaviors, when required, are expected in order to restore 
personal readiness.
    Programs focused on enhancing the quality of life for Navy Reserve 
sailors have paid dividends with regards to the end strength of the 
Force. Fiscal year 2011 ended with a Navy Reserve inventory of 64,792, 
or 98.9 percent of congressional end-strength (65,500). Most of the 
shortages were confined to SELRES officer inventory due to our 
increased focus on fit rather than fill, and a reduction in potential 
recruiting population due to high-Active component retention. FTS 
enlisted also under executed with historically low, though higher-than-
planned losses. The Navy Reserve continues to focus on fit and a 
positive tone of force while applying policies to remain within 
strength and fiscal controls.
    For enlisted sailors the Selective Reenlistment Bonus is used to 
affect retention in targeted specialties, while the affiliation and/or 
enlistment bonuses are used to recruit targeted ratings.
    The Officer Accession Bonus, Affiliation Bonus, and Special Pays 
(to include Special Pay for the Retention of Healthcare Professionals) 
are used to maintain/increase inventory by targeting undermanned pay 
grades in critical and undermanned skill sets. Additionally, Navy is 
requesting additional SELRES Officer skills receive ``critical'' 
designation from Principal Deputy Under Secretary of Defense (Personnel 
and Readiness), allowing for a Critical Skills Retention Bonus to begin 
in fiscal year 2012 in an effort to further reduce attrition.
    In fiscal year 2012, the Navy Reserve expects high-retention and 
low-attrition rates to continue, due to our ``Stay Navy'' campaign, the 
ability to provide real and meaningful work, as well as the effects of 
the current economy. Our close management of planned accessions and 
losses, coupled with current force-shaping and personnel policies, will 
ensure we retain the most qualified capable sailors while adjusting our 
force towards the fiscal year 2013 end-strength of 62,500 sailors.
                     ready now--and into the future
    The administration recently published ``Sustaining Global 
Leadership: Defense Priorities in the 21st Century'', in which the 
requirements of the Joint Force of 2020 are described. The document 
explicitly makes clear that the RC will be a valued participant of that 
Joint Force in stating ``Over the past decade, the National Guard and 
Reserves have consistently demonstrated their readiness and ability to 
make sustained contributions to national security. The challenges 
facing the United States today and in the future will require that we 
continue to employ National Guard and Reserve forces.'' The Force of 
the future is described as versatile, reversible, ready, and cost-
efficient--all traits of today's RCs generally and the Navy Reserve 
specifically. The document speaks to an opportunity for the RC to 
leverage the gains of the last decade in capability and readiness and 
apply them to a Defense environment where agility, on-demand expertise, 
and innovation are placed at a premium. Navy Reserve leadership must 
provide a Force ready to perform those missions it is able to do, as 
efficiently and effectively as possible, in order for the AC to focus 
on those missions where the AC must provide the solution. At the same 
time, Navy must plan and program for RC use of the ``Assured Access'' 
authority to ensure the best Total Force Navy response and support of 
combatant commander mission sets.
    Our Navy Reserve is relevant and capable today because we made 
conscious decisions to invest in our people and our equipment, we have 
assigned them real and meaningful work, and we have honored the support 
of our families and our employers. In the future, we need to ensure our 
sailors continue to have the training and equipment they need to 
maintain their readiness, and that our families have the tools needed 
to remain resilient.
    Upon assuming the office of Chief of Navy Reserve, I authored a 
memo to Navy leadership detailing how I thought the Navy Reserve would 
look when the Navy Total Force is ``winning.'' Some of the concepts I 
envisioned included:
  --There would be seamless transitions (to include pay and personnel 
        records) from AC to RC and back again;
  --There would be expanded service options to allow sailors to ``stay 
        Navy'' while achieving true life/work balance;
  --Navy Reserve sailors would continually have real and meaningful 
        work to be performed during Active-Duty periods;
  --Navy Reserve would be known for world-class customer care and 
        support for all members and their families;
  --Navy Reserve would be valued by Navy leadership for efficiently and 
        expeditiously providing expert capabilities for new Navy 
        requirements;
  --Navy Reserve would establish and maintain a high state of 
        readiness;
  --Navy would implement RC-to-AC transition policies and use our 
        presence throughout the country to assist Navy in meeting 
        recruiting goals;
  --The Navy Reserve would be recognized as an integral part of the 
        Navy Total Force by all sailors and AC leaders; and
  --Navy Reserve would become leaders in distributive work using 
        technology and best practices.
    These initial ideas served as a roadmap for success in supporting 
and improving the Total Force, and were the impetus for developing 
Ready Now: The Navy Reserve Strategic Plan. The strategic plan has 
driven process improvements in each of the past 3 years that have 
enabled our sailors to serve more effectively while ensuring a more 
seamless integration of the Navy Reserve with the Navy as a whole. The 
Strategic Plan is updated every year with new ``strategic initiatives'' 
that help prioritize and coordinate the efforts of key stakeholders 
throughout the Force. We have achieved many successes with our 
strategic initiatives--as a Navy Reserve Force, as a Navy Total Force, 
and as a DOD force.
    The Navy Reserve's fiscal year 2013 Operations and Maintenance 
(OMNR) budget request of $1.303 billion (including OCO funding) will 
continue to provide the Joint Force with the readiness, innovation, and 
agility to respond to any situation. In doing so, the true prize for 
our sailors and the Navy alike will be real and meaningful work as part 
of ``America's Navy: A Global Force for Good.''
    The Navy Reserve is a force for innovation across all spectrums, 
but it is especially evident in the area of information technology 
(IT). IT is critical to everything we do as a Navy, and the Navy 
Reserve has led the Navy in several IT efficiency initiatives. For 
example, the cost-per-sailor for IT support for the Reserve Force has 
been reduced by 43 percent since 2008--a total cost savings of $62 
million. The Navy Reserve executed these efficiencies while leading the 
Navy in legacy network reduction, data center consolidation, and 
account management.
    The Navy Reserve is progressing with the first DOD/DON-approved 
wide-scale commercial Wi-Fi access deployment to all Navy Reserve 
facilities. This project provides SELRES the capability to complete 
their Navy Reserve training and readiness requirements at a fraction of 
the expense of equipping each member with hardware workstations while 
simultaneously improving sailor satisfaction. The updated technology 
employed in the new Navy Reserve Homeport will maximize the efficiency 
and effectiveness of the force through easier and more secure 
information management and sharing. As a result of previous efforts to 
explore new network access methodologies, Secure Remote Access is now 
available to the entire Navy. This initiative empowers the workforce to 
quickly and securely access their digital resources from any location, 
using any computer, at any time. Also, to mitigate mission degradation 
due to budget marks, cost-saving measures have been maximized in 
several areas, including contracted network services. These measures 
enabled Navy Reserve to successfully operate under the substantially 
decreased budget with minimal impact to the mission effectiveness of 
the Reserve Forces.
    The Navy Reserve continues to modernize the Navy Reserve Data 
Warehouse. To date, requirements analysis have optimized and 
streamlined 191 existing reports in the current system to 23 reports in 
the new system, while the technology modernization effort will expand 
the number of connections to authoritative data sources from 4 to 12 
systems. This will increase the breadth and depth of data available to 
support headquarters comparative and predictive analysis needed to more 
efficiently and effectively support readiness efforts for our Reserve 
sailors.
    Ensuring our Reserve Force has the proper equipment to bring our 
military acumen to bear is one of my ongoing priorities. I thank the 
Congress for the support they provide the Navy Reserve in the many 
appropriations for the Force. In particular, the Navy and the Joint 
Forces benefit greatly from the Congress's support for recapitalizing 
Fleet Logistics aircraft by procuring C-40A airframes. The C-40A 
``Clipper'' is a Navy Unique Fleet Essential Airlift (NUFEA) aircraft 
that provides flexible, time-critical inter- and intra-theater air 
logistics support to Navy Fleet and Component Commanders as well as 
providing logistical support for the Navy Fleet Response Plan. The C-
40A is a medium lift cargo aircraft, equipped with a cargo door and 
capable of transporting up to 36,000 pounds of cargo, 121 passengers, 
or a combination of each. The C-40A is the designated replacement for 
the Navy Reserve's legacy C-9B and C-20G aircraft. Aircraft 
recapitalization of the C-9B and C-20G is necessary due to increasing 
operating and depot costs, decreasing availability, inability to meet 
future avionics/engine mandates required to operate worldwide, and 
continued long-term use of the C-20G in the harsh desert environment. 
The C-40A has significantly increased range, payload, and days of 
availability compared to the C-9B and C-20G, and has the unique 
capability of carrying hazardous cargo and passengers simultaneously. 
Navy C-40A detachments are forward-deployed 12 months per year to 
provide around-the-clock support to the U.S. Pacific Command, U.S. 
Central Command, and U.S. European Command Areas of Responsibility. 
Additionally, these cargo airplanes are an integral first-responder in 
emerging Humanitarian Assistance/Disaster Relief core mission sets. 
Three additional aircraft are required to complete the minimum, risk-
adjusted C-40A procurement plan of 17 aircraft which will complete the 
divestiture of the C-9Bs and C-20Gs. I am greatly appreciative of this 
Congress's support for the purchase of a 14th C-40A for the NUFEA 
Fleet. Congressional support for the Navy Reserve C-40A program has 
placed the VR fleet closer to realizing a more robust and cost-
efficient NUFEA capability.
    The National Guard and Reserve Equipment Appropriation (NGREA) also 
funds equipment for the Navy Reserve. Unlike most other appropriations, 
NGREA provides important, in-execution year flexibility to address 
equipment needs of the Force. NGREA has allowed us to purchase 
expeditionary warfighting equipment for the Naval Expeditionary Combat 
Enterprise in support of operations in Iraq and Afghanistan, essential 
training upgrades in support of the adversary mission, and warfighting 
and personal protection equipment for Navy Special Warfare units. For 
example, NGREA funding allowed for the procurement of 10 Surface 
Amphibious Navy maritime prepositioning force utility boats (MPFUBs). 
These boats replaced the LCM-8s utilized for Joint Logistics Over the 
Shore (JLOTS) Navy Beach Group Surface Reserve training missions, 
providing an essential training upgrade. We augmented these purchases 
with additional OMNR funding to provide for spare parts, etc., for the 
boats life-cycle maintenance.
    While Navy Reserve recognizes recent challenges regarding the 
execution of NGREA funding, we pledge continued emphasis to utilize 
this valuable appropriation to address the needs of the Force. We will 
continue to demonstrate a superior level of stewardship of these 
important taxpayer dollars. I thank you for all the support you have 
provided to the Navy Reserve through this appropriation in the past.
    The readiness, innovation, and agility of the Navy Reserve keep RC 
sailors at the leading edge of Fleet operations. For example, Selected 
Reserve sailors are literally writing the book on the shipboard 
operation and tactical employment of the MQ-8B Fire Scout, a vertical 
takeoff and landing unmanned aerial vehicle (VTUAV). In 2011, Reserve 
sailors took part in the Fire Scout deployment with helicopter 
antisubmarine squadron light (HSL) 42 aboard USS Halyburton (FFG 40), a 
dynamic and successful deployment from start to finish. Currently, 
Reserve sailors from HSL-60 are participating in a Fire Scout 
Deployment with USS Simpson. Also, sailors from HSL-60 are deployed 
with USS Elrod to provide a Navy ``proof of concept'' for Night 
Airborne Use of Force, a law enforcement mission under tactical control 
of the United States Coast Guard. As more capabilities are brought to 
the fleet for employment, Navy Reserves' ``can-do'' attitude and legacy 
provide Navy leadership with important options for critical force 
allocation decisions.
                               conclusion
    This is my fourth year appearing before your subcommittee. I am 
humbled by the accomplishments of the sailors in our Navy Reserve and 
the Navy, and I am truly thankful for the support the Congress has 
provided in our quest to achieve a true Total Force. On behalf of the 
sailors, civilians, and families of our Navy Reserve, thank you for the 
continued support within the Congress and your commitment to the Navy 
Reserve.

    Chairman Inouye. Thank you, Admiral.
    General Stultz.
STATEMENT OF LIEUTENANT GENERAL JACK STULTZ, CHIEF, 
            ARMY RESERVE, UNITED STATES ARMY
    General Stultz. Mr. Chairman, Senator Cochran.
    First of all, it's an honor to be here, and thank you for 
all the support that you continue to give our soldiers and our 
families and our Nation.
    On behalf of the 205,000 soldiers in the Army Reserve that 
are serving our Nation, what I refer to as a national treasure. 
And I think what epitomizes what those soldiers are all about 
is a young soldier that I brought with me today.
    So, instead of being very eloquent in an opening statement 
and everything, I just wanted to introduce him to you. Seated 
to my left is Sergeant Daniel Burgess and his wife, Jeanette.
    Sergeant Burgess is from Twinsburg, Ohio, which is in the 
Cleveland area, and belongs to a psychological operations unit 
up there. Sergeant Burgess was in Afghanistan last year, and he 
was in southern Afghanistan attached to the Marines.
    Out on a mission as a psychological operations (PSYOPS) 
sergeant, helping work with the local Afghans to get them to 
show the Marines locations of improvised explosive devices 
(IEDs) and other dangers to protect them, while doing that, he 
himself stepped on an IED and he lost his leg with severe 
wounds to the rest of his body and mild traumatic brain injury 
(TBI).
    And Jeanette said the first thing he said when she 
contacted him when he got to Germany was, I'm not getting out. 
I'm staying in.
    And today, he is down in Fort Sam Houston, at the warrior 
training brigade rehabbing, so he can get back in the force. 
That epitomizes what, why we're here. We're here because of 
them.
    And we're here to say, we've got to make sure we're doing 
everything within our power, in an era where we are looking to 
save money and reduce debt, but we cannot afford to shortchange 
these great soldiers. Because they are protecting our Nation 
and they are our first line of defense.

                           PREPARED STATEMENT

    And as Admiral Debbink said, they are indispensable because 
our Army can't do what it does without our Army Reserve. We are 
an indispensable force for them.
    And so, I just use him as the symbol of why I'm here, and I 
look forward to your questions, Sir.
    [The information follows:]

         The United States Army Reserve 2012 Posture Statement

    The annual Army Reserve Posture Statement is an unclassified 
summary of Army Reserve roles, missions, accomplishments, plans, and 
programs. The 2012 Army Reserve Posture Statement also addresses the 
support required by the Army Reserve to continue its transition to an 
operational force during fiscal year 2013.
    Unless otherwise noted, all statistics and facts are current 
through March 2012.
    This document is available on the Army Reserve Web site at: 
www.usar.army.mil.

                                                        March 2012.
        providing indispensable capabilities to the total force
    Never before in the history of our Nation has the United States 
Army Reserve been more indispensable to the Army than it is today. 
Forged through 10 years of persistent conflict across the globe, the 
Army Reserve has out of necessity evolved into an indispensable part of 
the operational force. Steady demands for Army Reserve enabler 
capabilities introduced a new paradigm of interdependence within the 
Total Force that changed the structure of our defense strategy, 
ushering in an era of reliance on an Operational Reserve as part of our 
national security architecture.
    The Army Reserve is a foundational element providing operational 
and strategic depth to our military. As a key component of the Total 
Force, the Army Reserve provides key enabler capabilities to the Army; 
including 100 percent of the Army's Theater Engineer and Civil Affairs 
Commands, Training Divisions, Biological Detection Companies, Railway 
Units, and Replacement Companies. Our professional men and women 
support Army needs in many other fields such as transportation, 
logistics, supply chain management, law enforcement and public safety, 
healthcare, telecommunications, information technology, finance, legal 
services, and human resources.
    Continued investment in the Army Reserve as an enduring operational 
force places it on a solid path to support combat operations and 
theater security cooperation missions worldwide. As operations draw 
down in Iraq and Afghanistan, it is essential that we maintain the 
right mix of forces and professional personnel with operational 
experience and relevant skill sets. The Army Reserve Forces provide 
critical enablers to the Active component (AC) as a complementary and 
essential capability--not a redundant force--allowing the AC structure 
to focus around more complex formations.
    In years past, we allowed our most seasoned and best-trained 
soldiers to leave the Army during postconflict drawdowns. In the 
current security environment this is not an option. One of our key 
initiatives this year is to work with the Army to create a continuum of 
service program to retain this pool of experienced, talented soldiers 
through continued service in the Reserve components. Our goal is to 
inspire soldiers to a lifetime of military service, which includes 
seamless transitions between Active and Reserve statuses, as well as 
between Reserve categories and civilian service, providing variable and 
flexible service options and levels of participation consistent with 
Department of Defense manpower requirements.
    Everything we do within the operational and institutional Army 
Reserve supports the Army Force Generation (ARFORGEN) model. We 
progressed from a demand-based, theater-request dependent, reactive 
ARFORGEN, to a 5-year supply-based ARFORGEN, providing much needed 
predictability to our soldiers, their families, and their employers. 
Today, every soldier knows his unit's available force pool date and has 
the expectation that they will be used to support ongoing operations or 
theater security cooperation missions worldwide.
    Our biggest challenge is manning. We need the Congress's support 
for our fiscal year 2013 budget request for recruitment and retention 
incentives, and transition incentives for soldiers leaving the Active 
component during the drawdown, to allow us to shape the force with less 
reliance on cross-leveling to offset our mid-grade strength imbalances. 
Our current full-time support model remains a Strategic Reserve legacy. 
We need the support of the Congress for key policy modifications to 
change personnel support processes. We are currently working with the 
Army to create additional full-time support capability to provide much 
needed continuity in operational units and generating force units. 
These policy modifications will allow eligibility for enlistment and 
reenlistment bonuses, education loan repayment, and other incentives.
    One area where our focus will remain steadfast is our support 
programs for soldiers and family members, especially in remote 
locations without access to installation-based support. The past decade 
has taught us a lot about the physical and emotional needs of soldiers 
and families, and we have taken steps to reduce stress on the force. 
We've implemented a Comprehensive Soldier Fitness program to train our 
soldiers, civilians, and family members to both maximize their 
potential, and prepare them for the physical and psychological 
challenges of sustained operations. We have taken a holistic approach 
to suicide prevention Army-wide, integrating educating the force with 
efforts to reduce the stigma of seeking behavioral healthcare.
    We are also reaching out and providing resources to geographically 
dispersed soldiers and family members and involving family members in 
suicide prevention training. Not only have we established the Fort 
Family 24/7 hotline for soldiers and family members to access services 
at remote locations, we continue to establish Army Strong Community 
Centers (ASCC) in remote locations to allow soldiers, family members, 
retirees, and veterans access to installation-like support at remote 
locations.
    Working together, with the continued support of the Congress, we 
can meet the challenges we face in implementing a continuum of service 
and ``Soldier for Life'' concept, a sustainable ARFORGEN cycle for the 
Army Reserve, and demonstrate the positive investment that our Nation 
makes in its Army Reserve. A relatively small investment in the Army 
Reserve provides security to the homeland and supports the full range 
of military operations at home and abroad. The value added of the Army 
Reserve and its critical enabler capabilities is that the Nation pays 
the full cost for a Reserve component soldier only when he/she is 
mobilized.
    As we look to the future, our commitment is steadfast and the focus 
is clear: the Army Reserve is an essential part of the Total Force, and 
we will do all we can to ensure this combat seasoned, highly skilled 
force of warrior citizens remains ready to support a full range of 
military operations well into the future. We provide a solid, 
experienced foundation for expansibility. The strategic decisions and 
direction chosen now will set the framework for the next decade. With 
your help and the help of those who support America's operational Army 
Reserve, we will put this organization on a solid path to success for 
our soldiers, civilians, and family members; our future leaders; and 
our national security.

                         Lieutenant General Jack C. Stultz,
                                 Chief, United States Army Reserve.
                 Command Sergeant Major Michael D. Schultz,
                Command Sergeant Major, United States Army Reserve.

                              achievements
Human Capital
    Personnel.--A new Automated Senior Enlisted Promotion Board Process 
that uses standardized criteria ensures the best-qualified soldiers are 
selected for Master Sergeant, First Sergeant, and Sergeant Major 
positions. Implementation of the Army Reserve Theater Individual 
Replacement Operations policy and procedures more effectively achieves 
the Army Reserve goal for individual replacements to report to theater 
within 60 days of the initial request. Army Force Generation (ARFORGEN) 
Manning Strategy focuses on ``unit'' rather than individual manning, 
thereby allowing a unit to train and proceed through the ARFORGEN cycle 
as a cohesive unit. This shift in strategy allows commanders and 
noncommissioned officers to focus on leading and developing their 
organizations without the distraction of constant cross-leveling. Since 
force structure defines the needs of individual units, this approach 
brings personnel and force structure closer to one another.
    Surgeon.--The Medical Management Activity in 2011 reviewed more 
than 6,000 medical profiles, of which 50 percent were amended and 20 
percent were sent for an administrative retention board, allowing these 
soldiers to remain in the Army Reserve. Since the establishment of the 
Reserve component Medical Support Center in 2011, the Army Reserve now 
has better visibility of soldiers progressing through the Medical 
Evaluation Board process, with more than 540 packets submitted for 
review and adjudication.
    Chaplain.--The Army Reserve Strong Bonds program continues to be a 
success story as 12,500 individuals participated in more than 300 
events. The curricula expanded to provide more skills training to 
soldiers, their spouses, and their children. The program provides the 
tools to enable families to not just survive but thrive in the current 
environment of high operations tempo and multiple deployments.
    Employer Partnership of the Armed Forces Program.--Launched a 
state-of- the-art Career Portal in November 2010. The portal grew from 
zero to nearly 30,000 registered users and the number of Employer 
Partners more than doubled to 2,500 through September. The Army Reserve 
has also launched a partnered soldier training program with GE 
Healthcare.
    Family Programs.--Opened a fourth Army Strong Community Center 
pilot site in conjunction with Clackamas Community College in Oregon 
City, Oregon. The Fort Family Support and Outreach Center responded to 
multiple crisis and disaster situations while maintaining contact with 
the families of deployed Army Reserve soldiers. During fiscal year 
2011, Fort Family had 28,340 successful contacts with soldiers and 
families, providing information and assistance for many issues, 
including TRICARE, legal matters, retirement, the GI Bill, and child 
and youth programs.
Materiel
    New Equipment Fielding Facilities enabled the Army Reserve to issue 
more than 3,800 trucks/trailers and 63,700 support items, allowing the 
Army Reserve to have 91 percent of equipment on hand, with 67 percent 
modernized, putting us on par with the Active component. In support of 
equipping missions, the Army Reserve has executed more than 19,500 
commercial movements of more than 340,000 pieces of equipment. The Army 
Reserve combined its Fleet Management System and its Logistics 
Information Systems Support Contract into one product, thereby reducing 
costs from $18.4 million to $14.4 million--a 22-percent savings. 
Additional savings were achieved by relocating the tactical computers 
system for new equipment fielding in a leased facility from Hopewell, 
Virginia, to Gaithersburg, Maryland, in a Government-owned facility--
realizing an additional savings of $288,000 a year.
    In addition, we equipped the first unit in the Army with the new 
Palletized Load System and the new M915A5 Line Haul Tractors and 
executed Operation Clean Sweep to improve the inventory of equipment 
through the Army Reserve, re-establishing property book control of $105 
million of equipment.
Readiness
    The Army Reserve has transitioned to an Operational Force within 
the Army by implementing a Supply Based Army Force Generation process 
in order to provide needed capabilities to the Army's Mission Force 
each year, while providing predictability to soldiers, families, and 
employers. The result is an integrated, rotational force that achieves 
cyclic unit readiness for all Army Reserve rotational units over a 
defined, predictable planning horizon.
    A wide array of missions in the unit's available year can include 
deployments in support of named operations, theater security 
cooperation (TSC) missions, humanitarian assistance, or domestic 
response missions. The Army Reserve continues to provide approximately 
19,000 soldiers annually in organized units to the Army for worldwide 
named operations as well as contingencies. Many of these units satisfy 
joint capability requirements for types of organizations only found in 
the Army Reserve. One such unit is an aviation task force established 
in October 2011 from the 11th Theater Aviation Command to provide the 
medium lift, heavy lift, and MEDEVAC capability required to support 
NORTHCOM in the Defense CBRN Response Force mission.
    The Army Reserve continues to stand ready to provide forces on an 
as-required basis in support of the Nation. As we continue to sharpen 
our focus on providing the proper force, appropriately trained, at the 
right time and place throughout the world, we will move ever closer to 
our strategic vision--the Army Reserve as a cost effective, trained, 
ready, and relevant enabling security force for the Nation.
Services and Infrastructure
    Services and Infrastructure Core Enterprise (SICE) is the Core 
Enterprise that underpins all of the platforms and provides the support 
services that enable an operationalized Army Reserve. The fiscal year 
2011 focus centered on the completion of all assigned 2005 Base 
Realignment and Closure (BRAC) tasks to construct 125 facilities and 
close and consolidate 176. Through this significant effort, the Army 
Reserve facilities portfolio achieved a 17-percent improvement in 
facility age, modernization, and operational capability that directly 
supports training, equipping, and manning strategies in support of 
ARFORGEN.
    To achieve efficiencies in Army Reserve funded training 
installations (Fort McCoy, Fort Hunter Liggett, Fort Buchanan, Army 
Support Activity--Dix) the Army Reserve consolidated Director of 
Logistics activities under Army Materiel Command, as well as the 
consolidating and transferring Information Management activities under 
NETCOM.
    All challenges to our infrastructure (Army Reserve Centers, 
Installations, and Communications Networks) to include tornadoes, 
hurricanes, and flooding were met with a determination that restored 
facilities and communications quickly and ensured mission 
accomplishment. As a participating partner at the Department level, the 
Army Reserve is very close to achieving a developed and synchronized 
Facility Investment Strategy and is a leader in environmental 
conservation and energy sustainability. The Army Reserve continues to 
maintain Military Technician strength at levels mandated by law and is 
actively working toward transforming the civilian workforce to support 
the Operational Army Reserve.

    ----------------------------------------------------------------

                        army reserve priorities
  --Create an enduring operational force.
  --Sustain readiness in our deployable units to ensure they are ready 
        to deploy as part of the Army's Mission Force.
  --Continue to provide the best trained, best led, best equipped 
        soldiers and units to Combatant commanders to achieve U.S. 
        objectives and ensure national security.
  --Grow an integrated Human Capital Strategy (Continuum of Service) 
        that facilitates the movement of soldiers between Active and 
        Reserve service, and civilian employment over a lifetime of 
        service.
  --Recruit and retain the best and brightest warrior-citizens; 
        transition the same from the Active component during the Army 
        drawdown; sustain a robust and capable operational Army 
        Reserve.
  --Provide citizen-soldiers and their families with the best care, 
        support, and services to ensure the best quality of life, 
        health, and vitality of the All Volunteer Force.
  --Build and maintain partnerships with industry to facilitate 
        warrior-citizen contributions to both a prosperous economy and 
        a skilled, experienced, and capable Army.
    To advance these priorities the Army Reserve must: Obtain from the 
Congress full support and necessary authorities, in accordance with the 
Army Reserve fiscal year 2012 budget request.

    ----------------------------------------------------------------

    ----------------------------------------------------------------

                         the president's budget
    The President's budget will allow the Army Reserve to:
  --Continue Army Reserve Internal Transformation to an Enduring 
        Operational Force.
  --Shape Army Reserve end-strength by recruiting new soldiers, 
        retaining the best and brightest, and transitioning Active 
        component soldiers into an Operational Army Reserve Force.
  --Equip units and soldiers to train and fight in a full range of 
        military operations to achieve U.S. objectives and ensure 
        national security.
  --Provide quality medical and dental services and support to soldiers 
        and their families.
  --Sustain quality Army Reserve installations and facilities.

    ----------------------------------------------------------------

                    the posture of the army reserve:
                 today's readiness and strategic agenda
    The Army Reserve is a trained, experienced, resilient force of 
warrior-citizens supported by strong families and employer 
partnerships. Forged through the persistent conflicts across Iraq and 
Afghanistan, the Army Reserve is an indispensable provider of essential 
enabler capabilities to the Total Force. The Army Reserve is prepared 
to provide the Nation with both versatile support to the Joint Fight 
and flexible response options to contingencies at home and abroad. The 
Operational Reserve is essential for building expansibility within the 
Total Force. The Army Reserve's 205,000 citizen soldiers across the 
Nation form the Army's best connection to hometown America. These 
warrior-citizens are the best ambassadors for the Army in their 
communities across this great country.
    Having reconfigured organizationally and functionally to adapt to 
the demands of sustained operational deployment, the Army Reserve must 
now focus on sustaining its operational capacity to meet diverse and 
unpredictable threats--while operating in an era of fiscal austerity. 
Together, the Army and the Army Reserve will leverage the tremendous 
benefits of the multicomponent Total Force and make the most of all 
available opportunities to preserve the investment in trained and ready 
soldiers and units. The Army cannot accomplish its mission without the 
Reserve component. Much of the support capability and critical 
specialties reside predominantly or exclusively in the Army Reserve. 
Such units include civil affairs, medical, transportation, engineer, 
and military information support operations. These are indispensable 
capabilities to the Total Force.
Strategic Agenda
    The Army Reserve Strategic Agenda reflects the most essential 
objectives the Army Reserve must achieve based on both Army and Army 
Reserve Leadership guidance and direction. Nested within the Army 
Reserve 2020: Vision & Strategy, the Army Reserve Strategic Agenda 
identifies specific priorities to optimize the application of 
collective effort and fiscal resources. The fiscal year 2012 Strategic 
Agenda focuses on key components of an operational force.
Access
    The Total Army Force relies on critical enabler capabilities 
provided by trained and equipped Army Reserve soldiers and units that 
are ready to respond to global and domestic requirements. An ongoing 
collaborative effort across the Department of Defense has resulted in 
the addition of expanded access to the Reserve components. New 
authorities contained within the 2012 National Defense Authorization 
Act allow for access to the Reserve component for missions other than 
war, with the proper planning, programming, and budgeting. With access, 
Army Reserve personnel can mobilize in support of specified missions, 
such as Theater Security Cooperation. This allows the Total Force to 
leverage the unique cost benefits of using a seasoned, exceptional 
Reserve Force in a sustained operational role.
Funding for Operational Reserve
    As military forces withdraw from Iraq and Afghanistan, and overseas 
contingency operations (OCO) funding is significantly reduced, 
continued use of the Army Reserve in an operational role is contingent 
upon adequate and assured funding in the base budget. With adequate and 
assured funding, the Army Reserve will continue to provide the required 
enabler capabilities to support the Army's ARFORGEN readiness cycle. 
Funding in the Base Budget is crucial for the required training events 
and supporting costs necessary for use of the Army Reserve operational 
capabilities. Without assured funding in the base budget, Army Reserve 
Forces cannot be a full participant in ARFORGEN--thus degrading 
readiness levels. Over time, the hard-won operational expertise of Army 
Reserve soldiers will be lost. The Army Reserve will not be ready for 
planned or contingency operations at home or abroad. As a result, 
critical Army Reserve enabler availability as part of the Total Army 
Force will be limited to use as a strategic Reserve. In today's 
security environment, the Army and the Nation cannot afford anything 
less than an operational force. Therefore, the Army Reserve will 
continue to work with the Army to ensure adequate and assured funding 
in the Army base budget and Program Objective Memoranda for planned use 
of Army Reserve operational capabilities.
Continuum of Service
    Continuum of Service (CoS) is an integrated Human Capital 
management strategy for the Total Army. The future of retaining the 
extraordinary capabilities and experience of our soldiers now resides 
in how well we can implement change in the way we manage our soldiers 
in the face of constrained resources. Creating a management strategy 
that facilitates and supports the transparent movement of individuals 
between the Active component, the Reserve components, and civilian 
careers is essential to preserving a cost effective, expansible 
foundation of talent and experience for the future.
    The intent of a continuum of service is to not just allow but to 
encourage and incentivize soldiers to continue serving the Army while 
preserving the Army's investment. We must offer and manage varying 
levels of participation from the Active component to the traditional 
Reserve or to the Individual Ready Reserve. It is a paradigm shift to 
attempt the management of one force across the Total Army. This will 
require considerable transformation to the current, rather inflexible, 
human capital management system in each component. However, this shift 
will poise us to best meet the impact of anticipated fiscal 
constraints. CoS provides an efficient and cost-effective solution to 
retaining the investment and experience of our best soldiers, building 
the foundation of expansibility and reversibility into our force in the 
future.
    There are many aspects to this initiative and it will require 
perseverance to change each institutional process that creates barriers 
or separation. This ranges from the creation of an Individual Ready 
Reserve (IRR) Affiliation Program and Army Transition Process 
transformation. These forward-thinking institutional policy changes 
will provide an underpinning to the best, most efficient practices in 
human capital management.
Institutionalize Army Force Generation
    Army Force Generation (ARFORGEN) is a cyclic process the Army uses 
to man, equip, and train all units to meet combatant commander 
requirements. ARFORGEN is designed to focus training, training support, 
and other limited resources for units in a timely, predictable manner 
as they prepare for operational employment using a common set of 
standards. Approximately one-half of Army capabilities are in the 
Reserve component. This includes the Combat Support and Combat Service 
Support units of the Army Reserve. The Total Army Force relies upon 
these Army Reserve enablers to be ready and fully integrated as part of 
an expeditionary force within the time frame when they are needed. To 
the Army Reserve, ARFORGEN goes beyond process and policy adaptation, 
it includes cultural change both within the Army and the Army Reserve.
Full-Time Support
    Full-time support (FTS) is an essential element of the Army 
Reserve's ability to conduct training, personnel, and administrative 
functions and leading Army Reserve units in the operational force. 
Historically, the Army Reserve has been under resourced in full-time 
support. This has been mitigated by the use of overseas contingency 
operation funding and leveraging the use of volunteers to bring 
operating units to required readiness levels. Despite the war time 
demands placed on our Nation's ground forces throughout the last 
decade, FTS manning levels in the Army Reserve have remained, on a 
percentage basis, the lowest among the service branches. To increase 
readiness of operational units in the future, assets and personnel 
policy will be shifted to direct support to the Operational Army 
Reserve. Note: FTS was compared by totaling all AGR, Military 
Technicians, and other civilian positions.
                        army reserve commitments
19,156 Army Reserve Soldiers are Currently Mobilized and Deployed 
        Around the World \1\
---------------------------------------------------------------------------
    \1\ As of February 24, 2012. Does not include Individual Ready 
Reserve and Individual Mobilization Augmentee Soldiers. (Source: MDIS 
Mobilization and Deployment Tracking Information System)
---------------------------------------------------------------------------
    The Army Reserve continues to provide critical enabling 
capabilities worldwide, supporting the Total Force across a range of 
military operations. Missions include theater security cooperation, 
humanitarian assistance, and contingency operations. Army Reserve 
Theater Commands are uniquely capable of providing global support--
addressing specific and emerging geographical and political issues as 
they arise. Missions include theater security cooperation, humanitarian 
assistance, and contingency operations.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        the fiscal year 2012 budget request: where we are going
                             human capital

    ----------------------------------------------------------------

   critical human capital programs that sustain an operational army 
                                reserve
  --Manning on Operational Army Reserve.
  --Medical Non-Ready Initiative.
  --Yellow Ribbon Reintegration Program.
  --Medical and Dental Readiness.
  --Medically Not-Ready Soldiers for Case Management/Referral.
  --Post Deployment Health Reassessments.
  --Strong Bonds.
  --Manpower for Family Programs Mission Requirements.
  --Communication and Outreach to Soldiers and Families.
  --Family and Soldier Support thru Responsive and Relevant Services.

    ----------------------------------------------------------------

Personnel Management
            Manning an Operational Army Reserve
    The mission of our incentives program, according to the Army 
Reserve Manning Strategy, is to focus our funds in support of the 
supply-based ARFORGEN. This will focus the use of incentives to ensure 
that ARFORGEN cycle Aim Points for unit required strength are met. We 
will tailor our incentives programs and priorities, as specified on the 
Selected Reserves Incentives Program (SRIP) List, to enable pinpoint 
manning in the Recruit Quota System (REQUEST). This occurs by 
diversifying types of incentives to meet a myriad of personnel 
requirements for the current Army Reserve operational environment. This 
will reduce overall costs and increase the readiness posture of the 
Army Reserve.
Healthcare
            Medical Non-Ready Initiative
    The Medical Non-Ready Initiative aggressively expedites medical 
board evaluations to minimize hardships to both soldiers and families 
and return our most valuable resources back to our formations. The 
Initiatives places emphasis on leader education and involvement, 
coupled with the processes to gain rapid, unconstrained, and inclusive 
treatment through the medical system for our wounded, ill, and injured 
soldiers. As for the way ahead, the Army Reserve will leverage the 
following medical readiness programs Reserve Health Readiness Program, 
Army Selected Reserve Dental Readiness System, The Psychological Health 
Program, Medical Management Activity, Reserve Component Soldier Medical 
Support Center (RCSMSC). We will also use case managers to monitor the 
medically non-ready population, coordinate with the soldier and the 
command for required/requested medical evaluations, and gather 
information for review by the Medical Management Activity or the 
Regional Support Command (RSC) Surgeons for appropriate profiling. 
Soldiers who have medical conditions that warrant permanent profiles 
are issued one, and then referred to the Regional Support Command 
Personnel Health Service Branch for medical boarding action.
            Medical and Dental Readiness
    The Army Reserve is an enduing operational force, and as such must 
be medically ready to respond to immediate global requirements across 
the full range of military operations. Sixty-three percent of the Army 
Reserve is medically ready; numbers have been increasing from 24 
percent since October 1, 2008. Seventy-four percent of Army Reserve 
soldiers are dentally ready; numbers that have been positively 
increasing from 52 percent on October 1, 2008. Programs such as the 
Army Selected Reserves Dental Readiness System (ASDRS) have made a 
difference in improving baseline dental readiness. The ASDRS program 
covers examinations and dental treatment cost to convert an Army 
Reserve soldier to a deployable status.
            Medically Non-Ready Soldiers
    The Army Reserve's fully medically ready status means that more 
than one-third of our soldiers are not medically ready, meaning they 
cannot deploy to support worldwide missions if needed and are deficient 
in 1 of 5 measures (dental, periodic health assessment, routine adult 
immunizations, no deployment limiting conditions, or medical 
equipment). Fifteen percent of these soldiers are available but must 
complete a periodic health assessment or a dental screening in order to 
be deemed medically ready, and 11.3 percent have a medical condition 
that renders them temporarily or permanently nondeployable and either 
need additional care or are awaiting medical board determination on 
their ability to continue to serve.
    In 2011, the Army Reserve moved aggressively to reduce the number 
of medically nondeployable soldiers. The Army Reserve Surgeon, working 
with members of the Office of the Surgeon General and the Department of 
the Army, implemented two initiatives to review medical profiles and 
prepare soldiers for medical evaluation boards. First, the Medical 
Management Activity was established on January 3, 2011, to support the 
rapid evaluation of permanent medical profiles and improve the 
identification process of those soldiers who are not ready through 
increased use of the Medical Protection System (MEDPROS) and the 
electronic profile. Since the inception of the Medical Management 
Activity in 2011, more than 6,000 medical profiles have been reviewed, 
of which 50 percent were amended and 20 percent were sent for an MOS 
administrative retention board, allowing these soldiers to remain in 
the Army Reserve. The number of profiles requiring review decreased 
from 16,758 in January 2011 to 9,913 in November 2011. The number of P3 
and P4 profiles not requiring a medical evaluation board has steadily 
increased from 2,065 in January 2011 to 3,298 in November 2011.
    Second, the RCSMSC was established January 18, 2011, to review 
Medical Evaluation Board Packets and improve the medical boarding 
process. Since the establishment of the RCSMSC in 2011, the Army 
Reserve has better visibility of soldiers entering the Medical 
Evaluation Board process, with more than 540 packets submitted to 
military treatment facilities.
            Post-Deployment Health
    Repetitive deployments have significantly increased the strain on 
the Army Reserve Force. To assess post-deployment needs and to protect 
the health and well-being of soldiers who have redeployed from combat, 
our soldiers complete the Post-Deployment Health Reassessment.
    The Army Reserve is moving out aggressively to mitigate the effects 
of persistent conflict and build a strong resilient force. On March 4, 
2011, the Army Reserve Psychological Health Program concept plan was 
approved, and four Directors of Psychological Health began working in 
2011 to better meet the behavioral health needs of Army Reserve 
soldiers. Our case management program is expected to begin within the 
Army Reserve this fiscal year as well.
Family Support
            Yellow Ribbon Reintegration Program
    The Army Reserve promotes soldier and family resiliency through the 
Yellow Ribbon Reintegration Program that proactively reaches out with 
information, education, services, and referrals through all phases of 
the deployment cycle to more than 22,400 soldiers and 25,500 family 
members. Our ability to provide services and support resources to the 
Total Army Reserve Family (soldiers, family members, retiree recalls, 
civilians, and wounded warriors) is challenging due to the Army Reserve 
geographic dispersion. Yellow Ribbon events, of which there were more 
than 550 in 2011, allow units to build cohesion, morale, and 
camaraderie. We strive to ensure each family is healthy while preparing 
for, during and after a deployment. Attendance at Yellow Ribbon events 
helps build the networking and communication opportunities for 
geographically dispersed families of those deploying Army Reserve 
soldiers, and it maintains contact between them and their unit rear 
detachment personnel. We can identify and assist any at-risk family 
members easier through this method of gathering them together during 
the deployment. Yellow Ribbon events also provide a platform to 
demonstrate the energy, enthusiasm, and impact of local, regional, and 
national community and businesses leaders' support of our commands and 
individual soldiers who deploy.

    ----------------------------------------------------------------

    Attendance at Yellow Ribbon events helps build the networking and 
communication opportunities for geographically dispersed families of 
those deploying Army Reserve soldiers and maintains contact between 
them and their unit rear detachment personnel.

    ----------------------------------------------------------------

            Manpower for Family Programs Mission Requirements
    Army Reserve families continue to bear the challenges of a nation 
at war and adjust to the realities of an operational force. Army 
Reserve Family Programs must maintain a baseline level of skilled and 
quality professionals to provide responsive services and mitigate the 
corollary effects of family separations due to ongoing conflicts, 
humanitarian missions, and theater security cooperation missions. A 
skilled and quality family programs force directly affects the ability 
to maintain the infrastructure of programs and services that support 
geographically dispersed soldiers and families. Our family programs 
workforce must be robust enough to provide program standardization and 
stability; adaptive, full-spectrum staffing support; and responsive 
services that meet the complexities of supporting Army Reserve soldiers 
and families.
            Strategic Communication Outreach to Soldiers and Families
    An important family programs function is disseminating information 
and timely alerts about programs and services available 24/7, closest 
to where soldiers and families reside. The overarching family programs 
communication strategy employs a ``top-down/internal-to-external'' 
model, which deploys clearly articulated, aligned messages to the 
appropriate audiences through multiple delivery systems and events. 
This strategy includes a suitable mechanism for measuring program 
efficiency, while gaining a heightened awareness of customers' needs 
through feedback via surveys, one-on-one exchanges, and social media. 
The endstate is a consistent method of determining success in 
delivering the services that mean the most to soldiers and families.
            Family and Soldier Support Through Responsive and Relevant 
                    Services
    Family Programs is synchronizing its requirements for staffing, 
resourcing, and training with the ARFORGEN model. Programs focus on the 
command/unit and family partnerships to support soldiers' readiness and 
mitigate risk. The intent is to proactively establish a collaborative 
readiness pattern focused on geographically dispersed soldier and 
family programs support, training, and services to ensure families are 
resilient and prepared to meet the challenges of an operational force.
Spiritual Care
    Strong Bonds provides relationship skills training for married 
couples, families, and single soldiers. The various events empower 
soldiers to more fully connect with their loved ones. It is a holistic, 
preventive program committed to the restoration and preservation of 
Army families, even those near crisis. Strong Bonds is an Army program 
led by Army chaplains. More than 90 percent of those who have attended 
the program rate it positively. As a direct result, soldier and family 
readiness, resiliency, and retention increases. Availability of Strong 
Bonds programs is a required part of deployment cycle support plan for 
soldiers and families. Currently OMAR funding in the President's budget 
will provide for training materials, sites, and travel costs for 
soldiers and family members. The Strong Bonds events are continually 
being updated to meet the needs of our soldiers and families throughout 
the ARFORGEN cycle. These programs and events are critical to soldier 
and family readiness during and long after current deployments.
The Employer Partnership of the Armed Forces
    The Employer Partnership of the Armed Forces (EPAF) connects 
capability with opportunity. Our skilled servicemembers bring skills, 
reliability, and capability to the civilian workplace while the 
program's Employer Partners provide career opportunities.
    The Program is operated and funded primarily by the Army Reserve 
but supports the civilian employment and career advancement needs of 
members of all seven Reserve components, their family members, wounded 
warriors, and the Nation's veterans. The Army Reserve has dedicated 
staff, continual maintenance and upgrading of the Career Portal: 
(www.Employerpartnership.org). Army Reserve funding supports the Career 
Portal as well as the program support managers dispersed across the 
United States who provide direct assistance to both employer partners 
and job seekers.
    Employers recognize the benefits of the EPAF program. The program 
now has more than 2,500 employers participating, and the number is 
steadily growing. These Employer Partners are military-friendly and 
value the skills, experiences, and work ethic of those who serve.
    The Reserve components also benefit. Best practices and experience 
with cutting-edge technology and medical procedures flow between 
military and civilian organizations through EPAF's training 
partnerships. Access to career opportunities and partnered training 
initiatives also provide tangible reasons for separating Active 
servicemembers to continue serving in a Reserve capacity.
    In the next few years, thousands of Army Reserve and National Guard 
soldiers will de-mobilize and tens of thousands of Active Duty 
personnel will leave the military. The program's ability to connect 
these imminent job seekers with employment can make a positive impact 
on unemployment rates among our newest veterans. Accordingly, the 
Program is working with both the Office of the Secretary of Defense and 
the Department of the Army to formally incorporate EPAF into transition 
programs for the Active and Reserve members of all branches of service. 
EPAF strengthens our military, our economy and--most importantly--
strengthens our servicemembers and their families.

    ----------------------------------------------------------------

Army Reserve Chaplains
    Army Reserve chaplains come from our neighborhoods and communities; 
they reflect the culture and demographics of our Army Reserve. They, 
too, are warrior-citizens bringing civilian-acquired skills to the Army 
from their parish, hospital, and prison ministries. Army Reserve 
chaplains truly enhance the spiritual care of their civilian 
congregations due to their military service and understand the demands 
of such service on themselves and their own families.
    The chaplaincy has made great strides in reducing the number of 
shortages within our battalions and brigades. A fully manned Army 
Reserve chaplaincy allows for more regular and timely spiritual support 
through unit and area coverage. Much of this can be attributed to the 
affiliation and accession bonuses available to new Army Reserve 
chaplains as well as to tuition-assistance monies that help pay for 
seminary schooling.

    ----------------------------------------------------------------

                          continuum of service

    ----------------------------------------------------------------

    Continuum of Service is a Human Capital Management strategy that 
facilitates the movement of soldiers between the Active and Reserve 
service and civilian employment.
Who is Involved?
    A Continuum of Service Working Group is pursuing numerous 
initiatives, including potential changes to current policies to allow 
for more flexible service options.
Why Now?
    The Continuum of Service initiative seeks to retain a pool of 
experienced, talented soldiers through continued service in the Reserve 
components, thereby allowing the Army to reserve and expand its end 
strength as required.
What is Being Done?
    The Army Reserve has identified those policies that impede the ease 
of movement between components and has embarked on a strategy of 
implementing a new personnel management paradigm that meets the needs 
of an enduring operational force.

    ----------------------------------------------------------------

Continuum of Service is right for:
  --The Army: Allows the Army to retain a pool of talented and 
        experienced soldiers to support potential expansibility of the 
        Army in the future.
  --The Soldier: Offers opportunity to continue serving with varying 
        levels of participation over the course of a lifetime of 
        service.
  --The Times: Provides a cost-effective personnel management system 
        for the Army.
The flexibility of the Continuum of Service Human Capital Management 
        Strategy will:
  --Help retain a reservoir of talent and experience through incentives 
        and access to transitioning Active component personnel.
  --Ease movement between components and civilian employment by 
        incentivizing transition to the Army Reserve and expanding 
        support for civilian career opportunities.
  --Flexible Service Options--IRR Affiliation to Reserve unit, 
        Volunteer Only IRR options or Traditional Reserve service.
Integrated Human Capital Strategy:
    Focus is on change to Army regulations, policies, and procedures 
that can be acted on now.
            Policy
  --Modifications to existing policy and directives to manage the Army 
        as a Total Force.
  --Joint education programs.
            Processes
  --Integrated processes and systems for seamless transitions, along 
        with portability of benefits.
            Culture
  --Requires a culture change in the way the Reserve component is used 
        as an indispensable part of the Total Force.
Varying Levels of Participation:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Acronyms:
RC = Reserve component  <bullet>  IMA = Individual Mobilization Augment  
<bullet>  IRR = Individual Ready Reserve  <bullet>  TPU = Troop Program 
Unit
                               readiness

    ----------------------------------------------------------------

Critical Readiness Programs That Sustain an Operational Army Reserve
  --Sustain an Operational Army Reserve.
  --Sustain modern training equipment, facilities, and installations 
        that support rapid mobilization capabilities.
  --Protect the force, physical security, management of the Physical 
        Security Program.

    ----------------------------------------------------------------

Sustain an Operational Army Reserve
    The Army Reserve provides operational capabilities and strategic 
depth to the Army to meet national defense requirements across the full 
range of military operations. The Army Reserve participates in a full 
range of missions that support force generation plans. Units and 
individuals participate in an established cyclic or periodic cycle of 
readiness that provides predictability for combatant commands, the 
Total Force, servicemembers, their families, and employers. In their 
strategic roles, units, and individuals train or are available for 
missions in accordance with the national defense strategy. This force 
provides strategic depth and is available to transition to operational 
roles whenever needed. Accordingly, it is critically important that the 
Army Reserve provide capabilities and generate a force that is 
available to support Army needs. Properly sustaining the Army Reserve 
as an operational force means success in ongoing operations in which 
the Army Reserve now plays a vital role, as well as in future 
contingencies in which it will play a critical role.
            Mandays To Support an Operational Reserve
    The Army Reserve was successful in obtaining an approved training 
strategy to provide trained companies and brigade and battalion staffs 
to combatant commanders upon mobilization.
            Homeland Operations
    Homeland Defense, Homeland Security and Defense Support of Civil 
Authorities: These important missions require the unique enabler 
capabilities resident in the Army Reserve. Today, the Army Reserve 
provides seven aviation units in support of the Defense Chemical 
Biological Radiological Nuclear (CBRN) Response Force (DCRF). These 
units work directly with their Active Duty counterparts as the initial 
title 10 response force for CBRN or terrorist incidents. The Army 
Reserve provides an additional 12 units as part of the Command and 
Control CBRN Response Element.
    Responding to Defense Support of Civil Authorities (DSCA) 
situations, the Army Reserve provides all of the Army Emergency 
Preparedness Liaison Officer (EPLO) capability. These soldiers conduct 
valuable operations at various Federal, State, and local emergency 
operations centers during all phases of incident management operations. 
The Army Reserve provides the potential for additional incident 
response forces including, but not limited to, the following types of 
units:
  --medical aviation;
  --transportation;
  --engineer;
  --communications; and
  --civil affairs.
    These capabilities can be packaged with the appropriate command and 
staff structure to facilitate assistance to civil authorities. This 
packaging also provides necessary command and control of title 10 
Department of Defense resources in a defined joint environment. With 
approval of NDAA 2012 the Army Reserve can provide significant 
resources to support civil authorities in domestic disasters and 
emergencies.
    The Army Reserve's fiscal year 2013 budget request properly funds 
the Operational Reserve to ensure the force structure required for 
homeland operations. The requirement to maintain a specific portion of 
our soldiers on orders to support DCRF mission response time is 
critical to mission accomplishment and success. National level response 
goals to save lives and conduct search and rescue operations in the 
first 72 hours of an incident, requires immediate access to Army 
Reserve forces for these critical missions. Resourcing to purchase and 
maintain specialized commercial off-the-shelf equipment allows 
interoperability between the Army Reserve forces employed at an 
incident location with Federal, State, and local first responders.
Sustain Modern Training Equipment, Facilities, and Installations That 
        Support Rapid Mobilization Capabilities
    Sustaining modern training equipment, facilities, and installations 
is critical to successful mobilization of the Army Reserve within 
established timelines when needed. Army Reserve soldiers and units need 
to train on the same modernized equipment the Army uses in the field as 
well as access to modern facilities designed and maintained to 
sustainable standards. Timely deployments of forces with the skills 
needed for success in 21st-century engagements depends on congressional 
support.
            Mission Training Complexes
    Mission Training Complexes (MTCs) provide the training for Army 
Reserve leaders and battle staffs in support of mobilization. This is 
essential to meet ARFORGEN readiness goals and metrics used to evaluate 
the readiness of the force. The Army Reserve successfully negotiated 
for upgrading three of our five MTCs and the new construction of one 
MTC.
            Simulations and Simulators
    Simulations and simulators (weapons and systems simulators) 
programs are critical in supporting an operational force as well as for 
collective and individual training. Training for the full range of 
military operations and for contingencies is evaluated using the aim 
points in ARFORGEN. To ensure the Total Force is properly trained, the 
Army Reserve has a simulation requirement and is programmed to maximize 
funding from the President's budget.
            Electronic-Based Distance Learning
    The Army is allowed to provide discretionary payments for selected 
Reserve soldiers, not in Active service or on Active Duty, who are 
directed by their commanders to complete Department of the Army-
approved training requirements by means of electronic-based distributed 
learning (EBDL).
            Equipment Fills for Training Unit Table of Distribution and 
                    Allowances
    The Army Reserve has Table of Distribution and Allowance (TDA) 
equipment funding, which is an area of risk within the strategy for 
training facilities. Modernized pieces of equipment are required to 
conduct training during various stages of the force generation model. 
The use of training simulators and equipment loans mitigates equipment 
shortages.
            Transient Training Facilities (Operational Readiness 
                    Training Complex) Fort Hunter Liggett
    Transient training facilities are critical for requirements for our 
Army Reserve platforms to support our units as they progress through 
the ARFORGEN cycle. These facilities provide the barracks, classroom, 
motor pool, and administrative space for units to conduct effective 
institutional and collective training on our installations. Sufficient 
resources are included in the Army Reserve's budget to ensure the 
construction and modernization of transient training facilities for an 
operational force.
            Protect the Force, Physical Security, Management of the 
                    Physical Security Program
    The Army Reserve faces unique challenges and vulnerabilities when 
it comes to Physical Security. The Army Reserve span of control 
includes personnel at more than 950 stand-alone facilities across the 
continental United States (CONUS). Physical security inspectors and 
antiterrorism assessment specialists in the field mitigate these 
challenges.
            The Army Reserve Manages the Risk of Damage, Destruction or 
                    Loss of Personnel, Weapons, or Equipment to 
                    Criminals or Terrorists by Having the Intrusion 
                    Detection System
    The intrusion detection systems (IDS) monitor arms rooms at Army 
Reserve facilities 24 hours a day. The monitoring program notifies 
authorities immediately should an arms room at a remote facility be 
breached. These systems require technology upgrades and maintenance 
because Army Reserve facilities are distinctive as stand-alone 
facilities in remote parts of the country.
            Provisioning for Antiterrorism Officers at All Major 
                    Subordinate Commands Enables Commanders To Protect 
                    the Force
    Antiterrorism assessment specialists are the key component to the 
Antiterrorism Program. They conduct vulnerability assessments and 
program reviews of Army Reserve commands and facilities across the 
Nation. Antiterrorism programs detect, deter, and defeat threats 
against Army Reserve personnel, equipment, and facilities. The scope of 
this mission has grown and requires capable individuals to manage and 
enact commanders' programs. Antiterrorism officers provide the 
expertise and ability to synchronize command protection-based programs, 
which further promotes unit readiness.
            Law Enforcement
    Adequate resources are required for law enforcement functions on 
all five Army Reserve installations:
  --Fort Buchanan;
  --Fort Devens;
  --Fort McCoy;
  --Fort Hunter Liggett; and
  --Camp Parks.
    Law enforcement focuses on protecting Army Reserve equities, both 
human and material, from criminal offenders, as well as assisting and 
serving the community. The resources provide installation commanders a 
fully trained and responsive cadre of Army civilian police, support the 
Military Working Dog (MWD) Program at Fort Buchanan, and provide 
support to missions in the Caribbean and South America. Funding also 
assures criminal deterrence, protection, and safety of soldiers, family 
members, and civilians who work, train, and live on Army Reserve 
installations.
                      services and infrastructure

    ----------------------------------------------------------------

Critical Facilities Programs That Sustain an Operational Army Reserve
  --MILCON & MILCON Tails
  --Facility Sustainment, Restoration, and Modernization
  --Energy Security and Sustainability
  --Army Reserve Communications

    ----------------------------------------------------------------

Facilities
    The Army Reserve has completed its transition from a strategic 
Reserve to an operational force through reorganization, realignment, 
and closure of some organizations. With this came greater efficiencies 
and readiness but also the need for sufficient facilities to meet 
mission requirements at the least cost, with acceptable quality and 
quantity, and at the right locations. Therefore, Services and 
Infrastructure Core Enterprises (SICE) is poised to anticipate and 
respond appropriately to emerging requirements to provide training 
platforms, maintenance facilities, and enhanced capabilities to meet 
army mission requirements.
    Today's ARFORGEN is a supply-based rotational model. ARFORGEN 
builds a structured progression of readiness over time to produce 
trained, ready, and cohesive units. Last year's move to a supply-based 
model creates a cultural shift in the way we provide services and 
installation infrastructure at Reserve Centers and training sites. The 
``Reserve Center'' is no longer an administrative facility but an 
Operations Complex that supports preparation, training, maintenance of 
equipment and family support activities crucial to the health, welfare, 
and morale of soldiers and families.
    In today's economic environment--the Nation as well as the Army 
Reserve--is required to become even more efficient in the use of our 
scarce resources. The Army, in concert with the Army Reserve, is 
developing a Facility Investment Strategy, which focuses on 
incorporating the major acquisition of units and equipping programs, 
that serves to advise the Construction Requirements Review Committee 
and the overall Army Military Construction (MILCON) program 
prioritization and review process. More importantly, this strategy will 
ensure our planning is proactive, efficient, and capable of supporting 
long-term mission requirements in both CONUS and OCONUS.

    ----------------------------------------------------------------

the army reserve facility investment strategy increases efficiency and 
                              reduces cost
Cornerstones
    Construct: Build out critical shortfalls.
    Sustain: Repair, improve, and sustain existing facilities.
    Dispose: Reduce inventory and cost through an aggressive disposal 
system.
    Enhance: Improve existing facilities.

    ----------------------------------------------------------------

MILCON and MILCON Tails
    Under Military Construction Army Reserve (MCAR), we have MILCON & 
MILCON Tails as our number one budget priority. Sufficient MILCON 
resources support new Organizational Readiness Training Centers (ORTCs) 
requirements. Older Reserve centers in the Northeast/Midwest areas of 
the country no longer support 21st-century recruiting markets, now 
burgeoning in the southern and western parts of the United States. 
While base realignment and closure (BRAC) facility construction efforts 
improved 17 percent of our facility portfolio, the average age remains 
at 40 years, down from an average age of 43 years prior to BRAC. With 
adequate resources for MILCON, we can avoid a continuous cascading 
effect of project implementation setbacks. Procurement and installation 
of fixtures, furniture and equipment, National Environmental Protection 
Act requirements, information technology and security equipment are 
additional costs that must be factored in.
Facility Sustainment, Restoration, and Modernization
    Sustainment, the cornerstone of facilities stewardship, inhibits 
deterioration, improves building systems quality and prevents 
sustainment migration. Continued support for sustainment activities 
helps us achieve the 60 years of average facility service life that 
supports Army Reserve future operational requirements. Restoration and 
modernization enhancements are increasingly advantageous for the Army 
Reserve as we anticipate increased efficiencies in military 
construction.
            Energy Security and Sustainability
    The Army Reserve included in its fiscal year 2013 budget request 
Energy security and sustainability funding to meet the minimum 
congressional and Federal energy sustainability mandates. This includes 
energy metering; green house gas emission reductions; energy 
consumption and security; expanding our use of renewable energy 
sources; achieving ``Net-Zero'' in water, waste and energy; and 
operational energy requirements to enhance the safety of our soldiers, 
family members, and Army Reserve civilians.
Army Reserve Communications
    The Army Reserve Network (ARNet) Management/Security/Defense 
encompasses three Management Decision Execution Packages (MDEPs):
  --Base Information Management Operations;
  --Defense/Information Assurance; and
  --Long Haul Communications.
    Army Reserve operations depend on ARNet functionality, agility, 
reliability, and security of critical mission information. ARNet 
defense denies adversaries and others the opportunity to exploit 
vulnerabilities. Long Haul Secure Communications are critical for 
mission command along with mobilization support.
    An uninterrupted information flow is a combat multiplier by 
synchronizing other joint capabilities. Continued funding included in 
the Army Reserve's budget request supports the information environment 
with global access, standard infrastructures and common policies that 
provide information services from the generating force to the tactical 
edge. Adequate resourcing allows normalization of ARNet defense, 
tactics, techniques, and procedures. Secure Internet Protocol Router 
Network (SIPRNet) and Secure-Video Teleconferencing (S-VTC) access for 
battalion and above are vital for pre-mobilization training and 
readiness requirements. Continued support for these programs permits 
secure communications and defends the ARNet from compromise.
                                materiel

    ----------------------------------------------------------------

Critical Equipping Programs That Sustain an Operational Army Reserve
  --Equipment Refresh/Life Cycle Replacement.
  --Standard Army Management Information Systems and Logistics 
        Automation Systems.
  --Second Destination Transportation of Equipment.
  --Five-Year Reviews of Resource Management Manpower, Training, and 
        Hiring Practices.

    ----------------------------------------------------------------

Army Reserve Materiel
    The Army Reserve has reached a level of logistics readiness unseen 
in its history, enhancing its ability to execute assigned missions for 
the Army and the Nation. There are critical areas where the momentum 
must be maintained to sustain our current level of readiness and 
capability--Equipment Refresh/Life Cycle Replacement, Second 
Destination Transportation and Surface OPTEMPO Tactical Maintenance 
Shops.
            Equipment Refresh/Life Cycle Replacement
    The Army Reserve works closely with Software Engineer Center--Lee 
(SEC-Lee) to ensure that all systems migrating to the Global Combat 
Support System-Army (GCSS-Army) have the latest technology upgrades. 
This ensures that Army Reserve logistics information technology systems 
are replaced by GCSS-Army and are robust enough to operate the new 
system. GCSS-Army fielding does not have hardware associated with it so 
it is essential that legacy systems are capable of operating the new 
software platform. GCSS-Army is an Enterprise Resource Planning (ERP) 
solution that creates a single, integrated logistics information system 
across the Army. When finished, the Army will have a single logistics 
information and management system with an integrated data warehouse 
across all components. The system will provide management tools to 
enable the Army to implement and sustain the ARFORGEN model more 
efficiently.
            Second Destination Transportation
    Second Destination Transportation (SDT) is essential to 
implementing and sustaining ARFORGEN in the Army Reserve. First, it is 
needed to support the ``bridging'' strategy of moving equipment from 
units in Reset and the early years of the ARFORGEN cycle to units in 
the later years of ARFORGEN. Second, it is needed to execute the Army 
Reserve's equipping strategy of reducing fleet management and inventory 
costs by concentrating equipment where it is needed, with the prospect 
of later cost savings from reduced transportation costs and more 
efficient management of equipment and maintenance resources.
            Surface Operations Tempo Tactical Maintenance Shops
    The appropriate level of resourcing will allow Regional Support 
Commands to continue contract maintenance labor in their Area 
Maintenance Support Activities and Equipment Concentration Sites. 
Contract labor addresses manpower shortages in shops as they are 
currently manned at only 56 percent of requirements. Additionally, 
actions taken under Grow the Army have increased maintenance intensive 
equipment by more than 18 percent. Once the requirements are documented 
to maintain this increase in equipment, the maintenance structure of 
the Army Reserve will only be filled to 39 percent of requirements. As 
the Army continues to field more equipment to the Army Reserve, these 
shortfalls will continue to grow.
Resource Management
            Five-Year Periodic Reviews of Resource Management Manpower, 
                    Training, and Hiring Policies
    Funding for periodic reviews (every 5 years) and authority within 
available funding allows the Army Reserve to implement changes in 
Resource Management Manpower Authorizations, Training, Hiring Policies, 
and Procedures unique to the Army Reserve, execute fiduciary 
responsibilities, and support the Army Reserve mission. This review 
includes a comprehensive examination of the distinctive systems/
software used by the Army Reserve to conduct its core business 
processes (the Reserve Level Application System (RLAS), is one primary 
example) and provides the ability to fund changes necessary due to 
advances in technology.
                 conclusion: the force is in good hands
    The Army Reserve provides trained, cost-effective and ready units, 
that enable the Total Army Force to meet and sustain global and 
domestic requirements. As military force draw down and overseas 
contingency operations (OCO) funding diminishes, continued use of the 
Army Reserve in an operational role is contingent upon congressional 
support of the fiscal year 2013 base budget request.
    The greatest asset the Army Reserve has today is the high quality 
and devotion to country of our warrior-citizens. The skills they bring 
to the fight and the leadership they bring back to their jobs and their 
communities is remarkable. Establishing a continuum of service that 
enables soldiers to meet the needs of serving their Nation, their 
families, and their civilian careers is paramount. Their dedicated 
service to the Nation should never be hindered by outmoded bureaucratic 
complexity. We need to think in terms of cultivating a ``Soldier for 
Life'' to retain the quality, highly experienced soldiers needed to 
sustain the expansible/reversible Army Reserve as an enduring 
operational force.
    With the impending downsizing of Army strength in the coming years, 
the Army Reserve will focus on retaining mid-grade enlisted and 
officers in key specialties required by the Army Reserve. We will 
increase our presence at Active component transition points and reach 
out to soldiers well before they are due to transition to help them 
recognize the value of continued service to their Nation in the Army 
Reserve.
    We will promote the Army Reserve managed Employer Partnership of 
the Armed Forces program as a tool for transitioning Active component 
soldiers, leveraging the program to develop the careers of soldiers 
through extensive internship and externship programs with key 
organizations. A great example of this is the Army Reserve's 
partnership with GE Healthcare to provide civilian training and 
certification of our Army Reserve xray technicians. We see this part of 
the program expanding as we move to share training and resources with 
our industry partners to our mutual benefit.
    We seek continued funding of recruitment, retention, and transition 
incentives to allow us to shape the force with less reliance on cross 
leveling to offset our mid-grade strength imbalances. Future recruiting 
efforts will target incentives to more prior-service military 
personnel, who bring more experience than first-term soldiers into the 
Army Reserve. These experienced soldiers are critical in filling 
shortages among mid-level commissioned and noncommissioned officers.
    Realization of a 5-year supply-based ARFORGEN Cycle means all of 
our operational units now have an ``available force pool'' date, which 
will allow us to build progressive readiness throughout the cycle and 
tailor our manning, equipping and training strategies, and our soldier 
and family support programs to best sustain the force throughout 
deployment cycle.
    Why an enduring operational force? Army Reserve capabilities are 
well-suited to support and participate in security cooperation 
activities and peace operations worldwide. Security cooperation builds 
relationships that promote specified U.S. interests, develops allied 
and friendly and capabilities for self-defense and coalition operations 
and provides U.S. forces with peacetime and contingency access. The 
extensive operational experience and relevant civilians skill-sets 
resident within the Army Reserve are essential in meeting Combatant 
Command requirements for international engagement activities that 
improve infrastructure, security, and institutions within foreign 
nations of strategic interest to the United States.
    We take our commitments to our Nation, to our Army, and to our 
soldiers, families, and our employer partners seriously. We are 
effective stewards of our Nation's resources. America's sons and 
daughters serve with an unwavering commitment, willingly answering the 
call to duty in a time of war or national emergency. As we position 
ourselves as an essential provider of combat support and combat service 
support to the United States Army, we look to the Congress and our 
fellow citizens for strength and support as our partners in maintaining 
an enduring operational Army Reserve for the 21st century.
                           your army reserved
    The United States Army Reserve provides trained units and qualified 
soldiers available for Active Duty in the Armed Forces in time of war 
or national emergency, and at such other times as the national security 
may require. Throughout the United States, the Army Reserve has four 
Regional Support Commands that provide base support functions, and 13 
Operational and Functional Commands available to respond to homeland 
emergencies and expeditionary missions worldwide.
         army reserve soldiers and economic impact by the state
                         [dollars in millions]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Economic impact consists of the payroll for Select Reserve Soldiers and 
Civilian support, Army Reserve military construction (MILCON) projects, 
leases, utilities, municipal services, engineering services, fire and 
emergency services, maintenance and repair, minor construction, 
environmental compliance, environmental conservation, and pollution 
prevention.
                         army reserve snapshot
    Mission.--The Army Reserve provides trained, equipped, and ready 
soldiers and cohesive units to meet global requirements across the full 
spectrum of operations.
    Vision.--As an enduring operational force, the Army Reserve is the 
premier force provider of America's citizen-soldiers for planned and 
emerging missions at home and abroad. Enhanced by civilian skills that 
serve as a force multiplier, we deliver vital military capabilities 
essential to the Total Force.
Key Leaders
    Secretary of the Army: The Honorable John M. McHugh
    Army Chief of Staff: General Raymond T. Odierno
    Chief, Army Reserve and Commanding General, U.S. Army Reserve 
Command: Lieutenant General Jack C. Stultz
    Assistant Chief, Army Reserve: Mr. James Snyder
    Deputy Commanding General, (Operations): Major General Jon J. 
Miller
    Deputy Chief Army Reserve, Individual Mobilization Augmentee: Major 
General Marcia M. Anderson
    Deputy Chief Army Reserve/Human Capital Enterprise: Brigadier 
General James V. Young
    Deputy Commanding General (Support)/Chief of Staff: Major General 
Keith L. Thurgood
    Director for Resource Management/Materiel Enterprise: Mr. Stephen 
Austin
    Deputy Chief of Staff, G-3/5/7/Force Programs Division/Readiness 
Enterprise: Brigadier General Scott L. Donahue
    Chief Executive Officer/Director, Services and Infrastructure 
Enterprise: Mr. Addison D. Davis
    Command Chief Warrant Officer: Chief Warrant Officer 5 James E. 
Thompson
    Command Sergeant Major: Command Sergeant Major Michael D. Schultz
Army Reserve Basics
    Established: April 23, 1908
    2011 Authorized End Strength: 205,000
    Selective Reserve Strength: 204,647
    Accessions Goal for Fiscal Year 2011: 19,000
    Accessions Achieved Fiscal Year 2011: 19,608
    Accessions Goal for Fiscal Year 2012: 16,000
    Reenlistment Goals for Fiscal Year 2011: 10,990
    Reenlistment Goals Achieved for Fiscal Year 2011: 11,719
    Reenlistment Goals for Fiscal Year 2012: 13,106
    Soldiers Deployed Around the World: 19,156
    Soldiers Mobilized Since September 11, 2001: 200,148
    Number of Army Reserve Centers: 1,100
Distinctive Capabilities
    The Army Reserve contributes to the Army's Total Force by providing 
100 percent of the:
  --Theater Engineer Commands
  --Civil Affairs Commands
  --Training Divisions
  --Biological Detection Companies
  --Railway Units
  --Replacement Companies
. . . more than two-thirds of the Army's:
  --Medical Brigades
  --Civil Affairs Brigades
  --PSYOPS Groups
  --Expeditionary Sustainment Commands
  --Dental Companies
  --Combat Support Hospitals
  --Army Water Craft
  --Petroleum Units
  --Mortuary Affairs Units
. . . and nearly one-half of the Army's:
  --Military Police Commands
  --Information Operations Groups
  --Medical Units
  --Supply Units
Army Reserve Demographics

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Ethnicity (in percent):
    Caucasian..............................................        57.9
    Black..................................................        21.9
    Hispanic...............................................        13.4
    Asian..................................................         4.0
    Pacific Islander.......................................         1.0
    Native American........................................         0.7
    Other..................................................         1.1
Average Age................................................        32.1
    Officers...............................................        40.5
    Enlisted...............................................        30.3
    Warrant................................................        43.0
Married (in percent).......................................        45.2
    Officers...............................................        66.2
    Enlisted...............................................        40.7
    Warrant................................................        73.3
Gender (in percent):
    Male...................................................        76.9
    Female.................................................        23.1
------------------------------------------------------------------------

Army Reserve Budget Figures

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Total fiscal year 2012 enacted budget.................      $8.8 billion
    Operations and maintenance........................       3.3 billion
    Military Personnel................................       5.2 billion
    Military Construction.............................       281 million
------------------------------------------------------------------------

Army Reserve Installations
    Fort Buchanan, Puerto Rico
    Fort McCoy, Wisconsin
    Fort Devens, Massachusetts
    Fort Hunter Liggett, California
    Fort Dix, New Jersey
    Camp Parks, California

    ----------------------------------------------------------------

    I am an American Soldier.
    I am a Warrior and a member of a team. I serve the people of the 
United States and live the Army Values.
    I will always place the mission first.
    I will never accept defeat.
    I will never quit.
    I will never leave a fallen comrade.
    I am disciplined, physically and mentally tough, trained, and 
proficient in my warrior tasks and drills. I always maintain my arms, 
my equipment and myself.
    I am an expert and I am a professional.
    I stand ready to deploy, engage, and destroy the enemies of the 
United States of America in close combat.
    I am a guardian of freedom and the American way of life.
    I am an American Soldier.

    ----------------------------------------------------------------

    Chairman Inouye. Sergeant, thank you for your service to 
our Nation. We are very proud of you, so please be recognized. 
And I think an important partner is your wife.
    And I'll call upon the General of the Marines, General 
Hummer.
STATEMENT OF LIEUTENANT GENERAL STEVEN A. HUMMER, 
            DIRECTOR, RESERVE AFFAIRS, UNITED STATES 
            MARINE CORPS
    General Hummer. Thank you very much, Chairman Inouye, Vice 
Chairman Cochran, and members of this subcommittee.
    It's an honor and a privilege to speak with you here today 
on behalf of your United States Marine Corps Reserve.
    Mr. Chairman, we welcome your leadership and your support. 
The subcommittee's continued unwavering support for Marine 
Corps Reserve and its associated programs enables marines and 
sailors to professionally and competently perform in an 
operational capacity, and it is greatly appreciated.
    With me today, and I'd ask them to stand up, are my two 
senior enlisted advisers and leaders, Sergeant Major James E. 
Booker, and Command Master Chief Eric E. Cousin.
    These gentlemen epitomize the Navy-Marine Corps team, and 
proudly represent our services' enlisted marines and sailors 
who collectively form the backbone of Marine Forces Reserve.
    The Marine Corps is as strong today as ever in its 236-year 
history. Our marines have been doing what they have done best 
since 1775, standing shoulder-to-shoulder to fight our Nation's 
battles.
    I'm pleased to report to you today that today's Marine 
Corps attends to its commitments as a Total Force, and as such, 
the Marine Corps Reserve is integrated in all areas of the 
Marine Corps as never before.
    Since 2001, this great Nation required the Marine Corps 
Reserve to be continuously engaged in combat operations in Iraq 
and Afghanistan as well as in regional security cooperation and 
crisis prevention activities in support of various 
geographical, combatant commanders.
    Almost 80,000 reservists have been activated or mobilized 
since September 11. This operational tempo has built a momentum 
among our warfighters and a depth of experience throughout our 
ranks that is unprecedented in the generations of Marine Corps 
Reservists.
    This operational tempo has enabled the Marine Forces 
Reserve to evolve from a Strategic Cold War Reserve to an 
operational force capable of simultaneously filling both roles, 
both the strategic and the operational role.
    In the operational role, Marine Forces Reserve has sourced, 
pre-planned, rotational and routine combatant commander and 
service requirements across a variety of military operations.
    Marine Forces Reserve continues to perform its strategic 
role with combatant commander exercise involvement and focused 
readiness that coherently enables a rapid transition to 
operational roles or support to major contingency operations.
    As I sit here today, we have almost 1,500 marines and 
sailors deployed on five continents in support of six 
geographic combatant commanders, which includes conducting 
combat operations in Afghanistan, to theater security 
activities by a special Marine Air Ground Task Force in Eastern 
Africa.
    As the Active component Marine Corps reshapes from 201,000 
marines, to a force of approximately 182,100, the diverse depth 
and range of the Marine Corps Reserve will be leveraged to 
mitigate risk and maximize opportunities where available.
    I am highly confident that the authorized Marine Corps 
Reserve end-strength of 39,600 is appropriate for providing us 
with the personnel required to support the Total Force during 
Active component build down.
    Accordingly, our manpower bonus and incentive programs for 
Reserves are essential tools in achieving 100 percent of our 
authorized end-strength, and the continued use of these 
programs is critically important as we rebalance the Total 
Force.

                           PREPARED STATEMENT

    It's a privilege to serve during these very important and 
challenging times in our Nation's defense, especially as a 
leader of our All-Volunteer Reserve Component Force.
    With your continued support, I'm highly confident that your 
Marine Corps Reserve will remain a ready, relevant and 
responsive force that continues to be fully vested in the Total 
Force Marine Corps.
    Thank you for your demonstrated support for our reservists, 
their families and their employers, and from your Marines, 
semper fidelis.
    Chairman Inouye and distinguished members of the 
subcommittee, I look forward to your questions.
    [The statement follows:]
       Prepared Statement of Lieutenant General Steven A. Hummer
    Chairman Inouye, Ranking Member Cochran, and distinguished members 
of the subcommittee, it is my honor to report to you on the state of 
the Nation's Marine Corps Reserve and our reservists, who 
enthusiastically and professionally contribute to the balanced air-
ground-logistics team that underscores America's Expeditionary Force in 
Readiness--the U.S. Marine Corps. We are extremely grateful for your 
continued support of programs like tuition assistance and transition 
assistance, Manpower Retention Incentives, and the Yellow Ribbon 
Reintegration Program, as well as the recently approved section 12304b 
in chapter 1209 of title 10. These help to sustain us as an Operational 
Reserve and as a crucial part of the Total Force.
                              introduction
    The Marine Corps is as strong today as ever in its 236-year 
history. That's a bold statement, but it's backed by equally bold 
Active and Reserve component marines who are experienced in taking the 
fight directly to the enemy. Our marines have been doing what they have 
done best since 1775--standing shoulder-to-shoulder to fight and win 
the Nation's battles. We don't differentiate; all marines--whether 
Reserve or Active component--are disciplined, focused, and lethal. We 
are a Total Force, and as such, the Marine Corps Reserve is integrated 
in all areas of the Marine Corps as never before.
    I continue to be humbled on a daily basis in my interactions with 
our magnificent reservists. Like their Active Duty brothers and 
sisters, they sacrifice so much of their time--and so much of 
themselves--to protect and serve this great Nation. The way they 
balance their family responsibilities, civilian lives, and 
occupations--and still stay marine--continues to amaze me. They do it 
with humility, without fanfare, and with a sense of pride and 
dedication that is consistent with the great sacrifices of marines of 
every generation. I am reminded daily about the seriousness of the 
environment in which we operate and the uncertain times that lay ahead 
in this fiscally constrained environment. That said, I remain highly 
confident in the ability of the Marine Corps Reserve to meet these 
challenges due to the tremendous talent that fills our ranks and the 
incredible support by this subcommittee and the American people who 
sustain us.
    The four priorities outlined by the Commandant of the Marine Corps 
in his 2012 Report to Congress on the Posture of the United States 
Marine Corps will continue to ensure the Total Force is able to meet 
the demands of the future. They are:
  --Provide the best trained and equipped marine units to Afghanistan. 
        This will not change and remains our top priority;
  --Rebalance our Corps, posture it for the future and aggressively 
        experiment with and implement new capabilities and 
        organizations;
  --Better educate and train our marines to succeed in distributed 
        operations and increasingly complex environments; and
  --Keep faith with our marines, our sailors, and our families.
    The priorities I've outlined for Marine Forces Reserve are nested 
within the Commandant's priorities to ensure today's Marine Corps 
Reserve is a nimble, fully engaged part of the Total Force that is 
necessary for modern combat. I believe Active component Marines and 
senior leadership at all levels appreciate a fully engaged Operational 
Reserve Force. As an integral element of the Total Force Marine Corps, 
our marines and sailors share the culture of deployment and 
expeditionary mindset that has dominated Marine Corps culture, ethos, 
and thinking since our service's beginning more than 2 centuries ago. 
Accordingly, the U.S. Marine Corps Reserve is organized, manned, 
equipped, and trained, like our Active Duty brethren, to provide a 
professionally ready, responsive, and relevant force as a Marine Corps 
solution to enable joint and combined operations. We are, and will 
remain, a key component in the Corps' role as America's Expeditionary 
Force in Readiness.
                         an operational reserve
    Since 2001, this great Nation required its Marine Corps Reserve to 
be continuously engaged in combat operations in Iraq and Afghanistan as 
well as in regional security cooperation and crisis prevention 
activities in support of the various geographical combatant commanders. 
This operational tempo has built a momentum among our war fighters and 
a depth of experience throughout the ranks that is unprecedented in 
generations of Marine Corps Reservists.
    As of February 1, 2012, 61,123 marines from the Ready Reserve have 
executed a total of 79,420 sets of mobilization orders. This 
operational tempo has enabled Marine Forces Reserve to evolve from a 
strategic to an operational force, capable of simultaneously fulfilling 
both roles. In the operational role, Marine Forces Reserve has sourced 
preplanned, rotational, and routine combatant commander and service 
requirements across a variety of military operations. We have routinely 
supported operations in Afghanistan and Iraq while sourcing combatant 
commander requirements, such as Special Purpose Marine Air Ground Task 
Force in support of U.S. Africa Command (AFRICOM); Black Sea Rotational 
Force in support of U.S. European Command (EUCOM); Unit Deployment 
Program (UDP) in support of U.S. Pacific Command (PACOM); and Southern 
Partnership Station in support of U.S. Southern Command (SOUTHCOM). 
Additionally, Marine Forces Reserve continues to perform its strategic 
role with combatant commander exercise involvement and focused 
readiness that coherently enables a rapid transition to operational 
roles or support to major contingency operations.
    During the previous year, Marine Forces Reserve operations 
continued on a high-operational tempo as we supported all of the 
geographical combatant commanders across the globe. Our force-level 
units and major subordinate commands--the 4th Marine Division, 4th 
Marine Aircraft Wing, and 4th Marine Logistics Group--were called upon 
to provide 3,227 marines to support Operation Enduring Freedom (OEF) 
and plan to deploy 788 marines this fiscal year. Marine Forces Reserve 
also deployed marines to a multitude of theater-specific exercises and 
cooperative security efforts, which were designed to increase 
interoperability with our Partnership For Peace NATO allies as well as 
for developing Theater Security Cooperatives in countries such as 
Morocco, South Africa, Romania, Georgia, the Black Sea region and with 
our partners throughout the Pacific Rim.
    Marine Forces Reserve's operational focus will continue to directly 
support the geographical combatant commanders this year in various 
roles that includes multiple bilateral exercises, such as African Lion 
in Morocco, Key Resolve and Ulchi Freedom Guardian in South Korea, Cold 
Response in Norway, Tradewinds in Barbados, and Agile Spirit, which is 
an ongoing effort with the Georgian Army in and around Tbilisi. The way 
ahead for Marine Forces Reserve includes continued support to OEF while 
also maintaining a high operational tempo by deploying forces to meet 
high-priority combatant commander requirements. Principle among these 
deployments is the support to an AFRICOM Special Purpose Marine Air 
Ground Task Force, forward deploying an Artillery Battery to Okinawa, 
Japan, as part of the Unit Deployment Program, and the building of 
partner capacity in the Black Sea region on behalf of the geographical 
combatant commander by providing Marine Reservists to conduct 
operations of various sizes and complexities throughout the region to 
assure stability and sustainability in this high priority geopolitical 
region. Like our Active Duty counterparts, our training and exercise 
support will incorporate amphibious operations and a refocused 
concentration on our Naval heritage. During January, our personnel 
participated in Bold Alligator, the largest amphibious exercise the 
Navy and Marine Corps have conducted in more than a decade.
    In addition to operational requirements, Marine Forces Reserve 
personnel and units conduct community relations events nationwide. Due 
to the command's unique geographical dispersion, Marine Forces Reserve 
personnel and units are advantageously positioned to interact with the 
American public, telling the Marine Corps story to our fellow citizens 
who typically have little or no contact with the Marine Corps. 
Therefore, for the preponderance of the American public, their 
perception of the Marine Corps is informed by dialogue with our 
reservists during the myriad of community relations events that occur 
throughout the year across the country.
    During the previous year, Marine Forces Reserve supported more than 
10 significant community relations events, which included among others 
Marine Week St. Louis, Armed Forces Bowl in the Dallas/Fort Worth area, 
New York City Fleet Week, Baltimore Fleet Week, and Public Service 
Recognition Week and Joint Service Open House in the District of 
Columbia area. Marine Forces Reserve also supported more than 50 
community relations events of a lesser scale that included various air 
shows, memorials, and assorted flyovers across the Nation. 
Additionally, more than 380 community events of a routine nature were 
supported across the Nation, such as color guard details, vehicle and 
weapon static displays, and speaking engagements.
    The significant community relations events required a footprint of 
Marine Forces Reserve assets that mirrored an operational Marine Air-
Ground Task Force. Of note is the Marine Week concept, which is a 
Headquarters Marine Corps strategic engagement activity that was 
initiated during 2009. This strategic engagement initiative was created 
to articulate to the American public what the U.S. Marine Corps stands 
for, what we do, who we are, and what the Corps aspires to accomplish 
in the future. This week-long event generally encompasses a series of 
more than 60 smaller events, which may include formal ceremonies, 
various static displays of aircraft, vehicles and weapons, and other 
outreach events such as sports demonstrations, concerts, and tactical 
demonstrations. However, months prior to the event, key leaders from 
throughout the Marine Corps interact with the local community through 
leadership panels and discussion groups covering topics such as 
diversity, roles and opportunities for service by women, and general 
leadership principles. Marine Forces Reserve was the lead element for 
Marine Week since its inception, sourcing the Marine Air Ground Task 
Force command element and the preponderance of the subordinate units 
for Marine Week Chicago in 2009, and has done so for subsequent Marine 
Weeks: Boston in 2010 and St. Louis in 2011. Marine Forces Reserve will 
take the lead once again for Marine Week Cleveland this June and is 
likely to be the Force of Choice to form the command element on behalf 
of the Marine Corps for all Marine Weeks hereafter due to our national 
footprint, deep connection with local communities, and integration of 
Active and Reserve component personnel at our Reserve centers across 
this great Nation.
    I would be remiss if I didn't include veterans as key components to 
our continued success in communities across the country. Veterans 
provide our personnel, Active and Reserve, with unsurpassed support. 
Veterans often serve as a communication conduit between our marines and 
local leaders and business owners. They are also instrumental in 
assisting with community engagement, such as Marine Week and the Marine 
Corps Reserve Toys for Tots program.
    In addition to participating in operational requirements across the 
globe and in community relations events here at home, our Active Duty 
marines who are assigned to our Inspector--Instructor and Reserve Site 
Support staffs steadfastly and diligently execute the significant 
responsibility of casualty assistance. Continued operational efforts in 
Afghanistan have required that these marines remain ready at all times 
to support the families of our fallen marines in combat abroad, or in 
unforeseen circumstances at home. By virtue of our geographic 
dispersion, Marine Forces Reserve personnel are well-positioned to 
accomplish the vast majority of all Marine Corps casualty assistance 
calls and are trained to provide assistance to the families. 
Historically, our personnel have been involved in approximately 80 
percent of all Marine Corps casualty notifications and follow-on 
assistance calls to the next of kin. During calendar year 2011, our 
Inspector--Instructor and Reserve Site Support staffs performed 83 
percent of the total casualty calls performed by the Marine Corps (310 
of 375). There is no duty to our families that we treat with more 
importance, and the responsibilities of our Casualty Assistance Calls 
Officers (CACO) continue well beyond notification. We ensure that our 
CACOs are well trained, equipped, and supported by all levels of 
command. Once a CACO is designated, he or she assists the family 
members from planning the return of remains and the final rest of their 
Marine to advice and counsel regarding benefits and entitlements. In 
many cases, our CACOs provide a long-lasting bridge between the Marine 
Corps and the family while providing assistance during the grieving 
process. The CACO is the family's central point of contact and support, 
and he or she serves as a representative or liaison to the funeral 
home, government agencies, or any other agency that may become 
involved.
    Additionally, Marine Forces Reserve units and personnel provide 
significant support for military funeral honors for our veterans. The 
Inspector--Instructor and Reserve Site Support staffs, with 
augmentation from their Reserve Marines, performed 91 percent of the 
total funeral honors rendered by the Marine Corps during calendar year 
2011 (15,366 of 16,943). We anticipate providing funeral honors to more 
than 16,000 marine veterans during calendar year 2012. Specific 
authorizations to fund Reserve Marines in the performance of military 
funeral honors have greatly assisted us at sites such as Bridgeton, 
Missouri, where more than 10 funerals are consistently supported each 
week. As with casualty assistance, we place enormous emphasis on 
providing timely and professionally executed military funeral honors 
support.
    The upcoming implementation of the Marine Corps' Force Structure 
Review (FSR) of the Total Force--Active, Reserve, and civilian--will 
not impede our operational excellence, community involvement, casualty 
assistance, or funeral honors. The FSR initiative evaluated and refined 
the organization, posture, and capabilities required of America's 
Expeditionary Force in Readiness in a post-OEF security environment. It 
was further informed by the Department of Defense budget that was 
developed and incorporated in the fiscal year 2013 President's budget. 
Throughout the implementation plan, Marine Forces Reserve is prepared 
to work with any personnel affected by this initiative to locate a 
suitable opportunity. In some cases, the servicemember may be afforded 
an opportunity for inactive duty training travel reimbursement or 
additional training to obtain a new military occupational specialty. I 
appreciate in advance your support as we move forward to seamlessly 
implement the FSR plan.
                             predictability
    Our Force Generation Model is one of the most important planning 
mechanisms for facilitating the operational use of the Marine Corps 
Reserve. The Model, which was implemented in October 2006, continues to 
provide long-term and essential predictability of future activations 
and deployments for our reservists. The Model provides our reservists, 
their families, and their employers, the ability to plan for upcoming 
duty requirements in their lives 5 or more years out. This empowers 
servicemembers and their families to achieve the critical balance 
between family, civilian career, and service to the Nation while 
enabling employers to plan for and manage the temporary loss of valued 
employees. The Force Generation Model also assists service and joint 
force planners in maintaining a consistent and predictable flow of 
fully capable Marine Corps Reserve units.
    The Force Generation Model is a simple management tool that is 
based on 1-year activations followed by 5 years in a nonactivated 
status. This allows for a continued and sustainable 1:5 deployment-to-
dwell ratio for our reservists as well as the ability to support 
unplanned requirements. In fact, the Marine Corps Reserve can 
potentially source 3,000 marines per rotation and 6,000 marines 
annually at a 1:5 deployment-to-dwell ratio as programmed in the Force 
Generation Model. Furthermore, projecting predictable activation dates, 
mission assignments, and geographical destination years in advance 
enables units to focus training on core mission requirements early in 
the dwell period, then transition the training to specific mission 
tasks when the unit is 12-18 months from activation.
    The fiscal year 2012 National Defense Authorization Act that was 
signed into law by the President on December 31, 2011, greatly advances 
this predictable employment of the Reserve component as an operational 
Force. Specifically, the Reserve involuntary activation authority 
delegated to the Service secretaries to order Reserve component members 
to Active Duty for not more than 365 consecutive days for preplanned 
and budgeted missions promotes our ability to proactively plan for and 
provide well-equipped, trained, and competent Reserve Forces to the 
various geographic combatant commanders to fulfill their Theater 
Security Cooperation requirements.
    Title 10, chapter 1209, section 12304b, provides the appropriate 
authorities to ensure Marine Forces Reserve's continued level of 
support to geographic combatant commanders' Theater Security 
Cooperation and Phase 0 shaping operations as well as maintain 
readiness across the Total Force. Of particular note, this authority 
facilitates a Total Force sourcing solution to meeting global 
requirements by allowing the Secretary of a military department to 
determine when to use the Reserve component. This amendment provides 
for the flexibility Service planners need to determine force sourcing 
solutions based on Force Generation Models and policies. Over the last 
decade, the Services have seen an increasing demand signal from the 
geographical combatant commanders to support their Theater Security 
Cooperation and Phase 0 shaping operations. We certainly expect this 
demand will continue to increase in the post-OEF environment as 
geographic combatant commanders increase engagement activities across 
the globe.
                               personnel
    Marine Forces Reserve consists of Force-level units, such as 
Intelligence Support Battalion and Civil Affairs Groups, and our major 
subordinate commands--4th Marine Division, 4th Marine Aircraft Wing, 
and the 4th Marine Logistics Group. Marine Forces Reserve comprises a 
large percentage of the Selected Marine Corps Reserve's authorized end-
strength of 39,600. Additionally, Marine Forces Reserve administers 
approximately 57,000 marines who serve in the Individual Ready Reserve. 
The Selected Marine Corps Reserve is comprised of marines in Reserve 
units and the Active Reserve program as well as Individual Mobilization 
Augmentees and those in initial training. The Selected Marine Corps 
Reserve and the Individual Ready Reserve form the Ready Reserve.
    We continue to enjoy strong accessions and an increase in retention 
over the historical norm, which greatly enhanced our ability to improve 
manning to our end strength during fiscal year 2011. Our bonus and 
incentive programs for Reserves were essential tools in achieving 100 
percent of our authorized end strength. The continued use of these 
programs is a critical enabler for us as we rebalance the Force during 
the upcoming implementation of the Force Structure Review. Our 
authorized end-strength of 39,600 is appropriate for providing us with 
the personnel we require to support the Total Force while achieving the 
Secretary of Defense's goal of a 1:5 deployment-to-dwell for Selected 
Marine Corps Reserve units.
    I am pleased to report that the Marine Corps/Navy Reserve team is 
as strong as ever. During calendar year 2011, the Navy ensured Marine 
Forces Reserve units were fully manned and supported with Program 9--
U.S. Navy personnel in support of Marine Forces--and Health Service 
Augmentation Program personnel during all deployment phases. Four 
hundred eighty-six U.S. Navy personnel were sourced to staff Marine 
Forces Reserve units that deployed to Iraq and Afghanistan, as well as 
numerous joint and/or combined exercises. These individuals focused 
almost entirely on providing medical, dental and religious services. 
The Navy Mobilization Office works with my headquarters, as well as 
with my major subordinate commands, to source 100 percent of all 
requirements.
    Manning to authorized end strength requires an institutional 
approach. The Marine Corps is unique in that all recruiting efforts 
fall under the direction of the commanding general, Marine Corps 
Recruiting Command. This approach provides tremendous flexibility and 
unity of command in annually achieving Total Force recruiting 
objectives. Like the Active component Marine Corps, Marine Corps 
Reserve units rely primarily upon a first-term enlisted force. Marine 
Corps Recruiting Command achieved 100 percent of its recruiting goal 
for nonprior service recruiting (5,730 enlisted marines and 96 
officers) and prior service recruiting (4,058) for fiscal year 2011. As 
of February 29, 2012, 2,216 enlisted nonprior service and 1,242 
enlisted prior service marines have been accessed, reflecting 38.8 
percent of the nonprior service and 49.7 percent of the prior service 
annual enlisted recruiting mission for the Selected Marine Corps 
Reserve. We fully expect to meet our Selected Marine Corps Reserve 
recruiting goals again this fiscal year.
    Officer recruiting remains our most challenging area. Historically, 
the Active component Marine Corps has been the exclusive source of 
senior lieutenants and captains for the Marine Corps Reserve, and it 
remains a source of strength in meeting our company grade requirements. 
Through our transition assistance and educational outreach programs, we 
continue to ensure that each transitioning Active component marine is 
educated on continued service opportunities in the Marine Corps 
Reserve. To compliment the Active-to-Reserve component company grade 
accessions, we continue to offer three Reserve commissioning 
initiatives that focus exclusively on the most crucial challenge of 
manning the Marine Corps Reserve with quality company grade officers. 
These Reserve commissioning initiatives are the Reserve Enlisted 
Commissioning Program (RECP), which was expanded to qualified Active 
Duty enlisted marines in addition to qualified Reserve enlisted 
marines; Meritorious Commissioning Program--Reserve (MCP-R), which is 
open to individuals of the Active and Reserve components who have 
earned an associate's degree or equivalent in semester hours; and 
Officer Candidate Course--Reserve (OCC-R). Since 2004, these three 
programs have produced a total of 456 lieutenants for the Marine Corps 
Reserve. The OCC-R program has been the most successful of the three 
Reserve commissioning initiatives, producing 422 officers. It focuses 
on ground billets with an emphasis on ground combat and combat service 
support within specific Reserve units that are scheduled for 
mobilization. Thus, the priority to man units with these officers is 
tied to the Force Generation Model. These programs, combined with our 
prior service recruiting efforts, are projected to provide at least 90 
percent manning of critical combat arms and engineer company grade 
officer billets by September 30, 2015.
    As the Marine Corps begins to draw down Active component end 
strength to 182,100, the option to continue to serve in the Reserve 
component will undoubtedly be increasingly appealing to young marines 
leaving Active Duty. Those approaching the end of their current 
contracts--Active or Reserve component--receive more focused counseling 
on the tangible and intangible aspects of remaining associated with, or 
joining, the Selected Marine Corps Reserve. All commanders and senior 
enlisted leaders across Marine Forces Reserve are tasked to retain 
quality marines through example, mentoring, and information and 
retention programs. This takes place across the marine experience, not 
just in the final days of a marine's contract. Your continued support 
regarding enlistment, affiliation, and re-enlistment bonuses along with 
other initiatives that promote service to this great Nation greatly 
influences my ability to gain and retain the very best servicemembers. 
I greatly appreciate the continuance of these programs, especially 
since they are most likely to prove instrumental in aligning the right 
people to the right place as we rebalance the Force.
                               equipment
    The Commandant of the Marine Corps signed the Service's Ground 
Equipment Reset Strategy on January 1, 2012. This strategy resets the 
Force in support of the Commandant's reconstitution objectives. As the 
executive agent for the execution of this strategy, Marine Corps 
Logistics Command will ensure the timely and responsive reset of the 
Reserve component equipment to maintain a high state of readiness 
across the Force. The unique geographic dispersion of our Reserve units 
and their limited capacity to store and maintain the total war fighting 
equipment set onsite underscores the unique relationship between Marine 
Corps Logistics Command and our Reserve units. This relationship 
assures high training readiness by using a specific training allowance 
at Reserve Training Centers while maintaining the remainder of the war 
fighting requirement in enterprise-managed facilities. This strong 
relationship, which is necessary for a viable operational Reserve, is 
inherent in the service's reset strategy. I am confident that Marine 
Forces Reserve will continue to meet the Commandant's first priority--
provide the best trained and equipped Marine units to Afghanistan--
while protecting the enduring health of the operational Reserve.
    Although we have been engaged in combat operations for more than a 
decade, our equipment readiness rates remain above 97 percent. To be 
sure, this last decade has demonstrated the need to maintain a 
significant Reserve Force readiness posture, even during periods of no 
or low conflict. However, our current 97-percent readiness level has 
only been attained and sustained by the availability of contingency 
funding. As the contingency funding draws down and on-hand assets 
increase as a result of the Reset, we will rely solely on our 
Operations and Maintenance, Reserve appropriation. Additionally, 
equipment preventive maintenance and organizational maintenance 
programs have also become more developed due to increased training 
associated with mobilizations over the past decade. Thus, the 
requirement to maintain them will still exist as the contingency 
funding that supports these capabilities decreases.
    Several resources and programs combine to form the basis to the 
Marine Corps Reserve approach to maintenance. Routine preventive and 
corrective maintenance are performed locally by operator and organic 
maintenance personnel. This traditional approach to ground equipment 
maintenance was expanded to include an increasing reliance on highly 
effective contracted services and depot-level capabilities, which were 
provided by the Marine Corps Logistics Command. Over the past year, we 
experienced significant success with the Marine Corps Logistics 
Command's ``Mobile Maintenance Teams'' that have provided preventive 
and corrective maintenance support to all 183 Marine Corps Reserve 
centers across the United States. This maintenance augmentation effort 
has directly improved our equipment readiness as well as provided 
valuable ``hands on'' training to our organic equipment maintainers.
    Additionally, the Marine Corps Logistics Command's ``Enterprise 
Lifecycle Maintenance Program'' provides for the rebuilding and 
modifying of an array of principal end items, such as the light armored 
vehicle, the amphibious assault vehicle, and our entire motor transport 
fleet. Finally, we continue to reap significant benefits from the 
Marine Corps Corrosion Prevention and Control Program. Dollar for 
dollar, this program has proven highly effective in the abatement and 
prevention of corrosion throughout the Force. Collectively, these 
initiatives and the hard work and dedication of our marines and 
civilian marines across Marine Forces Reserve sustain our ground 
equipment readiness rates at or above 97 percent.
    The National Guard and Reserve Equipment Appropriation (NGREA) has 
been used to modernize and equip the Reserve component. It has funded 
equipment that provides both maximum interoperability and balance 
between the Active and Reserve components. Building on the $65 million 
and $45 million that we received in fiscal years 2009 and 2010 to 
supplement baseline procurement dollars and accelerate the fielding of 
various programs throughout the Marine Air Ground Task Force, fiscal 
year 2011's $70 million in NGREA support was used to procure 10 light 
armored vehicle logistics variants, which completed our light armored 
vehicles requirement. The funds were also used for the procurement of 
satellite network packages for command and control, Raven Unmanned 
Aerial Vehicle systems, various combat vehicle training and 
marksmanship systems, and virtual convoy trainers and simulators 
enhanced Reserve component modernization programs.
    As articulated in our fiscal year 2013 National Guard and Reserve 
Equipment Report (NGRER), the Marine Corps' Total Force fielding policy 
is accentuated by a methodology of horizontal fielding of equipment to 
enable the Service concept of ``mirror imaging'' between the Active and 
Reserve components. Accordingly, as the Marine Corps incorporates 
modernization programs to posture our capabilities to meet the ever-
changing character of current and future operations, we have identified 
five modernization priorities that could be funded with the fiscal year 
2012 NGREA that have been already provided.
    The first three priorities relate to the incorporation of aircraft 
flight training devices (FTDs) and their linkage via the Aviation 
Virtual Training Environment (AVTE). These devices will not only allow 
aircrews to conduct more sorties via the simulators/training devices 
but will also allow the Reserve component to train with other units and 
aircrews as a way to reduce costs in a resource-constrained 
environment. The first priority is to procure a CH-53E FTD, which will 
enable aircrew refresher and proficiency training along with AVTE 
linkage to other FTDs. The second and third priorities are to procure 2 
UH-1 and 1 MV-22 FTDs, respectively, allowing for both aircrew 
refresher and proficiency training, as well as conversion training 
prior to the UH-1Y and MV-22B aircraft delivery to the Reserve 
component.
    The fourth and fifth priorities involve the modernization of the 
KC-130T, which will remain in service in the Reserve component beyond 
the year 2020. Procurement of the Digital Engine Indicator Panels will 
mitigate parts obsolescence issues and the Electronic Prop Control 
Systems will increase the mean time between failures for the KC-130T 
community's top degrader. The modernization of the KC-130T will serve 
as a bridge to the KC130J, which may not be fielded to the Reserve 
component until 2020.
                                training
    For the fourth year in a row, Marine Forces Reserve will sponsor 
exercise Javelin Thrust stateside this July, which will focus on Marine 
Air Ground Task Force core competency training. Javelin Thrust 2012 
will be conducted aboard installations throughout the Western United 
States with both virtual and real world aspects to the exercise. This 
year, Javelin Thrust has been designated as Large Scale Exercise 1 for 
the Marine Corps and will serve as an aid-to-construct for future Large 
Scale Exercises. Javelin Thrust 2012 will be executed as a Marine Air 
Ground Task Force deployment vice a compilation of numerous annual 
training events, with units participating based on their future 
deployment schedule according to the Force Generation Model. Javelin 
Thrust will provide all elements of the Marine Air Ground Task Force 
with the opportunity to complete some of the training necessary to 
expeditiously forward-deploy in any operational environment. 
Additionally, individuals serving on the exercise's Marine Air Ground 
Task Force staffs will receive training that will enable them to 
competently perform as individual augments on a Marine Air Ground Task 
Force and/or joint staff overseas. The Large Scale Exercise will be an 
assessed Marine Air Ground Task Force exercise at the Marine 
Expeditionary Brigade level composed of Marine Forces Reserve units 
from Force-level units and all three major subordinate commands and an 
integrated Active and Reserve component headquarters. This aspect of 
the exercise is aimed at validating the Total Force approach with an 
emphasis on interoperability of Active component and Reserve component 
Marine forces.
    One of the most exciting areas where we continue to transform the 
depth and scope of our training remains the cutting-edge arena of 
Training Simulation. We continue to maximize our efficiencies by 
utilizing our training simulators wherever possible in order to 
preserve our fiscal resources. Marine Forces Reserve continues to field 
several immersive complex digital video-based training systems, 
complete with the sights, sounds and chaos of today's battlefield 
environments. These systems are particularly important, considering the 
limited training time and facilities available to our commanders. Last 
year, we completed the fielding and upgrading of the Indoor Simulated 
Marksmanship Trainer-XP. These simulators make it possible for the 
Marines to ``employ'' a variety of infantry weapons--pistol through 
heavy machinegun--in rifle squad scenarios.
    The Virtual Combat Convoy Trainer-Reconfigurable Vehicle System 
provides invaluable predeployment training for the drivers of all makes 
and models of tactical vehicles. This trainer provides various 
conditions of terrain, road, weather, visibility and vehicle condition 
as well as various combat scenarios, which includes routine movement, 
ambush, and IED, among others. The Virtual Combat Convoy Trainer-
Reconfigurable Vehicle System is a mobile, trailer-configured platform 
that utilizes a HMMWV mock-up, small arms, crew-served weapons, 360-
degree visual display with after-action review/instant replay 
capability. Incorporation of this training system is attributed with 
saving countless lives in Iraq and Afghanistan, and upwards of $37 
million a year in training dollars. We are now preparing to accept the 
fourth generation of this system and have doubled student throughput.
    The HMMWV Egress Assistance Trainer and the Mine-Resistant Armor 
Protected (MRAP) Egress Trainer are mechanical simulation trainers that 
familiarize Marines with the techniques and procedures to egress a 
HMMWV or a MRAP vehicle that has overturned. Both Trainers are training 
tools that provide Marines with the opportunity to experience vehicle 
roll-over conditions to enable them to rehearse actions and physically 
execute the steps necessary to survive a vehicle rollover. These 
systems support the U.S. Central Command requirement for all marines to 
complete vehicle roll-over training prior to deploying to designated 
combat zones.
    Language and culture training is available to all Marine reservists 
and is delivered via a variety of techniques from live instruction to 
portable media to Web-based tutorials and applications. Our Afghanistan 
culture training leverages academia, utilizes Afghan-American 
expertise, and includes Web-host detailed and tailored courses of 
instruction. These courses can be accessed by any computer and have the 
added functionality of being iPod compatible to download for 
transportability and accessibility by our marines. We beta-tested our 
first Pashtu language course for an infantry battalion that deployed to 
South Asia. This was an 18-week, 108-hour course that was a Webinar-
linked program, which allowed geographically separated marines and 
instructors to ``meet'' in a virtual classroom that consisted of using 
course-provided computing systems. It was synonymous with the program 
Special Operations Command has been running for a number of years. This 
course was directed to provide Pashtu language capability down to the 
squad level with participants at the rank of lieutenant, sergeant, 
corporal and below. In comparison to some of the resident training 
programs offered within the Joint and larger DOD community, this course 
yielded better results on the proficiency exam. Additionally, our 
marines also participated in introductory Pashto immersion training, 
which was conducted in 5- and 8-week blocks of instruction and was 
supported by the Partner Language Training Center Europe (PLTCE) 
Garmisch, Germany, and the Language Acquisition Resource Center at San 
Diego State University. Last, given that our Marines deploy throughout 
the globe, we access a variety of other sources of language and 
cultural training, such as the Marine Corps' Center for Advanced 
Operational Culture and Language, the Defense Language Institute, and 
Regional Language Centers. Your continued support of these enhanced 
language and culture learning opportunities critically enables our 
competence in the current fight in Afghanistan and global Theater 
Security Cooperation requirements.
    Last, Marine Forces Reserve has integrated safety programs in 
training to maximize Force preservation. Of particular note is our 
Center for Safety Excellence aboard Naval Air Station Joint Reserve 
Base New Orleans in Belle Chasse, Louisiana, where we address the 
current lead cause of death of our personnel--motor vehicle accidents. 
At the Center, personnel receive training in the safe operation of 
their motor vehicles, which includes both cars and motorcycles. I'm 
pleased to report that anecdotal evidence suggests this program was 
instrumental in the reduction of fatal motorcycle mishaps by 33 percent 
from fiscal year 2010 to 2011. Coupling these results with a renewed 
emphasis on personal responsibility, I directed leaders at all levels 
to establish a culture among our personnel that promotes making 
responsible choices.
    Responsible choices are the foundation of our Corps Values. In 
calendar year 2012, Marine Forces Reserve implemented the Culture of 
Responsible Choices program, which is really a change in mindset vice 
an actual new formal program. This mindset pertains to all Marines and 
people in Marine Corps organizations who are asked to rethink how they 
do business and conduct their lives to ensure their decisions lead to 
safe and healthy outcomes. The Culture of Responsible Choices program 
emphasizes personal responsibility and accountability for 
decisionmaking and behavior--not only within our fence lines and work 
centers but at home, in leisure activities, and in our personal lives. 
The program addresses a wide range of unhealthy and healthy human 
behaviors, such as alcohol misuse, drug use, tobacco use, physical 
fitness, sound financial management, vigorous suicide prevention, 
effective sexual assault response and prevention, and safe practices at 
work, at home, and on vacation. Alcohol misuse is our first target. 
Anecdotal evidence suggests alcohol misuse has been the common 
denominator for many poor choices and negative decision events across 
the behavioral health spectrum.
                               facilities
    Marine Forces Reserve has facilities in 48 States, the District of 
Columbia, and Puerto Rico. These facilities include 32-owned sites, 151 
tenant locations, three family housing sites, and a marine barracks. 
Although some Reserve centers are located on major DOD bases and 
National Guard compounds, many of our centers are openly located within 
civilian communities. Therefore, the condition and appearance of our 
facilities informs the American people's perception of the Marine Corps 
and the Armed Forces throughout the Nation. Our facilities' efforts 
focus on maintaining the physical resources to support ideal 
operational training that enables Marine Forces Reserve to support 
Service and combatant command operational requirements. The largest 
part of the budget for facilities is used to maintain the existing 
physical plant at diverse sites.
    Ninety-three of our 183 Reserve centers are more than 30 years old 
and 54 are more than 50 years old. Through recent increases in Marine 
Forces Reserve facilities sustainment, restoration, and modernization 
(FSRM) support and $39.9 million in American Recovery and Reinvestment 
Act (ARRA) funding, we have improved the overall readiness of our 
facilities inventory and corrected facility condition deficiencies. The 
FSRM funding was used to complete more than 150 projects during fiscal 
year 2011. Eighty-four FSRM projects are scheduled for fiscal year 
2012. The ARRA funding was applied to 25 projects across 11 States, 
which accomplished much needed repairs and renovations, while enhancing 
energy efficiency. Eight of those ARRA projects are still under way. 
Projects funded by ARRA include upgrades to meet antiterrorism force 
protection standards as well as building access compliance requirements 
of the Americans with Disabilities Act of 1990.
    The Base Realignment and Closure (BRAC) 2005 enabled us to 
consolidate and replace Reserve centers across the country, which 
included replacement of 22 centers. Under BRAC 2005, Marine Forces 
Reserve executed 24 of the Marines Corps' 47 directed actions, and 
successfully completed all its remaining relocations during fiscal year 
2011. Of these 24 BRAC actions, 21 were shared with Army and Navy 
military construction projects. Our BRAC plans were tightly linked to 
those of other Services and government agencies as we developed 
cooperative agreements to share Reserve centers and joint bases. Marine 
Forces Reserve units are aboard 8 of the 12 joint bases that were 
created under BRAC 2005. The accomplishments of BRAC 2005 represent the 
largest movement and upgrade in memory for the Marine Corps Reserve 
with 17 projects completed in 2011.
    The Marine Corps' Military Construction--Naval Reserve (MCNR) 
construction program focuses on new footprint and recapitalization of 
our aging facilities. The construction provided by BRAC 2005 and the 
annual authorization of MCNR funding have been important factors in 
moving Marine Forces Reserve forward in its facilities mission and 
taking our number of inadequate or substandard-sized Reserve centers 
significantly below the 50-percent level. Continued annual funding for 
our MCNR program will keep us moving in a positive direction, which 
will enable Marine Forces Reserve to constantly improve the physical 
infrastructure that supports and reinforces the mission readiness of 
our units.
    To address the implementation of sustainable design principles, 
Marine Forces Reserve has adopted the U.S. Green Building Council's 
(USGBC) Leadership in Energy and Environmental Design (LEED) Green 
Building Rating System for New Construction and Major Renovation. LEED 
is a performance-oriented system based on accepted energy and 
environmental principles where credits are earned for satisfying 
criteria designed to address specific environmental impacts inherent in 
the design, construction, operations, and maintenance of buildings. 
During fiscal year 2011, we completed our first LEED Silver-certified 
rehabilitation project in Baltimore, Maryland.
    There are significant opportunities to improve the energy and water 
efficiency of Reserve facilities and expand the use of renewable 
resources. During 2010 and 2011, we completed energy assessments at our 
32-owned sites and are implementing the recommendations from those 
assessments, initially targeting the sites that are the biggest energy 
users nationally. In addition, we have a contract in place and are well 
on our way to having advanced meters installed at our 32-owned Reserve 
centers across the country to measure building electrical usage and are 
on track for completion by the October 1, 2012, deadline. Since 2010, 
eight solar/photovoltaic energy and lighting projects have been 
completed at Reserve centers in California and Louisiana, and we have 
three more projects scheduled for completion during fiscal year 2012. 
The 225kw Louisiana project that was completed in August 2011 is the 
largest photovoltaic project in State history. Four small wind turbines 
are scheduled for construction in fiscal year 2012 with at least three 
more planned for fiscal year 2013. Our investment in these technologies 
provides energy security, efficiency, and cost avoidance for our 
geographically dispersed sites.
    Our environmental program continues to excel. I consider 
environmental compliance a priority for the command, and reinforce 
environmental compliance by directing continual training for our 
Marines and Sailors at each unit and site. Furthermore, our 
environmental program supports our FSRM and MCNR programs by ensuring 
compliance with the National Environmental Protection Act for each 
project and action.
    Of special note, this year is the movement of my headquarters and 
consolidation of our major subordinate commands in New Orleans. This 
unique BRAC project, which integrated State, local and Federal efforts, 
was completed on time. The State of Louisiana provided construction 
dollars for the new headquarters facility, saving the Federal 
Government more than $130 million. The Department of the Navy provided 
the interior furnishings, information technology, and security 
infrastructure. This building incorporates multiple energy and 
environmentally friendly processes that meet LEED-certifiable 
standards. We were assisted by Department of Energy's Federal Energy 
Management Program in identifying future projects for maximizing the 
sustainability and energy efficiencies of the buildings and the 
compound. This building and its surrounding acreage is the newest 
Marine Corps Installation: Marine Corps Support Facility, New Orleans.
    Last, implementation of the Force Structure Review provides an 
opportunity to better align mission changes with facilities 
infrastructure capabilities. As the process moves forward, the total 
impacts will be analyzed to gain efficiencies and reduce the backlog of 
unfunded MCNR projects, allowing targeted investment in those sites 
that provide the best operational return on investment.
                 health services and behavioral health
    Our Marines, sailors, and their families remain our highest 
priority. Therefore, we remain keenly attentive to their health and 
resiliency. During dwell, our health services priority is to attain and 
maintain the DOD goal of 75 percent ``Fully Medically Ready.'' In 
fiscal year 2011, Marine Forces Reserve individual medical and dental 
readiness rates were 56 percent and 83 percent, respectively. We are 
aggressively working to improve the medical readiness of the Force to 
achieve the goal of 75 percent ``Fully Medically Ready.''
    Healthcare for the Reserve component integrates many diverse 
programs across the spectrum of the deployment cycle--premobilization, 
deployment, and postdeployment--and is categorized into two areas: unit 
medical readiness and behavioral health. Unit medical readiness 
programs include the Reserve Health Readiness Program and TRICARE 
Reserve Select. Behavioral health programs include the Post Deployment 
Health Reassessment and the Psychological Health Outreach Program.
    The Reserve Health Readiness Program is the cornerstone for 
individual medical and dental readiness. This program funds contracted 
medical and dental specialists to provide healthcare services to units 
not supported by a military treatment facility. During fiscal year 
2011, the Reserve Health Readiness Program performed 12,398 Periodic 
Health Assessments, 781 Post-Deployment Health Reassessments, and 7,685 
Dental Procedures. TRICARE Reserve Select, a premium-based healthcare 
plan, is also available to our marines, sailors, and their families.
    Behavioral health has increasingly become an integral part of 
medical readiness over the past few years. Navy medicine continues to 
address this complex issue through various independent contracted 
programs, such as the Post-Deployment Health Reassessment and the 
Psychological Health Outreach Program. The Post-Deployment Health 
Reassessment identifies health issues with specific emphasis on mental 
health concerns, which may have emerged since returning from 
deployment. The Psychological Health Outreach Program addresses 
postdeployment behavioral health concerns through a referral and 
tracking process. These programs have proven effective in the overall 
management of identifying those marines and sailors who need behavioral 
health assistance and have provided an avenue to those servicemembers 
who seek behavioral health assistance.
    The Commandant of the Marine Corps directed that we more fully 
integrate behavioral health services to help reduce redundancies and 
ultimately improve the overall quality and access to care. The Marine 
Corps integrated its behavioral health programs in order to provide an 
integrated service delivery of innovative, evidence-based practices to 
commanders, servicemembers, and their families. This service delivery 
will be woven into the larger support network of our command structures 
and health and human services across the Marine Corps to better build 
resilience and strengthen marines and families. This efficiency 
initiative successfully integrates our Combat and Operational Stress 
Control, Suicide Prevention, Sexual Assault Prevention and Response, 
Substance Abuse Prevention, and Family Advocacy Programs and will be 
instrumental in synchronizing our prevention efforts. In regard to 
Combat and Operational Stress Control, training for leaders on this 
program was incorporated throughout Marine Forces Reserve at all 
levels. The training provides knowledge, skills, and tools required to 
assist commanders to prevent, identify, and manage combat and 
operational stress concerns as early as possible. This training is 
provided to servicemembers of units that are deploying for more than 90 
days during predeployment training.
    Given that the signs of operational and combat stress and suicide 
can manifest long after a servicemember returns home from deployment, 
there are unique challenges posed for Reservists who can be isolated 
from the daily support network inherent in one's unit and vital medical 
care. Encouraging marines to acknowledge and vocalize mental health 
issues is also a ubiquitous challenge facing our commanders. We are 
actively combating the stigma associated with mental healthcare through 
the immersion of key programs in the demobilization and reintegration 
processes of our Reserve Marines following deployment, such as the 
Yellow Ribbon Reintegration Program. Your continued support of these 
programs is greatly appreciated.
    There are six suicide prevention initiatives that we leverage for 
our Reserve marines and sailors:
    In-Theater Assessment.--Reservists who exhibit or are struggling 
    with clinically significant issues should be seen by competent 
    medical authorities and evaluated for postdeployment treatment with 
    follow-up decisions made prior to their return home.
    Post-Deployment Health Reassessment.--It is important that if any 
    issues emerge during the Reservist's Post Deployment Health 
    Reassessment (PDHRA) that they are immediately evaluated and 
    referred for treatment by the clinician interviewer. This includes 
    referral recommendations based on the available local resources, 
    such as the Veterans Administration, MilitaryOneSource, or private 
    mental health providers.
    Psychological Health Outreach Program.--I enthusiastically 
    recommend continued delivery of the Psychological Health Outreach 
    Program (PHOP), which is an essential program for treatment 
    referral and follow up to ensure they are receiving the appropriate 
    behavioral health services.
    Care Management Teams.--This suicide prevention initiative includes 
    the Veterans Administration's OIF/OEF care management teams that 
    are a readily available resource for our reservists. The VA assigns 
    a Primary Care manager, who is responsible for referral and follow-
    up, to any Reservist who has a healthcare issue.
    Never Leave a Marine Behind Suicide Prevention Course.--We continue 
    to implement the Marine Corps' Junior Marine, Non-Commissioned 
    Officer, Staff Non-Commissioned officer, and Officer modules of the 
    Never Leave a Marine Behind (NLMB) Suicide Prevention Course. The 
    NLMB series provides the best skills and tools available to 
    marines, sailors, and their leaders so that they can better cope 
    with the challenges of combat and the rigors of life both deployed 
    and in garrison. Marine Forces Reserve has trained hundreds of 
    Marines who can deliver the Course at more than 130 different 
    Reserve sites around the country.
    Telemedicine.--Telemedicine initiatives enable us to ensure there 
    are effective mechanisms available to identify reservists in need 
    and a way to treat those who may sometimes be geographically 
    isolated from the TRICARE networks.
    Additionally, any Reservist and their family can access Marine 
Corps installations behavioral health programs through Marine Corps 
Community Services programming while they are on any type of Active 
Duty orders. When they are not on Active Duty orders, MilitaryOneSource 
provides counseling, resources, and support to Reserve servicemembers 
and their families anywhere in the world. The DSTRESS Line will also be 
available to all Reserve marines, sailors, and family members. The 
DSTRESS Line is a by-Marine-for-Marine anonymous counseling and 
referral line, manned by veteran Marines and licensed behavioral health 
counselors who have been specifically trained in Marine Corps culture 
and ethos. Its mission is to foster resilience and build coping skills 
and includes a Web site with chat capability and interactive resource 
directory.
    Another resource Marine Forces Reserve utilizes to ensure the 
health and resiliency of our marines, sailors, and their families is 
our Chaplain Corps, which is composed of Active and Reserve Component 
chaplains. Specifically, my chaplains deliver the Chaplain Religious 
Enrichment Development Operations (CREDO) Marriage Enrichment Retreats, 
which focuses on strengthening the wellness of the Force by addressing 
the stressors on a marriage that may result from military service. That 
is, these retreats offer an opportunity for marines and sailors 
throughout our 183 Reserve centers to enrich and enhance their marriage 
in the presence of high-operational deployment cycles and the 
corresponding challenges that may ensue due to family separation. 
During fiscal year 2011, 166 couples participated in these retreats. 
Anecdotal evidence suggests that these retreats were effective in 
strengthening their marriages, which in turn, enhanced the readiness of 
our Force.
    Sexual Assault Prevention and Response (SAPR) continues to be a 
priority throughout the Force. A Force-wide 24/7 Help Line is available 
to Reserve and Active component servicemembers. The Help Line is 
staffed by marines who are trained to discretely respond to victims of 
sexual assault and refer them to services available throughout the 
United States. The Help Line is periodically assessed by my SAPR 
office, as well as Headquarters Marine Corps and the Naval Audit office 
for process improvement. Every Marine Reserve center has a Uniformed 
Victim Advocate (UVA) who is readily available to assist a victim 
whenever necessary. Developing a functional 24/7 response in the 
Reserves has required that our leaders research and develop 
relationships with other military and civilian behavioral health 
resources. Accordingly, many of the site's UVAs have created networks 
with Rape Crisis centers in their local areas in order to provide the 
best care available to victims whenever required. Sexual assault 
prevention and response training has been updated and includes the 
``Take A Stand'' video-based, bystander intervention curriculum. This 
3-hour annual training requirement began in January and is mandatory 
for all noncommissioned officers. The objectives of the course are to 
reduce the number of sexual assaults and to increase reporting. The 
course stresses the responsibility of noncommissioned officers to one 
another, as well as to one of the Marine Corps' most at-risk 
populations--junior marines. ``Take A Stand'' also stresses the 
importance of stepping in to prevent sexual assault through bystander 
intervention. Similar training will be provided to all ranks during 
fiscal years 2013 and 2014. The command climate within Marine Forces 
Reserve and throughout the Marine Corps fully supports sustaining an 
environment where sexual assault is not tolerated in any capacity on 
any level, which is essential in eradicating interpersonal violence 
from the Marine Corps.
                            quality of life
    We are devoted to ensuring an appropriate balance and effective 
performance of our quality-of-life programs and services to ensure our 
programs and services meet the needs and expectations of our Active 
Duty personnel and reservists, including those Reserve servicemembers 
in the Individual Ready Reserve (IRR). In doing so, we continue to 
operate Family Readiness Programs, revitalize services, and proactively 
reach out to and keep faith with our marines, sailors, and their 
families.
    To meet the challenge of deployments, and to maintain a constant 
state of readiness, the Marine Corps continues to enhance family 
support through our full-time Family Readiness Officer (FRO) program. 
This program is staffed by either civilians or Active Duty Marines and 
collateral duty uniformed Deputy FROs at the battalion/squadron level 
and above. Additionally, modern communication technologies, such as the 
recently launched e-Marine Web site, expanded our ability to better 
inform and empower family members--spouses, children and parents--who 
often have little routine contact with the Marine Corps and oftentimes 
live considerable distances from large military support facilities.
    We fully recognize the strategic role our families have in mission 
readiness, particularly mobilization preparedness. We prepare our 
families for day-to-day military life and the deployment cycle by 
providing predeployment, deployment, postdeployment, and follow-on 
educational opportunities at unit Family Days, Pre-Deployment Briefs, 
Return and Reunion Briefs, and Post-Deployment Briefs. This is 
accomplished through unit-level Family Readiness programs that are the 
responsibility of the local commanding officer, and is managed by the 
full-time, nondeploying FRO who is supported by trained volunteers and 
Force-level programs that are provided by a professional staff at 
Marine Corps Family Team Building (MCFTB).
    The MCFTB programs provide educational resources and services to 
foster personal growth and enhance the readiness of Marine Corps 
families. The program's core training is available to marines and their 
families and consists of Readiness and Deployment Support Trainer 
(RDST); Family Readiness Program Training (FRPT); Lifestyle Insights, 
Networking, Knowledge, and Skills (L.I.N.K.S.); and LifeSkills. During 
fiscal year 2011, 176 MCFTB training events were conducted across the 
United States at various Marine Corps Reserve units, which resulted in 
7,710 marines, sailors, and family members receiving critical and vital 
information and support.
    The goals of RDST and FRPT are to prepare marines, sailors, and 
their families for the unique challenges of deployment, in addition to 
maintaining a constant state of readiness independent of deployment. 
Each Marine Corps installation and Marine Forces Reserve are staffed 
with trainers who coordinate and deliver program trainings, pre-, mid-, 
and post-deployment briefs and support at the unit level for 
servicemembers and their families.
    The L.I.N.K.S. program is a training and mentoring program designed 
by marine spouses to help participants thrive in the military lifestyle 
and adapt to challenges, which includes those challenges that are 
presented by deployments. The program offers an orientation to the 
Marine Corps lifestyle by helping spouses, marines, children, teens, 
parents, and extended family members understand and adapt to the unique 
challenges that military life often presents.
    The objective of our LifeSkills training and education initiatives 
is to offer an opportunity for our marines, sailors, and their families 
to grow both personally and professionally by participating in 
workshops that cover a broad spectrum of life competencies in areas 
such as communication, relationships, and wellness. Online versions of 
all MCFTB trainings are slated to be available this year, which should 
make these valuable tools more readily accessible to families of our 
geographically dispersed servicemembers who are not in close proximity 
to Marine Corps installations.
    The Marine Forces Reserve Lifelong Learning Program continues to 
provide educational information to servicemembers, families, retirees, 
and civilian employees. More than 1,700 Marine Forces Reserve personnel 
(Active and Reserve component) enjoyed the benefit of tuition 
assistance, utilizing more than $4.5 million that funded more than 
5,500 courses during fiscal year 2011. Tuition assistance greatly eases 
the financial burden of education for our servicemembers while enabling 
them to maintain progress toward their education goals. Additionally, 
our partnership with tutor.com offers our marines, sailors, and their 
families access to 24/7 no-cost, live online tutoring services for K-12 
students, college students, and adult learners.
    Our Semper Fit program is fully engaged to deliver quality, 
results-based education and conditioning protocols for our marines and 
sailors. The program includes hands-on strength and conditioning 
courses, online physical fitness tools and recorded webinars, and 
instruction on injury prevention, nutrition, and weight management. Our 
marines' and sailors' quality of life is also increased through various 
stress management and esprit de corps activities, such as unit outings 
and participation in competitive events. These programs are key to unit 
cohesion, camaraderie, and motivation. Also, through the DOD contract 
with the Armed Services YMCA, the families of our deployed Reservists 
enjoy complimentary fitness memberships at participating YMCA's 
throughout the United States and Puerto Rico. Our Active Duty marines 
and their families located at independent duty stations have the 
ability to access these services as well.
    The Marine Corps' partnership with the Boys and Girls Clubs of 
America (BGCA) and the National Association for Child Care Resources 
and Referral Agencies (NACCRRA) continues to provide a great resource 
for servicemembers and their families in selecting child care, before, 
during, and after a deployment in support of overseas contingency 
operations and planned deployments. The Boys and Girls Clubs of America 
provide outstanding programs for our Reservists' children between the 
ages of 6 and 18 after school and on the weekends. Under our agreement 
with BGCA, Reserve families can participate in more than 40 programs at 
no cost. Our off-base child care subsidy program helps families of our 
reservists locate affordable child care that is comparable to high-
quality, on-base, military-operated programs. This program provides 
child care subsidies at quality child care providers for our Reservists 
who are deployed in support of overseas contingency operations and for 
those Active Duty marines who are stationed in regions that are 
geographically separated from military bases and stations. 
Additionally, our marine families (Active and Reserve) who are enrolled 
in the Exceptional Family Member Program are offered up to 40 hours of 
free respite care per month for each exceptional family member. This 
allows our families the comfort that their family member will be taken 
care of when they are in need of assistance.
    Marine Forces Reserve has fully implemented the Yellow Ribbon 
Reintegration Program at each of the five stages of deployment to 
better prepare our servicemembers and their families for activation and 
return to civilian life after mobilization. During fiscal year 2011, we 
took proactive steps to maximize participation while minimizing costs 
by hosting Yellow Ribbon Reintegration events at Reserve centers. This 
step lowered the average cost per participant to $340 per training 
session and I anticipate additional cost savings this fiscal year 
because of these efforts. More importantly, this enables our units to 
proactively plan around the operational and unique individual needs of 
their marines, sailors, and families in addition to keeping unit 
leadership in the forefront of the issues that affect their 
servicemembers. In fiscal year 2011, we executed 155 events in which 
6,264 servicemembers--including marines in the Individual Ready 
Reserve--2,399 family members, and 3,673 nondependent family members 
and/or designated representatives participated for a total of 12,366 
persons served by our program. Additionally, we are particularly 
supportive of Military OneSource, which provides our marines, sailors, 
and their families with an around-the-clock information and referral 
service via toll-free telephone and Internet access on subjects such as 
parenting, childcare, education, finances, legal issues, deployment, 
crisis support, and relocation. Your support of these programs enables 
Marine Forces Reserve to keep faith with our servicemembers and their 
families.
    Managed Health Network (MHN) is an OSD-contracted support resource 
that provides surge augmentation counselors for our base counseling 
centers and primary support at sites around the country to address 
catastrophic requirements. This unique program is designed to bring 
counselors on-site at Reserve centers to support all phases of the 
deployment cycle. Follow-up services are scheduled after servicemembers 
return from combat at various intervals to facilitate on-site 
individual and group counseling.
    Marines, sailors, and their families, who sacrifice so much for our 
Nation's defense, should not be asked to sacrifice quality of life. We 
remain a forceful advocate for these programs and services and continue 
to transition and align our programs and services to meet current and 
future challenges. The combined effect of these programs is critical to 
the readiness and retention of our marines, sailors, and their 
families, and your continued support of these programs is greatly 
appreciated.
  supporting our wounded, ill, and injured marines and their families
    The nonmedical needs of our wounded, ill, and injured (WII) marines 
and their families can be extensive and vary in type and intensity 
depending upon the phase of recovery. There is no ``one size fits all'' 
approach to WII care. The Marine Corps' Wounded Warrior Regiment (WWR) 
strives to ensure there is one standard of care for all WII marines--
whether they are Active component or Reserve component. The WWR holds 
high levels of subject matter expertise with regard to the unique 
challenges faced by Marine Reservists and has set up component of care 
accordingly. For example, the WWR has dedicated staff--the Reserve 
Medical Entitlements Determinations Section--to specifically maintain 
oversight of all cases of reservists who require medical care beyond 
their contract period for service-connected ailments. Additionally, the 
WWR has Recovery Care Coordinators who provide one-on-one transition 
support and resource identification required to support WII reservists 
and families who are often living in remote and isolated locations away 
from the support resident on bases and stations. Another significant 
support component of the WWR that makes a positive difference in the 
lives of our WII reservists is the Sgt. Merlin German Wounded Warrior 
Call Center. This 24/7 Call Center provides support on numerous issues 
that includes referral for psychological health matters, pay and 
entitlement questions, financial assistance resources, awards, and 
information on benevolent organizations. The WWR also uses the Sgt. 
Merlin German Wounded Warrior Call Center to conduct important outreach 
calls to various populations to check on their well-being and update 
them on changes in benefits and entitlements. Finally, the WWR has 
District Injured Support Coordinators (DISCs)--geographically dispersed 
Mobilized Marine Reservists--who assist Reserve Marines throughout the 
country, which includes face-to-face contact.
                               conclusion
    Marine Forces Reserve is well-positioned to be the Force of Choice 
for augmentation to the Active component, reinforcement for Service 
priorities, and sustainment as a relevant force now and for the future. 
Aligned with the middle weight force of America's Expeditionary Force 
in Readiness, Marine Forces Reserve provides options to Active 
component leaders and combatant commanders, from being ready for 
immediate use in support of disaster relief to providing strategic 
depth through sustained augmentation for major contingency operations. 
We live in a world of increasingly complex security challenges and 
uncertainty. Marine Forces Reserve is a learning organization that has 
institutionalized training, personnel management, and the Force 
Generation process to effectively and efficiently mobilize and deploy 
combat ready forces. We are well-postured to meet the current 
operational requirements and rapidly respond to future emergent 
contingencies. Your continued unwavering support of the Marine Corps 
Reserve and its associated programs enables our marines and sailors to 
professionally and competently perform in an operational capacity and 
is greatly appreciated. Semper Fidelis.

    Chairman Inouye. All right. Thank you very much, General 
Hummer.
    Now, may I recognize General Stenner.
STATEMENT OF LIEUTENANT GENERAL CHARLES E. STENNER, 
            JR., CHIEF, AIR FORCE RESERVE, UNITED 
            STATES AIR FORCE
    General Stenner. Mr. Chairman, Senator Cochran, thank you 
for the opportunity to appear here before you today.
    And I'd like to introduce my newest Command Chief of the 
Air Force Reserve Command and have her stand, please, Chief 
Master Sergeant Kathleen Buckner.
    Sir, I strongly believe today's Air Force Reserve is an 
operationally essential component of the Total Force because of 
our capability, capacity, and accessibility as a title 10 
resource.
    Air Force Reserve airmen are seamlessly integrated into 
every service core function across the full spectrum of 
operations.
    The Air Force Reserve is responsive to national security 
needs and is an effective, efficient, and affordable component 
of your Air Force, a ready force deployable within 72 hours.
    The Reserve is able to do this because of the depth of 
experience among our citizen airmen. Our Air Force Reserve 
personnel, most of whom come to us from the Active Force, 
average 7 years of additional experience over our Active Duty 
counterparts, and our equipment mission capability rates 
reflects that every day.
    Without a doubt, the Reserve is uniquely positioned to 
retain the Air Force's vast investment in human capital and 
maintain a cost-effective hedge against unanticipated 
requirements.
    The Reserve has experience from over 20 years of continuous 
operational engagement in both combat and humanitarian 
missions, and we've balanced this operation tempo (OPTEMPO) 
while maintaining our Nation's critical, strategic, surge 
capability.
    Our Air Force Reserve succeeds at being operationally 
engaged and strategically prepared due to our focus on 
maintaining the right balance. The correct Reserve, Guard, and 
Active Force mix is adaptable to circumstances, and I believe 
today's fiscal and security environments require increased 
reliance on the Reserve, and that our Air Force resourcing 
priorities should reflect such.
    The President and Secretary of Defense are clear about the 
need for reversibility of resources. The Air Force Reserve is 
their leverage to make this happen. The Nation can trust that 
the Air Force Reserve will be there when called, prepared, 
trained, and equipped to the same standards of the Active 
component.
    But there are challenges to maintaining this capability. 
The Air Force Reserve is forecasted to reduce by 900 personnel. 
However, that figure is just the proposed fiscal year 2013 
President's budget request and is the tip of the iceberg.
    Our Reserve is losing trained personnel and taking on new 
missions. The personnel losses are in specialties that are 
still essential to the Total Force, and at the same time, don't 
easily transfer to newly assigned mission areas.
    For instance, an aircraft maintainer with 17 years of 
experience cannot become a cyber warrior, with 17 years of 
experience, overnight.
    With that perspective, the Air Force is actually losing the 
capability of 5,000 to 6,000 experienced and trained personnel, 
and that loss could seriously affect the strategic reserve 
posture.
    The alternative to these losses once again is to focus on 
the correct balance, to adjust all three components mix, to 
better suit reversibility and maintain crucial capacity. I 
believe the Active component should be an advance force that is 
reactionary in nature, globally fielded in smaller numbers and 
highly responsive.
    In addition to the advance forces, the Air Force Reserve 
should be a more robust Reserve component as a projection 
force, based on the predictability of steady state and surge 
operations.

                           PREPARED STATEMENT

    The Air Force Reserve is engaged today and poised for the 
future. With the right mix of Guard, Reserve, and Active 
components, we can support the President's reversibility plan, 
contribute to the Nation's economic recovery and ensure the 
security of our Nation and its interests.
    Mr. Chairman, members of the subcommittee, Senator Cochran, 
I am honored to have served the last 4 years as Chief of the 
Air Force Reserve and Commander of the Air Force Reserve 
Command.
    I sincerely appreciate this subcommittee's enduring support 
of our Nation's citizen airmen, and I stand ready to respond to 
your questions. Thank you.
    [The statement follows:]
    Prepared Statement of Lieutenant General Charles E. Stenner, Jr.
     We live in a time of increasingly limited resources, where 
efficiencies and reduced budgets will dominate the foreseeable future--
the Air Force Reserve is not immune from the implications of this 
issue; rather, we stand ready as an operationally effective and cost-
efficient solution. Today, your Air Force Reserve, partnering with the 
Active component and Air National Guard, is committed to providing a 
Total Force solution for the Nation that is second to none. Air Force 
Reserve airmen are seamlessly integrated into every service core 
function across the full spectrum of operations, supporting missions in 
every area of responsibility with the full flexibility that a title 10 
force provides. We carry out missions across the globe as an effective 
and cost-efficient solution for America's defense: 69,141 citizen 
airmen have deployed since September 11, 2001, and we currently have 
approximately 5,700 personnel serving on Active Duty.
    The Air Force Reserve of today is a ready force, deployable within 
72 hours. We train to the same standards on the same equipment as the 
Active and the Air National Guard; offering a plug-and-play capability 
that cannot be matched by any other service. The most recent large-
scale example was the Air Force response to coalition operations during 
Operation Odyssey Dawn. Within 45 hours of notification a blend of 
Active and Reserve personnel and equipment deployed and began executing 
missions with resounding success. We have not always been able to 
respond so effectively, and with the continued support of the Congress, 
we will never return to the days of a ``hollow force.''
        operational command while maintaining strategic reserve
    Sustained operational taskings over more than two decades, combined 
with recent policy changes, have institutionalized the operational 
capability of the Air Force Reserve. Our operational capacity supports 
growth, sustainability, and an affordable balance among the Active and 
Reserve components. This operational capability results in increased 
force readiness while ensuring our ability to provide strategic depth.
    The Air Force continues to leverage the skills and expertise of our 
citizen airmen as we grow in mission areas deemed vital to supporting 
our National Defense Strategy: Space Superiority, Cyber Superiority, 
Global Integrated Intelligence, Surveillance, and Reconnaissance, 
Special Operations, Nuclear Deterrence Operations, and Agile Combat 
Support. We offer a flexible method to rapidly increase these critical 
capabilities.
    In order to maintain our high level of support, Air Force Reserve 
Command (AFRC) must be adequately resourced and have the same 
authorities as our partner major commands (MAJCOMs). We have numerous 
steady-state missions requiring military personnel appropriations (MPA) 
execution. These include Reserve-specific missions like hurricane 
hunters, aerial firefighting, and aerial spraying as well as our 
baseline support of instructors and daily operations across the Air 
Force. We currently rely on our partner MAJCOMs to provide the MPA 
budget to fund these AFRC steady-state missions.
    Under the proposed force structure, the Air Force Reserve is 
forecast to retire 82 aircraft and reduce end-strength by 900 
personnel. This manpower reduction is misleading since we are losing 
trained personnel in legacy missions while taking on new missions where 
the experience does not easily transfer. For example, an experienced 
aircraft maintainer cannot become a cyber-warrior overnight. Based on 
this reality, the Air Force Reserve is actually losing a capability of 
5,000-6,000 personnel and risks breaking the Strategic Reserve.
                       cost-effective capability
    National Guard and Reserve Equipment Account (NGREA) funds are 
critical for ensuring readiness through execution year funds. Our 
modernization strategy has consistently focused on providing our force 
with the most up-to-date systems possible, protecting airmen while they 
defend our Nation, equipping them for Irregular War Operations, and 
providing a common picture of the battlefield. Our strategy intends, 
first and foremost, to alleviate critical mission capability shortfalls 
that potentially cause mission failure or loss of life. Upgrade of 
defensive systems, communications equipment and data links, precision 
engagement capabilities to include target identification, and 
replacement of obsolete mission equipment are just a few examples of 
recent modernization efforts. All of this is due to the hard work of 
the members of this subcommittee and your staffs supporting the 
administration's budget requests.
    Military Construction (MILCON) is not a luxury; it is a necessity 
that impacts readiness. In addition to funding new facilities, we rely 
on MILCON as we repurpose existing buildings for use in new missions. 
The Air Force MILCON Program is based on mission-required construction 
priorities and distributes funds across installations based on their 
respective plant replacement value percentages. Using these 
calculations the Air Force Reserve should receive 4 percent ($17.7 
million) of the Air Force MILCON budget ($442 million); however, we are 
projected for only 2.5 percent ($11 million) of the program. The Active 
component and Guard both exceeded their equitable share at the expense 
of the Air Force Reserve.
    The Air Force Reserve provides our Nation cost-effective and 
efficient combat capability. We provide 3.5 combat-ready reservists for 
the cost of 1 Active-Duty airman. Our Air Force Reserve is rich with 
combat veterans and highly skilled reservists who average 4-5 years 
more experience than their Active Duty counterparts. In fact, more than 
56 percent of Air Force Reserve airmen have prior military experience--
representing an immense pool of talent that our Nation otherwise would 
have lost were it not for our Reserve component. The proposed Air Force 
Reserve budget is about 4.6 percent of the Air Force's $110.1 billion 
allocation. This includes more than $5 billion in funding for citizen 
airmen who fulfill title 10 or Federal roles and missions in time of 
war or national emergency. Our people and programs are created 
exclusively for the Nation's strategic capabilities that reach all the 
States as well as worldwide.
    In these times of constrained budgets, it is prudent to rebalance 
the force with a goal of maintaining to the fullest extent, the 
capability and professionalism that already exists in today's force to 
meet the challenges of the future. The American taxpayer has spent 
trillions of dollars training and equipping our airmen, and the Air 
Force Reserve is well-positioned to capture and preserve that 
investment. This is consistent with the principle of ``reversibility'' 
from the most recent strategic guidance.\1\ Assigning resources to the 
Air Force Reserve maintains the ability to generate capabilities that 
might be needed to meet future, unforeseen demands, maintaining 
intellectual capital and frontline experience that could be called upon 
when required.
---------------------------------------------------------------------------
    \1\ Presidential and Secretary of Defense strategic guidance, 
Sustaining U.S. Global Leadership: Priorities for 21st Century Defense, 
January 2012.
---------------------------------------------------------------------------
    Force rebalancing should be based on carefully considered analysis 
produced by all three of our components. As the Air Force works through 
this tough decisionmaking process, it is imperative that we ensure 
roles, missions, and force balance of all the components are 
appropriately considered. Trading away highly experienced Reserve 
personnel to invest in future Active component operations is a sub-
optimal choice that exchanges trained and available combat capability 
in the Air Force Reserve for recruiting and training new personnel in 
the Active component. A recent study found that Reserve component wings 
generally provide mission-ready aircraft, aircrews, and maintainers at 
lower annual cost when compared to the Regular Air Force.\2\ Operating 
characteristics of the Reserve, such as highly experienced aircrews 
that require fewer sorties to maintain proficiency, and lean 
infrastructure at many of our operating locations are contributing 
factors. This cost advantage means that Reserve resources provide surge 
capacity for less cost than other Air Force components.
---------------------------------------------------------------------------
    \2\ RAND Project Air Force, Comparing Costs: Active and Reserve 
Component Flying Units, PAF-1P-84, February 6, 2012, Al Robbert.
---------------------------------------------------------------------------
    Our force is agile and responsive to uncertainty and rapid changes 
in national priorities. We are ready, available, and accessible to 
fulfill operational requirements. And based on the force generation 
model, we can sustain operations at significantly lower cost than 
Active Forces.
                             citizen airmen
    In addition to their military obligation, citizen airmen balance 
the needs of their families and civilian employers--what we like to 
call ``The Reserve Triad.'' Our policies and actions must continue to 
support the viability of these relationships, especially as we adjust 
to meet the requirements of new strategic guidance. The Triad is 
foundational to our continued ability to provide a sustainable and 
effective fighting force. Openly communicating expectations, 
requirements, and opportunities provides predictability and stability 
within the Triad.
    The Air Force Reserve continues to recruit and retain the most 
qualified personnel available. We have met or exceeded our recruiting 
goals for the past 11 years and are able to select the best of the best 
by accessing just 26 percent of the qualified candidates. Similarly, 
our retention rates are at record highs, allowing us to maintain our 
depth of experience.
    The Air Force leverages the expertise of the Reserve component 
through associate constructs in which units of the three components 
share equipment and facilities to carry out a common mission. We have 
established a wide variety of associate units throughout the Air Force, 
combining the assets and manpower of all three components to establish 
Total Force units that capitalize on the strengths of each individual 
component. In 2011, the Air Force announced the stand up of three 
active Associations in the Combat Air Forces (CAF): one at Homestead 
Air Reserve Base, Florida; another at Naval Air Station Joint Reserve 
Base Fort Worth, Texas (formerly Carswell); and a third at Whiteman Air 
Force Base, Missouri. Today, the Air Force is leveraging more than 103 
associations and capitalizing on more than four decades of the 
associate experience, from which we have garnered countless successes.
    We thank this subcommittee for your continued support in funding 
our Yellow Ribbon Program. The Yellow Ribbon Reintegration Office 
provides support to military members and their families at a time when 
they need it the most, to ease the stress and strain of deployments and 
reintegration back to family life. Since the standup of the program in 
August 2008, more than 21,000 reservists and 15,000 family members have 
attended these events. From exit surveys and through formal and 
informal feedback, attendees feel ``better prepared, (and) confident 
following events.''
                               conclusion
    I am honored to have served the last 4 years as Chief of Air Force 
Reserve and Commander of Air Force Reserve Command. I take pride in 
leading the world's best Air Force Reserve, one-third of a Total Force 
that is fully trained and ready to defend our Nation. In a time of 
constricted budgets, thorough analysis is required to prioritize our 
requirements and ensure we meet our assigned missions. We must do so 
while keeping in mind the importance of our role in supporting joint 
and interagency operations.
    My top priority is to ensure that we fulfill our commitments as the 
title 10 Reserve component of the Total Force. We recruit and retain 
reservists in every Air Force career specialty in order to fulfill the 
Nation's need for cost-effective and efficient daily operations as well 
as a ready global surge capability.
    We will concentrate our resources to ensure maximum return on 
investment, while providing our citizen airmen the tools they need and 
the predictability their families and employers deserve.
    I sincerely appreciate the enduring support of this subcommittee. I 
look forward to continuing our work and ensuring the Air Force Reserve 
remains the finest in the world.

      TRANSFORMATION OF ARMY RESERVE FROM STRATEGIC TO OPERATIONAL

    Chairman Inouye. Thank you very much, General Stenner.
    May I now call upon General Stultz. During your tenure as 
Chief of the Army Reserve, you were called upon to transform 
the Reserve from strategic to operational.
    Can you give us an update on where you are at this moment? 
And also, how do you think your Operational Reserve can be used 
in Afghanistan?
    General Stultz. Yes, Sir.
    Coming into this job 6 years ago, which I only planned to 
stay for 4, that was really the task I had at hand, is how can 
you transform the Reserve from a strategic footing to an 
operational footing, and put them on a rotational employment 
basis, and do that at the same time while we're trying to fight 
a war on two fronts, Iraq and Afghanistan, and lesser 
contingencies down in the Horn of Africa.
    I can report to you today, Sir, that that has been a 
success. Over the last 10 years, during the period of Operation 
Iraqi Freedom (OIF) and Operation Enduring Freedom (OEF), the 
Army Reserve has mobilized more than 200,000 of our soldiers 
and put them into support missions, both in Iraq, Afghanistan 
and here at home.
    We have continually kept on Active Duty somewhere between 
20,000 and 30,000 soldiers every day since that inception. 
Those soldiers are doing critical missions.
    As I mentioned earlier, I say our force is an indispensable 
force because we are what we call the enablers for the Army. We 
are the engineers, the medical structure, the logistics, 
transportation, military policemen, all those kind of 
capabilities that the Army, over time, has shifted more and 
more into the Reserve component.
    As an example, today, if you look at the transportation 
capability, critical capability as we're looking at trying to 
reduce our force footprint in Afghanistan, that transportation 
ability to get soldiers and get equipment out of there, is 
critical.
    Eighty-five percent of that capability for the Army rests 
in the Guard and Reserve. Seventy percent of the medical 
capability rests in the Guard and Reserve. Eighty-five percent 
of civil affairs and psychological operations, like Sergeant 
Burgess here, rest in the Reserve.
    And so the Army can't do what they do without us. So that 
transformation has been hugely successful. And I'll tell you, 
in my opinion, why. It's not the leadership that I've given. 
It's the dedication our soldiers have given.
    The culture of the Army Reserve has changed. Soldiers that 
are in the Army Reserve today either have joined our force or 
re-enlisted to stay in our force while this Nation's at war. 
They know what they signed up for.
    And that culture says, I'm joining to go and do something 
to serve my country. I'm not joining to be a weekend warrior, 
the Strategic Reserve.
    The challenge we've got, Sir, is how do we keep them? And 
it's critical that we have the right training, the right 
equipping and all to make sure that we retain that force and 
keep them ready because we're not very good at predicting the 
future.
    We don't know where the next conflict will be, but there 
will be one, and the Army is going to have to call upon us on 
short notice to get there and to get into the theater of 
operations and to sustain combat operations.
    And that's why things like the NGREA that you give us is so 
critical to me. That allows me flexibility to buy equipment 
that I need now, that is not programmed yet. That allows me to 
go and buy simulations equipment that I can use to train our 
soldiers to maintain that edge and keep them ready.
    So the NGREA, the OCO to Base money that we're transferring 
around $200, $250 million to provide extra training days for 
these soldiers in their fourth and fifth year of that rotation 
cycle, is critical.
    But I can report to you today, Sir, the Army Reserve is an 
operational force. And it's highly successful, and it's 
successful because of soldiers like Sergeant Burgess and 
others.
    Chairman Inouye. We've been advised that you have equipment 
shortfalls. How does that impact upon your mission?
    General Stultz. What I can tell you, Sir, is if you look at 
the figures that says equipment on hand for the Army Reserves, 
we're better than we've ever been, 86 percent. However, we're 
66-percent modernized.
    The equipment we have, as was discussed earlier with the 
National Guard, in a lot of cases, is old equipment that is 
substitute items for the modern equipment.
    Now, as far as our soldiers being able to do their job in 
Afghanistan, Iraq, and other places, not an issue because we 
make sure they're using modernized equipment in those theaters. 
We give them the best training, the best equipment, before we 
put them in harm's way.
    Where it impacts me is back home. It impacts me back home 
because now, and especially now that we've drawn out of Iraq 
and we're going to start drawing down out of Afghanistan, I'm 
focusing on home station training.
    How do I keep these soldiers trained at home so they're 
ready to go when I need them? And I need that modernized 
equipment back here.
    It's a morale factor. If you're a young soldier and you've 
been trained and equipped to the best standards, and you come 
home and you go to your weekend drill in your Army Reserve 
unit, and there's a piece of old equipment that you know we 
don't use anymore in a war time environment, it does have an 
impact on a soldier saying, well, why aren't we training with 
what we just had in Afghanistan?
    And so to me, the modernization of that equipment is 
critical for our retention, and it's critical for our readiness 
because to be ready, I've got to train on the right equipment.

                       ARMY RESERVE MODERNIZATION

    Chairman Inouye. Are you satisfied that the pace of 
modernization is sufficient?
    General Stultz. Say again?
    Chairman Inouye. Are you satisfied that the modernization 
program, as we have now, is adequate?
    General Stultz. I have some concerns, Sir.
    My concern, I guess, would be that as the Army is going 
through restructure, and as the Army has already announced, 
they're drawing down their end-strength over a period of years, 
I think that's going to lead us to make some equipping 
decisions for the future that might say we can delay some 
modernization until we decide what the force structure looks 
like.
    And I can't afford to wait because my soldiers need 
equipment today. And it's probably a smart thing to do in some 
cases. If we're going to draw down units in the Active Force 
that have modern equipment, then it would cascade to me, and I 
would have that modern equipment.
    So the Army might say, we're not going to buy some more. 
We'll just give you what we have in the Active when we do away 
with those units. However, that's going to be several years 
down the road, and I can't afford to wait.
    That's why the NGREA funding that you give us is so 
critical, because if the Army says, we're not going to buy any 
more modernized trucks, for instance, because we're going to 
probably take some of the active trucks and give them to you in 
2016, I can go ahead and buy some today and put them in my 
units, and then when the other ones come, fill out the rest of 
the units.
    So I'm not satisfied that our modernization strategy is 
going to meet my needs for the immediate future, no, Sir.

   ACTIVE FORCE END-STRENGTH REDUCTIONS AND POTENTIAL TRANSITION TO 
                             RESERVE FORCES

    Chairman Inouye. I'd like to ask a question of all of you. 
The strategic plans for the next 5 years call for drastic 
reduction in end-strength, which gives you an opportunity to 
get Active Duty people transitioned into the Reserves.
    Do you have any plans to bring this about?
    Admiral Debbink. Chairman Inouye, we certainly do in the 
Navy.
    In our primary office that we've set up a couple of years 
ago, we call it the career transition office in Millington, 
that it now is handling all of these transitions.
    We're also very proud of the work that they've done to 
reduce the time it takes to make the transition, what used to 
literally be 4 to 6 months, down to somewhere 2 or 3 days by 
analyzing the process and making it smoother.
    We do believe that as we look forward here in the next 
couple of years that the Active component, a lane that's been 
so full and stayed full, just starts to transition, that we'll 
have an opportunity to bring those sailors into the Reserve 
component.
    And we want to make that transition as seamless as 
possible. And most of that we've discovered has been our 
regulations and policies within the department. There have been 
several things over the last several years that you all have 
been very helpful with in making that happen.
    I would say, the most important thing that we need to do, 
as I mentioned earlier, is to have what we call real and 
meaningful work for those sailors, soldiers, airmen, marines, 
coastguardsmen to do when they get to the Reserve component.
    And, again, that's why assured access and other provisions 
are going to be very important to us moving forward.
    Chairman Inouye. What about the Marines?

                         TRANSITION ASSISTANCE

    General Hummer. Thank you, Mr. Chairman.
    The commandant has recently, since he's taken over as the 
commandant, General Amos, has revamped the transition 
assistance program from the Active component.
    And he has various aspects. Used to be, it would be 
bringing the Marines together for a couple of days, give them 
some fast and furious education and training, and then, they'd 
be out the door.
    Now, there's a couple times in their transition, a year 
before they get out, right before they get out. And then, all 
this information is put on the Web so that they can get access 
to it, for that legendary marine who wants to get out and go 
surfing in Mexico for 6 months before we wants to get a job or 
go to school.
    In the meantime, along that, there's four tracks that are 
provided. One, is an educational track, so it's focused and 
customized for them. A trade skill track, if they're going to 
go to school, for a trade school.
    A business track, if they want to get into business, or if 
they want to start a business, there's an entrepreneurial 
track.
    With regard to the Reserves, we have room for them in our 
39,600 with our latitude. We do see the Individual Ready 
Reserve (IRR) increasing. Right now, we're about 57,000. An 
estimate would be up to perhaps 75,000.
    But those are marines that we also pay attention to and 
take care of as much as we can even though they're not drilling 
reservists. So, there is a plan.
    We are tightly integrated with the Active component in that 
continuum, in that Marine for Life program, that brings them 
in, trains them, and then gives them the opportunity to join 
the Reserves if they want to.
    And then continue to be valuable citizens throughout their 
life. Thank you.
    Chairman Inouye. Thank you. How about the Air Force?
    General Stenner. Mr. Chairman, we too have a robust 
program, and we have worked very closely with our Active 
component over the last couple of years, as they have worked 
aggressively to downsize.
    The critical skills that we're short in are the ones we're 
focusing on, and we have in-service recruiters that interview 
every single person that is leaving the Active Force and offer 
them the opportunity to continue to serve in those particular 
areas where we have the needs.
    We try to match the critical skills to where the needs are. 
We also offer cross training to the folks that might be 
interested in continuing to participate in a different career 
field.
    Just as importantly, I think the Active Force has used some 
very significant tools to include volunteer early retirement, 
and some of the other kinds of options to depart the Active 
Force, which does, in fact, put some folks into what General 
Hummer mentioned, in the Individual Ready Reserve.
    We're also working on musters inside those IRR members, 
once a year, at several different locations, very much 
targeting the skills that we need, and mustering folks in.
    Because we've found that within that first year after 
somebody leaves, they may not be just as satisfied as they 
thought they were going to be, and we have found a very 
lucrative recruiting ground from some of those folks who come 
back to us in the Reserve component out of the IRR.
    So we're working aggressively with our Active and Guard 
partners to keep the critical skills that have been trained. We 
can't afford to retrain, and we must keep that capacity and 
capability.
    Chairman Inouye. So you're satisfied with your program?
    General Stenner. Yes, Sir, we are.
    Chairman Inouye. General Stultz.

                 TRANSITION FROM ACTIVE TO ARMY RESERVE

    General Stultz. Yes, Sir.
    It is a critical part of our strategy for the future, our 
human capital strategy. And we have learned from my good 
friend, Steve Hummer, here in the Marine Corps, that the 
marine-for-life mentality needs to be in the Army also. A 
soldier for life mentality.
    We're doing several things, Sir. We are putting, I am 
putting manpower on the Active Duty installations to start 
working more aggressively with the transition process much 
further out than we have in the past.
    That soldier that decides he's going to leave the Army from 
an Active status, we're telling him he's not getting out. He's 
transitioning. He's transitioning into Reserve status. Whether 
it's Active or Inactive Reserve status, he's still going to be 
a soldier.
    But we need to start talking to him 6 to 9 months before he 
leaves, not 2 weeks. We need to start talking to him, first of 
all, about what he's going to do for civilian work. And we need 
to help him get a job.
    And so, one of the cornerstones of our program is our 
employer support program that we've developed over the last 4 
years, where we now have more than 3,000 employers across 
America that have partnered with us.
    We have 700,000 jobs on the Web portal that are available 
out there in those employers, and we have program support 
managers on the ground, contractors that we've hired, to help 
facilitate between the employer and that soldier.
    And we want to facilitate that before he ever leaves Active 
service. We want to have a smooth transition where he can come 
off of Active Duty, go right into a civilian job, if that's 
what he chooses to do. And we can also facilitate him coming 
into the Reserve whether he comes in an Active Reserve status 
or whether he says, I just want to take a break for a while and 
be in the IRR.
    Okay. Fine. You're still going to belong to us, and when 
you're ready to come back and start drilling with us, we'll 
bring you back.
    But it's that employer piece that's critical because if I 
bring a soldier into the Reserve, and he doesn't have a job, 
I'm at risk, because he's got to pay his mortgage. He's got to 
pay for the kids to go to college. He needs civilian employment 
and he needs a good, comfortable career.
    So we're putting forces on the installations. We're putting 
forces out there with the employers, and we're going to make 
that as a cornerstone of our program.
    I can tell you today, it's working. In the past couple of 
years, we've already put at least 1,000 soldiers that we know 
into civilian jobs in our force. There's many thousands others 
that we know have already, using the portal and the Web, gotten 
jobs.
    And the employers are telling us, and we didn't even know 
the soldier, because the soldier just used the technology 
themself to do it. But the program is working. Soldiers are 
happy. The employers are happy. We've got a good force.
    Chairman Inouye. Thank you very much.
    I'll be submitting a few other questions for your 
consideration, so expect that.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    General Stenner, I've given to your staff some questions 
about reassigning aircraft that are now based at Keesler Air 
Force Base, Biloxi, and I hope you can take a look at those and 
address a response to the subcommittee as soon as reasonably 
possible.
    What we're concerned about is the readiness, of course, of 
an Operational Reserve, and how that may be affected by the Air 
Force's restructure decisions.
    Do you have any comments that you can make as a way of 
introduction to what you're thoughts are on that subject?
    General Stenner. Senator Cochran, I can do that.
    And let me just refer to the previous panel's remarks, 
especially those of General Wyatt, as he was discussing some of 
the same kinds of issues as we look at downsizing some of the 
fleets that we have as a result of age, or as a result of 
requirements.
    And that's the tricky part of this is, how do we look at 
this across the systems, in the C-130s in this example, and 
ensure that we meet the requirements of the combatant 
commanders which, if we do that, will allow us to reduce the 
numbers that we currently have.
    We did have a very rigorous process that we went through, 
and there are four very major tenets of kinds of things that we 
looked at that include, no negative impact to the combatant 
commanders, make sure the movements don't create any new bills, 
increase mission capable rates as a requirement when we do 
this.
    And then, we need to look at all the locations that we've 
got out there, apply that criteria, and in some cases, there is 
judgment that needs to go into it at the end.
    But we will certainly come back to you very quickly with 
the questions that you've asked.
    I use that as a prelude, and we work that through our 
corporate structure that General McKinley and General Wyatt 
mentioned in their testimony, to come to the realization that 
we have in the fiscal year 2013 projection, that those are the 
kinds of things that need to be done to ensure we meet, and 
don't become hollow, in other parts of this force as well.
    So, we'll get back to you, Sir, soon.
    Senator Cochran. I'm looking forward to going down to the 
Mississippi gulf coast for the christening of the USS 
Mississippi, the newest submarine that will be joining the 
fleet. That will be an exciting occasion for all of our State.
    We identify very closely with the Navy's presence down 
there, and the shipbuilding capability along that gulf coast. 
And, personally, serving in the Navy, I'm a little biased about 
the importance of the U.S. Navy.
    But, what is the prospect for this budget if we approve the 
schedule for ship construction, and maintenance, and adding new 
ships to the fleet?
    Is it robust enough to take care of the responsibilities 
for national defense that falls exclusively onto the 
jurisdiction of the Navy?

                     SHIP BUILDING PROGRAM ADEQUACY

    Admiral Debbink. Yes, Sir.
    And I would respectfully like to defer that question, if I 
could, primarily because in the Navy Reserve, which is my 
responsibility, obviously, we do have a Navy Reserve fleet of 
now nine frigates.
    And as we're retiring those frigates, we're bringing active 
frigates into the Reserve Fleet to replace them until we then 
will retire all of our Navy Reserve frigates.
    As I look forward in the future, our involvement in the 
Navy Reserve, once those frigates are retired, will primarily 
be with littoral combat ship program, which as you know, is 
ramping up.
    And we're in very active discussions with the Navy on where 
we, in the Navy Reserve, will play into that.
    The larger question of the entire shipbuilding program, I 
think, is probably one that I would like to defer, obviously, 
to the Secretary and the CNO.
    I will say, from my own perspective, having been in the 
Navy for 35 years, that our fleet today, and the Mississippi is 
a great example of it, is far more capable than any fleet that 
we've ever had in the past, regardless of numbers.
    And, if we had to use that fleet, I would rather use the 
fleet that we have today in looking into the near future than 
any fleet we've had in the past, both for the capabilities of 
those platforms, as well as for the training and the dedication 
and the honor, courage, and commitment of the sailors that 
serve in that fleet today.
    Senator Cochran. Thank you very much.
    Mr. Chairman, thank you for conveying the hearing. And let 
me say to all of the panel, we appreciate your dedication and 
your commitment to helping strengthen and maintain the best 
Reserve components of our military establishment. Thank you 
very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. I'd like to join my Vice Chairman in 
thanking all of you for your testimony, and for the service to 
our country.
    I would also like to note, as General Stultz pointed out, 
the critical role that you play, and continue to play, in the 
Middle East. Most people in the United States don't realize 
this. They think it's just the Active components. But the role 
that the Reserves and Guards play is very, very important. This 
subcommittee appreciates that very much.
    [The following questions were not asked at the hearing but 
were submitted to the Department for response subsequent to the 
hearing:]
          Questions Submitted to Vice Admiral Dirk J. Debbink
            Questions Submitted by Chairman Daniel K. Inouye
                          continuum of service
    Question. Gentlemen, in accordance with the new defense strategy as 
well as fiscal constraints, the Active components will significantly 
reduce their end strengths over the next 5 years. This seems to create 
an opportunity for the Reserve components to recruit servicemembers 
coming off of Active Duty to continue their military service in the 
Reserves. How are the Reserve components planning to leverage this 
opportunity to retain these skilled and experienced personnel?
    Answer. In addition to the reductions programmed for the Active 
component, significant end-strength reductions are planned at this 
point for the Navy Reserve over the next 5 years. Although there will 
be an increased pool of personnel leaving Active Duty, reduced Reserve 
end-strength may limit the opportunity for transition to the Navy 
Reserve for some sailors. In order to maximize this opportunity, the 
Navy Reserve has implemented the following programs to ensure desired 
skills and expertise are retained to the maximum extent:
    Career Transition Office.--The Career Transition Office (CTO) 
    supports rapid and seamless transitions across Active and Reserve 
    Components (AC/RC) that will encourage a lifetime of Navy service. 
    The CTO Transition Assistants provide NAVET Officers and Enlisted 
    with counseling and guidance on the benefits of the Navy Reserve, 
    and assists sailors transitioning from AC to RC. Through 
    centralized processing, CTO has reduced transition processing time 
    from months to days. The CTO has reduced the necessary paperwork 
    and time required to transition a sailor from AC to RC, and 
    increased direct transition rates to more than 50 percent.
    Perform-to-Serve With Selected Reserve Option.--Perform-to-serve 
    (PTS) gives enlisted Active component and full-time support sailors 
    the option of requesting a Selected Reserve (SELRES) quota, in-rate 
    or a rating conversion quota, as they approach their Expiration of 
    Active Obligated Service. PTS streamlines the application, 
    evaluation, approval and notification process for sailors 
    requesting SELRES affiliation. SELRES PTS quota approvals are 
    linked to the Career Management System/Interactive Detailer (CMS/
    ID), which further eases the AC-to-RC transition process.
    Career Management System/Interactive Detailer.--Career Management 
    System/Interactive Detailer (CMS/ID) allows sailors with approved 
    SELRES PTS quotas to select the Navy Operational Support Center 
    (NOSC) where they will conduct their Reserve drills after their 
    transition. PTS approvals are linked to the CMS/ID system, only 
    allowing approved sailors to access the system. CMS/ID gives 
    sailors greater predictability in their future Reserve career, and 
    is linked to the Assignment Information Systems that can generate 
    Intermediate Stop (I-Stop) Orders for sailors who request them.
    Intermediate Stop Orders Generation.--This process allows Active 
    component and full-time support sailors transitioning to the 
    Selected Reserve to receive funded separation orders that include a 
    3-day I-Stop at their requested Navy Operational Support Center 
    (NOSC). This intermediate stop during the critical 72-hour 
    transition period allows the sailor to complete their release from 
    Active Duty (separation) processing and Reserve affiliation at 
    their new drilling location. Under this process sailors affiliating 
    with a NOSC greater than 50 miles from their residence are 
    authorized up to 3 days per diem while completing their Active Duty 
    to SELRES processing at the NOSC. I-Stop orders smooth the 
    transition process, allowing the sailor to get familiar with their 
    new community sooner while facilitating immediate Navy Reserve 
    leadership engagement through Command Sponsorship and Command 
    Indoctrination.
    Mobilization Deferment Program.--Current policy allows all Navy 
    veteran (NAVET) and other Service veteran (OSVET) personnel who 
    affiliate with the Navy Reserve within 6 months (183 days) of 
    release from Active Duty to qualify for a 2-year deferment from 
    involuntary mobilization, commencing on the date they affiliate 
    with the Navy Reserve. All personnel who affiliate between 7 and 12 
    months (184-365 days) of release qualify for a 1-year deferment 
    from involuntary mobilization commencing on the date they affiliate 
    with the Navy Reserve. Members may still volunteer for 
    mobilization.
    Enlisted Early Career Transition Program.--Early Career Transition 
    Program (ECTP) provides opportunities for Active component (AC) and 
    full-time support (FTS) enlisted sailors to transition into the 
    SELRES more than 90 days prior to their Expiration of Active 
    Obligated Service (EAOS). Eligible sailors may submit requests up 
    to 15 months prior but no later than 3 months prior to desired 
    transition date (not EAOS). If approved, members will incur 
    mandatory drilling Reserve obligation equal to the remaining Active 
    portion of their current contract. The minimum obligation will be 
    for 1 year if remaining in-rate; 4 years if converting.
    SELRES Affiliation Bonuses.--Navy veterans and other service 
    veterans are eligible to receive affiliation bonuses when 
    affiliating with the Navy Reserve in targeted officer designators, 
    enlisted rates, and specialties. There are 16 officer designators 
    and 11 subspecialties that are eligible for affiliation bonuses of 
    up to $10,000; in fiscal year 2012 execution, 451 officers have 
    taken the affiliation bonus. There are 27 enlisted rates and 33 
    Navy Enlisted Classification codes that are eligible for 
    affiliation bonuses of up to $20,000; in fiscal year 2012 
    execution, 169 sailors have taken the initial affiliation bonus and 
    500 sailors will receive an anniversary bonus payment.
    Navy Reserve Support for Reserve Component Accessions.--SELRES are 
    conducting NAVET outreach and engagement in all Navy enterprises to 
    support Navy Recruiting Command (NRC) and the Career Transition 
    Office (CTO) efforts to meet RC accession goals. Navy Reserve 
    Sailors occupy a unique position by residing in communities all 
    across the country, and are leveraging this position as well as 
    their Navy and civilian experiences to communicate with and mentor 
    RC candidates and support recruiting. Through SELRES outreach at 
    all leadership levels (Flag Officer, Senior Officer, Junior 
    Officer), NAVETS will know that they are valued for their service 
    and will make better informed affiliation decisions based on 
    knowledge of Reserve benefits and pay, drilling requirements, NOSC 
    and billet locations. SELRES recruiting and mentorship helps RC 
    candidates understand better what a SELRES actually does and 
    answers questions that range from Reserve community missions and 
    capabilities to managing the AC to RC transition and associated 
    lifestyles changes. Better informed NAVET affiliation decisions 
    will help achieve Navy Reserve meeting accession goals, and also 
    have direct impact on reduced RC attrition and increased overall 
    Navy Total Force readiness through the retention of trained and 
    experienced sailors.
    Question. Have you developed programs to allow for ease in 
transition for servicemembers going from Active Duty to the Reserves?
    Answer. Yes. Navy has developed numerous programs, and continues to 
improve processes, to assist sailors transitioning from the AC to the 
RC. Specific initiatives include:
  --Updating Navy's automated reenlistment/career management tool to 
        facilitate affiliation in the SELRES and NOSC selection before 
        leaving Active Duty.
  --Intermediate Stop (I-Stop) program allows Sailor's affiliating with 
        the RC to transfer on Active Duty orders from their current 
        command to an approved NOSC.
  --Mobilization Deferment Program allows Navy Veteran (NAVET) and 
        other Service Veteran (OSVET) personnel affiliating with the RC 
        within 6 months of release from Active Duty to qualify for a 2-
        year deferment from involuntary mobilization.
  --Enlisted Early Career Transition Program (ECTP) provides 
        opportunities for AC enlisted sailors to transition to the 
        SELRES more than 90 days prior to Expiration of Active 
        Obligation Service (EAOS).
  --Career Transition Office (CTO) supports rapid and seamless 
        transitioning between AC and RC to encourage a lifetime of Navy 
        service while reducing costs and manpower hours associated with 
        recruiting NAVETS.
  --Navy Reserve Support for RC Accessions: SELRES are conducting NAVET 
        outreach and engagement in all Navy Enterprises to support Navy 
        Recruiting Command (NRC) and Career Transition Office (CTO) 
        efforts to answer questions and aid in affiliation.
  --SELRES affiliation bonuses: NAVETS and OSVETS in targeted officer 
        designators, enlisted rates, and specialties are eligible for 
        Navy Reserve affiliation bonuses.
  --Finalizing plans for a Delayed Affiliation Program (DAP) that will 
        allow AC enlisted sailors who desire a delay in affiliation, or 
        are unable to obtain a SELRES in-rate Perform to Serve (PTS) 
        quota, to delay in-rate affiliation through a quota reservation 
        system.
                      reserve equipment shortfalls
    Question. Gentlemen, over the last several years, the Reserve 
components have transitioned from a Strategic to an Operational 
Reserve, but annual budget requests have not adequately addressed the 
additional equipment requirements associated with this new role. The 
Congress has consistently added money to the National Guard and Reserve 
Equipment Appropriation (NGREA) to try to alleviate this problem. How 
have these increases improved your ability to train and deploy?
    Answer. The additional funding appropriated through NGREA has given 
the Navy Reserve the ability to procure and upgrade technical systems 
such as the Night Vision Device ``Heads Up Displays'' and Forward 
Looking Infrared (FLIR) sensors on our helicopters. These advanced 
systems have given our helicopter crews the ability to search, detect, 
track, and engage surface vessels of interest in challenging night-
time, low-light conditions. Due to a shift in drug trafficking tactics 
to exploit the night regime, this new and enhanced capability has 
allowed our Navy crews and USCG Law Enforcement Teams to be more 
effective against narco-terrorists, smugglers, and pirates. Just 
recently, the USN-USCG team on board the USS Elrod has captured a 
record-breaking amount of narcotics, mostly attributable to these new 
equipment additions through NGREA funding. Additionally, the NVG-HUD 
and FLIR add another layer of safety for our crews and law enforcement 
while flying under difficult environmental conditions.
    Within our Fleet Logistics community, the Navy Reserve C-130Ts are 
currently undergoing Electronic Prop Control System (EPCS), GPS and 
Engine Instrument Display System (EIDS) modifications. The EPCS 
modification replaces a legacy hydro-mechanical prop control system 
with a more simple and reliable electronic system--addressing and 
mitigating one of the C-130's biggest maintenance degraders while 
increasing crew safety and aircraft reliability. The forecasted impacts 
of this modification are a 4-percent increase in mission capable (MC) 
rate, 15-percent decrease in propeller nonmission capable (NMC) hours, 
15-percent decrease in propeller maintenance man-hours (MMH), and a 7-
percent reduction in overall system cost. The ROI for this modification 
is 6 years and is 1:1 per aircraft. The Garmin GPS modification 
provides crews with a global navigation system certified for primary 
navigation and instrument approaches. This capability allows Navy C-130 
crews to fly more direct, efficient routes while complying with new, 
more stringent air traffic management mandates. Additionally, it 
provides crews with greater situational awareness and increases safety 
margins by reducing aircrew workload during critical phases of flight. 
As part of the GPS modification, the EIDS upgrade replaces the entire 
cluster of 36 mechanical engine gauges and replaces them with a single 
digital display and is expected to reduce maintenance man-hours and 
supply chain delays while providing crews greater engine status 
awareness. The result of these NGREA-funded modifications is a safer, 
more efficient airlift fleet that is reliable and postured for 
longevity.
    Additionally, the Navy Reserve has used NGREA to invest heavily in 
its Adversary Air Program. In an effort to provide Fleet Aviators with 
the most effective training possible, improvements to both the airframe 
and avionics suites of our aircraft have been necessary. The F-5 has 
undergone numerous structural sustainment and safety upgrades to ensure 
this low cost, but capable, airframe remains viable for the foreseeable 
future without sacrificing safety. Similarly, the incorporation of the 
Joint Helmet Mounted Cueing System (JHMCS) and external jamming pods 
bring enhanced tactical capabilities. JHMCS gives the Reserve F/A-18s 
additional capability to meet COCOM requirements when called upon. 
These enhanced capabilities also offer more dynamic air to air 
scenarios, and allow us to keep pace with the technological advances of 
potential threat aircraft. It is these upgrades which allow us to 
provide training that very closely mirrors what pilots can expect to 
see in any engagement around the world.
    NGREA has allowed the Navy Reserve Force to purchase expeditionary 
warfighting equipment for the Naval Expeditionary Combat Enterprise 
(NECE) in support of operations in Iraq and Afghanistan, essential 
training upgrades in support of the adversary mission, and warfighting 
and personal protection equipment for Navy Special Warfare units. For 
example, NGREA funding allowed for the procurement of 10 Surface 
Amphibious Navy Maritime Prepositioning Force Utility Boats (MPFUBs). 
These boats replaced the LCM-8s utilized for Joint Logistics Over the 
Shore (JLOTS) Navy Beach Group Surface Reserve training missions, 
providing an essential training upgrade. We augmented these purchases 
with additional OMNR funding to provide for spare parts and associated 
items for the boats life-cycle maintenance. Additional equipment 
purchases for NECE included loader vehicles, concrete mixers, cargo 
trucks, fork lifts, and rapid response kits to enhance the Navy's rapid 
engineering response capability. Naval Special Warfare units also 
benefitted from personal and squad level tactical equipment items such 
as night vision optics and dive gear. Unlike most other appropriations, 
NGREA provides important, in-execution year flexibility to address 
equipment needs of the Force, which makes it an invaluable resource.
    Question. Gentlemen, how much additional funding would you need to 
fully equip your component?
    Answer. The current dollar amount of Navy Reserve equipment 
shortfalls is $5 billion and is published in table 8 of the National 
Guard and Reserve Equipment Report. Recent funding increases have 
bolstered recapitalization of critical RC equipment and enabled 
aviation modernization upgrades and table of allowance equipment buys 
that maintain our capability. The Navy Reserve's top equipment 
priorities continue to be aircraft procurement and the outfitting of 
special warfare units.
               family support and yellow ribbon programs
    Question. Outreach efforts such as the Yellow Ribbon Reintegration 
Program (YRRP) are particularly important for guardsmen and their 
families who are geographically dispersed across the country. Please 
update the subcommittee on your Service's Yellow Ribbon efforts and 
their effectiveness.
    Answer. The YRRP has consistently received praise for its ability 
to smooth the process for Reserve servicemembers transitioning from 
mobilized service to the civilian sector. Specific programs under the 
Yellow Ribbon program include:
    Deployment Readiness Training.--Navy Reserve's Pre-Deployment 
    Yellow Ribbon and family readiness event, Deployment Readiness 
    Trainings (DRTs) provide our members and families with education 
    about the rigors of a deployment and the challenges of family 
    separation and accessing family programs. The Navy Reserve 
    Psychological Health Outreach Program (PHOP) teams of licensed 
    mental health professionals embedded in each Reserve Region are 
    also available for support and screening and to provide 
    psychological health training at these events.
    During-Deployment Support.--During-deployment support is provided 
    using the Ombudsman, family readiness programs, and U.S. Fleet 
    Forces' IA grams. Command Individual Augmentee Coordinators (CIAC) 
    have monthly contact with both the deployed sailor and his/her 
    family. The PHOP teams are also available to support the Ombudmen, 
    family readiness program staff, CIACs and families during 
    deployments.
    Post-Deployment Events.--Included in this category are the Warrior 
    Transition Unit in Kuwait, the CONUS Navy Mobilization Processing 
    sites (NMPS), Returning Warrior Workshop (RWW), and the Post-
    Deployment Health Reassessment Program (PDHRA). PHOP teams provide 
    training and support to the NMPS. RWWs are Navy's 60-day 
    Reintegration Event for sailors and their guests. RWWs provide 
    education, facilitate discussions, seek to improve psychological 
    health and resiliency, and honor sailors and their guest. The PDHRA 
    is the 90-day post-mobilization event and completes YRRP. PDHRAs 
    are conducted online, with follow up phone conversation with a 
    healthcare provider, and help to provide mental health distress 
    symptom warning and identification. The PHOP teams also make 
    contact with demobilized reservists to assess needs and provide 
    support to reservists and their families during reintegration. They 
    can also help to find local resources for any needs identified 
    during the PDHRA and the annual Periodic Health Assessments (PHA). 
    PHOP teams also support the Navy Operational Support Center (NOSC) 
    medical department representatives with Line of Duty (LOD) 
    determination packages, and the Reserve Force Surgeon, medical case 
    managers and Safe Harbor nonmedical case managers with finding 
    local care and resources for wounded warriors.
    Question. Are family support programs fully funded in the fiscal 
year 2013 budget request? From your perspective, are there programs 
that could be improved?
    Answer. Navy family support programs received funding for all known 
requirements in the fiscal year 2013 President's budget request. Family 
Support programs are continually evolving, so there is a possibility 
for growth or program expansion after the budget request is submitted. 
For example, the Veteran's Employment Initiative Program (VEIP) has 
grown in scope since submission of the fiscal year 2013 request. In 
some cases, family support programs are managed by the Active Force, 
but cover all eligible populations, Active and Reserve. In other cases, 
particularly those in which the needs of Active and Reserve component 
sailors differ, there are separate Active and Reserve programs. 
Regardless of the program management approach, Navy's goal is to ensure 
the needs of both Active and Reserve families are met.
    With regard to improving programs, Navy is using social media and 
virtual learning platforms to expand the knowledge base. While this has 
greatly extended awareness and support to most families, providing 
support to remotely located families remains a challenge and focus for 
improvement.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
    Question. During your tenure as the Chief of Navy Reserves, what 
efforts have you initiated to increase the number of officers 
completing Joint Professional Military Education (JPME) Phase I? During 
your tenure by year, what were the number of Commanders and Captains 
who had completed JPME Phase I? How do these numbers and percentages 
compare to their Active Duty counterparts/running mates? Why the 
difference? What more can be done?
    Answer. Increasing the number of Reserve component (RC) officers 
who complete JPME has been a priority for the Navy Reserve since 2008. 
As the table below depicts, the number of RC officers with JPME 1 has 
doubled through increased in-residence opportunities and via distance 
learning.

----------------------------------------------------------------------------------------------------------------
                                                               Inventory    Percentage   Inventory    Percentage
                         Fiscal year                           of RC JPME  of RC CDRs/   of AC JPME  of AC CDRs/
                                                              I Graduates     CAPTs     I Graduates     CAPTs
----------------------------------------------------------------------------------------------------------------
Fiscal year 2008............................................          415          6.5        2,105         21.0
Fiscal year 2009............................................          568          9.0        2,398         23.5
Fiscal year 2010............................................          704         11.1        2,631         25.3
Fiscal year 2011............................................          793         12.5        2,732         25.6
Fiscal year 2012............................................          827         13.0        2,755         27.3
----------------------------------------------------------------------------------------------------------------

    From 2010 to 2012 Navy Reserve in-residence opportunities increased 
from 12 to 40, however, a majority of our officers must complete JPME 1 
via distance learning. Navy Reserve Officers are enrolled in every 
distance learning program offered by the services.
    The Active Duty Navy continues to offer resident and nonresident 
opportunities to our highly capable, board screened officers. We 
continue to publicize JPME opportunities by releasing ALNAVRESFOR 
messages and publishing on a dedicated Navy Reserve Web site JPME Web 
page and CNRFs Facebook Page.
    Question. During your tenure by year, what were the number of E-8 
and E-9 who had completed the Senior Enlisted Academy (SEA)? How do 
these numbers and percentages compare to their Active Duty 
counterparts/running mates? Why the difference? What more can be done?
    Answer. Please see the table below for year-by-year statistics. 
Approximately 20 percent of both the Reserve component (RC) and Active 
component (AC) Senior Enlisted population have attended the Academy.

----------------------------------------------------------------------------------------------------------------
                         Fiscal year                           Total RC SEA graduates    Total AC SEA graduates
----------------------------------------------------------------------------------------------------------------
Fiscal year 2008............................................                       90                       461
Fiscal year 2009............................................                       79                       382
Fiscal year 2010............................................                       54                       296
Fiscal year 2011............................................                       39                       300
Fiscal year 2012............................................                       38                       145
                                                             ---------------------------------------------------
      Totals................................................                      300                     1,584
 
                                                                   (21.7 percent of RC  E8/  (19.6 percent of AC  E8/
                                                                       E9 population)            E9 population)
----------------------------------------------------------------------------------------------------------------

    The Navy Reserve is committed to increasing Senior Enlisted Academy 
attendance by our eligible sailors who have not attended the Academy. 
Navy Reserve Force Senior Enlisted Leadership developed and implemented 
a Force-wide communication strategy employing Facebook, the Navy 
Reserve Web site, and Chief's Mess calls to emphasize the benefits of 
the Academy and encourage more Reserve component attendance. Since 
implementing this strategy in 2011, Reserve applications have doubled. 
Additionally, Navy Reserve leadership continuously reviews faculty 
assignments to ensure an appropriate amount of facilitators are 
available to meet fleet demand.
    Question. In 2015, the Navy Reserve will celebrate its 100th 
anniversary. What efforts are underway to capture and write of the 
history and contributions of the Navy Reserve over this 100-year 
period? How do you plan on commemorating this important anniversary? Do 
you have a full-time historian on your staff? If not, why not?
    Answer. Navy Reserve is coordinating with the Naval History and 
Heritage Command's Office of Commemorations in preparation for the 
100th anniversary of the Navy Reserve. The work of this joint effort 
will include a written history that identifies and illustrates notable 
contributions of the Navy Reserve to the Navy and Joint Forces during 
the last century. Although exact plans are not yet finalized, there 
will be a series of 100th anniversary recognition events and ceremonies 
throughout the year at Reserve units and facilities across the country.
    In lieu of a full-time historian on staff, Navy Reserve employs a 
full-time Public Affairs Officer, supported by a Strategic 
Communications team.
    Question. What are the unfunded requirements of the Fleet Historian 
program?
    Answer. The fleet historian program is currently staffed by Reserve 
sailors and covers 16 commands including numbered fleets, with the 
exception of the 4th fleet. As of early March 2012, 33 of the 35 
Reserve billets allocated were filled. Additionally, 12 civilian 
positions were approved in the fiscal year 2012 budget, and are 
currently being filled. The Navy is assessing the total requirement in 
order to ensure the Fleet Historian Program is adequately sized given 
current pressures in funding and personnel.
                                 ______
                                 
         Questions Submitted to Lieutenant General Jack Stultz
            Questions Submitted by Chairman Daniel K. Inouye
                          continuum of service
    Question. In accordance with the new defense strategy as well as 
fiscal constraints, the Active components will significantly reduce 
their end-strengths over the next 5 years. This seems to create an 
opportunity for the Reserve components to recruit servicemembers coming 
off of Active Duty to continue their military service in the Reserves. 
How are the Reserve components planning to leverage this opportunity to 
retain these skilled and experienced personnel?
    Answer. The Army Reserve is setting the conditions early in order 
to be prepared for the Active Army drawdown and support of the 
continuum of service. In order to satisfy the force structure 
requirements established for the Army Reserve through the Total Army 
Analysis process, the Manpower Balancing Strategy is designed to:
  --Increase Prior Service Accessions;
  --Decrease reliance on Non Prior Service Accessions to fill 
        shortages;
  --Reduce Shortages in Mid-Grade Officers and NCOs; and
  --Make Space Available for Increased AC Transitions by removing 
        unsatisfactory participants from our rolls.
    Question. Have you developed programs to allow for ease in 
transition for servicemembers going from Active Duty to the Reserves?
    Answer. Yes. The U.S. Army Reserve is establishing 16 Transition 
Assistance Teams (TAT) located at various Army Active Duty installation 
transition points in the United States and overseas. The TAT consists 
of 2-3 full-time support soldiers from the Army Reserve Careers 
Division (ARCD) and 1 contract civilian employee from the Employer 
Partnership Officer at each transition point. The contractor will serve 
as the Transition Point Employment Liaison (TEL). The TEL will assist 
soldiers with registering on accepted jobs portal, resume development/
enhancement, application process, interview assistance, and jobs skills 
translation. The TEL will track soldiers' progress and assist soldiers 
as necessary. Together, the TAT will counsel soldiers considering a 
career in the Reserve component, find them a unit of assignment, and 
assist them in obtaining employment in the area/State of the soldier's 
choice. The TEL will assist soldiers in finding employment 
opportunities even if they decide not to affiliate with the Reserve 
component. Case management of a soldier is handed to another TEL or 
Army Career Employment Specialists (ACES) if a soldier chooses to 
relocate to an area or State outside of the current TAT's 
responsibility. All soldiers transitioning from Active Duty are 
provided briefings on the benefits of affiliation with the Reserves and 
they are also afforded an opportunity to actual sign-up prior to 
separation from Active Duty. All soldiers transitioning from Active 
Duty are provided briefings on the benefits of affiliation with the 
Reserves and they are also afforded an opportunity to actual sign-up 
prior to separation from Active Duty.
                      reserve equipment shortfalls
    Question. Gentlemen, over the last several years, the Reserve 
components have transitioned from a Strategic to an Operational 
Reserve, but annual budget requests have not adequately addressed the 
additional equipment requirements associated with this new role. The 
Congress has consistently added money to the National Guard and Reserve 
Equipment Appropriation (NGREA) to try to alleviate this problem. How 
have these increases improved your ability to train and deploy?
    Answer. NGREA is an invaluable tool for the Army Reserve (AR). It 
enables the AR to procure modernized equipment not resourced in the 
Army's budget. NGREA assists with mitigating critical equipment 
shortfalls. NGREA helps fill the resourcing gap to meet the Army 
Campaign Plan objective of transforming to an Operational Army Reserve. 
NGREA greatly enhances the AR's ability to procure modern equipment to 
improve readiness and modernization capability.
    Question. Gentlemen, how much additional funding would you need to 
fully equip your component?
    Answer. The funding shortfalls for fiscal year 2013 is $9 billion. 
This funding would support equipment modernization systems such as 
tactical wheel vehicles, general engineering and combat mobility, field 
logistics, liquid logistics. Our major equipping challenges include; 
equipment modernization for critical systems, critical dual use 
equipment for national response, and institutional training equipment 
requirements.
               family support and yellow ribbon programs
    Question. Outreach efforts such as the Yellow Ribbon Reintegration 
Program (YRRP) are particularly important for guardsmen and their 
families who are geographically dispersed across the country. Please 
update the subcommittee on your Service's Yellow Ribbon efforts and 
their effectiveness.
    Answer. Army Reserve Soldiers will continue to mobilize, deploy, 
fight, and then return home to their loved ones. I cannot adequately 
express both the tangible and intangible benefits derived from the YRRP 
for our soldiers and their families. The Army Reserve's Yellow Ribbon 
program is an integral part of our efforts to build resilient families 
and Army Strong Soldiers who can endure the mobilizations, separations, 
and sacrifices we ask of them as part of their selfless service. We 
continue to work to provide the soldiers and families, their employers 
and the local communities where they live some stability and 
predictability. This allows our Reserve component soldiers 
opportunities to pursue both their military and civilian careers 
fulfilling their soldier-citizen role. The YRRP program provides 
deployment support and services never afforded to the Reserve component 
before 2009. Participation in Yellow Ribbon events provides attendees 
with sufficient information and services, opportunities for referral 
and proactive outreach from our commands and our communities build 
self-reliant and resilient families and soldiers. Our events rely on 
the support and involvement of command staffs, employers, community 
partners, and a host of volunteers. Yellow Ribbon events also provide a 
platform for and rely on the energy, enthusiasm, and impact of local, 
regional, and national community leaders and businesses (employers, 
educational institutions, Veterans' organizations, community 
healthcare, and so on) who are rallying to support our commands and 
individual soldiers who deploy. There is nothing else like a Yellow 
Ribbon event to help soldiers and families prepare for and endure the 
challenges of their deployment and reintegration. We help families 
network together, connect with each other and keep the families in 
touch with their unit/command and Family Programs' Office/staff during 
the deployment of their soldiers. This has been important to get 
soldiers and families connected and keep them connected despite their 
geographical dispersion. Family members get to understand the 
sanctioned military benefits, entitlements and the resources available 
to them. The Reserve components' ``new normal'' battle rhythm for pre-
deployment, deployment, redeployment, and reintegration have recurring, 
yet different stress points for both the soldier and their family 
members. We are committed to providing our soldiers and families a 
level of benefits and quality of life that is commensurate with their 
service to the Nation. The geographic dispersion and numbers of Army 
Reserve families and soldiers, combined with the challenges that may 
exist with a civilian employer or educational pursuits, is unparalleled 
by any other service or service component.
    Question. Are family support programs fully funded in the fiscal 
year 2013 budget request? From your perspective, are there programs 
that could be improved?
    Answer. Army Reserve Family Programs are fully funded in fiscal 
year 2013 budget request to deliver the baseline programs and services 
designed to sustain soldiers and families through the soldier's 
lifecycle. The funding supports the both the Family Programs and the 
Child, Youth and School Services delivery models that reach the 
geographically dispersed. Yellow Ribbon Program: Yellow Ribbon 
Reintegration Program (YRRP) funding is separate from family readiness/
family support funds. The Yellow Ribbon program has been funded to meet 
the mission expected in fiscal year 2013. Overseas contingency 
operations (OCO) funding has been used to perform all tasks associated 
with program execution. The Army Reserve continues to be able to put 
soldiers and family members on travel orders to attend appropriately 
conducted events and receive access to services and resources that help 
prepare each for and through a deployment; as well as, receive reunion 
and reintegration assistance and support. The Army Reserve supports 
full implementation of the YRRP and is actively involved with the 
Department of Defense, other Services, the Army National Guard, and AR 
staffs at all levels of command to provide the most effective and 
efficient program for soldiers and their families.
                   utilizing the operational reserve
    Question. General Stultz, during your tenure as Chief of the Army 
Reserve, you have led the effort to transform the Army Reserve from a 
strategic to an Operational Reserve. As you prepare to retire, can you 
update the subcommittee on how this transition is going and how you 
think this new Operational Reserve can be best utilized as we draw down 
the mission in Afghanistan?
    Answer. Given our extensive participation in the conflicts in Iraq 
and Afghanistan, as well as our active preparation for homeland defense 
missions and to exercise our new authority from the 2012 Authorization 
Act to assist with disaster response, I would say that the Army Reserve 
is already fully functioning as an Operational Reserve. As the mission 
in Afghanistan draws down we will be seeking new opportunities and 
predictable, recurring missions to leverage the rich skills of the 
citizen-soldiers of the Army Reserve and hopefully forestall the need 
for robust deployments like those that we are just completing. In this 
regard we hope to be able to actively utilize the newly enacted 10 
U.S.C. 12304b authority to support preplanned missions of our combatant 
commanders.
    Question. General Stultz, do you believe the Army is adequately 
resourcing the Reserve to make this transition?
    Answer. Yes. The current level of resourcing is acceptable and does 
not require us to assume undue levels of risk. That might not be the 
case should resourcing drop, for example, should we have to contend 
with sequestration. We are actively engaged to ensure that any 
essential resources that flow from overseas contingency operation 
funding find their way into the base budget. We are monitoring reset 
and retrograde operations closely to make sure that they fully take our 
equipping needs into account and will be prepared to advise the 
Congress how this is going. We are ready and available to augment the 
Force when required as authorized by U.S.C. 12304b.
                                 ______
                                 
       Questions Submitted to Lieutenant General Steven A. Hummer
            Questions Submitted by Chairman Daniel K. Inouye
                          continuum of service
    Question. Gentlemen, in accordance with the new defense strategy as 
well as fiscal constraints, the Active components will significantly 
reduce their end strengths over the next 5 years. This seems to create 
an opportunity for the Reserve components to recruit servicemembers 
coming off of Active Duty to continue their military service in the 
Reserves. How are the Reserve components planning to leverage this 
opportunity to retain these skilled and experienced personnel?
    Answer. The Marine Corps intends to leverage opportunities to 
retain qualified servicemembers leaving the Active component over the 
next 5 years with a number of programs designed to recruit skilled and 
experienced personnel. One such program is the fiscal year 2012 pilot 
program dubbed ``Active Component (AC) to Selected Marine Corps Reserve 
(SMCR) Direct Affiliation.'' The Direct Affiliation Program focuses on 
highly qualified candidates recruited to fill available Reserve 
assignments with grade and military occupational specialty (MOS) 
matches at a Select Marine Corps Reserve unit. The program will begin 
with marines on their initial contract and company grade officers. 
Affiliation bonuses or prior-service MOS retraining (if requested and 
available) can also be offered through direct affiliation. The marine 
leaves Active Duty but ``stays Marine'' by joining the new Reserve unit 
within 60 days of their end of Active service (EAS) date, without a 
break in service. Upon affiliation, the Reserve unit welcomes and 
sponsors the new direct affiliate and assists in the marine's 
transition. One benefit associated with this program is an automatic 6-
month extension of existing TRICARE medical coverage, to include 
dependents, for participation as a direct affiliate.
    Another retention tool is the 60 Composite Point Bonus Program. 
Active component and Reserve component corporals can elect to receive 
60 points towards their promotion cutting score for a 12-month 
commitment to a Selected Marine Corps Reserve (SMCR) unit. This bonus 
is intended to incentivize prior service corporals to affiliate with a 
Selected Marine Corps Reserve unit and aid in the retention of existing 
Reserve component corporals. Released earlier this fiscal year, more 
than 240 Corporals have accepted this bonus and roughly one-half have 
been promoted as of June 1, 2012.
    Finally, each month, Marine Corps Reserve Affairs communicates via 
email with all Active component Marines approaching their EAS date. 
This email communication provides a summary of Reserve opportunities 
and key Reserve transitional points of contact. Reserve Transition 
Coordinators at Camp Lejeune, Marine Corps Air Station New River, Camp 
Pendleton and Okinawa provide ongoing education on Reserve 
opportunities to Active component career planners. These educational 
engagements inform career planners so that the career planner community 
can better counsel transitioning marines on service in the SMCR.
    Question. Have you developed programs to allow for ease in 
transition for servicemembers going from Active Duty to the Reserves?
    Answer. Our transition assistance programs will be integrated into 
the lifecycle of a Marine from recruitment, through separation or 
retirement, and beyond as veteran Marines. Once implemented, this will 
assist marines as they transition from the Active Duty ranks back to 
their civilian lives, which may include time in the Marine Corps 
Reserves.
    Our first step is our revised Transition Readiness Seminar (TRS), 
which now gives Marines a choice of focusing on one of four pathways 
during this program:
  --College/University education;
  --Employment;
  --Vocational or technical training; or
  --Entrepreneurialism.
    Marines receive information on the Reserves during TRS that 
highlight the benefits of a Reserve career including educational 
opportunities, promotions, and certain commissary and exchange 
privileges. This revised seminar requires marines to complete 
assignments beforehand in order to maximize the seminar's efficiency 
and effectiveness. This tailored approach reduces information overload, 
targets individual needs of the marine and the Marine Corps, and 
promotes effective military skills translation.
    The Marine for Life Program, with its nationwide network of 
Hometown Links, will support improved reach-back and outreach support 
for those veteran marines who require localized support in their 
hometowns with information, opportunities, or other specific needs. 
These assets help veterans develop and maintain local networks of 
marine-friendly individuals, employers, and organizations.
                      reserve equipment shortfalls
    Question. Gentlemen, over the last several years, the Reserve 
components have transitioned from a strategic to an Operational 
Reserve, but annual budget requests have not adequately addressed the 
additional equipment requirements associated with this new role. The 
Congress has consistently added money to the National Guard and Reserve 
Equipment Appropriation (NGREA) to try to alleviate this problem. How 
have these increases improved your ability to train and deploy?
    Answer. Reserve equipment inventory levels continue to rise to meet 
Reserve training and deployment requirements. The NGREA remains a 
significant force multiplier for the Reserve component (RC), allowing 
the Marine Corps flexibility to balance requirements based on a Total 
Force perspective. Affording the Marine Corps the ability to purchase 
or accelerate the fielding of mission essential items for the Reserves 
directly impacts the RC's ability to train. The RC has been able to 
ensure units augmenting and reinforcing the Active component (AC) are 
as proficient as their AC counterparts. The NGREA has been a critical 
resource solution towards training and readiness for the RC in the 
following areas:
    Training and Simulators.--The Marine Corps Reserve strives to 
    incorporate the latest technological innovations to create cost-
    effective training and education opportunities for Reserve Marines, 
    increasing their ability to perform at the same level as their AC 
    counterparts. Fielding modern, state-of-the-art training systems is 
    part of this effort. Through the use of NGREA, the Marine Corps has 
    procured the Medium Tactical Vehicle Replacement--Operator Driving 
    Simulator (MTVR-ODS), Virtual Combat Convoy Trainer--Marine (VCCT-
    M), Deployable Virtual Training Environment--Reserves (DVTE-R), and 
    other training systems. Additionally, the incorporation of aircraft 
    Flight Training Devices (FTDs) and their linkage via the Aviation 
    Virtual Training Environment (AVTE) will not only allow aircrews to 
    conduct more sorties via the simulator/training device but the FTDs 
    will also allow the RC to train with other units and aircrews as a 
    way to reduce costs in a resource-constrained environment. The 
    Marine Corps continues to evaluate new training and simulation 
    technologies to identify cost-effective training options.
    Combat Equipment Procurement and Modernization.--The Marine Corps' 
    various combat equipment modernization programs funded with NGREA 
    are providing the RC with the latest generation of warfighting 
    capabilities. These programs include the Logistics Vehicle System 
    Replacement (LVSR), M1A1 tank suspension upgrades, and the A2 
    upgrade to the Light Armored Vehicle (LAV) family. The majority of 
    the Marine Corps' modernization programs are already in the 
    fielding phase or within the final phases of acquisition. NGREA 
    funds were also utilized for the procurement of Support Wide Area 
    Network (SWAN) satellite network packages for command and control, 
    and RQ-11B Raven unmanned aerial vehicle systems
    Aviation Modernization.--The RC is also included in the Marine 
    Corps Aviation Plan. During this Future Year Defense Program 
    (FYDP), Reserve squadrons will begin transition from the KC-130T to 
    the KC-130J, the CH-46E to the MV-22B, and the UH-1N to the UH-1Y. 
    The RC has used NGREA funding to provide upgraded capabilities to 
    existing aircraft.
    Question. Gentlemen, how much additional funding would you need to 
fully equip your component?
    Answer. As discussed in the fiscal year 2013 National Guard and 
Reserve Equipment Report (NGRER), the projected fiscal year 2013 delta 
between the on-hand quantities of the RC and the wartime requirements 
is $819 million. Excluded from this requirement is the fielding of the 
KC-130J airframe. While the KC-130J has been fielded to the Active 
component Marine Corps, the first Reserve component KC-130J is not 
scheduled for delivery until 2015, and currently only 5 of the 28 
airframes are programmed within the FYDP. The cost to procure the 
remaining 23 KC-130J airframes is $2.1 billion.
               family support and yellow ribbon programs
    Question. Outreach efforts such as the Yellow Ribbon Reintegration 
Program are particularly important for guardsmen and their families who 
are geographically dispersed across the country. Please update the 
subcommittee on your Service's Yellow Ribbon efforts and their 
effectiveness.
    Answer. We continue to ensure our geographically dispersed 
Reservists and their families are cared for through our various 
outreach efforts, which includes the Yellow Ribbon Reintegration 
Program. Marine Forces Reserve has fully implemented the Yellow Ribbon 
Reintegration Program at each of the five stages of deployment to 
better prepare our servicemembers and their families for activation and 
return to civilian life after mobilization. During fiscal year 2011, we 
took proactive steps to maximize participation while minimizing costs 
by hosting Yellow Ribbon Reintegration events at Reserve centers. This 
step lowered the average cost per participant to $340 per training 
session, and we anticipate additional cost savings this fiscal year 
because of these efforts. More importantly, this enables our units to 
proactively plan around the operational and unique individual needs of 
their marines, sailors, and families in addition to keeping unit 
leadership in the forefront of the issues that affect their 
servicemembers. In fiscal year 2011, we executed 155 events in which 
6,264 servicemembers, which include marines in the Individual Ready 
Reserve, 2,399 family members, and 3,673 nondependent family members, 
and/or designated representatives participated for a total of 12,366 
persons served by our program. We'll continue to build these events 
around the operational needs of our units as well as the individual 
needs of our marines, sailors, and their families by giving unit 
leadership flexibility in selecting venue, resources, and agenda in 
accordance with current Department of Defense policy and guidance.
    Question. Are family support programs fully funded in the fiscal 
year 2013 budget request? From your perspective, are there programs 
that could be improved?
    Answer. The Marine Corps family support portfolio focuses on 
sustaining and enhancing essential programs that support the health, 
welfare, and morale of our marines and their families. We continually 
seek improvement and have been working hard to ensure our family 
support programs properly address the needs of our marines and 
families.
    In the fiscal year 2013 President's budget, the Marine Corps 
ensures that family support programs are efficient while meeting all 
mission-critical needs. The Marine Corps family support budget reflects 
a balanced approach that is designed to enhance those elements of 
support that are the most critical to marines and their families. 
Funding for Marine Corps family programs in the fiscal year 2013 
President's budget maintains the required level of family support 
throughout the Marine Corps (Active Duty and Reserves). On the whole, 
it provides the necessary funding to ensure the health and well-being 
of our marines and their families. There were no significant 
programmatic reductions to family support programs in fiscal year 2012. 
Some aspects of Morale, Welfare and Recreation and family support 
programs are reduced in fiscal years 2013-2016, but these reductions 
are primarily a function of the drawdown in Marine Corps end strength. 
The fiscal year 2013 budget has increased funding in several family 
support areas in order to enhance essential programs that support our 
marines and their families.
    The fiscal year 2013 President's budget is designed to preserve and 
enhance the quality of life for marines and their families and 
continues to provide the appropriate level of services in this mission 
critical area.
                                 ______
                                 
   Questions Submitted to Lieutenant General Charles E. Stenner, Jr.
            Questions Submitted by Chairman Daniel K. Inouye
                          continuum of service
    Question. Gentlemen, in accordance with the new defense strategy as 
well as fiscal constraints, the Active components will significantly 
reduce their end strengths over the next 5 years. This seems to create 
an opportunity for the Reserve components to recruit servicemembers 
coming off of Active Duty to continue their military service in the 
Reserves. How are the Reserve components planning to leverage this 
opportunity to retain these skilled and experienced personnel?
    Answer. The Air Force Reserve's first choice to fill our ranks are 
those members leaving Active Duty. We have In-Service Recruiters at 
nearly every base personnel office to catch and educate members 
separating from Active Duty on the benefits of serving in the Air Force 
Reserve. While Active Duty Force shaping provides a great opportunity 
to add to our ranks, several factors influence an airman's decision 
including location, position availability, and career field. Another 
hindrance is that the career fields where the preponderance of our 
shortages exists are usually those career fields not targeted during 
force shaping thus, the career fields being downsized are usually not 
what we need. Nonetheless, we strive to place every eligible member to 
allow for continuum of service and retain these experienced airmen in 
the Air Force inventory.
    Question. Have you developed programs to allow for ease in 
transition for servicemembers going from Active Duty to the Reserves?
    Answer. Accessing separating Regular Air Force Active Duty members 
is a vital part of the Air Force Reserve strategic plan to meet end 
strength each year. In fact, approximately 30 percent of all Air Force 
Reserve gains over the last 5 years have been transitioning Regular Air 
Force members. Our success can be attributed to an aggressive, fully 
integrated In-Service Recruiting program that focuses on helping 
transitioning Airmen wade through their continuum of service options. 
In-Service Recruiters work with members once a date of separation is 
projected to provide briefings on Air Force Reserve membership and 
benefits, assist with assignments, and ensure transition processing is 
complete.
                      reserve equipment shortfalls
    Question. Gentlemen, over the last several years, the Reserve 
components have transitioned from a strategic to an Operational 
Reserve, but annual budget requests have not adequately addressed the 
additional equipment requirements associated with this new role. The 
Congress has consistently added money to the National Guard and Reserve 
Equipment Appropriation (NGREA) to try to alleviate this problem. How 
have these increases improved your ability to train and deploy?
    Answer. The Congress has been extremely generous in allocating 
greater amounts of NGREA over the last several years. Without these 
funds, modernization of Air Force Reserve systems would have clearly 
been inadequate. The Air Force Reserve uses these resources to not only 
modernize its systems but to procure equipment and vehicles needed to 
sustain the readiness of our Operational Reserve Force. Our 
modernization strategy focuses on upgrading defensive systems, 
communication and data links, and precision engagement capabilities. 
Continuing to upgrade our legacy systems provides not only the ability 
to train alongside our Active Duty counterparts but also enables the 
interoperability so vital in today's fight. Air Force Reserve Security 
forces and Civil Engineers have received the equipment and training 
needed to deploy with minimum spin-up time and be ready to operate 
immediately in the area of operations. Air Force Reserve aircraft are 
continuing to receive upgrades like C-130J large Aircraft Infrared 
Countermeasures, C-130H Secure Line-of-Sight/Beyond Line-of-Sight, and 
F-16 Helmet Mounted Integrated Targeting which provide the combatant 
command with capabilities to complete the mission and keep our forces 
safe. In addition to the needs of the combatant command, NGREA is 
currently being used to purchase new modular area spray system 
equipment for Air Force Reserve C-130's that proved so vital in the 
Gulf of Mexico oil spill and are the only spray-capable aircraft in the 
Department of Defense.
    Question. Gentlemen, how much additional funding would you need to 
fully equip your component?
    Answer. The Air Force Reserve is currently scheduled to lose up to 
82 aircraft in fiscal year 2013 due to force structure reductions. As 
good stewards of the Nation's dollars, we are currently re-shaping our 
modernization strategy so no funds are wasted on aircraft scheduled for 
removal from the inventory while preserving options pending final 
congressional action on force structure levels. Pending congressional 
action, our backlog of equipment requirements to support the current 
force structure is approximately $2.2 billion, excluding re-
capitalization. The Air Force Reserve requires a minimum of $100 
million a year to fully equip and modernize its forces, exclusive of 
re-capitalization costs. These funds will be used to upgrade the 
systems we have remaining as well provide units with modern equipment. 
Air Force Reserve vehicles are some of the oldest in the Department of 
Defense and need to be replaced along with a great deal of support 
equipment and infrastructure. We also continue to focus on 
modifications to increase aircraft survivability, improve precision 
engagement and enhance interoperability with our Active Duty partners.
               family support and yellow ribbon programs
    Question. Outreach efforts such as the Yellow Ribbon Reintegration 
Program are particularly important for guardsmen and their families who 
are geographically dispersed across the country. Please update the 
subcommittee on your Service's Yellow Ribbon efforts and their 
effectiveness.
    Answer. The Air Force Reserve has conducted 51 Yellow Ribbon 
Reintegration Program events at 17 venues during fiscal year 2012. 
There are 27 additional events planned at 9 venues for this fiscal 
year. From our postevent surveys, we are experiencing a satisfaction 
rating of 4.5 points on a 5-point scale with 92 percent of attendees 
agreeing that the event information was useful to the member and their 
families. Approximately 52 percent of attendees submitting surveys 
decide they will seek further financial counseling after hearing the 
information presented at the program.
    The Air Force Reserve Yellow Ribbon Reintegration Program is funded 
through overseas contingency operations funding. Our fiscal year 2013 
requirement is $25.5 million.
    Question. Are family support programs fully funded in the fiscal 
year 2013 budget request? From your perspective, are there programs 
that could be improved?
    Answer. The Yellow Ribbon Reintegration Program is funded 100 
percent through the overseas contingency funds (OCO). Air Force Reserve 
has requested $25.5 million for fiscal year 2013. We are concerned that 
if OCO funding goes away, sustaining the Yellow Ribbon Program would be 
extremely difficult. As for improving current programs, we are 
reviewing funding of Air Force Reserve family programs as the demands 
have traditionally increased during harsh economic times. However, at 
this point, there are no significant deficiencies in Air Force Reserve 
family programs.
               air force reserve--force structure changes
    Question. General Stenner, in March, the Air Force announced force 
structure changes and end strength reductions. The Air Force Reserve 
was impacted far less than the Air Guard in these proposed changes, 
which reduce Reserve end strength by 900 billets in fiscal year 2013. 
What input were you asked to provide during the deliberations over 
these force structure changes?
    Answer. To say the Air Force Reserve was impacted far less than the 
Air National Guard is misleading. Although 900 manpower billets is the 
net amount of the force structure reduction, the actual drawdown of 
Selected Reserve equals 1,800 positions in fiscal year 2013, which is 
offset by a pre-programmed growth of 900 positions from fiscal year 
2010. In fact, the total programmed reduction for the future years' 
defense program is 3,000 positions. The Air Force Reserve is certainly 
taking its fair share of reductions relative the Active Duty and Air 
National Guard.
    The Air Force leveraged our Total Force Enterprise proportionately 
to present our enduring capabilities to the Joint warfighter and we 
have successfully met the demand of increased operations tempo over the 
last two decades through a combination of volunteerism, selective 
mobilization, and the creation of Active, Reserve, and Guard 
Associations. Over the years, we have adjusted the mix between Active 
and Reserve components to ensure we maintain a ready and sustainable 
force and can meet our surge and rotational requirements.
    Senior leaders from each component worked closely together to 
submit a budget that:
  --Shifts focus toward Asia-Pacific region, continues presence in 
        Middle East, and maintains the ability to adapt to evolving 
        strategic posture in Europe;
  --Establishes an Active component/Reserve component mix based on 
        readiness, rotational requirements and sustainable deploy-to-
        dwell ratios;
  --Retains required Active component seasoning base to sustain Total 
        Force;
  --Provides an Operational Reserve component engaged in enduring and 
        evolving missions;
  --Meets required budget reductions while seeking to avoid a hollow 
        force--prioritized readiness over force structure; and
  --Produces a smaller, but flexible, agile, and ready force.
    Maintaining an appropriate and equitable Active/Reserve mix will 
remain critical to sustaining Air Force capabilities for forward 
presence and rapid response and meeting overseas rotational demands 
with a smaller force. We were driven to consider reductions in fiscal 
year 2013 as a Total Force, and I carefully considered the ratio 
between the Active and Reserve components and made choices that:
  --Ensures the Total Force could fulfill the Air Force's surge 
        requirements as directed by the force sizing construct of the 
        new strategic guidance;
  --Maintains the balance between Active and Reserve components 
        required to fulfill continuing rotational requirements at 
        deployment rates and personnel tempos that are sustainable for 
        both the Active and Reserve components;
  --Makes sure the Active component retained the recruiting, training, 
        and operational seasoning base required to sustain the Active 
        Air Force, Air National Guard, and Air Force Reserve into the 
        future; and
  --Ensures the Reserve component remains relevant and engaged in both 
        enduring and evolving missions.
    The Air National Guard and Air Force Reserve Chiefs were involved 
in all analysis and decisions, and I employed the following realignment 
strategies in selecting specific locations for aircraft reductions and 
re-missioning plans:
  --Ensure aircraft reductions do not negatively impact operational 
        support to the Combatant Commands;
  --Ensure force structure movements do not create any new Air Force 
        bills;
  --Ensure risk is minimized by optimizing crew ratios to exploit 
        expected increase in mission capability rates; and
  --Consider locations that continued to have an Air Force mission due 
        to the presence of another Air Force component.
    Question. Is the Air Force Reserve well-positioned to drawdown 900 
billets in fiscal year 2013, and how will this affect readiness?
    Answer. To clarify, 900 manpower billets is the net amount of force 
structure reduction in fiscal year 2013. The actual drawdown of 
Selected Reserve equals 1,800 positions, but is offset by a pre-
programmed growth of 900 positions from fiscal year 2010 augmenting new 
and emerging missions, including new associations.
    Air Force Reserve manpower reductions that are included in the 
fiscal year 2013 President's budget request are almost completely tied 
to the retirements in primary assigned aircraft. Wherever C-130, A-10, 
or KC-135 airframes were programmed for retirement, the corresponding 
aircrew, operations staff and maintenance manpower that will no longer 
be utilized were drawn down. Our new strategy requires us to balance 
risk across force structure, modernization, readiness, and people 
programs across all mission areas. Since the reduction of the aircraft 
is deemed congruent to the strategy, there is no offset to readiness. 
The reduction in manpower is excess to need and aligned with primary 
assigned aircraft reductions. The Air Force Reserve will continue to 
maintain the manpower necessary to ensure readiness does not suffer.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. This subcommittee will reconvene on 
Wednesday, June 6 at 10 a.m. to receive testimony from outside 
witnesses.
    And now we will stand in recess subject to call of the 
Chair.
    [Whereupon, at 11:56 a.m., Wednesday, May 23, the 
subcommittee recessed, to reconvene at 10 a.m., Wednesday, June 
6.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                        WEDNESDAY, JUNE 6, 2012

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye and Cochran.

                       NONDEPARTMENTAL WITNESSES

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. I would like to welcome our witnesses this 
morning to the Department of Defense subcommittee to receive 
public testimony pertaining to various issues related to the 
fiscal year 2013 Department of Defense (DOD) appropriations 
request. Due to the number of witnesses who wish to present 
testimony this morning, I'd like to remind each witness that 
they will be limited to no more than 4 minutes. However, your 
full statements will be made part of the official record, and I 
look forward to hearing from each of you today on the many 
important and serious subjects that you will address.
    But before I do, I'd like to recognize the Vice Chairman of 
the Committee, Senator Cochran, for any comments he may wish to 
make.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, I'm pleased to join you in 
welcoming our witnesses to the hearing today reviewing the 
fiscal year 2013 DOD request for appropriations. We appreciate 
the witnesses' interest in the subject and we look forward to 
hearing your testimony and hearing from each one of you.
    Thank you.
    Chairman Inouye. Our first witness represents the Air Force 
Sergeants Association (AFSA), former Command Master Sergeant 
John R. ``Doc'' McCauslin.
STATEMENT OF CHIEF MASTER SERGEANT JOHN R. ``DOC'' 
            McCAUSLIN, U.S. AIR FORCE (RETIRED), CHIEF 
            EXECUTIVE OFFICER, AIR FORCE SERGEANTS 
            ASSOCIATION
    Sergeant McCauslin. Chairman Inouye, Ranking Member 
Cochran, and distinguished members of the Department of Defense 
subcommittee: On behalf of the 110,000 members of the Air Force 
Sergeants Association, thank you for this opportunity to 
present the views of our members on the military personnel 
programs that affect those serving and who have served our 
Nation. Your continuing efforts toward improving the quality of 
lives have certainly made a real difference.
    In the interest of time, I will briefly touch on four 
specific funding goals for this subcommittee. Those goals are: 
military pay; healthcare; Survivor Benefit Plan (SBP) 
Dependency and Indemnity Compensation (DIC); and Guard and 
Reserve GI Bill. Three others of great importance to us--
tuition assistance, final pay, and sequestration-were covered 
in my written testimony to you.
    Thanks to the great work of your subcommittee, the Congress 
has made significant strides to restore military pay 
comparability over these past 12 years, including a statutory 
change that explicitly ties military pay raises to the 
Employment Cost Index growth. Past history has regularly and 
consistently demonstrated that significant problems occur when 
those pay and benefits are reduced or eliminated.
    The very top of all discussion about earned benefits is 
TRICARE. Healthcare and the immediate receipt of retirement pay 
are the only incentives that DOD can offer to entice someone to 
volunteer 20 or more years of their youth to our Nation just to 
be eligible. Despite acknowledging this long-term commitment, 
DOD again re-introduced plans, rejected by the Congress in the 
past, to force military dependents and retirees to either pay 
more for their healthcare coverage or to opt out of TRICARE 
entirely.
    AFSA considers it a supreme breach of faith to force those 
who serve to sacrifice even more. It denigrates the years of 
up-front service and the unlimited liability required of career 
military and their families. And if breaking faith with those 
currently serving is wrong, so is imposing a major bait-and-
switch change on those who already completed a 20- or 30-year 
career induced by promises of current benefits.
    Recent public statements speak to the conundrum we 
presently think of. President Obama has said, ``As a Nation, 
we're facing tough choices as we put our fiscal house in order. 
But I want to be absolutely clear: We cannot and we must not 
balance the budget on the backs of our veterans.'' All of our 
military retirees are those veterans.
    An appropriate quote by Senator Jim Webb recently was, 
``You can't renegotiate the front end once the back end is 
done. This is an obligation that has been made to people whose 
military careers are now done.'' Senator Webb understands that 
very few join the military intent on making it a career.
    I am pleased to note that the 2013 National Defense 
Authorization Act approved by the Senate Armed Services 
Committee 2 weeks ago rejects many of those planned increases 
and the bill now awaits action on your Senate floor. I urge you 
to support their efforts with the necessary appropriation.
    AFSA endorses the view that surviving spouses with military 
survivor benefit plan annuities should be able to concurrently 
receive earned SBP benefits and DIC payments related to their 
sponsor's service-connected death. We would like to thank 
Senator Bill Nelson for introducing S. 260 and the 50 Senators 
who have co-sponsored this important repeal legislation.
    Arguably, the best piece of legislation ever passed by the 
Congress, and thanks to the efforts of many of you here, the 
Post-9/11 GI Bill, is providing unprecedented educational 
opportunities for thousands of men and women who served in 
uniform since 9/11. Regrettably, benefits for joining the 
Selective Reserve were not included in that bill. AFSA strongly 
recommends the Congress work to restore basic Reserve 
Montgomery GI Bill benefits to the historic benchmark of 47 to 
50 percent of active-duty benefits. In conclusion, on behalf of 
all AFSA members, we appreciate your efforts and, as always, 
we're ready to support you in matters of mutual concern.

                           PREPARED STATEMENT

    AFSA contends that it is of paramount importance for a 
Nation to provide quality healthcare and top-notch benefits in 
exchange for the devotion, sacrifice, and service of our 
military members. To quote Bob Woodward from his book ``The War 
Within'', ``Those who serve and their families are the 
surrogates of all Americans. They bear the risk and strain of a 
year or more in a foreign land. So many have spent their youth 
and spilled their blood in a fight far from home. What do we 
owe them? Everything. And what do we give them? Much less than 
they deserve.''
    [The statement follows:]
 Prepared Statement of Chief Master Sergeant John R. ``Doc'' McCauslin
    Chairman Inouye, Ranking Member Cochran, and distinguished members 
of the Department of Defense subcommittee: On behalf of the 110,000 
members of the Air Force Sergeants Association (AFSA), thank you for 
this opportunity to present the views of our members on the military 
personnel programs that affect those serving (and who have served) our 
Nation. This hearing will address issues critical to those serving and 
who have served our Nation.
    Your continuing efforts toward improving the quality of their lives 
have made a real difference, and our members are grateful. In this 
statement, I have identified specific funding goals we hope this 
subcommittee will consider for fiscal year 2013 on behalf of current 
and past enlisted members and their families. AFSA represents Active 
Duty, Guard, Reserve, retired, and veteran enlisted Air Force members 
and their families. The content of this statement reflects the views of 
our members as they have communicated them to us. As always, we are 
prepared to present more details and to discuss these issues with your 
staffs.
                   proposed fiscal year 2013 funding
    The administration requested $525.4 billion for Department of 
Defense (DOD) base budget for fiscal year 2013, a $5.2 billion or 1-
percent reduction from this year's spending level. We understand a plan 
recently approved by the House Appropriations Committee provides an 
increase of $1.1 billion more than the fiscal year 2012 level and $3.1 
billion more than the President's request. AFSA encourages you to 
follow their lead to ensure the Department has sufficient funds to meet 
the needs of our Nation's defense.
                          military pay raises
    Thanks to the great work of this subcommittee. The Congress has 
made great strides to restore military pay comparability over the past 
12 years, including a statutory change that explicitly ties military 
pay raises to Employment Cost Index (ECI) growth. The current formula 
provides military servicemembers with a 1.7-percent pay raise in fiscal 
year 2013, and we urge you to set aside the necessary funding to make 
certain this is so. That said, we are very concerned that the 
administration plans break the tie to civilian pay growth in future 
years by limiting military raises to 0.5 percent, 1 percent, and 1.5 
percent for 2015, 2016, and 2017, respectively. Past history has 
clearly shown that significant retention problems will occur when pay 
and benefits are reduced or eliminated. Recent calls to cut back on 
military raises, create a new comparability standard or substitute more 
bonuses for pay raises in the interests of deficit reduction are 
exceptionally short-sighted in view of the extensive negative 
experience with military pay raise caps. AFSA urges the subcommittee to 
fully fund these important pay increases not just this year, but in 
future years, based on the ECI as specified in current law.
                             sequestration
    Our members are deeply concerned with the prospect of sequestration 
and how it could undermine proper defense funding in the coming years. 
As a result of the Budget Control Act of 2011, DOD now faces the 
specter of another $500 billion in defense cuts beyond $490 billion in 
reductions previously agreed to. That is, of course, unless the 
Congress intervenes. Military leaders from the top down have made it 
quite clear that an additional $500 billion of cuts would do 
catastrophic damage to our military, hollow out the force, and degrade 
its ability to protect the country. America's military strength exists 
to secure the blessings of ordered liberty for the American people. We 
sincerely hope Members of Congress can find an alternative to punitive 
reductions mandated by sequestration which would force across-the-board 
cuts to defense programs including pay and benefits which would 
threaten the future viability of the all-volunteer force. Less than 1 
percent of the population is shouldering 100 percent of the burden of 
maintaining our national security, and we hope you will act soon so 
they won't be left wondering when, or if, the rug will be pulled out 
from underneath them.
                          retirement benefits
    The administration's proposed fiscal year 2013 budget called for 
the creation of a base realignment and closure-like panel that will 
review current military compensation and recommend changes (most likely 
reductions) for the Congress to consider. The commission is to be 
formulated on the premise that the groups agreed upon plan must save 
DOD money. Instead of approaching the subject with discussion on what 
is the Nation's obligation to those who serve, the administration plans 
to use a formula that lays out a predetermined result. We believe those 
who serve and have served in uniform deserve better. Senior military 
leaders often speak of the importance of ``Keeping the faith'' with 
military members, particularly where earned benefits are concerned--
benefits like retired pay and healthcare. Right now, airmen are asking, 
``Where is the faith?'' And they are looking to you, the Members of 
Congress, to provide that answer. ``Passing the buck'' to 
servicemembers instead fulfilling promised benefits will only serve to 
undermine long-term retention and readiness. Much of the success of the 
all-volunteer force can be directly attributed to the benefits we 
provide military members in return for their service and sacrifice. Not 
just them, but their families, too. Do we want to risk this? I urge you 
to resist any plan that reduces pay and benefits and fully fund the 
existing systems that have directly contributed to the extraordinary 
success of the all-volunteer force for nearly four decades.
                                tricare
    No military personnel issues is more sacrosanct than pay and 
benefits, which is why healthcare is such a sensitive subject. It and 
the immediate receipt of retirement pay are the only incentives DOD can 
offer to entice someone to first volunteer 20 or more years of their 
youth to the Nation just to be eligible. Yet, despite acknowledging 
this long-term commitment, DOD again reintroduced plans--rejected by 
the Congress in the past--to force military dependents and retirees to 
either pay more for their healthcare coverage or to opt out of TRICARE 
entirely. Specifically, the department proposes to raise beneficiary 
costs by:
  --raising annual fees by as much as $2,000 or more for retired 
        families younger than age 65;
  --establishing new annual enrollment fees of up to $950 for retired 
        couples older than age 65;
  --imposing ``means testing'' of military retiree health benefits 
        based on their retired income--something no other Federal 
        program does;
  --dramatically increasing pharmacy co-pays to approach or surpass the 
        median of current civilian plans; and
  --tying future annual increases to an unspecified health cost index 
        estimated to average more than 6 percent each year.
    In announcing these so-called ``modest'' proposals, DOD leaders 
stressed their intent to ``keep faith with currently serving troops'' 
by avoiding any retirement changes that would affect the current force. 
But their concept of ``keeping faith on retirement'' apparently doesn't 
extend to retirement healthcare benefits, as the proposed changes would 
affect any currently serving member who retires the day after they were 
implemented. Further, the proposed pharmacy changes would affect 
hundreds of thousands of currently serving Guard/Reserve members and 
families, as well as the family members of currently serving personnel 
who don't have access to military pharmacies.
    Modest increases? How could raising out-of pocket healthcare costs 
$2,000 annually or increasing pharmacy copays up to 375 percent be 
considered modest? And I remind the members of this panel that our more 
senior retirees, those in TRICARE for Life, are already required to 
participate in Medicare Part B in order to retain their earned 
healthcare coverage.
    AFSA regards all efforts to force those who serve and sacrifice the 
most, to sacrifice even more, as a supreme breach of faith. It 
denigrates the years of upfront service and sacrifice required of 
career military and their families, plus these anti-people proposals 
will be perceived very negatively by future generations, who may 
consider civilian employment far more rewarding and safer than military 
service. And if breaking faith with the currently serving is wrong, so 
is imposing a major ``bait and switch'' change on those who already 
completed 20-30 year careers, induced by promises of current benefits.
    At a recent hearing to examine the administration's proposed fee 
hike, Senator Jim Webb (D-VA) accurately observed, ``You can't 
renegotiate the front end once the back end is done. This is an 
obligation that has been made to people whose military careers are now 
done.'' Senator Webb understands few join the military intent on making 
it a career which involves multiple moves and hazardous deployments, 
their children constantly uprooted from schools and spouses from career 
opportunities, virtually zero in home ownership equity, and upon 
military retirement, potential age discrimination entering the civilian 
marketplace. In fact, only 8.5 percent of those who serve in the 
military ever reach retirement, a percentage derived by dividing DOD's 
1.9 million retirees by the Department of Veterans Affairs' (VA) 22.2 
million veterans--a percentage that is even less if medical retirees 
are excluded.
    Like Senator Webb, our greatest concern is that the continued 
erosion of pay and benefits could lead to the end of a professionally 
led, all-volunteer military that for 39 years and more than a decade of 
nonstop war has served the American public extremely well. We hope you 
believe likewise, and will fully fund the military healthcare system.
    Other healthcare issues included in our priorities are listed 
below. Funding for each of these issues is encouraged, and we would be 
happy to provide additional information if requested:
  --exempt those military retirees who entered service prior to 
        December 7, 1956, from the obligation of Medicare Part B 
        payments;
  --oppose the various recommendations for retirees aged 38-64 to seek 
        healthcare coverage from somewhere else besides TRICARE;
  --include Applied Behavior Analysis (ABA) therapy as part of regular 
        TRICARE coverage; and
  --establish a full optometry benefit for military retirees.
                           tuition assistance
    The discretionary Air Force Tuition Assistance program is an 
important quality of life program that provides tuition and fees for 
courses taken by Active-Duty personnel. The program is one of the most 
frequent reasons given for enlisting and re-enlisting in the Air Force, 
and we urge full funding for this program.
                      family readiness and support
    A fully funded, robust family readiness program is crucial to 
military readiness, and especially appropriate given the continuing 
demands of deployments and the uncertainty of the legacy of the effects 
11 years of war have had on servicemembers and their families. AFSA 
urges the subcommittee to continue much-needed supplemental funding 
authority to schools impacted by large populations of military students 
(Impact Aid), fully fund effective family readiness programs, and 
support the child care needs of our highly deployable force.
                         military resale system
    AFSA strongly believes military commissary, exchange and Morale 
Welfare and Recreation programs contribute significantly to a strong 
national defense by sustaining morale and quality of life for military 
beneficiaries both within the United States and around the globe. In 
surveys looking at the benefits of service, military servicemembers 
often cite access to the commissary and exchange as one of their top 
five benefits. With this in mind, we urge this subcommittee to resist 
initiatives to civilianize or consolidate DOD resale systems in any way 
that would reduce their value to patrons. AFSA instead urges a thorough 
review of the findings of an extensive and costly ($17 million) 
multiyear study that found consolidation is not a cost-effective 
approach to running these important systems.
                        retiree/survivor issues
    Concurrent Receipt.--AFSA continues its advocacy for legislation 
that provides concurrent receipt of military retired pay and veterans' 
disability compensation for all disabled retirees without offset. Under 
current statues, retirees with 50 percent or greater disabilities will 
receive their full-retired pay and VA disability in fiscal year 2014. 
The Congress should now focus on eliminating this unjust offset for 
veterans with lesser disabilities and in particular, individuals who 
were medically retired with less than 20 years of service due to a 
service-connected illness or injury. They are not treated equally.
    Age-57 Dependency and Indemnity Compensation (DIC) Remarriage.--
AFSA commends Members of Congress for previous legislation, which 
allowed retention of DIC, burial entitlements, and VA home loan 
eligibility for surviving spouses who remarry after age 57. However, we 
strongly recommend the age-57 DIC remarriage provision be reduced to 
age 55 to make it consistent with all other Federal survivor benefit 
programs.
    Repeal Survivor Benefit Plan (SBP)/DIC Offset.--We endorse the view 
that surviving spouses with military SBP annuities should be able to 
concurrently receive earned SBP benefits and DIC payments related to 
their sponsor's service-connected death. We would like to thank Senator 
Bill Nelson (D-FL) for introducing S. 260 and the 50 Senators who have 
co-sponsored this important legislation to repeal the SBP-DIC offset. 
Despite budgetary difficulties, we sincerely hope the Congress will 
find the funding to eliminate this unfair offset.
    Retention of Final Paycheck.--Current regulations require survivors 
of deceased military retirees to return any retirement payment received 
in the month the retiree passes away or any subsequent month 
thereafter. Once a retirees passes, the Defense Finance and Accounting 
Service stops payment on the retirement account, recalculates the final 
payment to cover only the days in the month the retiree was alive, and 
then forwards a check for those days to the surviving spouse.
    Understandably, this practice can have an adverse impact on the 
surviving spouse. When the retirement pay is deposited, they use those 
funds to make payment on items such as mortgages, medical expenses, or 
other living expenses. Automatically withdrawing those funds can 
inadvertently cause essential payments to bounce and places great 
financial strain on a beneficiary already faced with the prospect of 
additional costs associated with their loved one's death. AFSA strongly 
encourages this subcommittee to appropriate the funds necessary to 
bring an end to this abhorrent practice.
                        guard and reserve issues
    Reduce the Earliest Guard and Reserve Retirement Compensation Age 
From 60 to 55.--Legislation was introduced during the last Congress to 
provide a more equitable retirement for the men and women serving in 
the Guard and Reserves. The proposed legislation would have reduced the 
age for receipt of retirement pay for Guard and Reserve retirees from 
60 to 55. Active-Duty members draw retirement pay the day after they 
retire. Yet, Guard and Reserve retirees currently have to wait until 
they reach age 60 before they can draw retirement pay. Although 
legislation addressing this issue does not exist in the 112th Congress, 
we urge the members of this subcommittee to support it when and if it 
is reintroduced.
    Reduction of Retirement Age Due to Title 10 Service.--A provision 
in the fiscal year 2008 National Defense Authorization Act reduces the 
Reserve component retirement age requirement by 3 months for each 
cumulative 90 days ordered to Active Duty. However, this provision only 
credits active service since January 28, 2008, so it disenfranchises 
and devalues the service of hundreds of thousands of Guard and Reserve 
members who served combat tours (multiple tours, in thousands of cases) 
between 2001 and 2008. These contributions to national security are 
further demeaned by language that specifies eligible service must fall 
within a given fiscal year (e.g., a reservist receives no credit for a 
90-day tour that began in August and ended in November because the 
period of service spanned 2 fiscal years).
    AFSA supports full funding of initiatives that eliminate the fiscal 
year limitation and authorizes early retirement credit for all Guard 
and Reserve members who have served on Active-Duty tours of at least 90 
days retroactive to September 11, 2001.
    Provide Concurrent Retirement and Disability Pay (CRDP) for Service 
Incurred Disabilities.--National Guard and Reserve with 20 or more good 
years are currently able to receive CRDP; however, they must wait until 
they are 60 years of age and begin to receive their retirement check. 
This policy must be changed, and along with the reduction in retirement 
age eligibility, is a benefit our Guard and Reserve deserve. They have 
incurred a service-connected disability, and we must provide concurrent 
retirement and disability pay to them.
    Many Guard/Reserve retirees have spent more time in a combat zone 
than their Active Duty counterparts. DOD has not supported legislation 
to provide Guard/Reserve men and women more equitable retirement pay in 
the past. Additional requirements and reliance has been placed on the 
Guard and Reserve in recent years. It is time to recognize our men and 
women in uniform serving in the Reserve components and provide them a 
more equitable retirement system.
    Award Full Veterans Benefit Status to Guard and Reserve Members.--
It is long overdue that we recognize those servicemembers in the Guard 
and Reserve who have sustained a commitment to readiness as veterans 
after 20 years of honorable service to our country. Certain Guard and 
Reserve members that complete 20 years of qualifying service for a 
reserve (nonregular) retirement have never been called to active-duty 
service during their careers. At age 60, they are entitled to start 
receiving their Reserve military retired pay, Government healthcare, 
and other benefits of service including some veterans' benefits. But, 
current statutes deny them full standing as a ``veteran'' of the Armed 
Forces. S. 491, the ``Honor America's Guard-Reserve Retirees Act of 
2011'' introduced by Senator Mark Pryor (D-AR) and a House-approved 
bill, H.R. 1025 by Representative Tim Walz (D-MN) would change current 
statues to include in the definition(s) of ``veteran'' retirees of the 
Guard and Reserve components who have completed 20 years or more of 
qualifying service. There is little or no cost associated with this 
change, it's simply the right thing to do, and I encourage the members 
of this subcommittee to support Senator Pryor's bill.
    Guard/Reserve GI Bill.--Arguably the best piece of legislation ever 
passed by the Congress, and thanks to the efforts of many of you here, 
the Post-9/11 GI Bill is providing unprecedented educational 
opportunities for the thousands of men and women who served in uniform 
since 9/11 and for many of their family members. Regrettably, many 
volunteers who join the Selected Reserve were left behind in this 
legislation because Selected Reserve Montgomery GI Bill (MGIB) Benefits 
were not upgraded or integrated in the Post-9/11 GI Bill as AFSA 
previously recommended.
    AFSA supports funding of legislation that restores basic Reserve 
MGIB benefits for initially joining the Selected Reserve to the 
historic benchmark of 47-50 percent of active-duty benefits; integrates 
Reserve and Active Duty MGIB laws in title 38, and enacts academic 
protections for mobilized Guard and Reserve students, including refund 
guarantees and exemption of Federal student loan payments during 
activation.
            uniformed services former spouses protection act
    AFSA urges this subcommittee to support some fairness provisions 
for the Uniformed Services Former Spouses Protection Act (USFSPA) 
(Public Law 97-252). While this law was passed with good intentions in 
the mid-1980s, the demographics of military service and their families 
have changed. As a result, military members are now the only U.S. 
citizens who are put at a significant disadvantage in divorce 
proceedings. Because of the USFSPA, the following situations now exist:
  --A military member is subject to giving part of his/her military 
        retirement pay (for the rest of his/her life) to anyone who was 
        married to him/her during the military career regardless of the 
        duration of the marriage.
  --The divorce retirement pay separation is based on the military 
        member's retirement pay--not what the member's pay was at the 
        time of divorce (often many years later).
  --A military retiree can be paying this ``award'' to multiple former 
        spouses.
  --It takes a military member 20 years to earn a retirement; it takes 
        a former spouse only having been married to the member (for any 
        duration, no matter how brief) to get a portion of the member's 
        retirement pay.
  --Under this law, in practice judges award part of the member's 
        retirement pay regardless of fault or circumstances.
  --There is no statute of limitations on this law; i.e., unless the 
        original divorce decree explicitly waived separation of future 
        retirement earnings, a former spouse who the military member 
        has not seen for many years can have the original divorce 
        decree amended and ``highjack'' part of the military member's 
        retirement pay.
  --The former spouse's ``award'' does not terminate upon remarriage of 
        the former spouse.
  --The ``award'' to a former spouse under this law is above and beyond 
        child support and alimony.
  --The law is unfair, illogical, and inconsistent. The member's 
        military retired pay which the Government refers to as 
        ``deferred compensation'' is, under this law, treated as 
        property rather than compensation. Additionally, the law is 
        applied inconsistently from State to State.
  --In most cases, the military retiree has no claim to part of the 
        former spouse's retirement pay.
  --Of all U.S. citizens, it is unconscionable that military members 
        who put their lives on the line are uniquely subjected to such 
        an unfair and discriminatory law.
  --While there may be unique cases (which can be dealt with by the 
        court on a case-by-case basis) where a long-term, very 
        supported former spouse is the victim, in the vast majority of 
        the cases we are talking about divorces that arise which are 
        the fault of either or both parties--at least one-half of the 
        time not the military member. In fact, with the current levels 
        of military deployments, more and more military members are 
        receiving ``Dear John'' and ``Dear Jane'' letters while they 
        serve.
  --This is not a male-versus-female issue. More and more female 
        military members are falling victim to this law. These are just 
        a few of the inequities of this law. We believe this law needs 
        to be repealed or, at the least, greatly modified to be fairer 
        to military members. We urge the subcommittee to support any 
        funding requirement that may be necessary to take action on 
        this unfair law--for the benefit of those men and women who are 
        currently defending the interests of this Nation and its 
        freedom.
                               conclusion
    Chairman Inouye, Ranking Member Cochran, in conclusion, I want to 
thank you again for this opportunity to express the views of our 
members on these important issues as you consider fiscal year 2013 
appropriations. We realize that those charged as caretakers of the 
taxpayers' money must budget wisely and make decisions based on many 
factors. As tax dollars dwindle, the degree of difficulty deciding what 
can be addressed, and what cannot, grows significantly.
    AFSA contends that it is of paramount importance for a nation to 
provide quality healthcare and top-notch benefits in exchange for the 
devotion, sacrifice, and service of military members. So, too, must 
those making the decisions take into consideration the decisions of the 
past, the trust of those who are impacted, and the negative 
consequences upon those who have based their trust in our Government. 
We sincerely believe that the work done by your committees is among the 
most important on the Hill. On behalf of all AFSA members, we 
appreciate your efforts and, as always, are ready to support you in 
matters of mutual concern.

    Chairman Inouye. I thank you very much, Sergeant. May I 
just assure you that we'll never forget anyone who is willing 
to stand in harm's way on our behalf.
    Sergeant McCauslin. Thank you, Sir.
    Chairman Inouye. Our next witness, Ms. Elizabeth Vink, 
represents the International Foundation for Functional 
Gastrointestinal Disorders.
STATEMENT OF ELISABETH VINK, PROGRAM ASSISTANT, 
            INTERNATIONAL FOUNDATION FOR FUNCTIONAL 
            GASTROINTESTINAL DISORDERS
    Ms. Vink. Chairman Inouye, Vice Chairman Cochran: Thank you 
for the opportunity to present testimony regarding functional 
gastrointestinal disorders (FGIDs) among service personnel and 
veterans. My name is Elisabeth Vink, and I am testifying on 
behalf of the International Foundation for Functional 
Gastrointestinal Disorders (IFFGD). IFFGD is a nonprofit 
organization dedicated to supporting individuals affected by 
functional gastrointestinal and motility disorders through 
education and research. I am also a proud member of a military 
family, with my father having served 23 years in the U.S. Air 
Force, and I appreciate the opportunity to present testimony in 
support of veterans like my dad.
    FGIDs are disorders in which the movement of the 
intestines, the sensitivity of the nerves of the intestines, or 
the way in which the brain controls intestinal function is 
impaired. The result is multiple, persistent, and often painful 
symptoms ranging from nausea and vomiting to altered bowel 
habit.
    More than two dozen different FGIDs have been identified, 
ranging in severity from bothersome to disabling. One thing 
these conditions have in common is that little is understood 
about their underlying mechanisms, making them difficult to 
treat effectively. The onset of a functional gastrointestinal 
(GI) disorder can be triggered by severe stress and infections 
of the digestive system.
    Deployed military personnel face an elevated chance of 
experiencing these risk factors and developing FGIDs as a 
result of their service. For this reason, continued research 
through the Department of Defense (DOD) Gulf War Illness 
Research Program (GWIRP) is critical in fiscal year 2013.
    In 2010, the Institute of Medicine (IOM) published a report 
titled ``Gulf War and Health, Volume 8; Update on the Health 
Effects of Serving in the Gulf War'', which determined that 
there is sufficient evidence to associate deployment to the 
gulf war and FGIDs. According to the report, there have been a 
large number of FGID cases among gulf war veterans and their 
symptoms have continued in the years since the war. Based on 
the report from IOM, the Department of Veterans Affairs (VA) 
adopted a final rule in August 2011 stating that there is a 
presumptive service connection between FGIDs and service in the 
Southwest Asia theater of operations during the Persian Gulf 
war.
    Our military personnel are taught to put duty first, and we 
have noticed that by the time they reach out to us their 
condition is incredibly painful or highly disruptive to their 
life. Not only are these disorders hard to treat, but, in the 
words of one retired sergeant, these sometimes very 
embarrassing GI disorders are just as hard to talk about.
    In order to better articulate the suffering associated with 
FGIDs, I would like to share with you the voices of veterans 
affected by these disorders. This is from Steven in North 
Carolina, who served in the Persian Gulf theater of operations. 
``While there and since my return, I have been plagued with a 
multitude of GI problems, including irritable bowel syndrome 
(IBS). I suffered nearly constant diarrhea for over 10 years 
before the IBS was ever diagnosed. None of my GI problems 
existed prior to my deployment and they simply do not seem to 
go away afterwards.''
    Another veteran, Jason, mentioned the prevalence of these 
conditions. ``While speaking with several of my former 
soldiers, I came to realize that they are experiencing the same 
signs and symptoms. I am the first one of a group of friends 
and veterans that is doing research to find out that we are not 
alone.''

                           PREPARED STATEMENT

    The DOD Gulf War Illness Research Program conducts 
important research on the complex set of chronic symptoms that 
impact gulf war veterans. Given the conclusions of the IOM 
report and the report's recommendations for further research on 
the length between FGIDs and exposures experienced by veterans 
in the gulf war, we ask that you continue to support the Gulf 
War Illness Research Program and encourage research into FGIDs 
through this program, so that important research on FGIDs among 
veterans can be conducted.
    Thank you for your time and your consideration of this 
request.
    [The statement follows:]
Prepared Statement of Elisabeth Vink, Program Assistant, International 
          Foundation for Functional Gastrointestinal Disorders
    Thank you for the opportunity to present the views of the 
International Foundation for Functional Gastrointestinal Disorders 
(IFFGD) regarding functional gastrointestinal disorders (FGIDs) among 
service personnel and veterans. FGIDs are recognized by the Department 
of Veterans Affairs (VA) as disabling and connected to military service 
as a part of gulf war illness, and we request that the subcommittee 
continue support the Department of Defense (DOD) Gulf War Illness 
Research Program (GWIRP) through the Congressionally Directed Medical 
Research Program. I am a proud member of a military family, with my 
father having served 23 years in the U.S. Air Force, and I appreciate 
the opportunity to present testimony in support of veterans like my 
dad.
    Established in 1991, IFFGD is a patient-driven nonprofit 
organization dedicated to assisting individuals affected by FGIDs, and 
providing education and support for patients, healthcare providers, and 
the public at large. Our mission is to inform and support people 
affected by painful and debilitating digestive conditions, about which 
little is understood and few (if any) treatment options exist. The 
IFFGD also works to advance critical research on functional 
gastrointestinal (GI) and motility disorders, in order to provide 
patients with better treatment options, and to eventually find a cure.
    FGIDs are disorders in which the movement of the intestines, the 
sensitivity of the nerves of the intestines, or the way in which the 
brain controls intestinal function is impaired. People who suffer from 
FGIDs have no structural abnormality, which makes it difficult to 
identify their condition using xrays, blood tests, or endoscopies. 
Instead, FGIDs are typically identified and defined by the collection 
of symptoms experienced by the patient. For this reason, it is not 
uncommon for FGID suffers to have unnecessary surgery, medication, and 
medical devices before receiving a proper diagnosis.
    More than two dozen different FGIDs have been identified. Severity 
ranges from bothersome to disabling and life-altering. The conditions 
may strike anywhere along the gastrointestinal tract, from nausea and 
vomiting to altered bowel habit. Examples of FGIDs include irritable 
bowel syndrome (IBS) and functional dyspepsia. IBS is characterized by 
abdominal pain and discomfort associated with a change in bowel 
pattern, such as diarrhea and/or constipation. Symptoms of functional 
dyspepsia usually include an upset stomach, pain in the belly, and 
bloating.
    FGIDs can be emotionally and physically debilitating. Due to 
persistent pain and bowel unpredictability, individuals who suffer from 
these disorders may distance themselves from social events, work, and 
even may fear leaving their home. Stigma surrounding bowel habits may 
act as barrier to treatment, as patients are not comfortable discussing 
their symptoms with doctors.
    The onset of a functional GI disorder can be triggered by severe 
stress and infections of the digestive system. Deployed military 
personnel face an elevated chance of experiencing these risk factors 
and developing FGIDs as a result of their service. In April 2010, the 
Institute of Medicine (IOM) published a report titled ``Gulf War and 
Health, Volume 8: Update on the Health Effects of Serving in the Gulf 
War'', which determined that there is sufficient evidence to associate 
deployment to the gulf war and FGIDs. According to the report, there 
have been a large number of FGID cases among gulf war veterans, and 
their symptoms have continued to be persistent in the years since the 
war. The IOM report focused on the incidence of GI disorders among 
veterans and did not attempt to determine causality. However, the 
report provides compelling evidence linking exposure to enteric 
pathogens during deployment and the development of FGIDs. The IOM 
recommended that further research be conducted on this association.
    Based on the report from IOM, Department of Veterans Affairs 
adopted a final rule on August 15, 2011, stating that there is a 
presumptive service connection between FGIDs and service in the 
Southwest Asia theater of operations during the Persian Gulf war. This 
includes conditions like IBS and functional dyspepsia.
    At IFFGD we hear from numerous veterans about their difficulties 
with FGIDs, including conditions such as IBS and cyclic vomiting 
syndrome. Our military personnel are taught to put duty first, and at 
IFFGD we have noticed that by the time they reach out to us, their 
situation is usually pretty bad. Not only are these disorders hard to 
treat, but in the words of one retired Sergeant, these ``sometimes very 
embarrassing GI disorders'' are just as hard to talk about. In order to 
better articulate the suffering associated with FGIDs, I would like to 
share with you the voices of veterans affected by these disorders. This 
is from Stephen in North Carolina:

    ``I am a Desert Shield/Desert Storm veteran that served in the 
Persian Gulf theater of operations from August 1990 to March 1991, as 
the G2 Sergeant Major for the 24th Infantry Division. While there, and 
since my return, I have been plagued with a multitude of GI problems 
including IBS, a functional GI problem. I suffered nearly constant 
diarrhea for over 10 years before the IBS was ever diagnosed. None of 
my GI problems existed prior to my deployment and they simply do not 
seem to go away afterwards.''

    This is from Jason, who contacted us earlier this year:

    ``I am a disabled Iraq veteran that was deployed during 2003-2005 
timeframe with a National Guard unit attached to Active Duty. Since 
returning from Iraq, I have had issues with my gastrointestinal tract. 
I have made a few attempts to try to pinpoint the cause of this change 
in my bodily function to no avail . . . While speaking with several of 
my former soldiers I came to realize that they are experiencing the 
same signs and symptoms. I am the first one of a group of friends/vets 
that is doing research to find out that we are not alone.''

    The DOD Gulf War Illness Research Program conducts important 
research on the complex set of chronic symptoms that impact Gulf War 
Veterans. Given the conclusions of the IOM report and the report's 
recommendations for further research on the link between FGIDs and 
exposures experienced by veterans in the Gulf War, we ask that you 
continue to support the Gulf War Illness Research Program and encourage 
research into FGIDs through this program so that important research on 
FGIDs among veterans can be conducted.
    Thank you again for the opportunity to address the subcommittee.

    Chairman Inouye. Thank you very much. If this matter is 
service-connected, I can assure you we're morally bound to do 
something about it.
    Thank you.
    Ms. Vink. Thank you, Chairman.
    Chairman Inouye. Our next witness is Mr. Anthony Castaldo, 
representing the United States Hereditary Angiodema 
Association.
STATEMENT OF ANTHONY CASTALDO, PRESIDENT, U.S. 
            HEREDITARY ANGIOEDEMA ASSOCIATION
    Mr. Castaldo. Chairman Inouye and Vice Chairman Cochran: 
I'm delighted to present testimony today on hereditary 
angioedema (HAE). I am Anthony Castaldo, president of the 
United States HAE Association, a Honolulu-based nonprofit 
patient services, research, and advocacy organization that 
represents more than 4,500 HAE patients.
    Now, HAE is a rare, debilitating, and potentially life-
threatening genetic condition that occurs in about 1 in 50,000 
people. HAE patients experience frequent attacks of intense 
swelling of various body parts, including the hands, face, 
feet, throat, and abdomen. Abdominal attacks involve 
excruciating abdominal pain, nausea, and vomiting. Attacks 
involving the throat are particularly dangerous because the 
swelling can progress to the point where the airway closes and 
causes death by suffocation.
    The historical mortality rate for HAE sufferers is well 
over 30 percent and, tragically, even today HAE patients 
continue to die from swelling attacks that close the airway. 
Unfortunately, according to a recent study HAE patients suffer 
for almost a decade before obtaining an accurate diagnosis, and 
are therefore often subject to unnecessary exploratory surgery 
and ineffective medical procedures.
    Now, the swelling experienced by many HAE patients is 
actually caused by a genetic defect that results in deficient 
levels of a key blood protein. However, there are still 
patients in the HAE Association community who do not yet know 
what causes their swelling. Despite a family history of 
debilitating and life-threatening swelling attacks, these 
patients have normal levels of the protein that I mentioned 
earlier. This important subset of HAE sufferers represent a 
significant unmet medical need and research is required to 
identify the genetic and biochemical markers for this form of 
HAE.
    Mr. Chairman and Vice Chairman Cochran, I'd like to share 
some examples of how HAE has a significant impact on the 
ability to serve in our country's armed services. Today, right 
on the island, Hawaiian island of Oahu, there was a remarkable 
young man, Christian Davis, whose dreams of following his 
father's footsteps and becoming an Air Force pilot have been 
dashed because his HAE symptoms prevent him from military 
service.
    Christian, who bravely endures frequent HAE attacks 
involving his abdomen and throat, loved to visit Hickham Air 
Force Base and proudly watch his father, Lieutenant Colonel 
Milton Davis, take off and land Hawaii Air National Guard C-17 
cargo planes. With visions of one day serving America by 
grasping the controls and piloting a C-17, Christian eagerly 
began the process of applying for military service. It did not 
take long, however, for this young man's aspirations to be 
dowsed by the reality that HEA would cause him to be rejected 
for military service.
    My father, who experienced severe swelling attacks, yet 
served with distinction in the Korean war, chose to endure his 
excruciating swelling without seeking treatment, so he could 
continue to serve his country. Of course, in those days HAE had 
not yet been identified as a discrete disease. Indeed, my dad 
was so proud to serve as a U.S. military police officer that 
while in Korea he stopped reporting to the field hospital 
during swelling attacks, in an attempt to avoid a medical 
discharge.

                           PREPARED STATEMENT

    Mr. Chairman and Mr. Vice Chairman, on behalf of HEA 
patients in the United States, including those like Christian 
Davis who would like to serve his country, and veterans like my 
dad, who remained on active duty despite suffering from 
debilitating HAE swelling attacks, I would like to request that 
the subcommittee continue--that HAE continue to be eligible for 
the Peer-Reviewed Medical Research Program for fiscal year 
2013. There is a critical need for research in understanding 
all causes of HAE, including currently available treatments, 
and ultimately finding a cure.
    Thank you for inviting me to appear today.
    [The statement follows:]
                 Prepared Statement of Anthony Castaldo
    Chairman Inouye, Vice Chairman Cochran, and distinguished members 
of the Defense subcommittee: Thank you for the opportunity to present 
testimony on Hereditary Angioedema (HAE). I am Anthony Castaldo, 
president of the United States Hereditary Angeioedema Association 
(USHAEA) and an HAE patient. USHAEA is a nonprofit patient advocacy 
organization founded to provide patient support, educate patients and 
their families, advance HAE research, and find a cure. Our efforts 
include providing research funding to scientific investigators to 
increase the HAE knowledge base and maintaining a patient registry to 
support groundbreaking research efforts. Today, we would like to 
request the continued inclusion of HAE in the fiscal year 2013 Peer-
Reviewed Medical Research Program (PRMRP) within the Department of 
Defense (DOD) appropriations bill.
    My family has a long history of military service, my grandfather 
served in the Great War and my father and uncle in Korea; I grew up 
understanding the sacrifices and dedication of our servicemen and 
women. I, however, was and am unable to serve my country in the same 
way because of my condition. There are also a number of other men and 
women who were prevented from serving in the military due to an HAE 
diagnosis.
    HAE is a rare and potentially life-threatening inherited disease 
with symptoms of severe, recurring, debilitating attacks of edema 
(swelling). HAE patients have a defect in the gene that controls a 
blood protein called C1-inhibitor, so it is also more specifically 
referred to as C1-inhibitor deficiency. This genetic defect results in 
production of either inadequate or nonfunctioning C1-inhibitor protein. 
Because the defective C1-inhibitor does not adequately perform its 
regulatory function, a biochemical imbalance can occur and produce an 
unwanted peptide--called bradykinin--that induces the capillaries to 
release fluids into surrounding tissues, thereby causing swelling.
    People with HAE experience attacks of severe swelling that affect 
various body parts including the hands, feet, face, airway (throat), 
and intestinal wall. Swelling of the throat is the most life-
threatening aspect of HAE, because the airway can close and cause death 
by suffocation. Studies reveal that more than 50 percent of patients 
will experience at least one throat attack in their lifetime.
    HAE swelling is disfiguring, extremely painful, and debilitating. 
Attacks of abdominal swelling involve severe and excruciating pain, 
vomiting, and diarrhea. Because abdominal attacks mimic a surgical 
emergency, approximately one-third of patients with undiagnosed HAE 
undergo unnecessary surgery. Untreated, an average HAE attack lasts 
between 24 and 72 hours, but some attacks may last longer and be 
accompanied by prolonged fatigue.
    The majority of HAE patients experience their first attack during 
childhood or adolescence. Most attacks occur spontaneously with no 
apparent reason, but anxiety, stress, minor trauma, medical, surgical, 
and dental procedures, and illnesses such as colds and flu have been 
cited as common triggers. ACE inhibitors (a blood pressure control 
medication) and estrogen-derived medications (birth control pills and 
hormone replacement drugs) have also been shown to exacerbate HAE 
attacks.
    HAE's genetic defect can be passed on in families. A child has a 
50-percent chance of inheriting the disease from a parent with HAE. 
However, the absence of family history does not rule out the HAE 
diagnosis; scientists report that as many as 25 percent of HAE cases 
today result from patients who had a spontaneous mutation of the C1-
inhibitor gene at conception. These patients can also pass the 
defective gene to their offspring. Worldwide, it is estimated that this 
condition affects between 1 in 10,000 and 1 in 30,000 people.
                 peer-reviewed medical research program
    On behalf of the HAE community, including our military families, I 
would like to thank the subcommittee for recognizing HAE as a condition 
eligible for study through Peer-Reviewed Medical Research Program 
(PRMRP) in the committee reports accompanying the fiscal year 2012 DOD 
appropriations bill. The scientific community showed great interest in 
the program, responding to the grant announcements with an immense 
outpouring of proposals. We urge the Congress to maintain HAE's 
eligibility in the PRMRP in committee reports accompanying the fiscal 
year 2013 DOD appropriations bill, to help find a cure so the men and 
women born with HAE can serve their country in the Armed Forces and 
help their families with the very challenging condition.
    Thank you for the opportunity to present the views of the HAE 
community.

    Chairman Inouye. I thank you very much, Mr. Castaldo. I 
assure you that we'll look into this matter.
    Mr. Castaldo. Thank you, Sir.
    Chairman Inouye. Thank you.
    Our next witness is Lieutenant Colonel Carl Hicks, 
representing the Pulmonary Hypertension Association.
STATEMENT OF LIEUTENANT COLONEL CARL HICKS, U.S. ARMY 
            (RETIRED), PULMONARY HYPERTENSION 
            ASSOCIATION
    Colonel Hicks. Mr. Chairman, first I'd like to acknowledge 
you as a personal hero. Your actions long ago set an example 
for bravery and sacrifice, inspiring so many young Americans 
who would later follow as infantrymen and earn the combat 
infantryman's badge. Sir, I was one of them, and I'm especially 
humbled to be in your presence, as any American would be. Thank 
you.
    And thank you for having me here today to speak on behalf 
of hundreds of thousands of Americans impacted by pulmonary 
hypertension (PH). On behalf of the PH community, I am here to 
request that you once again include pulmonary hypertension as a 
condition eligible for study through the Department of Defense 
(DOD) Peer-Reviewed Medical Research Program.
    I volunteer for a grassroots, patient-centric organization 
called the Pulmonary Hypertension Association (PHA). With more 
than 20,000 members and supporters, including more than 250 
support groups across the country, PHA now is recognized 
worldwide. We are dedicated to improving treatment options and 
finding cures for PH and supporting affected individuals 
through coordinated research, education, and advocacy 
activities.
    PH is a debilitating and usually fatal condition where 
blood pressure in the lungs rises to dangerously high levels. 
In PH patients, the walls of the arteries that take the blood 
from the side of the heart to the lungs thicken, scar, and 
constrict, and as a result the right side of the heart has to 
pump harder to move blood into the lungs, causing it to enlarge 
and ultimately fail.
    Symptoms of PH include shortness of breath, fatigue, chest 
pain, dizziness, and fainting. The stricken feel, even at rest, 
as though they are suffocating, because they are. The only way 
to ultimately survive being stricken with PH is to undergo a 
lung or a heart-lung transplant.
    August 16, 1981, was one of the happiest days of my life. I 
was a young airborne Ranger infantry captain who had worked his 
way up from private. I felt pretty tough. Holding my first-born 
Meaghan in my arms moments after she was born, I looked down 
into her beautiful little face and vowed these arms would 
protect her from everything, and there was no doubt that I 
could.
    Fast-forward 13 happy years and our little happy family had 
grown to three healthy, beautiful Army brats. I had been 
promoted rapidly, and we were on our way back from Germany to 
assume the command of the 10th Mountain Division. Life could 
not have been better.
    Days away from leaving, Meaghan, who was a fit, healthy 
young gymnast of 13, fainted and complained of shortness of 
breath. Initially misdiagnosed, we were soon at Walter Reed, 
where I was confident they could solve the problem. After 3 
days of testing, an Army doctor asked me to join him around the 
corner, where he said: ``Colonel Hicks, I regret to inform you, 
but your daughter, Meaghan, has a terminal illness. She has 
less than a year to live and there is nothing we can do for 
her.''
    I was not such a tough warrior any more. Little did they 
know that Meaghan was a tough warrior, though, and with the 
combined help and prayers of many she lived another 12 years 
before declining precipitously. Finally, the only hope for 
Meaghan was a dangerous heart and lung transplant, which she 
fearlessly endured. But there were serious complications. 
Undaunted, she fought on, never quitting or giving up.
    As she once again began to decline, helpless to find ways 
to comfort her, I offered her an old Ranger tee shirt to wear 
as she lay in bed. She was so proud that she rallied briefly. 
Yet, 48 hours later we lost her. I had failed my most important 
mission, that promise to protect her from everything. She was 
the bravest person I have ever known.

                           PREPARED STATEMENT

    Distinguished members, while new treatment options have 
been developed for PH in recent years, they are limited and 
there remains no cure. For the members of our military and 
their families who are struggling with PH, the hope for a 
better quality of life depends on advancements made through 
biomedical research. It is important to note that research in 
this area has a potential to yield additional benefits toward 
the study of America's number one killer, heart disease, as 
well as other lung illnesses.
    Pulmonary hypertension was included as a condition eligible 
for study through DOD Peer-Reviewed Medical Research Program in 
2009. I respectfully request once again that we renew that 
commitment toward a better tomorrow made through this important 
research by including pulmonary hypertension as a condition 
eligible for fiscal year 2013.
    Thank you.
    [The statement follows:]
          Prepared Statement of Lieutenant Colonel Carl Hicks
    Chairman Inouye, Ranking Member Cochran, and distinguished members 
of the subcommittee: Thank you for having me here today to speak on 
behalf of the hundreds of thousands of Americans impacted by pulmonary 
hypertension (PH). As a military veteran and as a veteran of the 
ongoing battle against PH, it is my honor to appear before you as a 
representative of the Pulmonary Hypertension Association (PHA). On 
behalf of the PH community, I am here to request that you once again 
include PH as a condition eligible for study through the Department of 
Defense (DOD) Peer-Reviewed Medical Research Program (PRMRP) as you 
work to complete fiscal year 2013 Defense appropriations.
    PHA has served the PH community for more than 20 years. In 1990, 
three PH patients found each other with the help of the National 
Organization for Rare Disorders and shortly thereafter founded PHA. At 
that time, the condition was largely unknown amongst the general public 
and within the medical community; there were fewer than 200 diagnosed 
cases of the disease. Since then, PHA has grown into a nationwide 
network of more than 20,000 members and supporters, including more than 
250 support groups across the country. PHA is dedicated to improving 
treatment options and finding cures for PH, and supporting affected 
individuals through coordinated research, education, and advocacy 
activities. We now have an international presence and reputation around 
the world for which I am deeply proud.
    PH is a debilitating and often fatal condition where the blood 
pressure in the lungs rises to dangerously high levels. In PH patients, 
the walls of the arteries that take blood from the right side of the 
heart to the lungs thicken and constrict. As a result, the right side 
of the heart has to pump harder to move blood into the lungs, causing 
it to enlarge and ultimately fail. Symptoms of PH include shortness of 
breath, fatigue, chest pain, dizziness, and fainting. The only way to 
ultimately survive being stricken with PH is a lung or heart-lung 
transplant.
    On August 16, 1981, I was a young Airborne Ranger Infantry captain 
who'd worked his way up from private and felt pretty tough. As I held 
my firstborn child, Meaghan, in my arms moments after she was born, I 
looked down into her beautiful little face and knew these arms could 
protect her from anything, and I lovingly told her so in front of her 
beaming mother. Fast forward 13 happy years and our little family had 
grown to three happy, healthy, beautiful Army brats. I had been 
promoted multiple times below the zone, and we were on our way back 
from Europe so I could assume a new command in the 10th Mountain 
Division. Life couldn't have been better, or so I thought.
    Days away from leaving, Meaghan, a super fit healthy gymnast of 13, 
fainted and complained of shortness of breath. Initially misdiagnosed 
as are almost all, we eventually ended up at Walter Reed. Two days 
later a young Army doctor asked me to join him around the corner where 
he said, ``Colonel Hicks, I regret to inform you that your daughter, 
Meaghan, has a terminal illness, and there is nothing we can do for 
her. She has less than a year to live at best.'' I was no longer the 
tough battle-hardened Ranger that moments before I was.
    Little did they know that Meaghan was tough, and combined with the 
help of a civilian physician, she lived another 12 years before 
declining precipitously. Finally the only hope was a dangerous heart-
lung transplant which she fearlessly endured. But there were 
complications. Undaunted, she fought on, never quitting or giving up. 
As she again began to decline and she asked for my Ranger t-shirt to 
wear. Forty-eight hours later, with all of us around her, she lost her 
last fight. I had failed my mission and didn't keep that promise to 
protect from everything, but Meaghan, she never gave up. Rangers both 
retired and Active Duty came from around the world for her celebration 
of life, and we did a Ranger ``roll-call'' for her and stood to salute 
when she didn't respond. She was the bravest person I ever knew, and 
she never, ever quit.
    Gentlemen, while new treatment options have been developed for PH 
in recent years, these treatment options are limited and there remains 
no cure. For the members of our military and their families who are 
struggling with PH, the hope for a better quality of life depends on 
advancements made through biomedical research. It is important to note 
that research in this area has the potential to yield additional 
benefits towards the study of America's number one killer, heart 
disease. PH was included as a condition eligible for study through the 
DOD's Peer-Reviewed Medical Research Program as recently as 2009. I ask 
that this subcommittee renew the commitment towards a better tomorrow 
made through this important research by including pulmonary 
hypertension as a condition eligible for study through the Peer-
Reviewed Medical Research Program in fiscal year 2013.
PHA Fiscal Year 2013 DOD Appropriations Recommendations
    Peer-Reviewed Medical Research Program (PRMRP):
  --Please, once again, include pulmonary hypertension (PH) on the list 
        of conditions deemed eligible for study through the DOD PRMRP 
        as you continue your important work on the fiscal year 2013 
        Defense appropriations bill.
  --In addition, please provide $50 million for PRMRP, which is housed 
        within the DOD Congressionally Directed Medical Research 
        Program, so that this program may continue to advance important 
        research activities focused on a number of conditions.
    Thank you for your time and your consideration of this request.

    Chairman Inouye. I thank you very much and thank you for 
your kind words. We will make certain that this matter is 
continued.
    Colonel Hicks. Thank you, Sir.
    Chairman Inouye. Thank you.
    The next group of witnesses: Mr. Neal Thompson of the 
Interstitial Cystitis Association; Mr. Danny Smith of the 
Scleroderma Foundation; Ms. Dee Linde, the Dystonia Medical 
Research Foundation; and Ms. Joy Simha, National Breast Cancer 
Coalition.
    I call upon Mr. Thompson.
STATEMENT OF F. NEAL THOMPSON, TREASURER, BOARD OF 
            DIRECTORS, INTERSTITIAL CYSTITIS 
            ASSOCIATION
    Mr. Thompson. Thank you. Chairman Inouye, Vice Chairman 
Cochran, distinguished members of the subcommittee: Thank you 
for the opportunity to present testimony before you today. My 
name is Neal Thompson. I'm speaking on behalf of the 
Interstitial Cystitis Association (ICA). The ICA advocates for 
interstitial cystitis (IC) research, raises awareness, and 
serves as a center hub for healthcare providers, researchers, 
and millions of patients with IC.
    I'm also a lieutenant colonel in the Virginia Defense 
Force, which is a voluntary military organization set up to 
provide support for the Department of Military Affairs, which 
is the Virginia National Guard and Army Guard.
    I was a high-level insurance executive, but my life came to 
a screeching halt when I got this IC base. I couldn't travel. I 
couldn't sleep. Fortunately, I was able to get a diagnosis from 
the Medical College of Virginia, from a doctor there who was 
also working at the Department of Veterans Affairs (VA) 
hospital. So that changed my life and I was able to get some 
treatment.
    IC is a chronic condition characterized by recurring pain, 
pressure, and discomfort of the bladder and pelvic region. It's 
often associated with urinary frequency and urgency. The cause 
of IC is still unknown and the diagnosis is made only after 
excluding other urinary and bladder conditions.
    Misdiagnosis is very common, and when healthcare providers 
are not properly educated about IC patients may suffer for 
years before receiving an accurate diagnosis, often as long as 
5 years. IC is often considered a woman's disease, but, while 
it is more common in women, scientific evidence shows that all 
demographic groups are affected by IC. It is estimated that 12 
million Americans have IC symptoms.
    The effects of IC are damaging to work life, psychological 
well-being, personal relationships, and general health. The 
impact on IC quality of life is equally as severe as rheumatoid 
arthritis and end stage renal disease. IC can cause patients to 
suffer from sleep dysfunction, high rates of depression, 
anxiety, sexual dysfunction, and in some cases, suicide.
    The burden of IC on our military, the Nation's military 
members and veterans, is significant. The Urological Disease of 
America Project conducted between 1999 and 2002 found that 
approximately 1.4 of all veterans who utilized the Veterans 
Health Administration (VHA) have been treated for IC. This 
study also showed a 14-percent increase in IC patients within 
the VHA over the same period.
    The ICA has also heard from many service men and women 
about their struggles with IC, including a woman who is just 
currently in field training, who experienced severe pain every 
time she fired her weapon. Several individuals, such as former 
Navy Captain Gary Monray, were forced to retire from their 
military career due to pain and limitations imposed by IC.
    IC research through the Department of Defense Peer-Reviewed 
Medical Research Program remains essential for expanding our 
knowledge of this painful condition. This program is an 
indispensable resource for studying emerging areas of IC 
research, such as prevalence in men, the role of environmental 
conditions, and development and diagnosis and various 
treatments.

                           PREPARED STATEMENT

    Senator, I've read your Medal of Honor designation in 1945 
and I read the actions taken in Northern Italy. It's chilling 
just to read that, but at the time I'm sure you knew what was 
happening and you knew the cause and you knew what the 
treatment. What is so insidious about IC is you don't see it 
externally and we still need more research to find the cure.
    On behalf of IC patients, including many veterans, we 
request IC continue to be eligible for the Peer-Reviewed 
Medical Research Program for fiscal year 2013.
    Thank you for your time and consideration.
    [The statement follows:]
                 Prepared Statement of F. Neal Thompson
    Chairman Inouye, Vice Chairman Cochran, and distinguished members 
of the subcommittee: Thank you for the opportunity to present 
information on interstitial cystitis (IC). I am Neal Thompson, 
treasurer of the board of directors of the Interstitial Cystitis 
Association (ICA). ICA provides advocacy, research funding, and 
education to ensure early diagnosis and optimal care with dignity for 
people affected by IC. Until the biomedical research community 
discovers a cure for IC, our primary goal remains the discovery of more 
efficient and effective treatments to help patients live with the 
disease.
    I am a member of the Virginia Defense Forces, a volunteer military 
reserve set up to provide back up for the Virginia National Guard. This 
group, when called to active duty, is trained to secure any Federal and 
State property left in place in the event of the mobilization of the 
Virginia National Guard. I was a high-level financial executive, but my 
life came to a complete stop because of IC. I struggled for many years 
to get a diagnosis while trying to keep an active travel schedule and 
meet the demands of a high-level position. The challenges of being 
diagnosed and finding an effective treatment eventually forced me to 
leave work due to disability.
    IC is a chronic condition characterized by recurring pain, 
pressure, and discomfort in the bladder and pelvic region. The 
condition is often associated with urinary frequency and urgency, 
although this is not a universal symptom. The cause of IC is unknown. 
Diagnosis is made only after excluding other urinary and bladder 
conditions, possibly causing 1 or more years of delay between the onset 
of symptoms and treatment. Men suffering from IC are often misdiagnosed 
with bladder infections and chronic prostatitis. Women are frequently 
misdiagnosed with endometriosis, inflammatory bowel disease (IBD), 
irritable bowel syndrome (IBS), vulvodynia, and fibromyalgia, which 
commonly co-occur with IC. When healthcare providers are not properly 
educated about IC, patients may suffer for years before receiving an 
accurate diagnosis and appropriate treatment.
    Although IC is considered a ``women's disease'', scientific 
evidence shows that all demographic groups are affected by IC. Women, 
men, and children of all ages, ethnicities, and socioeconomic 
backgrounds develop IC, although it is most commonly found in women. It 
is estimated that as many as 12 million Americans have IC symptoms, 
more people than Alzheimer's, breast cancer, and autism combined.
    The effects of IC are pervasive and insidious, damaging work life, 
psychological well-being, personal relationships, and general health. 
The impact of IC on quality of life is equally as severe as rheumatoid 
arthritis and end-stage renal disease. Health-related quality of life 
in individuals with IC is worse than in individuals with endometriosis, 
vulvodynia, and overactive bladder. IC patients have significantly more 
sleep dysfunction, higher rates of depression, anxiety, and sexual 
dysfunction.
    The burden of IC among our Nation's servicemembers and veterans is 
significant. The Urologic Diseases in America Project, conducted 
between 1999 and 2002, found that approximately 1.4 percent of all 
veterans utilizing the Veterans Health Administration (VHA) had been 
treated for IC. This study also showed a 14-percent increase in IC 
patients within VHA over the same period.
    Navy Captain Gary Mowrey (Retired) was forced to cut his naval 
career short as a result of IC. Captain Mowrey was in the Navy for 25 
years and has served as commander of the VAQ133 Squadron, operations 
officer on the USS Dwight D. Eisenhower, chief of the Enlisted 
Performance Division in the Bureau of Naval Personnel, and earned a 
Southwest Asia service medal with two stars for his service in 
Operation Desert Storm. In 1994, he began to experience significant 
pain, could not always make it to the restroom, and was not even able 
to sit through normal meetings. After months of unsuccessful antibiotic 
treatments for urinary tract infections, Captain Mowrey was diagnosed 
with IC, and retired due to the pain and limitations imposed by IC. He 
then attempted to teach high school math, but had to retire from this 
position as well due to the pain and frequent urination associated with 
his IC.
    Although IC research is currently conducted through a number of 
Federal entities, including the National Institutes of Health and the 
Centers for Disease Control and Prevention (CDC), the DOD's Peer-
Reviewed Medical Research Program (PRMRP) remains essential. The PRMRP 
is an indispensable resource for studying emerging areas in IC 
research, such as prevalence in men, the role of environmental 
conditions such as diet in development and diagnosis, barriers to 
treatment, and IC awareness within the medical military community. 
Specifically, IC education and awareness among military medical 
professionals takes on heightened importance, as the President's fiscal 
year 2013 budget request did not include renewed funding for the CDC's 
IC Education and Awareness Program.
    On behalf of the IC community, including our veterans, I would like 
to thank the subcommittee for recognizing IC as a condition eligible 
for study through the DOD's PRMRP in the committee reports accompanying 
the fiscal years 2010, 2011, and 2012 DOD appropriations bills. The 
scientific community showed great interest in IC research through this 
program. We urge the Congress to maintain IC's eligibility in the PRMRP 
in committee report accompanying the fiscal year 2013 DOD 
appropriations bill, as the number of current military members, family 
members, and veterans affected by IC is increasing.

    Chairman Inouye. Sir, I can assure you that we'll do our 
best to maintain the eligibility of IC patients. Thank you very 
much.
    Now may I call upon Mr. Danny L. Smith.
STATEMENT OF DANNY L. SMITH, U.S. ARMY (RETIRED), 
            SCLERODERMA FOUNDATION
    Mr. Smith. Chairman Inouye, Ranking Member Cochran, and 
distinguished members of the Defense subcommittee: Thank you 
for the opportunity to talk to you today about scleroderma. I'm 
Danny Smith from Saginaw, Michigan. I have been a scleroderma 
patient since 1999. Before my battle with scleroderma started, 
I was in the U.S. Army--Hawaii 1965 and Vietnam 1966.
    The word ``scleroderma'' literally means ``hard skin'', 
which is one of the most manifestations of the disease. The 
cause of scleroderma is unknown, although it involves an 
overproduction of collagen. This can cause the hardening of the 
internal organs. Serious complications of the disease include 
pain, skin ulcers, pulmonary hypertension, disorders of the 
digestive system, and others.
    For me, it began with my hands. They turned blue, stiffened 
up. I could not move my fingers. I went to my doctor. She sent 
me to a rheumatologist. They sent me to a rheumatologist. He 
diagnosed me with scleroderma eventually. I had just gotten a 
new job working for the United Auto Workers (UAW), and I didn't 
get to sit in that chair because they put me on disability 
right away and I never got there.
    But as time went on, the skin on my arms and my hands got 
tighter. I could not even close my hands. A few months later, I 
began an experimental treatment called cytoxin infusion for 
scleroderma, taken once a month for 2 years. My scleroderma 
began impacting my right lung. Breathing became difficult. I 
was losing weight and coloration of my skin was changing.
    The rheumatologist referred me to a lung specialist at the 
University of Michigan. The lung specialist said that my right 
lung was not fluctuating. It was beginning to harden and turn 
to stone, which is a term used in scleroderma. After many 
tests, counseling on risk, I decided to go ahead with the lung 
transplant. On September 20, 2004, at 11 p.m., I got a phone 
call that a lung was available. I was on the operating table 
the next morning at 7:30 a.m.

                           PREPARED STATEMENT

    As I said before, the exact cause of scleroderma is not 
known. However, it is suspected that an unknown inciting event 
can trigger autoimmune reactions. Additionally, toxic agents 
soldiers may be exposed to on a battlefield have often proved 
to cause lung injury and fibrosis. The successful completion of 
studies being done by DOD will bring us much closer to being 
able to treat scleroderma, lung disease, and other diseases 
involving lung injury and fibrosis to human patients. This is 
very important because there are currently no effective FDA-
approved treatments for these diseases.
    On behalf of scleroderma patients, we request scleroderma 
continue to be eligible for the Peer-Reviewed Medical Research 
Program for fiscal year 2013.
    Thank you very much.
    [The statement follows:]
                  Prepared Statement of Danny L. Smith
    Chairman Inouye, Ranking Member Cochran, and distinguished members 
of the subcommittee: As a military veteran, it is my honor to appear 
before you as a representative of the Scleroderma Foundation and on 
behalf of those living with scleroderma. My name is Danny L. Smith. I 
live in Saginaw, Michigan and I was in the U.S. Army from September 
1964 until September 1967. I was discharged at Fort Lewis, Washington 
and was stationed in Hawaii in 1965 and Vietnam in 1966 at Cu Chi. I 
was diagnosed with scleroderma in 1999. I also have had lupus since the 
mid-1970s. I am here to request that you continue to include 
scleroderma as a condition eligible for study through the Department of 
Defense's (DOD) Peer-Reviewed Medical Research Program (PRMRP) as you 
work to complete fiscal year 2013 Defense appropriations.
    The Scleroderma Foundation is a national organization for people 
with scleroderma and their families and friends. The Foundation's 
mission is threefold:
  --support to help patients and their families cope with scleroderma 
        through mutual support programs, peer counseling, physician 
        referrals, and educational information;
  --education to promote public awareness and education through patient 
        and health professional seminars, literature, and publicity 
        campaigns; and
  --research to stimulate and support research to improve treatment and 
        ultimately find the cause of and cure for scleroderma and 
        related diseases.
    Systemic sclerosis (scleroderma) is a chronic autoimmune disorder 
marked by early skin lesions and the progressive tissue fibrosis. More 
than skin deep, this thickening and hardening of connective tissue 
affects the blood capillaries, the gastrointestinal tract, the lungs, 
and the heart. In scleroderma patients, fibrosis frequently leads to 
organ dysfunction, serious illness, and death. Researchers have yet to 
determine the underlying cause of this disfiguring, debilitating 
condition or find an effective antifibrotic remedy. Scleroderma impacts 
approximately 300,000 Americans; 80 percent of whom are women diagnosed 
during their child-bearing years. Scleroderma also has a highly 
disproportionate impact on Native American, African-American, and 
Hispanic populations. These groups tend to exhibit more rapidly 
progressing and severe cases of the disease. Scleroderma lung disease 
is categorized as an interstitial lung disease (ILD). ILD refers to a 
broad category of lung diseases, of which scleroderma is one among 
nearly 150 conditions, marked by fibrosis or scarring of the lungs. The 
net result of the fibrosis is ineffective respiration or difficulty 
breathing. Lung fibrosis occurs in nearly all patients with systemic 
sclerosis and for reasons that are not clear, severe lung scarring is 
seen more frequently in men and in African-American scleroderma 
patients. I was one of these men. Lung disease is the number one cause 
of death in scleroderma patients.
    It began with trouble with my hands at work. They were turning blue 
and I could not flex them. I went to my family doctor and she referred 
me to a rheumatologist who subsequently diagnosed me with Raynaud's 
(the blue color) and scleroderma. As time went on the skin was getting 
tighter on my arms and so tight on my hands that I could not even close 
them. The doctor started me on an exercise program for my arms and 
hands. A few months later I began an experimental treatment, Cytoxin 
Infusion, for the scleroderma, taken once a month. I was on it for 2 
years. After 2 years, my scleroderma began impacting my right lung. 
Breathing became difficult, I was losing weight, and the coloration of 
my skin was changing. The rheumatologist then referred me to a lung 
specialist at the University of Michigan. The lung specialist said that 
my right lung was not fluctuating and was beginning to harden or turn 
to stone--a term used with scleroderma.
    When I inquired about a transplant I was tested and counseled by 
multiple doctors because the operation would be experimental. There 
were considerable risks. I was finally put on the transplant list. On 
September 20, 2004, I got a phone call at 11 p.m. that a lung was 
available. They said I needed to get to Ann Arbor as quickly as 
possible. When I got there they checked to make sure I was healthy 
enough for the operation and ran tests for infection. I was on the 
operating table the next morning, September 21, at 7:30 a.m. I was in 
the hospital for a week. Having become so weak being on oxygen for 2 
years, I also required extensive physical therapy. Since the operation 
I have been doing well. The lung is still functioning as well today as 
the day I received it.
    Since my operation I have joined a Scleroderma Foundation support 
group and found out there is so much we don't know about scleroderma. 
We all differ in our degrees of the illness. I have learned that none 
of us are the same or have the same outcomes. For example, I knew a 
young lady, 17 years old, who had scleroderma. Her one wish was to go 
to Disney World. A trip was arranged for her and her family. She was 
not doing well but wanted to go anyway. She made it to Florida and to 
the hotel but then needed to go to the hospital. She passed away the 
next day without getting to see Disney World. The doctors here in 
Saginaw used some of the treatments on her that were used on me. The 
treatments worked for me but not for her.
    As I stated before, I am a veteran of the United States Army and a 
Vietnam Vet. Scleroderma research is of utmost importance to the 
military. The exact cause of scleroderma is not known; however, it is 
suspected that an unknown inciting event triggers injury, probably to 
cells lining the blood vessels. There are also changes in the body's 
immune system that cause the immune cells to react to body components 
including the connective tissue. A major consequence of these so-called 
``autoimmune reactions'' is stimulation of fibroblasts (cells that make 
collagen and other connective tissue components). The net result is 
excessive accumulation of collagen and other connective tissue 
components in parts of the body such as skin, lungs, and walls of the 
arteries. A veteran's immune system disability may be related to his 
in-service chemical exposure. Systemic sclerosis and systemic lupus 
have been reported in patients exposed to TCE.
    Additionally, toxic agents soldiers may be exposed to on the 
battlefield have also proved to cause lung injury/fibrosis. The 
successful completion of studies will bring us much closer to being 
able to treat scleroderma lung disease and other diseases involving 
lung injury/fibrosis in human patients. This is of the utmost urgency 
because there are currently no effective, U.S. Food and Drug 
Administration-approved treatments for these diseases.
    On behalf of the scleroderma community, including our veterans, I 
would like to thank the subcommittee for recognizing scleroderma as a 
condition eligible for study through the DOD's PRMRP in the committee 
reports accompanying the fiscal years 2010, 2011, and 2012 DOD 
appropriations bills. The scientific community showed great interest in 
the program, responding to the grant announcements with an immense 
outpouring of proposals. We urge the Congress to maintain scleroderma's 
eligibility in the PRMRP.

    Chairman Inouye. We'll do our best to make certain that 
it's eligible for research.
    Thank you very much, Sir.
    Our next witness is Ms. Dee Linde, representing the 
Dystonia Medical Research Foundation.
STATEMENT OF DEE LINDE, PATIENT ADVOCATE, DYSTONIA 
            ADVOCACY NETWORK
    Ms. Linde. Mr. Chairman, Mr. Vice Chairman: Thank you for 
the opportunity to testify here today. My name is Dee Linde and 
I'm a dystonia patient and volunteer with the Dystonia Advocacy 
Network (DAN). As a veteran and former Navy petty officer, I am 
honored to testify before this subcommittee.
    The DAN is comprised of five dystonia patient groups and 
works to advance dystonia research, increase dystonia 
awareness, and provide support for dystonia patients. Dystonia 
is a rare neurological movement disorder that causes muscles to 
contract and spasm involuntarily. Dystonia is a chronic 
disorder whose symptoms vary in degrees of frequency, 
intensity, disability, and pain. Dystonia can be generalized or 
focal. Generalized dystonia affects all major muscle groups, 
resulting in twisting, repetitive movements, and abnormal 
postures. Focal dystonia affects a specific part of the body, 
such as the legs, arms, eyelids, or vocal cords.
    Dystonia can be hereditary or caused by trauma, and it 
affects approximately 300,000 persons in the United States. At 
this time there is no cure for dystonia and treatment is highly 
individualized. Patients frequently rely on invasive therapies.
    In 1995, after my Navy career, I started feeling symptoms 
from what would later be diagnosed as tardive dystonia, which 
is medication-induced dystonia. The symptoms started as an 
uncontrollable shivering sensation. Over the next 2 years, the 
symptoms continued to worsen and I started feeling like I was 
being squeezed in a vise. My diaphragm was constricted and I 
couldn't breathe. I also had blepharospasm, a form of dystonia 
that forcibly shut my eyes, leaving me functionally blind even 
though there was nothing wrong with my vision.
    My dystonia affected my entire upper body and for years my 
spasms didn't allow me to sit in a chair or sleep safely in bed 
with my husband. I spent those years having to sleep and even 
eat on the floor. I was also forced to give up my private 
practice as a psychotherapist.
    In 2000, I underwent surgery to receive deep brain 
stimulation (DBS). The neurosurgeon implanted leads into my 
brain that emit constant electrical pulses which interrupt the 
bad signals and help control my symptoms. Thanks to DBS, I have 
gone from being completely nonfunctional to having the ability 
to walk and to move like a healthy individual and I am now 
almost completely symptom-free. But DBS is not a cure.
    The Dystonia Medical Research Foundation (DMRF) has 
received reports that the incidence of dystonia in the United 
States has noticeably increased since our military forces were 
deployed to Iraq and Afghanistan. An article in Military 
Medicine titled ``Post-Traumatic Shoulder Dystonia in an Active 
Duty Soldier'' stated that, ``Dystonia after minor trauma can 
be as crippling as a penetrating wound, with disability that 
renders the soldier unable to perform his duties.''
    Awareness of this disorder is essential to avoid 
mislabeling and possibly mistreating a true neurological 
disease.
    In addition, a study published this month in ``Science 
Translational Medicine'' found that blast exposures can cause 
structural problems in the brain. We believe these structural 
problems will lead to increased dystonia.
    The Department of Defense Peer-Reviewed Medical Research 
Program is critical to developing a better understanding of the 
mechanisms connecting trauma and dystonia.

                           PREPARED STATEMENT

    The dystonia community would like to thank the subcommittee 
for adding dystonia to the list of conditions eligible for 
study under this program since fiscal year 2010. We're excited 
to report that dystonia researchers have competed successfully 
within the peer-reviewed system every year thus far. We urge 
the subcommittee to maintain dystonia as an eligible condition 
in the Defense Peer-Reviewed Medical Research Program in fiscal 
year 2013.
    Thank you again for your time and interest.
    [The statement follows:]
                    Prepared Statement of Dee Linde
    Mr. Chairman and members of the Senate Department of Defense 
Appropriations subcommittee, thank you for the opportunity to testify 
today. My name is Dee Linde, and I am a dystonia patient and volunteer 
with the Dystonia Advocacy Network (DAN). I am also a former Navy 
servicemember, and I am honored to testify before this subcommittee. 
The DAN is comprised of five dystonia patient groups working 
collaboratively to meet the needs of those affected:
  --the Benign Essential Blepharospasm Research Foundation (BEBRF);
  --the Dystonia Medical Research Foundation (DMRF);
  --the National Spasmodic Dysphonia Association (NSDA);
  --the National Spasmodic Torticollis Association (NSTA); and
  --ST/Dystonia, Inc.
    The DAN works to advance dystonia research, increase dystonia 
awareness, and provide support for those living with the disorder. On 
behalf of the dystonia community, I am here to request that you include 
dystonia as a condition eligible for study through the Peer-Reviewed 
Medical Research Program as you work to complete fiscal year 2013 
Department of Defense appropriations.
    Dystonia is a rare neurological movement disorder that causes 
muscles to contract and spasm involuntarily. It is a chronic disorder 
whose symptoms vary in degrees of frequency, intensity, disability, and 
pain. Dystonia can be generalized or focal. Generalized dystonia 
affects all major muscle groups, resulting in twisting repetitive 
movements and abnormal postures. Focal dystonia affects a specific part 
of the body such as the legs, arms, hands, eyelids, or vocal chords. 
Dystonia can be hereditary or caused by trauma such as a car crash or a 
blast exposure as experienced by military personnel. At this time, 
there is no cure for dystonia and treatment is highly individualized. 
Patients frequently rely on invasive therapies like botulinum toxin 
injections or deep brain stimulation (DBS) to help manage their 
symptoms.
    In 1995, after my Navy career, I started feeling symptoms for what 
would later be diagnosed as tardive dystonia, which is medication-
induced dystonia. The symptoms started as an uncontrollable shivering 
sensation that often prompted people to ask me if I was cold. Over the 
next 2 years, the symptoms continued to worsen, and I started feeling 
like I was being squeezed: my diaphragm was constricted and I couldn't 
breathe. I also had belpharospasm which meant that my eyes would shut 
forcibly and uncontrollably, leaving me functionally blind even though 
there was nothing wrong with my vision.
    The tardive dystonia affected my entire upper body and for years my 
spasms didn't allow me to sit in a chair, or sleep safely in the bed 
with my husband. As a family joke, my mother made my husband a nose 
guard to wear because I kept hitting him during the night. We made 
light of the situation when we could, but I was facing much hardship 
and loneliness. I spent those years having to sleep and even eat on the 
floor. Before I developed dystonia, I had my own private practice as a 
licensed psychotherapist which I had to give up as a result of my 
spasms.
    Because I have other service-connected disabilities and am 
considered 100-percent unemployable, I receive care at the Veterans 
hospital in Portland, Oregon. In 2000, I underwent surgery to receive 
DBS. The surgeons implanted leads into my basil ganglia, the part of 
the brain that controls movement. The DBS therapy delivers constant 
electrical stimulation that interrupts the bad signals and helps 
control the involuntary movements. Thanks to DBS, I have gone from 
being completely nonfunctional, to having the ability to walk and to 
move like a healthy individual. I am happy to say that I am now almost 
completely symptom free. Many dystonia patients who undergo DBS do not 
experience the positive results on the scale that I have, and some 
undergo brain surgery only to find that the DBS has no effect. 
Moreover, DBS is a treatment--not a cure.
    The DAN has received reports that the incidence of dystonia in the 
United States has noticeably increased since our military forces were 
deployed to Iraq and Afghanistan. This recent increase is widely 
considered to be the result of a well-documented link between traumatic 
injuries and the onset of dystonia. A June 2006 article in ``Military 
Medicine'' entitled ``Post-Traumatic Shoulder Dystonia in an Active 
Duty Soldier'' reported on dystonia experienced by military personnel 
and concluded the following:

    ``Dystonia after minor trauma can be as crippling as a penetrating 
wound, with disability that renders the soldier unable to perform his 
duties . . . awareness of this disorder [dystonia] is essential to 
avoid mislabeling, and possibly mistreating, a true neurological 
disease.''

    More recently, a study published in the May 16, 2012 issue of 
``Science Translational Medicine'' led by Dr. Lee E. Goldstein of 
Boston University's School of Medicine found that blast exposures can 
cause structural problems in the brain that we believe will lead to 
increased dystonia. As military personnel remain deployed for longer 
periods, we can expect dystonia prevalence in military and veterans 
populations to continue to rise.
    Although Federal dystonia research is conducted through a number of 
medical and scientific agencies, the Department of Defense (DOD) Peer-
Reviewed Medical Research Program remains the most essential program 
studying dystonia in military and veteran populations. This program is 
critical to developing a better understanding of the mechanisms 
connecting trauma and dystonia. For the past 2 years, I have been a 
consumer reviewer on this panel. The DAN would like to thank the 
subcommittee for adding dystonia to the list of conditions eligible for 
study under the DOD Peer-Reviewed Medical Research Program in the 
fiscal year 2010, fiscal year 2011, and fiscal year 2012 Defense 
Appropriation bills. The DAN is excited to report that dystonia 
researchers have competed successfully within the peer-reviewed system 
every year which underscores the important nature of their work. We 
urge the subcommittee to maintain dystonia as a condition eligible for 
study through the Peer-Reviewed Medical Research Program in fiscal year 
2013.
    Thank you again for allowing me the opportunity to address the 
subcommittee today. I hope you will continue to include dystonia as a 
condition eligible for study under the DOD Peer-Reviewed Medical 
Research Program.
DAN Fiscal Year 2013 Defense Appropriations Recommendations
    Peer-Reviewed Medical Research Program (PRMRP):
  --Include ``dystonia'' as a condition eligible for study through the 
        PRMRP.
  --Provide $50 million for PRMRP, which is housed within the 
        Congressionally Directed Medical Research Program.

    Chairman Inouye. If this matter is service-connected, I can 
assure you that we'll do our best to make certain your 
organization continues its research.
    Ms. Linde. Thank you.
    Chairman Inouye. Thank you.
    Our next witness is Ms. Joy Simha, representing the 
National Breast Cancer Coalition.
STATEMENT OF JOY SIMHA, MEMBER, BOARD OF DIRECTORS, 
            NATIONAL BREAST CANCER COALITION
    Ms. Simha. Thank you very much. I am Joy Simha, an 18-year 
breast cancer survivor, co-founder of the Young Survival 
Coalition and a member of the board of directors of the 
National Breast Cancer Coalition, which is an organization made 
up of hundreds of grassroots organizations from across the 
country.
    Chairman Inouye, Ranking Member Cochran, members of the 
subcommittee: We thank you for your longstanding support for 
the Department of Defense Peer-Reviewed Breast Cancer Research 
Program (BCRP). You know the importance of this program to 
women and their families both within and outside the military 
across the country, to the scientific and healthcare 
communities, and to the Department of Defense, because much of 
the progress that has been made in the fight against breast 
cancer is due to your investment in this important program.
    The vision of the Department of Defense Peer-Reviewed BCRP 
is to eradicate breast cancer by funding innovative, high-
impact research through the unique partnership of the Congress, 
the Army, scientists, and consumers.
    The Department of the Army must be applauded for overseeing 
this unique program. It's established itself as a model medical 
research program, respected throughout the cancer and broader 
medical communities for its innovative, transparent, and 
accountable approach. This program is incredibly streamlined. 
The flexibility of the program has allowed the Army to 
administer it with unparalleled efficiency and effectiveness. 
It is lauded worldwide and others try to emulate the program.
    Its specific focus on breast cancer allows it to rapidly 
support innovative proposals that reflect the most recent 
discoveries in the field. It is responsive not just to the 
scientific community, but also to the public. The pioneering 
research performed through the program and the unique vision it 
maintains have the potential to benefit not just breast cancer, 
but all cancers, as well as other diseases. Biomedical research 
is literally being transformed by the Department of Defense 
BCRP, 90 percent of the funds appropriated go to research.
    Advocates bring a necessary perspective to the table, 
ensuring that the science funded by the program is not only 
meritorious, but also relevant to the women whose lives are 
affected by this disease.
    You may remember Karen Moss, a retired Air Force Lieutenant 
Colonel who served almost 21 years on active duty and she 
chaired the integration panel. Karen passed away in September 
2008. She was committed to making a difference and ensuring 
that the voices of consumer advocates were heard by the 
scientific community, challenging scientists to always think 
differently.
    Her legacy reminds us that breast cancer is not just a 
struggle for scientists; it's a disease of the people. She 
chaired the integration panel the year that she died. The 
consumers who sit alongside the scientists at the vision-
setting peer review and programmatic review stages of the BCRP 
are there to ensure that no one forgets the women who have died 
from this disease and to keep the program focused on its 
vision.

                           PREPARED STATEMENT

    This is research that will help us win a very real and 
devastating war against a very vicious enemy. You and your 
subcommittee have shown great determination and leadership in 
funding the DOD Peer-Reviewed BCRP at a level that has brought 
us closer to ending this disease. I am hopeful that you will 
continue that determination and leadership.
    Thank you again for the opportunity to submit testimony and 
represent all the people across this country who care about 
ending this disease. Thank you.
    [The statement follows:]
                    Prepared Statement of Joy Simha
    Thank you, Mr. Chairman and members of the Appropriations 
Subcommittee on the Department of Defense, for the opportunity to 
submit testimony today about a program that has made a significant 
difference in the lives of women and their families.
    I am Joy Simha, an 18-year breast cancer survivor, communications 
consultant, a wife and mother, co-founder of The Young Survival 
Coalition, and a member of the board of directors of the National 
Breast Cancer Coalition (NBCC). I am also a member of the Integration 
Panel of the Department of Defense (DOD) Breast Cancer Research Program 
(BCRP). My testimony represents the hundreds of member organizations 
and thousands of individual members of the NBCC. NBCC is a grassroots 
organization dedicated to ending breast cancer through action and 
advocacy. Since its founding in 1991, NBCC has been guided by three 
primary goals:
  --to increase Federal funding for breast cancer research and 
        collaborate with the scientific community to implement new 
        models of research;
  --improve access to high-quality healthcare and breast cancer 
        clinical trials for all women; and
  --expand the influence of breast cancer advocates wherever breast 
        cancer decisions are made.
    In September 2010, in order to change the conversation about breast 
cancer and restore the sense of urgency in the fight to end the 
disease, NBCC launched Breast Cancer Deadline 2020--a deadline to end 
breast cancer by January 1, 2020.
    Chairman Inouye and Ranking Member Cochran, we appreciate your 
longstanding support for the Department of Defense (DOD) Peer-Reviewed 
Breast Cancer Research Program. As you know, this program was born from 
a powerful grassroots effort led by NBCC, and has become a unique 
partnership among consumers, scientists, Members of Congress and the 
military. You and your subcommittee have shown great determination and 
leadership in funding DOD Peer-Reviewed BCRP at a level that has 
brought us closer to ending this disease. I am hopeful that you and 
your subcommittee will continue that determination and leadership.
    I know you recognize the importance of this program to women and 
their families across the country, to the scientific and healthcare 
communities and to DOD. Much of the progress that has been made in the 
fight against breast cancer is due to the Appropriations Committee's 
investment in breast cancer research through the DOD BCRP. To support 
this progress moving forward, we ask that you support a $150 million 
appropriation for fiscal year 2013. In order to continue the success of 
the program, you must ensure that it maintains its integrity and 
separate identity, in addition to this funding. This is important not 
just for breast cancer, but for all biomedical research that has 
benefited from this incredible Government program.
                           vision and mission
    The vision of DOD Peer-Reviewed BCRP is to ``eradicate breast 
cancer by funding innovative, high-impact research through a 
partnership of scientists and consumers''. The meaningful and 
unprecedented partnership of scientists and consumers has been the 
foundation of this model program from the very beginning. It is 
important to understand this collaboration:
  --consumers and scientists working side-by-side;
  --asking the difficult questions;
  --bringing the vision of the program to life;
  --challenging researchers and the public to do what is needed; and
  --then overseeing the process every step of the way to make certain 
        it works.
    This unique collaboration is successful: every year researchers 
submit proposals that reach the highest level asked of them by the 
program and every year we make progress for women and men everywhere.
    And it owes its success to the dedication of the U.S. Army and 
their belief and support of this mission. And of course, to you. It is 
these integrated efforts that make this program unique.
    The Department of the Army must be applauded for overseeing the DOD 
BCRP which has established itself as a model medical research program, 
respected throughout the cancer and broader medical community for its 
innovative, transparent, and accountable approach. This program is 
incredibly streamlined. The flexibility of the program has allowed the 
Army to administer it with unparalleled efficiency and effectiveness. 
Because there is little bureaucracy, the program is able to respond 
quickly to what is currently happening in the research community. Its 
specific focus on breast cancer allows it to rapidly support innovative 
proposals that reflect the most recent discoveries in the field. It is 
responsive, not just to the scientific community, but also to the 
public. The pioneering research performed through the program and the 
unique vision it maintains have the potential to benefit not just 
breast cancer, but all cancers as well as other diseases. Biomedical 
research is literally being transformed by the DOD BCRP.
                         consumer participation
    Advocates bring a necessary perspective to the table, ensuring that 
the science funded by this program is not only meritorious, but that it 
is also meaningful and will make a difference in people's lives. The 
consumer advocates bring accountability and transparency to the 
process. They are trained in science and advocacy and work with 
scientists willing to challenge the status quo to ensure that the 
science funded by the program fills important gaps not already being 
addressed by other funding agencies. Since 1992, more than 700 breast 
cancer survivors have served on the BCRP review panels.
    Four years ago, Karin Noss, a retired Air Force Lieutenant Colonel 
who served almost 21 years on active duty as a missile launch officer 
and intelligence analyst, chaired the Integration Panel. Karin was 36 
years old when she discovered a lump that was misdiagnosed by 
mammography and clinical exam; just more than 1 year later, however, 
she was diagnosed with Stage II breast cancer. Her diagnosis inspired 
her to become knowledgeable about her disease, and as a trained 
consumer advocate she began participating as a consumer reviewer on 
BCRP scientific peer-review panels in 1997. Karin was committed to 
making a difference and ensuring that the voice of consumer advocates 
was heard by the scientific community, challenging scientists to think 
differently.
    Karin worked tirelessly in support of the BCRP through the pain and 
fatigue of metastatic breast cancer. She died of the disease in 
September 2008. Just a few weeks before her passing, Karin served what 
would be her final role for the BCRP when she chaired the fiscal year 
2008 Vision Setting Meeting, an important milestone at which the 
program determines which award mechanisms to offer in order to move 
research forward. She said that:

    ``Consumer involvement in all facets of the BCRP has proven crucial 
to ensuring not only that the best and most innovative science gets 
funded, but that the science will really make a difference to those of 
us living with the disease.''

    Karin demonstrated an amazing strength, determination, and 
commitment to eradicating breast cancer. She was an optimist, 
determined to make things better for women with breast cancer whose 
legacy reminds us that breast cancer is not just a struggle for 
scientists; it is a disease of the people. The consumers who sit 
alongside the scientists at the vision setting, peer review and 
programmatic review stages of the BCRP are there to ensure that no one 
forgets the women who have died from this disease and to keep the 
program focused on its vision.
    For many consumers, participation in the program is ``life 
changing'' because of their ability to be involved in the process of 
finding answers to this disease. In the words of one advocate:

    ``Participating in the peer review and programmatic review has been 
an incredible experience. Working side by side with the scientists, 
challenging the status quo and sharing excitement about new research 
ideas . . . it is a breast cancer survivor's opportunity to make a 
meaningful difference. I will be forever grateful to the advocates who 
imagined this novel paradigm for research and continue to develop new 
approaches to eradicate breast cancer in my granddaughters' 
lifetime.''----Marlene McCarthy, three-time breast cancer ``thriver'', 
Rhode Island Breast Cancer Coalition.

    Scientists who participate in the Program agree that working with 
the advocates has changed the way they do science. Let me quote Greg 
Hannon, the fiscal year 2010 DOD BCRP Integration Panel Chair:

    ``The most important aspect of being a part of the BCRP, for me, 
has been the interaction with consumer advocates. They have currently 
affected the way that I think about breast cancer, but they have also 
impacted the way that I do science more generally. They are a constant 
reminder that our goal should be to impact people's lives.''----Greg 
Hannon, Ph.D., Cold Spring Harbor Laboratory.
                            unique structure
    The DOD BCRP uses a two-tiered review process for proposal 
evaluation, with both steps including scientists as well as consumers. 
The first tier is scientific peer review in which proposals are weighed 
against established criteria for determining scientific merit. The 
second tier is programmatic review conducted by the Integration Panel 
(composed of scientists and consumers) that compares submissions across 
areas and recommends proposals for funding based on scientific merit, 
portfolio balance, and relevance to program goals.
    Scientific reviewers and other professionals participating in both 
the peer review and the programmatic review process are selected for 
their subject matter expertise. Consumer participants are recommended 
by an organization and chosen on the basis of their experience, 
training, and recommendations.
    The BCRP has the strictest conflict of interest policy of any 
research funding program or institute. This policy has served it well 
through the years. Its method for choosing peer and programmatic review 
panels has produced a model that has been replicated by funding 
entities around the world.
    It is important to note that the Integration Panel that designs 
this program has a strategic plan for how best to spend the funds 
appropriated. This plan is based on the state of the science--both what 
scientists and consumers know now and the gaps in our knowledge--as 
well as the needs of the public. While this plan is mission driven, and 
helps ensure that the science keeps to that mission of eradicating 
breast cancer in mind, it does not restrict scientific freedom, 
creativity, or innovation. The Integration Panel carefully allocates 
these resources, but it does not predetermine the specific research 
areas to be addressed.
                   distinctive funding opportunities
    The DOD BCRP research portfolio includes many different types of 
projects, including support for innovative individuals and ideas, 
impact on translating research from the bench to the bedside, and 
training of breast cancer researchers.
Innovation
    The Innovative Developmental and Exploratory Awards (IDEA) grants 
of the DOD program have been critical in the effort to respond to new 
discoveries and to encourage and support innovative, risk-taking 
research. Concept awards support funding even earlier in the process of 
discovery. These grants have been instrumental in the development of 
promising breast cancer research by allowing scientists to explore 
beyond the realm of traditional research and unleash incredible new 
ideas. For example, in fiscal year 2009, Dr. Seongbong Jo of the 
University of Mississippi was granted a concept award to develop a 
multifunctional nanoparticle that can selectively recognize breast 
cancer and specifically inhibit the growth of cancer cells, while 
minimally affecting normal cells. This has the potential to 
significantly improve the delivery of breast cancer chemotherapy, 
increase its efficiency, and contribute to the reduction of breast 
cancer mortality rates.
    IDEA and concept grants are uniquely designed to dramatically 
advance our knowledge in areas that offer the greatest potential. In 
fiscal year 2006, Dr. Gertraud Maskarinec of the University of Hawaii 
received a synergistic IDEA grant to study effectiveness of the Dual 
Energy Xray Absorptiometry (DXA) as a method to evaluate breast cancer 
risks in women and young girls. Such a method, which could possibly be 
used to prevent breast cancer during adulthood, is currently not 
available because the risk of xray-based mammograms is considered too 
high in that age group. Such grants are precisely the types that rarely 
receive funding through more traditional programs such as the National 
Institutes of Health and private research programs. They, therefore, 
complement and do not duplicate other Federal funding programs. This is 
true of other DOD award mechanisms as well.
    Innovator awards invest in world renowned, outstanding individuals 
rather than projects, by providing funding and freedom to pursue highly 
creative, potentially groundbreaking research that could ultimately 
accelerate the eradication of breast cancer. Dr. Dennis Slamon of the 
University of California, Los Angeles was granted an innovator award in 
fiscal year 2010 to develop new insights that will result in the 
development of novel treatment initiatives for all of the current 
therapeutic subtypes of breast cancer. This research builds upon the 
past gains in understanding of the molecular diversity of human breast 
cancer which has led treatment away from the ``one-size-fits-all'' 
therapeutic approaches, and the success of existing treatments of 
specific breast cancer subtypes.
    The Era of Hope Scholar Award supports the next generation of 
leaders in breast cancer research, by identifying the best and 
brightest scientists early in their careers and giving them the 
necessary resources to pursue a highly innovative vision of ending 
breast cancer. Dr. Stuart S. Martin of the University of Maryland, 
Baltimore received a fiscal year 2010 Era of Hope Scholar Award to 
build an international consortium to define a molecular framework that 
governs the mechanical properties of a certain type of tumor cell 
which, because of its shape, poses a greater metastatic risk than other 
cells.
    One of the most promising outcomes of research funded by the DOD 
BCRP was the development of the first monoclonal antibody targeted 
therapy that prolongs the lives of women with a particularly aggressive 
type of advanced breast cancer. Researchers found that over-expression 
of HER-2/neu in breast cancer cells results in very aggressive biologic 
behavior. The same researchers demonstrated that an antibody directed 
against HER-2/neu could slow the growth of the cancer cells that over-
expressed the gene. This research, which led to the development of the 
targeted therapy, Herceptin, was made possible in part by a DOD BCRP-
funded infrastructure grant. Other researchers funded by the DOD BCRP 
are identifying similar targets that are involved in the initiation and 
progression of cancer.
    These are just a few examples of innovative funding opportunities 
at the DOD BCRP that are filling gaps in breast cancer research.
Translational Research
    The DOD BCRP also focuses on moving research from the bench to the 
bedside. DOD BCRP awards are designed to fill niches that are not 
addressed by other Federal agencies. The BCRP considers translational 
research to be the process by which the application of well-founded 
laboratory or other pre-clinical insight results in a clinical trial. 
To enhance this critical area of research, several research 
opportunities have been offered. Clinical Translational Research Awards 
have been awarded for investigator-initiated projects that involve a 
clinical trial within the lifetime of the award. The BCRP has expanded 
its emphasis on translational research by also offering five different 
types of awards that support work at the critical juncture between 
laboratory research and bedside applications.
    The Multi Team Award mechanism brings together the world's most 
highly qualified individuals and institutions to address a major 
overarching question in breast cancer research that could make a 
significant contribution towards the eradication of breast cancer. Many 
of these Teams are working on questions that will translate into direct 
clinical applications. These Teams include the expertise of basic, 
epidemiology, and clinical researchers, as well as consumer advocates.
Training
    The DOD BCRP is also cognizant of the need to invest in tomorrow's 
breast cancer researchers. Erin McCoy of the University of Alabama, 
Birmingham received a fiscal year 2010 Predoctoral Traineeship Award 
for work on the potential role a certain protein, CD68, plays in breast 
cancer cells attaching themselves to bone which allows metastatic 
growth to take place. The bone is the most common site for breast 
cancer metastasis. In fiscal year 2011, Dr. Julie O'Neal of the 
University of Louisville received a Postdoctoral Fellowship Award to 
study breast cancer biology with an emphasis on identifying enzymes 
that are required for breast cancer growth.
    Dr. John Niederhuber, former Director of the National Cancer 
Institute (NCI), said the following about the program when he was 
Director of the University of Wisconsin Comprehensive Cancer Center in 
April, 1999:

    ``Research projects at our institution funded by the Department of 
Defense are searching for new knowledge in many different fields 
including: identification of risk factors, investigating new therapies 
and their mechanism of action, developing new imaging techniques and 
the development of new models to study [breast cancer] . . . Continued 
availability of this money is critical for continued progress in the 
nation's battle against this deadly disease.''

    Scientists and consumers agree that it is vital that these grants 
continue to support breast cancer research. To sustain the program's 
momentum, $150 million for peer-reviewed research is needed in fiscal 
year 2013.
    outcomes and reviews of the department of defense breast cancer 
                            research program
    The outcomes of the BCRP-funded research can be gauged, in part, by 
the number of publications, abstracts/presentations, and patents/
licensures reported by awardees. To date, there have been more than 
14,724 publications in scientific journals, more than 19,013 abstracts 
and nearly 643 patents/licensure applications. The American public can 
truly be proud of its investment in the DOD BCRP. Scientific 
achievements that are the direct result of the DOD BCRP grants are 
moving us closer to eradicating breast cancer.
    The success of the DOD Peer-Reviewed BCRP has been illustrated by 
several unique assessments of the program. The Institute of Medicine 
(IOM), which originally recommended the structure for the program, 
independently re-examined the program in a report published in 1997. 
They published another report on the program in 2004. Their findings 
overwhelmingly encouraged the continuation of the program and offered 
guidance for program implementation improvements.
    The 1997 IOM review of the DOD Peer-Reviewed BCRP commended the 
program, stating, ``the Program fills a unique niche among public and 
private funding sources for cancer research. It is not duplicative of 
other programs and is a promising vehicle for forging new ideas and 
scientific breakthroughs in the nation's fight against breast cancer.'' 
The 2004 report spoke to the importance of the program and the need for 
its continuation.
    The DOD Peer-Reviewed BCRP not only provides a funding mechanism 
for high-risk, high-return research, but also reports the results of 
this research to the American people every 2 to 3 years at a public 
meeting called the Era of Hope. The 1997 meeting was the first time a 
federally funded program reported back to the public in detail not only 
on the funds used, but also on the research undertaken, the knowledge 
gained from that research and future directions to be pursued.
    Sixteen hundred consumers and researchers met for the sixth Era of 
Hope meeting in August 2011. As MSNBC.com's Bob Bazell wrote, this 
meeting ``brings together many of the most committed breast cancer 
activists with some of the nation's top cancer scientists. The 
conference's directive is to push researchers to think `out of the box' 
for potential treatments, methods of detection and prevention . . .'' 
He went on to say ``the program . . . has racked up some impressive 
accomplishments in high-risk research projects . . .''
    During the 2011 Era of Hope, investigators presented work that 
challenged paradigms and pushed boundaries with innovative, high-impact 
approaches. Some of the research presented looked at new ways to treat 
the spread of breast cancer, including a vaccine for HER2+ breast 
cancer that has stopped responding to treatment, and an innovative 
treatment using nanoparticles of HDL cholesterol tied to chemotherapy 
drugs to more directly zero in on cancer cells.
    The DOD Peer-Reviewed BCRP has attracted scientists across a broad 
spectrum of disciplines, launched new mechanisms for research and 
facilitated new thinking in breast cancer research and research in 
general. A report on all research that has been funded through the DOD 
BCRP is available to the public. Individuals can go to the Department 
of Defense Web site and look at the abstracts for each proposal at 
http://cdmrp.army.mil/bcrp/.
           commitment of the national breast cancer coalition
    The National Breast Cancer Coalition is strongly committed to the 
DOD BCRP in every aspect, as we truly believe it is one of our best 
chances for reaching Breast Cancer Deadline 2020's goal of ending the 
disease by the end of the decade. The Coalition and its members are 
dedicated to working with you to ensure the continuation of funding for 
this program at a level that allows this research to forge ahead. From 
1992, with the launch of our ``300 Million More Campaign'' that formed 
the basis of this program, until now, NBCC advocates have appreciated 
your support.
    Over the years, our members have shown their continuing support for 
this program through petition campaigns, collecting more than 2.6 
million signatures, and through their advocacy on an almost daily basis 
around the country asking for support of the DOD BCRP.
    Consumer advocates have worked hard over the years to keep this 
program free of political influence. Often, specific institutions or 
disgruntled scientists try to change the program though legislation, 
pushing for funding for their specific research or institution, or try 
to change the program in other ways, because they did not receive 
funding through the process; one that is fair, transparent, and 
successful. The DOD BCRP has been successful for so many years because 
of the experience and expertise of consumer involvement, and because of 
the unique peer review and programmatic structure of the program. We 
urge this subcommittee to protect the integrity of the important model 
this program has become.
    There are nearly 3 million women living with breast cancer in this 
country today. This year, approximately 40,000 will die of the disease 
and more than 260,000 will be diagnosed. We still do not know how to 
prevent breast cancer, how to diagnose it in a way to make a real 
difference or how to end it. It is an incredibly complex disease. We 
simply cannot afford to walk away from this program.
    Since the very beginning of this program in 1992, the Congress has 
stood with us in support of this important approach in the fight 
against breast cancer. In the years since, Chairman Inouye and Ranking 
Member Cochran, you and this entire subcommittee have been leaders in 
the effort to continue this innovative investment in breast cancer 
research.
    NBCC asks you, the Department of Defense Appropriations 
subcommittee, to recognize the importance of what has been initiated by 
the Appropriations Committee. You have set in motion an innovative and 
highly efficient approach to fighting the breast cancer epidemic. We 
ask you now to continue your leadership and fund the program at $150 
million and maintain its integrity. This is research that will help us 
win this very real and devastating war against a cruel enemy.
    Thank you again for the opportunity to submit testimony and for 
giving hope to all women and their families, and especially to the 
nearly 3 million women in the United States living with breast cancer 
and all those who share in the mission to end breast cancer.

    Chairman Inouye. I thank you for your testimony and I can 
assure you that we'll do our very best to maintain the funding. 
Thank you.
    Next panel.
    Our next panel consists of: the Honorable Charles Curie, 
American Foundation for Suicide Prevention; Captain Charles D. 
Connor, United States Navy, Retired, representing the American 
Lung Association; Dr. William Strickland, representing the 
American Psychological Association; and Mr. Robert Ginyard, 
ZERO--the Project to End Prostate Cancer.
    May I call upon Mr. Curie.
STATEMENT OF HON. CHARLES CURIE, MEMBER, NATIONAL BOARD 
            OF DIRECTORS AND PUBLIC POLICY COUNCIL, 
            AMERICAN FOUNDATION FOR SUICIDE PREVENTION
    Mr. Curie. Chairman Inouye, Vice Chairman Cochran: Thank 
you for providing the American Foundation for Suicide 
Prevention (AFSP) with the opportunity to present testimony on 
the needs of programs within the Department of Defense (DOD) 
that play a critical role in suicide prevention efforts among 
our Nation's military personnel. I respectfully submit my 
written comments for the record.
    Chairman Inouye. Without objection.
    Mr. Curie. My name is Charles Curie. I'm a member of AFSP's 
Public Policy Council and I serve on its National Board of 
Directors. AFSP is the leading national not-for-profit 
grassroots organization exclusively dedicated to understanding 
and preventing suicide through research, education, and 
advocacy, and to reaching out to people with mental disorders 
and those impacted by suicide.
    My professional experience spans 30 years in the mental 
health and substance use services field. I was nominated by 
President George W. Bush and confirmed by the U.S. Senate from 
2001 to 2006 to head the Substance Abuse and Mental Health 
Services Administration (SAMHSA). As SAMHSA Administrator, I 
led the $3.4 billion agency responsible for improving the 
accountability, effectiveness, and capacity of the Nation's 
substance abuse prevention, addictions treatment, and mental 
health services, including the President's New Freedom 
Commission on Mental Health, the Strategic Prevention 
Framework, Access to Recovery, National Outcome Measures, and 
work with postconflict and war-torn countries' mental health 
service systems, including Iraq and Afghanistan.
    At the outset, I would like to thank the DOD and 
specifically the Department of the Army for the tremendous 
strides they have taken in recent years to not only understand 
suicide, but for the concrete steps they have taken to prevent 
suicide among their ranks. The DOD message that it's okay to 
seek help and that getting help is the courageous thing to do 
certainly saves lives and brings a new level of attention to 
the problem of suicide.
    Today, more than 1.9 million warriors have deployed for 
Operation Iraqi Freedom and Operation Enduring Freedom, two of 
our Nation's longest conflicts. The physical and psychological 
demands on both the deployed and nondeployed soldiers have been 
enormous. These demands are highlighted by the steady increases 
in suicides among Army personnel since 2005.
    Consider these facts: From 2005 to 2011, more than 927 
active-duty Army personnel took their own lives; in 2008, 
estimates of the rate of suicide among active-duty soldiers 
began to surpass the suicide rate among U.S. civilians; 278 
active-duty Army personnel, National Guard members, and Army 
reservists died by suicide in 2011; and year-to-date data 
indicates that so far 2012 is on track to be a record-high year 
for suicides in the Army.
    While access to affordable and quality treatment of mental 
disorders is critical in preventing suicide, public health 
efforts to get in front of suicide prevention are equally, if 
not more, important than healthcare efforts, because we know it 
is far more difficult to change behavior once someone has 
already attempted suicide or has received treatment in an 
inpatient treatment facility.
    Last year, the Congress appropriated an $8.1 million 
increase for the suicide prevention program under the Defense 
Health Program. While AFSP appreciates the Congress's 
commitment to preventing suicide among our Nation's military 
personnel, this funding sits largely unused because of 
restrictions on how those dollars must be spent. According to 
the Office of the Secretary of Defense, Defense Health Program 
dollars must be used for healthcare delivery programs and 
services, not for prevention, education and training, or 
research and development programs.

                           PREPARED STATEMENT

    Requiring additional funding to be spent on treatment is 
not going to help get in front of the problem. The services 
should have the authority to spend it on prevention efforts and 
not just healthcare delivery. Therefore, AFSP requests that 
this subcommittee add clarifying language to the fiscal year 
2013 Defense appropriations bill that would allow for these 
dollars to be spent on pre-medical related prevention, 
education, and outreach programs.
    Thank you, Mr. Chairman, Mr. Vice Chairman, for the 
opportunity.
    [The statement follows:]
                  Prepared Statement of Charles Curie
    Chairman Inouye, Ranking Member Cochran, and members of the 
subcommittee: Thank you for providing the American Foundation for 
Suicide Prevention (AFSP) with the opportunity to provide testimony on 
the needs of programs within the Department of Defense (DOD) that play 
a critical role in suicide prevention efforts among our Nation's 
military personnel.
    At the outset, I would like to thank the DOD, and specifically the 
Department of the Army, for the tremendous strides they have taken in 
recent years to not only understand suicide, but for the concrete steps 
they have taken to prevent suicide among their ranks. Military leaders 
are now more willing to openly talk about suicide within the military, 
as well as among veterans and the civilian population. The DOD message 
that it is okay to seek help, that getting help is the courageous thing 
to do, has certainly saved lives and brought a new level of attention 
to the problem of suicide. But we cannot wait for one minute, nor 
soften our collective resolve, inside and outside of Government, to 
help active duty military, veterans, and their families understand the 
warning signs of suicide, or where to get help.
    AFSP is the leading national not-for-profit, grassroots 
organization exclusively dedicated to understanding and preventing 
suicide through research, education, and advocacy, and to reaching out 
to people with mental disorders and those impacted by suicide. You can 
see more at www.afsp.org.
    My name is Charles Curie. I am member of AFSP's Public Policy 
Council, and I serve on the AFSP National Board of Directors. I am also 
the Principal and Founder of The Curie Group, LLC, a management and 
consulting firm specializing in working with leaders of the healthcare 
field, particularly the mental health services and substance use 
treatment and prevention arenas, to facilitate the transformation of 
services and to attain increasingly positive outcomes in the lives of 
people worldwide. I currently reside in Rockville, Maryland.
    My professional experience spans 30 years in the mental health and 
substance use services fields. I was nominated by President George W. 
Bush and confirmed by the U.S. Senate from 2001 to 2006 to head the 
Substance Abuse and Mental Health Services Administration (SAMHSA). As 
SAMHSA Administrator, I led the $3.4 billion agency responsible for 
improving the accountability, capacity, and effectiveness of the 
Nation's substance abuse prevention, addictions treatment, and mental 
health services, including The President's New Freedom Commission on 
Mental Health, the Strategic Prevention Framework for substance use 
prevention, Access to Recovery, National Outcome Measures and work with 
post-conflict and war-torn countries metal health and substance use 
treatment service systems, including Iraq and Afghanistan.
    More than 1.9 million warriors have deployed for Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF), two of our Nation's 
longest conflicts (IOM, 2010). The physical and psychological demands 
on both the deployed and nondeployed soldiers have been enormous. These 
demands are highlighted by the steady increase in suicides among Army 
personnel since 2005.
    Consider these facts:
  --From 2005 through 2011, more than 927 active duty Army personnel 
        took their own lives.
  --In 2008, estimates of the rate of suicide among active duty 
        soldiers in the regular Army, Army Reserve, and Army National 
        Guard began to surpass the suicide rate among U.S. 
        civilians.\1\
---------------------------------------------------------------------------
    \1\ Kuehn BM. Soldier suicide rates continue to rise: military, 
scientists work to stem the tide. JAMA 2009; 301: 1111-13.
---------------------------------------------------------------------------
  --Two hundred seventy-eight active duty Army personnel, National 
        Guard members, and Army reservists died by suicide in 2011.
  --Year-to-date data indicates that 2012 is on track to be a record-
        high year for suicides in the Army.
    In light of studies that have shown more than 90 percent of people 
who die from suicide have one or more psychiatric disorders at the time 
of their death; critical context for these alarming suicide numbers was 
provided in the April edition of the Medical Surveillance Monthly 
Report (MSMR).
    The MSMR showed that in 2011 mental disorders accounted for more 
hospital bed days than any other medical category, and substance abuse 
and mood disorder admissions accounted for 24 percent of the total DOD 
hospital bed days.
    This report also stated that outpatient behavioral health treatment 
was the third highest workload category, and that the largest 
percentage increase in workload between 2007 and 2011 was for mental 
disorders (99-percent increase or 943,924 additional medical 
encounters).
    While access to affordable and quality treatment of mental 
disorders is critical in preventing suicide, public health efforts to 
``get in front'' of suicide prevention are equally, if not more, 
important than healthcare efforts because we know that it is far more 
difficult to change behavior once someone has already attempted suicide 
or has received treatment in an inpatient treatment facility.
    Last year, the Congress appropriated an $8,158,156 program increase 
for suicide prevention under the Defense Health Program. While AFSP 
appreciates the Congress's commitment to preventing suicide among our 
Nation's military personnel, this funding sits largely unused because 
of restrictions on how those dollars must be spent.
    According to the Office of the Secretary of Defense, Defense Health 
Program dollars must be used for healthcare delivery programs and 
services and not for education and training or research and development 
programs.
    Requiring additional funding to be spent on treatment is not going 
help the services get in ``front'' of this problem. The services should 
have the authority to spend it on ``program evaluation'' and prevention 
efforts and not just on healthcare delivery.
    Therefore, AFSP requests that this subcommittee add clarifying 
language to the fiscal year 2013 Defense appropriations bill that would 
allow for these dollars to be spent on pre-medical related prevention, 
education, and outreach programs.
    Chairman Inouye, Ranking Member Cochran, and members of the 
subcommittee: AFSP once again thanks you for the opportunity to provide 
testimony on the funding needs of programs within the Department of 
Defense that play a critical role in suicide prevention efforts. With 
your help, we can assure those tasked with leading the Department of 
Defense's response to the unacceptably high rate of suicide among our 
military personnel will have the resources necessary to effectively 
prevent suicide.

    Chairman Inouye. I'm certain you're aware that this 
subcommittee is deeply concerned about the rising rate of 
suicides. We will make certain that these funds are used for 
research and prevention.
    Thank you very much.
    Mr. Curie. Thank you.
    Chairman Inouye. Our next witness is Captain Charles D. 
Connor, representing the American Lung Association.
STATEMENT OF CAPTAIN CHARLES D. CONNOR, U.S. NAVY 
            (RETIRED), PRESIDENT AND CHIEF EXECUTIVE 
            OFFICER, AMERICAN LUNG ASSOCIATION
    Captain Connor. Thank you very much, Mr. Chairman, Mr. Vice 
Chairman. It's an honor to be here before you today to discuss 
important matters such as the health of our Armed Forces. As a 
retired Navy captain myself, it's very important to me as well.
    The American Lung Association, as you know, was founded in 
1904 to fight tuberculosis. Today, our mission is to save lives 
by improving lung health and fighting lung disease. We 
accomplish this through three research, advocacy, and 
education.
    All of us here, of course, recognize the importance of 
keeping our military people healthy. Tobacco's adverse impact 
on health is well known and extensively documented. 
Accordingly, our view is that tobacco is an insidious enemy of 
combat readiness.
    Additionally, as this subcommittee well knows, healthcare 
costs for our troops and their families continue to rise, both 
for the Department of Defense (DOD) and the Veterans 
Administration (VA). More than a billion dollars of this 
healthcare bill is being driven by tobacco use annually. We owe 
it to our military people and their families and the taxpayers 
to prioritize the lung health of our troops.
    The American Lung Association wishes to invite your 
attention to three issues today for the DOD fiscal year 2013 
budget: Number one, the terrible burden on the military caused 
by tobacco use and the need for the Department to aggressively 
combat it; the importance of restoring funds for the Peer-
Reviewed Lung Cancer Research Program to $20 million; and 
finally, the health threat posed by soldiers' current and past 
exposure to toxic pollutants in Iraq and Afghanistan.
    The first subject is tobacco, briefly. Tobacco is a 
significant public health problem for the Defense Department, 
and it's not a problem that DOD simply inherited. More than 1 
in 7 active duty personnel begin smoking after joining the 
service.
    The American Lung Association recognizes the Department of 
the Navy's recent efforts to reduce tobacco use in their 
branch, such as the Navy's 21st Century Sailor and Marine 
Initiative announced just in the past few weeks. This 
initiative will help sailors and marines quit tobacco and 
promote tobacco-free environments. It also puts in place 
environmental changes that will reduce tobacco use throughout 
the Navy and Marine Corps.
    Likewise, the American Lung Association also recognizes the 
Air Force for its March 26 instruction on tobacco use. The 
instruction states that, ``The goal is a tobacco-free Air 
Force.'' It lays out strong policies on tobacco-free facilities 
and workplaces, tobacco use in formal training programs, and 
tobacco cessation programs. The document also establishes clear 
responsibilities within the Air Force chain of command to 
accomplish these goals and enforce their policies.
    So these steps are really the first signal from the 
military that tobacco use is disfavored. Both of these efforts, 
the Departments of the Navy and the Air Force, are 
unprecedented investments in the comprehensive health of 
sailors, marines, airmen, and their families. So the American 
Lung Association hopes these initiatives expand quickly to 
cover all military personnel.
    Also in 2011, DOD released a proposed rule implementing 
coverage of tobacco cessation treatment through TRICARE. When 
finalized, this new coverage will give soldiers and their 
families the help they need to quit tobacco.
    All of these actions follow recommendations in the 
Institute of Medicine's report ``Combatting Tobacco Use in 
Military and Veterans Populations'', which is now as of this 
month 3 years old. The American Lung Association urges the DOD 
and VA to fully implement all the recommendations in the report 
and, importantly, we urge the Congress to remove any 
legislative barriers that exist to implementing these 
recommendations.
    I'd like to leave for the record two articles from the 
American Journal of Public Health that fully document the 
extent to which the tobacco industry through their friends in 
the Congress over decades past have enshrined into law 
impediments that will impede the elimination of tobacco in the 
military.
    Just to wind up, we strongly support the Lung Cancer 
Research Program and Congressionally Directed Medical Research 
Program and its original intent to research the scope of lung 
cancer in our military. We urge the subcommittee to restore the 
funding level to $20 million and make sure the program is 
returned to its original intent as directed by the 2009 
program, which states, ``These funds shall be used for 
competitive research. Priority shall be given to the 
development of integrated components to identify, treat, and 
manage early curable lung cancer.''
    Last, respiratory item, the American Lung Association 
continues to be troubled by reports of soldiers and civilians 
returning from Iraq and Afghanistan with lung illness. Research 
is beginning to show that the air our troops breathe in the war 
theater can have high concentrations of particulate matter, 
which can cause or worsen lung disease.

                           PREPARED STATEMENT

    Data from a 2009 study of soldiers deployed in Iraq and 
Afghanistan found that 14 percent of them suffered new-onset 
respiratory symptoms. This is a much higher rate than their 
nondeployed colleagues. So we urge that immediate steps be 
taken to minimize troop exposure to pollutants and that DOD 
investigate pollutants in the air our troops breathe.
    Thank you very much for your time today.
    [The statement follows:]
            Prepared Statement of Captain Charles D. Connor
    The American Lung Association is pleased to present this testimony 
to the Senate Appropriations subcommittee on the Department of Defense 
(DOD). The American Lung Association was founded in 1904 to fight 
tuberculosis and today, our mission is to save lives by improving lung 
health and preventing lung disease. We accomplish this through 
research, advocacy, and education.
    I have no doubt you recognize the importance of keeping our 
soldiers' lungs healthy. A soldier who uses tobacco or has asthma or 
other lung disease is a soldier whose readiness for combat is 
potentially compromised. Additionally, healthcare costs for these 
troops continue to rise, both for DOD and for the Veteran's 
Administration (VA). We owe it to our soldiers, their families, and 
taxpayers to prioritize troops' lung health.
    The American Lung Association wishes to invite your attention to 
three issues for the DOD fiscal year 2013 budget:
  --the terrible burden on the military caused by tobacco use and the 
        need for the Department to aggressively combat it;
  --the importance of restoring funding for the Peer-Reviewed Lung 
        Cancer Research Program to $20 million; and
  --the health threat posed by soldiers' exposure to toxic pollutants 
        in Iraq and Afghanistan.
                      tobacco use in the military
    Tobacco use is a significant public health problem for DOD. And it 
is not a problem DOD has simply inherited. More than 1 in 7 
(approximately 15 percent) of active duty personnel begin smoking after 
joining the service.
    The American Lung Association recognizes the Department of the 
Navy's recent efforts to reduce tobacco use in the military, such as 
the Navy's 21st Century Sailor initiative. This initiative will help 
sailors and marines quit tobacco, promote tobacco-free environments, 
and put in place environmental changes that will reduce tobacco use 
throughout the Navy and Marine Corps.
    The American Lung Association also recognizes the Department of the 
Air Force for its March 26 Air Force Instruction (AFI 40-102) on 
Tobacco Use in the Air Force. The Instruction states that ``the goal is 
a tobacco-free Air Force,'' and lays out strong policies on tobacco-
free facilities and workplaces, tobacco use in formal training 
programs, and tobacco cessation programs. The document also establishes 
clear responsibilities within the Air Force chain of command to 
accomplish its goal and enforce the policies. Both of these efforts are 
unprecedented investments in the comprehensive health of sailors, 
marines, and airmen and their families. The American Lung Association 
hopes these initiatives expand to other military branches.
    In 2011, DOD released a proposed rule implementing coverage of 
tobacco cessation treatment through TRICARE. When finalized, this new 
coverage will give soldiers and their families the help they need to 
quit tobacco.
    All of these actions follow recommendations in the Institute of 
Medicine's report Combating Tobacco Use in Military and Veterans 
Populations. The American Lung Association urges DOD and VA to fully 
implement all recommendations included in the report.
                      lung cancer research program
    The American Lung Association strongly supports the Lung Cancer 
Research Program (LCRP) in the Congressionally Directed Medical 
Research Program (CDMRP), and its original intent to research the scope 
of lung cancer in our military. In fiscal year 2012, LCRP received 
$10.2 million. We urge this subcommittee to restore the funding level 
to $20 million and that the LCRP be returned to its original intent, as 
directed by the 2009 program: ``These funds shall be for competitive 
research . . . Priority shall be given to the development of the 
integrated components to identify, treat, and manage early curable lung 
cancer''.
    In August 2011, the National Cancer Institute released results from 
its National Lung Screening Trial (NLST), a randomized clinical trial 
that screened at-risk smokers with either low-dose computed tomography 
(CT) or standard chest xray. The study found that screening individuals 
with low-dose CT scans could reduce lung cancer mortality by 20 percent 
compared to chest xray. These are exciting results, but conclusions can 
only be drawn for the segment of the population tested by the NLST:
  --current or former smokers aged 55 to 74 years;
  --a smoking history of at least one pack a day for at least 30 years; 
        and
  --no history of lung cancer. As the report made clear, CT scans 
        should be recommended for this narrowly defined population of 
        patients--but evidence does not support recommending them for 
        everyone.
    The American Lung Association recently endorsed screening for this 
defined population.
    The Lung Cancer Research Program has the potential to further 
knowledge on the early detection of lung cancer. The program recently 
funded an exciting study at Boston University aimed at discovering 
biomarkers to improve the accuracy of lung cancer diagnoses. We 
encourage the DOD to continue its research into lung cancer.
                       respiratory health issues
    The American Lung Association is troubled by reports of soldiers 
and civilians returning from Iraq and Afghanistan with lung illnesses. 
Research is beginning to show that the air troops breathe in the war 
theater can have high concentrations of particulate matter, which can 
cause or worsen lung disease. Data from a 2009 study of soldiers 
deployed in Iraq and Afghanistan found that 14 percent of them suffered 
new-onset respiratory symptoms, a much higher rate than their 
nondeployed colleagues. The American Lung Association urges that 
immediate steps be taken to minimize troop exposure to pollutants and 
that the DOD investigate pollutants in the air our troops breathe.
                               conclusion
    In summary, this Nation's military is the best in the world, and we 
should do whatever necessary to ensure that the lung health needs of 
our armed services are fully met. Troops must be protected from tobacco 
and unsafe air pollution and the severe health consequences.
    Thank you.

    Chairman Inouye. The matter that you have discussed is very 
serious and we look upon it as very serious. I can assure you 
that we'll continue funding this.
    Thank you.
    Our next witness is Dr. William Strickland, representing 
the American Psychological Association.
STATEMENT OF WILLIAM J. STRICKLAND, Ph.D., AMERICAN 
            PSYCHOLOGICAL ASSOCIATION
    Dr. Strickland. Good morning, Mr. Chairman and Mr. Vice 
Chairman. I'm Dr. Bill Strickland from the Human Resources 
Research Organization (HumRRO). I'm submitting testimony today 
on behalf of the American Psychological Association (APA), 
which is a scientific and professional organization of more 
than 137,000 psychologists.
    For decades, psychologists have played vital roles within 
the Department of Defense (DOD) as providers of clinical 
services to military personnel and their families and as 
scientific researchers investigating mission-targeted issues 
ranging from airplane cockpit design to counterterrorism. My 
own military-oriented research and consulting focus on 
recruiting, selecting, and training enlisted members of the 
Army and the Air Force.
    My testimony this morning will focus on reversing 
administration-proposed cuts to the DOD science and technology 
(S&T) budget. In terms of the overall DOD S&T budget, the 
President's request for fiscal year 2013 represents another 
step backward for defense research. Defense S&T would fall from 
an enacted fiscal year 2012 level of $12.3 billion to $11.9 
billion.
    APA urges the subcommittee to reverse this cut to the 
critical Defense Science Program by providing a total of $12.5 
billion in Defense S&T funds in fiscal year 2013. APA also 
encourages the subcommittee to provide increased funding to 
reverse specific cuts to psychological research throughout the 
military research laboratories. This human-centered research is 
vital to sustaining warfighter superiority and both the 
national academies and the Defense Science Board recommend that 
DOD fund priority research in the behavioral sciences in 
support of national security.
    In the President's proposed fiscal year 2013 budget, the 
Army and Air Force basic and applied research accounts all 
would be reduced. The Air Force Research Laboratory's Human 
Effectiveness Directorate is an example of a vital DOD human-
centered research program slated for dramatic cuts. 
Headquartered at Wright-Paterson Air Force Base in Ohio, with 
additional research sites in Texas and Arizona, the Human 
Effectiveness Directorate's mission is to provide science and 
leading-edge technology to define human capabilities, 
vulnerabilities and effectiveness, to train warfighters, to 
integrate operators and weapons systems, and to protect Air 
Force personnel while sustaining aerospace operations.
    The directorate is the heart of human-centered science and 
technology in the Air Force as it integrates both biological 
and cognitive technologies to optimize and protect airmen's 
capabilities to fly, fight, and win in air, space, and 
cyberspace. Proposed cuts to this directorate would cripple the 
Air Force's to optimize the human elements of warfighting 
capability.

                           PREPARED STATEMENT

    We urge you to support the men and women on the front lines 
by reversing yet another round of cuts to the overall Defense 
S&T account, and specifically to the human-oriented research 
projects within the military laboratories.
    Thank you and I'd be happy to answer any questions.
    Chairman Inouye. We will most certainly look into these 
cuts. I've been told that you have some report language you'd 
like to recommend.
    Dr. Strickland. Yes, Sir, we do. It's in my written 
statement.
    Chairman Inouye. Will you submit that, Sir?
    Dr. Strickland. Yes, Sir.
    Chairman Inouye. I thank you very much, Doctor.
    [The statement follows:]
           Prepared Statement of William J. Strickland, Ph.D.
    The American Psychological Association (APA) is a scientific and 
professional organization of more than 137,000 psychologists and 
affiliates.
    For decades, psychologists have played vital roles within the 
Department of Defense (DOD), as providers of clinical services to 
military personnel and their families, and as scientific researchers 
investigating mission-targeted issues ranging from airplane cockpit 
design to counterterrorism. More than ever before, psychologists today 
bring unique and critical expertise to meeting the needs of our 
military and its personnel. APA's testimony will focus on reversing 
administration cuts to the overall DOD Science and Technology (S&T) 
budget and maintaining support for important behavioral sciences 
research within DOD.
     fiscal year 2013 department of defense appropriations summary
    The President's budget request for basic and applied research at 
DOD in fiscal year 2013 is $11.9 billion, a significant cut from the 
enacted fiscal year 2012 level of $12.3 billion. APA urges the 
subcommittee to reverse this cut to the critical Defense Science 
Program by providing a total of $12.5 billion for Defense S&T in fiscal 
year 2013.
    APA also encourages the subcommittee to provide increased funding 
to reverse specific cuts to psychological research through the military 
research laboratories. This human-centered research is vital to 
sustaining warfighter superiority.
                     department of defense research
    ``People are the heart of all military efforts. People operate the 
available weaponry and technology, and they constitute a complex 
military system composed of teams and groups at multiple levels. 
Scientific research on human behavior is crucial to the military 
because it provides knowledge about how people work together and use 
weapons and technology to extend and amplify their forces.''----Human 
Behavior in Military Contexts; Report of the National Research Council, 
2008.

    Just as a large number of psychologists provide high-quality 
clinical services to our military servicemembers stateside and abroad 
(and their families), psychological scientists within DOD conduct 
cutting-edge, mission-specific research critical to national defense.
behavioral research within the military service labs and department of 
                                defense
    Within DOD, the majority of behavioral, cognitive, and social 
science is funded through the Army Research Institute for the 
Behavioral and Social Sciences (ARI) and Army Research Laboratory 
(ARL); the Office of Naval Research (ONR); and the Air Force Research 
Laboratory (AFRL), with additional, smaller human systems research 
programs funded through the Office of the Secretary of Defense (OSD) 
and the Defense Advanced Research Projects Agency (DARPA).
    The military service laboratories provide a stable, mission-
oriented focus for science, conducting and sponsoring basic (6.1), 
applied/exploratory development (6.2), and advanced development (6.3) 
research. These three levels of research are roughly parallel to the 
military's need to win a current war (through products in advanced 
development, 6.3) while concurrently preparing for the next war (with 
technology ``in the works,'' 6.2) and the war after next (by taking 
advantage of ideas emerging from basic research, 6.1). All of the 
services fund human-related research in the broad categories of 
personnel, training, and leader development; warfighter protection, 
sustainment, and physical performance; and system interfaces and 
cognitive processing.
National Academies Report Calls for Doubling Behavioral Research
    A recent National Academies report on ``Human Behavior in Military 
Contexts'' recommended doubling the current budgets for basic and 
applied behavioral and social science research ``across the U.S. 
military research agencies.'' It specifically called for enhanced 
research in six areas:
  --intercultural competence;
  --teams in complex environments;
  --technology-based training;
  --nonverbal behavior;
  --emotion; and
  --behavioral neurophysiology.
    Behavioral and social science research programs eliminated from the 
mission labs due to cuts or flat funding are extremely unlikely to be 
picked up by industry, which focuses on short-term, profit-driven 
product development. Once the expertise is gone, there is absolutely no 
way to ``catch up'' when defense mission needs for critical human-
oriented research develop. As DOD noted in its own Report to the Senate 
Appropriations Committee:

    ``Military knowledge needs are not sufficiently like the needs of 
the private sector that retooling behavioral, cognitive and social 
science research carried out for other purposes can be expected to 
substitute for service-supported research, development, testing, and 
evaluation . . . our choice, therefore, is between paying for it 
ourselves and not having it.''
Defense Science Board Calls for Priority Research in Social and 
        Behavioral Sciences
    This emphasis on the importance of social and behavioral research 
within DOD is echoed by the Defense Science Board (DSB), an independent 
group of scientists and defense industry leaders whose charge is to 
advise the Secretary of Defense and the Chairman of the Joint Chiefs of 
Staff on ``scientific, technical, manufacturing, acquisition process, 
and other matters of special interest to the Department of Defense''.
    In its report on ``21st Century Strategic Technology Vectors'', the 
DSB identified a set of four operational capabilities and the 
``enabling technologies'' needed to accomplish major future military 
missions (analogous to winning the Cold War in previous decades). In 
identifying these capabilities, DSB specifically noted that ``the 
report defined technology broadly, to include tools enabled by the 
social sciences as well as the physical and life sciences.'' Of the 
four priority capabilities and corresponding areas of research 
identified by the DSB for priority funding from DOD, the first was 
defined as ``mapping the human terrain''--understanding the human side 
of warfare and national security.
     fiscal year 2013 department of defense budget for science and 
                               technology
Department of Defense
    In terms of the overall DOD S&T budget, the President's request for 
fiscal year 2013 again represents a step backward for defense research. 
Defense S&T would fall from an enacted fiscal year 2012 level of $12.3 
to $11.9 billion. The military service labs and Defense-wide research 
offices would see variable decreases, but also in some cases increases, 
to their accounts. The Army and Air Force 6.1, 6.2, and 6.3 accounts 
all would be reduced in the proposed budget. Navy's basic research 
account (6.1) would remain funded at the fiscal year 2012 level, but 
its 6.2 and 6.3 applied research portfolios each would see decreases. 
DOD's OSD Defense-wide account would get increased funding in fiscal 
year 2013 for both its basic 6.1 and advanced development 6.3 research, 
whereas its 6.2 applied research account would be cut.
    AFRL's Human Effectiveness Directorate is an example of a vital DOD 
human-centered research program slated for dramatic cuts in the 
President's fiscal year 2013 budget. Headquartered at Wright-Patterson 
Air Force Base in Ohio (with additional research sites in Texas and 
Arizona), the 711th Human Performance Wing's Human Effectiveness 
Directorate's mission is to provide ``science and leading-edge 
technology to define human capabilities, vulnerabilities and 
effectiveness; train warfighters; integrate operators and weapon 
systems; protect Air Force personnel; and sustain aerospace operations. 
The directorate is the heart of human-centered science and technology 
for the Air Force'', and integrates ``biological and cognitive 
technologies to optimize and protect the Airman's capabilities to fly, 
fight and win in air, space and cyberspace''. Proposed cuts to this 
Directorate would cripple the Air Force's ability to optimize the human 
elements of warfighting capability.
Defense Advanced Research Projects Agency
    Defense Advanced Research Projects Agency (DARPA) is slated for a 
slight agency-wide increase over its fiscal year 2012 level, increasing 
from $2.74 to $2.75 billion in fiscal year 2013.
                                summary
    The President's budget request for basic and applied research at 
DOD in fiscal year 2013 is $11.9 billion, a significant cut from the 
enacted fiscal year 2012 level of $12.3 billion. APA urges the 
subcommittee to reverse this cut to the critical Defense Science 
Program by providing a total of $12.5 billion for Defense S&T in fiscal 
year 2013.
    APA also encourages the subcommittee to provide increased funding 
to reverse specific cuts to psychological research through the military 
research laboratories. This human-centered research is vital to 
sustaining warfighter superiority.
    Within the S&T program, APA encourages the subcommittee to follow 
recommendations from the National Academies and the Defense Science 
Board to fund priority research in the behavioral sciences in support 
of national security. Clearly, psychological scientists address a broad 
range of important issues and problems vital to our national defense, 
with expertise in modeling behavior of individuals and groups, 
understanding and optimizing cognitive functioning, perceptual 
awareness, complex decisionmaking, stress resilience, recruitment and 
retention, and human-systems interactions. We urge you to support the 
men and women on the front lines by reversing another round of cuts to 
the overall Defense S&T account and the human-oriented research 
projects within the military laboratories.
    As our Nation continues to meet the challenges of current 
engagements, asymmetric threats, and increased demand for homeland 
defense and infrastructure protection, enhanced battlespace awareness 
and warfighter protection are absolutely critical. Our ability to both 
foresee and immediately adapt to changing security environments will 
only become more vital over the next several decades. Accordingly, DOD 
must support basic S&T research on both the near-term readiness and 
modernization needs of the Department and on the long-term future needs 
of the warfighter.
    Below is suggested appropriations report language for fiscal year 
2013 which would encourage the DOD to fully fund its behavioral 
research programs within the military laboratories and the Minerva 
Initiative:
                         department of defense
Research, Development, Test, and Evaluation
    Warfighter Research.--The subcommittee notes the increased demands 
on our military personnel, including high operational tempo, leadership 
and training challenges, new and ever-changing stresses on 
decisionmaking and cognitive readiness, and complex human-technology 
interactions. To help address these issues vital to our national 
security, the subcommittee has provided increased funding to reverse 
cuts to psychological research through the military research 
laboratories:
  --the Air Force Office of Scientific Research and Air Force Research 
        Laboratory;
  --the Army Research Institute for the Behavioral and Social Sciences 
        and Army Research Laboratory; and
  --the Office of Naval Research.
    The Committee also notes the critical contributions of behavioral 
science to combating counterinsurgencies and understanding extremist 
ideologies, and renews its strong support for the DOD Minerva 
Initiative.

    Chairman Inouye. Our next witness is Mr. Robert Ginyard, 
ZERO--the Project to End Prostate Cancer.
STATEMENT OF ROBERT GINYARD, MEMBER, BOARD OF 
            DIRECTORS, ZERO--THE PROJECT TO END 
            PROSTATE CANCER
    Mr. Ginyard. Good morning, Mr. Chairman. Good morning, Vice 
Chairman. Thank you for the opportunity to speak to you about 
the prostate cancer research program and the Congressionally 
Directed Medical Research Programs at the Department of 
Defense.
    My name is Robert Ginyard. I am a member of the Board of 
Directors of ZERO--The Project to End Prostate Cancer, but I'm 
also a prostate cancer survivor.
    ZERO is a patient advocacy organization that raises 
awareness and educates men and their families about prostate 
cancer. Of particular importance to us is the issue of early 
detection. It is a fact that early detection of prostate cancer 
increases the likelihood that a man will survive prostate 
cancer. In fact, if caught early the cancer--surviving cancer 
at least 5 years is nearly 100 percent. If the cancer spreads 
outside of the prostate into other organs, the chances drop to 
29 percent. This is why I'm here today.
    The recent actions taken by the United States Preventative 
Service Task Force (USPSTF) threaten men's access to care and 
makes it more important than ever for us to protect critical 
research dollars that will help doctors make better decisions 
about the diagnosis and treatment.
    Two years ago my life was changed forever when I heard the 
words: ``You have prostate cancer.'' Because my father also had 
prostate cancer, I began having my prostate checked at age 40. 
I am now 49. During my annual checkup, my doctor noticed that 
my prostate-specific antigen (PSA) level was high, and it had 
been rising in recent years. After the results of this PSA, 
however, my doctor suggested that I see a urologist.
    A few days after, I received a call that I would never want 
to wish on anyone else. The doctor said: You do have prostate 
cancer. I recall the doctor mentioning that he hated to give 
this news on a Monday morning and, quite frankly, it wouldn't 
have mattered what day he had given me this news.
    I remember crying in the stairwell outside of my office. 
The only thing I thought about was death, how long do I have to 
live, will I see my daughters go to their prom, will I see them 
go off to college, how will my beautiful wife and children make 
out without me if something happens to me?
    After getting over my diagnosis, it was time to take 
action. I elected to receive a radical prostatectomy in 2010, 
but because there were positive margins I had to undergo 4 
months of radiation treatment and 4 months of hormone 
treatment. Thirteen months afterwards, I'm proud to say, I'm 
happy to say, I'm blessed to say, I am cancer-free with a great 
quality of life.
    But one of the most important things that came out of my 
experiences things. During my daily treatments, most of the men 
that I was in treatment with would always talk about their 
wives. They would talk about them with hope in their voices. 
They talked about how they wanted to enjoy life rather than 
focus on death. It is my hope that we find a cure for prostate 
cancer so that every day will be a father's day, a son's day, a 
brother's day, a good friend's day.
    I'm here today because prostate cancer affects the family, 
not just the man. I am here today because I want the important 
research at the Congressionally Directed Medical Research 
Program, and particularly the Prostate Cancer Research Program.
    Prostate cancer is a disease that is diagnosed in more than 
240,000 American men each year and will kill 28,000 men in 
2012. It is the second leading cause of cancer deaths among 
men. One in six men--1 in 4 African-American men--will get 
prostate cancer. Some will only be in their 30s.
    The recent recommendation change by the USPSTF has 
highlighted the issue of early detection for prostate cancer. 
However, the issue is not whether we should be trying to detect 
prostate cancer early, but how we can do it most effectively 
and identify what cancers should be treated versus the ones 
that shouldn't. The only way that doctors will know the answer 
to this question is through advances that may be closer than we 
think.
    In 2010, research partially funded by the Prostate Cancer 
Research Program identified 24 types of prostate cancer. Each 
of these are aggressive forms of the disease. If we could 
identify what type of cancer a man has, we could more 
effectively determine if he needs treatment and how aggressive 
treatment should be. This would render moot the argument some 
make that the disease is overtreated and ultimately save men's 
lives.
    The Prostate Cancer Research Program is funding some of the 
most critical research in cancer today. I ask that the 
committee continue to fund this important, important research. 
Many men will count on you. Many women will count on you. Their 
family members will count on you.

                           PREPARED STATEMENT

    It is one day that I can always look back and say: Hey, 
look, I was there with you. I hope we get through this 
together. I just ask for your continued support in this 
initiative. There are many men who are really hoping that you 
make the right decision to allocate the proper resources for 
this research.
    I thank you for your time and I thank you for your efforts 
and all that you've done. Thank you.
    [The statement follows:]
                  Prepared Statement of Robert Ginyard
    Mr. Chairman and members of the subcommittee: Thank you for the 
opportunity to speak to you about the Prostate Cancer Research Program 
(PCRP) and the Congressionally Directed Medical Research Programs 
(CDMRP) at the Department of Defense. My name is Robert Ginyard--I am a 
member of the Board of Directors of ZERO--The Project to End Prostate 
Cancer. Many people can speak effectively about the research this 
program has done or is doing, about its history, funding levels, and 
accomplishments, but I want to tell you about my experience with 
prostate cancer and how you are having an impact on the lives of 
patients and will continue to impact the lives of men and their 
families through the research funded by the PCRP.
    ZERO is a patient advocacy organization that raises awareness and 
educates men and their families about prostate cancer. Of particular 
importance to us is the issue of early detection. It is a fact that 
early detection of prostate cancer increases the likelihood that a man 
will survive prostate cancer. In fact, if caught early, a man's chances 
of surviving cancer at least 5 years is nearly 100 percent--if the 
cancer spreads outside of the prostate into other organs those chances 
drop to 29 percent. This is why I am here today--recent actions by the 
United States Preventive Services Task Force (USPSTF) threaten men's 
access to care and makes it more important than ever for us to protect 
critical research dollars that will help doctors make better decisions 
about diagnosis and treatment.
    Two years ago, my life was changed forever by three words I thought 
I would never hear: ``You have cancer.'' Prior to receiving the news 
that I had prostate cancer, I was engaged in another sort of battle--
seeking investors to raise capital for my tote bag company. And then 
things came to an unexpected halt.
    Because my father also had prostate cancer, I began having my 
prostate checked at age 40; I am now 49. During my annual check up my 
doctor noticed that my prostate specific antigen (PSA) level was high--
it had been rising in recent years. After the results of this PSA, 
however, my doctor suggested I see a urologist for a biopsy. After a 
few days, I received a call that I thought I would never receive--we 
did find cancer in your prostate. I recall the doctor mentioning that 
he hated to deliver this type of news on a Monday morning. Quite 
frankly, with this type of news, it would not have made a difference 
what day I received it. I remember crying in a stairwell outside of my 
office. The only thing I thought of was death. How long do I have to 
live? Will this mean I won't get to see my beautiful daughters go to 
their high school prom, or graduate from college? How will my wife and 
daughters make it without me?
    After getting over the shock of my diagnosis, it was time to take 
action and research the treatment options that were available to me. I 
elected to have a radical prostatectomy in August 2010. Because there 
were positive margins after my surgery, I underwent 4 months of hormone 
therapy and 8 weeks of radiation treatments. Thirteen months after 
treatment, I am happy to be cancer-free with a great quality of life.
    One of the most interesting things that came out of my prostate 
cancer experience was the power of hope. During my daily radiation 
treatments, many of the men who I got to know on a very personal basis 
always had a look of hope in their eyes. Going through with their 
treatments they always talked about their wives. They talked about it 
with hope in their voices--hope that their treatment will cure them, or 
keep the cancer away long enough to be more engaged in living rather 
than focusing on dying. It is with this hope that we must continue to 
fund prostate cancer research so that everyday will be father's day, 
son's day, grandfather's day, uncle's day, brother's day, or simply a 
good friend's day.
    I am here today because prostate cancer affects the family, not 
just the man. I am here today because I want to stress the importance 
of research at the CDMRP and particularly the PCRP.
    Prostate cancer is a disease that is diagnosed in more than 240,000 
American men each year and will kill more than 28,000 men in 2012. It 
is the second-leading cause of cancer related deaths among men. One in 
six men--1 in 4 African-American men--will get prostate cancer and some 
will only be in their 30s. It's not just an old man's disease.
    The recent recommendation change by the USPSTF has highlighted the 
issue of early detection for prostate cancer. However, the issue is not 
whether we should be trying to detect prostate cancer early, but how 
can we do it most effectively and identify the cancers that should be 
treated versus the ones that shouldn't.
    The only way doctors will ever really know the answer to this 
question is through advances that may be closer than we think. In 2010, 
research partially funded by the PCRP identified 24 different types of 
prostate cancer. Eight of these are aggressive forms of the disease. If 
we could identify what type of prostate cancer a man has, we could more 
effectively determine if he needs treatment and how aggressive that 
treatment should be. This would render moot the argument some make that 
the disease is over-treated, and ultimately save men's lives.
    Another innovative funding mechanism of the PCRP is the Clinical 
Trials Consortium. To address the significant logistical challenges of 
multicenter clinical research, the clinical trials consortium was 
started to promote rapid Phase I and Phase II trials of promising new 
treatments for prostate cancer.
    Since 2005, nearly 90 trials with more than 2,600 patients have 
taken place, leading to potential treatments that will soon be 
available to patients. Two recently approved drugs, XGEVA and ZYTIGA, 
benefited from the consortium, accelerating their approval time by more 
than 2 years.
    The PCRP is funding some of the most critical work in cancer today. 
The program uses innovative approaches to funnel research dollars 
directly into the best research to accelerate discovery, translate 
discoveries into clinical practice, and improve the quality of care and 
quality of life of men with prostate cancer.
    It is the only federally funded program that focuses exclusively on 
prostate cancer, which enables them to identify and support research on 
the most critical issues facing prostate cancer patients today. The 
program funds innovative, high-impact studies--the type of research 
most likely to make a difference.
    I understand that the subcommittee is working under extremely tight 
budgetary constraints this year and that many tough decisions are 
ahead. This program is important to the millions of men who are living 
with the disease, those who have survived the disease and those who are 
at risk for the disease, including our veterans and active duty 
military personnel.
    Active duty males are twice as likely to develop prostate cancer as 
their civilian counterparts. While serving our country, the United 
States Armed Forces are exposed to deleterious contaminants such as 
Agent Orange and depleted uranium. These contaminants are proven to 
cause prostate cancer in American veterans. Unfortunately, the genomes 
of prostate cancer caused by Agent Orange are the more aggressive 
strands of the disease, and they also appear earlier in a man's life. 
In addition, a recent study showed that Air Force personnel were 
diagnosed with prostate cancer at an average age of just 48.
    There are many men that will be diagnosed with cancer this year. 
These men are placing their hope in this subcommittee that you will 
consider them as you make the decision to allocate the proper resources 
to help find a cure for this disease that not only affects men, but 
their families and other loved ones.
    Thank you very much for your time.

    Chairman Inouye. I thank you very much, Mr. Ginyard, and I 
can assure you we'll do our best to continue funding.
    Mr. Ginyard. Thank you, Sir.
    Chairman Inouye. I'd like to thank the panel.
    Our next panel consists of: Captain Marshall Hanson, U.S. 
Navy, Retired, representing Associations for America's Defense; 
Major General Andrew ``Drew'' Davis, United States Marine 
Corps, Retired, representing the Reserve Officers Association; 
Ms. Karen Goraleski, representing the American Society for 
Tropical Medicine and Hygiene; and Mr. John Davis, representing 
the Fleet Reserve Association.
    May I call upon Captain Hanson.
STATEMENT OF CAPTAIN MARSHALL A. HANSON, U.S. NAVY 
            (RETIRED), ACTING CHAIRMAN, ASSOCIATIONS 
            FOR AMERICA'S DEFENSE
    Captain Hanson. Thank you, Mr. Chairman, Senator Cochran. 
It's nice to be back in this seat after an absence before this 
subcommittee of a couple of years.
    The Associations for America's Defense (A4AD) is again 
honored to testify. A4AD represents 13 associations that share 
a concern for our national security.
    While the subcommittee is recognized for its stewardship on 
the defense issues, the challenges being faced this year seem 
almost insurmountable. The administration's new defense 
strategy guidance realigns national security with a tighter 
Federal budget. Scheduled personnel cuts that start in 2015 
will be used to pay for future investments in intelligence, 
surveillance, reconnaissance, cyberspace, and counterterrorism. 
The resulting reduction in force is supposed to be offset by 
building partner capacity and by employing the concept of 
reversibility.
    While this may look good on paper, one can question the 
substance. Not only is the Nation's security at risk of being 
hollowed out from underbudgeting, but with the incomplete 
strategy the United States might not be planning for a 
potential threat.
    The Pentagon will rely on traditional and new allies to 
complement the U.S. force structure. Yet, European defense 
plans will still rely on the United States. With military 
budgets being cut in nearly all North Atlantic Treaty 
Organization (NATO) countries, there is little promise that 
Europe is ready to pick up the slack.
    The defense guidance also states that the concept of 
reversibility is a key part of the U.S. decision calculus, 
placing emphasis on quickly restarting the industrial base and 
relying on the right Active-to-Reserve component balance. This 
is akin to building our defense foundation on quicksand. 
Reversibility will take time, which may not be available in a 
crisis.
    The Pentagon has warned the Congress that there is no room 
for modification of their budget or their strategy. This was 
emphasized by the lack of submission of unfunded priority 
lists. A4AD agrees with those Senators who wrote the service 
chiefs that, without the military's budgetary needs, the 
Congress cannot accurately determine the resources necessary 
for our Nation's defense.
    Normally, A4AD's testimony would include an unfunded list 
for both the active and Reserve components which were submitted 
by member associations. But the blackout of information has 
affected us as much as it has this subcommittee.
    When the Air Force suggested hasty cuts to its 
infrastructure, the Congress wisely questioned this 
hurriedness. The Senate Armed Services Committee has suggested 
a commission to study the makeup of the Air Force. A4AD shares 
the concern over the lack of analysis and justification and 
suggests that this type of study needs to be done for all of 
the services.
    The Armed Forces need a critical surge capacity for 
domestic and expeditionary support to national security in 
response to domestic disasters. A strategic surge construct 
needs to include manpower, airlift, and air refueling, sealift 
inventory, logistics, and communications to provide a surge-to-
demand operation. This capacity requires funding for training, 
equipment, and maintenance of a mission-ready strategic reserve 
composed of both active and Reserve units.

                           PREPARED STATEMENT

    This in itself is formidable, only complicated further by 
budget control. The specter of sequestration only multiplies 
the complexity of the puzzle that needs to be solved. The 
disastrous consequences of automatic cuts to defense have been 
documented in earlier hearings. A4AD asks this subcommittee to 
work toward resolving sequestration prior to a lame duck 
session, before the meat cleaver chops into the military and 
the defense industry.
    Thank you again for the opportunity to testify.
    [The statement follows:]
      Prepared Statement of Captain Marshall Hanson, USN (Retired)
                   associations for america's defense
    Founded in January 2002, the Associations for America's Defense 
(A4AD) is an ad hoc group of military and veteran service organizations 
that have concerns about National Security issues that are not normally 
addressed by The Military Coalition (TMC) and the National Military 
Veterans Alliance (NMVA), but participants are members from each. 
Members have developed expertise in the various branches of the Armed 
Forces and provide input on force policy and structure. Among the 
issues that are addressed are equipment, end strength, force structure, 
and defense policy. A4AD also cooperatively works with other 
associations, who provide input while not including their association 
name to the membership roster.
                       participating associations
American Military Society
Army and Navy Union
Association of the U.S. Navy
Enlisted Association of the National Guard of the United States
Hispanic War Veterans of America
Marine Corps Reserve Association
Military Order of World Wars
National Association for Uniformed Services
Naval Enlisted Reserve Association
Reserve Enlisted Association
Reserve Officers Association
The Flag and General Officers' Network
The Retired Enlisted Association
                              introduction
    Mr. Chairman and distinguished members of the subcommittee, A4AD is 
again very grateful for the invitation to testify before you about our 
views and suggestions concerning current and future issues facing the 
Department of Defense Subcommittee Appropriations.
    A4AD is an ad hoc group of 13 military and veteran associations 
that have concerns about national security issues. Collectively, we 
represent Armed Forces members and their families, who are serving our 
Nation, or who have done so in the past.
              current versus future: issues facing defense
    A4AD would like to thank this subcommittee for the on-going 
stewardship that it has demonstrated on issues of defense. While in a 
time of war, this subcommittee's pro-defense and nonpartisan leadership 
continues to set an example.
Force Structure: The Risk of Erosion in Capability
    Last January, the Obama administration announced a new Defense 
Strategy Guidance, which has been a driving force in current budget 
talks. The new strategy realigns national security with a tighter 
Federal budget. Not only is the Nation's security at risk of being 
hollowed out from being under budgeted, but with an incomplete strategy 
the United States might not be planning for a potential future threat.
    Not surprisingly, a lot of the aspects about this plan are not new. 
The new strategy for the United States has evolved from fighting and 
quickly winning two major wars simultaneously into winning one war 
while ``deterring'' or ``dismantling'' the designs of a second 
potential adversary.
    Part of the ``revolution'' in military thinking justifying a new 
strategy is a refocus from Europe to ``rebalance toward the Asia-
Pacific region''. It requires a shift of power to the Pacific, with 
military end-strength reductions in Europe. But rather than build up 
garrisoned forces in the Far East, this plan calls upon the mobility of 
the Navy and Air Force to project power.
    With a leaner defense strategy, the Pentagon will rely on 
traditional and new allies to complement U.S. force structure. With the 
U.S. planning to reduce its financial and military presence in Europe, 
the Department of Defense (DOD) will expect Europe to take the lead. 
Yet with military budgets being cut in nearly all North Atlantic Treaty 
Organization (NATO) countries, there is little promise that Europe is 
ready to pick up the slack.
    Six years ago, Admiral Mike Mullen, then Chief of Naval Operations, 
envisioned a thousand-ship Navy, where the U.S. and other navies 
worldwide would partner to improve maritime security and information 
sharing. ``For it to work, explicit and implicit references to U.S. 
security concerns have to go'', warned one unnamed, former military 
officer in an ``Armed Forces Journal'' article.
    The risk of basing a national security policy on foreign interests 
and good world citizenship is increasingly uncertain because their 
national objectives can differ from our own. Alliances should be viewed 
as a tool and a force multiplier, but not the foundation of National 
Security.
    In many ways, the new strategy is ``back to the future'', with DOD 
constructing a strategy on old tactics and untried concepts, in order 
to save money. This strategy is building a force structure on a shaky 
foundation. Rather than rushing into this unknown, the Congress needs 
to examine this plan closer.
                         budgetary constraints
    A4AD strongly disagrees with placing budgetary constraints on 
defense, especially in light of the fact that under the Budget Control 
Act of 2011 (BCA) defense will take 50 percent of the cuts despite 
being less than 20 percent of the overall budget. Member associations 
also question the current administration's spending priorities, which 
place more importance on the immediate future rather than a longer-term 
approach.
    DOD faces a trigger of an additional $500 billion in budget 
reduction starting on January 1, 2013, that is in addition to the $587 
billion already planned by DOD as cuts over the next 10 years, unless 
something is done by the Congress.
    ``Historically we've run about 20 percent reductions after these 
conflicts'', warned General James E. ``Hoss'' Cartwright, USMC 
(Retired), former Vice Chairman of the Joint Chiefs at the Joint 
Warfighting Conference. ``We are about halfway there . . . If you take 
another two hundred billion out of this budget, we're going to start to 
run into a problem if you don't start thinking about strategy.''
    At a time when strategy is being shaped by budget, election 
posturing, and an authority squabble between the Congress and the 
Secretary of Defense, national security is being held hostage.
              authority over force structure and strategy
    A conflict has arisen over who maintains force structure. Defense 
Secretary Leon Panetta has objected to additional defense funding in 
the House National Defense Authorization Act, emphasizing that every $1 
added to the defense authorization will come at the expense of other 
critical national security programs. House Armed Services Committee 
chairman Representative Buck McKeon responded that increases were 
offset while complying with the overall BCA budget targets, which 
specify $487 billion in cuts.
    This exchange reflects an ongoing tension between the Pentagon and 
the Congress over defense budgeting. The new Defense Strategy Guidance 
warns ``as a result of a thorough process that was guided by the 
strategy and that left no part of the budget unexamined, we have 
developed a well-rounded, balanced package. There is no room for 
modification if we are to preserve the force and capabilities that are 
needed to protect the country and fulfill the missions of the 
Department of Defense.'' The Pentagon is frustrated with any amount of 
control by the Congress over the department's business.
    A4AD understands that the Congress takes seriously their 
constitutional responsibility to raise and maintain the Armed Forces. 
This is interpreted as congressional authority to fund, equip, and 
train the military and give committees, such as this, oversight on the 
force structure, including nonfunded items.
                         risk of sequestration
    As sequestration automatically cuts the Federal budget, DOD faces a 
trigger of an additional $500 billion in budget reduction starting on 
January 1, 2013 unless the Congress finds an offset or agrees to 
reconciliation.
    Secretary of Defense Panetta has warned the Congress that if the 
automatic cuts of sequestration are allowed to take effect then the 
number of U.S. ground troops would fall to pre-1940 levels; the Navy 
would have the smallest number of ships since 1915; and the Air Force 
would be the smallest ever.
    If the President exempts personnel accounts, Secretary Panetta 
warns that sequestration could require a 23-percent cut across the 
military's budget for fiscal year 2013.
    Some are suggesting that reconciliation can wait until after the 
election, but the lame duck session schedule is already full. Among 
things needing to be considered by December 31, 2012, are reversing 
cuts to doctors' Medicare payments, Bush tax rates, 2-percent Social 
Security payroll-tax cut, increasing the debt-ceiling negotiations, 
expiration of the payroll tax cut, extending unemployment benefits, 
rises in the Alternative Minimum Tax and the estate tax rates, tax cuts 
from the 2009 economic-growth/stimulus law, the 100-percent write-off 
for business investment, transportation and farm bill reauthorizations, 
and 12 appropriations bills.
    A4AD takes a position that it is vital that reconciliation is 
reached prior to the national election. The House has already passed 
its version. A4AD hopes that the Senate develops and passes its own 
version of a balanced deficit reduction package, thus permitting the 
two chambers to conference.
                              end strength
    The administration already proposes cutting 100,000 troops. End-
strength cuts need to be made cautiously.
    The deployment of troops to Iraq and Afghanistan proved that the 
pre-9/11 end strengths left the Army and Marine Corps undermanned, 
which stressed the force. Sequestration would double the reductions for 
these two services.
    The goal for active duty dwell time is 1:3, and 1:5 for the Reserve 
component. After 10 years of war, this has yet to be achieved under 
current operations tempo, and end-strength cuts will only further 
impact dwell time.
    Trying to pay the defense bills by premature manpower reductions 
will have consequences.
                             reversibility?
    President Obama made the point that an important goal of his 
Defense strategy guidance was to avoid the mistakes made in previous 
downsizings. He suggested that this could be done by designing 
reversibility into the drawdown.
    ``The concept of `reversibility'--including the vectors on which we 
place our industrial base, our people, our Active-Reserve component 
balance, our posture and our partnership emphasis--is a key part of our 
decision calculus,'' states the new DOD strategy.
    This concept should be approached cautiously. If manpower is 
drawndown and industry production lines are shut down, either will take 
years to recover.
    Adequate training for an infantry warrior can take a year and more, 
and even then they lack the field experience. DOD's solution is to keep 
midgrade officers and enlisted that can mature into the next-generation 
leadership. Unfortunately, this is where shortages currently exist.
    If industry is shutdown, skilled labor is laid off, and without 
incentives tooling is destroyed. A restart is neither quick nor 
inexpensive. Even with equipment back online, the skilled labor has 
left for other work opportunities.
    Without question, DOD needs to plan how it can sustain basic 
proficiencies needed to battle emerging threats before relying on 
reversibility. A4AD questions this strategy.
                     maintaining a surge capability
    The Armed Forces need to provide critical surge capacity for 
homeland security, domestic, and expeditionary support to national 
security and defense, and response to domestic disasters, both natural 
and man-made that goes beyond operational forces. A strategic surge 
construct includes manpower, airlift and air refueling, sealift 
inventory, logistics, and communications to provide a surge-to-demand 
operation. This capability requires funding for training, equipping, 
and maintenance of a mission-ready strategic reserve composed of Active 
and Reserve units.
    The budget will drive changes to the Armed Forces structure. The 
National Guard and Reserve are in a position to fulfill many of the 
missions, while remaining an affordable alternative.
                  base closure or defense realignment?
    The President's budget recommends two more rounds of base closures. 
A4AD does not support such a base realignment and closure (BRAC) 
recommendation.
  --BRAC savings are faux savings as these savings are outside the 
        accounting cycle; with a lot of additional $1 expenses front-
        loaded into the DOD budget for infrastructure improvements to 
        support transferred personnel.
  --Too much base reduction eliminates facilities needed to support 
        surge capability. Some surplus is necessary.
    Instead, A4AD recommends that the Congress consider an independent 
Defense Realignment Commission that would examine the aggregate 
national security structure. The commission could examine:
  --Emerging threats;
  --Foreign defense treaties and alliance obligations;
  --Overseas and forward deployment requirements;
  --Foreign defense aid;
  --Defense partnerships with the State Department and other agencies, 
        as well as nongovernmental organizations;
  --Requisite missions and elimination of duplicity between the 
        services;
  --Current and future weapon procurement and development;
  --Critical industrial base;
  --Surge capability and contingency repository;
  --Best utilization and force structure of Active and Reserve 
        components;
  --Regional or centralized training, and dual-purpose equipment 
        availability; and
  --Compensation, recruiting and retention, trends, and solutions.
    In a time of war and force rebalancing, it is wrong to make cuts to 
the end strength of the Reserve components. We need to pause to permit 
force planning and strategy to take precedence over budget reductions.
                        compensation commission
    Another recommendation in the President's budget is a commission to 
review deferred compensation. As structured, A4AD does not support this 
proposal either, but if considered:
  --This should not be a BRAC-like commission. The Congress should not 
        give up its authority.
  --In one section of the President's budget, it suggests that the 
        President will appoint all of the members on the commission. 
        The Congress should share in appointments.
  --While alternatives to current military retirement should be 
        explored, A4AD does not support a two-tiered system where two 
        generations of warriors have different benefit packages.
  --An incentivized retirement option could be offered, rather than 
        making any new mandatory system.
  --Should a task force be appointed, A4AD recommends that individuals 
        with military experience in both the Active and Reserve 
        component compensation be among those appointed, as the 
        administration has suggested that both regular and nonregular 
        (Reserve) retirement should be the same.
                         unfunded requirements
    Earlier this year, the Joint Chiefs of Staff announced its decision 
to discontinue the practice of providing the Congress with formal lists 
of programs that were excluded from the President's budget request.
    A4AD concurs with those Senators who wrote to the Secretary of 
Defense that the military's budgetary needs cannot be determined 
without the lists, known formally as the Unfunded Priorities Lists. 
These lists, which have effectively been an extension of the Pentagon's 
annual spending request for more than a decade, provide insight that 
may otherwise be overlooked.
    In the past, A4AD has submitted unfunded recommendations for the 
service components of the Active and Reserve forces. Without such 
lists, it is difficult to make recommendations that provide the 
committee with additional information that spans even beyond the list.
           national guard and reserve equipment requirements
    A4AD asks this subcommittee to continue to provide appropriations 
for unfunded National Guard and Reserve Equipment Requirements. The 
National Guard's goal is to make at least one-half of Army and Air 
assets (personnel and equipment) available to the Governors and 
Adjutants General at any given time. To appropriate funds to Guard and 
Reserve equipment would provide Reserve Chiefs with a flexibility of 
prioritizing funding.
                        force structure funding
U.S. Army
    Much of the media attention has been on the manpower cuts which 
could be between 72,000-80,000 soldiers over the next 6 years, along 
with a minimum of eight brigade combat teams. If sequestration occurs 
reports are that another 100,000 personnel could be cut. The problem 
faced by the Army is balancing between end strength, readiness, and 
modernization.
    Examples of Army reductions in procurement are its M1A1 Abrams 
upgrade and Stryker vehicle program taking 84 percent and 57-percent 
cuts, respectively, in planned spending. Army cuts create strategic 
vulnerabilities.
    To ignore the risk of a protracted ground campaign is a security 
gamble. The Army has provided between 50 to 70 percent of the U.S. 
deployable forces over the last 10 years.
    Yet, 1 in 3 Active Army units do not have sufficient personnel to 
perform its missions, requiring personnel to be cross-assigned from one 
unit to another to accomplish missions. The Army Reserve and National 
Guard face similar challenges. Defense cuts will further impact the 
Army's ability to train and be ready. The Army needs $25 billion to 
reset its force.
    Air power and technology may be a critical part of a strategy, but 
America's enemies won't fight the way America expects them to. Boots on 
the ground will remain a critical part of this Nation's defense.
U.S. Marine Corps
    Proposed budget cuts and mission resets could clip USMC's 
triphibious flexibility. The USMC's capability to perform a combined 
mission of land, naval, and air attack could become unbalanced with the 
administration's plan to reset funding and missions to pre-war 
strategies, and build-down the Armed Forces.
    A change in strategy announced by Secretary of Defense Leon Panetta 
would cut the USMC further than the 20,000 announced by the 
administration. Under consideration is the elimination of another 
infantry battalion and reducing some light-armored reconnaissance 
capability.
    A4AD supports the House V-22 proposal to procure under a multiyear 
procurement contract that will save a proposed $852 million versus 
single-year contracts.
    The USMC is facing critical shortages of stockpiled equipment such 
as radios, small arms, and generators. It needs about $12 billion to 
reset its force.
    The past three Marine Commandants have emphasized that the USMC 
needs to get back to its naval roots as an amphibious force. The 
associations have concerns that the stated need for amphibious warships 
is a minimum of 33, and the likely cap is 30 ships.
U.S. Navy
    Proposed defense cuts could reduce the number of navy ships to the 
point that China will become dominant in the Western Pacific. This 
reduction undercuts the new Defense Strategy Guidance.
    Rather than growing the fleet to 330 ships, under sequestration 
analyst warns that the fleet could drop to as few than 230 ships. The 
Navy is tempted to retire ships early to reduce manpower requirements, 
but this reduction also will reduce capability.
    One in five ships when inspected is found not to be combat ready or 
is severely degraded. The combatant commanders ask for 16 attack 
submarines on a daily basis, but the USN can only provide 10. USN's 
repair backlog is $367 million.
    The Navy could lose some of its most important shipbuilding 
industry partners if it slows down construction schedules.
    A4AD applauds the House for reinstating 3 of the 4 cruisers 
scheduled to be retired. These are cruisers with the Aegis Combat 
System that is suitable for the at-sea missile defense mission. This 
provides a flexible option to a land-based site.
U.S. Air Force
    The U.S. Air Force's (USAF) fleet is now the oldest it has ever 
been, and sequestration cuts will either reduce the number of units 
sharply, or eliminate the USAF modernization. Defense cuts will affect 
more than 20 USAF acquisition programs. Sequestration will have a 
detrimental effect on all of the Air Force's procurements, including 
new refueling tankers, tactical fighter jets, remotely piloted 
aircraft, and long-range strike bombers.
    The average age of a strategic bomber is 34 years. Cutting funds 
for a new USAF bomber would seriously setback the progress of a 
replacement.
    The Air Force plans to drop 500 aircraft from its inventory in the 
near future. This is caused by retirement of airplanes, elimination of 
close combat missions, and delays in procuring replacements. The USAF 
is cutting F-15 and F-16 fighters by more than 200 aircraft before 
replacement F-35s are available.
    The majority of these cuts are from the Air National Guard and Air 
Force Reserve, affecting air sovereignty and surge capability.
    The ``Air Force Magazine'' reports that the USAF's end-strength is 
7-percent smaller than it was 7 years ago, yet the personnel costs for 
this smaller force have risen 16 percent. USAF would have to cut 47,000 
airmen out of its total force just to hold personnel spending at a 
constant rate between fiscal year 2011 and fiscal year 2017. The Air 
Force showed that a high percentage of the cuts would be taken out of 
its Reserve components.
    A4AD commends the House Armed Services Committee for delaying the 
proposed cuts to the Air Reserve Components until the Secretary of the 
Air Force provides supporting data, and details as to the affects of 
such cuts on National Security. A4AD hopes that Senate will provide 
similar direction to DOD.
    According to Pentagon reports, the proposed fiscal year 2013 budget 
calls for a 12-percent cut in aircraft programs. Aircraft procurement 
for the Air Force, Navy, and Marine Corps, and the Army decreased from 
$54.2 billion in fiscal year 2012 to a budget request of $47.6 billion 
in fiscal year 2013.
                               conclusion
    A4AD is a working group of military and veteran associations 
looking beyond personnel issues to the broader issues of National 
Defense. This testimony is an overview, and expanded data on 
information within this document can be provided upon request.
    Thank you for your ongoing support of the Nation, the Armed 
Services, and the fine young men and women who defend our country. 
Please contact us with any questions.

    Chairman Inouye. Thank you very much, Captain. I can assure 
you that we are doing our very best to avoid sequestration, 
because if that ever happens then this hearing is for naught, 
and in the process we may have to take some painful cuts, make 
some painful decisions. But I can assure you we'll do our best.
    Thank you very much.
    Now may I call upon Major General Andrew Davis.
STATEMENT OF MAJOR GENERAL ANDREW DAVIS, U.S. MARINE 
            CORPS (RETIRED), EXECUTIVE DIRECTOR, 
            RESERVE OFFICERS ASSOCIATION OF THE UNITED 
            STATES
    General Davis. Chairman Inouye and Senator Cochran: The 
Reserve Officers Association (ROA) thanks you for the 
invitation to appear and give testimony. I am retired Marine 
Major General Drew Davis, the Executive Director of Reserve 
Officers Association. I am speaking on behalf of the Reserve 
Enlisted Association (REA).
    ROA and REA are concerned about how the Congress and the 
Pentagon will meet the requirements set by the Budget Control 
Act of 2011 and the resulting cuts to the Defense budget. With 
the Pentagon looking to reduce the Defense budget, a risk is 
that the services will make disproportionate cuts to the 
Reserve component to protect active duty roles, missions, and 
end strengths.
    Army Vice Chief of Staff General Lloyd Austin told the 
Senate that with sequestration the Army would likely lose 
another 100,000 troops on top of the 72,000 cuts already 
planned. He said that one-half of these cuts would be in the 
National Guard and the Army Reserve.
    Cutting one reservist only provides 35 percent of the cost 
savings when compared to the reduction of an active duty 
rifleman, airman, or sailor.
    As they have shown after 10 years of war, Reserve and Guard 
perform their missions on par with active duty, at less 
overhead and infrastructure cost. They require no base housing 
and no medical care, and their retirement benefit is deferred 
to age 60. To ignore the cost efficiencies of the Reserve 
component is a disservice to the American taxpayer and violates 
the axioms of strategic planning for our Nation's defense.
    Additional further cost savings are found when civilian 
knowledge and proficiencies can be called upon at no training 
cost to the military.
    With the Pentagon and the Congress examining our Nation's 
security, it would be incorrect to discount the Reserve 
components' abilities and cost efficiencies. The Reserve 
strength of these part-time warriors provides a cost-saving 
solution and are an area to retain competencies for missions 
not directly embodied in the administration's new strategic 
guidance.
    For reversibility to succeed we will need a viable Reserve 
component. The Reserve and National Guard are no longer just a 
part-time strategic force, but contribute to our Nation's 
operational ability to defend itself, project power, and 
perform needed noncombat missions.
    Nearly 850,000 Reserve and Guard members have been 
activated and deployed since September 11, 2001, with more than 
275,000 having done so two times or more. By throwing away this 
required expertise and can-do attitude, we undermine the total 
force at the same time.
    Already, the Air Force and Navy are using their Reserve 
components as bill-payers. ROA and REA thank those members of 
this committee who delayed the recommended cuts by the Air 
Force of Reserve component aircraft and facilities. Experienced 
warriors are returning to their Reserve component training 
sites and are finding aging facilities and obsolete and battle-
damaged equipment. To remain robust and relevant, they need to 
have the same type of equipment or simulators for training that 
they used during overseas missions. If the Reserve component is 
simply put on the shelf, these volunteer young men and women 
will walk away.
    ROA and REA's written testimony includes lists of unfunded 
requirements that we hope this subcommittee will fund. But we 
also urge this subcommittee to specifically identify funding 
for both the services' Reserve forces and the National Guard 
exclusively to train and equip the Reserve components by 
providing funds for the National Guard and Reserve equipment 
appropriation. Just because the services did not submit a wish 
list does not mean there are no wishes or needs.

                           PREPARED STATEMENT

    In addition, we hope that the chairman reconsiders the 
military construction appropriations to the Reserve components, 
even though that subcommittee has marked up its bill. Our 
written testimony includes dollar recommendations.
    ROA and REA thank you again for your consideration of our 
testimony and we look forward to working with this committee.
    [The statement follows:]
            Prepared Statement of Major General Andrew Davis
    The Reserve Officers Association of the United States (ROA) is a 
professional association of commissioned and warrant officers of our 
Nation's seven uniformed services and their spouses. ROA was founded in 
1922 during the drawdown years following the end of World War I. It was 
formed as a permanent institution dedicated to national defense, with a 
goal to teach America about the dangers of unpreparedness. When 
chartered by the Congress in 1950, the act established the objective of 
ROA to: ``. . . support and promote the development and execution of a 
military policy for the United States that will provide adequate 
National Security''. The mission of ROA is to advocate strong Reserve 
components and national security and to support Reserve officers in 
their military and civilian lives.
    The Association's 58,000 members include Reserve and Guard 
soldiers, sailors, marines, airmen, and coastguardsmen, who frequently 
serve on active duty to meet critical needs of the uniformed services 
and their families. ROA's membership also includes officers from the 
U.S. Public Health Service and the National Oceanic and Atmospheric 
Administration, who often are first responders during national 
disasters and help prepare for homeland security. ROA is represented in 
each State with 54 departments plus departments in Latin America, the 
District of Columbia, Europe, the Far East, and Puerto Rico. Each 
department has several chapters throughout the State. ROA has more than 
450 chapters worldwide.
    ROA is a member of The Military Coalition, where it co-chairs the 
Guard and Reserve Committee. ROA is also a member of the National 
Military/Veterans Alliance. Overall, ROA works with 75 military, 
veterans, and family support organizations.
    The Reserve Enlisted Association (REA) is an advocate for the 
enlisted men and women of the United States Military Reserve Components 
in support of national security and homeland defense, with emphasis on 
the readiness, training, and quality-of-life issues affecting their 
welfare and that of their families and survivors. REA is the only joint 
reserve association representing enlisted reservists--all ranks from 
all five branches of the military.
                              introduction
    On behalf of the 1.1 million members of the Reserve and National 
Guard, the ROA and the REA thank the subcommittee for the opportunity 
to submit testimony on budgeting issues affecting serving members, 
retirees, their families, and survivors.
    The associations would like to further thank those Senators who 
have been working to postpone planned cuts to Reserve component (RC) 
aircraft by the Air Force. A proper analysis needs to be done before 
premature action is taken that could encumber our national security.
    The title 10 Reserve and National Guard are no longer just a part-
time strategic force but are an integral contributor to our Nation's 
operational ability to defend itself, assist other countries in 
maintaining global peace, and fight against overseas threats. They are 
an integrated part of the total force, yet remain a surge capability as 
well.
    At a time that the Pentagon and the Congress are examining our 
Nation's security, it would be incorrect to discount the RC abilities 
and cost efficiencies. Instead, these part-time warriors provide a 
cost-savings solution and an area to retain competencies for missions 
not directly embodied in the administration's new strategic policy, 
``Sustaining U.S. Global Leadership: Priorities for a 21st Century 
Defense''.
    ROA and REA are concerned that as the Pentagon strives to achieve 
the administration's goals for this new strategic policy, it is not 
seriously considering the available assets and cost efficiencies of the 
RC, and that it views the Reserve and National Guard as a bill payer 
instead.
    The Congress, starting with the leadership of this subcommittee, 
should insist on a methodical analysis of suggested reductions in 
missions and bases before budgeting for such changes. Haste creates 
mistakes.
           provide and execute an adequate national security
    The ROA is chartered by the Congress ``to support and promote the 
development and execution of a military policy for the United States 
that will provide adequate national security''.
    Requested action:
  --Hold congressional hearings on the new policy of ``Sustaining U.S. 
        Global Leadership: Priorities for the 21st Century Defense''.
  --Seek reconciliation to offset Defense sequestration budget cuts.
  --Study the impact of manpower cuts to Army and Marine Corps on 
        national security.
  --Avoid simple parity cuts of components without analyzing the best 
        Active-Reserve balance.
  --Maintain robust and versatile all-volunteer Armed Forces that can 
        accomplish its mission to defend the homeland and U.S. 
        interests overseas.
    ROA and REA question the current spending priorities that place 
more importance on the immediate future, rather than first doing a 
short- and long-term threat analysis. The result of such a budget-
centric policy could again lead to a hollow force whose readiness and 
effectiveness is degraded.
    ROA and REA share concerns about reductions in the Department of 
Defense, while proposed budgets for other Federal agencies increase. An 
example of this is the $13.4 billion budget increase for the Department 
of Veteran Affairs (VA). Of this, $10.6 billion is an increase in 
mandatory funding. When ROA asked the VA's Chief Financial Officer, 
Todd Grams, what offset is being made to allow this increase, his 
response was that no offset was needed as all but $1 billion were for 
existing programs.
    While some VA increase is obviously needed with the ever increasing 
number of service-connected veterans who are disabled, injured, or ill, 
every agency should be fiscally responsible to help balance the budget 
and reduce the ever-growing deficit.
    Serving members, retirees, families, and survivors are in effect 
being taxed by defense reductions to be the dollar offsets for other 
departments. Not only is this unfair, but by making cuts to national 
security, it puts future warriors at a greater risk.
                    reserve strength thru efficiency
    ``With roughly 1.4 [million] Active-Duty servicemembers, 1.2 
million Reserve-component members and likely future missions 
worldwide,'' Dennis McCarthy, then-Assistant Secretary of Defense for 
Reserve Affairs told ROA, ``the military will need to continue to rely 
on reserve strength.''
    The Reserve forces are no longer a part-time strategic force but 
are an integral contributor to our Nation's operational ability to 
defend our soil, assist other countries in maintaining global peace, 
and fight in overseas contingency operations, as demonstrated by the 
last 10 years of war. The Reserve and National Guard should not be 
arbitrarily cut from the defense strategy.
    Rather than be limited by historical thinking, and parochial 
protections, creative approaches should be explored. The RC needs to 
continue in an operational capacity because of cost efficiency and 
added value. The cost of the Reserve and National Guard should not be 
confused with their value, as their value to national defense is 
incalculable.
    The RCs remain a cost-efficient and valued force. It is just a 
small percentage of the total services budget:
  --Army Reserve: 7 percent of the Army budget; 18 percent of the 
        force.
  --Army National Guard: 14 percent of the Army budget; 32 percent of 
        the force.
  --Marine Forces Reserve: 6 percent of the United States Marine Corps 
        (USMC) budget; 16.5 percent of the force.
  --Navy Reserve: 7 percent of the United States Navy budget; 17 
        percent of the force.
  --Air Force Reserve: 4 percent of the Air Force (AF) budget, 14 
        percent of the force, and 20 percent of the capability.
  --Air National Guard: 6 percent of the AF budget and 21 percent of 
        the force.
    Value, on the other hand, is more intangible to calculate. The RC 
fills an ongoing need for a surge capability as an insurance policy 
against worse-case scenario's. Reserve and National Guard members give 
the armed forces access to civilian skills that would prove too 
expensive for the uniformed services to train and maintain. With less 
than 1 percent of the U.S. population serving in uniform, the RC also 
provides a critical link to American communities.
    The Reserve and National Guard should also be viewed as a 
repository for missions and equipment that aren't addressed in the 
administration's new strategic policy. They can sustain special 
capabilities not normally needed in peacetime.
    Part of the President's budget includes planned end-strength 
reductions for both the Army and Marine Corps, by 80,000 and 20,000, 
respectively. It should be remembered that individuals cannot be 
brought quickly on to active duty on a temporary basis, as it is an 
accumulation of experience and training that is acquired over years 
that becomes an asset for the military. The Reserve is also a 
repository for these skills.
    To maintain a strong, relevant, and responsive Reserve force, the 
Nation must commit the resources necessary to do so. Reserve strength 
is predicated on assuring the necessary resources--funding for 
personnel and training, equipment reconstitution, and horizontal 
fielding of new technology to the RC, coupled with defining roles and 
missions to achieve a strategic/operational Reserve balance.
           national guard and reserve equipment appropriation
    Once a strategic force, the RCs are now also being employed as an 
operational asset; stressing an ever greater need for procurement 
flexibility as provided by the National Guard and Reserve Equipment 
Appropriations (NGREA). Much-needed items not funded by the respective 
service budget are frequently purchased through NGREA. In some cases, 
it is used to procure unit equipment to match a state of modernizations 
that aligns with the battlefield.
    With the active component (AC) controlling procurement, a risk 
exists where Defense planners may be tempted to put the National Guard 
and title 10 Reserve on the shelf, by providing them ``hand me down'' 
outmoded equipment and by underfunding training. NGREA gives the 
Reserve chiefs some funding control.
    The Reserve and National Guard are faced with the ongoing 
challenges of how to replace worn out equipment, equipment lost due to 
combat operations, legacy equipment that is becoming irrelevant or 
obsolete, and, in general, replacing what is lost in combat, or aged 
through the abnormal wear and tear of deployment. The RCs benefit 
greatly from a National Military Resource Strategy that includes an 
NGREA.
    The Congress has provided funding for the NGREA for more than 30 
years. At times, this funding has made the difference in a unit's 
abilities to carry out vital missions.
    ROA thanks the Congress for approving $1 billion for NGREA for 
fiscal year 2012, but more dollars continue to be needed. ROA urges the 
Congress to appropriate into NGREA an amount that is proportional to 
the missions being performed, which will enable the RC to meet its 
readiness requirements.
                         military construction
    ROA and REA attempted to submit testimony to an earlier hearing on 
military construction by the Subcommittee on Military Construction and 
Veterans Affairs, and other related agencies, but the associations were 
told to submit this during the public witness hearing.
    Unfortunately, the Military Construction and Veterans Affairs, and 
other related agencies marked up their portion of the Senate version of 
the appropriations bill on May 15. It is hoped that the Chairman will 
include some of the following information in his Chairman's markup.
    Requested Action.--ROA and REA urge the Congress to continue 
appropriating funds for Military Construction budgets for the Reserve 
and National Guard.
    Military Construction funding has not generally kept pace with 
essential RC facility modernization, conversion, and replacement 
requirements. In fiscal year 2012, Military Construction for the RC was 
appropriated $1.2 billion, which was $223 million less then the fiscal 
year 2011 enacted level. The RCs indicated they need a higher level of 
Military Construction funding in fiscal year 2013.
    The RC's mission has changed from being primarily strategic 
reserves and ``weekend warriors'' to being an operational reserve. The 
RC now has a required high level of mission readiness which needs to be 
supported by functional training and facilities for current and future 
needs. They must train troops, maintain facilities and prepare troops 
postdeployments to return to civilian life. Additionally, families are 
supported throughout the force regeneration cycle phases. All of these 
initiatives require maintaining, renovating, and modernizing 
facilities.
    As morale and combat readiness can be significantly affected by 
inadequate facilities, it is prudent to sustain fiscal year 2011's 
level of improvement (except the Air Force) in funding and allocation 
of projects in fiscal year 2013.
    Five-year project backlog:
      Army National Guard.--Approximately $1.8 billion.
      Air National Guard.--Approximately $660 million.
      Army Reserve.--Approximately $1 billion.
      Air Force Reserves.--Approximately $170 million.
      Navy and Marine Corps.--Approximately $240 million.
    In 2011, the U.S. Senate found that National Guard Army Reserve 
facilities average more than 40 years in age. Other RCs suffer similar 
challenges with aging infrastructure. Military Construction requests 
fund the Reserve's most critical facilities and support total force 
transformation. The Reserve and National Guard will be realigning its 
forces to operational missions to provide increased combat service, 
while the active-duty end strengths are being reduced.
                base closure and realignment commission
    The President's budget recommends two more rounds of base closures. 
ROA and REA do not support such a base closure and realignment (BRAC) 
recommendation. If any action is taken, the emphasis should be placed 
on realignment rather than closure.
    The association concerns are:
  --BRAC savings are faux savings as these savings are beyond the 
        congressional budget accounting cycle; with a lot of additional 
        dollar expenses front loaded into the Defense budget for 
        infrastructure improvements to support transferred personnel.
  --Too much base reduction eliminates facilities needed to support 
        surge capability, some surplus is good.
  --Reserve and National Guard facilities should not be included, as 
        was the case in BRAC 2005 when RC facilities were closed to 
        reduce the risk of closure to active duty facilities.
                         association priorities
    Calendar year 2011 legislative priorities are:
  --Recapitalize the total force to include fully funding equipment and 
        training for the National Guard and Reserves.
  --Ensure that the Reserve and National Guard continue in a key 
        national defense role, both at home and abroad.
  --Provide adequate resources and authorities to support the current 
        recruiting and retention requirements of the Reserves and 
        National Guard.
  --Support citizen warriors, families and survivors.
Issues To Help Fund, Equip, and Train
    Advocate for adequate funding to maintain national defense during 
times of war and peace.
    Regenerate the RC with field compatible equipment.
    Improve and implement adequate tracking processes on National Guard 
and Reserve appropriations and borrowed RC equipment needing to be 
returned or replaced.
    Fully fund the military pay appropriation to guarantee a minimum of 
48 drills and 2 weeks of training.
    Sustain authorization and appropriation to NGREA to permit 
flexibility for Reserve chiefs in support of mission and readiness 
needs.
    Optimize funding for additional training, preparation and 
operational support.
    Keep Active and Reserve personnel and operation and maintenance 
funding separate.
Issues To Assist Recruiting and Retention
    Support continued incentives for affiliation, re-enlistment, 
retention, and continuation in the RC.
            Pay and Compensation
    Simplify the Reserve duty order system without compromising drill 
compensation.
    Offer professional pay for RC medical professionals, consistent 
with the AC's pay.
    Eliminate the 1/30th rule for Aviation Career Incentive Pay, Career 
Enlisted Flyers Incentive Pay, Diving Special Duty Pay, and Hazardous 
Duty Incentive Pay.
            Education
    Continue funding the GI bill for the 21st century.
            Healthcare
    Provide medical and dental readiness through subsidized preventive 
healthcare.
    Extend military coverage for restorative dental care for up to 90 
days following deployment.
    Provide funding for transitional TRICARE Reserve Select healthcare 
for those beneficiaries being released from drill status.
            Spouse Support
    Repeal the Survivor Benefits Plan--Dependency Indemnity Clause 
offset.
             national guard and reserve equipment accounts
    It is important to maintain separate equipment and personnel 
accounts to allow Reserve component chiefs the ability to direct 
dollars to vital needs.
    Key issues facing the Armed Forces concerning equipment:
  --Procuring new equipment for all U.S. forces.
  --Modernize by upgrading the equipment already in the inventory.
  --Replacing the equipment deployed from the homeland to the war.
  --Making sure new and renewed equipment gets into the right hands, 
        including the RC.
    Reserve component equipping sources:
  --Procurement.
  --Cascading of equipment from AC.
  --Cross-leveling.
  --Recapitalization and overhaul of legacy (old) equipment.
  --Congressional add-ons.
  --NGREA.
  --Supplemental appropriation, such as overseas contingency operations 
        funding.
End Strength
    The ROA would like to place a moratorium on any potential 
reductions to the National Guard and Reserve manning levels. Manpower 
numbers need to include not only deployable assets but individuals in 
the accession pipeline. ROA urges this subcommittee to fund the support 
of:
  --Army National Guard of the United States, 358,200.
  --Army Reserve, 206,000.
  --Navy Reserve, 66,200.
  --Marine Corps Reserve, 39,600.
  --Air National Guard of the United States, 106,700.
  --Air Force Reserve, 71,400.
  --Coast Guard Reserve, 10,000.
    In a time of war and force rebalancing, it is wrong to make cuts to 
the end strength of the RCs. We need to pause to permit force planning 
and strategy to catch-up with budget reductions.
                  unfunded reserve component equipment
    ROA and REA agree with the Senate leadership that the Congress 
should be provided with a unfunded list from both Active and Reserve 
components. The below charts shows that the ground forces have the 
greatest backlog of unfunded equipment.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Chart 1.--Items of unfunded equipment reported in the National Guard 
 and Reserve Equipment Report published by the Office of the Assistant 
Secretary of Defense for Reserve Affairs. Fiscal year 2013 could be the 
  last year of publication if the Secretary of Defense insists on not 
                        further unfunded lists.

              army reserve components equipment priorities
Army Reserve Unfunded Requirements
    While the Army Reserve (USAR) has 91 percent of its equipment on-
hand, only 67 percent of it is modernized, a decline of 2 percent from 
last year. More new production and recapitalized equipment is needed to 
close the gap with the active and the Army Guard.
    An enduring operational force cannot be fully effective if it is 
underfunded. Theater-provided equipment has allowed the USAR to provide 
support during mobilization. The USAR rebuilt 70 percent of its 5-ton 
cargo trucks and 83 percent of its semitrailer tankers to meet its 
mission.
    Top USAR equipping challenges of an operational Reserve are:
  --Modernize and sustain equipment in a resource-constrained 
        environment.
  --Equip USAR as an operational force capable of overseas, homeland 
        defense, and natural disasters.
  --Modernize the tactical wheeled vehicle (TWV) fleet.
  --Achieve full transparency for equipment procurement and 
        distribution.
  --Expand the use of simulators to mitigate equipment shortfalls and 
        gain training efficiencies.

                         USAR UNFUNDED EQUIPMENT
                        [In millions of dollars]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
Force protection:
    Alarm Biological Agent [BIDS] M31E2, 63 required......         $69
    Armored Security Vehicle, 27 required.................          21
Combat logistics and mobility:
    Loader Skid Steer: Type II, 40 required...............           1.2
    Rough Terrain Contain Handler, 39 required............          28.9
Ground vehicles:
    Truck Cargo, 5-ton, 771 required......................         154
    Truck Dump, 10-ton, 213 required......................          42.6
    Truck, Expandable Van, 141 required...................          28.2
Soldier systems:
    Medium Weapon Thermal Sights [MWTS]AN/PAS-13(V)2,               28.2
     1,600 required.......................................
    Thermal Sights AN/PAS-13B9V)1, 1,500, required........          25.5
    Javelin Command Launch Unit, 50 required..............          11.5
    Helicopter, Utility, UH-60L, 8 required...............          38.4
------------------------------------------------------------------------

Simulators
    The use of simulations and simulators minimizes turbulence for USAR 
soldiers and their families caused by training demands during the first 
2 years of the Army Force Generation process by enabling individuals 
and units to train at their home station and during exercises in a safe 
environment without the increased wear and tear on equipment.
Army National Guard Unfunded Equipment Requirements
    The on-hand percentage for all equipment is dropped from 92 percent 
to 87 percent, and this does not include requirements for training. 
Part of this requirement is dual use, with critical items of equipment 
being needed for homeland missions with critical use inventory at 89 
percent.
    Top Army National Guard equipping challenges are:
  --Equip units for pre-mobilization training and deployment.
  --Equip units for their homeland missions.
  --Achieve full transparency for equipment procurement and 
        distribution.
  --Modernize ARNG TWV fleet.
  --Improve interoperability with AC forces.
  --Modernize the ARNG helicopter fleet.

                         ARNG UNFUNDED EQUIPMENT
                        [In millions of dollars]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
Strike:
    Radar Sets AN/TPQ -36(V)10 and -37(V)9, 10/9 required.        $231
Field support:
    Containerized kitchen, 69 required....................          15.5
    Bradley Fighting Vehicle, Infantry, M2A3, 45 required.         198
    Bradley Fighting Vehicle, Cavalry, M3A3, 29 required..         116.5
    Generator sets, 659 required..........................           8.2
Air defense:
    Radar set: Sentinel AN/MPQ-64.........................          66.5
Aviation:
    Helicopter, Attack AH-64D, 16 required................         402
    Helicopter, Utility, UH-60L, 55 required..............         267
    Light Utility Helicopter, UH-72A, 34 required.........         132.6
    Helicopter, Cargo CH-47F, 19 required.................         570
Medical field system:
    MES Combat Medic, 463 required........................           1.6
    Medical Communications for Combat Casualty Care [MC4]            4.6
     Program..............................................
------------------------------------------------------------------------

                marine corps reserve unfunded priorities
    Marine Forces Reserve (MFR) has two primary equipping priorities--
outfitting individuals who are preparing to deploy and sufficiently 
equipping units to conduct home station training. Individuals receive 
100 percent of the necessary war fighting equipment. MFR units are 
equipped to a level identified by the Training Allowance (TA). MFR 
units are equipped with the same equipment that is utilized by the AC, 
but in quantities tailored to fit reserve training center needs. It is 
imperative that MFR units train with the same equipment they will 
utilize while deployed.
    Top MFR equipping challenges are:
  --Implementing Results of the Strategic Review from the Force 
        Structure Review Group; 40 percent of USMCR units may be 
        impacted by this review.
  --Transitioning the KC-130 airframe.
  --Providing units the ``right amount'' of equipment to effectively 
        train in a pre-activation environment.
  --Achieving USMCR goal that the Reserve TA contains the same 
        equipment as the AC.
  --Resetting and modernizing the MFR to prepare for future challenges.

                        USMCR UNFUNDED EQUIPMENT
                        [In millions of dollars]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
Aviation:
    KC-130J Super Hercules Aircraft Tankers, 2 required...        $184.6
    UH-1Y Helicopter, Utility, 6 required.................         184.8
    MV-22 B Tiltrotor Osprey, 2 required..................         167.5
USMCR Simulators:
    KC-130J Weapons System Trainer, 2 required............          50
    UH-1 Trainer, 1 required..............................          16.5
Ground Transport:
    Truck cargo, 22.5 ton, LVSR, 8 required...............           3.4
    Lighted Armed Vehicle, Command/Control, 5 required....           3
    Light Armored Vehicles--LAV-25, procure 1 remaining...           3.2
------------------------------------------------------------------------

              air reserve components equipment priorities
    The Air Reserve Component (ARC) is made up of both the Air Force 
Reserve (AFR) and the Air National Guard. Over the last 10 years they 
have met all tasking, and were not asked to perform at full capacity.
    ARC alone can cover:
  --75 percent of Combat Air Force tasking.
  --75 percent of Mobility Air Force tasking.
  --50 percent of Aerial Refueling tasking.
Air Force Reserve Unfunded Requirements
    AFR while fully integrated with the active for air, space, and 
cyberspace, has higher sustainment needs across its fleet. Sustaining 
operations on five continents, the resulting wear and tear weighs 
heavily on aging equipment.
    AFR has some specialized capabilities not found in regular AF 
units. These include support of counternarcotics efforts, weather 
reconnaissance including hurricane penetration, aeromedical evacuation, 
aerial spray capabilities, and forest fire suppression.
    Yet AF proposes cuts from the AFR. Even though the AF announced 
that the AFR will be reduced by 900 personnel in fiscal year 2013, more 
than 3,000 jobs will be realigned.
    There will be a risk of further reductions at some locations. There 
are 2,093 Reserve and 734 full-time staff (FTS) reductions shown in AF 
announcements at six AFR flying locations. These include:
  ---563 Lackland, Texas (-385 reserve/-178 FTS in C-5s);
  ---580 Barksdale, Louisiana (-409/-171 closing AFR A-10 combat unit 
        recently returned from Afghan);
  ---53 Homestead, Florida (-40/-13 reducing RC F-16s);
  ---1,448 Pittsburgh, Pennsylvania (-1,122/-326 closing Wing and 
        Base);
  ---53 Fort Worth, Texas (-40/-13 reducing RC F-16s); and
  ---130 Youngstown, Ohio (-97/-33 reducing C-130s).
    The closure of Air Reserve Station Pittsburg challenges the 
congressional mandate and authority of base closure with more than 300 
Federal employees.
    Next in fiscal year 2014 and out, the plan to close the entire C-
130 wing at Maxwell, Alabama; the entire C-130 wing/base at 
Minneapolis-St. Paul, Minneapolis; a C-130 flying squadron at Keesler, 
Mississippi; and the C-130 wing/base at Niagara, New York.
    These cuts will affect the surge and reversibility capabilities of 
the AF. In these proposed reductions, the AF does not seem to 
understand the importance of population/reserve demographics to cost-
effective Reserve unit locations. ROA and REA hope that this committee 
supports actions by the House to delay and proposed reductions for a 
year to properly review these recommendations.
    Top AFR equipping challenges:
  --C-5 Maintenance.
      Defensive Systems.--LAIRCM, ADS, and MWS: equip aircraft lacking 
        adequate infrared missile protection for combat operations.
      Data Link and Secure Communications.--Data link network 
        supporting image/video, threat updates, and SLOS/BLOS 
        communications for combat missions.

                           UNFUNDED EQUIPMENT
                        [In millions of dollars]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
Aviation:
    Large aircraft infrared countermeasures...............          $4
    F-16 Systems, CDU, Combined AIFF With Mode 5/S, Sim              2
     Trainer Upgrade......................................
    C-17A upgrades........................................          10
    C-130 system upgrades.................................          13.7
    KC-135 modifications..................................           3.8
Telecommunication:
    National Airspace System..............................           1.3
    Air and Space Operations Center.......................           2
Ground transportation:
    Medium tactical vehicles..............................           2.6
------------------------------------------------------------------------

Air National Guard Unfunded Equipment Requirements
    The immediate threat the Air National Guard (ANG) was the 
threatened reduction of squadrons and aircraft proposed by the Air 
Force as cost saving measures. This included the reduction of 5,100 ANG 
billets. ROA and REA hope that this committee support actions by the 
House to delay and proposed reductions for a year to properly review 
these recommendations.


                        PROPOSED CUTS TO THE ANG
------------------------------------------------------------------------
 
---------------------------------
C-130 H intratheater airlift....  21 aircraft.......  Provides 40
                                                       percent of the
                                                       total fleet.
C-5A heavy intertheater airlift.  13 aircraft.......  Provides 25
                                                       percent of
                                                       outsize cargo
                                                       airlift.
C-27J short-to-medium range       15 aircraft.......  Provides 100
 tactical airlift.                                     percent of the
                                                       total fleet.
A-10C ground support fighter....  63 aircraft.......  Performed 66
                                                       percent of the
                                                       missions.
F-16 C Fighter..................  20 aircraft.......  Since 2003, 3
                                                       percent of CentAF
                                                       taskings.
C-21 A operational support......  24 aircraft.......  Provides 40
                                                       percent of the AF
                                                       fleet.
------------------------------------------------------------------------

    Given adequate equipment and training, the ANG will continue to 
fulfill its total force obligations. On-hand equipment is just under 91 
percent of requirements with dual use equipment being 88 percent of ANG 
assets, but some major items of equipment are nearing 30 years of use. 
Operations tempo has been high and prolonged, requiring equipment to be 
modernized and recapitalized concurrently.
    ANG equipping challenges:
  --Modernize aging aircraft and other weapons systems for both dual-
        mission and combat deployments.
  --De-conflict dual use equipment when required for both Federal and 
        domestic missions.
  --Acquire equipment to satisfy requirements for domestic operations 
        in each Emergency Support Function (ESF).
  --Define an Air Force validation process for both Federal and State 
        domestic response needs.
  --Program aging ANG F-16 aircraft for the Service Life Extension 
        Program (SLEP).
    An ANG wing contains not only aircraft but fire trucks, forklifts, 
portable light carts, emergency medical equipment including ambulances, 
air traffic control equipment, explosives ordinance equipment, etc., as 
well as well-trained experts--valuable in response to civil 
emergencies.

                           UNFUNDED EQUIPMENT
                        [In millions of dollars]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
Command and Control:
    Control and reporting center systems..................          $6.6
    Air Defense Tactical Satellite Communications.........           1.2
Aviation:
    C-17 large aircraft infrared countermeasures and                36.4
     detection............................................
    C-38 replacement aircraft.............................          62
    C-40C Procurement.....................................         103
    C-130 H/J Advanced LAIRCM/Missile Warning System......          58.2
    F-15 Advance Digital Warning/Radio Frequency CSM......          85.7
    F-16 advanced targeting pod upgrades..................          83.5
Dual Mission: Rapidly deployable RPA capability...........          28.5
------------------------------------------------------------------------

                    navy reserve unfunded priorities
    Active Reserve Integration (ARI) aligns active and Reserve 
component units to achieve unity of command. Equipment used is the RC 
is often experiencing service life of more than 20 years for many 
platforms, adding sustainability and interoperability challenges, 
leading to training and deployment challenges for mobilization ready 
individuals and units. The United States Navy Reserve (USNR) has been 
the primary provider of Individual Augmentees for the overseas 
contingency operations filling Army and Air Force assignments.
    Expeditionary missions include security forces, construction 
battalions, cargo handling, and warehouse and fuel operations. The USNR 
contributes 1/3 of the personnel in support of Special Warfare 
operations. A new mission will be Maritime Civil Affairs which will be 
doubling the number of units in the near future.
    Top USNR equipping challenges are:
  --Aircraft procurement (C-40A, P-8, KC-130J, and C-37B).
  --Expeditionary equipment procurement (MESF, EOD, NCF, NAVELSG, 
        MCAST, EXPCOMBATCAM, and NEIC).
  --Navy special warfare equipment.

                         USNR UNFUNDED EQUIPMENT
                        [In millions of dollars]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
Aviation:
    C-40 A Combo Cargo/Passenger Airlift, 4 required......        $340
    KC-130J Super Hercules Aircraft Tankers, 2 required...         162
    C-37 B (Gulf Stream) Aircraft, 1 required.............          64
    H-53 E Sea Dragon, Mine Warfare.......................          24
    F-5F Adversarial Aircraft Modification................           4.3
USNR Expeditionary:
    Maritime Civil Affairs Team, Equipment Allowance, 3              1
     required.............................................
    Tactical Vehicles.....................................          11.8
    Civil Engineering Support Equipment...................           1.2
    Materials Handling Equipment..........................           1.2
------------------------------------------------------------------------


                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                                                Percentage of
  Reserve  component        Requirements             On-hand                Shortage             required $$
----------------------------------------------------------------------------------------------------------------
               ARNG              105,594.3               64,867.8               40,726.5                  38.6
----------------------------------------------------------------------------------------------------------------
                 AR               27,283.6               16,634.9               10,648.7                  39.0
----------------------------------------------------------------------------------------------------------------
                USMCR              6,243.6                5,812.8                  430.8                   6.9
----------------------------------------------------------------------------------------------------------------
               USNR                9,977.4                8,978.2                  999.2                  10.0
----------------------------------------------------------------------------------------------------------------
                ANG               53,620.8               50,778.4                2,842.4                   5.3
----------------------------------------------------------------------------------------------------------------
                AFR               26,900.7               24,783.3                2,207.4                   8.2
----------------------------------------------------------------------------------------------------------------
                 USCGR                51.1                   26.1                   25.1                  49.0
----------------------------------------------------------------------------------------------------------------
              Total              229,761.6              171,881.5               57,880.1                  25.2
----------------------------------------------------------------------------------------------------------------

Chart 2.--``Beginning Fiscal Year 2013 Reserve Component Equipment $$$ 
   Shortages'' published by the Office of the Assistant Secretary of 
                      Defense for Reserve Affairs.

    The Marine Corps Reserve (USMCR) reflects a 6.9 percent shortage of 
its major items; however, the USMCR is equipped to a home station 
training allowance only.
                               conclusion
    The operations in Iraq and Afghanistan have demonstrated the 
contributions to be made by the Reserve and National Guard. It the 
future they will continue to play role in missions to maintain national 
security.
    This country cannot afford a strategy that writes them out of the 
picture. It makes sense to fully fund the most cost efficient 
components of the total force, its Reserve components.
    The ROA, again, would like to thank the subcommittee for the 
opportunity to present our testimony. We are looking forward to working 
with you and supporting your efforts in any way that we can.

    Chairman Inouye. General, I can assure you that this 
subcommittee is well aware of the important role played by 
Reserve and Guard forces in Afghanistan and Iraq, and we will 
make certain that a study be carried out on base realignment 
and closure (BRAC) recommendations and equipment. Those are 
important items for this subcommittee.
    Thank you very much, Sir.
    General Davis. Thank you.
    Chairman Inouye. Our next witness is Ms. Karen Goraleski, 
representing the American Society of Tropical Medicine and 
Hygiene.
STATEMENT OF KAREN GORALESKI, EXECUTIVE DIRECTOR, 
            AMERICAN SOCIETY OF TROPICAL MEDICINE AND 
            HYGIENE
    Ms. Goraleski. Thank you, Mr. Chairman. Mr. Chairman and 
Ranking Member Cochran: My name is Karen Goraleski. I am the 
executive director of the American Society of Tropical Medicine 
and Hygiene (ASTMH). Thank you for the privilege of testifying 
before you today. I am here on behalf of our members, who are 
the world's leading experts in the research and treatment of 
tropical diseases, to respectfully request that the 
subcommittee expand funding for the Department of Defense's 
(DOD) efforts to develop new preventions, treatments, vaccines, 
and diagnostics that will protect our service men and women 
from infectious diseases in areas of the world where many serve 
now or may serve in the future.
    ASTMH understands the rich return on this DOD investment. 
We are concerned that without the sustained resources needed to 
address health risks to our troops, we will also inadvertently 
hamper military mission success.
    As a Nation, we must Americans' tax dollars wisely, and 
this particular DOD investment has legs. First, our military 
benefits, but so do Americans that travel for business, for 
vacation, for school and faith-based volunteer work. Every gain 
also helps reduce premature death and disability of those 
living in the developing world.
    Infectious disease is the ever-present enemy. Our 
investments in new and effective tools must have a focus on 
today as well as tomorrow. The drugs and preventive measures 
used in earlier conflicts are quickly becoming resistant and we 
can always bank on Mother Nature to deliver new diseases.
    I want to highlight the smart and cost-effective work being 
done at two facilities within the DOD, Walter Reed Army 
Institute of Research (WRAIR), and the Naval Medical Research 
Center (NMRC).
    I will begin with WRAIR, which effectively leverages its 
modest infectious disease research budget through domestic and 
international partnerships, public and private, and they are 
continually seeking out new ones. WRAIR's portfolio includes 
malaria vaccine and drug development, malaria vector control, 
drug development for leishmaniasis, a tropical disease 
transmitted by sand flies that is prevalent in Africa, West 
Asia, and the Middle East, enteric disease research, and HIV/
AIDS research and treatment.
    WRAIR's success relies heavily on collaborations, as seen 
in the development of RTS,S with the malaria vaccine initiative 
and GlaxoSmithKline. Last fall, this large-scale phase 3 trial 
showed an approximate 50-percent efficacy in decreasing 
clinical episodes of malaria in African children. This is news 
we rightfully celebrate for children and parents living in 
malaria endemic countries. But for our military, right now 
RTS,S is not suitable as a vaccine for adults who have never 
experienced malaria as a child. This leaves us with more work 
to do in order to protect our troops, but it is work that is 
doable.
    The NMRC works both in the United States and in its 
overseas medical research laboratories located in Peru, Egypt, 
and Cambodia. These labs offer outstanding scientific 
collaborations and create deep and lasting relationships in 
country. The labs also offer research and education 
opportunities that are filled by local citizens, who then in 
turn build in-country capacity.
    Recently, Navy researchers announced the start of clinical 
trials for a dengue fever vaccine to protect our troops from 
this sometimes deadly virus found in tropical regions, and even 
recently found in the United States. This vaccine would be a 
game-changer in tropical medicine. No cure exists and right now 
treatment is only symptom management.

                           PREPARED STATEMENT

    In closing, our military must be ready at any time to 
embark on a new mission, to a new location, which can mean 
exposure to new and emerging health threats. This and the 
vexing problem of drug resistance serve as stark reminders as 
to why our investments cannot stop and where additional 
investments are needed.
    Thank you for this opportunity. ASTMH stands ready to serve 
as an expert resource to you. We are in this together.
    [The statement follows:]
 Prepared Statement of Karen Goraleski, Executive Director of American 
                Society of Tropical Medicine and Hygiene
    The American Society of Tropical Medicine and Hygiene (ASTMH)--the 
principal professional membership organization representing, educating, 
and supporting scientists, physicians, clinicians, researchers, 
epidemiologists, and other health professionals dedicated to the 
prevention and control of tropical diseases--appreciates the 
opportunity to submit written testimony to the Senate Defense 
Appropriations subcommittee.
    ASTMH respectfully requests that the subcommittee expand funding 
for the Department of Defense's (DOD) longstanding efforts to develop 
new and more effective drugs, vaccines, and diagnostics designed to 
protect servicemembers from infectious diseases including funding for 
the important research efforts at the Walter Reed Army Institute of 
Research (WRAIR) and the U.S. Naval Medical Research Center (NMRC).
department of defense research protects the u.s. military and civilians 
                    and contributes to global health
    A core component of ASTMH membership supports the work of the DOD, 
and we understand first-hand the important role that research and 
development play in protecting our service men and women deployed 
abroad from the threat of infectious disease, as well as contributing 
significantly to civilian medical applications. Specifically, DOD 
infectious disease research contributes to the protection of:
  --U.S. troops that are currently deployed or likely to be deployed in 
        many tropical areas;
  --The safety of U.S. citizens, working, traveling, participating in 
        volunteer work, and vacationing overseas who are impacted by 
        these same tropical diseases;
  --Our country from agents responsible for these diseases, which could 
        be introduced and become established in the United States (as 
        was the case with West Nile virus), or might even be 
        weaponized; and
  --Citizens around the world who suffer disability and death from many 
        of these same tropical diseases.
                 walter reed army institute of research
    A large part of DOD investments in infectious disease research and 
development are facilitated through WRAIR. Between 2007 and 2010, 
WRAIR's Center for Infectious Disease Research performed more than $260 
million of research for the DOD and had an additional $140 million in 
collaborative research work with external partner organizations. WRAIR 
has advanced their work through critical public-private partnerships 
and collaborative efforts with entities such as:
  --GlaxoSmithKline and Sanofi;
  --Nonprofit organizations such as the Bill & Melinda Gates 
        Foundation, Medicines for Malaria Venture, and PATH; and
  --Other U.S. agencies including Centers for Disease Control and 
        Prevention, United States Agency for International Development, 
        and National Institutes of Health.
    WRAIR invests in:
  --malaria vaccine and drug development;
  --drug development for leishmaniasis;
  --enteric disease research;
  --vector control for malaria and other vector-borne infections; and
  --HIV/AIDS research and treatment.
    One example of WRAIR's successful work and collaboration includes 
the development of several significant and promising vaccine 
candidates, including RTS,S, developed with PATH Malaria Vaccine 
Initiative and GlaxoSmithKline, which recently underwent the first-ever 
large-scale Phase 3 trial for a malaria vaccine. In trials last year, 
the vaccine candidate decreases clinical episodes of malaria in 
children in Africa by approximately 50 percent. While we celebrate this 
news and the promise that it brings for children living in malaria-
endemic countries, RTS,S is not suitable as a vaccine for adults who 
have never experienced malaria during childhood, such as our military 
personnel. As a result, there remains a significant need for continued 
research funding in order to achieve more robust results.
    WRAIR is headquartered in Silver Spring, Maryland, and has research 
laboratories around the globe including:
  --a public health reference laboratory in The Republic of Georgia;
  --dengue fever clinical trials in the Philippines;
  --malaria clinical studies and surveillance in Kenya;
  --military entomology network field sites in Thailand, the 
        Philippines, Nepal, Cambodia, Korea, Kenya, Ethiopia, Egypt, 
        Libya, Ghana, Liberia, and Peru; and
  --several other coordination efforts with national health ministries 
        and defense units.
    This diversity in research capacity puts WRAIR in a unique 
leadership position in research and development for tropical diseases--
research that aids our military men and women as well as people living 
in disease-endemic countries.
              united states naval medical research center
    NMRC and its affiliated labs conduct basic and applied research in 
infectious disease. The Infectious Disease Directorate (IDD) of NMRC 
focuses on malaria, enteric diseases, and viral rickettsial diseases. 
IDD has an annual budget exceeding $10 million and conducts research on 
infectious diseases that are considered to be a significant threat to 
our deployed sailors, soldiers, airmen, and marines.
    The primary objective of the Navy Malaria Program is to develop a 
vaccine that kills the parasite during the first few days of 
development in the liver, before it breaks into the blood. The program 
is also investigating vaccines that would target blood-stage infection 
to limit the severity of symptoms associated with this stage. Both of 
these vaccines could alleviate much of the suffering caused by this 
parasite in tropical areas.
    The research is enhanced by IDD's close working relationship with 
the Navy's three overseas medical research laboratories located in 
Peru, Egypt, and Indonesia. These laboratories, like those of WRAIR, 
afford diplomatic advancement through the close working relationships 
they have developed with governments and citizens of those countries. 
ASTMH has heard first-hand accounts of the successful diplomatic impact 
that both the WRAIR and NMRC overseas labs have on the communities 
where they are guests. Many of the researchers and staff who work in 
the labs are local to the area and speak highly of the role of the U.S. 
military labs.
             tropical medicine and u.s. military operations
    The term ``tropical medicine'' refers to the wide-ranging clinical, 
research, and educational efforts of physicians, scientists, and public 
health officials with a focus on the diagnosis, mitigation, prevention, 
and treatment of diseases prevalent in the areas of the world with a 
tropical climate. Most tropical diseases are located in sub-Saharan 
Africa, parts of Asia (including the Indian subcontinent), Central and 
South America, and parts of the Middle East. These are the same areas 
military troops are often deployed. Since many of the world's 
developing nations and economies are located in these areas, tropical 
medicine tends to focus on diseases that impact the world's most 
impoverished individuals.
  case studies--the importance of department of defense's infectious 
                        disease research efforts
    Malaria has resulted in the loss of more person-days among U.S. 
military personnel than to bullets during every military campaign 
fought in malaria-endemic regions during the 20th century.
    Because servicemembers deployed by the U.S. military comprise a 
majority of the healthy adults traveling each year to malarial regions 
on behalf of the U.S. Government, the U.S. military has understandably 
taken a primary role in the development of anti-malarial drugs, and 
nearly all of the most effective and widely used anti-malarials were 
developed in part by U.S. military researchers. Drugs that now continue 
to save civilians throughout the world were originally developed by the 
U.S. military to protect troops serving in tropical regions during 
World War II, the Korean War, and the Vietnam War.
    In recent years the broader international community has increased 
its efforts to reduce the impact of malaria in the developing world, 
particularly by reducing childhood malaria mortality, and the U.S. 
military plays an important role in this broad partnership. 
Nonetheless, military malaria researchers at NMRC and WRAIR are working 
practically alone in the area most directly related to U.S. national 
security: drugs and vaccines designed to protect or treat healthy 
adults with no developed resistance to malaria who travel to malaria-
endemic regions. NMRC and WRAIR are working on the development of a 
malaria vaccine and on malaria diagnostics and other drugs to treat 
malaria--an especially essential investment as current malaria drugs 
face their first signs of drug resistance.
    The latest generation of malaria medicines is increasingly facing 
drug-resistance. The most deadly variant of malaria--Plasmodium 
falciparum--is believed by the World Health Organization (WHO) to have 
become resistant to ``nearly all anti-malarials in current use''. The 
malaria parasite demonstrates a notorious and consistent ability to 
quickly develop resistance to new drugs. Malaria parasites in Southeast 
Asia have already shown resistance to the most recently developed anti-
malarial drug, artemisin.
    Developing new antimalarials as quickly as the parasite becomes 
resistant to existing ones is an extraordinary challenge, and one that 
requires significant resources before this becomes widespread, 
especially as United States military operations in malaria-endemic 
countries of Africa and Asia increase. Without new anti-malarials to 
replace existing drugs as they become obsolete, military operations 
could be halted in their tracks by malaria. The 2003 malaria outbreak 
affecting 80 of 220 marines in Liberia is an ominous reminder of the 
impact of malaria on military operations. Humanitarian missions also 
place Americans at risk of malaria, as evidenced by several Americans 
contracting malaria while supporting Haitian earthquake relief efforts.
    Leishmaniasis is a vector-borne disease that comes in several 
forms, the most serious of which is visceral leishmaniasis, which 
affects internal organs and can be deadly if left untreated. According 
to the WHO, more than 350 million people are at risk of leishmaniasis 
in 88 countries around the world. It is estimated that 12 million 
people are currently infected with leishmaniasis, and 2 million new 
infections occur annually. Co-infection of leishmaniasis and HIV is 
becoming increasingly common, and WHO notes that because of a weakened 
immune system, leishmaniasis can lead to an accelerated onset of AIDS 
in HIV-positive patients.
    Because of leishmaniasis' prevalence in Iraq, DOD has spent 
significant time and resources on the development of drugs and new 
tools for the treatment of leishmaniasis. As more troops return from 
Iraq and Afghanistan, it is likely DOD and the Department of Veterans 
Affairs will see an increase in leishmaniasis cases in our soldiers. 
WRAIR discovered and developed Sitamaquine, a drug that, once 
completed, will be an oral treatment for leishmaniasis. While essential 
for the safety of our service men and women abroad, these types of 
innovations will also be extremely beneficial to the at-risk 
populations worldwide living in leishmaniasis-endemic countries.
    Dengue fever (``breakbone fever''), according to the WHO, is the 
most common of all mosquito-borne viral infections. About 2.5 billion 
people live in places where dengue infection can be transmitted by 
mosquitoes, and last year we saw a few cases pop up in the United 
States. There are four different viruses that can cause dengue 
infections. While infection from 1 of the 4 viruses will leave a person 
immune to that strain of the virus, it does not prevent them from 
contracting the other three, and subsequent infections can often be 
more serious.
    The DOD has seen about 28 cases of dengue in soldiers per year. 
While none of these cases resulted in the death of a soldier, 
hospitalization time is lengthy. Currently, there are several research 
and development efforts under way within the DOD both for treatments 
and vaccines for dengue.
         u.s. government action is needed for mission readiness
    The role of infectious disease in the success or failure of 
military operations is often overlooked. Even a cursory review of U.S. 
and world military history, however, underscores that the need to keep 
military personnel safe from infectious disease is critical to mission 
success. Ensuring the safety of those men and women in future conflicts 
and deployments will require research on new tools. Additional funds 
and a greater commitment from the Federal Government are necessary to 
make progress in tropical disease prevention, treatment, and control.
    Although several promising new infectious disease drugs are in 
development at WRAIR and NMRC, the U.S. Government's funding level for 
these programs has been anemic for several years. There are indications 
that the current budget process may decrease or not keep up with 
medical research inflation, let alone an increase in real dollars, 
despite burgeoning evidence that many of our military's current drugs 
are rapidly approaching obsolescence.
    Fortunately, a relatively small amount of increased funding for 
this program would restore the levels of research and development 
investment required to produce the drugs that will safeguard U.S. 
troops. In relation to the overall DOD budget, funding for infectious 
disease research programs is very small. Cutting funding for this 
program would deal a major blow to the military's efforts to reduce the 
impact of these diseases on soldiers and civilians alike, thereby 
undercutting both the safety of troops deployed to tropical climates 
and the health of civilians in those regions.
    ASTMH feels strongly that increased support for efforts to reduce 
this threat is warranted. A more substantial investment will help to 
protect American soldiers and potentially save the lives of millions of 
individuals around the world. We appreciate the opportunity to share 
our views in our testimony, and please be assured that ASTMH stands 
ready to serve as a resource on this and any other tropical disease 
policy matter.

    Chairman Inouye. Ms. Goraleski, I thank you very much for 
your testimony.
    The Vice Chairman has a question to ask.
    Ms. Goraleski. Yes, Sir.
    Senator Cochran. Ms. Goraleski, I know that you are aware 
of some collaboration between Walter Reed Hospital and the 
University of Mississippi research capacity through the Natural 
Products Research Center there. They're working to collaborate 
to get Walter Reed Army Institute to identify safe and 
effective drugs to treat tropical-related diseases and 
illnesses, which you mentioned in your testimony.
    I was curious to know if you are aware of this and how 
effective any of these research efforts have been assumed to 
be, and whether or not we need to put more money into these 
efforts than what we have in this year's budget.
    Ms. Goraleski. Yes, Sir, I am aware of those 
collaborations. Those collaborations are really essential for 
us to move progress forward. The Federal Government cannot do 
it alone without multiple partnerships. I don't have the 
specifics on that research. I just know of it overall, that 
there is some interesting and productive developments. But I 
will certainly find out the details for you and make sure you 
get that immediately. Thank you.
    Senator Cochran. Thank you very much. We appreciate your 
assistance to the subcommittee.
    Ms. Goraleski. You're welcome.
    Chairman Inouye. Thank you very much.
    Now may I call upon Mr. John R. Davis, representing the 
Fleet Reserve Association.
STATEMENT OF JOHN R. DAVIS, DIRECTOR, LEGISLATIVE 
            PROGRAMS FLEET RESERVE ASSOCIATION
    Mr. Davis. My name is John R. Davis and I want to thank the 
subcommittee for the opportunity to express the views of the 
Fleet Reserve Association (FRA) today.
    FRA supports legislation to exclude the Defense budget from 
sequestration and agrees with the Secretary of Defense Panetta, 
who said these sequestration cuts would, ``do catastrophic 
damage to our military, hollowing out the force and degrading 
its ability to protect the country''.
    Defense accounts for 17 percent of the Federal budget but 
will receive 50 percent of the sequestration cuts. Less than 1 
percent of the population is shouldering 100 percent of the 
burden of maintaining our military and national security, and 
the punitive funding reductions mandated by sequestration would 
force across-the-board cuts to all programs that could 
potentially threaten the all-volunteer force.
    Ensuring adequate funding for the military health system 
and maintaining the current retirement system are top 
legislative priorities for the association. This is reflected 
in responses to the association's 2012 survey, completed in 
February by more than a thousand current and former 
servicemembers, who cited retirement and military health 
programs as the most important benefits. Over the past several 
years, healthcare has consistently been a top concern for all 
segments of the military community, that being the Active Duty, 
Reserve component, veterans, and retirees.
    This year's survey, however, revealed that active duty and 
reservists viewed the military retirement above healthcare and 
pay.
    FRA believes that the administration's fiscal year 2013 
budget request devalues military service by proposing drastic 
TRICARE enrollment fee increases for all retirees and excessive 
pharmacy co-pay increases. All reservists and 97 percent of 
active duty participants in the survey found retirement 
benefits as the most important benefit.
    FRA appreciates Secretary of Defense Panetta's statement 
that those currently serving would not be impacted by the 
changes proposed by the administration's proposed retirement 
commission, but wonders why there is no similar commitment to 
those who have served in the past.
    The Senate Armed Services Committee approved the markup 
recently for the Defense authorization bill and that expands 
this commission to include not just retirement pay, but also 
current active duty compensation. Although we are thankful it 
excludes currently serving and retirees, the FRA opposes this 
base realignment and closure (BRAC)-like type commission 
because it would bypass the expertise of this Committee and 
subcommittee on Capitol Hill.
    FRA supports Senators Frank R. Lautenberg and Marco Rubio's 
bill, the Military Health Care Protection Act, that would seek 
to protect TRICARE beneficiaries from excessive and unfair 
enrollment fee increases and significant hikes in pharmacy co-
pays. The bill will emphasize that military service, unlike 
other civilian occupations and associated healthcare costs, are 
earned through 20 years or more of arduous service and 
sacrifice.
    The association does support the administration's fiscal 
years 2013 and 2014 active-duty pay increase that is equal to 
the Employment Cost Index.
    FRA supports a Defense budget at least 5 percent of the 
gross domestic product (GDP), that will adequately fund both 
people and weapons programs, and is concerned that the 
administration's spending plan is not enough to support both, 
particularly given the ongoing operational commitments 
associated with the new defense strategy. Further, spending on 
national defense as a percentage of GDP will be reduced, 
despite significant continued war-related expenses and 
extensive operational and national security commitments.

                           PREPARED STATEMENT

    The Defense budget could actually shrink by more than 30 
percent over the next decade, and the administration projects 
outlays of only 2.7 percent of GDP in 2021. That would be down 
from last year's 4.5 percent of GDP. That would be down--the 
2021 outlays would be pre-World War II outlays. As recently as 
1986, though, the United States has spent 6.2 percent of GDP on 
defense, with no real detrimental economic impact.
    Again, thank you for allowing me to submit FRA's views to 
the subcommittee.
    [The statement follows:]
                  Prepared Statement of John R. Davis
                     the fleet reserve association
    The Fleet Reserve Association (FRA) is the oldest and largest 
enlisted organization serving Active Duty, Reserves, retired, and 
veterans of the Navy, Marine Corps, and Coast Guard. It is 
congressionally chartered, recognized by the Department of Veterans 
Affairs (VA) as an accrediting Veteran Service Organization (VSO) for 
claim representation and entrusted to serve all veterans who seek its 
help. In 2007, FRA was selected for full membership on the National 
Veterans' Day Committee.
    FRA was established in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of active duty but less than 30 
years for retirement purposes. During the required period of service in 
the Fleet Reserve, assigned personnel earn retainer pay and are subject 
to recall by the Navy.
    FRA's mission is to act as the premier ``watch dog'' organization 
on Capitol Hill in maintaining and improving the quality of life for 
Sea Service personnel and their families. The Association also sponsors 
a National Americanism Essay Program and other recognition and relief 
programs. In addition, the FRA Education Foundation oversees the 
Association's scholarship program that presented awards totaling more 
than $120,000 to deserving students last year.
    The Association is also a founding member of The Military Coalition 
(TMC), a consortium of more than 30 military and veteran's 
organizations. FRA hosts most TMC meetings and members of its staff 
serve in a number of TMC leadership roles.
    FRA celebrated 87 years of service in November 2011. For nearly 
nine decades, dedication to its members has resulted in legislation 
enhancing quality-of-life programs for Sea Services personnel, other 
members of the uniformed services plus their families and survivors, 
while protecting their rights and privileges. CHAMPUS, (now TRICARE 
Standard) was an initiative of FRA, as was the Uniformed Services 
Survivor Benefit Plan (SBP). More recently, FRA led the way in 
reforming the REDUX Retirement Plan, obtaining targeted pay increases 
for mid-level enlisted personnel, and sea pay for junior enlisted 
sailors. FRA also played a leading role in advocating recently enacted 
predatory lending protections and absentee voting reform for 
servicemembers and their dependents.
    FRA's motto is: ``Loyalty, Protection, and Service.''
              certification of nonreceipt of federal funds
    Pursuant to the requirements of House Rule XI, the FRA has not 
received any Federal grant or contract during the current fiscal year 
or either of the 2 previous fiscal years.
                              introduction
    Mr. Chairman, the FRA salutes you, members of the subcommittee, and 
your staff for the strong and unwavering support of funding for 
programs essential to Active Duty, Reserve component, and retired 
members of the uniformed services, their families, and survivors. The 
subcommittee's work has greatly enhanced care and support for our 
wounded warriors and significantly improved military pay and other 
benefits and enhanced other personnel, retirement, and survivor 
programs. This support is critical in maintaining readiness and is 
invaluable to our uniformed services engaged throughout the world 
fighting the global War on Terror, sustaining other operational 
requirements and fulfilling commitments to those who've served in the 
past.
                stop department of defense sequestration
    As mandated by the 2011 Budget Control Act, failure of the Super 
Committee in 2011 to develop a bipartisan plan to contain the growth of 
the national debt will force implementation of ``sequestration'' in 
January 2013 unless the Congress intervenes. Failure to act will 
trigger across-the-board cuts with one-half coming from the defense 
budget. FRA agrees with Secretary of Defense Leon Panetta, who said 
these cuts ``would do catastrophic damage to our military, hollowing 
out the force and degrading its ability to protect the country.'' 
Defense counts for 17 percent of the Federal budget but will receive 50 
percent of the sequestration cuts.
    With the American military out of Iraq and the conflict in 
Afghanistan winding down, some are suggesting the possibility of a 
``peace dividend.'' Although there have been victories in the War on 
Terror, there has been no peace treaty with terrorism and an additional 
$500 billion in defense cuts beyond the already-planned reductions over 
the next decade beginning in fiscal year 2013 could jeopardize 
essential funding of military pay and benefit programs, which would 
negatively impact recruiting, retention, and overall military 
readiness. For these reasons, FRA strongly supports the ``Down Payment 
to Protect National Security Act'' (S. 2065) sponsored by Senator Jon 
Kyl and a House bill (H.R. 3662) sponsored by the House Armed Services 
Committee (HASC) Chairman, Representative Howard P. ``Buck'' McKeon. 
These proposals would amend the Budget Control Act of 2011 by excluding 
the Department of Defense budget from the first year of sequestration 
(2013).
    Less than 1 percent of the population is shouldering 100 percent of 
the burden of maintaining our national security, and the punitive 
funding reductions mandated by sequestration would force major across-
the-board cuts to all programs and could potentially threaten the all-
volunteer force.
                    budget devalues military service
    FRA's membership is especially concerned about the administration's 
proposed fiscal year 2013 budget which includes plans to drastically 
increase existing TRICARE Prime enrollment fees, implement new fees for 
TRICARE Standard and TRICARE-for-Life beneficiaries, and increase 
pharmacy co-pays. If authorized, fees would be tiered based on the 
beneficiary's retired pay. These increases are a major concern to the 
entire military retiree community and since mid-February that concern 
has prompted nearly 20,000 messages to Capitol Hill via FRA's Web site 
Action Center. Our members are also concerned that the budget calls for 
the fees to be adjusted annually based on healthcare inflation after 
fiscal year 2017.
    As this statement is being written, the Senate Armed Services 
Committee has not marked up its version of the Fiscal Year 2013 Defense 
Authorization bill. The HASC version of the legislation (H.R. 4310) did 
not authorize the proposed healthcare fee increases for all military 
retirees--including TRICARE for Life (TFL) beneficiaries. The panel 
did, however, authorize higher pharmacy co-pays. In addition, future 
co-pay adjustments will be tied to the Consumer Price Index which is 
the basis of annual military retired pay adjustments and consistent 
with future TRICARE Prime enrollment fee adjustments that became 
effective this year. The legislation also authorizes a 5-year pilot 
program that would require TFL beneficiaries to use the mail-order, 
home delivery program rather than retail pharmacies for maintenance 
drugs, and beneficiaries could opt out of the program after 1 year. 
There would be no cost for prescriptions filled at military pharmacies.
    The budget request also calls for a commission to study and propose 
changes to the military retirement system. This BRAC-like process would 
bypass the expertise of Senate and House committees and subcommittees 
and only allow the Congress an up-or-down vote on the commission's 
recommendations. All reservists responding to a recent (February 2012) 
FRA survey, and 97 percent of active duty participants ranked 
retirement benefits as a very important benefit. More than 1,000 
current and former servicemembers participated in the survey. As the 
Congress considers plans to reduce DOD costs by revamping the military 
retirement program, that benefit is particularly relevant to Active 
Duty and Reserve component personnel. Many current servicemembers have 
expressed concern about the future of the retired pay and healthcare 
benefits they've been promised after they complete a career of military 
service. FRA appreciates Secretary of Defense Panetta assuring those 
currently serving that they will come under the current retirement 
system, but wonders why there is no similar commitment for those who 
served in the past?
    The budget also requests an Active Duty and Reserve pay hike based 
on the Employment Cost Index of 1.7 percent in 2013, and only at that 
level in 2014 with capped pay adjustments below that index thereafter.
    FRA supports a defense budget of at least 5 percent of GDP that 
will adequately fund both people and weapons programs, and is concerned 
that the administration's spending plan is not enough to support both, 
particularly given ongoing operational commitments associated with the 
new defense strategy.
    Future spending on national defense as a percentage of GDP will be 
reduced despite significant continuing war related expenses and 
extensive operational and national security commitments. Wall Street 
Journal editorial writers noted, ``Taken altogether, the (defense) 
budget could shrink by more than 30 percent in the next decade. The 
administration projects outlays at 2.7 percent of GDP in 2021, down 
from 4.5 percent last year (which included the cost of Iraq and 
Afghanistan). That would put U.S. outlays at 1940 levels--a bad year. 
As recently as 1986, a better year, the U.S. spent 6.2 percent of GDP 
on defense with no detrimental economic impact. What's different now? 
The growing entitlement state. The administration is making a political 
choice and sparing Social Security, Medicare and Medicaid, which are 
set to hit nearly 11 percent of GDP (without healthcare reform costs) 
by 2020.''
    Make no mistake about the importance of these entitlement programs; 
however, DOD and VA benefits are also important and essential to 
maintaining that all volunteer force and our national security.
                         tricare fee increases
    Healthcare benefits are important to every segment of FRA's 
membership. The continued growth in healthcare costs is not just a 
military challenge but a challenge for the entire society. FRA believes 
that military service is a unique profession and notes minimal 
projected savings associated with DOD management efficiencies and other 
initiatives in fiscal year 2013 and beyond, while retirees are targeted 
for major fee hikes. These proposals also follow the 13-percent 
military retiree TRICARE Prime increase imposed this year.
    Our members are also very concerned about a proposed new TRICARE-
for-Life (TFL) enrollment fee beginning in fiscal year 2013. This is 
viewed as another failure to honor commitments to those who served past 
careers in the military. These personnel have not benefited from the 
significant pay and benefit enhancements enacted since 2000.
    The Association believes that military retirees have earned their 
TRICARE benefits with 20 or more years of arduous military service with 
low pay. As you know, many retirees believe that they were promised 
free healthcare for life.
    FRA strongly opposes premium increases for TRICARE beneficiaries' 
based on healthcare inflation. The Consumer Price Index (CPI) is the 
basis for military retiree annual cost-of-living adjustments (COLAs), 
the purpose of which is to maintain purchasing power for the 
beneficiary. The Association strongly supports adequate funding of the 
Military Health Service (MHS) without the drastic fee increases and 
extreme pharmacy co-pays for all retirees proposed by the 
administration.
                         retirement commission
    The administration proposed the creation of a BRAC-like commission 
to review and ``reform'' the current military retirement system. 
Numerous studies and commissions have focused on the military 
retirement as an opportunity to reduce overhead costs for the Pentagon. 
The latest is the Defense Business Board (DBB) proposal to replace the 
current system with a 401(k) plan similar to what corporations offer 
their employees. This concept has created significant anxiety in the 
career active duty community. An FRA online survey released last 
October resulted in strong opposition responses to proposals to 
``civilianize'' the current military retirement system. More than 1,700 
current and former servicemembers responded and nearly 95 percent 
believe retiree benefits offer the most appeal if they were joining 
today. More than 80 percent of Active Duty and Reserve component 
respondents said they'd shorten their term of service if retirement 
benefits were changed to conform with the recommendations.
    FRA believes that military service is unlike any other career or 
occupation, and requires a unique retirement system. Career senior 
noncommissioned officers are the backbone of our military and their 
leadership and guidance are invaluable and a result of many years of 
training and experience.
                            wounded warriors
    FRA believes post-traumatic stress should not be referred to as a 
``disorder''. This terminology adds to the stigma of this condition, 
and the Association believes it is critical that the military do all it 
can to reduce the stigma associated with post-traumatic stress and 
traumatic brain injury.
    FRA also believes the Armed Services and Veterans Affairs 
Committees should remain vigilant regarding their oversight 
responsibilities associated with ensuring a ``seamless transition'' for 
wounded warriors transitioning from DOD's MHS to the Department of 
Veterans Affairs (VA). FRA strongly supports efforts to create and 
adequately fund a Joint Virtual Lifetime Electronic Record (VLER) for 
every servicemember and believes this would be a major step toward the 
long-standing goal of a truly seamless transition from military to 
veteran status for all servicemembers and would permit a DOD, VA, or 
private healthcare provider immediate access to a veteran's health 
data.
    According to Navy Times editors, ``Even before sequestration takes 
effect budget cuts have impacted the Office of Wounded Warrior Care and 
Transition Policy with the elimination of 40 percent (44 positions) of 
the staff, and all 15 contract employees in the transition policy 
section that leaves only two full-time civilian employees.'' \1\ Budget 
cuts have also resulted in the cancellation of the Virtual Transition 
Assistance Program Web site that was scheduled to replace the current 
Turbo TAP Web site. FRA is concerned that these cuts could negatively 
impact transitioning wounded warriors.
---------------------------------------------------------------------------
    \1\ ``Navy Times'' editorial, January 16, 2012, page 4.
---------------------------------------------------------------------------
    The Association also notes the importance of the Navy's Safe Harbor 
Program and the Marine Corps Wounded Warrior Regiment that are 
providing invaluable support for these personnel and recommends 
adequate funding to support these programs.
                             suicide rates
    Suicide in the military is a serious concern for FRA and the 
Association notes that active-duty suicides have been reduced or at 
least leveled off, but suicides for non-active-duty Reserve component 
personnel are increasing. ``More than 2,000 servicemembers killed 
themselves in the past decade, including 295 in 2010 compared with 153 
in 2001''.\2\
---------------------------------------------------------------------------
    \2\ ABC News, ``Rising Suicides Stump Military Leaders'', September 
27, 2011, Kristina Wong.
---------------------------------------------------------------------------
    In 2011, there were 51 Navy active-duty suicides and 7 Navy Reserve 
suicides which represents an increase from 39 active-duty suicides and 
6 Reserve suicides in 2010. To reduce the suicide rate the Navy has 
implemented a multifaceted approach with communication, training, and 
command support, designed to reduce individual stress and strengthen 
psychological health of sailors. The Navy efforts fall within the scope 
of their broader family readiness programs and require adequate 
resources to sustain these efforts.
    In 2011, there were 33 marine suicides and 171 failed suicide 
attempts. During the previous year, 37 marines committed suicide and 
there were 172 failed attempts. The marines have deployed peer-to-peer 
suicide prevention training and are working with the DOD Suicide 
Prevention Office to implement the recommendations of the DOD Joint 
Task Force on the Prevention of Suicide. Despite these initiatives, 
suicides continue and efforts to address the reasons for suicides must 
continue to be a top priority. FRA appreciates the provision in the 
Fiscal Year 2012 Defense Authorization Act that requires preseparation 
counseling for Reservists returning from successful deployments. In 
addition, FRA supports Representative Thomas Rooney's bill (H.R. 208) 
that authorizes reimbursement for mental health counseling under 
TRICARE and requests full funding to support this program if 
authorized.
                       cost-of-living adjustments
    Under current law, military retired pay cost-of-living adjustments 
(COLAs) are rounded down to the next lowest $1. For many of these 
personnel, particularly enlisted retirees, their retired pay is 
sometimes the sole source of income for them and their dependents. Over 
time, the effect of rounding down can be substantial for these 
personnel and FRA supports a policy change to rounding up retiree COLAs 
to the next highest $1.
                        reserve early retirement
    A provision of the Fiscal Year 2008 National Defense Authorization 
Act reduces the Reserve retirement age requirement by 3 months for each 
cumulative 90-days ordered to active duty. This is effective upon the 
enactment of the legislation (January 28, 2008) and not retroactive to 
October 7, 2001, and the Association supports ``The National Guardsmen 
and Reservists Parity for Patriots Act'' (H.R. 181) sponsored by the 
House Personnel Subcommittee Chairman, Representative Joe Wilson, to 
authorize reservists mobilized since October 7, 2001, to receive credit 
in determining eligibility for receipt of early retired pay. Since 
September 11, 2001, the Reserve component has changed from a strategic 
Reserve to an operational Reserve that now plays a vital role in 
prosecuting the war efforts and other operational commitments. This has 
resulted in more frequent and longer deployments impacting individual 
reservist's careers. Changing the effective date of the Reserve early 
retirement would help partially offset lost salary increases, 
promotions, 401(k), and other benefit contributions. The Association 
urges support and funding for this important legislation.
              retention of final full month's retired pay
    If authorized, FRA urges the subcommittee to provide funding to 
support the retention of the full final month's retired pay by the 
surviving spouse (or other designated survivor) of a military retiree 
for the month in which the member was alive for at least 24 hours. FRA 
strongly supports ``The Military Retiree Survivor Comfort Act'' (H.R. 
493), introduced by Representative Walter Jones, which addresses this 
issue.
    Current regulations require survivors of deceased Armed Forces 
retirees to return any retirement payment received in the month the 
retiree passes away or any subsequent month thereafter. Upon the demise 
of a retired servicemember in receipt of military retired pay, the 
surviving spouse is to notify DOD of the death. DOD's financial arm 
(DFAS) then stops payment on the retirement account, recalculates the 
final payment to cover only the days in the month the retiree was 
alive, forwards a check for those days to the surviving spouse 
(beneficiary) and, if not reported in a timely manner, recoups any 
payment(s) made covering periods subsequent to the retiree's death. The 
recouping is made without consideration of the survivor's financial 
status.
    The measure is related to a similar VA policy. The Congress passed 
a law in 1996 that allows a surviving spouse to retain the veteran's 
disability and VA pension payments issued for the month of the 
veteran's death. FRA believes military retired pay should be no 
different.
                           concurrent receipt
    FRA supports legislation authorizing and funding concurrent receipt 
of full military retired pay and veterans' disability compensation for 
all disabled retirees. The Association strongly supports Senate 
Majority Leader, Senator Harry Reid's ``Retired Pay Restoration Act'' 
(S. 344) and Representative Sanford Bishop's ``Disabled Veterans Tax 
Termination Act'' (H.R. 333). Both proposals would authorize 
comprehensive concurrent receipt reform, and Representative Gus 
Bilirakis's ``Retired Pay Restoration Act'' (H.R. 303) would authorize 
current receipt for retirees receiving concurrent retirement and 
disability pay (CRDP) with a disability rating of 50 percent or less.
    FRA also strongly supports House Personnel Subcommittee Chairman 
Representative Joe Wilson's bill (H.R. 186), that expands concurrent 
receipt for servicemembers who were medically retired with less than 20 
years of service (chapter 61 retirees) and would be phased-in over 5 
years. This proposal mirrors the administration's proposal from the 
110th Congress. In 2008, the Congress voted to expand eligibility for 
combat-related special compensation (CRSC) coverage to chapter 61 
retirees and the proposed legislation would, in effect, extend 
eligibility for CRDP to all chapter 61 retirees over 5 years. A less 
costly improvement to pursue in an austere budget year would be fixing 
the so-called ``glitch'' for CRSC that result in compensation declining 
when the VA disability rating increases.
                         military resale system
    FRA strongly supports adequate funding for the Defense Commissary 
Agency (DeCA) to ensure access to the commissary benefit for all 
beneficiaries. Since 2000, DeCA's budget has remained flat in real 
dollars, meaning the agency has done more with less for the past 11 
years.
    The Association also strongly supports the military exchange 
systems (AAFES, NEXCOM, and MCX), and urges against revisiting the 
concept of consolidation. FRA instead urges a thorough review of the 
findings of an extensive and costly ($17 million) multiyear study which 
found that this is not a cost-effective approach to running these 
important systems.
                               conclusion
    FRA is grateful for the opportunity to provide these 
recommendations to this distinguished subcommittee.

    Chairman Inouye. I thank you very much, Mr. Davis, for your 
testimony, and we will most certainly look into the Lautenberg-
Rubio bill. Thank you.
    I thank this panel.
    Now, the next panel consists of: Ms. Mary Hesdorffer, 
representing the Mesothelioma Applied Research Foundation; Mr. 
Stephen Isaacs, representing Aduro Biotech; Dr. Laurence 
Corash, representing Cerus Corporation; and Ms. Sharon Smith, 
representing the National Trauma Institute.
    May I call upon Ms. Mary Hesdorffer.
STATEMENT OF MARY HESDORFFER, ARNP, MSN, MESOTHELIOMA 
            APPLIED RESEARCH FOUNDATION
    Ms. Hesdorffer. Chairman Inouye, Ranking Member Cochran, 
and members of the subcommittee: I really want to thank you 
again for allowing me to come before you to present our case on 
behalf of mesothelioma patients. I'm a nurse practitioner. I've 
been treating patients for more than 12 years with this 
disease, and I'd like to share a little bit of information that 
I think is important for the Department of Defense.
    Mesothelioma is directly related to asbestos exposure. It's 
an extremely rare disease. There's about 3,500 cases diagnosed 
per year. Of those 3,500 cases, one-third can be directly 
related to either Navy duty or working in shipyards. So we lose 
a tremendous amount of Navy vets to this disease. And it 
remains an active threat now because after exposure to asbestos 
the latency period can be anywhere from 10 to 50 years. So this 
remains a constant threat and something that we really need to 
do something about.
    From the time of diagnosis, the average survival is 
documented as 6 to 9 months. We have one approved therapy and 
that's a drug combination, and that extends the median survival 
to 12.3 months.
    I'd like to use a Navy vet who I'm very close to to give 
you an illustration of what the life of a mesothelioma patient 
is like. Tom Shikowski, who asked that I share his name and his 
story, was a sonar man. He worked as an underwater fire control 
technician on the USS Fletcher. He describes his situation as 
having spent 4 years in an asbestos cocoon on the Navy ship. He 
directly correlates his development of mesothelioma to his time 
served in the Navy.
    Tom was faced with a tough decision. He could have 
chemotherapy and extend life to 12.3 months, or try something 
experimental, and the best experimental we have right now is 
what we call an extrapleural pneumonectomy, where we remove the 
entire lung, the lining of the lung, the lining of the 
mediastinum, which is the center of the chest, and the lining 
of the heart. The heart is then encased in a sack to keep it in 
place. Patients are subjected to chemotherapy and radiation 
therapy.
    Yet this is not a cure, and in fact Tom, after having 
undergone this procedure, now faces a decision of what type of 
chemotherapy he's going to have for his fourth recurrence of 
the disease. Tom is out of options. He has one lung. It fills 
with fluid, and traveling for treatment becomes very difficult, 
especially in terms of having so few clinical trials to offer.
    What we're asking today is that the subcommittee recognizes 
the need for mesothelioma and to spur research in this field. 
We'd like you to take this up as a critical national priority 
by providing at least $5 million in funding for mesothelioma 
research through the Congressionally Directed Medical Research 
Program for the fiscal year 2013 Defense appropriations bill, 
rather than the mere eligibility in the Peer-Reviewed Cancer 
Research Program. Mesothelioma needs to be designated as a 
specific line item. Mesothelioma patients, who have already 
risked their lives by serving in their country's armed 
services, do not have this time to wait.

                           PREPARED STATEMENT

    I care deeply about my mesothelioma patients, the 
caregivers, and those people that have lost loved ones to this 
disease, and I really ask you to join me in caring deeply about 
this community as well and helping us to find a cure and to 
raise research dollars so others like Tom will not have to go 
through these devastating choices and will enjoy a better 
quality of life and extended survival.
    Thank you so much.
    [The statement follows:]
            Prepared Statement of Mary Hesdorffer, ARNP, MSN
    Chairman Inouye, Ranking Member Cochran, and members of the 
subcommittee: Thank you for the opportunity to speak with you today to 
discuss mesothelioma, its connection to military service, and the 
desperate need for research. Your support is critical to our mission, 
and I look forward to continuing our relationship with this 
subcommittee.
    My name is Mary Hesdorffer and I am a nurse practitioner that has 
worked with mesothelioma patients for over a decade. I am testifying on 
behalf of the Mesothelioma Applied Research Foundation and the 
Mesothelioma community composed of patients, physicians, caregivers, 
and family members. I would like to take this time to stress the 
importance of increased funding for the Congressionally Directed 
Medical Research Programs (CDMRP) which plays a critical role in 
finding and delivering treatments for mesothelioma.
    Mesothelioma is an aggressive cancer known to be caused by exposure 
to asbestos. Doctors say it is among the most painful and fatal of 
cancers, as it invades the chest, abdomen, and heart, and crushes the 
lungs and vital organs. Mesothelioma disproportionately affects our 
service men and women, as one-third of mesothelioma cases have been 
shown to involve exposures in the Navy or working in our Nation's 
shipyards.
    There are two types of mesothelioma--pleural and peritoneal. 
Patients with pleural mesothelioma, which affects the lining of the 
lungs, comprise 85 percent of the mesothelioma population and face a 
devastating survival time of only 9 months. Peritoneal affects the 
lining of the abdomen. The harsh reality for patients with advanced 
primary peritoneal cancer is a median survival time of 12.3 months; 5-
year survivals are rare. Mesothelioma patients not only face a 
devastatingly short survival time, but also the harsh reality that 
there is only one Food and Drug Administration-approved treatment for 
mesothelioma. Often, the only option is surgery. I have dedicated my 
life to caring for these people, and I am here today to speak for the 
many patients that will never have the opportunity to speak for 
themselves and give testimony like this.
    I am currently directing the care of a Navy veteran, Tom Shikoski. 
Tom joined the Navy directly out of high school, at the age of 18. He 
said ``I always felt it was my duty as a citizen to serve my country.'' 
His primary duty was as a sonarman underwater fire control technician 
aboard the USS Fletcher DDE445. He spent most of his time below deck, 
in his words ``a virtual asbestos cocoon''. He is certain that he was 
exposed to asbestos in his 4 years on the USS Fletcher, although he was 
never informed about the dangers of asbestos.
    Asbestos exposure among Navy personnel was widespread from the 
1930s through the 1980s, and exposure to asbestos still occurred after 
the 1980s during ship repair, overhaul, and decommissioning. We have 
not yet seen the end of exposures to asbestos. Asbestos exposures have 
been reported among the troops in Iraq and Afghanistan. Soldiers in 
wars that extend into third-world countries, where asbestos use is 
increasing without stringent regulations, may also be at risk for 
exposure during tours of duty. Even low-dose, incidental exposures can 
cause mesothelioma. For all those who will develop mesothelioma as a 
result of these past or ongoing exposures, the only hope is that we 
will develop effective treatment.
    Tom Shikoski had never even heard the word mesothelioma until his 
diagnosis. He never thought that his service to his country would come 
back to haunt him so many years later. His diagnosis came by accident. 
He had gone in for another procedure, and his doctor discovered fluid 
in his left lung. He had to undergo another surgery to drain over one 
liter of fluid from his lung, and 1 week later, he had the diagnosis of 
pleural mesothelioma. He found, through the help of a physician family 
friend, a mesothelioma specialist in Texas and had to travel across the 
country from his home in Michigan to see a mesothelioma expert. It was 
recommended that he have an extrapleural pneumonectomy, a surgical 
treatment to remove a lung, a portion of the diaphragm, the linings of 
the lungs, and heart. He then had 25 treatments of radiation, followed 
by 30 treatments of chemotherapy even though not more than 12 
treatments are recommended due to the high risk of anaphylactic shock. 
Tom is willing to do anything to spend more time with his wife, 
children, and many grandchildren.
    Patients take great risks to participate in clinical trials, but 
they feel the possibility of helping to find a better treatment is 
worth the risk. As peritoneal mesothelioma patient, Bonnie Anderson, 
said recently, ``I knew if I was going to die from mesothelioma, I was 
going to put it to good use in a clinical trial.''
    There are brilliant researchers dedicated to mesothelioma. 
Biomarkers are being identified. Two of the most exciting areas in 
cancer research--gene therapy and biomarker discovery for early 
detection and treatment--look particularly promising in mesothelioma. 
The Mesothelioma Applied Research Foundation has made a significant 
investment, funding more than $7.6 million to support research in hopes 
of giving researchers the first seed grant they need to get started. We 
need the continued partnership with the Federal Government to develop 
the promising findings into effective treatments.
    I will give you an example of how the support of the CDMRP has 
helped the promising research initiatives that are giving hope to 
mesothelioma patients:
  --A vaccine is being developed that would induce an immune response 
        against WT1, a tumor suppressor gene highly expressed in 
        mesothelioma patients. A pilot trial was conducted in patients 
        with mesothelioma to show that it is safe and immunogenic. The 
        researcher was then funded by a 2009 CDMRP award. Today, a 
        multisite clinical trial is being conducted on patients 
        following definitive surgery.
    It is efforts like these that give me faith. I am grateful for the 
Federal Government's investment in mesothelioma research, the 
discoveries being made due to the funding, and I want to see it 
continued and increased.
    Mesothelioma is known to be caused by exposure to asbestos. We can 
not only document the Naval asbestos exposures over the course of the 
20th century, but we have evidence that one-third of American 
mesothelioma patients were exposed while serving their country or 
working as civilians aboard Navy ships. The United States must take 
greater action to right this wrong and fund mesothelioma research.
    The mesothelioma community urges the subcommittee to recognize 
mesothelioma as a critical national priority by providing at least $5 
million in funding for mesothelioma research through the CDMRP in the 
fiscal year 2013 Defense appropriations bill. Rather than mere 
eligibility in the Peer-Reviewed Cancer Research Program, mesothelioma 
needs to be designated a specific line item. Mesothelioma patients who 
already risked their lives by serving in our Nation's armed services do 
not have the time to wait.
    I look to the Defense appropriations subcommittee to provide 
continued leadership and hope to the people who develop this deadly 
cancer. You have the power to lead this battle against mesothelioma. 
Thank you for the opportunity to submit testimony and for funding the 
CDMRPs at the highest possible level so that patients receiving this 
deadly diagnosis of mesothelioma may someday survive.

    Chairman Inouye. As you know, we're constantly reminded of 
mesothelioma by television ads of law firms. But your 
suggestion, I think, has some merit. We'll look into it.
    Ms. Hesdorffer. Thank you so much.
    Chairman Inouye. Thank you very much.
    Now may I call upon Mr. Stephen Isaacs.
STATEMENT OF STEPHEN T. ISAACS, CHAIRMAN AND CHIEF 
            EXECUTIVE OFFICER, ADURO BIOTECH
    Mr. Isaacs. Thank you and good morning, Chairman Inouye, 
Ranking Member Cochran, and members of the Defense 
subcommittee. It's truly an honor for me to testify before you 
today.
    I'm the Chairman and CEO of Aduro Biotech from Berkeley, 
California, and we develop modern vaccines to both prevent and 
treat serious conditions such as cancer, infectious diseases, 
and a variety of bioterror pathogens. While these vaccines are 
primarily designed for civilian use, they also have a lot to 
offer to the military.
    My purpose in testifying today is to briefly tell you about 
these new vaccine technologies that can make a big difference 
to the military and to make a few suggestions about the Peer-
Reviewed Medical Research Program that we participate in and 
how the process can be improved.
    No one knows better than your subcommittee that development 
of modern vaccines to support combat operations, to mitigate 
acts of terrorism, and to provide new therapies for DOD-wide 
populations is a top priority for DOD. I think the past 
problems of a major U.S. Department of Health and Human 
Services (HHS) effort to develop a protective vaccine against 
anthrax really illustrates the complexity and difficulty of 
developing such vaccines.
    But, fortunately, there's now a strategic opportunity to 
advance recent breakthroughs in vaccine technology, to develop 
both therapeutic and preventative vaccines. So briefly, the 
problem with many current vaccines is that they are attenuated 
or weakened pathogens and they're used to elicit an effective 
immune response, but these pathogens carry a risk of causing an 
infection. Another approach is to use so-called ``killed 
vaccines'', but these simply don't work as well.
    To address this problem, my company, Aduro Biotech, has 
really developed a very novel platform technology that combines 
the safety of a killed vaccine with the efficacy of a live 
vaccine. Since 2002 we've raised and invested more than $83 
million to the development of the Aduro vaccine platform 
technology, and we've made remarkable progress.
    Aduro is currently conducting a phase two clinical trial to 
treat metastatic pancreatic cancer, and we will begin new 
trials on mesothelioma and glioblastoma within the next few 
months. We were recently competitively selected to participate 
in the peer-reviewed Prostate Cancer Research Program, and I 
thank you for your leadership in providing the Pentagon with 
the funds for this award. We strongly believe that we can make 
a difference in vaccine programs for the Army and the Navy as 
well.
    In its medical research budget to the Congress, the Army 
notes that developing an effective malaria vaccine is a top 
priority, and the Navy notes that diseases that were once 
confined to remote areas of the world now have the capability 
to cross continents.
    In our opinion, neither the Army nor the Navy have 
sufficient funds to conduct robust vaccine development programs 
that are clearly needed to deal with these threats. The main 
purpose of testifying is to say that the military could realize 
significant breakthroughs by competitively developing modern 
preventative and therapeutic vaccines, and I strongly urge your 
subcommittee to make it a top priority to give DOD adequate 
resources for robust vaccine development programs for our 
troops.
    The other topic I'd like to briefly address is the process 
used by the Army to administer the DOD Congressionally Directed 
Medical Research Program that we believe can be improved. Here 
are a few of the issues. First, it's not always clear to us 
what DOD would like to fund. Is it innovative research or is it 
translational medicine?
    Second, some topics that are listed as areas of interest 
are not funded at all. So in spite of high scores in these 
applications, no funding is received, and this is a huge waste 
of everybody's time for both the submitters and for the 
reviewers.
    Finally, there is no path for resubmission of these 
applications, such as there is at the National Institutes of 
Health (NIH) and the Small Business Innovation Research (SBIR) 
program.
    So, specifically, we respectfully submit our 
recommendations for improving the process, which are the 
following: first, consider limiting the use of congressionally 
directed medical research funds to applied research; second, 
consider directing a specific percentage of the annual programs 
to small businesses; and finally, consider directing the 
Assistant Secretary of Defense for Health Affairs to submit a 
report on how DOD's peer-review process can be strengthened and 
approved.

                           PREPARED STATEMENT

    So thank you very much for the opportunity to express my 
views about vaccine development that are really directed at 
solving important medical issues for our troops. And thanks to 
both of you for your interest in these programs and certainly 
for your service to our country.
    Finally, I really do appreciate the opportunity to present 
today, and I invite you and other staff to come and visit Aduro 
the next time you're on the west coast.
    Thank you very much.
    [The statement follows:]
                Prepared Statement of Stephen T. Isaacs
    Chairman Inouye and Ranking Member Cochran, and members of the 
Defense subcommittee: It is an honor for me to testify before your 
subcommittee today.
    I know that your subcommittee cares deeply about the health and 
welfare of the brave men and women who serve our Nation in the Armed 
Forces, and that your subcommittee has taken a leadership role in 
providing funds for health and biodefense research. My purpose today is 
to tell you about the new vaccine technologies like ours that can make 
a big difference to the military; and second, to make some suggestions 
about the Peer-Reviewed Medical Research Program in order to make it 
better for all who participate in it and to provide better value to the 
taxpayer.
    I am Chairman and CEO of Aduro Biotech Incorporated in Berkeley, 
California. We are developing modern vaccines to both prevent and to 
treat serious diseases, and while these vaccines are designed for 
civilian use, they also offer tremendous capabilities to our Armed 
Forces. We team with other companies and nonprofit organizations to 
collaboratively develop the best vaccine technologies for specific 
purposes.
    No one knows better than your subcommittee that development of 
modern vaccines to support combat operations, to mitigate acts of 
terrorism, and to provide new therapies for the Department of Defense 
(DOD)-wide population of military personnel and their dependents is a 
top priority for DOD. The past failure of a major Department of Health 
and Human Services (HHS)-supported program to develop a prophylactic 
(protective) anthrax vaccine illustrates the difficulty in developing 
modern vaccines. There is also now a strategic opportunity to advance 
recent breakthroughs in therapeutic vaccines to develop treatments for 
serious cancers and infectious diseases that affect our war fighters 
and their dependents--particularly for pancreatic cancer for which 
survival rates are very low--as well as infectious diseases that affect 
the military, such as malaria, and improve our defense against 
engineered biological threats.
    Many current vaccines use small amounts of ``attenuated'' pathogens 
to elicit an effective immune response from the body. However, the use 
of attenuated microorganisms is often considered inappropriate due to 
potential risks that the live microbe itself may be harmful in some 
individuals and is out of the question for biodefense applications. An 
alternative is the use of ``killed-vaccines'' in which pathogens are 
completely inactivated and then used to produce an immune response 
without causing the severe effects of the disease; however, the 
efficacy of killed vaccines is often not as great as attenuated 
strains.
    To address this problem, Aduro Biotech has developed novel live-
attenuated double deleted (LADD) vaccines to target specific diseases, 
as well as a unique killed but metabolically active (KBMA) vaccine 
platform technology that combines the safety of a killed vaccine with 
efficacy similar to a live vaccine. Most recently, Aduro has developed 
a third vaccine platform in which the vaccine vector actually commits 
``suicide'' within the body after stimulating a strong immune response 
(``Suicide Strains''). All three of these platforms stimulate the 
body's immune system by using a genetically modified form of the common 
bacteria Listeria monocytogenes as the platform. Promising work has 
been done by Aduro on selected LADD vaccines that are excellent vaccine 
candidates in their own right and which require further development, 
some of which may also become more desirable if transitioned to KBMA or 
Suicide Strains. All three vaccine platforms are designed for the 
treatment of cancer, infectious disease, and protection against 
bioterror agents.
    More than $83 million of private funds have been invested to date 
in development of Aduro's revolutionary LADD, KBMA, and Suicide Strain 
technologies. These approaches use advanced technology developed by 
Aduro to specifically and selectively block the ability of a vaccine 
organism to cause disease, yet preserve its ability to stimulate a 
robust immune response against selected pathogens or cancerous tumors. 
LADD, KBMA, and Suicide Strain vaccines can also be used as therapeutic 
agents used to treat cancers such as pancreatic, lung, and melanoma, 
and chronic infections such as human papilloma virus, malaria, and 
hepatitis B and C.
    Remarkable progress has recently been made in treating pancreatic 
cancer. Aduro is currently conducting a Phase II clinical trial with a 
LADD vaccine to treat metastatic pancreatic cancer, and will begin new 
clinical trials on mesothelioma this summer and glioblastoma early next 
year.
    We were recently competitively selected to participate in the Peer-
Reviewed Prostate Cancer research program, and I am here to thank you 
for your leadership in providing the Pentagon the funds that allow 
companies like mine to competitively bring in the best new ideas and 
new technologies.
    In its medical research budget to the Congress, the Army notes that 
developing an effective malaria vaccine is a top priority since ``A 
highly effective vaccine would reduce or eliminate the use of anti-
malarial drugs and would minimize the progression and impact of drug 
resistance to current/future drugs.'' In our opinion, the Army does not 
have sufficient malaria research funds to conduct a robust vaccine 
development program that it clearly needs. United States servicemembers 
are often deployed to regions endemic for malaria. Currently, a large 
contingent of U.S. forces is deployed in malarial regions in Southeast 
and Southwest Asia. Soldiers in today's military can be exposed to more 
than one malaria-endemic region prior to diagnosis. This presents new 
complexities for disease monitoring and prevention policy development.
    In its medical research budget to the Congress, the Navy notes that 
diseases that may have once been confined to remote areas of the world 
now have the capability to swathe entire regions and to cross 
continents. United States expeditionary operational forces are 
especially susceptible due to their exposure to areas/regions of high 
risk and the potential for rapid, high-volume transmission among close 
quartered personnel. Enteric diseases are of special concern to the 
Navy and Marine Corps because of the high morbidity involved and the 
potential to infect a large number of personnel through contaminated 
food and water sources, especially in regions overseas where food 
handling, water supply, and waste disposal practices are questionable. 
Respiratory disease has been and will continue to be a main focus of 
military disease research and vaccine development. Viruses, bacteria, 
and parasites spread by arthropods (e.g., mosquitos, flies, fleas) are 
some of the most imminent threats to military forces abroad due to 
geographic risk factors and a general lack of effective vaccines and 
treatment. Emerging diseases also include new drug-resistant variants 
as well as new mutational strains of viral agents. In our opinion, the 
Navy does not have sufficient vaccine research funds to conduct a 
robust vaccine development program that it clearly needs to meet these 
requirements.
    The main purpose of testifying before your subcommittee today is to 
tell you that the military could make some significant breakthroughs by 
competitively developing modern prophylactic and therapeutic vaccines 
to solve some of the more difficult challenges for ensuring the health 
of our Nation's Armed Forces. Understanding that we are in a very 
difficult budget climate, I strongly urge your subcommittee to make it 
a top priority to give DOD adequate resources for robust vaccine 
development programs for our troops as your subcommittee crafts annual 
appropriations bills.
    The other topic I would like to briefly address today is the 
process used by the Army to administer the DOD Congressionally Directed 
Medical Research Program that we and others in our industry believe can 
be improved. Here are observations from our perspective:
  --It is not clear to the investigators whether DOD would like to fund 
        early innovative research or technology development, yet 
        analysis of after-the-fact awards indicates a bias toward basic 
        research even though solicitations seem to be inviting applied 
        research proposals. The real-world funding gap, which should be 
        the intent of the Senate's program, is in applied research not 
        basic research.
  --In some instances topics are listed in their contracting documents, 
        review panels are formed for these topics, but in the 
        subsequent review of industry proposals none of these grant 
        applications are funded--even some with exceptionally high 
        scores. This seems to be a tremendous waste of everybody's time 
        including the time of the reviewers.
  --The review process seems to be a complete hit and miss; the quality 
        of the review is highly variable and the comments are often not 
        very helpful. Steps should be taken to ensure that the 
        reviewers have a background in and understand the technology 
        being reviewed.
  --There is no path for resubmission and for addressing the reviewer's 
        comments. Unlike other similar Federal programs, DOD does not 
        allow for resubmissions. In contrast, National Institutes of 
        Health (NIH), Small Business Innovation Research (SBIR), and 
        Advanced Research Projects Agency-Energy (ARPA-E) do allow for 
        at least one resubmission. The new reviewers are provided with 
        the full review of the first submission and the investigator 
        has one page to outline how the resubmission has been changed. 
        We have had very good experience with resubmissions, which are 
        the only form of dialogue between submitter and reviewer.
    We believe that the following recommendations for improved 
management of the Peer-Reviewed Congressionally Directed Medical 
Research Programs would give DOD, the Congress, and the taxpayer better 
results:
  --Consider limiting use of congressionally added medical research 
        funds, particularly in the Peer-Reviewed Medical Research 
        Program, to applied research rather that basic research.
  --Consider directing a specific percentage of the annual programs to 
        small businesses.
  --Direct the Assistant Secretary of Defense for Health Affairs (ASD 
        (HA)) submit a report to the Appropriations Committees of the 
        House and Senate by January 31, 2013, on how DOD's peer-review 
        process for the Congressionally Directed Medical Research 
        Programs can be strengthened and improved. ASD (HA) should 
        specifically examine the procedures used by the Department of 
        Energy's ARPA-E that are efficient and consistently win praise 
        from industry.
    In closing, I would like to thank you for giving me the opportunity 
to express some priorities of vaccine development companies like mine 
on the possibilities for strategic breakthroughs in solving thorny 
medical issues for our troops through robust, competitive vaccine 
development programs.
    I would also like to thank you, Chairman Inouye, for your lifetime 
of service to our Nation and to commend the other members of the 
subcommittee for your dedication to the welfare of the young men and 
women who so ably serve our Nation. I appreciate the opportunity to 
express my views to you today, and I invite any of the members or staff 
to come visit Aduro the next time you are on the west coast.

    Chairman Inouye. I thank you very much. Your study shows 
that vaccines can have an impact upon prostate cancer?
    Mr. Isaacs. Well, we're working on that right now and we 
see a very strong impact in animal models that we've developed. 
And we've taken this on into human clinical trials in non-
small-cell lung cancer and in pancreatic cancer. We hope to 
expand to mesothelioma as well.
    Chairman Inouye. I thank you very much.
    May I now call upon Dr. Laurence Corash of the Cerus 
Corporation.
STATEMENT OF LAURENCE CORASH, M.D., CHIEF MEDICAL 
            OFFICER, CERUS CORPORATION
    Dr. Corash. Thank you, Chairman Inouye and Ranking Member 
Cochran, members of the subcommittee, for the opportunity to 
testify about the safety of blood transfusion in the military. 
I'm a hematologist and I've spent 20 years researching ways to 
prevent transfusion-transmitted infections, first at the 
National Institutes of Health (NIH), then at the University of 
California as chief of laboratory medicine, and now at Cerus 
Corporation, and in my capacity as the industry representative 
for the U.S. Department of Health and Human Services (HHS) 
Advisory Committee on Blood Safety and Availability.
    Blood transfusion is a fundamental component of healthcare. 
Patients assume that when blood is required it will be 
available and it will be safe. But this is not always the case. 
My interest in this problem began in the 1980s at the NIH and 
then at the University of California, when we saw our patients 
infected with a new disease via blood transfusion that we 
ultimately recognized as AIDS and the virus as HIV.
    We now know, though, that this is not the only threat to 
the blood supply and it will not be the last threat. Our 
patients have experienced hepatitis B, hepatitis C, West Nile 
virus, and today they're facing dengue and bebizia, new 
pathogens that cause fatal and debilitating illnesses. There 
will be new pathogens in the future.
    Improved donor testing has reduced the risk for some of 
these infections, but tests do not exist for all pathogens, and 
the blood supply remains vulnerable. Testing will always be 
inherently a reactive strategy against new pathogens. Improved 
donor testing has not solved the problem.
    Soldiers on deployment are especially vulnerable to the 
problems of providing an adequate and safe blood supply for the 
military. As to adequacy, the military relies on its own 
donors, but many of these donors are disqualified due to travel 
related to deployment. Because blood products have a limited 
shelf life and require temperature control, it's not easy to 
transport blood to forward areas of deployment where they're 
critically required. As a result, the military must frequently 
rely on personnel to donate blood in forward areas of 
deployment, where it cannot be adequately tested, and this 
creates problems of safety due to exposure to unrecognized 
pathogens.
    Today a solution exists to this problem. It's pathogen 
inactivation, treating donated blood to kill microbes. This is 
not a novel concept. We pasteurize milk and other intravenous 
medications are treated to sterilize them. However, pathogen 
inactivation of blood components has been a scientific 
challenge.
    My colleagues and I started work on this technology years 
ago and in 1999 the subcommittee provided the first year of 
funding to advance this technology for the military, and we're 
grateful for this. In 2003 the technology from our company was 
licensed in Europe, and since that time 1 million blood 
components treated with this technology have been transfused.
    In our country, the respiratory hurdles to pathogen 
inactivation have been challenging. But my focus today is on a 
modest step to improve safety for the military blood 
transfusion supply. The French military have solved the problem 
of adequacy and safety for plasma by creating a pathogen-
inactivated freeze-dried plasma. This product has been used in 
Afghanistan since 2010. It can be stored for up to 2 years at 
room temperature and it's ready for use within 6 minutes.
    The U.S. Army is aware of dried plasma, but without FDA 
agreement it cannot be used for U.S. troops. The clinical data 
from the French army support the use of this freeze-dried 
plasma, and the pathogen-inactivate plasma can be available to 
the U.S. military through a collaborative program with the 
French, at lower cost and more rapidly than other approaches.

                           PREPARED STATEMENT

    Cerus asks that the subcommittee provide funding to support 
the licensure of this product and to encourage the FDA to 
define an expeditious pathway for licensure. This action is 
consistent with the 2009 recommendation by the Assistant 
Secretary for Health for implementation of pathogen 
inactivation of civilian blood components.
    Chairman Inouye, thank you for the opportunity to testify 
and for your decades of service to our military and the Nation.
    [The statement follows:]
              Prepared Statement of Laurence Corash, M.D.
    Chairman Inouye and Ranking Member Cochran, and members of the 
Defense subcommittee: Thank you for the opportunity to testify before 
your subcommittee today about improving blood safety.
    I am the Chief Medical Officer for Cerus Corporation in Concord, 
California. In the 1980s, I was the director of a university hematology 
service in which a majority of our patients were infected by an unknown 
virus and developed a disease, we now call AIDS, but which no one knew 
existed at the time. There was no way to know at that time that blood 
being donated and transfused contained deadly pathogens that could kill 
people. Although many steps are taken today to reduce the risk of 
infection from donated blood, it is surprising and disappointing that 
for both civilian and military purposes there still remains no good way 
to prevent new and unknown emerging pathogens from entering the blood 
supply and no way to detect them prior to transfusion. Worse, if a 
terrorist organization were to engineer novel pathogens and introduce 
them into our Nation's blood supply, there is no mechanism for 
determining that they are in blood until you see the effects, when it 
is far too late. We had a close call with the anthrax event in which 
potential blood donors were unknowingly exposed.
    There is a better way, and it's called ``pathogen inactivation''. 
This is not a novel concept as all other intravenous medications are 
sterilized. Unfortunately, our Nation has been slow to implement it, 
which is a Food and Drug Administration (FDA) issue. But we are also 
asking our military personnel, who maybe wounded in combat, to take 
blood-safety risks that are not necessary. I would like to bring this 
issue to your attention today, along with an interim solution for your 
consideration.
    About 16 million units of whole blood were donated in the United 
States in 2006. Whole blood can be transfused directly or more commonly 
separated into its components:
  --red cells;
  --plasma; and
  --platelets.
    Most of the Nation's blood supply is handled by the American Red 
Cross and a small number of community blood-banks. The FDA regulates 
all blood bank operations.
    Blood centers, which have tested for risks like hepatitis C and 
AIDS since the 1980s and 1990s, have added a number of new tests on 
donated blood in recent years to deal with emerging pathogens. However, 
more pathogens have shown up in the donor population as people travel 
more, climate change, and urbanization impact pathogen vectors, and 
bacterial pathogens become more resilient to antibiotics. Without FDA 
approved tests for many infectious risks, blood centers have steadily 
added new prohibitions for people wanting to give blood which reduce 
the donor pool significantly. In 2006, for example, 12.4 million people 
volunteered to donate blood but nearly 2.6 million were turned away 
during questionnaire screening. Donors may be rejected simply on the 
region of the world to which they travelled, but many of them could be 
qualified blood donors if adequate testing was possible or other safety 
measures were taken, such as pathogen inactivation.
    The Department of Defense (DOD) is generally discouraged from 
relying on the domestic blood supply to support the military. The Armed 
Services Blood Program supplies blood for 1.3 million servicemembers 
and their families each year. Military personnel who were stationed in 
Europe for extended periods in the 1980s and 1990s are not allowed to 
donate blood, as a precaution against mad cow disease. Soldiers 
returning from Iraq and Afghanistan cannot donate blood for at least a 
year. As a consequence, a larger population of the military can no 
longer donate blood. Measures such as increasing blood recruitment 
efforts from military personnel in training billets, from the DOD 
civilian workforce, and from military dependents may not be enough.
    During recent operations in Iraq and Afghanistan, platelets were 
collected from U.S. military members and transfused with limited real-
time testing. The U.S. Army Medical Command for example stated in a 
January 2008 news release that:

    ``. . . field hospitals must rely on local personnel when treating 
someone who has suffered catastrophic injuries and needs a lot of blood 
quickly. At these times, an urgent call for blood donors is sent out 
and our men and women in uniform, already in a war zone, line up on-on 
the run to give blood.''

    As you can imagine, collecting blood in theater from deployed U.S. 
soldiers or civilians entails a significant risk of infection, because 
testing in theater is limited. Your subcommittee is aware of the 
incident where the British Government raised concerns about 18 of its 
troops and 6 civilians who received emergency blood transfusions from 
American personnel in Afghanistan without proper testing for infectious 
diseases.
    As I indicated before, there is a better way to ensure blood 
transfusion safety, and it's called ``pathogen inactivation''. In fact, 
the Assistant Secretary for Health in the Department of Health and 
Human Services established a Federal pathogen inactivation task force 
in 2009 based on recommendations from its Advisory Committee on Blood 
Safety and Availability. I urge the Senate Appropriations Committee, 
through one of its other subcommittees, to look into the lack of 
progress that has been made at the Federal level to expedite pathogen 
inactivation technology to protect our national blood supply.
    Cerus is a biotechnology company based in California founded in 
1992 with the mission to develop technology for the inactivation of 
infectious microbes, including viruses, bacteria, and parasites, in 
blood components (platelets, plasma, and red cells) used for 
transfusion support of patients. We have a process for pathogen 
inactivation in blood using chemicals and ultraviolet light that 
prevents any organism from replicating. Cerus blood technology 
inactivates all infectious agents such as bacteria, viruses, and 
parasites in blood, whether you know they are there or not. We have 
spent more than $600 million developing the technology, of which less 
than 7 percent came from the Federal Government, and we have been on an 
agonizingly slow process toward FDA approval for its eventual use in 
the United States.
    The technology is in use in Europe, Asia, Russia, the Middle East, 
and South America. The treated blood components have received national 
licensure as biologics in France, Germany, Switzerland, and Austria. To 
date more than 1 million therapeutic doses have been transfused in more 
than 100 blood centers in 16 countries. In France, more than 30,000 
patients have received the platelet and plasma products. One Belgian 
blood center has used the technology for 9 years. The Swiss Regulatory 
Authority mandated use of the platelet technology in 2010. The French 
Armed Forces Blood Transfusion Service has used this technology to 
create dried plasma which has been used in Afghanistan to treat 
severely wounded personnel at the time of injury since 2010. 
Surveillance by the regulatory authorities in these countries has shown 
that the technology is safe and effective in routine use; and that it 
has prevented transfusion-transmitted infections. The red cell 
technology is entering Phase 3 clinical trials in Europe.
    Cerus has received DOD funding to support the development of 
technology specific to the Army's blood transfusion requirements. The 
major portion of this funding has supported the red cell technology 
program that is now under discussion with FDA for design of Phase 3 
clinical trials. Recently, Cerus became aware of the Army's interest in 
dried plasma as a means to improve outcomes for severely wounded 
personnel. However, the Army has communicated to Cerus the overwhelming 
task of taking this product through FDA regulatory approval.
    The U.S. Army is aware of the French Armed Forces experience with 
the dried plasma product; and Cerus has discussed the use of data from 
the French Armed Forces clinical experience with the French Armed 
Forces Blood Service to support FDA licensure for the specific 
treatment of U.S. military personnel. Cerus believes that these data, 
in combination with the substantial European experience with this 
technology are relevant and sufficient to support licensure, but prior 
discussions with FDA have not resulted in a commitment to use these 
data. Cerus believes that there is a need for the pathogen inactivated 
dried plasma product and that this product can be made available to the 
U.S. Armed Forces through a collaborative manufacturing program with 
the French Armed Forces Blood Service. This approach would make this 
product available at lower cost and more rapidly than other approaches 
currently under consideration. Cerus requests the subcommittees 
recommend this initiative with expedited review by FDA which could 
improve the outcomes for military personnel with severe traumatic 
injuries.
    The pathogen inactivation technology will also be of benefit to the 
civilian population especially for national disaster contingency 
planning when normal channels for blood donation, preparation, and 
transport may be disrupted by natural disasters or bioterrorism events.
    Chairman Inouye, as a Medal of Honor winner who has personally 
witnessed the horrors of combat, I wanted to bring to your attention, 
and to the subcommittee, that through cooperation with the French 
military the Army can now take steps to expedite the availability of 
proven pathogen inactivation technology for the U.S. Armed Forces. That 
would mean that our soldiers and marines would have more blood 
supplies, faster treatment during the critical first moments after 
severe injuries, and improved safety during blood transfusions after 
being injured in combat.
    I thank all the members of the subcommittee for allowing me this 
opportunity to testify today, and thank you for your decades of service 
to our military and to our Nation.

    Chairman Inouye. You've brought up a matter that's very 
personal to me because during the war I got about 30 
transfusions. I just must have been lucky.
    What was the situation in World War II? Was it this bad?
    Dr. Corash. Well, it was worse, of course, because 
transportation of blood in liquid format and even of plasma was 
extraordinarily difficult, and that meant that treatment could 
not be delivered close to the point of injury. We know now that 
the first 30 minutes are very critical for survival.
    It's improved over the years by various measures, but we 
have not yet achieved the most optimal outcome. I think the 
French have really achieved this. The data from their 
experience in Afghanistan for salvage of these wounded 
personnel is quite impressive.
    Chairman Inouye. If you have any reading material on the 
French method, will you submit that, please?
    Dr. Corash. I'm sorry, Sir?
    Chairman Inouye. On the French method, if you have any 
reading material.
    Dr. Corash. Yes, I do. I can send you some publications 
that have been provided to me by the French military, and I 
work very actively with them.
    Chairman Inouye. Thank you very much.
    May I now call upon Ms. Sharon Smith.
STATEMENT OF SHARON SMITH, EXECUTIVE DIRECTOR, NATIONAL 
            TRAUMA INSTITUTE
    Ms. Smith. Thank you, Mr. Chairman and Ranking Member 
Cochran, for the opportunity to testify today to urge the 
subcommittee to invest a greater amount of DOD medical research 
funds into the primary conditions which kill our soldiers.
    According to military trauma surgeons, noncompressible 
hemorrhage is the leading cause of death among combatants whose 
deaths are considered potentially survivable. This includes 
injuries to the neck, chest, abdomen, groin, and back, where a 
tourniquet or compression cannot be easily applied. The 
National Trauma Institute (NTI) believes an accelerated program 
of research into noncompressible hemorrhage will result in the 
first truly novel advances in treating this difficult problem, 
will save the lives of soldiers wounded in combat, and will 
have tremendous impact on civilian casualties and costs.
    I'm executive director of the NTI, which is a nonprofit 
organization based in San Antonio, Texas, where so many of the 
military's medical research assets are centralized. We were 
formed in 2006 by leaders of America's trauma organizations in 
response to frustration over lack of funding of trauma 
research. Our board of directors includes civilian, active 
duty, and retired military trauma surgeons, and we advocate and 
manage funds for trauma research and are a national 
coordinating center for those funds.
    In a June 2011 letter, the Defense Health Board, which 
provides advice and recommendations to the DOD, cited an urgent 
need to improve the evidence base for trauma care, and further 
stated that, ``Due to the lack of opportunities to perform 
randomized controlled trials on the battlefield, challenges 
arise in maintaining the best practice guidelines for the 
combat environment.''
    The board then recommended that the Department endorse 
high-priority medical research, development, testing, and 
evaluation (RDT&E) funding for improving battlefield trauma 
care. Further, individual members of the board have expressed 
grave concern that when the current combat mission ends no 
further military medical research progress will be made. A 
review of medical advances available to the combat medic has 
identified no significant changes during the period of relative 
peace from the end of the Vietnam War to September 11, 2011.
    The challenge going forward is to fund medical research and 
development during peacetime, without the historical impetus 
afforded by active combat operations. A time of peace is an 
opportunity to make medical advances to ensure readiness for 
the next conflict or terrorist threat.
    NTI has been invited to meet with the Defense Health Board 
later this month to explore how we together can address these 
concerns.
    Military trauma surgeons agree that the major cause of 
death from combat wounds is hemorrhage. In recent conflicts, 21 
percent of combat deaths were potentially survivable. In other 
words, more than 1,300 warriors wounded in Iraq and Afghanistan 
might have survived, but died because treatment strategies were 
lacking. More than 600 of these were due to noncompressible 
hemorrhage.
    Currently there is no active intervention for 
noncompressible hemorrhage available to military medics, not 
even a method to detect whether the wounded warrior is bleeding 
internally and if so how much blood has been lost.
    On the civilian front, trauma injury is responsible for 
more than 61 percent of the deaths of Americans between the 
ages of 1 to 44 every year, more than all forms of cancer, 
heart disease, HIV, liver disease, stroke, and diabetes 
combined. An American dies every 3 minutes due to trauma, and 
that's 170,000 deaths, in addition to 42 million injuries every 
year, making trauma the second most expensive healthcare 
problem facing the United States, with annual medical costs of 
$72 billion.

                           PREPARED STATEMENT

    So NTI recommends that the Congress set aside a much larger 
portion of DOD medical research funding for the medical 
conditions which most seriously and severely injure, as well as 
kill, our soldiers, and in particular maintain or increase 
funding for noncompressible hemorrhage, the leading cause of 
potentially survivable deaths of our soldiers.
    So I thank you again for the opportunity to present our 
views.
    [The statement follows:]
                   Prepared Statement of Sharon Smith
    Mr. Chairman, Ranking Member Cochran, and members of the 
subcommittee: Thank you for the opportunity to testify today to urge 
the subcommittee to invest a greater amount of Department of Defense 
(DOD) medical research funds in the primary conditions which kill our 
soldiers. According to military medical officials, noncompressible 
hemorrhage is the leading cause of death among combatants whose deaths 
are considered ``potentially survivable.'' The National Trauma 
Institute (NTI) believes an accelerated program of research into 
noncompressible hemorrhage will result in the first truly novel 
advances in treating this difficult problem, will save the lives of 
soldiers wounded in combat, and will have tremendous impact on civilian 
casualties and costs.
    NTI is a nonprofit organization formed in 2006 by leaders of 
America's trauma organizations in response to frustration over lack of 
funding of trauma research. Our Board of Directors now includes 19 
leading physicians totaling hundreds of years in treating traumatic 
injuries. Some of these physicians are active duty Army, Navy, and Air 
Force doctors in organizations such as the Army's Institute for 
Surgical Research in San Antonio, where NTI is based. Others are 
retired from the military after 20 plus years serving our Nation and 
are bringing the expertise gained in combat theaters to the civilian 
setting.
    With the support and participation of the national trauma 
community, NTI advocates and manages funding for trauma research and is 
a national coordinating center for trauma research funding. In recent 
years, NTI issued two national calls for proposals and received a total 
of 177 pre-proposals from 32 States and the District of Columbia. After 
rigorous peer review, NTI awarded $3.9 million to 16 proposals 
involving 55 clinical investigators at 39 participating sites spread 
across 35 cities and 22 States nationally. Several of these studies are 
nearing completion. However, important as these studies are, they will 
barely begin to build the body of knowledge necessary for improved 
treatments and outcomes in the field of trauma in the United States.
                          defense health board
    As the subcommittee knows, the Defense Health Board is a Federal 
advisory committee which provides independent advice and 
recommendations on DOD healthcare issues including research to the 
Secretary of Defense. The Board, in a letter to the Honorable Jonathan 
Woodson, M.D., Assistant Secretary of Defense (Health Affairs) dated 
June 2011, cited ``an urgent need to improve the evidence base for 
trauma care . . . due to the lack of opportunities to perform 
randomized controlled trials on the battlefield, challenges arise in 
maintaining . . . best practice guidelines for the combat 
environment.'' The DHB then recommended that the Department of Defense 
``endorse . . . high-priority medical Research, Development, Test and 
Evaluation (RDT&E) issues for improving battlefield trauma care.''
    Further, individual members of the Defense Health Board have 
expressed grave concern that when the current combat mission ends, no 
further military medical research progress will be made. The challenge 
going forward will be to provide the necessary support for medical 
research and development during peacetime, without the historical 
impetus afforded by active combat operations. A review of medical 
advances available to the Combat Medic has identified no significant 
changes during the period of relative peace from the end of the Vietnam 
War to September 11, 2001.\1\
---------------------------------------------------------------------------
    \1\ Blackborne, L.H.C. (2011) 1831. The Army Department Medical 
Journal April-June 2011, 6-10.
---------------------------------------------------------------------------
    A time of peace is an opportunity to make medical advancements to 
ensure readiness for the next conflict or terrorist threat. NTI will be 
visiting the Defense Health Board later this month to explore how our 
country can address these concerns.
                       noncompressible hemorrhage
    According to military documents and officials, the major cause of 
death from combat wounds is hemorrhage. In recent conflicts, 21 percent 
of combat deaths have been judged to be potentially survivable.\2\ In 
other words, more than 1,300 warriors wounded in Iraq or Afghanistan 
might have survived to come home to their loved ones, but didn't 
because treatment strategies were lacking. More than 1,100 (85 percent) 
of these deaths were due to hemorrhage, and 55 percent of these, more 
than 600 potentially survivable deaths, resulted from hemorrhage in 
regions of the body such as the neck, chest, abdomen, groin, and back 
that couldn't be treated by a tourniquet or compression.\2\
---------------------------------------------------------------------------
    \2\ Eastridge, B.J., Hardin, M., Cantrell, J., Oetjen-Gerdes, L., 
Zubko, T., Mallak, C., Wade, C.E., Simmons, J., Mace, J., Mabry, R., 
Bolenbaucher, R., Blackbourne, L.H. (2011) Died of wounds on the 
battlefield: causation and implications for improving combat casualty 
care. J Trauma. 71 (1 Suppl): S4-8.
---------------------------------------------------------------------------
    causes of potentially survivable deaths operation iraqi freedom/
                       operation enduring freedom

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    NTI commends the Congress for its attention to traumatic brain 
injuries and encourages a continuing focus on this potentially 
debilitating condition. Yet as the above chart shows, hemorrhage is a 
far more common killer of our soldiers, and hemorrhage has received 
relatively little funding.
    Extremity wounds are amenable to compression to stop bleeding, and 
new tourniquets and hemostatic bandages have had a major impact on the 
decline in combat deaths due to extremity hemorrhage. But compression 
is rarely effective for penetrating wounds to the torso and major 
vessels can be damaged resulting in massive hemorrhage. At present, 
such wounds are normally only treatable through surgical intervention 
and typically such patients do not survive to reach the operating room.
    Currently, there is no active intervention for noncompressible 
hemorrhage available to military medics, who along with civilian 
responders have only the tools their predecessors had in the early 20th 
century. There is not even a method to detect whether the wounded 
warrior is bleeding internally, and if so, how much blood has been 
lost. The current Tactical Combat Casualty Care guidelines for medics 
and corpsmen do not include strategies to stem bleeding from 
noncompressible hemorrhage because no solutions are available.\3\ NTI 
hopes to decrease the mortality of severely injured patients suffering 
from torso hemorrhage. This can only be accomplished through research 
into the development of simple, rapid and field-expedient techniques 
which can be used by medics on the battlefield or first responders in a 
civilian context to detect and treat noncompressible hemorrhage. 
Examples of current NTI research in noncompressible hemorrhage include:
---------------------------------------------------------------------------
    \3\ (2009) Tactical Combat Casualty Care Guidelines. http://
www.usaisr.amedd.army.mil/tccc/TCCC%20Guidelines%20091104.pdf. Accessed 
May 20, 2012.
---------------------------------------------------------------------------
  --The use of ultrasonography to measure the diameter of the vena cava 
        to determine whether this will give an accurate indication of 
        low blood volume.
  --An observational study to determine the incidence and prevalence of 
        clotting abnormalities in severely injured patients and to 
        study the complex biology of proteins to better understand, 
        predict, diagnose, and treat bleeding after trauma.
  --Supplementation of hemorrhagic shock patients with vasopressin, a 
        hormone needed to support high blood pressure. Vasopressin at 
        high doses has been shown to improve blood pressure, decrease 
        blood loss and improve survival in animal models with lethal 
        blood loss. This study investigates the use of vasopressin in 
        trauma patients.
    Another challenge in hemorrhage is resuscitation--the restoration 
of blood volume and pressure. Traditional resuscitation includes large 
volumes of intravenous fluids followed by blood and finally plasma. 
However, now this large intravenous fluid load is thought to worsen the 
trauma patient's coagulopathy (blood clotting problems), increasing 
bleeding. There is strong retrospective evidence that for patients 
requiring massive transfusion, a higher proportion of plasma and 
platelets, when compared to red cells, results in improved survival. 
Based on a 2004 research study,\4\ the current Joint Theater Trauma 
Clinical Practice Guideline for Forward Surgical Teams and Combat 
Support Hospitals advocates a plasma, platelet, and red cell 
resuscitation regime in lieu of the standard intravenous fluids. 
Currently, there is no blood substitute available for in-theater use. 
The Army Medical Department/USA Institute of Surgical Research is 
working on a freeze-dried plasma solution; however, this product has 
not yet received FDA approval. Remarkably, current treatments used by 
military medics for restoration of blood volume are very similar to 
those originally used in 1831 when saline was first given as an 
intravenous fluid to cholera patients.\1\
---------------------------------------------------------------------------
    \4\ Holcomb, J.B., Jenkins, D., Rhee, P., Johannigman, J., Mahoney, 
P., Mehta, S., Cox, E.D., Gehrke, M.J., Beilman, G.J., Schreiber, M., 
Flaherty, S.F., Grathwohl, K.W., Spinella, P.C., Perkins, J.G., 
Beekley, A.C., McMullin, N.R., Park, M.S., Gonzalez, E.A., Wade, C.E., 
Dubick, M.A., Schwab, C.W., Moore, F.A., Champion, H.R., Hoyt, D.B., 
and Hess, J.R. (2007) Damage Control Resuscitation: Directly Addressing 
the Early Coagulopathy of Trauma. The Journal of Trauma 62, 307-310.
---------------------------------------------------------------------------
    Noncompressible hemorrhage is just one example of advances in 
research that can be applied to both military and civilian casualties. 
Many of the problems associated with hemorrhage of all kinds are 
potentially solvable and are transferable between military and civilian 
trauma care. The funding recommended by NTI could have a dramatic 
impact on civilian mortality in the United States as hemorrhage is 
responsible for 30 to 40 percent of deaths following a traumatic injury 
to civilians.\5\
---------------------------------------------------------------------------
    \5\ Holcomb, J.B. (2010) Optimal Use of Blood Products in Severely 
Injured Trauma Patients. Hematology, 465-469.
---------------------------------------------------------------------------
              impact of trauma on united states civilians
    Traumatic injury is the cause of death of nearly every soldier in 
combat. On the civilian front, trauma/injury is responsible for more 
than 61 percent of the deaths of Americans between the ages of 1 and 44 
each year.\6\ That's more than all forms of cancer, heart disease, HIV, 
liver disease, stroke, and diabetes combined. An American dies every 3 
minutes due to trauma. That's 170,000 deaths in addition to 42 million 
injuries every year.\6\
---------------------------------------------------------------------------
    \6\ CDC (2006) Centers for Disease Control/WISQARS. http://
webappa.cdc.gov/sasweb/ncipc/mortrate10_sy.html. Accessed March 16, 
2012.
---------------------------------------------------------------------------
                top causes of death in 2009: 1-44 years

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Trauma is the second most expensive public health problem facing 
the United States. Data from the Agency for Healthcare Research and 
Quality (AHRQ) on the ten most expensive health conditions puts the 
annual medical costs from trauma at $72 billion, second only to heart 
conditions at $76 billion, and ahead of cancer and all other 
diseases.\7\ The National Safety Council estimates the true economic 
burden to be more than $690 billion per year, since trauma has an 
ongoing cost to society due to disability, and is the leading cause of 
years of productive life lost.\8\
---------------------------------------------------------------------------
    \7\ AHRQ (2008) Big Money: Cost of 10 Most Expensive Health 
Conditions Near $500 Billion. Agency for Healthcare Research and 
Quality http://www.ahrq.gov/news/nn/nn012308.htm. Accessed May 2, 2012.
    \8\ NSC (2011) Summary from Injury Facts, 2011 Edition. National 
Safety Council http://www.nsc.org/news_resources/
injury_and_death_statistics/Documents/Summary%202011.pdf. Accessed 
March 16, 2011.
---------------------------------------------------------------------------
      eight most expensive health conditions in the united states

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

             department of defense medical research funding
    For fiscal year 2012, the Congress added more than $600 million to 
the President's budget request for DOD medical research funding. While 
very significant, this sum is considerably less than that appropriated 
just 2 years prior, when the Congress added more than $1 billion for 
DOD medical research. However, roughly 60 percent of the fiscal year 
2012 funding the Congress added was not directed to those conditions 
such as hemorrhage which are common battlefield injuries and most 
severely impact our troops. NTI greatly appreciates the subcommittee's 
attention to traumatic brain injury and psychological health. NTI urges 
that the Congress set aside equivalent sums for improvements in 
treating other lethal or disabling battlefield injuries.
                             research works
    It has been proven repeatedly that medical research saves lives. 
For instance, in 1950 a diagnosis of leukemia was tantamount to a death 
sentence. Research led to chemotherapy treatments in the 1950s and bone 
marrow transplantations in the 1970s. A substantial investment in 
research has led to safer and more effective treatments, and today 
there is a 90-percent survival rate for leukemia.\9\ Another example is 
breast cancer. Thirty years ago only 74 percent of women who were 
diagnosed before the breast cancer spread lived for another 5 years. 
Due to research into early detection, chemotherapy and pharmaceuticals, 
the 5-year comparable survival rate for breast cancer is now 98 
percent.\10\
---------------------------------------------------------------------------
    \9\ (2011) Research Successes. Leukemia and Lymphoma Society http:/
/www.lls.org/#/aboutlls/researchsuccesses/. Accessed May 20, 2012.
    \10\ (2011) Our Work. Susan G. Komen For the Cure http://
ww5.komen.org/AboutUs/OurWork.html. Accessed May 20, 2012.
---------------------------------------------------------------------------
    Fifty years of dedicated research into proper diagnosis and 
treatment of leukemia has led to an 80-percent reduction in the death 
rate. Imagine even a 5 percent reduction in trauma deaths and economic 
burden--this could save the United States $35 billion, save almost 
9,000 lives every year, and significantly reduce the extent of 
disability of those who do survive a traumatic event.
    Recommendation.--NTI recommends that the Congress set aside a much 
larger portion of DOD medical research funding for the medical 
conditions which most severely injure as well as kill our soldiers and 
in particular maintain or increase funding for noncompressible 
hemorrhage--the leading cause of potentially survivable deaths of our 
soldiers.

    Chairman Inouye. I can assure you that we will discuss this 
matter with DOD to see if they cannot increase funding. Thank 
you very much.
    Now the final panel. We have: Rear Admiral Casey Coane, 
representing the Association of the United States Navy; Dr. 
Andrew Pollak, representing the American Association of 
Orthopedic Surgeons; Mr. Mark Haubner, representing the 
Arthritis Foundation; and Dr. Remington Nevin, representing the 
mefloquine research.
    May I call upon Admiral Coane.
STATEMENT OF REAR ADMIRAL CASEY COANE, U.S. NAVY 
            (RETIRED), EXECUTIVE DIRECTOR, ASSOCIATION 
            FOR THE UNITED STATES NAVY
    Admiral Coane. Chairman Inouye and Ranking Member Cochran: 
It's good to be with you again this year. On behalf of the 
Association of the United States Navy (AUSN) and our thousands 
of members, we thank you and the committee for the work that 
you do in support of our Navy, retirees and veterans, as well 
as their families. Your hard work has allowed significant 
progress in adequately funding our Nation's military that has 
also left a lasting impact on national security.
    AUSN recognizes the difficulties ahead in your obligation 
to abide by the Budget Control Act of 2011, while adequately 
funding and providing for our Nation's defense. Our top 
concerns with defense appropriations include the proposed 
TRICARE increases, Navy shipbuilding, and adequately funding 
the National Guard and Reserve equipment account for the Navy 
Reserve component. I'll make a brief comment about each and 
refer your staff to our written testimony for details.
    Regarding TRICARE, AUSN accepts proposed increases in 
pharmacy copays right now as reasonable, but urges the Congress 
to reject any new fees and any increase in TRICARE Prime fees 
that exceeds the cost-of-living adjustment (COLA)-based 
standard established just last year in the Defense 
Authorization Act.
    If we were here discussing changing the age requirements 
for social security, there isn't a person in this room who 
wouldn't agree that we must grandfather current recipients who 
planned for their retirement under the current rule set. The 
Defense Department extends no such consideration to those 
already retired. In fact, the lion's share of proposed fee 
increases applies only to retirees.
    AUSN supports legislation to protect the armed service 
retirees from proposed increases to their TRICARE coverage, 
such as S. 3203, the Military Health Care Protection Act of 
2012, which was introduced bipartisanly by Senators Frank R. 
Lautenberg and Marco Rubio.
    Senators, our Navy is stretched thin today. In this decade 
of war our Navy, while the budget has gone up, has gotten only 
smaller. Right now the budget calls for fewer ships. 
Deployments are lengthening today. We just had a ship return 
from, instead of a 6-month deployment, a 10-month wartime 
deployment, and we just sent one on a 10-month deployment last 
month. This directly impacts families. As I said, the proposed 
budget calls for fewer ships.
    As the Army and Marine Corps return from Afghanistan, the 
Navy's mission will not decrease. In fact, the President has 
directed in his January strategic guidance increased efforts in 
the Pacific.
    Therefore, AUSN urges the Senate Appropriations Committee 
to restore planned cuts to the Virginia-class submarine, to 
restore 4 of the 7 cruisers now scheduled for early retirement. 
This is both necessary to the Navy's mission and cost-effective 
for the taxpayer.
    Turning to the Reserve component, Senator Cochran, you and 
I discussed at this hearing last year the Navy's C-48 transport 
aircraft. It's a program of record calling for 17 aircraft to 
replace seriously aging C-9B's. Now, in keeping with the 
Pentagon's thoughts about unfunded lists, the Navy Reserve 
didn't ask for an airplane this year, and yet the program of 
record stands. Fourteen have been bought to this date of the 
17. Some have been bought with National Guard and Reserve 
equipment moneys, which is the right place for that, in the 
Reserve component.

                           PREPARED STATEMENT

    The Navy cannot do without this airlift capacity, and each 
year that the less capable and far more expensive to operate C-
9s remain, the taxpayers lose. There are no C-40s, as I said, 
in the fiscal year 2013 budget. AUSN urges the addition of at 
least one, funded through the National Guard and Reserve 
Equipment Account (NGREA), this year.
    That concludes my testimony, subject to your questions.
    [The statement follows:]
             Prepared Statement of Rear Admiral Casey Coane
               the association of the united states navy
    The Association of the United States Navy (AUSN) continues its 
mission as the premier advocate for our Nation's sailors and veterans 
alike. Formerly known as the Naval Reserve Association, which traces 
its roots back to 1954, AUSN was formally established on May 19, 2009, 
to expand its focus on the entire Navy. AUSN works for not only our 
members, but the Navy and veteran community overall by promoting the 
Department of the Navy's interest, encouraging professional development 
of officers and enlisted, and educating the public and political bodies 
regarding the Nation's welfare and security.
    AUSN prides itself on personal career assistance to its members and 
successful legislative activity on Capitol Hill regarding equipment and 
personnel issues. The Association actively represents our members by 
participating in the most distinguished groups protecting the rights of 
military personnel. AUSN is a member of The Military Coalition, a group 
of 34 associations with a strong history of advocating for the rights 
and benefits of military personnel, active and retired. AUSN is also a 
member of the National Military Veterans Alliance and an associate 
member of the Veterans Day National Committee of the Department of 
Veterans' Affairs (VA).
    AUSN's members are Active Duty, Reserve and veterans from all 50 
States, U.S. territories, Europe, and Asia. AUSN has 81 chapters across 
the country. Of our 18,000 members, approximately 95 percent are 
veterans. Our national headquarters is located at 1619 King Street, 
Alexandria, Virginia, and we can be reached at 703-548-5800.
                                summary
    Chairmen Inouye, Ranking Member Cochran, and members of the Senate 
Appropriations Committee, Subcommittee on Defense: AUSN thanks you and 
your Committee for the work that you do in support of our Navy, 
retirees, and veterans as well as their families. Your hard work has 
allowed significant progress in adequately funding our Nation's 
military that has also left a lasting impact on our national security.
    Last year alone, in the Department of Defense (DOD) Appropriations 
Act of 2012, AUSN was pleased to see that the Congress funded Navy 
Military personnel at $26.8 billion; Marine Corps military personnel at 
$13.6 billion; Navy Reserve personnel at $1.9 billion; and Marine Corps 
Reserve personnel at $644 million. In addition, AUSN was pleased to see 
$14.9 billion appropriated for Navy Shipbuilding and Conversion; $32.5 
billion for the Defense Health Program; and record amounts of National 
Guard and Reserve Equipment Account (NGREA) funding at $1 billion, of 
which $75 million was appropriated for the Navy Reserve.
    As part of a larger military and veteran community, AUSN recognizes 
that there are many challenges ahead, especially with the release of 
the President's fiscal year 2013 budget request this past February and 
his Strategic Guidance earlier this past January. Of great concern 
amongst our membership, as well as the Navy and military community, are 
the increases in TRICARE rates and enrollment fees in DOD's budget 
request. AUSN believes that such changes must be done in accordance 
with what is right for our military and veterans given the promises 
that were made when they signed up to serve their country, and 
especially with those retirees who have already served and whom these 
changes effect even more. The impact this will also have upon future 
recruitment and retention within the military should also be taken into 
consideration as this subcommittee begins appropriating funds for the 
various essential DOD programs our servicemembers rely on.
    Similarly, AUSN is concerned with the heavy cuts that appear to be 
disproportionately allocated to DOD. DOD requested, in the President's 
budget request, $614 billion for fiscal year 2013, which reduces $487 
billion from its projected spending over the next decade. In the 
President's Strategic Guidance, released on January 3, 2012, it states 
that, ``we will of necessity rebalance toward the Asia-Pacific 
region''; however, the proposed decommissioning of seven older cruisers 
(six of which had been scheduled for modernization), delaying the Ohio-
class submarine (SSBN-X) replacement program by 2 years, build two 
fewer littoral combat ships (LCS) over the next 5 years (one from each 
variant builder), building only one Virginia-class submarine (SSN) in 
2014 and delay it to 2018, and the reduction of the joint high speed 
vessel (JHSV) from 18 to 10 found in the President's budget seems 
counter intuitive to this new strategy.
    The overarching, long-term, concerns with the proposed DOD budget 
cuts that the AUSN has is that DOD is already requesting $614 billion 
for fiscal year 2013, already trimming down $487 billion from its 
projected spending over the next decade. However, after the failure of 
the Joint Committee on Deficit Reduction, or ``Super Committee'', 
failing to find the savings as mandated by the Budget Control Act of 
2011 (BCA), come January 2013, the ``sequestration'' mechanism would be 
triggered that would automatically slash an additional $450-$500 
billion from the military's budget by fiscal year 2021. As a result of 
such drastic cuts, Secretary of Defense Leon Panetta has already 
stated, in a letter to Senators McCain and Graham last fall, that 
sequestration represents a reduction of nearly 20 percent in DOD 
funding over the next 10 years with reductions at this level meaning 
the smallest Navy since before World War II, potential termination of 
the Joint Strike Fighter (JSF) program, delay of the next-generation 
ballistic missile submarine and cuts to our existing sub fleet as well 
as the cancellation of the LCS program.
    AUSN is working with other Military and Veteran Service 
Organizations to address these concerns, but in regards to Defense 
appropriations, our focus is on the Military Healthcare System (MHS) 
that is crucial to our military personnel and the Navy's Equipment/
Procurement needs that is vital to our national security.
                   military healthcare system funding
    AUSN was pleased to hear that the President's budget request 
included $32.5 billion for the Defense Health Program (DHP), which was 
the same level enacted for fiscal year 2012. However, for the DOD's 
unified medical budget, which includes DHP, the President's budget 
request included $48.7 billion, which is a reduction of $4.1 billion 
from the fiscal year 2012 enacted level of $52.8 billion. The reduction 
primarily comes out of the Health Care Accrual Program which includes 
healthcare contributions of the Medicare-Eligible Retiree Health Care 
Fund to provide for the future costs of our personnel currently serving 
on Active Duty and their family members when they retire. AUSN stresses 
the importance of adequately funding the MHS and ensure that changes, 
like those proposed in the President's budget request, aren't 
burdensome to our military.
                                tricare
    The administration's fiscal year 2013 budget request implements 
numerous changes to the existing MHS, which is utilized by more than 
9.6 million beneficiaries which include active military member, their 
families, military retirees and their families, dependent survivors and 
certain eligible Reserve component members and their families. Changes 
include increases to TRICARE Prime Enrollment fees. Last year, finally 
acknowledging the Congress's long-standing concerns about the 
inappropriateness of dramatic increases in beneficiary fees, the 
administration proposed a 13-percent increase in TRICARE Prime fees. In 
the absence of congressional objection, the increase was implemented as 
of October 1, 2011. However, the new proposal for fiscal year 2013 
through fiscal year 2017 is a dramatic departure, proposing to triple 
or quadruple fees over the next 5 years (for example $520 across the 
board retired pay levels for fiscal year 2012 to $600/$720/$820 tiered 
across the retired pay levels for fiscal year 2013 to $893/$1,523/
$2,048 by fiscal year 2017). AUSN urges the Congress to reject any 
increase in TRICARE Prime fees that exceeds the cost-of-living 
adjustment (COLA)-based standard established in the Fiscal Year 2012 
Defense Authorization Act.
    In addition, the fiscal year 2013 budget request institutes an 
annual TRICARE Standard Enrollment fee to be phased in over a 5-year 
period and then indexed to increases in National Health Expenditures 
(NHE) after fiscal year 2017 (for example $0 in fiscal year 2012 to $70 
in fiscal year 2013 for individuals and $0 in fiscal year 2012 to $140 
for families). The deductibles for TRICARE Standard would also increase 
from $150 in fiscal year 2012 to $160 in fiscal year 2013 for 
individuals and from $300 in fiscal year 2012 to $320 in fiscal year 
2013 for families. TRICARE for Life (TFL) would also see an 
implementation of enrollment fees for all three tiers going from $0 for 
all three for fiscal year 2012 to $35 for tier 1, $75 for tier 2 and 
$115 for tier 3 for fiscal year 2013. In total, the fiscal year 2013 
budget request contains $48.7 billion for the entire DOD unified 
medical budget to support the MHS, which is a difference of $4.1 
billion less than the $52.8 billion that was enacted for fiscal year 
2012.
    These proposed increases, which require congressional approval, are 
part of the Pentagon's plan to cut $487 billion in spending and seeks 
to save $1.8 billion from the TRICARE system in the fiscal year 2013 
budget, and $12.9 billion by 2017. These rate increases amount to an 
overall change of 30-percent to 78-percent increase in TRICARE premiums 
for the first year and explodes for a 5-year span increase of 94 
percent to 345 percent, more than three times current levels!
    AUSN, our membership and the military and veteran community 
continue to oppose the establishment of any new fees where there are 
none now (such as the enrollment fees for TFL or TRICARE Standard). Our 
veterans should get guaranteed access for an enrollment fee which is 
not always the case for those that rely on TFL or TRICARE Standard 
where many can't find doctors to see them. Where a flat fee exists now 
(which DOD is trying to dramatically increase and then index to health 
cost growth), we assert that the same rules should apply to those that 
the Congress applied to the Prime enrollment fee in the fiscal year 
2012 NDAA . . . they should be tied to COLA and not health cost growth.
    These changes in the fiscal year 2013 budget request raise concerns 
amongst the military community about the impact this will have on 
recruiting and maintaining a high quality all volunteer military force. 
These benefits have been instrumental in recruiting qualified service 
men and women and keeping them in uniform.
                 pending legislation and appropriations
    AUSN was happy to see that the House Appropriations Committee, 
Subcommittee on Defense completed its markup in mid-May and included 
$32.9 billion for DHP, which is $333.5 million more than the 
President's budget request, and $380.2 million more than the amount 
appropriated for fiscal year 2012. The markup also includes $2.3 
billion for family support and advocacy programs. Increases above the 
request include:
  --$246 million for cancer research;
  --$245 million for medical facility and equipment upgrades;
  --$125 million for traumatic brain injury and psychological health 
        research; and
  --$20 million for suicide prevention outreach programs.
    AUSN is supportive of these funding levels within the DHP to our 
military. In addition, AUSN supports legislation to protect armed 
service retirees from proposed increases to their TRICARE coverage such 
as S. 3203, the Military Healthcare Protection Act of 2012, which was 
introduced bipartisanly by Senators Frank Lautenberg (D-NJ) and Marco 
Rubio (R-FL). This bill recognizes the sacrifices made over a 20- or 
30-year military career to retirees and seeks to limit the proposed 
changes in TRICARE.
                       navy equipment/procurement
    The President's fiscal year 2013 budget request included $43.9 
billion for Navy and Marine Corps equipment funding. This is a decrease 
of $2.3 billion below the amount enacted for fiscal year 2012 (5-
percent decrease). This includes, within the fiscal year 2013 budget 
request for the Navy, the proposed decommissioning of seven older 
cruisers (six of which had been scheduled for modernization), delaying 
the Ohio-class submarine (SSBN-X) replacement program by 2 years, build 
two fewer littoral combat ships (LCS) over the next 5 years (one from 
each variant builder), and build only one Virginia-class submarine 
(SSN) in 2014 and delay it to 2018. AUSN is concerned that these 
funding level decisions are being driven by budget, rather than 
strategy, and that the Navy procurement levels do not reflect the needs 
of a strong forward presence, especially in the hostile regions of the 
Asia-Pacific Theater.
                    navy shipbuilding and conversion
    As the Congress proceeds with consideration of the fiscal year 2013 
Defense appropriations bill, it is important that the appropriated 
funding levels for Navy equipment meet the needs of our Navy as 
recommended by the President's Strategic Guidance released this past 
January. In the Strategic Guidance, the Administration highlights that, 
``we will of necessity rebalance toward the Asia-Pacific region . . . 
[providing] security in the broader Indian Ocean region.'' Yet the 
proposed cuts to Navy platforms in the President's budget request are 
alarming in that with this refocus in strategy, and the Navy's goal of 
a 300-plus fleet, appear to hamper this strategy and reduce our Navy's 
capability, making any attempt to deter hostilities in the Pacific very 
difficult.
    Last year, in the Consolidated Appropriations Act for fiscal year 
2012, the Navy was appropriated $14.9 billion for Navy Shipbuilding and 
Conversion. Of that, for the Advanced Procurement (AP) for the Carrier 
Replacement Program (AP), $554.7 million, for the Virginia-class 
submarine, $3.2 billion, for the Virginia-class submarine (AP), $1.5 
billion, for the DDG-1000 Program, $453.7 million, or the DDG-51 
Destroyer, $2.0 billion, for the DDG-51 Destroyer (AP), $100.7 million, 
for the LCS, $1.8 billion and for the joint high speed vessel (JHSV), 
$372.3 million. Along with the ship cuts in the President's fiscal year 
2013 budget request, this year's request for shipbuilding and 
conversion had dramatic cuts in funding levels from the fiscal year 
2012 enacted legislation. The fiscal year 2013 budget request includes 
a total of $13.6 billion for Navy shipbuilding and conversion (a 
reduction of $1.3 billion). Of that, for the Carrier Replacement 
Program, $608.1 million (an increase of $53.4 million), for the 
Virginia-class submarine, $3.2 billion, for the Virginia-class 
submarine (AP), $875 million (a decrease of $625 million), for the DDG-
1000 program, $669.2 million (an increase in $215.5 million), for the 
DDG-51 Destroyer, $3 billion (an increase of $1 billion), for the DDG-
51 Destroyer (AP), $466.3 million (an increase of $365.6 million), for 
the LCS, $1.8 billion, and for the JHSV, $189.2 million (a decrease of 
$183.1 million).
    Although AUSN was pleased to see funding increases between the 
fiscal year 2012 enacted level and the fiscal year 2013 budget request 
in some areas, AUSN was alarmed by some of the other drastic 
reductions, especially in the Future Years Defense Program (FYDP) 
funding levels, and its effects upon the capability of our Navy to 
forward project our forces and deter hostilities as required in the 
President's Strategic Guidance of January 2013.
   navy reserve national guard and reserve equipment account funding
    AUSN was pleased last year when the fiscal year 2012 enacted levels 
for National Guard and Reserve Equipment Account (NGREA) were in 
historic amounts of $1 billion, of which the Navy Reserve received $75 
million. Given the requirements set forth in the annual National Guard 
and Reserve Equipment Report (NGRER), AUSN would like to see the 
funding levels for the Navy Reserve increase to match their needs and 
priorities. With more than 6,000 mobilized or deployed Navy Reserve 
sailors, providing about one-half of the Navy's ground forces in the 
Central Command and in other critical roles worldwide, equipping the 
compatibility with the Active component (AC) is quite the challenge. 
Equipment in the Navy Reserve is experiencing a service life of more 
than 20 years for many platforms, adding sustainment and 
interoperability challenges in preparing Reserve units to train and 
deploy mission-ready in support of the Navy's total force.
    The Navy Reserve faces many equipping challenges. The first is 
aircraft procurement where Naval Aviation Plan 2031 provides a 
requirement to replace the aging and maintenance intensive aircraft 
that provide critical Reserve component (RC) capability enhancements. 
In particular, C-130s are a critical part of the Navy-unique fleet 
essential airlift mission between strategic airlift points and the 
carrier onboard delivery and vertical onboard delivery to the fleet. In 
addition are the C-40As, whereas they are continuously being procured, 
with 14 to date, with help from critical NGREA funding, however the C-
40A is still below requirement levels. In addition, the Navy Reserve is 
facing shortfalls in expeditionary equipment funding and increased 
procurement in force protection, secure communications and a wide range 
of logistical equipment will increase the overall capabilities of units 
serving in contingency operations. Last, the RC Navy Special Warfare 
sea-air-land (SEAL) teams have been fully integrated with the AC since 
2008, making up one-third of the personnel mobilized in support of 
overseas contingency operations. The RC relies on the equipment of the 
AC and the shortfalls become a challenge when 97 percent of special 
warfare personnel are mobilized for current operations.
    As our Nation's overseas operations decrease, i.e. Iraq and 
Afghanistan, Active Duty for Training Funding (ADT) is resulting in 
increased utilization and driving an unfunded liability as high as $200 
million. With the challenges to equip a total force and the increased 
reliance on the RC in the past decade, AUSN believes that the Navy 
Reserve should continue to have its funding requirements met to the 
best of the subcommittee's ability.
                 pending legislation and appropriations
    AUSN was happy to see that the HAC-D markup included, for Navy 
Shipbuilding and Conversion, an appropriation of $15.2 billion to 
remain available for obligation until September 30, 2017 (an increase 
of 1.7 billion from the fiscal year 2013 budget request). Highlights of 
this appropriation include for:
  --Carrier Replacement Program: $578.3 million;
  --Virginia-class submarine: $3.2 billion;
  --Virginia-class submarine--Advance Procurement (AP): $1.6 billion 
        (increase of $723 million for the subcommittee's return of the 
        fiscal year 2014 Virginia-class submarine, from the President's 
        fiscal year 2013 budget request of $874.9 million);
  --DDG-1000 Program: $699.2 million;
  --DDG-51 destroyer: $4 billion (increase $1 billion from President's 
        fiscal year 2013 budget request of $3 billion due to 
        subcommittee adding one additional DDG-51 Arleigh Burke-class 
        destroyer);
  --DDG-51 Destroyer--Advance Procurement (AP): $466.3 million;
  --LCS: $1.8 billion; and
  --JHSV: $189.2 million.
    In addition, AUSN was pleased to see that the NGREA amount was to 
include $2 billion; a $1 billion increase in last year's enacted level. 
We look forward to seeing the Senate Appropriations Committee consider 
these funding levels in the Senate's fiscal year 2013 DOD 
appropriations bill.
                               conclusion
    The Association of the United States Navy understands that there 
are difficult decisions ahead in regards to this year's fiscal year 
2013 budget and how the Senate Appropriations Committee considers 
adequately funding our military, while adhering to the Budget Control 
Act. Amongst our Legislative Objectives/Priorities for fiscal year 2013 
is the looming concern of the effects of an automatic sequestration 
trigger upon DOD. AUSN was pleased that the Office of Management and 
Budget ruled in favor of exempting the Department of Veterans' Affairs. 
However, with our military community relying on TRICARE and DHP, as 
well as the President's strategic guidance shifting focus to a volatile 
Asia/Pacific region, cuts to DOD need to be carefully looked at and 
decisions need to be made based on strategy, rather than budget. On 
March 15, 2012, in a Senate Armed Services Committee hearing on the 
fiscal year 2013 budget request, the Secretary of the Navy highlighted 
how the goal is to have a Navy of more than 300 ships by no later than 
2019. In the same hearing, Admiral Jonathan W. Greenert, the Chief of 
Naval Operations, testified that ``In my view, if sequestration kicks 
in . . . I'm looking at not 285 ships in a given year. I'm looking at 
230. We don't have enough force structure to accrue that kind of 
savings without reducing procurement.'' However, this raises the 
concern that as budget cuts progress, with looming DOD sequestration, 
our fleet size could be drastically reduced, and consequently, so could 
our capabilities with forward force projection. AUSN urges this 
subcommittee to look at all proposals to ensure that vital DOD programs 
and platforms, for our military personnel and our strategic 
capabilities, aren't subject to further debilitating cuts and 
sequestration. In addition, we encourage members of the subcommittee to 
look at our Web site which contains detailed analyses of past and 
current DOD appropriations measures as the House and Senate 
Appropriations Committee's markup and consider the fiscal year 2013 DOD 
appropriations bills. (http://www.ausn.org/Advocacy/AppropriationBills/
Defense/tabid/2758/Default.aspx)
    Thank you.

    Chairman Inouye. As you can imagine, Admiral, this 
subcommittee has that assignment of preventing sequestration, 
and we will do our absolute best. I can assure you that.
    Admiral Coane. Thank you, Sir. It's absolutely essential 
that we do.
    Chairman Inouye. Now may I call upon Dr. Andrew Pollak.
STATEMENT OF ANDREW N. POLLAK, M.D., TREASURER, 
            AMERICAN ASSOCIATION OF ORTHOPAEDIC 
            SURGEONS
    Dr. Pollak. Thank you, Mr. Chairman and Ranking Member. I'm 
Dr. Andy Pollak, treasurer of the American Association of 
Orthopaedic Surgeons (AOS) and immediate past president of the 
Orthopaedic Trauma Association. I'm also chief of orthopaedic 
traumatology at the University of Maryland's R. Adams Cowley 
Shock Trauma Center in Baltimore.
    On behalf of the AOS and my orthopaedic colleagues across 
the country, thank you for inviting us to testify before you 
today on the Peer-Reviewed Orthopaedic Research Program 
(PRORP).
    The events of September 11, 2001, catalyzed the global war 
on terror, a war that's resulted in thousands of wounded 
warriors, most of whom wind up with an extremity injury, an 
injured arm or leg. Between Operations Enduring Freedom, Iraqi 
Freedom, and New Dawn, more than 47,000 service men and women 
have been injured, and of those more than 80 percent have 
suffered a limb injury.
    The issue of treating the sheer volume of injuries has been 
compounded with the newness of the injuries. Improvised 
explosive devices (IEDs) have overwhelmed our military medical 
providers with new injuries and scant data on how to best treat 
them, initially forcing our military surgeons to amputate limbs 
at an alarming rate.
    The PRORP and the Orthopaedic Extremity Trauma Research 
Program (OETRP) were both created as a result of the Congress's 
action, specifically this subcommittee's leadership in 
recognizing the need for more research to save limbs and limit 
disability in our wounded warriors. PRORP is funded through 
DOD's health program and was established to quickly develop 
focused basic and clinical research through direct grants to 
research institutions across the country. The goal is to help 
military surgeons address the leading burden of injury and loss 
of fitness for military duty by finding new limb-sparing 
techniques to save extremities, avoid amputations, and preserve 
and restore the function of injured limbs.
    PRORP aims to provide all warriors affected by extremity 
war injuries the opportunity for optimal recovery and 
restoration of function. One of the greatest successes of OET 
and PRORP has been the establishment of the Major Extremity 
Trauma Research Consortium (METRC). METRC works to produce the 
evidence needed to establish treatment guidelines for the 
optimal care of the wounded warrior and ultimately improve the 
clinical, functional, and quality of life outcomes of both 
servicemembers and civilians who sustain high-energy trauma to 
the extremities. This research is presently being coordinated 
at 54 military and civilian sites throughout the country, 
making it a true military-civilian partnership to help our 
wounded warriors while learning more about relevant comparable 
civilian injuries as well.
    One important recently published advance attributable 
directly to OET and PRORP has been the research on heterotopic 
ossification (HO). HO comes in two main forms, one that appears 
in children and is congenital and another that strikes wounded 
military personnel and surgery patients and is triggered by 
severe injuries and wounds such as amputation.
    With HO, the bone grows in abnormal locations and can press 
against nerves and blood vessels, resulting in severe pain, 
limited motion, problems fitting prosthetic limbs, and skin 
breakdown. Nearly 65 percent of wounded warriors with extremity 
injuries suffer HO, a problem we understood little about prior 
to this program.
    Through a grant from OETRP, researchers at Children's 
Hospital of Philadelphia have shown that a drug that interrupts 
a specific signaling pathway can prevent HO. The potential 
benefit to our wounded warriors is astronomical and that 
represents an advance that would not have been possible absent 
this program.

                           PREPARED STATEMENT

    We're under no illusion that this kind of research is 
cheap. We further understand that we're in an era of 
unprecedented budget austerity. But the cost of not doing this 
research is exponentially higher. An amputation costs three 
times more than limb salvage in future medical care and 
significantly more than that after accounting for increased 
disability payments and the need to replace trained 
servicemembers with new recruits.
    Furthermore, while we need to get our fiscal house in 
order, it can't be done on the backs of our men and women in 
uniform. If we put them in harm's way, we have a solemn duty to 
give them the best possible medical care, backed by the best 
possible science. The Peer-Reviewed Orthopaedic Research 
Program helps accomplish just that.
    Thank you.
    [The statement follows:]
              Prepared Statement of Andrew N. Pollak, M.D.
                              introduction
    Good morning, Chairman Inouye, Ranking Member Cochran, and other 
distinguished members of the subcommittee. I am Dr. Andrew N. Pollak, 
treasurer of the American Association of Orthopaedic Surgeons (AAOS), 
and immediate past president of the Orthopaedic Trauma Association. I 
am also the chief of orthopaedic traumatology at the University of 
Maryland Shock Trauma Center in Baltimore. On behalf of the AAOS and my 
orthopaedic surgeon colleagues across the country, thank you for 
inviting our organization to testify before you today on the Peer-
Reviewed Orthopaedic Research Program (PRORP) as part of the fiscal 
year 2013 budget.
                                overview
    The events of September 11, 2001, served as a catalyst for the 
global war on terror. This war has resulted in thousands of wounded 
warriors, most of whom wind up with an extremity injury. Between 
Operations Enduring Freedom, Iraqi Freedom, and New Dawn, more than 
47,000 service men and women have been injured.\1\ Of the injured, more 
than 80 percent have suffered a limb injury.\2\
---------------------------------------------------------------------------
    \1\ Wounded Warrior Project. http://www.woundedwarriorproject.org/
mission/who-we-serve.aspx.
    \2\ United States Army Institute of Surgical Research. http://
www.usaisr.amedd.army.mil/
extremity_trauma_research_regenerative_medicine.html.
---------------------------------------------------------------------------
    The issue of treating the sheer volume of injuries has been 
compounded with the newness of the injuries. Our men and women in 
uniform are facing a new type of weapon that causes a new type of 
injury: improvised explosive devices. Overwhelmed with new injuries and 
scant data on how best to treat them, our military surgeons were 
amputating extremities at an alarming rate.
    PRORP and the Orthopaedic Extremity Trauma Research Program (OETRP) 
were both created as a result of the Congress's action, specifically 
this subcommittee's leadership in recognizing the need for more 
research to save limbs and limit disability in our wounded warriors. 
PRORP is funded through the Department of Defense Health Program, and 
was established to quickly develop focused basic and clinical research 
through direct grants to research institutions. The goal is to help 
military surgeons address the leading burden of injury and loss of 
fitness for military duty by finding new limb-sparing techniques to 
save extremities, avoid amputations, and preserve and restore the 
function of injured extremities. PRORP aims to provide all warriors 
affected by extremity war injuries the opportunity for optimal recovery 
and restoration of function.
                          benefits of research
    One of the greatest successes of OETRP and PRORP has been the 
establishment of the Major Extremity Trauma Research Consortium 
(METRC). METRC works to produce the evidence needed to establish 
treatment guidelines for the optimal care of the wounded warrior and 
ultimately improve the clinical, functional, and quality-of-life 
outcomes of both servicemembers and civilians who sustain high-energy 
trauma to the extremities. This research is being coordinated at 54 
military and civilian sites throughout the country making it a true 
military civilian partnership to help our wounded warriors while 
learning more about relevant comparable civilian injuries.
    One important recently published advance attributable directly to 
OETRP and PRORP has been the research on heterotopic ossification (HO). 
HO comes in two main forms--one that appears in children and is 
congenital, another that strikes wounded military personnel and surgery 
patients and is triggered by severe injuries and wounds such as 
amputation. With HO, the bone grows in abnormal locations and can press 
against nerves and blood vessels, resulting in severe pain, limited 
motion, problems fitting prosthetic limbs, and skin breakdown. It is so 
prevalent after high-energy trauma that nearly 65 percent of wounded 
warriors with extremity injuries suffer HO.\3\ Through a grant from the 
OETRP program, researchers at The Children's Hospital of Philadelphia 
have shown that a drug that interrupts a signaling-nuclear protein 
pathway can prevent HO. The potential benefit to our wounded warriors 
is astronomical.
---------------------------------------------------------------------------
    \3\ Science Daily. http://www.sciencedaily.com/releases/2011/04/
110403141331.htm.
---------------------------------------------------------------------------
                                  cost
    We are under no illusion that this kind of research is cheap, we 
further understand that we are in an era of unprecedented budget 
austerity. But the cost of not doing the research is exponentially 
higher. An amputation costs three times more than limb salvage in 
future medical care and significantly more than that after accounting 
for increased disability payments and the increased need to replace 
trained servicemembers with new recruits. Indeed, 65 percent of all 
combat related medical care resources go to treating extremity 
injuries, and almost 70 percent of wounded warriors who suffer an 
unfitting condition are unfit to return to duty because of an extremity 
injury.\4\
---------------------------------------------------------------------------
    \4\ Masini BD, Waterman SM, Wenke JC et al. Resource utilization 
and disability outcome assessment of combat casualties from Operation 
Iraqi Freedom and Operation Enduring Freedom. J Orthop Trauma. 2009. 23 
(4): 261-266.
---------------------------------------------------------------------------
    Furthermore, while we need to get our fiscal house in order, it 
cannot be done on the backs of the men and women in uniform. If we put 
them in harm's way, we have a solemn duty to give them the best 
possible medical care backed by the best possible science. The Peer-
Reviewed Orthopaedic Research Program helps accomplish just that.
                                closing
    On behalf of the AAOS, I would like to thank the Chairman, the 
Ranking Member, and the entire subcommittee for your interest in and 
attention to this important issue facing America's military, and the 
surgeons who treat them. We look forward to continuing to work with you 
on this matter.

    Chairman Inouye. Dr. Pollak, did I hear you say that there 
were 47,000 injured in Iraq and Afghanistan, and of that number 
80 percent had limb injuries?
    Dr. Pollak. Yes, Sir. Yes, the most common injury 
sustained. Many of them sustain multiple injuries to multiple 
parts of their body. But the limbs are disproportionately 
exposed, as the chest and abdomen are protected with body armor 
and the head's protected with a helmet.
    Chairman Inouye. Do we have enough orthopaedic surgeons?
    Dr. Pollak. That's a separate question, Sir. I don't 
believe we do at this point. Our orthopaedic surgeons at Walter 
Reed and at our military facilities throughout the country 
right now are terribly taxed with the number of wounded 
warriors returning.
    Chairman Inouye. I thank you very much, Sir.
    Dr. Pollak. Thank you, Sir.
    Chairman Inouye. May I now call on Mr. Mark Haubner and Ms. 
Erin O'Rourke.
STATEMENT OF MARK HAUBNER, ARTHRITIS FOUNDATION
    Mr. Haubner. Chairman Inouye, Ranking Member Cochran, and 
distinguished members of the subcommittee: It's an honor to 
have the opportunity to speak with you, especially today, June 
6, regarding the importance of funding arthritis research to 
benefit the health of our men and women in uniform, our 
military veterans, and our Nation.
    We would first like to thank the Arthritis Foundation's 
2012 Advocacy Leadership Award recipient, Senator Murkowski, 
for being a champion for the cause of arthritis research in the 
past.
    My name is Mark Haubner, from Aquebogue, New York, and with 
me in the audience today is Erin O'Rourke from Lake Ronkonkoma, 
New York. We are here today as Arthritis Foundation advocacy 
ambassadors and as concerned citizens representing 50 million 
Americans with arthritis, the number one cause of disability in 
the United States. We hope that our comments today give voice 
to this very important request in support of peer-reviewed 
competitively awarded arthritis research funded by the DOD.
    I would like to tell you how arthritis has affected our 
lives and the relevance to our military personnel. I broke my 
leg while skiing at the age of 14, underwent many operations as 
a result, and suffered my first total joint replacement at 44, 
which forced me into retirement. I'm having my fifth total 
joint replacement next month, 1 of 1 million joint replacements 
being done in the United States every year now.
    Research now shows that the rampant presence of 
osteoarthritis in all of my joints is a result of a post-
traumatic trigger event suffered 30 years before. My colleague 
Erin O'Rourke, who began suffering from severe pain in her 
hands and fingers at the age of 34, was diagnosed with 
rheumatoid arthritis (RA), a debilitating autoimmune disease 
that causes unrelenting and destructive inflammation in the 
joints. The medications she is taking treat, but do not cure, 
arthritis. Due to RA, Erin has twice the risk of developing 
heart disease and diabetes, which will likely lead to a 
shortened life by almost a decade.
    Studies show that our Nation's servicemembers are 32 
percent more likely to develop osteoarthritis than the general 
population, and the damage is presenting itself within a few 
years of active duty. This is already becoming a great burden 
on the long-term healthcare provided by the Department of 
Veterans Affairs and can only increase with time.
    One-third of our combat personnel what are medevaced out of 
the field are suffering from a musculoskeletal injury, and 
these injuries represent one of the leading causes of 
disability and medical discharge for active servicemembers 
under the age of 40. Research is needed for arthritis because 
the military is facing skyrocketing numbers of Active Duty and 
retired personnel fighting the high costs of pain and 
disability associated with arthritis, part of a total of $128 
billion per year in this country.
    Another area of research concerns the inflammation that 
occurs with RA. Further investigation of these inflammatory 
characteristics will help us to understand and improve the 
healing times and skin graft outcomes in wound care.
    Thank you all for recognizing the need over the last 3 
years to include post-traumatic osteoarthritis and last year 
arthritis, which includes both osteo and RA, in the DOD budget 
for Congressionally Directed Medical Research Program (CDMRP). 
We deeply appreciate the peer-reviewed research funding awards 
of almost $5 million from DOD appropriations over the last 2 
years.
    In conclusion, we ask for your consideration and support of 
the following: to continue to include the topics of post-
traumatic osteoarthritis and rheumatoid arthritis in the fiscal 
year 2013 DOD appropriations bill for the peer-reviewed medical 
research program, CDMRP, under the account of Defense Health 
Programs, research and development. Maintaining arthritis 
research in the fiscal year 2013 DOD appropriations bill will 
aid Armed Forces personnel in active service, military 
veterans, and millions of Americans.
    I thank you very much for your time and consideration.

                           PREPARED STATEMENT

    Chairman Inouye. Did I hear you say that 30 percent of the 
troops were evacuated because of skeletal injury?
    Mr. Haubner. Sorry, Sir. It's 32 percent of the military 
population that's indicating osteoarthritis and one-third of 
the military population medevaced out, is suffering from a 
musculoskeletal injury, that's correct.
    Chairman Inouye. Can that be traced to the load they have 
to carry?
    Mr. Haubner. Much is indicated by both Navy and Army 
studies that have been done in the past 5 or 10 years. They're 
carrying 100-pound packs, 120-pound packs, through the field, 
broken field running. It's making an immediate impact on their 
health.
    Chairman Inouye. World War II was easy. My pack was about 
20 pounds.
    Mr. Haubner. And the rifle was probably 18 more.
    [The statement follows:]

             Prepared Statement of the Arthritis Foundation

    Nearly 6.5 million Americans have wounds that take months 
or even years to heal. Many of these wounds are a consequence 
of diabetes, which damages blood vessels and interferes with 
normal skin repair. But new research from Georgetown University 
Medical Center in Washington, DC, points to another cause: 
autoimmune diseases such as rheumatoid arthritis (RA) and 
lupus.
    The research was presented earlier this month at the 
American College of Rheumatology's annual conference, in 
Chicago, by rheumatologist and lead author Victoria Shanmugam, 
M.D. It has been accepted for publication in the International 
Wound Journal.
    Dr. Shanmugam had noticed an unusual number of nonhealing 
wounds--mostly leg ulcers--in people with autoimmune disorders. 
``What I saw clinically was that people who had autoimmune 
disease did not respond as well to the usual wound care 
treatments. I wanted to try to understand the reason for this 
by comparing healing times and [skin] graft outcomes,'' she 
says.
    Treatment for nonhealing wounds depends on the wound, but 
might include special dressings, hyperbaric oxygen, growth 
factors, bioengineered skin substitutes and skin grafts. If 
treatment doesn't work, the patient faces amputation.
    Dr. Shanmugam and her colleagues reviewed the charts of 340 
patients who sought care at Georgetown's Center for Wound 
Healing and Hyperbaric Medicine during a 3-month period in 
2009. Only those with open wounds that hadn't healed after at 
least 3 months of normal therapy were included.
    Forty-nine percent of these patients had diabetes (both 
type 1, which is itself an autoimmune condition, or type 2). 
This isn't unusual--diabetes accounts for about one-half of all 
chronic wounds. Others had vascular or arterial diseases that 
typically cause poor wound healing. What surprised Dr. 
Shanmugam was that 23 percent had autoimmune disorders--a far 
greater rate than had been expected or previously reported. The 
most prevalent autoimmune diseases were RA (28 percent), lupus 
(14 percent), and livedoid vasculopathy, a vascular disease 
that causes ulcers on the lower legs (also 14 percent).
    Dr. Shanmugam then looked at how the people with underlying 
autoimmune disease responded to therapy. ``These patients had 
larger wounds at the first visit, had higher pain scores and 
took significantly longer to heal--14-and-a-half months 
compared to just over 10 months for other patients'', she 
explains. ``Clearly, there is something in the autoimmune 
milieu that is inhibiting wound healing,'' says Dr. Shanmugam.
    The next step is a 3-year study funded by the National 
Institutes of Health. Under way since May, the study will 
monitor autoimmune-related wounds over time. ``We are hoping to 
get some understanding of what happens on the cellular and 
molecular level in people who don't heal well,'' Dr. Shanmugam 
says.
    One theory is that diabetes and autoimmune disorders cause 
wounds to become stalled in the inflammatory stage of repair, 
when the body normally develops new blood vessels. Why this 
occurs and what happens at the level of the wound itself are 
questions she hopes to answer.
    She also will explore whether treating underlying 
autoimmune diseases such as RA improves wound healing. ``There 
is concern about using potent immune suppressants in people 
with open wounds,'' she says, noting that immunosuppressive 
drugs are known to interfere with wound healing after surgery. 
``But in a cohort of rheumatoid arthritis patients, we found 
that aggressive treatment before skin graft surgery resulted in 
better outcomes.''
    Eric Matteson, M.D., chairman of rheumatology at Mayo 
Clinic in Rochester, Minneapolis, agrees with the approach. 
``People with rheumatoid arthritis develop wounds for many 
reasons. One is that they may have low-grade vasculitis--
inflammation affecting the small blood vessels in the skin. 
When the wound is related to the underlying systemic 
inflammation of rheumatoid arthritis, not having that 
inflammation under control makes it much more difficult to 
achieve good wound healing.''
    He says that successful wound care requires cooperation and 
vigilance. ``Perhaps the biggest message here is that treating 
people with autoimmune-related wounds really calls for a team 
approach among the rheumatologist, wound-care specialist and 
surgeon'', says Dr. Matteson. ``What you often see, 
unfortunately, is a primary care doctor who can't properly 
manage the wound because of the complexity of the underlying 
disorder.''
    Dr. Shanmugam believes her findings will affect patient 
care in the future. ``Understanding how people respond to wound 
care on a molecular level can help guide therapy and may reduce 
the risk of infections, which can lead to surgery and even 
amputation,'' she says.
    As important, she hopes her research will alert other 
physicians to this under-recognized problem. ``When a patient 
has a leg ulcer that hasn't healed after 3 or 4 months of 
normal treatment, I hope doctors will check for autoimmune 
disease,'' says Dr. Shanmugam.

    Chairman Inouye. I thank you very much.
    Mr. Haubner. Thank you, Sir.
    Chairman Inouye. And now may I call upon Dr. Remington 
Nevin.
STATEMENT OF REMINGTON NEVIN, M.D., MEFLOQUINE RESEARCH
    Dr. Nevin. Good morning, Mr. Chairman and members of the 
subcommittee. My name is Dr. Remington Nevin. I am a board-
certified preventive medicine physician, epidemiologist, and 
medical researcher. I'm a graduate of the Uniformed Services 
University School of Medicine, the Johns Hopkins Bloomberg 
School of Public Health, and the residency program in 
preventive medicine at the Walter Reed Army Institute of 
Research, where I was awarded the Distinguished George M. 
Sternberg Medal. I have published extensively in medical and 
scientific journals and my research has informed and broadly 
influenced military public health policy over the past 7 years.
    I'm here today to testify on an important issue which I 
fear may become the Agent Orange of our generation, a toxic 
legacy that affects our troops and our veterans. This is a 
critical issue that is in desperate need of research funding. 
I'm referring to the harmful effects of the antimalarial drug 
mefloquine, also known as Lariam, which was first developed 
more than 40 years ago by the Walter Reed Army Institute of 
Research.
    Mefloquine causes a severe intoxication syndrome 
characterized by vivid nightmares, profound anxiety, 
aggression, delusional paranoia, dissociative psychosis, and 
severe memory loss. Experience has shown that this syndrome, 
even if rare, can have tragic consequences both on the 
battlefield and on the home front.
    My recent research has helped us understand this syndrome 
as a toxic encephalopathy that affects the limbic portion of 
the brain. With this insight, we now understand the drug's 
strong links to suicide and to acts of seemingly senseless and 
impulsive violence. Yet new research suggests that even mild 
mefloquine intoxication may also lead to neurotoxic brain 
injury associated with a range of chronic and debilitating 
psychiatric and neurologic symptoms.
    It is unknown how many of the hundreds of thousands of 
troops previously exposed to mefloquine may be suffering from 
the devastating effects of this neurotoxicity. However, I can 
tell you that I am contacted nearly every day by military 
patients and veterans from the United States and from around 
the world seeking diagnosis and care for their symptoms. Their 
compelling and often heart-wrenching stories can be found 
regularly in media reports worldwide. Invariably, these 
patients are frustrated by lack of resources and information 
specific to their condition.
    A recent publication by the Centers for Disease Control 
suggests that the side effects of mefloquine may even confound 
the diagnosis and management of post-traumatic stress disorder 
and traumatic brain injury.
    Given our research commitments to post-traumatic stress and 
traumatic brain injury, the first two signature injuries of 
modern war, this observation calls for a similarly robust 
research agenda into mefloquine neurotoxic brain injury to 
ensure that patients with either of these conditions are 
receiving accurate diagnosis and the very best medical care. 
Some concrete actions for facilitating this research include 
expanding the scope and mission of the defense centers of 
excellence and the National Intrepid Center of Excellence, to 
include the evaluation and care of patients suffering from the 
effects of mefloquine, and funding a dedicated mefloquine 
research center at a civilian medical school or school of 
public health to attract the very best minds to this problem 
and to coordinate broad investigations into the 
pathophysiology, epidemiology, clinical diagnosis, and 
treatment of mefloquine intoxication and neurotoxic brain 
injury.
    A commitment to this research roughly commensurate with our 
initial investment in mefloquine's development will allow us to 
mitigate the effects of the toxic legacy it has left behind. If 
this issue is left unaddressed, mefloquine could become our 
next Agent Orange, but it does not have to. With action, 
mefloquine neurotoxic brain injury could join post-traumatic 
stress and traumatic brain injury as the third recognized 
signature injury of modern war and as a result receive the same 
level of commitment shown for these first two conditions.

                           PREPARED STATEMENT

    I would again like to thank you, Mr. Chairman and members 
of the subcommittee, for the opportunity to appear before you 
and bring this issue to your attention. I should emphasize in 
closing that the opinions I express today are my own and do not 
necessarily reflect those of the United States Army.
    This concludes my prepared statement and I am happy to 
answer any questions that you may have.
    [The statement follows:]
            Prepared Statement of Remington Nevin, M.D., MPH
    Good morning, Mr. Chairman and members of the subcommittee. My name 
is Dr. Remington Nevin. I am a board-certified preventive medicine 
physician, epidemiologist, and medical researcher. I am a graduate of 
the Uniformed Services University School of Medicine; the Johns Hopkins 
Bloomberg School of Public Health; and the residency program in 
preventive medicine at the Walter Reed Army Institute of Research, 
where I was awarded the distinguished George M. Sternberg Medal. I have 
published extensively in medical and scientific journals, and my 
research has informed and broadly influenced military public health 
policy for the past 7 years.
    I am here today to testify on an important issue which I fear may 
become the ``Agent Orange'' of our generation: a toxic legacy that 
affects our troops, and our veterans. This is a critical issue that is 
in desperate need of research funding.
    I am referring to the harmful effects of the antimalarial drug 
mefloquine, also known as Lariam, which was first developed more than 
40 years ago by the Walter Reed Army Institute of Research.
    Mefloquine causes a severe intoxication syndrome, characterized by 
vivid nightmares, profound anxiety, aggression, delusional paranoia, 
dissociative psychosis, and severe memory loss. Experience has shown 
that this syndrome, even if rare, can have tragic consequences, both on 
the battlefield, and on the home front.
    My recent research has helped us understand this syndrome as a 
toxic encephalopathy that affects the limbic portion of the brain. With 
this insight, we now understand the drug's strong links to suicide, and 
to acts of seemingly senseless and impulsive violence. Yet new research 
suggests that even mild mefloquine intoxication may also lead to 
neurotoxic brain injury associated with a range of chronic and 
debilitating psychiatric and neurologic symptoms.
    It is unknown how many of the hundreds of thousands of troops 
previously exposed to mefloquine may be suffering from the devastating 
effects of this neurotoxicity. I am contacted nearly every day by 
military patients and veterans, from the United States, and from around 
the world, seeking diagnosis and care for their symptoms. Their 
compelling and often heart-wrenching stories can be found regularly in 
media reports worldwide. Invariably, these patients are frustrated by a 
lack of resources and information specific to their condition.
    A recent publication by the Centers for Disease Control suggests 
that the side effects of mefloquine may even confound the diagnosis and 
management of post-traumatic stress disorder (PTSD) and traumatic brain 
injury (TBI).
    Given our commitment to post-traumatic stress and traumatic brain 
injury, the first two signature injuries of modern war, this 
observation calls for a similarly robust research agenda into 
mefloquine neurotoxic brain injury, to ensure that patients with these 
conditions are receiving accurate diagnosis and the very best medical 
care.
    Some concrete actions for facilitating this research include:
  --Expanding the scope and mission of the Defense Centers of 
        Excellence and the National Intrepid Center of Excellence to 
        include the evaluation and care of patients suffering side 
        effects from mefloquine; and
  --Funding a dedicated mefloquine research center at a civilian 
        medical school or school of public health, to attract the very 
        best minds to this problem, and to coordinate broad 
        investigations into the pathophysiology, epidemiology, clinical 
        diagnosis, and treatment of mefloquine intoxication and 
        neurotoxic brain injury.
    A commitment to this research, roughly commensurate with our 
initial investment in mefloquine's development, will allow us to 
mitigate the effects of the toxic legacy it has left behind. If this 
issue is left unaddressed, mefloquine could become our next ``Agent 
Orange'', but it does not have to. With appropriate action, mefloquine 
neurotoxic brain injury could join PTSD and TBI as the third recognized 
signature injury of modern war, and as a result, receive the same level 
of commitment and care shown for these first two conditions.
    In conclusion, I would again like to thank you, Mr. Chairman and 
members of the subcommittee, for the opportunity to appear before you 
and bring this issue to your attention. This concludes my prepared 
statement and I am happy to answer any questions that you may have.

    Chairman Inouye. I thank you very much, Doctor. I have a 
question here submitted by Senator Dianne Feinstein and it 
says: Do you believe the mefloquine research you're working on 
could develop treatments to reverse intoxication and brain 
injury?
    Dr. Nevin. Mr. Chairman, despite the permanent nature of 
the neurotoxicity produced by mefloquine, I believe that there 
may be effective treatments available right now, provided that 
the diagnosis of mefloquine neurotoxicity is made. I have 
personally treated a number of patients whose conditions have 
proven fairly responsive to rehabilitation, including 
vestibular, physical, and neuro-optometric therapy. Speech 
therapy and cognitive rehabilitation therapy may also hold 
promise.
    However, obtaining access to such therapy requires that 
mefloquine neurotoxic brain injury be correctly diagnosed, such 
that patients receive appropriate specialist referrals. This 
cannot happen if these symptoms are poorly understood by 
healthcare providers or if they are mistaken for such things as 
malingering, personality disorder, conversion disorder, or 
factitious disorder, as they have been in the past.
    For this reason, simply raising awareness of this diagnosis 
may prove very helpful in facilitating early treatment.
    Now, regarding other therapies, such as potential drug 
treatments, evaluating these would require registered clinical 
trials, which typically have a time horizon of some years 
before they yield results to inform clinical practice. I am 
confident that such trials hold promise in identifying drug 
therapies that alleviate symptoms and improve patient outcomes, 
while not risking a further exacerbation of the condition.
    Chairman Inouye. Where does mefloquine come from?
    Dr. Nevin. Mr. Chairman, mefloquine is the end product of a 
multiyear drug development and discovery effort conducted by 
the Walter Reed Army Institute of Research beginning in the 
early 1960s. Of more than 300 compounds screened for their 
effectiveness and toxicity, mefloquine was one of a handful of 
compounds that passed this testing and later went on to 
commercial development by the F. Hoffman LaRoche Company.

                           PREPARED STATEMENT

    Chairman Inouye. I thank you very much, and I'd like to 
thank all of the witnesses who've testified this morning.
    Two organizations have submitted testimony. Without 
objection, the testimony of Cummins, Incorporated and Research 
Advisory Committee on Gulf War Veterans' Illnesses will be made 
part of the record along with any other statements that the 
subcommittee may receive.
    On behalf of the subcommittee, I thank all the witnesses 
for their testimony, and the subcommittee will take these 
issues in consideration and I can assure you will look at it 
very seriously.
    [The statement follows:]
 Prepared Statement of Dr. Wayne A. Eckerle, Vice President, Research 
                      and Technology, Cummins Inc.
    Cummins Inc., headquartered in Columbus, Indiana, is a corporation 
of complementary business units that design, manufacture, distribute 
and service engines and related technologies, including fuel systems, 
controls, air handling, filtration, emission solutions, and electrical 
power generation systems. The funding requests outlined below are 
critically important to Cummins' research and development efforts, and 
would also represent a sound Federal investment toward a cleaner 
environment and improved energy efficiency for our Nation. We request 
that the subcommittee fund the programs as identified below.
                         department of the army
Army Procurement
    Other Procurement, Budget Activity 03, Other Support Equipment, 
Line No. 171, Generators, Line Item: 0426MA9800, Generators and 
Associated Equipment.--Support the administration's request of $60.3 
million in fiscal year 2013. $67.8 million was appropriated in fiscal 
year 2012. Specifically support the $16.7 million for M53500, Medium 
Generator Sets (5-60 kW) and $33.983 million for R62700 Power Units/
Power Plants. Advanced Medium Mobile Power System (AMMPS) generators 
and AMMPS Power Units and Power Plants (trailer-mounted AMMPS generator 
sets) are the latest generation of Prime Power Generators for the 
Department of Defense (DOD) and will replace the obsolete Tactical 
Quiet Generators (TQGs) developed in the 1980s. AMMPS generator sets 
are 21 percent more fuel-efficient, 15 percent lighter, 35 percent 
quieter, and 40 percent more reliable than the TQG. Generators are the 
Army's biggest consumer of diesel fuel in current war theatres. When 
AMMPS generator sets are fully implemented, the Army and Marines will 
realize annual fuel savings of approximately 52 million gallons of JP-8 
fuel and more than $745 million in savings based on fuel costs and 
current use pattern. This will mean fewer fuel convoys to bases in 
active war zones resulting in saved lives of military and civilian 
drivers. AMMPS generators will result in annual carbon emissions 
reductions of 500,000 metric tons CO<INF>2</INF> or 7.7 million metric 
tons over the expected life of the generators.
    Weapons and Tracked Combat Vehicles, Budget Activity 01, Tracked 
Combat Vehicles, Line No. 07, Modification of Tracked Combat Vehicles, 
Line Item 2073GZ0410, Paladin Integrated Management Mod In Service, 
Paladin Integrated Management.--Support administration's request of 
$206.1 million in fiscal year 2013. $46.8 million was appropriated in 
fiscal year 2012 to begin low-rate initial production. The M109A6 
Paladin is the primary indirect fire weapons platform in the U.S. 
Army's Heavy Brigade Combat Team (HBCT) and is expected to be in the 
Army inventory through 2050. The PIM program will incorporate Bradley-
based drive-train and suspension components which reduce logistics 
footprint and decrease operations and sustainment costs. PIM is vital 
to ensuring the long-term viability and sustainability of the M109 
family of vehicles (Paladin and FAASV). The program will significantly 
reduce the logistics burden placed on our soldiers, and proactively 
mitigate obsolescence. The system will feature improved mobility (by 
virtue of Bradley-based automotive systems) allowing the fleet to keep 
pace with the maneuver force. The system will improve overall soldier 
survivability through modifications to the hull to meet increased 
threats.
Research and Development Test and Evaluation Programs
    Budget Activity 05, System Development and Demonstration, Line No. 
121, Program Element No. 0604854A: Artillery Systems, Paladin 
Integrated Management .--Support the administration's request of $167.8 
million in fiscal year 2013. $120.1 million was appropriated in fiscal 
year 2012. The M109A6 Paladin is the primary indirect fire weapons 
platform in the U.S. Army's HBCT and is expected to be in the Army 
inventory through 2050. This request is to further develop Paladin 
Integrated Management (PIM) vehicles and conclude testing. The PIM 
effort is a program to ensure the long-term viability and 
sustainability of the M109A6 Paladin and its companion ammunition 
resupply vehicle, the M992 FAASV. PIM is vital to ensuring the long-
term viability and sustainability of the M109 family of vehicles 
(Paladin and FAASV). The program will significantly reduce the 
logistics burden placed on our soldiers and proactively mitigate 
obsolescence. The system will feature improved mobility (by virtue of 
Bradley-based automotive systems) allowing the fleet to keep pace with 
the maneuver force.
    Budget Activity 07, Operational Systems Development, Line No. 165, 
Program Element No. 0203735A: Combat Vehicle Improvement Programs.--
Support the administration's request of $253.9 million in fiscal year 
2013. $36.2 million was appropriated in fiscal year 2012 to initiate 
the program. Specifically support $74.1 million for the Armored Multi-
Purpose Vehicle (AMP-V) program. AMP-V is an Army program that replaces 
the M113 platforms, which cannot be optimized for future U.S. Army 
combat operations. The Army has identified a significant capability gap 
within the HBCT formation. The Bradley Family of Vehicles are the most 
capable and cost effective platform for replacement of the M113. Along 
with established production, the recapitalized Bradley vehicles bring 
combat- proven mobility, survivability, and adaptability to a variety 
of missions. The Army currently has approximately 1,900 Bradley hulls 
that could be inducted into the production process. This low cost, low 
risk, Military-off-the-Shelf (MOTS) to replace the M113 addresses the 
significant capability shortfalls within the HBCT formation. In 
addition, it is an efficient use of existing Government-owned assets 
and existing Public-Private Partnership arrangements to bridge the 
modernization gap. Recapitalizing existing Bradley chassis provides the 
most survivable, mobile and protected solution for our soldiers at a 
significant lower cost.
                      department of the air force
Other Procurement
    Budget Activity 04, Other Base Maintenance and Support Equip, Item 
No. 62, Mobility Equip.--Support the administration's request of $23.8 
million ($14.4 million Base and $9.4 million OCO) in fiscal year 2013. 
$20.3 million was appropriated in fiscal year 2012. Specifically 
support $6.7 million ($4.6 million base and $2 million OCO) in fiscal 
year 2013 for the Basic Expeditionary Airfield Resource (BEAR). The 
BEAR product is an 800kW prime power mobile generator used by Combat 
Air Forces to power mobile airfields in-theatre and around the world. 
The finished product will replace the existing MEP unit that is 25 
years old and will offer greater fuel economy, increased fuel options 
(JP-8), improved noise reduction, and the latest innovative control 
technology and functionality. With the ever-increasing global reach of 
the U.S. military, the need for reliable mobile power is paramount. 
This program is currently funded for the design, development and 
preproduction of eight individual BEAR units. These units will undergo 
a battery of validation tests. Design and development of the BEAR 
product is on schedule. There is interest from other branches of the 
military for the BEAR product as well given the increased need for 
mobile electric power.
                         department of the navy
Other Procurement, Marine Corps
    Budget Activity 06, Engineer and Other Equipment, Line No. 47, Line 
Item 6366, Power Equipment Assorted.--Support the administration's 
request of $76.5 million ($56.3 million Base and $20.2 million OCO) in 
fiscal year 2013. $27.2 million was appropriated in fiscal year 2012. 
Specifically support $26.5 million ($19.5 million Base and $7 million 
OCO) in fiscal year 2013 for AMMPS. AMMPS generators are the latest 
generation of Prime Power Generators for the DOD and will replace the 
obsolete Tactical Quiet Generators (TQGs) developed in the 1980s. AMMPS 
generator sets are 21 percent more fuel-efficient, 15 percent lighter, 
35-percent quieter and 40 percent more reliable than the TQG. 
Generators are the Army's biggest consumer of diesel fuel in current 
war theatres. When AMMPS generator sets are fully implemented, the Army 
and Marines will realize annual fuel savings of approximately 52 
million gallons of JP-8 fuel and more than $745 million in savings 
based on fuel costs and current use pattern. This will mean fewer fuel 
convoys to bases in active war zones resulting in saved lives of 
military and civilian drivers. AMMPS generators will result in annual 
carbon emissions reductions of 500,000 metric tons CO<INF>2</INF> or 
7.7 million metric tons over the expected life of the generators.
                                 ______
                                 
   Prepared Statement of James Binns, Chairman of Research Advisory 
               Committee on Gulf War Veterans' Illnesses
    Dear Chairman Inouye and Ranking Member Cochran: The Gulf War 
Illness Research Program (GWIRP) of the Department of Defense (DOD) 
Congressionally Directed Medical Research Program (CDMRP) has made 
remarkable progress during the past 2 years. As Chairman of the 
Research Advisory Committee on Gulf War Veterans Illnesses, created by 
Public Law 105-368, I deeply appreciate your support, which has made 
this progress possible.
    I also appreciate the hearing you held this week to consider 
appropriations to CDMRP programs for fiscal year 2013 and am pleased to 
submit this letter for the record, to review these recent developments.
    In its landmark 2010 report, the Institute of Medicine (IOM) 
recognized that the chronic multisymptom illness that affects 250,000 
gulf war veterans is a serious disease (not attributable to psychiatric 
illness) that also affects other U.S. military forces. It called for a 
``renewed research effort with substantial commitment to well-organized 
efforts to better identify and treat multisymptom illness in Gulf War 
veterans.''
    The scientific community responded with a dramatic increase in the 
quality and quantity of proposals submitted to the GWIRP at CDMRP. Most 
importantly, last summer CDMRP-funded researchers from the University 
of California, San Diego, completed the first successful pilot study of 
a medication to treat one of the major symptoms of gulf war illness. It 
is not a cure, and the study needs be replicated in a full-clinical 
trial, but the result is extremely encouraging. As the IOM committee 
chair, Dr. Stephen Hauser, chairman of Neurology at the University of 
California, San Francisco, and former president of the American 
Neurology Association, emphasized in his preface to the IOM report, 
``we believe that, through a concerted national effort and rigorous 
scientific input, answers can likely be found.''
    The GWIRP is the only national program addressing this problem. It 
is a peer-reviewed program open to any doctor or scientist on a 
competitive basis. By contrast, Department of Veterans Affairs (VA) 
research programs are only open to VA doctors, few of whom have 
expertise in chronic multisymptom illness. To effectively address a new 
and difficult problem like this, it is necessary to enlist the entire 
medical scientific community. Because VA has not been able to find 
enough qualified researchers, it has reduced funding for gulf war 
illness research in its fiscal year 2013 budget from $15 million to 
$4.9 million. In contrast, the DOD CDMRP program is attracting a 
surplus of excellent investigators. It is critical to shift resources 
accordingly to the DOD program, so that the overall Federal research 
effort is not reduced just at the time it is producing results and the 
Institute of Medicine is pointing the way. The VA budget data is at 
http://www.va.gov/budget/docs/summary/Fy2013_Volume_II-
Medical_Programs_Information_Technology.pdf on page 3A-5.
    As stated by Dr. Hauser, in his attached letters to you, this 
subject is ``vital to the health and effectiveness of current and 
future military forces, in addition to Gulf War veterans.'' Recognizing 
this importance, last summer the House of Representatives in a 
bipartisan roll-call vote increased funding for the program to $10 
million in the 2012 DOD appropriations bill, and this figure was 
adopted by the Senate-House conference committee.
    The Research Advisory Committee has recommended funding this 
program at the $40 million level. It is recognized that in fiscal year 
2013 such an increase may not be possible. However, this effective 
program demonstrably merits increased investment, even in a time of 
fiscal austerity. Dr. Hauser has recommended $25 million. An 
appropriation of $20 million would hold Federal gulf war illness 
research level from last year, taking into account the $10 million VA 
reduction.
    These funds would be productively spent to capitalize on the 
progress that has already been made. Specifically, there are quality 
projects in the pipeline that substantially exceed $25 million. These 
include highly ranked treatment pilot studies not able to be funded in 
previous years due to financial constraints (approximately $20 
million), a followup clinical trial of the treatment shown effective in 
the completed pilot study (approximately $8 million), and three joint 
``consortium'' treatment research programs developed with earlier 
planning grants by teams of researchers at different institutions 
(approximately $24 million, of which only $4 million has been funded).
    At long last, the scientific community has recognized the severity 
and scope of this problem and is engaged in its solution. The Congress 
has created this superb program, which is succeeding where others have 
failed. Please enable these scientists to continue their work.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. This subcommittee will take these issues 
into consideration, I can assure you, as we develop the fiscal 
year 2013 defense appropriations bill.
    This subcommittee will reconvene on Wednesday, June 13, at 
which time we'll meet to receive testimony from the Secretary 
of Defense and the Chairman of the Joint Chiefs of Staff on the 
fiscal year 2013 budget request for DOD.
    We stand in recess.
    [Whereupon, at 12:02 p.m., Wednesday, June 6, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, June 13.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                        WEDNESDAY, JUNE 13, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Harkin, Durbin, Feinstein, 
Mikulski, Kohl, Murray, Reed, Cochran, Hutchison, Collins, 
Murkowski, Graham, and Coats.

                         DEPARTMENT OF DEFENSE

                   Office of the Secretary of Defense

STATEMENT OF HON. LEON E. PANETTA, SECRETARY OF DEFENSE
ACCOMPANIED BY HON. ROBERT F. HALE, UNDER SECRETARY OF DEFENSE, 
            COMPTROLLER

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning, I would like to welcome the 
Honorable Leon E. Panetta, Secretary of Defense, and General 
Martin E. Dempsey, Chairman of the Joint Chiefs of Staff, to 
testify on the administration's budget request for fiscal year 
2013.
    Gentlemen, you assumed these positions during a very 
challenging moment in history. Our economy, our country is 
facing a budget deficit, and you have been tasked with 
significantly reducing the Department of Defense's (DOD) budget 
plans in an effort to cut down spending.
    These budget reductions come at an occasion when we are 
fighting a war in Afghanistan and the counterterrorism threat 
worldwide. At the same time, the world is changing rapidly, and 
DOD is being called upon to respond to threats ranging from 
cyberspace, weapons proliferation, rising powers, and 
instability in key regions, such as we have witnessed with the 
Arab Spring.
    DOD's fiscal year 2013 budget request totals $604.5 billion 
that this subcommittee oversees. This is a decrease of $28.8 
billion over last year's enacted budget, mainly due to the 
drawdown of operations in Afghanistan and Iraq.
    However, over the next decade, the Budget Control Act of 
2011 (BCA) sets limits for DOD, which is $487 billion less than 
what the Department had planned to spend.
    In order to meet the new fiscal realities, you have 
produced a defense strategy to help guide these budget 
reductions. This strategy moves from having a capability to 
fight two major theater wars, to instead defeating a major 
adversary in one theater while denying aggression or applying 
unacceptable costs on another aggressor.
    In addition, it shifts the military's focus to increase 
emphasis on the Pacific and Middle East regions. Furthermore, 
it commits the Department to institutionalize capabilities to 
deal with what were once considered nontraditional or 
asymmetric threats, such as increasing counterterrorism 
capacity, enhancing cyber operations, and countering antiaccess 
threats.
    Most importantly, the strategy reaffirms the 
administration's support of the All-Volunteer Force and 
maintaining the readiness of this force as a vital component of 
our national security. The defense strategy does not, however, 
take into consideration another component of the Budget Control 
Act known as ``sequestration''.
    As you know, beginning on January 2, 2013, if a deficit 
reduction agreement is not reached, DOD will take its first 
increment of an across-the-board reduction of nearly $500 
billion over the next 10 years.
    Gentlemen, I look forward to having a candid dialogue this 
morning on this issue, as well as others I have highlighted.
    We sincerely appreciate your service to our Nation, and the 
dedication and sacrifices made daily by the men and women of 
our armed services.
    We could not be more grateful for what those who wear our 
Nation's uniform and those who support and lead our military do 
for our country each and every day.
    Mr. Secretary, General, your full statements will be made 
part of the record, and I wish to now turn to the Vice 
Chairman, Senator Cochran, for his opening remarks.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, I'm pleased to join you in 
welcoming our distinguished panel of witnesses this morning to 
review the President's budget request for the Department of 
Defense, and to give us an overview of the needs and challenges 
facing our national security interests.
    We thank you very much for your willingness to serve in 
these important positions. They really are complex and couldn't 
be more important.
    We appreciate the dedication and the years of experience 
that you bring to the challenge as well, and we expect to have 
an opportunity today to find out some of the specific details 
that need to be brought to the attention of the Senate.
    Thank you very much.
    Chairman Inouye. I thank you very much. May I now call upon 
the Secretary.

               SUMMARY STATEMENT OF HON. LEON E. PANETTA

    Secretary Panetta. Thank you, Mr. Chairman. Senator 
Cochran, and members of the subcommittee.
    It is a distinct privilege and honor to have the 
opportunity to appear before this subcommittee of the Senate 
Appropriations Committee.
    First and foremost, let me express my personal thanks to 
all of you for the support that you provide our men and women 
in uniform and the Department.
    I've had the honor of working with many of you in other 
capacities, and I just want to thank you for your patriotism in 
providing very important public service to this country, but 
from my point-of-view right now, providing the support that we 
absolutely need at the Department of Defense in order to keep 
this country safe.

                             DEFENSE BUDGET

    I'm here to discuss the President's budget request for 
fiscal year 2013. I also want to comment as well on the 
problems associated with sequestration that faces us in January 
2013, and mention also some of the budgetary challenges that we 
still face in fiscal year 2012 as a result of fuel costs and 
other contingencies that we're facing.
    With regards to the fiscal year 2013 budget request, this 
was a product of a very intensive strategy review that was 
conducted by senior military and civilian leaders of the 
Department under the advice and guidance of the President.
    The reasons for the review are clear to all of us. First 
and foremost, we are at a strategic turning point after 10 
years of war, and obviously, a period when there was 
substantial growth in the defense budgets.
    Second, we are now a country that is facing very serious 
debt and deficit problems. And the Congress did pass the Budget 
Control Act of 2011 which imposes spending limits that reduce 
the defense base budget by $487 billion over the next decade.
    And I've always recognized, based on my own background, 
having worked on budget issues, that defense does have a role 
to play in trying to get our fiscal house in order.
    For that reason, we looked at this as an opportunity to 
develop a new defense strategy for the future, not to simply 
have to respond to the budget requirements that were here, but 
to do it in a way that would provide a strong defense for the 
country in the future.
    The defense strategy that we developed does reflect the 
fact that as we end the war in Iraq and draw down in 
Afghanistan, we are at a turning point that would have required 
us, frankly, to make a strategic shift, probably under any 
circumstances.
    The problem is that unlike past drawdowns, where the 
threats that we confronted receded, after wars, after the 
Vietnam war, after the fall of the Soviet Union, the problem is 
we continue to face very serious security challenges in the 
world of today.
    We are still at war in Afghanistan. We still confront 
terrorism even though there's been significant damage to the 
leadership of al Qaeda. The reality is, we confront terrorism 
in Somalia, in Yemen, in North Africa.
    We continue to see the proliferation of weapons of mass 
destruction. We continue to see threats from Iran and North 
Korea. We continue to have turmoil in the Middle East. We see 
the rising powers in Asia that represent a challenge in terms 
of stability in that region as well.
    And there are growing concerns about cyber intrusions and 
cyber attacks. We have to meet all of these challenges, and at 
the same time, meet our responsibility to fiscal discipline.
    I don't think we have to choose between our national 
security and our fiscal security. But, at the same time, this 
is not an easy task.
    To build the force we need for the future, we developed 
strategic guidance that consists really of five key elements 
that were the elements that guided us in terms of the budget 
recommendations we made.
    First of all, we know that the military is going to be 
smaller, and it's going to be leaner in the future. But it has 
to be agile, and it has to be flexible. It has to be quickly 
deployable. Yet, it also has to be technologically advanced.
    Second, because of the world we live in, and where we 
confront some of the most serious problems that face us, we 
have to rebalance our global posture and presence to emphasize 
the Asia-Pacific region and the Middle East. Those are the two 
areas where we confront the most serious challenges.
    Third, we have to build for the rest of the world that we 
deal with, we have to build innovative partnerships and 
strengthen key alliances and partnerships elsewhere in the 
world, so that we maintain a presence in Latin America, Africa, 
Europe, and elsewhere.
    Fourth, we have to ensure that we have a force that can 
confront and defeat aggression from any adversary, anytime, 
anywhere.
    And, last, this can't just be about cutting the budget. It 
also has to be about investments--investments in new technology 
and new capabilities, as well as our capacity to grow, adapt, 
and mobilize as needed.
    In shaping this strategy, we did not want to repeat the 
mistakes of the past. Our goals were the following: Number one, 
maintain the strongest military in the world. That's what we 
have now. That's what we want to have in the future.
    We do not want to hollow out the force, where you maintain 
a large force, less spending, and the result is that we weaken 
everything at the Defense Department by our failure to be able 
to address the needs of that kind of force.
    And that was a mistake that's been made in the past. We 
don't want to make that mistake again today or in the future.
    That means we have to take a balanced approach to budget 
cuts. We have to look at every area of the budget and put 
everything on the table. And it also means that we do not want 
to break faith with the troops and the families, particularly, 
the troops that have been deployed time and time and time 
again.
    As a result of these efforts, the Department, both our 
military and civilian leaders, strongly unified behind the 
recommendations that we presented. Consistent with the Budget 
Control Act, this budget reflects that in the next 5 years, 
we'll achieve savings of almost $260 billion, with 10-year 
savings of $487 billion.
    The savings come from four areas: One, efficiencies; two, 
force structure; three, procurement reforms; and, last, 
compensation.
    Let me walk through each of these areas. First, on 
efficiencies. Efficiencies yield about one-quarter of the 
targeted savings that we have in this package. On top of the 
$150 billion in efficiencies that were proposed in the fiscal 
year 2012 budget, we've added another $60 billion, primarily 
from streamlining support functions, consolidating information 
technology (IT) enterprises, rephasing military construction 
programs, consolidating inventory, and reducing service support 
contractors.
    As we reduce force structure, we also have a responsibility 
to be cost efficient in terms of the support for that force. 
And that's the reason that the recommendation has been to 
authorize another base realignment and closure process for 2013 
and 2015.
    And as someone who has gone through base realignment and 
closure (BRAC), I realize how controversial this process is for 
the members and for the constituencies.
    And yet, we do need, if we're going to bring the force 
down, we have got to find an effective way to achieve 
infrastructure savings. And that's the reason that 
recommendation was made.
    Efficiencies are still not enough to achieve the necessary 
savings. Budget reductions of this magnitude, almost half of $1 
trillion, require significant adjustments to force structure, 
procurement investments, and compensation as well.
    We achieve those in the context of the elements of the new 
strategy that I discussed, so let me just walk through each of 
those.
    First, we obviously have a force that is smaller and 
leaner, but it has to be more agile and technologically 
advanced. We knew that coming out of the wars, the military 
would be smaller. And to ensure an agile force, we made a 
conscious choice not to maintain more force structure than we 
could afford to properly train and equip.
    We're implementing force structure reductions consistent 
with this new strategic guidance. It will give us a total 
savings of about $50 billion over the next 5 years.
    So, those recommendations are to gradually re-size the 
Active Army. We're at about 560,000 now. We would bring that 
down over 5 years to 490,000, about a 70,000 reduction over 
that period.
    It's a force that would be flexible, would be agile. It 
would be ready. It would be lethal. We would still maintain 18 
divisions, 65 brigade combat teams, and 21 aviation brigades.
    We would do the same with the Marine Corps. We're at about 
202,000 in the Marine Corps. We would bring them down to 
182,000 over the next 5 years. That's a reduction of about 
20,000.
    Again, they would still remain the strongest expeditionary 
force in the world. They would have 31 infantry battalions, 10 
artillery battalions, and 20 tactical air squadrons.

                      AIR FORCE AND NAVY INVENTORY

    We would also reduce and streamline the Air Force's airlift 
fleet. In addition, the Air Force would eliminate seven 
tactical air squadrons, but we still would retain a robust 
force of 54 combat-coded fighter squadrons.
    The current bomber fleet would be maintained. We obviously 
have the Joint Strike Fighter in production, and we're also 
going to develop a new generation bomber that we look forward 
to in the future.
    We also have a fleet of 275 strategic airlifters and 318 C-
130s along with our refueling tanker capabilities.
    The Navy would retire seven lower priority Navy cruisers. 
And the reason they focused on that is because these cruisers 
have not been upgraded with ballistic missile defense 
capability. They're old. They need repairs. And so that was an 
area that they decided to try to achieve savings.
    That would still maintain a force in the Navy of 285 ships, 
11 carriers, 9 large deck amphibs, 82 cruisers and destroyers, 
and 50 nuclear-powered attack submarines. And we would achieve 
a naval number of about 300 ships by 2020.
    Second, in rebalancing our global posture to emphasize 
Asia-Pacific and the Middle East, we made clear that we've got 
to protect capabilities needed to project power in Asia-Pacific 
and in the Middle East.
    To this end, the budget, as I said, maintains the current 
bomber fleet, maintains our aircraft carrier fleet, maintains 
the big deck amphibious fleet, and it restores Army and Marine 
Corps force structure, particularly in the Pacific.
    We're looking at, we've already provided for a rotational 
deployment of Marines in Darwin in Australia. We're looking at 
doing the same thing in the Philippines as well as elsewhere.
    And the same thing is true with regard to a strong presence 
in the Middle East. Because of the threats in that region, we 
have maintained a strong presence of troop strength in that 
area as well.
    We're building innovative partnerships and trying to 
strengthen our alliances throughout the world. And the way we 
are doing this is by developing this innovative, rotational 
presence where troops will go into an area, exercise with them, 
provide guidance and assistance, develop alliances, develop 
their capabilities, and build key alliances and partnerships 
for the future.
    That's the message I delivered to the Pacific on this last 
trip. It's well received. I delivered the same message to Latin 
America. It's well received. These countries want to develop 
their capabilities.
    This is not a question of the United States going around 
basically exerting our own power and telling these countries 
we'll defend them. They've got to develop their capabilities to 
be able to secure themselves for the future. And that's what 
this proposal provides for.
    Fourth, we ensure that we can confront and defeat 
aggression from any adversary, anytime, anywhere, and that, 
obviously, goes to the force structure that would sustain a 
military that's the strongest in the world, capable of quickly 
and decisively confronting aggression wherever and whenever 
necessary.
    In the 21st century, our adversaries are going to come at 
us using 21st century technology. That's the world we live in. 
And we've got to be able to respond with 21st century 
technology.
    So, we must invest. We've got to invest in space. We've got 
to invest in cyberspace. We've got to invest in long-range 
precision strikes. We've got to invest in unmanned vehicles. 
We've got to invest in special operations forces. We've got to 
invest in the latest technologies to ensure that we can still 
confront and defeat multiple adversaries.
    And the last area is to protect, obviously, and prioritize 
key investments, and have the capacity to grow and adapt and 
mobilize. I talked about some of the areas that we want to 
invest in. This budget provides almost $12 billion of 
investment in science and technology, $10.4 billion in special 
operations forces, about $4 billion in unmanned air systems, 
and about $3.5 billion in cyber.

                    NATIONAL GUARD AND RESERVE UNITS

    The last point I would make is we have got to maintain a 
strong Reserve and a strong National Guard that can respond if 
we have to mobilize quickly. That's been a key to our ability 
to mobilize over these last 10 years.
    And today, I have to tell you, when you go out to the 
battlefield, you can't tell the difference between Active Duty 
and National Guard and Reserve units. They're out there. 
They're fighting. They're developing great experience, great 
capabilities. I don't want to lose that for the future. I want 
to be able to maintain that.
    The last area I will mention is obviously an area that is 
extremely important. It's fundamental to our strategy, which 
are our people. That, frankly, is the biggest strength we have 
in the United States.
    For all the weapons we have, for all the technology we 
have, frankly, it's the men and women in uniform that are the 
strongest weapon we have for the future.
    And so, we want to sustain the family assistance programs, 
the programs for wounded warriors, the basic support programs 
for our troops and their families. But at the same time, I've 
got to focus on some savings in the compensation area.
    This is an area that's grown by 90 percent. And, frankly, 
we have got to be able to find some cost constraints in that 
area. So it's for that reason, that, you know, when it came to 
military pay, we provide pay raises these next 2 years, but we 
try to limit those pay raises in the out years in order to 
provide some limits.

                            HEALTHCARE COSTS

    We also do the same thing with TRICARE costs. And I 
recognize that that's sensitive, and controversial, but 
healthcare costs us almost $50 billion a year at the defense 
budget. I've got to do something to control healthcare costs in 
the future.
    We've also looked at the idea of a retirement commission to 
look at retirement provisions for the future. We'd like to 
grandfather, obviously, benefits for those that are presently 
in the force, but we do need to achieve savings in this area as 
well for the future.
    So, that's the package. This is not easy. It's tough, and 
we need your support. We need your partnership in trying to 
implement this strategy. I know these cuts are painful, and the 
fact is, they impact on all 50 States.
    But there is no way you can cut a half of $1 trillion out 
of the defense budget and not have an impact on States. That's 
just a reality if you do it right.
    So the key here is to try to do this in a way that relates 
to a defense strategy. That's important. The committees that 
have marked up our budget, in many ways, they've accepted the 
recommendations we've made for investment changes, and we 
appreciate that.
    But some of the committees have also made changes with 
regard to our recommendations that we're concerned about. Some 
of the bills seek to reverse the decisions to eliminate aging 
and lower priority ships and aircraft.
    My concern is that if these decisions are totally reversed, 
then I've got to find money somewhere in order to maintain this 
old stuff, which has me literally in a situation where I've got 
to hollow out the force in order to do that.
    We've got to be able to retire what is aged and what we can 
achieve some savings on.
    The same thing is true, there's been some proposals to 
basically not provide for the measured and gradual reductions 
in end-strength that we've proposed for the Army and the Marine 
Corps.
    Again, if I have a large force, and I don't have the money 
to maintain that large force, I'm going to wind up hollowing it 
out because I can't provide the training, I can't provide the 
equipment.
    So that's why, if we're going to reduce the force, then 
I've got to be able to do it in a responsible way.
    The last point I would make is with regard to overhead 
costs in military healthcare and in compensation.
    Again, I understand the concern about that, but if I 
suddenly wind up with no reductions in that area, I've got to 
reach some place to find the money to maintain those programs. 
And that too, somebody's going to pay a price for that.
    There's no free lunch here. Every low-priority program or 
overhead cost that is retained, will have to be offset in cuts 
in higher priority investments in order to comply with the 
Budget Control Act.
    I recognize that there's no one in this subcommittee that 
wants to hollow out the force or weaken our defense structure. 
So I would strongly urge all of you to work with us to reach a 
consensus about how we achieve our defense priorities 
recognizing your concerns.
    Our job is to responsibly respond to what this Congress has 
mandated on a bipartisan basis with regard to reducing the 
defense budget. And I need to have your help and your support 
to do this in a manner that preserves the strongest military in 
the world.

                             SEQUESTRATION

    Let me just say a few words about sequestration. Obviously, 
this is a great concern. The doubling--I mean, this would 
result in a doubling of cuts, another $500 billion, that would 
have to be cut through this kind of formulaic, meat-axe 
approach that was designed into that process.
    And it would guarantee that we hollow out our force and 
inflict severe damage on our national defense. I think you all 
recognize that the sequester would be entirely unacceptable. 
And I really urge both sides to work together to try to find 
the kind of comprehensive solution that would detrigger the 
sequester, and try to do this way ahead of this potential 
disaster that we confront.
    I know the members of this subcommittee are committed to 
working together to stop the sequester, and I want you to know 
that we are prepared to work with you to try to do what is 
necessary to avoid that crisis.
    The last point I would make is on fiscal year 2012. We have 
some additional needs that have developed during fiscal year 
2012. Just to summarize a few.
    With regard to fuel costs. Because of the increase in fuel 
costs, we're facing almost another $3 billion in additional 
costs with regard to that area. Obviously, if the price goes 
down, that will provide some relief, but right now, that's the 
number that we're facing.
    We've also had the closure of these ground lines, the so-
called ground lines of communication (GLOCs) in Pakistan. And 
the result of that is that it's very expensive because we're 
using the northern transit route in order to be able to 
drawdown our forces and also supply our forces.
    I think the amount is about $100 million a day--a $100 
million a month because of the closure of those GLOCs.
    Iron Dome, a system that we're trying to provide for the 
Israelis, is another additional cost that we would like to be 
able to provide. And also, we have had to provide additional 
forces in the Middle East because of the tensions in the gulf.
    And so because we've increased both our naval and land 
forces there, those are additional costs as well.
    So we've got some unbudgeted needs that we would ask for 
your support. I'll present to you an omnibus reprogramming 
request, and we hope to work with you to resolve these issues 
in the current fiscal year and do what the American people 
expect of all of us to be fiscally responsible in developing 
the force we need, a force that can defend the country and 
defend our Nation and support the men and women in uniform that 
are so important to the strongest military in the world.
    These last 2 weeks, I had the opportunity to travel 
throughout Asia Pacific, and I consulted with a lot of our key 
allies and partners. I think they're very receptive of the 
strategy that we're proposing and are enthusiastic, certainly 
about our engagement in the region.

                           PREPARED STATEMENT

    And I think I've been able to reassure our allies and 
partners, that we have a strategy-based approach to dealing 
with national security. I come from this institution of the 
Congress, and I have great respect for you and for this 
institution.
    And I look forward to a partnership here to try to develop 
the approaches that are going to be necessary if we're going to 
meet our responsibilities to national security and fiscal 
responsibility at the same time.
    Thank you.
    [The statement follows:]
                 Prepared Statement of Leon E. Panetta
    Chairman Inouye, Senator Cochran, and members of the subcommittee. 
I appreciate the opportunity to appear before you to discuss the 
President's fiscal year 2013 budget. I also want to address the looming 
problems associated with sequestration as well as our budgetary 
situation in fiscal year 2012.
    But let me begin by first thanking you for your support for our 
servicemembers and our military families, including your responsiveness 
to the urgent needs of our men and women in the battlefield over the 
last decade of war. Our brave men and women, along with the 
Department's civilian professionals who support them, have done 
everything asked of them and more.
                        defense strategy review
    The fiscal year 2013 budget request for the Department of Defense 
(DOD) was the product of an intensive strategy review conducted by the 
senior military and civilian leaders of the Department with the advice 
and guidance of President Obama. The total request represents a $614 
billion investment in national defense--including a $525.4 billion 
request for the Department's base budget and $88.5 billion in spending 
for overseas contingency operations (OCO).
    The reasons for this review are clear: First, the United States is 
at a strategic turning point after a decade of war and substantial 
growth in defense budgets. Second, with the Nation confronting very 
large debt and deficits, the Congress passed the Budget Control Act of 
2011 (BCA), imposing limits that led to a reduction in the defense 
budget of $487 billion over the next decade.
    Deficit reduction is a critical national security priority in and 
of itself. We at the Department decided that this crisis presented us 
with the opportunity to establish a new strategy for the force of the 
future, and that strategy has guided us in making the budget choices 
contained in the President's budget. We are at an important turning 
point that would have required us to make a strategic shift under any 
circumstances. The United States military's mission in Iraq has ended. 
We still have a tough fight on our hands in Afghanistan, but over the 
past year we have begun a transition to Afghan-led responsibility for 
security--and we are on track to complete that transition by the end of 
2014, in accordance with the commitments made at Lisbon and reaffirmed 
last month at the North Atlantic Treaty Organization (NATO) summit in 
Chicago. Last year, the NATO effort in Libya also concluded with the 
fall of Qadhafi. And successful counterterrorism efforts have 
significantly weakened al Qaeda and decimated its leadership.
    But despite what we have been able to achieve, unlike past 
drawdowns when threats have receded, the United States still faces a 
complex array of security challenges across the globe:
  --we are still a Nation at war in Afghanistan;
  --we still face threats from terrorism;
  --there is dangerous proliferation of lethal weapons and materials;
  --the behavior of Iran and North Korea threaten global stability;
  --there is continuing turmoil and unrest in the Middle East and North 
        Africa;
  --rising powers in Asia are testing international relationships; and
  --there are growing concerns about cyber intrusions and attacks.
    Our challenge is to meet these threats and at the same time, meet 
our responsibility to fiscal discipline. This is not an easy task.
    To build the force we need for the future, we developed new 
strategic guidance that consists of these five key elements:
  --First, the military will be smaller and leaner, but it will be 
        agile, flexible, ready, and technologically advanced.
  --Second, we will rebalance our global posture and presence to 
        emphasize Asia-Pacific and the Middle East.
  --Third, we will build innovative partnerships and strengthen key 
        alliances and partnerships elsewhere in the world.
  --Fourth, we will ensure that we can quickly confront and defeat 
        aggression from any adversary--anytime, anywhere.
  --Fifth, we will protect and prioritize key investments in technology 
        and new capabilities, as well as our capacity to grow, adapt, 
        and mobilize as needed.
                  strategy to fiscal year 2013 budget
    We developed this new strategic guidance before any final budget 
decisions were made to ensure that the budget choices reflected the new 
defense strategy.
    While shaping this strategy, we did not want to repeat the mistakes 
of the past. Our goals were to maintain the strongest military in the 
world and to do our share of deficit reduction, recognizing that no 
country maintains its military might if its economy is weakened. We are 
determined to not break faith with troops and their families, to not 
``hollow out'' the force, to take a balanced approach to budget cuts, 
and to put everything on the table. Throughout the review we made sure 
this was an inclusive process, and General Dempsey and I worked closely 
with the leadership of the Services and Combatant Commanders, and 
consulted regularly with Members of Congress.
    As a result of these efforts, the Department is strongly united 
behind the recommendations we have presented to the Congress. 
Consistent with title I of the Budget Control Act, this budget reflects 
$259 billion in savings over the next 5 years and $487 billion over the 
next 10 years compared to the budget plan submitted to the Congress 
last year. Under the 5-year budget plan, the base budget will rise from 
$525 billion in fiscal year 2013 to $567 billion in fiscal year 2017. 
When reduced war-related funding requirements are included, we expect 
total U.S. defense spending to drop by more than 20 percent over the 
next few years from its peak in 2010, after accounting for inflation.
    This is a balanced and complete package that follows the key 
elements of the strategy and adheres to the guidelines we established. 
The savings come from three broad areas:
  --First, efficiencies--we redoubled efforts to make more disciplined 
        use of taxpayer dollars, yielding about one-quarter of the 
        target savings.
  --Second, force structure and procurement adjustments--we made 
        strategy-driven changes in force structure and procurement 
        programs, achieving roughly one-half of the savings.
  --Finally, compensation--we made modest but important adjustments in 
        personnel costs to achieve some necessary cost savings in this 
        area, which represents one-third of the budget but accounted 
        for a little more than 10 percent of the total reduction.
    Changes in economic assumptions and other shifts account for the 
remainder of the $259 billion in savings. Let me walk through these 
three areas, beginning with our efforts to discipline our use of 
defense dollars.
                more disciplined use of defense dollars
    If we are to tighten up the force, I felt we have to begin by 
tightening up the operations of the Department. This budget continues 
efforts to reduce excess overhead, eliminate waste, and improve 
business practices across the Department. The more savings realized in 
this area, the less spending reductions required for modernization 
programs, force structure, and military compensation.
    As you know, the fiscal year 2012 budget proposed more than $150 
billion in efficiencies between fiscal year 2012 and fiscal year 2016, 
and we continue to implement those changes. This budget identifies 
about $60 billion in additional savings over 5 years. Across the 
military services, new efficiency efforts over the next 5 years 
include:
  --The Army proposes to save $18.6 billion through measures such as 
        streamlining support functions, consolidating information 
        technology (IT) enterprise services, and rephasing military 
        construction projects.
  --The Navy proposes to save $5.7 billion by implementing strategic 
        sourcing of commodities and services, consolidating inventory, 
        and other measures.
  --The Air Force proposes to save $6.6 billion by reducing service 
        support contractors and rephasing military construction 
        projects.
    Other proposed DOD-wide efficiency savings over the next 5 years 
total $30.1 billion, including reductions in expenses in the Office of 
the Secretary of Defense and the Defense agencies.
    Additionally, we are continuing the initiative to improve the 
Department's buying power by seeking greater efficiency and 
productivity in the acquisition of goods and services. We are 
strengthening acquisition support to the warfighter, executing 
acquisitions more efficiently, preserving the industrial base, and 
strengthening the acquisition workforce. This budget assumes that these 
policies produce savings of $5.3 billion over the next 5 years.
    In terms of military infrastructure, we will need to ensure that 
our current basing and infrastructure requirements do not divert 
resources from badly needed capabilities.
    As we reduce force structure, we have a responsibility to provide 
the most cost-efficient support for the force. For that reason, the 
President is requesting that the Congress authorize the base 
realignment and closure (BRAC) process for 2013 and 2015. As someone 
who went through BRAC, I realize how controversial this process can be 
for members and constituencies. And yet, it is the only effective way 
to achieve infrastructure savings.
    Achieving audit readiness is another key initiative that will help 
the Department achieve greater discipline in its use of defense 
dollars. The Department needs auditable financial statements to comply 
with the law, to strengthen its own internal processes, and to reassure 
the public that it continues to be a good steward of Federal funds. In 
October 2011, I directed the Department to emphasize this initiative 
and accelerate efforts to achieve fully auditable financial statements. 
Among other specific goals, I directed the Department to achieve audit 
readiness of the Statement of Budgetary Resources for general funds by 
the end of calendar year 2014, and to meet the legal requirements to 
achieve full audit readiness for all Defense Department financial 
statements by 2017. We are also implementing a course-based 
certification program for defense financial managers in order to 
improve training in audit readiness and other areas, with pilot 
programs beginning this year. We now have a plan in place to meet these 
deadlines, including specific goals, financial resources, and a 
governance structure.
    These are all critically important efforts to ensure the Department 
operates in the most efficient manner possible. Together, these 
initiatives will help ensure the Department can preserve funding for 
the force structure and modernization needed to support the missions of 
our force.
        strategy-driven changes in force structure and programs
    It is obvious that we cannot achieve the overall savings targets 
through efficiencies alone. Budget reductions of this magnitude require 
significant adjustments to force structure and investments, but the 
choices we made reflected five key elements of the defense strategic 
guidance and vision for the military.
Build a Force That is Smaller and Leaner, but Agile, Flexible, Ready, 
        and Technologically Advanced
    We knew that coming out of the wars, the military would be smaller. 
Our approach to accommodating these reductions, however, has been to 
take this as an opportunity--as tough as it is--to fashion the agile 
and flexible military we need for the future. That highly networked and 
capable joint force consists of:
  --an adaptable and battle-tested Army that is our Nation's force for 
        decisive action, capable of defeating any adversary on land;
  --a Navy that maintains forward presence and is able to penetrate 
        enemy defenses;
  --a Marine Corps that is a ``middleweight'' expeditionary force with 
        reinvigorated amphibious capabilities;
  --an Air Force that dominates air and space and provides rapid 
        mobility, global strike, and persistent intelligence, 
        surveillance, and reconnaissance (ISR); and
  --National Guard and Reserve components that continue to be ready and 
        prepared for operations when needed.
    To ensure an agile force, we made a conscious choice not to 
maintain more force structure than we could afford to properly train 
and equip. We are implementing force structure reductions consistent 
with the new strategic guidance for a total savings of about $50 
billion over the next 5 years.
    These adjustments include:
  --gradually resizing the Active Army to 490,000, eliminating a 
        minimum of eight brigade combat teams (BCTs) and developing a 
        plan to update the Army's brigade structure;
  --gradually resizing the Active Marine Corps to about 182,100, 
        eliminating six combat battalions and four Tactical Air 
        squadrons;
  --reducing and streamlining the Air Force's airlift fleet by retiring 
        all 27 C-5As, 65 of the oldest C-130s and divesting all 38 C-
        27s. After retirements, the Air Force will maintain a fleet of 
        275 strategic airlifters, and 318 C-130s--a number that we have 
        determined is sufficient to meet the airlift requirements of 
        the new strategy, including the Air Force's commitment for 
        direct support of the Army;
  --eliminating seven Air Force Tactical Air squadrons--including five 
        A-10 squadrons, one F-16 squadron, and one F-15 training 
        squadron. The Air Force will retain 54 combat-coded fighter 
        squadrons, maintaining the capabilities and capacity needed to 
        meet the new strategic guidance; and
  --retiring seven lower priority Navy cruisers that have not been 
        upgraded with ballistic missile defense capability or that 
        would require significant repairs, as well as retiring two dock 
        landing ships.
    The strategy review recognized that a smaller, ready, and agile 
force is preferable to a larger force that is poorly trained and ill-
equipped. Therefore, we put a premium on retaining those capabilities 
that provide the most flexibility across a range of missions. We also 
emphasized readiness. For fiscal year 2013, the Department is 
requesting $209 billion in the base budget for Operation and 
Maintenance, the budget category that funds training and equipment 
maintenance among other aspects of operations. That represents an 
increase of 6 percent compared to the enacted level in 2012, even 
though the overall base budget will decline by 1 percent. Striking the 
right balance between force structure and readiness is critical to our 
efforts to avoid a hollow force, and we will continue to focus on this 
area to ensure that we make the right choices.
Rebalance Global Posture and Presence To Emphasize Asia-Pacific and the 
        Middle East
    The strategic guidance made clear that we must protect capabilities 
needed to project power in Asia-Pacific and the Middle East. To this 
end, this budget:
  --maintains the current bomber fleet;
  --maintains the aircraft carrier fleet at a long-term level of 11 
        ships and 10 air wings;
  --maintains the big-deck amphibious fleet; and
  --restores Army and Marine Corps force structure in the Pacific after 
        the drawdown from Iraq and as we drawdown in Afghanistan, while 
        maintaining persistent presence in the Middle East.
    The budget also makes selected new investments to ensure we develop 
new capabilities needed to maintain our military's continued freedom of 
action in face of new challenges that could restrict our ability to 
project power in key territories and domains. Across the Services, this 
budget plan requests $1.8 billion for fiscal year 2013, and a total of 
$3.9 billion over the next 5 years, for enhancements to radars, 
sensors, and electronic warfare capabilities needed to operate in these 
environments.
    Other key power projection investments in fiscal year 2013 include:
  --$300 million to fund the next generation Air Force bomber (and a 
        total of $6.3 billion over the next 5 years);
  --$1.8 billion to develop the new Air Force tanker;
  --$18.2 billion for the procurement of 10 new warships and associated 
        equipment, including two Virginia-class submarines, two Aegis-
        class destroyers, four littoral combat ships, one joint high 
        speed vessel, and one CVN-21-class aircraft carrier. We are 
        also requesting $100 million to develop the capability to 
        increase cruise missile capacity of future Virginia-class 
        submarines;
  --$2.2 billion in fiscal year 2013 for the procurement of an 
        additional 26 F/A-18E/F Super Hornet aircraft;
  --$1 billion in fiscal year 2013 for the procurement of 12 EA-18G 
        Growler aircraft, the Navy's new electronic warfare platform 
        that replaces the EA-6B; and
  --$38 million for design efforts to construct an Afloat Forward 
        Staging Base planned for procurement in fiscal year 2014. This 
        base can provide mission support in areas where ground-based 
        access is not available, such as countermine operations, 
        Special Operations, and ISR.
Build Innovative Partnerships and Strengthen Key Alliances and 
        Partnerships
    The strategy makes clear that even though Asia-Pacific and the 
Middle East represent the areas of growing strategic priority, the 
United States will work to strengthen its key alliances, to build 
partnerships, and to develop innovative ways to sustain United States 
presence elsewhere in the world.
    To that end, this budget makes key investments in NATO and other 
partnership programs, including:
  --$200 million in fiscal year 2013 and nearly $900 million over the 
        next 5 years in the NATO Alliance Ground Surveillance system. 
        This system will enable the Alliance to perform persistent 
        surveillance over wide areas in any weather or light condition;
  --$9.7 billion in fiscal year 2013, and $47.4 billion over the next 5 
        years, to develop and deploy missile defense capabilities that 
        protect the U.S. homeland and strengthen regional missile 
        defenses;
  --$800 million for the Combatant Commanders exercise and engagement 
        program. Jointly with the State Department, we will also begin 
        using the new Global Security Contingency fund that was 
        established at our request in the fiscal year 2012 legislation;
  --$401 million for the Medium Extended Air Defense System (MEADS). 
        These funds are necessary to complete the Proof of Concept 
        program that was agreed to between the United States, Italy, 
        and Germany. Completing the Proof of Concept fulfills an 
        important obligation to our international partners, lays the 
        groundwork for strengthened NATO air defense, and will provide 
        demonstrated technologies to enhance U.S. air defense 
        capabilities in the future.
    The new strategy also envisions a series of organizational changes 
that will boost efforts to partner with other militaries. These 
include:
  --Allocating a U.S.-based brigade to the NATO Response Force and 
        rotating U.S.-based units to Europe for training and exercises;
  --Aligning an Army BCT with each regional Combatant Command to foster 
        regional expertise; and
  --Increasing opportunities for Special Operations Forces to advise 
        and assist partners in other regions, using additional capacity 
        available due to the gradual drawdown from the post-9/11 wars.
Ensure That We Can Confront and Defeat Aggression From Any Adversary--
        Anytime, Anywhere
    The strategic guidance reaffirmed that the United States must have 
the capability to fight more than one conflict at the same time. Still, 
the strategic guidance recognizes that how we defeat the enemy may well 
vary across conflicts.
    This budget invests in space, cyberspace, long range precision-
strike, and the continued growth of special operations forces to ensure 
that we can still confront and defeat multiple adversaries even with 
the force structure reductions outlined earlier. It also sustains the 
nuclear triad of bombers, missiles, and submarines to ensure we 
continue to have a safe, reliable, and effective nuclear deterrent.
    Even with some adjustments to force structure, this budget sustains 
a military that is the strongest in the world, capable of quickly and 
decisively confronting aggression wherever and whenever necessary. 
After planned reductions, the fiscal year 2017 joint force will consist 
of:
  --an Army of more than 1 million Active and Reserve soldiers that 
        remains flexible, agile, ready, and lethal across the spectrum 
        of conflict, with 18 Divisions, approximately 65 Brigade Combat 
        Teams, 21 Combat Aviation Brigades, and associated enablers;
  --a Naval battle force of 285 ships--the same size force that we have 
        today--that will remain the most powerful and flexible naval 
        force on Earth, able to prevail in any combat situation, 
        including the most stressing anti-access environments. Our 
        maritime forces will include 11 carriers, 9 large deck 
        amphibious ships (although we should build to 10 such ships in 
        fiscal year 2018), 82 guided missile cruisers and destroyers, 
        and 50 nuclear-powered attack submarines;
  --a Marine Corps that remains the Nation's expeditionary force in 
        readiness, forward deployed and engaged, with 31 infantry 
        battalions, 10 artillery battalions, and 20 tactical air 
        squadrons; and
  --an Air Force that will continue to ensure air dominance with 54 
        combat-coded fighter squadrons and the current bomber fleet, 
        with the Joint Strike Fighter in production and the next-
        generation bomber in development. Our Air Force will also 
        maintain a fleet of 275 strategic airlifters, 318 C-130s, and a 
        new aerial refueling tanker.
Protect and Prioritize Key Investments, and the Capacity To Grow, 
        Adapt, and Mobilize
    The force we are building will retain a decisive technological 
edge, leverage the lessons of recent conflicts, and stay ahead of the 
most lethal and disruptive threats of the future.
    To that end, the fiscal year 2013 budget:
  --provides $11.9 billion for science and technology to preserve our 
        ability to leap ahead, including $2.1 billion for basic 
        research;
  --provides $10.4 billion (base and OCO) to sustain the continued 
        growth in Special Operations Forces;
  --provides $3.8 billion for Unmanned Air Systems by funding trained 
        personnel, infrastructure, and platforms to sustain 65 USAF MQ-
        1/9 combat air patrols with a surge capacity of 85 by fiscal 
        year 2016. We slowed the buy of the Reaper aircraft to allow us 
        time to develop the personnel and training infrastructure 
        necessary to make full use of these important aircraft. We also 
        protected funding for the Army's unmanned air system Gray 
        Eagle;
  --invests $3.4 billion in cyber activities, with several initiatives 
        receiving increased funding relative to last year. The scale of 
        cyber threats is increasing and we need to be prepared to 
        defeat these threats, mitigate the potential damage, and 
        provide the President with options to respond, if necessary. We 
        are investing in full spectrum cyber operations capabilities to 
        address the threats we see today and in the future. The 
        Department strongly believes that congressional action is 
        needed on cyber legislation and is supportive of the bipartisan 
        legislation introduced by Senators Lieberman, Collins, and 
        Rockefeller; and
  --provides $1.5 billion to fund the Department's Chemical and 
        Biological Defense program.
    At the same time, the strategic guidance recognizes the need to 
prioritize and distinguish urgent modernization needs from those that 
can be delayed--particularly in light of schedule and cost problems. 
Therefore this budget identifies about $75 billion in savings over the 
Future Years Defense Plan (FYDP) resulting from canceled or 
restructured programs. Key modifications and associated savings over 
the FYDP include:
  --$15.1 billion in savings from restructuring the Joint Strike 
        Fighter by delaying aircraft purchases to allow more time for 
        development and testing;
  --$1.3 billion in savings from delaying development of the Army's 
        ground combat vehicle due to contracting difficulties;
  --$2.2 billion in savings from curtailing the Joint Land Attack 
        Cruise Missile Defense Elevated Netted Sensor System (JLENS) 
        due to concerns about program cost and operational mobility;
  --$4.3 billion in savings from delaying the next generation of 
        ballistic missile submarines by 2 years for affordability and 
        management reasons; and
  --$0.8 billion in savings from delaying selected Army aviation 
        helicopter modernization for 3 to 5 years.
    We will also terminate selected programs, including:
  --the Block 30 version of Global Hawk, which has grown in cost to the 
        point where it is no longer cost effective, resulting in 
        savings of $2.5 billion;
  --upgrades to High Mobility Multipurpose Wheeled Vehicles (HMMWVs); 
        we will focus our modernization resources on the joint light 
        tactical vehicle, resulting in savings of $900 million; and
  --the weather satellite program, because we can depend on existing 
        satellites, resulting in savings of $2.3 billion.
    We have also invested in a balanced portfolio of capabilities that 
will enable our force to remain agile, flexible, and technologically 
advanced enough to meet any threat. We will ensure that we can 
mobilize, surge, and adapt our force to meet the requirements of an 
uncertain future. To that end, ground forces will retain the key 
enablers and know-how to conduct long-term stability operations, and 
the Army will retain more mid-grade officers and noncommissioned 
officers. These steps will ensure we have the structure and experienced 
leaders necessary should we need to re-grow the force quickly.
    Another key element is to maintain a capable and ready National 
Guard and Reserve. The Reserve component has demonstrated its readiness 
and importance over the past 10 years of war, and we must ensure that 
it remains available, trained, and equipped to serve in an operational 
capacity when necessary. We will maintain key combat support 
capabilities and ensure that combat service support capabilities like 
civil affairs are maintained at a high-readiness level. We will also 
leverage the operational experience and institute a progressive 
readiness model in the National Guard and Reserves in order to sustain 
increased readiness prior to mobilization.
    In keeping with the emphasis on a highly capable reserve, this 
budget makes only relatively modest reductions in the ground-force 
Reserve components. Over the next 5 years, the Army Reserve will be 
sustained at 205,000 personnel, the Army National Guard will marginally 
decrease from 358,200 to 353,200 personnel, and the Marine Corps 
Reserve will sustain an end-strength level of 39,600 personnel. The 
Navy Reserve will decrease from 66,200 to 57,100 personnel over the 
next 5 years. Over the same span, the Air Force Reserve will decrease 
from 71,400 to 69,500 personnel, and the Air National Guard will 
decrease from 106,700 to 101,200 personnel.
    Another key part of preserving our ability to quickly adapt and 
mobilize is a strong and flexible industrial base. This budget 
recognizes that industry is our partner in the defense acquisition 
enterprise. A healthy industrial base means a profitable industrial 
base, but it also means a lean, efficient base that provides good value 
for the taxpayers' defense investments and increases in productivity 
over time.
              ensuring quality of the all-volunteer force
    Now to the most fundamental element of our strategy and our 
decisionmaking process: Our people. This budget recognizes that they, 
far more than any weapons system or technology, are the great strength 
of our United States military. All told, the fiscal year 2013 budget 
requests $135.1 billion for the pay and allowances of military 
personnel and $8.5 billion for family support programs vital to the 
well-being of servicemembers and their families.
    One of the guiding principles in our decisionmaking process was 
that we must keep faith with our troops and their families. For that 
reason, we were determined to protect family assistance programs, and 
we were able to sustain these important investments in this budget and 
continue efforts to make programs more responsive to the needs of 
troops and their families. Yet in order to build the force needed to 
defend the country under existing budget constraints, the growth in 
costs of military pay and benefits must be put on a sustainable course. 
This is an area of the budget that has grown by nearly 90 percent since 
2001, or about 30 percent above inflation--while end strength has only 
grown by 3 percent.
    This budget contains a roadmap to address the costs of military 
pay, healthcare, and retirement in ways that are fair, transparent, and 
consistent with our fundamental commitments to our people.
    On military pay, there are no pay cuts. We have created sufficient 
room to allow for full pay raises in 2013 and 2014 that keep pace with 
increases in the private sector. That means for 2013, we propose a pay 
increase of 1.7 percent for servicemembers. However, we will provide 
more limited pay raises beginning in 2015--giving troops and their 
families fair notice and lead time before changes take effect. Let me 
be clear: Nobody's pay is cut in this budget nor will anyone's pay be 
cut in the future years of this proposal.
    This budget devotes $48.7 billion to healthcare--a cost that has 
more than doubled over the last decade. In order to continue to control 
the growth of these costs, we are recommending increases in healthcare 
fees, copays, and deductibles to be phased in over 4 to 5 years. None 
of the fee proposals in the budget would apply to active-duty 
servicemembers, survivors of servicemembers who died on Active Duty, or 
retirees who retired due to disability. Most of the changes will not 
affect the families of Active-Duty servicemembers--there will be no 
increases in healthcare fees or deductibles for families of Active-Duty 
servicemembers. Those most affected will be retirees--with the greatest 
impact on working-age retirees under the age of 65 still likely to be 
employed in the civilian sector. Even with these changes, the costs 
borne by retirees will remain below levels in most comparable private 
sector plans--as they should be.
    Proposed changes include:
  --further increasing enrollment fees for retirees under age 65 in the 
        TRICARE Prime program, using a tiered approach based on retired 
        pay that requires senior-grade retirees with higher retired pay 
        to pay more and junior-grade retirees less;
  --establishing a new enrollment fee for the TRICARE Standard/Extra 
        programs and increasing deductibles;
  --establishing a new enrollment fee for the TRICARE-for-Life program 
        for retirees 65 and older, also using a tiered approach;
  --implementing additional increases in pharmacy copays in a manner 
        that increases incentives for use of mail order and generic 
        medicine; and
  --indexing fees, deductibles, pharmacy copays, and catastrophic caps 
        to reflect the growth in national healthcare costs.
    These changes are important. I am therefore disappointed that the 
Authorization Committees did not support the proposed TRICARE fee 
initiatives that seek to control spiraling defense healthcare costs. We 
also feel that the fair way to address military retirement costs is to 
ask the Congress to establish a commission with authority to conduct a 
comprehensive review of military retirement. But the President and the 
Department believe that the retirement benefits of those who currently 
serve should be protected by grandfathering their benefits. For those 
who serve today, I will request there be no changes in retirement 
benefits.
                 fully supporting deployed warfighters
    The costs of overseas contingency operations (OCO) are funded 
separately from the base budget in a stand-alone fiscal year 2013 
request of $88.5 billion. That funding level represents a decrease of 
$26.6 billion from the fiscal year 2012 enacted level.
    This year's OCO request, which ensures that deployed troops have 
all the financial resources they need to conduct their challenging 
missions, primarily supports operations in Afghanistan, but also 
requests relatively small sums for the Office of Security Cooperation 
in Iraq (OSC-I) and the repair or replacement of equipment redeploying 
from Iraq.
    Our fiscal year 2013 OCO request includes funding for added 
personnel pay and subsistence for deployed forces; communications; 
mobilizing Reserve component units; transportation; supplies; 
deployment and redeployment of all combat and support forces; force 
sustainment; and sustainment and replenishment of war reserve stocks.
    For fiscal year 2013, we request $5.7 billion in funding for the 
Afghan National Security Forces (ANSF). It is critically important that 
we maintain sufficient financial support to ANSF so that they can 
ultimately assume full security responsibility across Afghanistan.
    Much tough fighting lies ahead in Afghanistan, but the gradually 
improving situation permits the remainder of the United States surge 
force to redeploy by the end of September 2012, leaving 68,000 United 
States troops in Afghanistan at that time. The fiscal year 2013 OCO 
request assumes a continued level of about 68,000 troops in 
Afghanistan. While future changes in troop levels may be implemented 
during fiscal year 2013, those decisions will be based on advice from 
field commanders about conditions on the ground.
    In Iraq, OCO funding supports continued security assistance and 
cooperation with Iraqi Security Forces through the OSC-I in the areas 
of common interest, including counterterrorism, counterproliferation, 
maritime security, and air defense. This funding is critical for the 
United States to strengthen its long-term partnership with Iraq. 
Additionally, to ensure that United States forces redeployed from Iraq 
are ready and equipped for future operations, this funding replenishes 
equipment and stocks for these forces.
                           a balanced package
    Members of the subcommittee, the fiscal year 2013 request is a 
carefully balanced package that keeps America safe and sustains U.S. 
leadership abroad. As you take a look at the individual parts of this 
plan, I encourage you to do what the Department has done: To bear in 
mind the strategic trade-offs inherent in any particular budget 
decision, and the need to balance competing strategic objectives in a 
resource-constrained environment.
    As the fiscal year 2013 budget request has worked its way through 
the relevant Committees, I am pleased to note that many of our changes 
have been sustained. In particular, most Committees have accepted a 
number of the investment changes we recommended, which are consistent 
with our new defense strategy and the budgetary limits imposed by the 
Budget Control Act.
    However, some Committees of Congress have not supported certain 
choices that are critical to the long-term viability of a defense 
strategy that lives within the constrained resources of the Budget 
Control Act. For example, some Committee bills are seeking to reverse 
decisions to eliminate aging and lower priority ships and aircraft. If 
these decisions are totally reversed, it would be harder to invest in 
newer, multipurpose, and higher priority platforms for the future, and 
we would be burdening the services with excess force structure that 
would risk hollowing out the force.
    There has also been opposition to the measured and gradual 
reductions in end strength we have proposed for the Army and Marine 
Corps. The Department has made it clear that we prefer a smaller ready 
force to a larger force that lacks sufficient training and equipment to 
perform the mission assigned to it. If we are prevented from making the 
full-planned reductions in the size of our ground forces, that's what 
we'll get.
    Similarly, some bills would reverse our efforts to slow overhead 
costs, particularly by slowing the growth of military healthcare costs. 
By making it harder to get these costs under control, the Congress is 
making it more difficult to balance and maintain investments in 
readiness and equipment, which is essential to the overall health of 
the All-Volunteer Force.
    In reversing difficult decisions and restoring funds to those areas 
that achieve necessary savings, the Congress risks upending the careful 
balance we have sought to achieve in our strategy.
    There is no free lunch here. Every low-priority program or overhead 
cost that is retained will have to be offset by cuts in higher priority 
investments in order to comply with the Budget Control Act.
    I know that this subcommittee does not want to hollow out the 
force. Therefore, I would strongly urge the Congress to work with us to 
reach a consensus about our defense priorities, recognizing your 
concerns. Obviously, our job is to responsibly respond to what this 
Congress mandated, on a bipartisan basis, with regard to reducing the 
defense budget. We need your partnership to do this in a manner that 
preserves the strongest military in the world. This will be a test of 
whether reducing the deficit is about talk or action.
    Now that we have seen the sacrifice involved in reducing the 
defense budget by almost half $1 trillion, I want to remind the 
Congress of its important responsibility to make sure that we avoid 
sequestration. That would be a doubling of the cuts, another roughly 
$500 billion in additional cuts that would be required to take place 
through a meat-axe approach, and that we are convinced could hollow out 
the force and inflict severe damage on our national defense. All of us 
recognize that sequester would be entirely unacceptable, and both sides 
and both chambers in the Congress must work urgently to find a 
compromise that will allow us to head off this disaster.
    I know that the members of this subcommittee are committed to 
working together to stop sequester, and to ensuring that our men and 
women in uniform have the resources they need to perform the hard work 
of defending this country.
                   fiscal year 2012 budget situation
    On that note, let me close by pointing to some difficult budgeting 
problems for fiscal year 2012 that will require your help and support 
to solve. Our fiscal year 2012 budget was prepared several years ago. 
Changes in funding needs since then have resulted in shortfalls and 
excesses in particular areas.
    To start, we have a significant shortfall in fuel funding for 
fiscal year 2012. The situation will improve if fuel prices remain at 
current lower levels, but the shortfall will still be substantial.
    There are also additional Army manpower costs due to greater 
Reserve mobilizations than expected, Navy OCO operating costs that are 
higher due to the need for more ships than planned for Afghanistan 
support, Air Force flying hours that exceeded projections, and Army OCO 
transportation costs that are higher due to closures of ground lines of 
communications (GLOC) in Pakistan.
    In terms of excesses, we know that our budgets for the Afghan 
Security Forces Fund (ASFF), both for fiscal year 2011 and for fiscal 
year 2012, are higher than are needed to provide full support to the 
Afghanistan National Security Forces.
    We need the Congress to permit us to realign funds to meet our 
shortfalls. As a start, on June 1 we asked for authority to move $1 
billion from the category for ASFF funding to the defense working 
capital fund. This will enable us to maintain cash reserves while 
paying higher fuel costs.
    Thank you for approving our request which represents a first step 
toward resolving our fiscal year 2012 budgetary problems. Remaining 
issues will be addressed by an omnibus reprogramming request which we 
plan to submit for your review around the end of June.
    As part of our efforts to confront fuel costs and also enhance our 
war-fighting capabilities, we are looking to make our installations and 
operations more fuel efficient and to diversify our energy sources, 
including with alternative fuels. I oppose efforts by the Congress to 
limit the Department's options for using alternative fuels. These 
efforts could deprive commanders of the flexibility they need to meet 
tactical and operational needs and make us more exposed to potential 
supply disruptions and future price volatility of petroleum products.
    I will work closely with you to resolve these issues for the 
current fiscal year, and to do what the American people expect of their 
leaders: Be fiscally responsible in developing the force for the 
future--a force that can defend the country, a force that supports our 
men and women in uniform, and a force that is, and always will be, the 
strongest military in the world.
    Over the past 2 weeks, I had the opportunity to travel extensively 
throughout the Asia-Pacific region, where I consulted with key Allies 
and partners and explained our new defense strategy both publicly and 
privately. I was struck by the enthusiasm and the support for America's 
continued engagement in that region, and the reassurance that our 
Allies and partners felt by the strategy-based approach we are taking 
to our national security.
    This trip has convinced me that we are on the right track, but I 
recognize that we are still at the very beginning of a long-term 
process that will unfold over the next decade and that we must continue 
in future budget requests.
    With our fiscal year 2013 budget, we have laid the groundwork to 
build the military we need for the future. But we need to work with the 
Congress to execute this strategy, and that means implementing the 
proposals we have presented this year, and pushing ahead with the hard 
work of maintaining the strongest military in the world and meeting our 
fiscal responsibilities.

    Chairman Inouye. Mr. Secretary, I thank you for your candid 
and painful testimony. May I now call upon General Dempsey.
STATEMENT OF GENERAL MARTIN E. DEMPSEY, CHAIRMAN, JOINT 
            CHIEFS OF STAFF
    General Dempsey. Thank you, Chairman, Senator Cochran, and 
distinguished members of the subcommittee: Thank you for this 
opportunity to discuss the President's defense budget proposal 
for fiscal year 2013.
    This budget represents a responsible investment in our 
Nation's security. It maintains our military's decisive edge, 
and it sustains America's global leadership. Moreover, it keeps 
faith with the Nation and the true source of our military 
strength which is, of course, America's sons and daughters who 
serve in uniform.
    I'd like to open with a few words about them and their 
accomplishments. In just this past year, our soldiers, sailors, 
airmen, and marines further crippled al Qaeda. They brought to 
a close more than 20 years of military operations in and over 
Iraq.
    They continued the steady transition of security 
responsibility in Afghanistan. They helped protect the Libyan 
people from a regime's brutality, and they helped Japan recover 
from a tragic natural disaster.
    They also worked professionally and quietly behind the 
scenes defending against cyber threats, sustaining our nuclear 
deterrent posture, and working with allies and partners around 
the globe to build capacity and prevent conflict.
    They didn't just do it last year. They've been doing it 
year after year after year. During a decade of continuous 
combat, our service men and women and their families have 
persevered and prevailed.
    It is a genuine pleasure and honor to serve with each and 
every one of them. They remain a great source of pride for our 
Nation. We need to keep faith with them just as they work to 
keep faith with the Nation.

                             DEFENSE BUDGET

    One way to do this is by making sure our defense budget is 
informed by a real strategy. This past January, we released a 
new defense strategy that reflects the lessons of war and 
anticipates a more competitive security environment in the 
future.
    It also acknowledges the realities of the new fiscal 
environment. It sets priorities for investment and it 
establishes a strategic focus. This budget resources that 
strategy.
    It ensures we retain our conventional overmatch while 
divesting capabilities not required in the Active Force or at 
all. It takes advantage of emerging capabilities as the 
Secretary said such as Special Operating Forces, intelligence, 
and cyber.
    It restores versatility and readiness. Overall, it's an 
important stepping off point on our path toward the joint force 
we assess we will need in 2020, a military that is always ready 
to provide options for the Nation.
    Keeping faith also means appropriate compensation for our 
troops. This budget proposes modest reforms to military pay and 
benefits. However, it does not place the burden of budget cuts 
on the shoulders of our men and women in uniform.
    There are no freezes or reductions in pay, and there is no 
decrease in the quality of healthcare received by our active-
duty members and medically retired wounded warriors.
    That said, we can't ignore some hard realities. We need 
practical reform to deal with escalating personnel costs, 
particularly in healthcare. We must make our healthcare system 
more sustainable. Otherwise, we risk both the quality and the 
continuity of care. We can ensure its viability in ways that 
are fair and modest.
    Last, keeping faith also means managing risk to our 
interests and to our institutions. To be sure, we are assuming 
some risk in this strategy. All strategies in all budgets that 
resource them have to accept some risk. That risk is not in 
what we can do, but in how much we can do and how often.
    The budget helps buy down that risk by investing in our 
people and in the joint capabilities we need most. We have 
achieved balance in this budget.
    Keep in mind, please, that this is a budget for a joint 
force. It should not be thought of as a set of separate service 
budgets but as a comprehensive and carefully devised set of 
choices; choices that reflect the right mix among force 
structure, modernization, readiness, pay, and benefits.
    Different choices will produce a different balance. So 
before giving us weapons we don't need, or giving up on reforms 
that we do need, I'd only ask you to make sure it's the right 
choice, not for our Armed Forces but for our Nation.

                             SEQUESTRATION

    Sequestration is absolutely certain to upend this balance. 
It would lead to further end-strength reductions, the potential 
cancellation of major weapon systems, and the disruption of 
global operations.
    We can't yet say precisely how bad the damage would be, but 
it is clear that sequestration would risk hollowing out our 
force and reducing its military options available to the 
Nation.
    We would go from being unquestionably powerful everywhere 
to being less visible globally, and presenting less of an over 
match to our adversaries. And that would translate into a 
different deterrent calculus, and potentially therefore, 
increase the likelihood of conflict.

                           PREPARED STATEMENT

    In closing, I offer my sincere thanks to this subcommittee 
and to the entire Congress of the United States. Thank you for 
keeping our military strong.
    Thank you for taking care of our military family, for 
supporting those who serve, who have served, and who will 
serve, I know you share my pride in them. I look forward to 
your questions.
    [The statement follows:]
            Prepared Statement of General Martin E. Dempsey
    Chairman Inouye, Senator Cochran, and distinguished members of the 
subcommittee: It is my privilege to update you on our Armed Forces and 
the President's budget proposal for fiscal year 2013. The context for 
this year's posture testimony is unique. Our military has transitioned 
many of our major operations. We have new defense guidance that sets 
strategic priorities. And we are facing real fiscal constraints and an 
increasingly competitive security environment. The President's proposed 
fiscal year 2013 defense budget accounts for these realities. It 
provides a responsible investment in our Nation's current and future 
security.
                       global military operations
    Today, our Armed Forces stand strong. We are proud of the 
performance and accomplishments of our men and women in uniform over 
the past year. They have carried out far-ranging missions with much 
success. They have defended our homeland, deterred aggression, and kept 
our Nation immune from coercion. And despite a decade of continuous 
combat operations, our troops and their families remain resilient.
    Our U.S. Forces in Iraq completed their mission in December. More 
than 20 years of military operations in and over Iraq came to a 
conclusion. The security of Iraq is now the responsibility of the Iraqi 
people, leaders, and security forces. We have transitioned to a normal 
military-to-military relationship. Diplomats and civilian advisors are 
the face of the United States in Baghdad. To be sure, Iraq still faces 
challenges to its future. But as we look to that future, we will 
continue to build ties across Iraq to help the people and institutions 
capitalize on the freedom and opportunity we helped secure.
    In Afghanistan, we are seeing the benefits of the surge in combat 
forces begun in early 2010. The security situation is improving. The 
Taliban are less capable, physically and psychologically, than they 
were 2 years ago. Afghan and International Security Assistance Forces 
(ISAF) have wrested the initiative and momentum from them in much of 
the country. The Taliban, however, remain determined and continue to 
threaten the population and the Government. Combat will continue.
    Key to long-term stability in Afghanistan is the development and 
sustainability of the Afghan National Security Forces (ANSF). In 2011, 
the Afghan National Army grew by 18 percent. The Afghan National Police 
grew by 20 percent. These forces, combined with the ever-more-capable 
Afghan local police, are steadily assuming responsibility for Afghan 
security. The process of transition began last July, and after nearly 
completing the second of five ``tranches'' of transition, Afghan 
security forces are now responsible for the day-to-day security of 
almost one-half of Afghanistan's population.
    Developing the ANSF, degrading insurgent capabilities, and turning 
over responsibilities have allowed us to begin a measured draw down of 
our forces in Afghanistan. We withdrew more than 10,000 of the surge 
troops and will withdraw the remaining 23,000 by the end of this 
summer. By that time, we expect the ANSF to achieve their initial 
operating capability and to be responsible for securing nearly 75 
percent of the Afghan population. They are on track to meet the goal of 
assuming lead for security in mid-2013 and full responsibility for 
security throughout Afghanistan by the end of 2014.
    Sustaining progress in Afghanistan requires dealing with some 
significant challenges. The ANSF and other national and local 
government institutions require further development. Corruption remains 
pervasive and continues to undermine the capacity and legitimacy of 
government at all levels. Insurgent sanctuaries in Pakistan remain 
largely uncontested. And ultimately, much more work remains to achieve 
the political solutions necessary to end the fighting in Afghanistan.
    The recent North Atlantic Treaty Organization (NATO) Summit in 
Chicago affirmed an international commitment to dealing with these 
challenges. Together, we will work to strengthen Afghan institutions 
through the end of 2014. And 2015 will mark the beginning of a decade-
long commitment to solidify our relationship with and support to the 
Afghan Government and people.
    Our military has been vigilant and active in other areas and with 
other missions to keep America and our allies safe. We decimated al 
Qaeda and pushed this terrorist network decidedly closer to strategic 
defeat. We supported NATO in its United Nations (UN) mission to protect 
civilians in Libya, allowing them to end Muammar Qaddafi's tyrannical 
rule. We responded quickly to the devastating earthquakes and tsunami 
that struck Japan, saving lives and acting on our commitment to this 
key ally. We fended off cyber intrusions against our military's 
computer networks and systems. And we helped counter aggression and 
provocation from Iran and North Korea.
                          a time of transition
    While our military continues to capably and faithfully perform a 
wide array of missions, we are currently in the midst of several major 
transitions. Any one of them alone would be difficult. Taken together, 
all three will test our people and our leadership at every level.
    First, we are transitioning from a war-time footing to a readiness 
footing. With the end of our operations in Iraq and Libya and the 
ongoing transition of security responsibilities in Afghanistan, our 
troops are steadily returning home. From a peak of more than 200,000 
troops deployed to combat 2 years ago, we have fewer than 90,000 today. 
This shift cannot lead us to lose focus on on-going combat operations. 
But, it does mean we must give attention to restoring our readiness for 
full-spectrum operations. We need to reset and refit, and in many cases 
replace, our war-torn equipment. We need to modernize systems 
intentionally passed over for periodic upgrading during the last 
decade. We must retrain our personnel on skills that may have 
atrophied. And, we will have to do all of this in the context of a 
security environment that is different than the one we faced 10 years 
ago. We cannot simply return to the old way of doing things, and we 
cannot ignore the lessons we have learned. As described in the 
Department's recently released strategic guidance, we should adjust our 
missions, our posture, and our organizational structure in order to 
adapt to ever evolving challenges and threats.
    Second, our military is transitioning to an era of more constrained 
resources. The days of growing budgets are gone, and as an institution 
we must become more efficient and transparent. We must carefully and 
deliberately evaluate trade-offs in force structure, acquisition, and 
compensation. We must make the hard choices, focus on our priorities, 
and overcome bureaucratic and parochial tendencies. In sum, we must 
recommit ourselves to being judicious stewards of the Nation's 
resources.
    Third, tens of thousands of our veterans--and their families--are 
facing the transition to civilian life. Many enlistments are coming to 
their normal conclusion, but we are also becoming a leaner force. As we 
do this, we must help our veterans find education opportunities, 
meaningful employment, and first-class healthcare. We must pay 
particular attention to those bearing the deepest wounds of war, 
including the unseen wounds. We must help those who have given so much 
cope with--and where possible, avoid--significant long-term challenges 
such as substance abuse, divorce, depression, domestic violence, and 
homelessness. We must reverse the disturbing, continuing trend of 
increasing suicides. Addressing these issues is not the exclusive 
responsibility of the Services or veterans organizations. How we 
respond, as a military community and as a Nation, conveys our 
commitment to our veterans and their families. It will also directly 
affect our ability to recruit and retain our Nation's best in the 
future.
    I have outlined several priorities for the Joint Force to help us 
anticipate and navigate the challenges these transitions present. We 
will maintain focus on achieving our national objectives in our current 
conflicts. We will begin creating the military of our future--the Joint 
Force of 2020. We will also confront what being in the Profession of 
Arms means in the aftermath of war. And above all else, we will keep 
faith with our military family. In doing all these things, we will 
provide an effective defense for the country and strengthen the 
military's covenant of trust with the American people.
                        a responsible investment
    The President's fiscal year 2013 Department of Defense base budget 
of $525 billion and overseas contingency operations (OCO) budget of $88 
billion represent a responsible investment in our Nation's security. 
The decisions underlying them flow from the strategic guidance the 
Department of Defense issued in January. This guidance set priorities 
for assessing our programs, force structure, and spending in the 
context of a persistently dangerous and increasingly competitive 
security environment. With those priorities in mind, the budget 
proposal strikes an appropriate and necessary balance between 
succeeding in today's conflicts and preparing for tomorrow's 
challenges. It accounts for real risks and real fiscal constraints, 
marrying versatility with affordability.
    The tradeoffs were complex, and the choices were tough. They will 
produce $259 billion in savings over the next 5 years and a total of 
$487 billion over the next 10 years. This savings does not portend a 
military in decline. Rather, this budget will maintain our military's 
decisive edge and help sustain America's global leadership. It will 
preserve our ability to protect our vital national interests and to 
execute our most important missions. Moreover, it will keep faith with 
the true source of our military's strength--our people.
    The merits of this budget should be viewed in the context of an 
evolving global security environment and a longer term plan for the 
Joint Force. Coming on the heels of a decade of war, this budget begins 
the process of rebalancing our force structure and our modernization 
efforts and aligns them with our strategy. Essentially, we are 
developing today the Joint Force the Nation will need in 2020, and our 
plans to build this force will unfold over the course of several budget 
cycles. This budget is the first step--a down payment. If we fail to 
step off properly, our recovery will be difficult, and our ability to 
provide the Nation with broad and decisive military options will 
diminish.
    It is worth addressing head-on some of the major changes we are 
planning. These changes must be viewed in the context of our evolving 
force. They represent a comprehensive package of decisions that strike 
a careful balance. They are not, and cannot be viewed as, individual, 
isolated measures. In all cases, needed capabilities are preserved or, 
when necessary, generated, through one or several programs.
    This budget makes critical investments in our future force. Certain 
specialized capabilities, once on the margins, will move to the 
forefront. Networked special operations, cyber, and intelligence, 
surveillance, and reconnaissance will become increasingly central.
    Of these, cyber represents both a potent capability and real 
vulnerability. The threats emanating from cyberspace have evolved 
faster than many could have imagined. This budget allows for us to 
expand many of our nascent cyber capabilities and to better protect our 
defense networks. Similarly, bipartisan cyber legislation under 
consideration in the Senate is a good first step in developing 
protection for our Nation's critical infrastructure. With much work to 
be done, we look forward to working on cyber with agencies across the 
Government and with our allies and partners.
    While some additional capabilities for our Joint Force will be 
needed, others will not. The budget divests some outdated ships, 
planes, and equipment, particularly single-function systems. Each year 
that we delay retiring unneeded systems adds several years of 
additional costs. And, it hampers our ability to achieve the desired 
mix of military capabilities.
    Moreover, we will no longer be sized for large-scale, prolonged 
stability operations. As a result, we expect to draw down the Army from 
562,000 to 490,000 by the end of fiscal year 2017, and the Marine Corps 
from more than 202,100 to 182,100 by the end of fiscal year 2016. Some 
of this reduction was planned several years ago when the Congress 
authorized temporary end strength increases to support our operations 
in Iraq and Afghanistan.
    In making ourselves leaner, we will not make the mistakes of 
previous draw downs. We will not retain organizational structures that 
lack the people, training, and equipment necessary to perform the 
assigned mission. We will be realistic about the organizations we keep, 
while also maintaining our ability to reconstitute and mobilize forces. 
This means retaining capacity in our Reserve components and our 
industrial base. We will maintain the Army Reserve end-strength at 
205,000 and reduce the Army National Guard by only 5,000 down to 
353,200. The Marine Corps Reserves will be retain their current 
strength.
    Another major concern among our troops, their families, retirees, 
and with the American public is military compensation and benefits. I 
want to make it clear that cuts in spending will not fall on the 
shoulders of our troops. There are no proposed freezes or reductions in 
pay. There is no change to the quality of healthcare our active-duty 
members and medically retired wounded warriors receive. But we cannot 
ignore some hard realities. Pay and benefits are now roughly one-third 
of defense spending. Pay will need to grow more slowly in the future. 
We are also proposing a commission to review of military retirement.
    To control the growth of healthcare costs, we are also recommending 
changes to TRICARE. These adjustments include modest, new or phased-in 
increases in healthcare fees, copays, and deductibles largely for our 
retirees--but not our active-duty servicemembers. These increases would 
help ensure TRICARE remains one of the finest medical benefits in the 
country. Each year we delay addressing rising healthcare costs puts 
further strain on readiness and modernization which are critical to the 
health of the future force.
    The result of these changes will be a Joint Force that is global 
and networked, that is versatile and innovative, and that is ably led 
and always ready. This force will be prepared to secure global access--
even where it is contested--and to respond to global contingencies. We 
will be a military that is able to do more than one thing at a time--to 
win any conflict, anywhere.
    Overall, these changes value both the demands of military service 
and our duty to be good stewards of the Nation's fiscal resources. They 
will sustain the recruitment, retention, and readiness of the talented 
personnel we need. Most importantly, they will sustain our enduring 
commitment to our troops and their families--we must never break faith 
with them. I want to note, however, that keeping faith with our service 
men and women is not just about pay and benefits. It is also about 
ensuring we remain the best-trained, best-equipped, and best-led force 
in the world.
    The last, and perhaps most critical issue, is risk. This budget and 
the strategy it supports allow us to apply decisive force 
simultaneously across a range of missions and activities around the 
globe. But like all strategies, it also accepts some risk. The primary 
risks lie not in what we can do, but in how much we can do and how fast 
we can do it. The risks are in time and capacity. We have fully 
considered these risks, and I believe they are acceptable. In fact, we 
will face greater risk if we do not change from our previous 
approaches. I am convinced we can properly manage this risk by ensuring 
we keep the force in balance, invest in new capabilities, and preserve 
strong Reserve components.
    Our ability to manage this risk would be undermined by changes to 
the budget that disrupt its carefully crafted balance. Sequestration 
would do this. It could have serious effects on our readiness and 
disrupt essential programs and contracts. We cannot predict precisely 
how bad the damage would be, but it is clear that sequestration would 
reduce the military options available to the Nation.
                               conclusion
    In the upcoming year, our Armed Forces will build on the past 
year's achievements, adapt to emergent challenges, seize new 
opportunities, and provide for our common defense. We will continue to 
face threats to our security, whether from aggressive states or violent 
non-state actors. Our Joint Force will be ready, and our response will 
be a source of pride for the American people. In all of our efforts, we 
will aim to maintain strength of character and professionalism--at the 
individual and institutional level--that is beyond reproach.
    As we embark on this critical new course, we will need Congress's 
support to help us build the Joint Force the Nation needs and to 
strengthen our relationship with the American people. As I stated 
before, this budget and the choices that underlie it should be 
understood in the context of the comprehensive, carefully balanced, 
multiyear plan they support. We ask the Congress to support this budget 
while working to avoid the deep cuts that sequestration would impose.
    I thank this subcommittee, and the entire Congress, for all you 
have done to support our men and women under arms and their families. 
Your resolute attention to their needs and to our security has been 
both invaluable and greatly appreciated.

    Chairman Inouye. Thank you very much.
    Mr. Secretary, your description of sequestration I believe 
is a candid, but frightening one. You've indicated that you 
would reduce training at a time when you should be increasing 
training.
    It would mean deferral of maintenance of equipment, and 
it's getting pretty bad. You have fewer purchases of aircraft 
and ships. There's something else you didn't mention, and I'd 
like to have your comment on that.
    This sequestration, coupled with projected discretionary 
defense spending, could add 1 percent to the national 
unemployment rate from job losses in Government, military, and 
the private sector within the defense industrial base.
    Does that description make sense?
    Secretary Panetta. Mr. Chairman, I think that is the 
estimate that we've seen in terms of the impact that would 
have.
    Now, you know, again, I just stress, look, the Defense 
Department is not a jobs program. It's a program to defend the 
Nation. But clearly, that kind of sequestration cut across the 
board would have a serious impact not only on men and women in 
uniform but on our personnel and the contractors who serve the 
Defense establishment.
    Chairman Inouye. When you speak of deferral of maintenance 
of equipment, can you give us something beyond that?

                             SEQUESTRATION

    Secretary Panetta. Yes, let me have Bob Hale, our 
comptroller, speak to that.
    Mr. Hale. Mr. Chairman, we haven't done a detailed plan, 
but I think one of the options we would have to look at is 
cutbacks in depot maintenance and that would mean we would push 
out the availabilities of ships, for example, or planes.
    We would try to do it in a sensible manner, but I think it 
inevitably would delay some of the maintenance activities. I 
can't give you details, but I think that's an almost inevitable 
result of sequestration.
    Secretary Panetta. I mean, the way the formula works under 
sequestration is it takes a percentage across the board out of 
every area of the Defense budget. And it means that, you know, 
it's almost about a 20-percent cut in a weapon's system.
    It would be a 20-percent cut with regard to training 
equipment. It would impact on every area of the Defense budget. 
That's the way it was designed. It was designed as a meat axe. 
It was designed to be a disaster, because the hope was, because 
it's such a disaster, that the Congress would respond and do 
what was right.
    And so I'm just here to tell you, yes, it would be a 
disaster.
    Chairman Inouye. Now, the across-the-board cut that you've 
indicated will not impact upon pay and health programs. 
Anything else?
    Secretary Panetta. It would.
    Mr. Hale. The President has the authority, Mr. Chairman, to 
exempt military personnel. He'll have to decide whether he does 
that. If that were the case, then it won't affect military 
personnel.
    But the other accounts would have to be cut by larger 
amounts so that the total remains the same. It would affect our 
ability to pay healthcare. It's in a separate account. And as 
the Secretary said, it gets its meat-axe share of this cut, and 
we would face a serious problem of potentially not being able 
to pay all our TRICARE bills, for example.
    General Dempsey. Mr. Chairman, could I add something?
    Chairman Inouye. Please do.
    General Dempsey. Because it's important also to note that 
overseas contingency operations (OCO) is now subjected to 
sequestration. That would roughly be about $8 billion. And of 
the $88 billion or so, $88.5 billion that we've requested to 
sustain our operations globally, mostly in the gulf region.
    But we have to fund that. So that money will have to be 
taken, will have to come to you for some reprogram activity to 
move money from base to cover those war-related costs.
    That in combination with the potential freeze in the 
manpower account, in other words, exempting manpower, means 
that a service chief, and I was a service chief, can only go 
back to find this money to about three places, training, 
maintenance, and modernization.
    That's it. There's no magic in the budget at that point. 
And those three accounts will be subjected to all of the cuts 
mandated by sequestration.
    Mr. Hale. May I add one more point, Mr. Chairman?
    I would not look at reprogramming as a way to solve this 
problem. We have some legal limits. Unless you change them on 
the amount we can reprogram, and we wouldn't have the authority 
to offset all of those changes, at least not readily, in OCO, 
without some major changes.
    So we could do some, but they'll be very little flexibility 
if this goes into play or into effect as it's currently 
designed.
    Chairman Inouye. Thank you very much.
    Before I call upon my colleagues, I'd like to note that 
because of the good attendance, we will have to limit the 
questioning period to 5 minutes.
    With that, Senator Cochran.

                                 SHIPS

    Senator Cochran. Mr. Chairman.
    Let me ask you, Mr. Secretary, what your impression is of 
the need for amphibious ships?
    We've heard that the Navy and Marine Corps have determined 
a minimum force of 33 amphibious warships is the limit of 
acceptable risk in meeting the amphibious force requirement.
    What's your assessment of the risk that we are assuming, if 
any, with our current shipbuilding plan as proposed and 
requested for funding by the Department?
    Secretary Panetta. I'll ask General Dempsey to comment as 
well.
    But one of the things I'm really trying to do is to 
maintain our industrial base in the Defense Department. If we 
lose more shipyards, if I lose, more of the industry that 
supports our Defense Department, it makes it very difficult to 
mobilize in the future.
    And so my goal is to try to design a budget here that 
maintains the shipyards that we have, that maintains the 
industrial base that supports our defense system.
    On the amphibs, the reason they're important is because of 
the agility issue that I talked about, because we are going to 
have a smaller force. These ships allow us to be very agile, to 
be quickly deployable, to be able to move quickly if we have 
to.
    And that's the reason that we want to maintain those as 
part of our Defense structure.
    General Dempsey. And just to add, Senator, the number that 
you cited as based on the existing war plans and a particular 
phase in which the amphibious warship capability is under most 
stress.
    And what we're doing as a result of our defense strategy is 
we're opening up our operation plans in concept format 
(CONPLANs) or our operation plans (OPLANs) to look at the 
assumptions we made, and to see if we can adjust the way we 
conduct operations in order to mitigate that risk.
    And at this point, the commandant and I are content that 
the budget proposal and the number of amphibs in that budget 
proposal are adequate to the task. But it means we'll have to 
adjust the way in which we conduct operations.
    Senator Cochran. Well, there's a suggestion that the 
current 30-year shipbuilding plan projects an inventory that 
will fall to 28 ships in fiscal year 2015.
    And I wonder, General, if this is below the level required 
by the Department, and whether or not this is an increase in 
the assumption of risk? Do we need to revise that upward? What 
do you suggest we do when we review the requirements being 
submitted by the Marine Corps and the Navy?
    General Dempsey. What I'd ask to do, Senator, is take that 
question for the record, because there is a bit of it that 
would cross over into classified information related to war 
plans, but I'd be happy to answer that for you.
    [The information follows:]

    Each year, the combatant commanders submit force requirements to my 
staff, which include capabilities that reside in all Services. Some of 
these requirements routinely exceed the Services' capacity to meet 
them. Within the Navy, this includes not only demand for amphibious 
platforms, but also aircraft carriers, cruiser/destroyers, coastal 
patrol boats, and frigates. The strategic risk associated with these 
capacity shortfalls is balanced among the combatant commanders based 
upon Secretary of Defense policy and guidance, which reflect the 
National Military Strategy.
    Specific to the issue of amphibious ship capacity, the Navy remains 
committed to providing 30 operationally available amphibious ships to 
meet Naval amphibious ship demand. With some risk, 30 amphibious 
landing ships can support a two-Marine Expeditionary Brigade (MEB) 
forcible entry operation. This force accepts risk in the arrival of 
combat support and combat service support elements of the MEB, but this 
risk is appropriately balanced with the risk in a wide range of other 
important warfighting requirements within today's fiscal limitations.
    Navy can achieve this operational availability goal by sustaining 
an inventory of about 32 amphibious ships in the mid- to long-term. The 
32-ship amphibious force being procured to meet this need will 
optimally be comprised of 11 landing helicopter assault (LHA/D), 11 
landing platform/dock (LPD) 17 and 10 landing ship, dock (LSD). To 
support routine forward deployments of Marine Expeditionary Units 
(MEUs), the amphibious force will be organized into nine, three-ship 
CONUS-based Amphibious Ready Groups (ARGs), and one four-ship ARG based 
in Japan, with an additional big-deck amphibious ship available to 
support contingency operations worldwide. Two LSDs will be taken out of 
commission and placed in reserve status allowing Navy to reconstitute 
an 11th ARG as required in the future, or to build up the number of 
ships in the active inventory, if necessary.

    Senator Cochran. Thank you. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    Secretary Panetta and General Dempsey and Mr. Hale, thank 
you for being here. I appreciate the chance we had to talk 
before the hearing.
    One thing I didn't mention then was something you're well 
aware of, that during the last 10 years, we've depended more 
than ever on our Guard and Reserve.
    And, Secretary Panetta, I appreciate what you said during 
your testimony. I know we could never have supported two 
simultaneous wars without men like you.
    General Dempsey, anytime I've visited areas where we're in 
combat, you don't see a difference between the Active Guard and 
Reserve. They're all out there doing their job, putting their 
lives on the line.

                            AIR FORCE BUDGET

    I think your strategies echo this reality from the 
President's guidance in the last Quadrennial Defense Review 
(QDR). As a result, it surprised many of us in the Congress, 
including Senator Graham and I as co-chairs of the Guard 
caucus, when the Air Force presented a fiscal year 2013 budget 
plan that disproportionately cut the Guard.
    I know there will be cuts and we all understand that, but 
it appeared here that you were going after your least expensive 
manpower to save money. That did not make a lot of sense, 
especially since manpower costs are more and more of the 
defense budget as you said.
    So I don't know how you shrink the Guard and maintain a 
ready and capable force. So my question is, does DOD stick with 
its earlier strategies to increasingly depend on the Guard and 
Reserve, or is there an alternative?
    Because the Air Force budget does not appear to follow that 
idea.
    Secretary Panetta.
    Secretary Panetta. Senator, you know, again, what the Air 
Force was asked to do is based on the new strategy, try to 
develop an approach that provided a kind of multimission 
support for the force.
    And, as a result of that, made decisions with regards to 
some areas that could be reduced in order to achieve obviously 
the savings that we were required to achieve.
    I recognize, you know, the controversy involved here 
because it impacts on constituencies, it impacts on the Guard.
    Senator Leahy. I'm afraid it impacts on readiness too. 
That's my biggest concern.
    Secretary Panetta. Yes, I understand that.
    But, you know, obviously, we don't want to take it out of 
the Active Force because that is a force that's there ready to 
deploy quickly.
    What I've suggested is to try to see if there's a way that 
we can work to provide some restoration. So I think I suggested 
putting some additional 130s back in place to try to assist 
some of these areas with regards to the impact that might be 
there.
    Let me just say this for the record. I'm fully prepared to 
work with this subcommittee and to work with the staff of this 
subcommittee to try to see if there's a way to do this that can 
minimize the impact, but at the same time, hopefully achieve 
some of the necessary savings that we have to do in order to 
achieve it.
    Senator Leahy. I hope you will. And you've worked with 
Senator Graham and me in the past on these issues. I know we 
can again.
    On another matter related to the budget, I was one of those 
on the subcommittee who opposed the Iraq war from the very 
start. President Obama also did. I opposed it because I didn't 
think it was the right decision for our national security. And 
we basically ran that war on a credit card.
    Now we're making decisions how we address the national 
deficit. It is not just sequestration. We voted earlier, the 
majority of us did, that sequestration should happen only if we 
were unable to reach consensus on deficit reduction.
    The understanding was we would put everything on the table. 
But now we find people who are calling for more military action 
in other parts of the world. At the same time, they do not want 
to consider any way of paying for it, unlike what we've always 
done in the past.
    What would be the impact of going to war again without 
committing to pay for that war with upfront taxes, something we 
did not do in either Iraq or Afghanistan, for the first time in 
the history of the country?
    Secretary Panetta. Well, obviously, if we repeated the 
mistake of not paying for the war that we decide to engage in, 
whatever that might be, the result would be that you would 
simply add more to the deficit and to the debt of this country 
for the future. You just put that burden on our kids for the 
future.
    And, you know, look, I think we always have to be careful 
when you make the decision to put our men and women in uniform 
into harm's way. That's number one.
    But number two, if that decision is made, then I think for 
the sake of the country, it's important that we recognize the 
costs that are involved and that, frankly, all of us bear some 
responsibility to pay those costs if we're willing to engage in 
war.
    Senator Leahy. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Inouye. Thank you.
    Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman. And thank you 
for your service, all three of you.

                   NORTH ATLANTIC TREATY ORGANIZATION

    Secretary Panetta, since the end of the cold war, North 
Atlantic Treaty Organization (NATO) has grown from 16 to 28 
members, and yet we know that the threat of a Soviet invasion 
into Europe has virtually disappeared, with only five alliance 
members spending the obligatory standard of 2 percent of their 
Nation's gross domestic product (GDP) on defense.
    And several countries as we know refused to participate in 
combat assignments or limit what they will do.
    We're contributing 23 percent of the military construction 
(MILCON) for NATO which is approximately $254 million this year 
alone. And then virtually the same amount of percent of 
expenditures for operations of NATO.
    My question is, are you looking at the NATO alliance and 
determining if it is serving the function for which it was 
intended, and if there is a commensurate effort by all of the 
members? Or whether, perhaps, we are paying more than our fair 
share for what we are getting in return?
    Secretary Panetta. Senator, you've raised a legitimate 
concern here, you know, with regards to the responsibility of 
NATO nations to assume a greater responsibility for developing 
their capabilities and improving their defense posture.
    One of the things that came out of the NATO meeting in 
Chicago was developing greater capabilities for NATO with 
regards to missile defense, intelligence, surveillance, and 
reconnaissance (ISR), with regards to other areas, to try to 
ask them to assume greater responsibilities in those areas.
    But I also think as I stated to my fellow defense 
ministers, we have great concerns because of the budget 
situation that faces many of those nations in Europe that one 
of the dangers here is that they'll constantly go back to 
defense and seek further savings there, which I think would be 
dangerous.
    Right now, for example, when it comes to a NATO deployment, 
Libya is a good example, I think we provided probably about 60 
percent of the support for the forces that went into Libya. Now 
they tell me that if we were to engage, the United States would 
probably have to pick up 80 percent of that responsibility.
    You know, that's not something that really makes clear to 
those nations the responsibility they have to be able to 
develop their own capability. So I think it's very important to 
continue to stress to those countries that they have to 
continue to invest in their basic security.
    There are some countries that are doing that. There are 
some countries that are investing well over 2 percent of their 
GDP in the defense budgets. We commend them for that.
    But other countries have to recognize that the last thing 
that we need right now is for them to do further cuts in the 
defense budgets that they have because that will put more of a 
burden on our shoulders in the future.
    Senator Hutchison. Well, let me just take Germany as an 
example. And Germany is certainly going through the hard times, 
and we understand, and they're burdened with regard to the rest 
of Europe.
    But on our side, representing our interests, Germany, in 
military construction, Germany contributes 7 percent to the 
infrastructure costs that we would make in their country, as 
compared, for instance, to Japan, which provides at least 40, 
and sometimes more, percent.
    Germany has refused to contribute any resources into Libya. 
In Afghanistan, they limit what they will do, and their number 
of troops has been around 5,000.
    Now, the army is planning this year to spend 7 percent of 
its military construction budget in Germany, that's on top of 
the NATO part. It will be about $243 million this year, to 
build Landstuhl, which is fine, that's a priority of ours. I'm 
for that.
    But the other half, a $113 million, is for new schools, 
elementary and high schools. Now, obviously, if our troops are 
there, we need to furnish the schools that are good.
    But my question is, the troops that are there. Are we 
overspending the military construction for the amount of troops 
that we have there?
    And are we looking at the future on whether, in fact, it 
might be the rotational forces that you mentioned, is more of 
the strategy in the Pacific, that maybe we would start doing 
that in Germany and other places and cut back on this enormous 
military construction cost?
    Secretary Panetta. I'll ask General Dempsey to comment on 
this as well.
    But we're doing exactly that. We're bringing two brigades 
home from Europe. One of the things we intend to do is to 
emphasize more of the rotational presence that we have there, 
and to be able to do exercises.
    We do have some important infrastructure there. It's very 
important to our deployments to the Middle East and to the war 
zone, and that's the reason some of that is continuing.
    But I think you're right. I think we've got to increase our 
rotational deployments. We've got to ask them to make a greater 
contribution to the infrastructure needs to do this.
    At the same time, let me make very clear, the NATO alliance 
is extremely important to our ability to deal with some of the 
challenges in the world. We can't do it alone.
    We've got to be able to have alliances like NATO, be able 
to work with us in confronting the many challenges that we face 
in the world.
    General Dempsey. Yes, we're out of time, Senator.
    But what I would offer is a briefing to you on what we 
consider to be the enormous and important benefits of being 
part of that alliance. And I know some of them are self-
evident.
    But we've got initiatives, Baltic Skies, allied ground 
system, the activities in Kosovo, things that are kind of 
behind the scenes that we really need to expose to you so that 
you understand the reason we're still so deeply integrated into 
the NATO command structure.
    And acknowledging your point about their investment and the 
fact that it's declining. But let's, if I could, take that one 
as a task.
    Senator Hutchison. I appreciate it, and thank you, Mr. 
Chairman.
    I do just hope we're looking at an equalization of effort 
according to the return that we're getting. Thank you.
    Chairman Inouye. Thank you.
    Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman. 
Secretary Panetta, General Dempsey, and Mr. Hale.
    First of all, we want to welcome you, and we want to thank 
you for your service.
    Mr. Panetta, you came to the House of Representatives in 
1976. We came together. We were part of the bicentennial year. 
And the way we're going, we're going to be here for the 
tricentennial.
    And, General Dempsey, you graduated from West Point just 
about the time Secretary Panetta and I were getting started in 
the Congress.
    But you two represent close to 70 years, 35 years in each 
military and through a variety of exemplary civilian posts. So 
we thank you for your dedication and your service to the 
country.
    And, Mr. Hale, your being here, shows what is often 
overlooked when we talk about national security, the role of 
the civilian work force in supporting our military, its 
commanders, and the Secretary of Defense and the Commander in 
Chief. So we want to thank the civilian work force.

                                 CYBER

    I want to raise some questions about new priorities and new 
threats, acknowledging that Maryland has really a strong 
military presence from the Naval Academy to Walter Reed, Naval 
Bethesda, helping those with the wounds of war, to Fort Meade, 
our new cyber command, the 10th Fleet, Pax River, Andrews, 
Aberdeen, Fort Detrick, we're really proud of the presence 
here.
    But I want to go to the issues of cyber. Mr. Secretary, 
you've said publicly, and even at our debriefings, that you 
viewed cyber as the potential digital Pearl Harbor.
    And, General Dempsey, you, and again, at meetings, 
briefings and our cyber exercise, talked about the great sense 
of urgency. Could you talk about what you mean when you say a 
digital Pearl Harbor?
    Do you feel that, as you indicate on page 6 in your 
testimony, Sir, you have the right money? And do you also have 
the authorities that you need to do to protect the Nation?
    You have here, in addition to the Appropriations chair 
Senator Inouye and Ranking Member Cochran, but you have the 
chair of the Intelligence Committee, you have one of the co-
authors of the Lieberman-Collins bill.
    So we want to make sure that we don't have a digital Pearl 
Harbor. So could you elaborate on what you meant? Do you have 
what you need? And should we have a greater sense of urgency in 
getting some things done, and what would you say they'd be?
    And, General Dempsey, I'd like your comments as well, Sir.
    Secretary Panetta. Senator, I appreciate the question.
    I think there has to be a greater sense of urgency with 
regards to the cyber potential, not only now, but in the 
future.
    I think this is a, obviously, it's a rapidly developing 
area. The reality is that we are the target of, you know, 
literally hundreds of thousands of attacks every day. It's not 
only aimed at Government; it's aimed at the private sector.
    There are a lot of capabilities that are being developed in 
this area. I'm very concerned that the potential in cyber to be 
able to cripple our power grid, to be able to cripple our 
Government systems, to be able to cripple our financial 
systems, would virtually paralyze this country.
    And, as far as I'm concerned, that represents the potential 
for another Pearl Harbor, as far as the kind of attack that we 
could be the target of, using cyber.
    For that reason, it's very important that we do everything 
we can, obviously, to defend against that potential. I feel 
very good about our capabilities in terms of defending our 
systems with the help of the National Security Agency (NSA) and 
their great technological capabilities.
    I do think that authorities, and the ability to try to not 
only, it's not only in the defense sector, it's in the civilian 
sector, that we have to improve this. And I think that's the 
area where we have to deal with the additional authorities.
    And I think the Lieberman-Collins bill is one that 
addresses that, and we support the Congress enacting that in 
order to try to facilitate that capability.
    General Dempsey. I would just add, Senator, that we've seen 
the world go from distributed denial of services, you know, 
just hackers overwhelming a Web site, to incredible 
intellectual property theft and technology theft, to now 
destructive cyber.
    It's in the open press. And that has all happened in a 
matter of a few years. And this particular domain, the cyber 
domain, is changing rapidly.
    And so to your question about sense of urgency, I can't 
overstate my personal sense of urgency about that.
    Second, I'd like to pile on to the Secretary in support of 
the pending legislation that encourages information sharing and 
takes a good necessary but only first step.
    And then, third, I'll tell you on the issue of authorities. 
The President does have the authorities he needs. What we need 
to develop are some rules of engagement, if you will, because 
these things occur at network speed.
    This is not something where we can afford to, you know, 
convene a study after someone has knocked out the east coast 
power grid. So, we're working on that.
    Senator Mikulski. So, I know my time is up, but what you 
say is that you feel that there's enough money in the DOD 
approach to meet the protection of the .mil.
    What gives you heartburn and concern is the protection of 
.com.
    Secretary Panetta. That's right.
    Senator Mikulski. And as you develop rules of engagement, 
the Congress now has to really have a sense of urgency at 
developing the legislative framework, starting with Lieberman-
Collins, in the protecting of .com.
    Does that sound right?
    General Dempsey. If I could just, maybe just sharpen that a 
bit.
    I don't have any intention of, you know, the .com would 
include your personal email address. I'm fine with you doing 
what you do in your own personal email domain.
    But I'm concerned about the defense industrial base, and 
I'm concerned about the critical infrastructure of this 
country. That's where we should focus our efforts.
    Senator Mikulski. Thank you very much.
    Mr. Chairman, I know my time is up. I have other questions 
related to military medicine, and if I could, one final note.

                                COMFORT

    Mr. Secretary, I wouldn't be the Senator from Maryland if I 
didn't raise the ship, the Comfort. Today's the beginning of 
our sail, tall ships coming into Baltimore Harbor.
    As ancient ships come in, we're saying goodbye to the 
hospital ship, the USNS Comfort. I take no comfort in that. 
Could you take a look at it and see if I could keep the 
Comfort, or Maryland can keep the Comfort.
    Thank you.
    Chairman Inouye. Thank you very much.
    Senator Durbin.
    Senator Durbin. Thank you very much, Mr. Chairman. Mr. 
Secretary, General Dempsey, and Mr. Hale.

                                 BUDGET

    Mr. Chairman, you recalled your time in the House of 
Representatives, and at one point you chaired the House Budget 
Committee, and I was one of your loyal acolytes.
    You set the stage in our budget deliberations for us to 
reach a balanced budget, which I'm very proud of that 
achievement, and I know it wasn't easy.
    I asked the Appropriations Committee staff to compare 
spending when our budget was in balance to where it is today, 
in three categories, using constant dollars, and here's what 
they came up with.
    Going back to 2001, in domestic discretionary spending, 
there has been zero increase in spending. When it comes to 
entitlement spending, there has been 30-percent increase in 
spending since we were in balance.
    With the budget we are proposing, the base budget, not the 
OCO, but the base budget we're proposing for the Department of 
Defense, it will be a 73-percent increase over what we were 
spending when we were in balance in constant dollars.
    I might also say to you though I think the sequestration 
clearly hits hard, maybe too hard, and too fast, at the end of 
the day under sequestration, Defense would end up with the same 
percentage of the gross national product (GNP) that it had when 
the budget was in balance.
    So my question to you is one to take a step back, perhaps 
from your role, and go back to your history with the budget. 
What is a fair number for us when it comes to the defense of 
this country and security?
    I know we need every dollar it takes to be safe. But if we 
are going to cut back in healthcare and education to provide 
more money on the military side, isn't that going to have an 
impact on the men and women who volunteer to serve in our 
military, and whether they are qualified to serve?
    Secretary Panetta. Well, first and foremost, you know, with 
regards to the defense budget, I do believe we have to play a 
role. And the fact is that we're going to be cutting half of $1 
trillion from the defense budget over the next 10 years.

                             SEQUESTRATION

    Senator Durbin. Under sequestration.
    Secretary Panetta. And this is part of----
    Senator Durbin. In addition to sequestration.
    Secretary Panetta. And then if you add sequestration to 
that, you're looking at another chunk, $500 billion, on top of 
that.
    So, I think, defense, it does have to play a role. At the 
same time, I think we have a responsibility, obviously, to 
protect the strongest military in the world, and to help defend 
this country.
    On the larger issue, Senator, you know this as well as I 
do, and I think every member of this subcommittee knows it, 
you're dealing with a very serious deficit issue and debt 
issue. And you can't keep going back to the same well to try to 
resolve those issues.
    You can't keep going back to domestic spending. You can't 
keep going back to the discretionary side of the budget in 
order to solve a multitrillion dollar problem that faces this 
country.
    I mean, if you're serious about taking this on, it's what 
we had to do, frankly, beginning in the Reagan administration, 
that's what we did in the Bush administration, it's what we did 
in the Clinton administration.
    If you're serious about taking this on, you got to put 
everything on the table. You've got to look at mandatory 
spending. You've got to look at revenues. You also have to look 
at, you know, how you cap domestic discretionary.
    But you're not going to solve this problem with the 
domestic discretionary budget. You're just not.
    Senator Durbin. May I ask you this question?

                   DEPARTMENT OF DEFENSE CONTRACTORS

    When we brought--in the Simpson-Bowles Commission, when we 
brought the experts in to talk about the Department of Defense 
and where we might save money, the most startling testimony 
came when we asked about private contractors who work for the 
Department of Defense.
    The basic question we asked is, how many are there? And the 
answer was, we don't know. We really don't know.
    Estimate somewhere, you know, maybe Governmentwide, some 7 
million. There are 2 million Federal civil service employees, 
to give you some context here.
    And when you look at the dollar amounts that are being 
spent in the Department of Defense for contractors, as opposed 
to the civilian work force at the Department of Defense, and 
those in uniform, it is substantially higher.
    For many of us, this outsourcing just became a passion, and 
people stopped asking the most basic question: Is this serving 
the Nation well? Is it saving us money?
    I notice that you are in-sourcing more. You're bringing 
some jobs back into the Department of Defense. And in your 
earlier testimony, you said you need to reduce the service 
support contractors.
    So it seems to me that there has been documented waste when 
it comes to these service contracts. When it comes to the 
contracts for big ticket items, I will tell you the cost 
overruns on the F-35 equal 12 Solyndras.
    I haven't heard too many press conferences on those, but 
it's an indication to me that there is money to be saved there, 
and I know that you would take that personally and want to do 
it.
    How much is built into your cost savings and cuts when it 
comes to this potential overspending on contractors and cost 
overruns on projects?
    Secretary Panetta. Well, obviously, on the efficiency 
front, this is an area of principal focus. We did $112, or $125 
million last year?
    Mr. Hale. On service contracts.
    Secretary Panetta. On efficiencies.
    Mr. Hale. $150 billion.
    Secretary Panetta. $150 billion last year with regards to 
those efficiencies. We're adding another $60 billion on top of 
that. A lot of that is aimed at trying to reduce the 
contractors, and to try to gain greater efficiencies there.
    Look, I'd be the last one to say that we can't find those 
savings in the Defense Department budget. We can, and that's 
what we did.
    But the goal is not simply to whack away at it without 
tying it to a strategy about what kind of defense system do we 
need for the future in order to protect the country.
    As long as we can tie it to that strategy, as long as we 
can make sense out of how we achieve these savings, then we can 
achieve, as I said, the $500 billion in savings that we've been 
asked to do by the Congress, and we can achieve and be more 
efficient in the future.
    But don't think that Defense alone is going to solve the 
bigger problem that you're facing in this Congress and in the 
country.
    Chairman Inouye. Senator Harkin.
    Senator Harkin. Thank you very much, Mr. Chairman. Mr. 
Secretary, welcome back.

                             DISCRIMINATION

    I have two kind of disparate issues I wanted to cover with 
you.
    One, last November, we had a short conversation about what 
I was hoping to be perhaps the next step in breaking down the 
discrimination against people with disabilities in our country.
    And that was allowing people with disabilities to serve in 
our Armed Forces. We had a unique case of a young man who had 
gone through Reserve Officers Training Corp (ROTC) in 
California, had done extremely well in all of his tests, all of 
his scores and stuff, but was denied entry into the military 
because he was deaf.
    And I reported to you at that time perhaps having a pilot 
program, of bringing people in to the military, who could add 
to the defense of this country, who would be exemplary 
employees, but they might not be able to be the Chairman of the 
Joint Chiefs of Staff. They may not be a pilot in the Air Force 
or other things they might not be able to do, but they can do a 
lot of other things.
    And so, since that time, I must tell you that we've had 
some problems with the Department of Defense in moving ahead on 
this. You even requested, Mr. Secretary, a briefing on this 
from people down below, but nothing is happening.
    I can tell you that my staff has tried to work on this 
since the first of this year. Numerous phone calls and meetings 
have been cancelled. We could never get any response on this 
about setting up such a pilot program until a couple of days 
ago when they found out that I was going to ask you about this, 
and we now have a meeting set up next week, which is fine, I 
understand all that.
    I'm just saying that I know that you were going to look at 
that. I just think this is one place where again, we've got to 
break down some of these barriers. There's a lot of people with 
disabilities that want to serve their country, can serve in the 
Air Force, Army, Navy, Marines.
    They may not be able to do exactly everything that people 
can do, but they can do within their abilities. They can 
provide a lot of support. And then I would just ask you, 
please, once again, to really take a look at this and set up a 
pilot program.
    And, if you can't do it, Mr. Secretary, if you can't do 
this, if something is prohibiting you from doing that, let me 
know, and we'll try a legislative approach on it.
    Secretary Panetta. No, I appreciate your leadership on this 
issue. You've led on this issue for a long time during your 
career here on the Hill, and I respect it, but, more 
importantly, I agree with you.
    And for that reason, you know, I think we can try to set up 
a pilot program. I mean, look, right now, when we have wounded 
warriors, and let me tell you, wounded warriors come out of 
there with new legs, new arms, and sometimes they're back at 
duty, and they're doing the job, and they're doing it well.
    Senator Harkin. Exactly.
    Secretary Panetta. So if we can do it for wounded warriors, 
I think we can reach out and do it for others as well that can 
be part of it. So you have my assurance, we'll look at 
something.
    Senator Harkin. I appreciate it. Especially looking at some 
of these young people that are coming through schools right now 
and stuff who have a lot of abilities and want to serve.
    That was one. The second one had to do with another issue 
that I briefly raised with you. In Afghanistan, the Department 
of Defense has been involved in a program of spurring small 
businesses in Afghanistan.
    Obviously, you get people off of the drug business and 
stuff. And one of that was in the carpet industry. The Afghan 
law, there's an Afghan labor law. There's U.S. law. There's 
International Labor Organization (ILO) Convention 182 about 
child labor, using child labor in this thing.

                           INSPECTION SYSTEM

    We asked that you work with the Department of Labor, our 
Department of Labor, on this to incorporate, to use a 
nongovernmental organization (NGO), in terms of monitoring this 
and setting up an inspection system, an independent, third-
party inspection and verification system to make sure that no 
U.S. taxpayers' dollars are used to support businesses that 
employ children in the worst forms of child labor.
    Now, we've had some progress in that, but as we tend now, 
as we're going to turn this over to them, we're not setting up 
a mandatory verification system, and that bothers me.
    So, in other words, we were kind of doing a pretty good 
job, but now that we're handing it over in our agreement, we're 
not making an agreement to make sure that they adhere to the 
independent third-party verification system there.
    I know it's a small thing. You got a lot on your plate, Mr. 
Secretary. You're talking about all of our budgets and stuff 
like that, but to me, this is just again, one of those areas 
where we can do a lot of good while also supporting an industry 
in Afghanistan.
    And, again, I would ask you to look at those contracts that 
we have to safeguard that verification, and that third-party 
verification system in Afghanistan.
    Secretary Panetta. I know we're aware of your concerns in 
this area. Let me ask Bob Hale to comment on that.
    Mr. Hale. Senator Harkin, I think you're referring in part 
at least to some contracts through the Task Force for Visits 
and Stability Operations.
    Senator Harkin. That's the name.
    Mr. Hale. They did do some delays trying to make sure that 
there were appropriate safeguards on child labor. It's a 
difficult area to work in, a country that has different rules 
and standards than we do.
    Senator Harkin. No, there's an Afghan law.
    Mr. Hale. Say again?
    Senator Harkin. There's a law in Afghanistan. We just want 
them to adhere to their own law, that's all.
    Mr. Hale. Okay. I hear you. They are aware of the concerns, 
and I think they have made some steps in the right direction, 
but I promise you, I'll go back and make sure that we're doing 
all we can.
    Senator Harkin. Thank you. If you could just give me a 
point person to work with in your office down there, because my 
staff and I know this pretty well, and we know what needs to be 
done in terms of that verification. That's the big sticking 
point.
    Mr. Hale. Okay. We'll do that.
    Senator Harkin. Thank you. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    First, let me thank my colleague from Maryland for bringing 
up the very important issue of cyber security. She along with 
Senator Feinstein, Senator Lieberman, Senator Rockefeller, and 
I have been working very hard and agree that it's absolutely 
critical that we set standards for critical infrastructure, and 
that that has such important consequences.
    And I very much appreciate the endorsement of our efforts 
that I heard this morning. I also appreciate, Mr. Secretary, 
your urging as to act sooner rather than later to avert what 
would be the disastrous consequences if sequestration were 
allowed to go into effect.
    I think it would be a huge mistake for us to wait until the 
lame duck, that's too late, and we do need to tackle that issue 
now. We really do.
    And I think it would help if you provide us with even more 
detail, and I know the Armed Services Committee has asked for 
that.

                              SHIPBUILDING

    Let me turn to another issue that refers to our priorities. 
As I review the Department of Defense's budget, I'm very 
concerned that the ship building account is significantly 
undervalued.
    Shipbuilding represents a mere 2.2 percent of the budget 
requested by the Department of Defense. Sixteen ships were 
eliminated or delayed outside the 5-year budget window.
    And just to put this in perspective, our country currently 
spends as much on interest payments on the national debt every 
month than we do for shipbuilding in the entire year.
    Further, the executive branch as a whole spends slightly 
more than the equivalent of the entire shipbuilding budget, $15 
billion a year, on Federal agency travel and conferences.
    Now, I know the administration's trying to address travel 
and conferences, but that really says something about our 
priorities.
    I'm concerned that the combatant commanders have testified 
repeatedly about the increasing importance of the maritime 
domain and their areas of responsibility.
    I recently returned from a conference in Southeast Asia, 
and I know Secretary Panetta, you were over there as well, in 
which I heard about China's aggressiveness in the South China 
Sea, and its maritime claims, its harassment of vessels from 
the Philippines, for example.
    The importance of our Navy and to our ability to project 
power, particularly with the pivot to the Asia Pacific region, 
cannot be overstated.
    So I'm concerned that the budget projects only 285 ships by 
fiscal year 2017 when every study I've seen, whether it's 
within the Department or outside of the Department, independent 
reviews, have said that we need a minimum of between 300 and 
315 ships.
    And the fact is that while our ships are increasing in 
their ability, that quantity still counts, if you're going to 
try to project power.
    So I would ask you to address my concern and how the 
Department settled on 285 ships when virtually every study 
calls for 300 to 313.
    Secretary Panetta. Senator, I appreciate the concerns that 
you've indicated.
    And what I asked the Navy to do, and the Navy Chief to do, 
is to make very certain that we have the ships we need in order 
to project the power we have to project in the Pacific, in the 
Middle East and elsewhere, and be able to do that effectively.
    And their recommendation was that based on, you know, the 
number of ships that are in line to come on, the ones that we 
are already producing, that to do this and do this in a way 
that meets our needs, that the 285 ship approach is a good 
baseline, and we're ultimately going to move to 300 ships by 
2020.
    You know, we're maintaining 11 carriers. We're going to 
maintain, you know, a number of the amphibs. We're going to 
maintain our destroyer and our key fleets. With regards to the 
Pacific, we're obviously going to maintain a strong submarine 
force as well.
    And I'm convinced based on the Navy Chief's 
recommendations, that we can do this, you know, obviously 
meeting our fiscal needs here, but we can do this in a way that 
protects a strong Navy for the future.
    Now, I'm willing to keep going back and looking at those 
numbers to make sure that we're in the right place, because I 
share the same concern. If we're going to have a strong 
presence in the Pacific, if I'm going to have a strong presence 
in the Middle East, I have got to have a Navy that's able to 
project that.
    And right now, I think everybody I've talked to in our shop 
and in the Joint Chiefs says, we've got the force we need to be 
able to make that happen.
    General Dempsey. Senator, I know we're over time, but I 
really feel obligated to comment on this, because I mentioned 
in my opening statement that the budget we submitted is a joint 
budget.
    It's not the individual service budgets kind of bundled 
together. We really worked this as a joint team.
    We were faced with the Budget Control Act, $487 billion. 
And so every service paid a bit of that bill. I will tell you 
the Navy paid least of all because we prioritized exactly the 
issue you're talking about.
    But, you know, quantity counts, not only at sea, it counts 
in the air, and it counts on the land.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Feinstein.
    Senator Feinstein. Thank you very much.
    Welcome, Mr. Secretary. It's good to see you. I've known 
you for a very long time. I was sitting here thinking. Your 
first appearance before the Intelligence Committee when you 
became Director of the Central Intelligence Agency (CIA), you 
were somewhat tentative, somewhat reserved.
    And today, I saw you at full volume. Totally in control. 
So, it's been quite an evolution.
    Let me begin by thanking you for the help you gave us on 
our intelligence congressional delegation (CODEL) to 
Afghanistan. It's very much appreciated.

                      GROUND LINE OF COMMUNICATION

    I wanted to see what I might be able to talk with you a 
little bit about on the ground line of communication (GLOC) 
subject. You were good enough to facilitate a meeting with 
General Allen, and the four of us had an opportunity to spend 
some time.
    He was most impressive. And I think we learned a great 
deal. And one of the things that came up was the incident in 
November. And it became rather clear to me that there were 
mistakes made on both sides.
    And General Allen, much to his credit, has taken at least I 
think it's six or seven steps to remedy some of the problems. 
Here enter the GLOCs.
    You raised the question of the GLOCs. It is my information 
that Pakistan wants most of all some civilian announcement that 
mistakes were made on our side. And I think mistakes were made 
on their side as well as I've looked into this.
    And that the GLOC problem could be solved. As a matter of 
fact, I think there was a meeting on the 11th, a day or so ago, 
unless it was cancelled. And so, they are prepared to rather 
dramatically lower the cost.
    But the apology is all important. As we have discussed, and 
I think the position is, that the national security of this 
Nation is best served if we can develop a positive relationship 
with Pakistan.
    And both you and I and others know what the road has been. 
And that there might be an opportunity to make a change in that 
direction, particularly with the new head of the Inter-Services 
Intelligence (ISI), as well as some other things.
    So my question of you, and I guess my lack of 
understanding, is why there can't be some form of statement 
that in essence says, if it's believed, I happen to believe it, 
that mistakes were made on both sides.
    And, of course, the United States apologizes for any 
mistakes that we made, and we have taken steps to correct that 
and see that it will never happen again.
    Secretary Panetta. Senator, I appreciate your concern, and 
you understand these issues by virtue of your chairmanship of 
the Intelligence Committee and the dealings that we've had to 
have with Pakistan.
    You're right. I mean, it's a complicated relationship, but 
it's also a necessary relationship by virtue of our security 
needs in that area.
    This is an issue that is still under negotiation. There are 
discussions that continue with regards to how we can resolve 
this. The issue you discussed is one of those areas. I think 
General Allen, the United States, has made clear that mistakes 
were made and they were made on our side. They were also made 
on the Pakistani side.
    And that we expressed condolences for the mistakes that 
were made. We've made that clear, and we certainly have 
continued to make clear the mistakes that were made.
    I think the problem is that, at this point, they're asking 
not only for that, but there are other elements of the 
negotiation that are also involved, that have to be resolved.
    So that alone, isn't the only issue that's being discussed 
and that needs to be resolved in order to get the GLOCs opened.
    Senator Feinstein. All right. Thank you for that answer.
    Do you believe that the Afghan military will be fully ready 
to take over come 2014?

                              AFGHAN ARMY

    Secretary Panetta. I was just there in Afghanistan on this 
last trip and had a chance to meet with Minister Wardak.
    Every time I go there, I get the opportunity to see the 
Afghan army and the improvements in terms of their operations. 
There's no question, right now, they're at about 346,000. 
They're going to go to 352,000. They're way ahead in terms of 
achieving the target that they want to achieve.
    They are doing an incredible job in terms of maintaining 
security, particularly in the transition areas that we've 
provided. I think that they are improving.
    Our goal over these next 2 years is to continue to train, 
continue to assist them in their capabilities. And I have to 
tell you that I am confident that we're going to be able to 
complete all of the transition in the areas that we have as 
part of General Allen's plan.
    That we can do this because we have the Afghan army in 
place, but also because we continue to have ISIF in places well 
to provide the support necessary. So I think the combination of 
an Afghan army that's able to do the job plus the kind of 
enduring presence that we need to have there as well in order 
to assure that the training and assistance continues.
    I think that combination does make clear that they're going 
to be able to govern and secure themselves at that point.
    Senator Feinstein. Thank you very much. I know that my time 
is up.
    Chairman Inouye. Thank you very much.
    Senator Coats.
    Senator Coats. Thank you, Mr. Chairman.
    Just two things I would like to raise in the time that I 
have.
    One is, Mr. Secretary, as CIA Director, you had operational 
control over the bin Laden raid. As you know, three of us on 
this Committee also serve on the Senate Intelligence Committee 
which Senator Feinstein chairs.
    And we've been alarmed, I think it's fair to say, with this 
recent spate of leaks that have occurred. We are working 
together in a bipartisan way to try to address this.
    But one of the areas of concern is over the question of 
this accommodation with Hollywood filmmakers regarding the bin 
Laden raid. It's been alleged that the name of one of the 
participants in that, one of our uniformed participants in 
that, has been made public.
    We are wondering, the question is whether other details 
have been shared about that. This comes on the heels of a 
series of devastating leaks that have compromised very 
sensitive operations, put peoples' lives at risk.
    Devastating negative consequences going forward in working 
with sources, et cetera, et cetera. You're well aware of all 
that.
    I guess my question here is simply the role of the 
Department of Defense relative to this Hollywood situation and 
other situations where your forces are involved.
    And I think it's just fair to say, the Chairman would 
agree, that we're looking at every possible avenue to try to 
minimize, mitigate, eliminate these types of leaks.
    And so working with you and your people in your Department 
I think is going to be helpful as one of the areas that we're 
going to need to work with in a comprehensive way of trying to 
get a handle on this.
    I'm really not asking you for details regarding all this. 
We all love to go see these Hollywood movies. They're exciting 
and so forth.

                         CLASSIFIED OPERATIONS

    But to the extent that information is shared relative to 
classified operations and personnel to make the movie a little 
more exciting and realistic and so forth and so on, contributes 
to the problems that we have.
    And so I think we want to make sure that each department, 
whether it's the agency or whether it's the intelligence 
community or whether it's the Department of Defense is aware of 
the fact that we need to thoroughly investigate all this and 
put in place measures which will prevent this from happening in 
the future.
    Whether you want to comment on that or not, I'll leave that 
to you.
    Secretary Panetta. Thank you. Thank you, Senator.
    Look, let me first say as a former Director of the CIA, I 
deplore the unauthorized disclosures of classified information.
    Senator Coats. I know you do.
    Secretary Panetta. I think that this is something that does 
have to be fully investigated, and it has to be very clear that 
this is intolerable if we're going to try to protect the 
defense of this country. We've got to be able to protect those 
who are involved in clandestine operations.
    Having said that, I also want to make clear that, you know, 
no unauthorized disclosures were provided to movie producers or 
anybody else. What we do have is we do have an office at the 
Pentagon that almost every day deals with people that want to 
do something about, you know, either a movie or a book or an 
article or something related to our defense.
    And we want to make sure that the information that they do 
use is accurate. And we do assist them with regards to the 
accuracy of that information. But I can assure you, I've asked 
that question, in this instance, nobody released any 
information that was unauthorized.
    Senator Coats. Well, I hope you would join us in a thorough 
review of procedures just to make sure that our policies are 
straight on this.
    Secretary Panetta. We will. Absolutely.
    Senator Coats. Thank you.
    And, General Dempsey, you and I were posted to Europe 
during the same timeframe, and I do agree with Senator 
Hutchison that, you know, with this rebalancing and global 
posture and with our financial fiscal issues, we have to be 
very careful with taxpayers' money.
    And I think she raised some legitimate questions in terms 
of infrastructure and MILCON money going to that. By the same 
token, I'd just like to get your take and make sure that we're 
not rebalancing too far.
    I mean, as you look across this arc of terrorism and arc of 
threats starting in Pakistan and Afghanistan and coming across 
to Iran and Israel and Syria, the Arab Spring, all those 
countries involved and so forth, everything from the Khani 
network to Al-Shabaab in Somalia.
    I mean, there are a lot of threats out there. And the 
question is, some of these threats require a rapid response.
    And Germany has always been a place where we have 
facilities to house and train those people who can be that 
rapid response to emergency situations and as well as just 
normal operations.
    Have we gone too far? Or, I mean, are we on the cusp of 
leaving too much too fast?
    And then when you also add the NATO component in terms of 
our need to continue to utilize and keep that organization 
dynamic and vibrant and effective as a partner. What is your 
take on all that?
    General Dempsey. Well, as you know, Senator, former 
Ambassador, I've had 12 years of service in NATO, and so I tend 
to see the world in many cases through our North Atlantic 
Alliance.
    And, in fact, I think that's legitimate because it is the 
track record of this country that when we enter into conflict, 
the first people we turn to to be partners with us in that 
regard are the members of the North Atlantic Alliance.
    Second, you know, we shouldn't discount the benefit of 
being there to also build partners, build their capacity. And 
we do that at places like Hohenfels and Grafenwoehr and 
elsewhere.
    And I think that building their capability makes it certain 
that we won't always have to be in the lead, even if sometimes 
there is some political reluctance that has to be overcome to 
do that.
    I mention the Allied Ground Surveillance System which is a 
SMART defense initiative. I didn't mention the European phase, 
adaptive approach, ballistic missile defense cooperation. We've 
just gone through a NATO command structure review and shrunk 
the number of headquarters from about 12 to about 6.
    So, I mean, I will just tell you that I tend to be very 
strong on our relationship with NATO, notwithstanding the 
Senator's concerns about the investment.
    Senator Coats. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Thank you both for your service. I think we have a vote on 
so I'll try to cover as much ground as possible.

                             SEQUESTRATION

    Mr. Secretary, if we do not change the sequestration 
dilemma, if we don't do something about it before the election 
as a Congress, when can we expect layoff notices to hit?
    Secretary Panetta. Well, obviously, industries make that 
decision, but under the law, I think they've got, they got to 
do it at 60 days.
    General Dempsey. The Worker Adjustment and Retraining 
Notification (WARN) Act, anywhere from 60 to 90 days.
    Secretary Panetta. Yes, 60 to 90 days before it takes 
effect.
    General Dempsey. So, September.
    Senator Graham. Will you have to lay off any civilian 
employees as a result of the sequestration?
    Secretary Panetta. I suspect that if in fact it ultimately 
takes effect, we're going to have to do the same thing, sure.
    Senator Graham. Well, would you do the same thing, 60 to 90 
days before? I would urge you to do it sooner rather than 
later.
    Secretary Panetta. We have to. We have to.
    Senator Graham. Well, I just want you to make it real to 
us.
    It seems like the biggest bipartisan accomplishment we've 
had in recent memory is to destroy the Defense Department. It's 
not something I'm very proud of, and it's going to take 
bipartisanship to undo this.
    So the sooner you can tell us about the number of jobs to 
be lost and how it will affect our Defense base, I think the 
better for the Congress as a whole.
    Now, you're telling us about TRICARE. You're telling us you 
have a budget problem. When is the last time TRICARE premiums 
have been adjusted for the retired force?
    General Dempsey. 1993.
    Secretary Panetta. 1993.
    Senator Graham. Okay.
    Now, members of this subcommittee and I know we all love 
our retired military members, and I hope to be one one day, but 
isn't it unsustainable for you, if we do not bring this program 
into some kind of a sustainable footprint, you're having to 
compete with retiree healthcare against modernization, against 
benefits for today's force, against the ability to fight and 
win wars; is that correct?
    Secretary Panetta. I mean, as I said, we're paying $50 
billion now in the healthcare arena, and if we don't control 
those costs, it's going to eat up other areas that are vital 
for our defense.
    Senator Graham. So, you're telling the Congress, it's 
unsustainable.
    Secretary Panetta. Exactly.
    Senator Graham. You're having to make choices between the 
retired healthcare costs and fighting this war and future wars.
    Secretary Panetta. That's correct.
    Senator Graham. And I hope we can find a way to be fair to 
the retired force, but also to maintain a sustainable military 
budget.
    When it comes to retirement, you're talking about reshaping 
retirement benefits in the future not for people who exist 
today, right?
    Secretary Panetta. That's correct.
    Senator Graham. Because if you retire at 38, you get half 
pay for the rest of your life. Maybe that's something we need 
to revisit. I want to be generous, but I want it to be 
sustainable.
    That's the message to the Congress, right?
    Secretary Panetta. That's correct.
    Senator Graham. Okay. And your message about sequestration 
is, I'm doing my best to handle $450 to $500 billion. If you 
want to double that, you're going to destroy the best military 
we've ever had.
    Is that simply put?
    Secretary Panetta. That's right.
    Senator Graham. Okay.

                         GROSS DOMESTIC PRODUCT

    Now, GDP spending on the military. What's been the 
historical average for the last 45 years of GDP spent on the 
military?
    General Dempsey. Back to the last 20 years, maybe 4 or 5 
percent.
    Senator Graham. Okay. It's 5.5 percent over the last 45 
years.
    General Dempsey. You knew the answer.
    Senator Graham. September 11, 2001, it was 3 percent. 
Today, it ranges from 4 percent to 5.78 percent. In World War 
II, it was 5.72 to 42 percent. The Korean War was 8.25 to 18 
percent. Vietnam, 7.65 to 10.86.
    I would argue to my friends on both sides of the aisle, 
that you're right. We're not going to get out of the debt by 
lowering the military spending alone.
    I'm all in for reforming the way we spend money. Costs plus 
contracts seem to be a bad idea. Do you agree?
    Secretary Panetta. That's correct.
    Senator Graham. The longer it takes, the more you make. The 
more it costs, the longer it takes for the contractor, the more 
they make.
    You're looking at doing a fixed-price contract for future 
weapons acquisitions, right?
    Secretary Panetta. That's right.
    Senator Graham. Where everybody's got skin in the game. Go 
down that road. I applaud you tremendously for doing that.
    Aid to Pakistan. Do you consider the Foreign Ops budget a 
benefit to the military? The Foreign Operations account, the 
State Department's role in the world.
    Secretary Panetta. Yes.
    Senator Graham. Okay. Would you recommend to us to stop aid 
to Pakistan right now?
    Secretary Panetta. I'd be very careful about, you know, 
just shutting it down.
    What I would do is look at conditions for what we expect 
them to do.
    Senator Graham. What about Egypt?
    Secretary Panetta. No, I would not, I think, at this point 
in time, support that----
    Senator Graham. Could you and General Dempsey write me a 
letter recommending to the Congress what we should do about our 
aid programs to the Pakistani military, the Pakistani 
Government, to the Egyptian military and to the Egyptian 
Government?
    Secretary Panetta. Yes.
    Senator Graham. Okay.
    The last thing I want to talk to you about very briefly is 
you said something that just kind of went over everybody's head 
I think. That there's a Pearl Harbor in the making here.
    You're talking about shutting down financial systems, 
releasing chemicals from chemical plants, releasing water from 
dams, shutting down power systems that could affect the very 
survival of the Nation.
    What's the likelihood in the next 5 years that one of these 
major events will occur?
    Secretary Panetta. Well, you know, all I can tell you is 
that----
    Senator Graham. Is it a high probability or low 
probability?
    Secretary Panetta. All I can tell you is that, 
technologically, the capability to paralyze this country is 
there now.
    Senator Graham. Is there a growing will to use that 
capability by our enemies?
    Secretary Panetta. I think the more this technology 
develops, the more the will to potentially use it is going to 
dictate the will.
    Senator Graham. Would you say there is a high probability, 
that the capability, and the will?
    Secretary Panetta. I think there's a high risk.
    Senator Graham. Okay. Thank you both for your service.
    Chairman Inouye. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I will be 
brief. Gentlemen, thank you.

                          AIR FORCE IN ALASKA

    Secretary Panetta, you have mentioned that this budget 
needs to relate to the full-defense strategy. We certainly 
understand that with the attention to Asia and the Pacific. We 
think that Alaska plays a large and a significant role. We 
have, historically.
    But we think going into the future, that that role actually 
accelerates. There has been a proposal by the Air Force to move 
the F-16 Aggressor Squadron from Eielson. We've raised many, 
many questions.
    Unfortunately, it seems that there are more questions that 
are being raised after we receive some of the information from 
the Air Force.
    We just got the site activation task force review that was 
assigned to look at the feasibility of this move. The concern 
that we have is in addition to additional questions being 
raised, you've got a situation where the other forces are, I 
think, are impacted.
    You've mentioned that this needs to--this budget needs to 
be a balance between all forces. We're looking at the impact to 
the Guard which has the 168th Refueling Wing, and how it will 
be impacted if Eielson is put to reduced hours.
    We look at the incredible Army training ranges that we have 
up north that could be comprised. At J-Bear, we've got some 
very serious housing issues that need to be assessed.
    We are in a situation now where we are trying aggressively 
to get some very concrete answers from the Air Force on this. 
We have determined that this proposal is going to cost us this 
next year $5.65 million in fiscal year 2013, which does not 
fall in line with the President's budget.
    The very direct question that I have to you, Secretary 
Panetta, General Dempsey, is whether or not you will encourage 
the Air Force to abandon this plan for Eielson Air Force Base 
in 2013.
    Take this proposal back to the drawing board, give it the 
thorough, very comprehensive vetting that it must have, to 
ensure that in fact we are operating with the focus, the vision 
towards the Asia Pacific, and that this truly does reflect the 
new defense strategy.
    Secretary Panetta. I will have General Dempsey respond to 
this as well.
    Let me make clear that, you know, the Air Force was looking 
for, obviously, ways to save money because of the 
responsibility to respond to the Budget Control Act.
    There are F-15s located at Eielson. There's F-15s located 
at Elmendorf, and they felt that it was better to try to unify 
those.
    I just want you to know, and I've shared this with your 
colleague as well, that we have no intention of closing down 
Eielson. It's a very important base for us. It's important in 
terms of air refueling. It's important in terms of the role 
that we want to be able to play with regards to the Pacific.
    And so nothing that is being recommended here in any way is 
intended to impact on Eielson itself as a future base for the 
Air Force.
    General Dempsey. I'll just add.
    I know that you and Senator Begich are in contact with the 
Air Force. I won't commit to going back and talking the nut of 
their plan. I will commit to you to go back and make sure I 
understand their plan better. And then, I'll engage with you on 
it personally, you and Senator Begich.
    Senator Murkowski. Well, I appreciate that.
    I do recognize though that part of the proposed savings 
that the Air Force is looking to is demolishing several 
buildings within Eielson. The replacement value of these is 
about $150 million.
    So it puts it in a situation where it would appear to be a 
backdoor BRAC, and that is the concern, the consideration.
    So again, if I can ask you to do a very comprehensive 
review, work with us, General Dempsey, I will look forward to 
your conversation.
    Mr. Chairman, I thank you. And I will conclude my comments 
with just a direct appeal. The focus, as we look at the 
infrastructure is all very keen, but it always comes down to 
our human assets.

                                SUICIDE

    I remain very, very troubled with the high level of suicide 
that we are seeing with our military, also with our veteran 
population. I think most are staggered to learn that we're 
actually seeing more deaths due to suicide than we are actually 
out in theater in Afghanistan.
    How we deal with this reflects on how we are as a Nation 
and our commitment to those who serve us. So I know you are 
focused on that, but I felt compelled to raise it here.
    Secretary Panetta. Senator, I thank you for pointing that 
out.
    I'm very concerned by the high rate of suicides. Talking 
with the Service Chiefs, they share that concern. And, as a 
matter of fact, highlighted the fact that they were seeing, you 
know, a higher rate in suicide than they had seen in the past.
    And what I've asked all of them to do, plus the 
undersecretaries that are responsible for this, is to 
immediately look at that situation and determine what's behind 
it, what's causing it, and what can we do to make sure it 
doesn't happen.
    Chairman Inouye. Thank you very much.
    Senator Murray.
    But before you do, we'll be leaving because there's a vote 
pending.
    Senator Murray [Presiding]. Okay. Thank you very much, Mr. 
Chairman. I appreciate that.
    Mr. Secretary, I want to continue the thought process of 
Senator Murkowski. I, too, am very alarmed by the suicide rate 
among our servicemembers and our veterans.
    New analysis is showing us that every day in 2012 one of 
our servicemembers committed suicide, and as you just 
commented, outpacing combat deaths. In our veteran population, 
we know a veteran commits suicide every 80 minutes, every 80 
minutes.
    Now, I think we can all agree on two things. First of all, 
our servicemembers and their families have risen to the 
challenge. They have done everything this country's asked of 
them throughout the wars in Iraq and Afghanistan. We're all 
eternally grateful.
    Second, the Pentagon and the Department of Veterans Affairs 
(VA) are losing the battle on mental and behavioral health, 
conditions that are confronting a lot of our servicemembers, 
loved ones and as we just talked about, resulting in such 
extreme things as suicides.
    Secretary Panetta, our servicemembers and veterans can't 
get needed treatment or access to needed resources without 
correct diagnosis. As you know, this has been a major problem 
for soldiers in my home State of Washington.

                     POST-TRAUMATIC STRESS DISORDER

    At Madigan, to date, more than 100 soldiers and counting, 
have had their correct post-traumatic stress disorder (PTSD) 
diagnoses now restored after being told they were exaggerating 
their symptoms, lying, and accused of shirking their duties.
    So, understandably, a lot of our servicemembers' trust and 
confidence in the disability evaluation system has been 
seriously shaken in the wake of these events.
    As you know, I have continually raised concerns about the 
consistency and accuracy of behavioral health evaluations and 
diagnosis within the entire disability evaluation system and 
have offered my recommendations on how to improve the system.
    And, as you also know, the Army has now taken some 
critically important steps forward in beginning to address 
these concerns.
    Secretary McHugh has announced a sweeping, comprehensive 
Army-wide review of behavioral health evaluations and diagnosis 
back to 2001 to correct the errors of the past and to make sure 
our servicemembers get the care and services that they need and 
that they deserve.
    But I wanted to ask you today, because this is not just an 
Army disability evaluation system; this is a joint Department 
of Defense and VA program, covers all the services. So I wanted 
to ask you why the Department has not taken the lead in 
evaluating and making improvements to the entire system.
    Secretary Panetta. Senator, we are.
    What I've asked is the other service chiefs' view, 
implement the same approach that the Army's taking here.
    Senator Murray. To go back to 2001 and review all cases?
    Secretary Panetta. That's correct.
    Senator Murray. Throughout the entire system?
    Secretary Panetta. That's correct.
    Senator Murray. Okay.
    So they are all following the Army's lead now, and we will 
be told the evaluations and the progress of that.
    Who's heading that up?
    Secretary Panetta. Our Under Secretary for Personnel and 
Healthcare. That's the individual that you need to contact.
    Senator Murray. Well, I would very much like to be kept 
informed as I'm sure all of our Members of Congress would. I 
think this needs to be transparent and clear.
    We need to make sure that people are accessing the system, 
getting back if they need it, and the only way to do that is to 
be clear, open, and honest with everyone.
    So I didn't know that we were looking at all the other 
Services, and I'd like more information and to be informed on 
that as soon as possible about how that's taking place and what 
the timetable is, and how that's going to occur.
    Secretary Panetta. I appreciate your leadership on this, 
Senator, and I'm not satisfied either.
    I think, you know, the misdiagnosis that took place, what's 
happening in this area between, look, we're doing everything we 
can to try to build a better system between the Pentagon, the 
Department of Defense, and VA.
    But there are still huge gaps in terms of the differences 
as to how they approach these cases, how they diagnose these 
cases, and how they deal with them. And, frankly, that's a 
whole area that we've just got to do much better on.
    Senator Murray. Well, you can't imagine what it's like to 
talk to a soldier who was told he had PTSD. His family was 
working with him, and then when he went through the disability 
evaluation system was told he was a liar, or a malingerer. He 
was taken out of it, and then he went out into the civilian 
world, not being treated.

                      DISABILITY EVALUATION SYSTEM

    That is a horrendous offense. You know, I'm chair of the 
Veterans Affairs Committee, and I recently held a hearing on 
the joint disability evaluation system. And I just have to tell 
you, I am really troubled by what I'm hearing.
    Enrollment is continuing to climb. The number of 
servicemembers' cases meeting timeliness goals is unacceptably 
low. The amount of time it takes to provide benefits to a 
servicemember who is transitioning through the system has risen 
each year since we began this.
    In response to these problems, we heard from DOD and VA 
together about how 5 years after, 5 years after the Walter Reed 
scandal, and this program was piloted, they're just now 
beginning to map out business processes to find room for 
improvement.
    You know, that's just unacceptable. The public, all of us, 
really believe that this was being taken head on, that we were 
dealing with it. At 5 years out, unacceptable numbers that 
we're seeing.
    So I wanted to ask you what you are doing at your level to 
deal with this, 5 years into this program, and we're still 
hearing statements from Army leaders about how the disability 
evaluation system is fundamentally flawed, adversarial, 
disjointed.
    Tell me what we're going to do.
    Secretary Panetta. Let me do this.
    Secretary Shinseki and I have been meeting on a regular 
basis to try to do what we can to implement improvements. And, 
very frankly, we're not satisfied either by the progress that's 
being made here.
    Part of it is bureaucratic, part of it is systems, part of 
it is just the complicated and----
    Senator Murray. You can't image what it sounds like to hear 
that.
    Secretary Panetta. Pardon me?
    Senator Murray. It's bureaucratic. I mean, if you're in 
this system, that's not the word you want to hear.
    Secretary Panetta. Yes, okay.
    And, you know, I see it every day. I'm in charge of a very 
big bureaucracy. And the fact is that sometimes just the 
bureaucratic nature of large departments prevents it from being 
agile enough to respond and do what needs to be done.
    And so a large part of this is just making sure that people 
are willing to operate out of the box, and do what needs to be 
done in order to improve these systems.
    What I would offer to you is let Secretary Shinseki and I 
sit down with you and walk through the steps we're taking to 
try to see if we can try to shake the system and make it do a 
better job.
    Senator Murray. Mr. Secretary, I really appreciate that 
commitment.
    I know you have not been there the entire 5 years, but I 
will tell you this, we've been told for 5 years that DOD and VA 
are sitting down on a regular basis addressing this.
    Secretary Panetta. I know. Yes.
    Senator Murray. And I'm talking to soldiers that are stuck 
in this disability evaluation system. There are bureaucratic 
delays. The people that are supposed to be helping them, 
they're training them because they've been in the system longer 
than the trainers who are supposed to come in and work with 
them.
    Their families are facing, you know, horrendous challenges 
as they try and figure out what the future brings, months on 
end. You know, people at the top are saying this is 
fundamentally flawed. You ought to hear what the people at the 
bottom who are in it are saying.
    Secretary Panetta. Yes.
    Senator Murray. So I totally appreciate your saying that to 
me today, but sitting down and talking with Secretary Shinseki 
is something we've been hearing for a long time. We need some 
recommendations. We need to move forward. We need this to be a 
top priority at the Pentagon.
    As we transition now out of Afghanistan, this is not going 
to get more simple.
    Secretary Panetta. I agree with you. No, you're absolutely 
right.

       POST-TRAUMATIC STRESS DISORDER AND BEHAVIORAL HEALTH CASES

    Senator Murray. Add to that, the complexities of now going 
back and reviewing all of these PTSD and behavioral health 
cases, you have people who are in the IDs system right now who 
are saying, what's going to happen to me while you go back and 
review all these people?
    Are we putting more personnel in to deal with this? Or, now 
am I going to take another back seat as we deal with that? This 
is complex. It's hard. It's problematic, but it needs every 
single effort from top to bottom.
    Secretary Panetta. Listen, I share all of your 
frustrations, and my job is to make sure that we don't come 
here with more excuses, but we come here with action. I 
understand.
    Senator Murray. And I truly appreciate that comment, and I 
want to work with you. All my efforts are at your disposal. We 
do a fantastic job of training our men and women to go into the 
service. We still today have not gotten this right after this 
war in making sure that they transition back home.
    We have families and soldiers and airmen throughout the 
Service who are really stuck in a process that they shouldn't 
be stuck in. We've got to get this right, and we got to get it 
right now, and we need every effort at it.
    And I will sit down with you the minute you tell me you are 
available, but I want more than a meeting.
    Secretary Panetta. Okay. I agree.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Murray. Okay. All right. I believe, is Senator 
Shelby on his way?
    I understand that Senator Shelby is on his way. We have a 
second vote. I have to get back for that. If I would just ask 
you gentlemen patience for him to return so that I can return 
for the second vote, I would appreciate it.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to Secretary Leon E. Panetta
               Questions Submitted by Senator Tom Harkin
    Question. Mr. Secretary, the Department of Defense (DOD) has become 
increasingly concerned over the past few years regarding our military's 
dependence on petroleum-based fuels. These concerns relate to both the 
ready availability of fuels during times of conflict and to the 
increasing costs of such fuels.
    For example, it's been reported that the Pentagon spent $17.3 
billion on petroleum in 2011, a 26-percent increase from the previous 
year with practically no change in the volume purchased.
    It has also been reported that for every $0.25 increase in the 
price of jet fuel, the DOD must come up with an extra $1 billion 
annually.
    Relative to future supplies and prices, we can all see that global 
fuel demands will continue to increase steadily as the economies of the 
BRIC nations--Brazil, Russia, India, and China--and similar nations 
grow and demand more fuel for transportation and industrialization.
    Obviously, some of our leaders in the Pentagon see these future 
threats as well, and I commend the Department of the Navy for signing a 
memorandum of understanding (MOU) with the Department of Energy (DOE) 
and with United States Department of Agriculture (USDA) for the 
development of commercial biofuels production capabilities. I 
understand that under this MOU, the DOD intends to fund multiple drop-
in biofuel production facilities under the Defense Production Act.
    Could you please speak to DOD's long-term strategy for assuring 
future fuels supplies and the role that you believe domestic biofuels 
can and should play in that? More specifically, could you comment on 
the role that this joint Navy/DOE/USDA procurement activity plays in 
DOD's longer term fuels security strategy?
    Answer. In DOD's ``Operational Energy Strategy,'' our goal is to 
ensure our forces have the energy they need to protect the Nation. The 
``Strategy'' rests on three principles:
  --reducing demand;
  --diversifying supply; and
  --building the future force.
Reducing demand, or getting more military output for our energy input, 
is the top energy security priority for the Department. Ninety percent 
of the Department's investment in operational energy improvements in 
fiscal year 2013 will go toward these sorts of energy efficiency and 
performance gains. Improved energy efficiency not only benefits the 
Department's bottom line, but more importantly, helps produce forces 
that are lighter, more mobile or flexible, and have greater range or 
endurance. Building an energy-efficient future force means that the 
Department needs to integrate operational energy considerations into 
the full range of planning and force development activities.
    The second principle of diversifying supply is where domestic 
biofuels and other similar efforts are important. The Department needs 
to diversify its energy sources in order to have a more reliable and 
assured supply of energy for military operations. We are going to have 
ships, planes, and vehicles designed to use liquid fuels for decades to 
come so we have an interest in the ability of drop-in biofuels to, over 
the long term, provide the Department with new, sustainable, and 
reliable sources of the fuel we need to accomplish the defense mission. 
We are looking for fuels that are compatible with existing equipment 
and storage infrastructure, exploring where and how biofuels will be 
available and affordable to our forces, and leveraging the expertise of 
other Federal agencies where appropriate.
    The Army, Navy, Air Force, and Marines have been certifying 
aircraft, ships, tactical vehicles, and support equipment to use 
alternative liquid fuels. Such activities represent a relatively small 
but important investment in drop-in alternative fuels--less than 0.6 
percent of the more than $15 billion the Department spent on petroleum 
fuel last year. This investment ensures that our equipment can operate 
on a wide range of alternative fuels, which is important to ensuring 
our military readiness over the long term.
    To aid the Military Services in this effort, on July 5, 2012, the 
Department of Defense Alternative Fuels Policy for Operational 
Platforms was released. The policy, which was required by the National 
Defense Authorization Act (NDAA) for fiscal year 2012, states that the 
Department's primary alternative fuels goal is to ensure operational 
military readiness, improve battlespace effectiveness, and further 
flexibility of military operations through the ability to use multiple, 
reliable fuel sources. It makes clear that all DOD investments in this 
area will be subject to a rigorous, merit-based evaluation. The policy 
also lays out clear guidance for our future fuel certification efforts, 
field demonstrations, and ongoing purchases. Of note, the policy 
formalizes what is already the practice for all the Services: That DOD 
will not make bulk purchases of alternative drop-in replacement fuels, 
outside of certification and demonstration activities, unless they are 
cost competitive with petroleum products. With this policy, the 
Department will continue to steward its alternative fuels investments 
wisely as we ensure the long-term readiness and capability of our joint 
force.
    Another important component of the Department's longer term fuels 
security strategy is the Defense Production Act Advanced Drop-In 
Biofuels Production Project, which is focused on creating public-
private partnerships to incentivize private-sector investment in cost-
competitive biofuel production capability. The U.S. Navy and the 
Departments of Agriculture and Energy developed the initial strategy 
for this project, which is now under the oversight and technical review 
of an interagency team that will ensure the best value for the taxpayer 
and the Department.
    Question. As DOD has worked to strengthen the Afghan carpet 
industry, for the past 2 years, I have been raising with the Department 
the need to ensure that DOD funds do not, either directly or 
indirectly, support child labor in the carpet industry. I've not been 
wholly satisfied with DOD's efforts in this regard. The contract into 
which DOD entered to prevent the use of child labor in the carpet 
industry stopped short of mandating an independent third-party 
monitoring and certification system. Subsequent to that, the contractor 
offered a no-cost extension of the contract to do just that, but DOD 
refused.
    Quite frankly, I think the Department needs direction from the top 
that it should examine all of its efforts in the Afghan rug industry to 
make sure that it's doing all that it can to ensure U.S. taxpayer 
dollars are not being used to exploit children in any sector of the 
economy. Mr. Secretary, we have a legal and moral obligation to require 
that no child labor be used when U.S. tax dollars are paying for 
economic development projects. What actions will you take moving 
forward to ensure that relevant DOD contracts will include safeguards 
so U.S. funding does not subsidize child labor?
    Answer. DOD is committed to promoting stability in Afghanistan 
responsibly through strategic business and economic activities. DOD 
takes this issue very seriously and is committed to our treaty 
obligations under the International Labor Organization Convention No. 
182 on child labor and receives policy guidance from the U.S. 
Department of State as the U.S. Government's lead on these issues. The 
DOD, through the Task Force for Business and Stability Operations, will 
continue to work with the Departments of Labor, Commerce, and State on 
the issue of child labor in Afghanistan should it arise in future 
projects.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. How is the Department ensuring that critical, Government-
owned and -operated facilities in the Nation's organic industrial base, 
like Rock Island Arsenal, are properly and strategically modernized so 
that these facilities have the equipment and skillsets they need to 
respond to wartime needs?
    Answer. Section 2476 of title 10, United States Code, sets forth a 
congressional mandate for minimum capital investments for certain 
depots of the Department, including the Rock Island Arsenal. 
Specifically, section 2476 dictates each military department shall 
invest in each fiscal year in the capital budgets of those depots a 
total amount at least equal to 6 percent of the average total combined 
maintenance, repair, and overhaul workload funded at all the depots of 
that military department for the preceding 3 fiscal years. The Army, 
for example, has exceeded the 6-percent threshold with an investment in 
its facilities of approximately $290 million from fiscal year 2009 
through fiscal year 2012.
    The Army has developed an Organic Industrial Base Strategic Plan 
that provides a disciplined framework for ensuring that all the Army's 
arsenals and depots remain viable and relevant in a post-war funded 
environment. The plan addresses a Capital Investment Strategy that 
includes investment in new technology, training, and plant equipment at 
the same rate that the Army modernizes its weapon systems. The plan is 
in the final stages of approval by Headquarters Department of the Army 
(HQDA).
    Further, the Department is mandated under 10 U.S.C. 2464, to 
maintain a core depot-level repair capability. The purpose of the core 
requirement is, among other things, to ensure a ready and controlled 
source of technical competence and resources needed to respond to 
military mobilization, contingencies, and other emergencies. The 
Department applies and enforces the core requirement through an annual 
and biennial capability and workload review, completed by the Services, 
and reviewed by the Office of the Secretary of Defense. To efficiently 
maintain maintenance capabilities, DOD facilities, equipment, and 
personnel accomplish a broad range of workloads in support of peacetime 
operations. Most of these workloads involve the maintenance, repair, 
and overhaul of combat weapons systems and components ensuring a 
defined skill set and wartime repair capability. Additionally, the 
preservation of core capability requires ongoing capital investments 
consistent with section 2476 as well as the introduction of new weapon 
systems.
    Question. The Senate and House versions of the National Defense 
Authorization Act (NDAA) for fiscal year 2013 each carry authorizations 
for some of the reforms you announced earlier this year to combat 
sexual assault in the military. Is the Department planning for the 
implementation of those authorized authorities, assuming they are 
signed into law? If so, please describe the Department's implementation 
timeline.
    Answer. The Department is prepared to review and expeditiously 
implement the provisions of the fiscal year 2013 NDAA once it is in 
effect. The proposed Leadership, Education, Accountability and 
Discipline on Sexual Assault Prevention Act of 2012 (LEAD Act) contains 
six major elements, each requiring a unique timeline and implementation 
plan. Assuming the bill is passed, we offer an approximate timeline for 
each element as follows:
  --Establish Special Victim's Capability within each of the services 
        comprised of specially trained investigators, judge advocates 
        and victim-witness assistance personnel. Each service have 
        identified and are already training investigators and judge 
        advocates to establish this capability. Following passage, 
        victim witness liaisons will be identified and trained to 
        complete this capability. Once the fiscal year 2013 NDAA is 
        passed, it will take approximately 6 months to 1 year for all 
        of the services to have a functioning Special Victim's 
        Capability for each service.
  --Require that all servicemembers have sexual assault policies 
        explained within 14 days of entrance into active service, 
        educating our newest members right away to understand our 
        culture will not tolerate sexual assault. Once the fiscal year 
        2013 NDAA is passed, this element will take approximately 3 
        months for full implementation.
  --Require a record of the outcome of disciplinary and administrative 
        proceedings related to sexual assault be centrally located and 
        retained for a period of not less than 20 years. Once the 
        fiscal year 2013 NDAA is passed, it will take approximately 6 
        months to 1 year to implement this requirement.
  --Require Commanders to conduct an annual Organizational Climate 
        assessment, obtaining information about the positive and 
        negative factors that impact unit effectiveness and readiness. 
        Once the fiscal year 2013 NDAA is passed, this element can be 
        implemented within a 6-month time period.
  --Provide Reserve and National Guard personnel who have been sexually 
        assaulted while on active duty to request to remain on active 
        duty or return to active duty until line of duty determination 
        is done, allowing servicemembers who file an Unrestricted 
        Report to receive services and/or complete a line of duty 
        investigation. Once the fiscal year 2013 NDAA is passed, this 
        element will take approximately 6 months to 1 year to 
        implement.
  --Require greater availability of information on Sexual Assault 
        Prevention and Response resources to include DOD workplaces, 
        dining facilities, healthcare, and residential facilities will 
        have prominently placed Sexual Assault Prevention and Response 
        resources information to assist servicemembers, military 
        dependents, and civilian personnel. Once the fiscal year 2013 
        NDAA is passed, this element will take approximately 6 months 
        to implement.
    Question. Recently, the Department opened up approximately 14,000 
battalion-level combat-related positions to female servicemembers. What 
is the Department's timeframe for examining and possibly reclassifying 
other combat-related provisions in order to permit women to serve on a 
broader basis?
    Answer. In March of this year, the Department eliminated the co-
location restriction that opened more than 13,000 combat support 
positions to both men and women, as well as opened more than 1,000 
positions at the battalion level in direct ground combat units in order 
to evaluate the performance of women in these positions and inform 
policy. I have directed the Secretaries of the military departments to 
advise me on their evaluations of women's performance in these 
positions, as well as any additional positions that can be opened and 
assessment of remaining barriers to full implementation of the policy 
of allowing all servicemembers to serve in any capacity, based on their 
abilities and qualifications. This assessment will occur no later than 
November 2012.
                            vision research
    Question. In the fiscal year 2013 budget submission, the President 
requested $21.374 million for core vision/eye research and all sensor 
systems.
    Would you discuss the importance of this funding?
    Answer. Research to improve the prevention, mitigation, treatment, 
rehabilitation, and restoration of military eye and vision trauma is 
critically important since most human activity is visually guided. In 
current conflicts, eye injuries account for approximately 15 percent of 
all battlefield trauma, and have resulted in approximately 183,000 
ambulatory and more than 4,000 hospitalized cases involving eye injury. 
In addition to injuries that blind or impair vision immediately, hidden 
injuries such as retinal breaks, iris disinsertion, lens damage, and 
optic nerve trauma have been found to go undetected at the time of the 
battlefield trauma and dramatically increase the risk of future vision 
loss. Even in the absence of direct eye injury, blast exposures, 
concussions, and traumatic brain injuries (TBI) cause visual and 
associated vestibular neurosensory dysfunction in 75 percent of exposed 
individuals. All of these problems negatively affect the ability of 
servicemembers and veterans to reintegrate in both military and post-
service employment and life skills.
    The DOD/Veterans Affairs (VA) Vision Center of Excellence has been 
a leader in the analysis of research gaps in blindness and vision 
impairment, including TBI-related vision syndrome. Under the aegis of 
its Vision Research Portfolio (VRP), DOD has developed a comprehensive 
inventory of needed research in blindness, vision impairment, and TBI-
related visual neurosensory dysfunctions caused by military trauma. The 
range of these research topics spans:
  --the discovery of better methods of protecting deployed individuals, 
        improved battlefield treatments that will save the sight of the 
        wounded;
  --development of long-term treatments for chronic visual 
        dysfunctions;
  --the need for better surveillance tools for as yet undetected 
        problems; and
  --developing valid approaches to the restoration of sight.
At present, vision restoration is in its infancy compared to other 
areas of prosthetics, such as amputations, where dramatic strides are 
continually being made. We are fortunate that VRP funding announcements 
are being met by research proposals of the highest quality, which will 
greatly benefit the care of our servicemembers and veterans. We have an 
obligation to our servicemembers and veterans to ensure that they have 
access to our best possible solutions for their readiness, ocular 
health and visual quality of life. Maintaining and enhancing funding of 
DOD research targeted to these areas is a critical need.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                united states relationship with pakistan
    Question. Last month, at the full Committee mark-up of the fiscal 
year 2013 State and Foreign Operations appropriations bill, this 
Committee cut $33 million in Foreign Military Financing for Pakistan to 
protest the 33-year prison sentence for Doctor Shakil Afridi, who 
helped the United States track down Osama bin Laden.
    What are your current views on United States foreign assistance to 
Pakistan and how do you see the United States-Pakistan relationship at 
this time?
    Answer. The United States-Pakistan relationship is fundamental to 
our vital national security interests. We need to cooperate with 
Pakistan on defeating al-Qaeda, supporting Pakistani stability, and 
reaching a lasting peace in Afghanistan. I support assistance to 
Pakistan that is targeted at achieving our core interests and 
sustaining our engagement--civilian and military--with the Government 
of Pakistan. By comparison, cutting off assistance to Pakistan in 1990 
led to an era of decreased engagement which still adversely affects our 
relationship today.
    The Department of Defense (DOD) programs--especially Coalition 
Support Fund reimbursements--will play an important role in re-starting 
our engagement with Pakistan as we seek a way forward on advancing 
broader United States national security interests. Passing amendments 
limiting assistance to Pakistan will jeopardize our ongoing discussions 
on all avenues of cooperation, including the ground lines of 
communication (GLOC) negotiations. If we can restart the relationship, 
the next year would require that we be flexible enough to respond to 
potential additional strains that may occur, and to take advantage of 
any improvement in Pakistan's willingness to cooperate on issues that 
advance United States national interests. Any conditions applied to DOD 
programs for Pakistan should, therefore, be designed to support these 
interests. Funding restrictions or unachievable certification 
requirements for those programs would have direct, negative 
consequences on our core interests, our strategic posture in 
Afghanistan, and long-term regional stability.
    Question. What do you see happening with the border situation in 
Pakistan? Are we able to resupply our troops in Afghanistan without 
using the Pakistani border?
    Answer. We--and our North Atlantic Treaty Organization (NATO)/
International Security Assistance Forces (ISAF) partners--have been 
able to support our forces in Afghanistan during the closure of the 
Pakistan-based GLOC since late November. However, we have done so by 
relying heavily on northern distribution network (NDN) lines of 
communication as well as costly, multimodal shipments using rail and 
air. Maintaining redundant supply routes into Afghanistan, including 
the Pakistan GLOC, will enable logistics flexibility at a critical time 
for coalition forces. Working with Pakistan to open the GLOC will 
reduce the burden on the United States taxpayer, will allow us to 
transit supplies to forces more quickly, and will be important for 
United States and coalition retrograde from Afghanistan and equipping 
of Afghan National Security Forces (ANSF).
    Question. When will the administration finally declare the Haqqani 
Network a Foreign Terrorist Organization (FTO)?
    Answer. The authority to make FTO designations rests with the 
Secretary of State. I understand that Secretary Hillary Clinton is 
undertaking a review of an FTO designation of the Haqqani Network, and 
I defer to her on the results of that review.
                            south china seas
    Question. Secretary Clinton has stated that the peaceful resolution 
of disputes in the South China Sea is in the ``national interest of the 
United States,'' and that multilateral solutions should be pursued. In 
response, the People's Liberation Army insisted that China had 
``indisputable sovereignty'' over the sea, though it would allow 
freedom of navigation.
    What is your assessment of China's behavior in the South China Sea?
    Answer. My assessment is that China should clarify the nature of 
its claims in the South China Sea and resolve disputes through 
diplomatic means consistent with international law without coercion or 
the threat or use of force. We encourage China to work with Association 
of Southeast Asian Nations (ASEAN) on developing a binding code of 
conduct for behavior in the South China Sea and to work toward the 
peaceful settlement of territorial disputes. It is long-standing U.S. 
policy that we do not take a position on specific territorial disputes, 
and we have consistently called upon all parties to clarify their 
claims in the South China Sea in terms consistent with international 
law. Finally, it is important that China recognize and respect the full 
breadth of high seas freedoms in its exclusive economic zone (EEZ), 
which includes the freedoms of navigation and overflight and other 
internationally lawful uses of the seas related to these freedoms.
    The region and the world are watching the situation in the South 
China Sea carefully, and forming impressions based on how claimant 
states manage these disagreements.
    Question. Who is driving this assertiveness, the military or 
civilian leadership?
    Answer. We have questions about the level of coordination between 
the political and military leadership in China, and suspect there are 
areas of friction between them. However, we believe that recent actions 
taken in the South China Sea are in accordance with the broader goals 
of the civilian leadership and do not represent a rift within China's 
leadership. The People's Liberation Army's (PLA) top decisionmaking 
body, the Central Military Commission, remains subordinate to civilian 
leadership. China's consensus driven decisionmaking process continues 
to prevent one entity from challenging the status quo.
    Question. How concerned are you that an incident in the South China 
Sea, such as the current standoff between China and the Philippines 
over the Scarborough Shoal, could erupt into a wider conflict that 
could drag in the United States?
    Answer. We are watching the situation in the South China Sea 
closely, and support a collaborative diplomatic process by all 
claimants to resolve disputes. The United States opposes the use or 
threat of force or coercion by any claimant in pursuing its claims. We 
support ASEAN and China's efforts to negotiate a full code of conduct 
that:
  --is based on the principles of the U.N. Charter, customary 
        international law as reflected in the Law of the Sea 
        Convention, the Treaty of Amity and Cooperation, and the 
        Declaration on Conduct; and
  --creates a rules-based framework for managing and regulating the 
        conduct of parties in the South China Sea, including preventing 
        and managing disputes.
    To reduce the risk of conflict in the South China Sea, I believe 
the United States should use its position in several regional 
organizations, including the East Asia Summit, the ASEAN Regional 
Forum, and the ASEAN Defense Ministers Meeting Plus, to facilitate 
initiatives and confidence-building measures that will help claimant 
states reach an agreement on a binding code of conduct in the South 
China Sea. Additionally, the United States should continue serving as a 
positive example of a nation that adheres to recognized international 
norms of behavior through policy implementation, effective training, 
and proper accountability. These include the ``rules of the road,'' 
such as the International Regulations for Preventing Collisions at Sea 
(COLREGs), the International Convention for the Safety of Life at Sea 
(SOLAS), and other established international safety and communication 
procedures, such as the Code for Unalerted Encounters at Sea (CUES). 
The United States should also encourage all South China Sea claimants 
to abide by these behavioral norms to ensure greater operational safety 
and reduce the risk of dangerous incidents at sea.
    Question. What lines of communication do we have with China's 
military in a crisis situation and are they sufficient?
    Answer. DOD maintains contact with the PLA through a variety of 
mechanisms, including China's Defense Attache Office at its Embassy in 
Washington and the U.S. Defense Attache Office at the U.S. Embassy in 
Beijing. Additionally, in 2007, a Defense Telephone Link (DTL) was 
established between the United States and China, intended for exchanges 
between the United States Secretary of Defense and China's Minister of 
National Defense. Secretary of Defense Gates made the first call to his 
counterpart in April 2008. We seek a military-to-military relationship 
with China that is healthy, stable, reliable, and continuous--these 
lines of communication, which are sufficient, help us meet that goal.
                              afghanistan
    Question. The number of U.S. forces will be reduced to 68,000 by 
September, down from a peak of approximately 100,000 in June 2011. 
President Obama has said that further reductions will continue ``at a 
steady pace'' until the end of 2014 when Afghan forces will assume full 
responsibility for the security of their country.
    What factors will influence the pace of additional reductions?
    Answer. The recovery of the final 23,000 surge forces is expected 
to be completed by September 2012. Following the completion of the 
surge recovery, fewer than 68,000 U.S. military personnel will remain, 
as laid out in the President's surge plan. As DOD senior leaders have 
stated many times, any future decisions on force reductions will be 
conditions based. This fall, General Allen will prepare his 2012 
fighting season analysis, assessment of the Afghan National Security 
Forces (ANSF) readiness, and will develop and assess options for post-
surge force levels.
    General Allen's assessment and recommendations will inform, along 
with the Chairman's military advice, my recommendations to the 
President. Primary considerations include the capabilities of both the 
ANSF and the insurgency, the overall security situation across the 
country at the end of the 2012 fighting season, and the projected 2013 
security environment. Security must be considered along with other 
factors, such as progress in transitioning districts and Afghan 
governance development. The security transition process will be 
particularly important, as Afghanistan prepares for the final two 
tranches of Afghan districts that will enter transition. We must ensure 
we have the right mix of United States, International Security 
Assistance Force (ISAF), and ANSF units available to allow the Afghan 
forces to assume the lead in these last transitioning districts. 
Finally, General Allen will assess the required composition of U.S. 
forces on the ground in order to achieve the correct balance of 
conventional, security force assistance, special operations, and 
enabling forces for the future security environment.
    Question. Are Afghan forces still on track to take the lead in 
security matters by mid-2013?
    Answer. ANSF remain on schedule to assume the lead for security in 
Afghanistan in 2013 once Tranche 5 districts begin transition. The ANSF 
continue to grow in capability and size and are increasingly taking the 
lead in planning and conducting operations. Both the Afghan National 
Army (ANA) and Afghan National Police are becoming increasingly 
independent, and the ANA are in the process of establishing its first 
division-sized special operations forces unit.
    Tranche 3 districts will begin transition in July 2012 and at that 
time more than 75 percent of the Afghan population will live in areas 
where the ANSF are in the lead for security. We expect the Afghan 
Government to announce the districts composing Tranche 4 this winter 
and Tranche 5 in mid-2013. Additionally, security conditions are 
assessed as stable in locations where Afghan forces have assumed a lead 
security role. In 2012, enemy-initiated attacks in transitioning 
districts have fallen year to date overall by approximately 15 percent 
from 2011 levels.
    Question. How confident are you that they will be able to assume 
and sustain the lead for security matters?
    Answer. ANSF remain on schedule to assume and maintain the lead for 
security matters. The ANSF are on track to assume lead security across 
Afghanistan as Tranche 5 is implemented in 2013. The International 
Security Assistance Force (ISAF) will continue to train, advise, and 
assist the ANSF as transition process continues through the end of 
2014. At that Point, the Afghans will assume full responsibility for 
security in Afghanistan in accordance with the Lisbon transition 
strategy and timeline.
    However, the international community will not end its commitment to 
Afghanistan in 2014. The North Atlantic Treaty Organization (NATO) 
Summit in Chicago reaffirmed the international community's enduring 
commitment to Afghanistan. The United States remains committed to a 
mission that trains, advises, and assists Afghan forces post-2014, as 
expressed in the Strategic Partnership Agreement signed in May 2012. 
The United States and Afghanistan are committed to a series of 6-month 
reviews to assess the development and structure of the ANSF. These 
collaborative reviews will ensure that the ANSF size and force 
structure are suitable and sustainable for the projected security 
environment.
    Question. What is your current assessment of the ability of Afghan 
forces to assume full responsibility for security matters by the end of 
2014?
    Answer. ANSF are currently on track to assume full responsibility 
for security in Afghanistan by the end of 2014, in accordance with the 
timeline agreed to at the NATO Lisbon Summit, and as reaffirmed at the 
NATO Chicago Summit. The ANSF are on track to reach their October 2012 
goal of 352,000 personnel. The ANSF also continue to grow in 
capability. Currently, more than 90 percent of all combat operations 
are partnered between ANSF and ISAF forces, and the ANSF have the lead 
for more than 50 percent of these operations. Additionally, the ANSF 
have increasingly been accepting custody of detainees detained by U.S. 
forces and are taking the lead in the conduct of special operations.
     the united states-afghanistan strategic partnership agreement
    Question. The U.S.-Afghanistan Strategic Partnership Agreement 
would allow U.S. forces to remain in Afghanistan after 2014 for 
training Afghan security forces and targeting al-Qaeda.
    How many U.S. troops do you anticipate will remain in Afghanistan 
after 2014?
    Answer. The United States, along with its NATO allies, intends to 
maintain an enduring presence to support the continued training and 
development of the Afghan National Security Forces (ANSF), and to 
engage in counterterrorism efforts aimed at combating al-Qaeda and its 
affiliates. Future force-level requirements will be determined by 
taking into account what assets are needed to support those missions, 
and will be guided by the need to ensure that Afghanistan has the 
ability to secure itself against internal and external threats.
    Towards that end, an Afghanistan-U.S. Bilateral Commission was 
established under the Strategic Partnership Agreement (SPA) to advance 
cooperation and monitor progress toward implementing the SPA. A U.S.-
Afghanistan Working Group on Defense and Security will conduct regular 
assessments of the threat level facing Afghanistan, as well as 
Afghanistan's security and defense requirements. This working group 
will make recommendations about future cooperation between the United 
States and Afghanistan on Afghanistan's security and defense 
requirements. Recommendations will be made to the Bilateral Commission.
    The nature and scope of the future presence and operations of U.S. 
forces are expected to be addressed in a future U.S.-Afghanistan 
Bilateral Security Agreement.
    Question. How long will they be engaged in the missions described 
in the Agreement?
    Answer. The Strategic Partnership Agreement will remain in force 
through 2024. The United States is committed to seek funds on a yearly 
basis during that period to support the missions described in the 
Agreement. The duration and nature of our enduring presence will be 
determined through an examination of what assets are needed to support 
the sustainment of ANSF, and U.S. counterterrorism efforts against al-
Qaeda and its affiliates.
    Towards that end, an Afghanistan-U.S. Bilateral Commission was 
established under SPA to advance cooperation and monitor progress in 
the implementation of the SPA. A U.S.-Afghanistan Working Group on 
Defense and Security will conduct regular assessments of the threat 
level in Afghanistan as well as Afghanistan's security and defense 
requirements. The nature and scope of the future presence and 
operations of U.S. forces is expected to be addressed in a future U.S.-
Afghanistan Bilateral Security Agreement.
    The SPA was designed to provide a long-term political framework for 
relations between the United States and Afghanistan that promotes the 
strengthening of Afghan sovereignty, stability, and prosperity, and 
that contributes to the shared goal of defeating al-Qaeda and its 
extremist affiliates. The enduring partnership established by the SPA 
sends a clear signal to the Afghan people that they are not alone as 
they take greater responsibility for their country.
    Question. What will be the major challenges to concluding a 
Bilateral Security Arrangement to supersede our Status of Forces 
Agreement?
    Answer. As with other negotiations, we generally do not publicly 
discuss U.S. negotiating positions, nor those of our negotiating 
partners. The Bilateral Security Agreement (BSA) is expected to set the 
parameters for the nature and scope of the future presence and 
operations of U.S. forces in Afghanistan, and the related obligations 
of Afghanistan and the United States.
    There are a number of elements common to most status of forces 
agreements (SOFAs). SOFAs typically address the majority of day-to-day 
issues that may arise regarding the presence of U.S. forces in a host 
nation. As a result, SOFAs generally include provisions addressing 
criminal and civil jurisdiction over U.S. forces and DOD civilian 
personnel, use of agreed facilities and areas, movement of vehicles, 
tax and customs exemptions, contracting procedures, access to and use 
of utilities and communications, and entry into and exit from the host 
nation, among others.
    The BSA will also take into account the particular circumstances 
and requirements of U.S. forces in Afghanistan, such as continued 
access to and use of Afghan facilities for the purposes of combating 
al-Qaeda and its affiliates, training the ANSF, and other mutually 
determined missions to advance shared security interests. The transfer 
of U.S. detention facilities and the conduct of special operations, 
currently guided by U.S.-Afghanistan memoranda of understanding, may 
also be issues that are discussed during the BSA negotiations.
    Question. The Agreement requires the administration to seek funding 
from the Congress for the ``training, equipping, advising and 
sustaining of Afghan National Security Forces, as well as for social 
and economic assistance.''
    How much will this cost?
    Answer. Preliminary plans for the long-term training, equipping, 
advising, and sustaining of the ANSF call for an estimated annual 
budget of $4.1 billion. The plan calls for the ANSF to achieve a surge 
strength of 352,000 personnel by October 2012, which would be sustained 
through 2015 before drawing down to a sustainable long-term force by 
2017. We have received commitments and pledges from the Afghan 
Government and the international community to assist in funding the 
ANSF, and we will continue to pursue international contributions in the 
future. We will also continue to work closely with the Government of 
Afghanistan and our allies and partners to evaluate the security 
conditions on the ground that may alter the assessment of future ANSF 
structure and the associated budget estimate.
    Question. How confident are you that our NATO partners will 
contribute and the United States will not be left with the whole bill?
    Answer. At the 2012 NATO Summit in Chicago, our NATO allies and 
other international partners reaffirmed their strong commitment to an 
enduring partnership with Afghanistan that will last beyond the 
transition of full security responsibility to the Afghan forces by the 
end of 2014. The Afghan Government pledged to provide at least $500 
million a year for the ANSF beginning in 2015 and to increase this 
amount progressively over time as its economy continues to grow. The 
international community also recognized Afghanistan's current economic 
and fiscal constraints and pledged to provide significant additional 
funding.
    Additionally, over the past 6 months, Afghanistan has signed 
partnership agreements with a number of other countries around the 
world, many of them NATO allies and ISAF partners, including:
  --the United Kingdom;
  --France;
  --Italy;
  --Germany;
  --Norway;
  --Australia; and
  --India.
Afghanistan is also negotiating a long-term partnership agreement with 
the European Union. We believe this web of long-term partnerships will 
help support Afghanistan after the security transition, ensuring that 
the international community remains engaged in support of the Afghan 
people in the years following the conclusion of ISAF's mission.
    The international community continued to show its support at the 
recent conference on Afghanistan's continued economic and social 
development after 2014, the Tokyo Conference, agreeing to provide $16 
billion in civilian aid over 4 years.
                     afghanistan--counternarcotics
    Question. The drug trade is a major source of Taliban funding, with 
the U.N. Office on Drugs and Crime estimating that in 2009, the Taliban 
earned about $155 million from the drug trade by taxing farmers, 
shopkeepers, and traffickers in return for security protection. The 
Helmand Food Zone is generally regarded as a success in reducing poppy 
cultivation. The administration has indicated support for expanding 
this program; however, this depends on international funding, local 
political will, and especially security.
    With the 2014 U.S. departure date, what steps is your Department 
taking to limit poppy cultivation and drug profits to the Taliban 
following the U.S. withdrawal?
    Answer. We continue to build the Afghan capacity to counter the 
drug trade and reduce drug-related income to the Taliban. United States 
forces have trained units within the Counternarcotics Police of 
Afghanistan that are currently capable of conducting counternarcotics 
(CN) operations with limited enablers from Coalition forces. We have 
built aviation enablers for the CN effort that will be merged with 
aviation assets to support the Afghan counterterrorism effort. Training 
for this unit includes operations that insert CN forces under the cover 
of darkness.
    United States forces in Afghanistan do not directly support poppy 
eradication efforts other than to provide in extremis support to 
eradication teams under attack, consistent with North Atlantic Treaty 
Organization (NATO)/International Security Assistance Forces (ISAF) 
policy. The U.S. Department of State supports the Afghan Government's 
``Governor Led Eradication'' (GLE) program. While final, verified 
results are not available for the GLE at this time, the program is on 
track to more than double last year's result of 3,810 hectares of poppy 
eradicated.
    I believe that the eradication effort must be carefully planned to 
inflict the most damage on major drug producer's poppy crop and include 
alternative livelihood efforts to provide poor farmers with an 
alternative to poppy cultivation. This requires a whole-of-government 
approach led by the Afghan Government with enabling support from the 
U.S. Government.
    Question. What programs and methods do you see as most effective in 
curbing Afghan drug production and Taliban involvement in the drug 
trade given the security situation in Afghanistan and the impending 
departure of international troops?
    Answer. I believe the most effective method in reducing the Afghan 
illicit drug production, and the Taliban's involvement in the drug 
trade has been conducting joint military and law enforcement operations 
against key nexus targets and involving the Afghans in these 
operations. The counter narco-terrorist effort, however, must engage a 
whole-of-government approach. All of the tools to engage the drug trade 
must be coordinated to achieve the greatest effect. The Afghan 
Government outreach to farmers occurs in the fall when farmers are 
determining what crops they will plant for the next season. The Afghan 
Government should strongly push tribal elders and farmers to not plant 
poppy. Alternative development needs to be available to farmers so they 
have support for other options over growing poppy. Eradication needs to 
target wealthy land owners that gain the most profit from poppy 
production. Corrupt Afghan Government officials involved in the drug 
trade and those police forces establishing unauthorized road 
checkpoints and harassing farmers as they try to get their licit 
produce to market, should be arrested and tried in a court of law 
without political interference. We need to continue to train and mentor 
Afghan CN forces so they can take on this responsibility. Security will 
be key, and the Afghan security forces need to be up for the task.
    The U.S. Government will need to continue to support the CN effort 
in Afghanistan post 2014 including continuing to build the Afghan CN 
capacity and providing enabling support.
    Question. As the Chair of the Senate Caucus on International 
Narcotics Control, I have concerns that illicit drug organizations will 
proliferate and increase aggression towards remaining United States and 
Afghan CN personnel following a military withdrawal.
    Given the link between drug trafficking organizations and terrorist 
organizations, can you advise the future role the Department of Defense 
(DOD) will have in a ``post withdrawal era'' in supporting CN efforts 
in the Afghanistan region?
    Answer. Over the past 8 years, DOD has worked closely with other 
U.S. departments and agencies to build the Afghan CN capacity primarily 
with specialized units. We seek to expand that capacity to the 
provincial-level forces for greater effect. We have also built 
enablers, specifically an aviation capacity, that is currently being 
merged with Afghan counterterrorism efforts. U.S. Special Operations 
Forces are expected to continue to operate in Afghanistan beyond 2014 
and could support training and mentoring the Afghan CN forces.
    DOD has also been building CN capacity within the region, 
specifically in Central Asia. This support has focused on border 
security operations in an attempt to interdict drug shipments from 
Afghanistan into and through Central Asia. DOD's CN efforts in Pakistan 
have been limited lately, although we have supported the U.S. Drug 
Enforcement Administration's efforts to build the capacity of 
Pakistan's Anti-Narcotics Force. I look forward to the potential of 
providing more support to the Pakistan coastal forces and assisting 
them with training and equipment in support of drug interdiction 
operations at sea.
    Subject to funding being provided, DOD will continue to support CN 
efforts in Afghanistan and the region.
                            taiwan and f-16s
    Senator Cornyn agreed to lift his hold on the nomination of Mark 
Lippert to be the next Assistant Secretary of Defense for Asian and 
Pacific Security Affairs after he received a letter from the 
administration indicating that it would give ``serious consideration'' 
to a proposal to sell Taiwan 66 new F-16 fighters. Last year, the 
administration declined to sell the new F-16s to Taiwan and, instead, 
agreed to a $5.8 billion upgrade of Taiwan's existing fleet of F-16s. 
Senator Cornyn and others denounced the administration's decision 
arguing that Taiwan needed the newer F-16s to better match China's air 
superiority. China strongly opposes the sale of new F-16s to Taiwan.
    Question. What does ``serious consideration'' mean?
    Answer. The Taiwan Relations Act provides that ``. . . the United 
States will make available to Taiwan such defense articles and defense 
services in such quantity as may be necessary to enable Taiwan to 
maintain a sufficient self-defense capability.'' The Department of 
Defense takes this responsibility seriously and endeavors to work 
closely with the interagency to evaluate Taiwan's needs and provide 
recommendations to the President on what defense articles and services 
are appropriate for Taiwan.
    Recommendations are based on the projected threat from the mainland 
and an evaluation of the China-Taiwan relationship--political and 
military--which is an on-going process.
    Question. Has the security situation across the straits changed 
significantly since the administration agreed to upgrade Taiwan's 
existing fleet of F-16 A/B models?
    Answer. No. As detailed in the 2012 report to Congress on the 
Military and Security Developments Involving the People's Republic of 
China (PRC), the People's Liberation Army continues to focus on 
building the capacity to coerce Taiwan to reunify with the PRC. In 
light of China's continued development and deployment of advanced 
weapons systems to the military regions opposite Taiwan, we judge that 
the military balance continues to shift in the mainland's favor.
    Question. I understand that there is not much difference in 
capabilities between the upgraded F-16 A/B models and the new F-16 C/D 
models.
    What new capabilities would the C/D models provide?
    Answer. The U.S. Government-approved F-16 A/B retrofit capabilities 
are very similar to those featured in new F-16 C/Ds. The F-16 A/B 
retrofit will enhance avionics, survivability, combat effectiveness, 
and the cockpit environment of Taiwan's current fleet of F-16s, as well 
as contribute to the refurbishment of aging structural airframe 
components. F-16 C/D has a more robust engine and an option for 
conformal fuel tanks providing additional fuel capacity.
    Question. What threats would they respond to?
    Answer. The F-16 is a combat aircraft capable of providing air-to-
air combat and air-to-surface support. F-16s provide Taiwan the 
capability to defend the island against air attacks.
    Question. What significant action could China take to ease its 
military posture in the strait in a manner that was substantive enough 
for you to consider or reconsider the future arms sales to Taiwan?
    Answer. The Taiwan Relations Act provides that ``the United States 
will make available to Taiwan such defense articles and defense 
services in such quantity as may be necessary to enable Taiwan to 
maintain a sufficient self-defense capability.'' Evaluation of the 
China-Taiwan relationship--political and military--is an on-going 
process; sales of arms and defense services to Taiwan are evaluated in 
this context.
    DOD along with other U.S. departments and agencies provide 
recommendations to the President on what defense articles and services 
are appropriate for Taiwan. DOD bases its recommendations on the 
projected threat from the mainland. This threat is steadily increasing 
across multiple mission areas.
    China's Anti-Secession Law, expansive military, and extensive 
doctrine and plans to invade Taiwan leave little doubt about China's 
intentions. China would need to make significant and permanent changes 
to its military that would reduce the threat to Taiwan. DOD has not 
seen any indications that would imply that China is currently making 
the necessary changes that would cause DOD to reconsider future arms 
sales to Taiwan.
                       al-qaeda threats in africa
    Question. For the past few years, al-Qaeda in the Islamic Maghreb 
(AQIM) has been almost an afterthought, but obviously DOD is actively 
working to defeat al-Qaeda wherever they find a safehaven.
    What threat does AQIM pose in light of the current instability in 
North Africa?
    Answer. AQIM is a regional affiliate of al-Qaeda and the Department 
takes the threat it poses very seriously. DOD works to build the 
capacity of front line states, like Mauritania, Niger, and others, to 
counter the threat posed by the group. The fluid political situation in 
North Africa and the Sahel--and the limited ability of governments to 
control their territory--raises the possibility that AQIM could enjoy 
greater freedom of movement. That freedom of movement might enable the 
group to more effectively target local, U.S., and other Western 
interests.
    Question. Do you see indications of links among AQIM, al-Shabaab in 
Somalia, and al-Qaeda in the Arabian Peninsula (AQAP) in Yemen?
    Answer. We are always concerned about the possibility that regional 
terrorist organizations will cooperate and share capabilities. A 
classified answer to this question is being provided separately
                            nuclear weapons
    Question. The House fiscal year 2013 Defense Authorization bill 
contains a number of troubling provisions related to nuclear weapons:
  --if the President does not spend $88 billion to upgrade our nuclear 
        labs and $125 billion over 10 years to replace aging bombers, 
        submarines, and land-based missiles our reductions to our 
        nuclear stockpile mandated by the New Strategic Arms Reduction 
        Treaty (New START) would be halted;
  --it places significant restrictions on reducing or withdrawing 
        tactical nuclear weapons in Europe and mandates a report on re-
        introducing these weapons in South Korea; and
  --it would provide $160 million for a new plutonium facility the 
        National Nuclear Security Administration (NNSA) says it does 
        not need.
    If the United States ceased complying with the terms of the New 
START agreement, how would Russia respond?
    Answer. I can only speculate how Russia might respond if, for some 
reason, the United States were forced to cease complying with the terms 
of the New START. Russia might choose to delay or halt its own 
compliance activities. This would leave open the possibility that 
Russia might act to increase the size of its nuclear forces above the 
New START Treaty (NST) limits.
    Question. What would be the long-term impact on our strategic 
relationship with Russia?
    Answer. The most probable long-term impact of withdrawing from the 
NST would be a weaker and more unpredictable strategic relationship 
with Russia because of the increased uncertainty that would come from 
reduced transparency. NST provides both the United States and Russia 
with a degree of transparency that helps promote strategic stability. 
For both the United States and Russia, accurate knowledge of each 
other's nuclear forces helps to prevent the risks of misunderstanding, 
mistrust, and worst-case analysis and policymaking.
    It is important to note that greater instability in the United 
States-Russian relationship would have an impact on others, including 
our allies (who highly prize strategic predictability) and China (which 
might perceive a need to significantly increase its forces).
    Question. What would be the impact on our ability to convince Iran 
and North Korea to forgo their nuclear programs?
    Answer. It is unclear what, if any, impact a hypothetical United 
States withdrawal from NST would have on Iran and North Korea. Both 
countries desire to possess weapons of mass destruction not because of 
U.S. nuclear capability, but because of the conventional superiority of 
the United States and its allies and partners. However, as we negotiate 
to encourage both Iran and North Korea to abandon nuclear weapon 
programs, a hypothetical United States withdrawal from its NST 
commitments could work against efforts because it would create a 
negative image of the United States' commitment to its own 
international obligations.
                             sequestration
    Question. Secretary Panetta, I'm going to paraphrase some points 
you made in a letter you sent to Senator McCain this past November as 
follows:
  --``. . . the reduction in defense spending under maximum 
        sequestration would amount to 23 percent if the President 
        exercised his authority to exempt military personnel.''
  --``. . . Under current law, that 23 percent reduction would have to 
        be applied equally to each major investment and construction 
        program and would render most of our ship and construction 
        projects unexecutable--you cannot buy three quarters of a ship 
        or a building.''; and
  --``. . . We would also be forced to separate many of our civilian 
        personnel involuntarily and, because the reduction would be 
        imposed so quickly, we would almost certainly have to furlough 
        civilians in order to meet the target.''
    Secretary Panetta, has Office of Management and Budget (OMB) 
provided further clarification on how the cuts would be applied to our 
accounts and do you still believe if the President does exempt our 
military personnel that the reductions would still amount to 23 
percent, and we would need to furlough civilians?
    Answer. As of June 13, 2012, OMB has not provided further 
clarification. Should the President exempt military personnel, our best 
estimate at this time is the reductions will amount to around 23 
percent. We strongly believe the Congress should act to halt 
sequestration. We have not announced reductions-in-force or furloughs 
and will make that decision if and when we have to implement the 
sequestration reductions.
                        prescription drug abuse
    Question. The Department of Defense (DOD) has utilized the Pharmacy 
Data Transaction Service (PDTS) that records information about 
prescriptions filled worldwide for Defense Department beneficiaries. 
However, I understand that DOD does not currently share this 
information with State Prescription Drug Monitoring Programs (PDMP) at 
Defense Department hospitals and facilities. Sharing of this 
information would help to prevent an individual from obtaining a 
prescription from a private hospital then receiving that same 
prescription at a Defense Department hospital.
    When does DOD plan to implement guidelines to allow prescription 
drug information sharing with state prescription drug monitoring 
programs?
    Answer. PDTS records information about prescriptions filled for DOD 
beneficiaries through medical treatment facilities (MTFs), TRICARE 
Retail Network Pharmacies and the mail order pharmacy (MOP) program. 
PDTS conducts on-line, real-time prospective drug utilization review 
(clinical screening) against a patient's complete medication history 
for each new or refilled prescription before it is dispensed to the 
patient. The clinical screenings identify potential patient safety, 
quality issues, or drug duplication issues which are immediately 
resolved to ensure the patient receives safe and quality care.
    DOD is currently sharing data with PDMP through the TRICARE Mail 
Order Pharmacy and Retail Network Pharmacies. However, the MTF 
pharmacies, in general, have not been sharing information with State 
PDMPs due to lack of information technology (IT) capability to 
interface with the 50 different programs and 50 different sets of 
requirements for accessing the States' systems. The challenge remains 
that there is not a national standard for PMDPs, and the State programs 
are at varying levels of maturity, operationally and technologically. 
Each State controls who will have access and for what purpose. Since 
the State PMDPs requirements are inconsistent, DOD as a single, Federal 
entity, cannot conform to 50 different PMDP standards. In addition, 
information sharing is limited because access to PDMPs is usually 
limited to providers who are licensed in the State. Since MTF providers 
who work on Federal facilities are only required to have one State 
license, and generally not licensed in the State in which the facility 
is located; therefore, they typically do not have access to the PDMP 
prescription data.
    TRICARE Management Activity (TMA) Pharmaceutical Operations 
Directorate (POD) is currently assessing various technical approaches 
and levels of effort (i.e., funding requirements) to determine the best 
solution for MTF data sharing with State PMDPs. TMA is looking at the 
best file format and data transfer mechanisms to support this effort 
and what the costs to DOD will be. TMA and the services are assessing 
current policies, Federal legislation, and privacy considerations 
(i.e., Health Insurance Portability and Accountability Act (HIPAA)) to 
determine the best approach for participation in the various PMDPs by 
MTF pharmacies. In addition, TMA POD and the contractor that supports 
PDTS are currently working on an approach to support the State PMDPs 
and determine if there are any privacy and legal requirements/
implications. Once the Government approves the approach, a rough order 
of magnitude cost estimate will be developed. The TMA POD anticipates 
determination of the level of effort for supporting PDMPs by October 
2012.
                   evolved expendable launch vehicle
    Question. Secretary Panetta, I am concerned that the Air Force is 
entering into an acquisition strategy on the Evolved Expendable Launch 
Vehicle (EELV) program that will prevent new entrants to compete prior 
to fiscal year 2018.
    Have you looked at the terms and conditions of this proposed 
contract structure and can you guarantee the Government can walk away 
without any liability from the contract if new entrants become 
certified prior to fiscal year 2018?
    Answer. The terms and conditions of the proposed contract have been 
reviewed. The Air Force's plan expects new entrants, as soon as they 
are certified, to compete for National Security Space launch missions 
not covered under EELV's Phase I minimum commitment. Thus, there is no 
need for the Government to ``walk away'' from its existing contractual 
commitments.
                                 ______
                                 
                Question Submitted by Senator Herb Kohl
    Question. The administration has announced a new strategy focused 
on Asia and the Pacific Ocean. Part of this strategy includes deploying 
the USS Freedom to Singapore. The Freedom is the first of what we hope 
will be many littoral combat ships (LCSs) built in Wisconsin.
    The Navy has on many occasions described the LCS as one of the 
backbones of our Nation's future fleet. Do you believe, as I believe, 
that the LCS is indeed a key part of executing our new defense 
strategy?
    Answer. LCS is a key component of the Navy's current and future 
force and will fulfill multiple mission requirements of the Defense 
Strategic Guidance (DSG). LCS will meet warfighting needs in the areas 
of mine countermeasures, anti-submarine warfare, and anti-swarm defense 
to counter adversary anti-access/area-denial efforts. Beyond the 
warfighting demands, these ships will also be called upon to defend the 
homeland by conducting maritime intercept operations; providing a 
stabilizing presence by building partner capacity, strengthening 
alliances and increasing U.S. influence; and conducting stability and 
counterinsurgency operations through security force assistance and 
other engagement missions. Owing to their speed, smaller size, and 
relatively shallow draft, these ships offer partner navies compatible 
ships with which to operate on a more equivalent basis.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
    Question. Please list the 15 oldest hospitals that are still in use 
at domestic U.S. Army installations.
    Answer.

------------------------------------------------------------------------
                   Name                           Acquisition date
------------------------------------------------------------------------
Ireland Army Community Hospital...........  1957 (Fort Knox).
Irwin Army Community Hospital.............  1957 (Fort Riley).
Martin Army Community Hospital............  1958 (Fort Benning).
General Leonard Wood Army Community         1965 (Fort LW).
 Hospital.
Darnall Army Medical Center...............  1966 (Fort Hood).
Weed Army Community Hospital..............  1968 (Fort Irwin).
William Beaumont Army Medical Center......  1972 (Fort Bliss).
Moncrief Army Community Hospital..........  1972 (Fort Jackson).
Eisenhower Army Medical Center............  1975 (Fort Gordon).
Keller Army Community Hospital............  1977 (West Point).
Blanchfield Army Community Hospital.......  1982 (Fort Campbell).
Winn Army Community Hospital..............  1983 (Fort Stewart).
Bayne-Jones Army Community Hospital.......  1983 (Fort Polk).
Evans Army Community Hospital.............  1986 (Fort Carson).
Madigan Army Medical Center...............  1990 (Joint Base Lewis
                                             McCord).
------------------------------------------------------------------------

    Question. Please also provide clarification on the criteria the 
Army uses for determining the need for replacing hospitals on U.S. 
military installations. What thresholds need to be met to justify a 
hospital replacement?
    Answer. The TRICARE Management Activity (TMA) uses a Capital 
Investment Decision Model (CIDM) to support validation of facility 
requirements, ensure that facility investments are aligned with the 
Military Health System priorities and strategic goals, and improve 
inter-service and inter-agency collaboration. CIDM criteria include:
  --Mission change needs (e.g., change in scope of clinical services to 
        be provided, increases or additions to programs, implementation 
        of new care delivery models). Externally imposed changes, such 
        as population changes in the Army stationing plan or unit re-
        stationing plans, are considered when identifying locations 
        that require facility projects.
  --Collaborative synergies (e.g., the extent that the facility is a 
        constraint to achieving greater collaboration and integration 
        among the Departments of Defense (DOD), Veterans Affairs (VA), 
        other Federal agencies, or the private sector).
  --Location constraints (e.g., remoteness, medically underserved).
  --Effectiveness of infrastructure (e.g., physical and functional 
        deficiencies).
  --Life, health, or safety issues that cannot be addressed through 
        Sustainment, Restoration and Modernization resources.
    The CIDM provides the multi-faceted threshold for facility scoring 
that is used by a tri-service Capital Investment Review Board (CIRB) to 
derive an Order of Merit list (OML). The OML supports the determination 
of which hospital will be replaced and in what order.
    Question. Last, when analyzing a hospital's usage data, does the 
Army also take into account the number of military patients who would 
prefer to receive care at a medical facility on-base, but who are 
unable to do so because services and specialists are not currently 
available?
    Answer. The Army medical planning process is designed to support 
the mission of the medical facility by focusing on the staff and the 
space available to support the population and workload demand. A market 
analysis is conducted to review the availability of healthcare 
providers and services in the market, as well as the utilization of 
these services by the beneficiary population. The combination of site/
facility and market analysis drives the requirements for facility 
planning. Market utilization serves as a proxy for health services 
demand. Beneficiary preference is not explicitly considered as part of 
this process.
    Question. I am told that the Navy has not modernized the Mk 45 
large caliber naval gun--designed in the mid-1970s--although it was 
apparently intended to have an overhaul after 15 years of service.
    Can you please explain why the Navy has modernized similarly aged 
guns on Destroyer ships, but has not overhauled or upgraded Mk 45 guns 
on Cruiser ships?
    Are there any plans to overhaul or upgrade these guns?
    More generally, is the Navy concerned about maintenance of large 
caliber naval gun capability?
    Answer. Beginning in 2008, the Navy has been actively overhauling 
and upgrading the Cruiser Mk 45 guns, via the Cruiser Modernization 
Program. To date, gun overhauls and upgrades have been made on nine 
Cruisers. Additional Mk 45 gun overhauls and upgrades are being 
executed on two Cruisers.
    Outside of the planned overhauls in the Cruiser Modernization 
Program, the Navy continues to overhaul and upgrade Mk 45 guns from 
decommissioned ships for installation on DDG-51 new construction ships. 
The Mk 45 guns that remain in service in their as-built configuration 
will continue to receive regular pier-side maintenance availabilities 
at 5-year intervals.
    The Navy plans to keep the guns in service to the end of the 
service life of the ships and will continue to maintain the guns 
through an effective pier-side maintenance program.
    Question. Does the Navy have any plans to enhance the capability of 
the Mk 45 gun system to execute ship to shore missions in the future?
    Answer. We are reviewing our options to develop a precision guided 
munitions program for our 5-inch projectiles. The Center for Naval 
Analysis is conducting a follow-on study to the Joint Expeditionary 
Fires Analysis of Alternatives. This study will analyze the 
contributions of all joint and fleet fires to support Navy science and 
technology efforts, existing campaign analysis and the development of a 
long-term Naval Gun transition plan. This study is expected to be 
complete this fall and will ultimately contribute to an extended range, 
precision guided munitions program. Our desire is to augment Naval 
precision fires with viable and cost-wise 5-inch naval gunfire 
solutions.
    Question. Does DOD support the co-production and participation of 
the U.S. aerospace industry in the Iron Dome defense program? If so, 
what plans does DOD have to incorporate the U.S. aerospace industry 
into co-production of this program? Has DOD communicated any such plans 
to its counterparts at the Israeli Ministry of Defense?
    Answer. Yes, DOD supports fully Iron Dome co-production and 
participation of the U.S. aerospace industries in the Iron Dome defense 
program. In an Exchange of Letters with the Israeli Ministry of Defense 
concerning Iron Dome funding, the United States specifically requested 
Israeli support for exploring co-production opportunities.
    The Israel Missile Defense Organization (IMDO) recently engaged 
with its prime contractor and potential U.S. sub-contractors to develop 
an acquisition strategy supporting U.S. co-production of Iron Dome 
interceptor components.
    Question. Is there precedent from the Arrow and David's Sling 
programs for such an arrangement?
    Answer. There is precedent for both dual-source component 
production and for U.S. industry being the sole supplier of missile 
components to an Israeli prime contractor's production line.
    Under the terms of the Arrow System Improvement Program (ASIP) 
memorandum of understanding, IMDO directed Israeli Aerospace Industries 
to establish itself as a dual-source supplier with U.S. industry for 
Arrow-2 booster motors and major subcomponents to increase missile 
production capacity. U.S. industry completed deliveries of Arrow-2 
components in 2010.
    The David's Sling Weapon System and Arrow-3 production agreements 
are still being discussed, but the development programs for both of 
these systems assume that the Israeli prime contractors will establish 
subcontract agreements with U.S. suppliers for certain components to be 
built in the United States, including motors, guidance computers, 
launch systems, and batteries.
    Iron Dome is an Israeli-developed and produced system used solely 
by the Israeli military. Israeli industry has subcontracted with U.S. 
firms for some subcomponents. The Missile Defense Agency (MDA) has 
asked IMDO for a list of those firms and subcomponents as part of our 
effort to explore co-production opportunities. This effort is ongoing.
    Regarding co-production of Iron Dome for U.S. defense purposes 
(including the Tamir interceptor), there is no U.S. operational 
requirement for this weapon system. MDA intends to pursue data rights 
and technical data packages (TDPs) that would enable production of the 
Iron Dome weapon system should a U.S. operational requirement arise in 
the future. Additional acquisition steps would need to be taken to 
execute a co-production program, even if the United States had TDPs and 
data rights. MDA would have to develop an acquisition strategy, 
determine a production decisionmaking authority, establish source 
selection, and budget funds for procurement, operations, and 
sustainment. These activities are not currently planned due to the lack 
of a U.S. operational requirement.
    Question. Would a second source of U.S. manufactured interceptors 
and launchers provide greater supply chain readiness in the production 
of this system and better support for the inventory objectives of our 
ally, Israel?
    Answer. Although a second source of inventory is typically 
preferred, Israel has not raised improved Iron Dome supply chain 
readiness and support for inventory objectives as a concern. Moreover, 
the cost to establish or maintain a second source was not included in 
Israel's funding profile, and Israeli Ministry of Defense (IMOD) 
officials have stated that their industry can meet their Iron Dome 
production needs.
    Question. Admiral Gary Roughead provided a plan to sustain the 
Phalanx Block 1B Close-in Weapon System (CIWS) in a December 2010 
letter, stating ``a seven-year overhaul cycle provides the most 
efficient path to maintaining operational availability . . . our CIWS 
Program Manager assesses that 36 overhauls per year will be needed 
beginning in FY12.''
    I am told that the Navy later determined a more affordable 20-year 
plan would necessitate 20 overhauls per year coupled with 52 
reliability, maintainability, and availability (RMA) kits per year, 
beginning in fiscal year 2013, to maintain the required operational 
availability.
    To date, I am informed that the Navy has not made funding requests 
sufficient to meet the requirements outlined in either plan above.
    What will be the overall impact of this shortfall across the Future 
Years Defense Program?
    Answer. Based on the President's budget for fiscal year 2013 CIWS 
maintenance funding profile, which established a threshold of 52 
Reliability, Maintainability and Availability (RM&A) kits and 20 Class 
A overhauls, there will be no overall impact across the Future Years 
Defense Program. In fiscal year 2013, our funding request includes 24 
RM&A kits and 8 Class A overhauls. The profile then ramps up to exceed 
the threshold for RM&A kits in fiscal year 2015 and to exceed the 
threshold for Class A overhauls in fiscal year 2016.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
    Question. How does the Department of Defense (DOD) plan on 
commemorating the 100th anniversary of World War I and the 75th 
anniversary of World War II?
    Answer. Looking ahead to the 75th anniversary commemoration of 
World War II and the centenary of World War I, DOD anticipates a range 
of activities to honor the men and women who served in those immense 
conflicts. As with previous commemorations, we expect to work closely 
with organizations that share our commitment to these events, including 
veterans groups, educational institutions, and State and local 
governments. Because the dates for these observances are still several 
years away (2016 for World War II and 2017 for American involvement in 
World War I), plans have not yet taken shape.
    Question. A December 2011 Navy Inspector General (IG) report 
concluded ``. . . the history and heritage of the U.S. Navy is in 
jeopardy.'' Is the Naval History & Heritage Command (NHHC) the only 
military history program in DOD that stores its collection of 
documents, photographs, art works, and artifacts in facilities with 
broken or nonexistent temperature and humidity controls or is this 
common throughout the history programs of the Marine Corps, Air Force, 
and Army? Is our Navy's history and heritage worth preserving in your 
view?
    Answer. The Air Force Historical Research Agency is the official 
repository for some 750,000 historical documents. Following the 
installation of an archival-quality heating, ventilation, and air 
conditioning system in 2010, its archival material is currently stored 
in a facility with highly effective, archival-standard temperature and 
humidity controls. The system also screens particulate matter. In 
addition, the lights have ultraviolet light screens to limit damage to 
documents. The Air Force Art Program, which contains more than 10,000 
pieces, stores its art in climate controlled conditions as well and 
requires that items on loan be properly protected while on display. The 
National Museum of the Air Force, certified by the Association of 
American Museums, maintains its heritage collection of artifacts and 
photographs in climate controlled conditions. Although the most 
valuable of the aircraft collection are indoors, some aircraft because 
of their large sizes, are displayed outdoors and maintained under clear 
guidelines for the protection and preservation of these artifacts.
    The Army also has a large collection of documents, photographs, art 
works, and artifacts, but the facilities for such activities are, on 
the whole, sufficient to preserve them. The U.S. Army Museum Support 
Center at Fort Belvoir, Virginia, was recently opened as a state-of-
the-art facility for conserving and preserving the Army's central 
artifact collection worth approximately $1 billion and its priceless 
Army Art Collection comprising more than 12,000 works of original 
soldier art. The facility was built with an heating, ventilation, and 
air-conditioning (HVAC) system that maintains the proper humidity and 
temperature to preserve them in an optimal state. Many of the other 
artifact collections in the Army museum system, some 107 museums and 
historical holdings throughout the world, have less effective 
preservation means at their disposal, but the U.S. Army Center of 
Military History constantly monitors their status and assists in their 
preservation to the extent permitted by always scarce resources. No 
significant collections are currently at risk. As for document and 
photograph holdings, the Army Heritage and Education Center and its 
component Military History Institute, which are part of the Army War 
College at Carlisle Barracks, Pennsylvania, serve as the Army's 
principle archives for non-official records, photographs, and 
documents. Those items are housed in a facility with temperature and 
humidity controlled space specifically designed for such collections.
    We believe that our service history and heritage is worth 
preserving. Our service history is the thread that connects our 
soldiers to those who have preceded them. It forms the foundation for 
all of our soldiers. As such, our service history and heritage is 
eminently worth preserving for future generations of soldiers and 
Americans to enjoy and become inspired.
    As noted, the December 2011 Navy IG report identified significant 
facilities issues at NHHC, particularly at its headquarters at the 
Washington Navy Yard. Since November 2011 the command has engaged in 
removing its most at-risk collections to environmentally adequate 
locations, and where that is not possible, has worked with the local 
public works office to perform repairs to provide adequate 
environmental conditions for particular collections. (CNIC) has 
provided funding to develop a facilities plan to ultimately house NHHC 
HQ's collections in fully compliant facilities. [NHHC cannot provide 
information on Marine Corps, Air Force, and Army facilities.]
    The Navy's history and heritage is worth preserving. Information 
about past naval operations is valuable not only to historians, but to 
modern-day naval decisionmakers and to our future naval leaders. In 
addition, naval history provides an important reminder to the American 
people about the timeless maritime nature of this country and its 
economy, and therefore of the necessity of a strong Navy to protect it. 
Historical artifacts provide a direct connection to past events that 
complements documentary history, and for some audiences is a more 
effective vehicle for telling the Navy's story. Historical items--
archives, artifacts, artwork, photographs, digital media--require 
careful management if they are to relate the Navy's history to future 
generations of citizens and scholars. Appropriate facilities are a 
fundamental necessity for proper stewardship of these important and in 
some cases irreplaceable resources.
    The Marine Corps takes considerable pride in our heritage and is 
invested in preserving our historical records, photographs, oral 
histories, and objects related to that heritage. These items inform the 
training and education of our Marines, and provide material and 
information that can be applied to new programs, such as weapons and 
uniforms. Marine Corps heritage is an organizing principal and source 
of information necessary for scholarly efforts within the formal 
schools, including the Marine Corps War College. Historical collections 
also assist in developing written histories, case studies, and student 
master's theses, all of which are published by Marine Corps University. 
Further, the pictorial, written, and material history of the Corps is 
used to support outreach and recruitment efforts necessary to maintain 
good public relations and a well-staffed force.
    In 2006, the Marine Corps Heritage Foundation opened the National 
Museum of the Marine Corps, a state-of-the-art facility that is the 
centerpiece of the Marine Corps Heritage Center. This facility houses 
approximately 10 percent of the total collection. While the majority of 
the Marine Corps' historical objects, including our records and 
photographs, are stored in satisfactory conditions at Marine Corps Base 
Quantico and at other locations, the Marine Corps houses some objects 
in spaces with inadequate temperature and humidity controls. To the 
extent possible, items stored in less-than-ideal conditions include 
more durable objects, such as ground vehicles and aircraft. Works of 
art are in excellent storage at a rental facility near the Museum.
    The Marine Corps has developed a comprehensive long-range plan for 
the care of its collections. Existing storage buildings have been 
improved in recent years and will continue to be maintained. Some of 
these have potential to be further improved to provide long-term 
solutions; however, there remains a requirement for additional climate-
controlled space to house collections and provide work space for 
conservators. A large museum support facility has been recommended as a 
potential solution. Marine Corps Base Quantico and the Museum are 
working proactively on interim solutions that promise improved 
conditions and accessibility. The Marine Corps Heritage Foundation 
remains committed to building a second and final phase of the National 
Museum, which will extend the Marine Corps story from Beirut to 
Afghanistan and provide a home for some additional artifacts and works 
of art. The Marine Corps remains committed to preserving our history 
and heritage that we have invested so much in since 1775.
    Question. The competition for the C17 Globemaster's F117 engine 
sustainment supply chain fails to apply better buying guidelines to 
gain readily apparent savings. This engine is more than 90 percent 
common with the commercial PW2000 engine family, yet the United States 
Air Force (USAF) has neither accepted Federal Aviation Administration 
(FAA) certifications for common repairs and parts, nor established a 
source approval request (SAR) process to review and certify alternative 
sources to enable competition, despite informing the Congress that it 
has had the F117 maintenance technical data via a General Terms 
Agreement with the OEM since last December. Consequently, the USAF has 
essentially disqualified alternative vendors, since the OEM remains the 
only approved source. The annual savings from competing the F117 supply 
chain would likely be $200 million per year; yet, the USAF's 
sustainment strategy would gain no efficiencies from supply chain 
competition until 2018.
    What process is being used to identify and pursue opportunities for 
efficiencies, such as competition for the F117 supply chain, and how 
did this program escape oversight for cost accountability by the USAF 
and OSD?
    Answer. In the case of the F117 (C-17) engine, officials of the 
Office of the Under Secretary of Defense for Acquisition, Technology 
and Logistics (AT&L) participated in reviews of the proposed costs and 
negotiation strategy for C-17 sustainment. In the process of doing so, 
AT&L learned of the Air Force's plan to break out engine sustainment 
into a separate contract from the Boeing Globemaster III Integrated 
Sustainment Program in order to reduce costs. While current acquisition 
plans call for the transition to competition for overhaul and supply 
chain management of F117 in the 2016 to 2018 timeframe, the Department 
is exploring opportunities to reduce costs further by accelerating the 
transition. The Department is working to improve the opportunity for 
competition and improved cost oversight of C-17 sustainment.
    Question. Has OSD evaluated whether a more robust and immediate SAR 
process could result in greater savings for the Air Force?
    Answer. As part of the ongoing Office of the Secretary of Defense 
review of the acquisition strategy for F117 sustainment, the Department 
is reviewing the Air Force Source Approval Request process to seek 
opportunities for greater savings.
    Question. Has OSD evaluated the savings associated with 
accelerating competition for F117 repairs and parts ahead of the Air 
Force's proposed timeline, which unnecessarily accepts the OEM as the 
only qualified supply chain source for at least the next 5 years?
    Answer. The Department is exploring opportunities to reduce costs 
by accelerating the transition to a competitive engine overhaul and 
supply chain management construct.
    Question. The Senate version of the fiscal year 2013 National 
Defense Authorization Act (NDAA) as reported by the Senate Armed 
Services Committee contains a bipartisan provision requiring you to 
submit a report detailing the effects of budget sequestration on DOD by 
August 15. There is also a similar standalone bill in both the House 
and Senate that would require similar transparency concerning the 
scheduled sequestration for both defense and non-defense cuts.
    Do you support this reporting requirement in the Defense 
authorization bill to allow a full understanding where the defense cuts 
will occur and to what degree?
    If the Defense authorization bill has not yet been enacted by 
August, would you pledge to still submit such a report to the Congress 
by August?
    Answer. The Department has no official comment about this 
particular legislation pending before the Congress.
    Question. Absent the provision in the fiscal year 2013 NDAA bill 
and the freestanding bills in the House and Senate that would provide 
important transparency about such cuts, do you currently have this 
level of detail internally at DOD now that we are less than 6 months 
away from these cuts being carried out?
    Answer. The Department has no official comment about this 
particular legislation pending before the Congress. While the Office of 
Management and Budget (OMB) has not yet officially engaged agencies in 
planning, the OMB staff is conducting the analyses needed to move 
forward if necessary. Should it reach the point where it appears the 
Congress does not do its job and the sequester may take effect, OMB, 
DOD, and the entire administration will be prepared.
                                 ______
                                 
            Questions Submitted to General Martin E. Dempsey
                Question Submitted by Senator Tom Harkin
    Question. General Dempsey, the Department of Defense (DOD) has 
become increasingly concerned over the past few years regarding our 
military's dependence on petroleum-based fuels. These concerns relate 
to both the ready availability of fuels during times of conflict, and 
to the increasing costs of such fuels.
    For example, it's been reported that the Pentagon spent $17.3 
billion on petroleum in 2011, a 26-percent increase from the previous 
year with practically no change in the volume purchased.
    It's also been reported that for every $0.25 increase in the price 
of jet fuel, the DOD must come up with an extra $1 billion annually.
    Relative to future supplies and prices, we can all see that global 
fuel demands will continue to increase steadily as the economies of the 
BRIC nations--Brazil, Russia, India, and China--and similar nations 
grow and demand more fuel for transportation and industrialization.
    Obviously, some of our leaders in the Pentagon see these future 
threats as well, and I commend the Department of the Navy for signing a 
memorandum of understanding (MOU) with the Department of Energy (DOE) 
and with United States Department of Agriculture (USDA) for the 
development of commercial biofuels production capabilities. I 
understand that under this MOU, the DOD intends to fund multiple drop-
in biofuel production facilities under the Defense Production Act.
    Could you please speak to DOD's long-term strategy for assuring 
future fuels supplies and the role that you believe domestic biofuels 
can and should play in that? More specifically, could you comment on 
the role that this joint Navy/DOE/USDA procurement activity plays in 
DOD's longer term fuels security strategy?
    Answer. DOD's strategy for operational energy is focused on 
ensuring our armed forces have the energy resources required to meet 
21st century security challenges. Our strategy includes efforts 
designed to reduce demand, protect, and secure access to energy 
supplies and to integrate operational energy considerations into the 
full range of planning and force development activities. Each of our 
services recognizes the important role energy plays in support of 
national security and is pursuing initiatives designed to better 
understand how much energy is being consumed, where, and for what 
purposes in order to reduce demand and minimize risk to the warfighter.
                                 ______
                                 
                Question Submitted by Senator Herb Kohl
    Question. To help with this transition, we are expanding job 
training programs for veterans and studying how military skills can be 
maximized in civilian occupations.
    General Dempsey, the programs available to troops transitioning to 
civilian life are spread out across several different Federal agencies. 
How is the Department of Defense (DOD) making sure that servicemembers 
know how to access the programs that are available to them when they 
leave the military?
    Answer. The Department has many efforts to ensure our 
servicemembers know how to access transition programs. Three such 
noteworthy efforts are:
      The Transition Assistance Program Re-Design.--The new re-designed 
        Transition Assistance Program (TAP) provides an individualized, 
        servicemember specific series of modules that assist the 
        servicemember in preparing for civilian life. It also includes 
        our interagency partner's aid in preparing all servicemembers 
        for a successful transition into our Nations' communities and 
        their civilian life.
      The Presidential Task Force.--In August 2011, the President 
        called for the creation of a Task Force led by the DOD and 
        Veterans Administration, with the White House economic and 
        domestic policy teams and other agencies, including Department 
        of Labor to develop proposals to maximize the career readiness 
        of all servicemembers. The vision of moving TAP from an end of 
        career event to the Military Life Cycle was used as a partial 
        response to President Obama's call to improve education and 
        training of military members to make them career ready. On 
        December 27, 2011, the Task Force submitted a report outlining 
        and conceptualizing its 28 recommendations to improve the 
        career readiness of military members. The President accepted 
        the recommendations and encouraged the Task Force and the 
        agencies to carry forward in implementing the recommended 
        programs.
      Long-Term Goal.--The Department's long-term aim of the new 
        transition service delivery model is to embed the 
        servicemembers' preparation for transition throughout their 
        military lifecycle--from accession through separation, from 
        service and reintegration, back into civilian life. This will 
        require thoughtful goal setting and planning to apply military 
        experience to longer term career goals in the civilian sector, 
        whether after a single enlistment term or a 20-plus year 
        military career. Servicemembers and military leadership will be 
        engaged in mapping and refining development plans to achieve 
        post-military service goals--a significant culture change.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                       airstrikes in afghanistan
    Question. General Dempsey, on June 12 in Afghanistan, President 
Karzai clarified his position on airstrikes stating ``. . . an 
agreement has been reached clearly with NATO that no bombardment of 
civilian homes is allowed for any reason'', that coalition forces could 
not use airstrikes ``even when they are under attack.'' Is this the 
correct interpretation of the agreement with Afghanistan? And how does 
this impact our ability to protect our forces who come under fire?
    Answer. As always, Afghan and coalition forces retain the inherent 
right to use aerial munitions in self-defense if no other options are 
available. On June 12, 2012, the Commander, International Security 
Assistance Force and United States Forces-Afghanistan, gave the order 
to coalition forces that no aerial munitions be delivered against 
civilian dwellings with the exception of the self-defense provision. 
This order was in accordance with an understanding made with Afghan 
President Hamid Karzai. This measure was taken to protect the lives of 
Afghan civilians.
                 amphibious warships--operational risk
    Question. General Dempsey, as you are putting together your 
thoughts to address my question on the level of risk being assumed with 
amphibious lift capability and capacity, it might be helpful to the 
subcommittee if you touch on operational availability. Again, the Navy 
and Marine Corps agreed on a fiscally constrained minimum force of 33 
amphibious warships to meet a 38 amphibious warship force requirement. 
Currently, there are 29 ships in the Navy's amphibious fleet, and a 
common planning factor is that 10 to 15 percent of warships are in 
overhaul and unavailable at any given time. Just doing the straight 
math, it is obvious that the number of operationally available ships is 
well below the requirement acknowledged by the Department of the Navy. 
What other class of warship is the Department accepting this level of 
risk? And if any, are those ships in as high demand by the combatant 
commanders? Secretary Panetta talked to the agility of these ships; I 
understand that the combatant commanders ask for these ships because 
they are agile and can address a multitude of missions and situations.
    Answer. Each year, the combatant commanders submit force 
requirements to my staff, which include capabilities that reside in all 
services. These requirements, in total, routinely exceed the services' 
capacity to meet them. Within the Navy, this includes not only demand 
for amphibious platforms, but also aircraft carriers, cruiser/
destroyers, coastal patrol boats, and frigates. The strategic risk 
associated with these capacity shortfalls is balanced among the 
combatant commanders based upon Secretary of Defense policy and 
guidance, which reflect the National Military Strategy. In general, the 
military sizes to strategy-based requirements, not on operational 
availability. It manages availability based on threat.
    Specific to the issue of amphibious ship capacity, the Navy remains 
committed to providing 30 operationally available amphibious ships to 
meet Naval amphibious ship demand. With some risk, 30 amphibious 
landing ships can support a two-Marine Expeditionary Brigade (MEB) 
forcible entry operation. This force accepts risk in the arrival of 
combat support and combat service support elements of the MEB, but this 
risk is appropriately balanced with the risk in a wide range of other 
important warfighting requirements within today's fiscal limitations.
    Navy can achieve this operational availability goal by sustaining 
an inventory of about 32 amphibious ships in the mid to long-term. The 
32-ship amphibious force being procured to meet this need will 
optimally be comprised of 11 LHA/D, 11 LPD 17, and 10 LSD. To support 
routine forward deployments of Marine Expeditionary Units (MEUs), the 
amphibious force will be organized into nine, three-ship CONUS based 
Amphibious Ready Groups (ARGs), and one four-ship ARG based in Japan, 
with an additional big-deck amphibious ship available to support 
contingency operations worldwide. Two LSDs will be taken out of 
commission and placed in reserve status allowing Navy to reconstitute 
an eleventh ARG as required in the future, or to build up the number of 
ships in the active inventory, if necessary.
                                 ______
                                 
               Question Submitted by Senator Daniel Coats
    Question. Why is there no definition of ``victory'' in Joint 
Publication (JP) 1-02: Department of Defense Dictionary of Military and 
Associated Terms?
    Answer. JP 1-02 supplements common English-language dictionaries 
with standard terminology for military and associated use. The term 
``victory'' does not require inclusion in JP 1-02 because it is 
adequately defined by Merriam-Webster as:
    1. The overcoming of an enemy or antagonist.
    2. Achievement of mastery or success in a struggle or endeavor 
against odds or difficulties.

                         CONCLUSION OF HEARINGS

    Senator Murray. I would put the subcommittee into recess 
until Senator Shelby appears.
    Secretary Panetta. We aren't going anyplace.
    Senator Murray. Good. You want to meet now, Mr. Secretary?
    Thank you very much. And with that, the subcommittee is in 
recess until Senator Shelby arrives. Thank you very much.
    [Whereupon, at 12:30 p.m., Wednesday, June 13, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
.................................................................



       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Alexander, Senator Lamar, U.S. Senator From Tennessee:
    Questions Submitted by.......................................   139
    Statements of.........................................120, 327, 346
Amos, General James F., Commandant, United States Marine Corps, 
  Office of the Secretary, Department of the Navy, Department of 
  Defense........................................................    33
    Prepared Statement of........................................    34
    Question Submitted to........................................    91
Arthritis Foundation, Prepared Statement of the..................   556

Binns, James, Chairman of Research Advisory Committee on Gulf War 
  Veterans' Illnesses, Prepared Statement of.....................   562

Castaldo, Anthony, President, U.S. Hereditary Angioedema 
  Association....................................................   465
    Prepared Statement of........................................   467
Coane, Rear Admiral Casey, United States Navy (Retired), 
  Executive Director, Association for the United States Navy.....   545
    Prepared Statement of........................................   546
Coats, Senator Daniel, U.S. Senator From Indiana:
    Questions Submitted by......................147, 207, 446, 630, 635
    Statements of...............................................59, 122
Cochran, Senator Thad, U.S. Senator From Mississippi:
    Questions Submitted by.......................................   87,
                        90, 137, 210, 305, 312, 318, 379, 381, 385, 634
    Statements of...................2, 96, 150, 216, 326, 347, 455, 566
Collins, Senator Susan, U.S. Senator From Maine:
    Questions Submitted by.................................87, 205, 212
    Statement of.................................................    68
Connor, Captain Charles D., United States Navy (Retired), 
  President and Chief Executive Officer, American Lung 
  Association....................................................   488
    Prepared Statement of........................................   490
Corash, Laurence, M.D., Chief Medical Officer, Cerus Corporation.   535
    Prepared Statement of........................................   537
Curie, Hon. Charles, Member, National Board of Directors and 
  Public Policy Council, American Foundation for Suicide 
  Prevention.....................................................   485
    Prepared Statement of........................................   486

Davis, John R., Director, Legislative Programs, Fleet Reserve 
  Association....................................................   522
    Prepared Statement of........................................   523
Davis, Major General Andrew, United States Marine Corps 
  (Retired), Executive Director, Reserve Officers Association of 
  the United States..............................................   505
    Prepared Statement of........................................   507
Debbink, Vice Admiral Dirk J., Chief, Navy Reserve, United States 
  Navy, Department of Defense....................................   387
    Prepared Statement of........................................   388
    Questions Submitted to.......................................   442
Dempsey, General Martin E., Chairman, Joint Chiefs of Staff, 
  Department of the Army, Office of the Secretary, Department of 
  Defense........................................................   582
    Prepared Statement of........................................   584
    Questions Submitted to.......................................   633
Donley, Michael B., Secretary, Office of the Secretary, 
  Department of the Air Force, Department of Defense.............    95
    Prepared Statement of........................................    99
    Questions Submitted to.......................................   131
Durbin, Senator Richard J., U.S. Senator From Illinois, Questions 
  Submitted by...................................................   617

Eckerle, Dr. Wayne A., Vice President, Research and Technology, 
  Cummins Inc., Prepared Statement of............................   560

Feinstein, Senator Dianne, U.S. Senator From California:
    Questions Submitted by..................80, 132, 304, 308, 314, 619
    Statement of.................................................   126

Ginyard, Robert, Member, Board of Directors, Zero--The Project To 
  End Prostate Cancer............................................   495
    Prepared Statement of........................................   497
Goraleski, Karen, Executive Director, American Society of 
  Tropical Medicine and Hygiene..................................   517
    Prepared Statement of........................................   518
Graham, Senator Lindsey, U.S. Senator From South Carolina, 
  Questions Submitted by........................................88, 146
Green, Lieutenant General Charles B., Surgeon General, Department 
  of the Air Force, Department of Defense........................   215
    Prepared Statement of........................................   219
    Questions Submitted to.......................................   303
    Summary Statement of.........................................   217
Greenert, Admiral Jonathan W., Chief of Naval Operations, Office 
  of the Secretary, Department of the Navy, Department of Defense    18
    Prepared Statement of........................................    21
    Questions Submitted to.......................................    89

Hale, Hon. Robert F., Under Secretary of Defense, Comptroller, 
  Office of the Secretary, Department of Defense.................   565
Hanson, Captain Marshall A., United States Navy (Retired), Acting 
  Chairman, Associations for America's Defense...................   499
    Prepared Statement of........................................   500
Harkin, Senator Tom, U.S. Senator From Iowa, Questions Submitted 
  by......................................................131, 615, 633
Haubner, Mark, Arthritis Foundation..............................   554
Hesdorffer, Mary, ARNP, MSN, Mesothelioma Applied Research 
  Foundation.....................................................   528
    Prepared Statement of........................................   530
Hicks, Lieutenant Colonel Carl, United States Army (Retired), 
  Pulmonary Hypertension Association.............................   468
    Prepared Statement...........................................   469
Horoho, Lieutenant General Patricia, Surgeon General, Department 
  of the Army, Department of Defense.............................   236
    Prepared Statement of........................................   239
    Questions Submitted to.......................................   312
Hummer, Lieutenant General Steven A., Director, Reserve Affairs, 
  United States Marine Corps, Department of Defense..............   415
    Prepared Statement of........................................   417
    Questions Submitted to.......................................   449
Hutchinson, Senator Kay Bailey, U.S. Senator From Texas:
    Questions Submitted by......................205, 212, 379, 383, 385
    Statement of.................................................   124

Ingram, Lieutenant General William E., Jr., Director, Army 
  National Guard, Department of Defense..........................   356
    Prepared Statement...........................................   357
    Questions Submitted to.......................................   383
Inouye, Chairman Daniel K., U.S. Senator From Hawaii:
    Opening Statements of..............95, 149, 215, 325, 345, 455, 565
    Prepared Statement of........................................   150
    Questions Submitted by.................................78, 91, 303,
       306, 360, 318, 320,  322, 341, 377, 380, 383, 442, 447, 449, 452
Isaacs, Stephen T., Chairman and Chief Executive Officer, Aduro 
  Biotech........................................................   531
    Prepared Statement of........................................   533

Johnson, Senator Tim, U.S. Senator From South Dakota:
    Questions Submitted by.......................................   136
    Statement of.................................................   123
Keenan, Major General Jimmie O., Chief, Army Nurse Corps, 
  Department of the Army, Department of Defense..................   288
    Prepared Statement of........................................   289
    Questions Submitted to.......................................   322
Kohl, Senator Herb, U.S. Senator From Wisconsin:
    Questions Submitted by.................135, 203, 207, 384, 628, 633
    Statement of.................................................    67

Linde, Dee, Patient Advocate, Dystonia Advocacy Network..........   476
    Prepared Statement of........................................   477

Mabus, Hon. Ray, Secretary of the Navy, Office of the Secretary, 
  Department of the Navy, Department of Defense..................     1
    Prepared Statement of........................................     4
    Questions Submitted to.......................................    78
    Summary Statement of.........................................     2
McCauslin, Chief Master Sergeant John R. ``Doc'', United States 
  Air Force (Retired), Chief Executive Officer, Air Force 
  Sergeants Association..........................................   455
    Prepared Statement of........................................   457
McConnell, Senator Mitch, U.S. Senator From Kentucky, Questions 
  Submitted by............................................204, 211, 628
McHugh, Hon. John M., Secretary, Department of the Army, Office 
  of the Secretary, Department of Defense........................   149
    Prepared Statement of........................................   153
    Questions Submitted to.......................................   202
    Summary Statement of.........................................   151
McKinley, General Craig R., Chief, National Guard Bureau, 
  Department of Defense..........................................   345
    Prepared Statement of........................................   349
    Questions Submitted to.......................................   377
    Summary Statement of.........................................   347
Mikulski, Senator Barbara A., U.S. Senator From Maryland:
    Opening Statements of........................................     1
    Questions Submitted by........................81, 89, 202, 309, 315
    Statement of.................................................   216
Murkowski, Senator Lisa, U.S. Senator From Alaska:
    Questions Submitted by..............................88, 90, 92, 140
    Statements of...............................................63, 129
Murray, Senator Patty, U.S. Senator From Washington:
    Questions Submitted by.....................................204, 208
    Statement of.................................................   262

Nathan, Vice Admiral Matthew L., Surgeon General, Department of 
  the Navy, Department of Defense................................   225
    Prepared Statement of........................................   227
    Questions Submitted to.......................................   306
Nevin, Remington, M.D., MPH, Mefloquine Research.................   557
    Prepared Statement of........................................   558
Niemyer, Rear Admiral Elizabeth S., Director, Navy Nurse Corps, 
  Department of the Navy, Department of Defense..................   277
    Prepared Statement of........................................   279
    Questions Submitted to.......................................   320

O'Reilly, Lieutenant General Patrick J., Director, United States 
  Army, Missile Defense Agency, Department of Defense............   325
    Prepared Statement of........................................   329
    Questions Submitted to.......................................   341
    Summary Statement of.........................................   327
Odierno, General Raymond T., Chief of Staff, Department of the 
  Army, Office of the Secretary, Department of Defense...........   176
    Prepared Statement of........................................   153
    Questions Submitted to.......................................   207

Panetta, Hon. Leon E., Secretary, Office of the Secretary of 
  Defense, Department of Defense.................................   565
    Prepared Statement of........................................   573
    Questions Submitted to.......................................   615
    Summary Statement of.........................................   566
Pollak, Andrew N., M.D. Treasurer, American Association of 
  Orthopaedic Surgeons...........................................   551
    Prepared Statement of........................................   552

Reed, Senator Jack, U.S. Senator From Rhode Island, Statement of.    58

Schwartz, General Norton A., Chief of Staff, Office of the 
  Secretary, Department of the Air Force, Department of Defense..   118
    Questions Submitted to.......................................   131
Shelby, Senator Richard C., U.S. Senator From Alabama, Statements 
  of............................................................62, 326
Simha, Joy, Member, Board of Directors, National Breast Cancer 
  Coalition......................................................   478
    Prepared Statement of........................................   480
Siniscalchi, Major General Kimberly A., Assistant Surgeon General 
  for Nursing Services, Department of the Air Force, Department 
  of Defense.....................................................   266
    Prepared Statement of........................................   268
    Questions Submitted to.......................................   318
Smith, Danny L., United States Army (Retired), Scleroderma 
  Foundation.....................................................   473
    Prepared Statement of........................................   474
Smith, Sharon, Executive Director, National Trauma Institute.....   539
    Prepared Statement of........................................   541
Stenner, Lieutenant General Charles E., Jr., Chief, Air Force 
  Reserve, United States Air Force, Department of Defense........   430
    Prepared Statement of........................................   432
    Questions Submitted to.......................................   452
Strickland, William J., Ph.D., American Psychological Association   491
    Prepared Statement of........................................   492
Stultz, Lieutenant General Jack, Chief, Army Reserve, United 
  States Army, Department of Defense.............................   395
    Questions Submitted to.......................................   447

Thompson, F. Neal, Treasurer, Board of Directors, Interstitial 
  Cystitis Association...........................................   471
    Prepared Statement of........................................   472

Vink, Elisabeth, Program Assistant, International Foundation for 
  Functional Gastrointestinal Disorders..........................   462
    Prepared Statement of........................................   464

Wyatt, Lieutenant General Harry M., III, Director, Air National 
  Guard, Department of Defense...................................   352
    Prepared Statement of........................................   353
    Questions Submitted to.......................................   380


                             SUBJECT INDEX

                              ----------                              

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

                                                                   Page

Additional Committee Questions...................................   131
Air Force Core Functions.........................................   109
C-27J Versus C-130 Operational Costs.............................   138
C-130 Move From Fort Worth.......................................   124
Constrained Resources, Adapting to...............................   103
Eielson Air Force Base...........................................   129
Evolved Expendable Launch Vehicle Competition....................   127
F-16 to F-15 Conversion at Fresno................................   126
Global Hawk......................................................   132
Joint Base Elmendorf Environmental Analysis......................   130
Light Attack Support Procurement.................................   137
MC-12............................................................   135
New Defense Strategic Guidance, Realignment to the...............   101
Strategic Environment............................................   100

                         Department of the Army

                        Office of the Secretary

Additional Committee Questions...................................   202
Advanced Hypersonic Weapon.......................................   190
Alaska, U.S. Army in.............................................   197
All-Volunteer Army...............................................   181
America's Army:
    Implications for.............................................   156
    The Nation's Force of Decisive Action........................   154
Armed Aerial Scout Helicopter....................................   210
Aviation Modernization...........................................   189
Behavioral Health Re-Evaluation..................................   191
Brigade Combat Team:
    Elimination of Army..........................................   211
    Inactivation of the 172nd Heavy..............................   205
CH-47 Chinook Helicopter, Multiyear Contract for the.............   205
Common Remotely Operated Weapons Station.........................   213
Depots...........................................................   188
Electronic Medical Records.......................................   204
End-Strength Reduction Risk Mitigation...........................   179
Evaluations, Medical and Disability..............................   206
Fiscal Environment...............................................   155
Focus Areas:
    Army.........................................................   177
    The Army's...................................................   157
Force Structure..................................................   186
Global Strategy, Army............................................   176
High-Demand Soldiers Dwell Time..................................   212
Intra-Theater Lift.............................................181, 198
Ireland Army Community Hospital at Fort Knox, Replacement of.....   204
Leaner Army, A...................................................   158
Missile Defense..................................................   189
Modernization....................................................   178
    Aviation.....................................................   189
Movement Tracking System/Blue Force Tracking.....................   202
National Defense, Army Role for..................................   201
Overseas Contingency Operations..................................   207
Post-Deployment/Mobilization Respite Absence Program.............   207
Post-Traumatic Stress Disorder and Traumatic Brain Injury........   204
Posture Statement, 2012 Reserve Component Addendum to the Army...   164
Responsible Stewardship..........................................   157
Security Environment.............................................   156
Sequestration..................................................183, 194
Strategic Context, The...........................................   153
Stress on the Force..............................................   184
Suicide..........................................................   200
    Hiring of Behavioral Health Specialists......................   206
    Vest Detection...............................................   212
Tactical Fuel Systems............................................   210
Transition:
    2011--The Army in............................................   154
    Out of the Military, Preparing Soldiers for the..............   208
Traumatic Brain Injury, Post-Traumatic Stress Disorder and.......   204
United States Military Academy at West Point Board of Visitors...   182
Vehicles:
    High-Mobility Multipurpose Wheeled...........................   203
    Light Tactical...............................................   195
    Medium Expanded Capability...................................   205
    MQ-8B Fire Scout Unmanned Aerial.............................   210
    Tactical Wheeled, Strategy...................................   203

                         Department of the Navy

                        Office of the Secretary

Additional Committee Questions...................................    78
Air-Sea Battle...................................................    10
Alaska...........................................................    94
Amphibious:
    Combat Vehicle...............................................    91
    Ship Requirements............................................    73
Arctic Operations................................................    64
Bases, Stations, and Support Facilities, Providing Capable.......    49
Biofuels.........................................................79, 90
Broad Area Maritime Surveillance--Global Hawk....................    80
Budget:
    For Fiscal Year 2013 Shaped by Three Main Priorities of the 
      Chief of Naval Operations, President's.....................    25
    Highlights, Fiscal Year 2013.................................    37
    Submission, Fiscal Year 2013.................................     5
DDG-51...........................................................    87
    Program......................................................    69
DDG-1000 Program.................................................    68
Department of Defense and Navy's Turning Point--and the Need for 
  a New Strategy.................................................    28
Electromagnetic Aircraft Launching System........................    89
End-Strength Reductions..........................................    78
Energy Initiatives...............................................    88
F-35 Test and Evaluation.........................................    84
First Principles, Establishing...................................    23
Force Size and Deployment Impact.................................    74
Future, We Have Worked Diligently to Prepare for the.............    42
History and Background...........................................    92
Individual Training..............................................    93
Investments Support the Department's Most Important Missions, Our 
  Fiscal Year 2013...............................................    30
Joint:
    High Speed Vessel Procurement................................    62
    Pacific Alaska Range Complex.................................    90
    Strike Fighter...............................................    80
LHA 8 Amphibious Assault Ship....................................    87
Law of the Sea...................................................     8
Littoral Combat Ship:
    Mission Module Readiness.....................................    63
    Procurement Program..........................................    67
Marine:
    Corps:
        Cold Weather Training....................................    92
        Drawdown, United States..................................    82
    The Indomitable Spirit of the U.S............................    34
Marines:
    In the Future Security Environment, The Role of..............    38
    Investing in the Education and Training of Our...............    50
    Sailors, and their Families, Keeping Faith With..............    51
Mission..........................................................    92
Naval:
    Force:
        Capabilities/Needs.......................................    57
        Needs....................................................    56
    Operations in 2011...........................................     8
Navy:
    And What We Believe, My Guidance for the.....................    24
    Fleet Size and Capability....................................    70
    Has Been Important to Our Nation's Security and Prosperity, 
      The........................................................    21
    Turning Point--and the Need for a New Strategy, Department of 
      Defense and................................................    28
New Defense Strategic Guidance, Evaluating Impacts of the........    32
Next Generation Enterprise Network...............................    88
Ohio-Class Submarine Program.....................................    58
Priorities:
    Departmental.................................................    11
    Our..........................................................    43
Sequestration Impact.............................................    60
Servicemember Transition:
    Assistance...................................................    77
    Programs.....................................................    76
Sexual Assault Prevention Programs...............................    65
Shipbuilding Production Rates....................................    90
Ultra High Frequency Satellite Fleet.............................    85
Unit Training....................................................    92
Virginia-Class Submarine Procurement.............................    58
USNS Comfort.....................................................    81
    Relocation...................................................    70

                        Medical Health Programs

Addiction to Prescriptions.......................................   317
Additional Committee Questions...................................   302
Advancing a Culture of Inquiry...................................   275
Army:
    Medicine and Health Service Support, Innovate................   243
    Profession, Support the......................................   249
Body, Mind, and Spirit, Healing in...............................   229
Care Experience..................................................   241
    Enhancing the................................................   292
Corps Chief Position Legislative Proposal........................   312
Deployable Capability, Transform.................................   219
Develop Leaders..................................................   249
Education:
    Force Multipliers: Research and Development and Graduate 
      Medical....................................................   233
    Training, and Research, Invest in............................   223
Force:
    Development..................................................   271
    Health Protection, Our Mission is............................   228
    Management...................................................   273
    Multipliers: Research and Development and Graduate Medical 
      Education..................................................   233
    Support the..................................................   239
Global Operations................................................   268
Health Service Support...........................................   296
    Innovate Army Medicine and...................................   243
Hyperbaric Oxygen Therapy.................................305, 312, 318
Information Management/Communication.............................   287
Interoperability and Collaborative Engagement....................   234
Medical:
    Home.........................................................   314
        Port: Patient- and Family-Centered Care..................   229
    Pain Management..............................................   310
    Professionals, Recruitment and Retention of..................   313
Mefloquine................................................304, 308, 314
Mental Health Care Provider Gap..................................   316
Military:
    Health System................................................   314
        Structure................................................   308
    Medical Program Funding......................................   256
New Challenges...................................................   237
Nonmedical Caregivers............................................   309
    Support for..................................................   315
Nurse:
    Case Management..............................................   301
    Corps:
        Chief Rank...............................................   306
        Rank, Chief............................................252, 298
        Training Army............................................   322
    Recruitment and Retention....................................   299
Nurses: Service Integration......................................   323
Nursing:
    Issues, Joint..............................................318, 320
    Knowledge/Clinical Excellence................................   284
    Leaders, Development of......................................   297
    Research.....................................................   285
        Issues.................................................319, 321
    Supporting the Force, Globally Ready.........................   289
Operational, Humanitarian, and Disaster Relief Support...........   279
Patient Care:
    Improve......................................................   288
    Touch System.................................................   322
Patient-Centered:
    Care.........................................................   274
        Build....................................................   220
    Medical Home...............................................319, 321
People--Our Most Important Asset.................................   235
Pharmacy Waiting Time............................................   306
Physician Staffing...............................................   307
Resources, Optimize..............................................   248
Strategic Partnerships...........................................   286
Suicide:
    Prevention...................................................   307
    Rate.........................................................   313
TRICARE..........................................................   313
    Fees.......................................................253, 306
Training Army Nurse Corps........................................   322
Transition From Wartime........................................320, 322
Unity of Effort..................................................   242
    Through Joint Teams and Coalition Partnerships...............   295
Way Ahead, The.................................................224, 277
Workforce, Our...................................................   283
Worldwide Influence..............................................   250
Wounded Warrior and Family Support Programs......................   259

                         Missile Defense Agency

Additional Committee Questions...................................   341
Developing New Capabilities......................................   333
Homeland Defense, Enhancing......................................   329
International Cooperation........................................   334
Missile Defense Capabilities, Additional.........................   332
Pacific Missile Range Facility...................................   341
Regional Defense, Enhancing......................................   331

                             National Guard

601st Air Operations Center......................................   382
Additional Committee Questions...................................   377
Aerospace Alert..................................................   371
Air Force:
    Budget.......................................................   362
    Force Structure..............................................   367
    Restructure..................................................   381
Air Guard:
    Force Structure Changes......................................   380
    Reserve Component Costing, Army and..........................   378
Air National Guard:
    The Future of the............................................   355
    Units, Alaska................................................   375
Air Operations Groups............................................   382
Army:
    And Air Guard--Reserve Component Costing.....................   378
    Guard Suicide Rates..........................................   383
    National Guard Installations--The Foundation of Readiness....   360
Bomb Squads......................................................   372
C-5 and C-17.....................................................   366
C-23.............................................................   376
Deployments: The Accessibility Advantage, Ready and Reliable.....   358
Domestic Operations..............................................   359
    Aviation's Role in...........................................   359
Funding Levels...................................................   365
Governors and Analysis, Role of..................................   373
High-Mobility Multipurpose Wheeled Vehicle.......................   370
Innovative Programs Leverage Our Range of Civilian Skills........   360
Intelligence, Surveillance, and Reconnaissance...................   369
National Guard, The:
    And Reserve Equipment Account................................   377
    Civil Support Teams...................................379, 381, 385
    Future of....................................................   373
    Security America Can Afford..................................   349
    Value and Unique Capabilities..............................351, 360
Operational Force for:
    Domestic and Overseas Missions, An....................350, 354, 358
    The 21st Century, Equipping an...............................   358
Reserve Component Equipment......................................   364
Southwest Border and A-10 Aircraft...............................   368
Sports Sponsorship...............................................   371
Suicide..........................................................   363
Support:
    For Airmen and Families......................................   355
    Of Soldiers and Their Families...............................   361
    Soldiers, Airmen, and Families...............................   351

                   Office of the Secretary of Defense

Additional Committee Questions...................................   615
Afghan Army......................................................   604
Afghanistan......................................................   621
    Airstrikes in................................................   634
    Counternarcotics.............................................   623
Air Force:
    And Navy Inventory...........................................   569
    Budget.......................................................   591
    In Alaska....................................................   610
Al-Qaeda Threats in Africa.......................................   625
All-Volunteer Force, Ensuring Quality of the.....................   579
Amphibious Warships--Operational Risk............................   634
Balanced Package, A..............................................   581
Budget...........................................................   597
    Air Force....................................................   591
    Defense....................................................567, 583
    Situation, Fiscal Year 2012..................................   582
    Strategy to Fiscal Year 2013.................................   574
Classified Operations............................................   606
Comfort..........................................................   597
Cyber............................................................   595
Defense:
    Budget.....................................................567, 583
    Contractors, Department of...................................   598
    Dollars, More Disciplined Use of.............................   575
    Strategy Review..............................................   574
Deployed Warfighters, Fully Supporting...........................   580
Disability Evaluation System.....................................   613
Discrimination...................................................   599
Evolved Expendable Launch Vehicle................................   627
Force Structure and Programs, Strategy-Driven Changes in.........   576
Global Military Operations.......................................   584
Gross Domestic Product...........................................   609
Ground Line of Communication.....................................   603
Healthcare Costs.................................................   571
Inspection System................................................   601
Investment, A Responsible........................................   586
National Guard and Reserve Units.................................   571
Navy Inventory, Air Force and....................................   569
North Atlantic Treaty Organization...............................   593
Nuclear Weapons..................................................   626
Post-Traumatic Stress Disorder...................................   612
    And Behavioral Health Cases..................................   615
Prescription Drug Abuse..........................................   627
Sequestration..............................572, 584, 588, 598, 607, 626
Shipbuilding.....................................................   602
Ships............................................................   589
South China Seas.................................................   620
Suicide..........................................................   611
Taiwan and F-16s.................................................   624
Transition, A Time of............................................   585
United States:
    Afghanistan Strategic Partnership Agreement, The.............   622
    Relationship with Pakistan...................................   619
Vision Research..................................................   618

                                Reserves

Achievements.....................................................   397
Active Force End-Strength Reductions and Potential Transition to 
  Reserve Forces.................................................   437
Additional Committee Questions...................................   441
Air Force Reserve--Force Structure Changes.......................   453
Army Reserve:
    2012 Posture Statement, The United States....................   396
    Commitments..................................................   401
    From Strategic to Operational, Transformation of.............   434
    Modernization................................................   436
    Snapshot.....................................................   413
    Soldiers and Economic Impact by the State....................   413
    Today's Readiness and Strategic Agenda, The Posture of the...   399
Army Reserved, Your..............................................   412
Budget Request: Where We Are Going, The Fiscal Year 2012.........   402
Citizen Airmen...................................................   434
Conclusion: The Force is in Good Hands...........................   412
Continuum of Service............................406, 442, 447, 449, 452
Cost-Effective Capability........................................   433
Equipment........................................................   421
Facilities.......................................................   424
Family Support and Yellow Ribbon Programs............445, 448, 451, 453
First Principles.................................................   389
Force Structure Changes, Air Force Reserve.......................   453
Health Services and Behavioral Health............................   426
Human Capital....................................................   402
Materiel.........................................................   411
Operational Command While Maintaining Strategic Reserve..........   432
Operational Reserve..............................................   417
    Utilizing the................................................   449
Personnel........................................................   420
Predictability...................................................   420
Quality of Life..................................................   428
Readiness........................................................   407
Ready Now--and Into the Future...................................   393
Reserve Equipment Shortfalls.........................443, 447, 450, 452
Sailors..........................................................   390
Services and Infrastructure......................................   409
Ship Building Program Adequacy...................................   441
Total Force, Providing Indispensable Capabilities to the.........   396
Training.........................................................   423
Transition:
    Assistance...................................................   437
    From Active to Army Reserve..................................   439
Wounded, Ill, and Injured Marines and Their Families, Supporting 
  Our............................................................   430

                                   - 

</pre></body></html>
